<html>
<title> - NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 113TH CONGRESS</title>
<body><pre>[Senate Hearing 113-611]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-611
 
NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 
                             113TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   on

                             NOMINATIONS OF

HON. MADELYN R. CREEDON; HON. BRAD R. CARSON; DR. WILLIAM A. LaPLANTE, 
  JR.; HON. ROBERT O. WORK; HON. MICHAEL J. McCORD; MS. CHRISTINE E. 
WORMUTH; MR. BRIAN P. McKEON; HON. DAVID B. SHEAR; MR. ERIC ROSENBACH; 
  GEN. PAUL J. SELVA, USAF; VADM MICHAEL S. ROGERS, USN; DR. LAURA J. 
   JUNOR; MR. GORDON O. TANNER; MS. DEBRA S. WADA; MS. MIRANDA A.A. 
 BALLENTINE; DR. MONICA C. REGALBUTO; ADM WILLIAM E. GORTNEY, USN; GEN 
    JOHN F. CAMPBELL, USA; LTG JOSEPH L. VOTEL, USA; GEN. JOSEPH F. 
DUNFORD, JR., USMC; MR. ROBERT M. SCHER; MS. ELISSA SLOTKIN; MR. DAVID 
  J. BERTEAU; MS. ALISSA M. STARZAK; AND ADM HARRY B. HARRIS, JR., USN

                               ----------                              

 JANUARY 16; FEBRUARY 25; MARCH 11; JUNE 19; JULY 10, 17; DECEMBER 2, 
                                  2014

                               ----------                              

         Printed for the use of the Committee on Armed Services

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]













                                                        S. Hrg. 113-611

NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 
                             113TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   on

                             NOMINATIONS OF

HON. MADELYN R. CREEDON; HON. BRAD R. CARSON; DR. WILLIAM A. LaPLANTE, 
  JR.; HON. ROBERT O. WORK; HON. MICHAEL J. McCORD; MS. CHRISTINE E. 
WORMUTH; MR. BRIAN P. McKEON; HON. DAVID B. SHEAR; MR. ERIC ROSENBACH; 
  GEN. PAUL J. SELVA, USAF; VADM MICHAEL S. ROGERS, USN; DR. LAURA J. 
   JUNOR; MR. GORDON O. TANNER; MS. DEBRA S. WADA; MS. MIRANDA A.A. 
 BALLENTINE; DR. MONICA C. REGALBUTO; ADM WILLIAM E. GORTNEY, USN; GEN 
    JOHN F. CAMPBELL, USA; LTG JOSEPH L. VOTEL, USA; GEN. JOSEPH F. 
DUNFORD, JR., USMC; MR. ROBERT M. SCHER; MS. ELISSA SLOTKIN; MR. DAVID 
  J. BERTEAU; MS. ALISSA M. STARZAK; AND ADM HARRY B. HARRIS, JR., USN

                               __________

 JANUARY 16; FEBRUARY 25; MARCH 11; JUNE 19; JULY 10, 17; DECEMBER 2, 
                                  2014

                               __________

         Printed for the use of the Committee on Armed Services


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.fdsys.gov/
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-919 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

  
  
  
  
  
  
  
  
  
  
  
  
  
  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                  (ii)














                                     
                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                            January 16, 2014

Nominations of Hon. Madelyn R. Creedon to be Principal Deputy 
  Administrator, National Nuclear Security Administration; Hon. 
  Brad R. Carson to be Under Secretary of the Army; and Dr. 
  William A. LaPlante, Jr., to be Assistant Secretary of the Air 
  Force for Acquisition..........................................     1

Statements of:

Creedon, Hon. Madelyn R., to be Principal Deputy Administrator, 
  National Nuclear Security Administration.......................     3
Carson, Hon. Brad R., to be Under Secretary of the Army..........     5
LaPlante, William A., Jr., Ph.D., to be Assistant Secretary of 
  the Air Force for Acquisition..................................     6

                           February 25, 2014

Nominations of Hon. Robert O. Work to be Deputy Secretary of 
  Defense; Hon. Michael J. McCord to be Under Secretary of 
  Defense (Comptroller); Ms. Christine E. Wormuth to be Under 
  Secretary of Defense for Policy; Mr. Brian P. McKeon to be 
  Principal Deputy Under Secretary of Defense for Policy; Hon. 
  David B. Shear to be Assistant Secretary of Defense for Asian 
  and Pacific Security Affairs; and Mr. Eric Rosenbach to be 
  Assistant Secretary of Defense for Homeland Defense............

Statements of:

Warner, Hon. John, U.S. Senator from the State of Virginia, 
  Retired........................................................   155
Nunn, Hon. Sam, U.S. Senator from the State of Georgia, Retired..   159
Work, Hon. Robert O., to be Deputy Secretary of Defense..........   161
McCord, Hon. Michael J., to be Under Secretary of Defense 
  (Comptroller)..................................................   163
Wormuth, Ms. Christine E., to be Under Secretary of Defense for 
  Policy.........................................................   164
McKeon, Mr. Brian P., to be Principal Deputy Under Secretary of 
  Defense For Policy.............................................   165
Shear, Hon. David B., to be Assistant Secretary of Defense for 
  Asian and Pacific Security Affairs.............................   167
Rosenbach, Mr. Eric, to be Assistant Secretary of Defense for 
  Homeland Defense...............................................   168

                                  iii
                                  
                                  
                                  
                                  
                             March 11, 2014

Nominations of Gen. Paul J. Selva, USAF, for Reappointment to the 
  Grade of General and to be Commander, U.S. Transportation 
  Command; and VADM Michael S. Rogers, USN, to be Admiral and 
  Director, National Security Agency/Chief, Central Security 
  Services/Commander, U.S. Cyber Command.........................   431

Statements of:

Kirk, Hon. Mark, U.S. Senator from the State of Illinois.........   433
Selva, Gen. Paul J., USAF, for reappointment to the Grade of 
  General and to be Commander, U.S. Transportation Command.......   434
Rogers, VADM Michael S., USN, to be Admiral and Director, 
  National Security Agency; Chief, Central Security Services; and 
  Commander, U.S. Cyber Command..................................   435

                             June 19, 2014

Nominations of Dr. Laura J. Junor, to be Principal Deputy Under 
  Secretary of Defense for Personnel and Readiness; Mr. Gordon O. 
  Tanner, to be General Counsel of the Department of the Air 
  Force; Ms. Debra S. Wada, to be Assistant Secretary of the Army 
  for Manpower and Reserve Affairs; Ms. Miranda A.A. Ballentine, 
  to be Assistant Secretary of the Air Force for Installations, 
  Environment, and Energy; and Dr. Monica C. Regalbuto, to be 
  Assistant Secretary of Energy for Environmental Management.....   541

Statements of:

Junor, Laura J., to be Principal Deputy Under Secretary of 
  Defense for Personnel and Readiness............................   543
Tanner, Gordon O., to be General Counsel of the Department of the 
  Air Force......................................................   544
Wada, Debra S., to be Assistant Secretary of the Army for 
  Manpower and Reserve Affairs...................................   545
Ballentine, Miranda A.A., to be Assistant Secretary of the Air 
  Force for Installations, Environment, and Energy...............   545
Regalbuto, Monica C., to be Assistant Secretary of Energy for 
  Environmental Management.......................................   547

                             July 10, 2014

Nominations of ADM William E. Gortney, USN, for Reappointment to 
  the Grade of Admiral and to be Commander, U.S. Northern 
  Command/Commander, North American Aerospace Defense Command; 
  GEN John F. Campbell, USA, for Reappointment to the Grade of 
  General and to be Commander, International Security Assistance 
  Force/Commander, U.S. Forces, Afghanistan; and LTG Joseph L. 
  Votel, USA, to be General and Commander, U.S. Special 
  Operations Command.............................................   655

Statements of:

Gortney, ADM William E., USN, for Reappointment to the Grade of 
  Admiral and to be Commander, U.S. Northern Command/Commander, 
  North American Aerospace Defense Command.......................   658
Campbell, GEN John F., USA, for Reappointment to the Grade of 
  General and to be Commander, International Security Assistance 
  Force/Commander, U.S. Forces, Afghanistan......................   659
Votel, LTG Joseph L., USA, to be General and Commander, U.S. 
  Special Operations Command.....................................   660

                             July 17, 2014

Nomination of Gen. Joseph F. Dunford, Jr., USMC, for 
  Reappointment to the Grade of General and to be Commandant of 
  the Marine Corps...............................................   787

Statement of:

Dunford, Gen. Joseph F., Jr., USMC, for Reappointment to the 
  Grade of General and to be Commandant of the Marine Corps......   789

                            December 2, 2014

Nominations of Mr. Robert M. Scher to be Assistant Secretary of 
  Defense for Strategy, Plans, and Capabilities; Ms. Elissa 
  Slotkin to be Assistant Secretary of Defense for International 
  Security Affairs; Mr. David J. Berteau to be Assistant 
  Secretary of Defense for Logistics and Materiel Readiness; Ms. 
  Alissa M. Starzak to be General Counsel of the Department of 
  the Army; ADM Harry B. Harris, Jr., USN, for Reappointment to 
  the Grade of Admiral and to be Commander, U.S. Pacific Command.   859

Statements of:

Scher, Robert M., to be Assistant Secretary of Defense for 
  Strategy, Plans, and Capabilities..............................   862
Slotkin, Elissa, to be Assistant Secretary of Defense for 
  International Security Affairs.................................   863
Berteau, David J., to be Assistant Secretary of Defense for 
  Logistics and Materiel Readiness...............................   864
Starzak, Alissa M., to be General Counsel of the Department of 
  the Army.......................................................   865
Harris, ADM Harry B., Jr., USN, for Reappointment to the Grade of 
  Admiral and to be Commander, U.S. Pacific Command..............   865

APPENDIX.........................................................  1053
                                     



     NOMINATIONS OF HON. MADELYN R. CREEDON TO BE PRINCIPAL DEPUTY 
 ADMINISTRATOR, NATIONAL NUCLEAR SECURITY ADMINISTRATION; HON. BRAD R. 
CARSON TO BE UNDER SECRETARY OF THE ARMY; AND DR. WILLIAM A. LaPLANTE, 
    JR., TO BE ASSISTANT SECRETARY OF THE AIR FORCE FOR ACQUISITION

                              ----------                              


                       THURSDAY, JANUARY 16, 2014

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
Udall, Hagan, Gillibrand, Donnelly, Kaine, King, Inhofe, 
Ayotte, and Blunt.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nominations of: Madelyn Creedon to 
be Principal Deputy Administrator for the National Nuclear 
Security Administration (NNSA); Brad Carson to be Under 
Secretary of the Army; and William LaPlante, Jr., to be 
Assistant Secretary of the Air Force for Acquisition.
    We welcome our witnesses and their families. We extend our 
gratitude to the family members in particular, who are so 
critically important for the support of our nominees through 
the long hours that they work and the countless demands on them 
as a result of their careers in public service.
    To our witnesses, during your opening statements please 
feel free to introduce your family members and others who are 
here to support you today.
    Each of our nominees has an impressive record in public 
service. Ms. Creedon has served in positions of distinction 
throughout her time in Government service, positions including 
the Assistant Secretary of Defense for Global Strategic 
Affairs; Assistant Administrator of the NNSA for Defense 
Programs; General Counsel for the Defense Base Closure and 
Realignment Commission; and a trial attorney in the Department 
of Energy (DOE); and of course, as counsel to this committee 
for over 17 years. I think we're all familiar with her deep 
knowledge of and passionate commitment to the national security 
of our country.
    Mr. Carson was a member of the House of Representatives 
representing the Second District of Oklahoma from 2001 to 2005. 
In 2008 and 2009 he served on Active Duty with an explosive 
ordnance disposal battalion in Iraq and was awarded the Bronze 
Star for his service. Mr. Carson is currently serving as the 
senior-most legal advisor in the Department of the Army, the 
Army General Counsel.
    Dr. LaPlante began his career in the Johns Hopkins 
University Applied Physics Laboratory. He remained at the 
university for over 25 years. During that time he held a 
variety of positions, including the Department Head for Global 
Engagement and Associate Department Head of the National 
Security Technology Department. Dr. LaPlante has been a member 
of the U.S. Strategic Command Senior Advisory Group, the Naval 
Research Advisory Committee, and the Defense Science Board. He 
is currently the Principal Deputy Assistant Secretary of the 
Air Force for Acquisition.
    When they're confirmed--usually I say ``if confirmed,'' but 
I'll be very optimistic this morning, so I'll say ``when 
confirmed''--Ms. Creedon will take on a key leadership role in 
the Nation's nuclear security apparatus, while Mr. Carson and 
Dr. LaPlante will help to guide the Army and the Air Force 
through the challenging fiscal environment that we now face and 
will face even more so in the Department of Defense (DOD).
    We look forward to the testimony of our nominees and 
hopefully to their confirmation, and we now call on Senator 
Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. Let me first 
repeat what I've told those who are here at the table before 
the hearing. Unfortunately, my effort to segregate the two 
committees of the Environment and Public Works Committee and 
the Armed Services Committee has been unsuccessful again. We're 
simultaneously having a meeting upstairs two floors, so I will 
be going back and forth.
    I will use your characterization of ``when confirmed'' 
also.
    Ms. Creedon, it's nice to see you again. It's very rare 
that you get someone who has such a deep background and 
interest in this. You're predictable, and we appreciate that 
very much. Congress remains committed to the nuclear 
modernization promises that were made back when they were 
getting the votes for the New Strategic Arms Reduction Treaty 
(START) and I will be asking some questions about that.
    Secretary Hagel said earlier this month in Wyoming, and 
this is a quote, he said: ``We've got some work to do on 
modernization and we're going to invest in the modernization we 
need to keep that deterrent stronger than it's ever been. And 
you have my commitment to do that.''
    That's a quote by Secretary Hagel and I was very glad to 
hear that. When confirmed, you'll play an important role in 
overseeing the efforts to meet these modernization commitments. 
NNSA's successful execution and implementation of the nuclear 
modernization program will be essential to avoid delays in cost 
growth. This will require the NNSA to implement changes in its 
organizational culture and improve the way it manages programs.
    I'm happy to see my good friend Brad Carson here from 
Oklahoma. I told him in my office yesterday that Joe Westphal 
has been one of my best friends long before he had the position 
that Mr. Carson's going to be confirmed in. He was also from 
Oklahoma. He taught at the Oklahoma State University. So as 
long as we keep Okies in that position I'm happy about it, Mr. 
Chairman. [Laughter.]
    When I served on the House Armed Services Committee, I 
remember--I think I told you this story--that my last year on 
the House Armed Services Committee would have been 1949--1994--
--[Laughter.]
    Anyway, at that time I remember we had witnesses that said 
in 10 years we'll no longer need ground troops. I think we know 
that now, that we have some real serious problems. We talked 
about the drawdown, reducing the end strength from 490,000 to 
420,000. No matter how many smart politicians, Pentagon 
officials, or academics you put around the table, you will 
never be able to predict the future and what our needs are 
going to be.
    Discussions are also ongoing about future mix of Active and 
Reserve component forces that will have far-reaching 
implications for the future of the force and its ability to 
meet our national security needs.
    Dr. LaPlante, the past several years have been challenging 
for the Air Force's acquisition community. The lack of 
accountable leadership is one of the reasons for recent 
failures, including the cancellation of the Expeditionary 
Combat Support System (ECSS), a program that lost $1 billion in 
taxpayers' dollars. Additionally, questions remain if the Air 
Force will be able to perform an audit by September 30, 2017.
    Other critical programs, such as the Long-Range Strike 
Bomber, are just beginning and ensuring an achievable and 
affordable acquisition program will be critical to maintaining 
our Nation's nuclear triad and conventional global strike 
capabilities.
    Now, given your experience--and I really appreciate the 
time that you gave me in the office to go over things. I really 
believe that you have the background where you are going to be 
able to try some new things.
    Specifically, I have a chart that I've already explained to 
you, that we want to be sure that we explain to this committee. 
I'm looking forward to working with you and with all of those 
who are before us today.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Inhofe.
    We'll now call upon our witnesses for their opening 
statements.
    Secretary Creedon.

 STATEMENT OF HON. MADELYN R. CREEDON, TO BE PRINCIPAL DEPUTY 
    ADMINISTRATOR, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Ms. Creedon. Thank you, Chairman Levin, Ranking Member 
Inhofe, distinguished members of the committee. I'm honored to 
be here today and grateful to President Obama and Secretary 
Moniz for nominating me to be the Principal Deputy 
Administrator at the National Nuclear Security Administration.
    I would also like to introduce and thank my husband, Jim 
Bracco, for being here today, but mostly for his patience over 
the years, for putting up with the many long nights and 
weekends at work and away from home, and with my being late to 
more things than I ever want to count, but mostly for being 
enthusiastically supportive of this new challenge.
    I want to thank my daughter Meredith and my son John, who 
have grown up to be incredible adults, for all of their 
support, even though today their support is virtual. I know 
that they will watch the Senate Armed Services Committee 
website tonight so that they can critique me in the morning.
    I also want to thank my parents, who still live in Indiana, 
Marilyn and Richard Creedon. Through my dad's 35-plus years of 
service in the Army Reserve and my mom's unending commitment to 
volunteerism, they have instilled in me dedication to public 
service and a deep commitment to my country.
    My over 30 years in Government service supporting national 
security have been a special privilege, and if confirmed to be 
Principal Deputy Administrator, I will have the honor to serve 
again with the dedicated and highly talented men and women of 
the NNSA. These men and women work every day to ensure that the 
U.S. nuclear deterrent remains safe, secure, and effective, to 
prevent the threats from nuclear proliferation and nuclear 
terrorism, and to ensure that our nuclear-powered naval surface 
ships and submarines can steam all over the world to secure our 
freedoms.
    The NNSA has many challenges, but I have faith in the 
people of the NNSA and look forward to the opportunity, if 
confirmed, to work with all of them to address these many 
challenges. Just last week I had the pleasure of accompanying 
Secretary Hagel as he visited the NNSA's Sandia National 
Laboratory in Albuquerque, NM. While I was there in my role as 
the DOD Assistant Secretary and had been to NNSA sites many 
times, it was a wonderful reminder of the impressive work done 
by the men and women of the nuclear security enterprise.
     The NNSA's work remains as important and impressive as it 
has ever been. Even in today's budget environment and with Cold 
War facilities decaying around the complex, the commitment of 
the NNSA remains strong. It is a privilege to be asked to 
continue in public service, and particularly to be asked to 
serve at the NNSA.
    Maintaining nuclear security is a whole-of-government 
sport. The Departments of State and Defense, as well as Members 
of Congress and the personal and committee staffs, are all 
necessary to ensure a bright future at NNSA. If confirmed, I 
will work to ensure that this partnership remains strong.
    In closing, I also want to thank Senators Reed and Nelson 
and Senators Sessions and Vitter for their work on the 
Strategic Forces Subcommittee when I was on the committee 
staff; and now Senator Udall for his support; and for all the 
continuing commitment to NNSA that all have given.
    I look forward to this new challenge and to your questions, 
and I thank you for your support.
    Chairman Levin. Thank you so much.
    Now, Mr. Carson.

STATEMENT OF HON. BRAD R. CARSON, TO BE UNDER SECRETARY OF THE 
                              ARMY

    Mr. Carson. Senator Levin, Ranking Member Inhofe, 
distinguished Senators of the committee: I do have a prepared 
statement that I would propose I submit for the record and 
instead speak a bit more extemporaneously and briefly.
    Chairman Levin. That would be fine.
    Mr. Carson. I would like to thank President Obama for 
nominating me to this position and to the Secretary of Defense 
for his support of the nomination. It's been a great 
professional pleasure of mine for the last 2 years to serve as 
General Counsel to the Secretary of the Army, John McHugh. I 
look very steeply up to the example he has set. Joe Westphal, 
the Under Secretary, who Senator Inhofe has already mentioned, 
is a friend and a mentor as well. To Generals Odierno and 
Campbell, soldier's soldiers, combat leaders extraordinaire, 
people who are respected not only within the Army but far 
outside of it.
    I have many friends here today from the Army's Office of 
General Counsel and from across the Pentagon, and I am grateful 
to be part of their team and to have been a small part of the 
effort in the Army to try to do some good things.
    Of course, behind me is my wife Julie, who is an attorney 
herself, and she has sacrificed so much as I have pursued my 
own career, often at the expense of the things that she would 
have done for her own professional development. I am very 
grateful to her.
    The Army is an amazing place, filled with extraordinary 
people. I'm reminded of this most when I see any soldier who is 
under the age of 35, because I know that each of them joined 
knowing that they would be sent almost immediately upon the 
completion of training to Iraq or Afghanistan. They joined not 
to avoid the fight, because they wanted to be in the fight at 
its very hottest moments.
    The Army has sacrificed much: 4,843 casualties in Iraq, 
2,401 as of today in Afghanistan, tens of thousands more 
wounded. All the Services have contributed much to these 
conflicts, but the Army has borne more than its sad share of 
those statistics. Perhaps even more notable, 15,000 Awards for 
Valor, 9 Medals of Honor, 30 Distinguished Service Crosses, and 
more than 600 Silver Stars. It is said when you go to Section 
60 of Arlington National Cemetery you'll see all the Services 
well represented, but you can't overlook the contributions that 
the U.S. Army has made.
    I think my background in law, politics, higher education, 
and business have well prepared me to be the Under Secretary of 
the Army. One thing I can assure the committee is that if I am 
confirmed I won't forget the example of those people I've 
mentioned and I will do my best to acquit myself in their 
honor.
    I look forward to your questions.
    [The prepared statement of Mr. Carson follows:]
               Prepared Statement by Hon. Brad R. Carson
    Thank you, Chairman Levin, Ranking Member Inhofe, and distinguished 
members of the committee. It is a significant privilege to be 
considered for the important role of Under Secretary of the Army, and I 
appreciate the committee's rigor and diligence as it considers my 
nomination. Before we begin, I would like to acknowledge some of the 
many people who have played a part in this professional journey. I 
would like to first thank President Obama for demonstrating his 
continued trust in me with this second role in his administration. I am 
indebted to Secretary of Defense Chuck Hagel for his support and 
Secretary of the Army John McHugh for his strong example of leadership 
and management. I am grateful to Under Secretary Joseph Westphal for 
his mentorship. I would like to express my admiration for Chief of 
Staff of the Army General Raymond Odierno and his Vice Chief of Staff 
General John Campbell; it is only through close cooperation with 
military leaders that we can accomplish the Army's important work. I 
would like to recognize my current staff at the Army General Counsel's 
Office for their commitment to excellence and professionalism. I would 
especially like to thank my wonderful wife, Julie, who has been my 
constant companion and friend.
    Since 2001, soldiers have completed more than 1.7 million 
deployments, with 4 in 7 deployments being to Iraq and Afghanistan. 
Every soldier under the age of 35 today joined up knowing one thing for 
certain: that as soon as training was complete, he or she would be 
shipped half a world away and into the fight. The Army has 6,000 
soldiers who have spent, quite incredibly, more than 5 whole years in 
Iraq or Afghanistan, and tens of thousands more who have spent 3 or 4 
years in the fight. But perhaps the best measure of the Army is found 
not in these statistics, but in these: since 2001, soldiers have earned 
more than 15,000 awards of valor, including 9 Medals of Honor, almost 
30 Distinguished Service Crosses, and nearly 600 Silver Stars.
    It is humbling to work among professionals of such strong will and 
high caliber, but I believe my education and professional experiences 
have equipped me well to lead them. In addition to the breadth of 
experience afforded by my current post as Army General Counsel, I 
believe that my extensive and diverse background within law, higher 
education, politics, and business, has imbued me with all the necessary 
tools, the acumen, and the judgment to serve faithfully as Under 
Secretary of the Army. I recognize the honor of serving in the Army and 
with the Army, and, if confirmed as Under Secretary, I assure you, I 
will be untiring in my efforts to sustain the confidence placed in me. 
I am thankful for your consideration and appreciate the opportunity to 
appear before you today, and I look forward to your questions.

    Chairman Levin. Thank you very much, Mr. Carson, and thank 
you for mentioning Joe Westphal, too, and Senator Inhofe did as 
well, because he's a wonderful person who's done a wonderful 
job. I am glad you made reference to him and I should have 
actually done that when I introduced you.
    Dr. LaPlante.

 STATEMENT OF WILLIAM A. LaPLANTE, JR., Ph.D., TO BE ASSISTANT 
           SECRETARY OF THE AIR FORCE FOR ACQUISITION

    Dr. LaPlante. Good morning. Thank you, Chairman Levin, 
Ranking Member Inhofe, and other members of this distinguished 
committee. Thank you for having the hearing and inviting us 
here to answer your questions.
    I'd like to start by thanking President Obama, Secretary 
Hagel, Secretary James, and Frank Kendall for their confidence 
in having me as the Principal Deputy, as well as nominating me 
for the Acquisition Executive. I want to offer a special thanks 
to Frank Kendall and former Air Force Secretary Mike Donley for 
their especially persuasive powers to bring me into the Federal 
Government. I would not be here if it wasn't for them.
    With me today is my family: my wife Joann, my two daughters 
Clair and Caroline, Nathan, my sister Lyn, and my nephew 
August, who is supposed to be in first grade in Illinois this 
morning, but instead is here. August, I hope this is worth the 
travel for you.
    I have spent over 28 years, like many of you, around 
defense systems, technologies, acquisition programs, touching 
all aspects of those programs, all Services. This experience, 
along with the tenure on activities like the Defense Science 
Board, offers a first-hand impression of the state and the 
challenges of defense acquisition. Of course, this has evolved 
and changed over the years, whether it was, for me at least, 
starting during the height of the Cold War in the mid-1980s, 
living through the drawdown and all that we went through in the 
mid-1990s with the lower force levels, the acquisition reform 
initiatives, as we called them, back in the late 1990s, the 
first decade of the 2000s with the wars and the rapid 
acquisition that we had to do, and where we are, of course, 
today, which up until extremely recently had significant budget 
uncertainties.
    In all that time, like all of my colleagues who've been in 
those forums, I've formed impressions and opinions on the 
challenges of acquisition. Also, I come, though, from a 
community that desperately wants to make a difference. I come 
from a community that wants to find the game-changing 
technology, bring it to the warfighter, get it into production. 
I come from a community that wants to invent the clever way to 
do contracting so we finish a development contract on time. I 
come from a community that just wants to make a difference.
    It's such an opportunity for me and a privilege to 
potentially be able to come into the Government and, if 
confirmed, be the Acquisition Executive. I'm under no illusions 
of the challenges in the system, of course. We've all seen the 
successes, we've all seen the misfires. I would say coming into 
the Pentagon, just in the last several months, I had my own 
impressions of what to expect. Many of those impressions were 
confirmed. I also found that there are nuances, of course, and 
subtleties that I had no appreciation for being outside the 
Government.
    Finally and probably most importantly, I found some 
surprising successes, some good news stories, some positive 
indicators, some of which I was unaware of, that I think we can 
build upon. What I would pledge to this committee is, if 
confirmed, I will build upon those successes, those bright 
spots, those best practices. I will directly take on the areas 
that we know need help in terms of improving acquisition 
outcomes. I'll be transparent in doing so and be honest as I 
can be on the state of the programs.
    Again, I thank the committee for having the hearing and for 
inviting me here to answer your questions. Thank you.
    Chairman Levin. Thank you, Dr. LaPlante.
    Let me now ask all of you the standard questions that we 
ask of our nominees. Have you adhered to applicable laws and 
regulations governing conflicts of interest?
    Ms. Creedon. I have.
    Mr. Carson. Yes.
    Dr. LaPlante. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Carson. No.
    Dr. LaPlante. No.
    Ms. Creedon. No.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    Dr. LaPlante. Yes.
    Mr. Carson. Yes.
    Ms. Creedon. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Ms. Creedon. Yes.
    Dr. LaPlante. Yes.
    Mr. Carson. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Ms. Creedon. Yes.
    Mr. Carson. Yes.
    Dr. LaPlante. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Ms. Creedon. Yes.
    Mr. Carson. Yes.
    Dr. LaPlante. Yes.
    Chairman Levin. Finally, do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee, 
or to consult with the committee regarding the basis for any 
good faith delay or denial in providing such documents?
    Ms. Creedon. Yes.
    Dr. LaPlante. Yes.
    Mr. Carson. Yes.
    Chairman Levin. Thank you.
    Yes? Yes, Senator Reed.
    Senator Reed. Mr. Chairman, I have to go to the Banking 
Committee. I want to just say how enthusiastic I am about the 
nominees. Their service to the Nation already has been 
spectacular. I look forward to their rapid confirmation.
    I also want to commend the chairman on his attire today. He 
looks great in that West Point tie. [Laughter.]
    Chairman Levin. Thank you, Senator Reed.
    Senator Reed. Finally, if we were as composed as August, 
we'd get more business done here in the Senate. That's all I 
have to say. Thank you, August.
    Thank you, Mr. Chairman.
    Chairman Levin. That puts a lot of pressure on you to stay 
awake. But you're allowed not to.
    Okay, thank you, Senator Reed, very much.
    Let's start with 7 minutes for the first round of 
questions.
    First let me ask you, Secretary Creedon, the Air Force 
disclosed yesterday that 34 intercontinental ballistic missile 
(ICBM) officers were implicated in cheating on their monthly 
proficiency tests. In your current position as Assistant 
Secretary of Defense for Global Strategic Affairs, are you 
responsible for the oversight of training and equipping those 
personnel?
    Ms. Creedon. No, sir, I'm not. Those people fall within the 
military chain of command.
    Chairman Levin. You are not in that chain?
    Ms. Creedon. Correct, I am not.
    Chairman Levin. All right, so you are not involved in 
knowledge of this. You were informed about the same time we all 
were?
    Ms. Creedon. Yesterday.
    Chairman Levin. That's totally understandable, given what 
your job is and the fact that you're not in the chain of 
command.
    Secretary Creedon, let me ask you this about the NNSA, 
which has had a history of program delays and cost growth, 
particularly with its construction projects for new facilities. 
We, in the 2013 National Defense Authorization Act (NDAA), had 
a provision which establishes in the NNSA an Office of Cost 
Analysis and Program Evaluation (CAPE). My question is the 
following: If you're confirmed and when you're confirmed, will 
you work without delay in standing up that office?
    Ms. Creedon. Yes, sir.
    Chairman Levin. The Department of Defense has a similar 
office to evaluate its programs. How do you envision those two 
offices working together on future projects?
    Ms. Creedon. Senator, the CAPE Office in the Department of 
Defense has been very helpful over the course of the past 18 
months in providing assistance to the Nuclear Weapons Council 
in determining some of the costing for several life extensions, 
and they've also been very much involved with the NNSA, helping 
the NNSA come to grips with various costing methodologies both 
for life extensions and for construction projects.
    I would hope, if confirmed, to be able to continue to draw 
on the expertise at CAPE, particularly for their costing 
experience, which is deep and extensive, as we set up a similar 
organization in the NNSA.
    Chairman Levin. Secretary Creedon, the NNSA is a semi-
autonomous agency in the DOE. Can you explain the relationship 
between the NNSA and the DOE in setting safety and security 
regulations?
    Ms. Creedon. Yes, sir. The statute that created the NNSA 
made it clear that the administration reports to the Secretary 
of Energy through the Deputy Secretary, and that the Secretary 
of Energy sets the overarching policies for DOE, including for 
the NNSA. The overarching policies and regulations that apply 
to the Department also apply to the NNSA. The NNSA does have 
authority to make modifications to those as necessary, should 
the Administrator make that decision.
    Chairman Levin. Thank you.
    Mr. Carson, the National Defense Authorization Act for 
Fiscal Year 2010 requires the Chief Management Officer of the 
Department of Defense to establish a plan to ensure DOD's 
financial statements are validated as ready for audit by not 
later than September 2017. The Secretary of Defense has 
established the additional goal of ensuring that the statement 
of the Department's budgetary resources is validated as ready 
for audit by not later than September 30th of this year. Is the 
Department of the Army in your opinion on track to achieve 
those objectives, particularly with regard to data quality, 
internal controls, and business process reengineering?
    Mr. Carson. Yes, Senator, the Army is on track to meet 
those goals. There's a lot of work still being done, many 
challenges to be faced, but we are on track to achieve those 
goals.
    Chairman Levin. Will you take all the steps you can and all 
the ones that are available and needed, if confirmed, to ensure 
that the Army moves to achieve these objectives without an 
unaffordable or unsustainable level of one-time fixes and 
manual work-arounds?
    Mr. Carson. Yes, I will do everything in my power to make 
sure that happens.
    Chairman Levin. Let me ask you now about the servicemembers 
who are wounded or injured in combat operations. I think the 
American people and every one of us believe that they deserve 
the highest priority from our Government for support services, 
healing, recuperation, rehab, evaluation for return to duty, 
and successful transition from Active Duty, if required, and 
then continuing support beyond retirement or discharge.
    There's a lot of challenges, obviously, that remain, 
despite the enactment of a lot of legislation and a renewed 
emphasis over the last few years. Can you give us your 
assessment of the progress to date by the Army to improve the 
care, management, and transition of seriously ill and injured 
soldiers, as well as the support needed for their families?
    Mr. Carson. The Army's faced a great challenge over the 
last 14 years of conflict in meeting those requirements, but I 
think we are world leaders and are setting examples in every 
day making progress that will be followed around the world for 
decades to come. We are world leaders in this particular area. 
Our warrior transition units, the community-based warrior 
transition units, have been very successful in delivering basic 
care.
    I've been involved with Secretary McHugh in ensuring the 
behavioral health diagnoses for the tens of thousands of 
returning soldiers who've had difficulties there are satisfied. 
We are better in burn care, in rehabilitation for people with 
traumatic injuries.
    The Army has put forth a tremendous effort to meet this 
sacred obligation to our veterans and I think there are many 
lessons for other institutions to take from it.
    Chairman Levin. Are you satisfied and will you take steps 
to ensure that sufficient facilities and services are available 
to the redeployment of troops that are coming home from 
Afghanistan, particularly in the area of reintegration, medical 
services, so that we can accommodate the increase in the 
soldier populations at their home stations when that occurs?
    Mr. Carson. I give you my word in that, Senator.
    Chairman Levin. Thank you very much.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank all of you for your willingness to serve, 
and your families as well.
    Let me start with you, Dr. LaPlante. New Hampshire is very 
proud that the Air Force has selected Pease Air National Guard 
Base, the home of the 157th Air Refueling Wing, as the top 
National Guard base to receive the new KC-46A. We're very proud 
of that, and I wanted to get an update on where we are based on 
your position, your current position, and preparing for this 
hearing, and your new position, on the status of the KC-46A. Is 
it on track? Are we going forward?
    Dr. LaPlante. Thank you, Senator. The program is on track 
and this past year in September it completed a successful 
critical design review with the contractor, with Boeing, and 
completed that actually about a month ahead of schedule. The 
program has to date had no engineering changes on the fixed 
price contract in the development. A reminder, the Government's 
liability, if you will, in the program is capped under that 
fixed price arrangement.
    We are on track to begin first flight of the KC-46 later 
this year. All indications are the program is going well. I 
would also like to call out the trainer that was competed for 
and selected by the Air Force, the trainer for the KC-46. The 
actual trainer came in about $250 million under what the 
independent cost estimate was for that trainer. It's on track.
    Senator Ayotte. That is music to my ears and I'm really 
glad to know that that program is going so well and on track.
    On another note, unfortunately I want to ask you about a 
program from December 2012, where the U.S. Air Force cancelled 
an information technology program called the ECSS, that it had 
been working on since 2005. The Air Force scrapped the program 
after putting in $1 billion into the project, with no 
identifiable benefit to the military or taxpayers. There were 
also reports that the project would have required an additional 
$1.1 billion to fix and the system wouldn't have been completed 
until 2020. That was obviously cancelled by the Air Force.
    Based on your experience and your preparation for this 
hearing, particularly in the position you're going into, who is 
being held accountable in the Air Force for wasting $1 billion 
of tax dollars into a failed Air Force acquisition program?
    Dr. LaPlante. Senator, your characterization of ECSS and 
the history is correct. From the accountability perspective, 
the direct answer to your question is in 2011 and 2012 it's my 
understanding that the program manager for that program was 
removed and the program executive officer for that program was 
removed.
    Having said that, do you believe that we have firm 
accountability in the acquisition system and are comfortable 
with where it is? I am not. I think it is something, should I 
be confirmed, that I will put extra emphasis on. But again, 
your characterization of ECSS is correct.
    Senator Ayotte. Why did it happen and how do we prevent it 
from happening again?
    Dr. LaPlante. The best answer to why it happened from my 
perspective coming in to the Principal Deputy position and 
preparing for this hearing today was achieved by careful review 
of what's called the acquisition incident report. That report 
should be available, has been available for the committee. It 
was commissioned in the way a mishap, an airplane crash, for 
example, report would be done, where an independent team came 
in, did fishbone analysis, as they call it, failure analysis, 
interviews, and got to root cause.
    It's very, very sobering reading. It identified about six 
fundamental root causes, which in my assessment were probably 
baked in, unfortunately, at the very beginning. I will go 
through a few examples.
    There was a lack of appreciation of the complexity of the 
data, the data that was going to go into this business system. 
When you're going to an enterprise business system, of course, 
the commodity everybody uses is the data itself. Not 
understanding that data, not understanding how to get the 
quality of the data, was a foundational error in the program.
    Then two other quick things, but there are more: Not having 
a good transition plan. In other words, going from these legacy 
systems, the as-is, to the to-be vision, in some ways the to-be 
vision is often the thing that's the easiest to come up with. 
That's where we all dream of having a nice, seamless enterprise 
business system. The hard part and the part that was not done 
well was understanding the way to get from where they were with 
these legacy systems and this data to that to-be. Just like 
when there's construction on a major highway you have to assume 
there's still going to be traffic and how's the traffic going 
to use the system, the user still had to use this as it was 
doing the transition.
    Those are foundational errors that were baked into the 
program.
    Senator Ayotte. Here's why your position that you're going 
into in particular is so important and why this billion dollar 
loss disturbs me, as I know it disturbs all of us. The Air 
Force is proposing that all Active Duty A-10s be divested by 
2016, plus the Air National Guard unit in Boise, ID, and that 
all Guard and Reserve units be divested by 2017, in order to 
save money in 2019. A billion dollars, that's about $3.7 
billion over the Future Years Defense Program.
    I think of that and I think $1 billion we lost on that, 
when we have the A-10s that are incredibly important for close 
air support, incredibly important for search and rescue, 
incredibly important to our men and women in uniform. In fact, 
General Odierno has said it's the best close air support 
platform we have today. Despite this effort to divest it, 
General Welch has said it is the best airplane in the world at 
what it does.
    These are the things that you're going to be facing, that 
if we waste $1 billion and then you come to us and say, divest 
a plane that our men and women, especially those on the ground, 
care about, they know, that it has saved lives. In your 
position this is very important that this not happen again, and 
we look for areas in the Air Force where you see this problem 
bubbling up, so that we can not waste taxpayer dollars and we 
can make sure that the dollars go to things that we know our 
men and women in uniform need.
    Dr. LaPlante. Thank you, Senator. I appreciate your 
concerns on that particular platform. As we all know, there are 
very, very difficult force structure trades that are being made 
by the leadership and will be presented in the President's 
budget.
    I would say what I'm learning in the short time on the job 
is it all costs money. It costs money to keep things, to 
maintain things. It also costs money actually to divest. I 
think there are some very difficult choices that the leadership 
is making with force structure, as you point out. I know the 
Air Force, I know General Welch, is keenly aware of your 
concerns, and that's the fiscal environment that they're 
facing, how to go to a different force structure.
    Senator Ayotte. I know my time is up, and obviously I do 
not believe that the A-10 should be divested, because I believe 
it's very important. It saves lives. But not just that. What we 
need to avoid, stepping back from it is, it's hard to say to 
the men and women on the ground, hey, we're going to eliminate 
the A-10, but we wasted $1 billion on an information technology 
system.
    This is where you all, focusing on being better, need to 
make sure that the resources we have go to where they need to 
go, you'll have a very important role in this new position. I 
look forward to working with you on that.
    Thank you.
    Dr. LaPlante. Yes, thank you, Senator.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Udall.
    Senator Udall. Good morning to all of you. It's terrific to 
see all three of you here. Secretary Creedon, I want to thank 
you for your long history of public service. You've taken on a 
lot of daunting assignments. This is another one for you. The 
NNSA is a vitally important agency. You are going to be 
responsible for some of our most sensitive and important 
programs. You really fit the bill in my estimation for the job 
that's in front of you. I'm going to ask you some questions 
about the job the assignment you have.
    I'd be remiss if I didn't acknowledge my good friend Brad 
Carson. We served in the House together. He's a true patriot. 
If you look at Brad's biography, he's walked the walk, 
including deciding at a relatively old age, I think I can say, 
that he wanted to serve our country, went to Officer Training 
School, was deployed in Iraq if my memory is correct.
    It's just fantastic that you're going to have this 
opportunity to serve us, Congressman, in the Army, along with 
our friend John McHugh, with whom we also served in the House. 
I'm full-throated in support of your nomination and look very 
much forward to voting for you to take on this important 
assignment.
    Dr. LaPlante, I don't mean to ignore you, but I have close 
connections with both of the other nominees. Thank you for your 
willingness to serve as well.
    I want to turn right to the NNSA, Secretary Creedon. 
Someone suggested that if we separated the nuclear enterprise 
from DOE we'd be better served. Would you share your thoughts 
on that debate and that discussion we've been having?
    Ms. Creedon. Thank you, Senator Udall, and thank you very 
much for those kind words. They're most appreciated.
    Senator Udall. They're well deserved.
    Ms. Creedon. Thank you.
    Obviously, my views with respect to the NNSA at this point 
in time would be my personal views. But I happen to believe 
that the legislation that established the NNSA remains sound 
and that it's in the long-term best interests of the NNSA to be 
part of the Department of Defense. I think having a cabinet-
level agency responsible for looking out for assisting with the 
NNSA is really incredible and essentially important, 
particularly as we look to the long-term budget debates that we 
know are going to continue in the future as the budget goes 
down.
    That said, there are significant internal management 
challenges with the NNSA that the NNSA has to deal with. But I 
think these challenges can be dealt with within the flexibility 
provided in the statute and that, at least at the moment--and 
obviously, if confirmed I'll know a little better when I get 
back into the NNSA again. But at least at the moment, I haven't 
identified any legislative changes that I think are necessary.
    Senator Udall. Madam Secretary, if we could clarify for the 
record, you said Department of Defense. I think you meant 
Department of Energy.
    Ms. Creedon. Energy, I'm sorry. The Department of Energy.
    Senator Udall. You did mean Department of Energy?
    Ms. Creedon. I'm sorry, I did mean Energy.
    Senator Udall. Thank you for that, those insights. They're 
valuable because again of your broad experience.
    I'd be remiss in my second question if I didn't ask you 
about the recent news reports about what happened in Malmstrom. 
Do you have greater concerns about larger systemic issues 
associated with our ICBM force?
    Ms. Creedon. Senator, from my observation sitting where I 
have over the course of the last 2\1/2\ years--and obviously, 
it's the military chain of command; I'm not in that chain of 
command--but it is very troubling. I think to me it's even more 
troubling for all of those men and women who really do have a 
commitment, who show up every day, who are dedicated.
    As I mentioned in my opening statement, I had the 
opportunity to travel with Secretary Hagel and we also went out 
to F.E. Warren Air Force Base and went out to one of the launch 
control centers, talked to the crew. He then had a very long 
discussion with some of the folks out there. We had lunch with 
them, had some pretty good one-on-ones, talked to the 20th Air 
Force commander. They are so committed and they try really 
hard. They live in a very difficult environment, and we need to 
support them fully, and it's just a shame when there are just 
bad apples.
    Senator Udall. Yes. We're going to need to work on this, 
and I know you're committed to it and focused on it, as am I.
    Let me turn to the Congressional Budget Office (CBO) 
number, $350 billion. That's the estimate that we'll spend over 
the next 10 years on nuclear forces, I should say. That 
includes the NNSA programs. Do you think that's accurate? Could 
you mention what that investment's going to purchase for us?
    Ms. Creedon. Yes, sir. I think the CBO did a pretty good 
job. Obviously, determining the long-term costs of the entire 
enterprise depend a little bit on what you put in and what you 
put out. But I think CBO did a good job in getting what's 
really at the heart of the long-term challenges.
    The NNSA challenges are with respect to both the 
modernization of the complex--there are two big facilities left 
to address. We need plutonium, we need highly enriched uranium 
processing facilities, and pretty much, NNSA needs assured, 
understanding, and reliable budgets. DOD's budget bow wave is 
coming in a few years and it really has to do with the 
modernization of the platforms and the delivery systems--the 
submarine, the bomber, and whatever is the future of the 
ground-based strategic deterrent, in other words the next 
Minuteman III. Those are the bulk of the costs.
    Senator Udall. We're going to be working, I know, to do 
what's right to maintain our nuclear posture, but also keep 
control of costs. We just have to do that, and I know you 
agree.
    Let me turn to Congressman Carson. I'd be interested in 
your thoughts about what's in front of you. I'd ask you the 
traditional question: What keeps you up at night as you 
anticipate taking on this important assignment?
    Mr. Carson. These are extraordinary times in the U.S. Army, 
where we are trying to manage coming out of two wars and the 
many problems that dealing with that, that retrograde of 
equipment and with soldiers who are transitioning back into 
either garrison life or returning to the civilian world, along 
with their families. That's an extraordinary challenge.
    We have a difficult budget climate and we have a drawdown 
in forces, while at the same time still trying to meet the 
needs of the National military strategy, which are quite 
robust. It's that overall challenge of managing the Army that 
is a very difficult one.
    Senator Udall. You're up to it, I know, along with John 
McHugh.
    Dr. LaPlante, if I might I'd like to use what time I have 
remaining--and I'll truncate my question. Basically, my 
question goes to the proposal that the Air Force has put forth 
that would involve developing an entirely new helicopter, given 
that we already have a series of machines, a group of machines, 
that I think get the job done. My concern is if we spend 
hundreds of millions of dollars so the Air Force has its own 
unique helicopter and at the same time we're cutting funding 
for the space surveillance systems and other vital programs, to 
me that doesn't fit.
    I'd be curious to hear your comments on this.
    Dr. LaPlante. In general, on items like new starts, whether 
for helicopters or airplanes, we're in an environment now where 
we're having to be very careful about starting anything new, 
and we're looking very carefully, as we should, at what the 
tradeoffs are between something new versus extending life, 
extending what we have.
    I understand your concerns and I think in general the force 
structure decisions that the Air Force is currently making are 
going to be trading some of those very difficult things. I'll 
be happy to work with you further on.
    Senator Udall. I'd like to follow up with you in more 
detail.
    Dr. LaPlante. Absolutely. Thank you.
    [The information referred to follows:]

    Once confirmed, I will set up a meeting with you to discuss 
modernization initiatives in greater detail.

    Senator Udall. Thanks again to the panel and thank you for 
your willingness to serve our country.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Udall.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Ms. Creedon, in my opening statement I talked about our 
concern, and it's not just mine. Others have the same concern. 
In fact, when the New START treaty was put in place, there were 
some commitments that were made and those commitments have not 
become a reality. When you are confirmed what would be your 
effort in terms of trying to reach the level that was agreed 
upon prior to the voting on the New START treaty?
    Ms. Creedon. Senator Inhofe, not only does the NNSA have 
substantial budget challenges in front of it, but so obviously 
does the Department of Defense in looking forward to the long-
term modernization programs and investment programs to support 
the nuclear complex. The numbers that you're referring to are 
what have been referred to as in the 1251 report. At least with 
respect to the NNSA at the moment, the NNSA budget request for 
fiscal year 2014 was a little bit under the fiscal year 2012 
1251 report and a little bit over the fiscal year 2011 1251 
report.
    One of the challenges I think that has occurred over time 
is some of the elements that were supposed to be covered by 
those funds have ended up costing more. It's caused a delay of 
the plutonium facility and also has caused a relook of the 
approach on the uranium facility.
    Senator Inhofe. I really believe that if anyone can do it, 
you can do it. I think the main thing we want to hear before 
this committee is that you do have a commitment to do your best 
to try to get us on track for security purposes.
    Ms. Creedon. I absolutely do, Senator Inhofe.
    Senator Inhofe. Mr. Carson, we talked in the office about 
you're inheriting a little bit of a mess in terms of end 
strength, and it's because it's the understanding that the 
Office of the Secretary of Defense believes the Army end 
strength should be reduced to 420,000 from 520,000 Active, and 
315,000 from 358,000 on Guard, and then a comparable Reserve 
figure.
    I know you've had some time to look at this, and you've 
also heard from the Chief of Staff of the Army, who's been 
quite outspoken on what his needs are. How are you going to 
handle that?
    Mr. Carson. It is a difficult challenge, of course. The 
Chief of Staff of the Army and the Secretary of the Army 
himself have talked about how the drawdown will make it more 
and more difficult to meet the many requirements that are 
placed upon the Army. There's really two questions there: What 
are the requirements that the Nation is going to ask of the 
Army, and what is the right size for the Army to meet those, 
and can the country afford an Army of that particular size?
    Drawdowns are always very difficult. Maintaining the right 
grade play, the right mix of officers and enlisted members in 
the Army as you reduce by 30,000 or 50,000 members, maintaining 
soldier and family resiliency, keeping morale up, the 
transition of those soldiers who are leaving to go back into 
civilian life.
    It's going to be a great challenge, both on these strategic 
questions as well as on kind of the personnel and readiness 
side, to make sure we manage this drawdown in a way that is 
equitable and does justice to the sacrifice of our soldiers 
over the last decade.
    Senator Inhofe. It's tough, because you're going to hear 
from some of the uniforms that it could increase risk. Of 
course, risk is lives. It's a tough issue to deal with. I know 
you will do everything you can to try to make that a reality.
    Dr. LaPlante, again thank you for the time that you gave me 
in my office. I have a slide that the Defense Advanced Research 
Projects Agency (DARPA), the Tactical Technology Office, put 
together in 2012 that shows from approximately 1975 to the 
present. You see the chart here. The blue line is where it 
would be with commercial aircraft. When you get into--
everything's fine up through the F-117. Then with the F-18, the 
C-17, B-2, and the rest of them, you see what is going up. We 
had a chance to look at this.
    [The information referred to follows:]
      
      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Inhofe. The question I would want to ask you is, 
the last platform we didn't have a problem with was F-117. Have 
you had time to look? Do you have an analysis or an idea of, if 
we were able to do that, why that same can't be used as a model 
for some of the other platforms?
    Dr. LaPlante. Yes, thank you, Senator. As it turns out, 
being a member of the Defense Science Board, we in fact looked 
at some of this in studying adaptable systems, in fact with 
DARPA's help, a few years ago. Part of that, we actually looked 
specifically at the F-117. A couple things I would offer that 
were in my view unique in listening and interviewing the 
principals who were there.
    The first was that it was a very small group of empowered, 
what I would call today a cross-functional team. That is, the 
requirements, the user, if you will, the program manager, the 
systems engineer, the lead contractor, am I told it was on the 
order of six to eight people who were all empowered to make 
decisions, that were in a protected environment. It was a 
highly classified program, but it also had top-level support.
    If you know some of the individuals that were there--and 
the one I happen to know, and some of you may know, is Dr. Paul 
Kaminsky, currently the Chairman of the Defense Science Board. 
He was in part of that time the program manager as an Active 
Duty colonel.
    It was quite a talented team. When you listen to how they 
did it, it's remarkable. What it was, was it started with quick 
identification of what the hardest parts of the problem were, 
which in their case was the signature itself and getting it to 
fly, then going right to the prototyping and, if you will, 
experimentation to see if they could actually make this thing 
work.
    They had accidents, as Paul will tell you. They had 
fatalities. But within about 3 years they were able to wring 
out some of the fundamental problems there and were able to go 
right into production.
    There's two pieces to that which I think are lessons for 
us. One is the requirements side. Dr. Kaminsky will give the 
story of when he was the program manager he was pressured, if 
you will, by some of the leadership in the Services at the time 
of why the airplane could not fly in all weather: Why don't we 
add a radar so it can fly in all weather? Dr. Kaminsky knew 
that was going to be a very difficult challenge and he 
resisted. He said: ``No, if we do that we're not going to have 
the airplane.'' He resisted it. He says to this day we wouldn't 
have that airplane if he had to put that radar on it.
    Senator Inhofe. He had to do that first?
    Dr. LaPlante. Yes. It was understanding the requirements, 
resisting changes to the requirements as needed, and an 
empowered team. It proves it can be done, and I think it should 
be an inspiration for all of us.
    Thank you.
    Senator Inhofe. I think that's a great answer. You 
certainly would be one of the rare persons who could make that 
a reality.
    My time has expired. I'll wait a few minutes for the second 
round.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator King.
    Senator King. Thank you very much, Mr. Chairman.
    Ms. Creedon, the Ohio-class submarine is aging and we're 
getting to the point where we're talking about a replacement. 
Are there particular challenges as we deliver the new reactor 
for the upcoming Ohio-class replacements?
    Ms. Creedon. Yes, Senator. I would say the biggest 
challenge, frankly, is ensuring that there is stable and 
predictable funding with respect to that reactor. My 
understanding is the naval reactors program has the technology 
fairly well in hand at the moment, but it is a critical part of 
the success of that replacement submarine.
    Senator King. Is multi-year funding part of the answer?
    Ms. Creedon. Senator, I'm going to have to pass on that 
question. I will certainly look into it and get back to you. 
The NNSA part of it is the research and development part of it 
and so multi-year doesn't really fit with the research and 
development part of it. The procurement side of that is on the 
Navy side and so that's not an area of my expertise. I would 
have to get with the Navy and get back to you on that side.
    [The information referred to follows:]

    Additional options may exist to reduce program costs and risks 
associated with transitioning from the Ohio-class to Ohio-class 
replacement. The Navy is investigating various contracting and 
acquisition scenarios to increase efficiencies and reduce costs of 
construction.

    Senator King. You're talking about continuity of funding 
for the research side year to year?
    Ms. Creedon. I'm talking about the research side and the 
NNSA side, yes, sir.
    Senator King. Some predictable funding level from year to 
year is an important part of your being able to meet this 
challenge?
    Ms. Creedon. Yes, sir.
    Senator King. In your prior position you were working on 
countering weapons of mass destruction, nonproliferation. Do 
you see that as relevant experience to what you're going to be 
doing now?
    Ms. Creedon. Absolutely, sir. In my current job I have the 
policy responsibility for countering weapons of mass 
destruction at the Department of Defense, and the Department of 
Defense has primarily been focused on biological threats, 
chemical threats, and the NNSA has also been primarily focused 
on the nuclear threats. But there is also overlap where the two 
Departments work very closely together.
    Between the Department of Defense and the Department of 
Energy, the NNSA, it's essential that the two Departments work 
together so that we handle all aspects of the threats from 
weapons of mass destruction that face this country.
    Senator King. It's somewhat out of the scope of this 
hearing, Mr. Chairman, but I woke up this morning suddenly 
thinking about what happened in West Virginia, which was an 
accident. But it certainly raises the specter of what if it 
wasn't an accident and how vulnerable we are and what that did 
to a third of the State of West Virginia by contaminating the 
water supply. It's a daunting concept.
    Ms. Creedon. It absolutely is, Senator. One of the things 
that right now in my current job I'm working on is a new 
strategy for the Department of Defense for countering weapons 
of mass destruction.
    Senator King. Godspeed.
    Mr. Carson, we've all--I suspect we've all--I know I have 
heard from my governor and my adjutant general. I think one of 
the toughest issues we're going to face this year is the 
relationship between the Guard and the Reserve and the Regular 
Army. Do you have thoughts on how this force structure issue 
should be approached, how do we make sense of it, bearing in 
mind the interests of the States as well as the national 
interest?
    Mr. Carson. I think it is going to be a very vexing problem 
for us, and I think the only solution is to commit not to 
engage in Army fratricide about the Active component/Reserve 
component mix, but instead to work together in consultation 
with the governors, with the adjutant generals (TAG) in the 
States, with the National Guard Bureau, and the Department of 
Defense.
    Everyone recognizes, myself especially as a reservist, that 
the Reserve components have played a heroic incredible role 
over the last 14 years of conflict, no longer simply a 
strategic reserve, but an operational asset to the Army and to 
the other Services, too. I don't believe we're going to go away 
from that, but we do have to look at the right mix as we come 
out of these wars, the right assets, what functionalities the 
governors, for example, would like to see in the Guard, what 
functionality we need to keep in the Active component, the kind 
of boots-on-the-ground dwell ratio.
    These are all very difficult questions and there's no one 
solution to it other than to say you must be committed to 
working with the various stakeholders in the States, in the 
Guard, in the Active component, and through leadership bring 
everyone together, because in the end, whatever differences we 
may have seem quite superficial given the commonality of 
interests that the National Guard, the Reserve component 
altogether, and the Active component have.
    Senator King. You see essentially a new analysis of needs 
and roles, as opposed to applying a rule of thumb of a ratio of 
two to one or three to two or whatever?
    Mr. Carson. The Chief of Staff has talked about the 
historic ratio of the Reserve component to the Active component 
of about 54 percent to 46 percent respectively. There's been 
some discussion by him in particular about maintaining that 
role going forward. I don't think it's a new analysis. People 
value the contributions that have been made by the Guard and 
the U.S. Army Reserve over the last decade, the last 15 years. 
It's taking what we've learned, taking that institutionalized 
knowledge, and then applying it for the rather austere budget 
climate we find ourselves in.
    Senator King. By new analysis what I meant is we can't just 
say because the ratio was 54 to 46 2 or 3 years ago that's what 
it's going to be ongoing. We have to stop and look and see, 
okay, what do we need and what are the roles.
    Mr. Carson. That's absolutely right. We have to look at 
what requirements we have in each of the components, and then 
resource them accordingly.
    Senator King. A second issue that we're going to have to 
struggle with is personnel costs. You know the figures that 
personnel costs are steadily eating up readiness and 
procurement and other parts of the military. Congress learned 
about a month ago how difficult it is to even touch these 
issues.
    Do you have thoughts about how we can deal with the 
personnel cost issues without causing a firestorm of concern 
among Active Duty and retired military? Should we do it all in 
a prospective way, which means we don't get the savings for a 
long time? How do we approach this?
    Mr. Carson. It, too, is not an easy matter.
    Senator King. ``Not easy'' is an understatement.
    Mr. Carson. It's particularly acute in the Army, though, 
because we are a people-centric Service, where about 46 percent 
of our budget goes to paying our soldiers. Those problems you 
talk about that are chronic in the Department of Defense are 
notable in the Army especially.
    I do prefer approaches that don't prejudice the interests 
of people who have already made long-term commitments, whether 
it's retirees, whether it's people who are close to retirement. 
It is certainly better to start out on the front end, and those 
savings can be manifested over years. There are other ways to 
find savings.
    But it's difficult--and this is my own personal view--to be 
making changes that are contrary to either the explicit or 
implicit promises we've made to servicemembers and for which 
they have made, set expectations for the future as well. Those 
are very difficult things to do, and to be avoided in the 
absence of profound countervailing benefits.
    Senator King. I completely agree. I believe you have an 
explicit or implicit contract. People have expectations and 
that's what's going to make this problem exceedingly difficult 
to deal with.
    I'm almost out of time or I am out of time, but, Dr. 
LaPlante, I just want to call attention again to that chart 
that Senator Inhofe showed. If it takes 22 years to develop 
something from idea to completion in the private sector, you'd 
be out of business. That's just ridiculous. By the time you get 
finished, the technology's changed and you're almost by 
definition building something that's not state of the art.
    I think the example of the F-117 is a good example. We have 
to figure out how to deal with that. It's just unacceptable to 
take 20 years to develop a new weapon system. I commend to you 
to keep looking at that prior example. In my experience it 
takes a small group who have the power and the authority to 
make decisions. The larger the committee, the lesser the 
results.
    Dr. LaPlante. Yes, Senator, thank you, and I agree, and I 
look forward to working with you. Thank you.
    Senator King. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator King.
    Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    Dr. LaPlante, on the A-10 issue that Senator Ayotte raised, 
I'm totally in agreement with the points she made. I would have 
made them if she hadn't and that might have been the principal 
thing that you and I would have talked about. But that's 
getting some attention, and it's particularly getting some 
attention based on the comments of General Odierno and others 
who understand the ground support that that particular plane 
provides. I hope that's one of the things you'll look at very 
carefully, and I think you said you're going to do that. I just 
want to say I would have brought that issue up in more detail, 
but I think Senator Ayotte did a good job of covering our 
concerns about that.
    Secretary Creedon, thanks for coming by one day this week 
to talk about this assignment. I think the principle thing I 
would just want to raise again here would be the importance of 
the transfer Kansas City facility to that new campus. 
Everything from moving a 6-ounce tool to an 87,000-pound piece 
of milling equipment has had to happen as part of that big 
transfer of what you're doing there.
    Then once that transfer's completed, the other thing that 
I'd like you to comment on briefly is just the importance of 
what we do with the piece of property that the Federal 
Government has been on for half a century and now would be 
leaving, after all the work that's done there and all the kinds 
of left-behind problems that that work would mean would have to 
be dealt with.
    Ms. Creedon. Thank you, Senator. Yes, the new Kansas City 
plant, which goes by the acronym of KCRIMS [Kansas City 
Responsive Infrastructure, Manufacturing, and Sourcing], is a 
very important part of the modernization plan for the NNSA's 
nuclear complex. As you know very well, it's the electronics. 
But the real achievement with this new facility is that it'll 
be a much better place for the workforce to work and they'll be 
able to do the same work in half the space, and they get out of 
a building that they've been in since the late 1940s, early 
1950s. It's a long time coming and it's definitely needed.
    That said, after our conversation yesterday I've done a 
little more looking into it and the old Bannister Federal 
Facility that has both the General Services Administration, the 
NNSA, and other Federal entities in it, it will be a challenge 
in the future. It's absolutely something that, if confirmed, I 
will take on to make sure that in the end it is the best result 
for the community as well as for the NNSA to understand really 
how to deal and get rid of this old Federal facility in a way 
that's really beneficial.
    Senator Blunt. For my colleagues on the committee, this is 
a facility that, as the Secretary indicated, we've been at for 
60, 70 years now. Lots of nuclear work is done there. By this 
point, it's pretty well located right in the center of lots of 
things and has great development potential, but only if the 
Government now deals with it in a way that allows somebody to 
in the future use it for that purpose. I'm pleased that 
Secretary Creedon understands that in the depth that she does, 
as did the nominee that had the agency that the committee 
reported out again just the other day after those names had to 
be dealt with another time.
    Mr. Carson, nice to see you again. We served in the House 
together for 4 years in districts that were pretty close 
together and we were able to do some things there. This is an 
important assignment for a lot of the reasons you've already 
been asked about today in terms of restructuring the military.
    While I'm in the mode of talking about Missouri facilities, 
I would just call your attention to Fort Leonard Wood, where 
General Odierno was in the last week. Secretary McHugh has 
visited there recently. I know General Odierno when he went to 
the chemical school, the biological school, the radiological 
school, the nuclear school, all of which are there, said that 
this has unique possibilities, both because of the location and 
community support, to look at all of those homeland security 
applications.
    As everyone does when they visit there, he mentioned the 
level of community support and how important this base is seen 
to the people that surround it. One of the neighbors, by the 
way, is the Mark Twain National Forest, which gives us even 
more capacity to do some things on the base that might in other 
places be seen as intrusive or troublesome. I wanted to call 
his visit to your attention, but Secretary McHugh, who you and 
I also served with in the House, has been there as well.
    On the question that Senator King mentioned about the 
integrated armed services, I've seen some reports lately that 
there is a discussion of eliminating the Guard from the support 
services, the helicopter services, the Kiowa, the Apache 
helicopters--a lot of that has been done by Guard personnel, 
and a discussion that maybe that assignment would come back to 
the full-time force.
    I don't know of any reason to believe that the Guard 
personnel that have done that haven't done an extraordinarily 
capable job there. I will just continue to look, as I think you 
may have already responded to, the importance of having that 
integrated Armed Forces and looking at any comments that 
General Grass and others in the Guard have to make about this.
    But on the support generally of air support and other 
things that come to the Army from the Guard, do you want to 
comment on that?
    Mr. Carson. Certainly. It was a real pleasure serving with 
you in Congress. I had my home in Oklahoma, of course, just 
down the road from I know your home, and we worked together a 
lot on issues.
    Senator Blunt. Right across the border.
    Mr. Carson. I hope at Fort Leonard Wood we'll have a chance 
to visit that together and give me a good excuse to go back to 
our neighborhood.
    As has been reported, part of the Army restructuring is 
going to look at the aviation, both in the Active component and 
the Reserve component, with the idea of streamlining it. We 
have a number of assets, like our TH-67 training helicopters, 
that have to be replaced or supplanted by another airframe. The 
aviation community wants to come to what they call glass 
cockpit dual-engine aircraft, which are better for training and 
have more uses. They want to save some money in operations and 
sustainment costs that they can put into the long-term projects 
for the future of vertical lift, for example, the next 
generation helicopters that may some day replace the Apache and 
the Blackhawk.
    There is a restructuring that's being examined. There's 
been no final decision that I'm aware of on those kind of 
issues. As I was telling Senator King, I am confident that I 
will be a part of this process if confirmed to consult with the 
governors, the TAGs, and others to say, what functionality do 
you need in your National Guard aviation units, the 12 aviation 
brigades that are in the National Guard, what do you need here, 
so we can make sure that those requirements are satisfied.
    Senator Blunt. I would just suggest again that whatever you 
do there I think needs to, as you've already committed, to have 
the active communication with the Guard here, with the adjutant 
generals and the States, looking at the impact this has on the 
ongoing mission and recruiting capability and maintaining the 
numbers that these units have had, and look at the performance, 
as well as looking about whether that particular skill also 
continues to be a valuable skill for the States to have 
available in the State for the other work that the Guard does 
in addition to being able to be called up and used to support 
the full-time force.
    I think this will be an issue that a lot of members, 
including me, will take very seriously as it comes up, and I 
know you will, too, and I wanted to raise it with you today.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Blunt.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Mr. Carson, I am very concerned about cyber security and in 
particular in recruiting and retention of cyber experts. In the 
NDAA for Fiscal Year 2014, I included language that would give 
career credit to newly commissioned officers with cyber 
security experience. If confirmed, what additional steps will 
you take to ensure that we're recruiting the best and the 
brightest into the field?
    Mr. Carson. It's a real challenge to recruit this highly 
in-demand skill set into the military, where our pay structure 
often can't compete with that of the private sector. We are 
fortunate that we've established relationships with some major 
universities, including the one I used to teach at, the 
University of Tulsa, one of three universities that is working 
closely with the military, with Cyber Command, the National 
Security Agency, and others to try to recruit and train people 
to come into the military.
    These special programs like you mentioned can help do that. 
The Army has been fortunate that we have met most of the 
filling of the two new cyber brigades we've established. But 
it's going to be a continuing challenge for us, simply because 
these skills are so highly in demand.
    Senator Gillibrand. Do you need any additional authorities 
to reach your goals?
    Mr. Carson. I'm not sure at this time we do need any 
authorities, but I will commit to you that General Cardon, who 
runs Army Cyber Command, could come in and talk to you 
specifically about what our recruiting status is and if we do 
need some kind of special provisions to allow that.
    Senator Gillibrand. That would be helpful.
    I authored a bill last year called the Cyber Warrior Act, 
which leverages the talent pool that already exists within our 
National Guard, and because of the National Guard's dual 
mission it's an ideal place to attract those individuals. They 
might be working at Google by day and could be a cyber warrior 
for their Service on weekends and when their commitments are 
due.
    However, I've heard that this idea isn't as well received 
as it might be because they think that it needs to reside 
within DOD and focus should be on Active, not Reserve, forces. 
My question is, please explain why, if you did create these 
units with a dual status, it would be detrimental to the Army 
and the overall goal of protecting our Nation against cyber 
attack?
    Mr. Carson. I don't think it would be detrimental. That 
skill set needs to be in both the Active component and the 
Reserve component without doubt. I think some of the 
interesting ideas for recruiting--for example, the Navy has 
allowed direct commissioning of officers who had unique skill 
sets who didn't have time to spend 4 or 5 months in training 
and they spread it out over time. These are the kind of things 
we're going to have to look at for our cyber warriors, if you 
will.
    But the skill set's going to be needed in both the Active 
component and the Reserve component, and I don't think that 
anyone's denigrating the service of the Reserve community cyber 
community in any way.
    Senator Gillibrand. Okay.
    Dr. LaPlante, I'm concerned that we aren't able to move as 
quickly as we need to to get the best, most cutting edge 
technologies, particularly in the cyber theater. What changes 
would you propose in terms of implementing or improving Air 
Force's cyber acquisition strategy?
    Dr. LaPlante. Of course, being cyber, there's many aspects 
of the problem. Let me first talk about the cyber resiliency 
part and then I'll talk about the tools side.
    What we need to do, and we've just begun it in the Air 
Force, but much more work needs to be done, is bring the life 
cycle part of the acquisition system together with the program 
executive officers and to begin to, if you will, first 
understand what the cyber vulnerabilities are in your weapons 
system. While that sounds simple, it's actually quite 
difficult, depending on what level of threat you're talking 
about. Then, when you understand what it is, begin to put in 
what the mitigations are.
    The mitigations can be technical, but it's also important 
to remind ourselves that mitigations can be just a different 
way to operate the system. Very simple what I just said, but 
it's a very complex endeavor and, if anything, also because of 
the way programs buy things. We buy things by weapons systems, 
yet cyber works by being connected. You're only as good as your 
weakest link, if you will, for a weapons system.
    We've already begun that. But I would say there's much more 
work to be done there. Related to that, we're beginning to come 
up with what I would call the beginnings of cyber resiliency 
metrics. That is, things that we can give almost in a 
requirements way to the program to say, you will build this 
system to this resiliency against that threat.
    But what I do think the Air Force and in fact the other 
Services continue to need is flexibilities in dealing with 
implementing new information assurance requirements. One of the 
concerns that a lot of us have is that as we continue to learn 
more about what the cyber threats are and we build up, let's 
say, the requirements for building information assurance into 
the system, by the time it actually gets to a program office it 
may be 2 years later.
    Senator Gillibrand. Right. That's part of the problem.
    Dr. LaPlante. That's part of the problem. We know what was 
a problem 2 years ago----
    Senator Gillibrand. Is not a problem today.
    Dr. LaPlante.--is not a problem today, and what's a problem 
today we didn't even imagine 2 years ago.
    Senator Gillibrand. Right.
    Dr. LaPlante. Anything that will help us build the 
resiliency and get the compliance part of the system to be much 
quicker in reacting and not just do the normal push out 
information assurance would be very helpful.
    Senator Gillibrand. I think you need to, and I think you 
need to make recommendations about how to do that and change 
protocols accordingly.
    Dr. LaPlante. Yes, and I'd be happy, if confirmed, to work 
on that, work on that with you.
    Senator Gillibrand. Turning to mental health, Mr. Carson, 
the issue of mental health, including the stigma surrounding 
post-traumatic stress disorder (PTSD), as well as the rates of 
suicide in our Services, is critical. I receive monthly suicide 
data and I am very, very disheartened to see the number of 
servicemembers who fall through the cracks in our system. If 
confirmed, what are your plans to improve suicide prevention in 
the Army? What will you do to ensure the Army is providing 
appropriate mental health care to the servicemembers and their 
families?
    Mr. Carson. It is a major priority of the U.S. Army, it has 
been for the last couple of years, to improve our suicide 
prevention programs and forestall suicides within the ranks 
among veterans who have served in the U.S. Army. We have about 
125 to 180 suicides per 1,000--or for I guess 100,000 serving--
125 to 185 suicides per year of Active Duty members. That rate 
of 25 or so, 22 to 25 per 100,000, is in excess of what you 
find out in the civilian population at large.
    It comes from a number of fronts. We've put in together 
comprehensive soldier-family fitness programs, readiness and 
resilience programs. We have suicide prevention hotlines. We 
have suicide education standdowns. There is an almost heroic 
effort to try to deal with this problem, a problem that's 
difficult to understand and to grapple with and has many 
different causes and is almost unique in each circumstance.
    A major part of that, though, is about our behavioral 
health treatment, whether it's reducing the stigma associated 
with getting care and admitting to having behavioral health 
conditions. Secretary McHugh has been a real leader on this in 
how he's treated PTSD and making sure diagnoses are uniform and 
fair and making sure that we're out in the community educating 
people.
    It's a multi-front war against suicide, but the Army is 
seized of this issue and realizes it is a matter of paramount 
importance.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Gillibrand.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman. To all the 
witnesses, I appreciate your service.
    Mr. Carson, in June the Army announced its plans to 
integrate women into combat roles, opening up positions within 
27 brigade combat units. Then there are other initiatives under 
way, including the Soldier 2020 initiative to examine the 
specifications for different billets within the Army.
    If you could just talk about the status of the Army's plans 
to integrate women into combat roles, I'd appreciate it.
    Mr. Carson. Absolutely. We have 147 mission occupation 
specialties that are not including those that are in the 
Special Forces and under their control. Of those, 133 are open 
to women today. There are 14 in the combat arms, combat 
engineers, that are not open to women.
    You have really two efforts going on. One is to look at 
those 14 military occupational specialities (MOS) and establish 
occupational requirements for it, to revalidate those. The Army 
Research Institute, the U.S. Army Medical Research 
Environmental Medicine Institute, working with the Training and 
Doctrine Command, are all doing that kind of work. Over the 
next few months, in anticipation of the deadlines set for us by 
the Secretary of Defense, we'll be talking about what the 
requirements are to serve in those particular MOSs.
    At the same time, of course, we have the direct ground 
combat exclusion of women. Even if it was in one of the 133 
eligible MOSs, you couldn't necessarily serve in a combat unit 
or one that was closely associated with it. We are in the 
process right now of opening up all of those, of notifying 
Congress about those. Over the next few months we'll be opening 
up 33,000 positions across the Army to women in those so-called 
closed positions.
    We're working on both the closed occupations and the closed 
positions.
    Senator Kaine. Great. Thank you.
    One program I've been impressed with in the Army is the 
Soldier for Life program. My first bill, which was enacted as 
part of the NDAA, was the Troop Talent Act of 2013, which 
largely focused on the credentialing of Active Duty service 
personnel for the skills they obtain with credentials that are 
meaningful in a civilian workforce, designed to help folks get 
traction quicker as they move back into the private workforce.
    Could you talk a little bit about efforts under way and 
your focus on that issue to assist either in Soldier for Life 
or more broadly in the sort of credentialing work that's being 
done within the Army?
    Mr. Carson. I think working on these issues of soldiers who 
are transitioning out into civilian life are extraordinarily 
important ones and ones I will be very committed to work on as 
the Under Secretary. The veterans unemployment rate is much 
higher than the national average. You just look at it in the 
unemployment payments that the Army is making. Ten years ago we 
spent about $90 million a year on unemployment compensation. 
Today we spend $500 million on unemployment compensation.
    We're trying to deal with these problems through a number 
of innovative programs, working with the Department of Labor, 
others, the Veterans Opportunity to Work program, the Army 
Career and Alumni programs, Soldier for Life, working with 
private sector employers, to where we have close relationships 
so they know the quality and the skills that soldiers have.
    There's a number of programs. Again, it's a multi-front war 
on this problem, and I promise as the Under Secretary I'll both 
continue and work with you and others who are interested in 
these issues, because that transition is a difficult one for 
many soldiers and in an era of downsizing of the Army those 
programs are going to be among the very most important ones 
that we have.
    Senator Kaine. Thank you for that.
    Secretary Creedon, I think a question was asked on this 
topic before I came in, dealing with the recent controversy 
over the exam and how that's being done. I know some of the 
military personnel in charge of nuclear weapons are not 
directly in the oversight of NNSA, but there have been a number 
of incidents sort of touching upon this issue that raise 
questions about just the general morale level. These have come 
up in recent media reports about the Air Force.
    Are you concerned that there's a lack of focus among 
officers within U.S. Strategic Command and how that has 
affected attitudes and focus within the NNSA, and in particular 
what do you see yourself doing to contribute to a morale 
uplift? I know there's been an awful lot of reports of low 
morale within some of these personnel MOSs.
    Ms. Creedon. First, Senator, I have to certainly share the 
disappointment with the announcement that came out yesterday 
with respect to the Air Force. That said, the vast majority of 
the Air Force as well as the Navy nuclear folks--and I know 
it's probably not well known, but there is also a really 
incredible cadre of Army nuclear folks, known as Army 59s, 
that, even though the Army doesn't have nuclear weapons, they 
play a key role in just making sure that the complex runs 
smoothly.
    But nevertheless, morale is a huge problem. I think it's 
something that hurts most those who do the job best and who are 
mostly committed to it, and that's something that I really want 
to make sure, at least within the context of the NNSA, if 
confirmed, that the NNSA sees that they are highly valued, 
they're essential to maintaining a strong, effective, secure 
deterrent, and that they really do play a key role. I think 
sometimes they don't think that the nuclear deterrent is always 
valued.
    Senator Kaine. Thank you for that.
    Dr. LaPlante, a parochial question. The Ballston area in 
Northern Virginia is a real concentration of Government offices 
connected to research, so DARPA, the Office of Naval Research 
(ONR), the Air Force's Office of Scientific Research, National 
Science Foundation, some work done down at Defense Geospatial 
Intelligence Agency. What are your views about how the Air 
Force can work together with DOD and these kind of allied 
Federal research institutions to do more research and 
development as we face the budgetary challenges that we're all 
familiar with?
    Dr. LaPlante. First, I would say I know Ballston well. If 
anybody has been with ONR, DARPA, or the Defense Science Board, 
you're actually spending time in Ballston all the time. We all 
know Ballston well.
    In general, obviously, the science and technology, 
particularly in the times that we are in, where we're drawing 
down, is, if anything, even more important. Regardless of the 
geography of it, science and technology is a priority for the 
Air Force and for being the superior force in 2020, 2023.
    I would pledge that any community outreach, any geography 
issues that the Air Force has, whether it's in science, 
technology, or others, we will engage the local community and 
we will be open-minded and transparent in what we do. But 
again, without committing to anything, I am a fan of the 
concentration in Ballston because I've experienced it myself. I 
would commit to being transparent with anything that the Air 
Force does.
    Thank you.
    Senator Kaine. Just quickly, you indicate as we draw down 
these scientific and research investments will become even more 
important. Could you just explain what you mean by that? I 
think I know what you mean, but I'd like to make sure.
    Dr. LaPlante. Sure. I think it goes somewhat as follows: 
that when we're bringing force structure down, when we're 
beginning to look at what is essential versus what's not 
essential, what we've always relied upon in the United States 
is having a superior, a technological military. We're not going 
to change that.
    What does it mean in today, 2014, to think about what it 
will mean to be technologically superior 10 years from now? 
It's going to come very, very fast. I was on a study just a few 
months ago on 2030 technologies. 2030 is 16 years from now. 
1998 doesn't seem very long ago.
    We have to be doing that work now. We have to be doing it 
in addition to perhaps something we haven't done before, which 
is technology scan. The breakthroughs may be international. 
They may not be domestic. This is the time, in my judgment and 
many other people's judgment, that we have to be emphasizing 
science and technology, for that reason.
    Chairman Levin. Thank you, Senator Kaine.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank all of you for your service to our country. 
Secretary Creedon, I want you to know everyone in Indiana is 
very proud of you and what you've accomplished.
    Mr. Carson, it is nice to see another Blue Dog alum here 
and we wish you the very best.
    Dr. LaPlante, you're not from Indiana, but we're still 
proud of you.
    Congressman Carson, the first question I want to ask you is 
about suicide prevention. It is something that we all have 
worked very hard on. I certainly have had a big focus on this. 
It is part of the defense bill that we moved forward that we 
have a study that's coming out in February as to how to best 
aid our men and women who serve in the Armed Forces.
    One of the areas that we had worked on in our office was to 
try to, as part of the physical health assessments that's made 
of each soldier each year, that a mental health assessment be 
made, and that we talk to the commander of each individual, who 
is there and who sees them every day, who can tell if there's 
changes, and also to do some screening.
    We're supposed to get that report back in February from the 
Office of the Secretary of Defense as to how this will work 
moving forward. We would like to work with you, with the Army, 
obviously with all of the branches, but as someone with the 
Army, to try to help us in this process, because we've lost 
more young men and women to suicide than in combat last year.
    I want to know the Army's--I shouldn't say willingness; I'm 
sure you're willing. But we'd love to have you as a great 
partner in this effort to try to end this scourge.
    Mr. Carson. I can assure you you will have our very much 
utmost partnership in this effort.
    Senator Donnelly. Additionally, Mr. Carson, you mentioned 
before 46 percent of the Army budget now is personnel. In your 
mind, is there a red line that we get to that, we can't cross 
that line in terms of that percentage that's dedicated to 
personnel, as opposed to equipment or other areas?
    Mr. Carson. That number is historically rather stable in 
fact, that while the Army budget has fluctuated over time, that 
45, 50 percent is being spent on military personnel, not 
including our civilian personnel, is more or less stable in the 
Army budget. I think that's a good number. We are a people-
centric Service. We spend much more than the other Services do 
on our soldiers, and that number is probably going to be one we 
try to maintain.
    Senator Donnelly. Do you see it remaining in that 
neighborhood, that percentage, as we move forward? Because I 
know there's concern, for instance with the Navy. Where it was 
one third, it's about half now. Unless some changes come 
through in the future, you're heading up towards two-thirds. Do 
you see it in the Army as being a stable number?
    Mr. Carson. I think we will budget to try to make it a 
stable number. That means we have to make cuts in number of 
people, let's say, or in other areas, try to make this all 
balance, because the Army has a view of what a balanced Army 
budget looks like, the amount we spend on procurement or 
research and development. But we are greatly concerned, and the 
Chief of Staff has spoken quite eloquently about this, about 
the inexorable rise of compensation costs, whether it's health 
care benefits, whether it is pay raises, benefits, these kinds 
of things.
    I know Congress is very interested in this question. We are 
as well, because as the most people-centric Service to keep 
that number stable we do have to get a handle on that 
increasing slope of compensation.
    Senator Donnelly. Secretary Creedon, don't take offense at 
this, but I want to invite Mr. Carson and Dr. LaPlante to Crane 
Naval Warfare Center. You're invited as well, but these two for 
very specific reasons.
    Dr. LaPlante, we do a lot of work on counterfeit and 
counterfeit detection there in terms of parts and supplies and 
equipment. Naturally, in the position that we are hoping you 
are ascending to, what do you see as your role in preventing 
the introduction of counterfeit parts into the Air Force 
process?
    Dr. LaPlante. I would tie counterfeit parts, unfortunately, 
as part of the broader cyber resiliency issue. What we 
typically talk about is we talk about the supply chain, and 
that is understanding for our weapons systems where we're 
getting the parts and that in fact these parts are truly what 
we think they are.
    I would view the counterfeit part issue in terms of the job 
I'm nominated for to be part of building the resiliency into 
that system. I think there are for selected military programs--
we have gone to Trusted Foundries, as you may know. In my view 
there's a limit to how much you can do with Trusted Foundries, 
only because there's a certain throughput. But I think we're 
going to have to start to build resiliency into starting with 
our most critical systems end to end, and that's going to 
include looking at the supply chain and the parts.
    Senator Donnelly. I was wondering if you are a proponent, 
as I am, of more aggressive forensic measures, because, as you 
said, we certainly hope they are from trusted suppliers or 
whatever, but constant spot check or determination on a lot of 
what we come through, because of the critical nature of making 
sure these parts are reliable and perform as advertised.
    Dr. LaPlante. Absolutely. We talked earlier about science 
and technology. I think this is an area that we should be 
investing in in science and technology, noninvasive ways of 
doing surveillance testing on large populations of ships, for 
example, to detect anomalies and things that are in there, 
Trojan horses, whatever. I think that is an active, important 
area of research that we should be doing.
    Senator Donnelly. Secretary Creedon, you have done so much 
work in the nuclear area and in keeping our Nation safe. Just 
recently we went through some challenges with North Korea. As 
we look forward, looking at the government that they have 
there, the actions that have been taken there--and I'm not 
asking you to be an expert on all things North Korean, but what 
do you think are the key steps in making sure that we're able 
to continue to move forward, continue to counter that threat, 
and what do you think are the things that they respond to more 
than anything?
    Ms. Creedon. Senator, from my current position one of the 
things that we've been very instrumental in is ensuring that 
the United States is well protected from whatever the North 
Koreans end up doing with respect to the development of their 
long-range missiles, as well as their short-range missiles, 
which are a threat to the theater and to our forces over there.
    We've been very instrumental in March with respect to the 
Secretary's announcement to expand the capacity and the 
capability of the ground-based strategic deterrent, to add 14 
additional ballistic missile defense interceptors at Fort 
Greely in Alaska. The challenge now is to continue to improve 
those interceptors so that they become safe and efficient.
    From a nonproliferation, counterproliferation, 
proliferation perspective with respect to North Korea, it's 
absolutely essential that we do everything possible to prevent 
them from achieving their goals in their program, from getting 
the materials, the technologies. Whatever it is that they need 
to advance their program, we have to work to be able to prevent 
them from getting those things; also with respect to making 
sure that our allies in the region also feel that our extended 
assurance and deterrence is secure and viable. I think we did 
that too not too long ago when we had the B-52 flyover of the 
Korean Peninsula.
    I think all of these things need to continue to press 
forward so that we maintain a good posture with respect to 
North Korea.
    Senator Donnelly. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Donnelly.
    We will have a second round. We can have perhaps 3 minutes 
for the second round. If we need a third round, we will.
    Senator Donnelly raised an issue of counterfeit parts and I 
want to make sure, Dr. LaPlante, that you are aware of the 
investigation, which was a very extensive investigation that 
this committee held, into counterfeit parts. Millions, 
literally millions of counterfeit parts, have found their way 
into our weapons systems. I would hope that you would find out 
what we had to say, that you would study what we did in the 
2012 defense authorization bill, mainly in the area of holding 
the contractors accountable for those parts and accountable for 
the correction of those parts.
    We've had a lot of effort now on the part of some 
contractors to change our law and to not hold them accountable. 
But hopefully that's not going to happen. We would urge you to 
read this report. It's a pretty disturbing report. Mainly the 
source is Chinese. We looked at the electronic parts, where 
they rip apart old computers, take the parts and wash them, put 
new numbers on them. They do it openly. It's quite an amazing 
operation that they're running there, and we're going to do 
everything we can to stop it, at least as far as weapons 
systems are concerned.
    Dr. LaPlante. Senator Levin, I know about the report. I 
will definitely review it carefully, and I consider it 
extremely important. As we say, it's part of that broader cyber 
issue. I look forward to working, if confirmed, with you on 
that. Thanks.
    Chairman Levin. Mr. Carson, when you take this position you 
will become the second Chief Management Officer of the 
Department of the Army. It's only a few years ago that we said 
that the position that you'll be confirmed to is the Chief 
Management Officer. We did this in 2007 out of frustration with 
the inability of the Military Departments to modernize their 
business systems and processes. We chose to have the Under 
Secretary serve concurrently as Chief Management Officer 
because no other official in the Department of the Army other 
than the Secretary sits at a high enough level to cut across 
all the stovepipes and to be able to implement comprehensive 
change.
    We hope that you will make modernization of the Army's 
business systems and processes a top priority.
    Mr. Carson. I assure you I will consider it a very top 
priority.
    Chairman Levin. Do you think you have the resources and the 
authority needed to carry out the business transformation of 
the Department of the Army?
    Mr. Carson. I do.
    Chairman Levin. If you find out that that's not true, for 
whatever reason, you would let us know?
    Mr. Carson. Yes, of course.
    Chairman Levin. Thank you.
    Senator Blunt.
    Senator Blunt. No, thank you.
    Chairman Levin. All right. Then Senator King or Senator 
Kaine?
    Senator King. One brief follow-up. Mr. Carson, I don't 
expect you to have this data at hand, but perhaps you could 
supply it. I'd be interested in knowing, in that personnel cost 
figure that you were talking about, the breakdown within that 
figure of Active Duty versus retired in terms of costs, of 
health care, retirement. Do you see what I mean?
    Mr. Carson. Absolutely. I will get that to you, Senator.
    Senator King. I appreciate that. Thank you.
    [The information referred to follows:]

    Army retiree expenses are paid into the Department of Defense's 
retiree accrual fund, and the fund distributes payments to retirees. In 
fiscal year 2013, the Army paid about $7.1 billion of the approximately 
$61.1 billion in its military pay budget to the retiree accrual fund. 
This represents about 11.6 percent of the Army's military pay budget in 
that fiscal year.

    Chairman Levin. Senator Kaine?
    Senator Kaine. No additional questions, Mr. Chairman.
    Chairman Levin. All right. Again, we thank you, thank you 
all, for your service and for what you're embarked upon in the 
new positions that you'll be confirmed to. We thank your 
families, your supporters, particularly August. You've done a 
wonderful job, and I know how important it is to an uncle to 
have a nephew or a niece there by his side or her side. I only 
have one nephew, a lot of nieces.
    But it's a good thing that you skipped school today. Don't 
do that too often, though. This has to be a special occasion. 
But we again know how important it was to your uncle that you 
be here today.
    We will stand adjourned, and we will move these nominations 
as quickly as possible--even quicker than usual in the Senate 
these days.
    [Whereupon, at 11:12 a.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Madelyn R. Creedon by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. Section 3141 of the National Defense Authorization Act 
for Fiscal Year 2002 stated that the Principal Deputy Administrator 
shall be appointed ``from among persons who have extensive background 
in organizational management and are well-qualified to manage the 
nuclear weapons, nonproliferation, and materials disposition programs 
of the administration in a manner that advances and protects the 
national security of the United States.''
    What background and experience do you possess that you believe 
qualifies you to perform these duties?
    Answer. I have had over 30 years of experience in a variety of 
executive and legislative branch positions. In addition to my current 
position as an Assistant Secretary of Defense, I have served in 
management positions at the Department of Energy (DOE), including as 
the first Deputy Administrator for Defense Programs at the National 
Nuclear Security Administration (NNSA). I also served as the General 
Counsel of the 1995 Base Realignment and Closure Commission. I was 
honored to serve for many years as a member of the staff of the Senate 
Committee on Armed Services with responsibilities directly related to 
those of the Principal Deputy Administrator of the NNSA.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Principal Deputy 
Administrator?
    Answer. If confirmed, I will focus on understanding the many 
specific responsibilities and interactions that are necessary to ensure 
that I can effectively carry out the duties of the office of the 
Principal Deputy Administrator of the NNSA. I firmly believe that there 
are always actions that I can take to improve my ability to perform 
successfully in any position. That said, some of the key areas on which 
I will focus are program and project management execution, safety and 
security, maintaining science excellence and ensuring that the NNSA 
meets is national security commitments.
    Question. Section 3141 goes on to state that the Principal Deputy 
Administrator ``shall perform such duties and exercise such powers as 
the Administrator may prescribe, including the coordination of 
activities among the elements of the administration.''
    Assuming you are confirmed, what duties and functions do you expect 
that the Administrator of the NNSA would prescribe for you?
    Answer. While there is currently not a permanent Administrator in 
place to provide guidance to this question, history would indicate that 
the Principal Deputy would, among other duties and tasks, focus on the 
internal workings of the NNSA, the budget, and interactions with 
Congress and other departments and agencies.
    Question. Are there any special projects or assignments on which 
you will focus?
    Answer. If confirmed, I would expect to work closely with the 
Administrator to identify specific projects and assignments. I would 
also expect that some projects would focus on restoring the trust in 
and credibility of the NNSA.
                     major challenges and problems
    Question. What is your understanding of the role that you will play 
in the overall administration of the NNSA, in the event that you are 
confirmed?
    Answer. If confirmed, I would expect to be focused on the internal 
workings of the NNSA, the budget, and interactions with Congress and 
other departments and agencies. This would be consistent with the roles 
undertaken by my predecessors.
    Question. In your view, what are the major challenges that will 
confront the Principal Deputy Administrator?
    Answer. The challenges that will confront the Principal Deputy are 
the same that confront the NNSA itself. Implementation of the Nuclear 
Posture Review (NPR) and the President's nuclear security agenda will 
be significant challenges, as will ensuring the continued safety, 
security, and effectiveness of the stockpile and maintaining a highly 
skilled, trained, and capable workforce at NNSA, its labs and plants. 
Doing all this under increasingly constrained budgets will be even more 
challenging. NNSA is midway through its first major life extension 
program and is beginning work on the second even more challenging life 
extension program. Two major manufacturing capabilities are in need of 
replacement, threats from nuclear terrorism and proliferation have 
become more complex, work is underway on a new reactor for the Ohio-
class replacement submarine, and the amount of money available to 
address all of these challenges is decreasing. In addition, confidence 
in the management of the NNSA has been questioned.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed as Principal Deputy Administrator, I will 
develop close working relationships with key partners at NNSA 
headquarters and field offices, the labs and plants, with other 
relevant executive branch partners, and with Congress, to understand 
and address the various problems, issues, and concerns. I would work to 
establish clear expectations, clear plans and requirements, clear lines 
of communications, authority and responsibility, and generally work to 
restore the credibility of and trust in the NNSA.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Principal Deputy Administrator?
    Answer. If confirmed, I will focus on those serious problems 
mentioned above. Resolving these problems will take time and the 
patience of NNSA stakeholders, as well as their support and 
partnership. Reestablishing these baseline relationships will be the 
key to success. If confirmed, I will work closely with the 
Administrator, the leadership of the NNSA and its operating 
contractors, and the whole NNSA team to achieve this goal.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, I will work with the Administrator of the 
NNSA and the whole NNSA team, as well as other departments and 
agencies, to identify, understand, and prioritize the problems facing 
NNSA, and to develop appropriate timelines to resolve these problems.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues that must be addressed by the Principal Deputy 
Administrator?
    Answer. If confirmed, and working in conjunction with the 
Administrator, I would make reestablishing solid baseline relationships 
an overarching priority. I believe this can be achieved while working 
on the specific problems that face NNSA. In addition, if confirmed, I 
would also focus on ensuring that the highly-skilled and talented NNSA 
workforce is closely involved in identifying and resolving the many 
challenges that face the NNSA. An additional priority would be to 
establish stability in the program, budget, and workforce.
    Question. If confirmed, how will you prioritize the NNSA's budget 
and management structure to ensure a safe, secure, reliable, and 
credible nuclear weapons stockpile for the Nation?
    Answer. Achieving this goal will become increasingly more difficult 
in the face of declining budgets. As a result, focusing on improving 
NNSA's overall process to accurately estimate costs, establish clear 
program requirements, and execute those programs will be a priority of 
mine, if confirmed. I would expect to work closely with the 
Administrator, the NNSA leadership and the new Under Secretary for 
Management and Performance to achieve these goals.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Principal Deputy Administrator with the following Officials:
    The Secretary and Deputy Secretary of Energy.
    Answer. If confirmed, I would report through the Administrator to 
the Deputy Secretary and Secretary and represent the Administrator with 
these officials in his absence.
    Question. The Administrator of the NNSA.
    Answer. If confirmed, the Administrator would be my immediate 
supervisor.
    Question. The Deputy Administrators of the NNSA.
    Answer. If confirmed, I would serve as the immediate supervisor for 
the Deputy Administrators for Defense Programs, Defense Nuclear 
Nonproliferation, and Naval Reactors.
    Question. The Assistant Secretary of Energy for Environmental 
Management.
    Answer. Within the NNSA, the Associate Administrator for 
Infrastructure and Operations is the principal interface with the 
Office of the Assistant Secretary for Environmental Management (EM). If 
confirmed, I would interact with the Under Secretary for Management and 
Performance on EM matters, given that the Assistant Secretary for EM 
reports to that Under Secretary, as well as the Assistant Secretary.
    Question. The Assistant to the Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs.
    Answer. NNSA's Deputy Administrator for Defense Programs is the 
main counterpart to the Assistant to the Secretary of Defense for 
Nuclear, Chemical and Biological Defense Programs. If confirmed, I 
would represent the interests of the Administrator and the NNSA with 
this Deputy Administrator, as called for.
    Question. The Chairman of the Nuclear Weapons Council.
    Answer. The Administrator is the principle interface with the 
Chairman and the member of the Nuclear Weapons Council. If confirmed, I 
would represent and support the interests of the Administrator and the 
NNSA to the Chairman of the NWC as appropriate.
    Question. The Commander of U.S. Strategic Command.
    Answer. The Deputy Administrator for Defense Programs is the 
principal interface with the Commander of U.S. Strategic Command. As 
necessary, in the absence of the Administrator, I would represent the 
interests of the Administrator and the NNSA with the Commander in Chief 
of the U.S. Strategic Command.
    Question. The nuclear directorates of the Air Force and Navy.
    Answer. The Deputy Administrator for Defense Programs is the 
principal interface with the nuclear directorates of the Air Force and 
Navy. As necessary, I would represent the interests of the 
Administrator and the NNSA with these officials.
    Question. The Associate Administrator of NNSA for Facilities and 
Operations.
    Answer. If confirmed, I would serve as the immediate supervisor to 
the Associate Administrator of NNSA for Facilities and Operations 
(Infrastructure and Environment).
    Question. The Associate Administrator of NNSA for Management and 
Administration (APM).
    Answer. If confirmed, I would serve as the immediate supervisor to 
the Associate Administrator of NNSA for Management and Administration.
    Question. The DOE Director of Health, Safety, and Security.
    Answer. If confirmed, I would represent the interests of the 
Administrator and the NNSA as called for.
    Question. The Under Secretary of Energy for Science and the 
Director of the Office of Science.
    Answer. If confirmed, I would represent the interests of the 
Administrator and the NNSA as called for.
    Question. The Defense Nuclear Facilities Safety Board.
    Answer. If confirmed, I would represent the interests of the 
Administrator and the NNSA as called for.
                         management of the nnsa
    Question. What is the role of NNSA's Management Council and, if 
confirmed, what would be your relationship with the Council?
    Answer. If confirmed, as the Principal Deputy Administrator, I 
understand that I would be the lead official of the NNSA Management 
Council.
    Question. In your view, are there any changes needed to the 
management structure of the NNSA?
    Answer. If confirmed, I would consult directly with the Secretary, 
the Deputy Secretary, the Administrator, and the Deputy and Associate 
Administrators regarding what changes need to be made to the management 
structure of the NNSA.
    Trust is clearly an issue that remains a challenge within the 
nuclear security enterprise, between headquarters and the field. What 
may assist in addressing this issue is to further clarify lines of 
authority, responsibility, and accountability within the entire NNSA 
enterprise. I understand the Secretary has begun to address these 
management issues. It will also be critical to assess business 
processes to operate more efficiently as well as NNSA's capabilities 
for cost estimation and program execution.
    Question. In your view are there clear lines of authorities and 
responsibilities in the NNSA?
    Answer. I am aware of the relationships prescribed under the NNSA 
Act and know that governance of the NNSA will be a critical area to 
focus on if I am confirmed. I would expect to work closely with the 
Congressional Panel currently conducting a review of NNSA governance. I 
understand the Secretary has begun to implement reforms that would 
clarify lines of authority and responsibility specifically in the areas 
of safety and security across the Department to include the NNSA, and 
if confirmed would work to understand and implement these reforms.
    Question. Do you believe that any changes are needed to ensure 
clear lines of authority and responsibility?
    Answer. I understand the Secretary has begun to implement reforms 
that would clarify lines of authority and responsibility specifically 
in the areas of safety and security across the Department to include 
the NNSA. If confirmed, I would consult directly with the Secretary, 
the Deputy Secretary, the Administrator, and the Deputy and Associate 
Administrators regarding what changes need to be made to the management 
structure of the NNSA.
    Question. As Principal Deputy Administrator, how will you address 
the findings and recommendations from the dozens of reports that have 
been published in the past 2 decades regarding management problems at 
NNSA/DOE?
    Answer. I am very familiar with the many reports that have been 
published over the years identifying management challenges at DOE and 
NNSA. If confirmed, I will work with the Secretary and the 
Administrator to continue to tackle these challenges. I would also want 
to personally engage with the members of the Congressional Advisory 
Panel who have been charged with examining the governance structure, 
mission, and management of the nuclear security enterprise.
                      weapons programs work force
    Question. If confirmed, what specific steps would you recommend for 
the NNSA to retain critical nuclear weapons expertise, particularly 
design capabilities, in the Federal NNSA workforce and at the labs and 
the plants?
    Answer. If confirmed, recruiting and retaining world class talent 
within NNSA's Federal and contractor workforce will be a priority of 
mine. As the Federal agency responsible for the management of the 
nuclear security enterprise, including one of a kind detection and 
forensic capabilities, I believe it is essential for NNSA to provide 
meaningful and challenging professional opportunities that attract and 
retain dedicated professionals. Central to this effort is fostering an 
enterprise-wide sense of purpose in NNSA's nuclear security mission. 
Particular attention must be placed on ensuring that, as the current 
NNSA workforce ages, the administration maintains partnerships with the 
academic and university communities through pipelines that encourage 
and attract the world's best engineers, scientists, and technical 
experts. Also key to the health of the Labs is maintaining the ability 
to utilize the independent research and development (R&D) funds.
    Question. If confirmed, what specific steps would you recommend for 
the NNSA to ensure that adequate and appropriate technical skills are 
maintained in NNSA workforce and at the labs and the plants?
    Answer. Successful Federal workforce planning is essential for NNSA 
to retain the appropriate degree of technical skills within the 
workforce. A combination of well-designed recruitment and internship 
programs, academic partnerships, continued collaboration with minority 
serving institutions, and outreach programs with the science and 
academic community is something I believe will remain critical to 
NNSA's laboratories and plants.
    Question. In your view, what are the critical skills that are 
needed in the NNSA complex wide?
    Answer. The success of NNSA's laboratories, plants, and facilities 
in large part relies upon the Federal and contractor workforce 
maintaining a diverse set of critical skills. Within the national 
security laboratories, as the fiscal year 2014 Stockpile Stewardship 
and Management Plan addresses, the critical skills and knowledge needed 
include nuclear design and evaluation, computing and simulation, 
manufacturing and fabrication, electrical, mechanical, and materials 
engineering, project management, nuclear criticality safety engineering 
and nuclear design code development. Many of these same skills are also 
essential for the nuclear nonproliferation, counterterrorism, and 
emergency response work of the NNSA. These are just some of the 
essential skills that underpin the important work across the NNSA 
complex and programs.
                        safeguards and security
    Question. What role, if any, will you have in ensuring safety and 
security in the nuclear weapons complex?
    Answer. If confirmed, the safe and secure operation of the nuclear 
weapons enterprise, personnel, and assets will be my top priority. I 
will work in partnership with the Administrator, and in accordance with 
the Secretary's vision to ensure a strong professional culture that 
values security and safety. This includes executing existing security 
and safety best practices and working with DOE and NNSA leadership to 
provide an operationally safe and secure complex. I will also 
collaborate closely with the Defense Nuclear Facility Safety Board 
(DNFSB) to ensure that NNSA appropriately applies safety best practices 
and policies throughout the nuclear security enterprise.
    Question. In your opinion, what are the biggest safety and security 
threats to the facilities and materials in the nuclear weapons complex?
    Answer. I understand the critical importance of maintaining safety 
and security at all NNSA sites. If confirmed, I will emphasize NNSA's 
commitment to proactively mitigate cyber, physical, materials, and 
transportation security threats, and ensure operational safety 
standards are met.
    Question. What role, if any, will you have in ensuring operational 
nuclear safety in the nuclear weapons complex?
    Answer. If confirmed, I will be committed to the safe and secure 
operation of the nuclear weapons enterprise and the dedicated 
professionals serving in NNSA's Federal and contractor workforce. I 
will work to ensure that NNSA sites, plants, and staff are properly 
equipped and trained to effectively execute all applicable safety and 
security standards and laws.
    Question. What role, if any, will you have with the DNFSB?
    Answer. If confirmed, I will work closely with the DNFSB on their 
recommendations. I am quite familiar with the DNFSB's statutory 
responsibility to review the design and ensure adequacy of operational 
nuclear safety controls at defense nuclear facilities. It is critically 
important for the NNSA to work proactively with the DNFSB early in the 
design and execution process so as to resolve any operational nuclear 
safety concerns that could later play a role in the eventual cost of 
the project.
                     stockpile stewardship program
    Question. What is your view of the Stockpile Stewardship Program's 
progress towards its goal of being able to continuously certify the 
U.S. enduring nuclear weapons stockpile as safe, secure, and reliable, 
without the need for underground nuclear testing?
    Answer. The Stockpile Stewardship Program has been very successful 
to date in maintaining a safe, secure, and effective deterrent without 
the need for underground nuclear explosive testing. Some of the various 
experimental facilities that underpin the success of the program are 
the National Ignition Facility (NIF) at Lawrence Livermore National 
Laboratory; the Z machine at Sandia National Laboratories; the Dual-
Axis Radiographic Hydrodynamic Test Facility at Los Alamos National 
Laboratory; and the Joint Actinide Shock Physics Experimental Research 
Facility at the Nevada National Security Site. Underlying the success 
of all these facilities are the laboratory computational facilities. If 
confirmed, I will visit all the sites in the NNSA enterprise to meet 
the workforce and see the capabilities that assess the safety, 
security, and effectiveness of our nuclear weapons and the experimental 
tools that contribute to broader national security. I will work to 
ensure that these facilities are maintained so that the NNSA can 
continue to make the necessary certifications in the absence of 
underground nuclear explosive testing.
    Question. In your opinion, what are the greatest challenges 
confronting the Stockpile Stewardship Program?
    Answer. The greatest challenge that currently confronts the 
Stockpile Stewardship Program is an unpredictable budget environment. 
NNSA must balance planned life extension programs and infrastructure 
modernization investments while maintaining the scientific research and 
experimental capabilities required certifying the stockpile. I also 
believe that steady, continued investments in science and engineering 
at all of the sites remains a core requirement in order to maintain and 
attract the high quality staff essential to the long-term mission of 
maintaining the deterrent without returning to underground nuclear 
explosive testing.
    Question. Do you fully support the goals of the Stockpile 
Stewardship Program?
    Answer. Yes.
    Question. In your view what additional capabilities will the 
Stockpile Stewardship Program need in the next 5 years?
    Answer. I am not aware of any major additional capabilities 
required beyond those already described in the fiscal year 2014 
Stockpile Stewardship and Management Plan, but requirements will have 
to be mapped against resource constraints. NNSA needs to have the means 
to ensure that new technical and policy expertise relating to nuclear 
policy is ``grown'' in NNSA as the nuclear workforce continues to age. 
It is also critical that NNSA have consistent and predictable funding.
    life extension programs in support of the nuclear posture review
    Question. As a result of the 2010 NPR, the Nuclear Weapons Council 
has laid out a schedule over the next 20 years that involves numerous 
demands on the NNSA, these are the B-61 life extension program, the 
interoperable warhead, the W-88/87 joint fuse program, the warhead for 
the long-range stand off weapon, in addition to the maintenance of the 
existing stockpile systems (W-88, W-87, W-76, W-78, B-61, B-83, and W-
80).
    What do you see as some of issues in this ambitious schedule that 
concern you?
    Answer. In my current capacity as the Assistant Secretary of 
Defense for Global Strategic Affairs, I am very much aware that nuclear 
modernization work of this kind is expensive, technically demanding, 
and time consuming. The Nuclear Weapons Council has developed a 
strategy for managing the cost, scope, and schedule of these 
modernization activities. This strategy should help refine the 
concurrent nature of this work to better map our requirements, planned 
resources, and workforce capabilities. Of course maintaining the budget 
needed to achieve the strategy will be a challenge.
    Question. Are you concerned this schedule is achievable if 
sequestration continues?
    Answer. I am very concerned about the effect of sequestration and 
general budget constraints on this schedule. Consistent and predictable 
funding is essential to maintaining the planned schedule for such 
complex and technically challenging modernization programs. Given my 
experience at DOD, I am well aware how sequestration, as well as 
continuing resolutions, can cause crippling uncertainty for the people 
and the programs.
    Question. The NNSA is in the early stages of an effort to develop 
an interoperable warhead for the W-88 and W-78 systems.
    If the cost of the interoperable warhead become prohibitive would 
you support life extensions of the existing systems?
    Answer. I believe that this decision would be in the purview of the 
Nuclear Weapons Council, which has full awareness of and the statutory 
responsibility to consider various technical, military, and budgetary 
options and issues.
    Question. Do you support the current scope of the B-61 mod 12 life 
extension program?
    Answer. Yes.
    Question. Are you concerned about the overall cost of the B-61 mod 
12 life extension program and if so what particular issues are of 
concern?
    Answer. The B61-12 LEP was chosen as the option that meets military 
requirements at the lowest cost. If confirmed, I will continue the 
NNSA's commitment to a safe, secure, and reliable nuclear deterrent. 
This includes sustaining and maintaining the nuclear stockpile, and 
modernizing the nuclear infrastructure and delivery systems. The 
President has said that the United States will retain a safe, secure, 
and effective nuclear deterrent, as long as nuclear weapons exist. 
Modernizing the stockpile is essential to achieving that goal but will 
become more challenging in a constrained budget environment.
    Question. The Senate Appropriations Committee has proposed a 
reduction of $168 million to the President's fiscal year 2014 request 
for the B61 Life Extension program. What impact will this have on the 
B61 LEP in terms of cost and schedule? How might it affect other 
planned LEPs?
    Answer. A cut of this magnitude would substantially delay the 
overall schedule and could jeopardize the overall effectiveness of the 
weapon system. A slip to the B61-12 LEP could also adversely impact the 
schedule for future LEPs.
                           overall management
    Question. What is your view on the relationship and the relative 
duties and responsibilities of the Secretary of Energy as found in the 
Atomic Energy Act and the Administrator of the NNSA?
    Answer. The NNSA Act states that the Secretary establishes 
overarching policy for the DOE and the NNSA and may direct DOE 
officials to review NNSA programs and activities. These DOE officials 
can then make recommendations to the Secretary regarding administration 
of the NNSA program and activities. Having served as the Deputy 
Administrator for Defense Programs during the first year of the NNSA, I 
have an appreciation for the critically important role of the Secretary 
in ensuring the mission of NNSA is successfully executed, and the need 
to work cooperatively with the other organizational units of the DOE.
    Question. Do you believe that there are any organizational 
structure issues in the NNSA that should be addressed to improve 
management and operations of the NNSA, or that you would address if 
confirmed?
    Answer. I believe the statutory structure of the NNSA is sound and 
that the primary challenge lies with implementing that structure. The 
challenges related to site security and major project management have 
been among the most significant. If confirmed, I will focus on 
implementing and then sustaining the reforms to security that have been 
put forth by Secretary Moniz and implementing additional reforms as 
needed. If confirmed, I will work with the Administrator, Deputy 
Administrators, Associate Administrators and the leadership of the NNSA 
facilities to build on improvements to NNSA's project management, 
program review, and cost estimation expertise. This collaborative 
effort will include creating an implementation plan to stand up NNSA's 
Office of Cost Estimation and Program Evaluation as directed by the 
National Defense Authorization Act (NDAA) for Fiscal Year 2014.
    Question. The NNSA and DOE has been plagued by cost overruns and 
project cancellations related to the construction of nuclear 
facilities, nuclear weapons modernization programs, and nuclear 
stockpile stewardship facilities.
    How serious are these cost overruns in your view?
    Answer. Cost overruns are a very serious issue. NNSA is challenged 
in the coming years with a significant uptick in work activity related 
to modernization of the stockpile and responsive infrastructure. If 
cost overruns persist, NNSA's critically important mission could be 
adversely affected.
    Question. What steps will you take, if confirmed, to ensure they 
are not repeated in the future?
    Answer. If confirmed, and as I stated before, I will work with the 
Administrator, Deputy Administrators, and Associate Administrators to 
build on improvements to NNSA's project management, program review, and 
cost estimation expertise in an effort to ensure we are committing to 
work that can be delivered on time and on budget. This collaborative 
effort will include creating an implementation plan to stand up NNSA's 
Office of Cost Estimation and Program Evaluation as directed by the 
NDAA for Fiscal Year 2014.
    Question. Do you believe that the expertise of DOE personnel 
serving outside the NNSA can be helpful to you if confirmed? If so, how 
do you expect to utilize this expertise if you are confirmed?
    Answer. Yes. DOE relies upon an exceptionally skilled workforce at 
the laboratories, plants, and headquarters. If confirmed, I would 
enthusiastically utilize the world class expertise that exists 
throughout the complex to drive favorable outcomes to NNSA's toughest 
challenges.
    Question. Are you aware of any limitations on your authority, if 
confirmed, to draw on that expertise?
    Answer. No. I am not aware of any limitations on my authority, if 
confirmed, to draw on the expertise that resides within DOE. If, 
however, any are identified, I will work promptly with the 
Administrator, the Secretary and Deputy Secretary to resolve any 
issues.
    Question. What is your view of the extent to which the NNSA is 
bound by the existing rules, regulations, and directives of DOE and 
what flexibility, if any, do you believe you would have in implementing 
such rules, regulations, and directives?
    Answer. If confirmed, I will adhere to the NNSA Act, which sets 
forth the relationship between the DOE and NNSA. DOE and the NNSA have 
a unique partnership in order to ensure the integrity of the nuclear 
security enterprise. I anticipate working closely with the 
Administrator in conjunction with the Secretary, the Deputy Secretary 
and the other senior leadership throughout the Department to ensure the 
NNSA runs smoothly and efficiently.
                             advisory board
    Question. The NNSA had an external advisory board, which included 
technical and other subject matter experts to provide advice to the 
NNSA. The charter for the board was allowed to expire. In your view is 
there any benefit to reconstituting an advisory board? Why or why not?
    Answer. I believe there is great value gained by receiving advice 
and counsel from external groups comprised of subject matter experts. 
If confirmed, I will work with the Administrator to determine the most 
appropriate format to utilize outside expertise.
                     facilities and infrastructure
    Question. DOE and the NNSA have looked at, and have in some 
circumstances used, third party or other alternate financing options 
for construction projects.
    If confirmed, would you commit to review carefully any NNSA 
proposal to undertake construction projects with funding approaches 
that deviate from the traditional line item funding approach?
    Answer. Yes. If the NNSA finds that third party financing 
arrangements are beneficial in the future, if confirmed, I would commit 
to ensuring that Congress is fully informed of all plans to use third 
party financing and that all projects are consistent with executive 
branch and statutory requirements.
    Question. In addition, would you commit to keep the committee fully 
informed of any such proposals, to fully coordinate any proposal with 
the Office of Management and Budget, and to ensure that any such 
proposals include a business case documenting that any alternative 
financing approach is in the best interests of the taxpayer?
    Answer. Yes.
    Question. One of the goals of the effort to modernize the nuclear 
weapons complex is to reduce the number of square feet of building 
space.
    As the NNSA proceeds with construction projects in the future, 
would you commit to support the goal, and work to include in the total 
project cost of any new facility the cost to dispose of any buildings 
or facilities that are being replaced?
    Answer. Yes.
    Question. In some instances the disposition of old buildings might 
be more appropriately handled by the Office of Environmental Management 
(EM). In your view under what circumstances should EM be responsible 
for the disposition and under what circumstances should the NNSA be 
responsible?
    Answer. I support the current division of labor where EM disposes 
of facilities with process-related contamination (i.e. contamination 
not commonly managed in private sector operations, typically 
radioactive contamination) and NNSA disposes of all other facilities. I 
understand that discussions are ongoing between NNSA and EM to develop 
more specific criteria for transfer, and if confirmed as Principal 
Deputy Administrator, I would support this work to further clarify 
roles and responsibilities in this area. I recognize that the current 
inventory of process contaminated surplus facilities DOE-wide will 
require substantial time and resources to disposition and these process 
contaminated facilities tend to present higher risks than other surplus 
facilities, so I would support looking at ways for NNSA to complete 
prudent risk reduction activities while awaiting transfer to EM.
    Question. Do you believe that clear criteria exist on which to make 
disposition determinations?
    Answer. If confirmed, I will review carefully the existing criteria 
for their adequacy. If necessary, I will make recommendations to the 
Administrator to clarify relevant criteria.
    Question. The Facilities and Infrastructure Recapitalization Plan 
(FIRP) was terminated in 2013. This program was intended to reduce the 
large backlog of deferred maintenance for NNSA facilities.
    With the termination of FIRP, how do you believe NNSA should 
continue to address its backlog of deferred maintenance?
    Answer. I understand, since the termination of FIRP, NNSA's 
deferred maintenance backlog has increased. If confirmed as Principal 
Deputy Administrator, I would support NNSA efforts to prioritize the 
existing resources and identify opportunities for enterprise-level 
solutions to reduce the maintenance backlog.
    Question. As Deputy Administrator, how will you ensure the deferred 
maintenance backlog continues to be reduced?
    Answer. If confirmed as Principal Deputy Administrator I will 
prioritize NNSA's existing resources and identify opportunities for 
enterprise-level solutions to reduce the maintenance backlog.
             environmental restoration and waste management
    Question. What responsibility do you believe the NNSA should have 
for funding, managing, and disposing of its current and future 
hazardous waste streams and for future environmental restoration?
    Answer. I believe that as the landlord of its eight sites, NNSA is 
responsible for managing and disposing of its current and future 
hazardous waste streams and ensuring that these operations do not 
create future environmental restoration obligations. Environmental 
restoration, however, is not a core NNSA capability--NNSA's 
responsibility is to ensure that EM, the partner DOE program with that 
core capability, and all NNSA stakeholders, including Congress, are 
aware of NNSA's requirements. This will require close teamwork and 
partnership between NNSA and EM. If confirmed, I will work to ensure 
NNSA and EM work together to meet these needs.
    Question. What specific steps do you believe the NNSA should take 
to negotiate programmatic responsibilities for environmental activities 
between the NNSA and the Office of the Assistant Secretary for 
Environmental Management?
    Answer. NNSA and EM are partners, each with their own core 
capabilities. NNSA works with its EM counterparts at all levels to 
ensure each understands the total requirement and how they will work 
together to protect workers, the environment, and the public. I think 
the division of responsibilities between NNSA and EM is well 
understood, but if confirmed, I will commit to review this relationship 
and to ensure its continued success.
    Question. If confirmed, what role do you anticipate you will play 
in this process?
    Answer. If confirmed I would work to ensure that environmental 
restoration, waste management, and facility disposition goals are 
included as appropriate in each relevant senior manager's performance 
goals, including mine, and are addressed in all strategic plans and 
budget submissions, and that each funding decision is fully informed by 
the risks it accepts.
               defense nuclear nonproliferation programs
    Question. In your view, are any policy or management improvements 
needed in the Defense Nuclear Nonproliferation Programs? If so, what 
improvements would you recommend?
    Answer. NNSA's Defense Nuclear Nonproliferation (DNN) programs are 
vital to U.S. national security and are a first line of defense in 
reducing the risk of nuclear terrorism and proliferation. If confirmed, 
I would commit to working with the Secretary, Deputy Secretary, 
Administrator, and Deputy Administrator for Defense Nuclear 
Nonproliferation, as well as other strategic partners, to consider the 
future of the DNN programs as we move towards the goal of permanent 
threat reduction where possible, vice a prevention-focused approach. 
Great progress has been made to date on securing vulnerable nuclear 
material worldwide, but much work remains to address the nuclear 
terrorism and proliferation threat.
    In this fiscally constrained environment, it will be critical to 
continue to move some of our foreign cooperative relationships from 
assistance to partnership. In addition, we need to engage our 
international partners to ensure that work completed to date is 
maintained and sustained.
    Question. NNSA has significantly expanded its work in the Megaports 
program in cooperation with the Department of Homeland Security and to 
secure vulnerable weapons usable materials worldwide, the Global 
Lockdown program, which is being implemented in cooperation with the 
Department of Defense (DOD).
    If confirmed, would you commit to keeping Congress fully informed 
as to the success of, as well as any problems with these cooperative 
relationships?
    Answer. Yes. If confirmed, I would commit to keep Congress fully 
informed of these cooperative relationships. From my current vantage 
point as the Assistant Secretary of Defense for Global Strategic 
Affairs, I see the tremendous interagency cooperation among the 
Departments of Defense, State, Energy, and Homeland Security, the 
Intelligence Community, the Nuclear Regulatory Commission, and the 
Federal Bureau of Investigation and if confirmed, I will work to ensure 
those important relationships continue. These relationships leverage 
expertise and resources and ensure there is no duplication of effort 
and no major gap in addressing the broad scope of nuclear security 
issues at home and abroad.
    Question. The NNSA has responsibility for the bulk of the Federal 
Government's basic research on radiation detection technologies as well 
as other nuclear technologies, such as those used in nuclear forensics.
    If confirmed, would you commit to undertake a review of the 
nonproliferation R&D program to ensure that it is adequately funded and 
fully coordinated with the activities of other Federal agencies?
    Answer. I understand that an external review of the R&D program was 
completed in May 2011, and that the recommendations from that review 
have been implemented.
    If confirmed, I will work with the Administrator and the Deputy 
Administrator for DNN to ensure these critical R&D activities are fully 
supported and coordinated.
    Question. The NNSA nonproliferation programs have occasionally had 
implementation issues that have resulted in large carryover balances.
    In your view is the management in place to implement the new Global 
Lockdown program and to ensure that the funds are spent in a timely and 
effective manner?
    Answer. I understand there has been tremendous success in achieving 
President Obama's 4-year effort to secure vulnerable nuclear material 
worldwide but that much work still remains for the future. If 
confirmed, I will work with the Administrator and Deputy Administrator 
for DNN to ensure the continued implementation of the Global Lockdown 
program and that funds are spent in a timely and effective manner.
    Question. If not, what changes would you recommend?
    Answer. I am not in a position to recommend any changes at this 
time. If confirmed, I would discuss this further with NNSA and DNN 
leadership.
                         national laboratories
    Question. The NNSA, as the steward of the three National Security 
Laboratories, has a responsibility to ensure that the labs are capable 
of meeting their broad national security obligations, not just those of 
the NNSA.
    What is your view on the role of the three National Security 
laboratories in addressing broad national security challenges and the 
role of the NNSA in overseeing those activities?
    Answer. The three National Security Laboratories have a unique role 
in ensuring a variety of national security challenges are met. 
Maintaining the vitality of the laboratories and sites and the core 
competencies of the workforce at each site must be a priority for the 
NNSA. NNSA laboratories and sites possess unique capabilities that 
other agencies utilize to serve their national security missions. 
Supporting these national security missions not only advances the 
Nation's security interests, but also exercises, challenges, and 
augments workforce skills and laboratory capabilities. In addition, 
there are often direct benefits back to NNSA's programs. I firmly 
believe in order to recruit and retain top-notch personnel you must 
provide them challenging and interesting work--including national 
security work--as well as world-class laboratory equipment and 
facilities in which to work. NNSA has a role to enable this kind of 
work and a responsibility to understand the benefits from these 
efforts. NNSA also has a responsibility to oversee the work of the 
laboratories to ensure they perform the work entrusted to them and they 
do so safely and securely.
    Question. In your view are there any changes that are needed to 
facilitate or improve the work for others program at the three National 
Security Laboratories?
    Answer. If confirmed, I will review the interagency work performed 
at the three laboratories and make a recommendation to the 
Administrator about any changes that may need to be made.
    Question. The three NNSA laboratories are Federally Funded Research 
and Development Centers (FFRDC) run under a government-owned, 
contractor-operated model.
    Do you see these laboratories as simply contractors, or partners in 
carrying out NNSA's mission?
    Answer. As FFRDCs, the three NNSA laboratories have a special long-
term relationship with NNSA. As such, they have access to information, 
equipment and property beyond that of normal contractual relationships 
and operate in the public interest with objectivity and independence, 
free of organizational conflicts of interest. The NNSA contractor 
operators of the labs and plants have special and unique national 
security responsibilities. NNSA relies on the technical expertise of 
the three laboratories as they are integral to the mission and 
operation of NNSA. I do, however, believe the relationships between 
Federal employees and the laboratories, as well as the plants, must be 
strengthened.
    Question. Do you believe the directors of the three NNSA 
laboratories have a statutory duty to provide objective advice and 
opinions to Congress? If so, how will you ensure Congress receives such 
advice?
    Answer. The directors of the three NNSA laboratories have a 
statutory duty to provide their advice and opinions to Congress as 
directed by various reporting requirements, such as the requirement at 
title 50 U.S.C. Sec. 2525 to provide a Stockpile Assessment Report 
which is transmitted to Congress through executive agencies and the 
President. If confirmed, I will make sure these statutory requirements 
are carried out.
                      materials dispositon program
    Question. The NNSA is responsible for implementing the U.S. 
commitment to the Russian Government to dispose of 34 metric tons of 
weapons grade plutonium. There are many issues and challenges facing 
the program including the fact that it is substantially over budget.
    What role will you play in ensuring that all aspects of this 
program will be on schedule and on budget and if necessary to review 
alternative disposition technologies?
    Answer. In my current capacity at DOD, I am aware that the 
Department is conducting a review of options for plutonium disposition 
and that the Secretary of Energy will make a determination on the path 
forward in the near future. If confirmed, I would work with the 
Secretary, Deputy Secretary, the NNSA Administrator and Deputy 
Administrator for Defense Nuclear Nonproliferation, other U.S. 
Government leaders, as well as our international partners to ensure 
that we are pursuing our commitments in the Plutonium Management and 
Disposition Agreement with Russia and that the Secretary's guidance is 
implemented.
    Cost overruns are always a concern but even more so in today's 
fiscal climate. If confirmed I will work with the Administrator to 
implement the Secretary's decision effectively and efficiently.
                       national ignition facility
    Question. The National Ignition Facility (NIF) supports nuclear 
weapons experimental work but also has the capability to support a 
broad range of science and energy research challenges.
    If confirmed, what role, if any, will you play in ensuring the 
success of the NIF and to ensure that NIF is fully utilized?
    Answer. If confirmed, I will support the Administrator in 
maintaining NIF as a central part of the NNSA enterprise. It is an 
essential facility for understanding our nuclear weapons stockpile in 
the absence of nuclear explosive testing to ensure a safe, secure, and 
effective nuclear deterrent. NIF also contributes important 
capabilities to basic science and energy research.
    Question. What are the future implications to the facility and the 
stockpile stewardship program if NIF does not achieve sustained 
ignition?
    Answer. The work at NIF is vitally important to ensuring the 
safety, security, and effectiveness of our nuclear weapons stockpile. 
All of NIF's experiments contribute to our knowledge of nuclear weapons 
characteristics and, in turn, to implementing our stockpile stewardship 
program.
    Question. Do you believe NIF should be utilized primarily to 
support stockpile stewardship activities, energy research, or basic 
science?
    Answer. NIF was built as a stockpile stewardship tool and I support 
its use to maintain the stockpile.
                     contractor-operated facilities
    Question. What recommendations, if any, would you make to improve 
oversight of and contractor management of the facilities in the nuclear 
weapons complex?
    Answer. Before making any specific recommendations, and if 
confirmed, I would review the existing system to understand the 
existing oversight methodologies. As needed I would then work to ensure 
that there are clear lines of authority, responsibility, and 
accountability for both Federal and contract staff; that performance 
expectations are understood to achieve mission requirements in an 
efficient and effective manner; and that there is a strong emphasis on 
strengthening the safety and security culture. I understand that NNSA 
is making headway in its efforts to hold its contractors accountable 
for performance, particularly in its capital construction projects. I 
would hope to build upon these early successes.
    Question. In your view what is the role of the NNSA field offices 
in the oversight of the contractor-operated facilities?
    Answer. The NNSA field offices, as the first line of oversight, are 
best positioned to recognize potential issues before they become 
problems. For them to be successful the partnerships between 
headquarters and field and between Federal and contractor employees 
must be strong.
    Question. Do you believe that recent problems contractor-operated 
facilities have resulted from too little government oversight?
    Answer. The Department has been criticized for both too little and 
too much oversight in regards to contractor-operated facilities. Before 
I take a view on the problem in specific instances, I would need to 
evaluate the situation in greater detail. I understand that NNSA is 
working to improve oversight mechanisms, to include clarifying roles, 
authorities, and functions for the organization. If confirmed I would 
work to ensure that the right balance of oversight for the specific 
activity is achieved and maintained.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Principal Deputy 
Administrator?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees in a timely manner?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator Saxby Chambliss
                            mixed oxide fuel
    1. Senator Chambliss. Secretary Creedon, in his fiscal year 2014 
budget request, the President sought to end the Mixed Oxide Fuel (MOX) 
Fabrication Facility at the Savannah River Site. Is this an opinion you 
share and would you recommend lowered funding for MOX in the upcoming 
budget cycle, if confirmed?
    Ms. Creedon. The Department is committed to the U.S. Plutonium 
Disposition mission and to fulfilling its obligations under the U.S.-
Russia Plutonium Management and Disposition Agreement. However, the 
U.S. plan to dispose of surplus weapon-grade plutonium by irradiating 
it as MOX fuel has proven more costly than anticipated. As described in 
the fiscal year 2014 budget request, the administration is conducting 
an analysis of disposition technology options to determine how best to 
complete the mission.
    I understand that the analysis has not yet been finalized. If 
confirmed, and in conjunction with the Secretary, Deputy Secretary, and 
Administrator, I commit to work closely with Congress to ensure the 
United States meets its plutonium disposition obligations.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
             department of energy inspector general report
    2. Senator Ayotte. Secretary Creedon, according to a January 2014 
Department of Energy Inspector General (IG) report on the National 
Nuclear Security Administration's (NNSA) Management of the $245 million 
Nuclear Materials Safeguards and Security Upgrades Project (Phase II) 
at Los Alamos National Laboratory, the project ``suffered from a number 
of project management weaknesses.'' As a result, the report said ``the 
project will be delayed by approximately 1 year and will require an 
additional $41 million more than anticipated to complete.'' Can you 
address this IG finding?
    Ms. Creedon. The Nuclear Materials Safeguards and Security Upgrade 
Project (NMSSUP) is a project that upgrades security at Los Alamos 
National Laboratory's (LANL) Technical Area-55, a facility that houses 
high-security plutonium assets and operations. I understand the project 
is scheduled to be completed in the spring of 2014. The original Total 
Project Cost (TPC) for NMSSUP was $245 million. The NMSSUP project is 
currently tracking to deliver at or below the original TPC.
    In April 2010, the original TPC was reduced to an estimated cost of 
$213 million. This was done without a thorough understanding of the 
risks and based on unreliable Earned Value Management System data. In 
September 2012, LANL issued stop work orders to contractors due to 
ongoing quality concerns with construction, and in October 2012, LANL 
suspended work on the project because the expected cost would exceed 
the $213 million budget.
    Subsequently, after NNSA's Office of Acquisition and Project 
Management (NA-APM) was established, project management responsibility 
and accountability was transferred to NA-APM by the NNSA Administrator 
and the Acquisition Executive. In January 2013, LANL proposed 
increasing the TPC to $254 million; however, NA-APM rejected that 
proposal and instead reached an agreement wherein the contractor would 
absorb $10 million of the overrun. As a result, the revised TPC became 
$244 million, $1 million below the original TPC.

    3. Senator Ayotte. Secretary Creedon, how will you ensure there are 
no more delays or cost growth in this project?
    Ms. Creedon. I understand that NNSA has taken actions to foster an 
improved culture of responsibility and accountability for delivering 
work on time and on budget. Some of these reforms that have been 
administered by NA-APM have included hiring a new Federal Project 
Director (FPD) with Level 3 project management certification. NNSA 
provided the new FPD with full Contracting Officer's Representative 
authority. The FPD was also given additional Federal and contractor 
support to execute his responsibilities. A new highly qualified 
contractor project manager was also put in place on the NMSSUP project.
    My understanding is that the NMSSUP project is currently in 
acceptance testing. The total project cost will not be known until the 
project is accepted. I understand that NNSA intends to ensure that the 
contractor is held accountable for any defects and charged accordingly 
as NNSA previously did with the $10M in unallowable costs.
    The NMSSUP project represents a significant cultural change for the 
NNSA. NA-APM and the NMSSUP Project Team demonstrated that with the 
right team, focused attention to detail, and top to bottom leadership 
involvement even a troubled project can be righted when clear 
expectations are set and all parties accept accountability for their 
role in project delivery. If confirmed, I will work to ensure there is 
a successful conclusion to this and all other projects.

                     national security laboratories
    4. Senator Ayotte. Secretary Creedon, in your responses to the 
advance policy questions, you discuss the health of our three national 
security laboratories. You say that, ``Maintaining vitality of the 
laboratories and sites and the core competencies of the workforce at 
each site must be a priority . . .'' In the past, I have heard concerns 
about the loss of expertise and core competencies of our national labs 
supporting our nuclear deterrent. Do you share these concerns?
    Ms. Creedon. I am concerned about retaining critical skills at the 
laboratories and sites because it's the people that enable the 
laboratories and sites to deliver the best products for national 
security. If confirmed, I will face this challenge head on by ensuring 
NNSA's talented and highly skilled workforce--contractor and Federal--
is sustained through effective workforce recruitment, mentoring, and 
development. This workforce is the NNSA's chief asset.

    5. Senator Ayotte. Secretary Creedon, if you do share these 
concerns, what is causing this problem?
    Ms. Creedon. There are competing factors that stress our critical 
skills. As we move further from the end of the Cold War, our ability to 
recruit topflight talent into a nuclear weapons program is increasingly 
challenging, as nuclear weapons are not viewed as an attractive [long-
term] career. Over time the number of scientists with certain skills, 
such as testing, has significantly decreased as it has been 20 years 
since the last nuclear test. I am most concerned that we ensure that 
the laboratories and facilities are able to attract the best and the 
brightest, and that the experiences are passed to the next generation 
so that they can further develop the skills needed to maintain and 
certify the stockpile in the absence of testing. Key to evolving the 
skills and attracting the top talent to maintain the stockpile of the 
future are the facilities, computational, and experimental capabilities 
to ensure the generation charged with this responsibility will have the 
skills to undertake the responsibility. If confirmed, I will examine 
how to strengthen NNSA's ability to attract and retain the next 
generation of scientists and engineers needed to accomplish the 
mission.

    6. Senator Ayotte. Secretary Creedon, how serious is this problem?
    Ms. Creedon. I believe the ongoing erosion of the workforce is a 
serious problem that demands an immediate and long-term strategy at the 
Department. If confirmed, I intend to focus on this important 
challenge.

    7. Senator Ayotte. Secretary Creedon, what can we do about this 
problem?
    Ms. Creedon. This challenge must be met through workforce planning 
to ensure that the Department is recruiting and then retaining 
professionals with the core competencies, knowledge, and technical 
expertise NNSA needs to execute its mission. We also have to make sure 
that the NNSA, its laboratories and facilities are seen as and are the 
best place to be working in the fields that are most critical. As I 
addressed in my APQs, maintaining the vitality of the laboratories and 
sites and the core competencies of the workforce at each site must be a 
priority for the NNSA. I firmly believe in order to recruit and retain 
top-notch personnel they must have challenging and interesting work as 
well as world-class laboratory equipment and facilities in which to 
work. Moreover, this work must be valued by the nation.
    If confirmed, I will work with the laboratories, the academic 
community, and other institutions that are able to assist NNSA in 
meeting its responsibility to have the most talented and capable 
Federal workforce.
                                 ______
                                 
    [The nomination reference of Hon. Madelyn R. Creedon 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                   January 6, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Hon. Madelyn R. Creedon, of Indiana, to be Principal Deputy 
Administrator, National Nuclear Security Administration, vice Neile L. 
Miller, resigned.
                                 ______
                                 
    [The biographical sketch of Hon. Madelyn R. Creedon, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
                                ------                                

             Biographical Sketch of Hon. Madelyn R. Creedon
    Madelyn Creedon was confirmed by the U.S. Senate as the Assistant 
Secretary of Defense for Global Strategic Affairs on August 2, 2011. In 
this capacity she supports the Under Secretary of Defense for Policy in 
overseeing policy development and execution in the areas of countering 
Weapons of Mass Destruction (WMD), U.S. nuclear forces and missile 
defense, and Department of Defense (DOD) cyber security and space 
issues.
    Prior to her confirmation, Ms. Creedon was counsel for the 
Democratic staff on the Senate Committee on Armed Services and was 
responsible for the Subcommittee on Strategic Forces as well as threat 
reduction and nuclear nonproliferation issues.
    In 2000, she left the Senate Armed Services Committee to become the 
Deputy Administrator for Defense Programs at the National Nuclear 
Security Administration, Department of Energy (DOE), and returned to 
the committee in January 2001.
    Prior to joining the Senate Armed Services Committee staff in March 
1997, she was the Associate Deputy Secretary of Energy for National 
Security Programs at the Department of Energy, beginning in October 
1995.
    From November 1994 through October 1995, Ms. Creedon was the 
General Counsel for the Defense Base Closure and Realignment 
Commission. This Commission, under the Chairmanship of former Senator 
Alan Dixon of Illinois, was responsible for recommending to the 
President military bases for closure or realignment.
    From 1990 through November 1994, Ms. Creedon was counsel for the 
Senate Committee on Armed Services, under the Chairmanship of Senator 
Sam Nunn. While on the committee staff she was responsible for DOE 
national security programs, DOE and DOD environmental programs, and 
base closure transition and implementation programs.
    Before joining the staff of the Senate Armed Services Committee, 
Ms. Creedon was a trial attorney and Acting Assistant General Counsel 
for Special Litigation with the DOE Office of the General Counsel for 
10 years.
    Born and raised in Indianapolis, IN, Ms. Creedon is a graduate of 
St. Louis University School of Law, where she was captain of the moot 
court team. Her undergraduate degree is in political science from the 
University of Evansville, Evansville, IN.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate, and certain 
senior military officers as determined by the committee, to 
complete a form that details the biographical, financial and 
other information of the nominee. The form executed by Hon. 
Madelyn R. Creedon in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Madelyn Raub Creedon

    2. Position to which nominated:
    Principal Deputy Administrator, National Nuclear Security 
Administration, U.S. Department of Energy.

    3. Date of nomination:
    January 6, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 1, 1951; Indianapolis, IN.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to James J. Bracco.

    7. Names and ages of children:
    Meredith Creedon Bracco; May 2, 1981.
    John Edward Bracco; November 12, 1984.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Broad Ripple High School, Indianapolis IN; 1964-1969; High School 
Diploma
    University of Evansville, Evansville, IN; 1969-1973; BA
    Tulane University School of Law, New Orleans, LA; 1973-1974
    St. Louis University School of Law, St. Louis, MO; 1974-1976; JD

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Counsel, U.S. Senate Committee on Armed Services, January 2001-
August 2011
    Assistant Secretary of Defense/Global Strategic Affairs, U.S. 
Department of Defense, August 2011-Present

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Trial Attorney, U.S. Department of Energy, July 1980-February 1990
    Counsel, U.S. Senate Committee on Armed Services, February 1990-
November 1994
    General Counsel, Base Closure and Realignment Commission, November 
1994-October 1995
    Associate Deputy Secretary of Energy, U.S. Department of Energy, 
October 1995-March 1997
    Counsel, U.S. Senate Committee on Armed Services, March 1997-July 
2000
    Deputy Administrator for Defense Programs, National Nuclear 
Security Administration, July 2000-January 2001

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Daughters of the American Revolution
    Women in Aerospace

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    DOE Secretary's Achievement Award, 2001
    DOE Distinguished Service Award, 1990

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
Public Speaking Engagements:
     1)  Remarks to the U.S. Strategic Command (STRATCOM) Cyber and 
Space Symposium, Omaha, NE, November 15, 2011
     2)  Remarks to the Monitor Exchange Publications and Forums 4th 
Annual Deterrence Summit, Arlington, VA, February 15, 2012
     3)  Keynote address at the American Institute of Aeronautics and 
Astronautics (AIAA) 10th Annual U.S. Missile Defense Conference, 
Washington, DC, March 26, 2013
     4)  Featured speaker at The Space Foundation 28th National Space 
Symposium, Colorado Springs, CO, April 16, 2012
     5)  Remarks to the Royal United Services Institute (RUSI) Annual 
Missile Defense Conference, London, UK, May 30, 2012
     6)  Remarks to the Aerospace Industries Association (AIA) Space 
Council Meeting, Washington, DC, June 14, 2012
     7)  Remarks to the U.S. Strategic Command (STRATCOM) Deterrence 
Symposium, La Vista, NE, August 9, 2012
     8)  Keynote address at the Woodrow Wilson International Center for 
Scholars Workshop on Nuclear Forces and Nonproliferation, Washington, 
DC, November 28, 2012
     9)  Remarks to the Department of Defense (DOD) 20th Anniversary 
Cooperative Threat Reduction (CTR) Conference, Washington, DC, December 
3, 2012
    10)  Keynote speech to the Daughters of the American Revolution 
(DAR) 112th Annual State Conference Formal Banquet, Indianapolis, IN, 
May 18, 2013
    11)  Remarks to the Stimson Center on Deterrence, Washington, DC, 
September 17, 2013

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
Articles and Other Publications:
     1)  Madelyn R. Creedon, ``Space and Cyber: Shared Challenges, 
Shared Opportunities'' Strategic Studies Quarterly, Vol. 6, No. 1, 
Spring 2012, available at http://www.au.af.mil/au/ssq/2012/spring/
springl2.pdf. accessed on August 12, 2013. Article attached.
     2)  Madelyn Creedon, ``Ash Carter Got It Right in Aspen, Top DOD 
Nuclear Weapons Official Responds,'' Defense One, July 30, 2013, 
available at http://www.defenseone.com/ideas/20l3/07/ash-carter-got-it-
richt-aspen-top-dod-nuclear-weapons-official-responds/67721/?oref=d-
river. accessed on August 12, 2013. Article attached.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Madelyn R. Creedon.
    This 13th day of January, 2014.

    [The nomination of Hon. Madelyn R. Creedon was reported to 
the Senate by Chairman Levin on January 28, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 23, 2014.]
                              ----------                              

    [Prepared questions submitted to Hon. Brad R. Carson by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols Act has had a significant and 
positive impact on the Department of Defense (DOD) and the Army. The 
framework established by the act has improved inter-Service 
relationships and strengthened the ability of the Services to work with 
the combatant commands. I do not see the need for any modifications.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. No modifications are needed at this time.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I believe that, if confirmed, my diverse political, 
military, legal, and business experiences have well prepared me to 
execute the duties of the Under Secretary of the Army. I currently have 
the honor and privilege of serving as the General Counsel of the Army, 
a position in which I have had legal oversight of every issue arising 
from the Army's global operations. In addition to myriad routine 
matters, I have assisted Secretary of the Army John McHugh in 
developing military-wide responses to particularly vexing problems and 
issues, such as ensuring that soldiers with behavioral health 
conditions are properly diagnosed, creating wholesome environments at 
all Army child development centers, and eradicating sexual assault. 
More generally, I have been asked to advise at nearly every meeting of 
the Army's senior leaders, where issues of readiness, modernization, 
operations, and personnel are discussed and decided.
    It is helpful to also briefly summarize my education and 
professional career. Before joining the Department of the Army, I was a 
professor in the College of Business and the College of Law at the 
University of Tulsa, where I led a research institute devoted to energy 
issues and taught courses in property law, energy policy, negotiations 
and game theory, and globalization. I attended Baylor University, where 
I graduated with highest honors and was inducted into Phi Beta Kappa. 
Studying as a Rhodes Scholar at Trinity College, Oxford, I earned a 
B.A./M.A. in Politics, Philosophy, and Economics. Upon returning to the 
United States, I graduated from the University of Oklahoma College of 
Law, where I was recognized as the Outstanding Graduate. I entered the 
practice of law at Crowe & Dunlevy, the largest firm in the state of 
Oklahoma. During my early years of legal work, I focused on commercial 
litigation, with a particular emphasis on antitrust. From 1997 through 
1998, I was a White House Fellow, serving in DOD. After completing the 
White House Fellowship, I returned to practicing commercial litigation 
at Crowe & Dunlevy. In 2000, I was elected to represent the 2nd 
District of Oklahoma in the U.S. House of Representatives. As a 
Congressman, I worked closely with other members of the Oklahoma 
delegation to protect and enhance the state's military installations. 
In 2005, after leaving politics, I was a fellow at the Kennedy School 
of Government at Harvard University. Thereafter, I was a Director and 
then Chief Executive Officer of CNB, LLC, where I oversaw a company 
with revenues in excess of $400 million per year. From 2008 to 2009, as 
an officer in the U.S. Navy, I served in Iraq on active military duty 
with the 84th Explosive Ordnance Battalion of the U.S. Army, as the 
Officer-in-Charge of Weapons Intelligence Teams in Multi-National 
Division-South. For my service, I was awarded the Bronze Star and Army 
Achievement Medal.
    I believe that these varied experiences have prepared me for the 
extraordinary challenge of serving as Under Secretary of the Army. I 
know first-hand the legal and policy issues facing the Department of 
the Army in this time of continued war and budget austerity. If 
confirmed, I will commit to using my skills and experience to 
diligently and effectively perform the duties of Under Secretary.
                                 duties
    Question. Section 3015 of title 10, U.S.C., states the Under 
Secretary of the Army shall perform such duties and exercise such 
powers as the Secretary of the Army may prescribe.
    What is your understanding of the duties and functions of the Under 
Secretary of the Army?
    Answer. By statute, the Under Secretary of the Army performs such 
duties and exercises such powers as the Secretary of the Army 
prescribes. By regulation, the Under Secretary is the Secretary's 
principal civilian assistant and advisor. To that end, the Under 
Secretary is charged with communicating and advocating Army policies, 
plans, and programs to external audiences, including Congress, foreign 
governments, and the American public. The Under Secretary also advises 
the Secretary on the development and integration of Army programs and 
the Army budget. Finally, pursuant to section 904 of the National 
Defense Authorization Act for Fiscal Year 2008, the Under Secretary is 
the Chief Management Officer (CMO) of the Department of the Army, 
responsible for business operations. In accordance with section 908 of 
the National Defense Authorization Act for Fiscal Year 2009, the 
Secretary of the Army acts through the Under Secretary to carry out 
initiatives necessary to the business transformation of the Army.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Under Secretary of the Army, as set 
forth in section 3015 of title 10, U.S.C., or in DOD regulations 
pertaining to functions of the Under Secretary of the Army?
    Answer. If confirmed, I will review the duties and functions 
currently assigned to, and performed by, the Under Secretary, discuss 
my findings with the Secretary of the Army, and recommend to the 
Secretary any changes that I believe necessary.
    Question. Assuming you are confirmed, what additional duties, if 
any, do you expect will be prescribed for you?
    Answer. I am confident that the Secretary will assign me duties 
that most appropriately support his efforts to ensure that the 
Department of the Army is effectively and efficiently administered.
                             relationships
    Question. If confirmed, what would be your working relationship 
with:
    The Secretary of Defense.
    Answer. The Secretary of Defense, as head of DOD, possesses full 
authority, direction, and control over all of its elements. If 
confirmed, and subject to the authority, direction, and control of the 
Secretary of the Army, I would communicate with the Secretary of 
Defense on matters involving the Department of the Army. I would 
cooperate fully with the Secretary of Defense to ensure that the 
Department of the Army fulfills the administration's national defense 
priorities and, mindful of my role as the Army's CMO, I would make 
certain that the business operations of the Army are effectively and 
efficiently organized and managed.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs such duties and 
exercises such powers as the Secretary of Defense may prescribe. The 
Deputy Secretary is also the CMO of DOD. If confirmed, and subject to 
the authority, direction, and control of the Secretary of the Army, I 
would be responsible to the Secretary of Defense--and to his Deputy--
for the operation of the Army.
    Question. The Deputy Chief Management Officer of DOD.
    Answer. The Deputy CMO of DOD assists the Deputy Secretary of 
Defense in synchronizing, integrating, and coordinating business 
operations within DOD. If confirmed as Under Secretary, I will work in 
close coordination with the Deputy CMO on the full range of matters 
involving the management of DOD.
    Question. The Director of the Business Transformation Agency.
    Answer. To my knowledge, the Secretary of Defense disestablished 
this agency in 2011. The functions have been transferred to DOD Deputy 
Chief Management Officer.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Staff, and the 
Secretary of Defense. If confirmed, I would cooperate fully with the 
Chairman in the performance of his responsibilities.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman of the Joint Chiefs of Staff performs the 
duties prescribed for him as a member of the Joint Chiefs of Staff, and 
such other duties as may be prescribed by the Chairman with the 
approval of the Secretary of Defense. If confirmed, I would cooperate 
fully with the Vice Chairman in the performance of his 
responsibilities.
    Question. The Secretary of the Army.
    Answer. The Secretary of the Army is the head of the Department of 
the Army and is responsible for, and has authority to conduct, all of 
its affairs. If confirmed, my relationship with the Secretary of the 
Army would be close, direct, and supportive. As CMO, I would be 
accountable to the Secretary for the effective and efficient 
organization and management of the Army's business operations and for 
carrying out initiatives he approves for the business transformation of 
the Army. I understand that all of my actions would be subject to the 
authority, direction, and control of the Secretary of the Army.
    Question. The Chief of Staff of the Army.
    Answer. The Chief of Staff of the Army performs his duties under 
the authority, direction, and control of the Secretary of the Army and 
is directly responsible to the Secretary. The Chief of Staff also 
performs the duties prescribed for him by law as a member of the Joint 
Chiefs of Staff. It is vital that all leaders of the Department of the 
Army, civilian and military, work closely together as one team to face 
the many challenges confronting the institution; if confirmed, I would 
coordinate with the Chief of Staff of the Army in the performance of my 
duties.
    Question. The Assistant Secretary of the Army for Civil Works.
    Answer. The Assistant Secretary of the Army for Civil Works has, as 
a principal duty, the overall supervision of Army functions relating to 
programs for conservation and development of national water resources, 
including flood control, navigation, and shore protection. If 
confirmed, I would continue the close professional relationship with 
the Assistant Secretary that I have developed as General Counsel, and I 
would cooperate fully with the Assistant Secretary to carry out the 
Army's civil works activities.
    Question. The other Assistant Secretaries of the Army.
    Answer. The four other Assistant Secretaries of the Army set the 
Army's strategic direction by developing and overseeing policies and 
programs within their respective functional areas. If confirmed, I will 
continue the close professional relationships with each of the 
Assistant Secretaries that I have developed as General Counsel. I will 
foster an environment of cooperative teamwork, which will ensure we 
work together effectively on both the day-to-day management and long-
range planning needs of the Army. In particular, in my role as the CMO 
of the Army, I will coordinate with the Assistant Secretaries in 
addressing any matter related to business operations or business 
transformation that may impact their respective domains.
    Question. The General Counsel of the Army.
    Answer. The General Counsel is the chief legal and ethics officer 
of the Department of Army and serves as counsel to the Secretary and 
other Secretariat officials. The General Counsel's duties include 
providing legal and policy advice to officials of the Department of the 
Army, as well as determining the position of the Army on all legal 
questions and procedures. If confirmed, and particularly given my 
experience serving as Army General Counsel, I would establish and 
maintain a close professional relationship with the new appointee, and 
would actively seek his or her guidance to ensure that Army policies 
and practices are in strict accord with the law and the highest 
principles of ethical conduct.
    Question. The Inspector General of the Army.
    Answer. The Inspector General of the Army is charged with inquiring 
into, and reporting on, the discipline, efficiency, economy, morale, 
training, and readiness of the Army, as so directed by the Secretary of 
the Army or the Chief of Staff of the Army. As General Counsel, I have 
worked closely with The Inspector General. If confirmed as Under 
Secretary, I am confident that this strong professional relationship 
would continue.
    Question. The Surgeon General of the Army.
    Answer. The Surgeon General is a special advisor to the Secretary 
of the Army and to the Chief of Staff of the Army on the military 
health service system. In that role, The Surgeon General is charged 
with maintaining a medically ready military force, as well as a trained 
and ready medical force. If confirmed, I intend to continue my close 
professional relationship with The Surgeon General to ensure that the 
Army's health care systems and medical policies effectively and 
uniformly support the Army's objectives, responsibilities, and 
commitments across the total force. In particular, I plan to focus on 
the advancement of key Behavioral Health (BH) initiatives, such as the 
BH System of Care (which logically and cohesively unifies eleven major 
BH programs into a cohesive, evidence-based system), and the BH Data 
Portal (which is an nationally-recognized automated method for 
collecting and displaying real-time treatment data during patient 
visits).
    Question. The Army Business Transformation Office.
    Answer. In accordance with section 908 of the National Defense 
Authorization Act for Fiscal Year 2009, the Secretary of the Army 
established the Office of Business Transformation to assist the CMO of 
the Army in carrying out business transformation initiatives. The 
Office of Business Transformation is headed by the Director of Business 
Transformation, who is appointed by the Army's CMO. If confirmed, I 
intend to work closely and directly with the Army Business 
Transformation Office in carrying out our important duties.
    Question. The Judge Advocate General of the Army.
    Answer. The Judge Advocate General of the Army is the legal advisor 
to the Chief of Staff of the Army, the Army Staff, and members of the 
Army generally. In coordination with the Army General Counsel, The 
Judge Advocate General serves as military legal advisor to the 
Secretary of the Army. The Judge Advocate General also directs the 
members of the Judge Advocate General's Corps in the performance of 
their duties and, by law, is primarily responsible for providing legal 
advice and services regarding the Uniform Code of Military Justice 
(UCMJ) and the administration of military discipline. As General 
Counsel, I have worked closely with the Judge Advocate General on a 
wide range of matters. If confirmed as Under Secretary, I look forward 
to continuing this close professional relationship.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief of the National Guard Bureau is a principal 
advisor to the Secretary of Defense, through the Chairman of the Joint 
Chiefs of Staff, on matters involving non-Federalized National Guard 
forces and on other matters as determined by the Secretary of Defense. 
The Chief of the National Guard Bureau serves also as the principal 
advisor to the Secretary of the Army and the Chief of Staff of the 
Army. If confirmed, I would work with the Chief of the National Guard 
Bureau to utilize the talents available in the Reserve components to 
strengthen the Army.
    Question. The Director of the Army National Guard.
    Answer. The Director of the Army National Guard serves as the 
principal advisor on National Guard matters to the Secretary of the 
Army and the Chief of Staff of the Army. If confirmed, I would seek the 
input of the Director of the Army National Guard on all matters of 
policy and procedure that would impact the more than 350,000 soldiers 
in the Army National Guard.
    Question. The Army Chief of Chaplains.
    Answer. From the earliest days of the Army, chaplains have been an 
integral part of the total force. Chaplains are often the first to 
respond to incidents of death, combat casualty, suicide, and sexual 
assault. The programs that the Chaplains lead serve to bolster soldier 
and family resiliency in these difficult times. The Army Chief of 
Chaplains leads the Army Chaplains Corps in its primary mission of 
providing religious support to the Army, and advises the Secretary of 
the Army and Chief of Staff of the Army on all matters of chaplaincy. 
As General Counsel, I have worked closely with the Army Chief of 
Chaplains, and, if confirmed as Under Secretary, I would continue this 
productive partnership. I understand the importance of, and value in, 
consulting with the Army Chief of Chaplains in the exercise of my 
responsibilities.
                    major challenges and priorities
    Question. In your view, what are the major challenges, if any, that 
you would confront if confirmed as Under Secretary of the Army?
    Answer. The Army stands at a critical moment in its history, 
challenged to reshape into a leaner force still capable of meeting the 
Nation's strategic priorities. The base budget of the Army is being 
squeezed by the rising costs of compensation, health care, and, to a 
lesser degree, procurement. Nonetheless, the Army's obligations remain 
unchanged: training and equipping soldiers, guaranteeing high quality 
medical care for wounded warriors, enhancing readiness, offering 
quality housing, modernizing Cold War-era equipment, and meeting 
stringent recruiting and retention goals, to name just a few examples. 
If confirmed, I will do everything in my power to ensure the Army meets 
these important, often sacred, obligations, no matter the fiscal 
environment.
    But, to meet both its near-term and long-term challenges, the Army 
must create and use a new operating framework. The Army must reduce its 
overhead, especially as total force structure is thinned. The Army must 
pay attention not only to monetary obligations, but also to drivers of 
cost. The Army must develop, publish, and monitor metrics by which the 
success or failure of change can be determined. More generally, the 
Army must move from a budget-based culture to a cost-based approach. 
This transformation cannot take place without the active involvement of 
the Army's senior leaders. The greatest challenge that I will face as 
Under Secretary, if confirmed, is to assist in this process while 
ensuring that soldiers are prepared and their families are protected.
    Question. If confirmed, how would you prioritize and what plans 
would you have, if any, for addressing these challenges?
    Answer. If confirmed, I will focus on my responsibilities as CMO, 
which primarily lay in transforming the business operations of the 
Army. As the principal civilian advisor to the Secretary of the Army, I 
will also prioritize issues in concert with the Secretary and the Chief 
of Staff of the Army. The priorities of the Secretary of the Army and 
the Chief of Staff of the Army distill to two basic challenges: 
managing the drawdown of the Army, while simultaneously tending to the 
Army profession.
                            lessons learned
    Question. What do you believe are the major lessons that the 
Department of the Army has and should have learned from Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) regarding its 
title 10, U.S.C., responsibilities for manning, training, and equipping 
the force?
    Answer. Thirteen years of war have reinforced time-honored lessons, 
while offering up new ones as well. I would like to highlight a few 
particularly important ones here, without making any pretention to 
comprehensiveness. First, OIF and OEF have shown that the Army must 
continue to develop agile and adaptive leaders capable of operating 
with disciplined initiative. This is especially important at the junior 
level, where this capability has proven vital to mission accomplishment 
throughout the conflicts in Iraq and Afghanistan. Second, the Army's 
training at the Combat Training Centers has proven to be an effective 
and flexible means of ensuring the mission readiness of deploying 
units. Third, physical and psychological resiliency is an important 
attribute in soldiers and their families, and there is evidence that 
resiliency can be improved through appropriate intervention. Fourth, 
cultural knowledge of our allies and adversaries is invaluable and is a 
key attribute to be developed throughout the Army. Fifth, programs such 
as the Rapid Equipping Force and processes such as the Urgent 
Operational Needs requests have effectively and expeditiously delivered 
needed materiel to warfighters. Sixth, modern conflicts involve joint, 
interagency, intergovernmental, and multinational actions, and require 
a ``whole-of-government'' approach. Seventh, the All-Volunteer Force 
proved capable of sustained warfighting. Eighth, the Army was able to 
adapt to the many challenges it encountered in Afghanistan and Iraq 
because of its institutional side, the sustaining base. Ninth, 
adversaries are innovative and adaptive, learn from recent operations, 
and will exploit any weaknesses. Tenth, long wars mean long-term 
consequences for the Nation and the Army. Eleventh, and most generally, 
the Army must always maintain its focus on continual training and the 
maintenance of capabilities to meet the needs of combatant commanders.
    The Center for Army Lessons Learned is leading the effort to 
capture the most important lessons learned from OIF and OEF at the 
strategic, operational, tactical, and institutional levels. If 
confirmed, I would work to ensure that these lessons are not lost or 
forgotten, but are inculcated throughout Army doctrine, organization, 
training, materiel, leadership and education, personnel, and 
facilities.
    Question. If confirmed, which of these lessons, if any, would you 
address as a matter of urgent priority?
    Answer. Although all of these priorities are important, the most 
critical is that the Army has the right capabilities and the capacity 
to meet the Nation's national security requirements. If confirmed, I 
would work aggressively in support of the Secretary of the Army to 
ensure that the Army is trained and ready to meet combatant commander 
requirements.
                  army management and planning process
    Question. Over the past several years, the Army's planning, 
programming and budgeting process has not kept pace with rapidly 
changing requirements. While this is more understandable for 
operational events like the presidential decision to surge additional 
forces into Iraq, it is less understandable with respect to long-term 
programmatic decisions such as the modular conversion of Army brigades 
or the more recent decision to increase Army end strength. It has 
become routine for the Army to submit ``placeholders'' instead of 
actual program plans in budget requests, and to purchase temporary 
facilities followed almost immediately by additional funding requests 
to buy permanent facilities to replace the temporary ones.
    What is your understanding and assessment of the Army's management 
and planning process and any changes or reforms of these processes 
currently underway?
    Answer. The Army's primary management and planning process is the 
Planning, Programming, Budgeting, and Execution (PPBE) system. PPBE is 
a common process for the entire DOD, customized to meet the needs of 
the individual Services. As required by the Government Performance and 
Results Act, the Army also has a strategic plan which is monitored 
through the Army Campaign Plan process. The PPBE process works best 
when future conditions and fiscal projections are relatively stable; 
recent events, including the drawdown of conflicts in Iraq and 
Afghanistan, sequestration, and the frequent changes in the DOD's 
fiscal outlook have challenged the Army's ability to react quickly to 
changing circumstances and have made Future Years Defense Program 
projections less relevant. I believe the fundamentals of these 
processes are sound, but it is possible that they may need to be 
modified if less predictability is going to be the ``new norm''. If 
confirmed, and subject to the direction of the Secretary of the Army, I 
would make it my priority to assume an active and informed leadership 
role in the management of the Headquarters, Department of the Army 
planning, programming and budgeting process, while seeking appropriate 
improvements in the systems by which we develop, prioritize, and 
resource our requirements, particularly for the longer term. So, too, I 
will make it a priority to streamline and improve the Army Campaign 
Plan, working with the Secretary of the Army, the Chief of Staff of the 
Army, and other members of the Secretariat.
    Question. If confirmed, what additional changes would you propose, 
if any, to correct or improve management and planning processes?
    Answer. If confirmed, and subject to the direction of the Secretary 
of the Army, I intend to explore ways to make our processes more agile 
and more responsive, so that we may react more quickly to changing 
fiscal and strategic conditions. I also intend to examine the Army's 
Strategic Planning Process to ensure it fully captures the priorities 
of the Secretary of the Army and then employ proven performance 
measurement techniques to ensure we are making progress towards our 
desired outcomes.
    Question. In your view, does the Army have enough people with the 
right skills to manage the changes being attempted, or is the Army 
undertaking more organizational change than it is capable of 
accomplishing during a time of war?
    Answer. I believe that the Army has the right leaders, civilian and 
military, to manage the organizational change necessary to keep the 
Army relevant and able to execute the demands of the National Military 
Strategy. The Army has an excellent leader development program and 
recognizes the value of investing in its people. Both the Secretary of 
the Army and the Chief of Staff of the Army have consistently made 
leader education and training one of their highest priorities, and I am 
confident we are heading in the right direction in this area.
    Question. If confirmed, what changes in management would you 
propose, if any, to reduce or eliminate the Army's chronic cash flow 
challenges?
    Answer. The Army does its best to accurately forecast its fiscal 
needs and ensure they are represented in the President's budget 
submission. Changing conditions, especially those in war zones, 
unexpected pricing changes, and the delay between the time the Army 
finishes work on its budget and the time it is appropriated by 
Congress, have, in the past, resulted in cash flow problems. If 
confirmed, I will strive to ensure Army requirements are included as 
part of the President's budget request, and, then, as we enter into the 
execution phase in a fiscal year, I will assist the Secretary of the 
Army in monitoring that fiscal execution and participate in the 
decisionmaking to reprioritize and reallocate funding to meet emergent 
needs.
    Over the last several years, Continuing Resolutions and 
sequestration resulted in significant uncertainty in our normal budget 
and execution processes. Continuing Resolutions have become routine, 
having extended into or beyond the first quarter in each of the last 5 
years. Continuing Resolutions initiate the fiscal year under 
restrictions that disallow timely execution of planned programs and 
perpetuate fiscal uncertainty. Under these circumstances, the Army must 
take a conservative approach until the appropriations are known. Once 
appropriations are received, the Army must then execute them within 
very abbreviated timelines. This often leads to sub-optimal execution 
decisions.
    In order to more efficiently use the resources Congress provides 
for national defense, I will work with Congress to develop a 
comprehensive budget request to reflect the Army's funding 
requirements, as well as emphasize the importance of receiving 
appropriations on time, if I am confirmed.
        duties and responsibilities as chief management officer
    Question. Section 904 of the National Defense Authorization Act for 
Fiscal Year 2008 designates the Under Secretary of the Army as the 
Army's Chief Management Officer (CMO). Section 908 of the National 
Defense Authorization Act for Fiscal Year 2009 requires the CMO of each 
of the Military Departments to carry out a comprehensive business 
transformation initiative.
    What is your understanding of the duties and responsibilities of 
the Under Secretary in his capacity as CMO of the Department of the 
Army?
    Answer. Pursuant to the National Defense Authorization Act for 
Fiscal Year 2008, section 904, responsibility for the business 
operations of the Department of the Army is assigned to the Under 
Secretary of the Army as the CMO. The Secretary of the Army has 
provided all the authority necessary for the CMO to effectively and 
efficiently organize and administer the business operations of the 
Army. The CMO is further responsible for developing a comprehensive 
business transformation plan and a business systems architecture and 
transition plan.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. My education and combined professional experiences as a 
lawyer and professor of business law, my service as a member of the 
U.S. House of Representatives, and my current position as a senior Army 
leader have prepared me for the duties expected of the CMO of the Army. 
In particular, as the General Counsel of the Army, I have had wide 
exposure and gained intimate working knowledge of the many important 
and complex issues impacting the Army.
    Question. Do you believe that you have the resources and authority 
needed to carry out the business transformation of the Department of 
the Army?
    Answer. I believe the Army has dedicated adequate resources to 
business transformation. I believe, and I know Congress concurs, that 
business transformation is essential to all Military Departments, and, 
if confirmed, I will continue to ensure that resource constraint does 
not inhibit changes needed in the Army's business operations.
    If confirmed, I will also consult with the Secretary of the Army, 
the Office of Business Transformation, and the Deputy CMO of DOD to 
assess if any additional authorities are needed to continue to drive 
the transformational effort to success.
    Question. What role do you believe the CMO should play in the 
planning, development, and implementation of specific business systems 
by the Military Departments?
    Answer. Over the last 2 years, the Army has put in place a robust 
governance mechanism whereby the Army Business Council synchronizes 
business activities and ensures alignment with the Office of the 
Secretary of Defense (OSD). The Army has also been steadily improving 
the planning and coordination needed to comply with OSD directives and 
OSD investment requirements, while at the same time maturing the Army 
Business Mission Area's enterprise architecture. Just as important, the 
Under Secretary's office and the Office of Business Transformation have 
fully integrated business management decisions within the overall Army 
Campaign Plan. If confirmed, I intend to capitalize on that success and 
maintain the synchronization between OSD and the Army.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the position of CMO?
    Answer. The Army has seen substantial benefits from the original 
legislation that established the CMO and the Business Transformation 
Office. Senior leaders emphasize the critical role these institutions 
have played in optimizing processes, reducing systems investments, and 
communicating with the DOD Deputy CMO. All of this flows from the 
unique enterprise-level view that the CMO can provide across different 
functions. If confirmed, and in concert with the Secretary of the Army, 
I will review our current approach and then determine whether any 
provisions should be recommended for amendment or change.
                           acquisition issues
    Question. What is your assessment of the size and capability of the 
Army acquisition workforce?
    Answer. Over the past 5 years, the Army has made great strides in 
identifying the necessary skills and in promoting the growth, training, 
and development of the acquisition workforce. However, mounting fiscal 
pressures may impede the Army's ability to attract, recruit, and retain 
talented personnel within our acquisition workforce. As the Army 
considers the size of the future force and assesses reductions in 
civilian personnel, I am concerned about a consequent loss of 
knowledge, critical experience, and expertise that the Army needs to 
further its missions. The Army relies on an experienced and competent 
acquisition workforce to oversee the development and procurement of 
complex weapon systems, business systems, and other equipment and 
capabilities. Continued challenges presented by sequestration, pay and 
hiring freezes, and other reductions may cause attrition that would 
undo the positive gains achieved over the past few years in the 
development of a professional and experienced acquisition workforce.
    Question. If confirmed what steps would you take to ensure that the 
Department of the Army has an acquisition workforce with the size and 
capability needed to manage and reverse the acquisition problem?
    Answer. I fully support ongoing initiatives to grow the capacity 
and capability of the Army acquisition workforce. The Army requires 
critical skills in a diverse range of disciplines, to include 
contracting, program management, systems engineering, cost estimating, 
risk management, and test planning and management. If confirmed, I will 
vigorously support and advance efforts to enhance the growth of the 
acquisition workforce and cultivate its expertise in all critical 
areas.
    Question. Major defense acquisition programs in the Department of 
the Army and the other Military Departments continue to be subject to 
funding and requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. The continued instability of the Army's fiscal environment 
has had a significant impact on long-term program costs and fielding 
schedules of major weapon systems. Major weapon systems programs 
involve the expenditure of significant resources over several years to 
design, develop, test, and field cutting-edge capabilities. Successful 
execution of these programs calls for predictable and stable resources 
in order to meet planned program milestones and timelines. 
Indiscriminate reductions under the Budget Control Act, as well as 
recurring funding shortfalls under Continuing Resolutions, 
significantly impede the Army's ability to execute these programs. 
These reductions result in fewer procurement quantities, delayed 
development or testing activities, and restructuring of the Army's 
program execution plans. Increased costs almost inevitably ensue.
    Question. What steps, if any, do you believe the Army should take 
to address funding and requirements instability?
    Answer. I believe that the single most important step the Army can 
take to address funding instability is to encourage and support the 
budget, appropriations, and authorization committees in Congress in 
passing consistent, stable, and long-term funding and authorization 
bills from which the Army can effectively and efficiently plan. If 
confirmed, I will diligently communicate with Congress with respect to 
the grave importance of stable funding to the Army.
    Requirements stability is a prerequisite for successful acquisition 
programs. The Army has made significant strides in developing processes 
to review requirements in its major acquisition programs in an effort 
to identify potential tradespace. These efforts must be reinforced to 
ensure the success of the Army's acquisition efforts.
    Question. The Comptroller General has found that DOD programs often 
move forward with unrealistic program cost and schedule estimates, lack 
clearly defined and stable requirements, include immature technologies 
that unnecessarily raise program costs and delay development and 
production, and fail to solidify design and manufacturing processes at 
appropriate junctures in the development process.
    Do you agree with the Comptroller General's assessment?
    Answer. Many of the deficiencies the Comptroller General cites are 
indeed common problems. The Army has undertaken significant efforts to 
prevent unrealistic program cost and schedule estimates, confront ill-
defined and unstable requirements, reduce reliance on immature 
technologies, and address concerns related to any design and 
manufacturing processes across all of its acquisition portfolios. 
Consistent with the DOD's Better Buying Power initiative, the Army has 
instituted processes to manage the review and validation of weapon 
system requirements and emphasizes affordability in all acquisition 
programs. If confirmed, I will advocate for sound and affordable 
acquisition strategies, working in close collaboration with the Army's 
requirements, resourcing, and acquisition organizations.
    Question. If so, what steps do you believe the Department of the 
Army should take to address these problems?
    Answer. If confirmed, I would advocate (in close collaboration with 
the requirements, resourcing, and acquisition organizations within the 
Army) for sound and affordable acquisition strategies to ensure that 
cost growth is avoided. Moreover, I would work closely with Army 
requirements, resourcing, and acquisition communities to promote cost-
informed trade-offs in system requirements in order to reduce risk and 
ensure that programs remain affordable across their lifecycles.
    Question. By some estimates, DOD now spends more money every year 
for the acquisition of services than it does for the acquisition of 
products, including major weapon systems. Yet, the Department places 
far less emphasis on staffing, training, and managing the acquisition 
of services than it does on the acquisition of products.
    What steps, if any, do you believe the Army should take to improve 
the staffing, training, and management of its acquisition of services?
    Answer. The Army established an Army Senior Services Manager (SSM) 
in 2010 to focus oversight and improve services acquisition. The SSM 
provides governance, coordination, and comprehensive analysis of 
services acquisition across all Army commands. If confirmed, I will 
work with the SSM and Army commands and organizations to continue these 
efforts, identify areas for improvement, and monitor progress.
    Question. Do you agree that the Army should develop processes and 
systems to provide managers with access to information needed to 
conduct comprehensive spending analyses of services contracts on an 
ongoing basis?
    Answer. Yes, I agree. The Army was the first Service to initiate 
the processes and systems needed to address this matter through its 
implementation of the Request for Service Contract Approval Form. This 
form is a checklist that helps identify inherently governmental 
functions, tasks that are closely associated with inherently 
governmental functions, authorized and unauthorized personal services, 
and critical functions. This form was developed for use in conjunction 
with the Contractor Manpower Reporting Application and Panel for 
Documenting Contractors processes. The Army has worked with the Under 
Secretaries of Defense for Personnel and Readiness; Acquisition, 
Logistics and Technology; and Comptroller to expand these initiatives. 
This unified effort is intended to address the broader area of Total 
Force Management and management of service contracts.
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multi-agency contracts. DOD is by far the 
largest ordering agency under these contracts, accounting for 85 
percent of the dollars awarded under one of the largest programs. The 
DOD Inspector General and others have identified a long series of 
problems with interagency contracts, including lack of acquisition 
planning, inadequate competition, excessive use of time and materials 
contracts, improper use of expired funds, inappropriate expenditures, 
and failure to monitor contractor performance.
    What steps, if any, do you believe the Army should take to ensure 
that its use of interagency contracts complies with applicable DOD 
requirements and is in the best interests of the Department of the 
Army?
    Answer. It is my understanding that the Office of Federal 
Procurement Policy has issued policy, procedures, and guidance 
concerning the use of interagency contracts. This policy directs 
acquisition officials to determine whether the use of an interagency 
acquisition represents the best procurement approach in terms of cost, 
schedule, performance and delivery. If confirmed, I will work with the 
Secretary of the Army to assess the Army's compliance with these 
policies, and I will examine the Army's internal processes to ensure 
that the concerns identified by the Inspector General are addressed.
    Question. On November 1, 2010, the Assistant Secretary of the Army 
for Acquisition, Logistics and Technology (ASA(ALT)) established the 
Deputy Assistant Secretary of the Army for Services (DASA(S)) in 
response to the September 2010 directive ``Implementation Directive for 
Better Buying Power--Obtaining Greater Efficiency and Productivity in 
Defense Spending'' from the Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)).
    In your view, has the establishment of this position helped or 
hindered that Army's ability in obtaining cost-effective and efficient 
services to achieve their missions?
    Answer. I believe the Army's establishment of a single responsible 
official to oversee services acquisition has led to improvements in its 
planning, coordination, and execution. In December 2011, as part of 
Headquarters streamlining, the DASA(S) functions were realigned under 
the SSM. The SSM is a member of the Senior Executive Service with a 
permanent staff, and his sole mission is to improve Army services 
acquisition oversight and management. The SSM office has provided 
improved visibility of services requirements forecasts, funding, and 
cost savings.
    Question. What steps, if any, do you believe the Army should take 
to ensure that this position is necessary?
    Answer. The Army has already recognized the Senior Service Manager 
function as an essential component in our institutional goals to 
increase efficiency and effectiveness in services acquisition. If 
confirmed, I will continue to support the Army's regular review of 
services requirements and execution; support the development of a 
services business intelligence capability to provide Army leaders end-
to-end understanding of services acquisitions requirements, 
performance, and cost; and ensure the Army continues to work with the 
Defense Acquisition University to incorporate services acquisition 
management practices into training courses.
                     auditable financial statements
    Question. Section 1003 of the National Defense Authorization Act 
for Fiscal Year 2010 requires the Chief Management Officer of DOD to 
establish a plan to ensure that DOD's financial statements are 
validated as ready for audit by not later than September 30, 2017. The 
Secretary of Defense has established the additional goal of ensuring 
that the statement of DOD's budgetary resources is validated as ready 
for audit by not later than September 30, 2014.
    In your opinion, is the Department of the Army on track to achieve 
these objectives, particularly with regard to data quality, internal 
controls, and business process re-engineering?
    Answer. Yes, the Army is on track to achieve the congressionally-
mandated audit readiness objectives. The Army has been implementing and 
testing internal controls and is currently achieving increasingly 
higher success rates in monthly testing. Business processes have been 
thoroughly examined, end-to-end, and have been re-engineered for 
efficiency. At the same time, the Army is ensuring that quality data 
which is accurate, complete, and documented, is successfully 
transitioned from legacy systems into the Enterprise Resource Planning 
environment and into financial statements.
    Question. If not, what impediments may hinder the Army's ability to 
achieve this goal and how would you address them?
    Answer. While the Army is indeed on track to achieve the 
congressionally-mandated audit readiness objectives, key challenges 
should not be ignored. These challenges include maintaining: robust and 
continuous leader involvement, a competent workforce, accountability 
and oversight, a well-defined and streamlined business architecture, 
effective internal controls, and compliant financial systems. Each of 
these challenges is identified in the Army's Financial Improvement Plan 
(FIP), with corrective actions identified for each noted current 
deficiency. The Army FIP is consistent with the DOD Financial 
Improvement and Audit Plan and is geared to remove the obstacles to a 
successful audit.
    Question. In your view, are the steps that the Army needs to take 
to meet the 2014 goal consistent with the steps that DOD needs to take 
to achieve full auditability by 2017?
    Answer. Yes. The Army plan is consistent with the DOD plan.
    Question. What steps will you take, if confirmed, to ensure that 
the Army moves to achieve these objectives without an unaffordable or 
unsustainable level of one-time fixes and manual work-arounds?
    Answer. If confirmed, I will ensure accountability, leadership, and 
consistent governance of this important project.
                           army modernization
    Question. In general, major Army modernization efforts have not 
been successful over the past decade or more. Since the mid-1990s, Army 
modernization strategies, plans, and investment priorities have evolved 
under a variety of names from Digitization, to Force XXI, to Army After 
Next, to Interim Force, to Objective Force, to Future Combat System and 
Modularity. Instability in funding, either as provided by DOD or 
Congress, has been cited by the Army and others as a principal cause of 
program instability. For the most part, however, the Army has benefited 
from broad DOD and congressional support for its modernization and 
readiness programs even when problems with the technical progress and 
quality of management of those programs have been apparent--the Future 
Combat System is a recent example.
    What is your assessment, if any, of the Army's modernization 
record?
    Answer. The Army has had many notable successes in ensuring that 
soldiers in combat have the best equipment ready and available. The 
Army has fielded weapon systems that provide soldiers with improved 
mobility, protection, lethality, and a decisive advantage over our 
Nation's enemies. There have been some notable struggles, too, over the 
past 2 decades, and the Army is committed to drawing the right lessons 
from the less successful acquisition programs. If confirmed as Under 
Secretary, I will work to ensure that warfighter needs are met, while 
remaining fully cognizant of the lessons learned from canceled 
acquisition programs.
    Question. If confirmed, what actions, if any, would you propose to 
take to achieve a genuinely stable modernization strategy and program 
for the Army?
    Answer. If confirmed, I will work with the Secretary of the Army 
and the Chief of Staff of the Army to sustain a versatile and 
tailorable, yet affordable and cost-effective modernization strategy. 
The Army has initiated a much longer timeframe (30 years) for review of 
its modernization programs than it has had in the past. This wider lens 
of review will help to stabilize programs and to better predict 
investments. This change in temporal scope, in conjunction with the 
continued support of Congress in providing predictable appropriations, 
will help the Army achieve a stable modernization strategy and program. 
If confirmed, my focus will be on ensuring that soldiers and units are 
enabled, trained, and ready to meet the future challenges they may 
face.
    Question. What is your understanding and assessment of the Army's 
modernization investment strategy?
    Answer. Given today's significant fiscal pressures, the Army's 
investment in modernized equipment and capabilities will likely see 
across-the-board reductions in the near term. The Army's investment 
strategy in soldier weapon systems and capabilities will focus on 
making prudent investment decisions with limited resources to enable 
the Army to field the best capabilities into the future. In the near 
term, equipment investment will prioritize efficient acquisition, to 
include multi-year procurements, scaled-down weapon system requirements 
to address affordability constraints, and divestiture of outdated 
legacy systems as appropriate. Limited resources will be likely 
invested in key modernization programs such as the Joint Light Tactical 
Vehicle (JLTV), the Armored Multipurpose Vehicle (AMPV), and the 
deployed network. Upgrades to existing platforms like the Apache and 
Blackhawk helicopter, the Abrams tank, Bradley Infantry Fighting 
Vehicle (IFV), and the Paladin Self-Propelled Howitzer (PIM) will 
improve current capabilities. The Army will also continue to prioritize 
long-term investment in Science and Technology to mature critical 
enabling technologies that support future, next-generation capabilities 
for the Army. Overall, the Army will focus its attention on investments 
that provide improved force protection, mobility, lethality, and 
situational awareness in combat.
    Question. In your view does the Army's modernization investment 
strategy appropriately or adequately address current and future 
capabilities that meet requirements across the spectrum of conflict?
    Answer. In my view, the Army's investment strategy in this area 
does address requirements across the spectrum of operations that will 
be found in current and future conflict environments. The Army's 
ability to field these needed capabilities depends, however, on the 
availability of stable and adequate resources.
    Question. If confirmed, what other investment initiatives, if any, 
would you pursue in this regard?
    Answer. If confirmed, I would support ongoing efforts to ensure 
that the Army's equipment modernization strategy continues to be 
informed by evolving threats, emerging warfighter requirements, the 
rapid pace of technological change, industry research and development, 
as well as resource constraints. My efforts would strive to find the 
most cost-effective ways to upgrade the Army's current combat platforms 
while also making critical investments in the capabilities needed to 
fight in future operational environments.
    Question. If confirmed, what actions, if any, would you propose to 
ensure that all these initiatives are affordable within the current and 
projected Army budgets?
    Answer. The Army has made great strides in the past several years 
in conducting portfolio affordability analysis. This effort examines 
all life cycle costs, including procurement, training, and sustainment. 
If confirmed, I hope to further these efforts and ensure the Army's 
modernization strategy is consonant with its level of resources.
    Question. In your view, what trade-offs, if any, would most likely 
have to be taken should budgets fall below or costs grow above what is 
planned to fund the Army's modernization efforts?
    Answer. Consistent with the Secretary of the Army and Chief of 
Staff of the Army's Strategic Vision, the Army will defend the Nation 
against all current and emerging threats by employing a balanced 
modernization strategy across all of its portfolios and by maintaining 
a proper balance between current and future readiness.
    Question. In your view, should the Army trade-off requirements 
within a program in order to make that program affordable?
    Answer. Yes, the Army already does this with all of its programs 
that are in development, and should continue to do so. As part of a 
program's affordability assessment, the Army must assess the individual 
cost of each capability associated with the proposed system and ensure 
the overall program remains affordable.
                      army weapon system programs
    Question. What is your understanding and assessment of the 
following research, development, and acquisition programs?
    Ground Combat Vehicle (GCV).
    Answer. The Army's IFV is reaching the limit of its capacity to 
receive upgrades that have proven critical for soldiers in combat 
operations. A new IFV remains a key requirement and priority for the 
Army. The GCV program is currently geared toward providing the Army 
with an IFV capability for rapidly deploying an overmatching infantry 
squad anywhere on the battlefield. Nevertheless, the current fiscal 
realities have challenged the Army's ability to afford ongoing 
development of a GCV program.
    Question. Stryker Combat Vehicle, including the Stryker Mobile Gun 
variant.
    Answer. The Stryker Combat Vehicle is an acquisition program that 
has proven to be highly successful in Iraq and Afghanistan. Blast-
deflecting double v-hull improvements on the Stryker Combat Vehicle 
have saved lives in Afghanistan, and the Army continues to procure 
vehicles under existing equipping plans. The Stryker Mobile Gun System 
has also performed well in Iraq and Afghanistan.
    Question. Joint Light Tactical Vehicle (JLTV).
    Answer. The JLTV is a Joint Army and Marine Corps development 
program which consists of a Family of Vehicles (FoV) with companion 
trailers that are capable of performing multiple mission roles. The 
JLTV will be designed to provide protected, sustained, networked 
mobility for personnel and payloads across the full spectrum of 
military operations. JLTV addresses force protection performance and 
payload limitations in current High Mobility Multipurpose Wheeled 
Vehicles (HMMWVs), while providing more off-road mobility, fuel 
efficiency, and reliability than Mine-Resistant Ambush Protected All-
Terrain Vehicles.
    Question. M1 Abrams tank modernization.
    Answer. The Abrams Tank remains the best tank in the world, and the 
age of the current tank fleet is low--only 3 to 4 years on average. As 
a result of experiences in Iraq, the Army plans incremental 
improvements to the Abrams tank in order to buy back power 
deficiencies, improve protection, and provide the ability to accept 
future network and protection upgrades. These improvements will enable 
the Abrams Tank to maintain its leading edge in measures of 
survivability, lethality, and maintainability through 2050.
    Question. M2 Bradley Infantry Fighting Vehicle modernization.
    Answer. The Bradley FoV has been an integral part of the Army's 
force structure for decades, but requires modernization. The Army plans 
to make incremental improvements to the Bradley variants that will 
buyback power deficiencies, improve protection, and provide the ability 
to accept future network and protection upgrades. These improvements 
will enable the Bradley FoV to play a vital role in the Army for years 
to come.
    Question. Paladin Integrated Management (PIM) Self-Propelled 
Howitzer modernization.
    Answer. The Army is fully committed to PIM, as it is one of the 
Army's most critical modernization programs. The PIM system will 
replace the Army's current M109A6 Paladin Howitzer starting in fiscal 
year 2017. PIM's new chassis will provide additional size, weight, and 
power capacity over the current Paladin fleet. The first PIM system is 
expected to be delivery in mid-2015. PIM will provide the Army Armored 
Brigade Combat Team with a highly responsive indirect fire system 
capable of keeping pace with the Abrams and Bradley.
    Question. Armored Multipurpose Vehicle (AMPV).
    Answer. The AMPV will replace the M113 FoV, which has become 
operationally irrelevant due to inadequate mobility, survivability, and 
force protection, as well as the lack of size, weight, power, and 
cooling necessary to incorporate future technologies and the Army 
network. The AMPV will replace five M113 FoV mission roles with the 
following variants: Mission Command, Medical Treatment, Medical 
Evacuation, General Purpose, and Mortar Carrier.
    Question. OH-58D Kiowa Warrior modernization.
    Answer. The Kiowa Warrior has been a reliable capability for our 
Army for many years and, at this time, the Army is conducting a 
holistic review of the Aviation portfolio that may potentially involve 
a restructuring. It is my understanding that any restructuring of the 
force would likely look to divest legacy capabilities and retain the 
Army's most modern, dual-engine platforms.
    Question. AH-64E Apache modernization.
    Answer. The Apache is the Army's only heavy combat helicopter and 
is an invaluable asset on the modern battlefield, providing an 
immeasurable contribution to combat power. The Apache's history dates 
back to the 1980s, and the latest version, AH-64E, is the second 
remanufacture of the proven system. Remanufacturing and upgrading such 
a sophisticated asset is far more economical than developing a new 
system, especially since the Apache is unmatched by any other combat 
helicopter in the world.
    Question. Armed Aerial Scout (AAS).
    Answer. The Army has explored the availability of an affordable 
aircraft that will meet the AAS requirement through a series of 
voluntary flight demonstrations; however, it has been determined that 
there is currently no commercially available AAS alternative that would 
not require significant development. At this time, the Army is 
assessing the Aviation portfolio holistically to determine courses of 
action to address this requirement.
    Question. Warfighter Information Network-Tactical (WIN-T).
    Answer. The WIN-T program provides the Army a secure, high-speed, 
high-capacity networking backbone for mobile, ad-hoc networks in 
tactical environments, and underpins the Army's Tactical Network 
modernization efforts. Developmental efforts to date have supported 
successful development of key networking capabilities that have been 
tested and are currently deployed and utilized by warfighters in 
Afghanistan today. WIN-T is vital to the Army's endeavors to develop 
and field networks for tactical environments.
    Question. Joint Tactical Radio System.
    Answer. These radios comprise a critical aspect of the Army's and 
the DOD's network modernization effort and are the foundation of the 
Army's tactical network and communications. The radios provide 
manportable, vehicle-mounted, and aerial communication and data 
transport services for the Army's tactical network. It is my 
understanding that the Army is developing and executing a full and open 
competition acquisition strategy designed to leverage industry 
innovation and capability.
    Question. Joint Multi-Role Rotorcraft Program.
    Answer. I understand that the Joint Multi-Role Technology 
Demonstrator is a Science and Technology effort to help inform 
capabilities and requirements for the planned Future Vertical Lift-
Medium Program.
    Question. Small arms modernization.
    Answer. The Army's Small Arms Modernization Program provides for 
the maturation, demonstration, testing, and evaluation of emerging 
technologies in small arms. The Army is focused on developing 
improvements that will enhance the lethality, target acquisition and 
tracking, fire control, training effectiveness, and reliability of 
weapons. Specific focus areas include maturing technologies that 
demonstrate lightweight materials, wear resistant/protective/anti-
reflective coatings, observational/situational awareness improvements 
and equipment enhancements. These improvements would provide benefits 
to weapons, fire control equipment, optics, gun barrels, training 
devices, suppressors, component mounts, weapon mounts, and weapon/
ammunition interfaces with the ultimate goal of providing soldiers 
world-class weapons systems for the current and future battlefield.
    Question. Personal protective equipment modernization.
    Answer. The Army provides soldiers with the best protective 
equipment in the world. Over the past 10 years, the Army has fielded, 
and continuously improved, protective equipment that saves soldiers' 
lives. Soldiers are equipped with a complementary suite of protective 
capabilities (body armor/combat helmets) that guard against multiple 
threats associated with ballistic, blast, and blunt force events, 
including ballistic projectiles and fragmentation from Improvised 
Explosive Devices (IEDs). The Army is committed to making additional 
improvements to its current state-of-the-art personal protection 
equipment, to include reductions in weight, innovative solutions like 
the Pelvic Protection System, and improved performance against bodily 
injuries such as traumatic brain injury.
    Question. Distributed Common Ground System (DCGS).
    Answer. The Distributed Common Ground System-Army (DCGS-A) provides 
Army operational and tactical commanders automated intelligence 
capabilities and connectivity to the Defense Intelligence Information 
Enterprise (DI2E). It processes, fuses, and exploits data and 
information, and provides the Army the ability to receive national, 
theater, joint, and tactical sensor data; task sensors; and control 
select Army sensors. DCGS-A is the Army's enterprise solution to 
Intelligence, Surveillance, and Reconnaissance (ISR) requirements. 
Because DCSG-A is primarily a software system, the acquisition strategy 
emphasizes evolutionary development over the life of the program.
                mine-resistant ambush protected vehicles
    Question. What is your understanding and assessment of the Army's 
long-term strategy for the retention, disposal, utilization, and 
sustainment of its large Mine-Resistant Ambush Protected (MRAP) vehicle 
fleet?
    Answer. The Army intends to keep more than 8,500 of the best 
variants of MRAPs, while divesting itself of older, less capable 
versions that are too costly to ship, reset, upgrade, and sustain. Some 
MRAPs will be kept in CONUS for training. Others will be maintained in 
pre-positioned stocks strategically placed around the globe, where they 
will be ready for future contingencies. Vehicles that the Army does not 
keep will be made available to other agencies, activities, and nations. 
I believe the strategy for MRAPs is appropriate, and, if confirmed, I 
will work with the Secretary of the Army to ensure the MRAP strategy is 
continually refined and assessed.
                         equipment repair/reset
    Question. Congress has provided the Army with billions of dollars 
over the years to cover the costs to repair and replace equipment worn 
out by combat operations and prepare forces for rotations in support of 
operations in Afghanistan and previously in Iraq.
    In your view, is this level of funding sufficient to not only 
prepare Army forces for OIF/OEF but to also improve the readiness of 
non-deployed forces for other potential contingencies?
    Answer. A fully-funded Reset program would ensure that equipment 
lost in theater is replaced and equipment degraded by prolonged use in 
harsh environments is returned to a fully ready state. The extreme 
temperature variations and high altitude in Afghanistan add stress to 
aircraft engines and airframes as much as five times greater than the 
Army's normal operations tempo, while the rugged mountain terrain in 
that country accelerates wear and tear on ground equipment. The 
sequestration in fiscal year 2013 negatively impacted the Army Reset 
program, but the Army's fiscal year 2014 request will begin to address 
funding shortfalls in the program and improve equipment readiness. Due 
to the length of time required to plan and execute depot repair 
programs, Reset funding must continue for 3 years after the last piece 
of equipment leaves Afghanistan. Major weapon systems and equipment 
requiring Reset include aircraft, weapons, radios, MRAPs, and tactical 
wheeled vehicles.
    Question. Is it your understanding that our repair depots are 
operating at full capacity to meet rebuild and repair requirements for 
reset?
    Answer. It is my understanding that the Army constantly evaluates 
depot production requirements and adjusts its needs to meet current and 
anticipated demands and funding levels. Currently, our depots are 
operating at the levels required to meet Army needs. The Army does have 
extra capacity above the current operating levels and can increase 
production through additional overtime or hiring actions in response to 
any funded need to accelerate repair of equipment returning from 
current operations.
    Question. What additional steps, if any, do you believe should be 
taken to increase the Army's capacity to fix its equipment and make it 
available for operations and training?
    Answer. I do not believe that any additional steps are required at 
this time to increase the Army's capacity to fix its equipment. The 
industrial base, both organic and commercial, has successfully 
demonstrated that it has the capacity to respond to the needs of the 
Army for operations and training.
    Question. What impact do you believe the decision to send 
additional Army forces to Afghanistan is likely to have on equipment 
available for continued operations in Iraq and for non-deployed unit 
training at home?
    Answer. Withdrawn by committee.
    Question. What are your views regarding the Army's stated 
requirement that it needs 3 years of overseas contingency operations 
funding post-Afghanistan retrograde to reset the force?
    Answer. The Army has a deliberate and well-considered plan to 
retrograde and Reset equipment out of Afghanistan. The 3-year period is 
the actual time needed for some equipment to be retrograded from 
theater, inducted into a depot, and then repaired. Indeed, many of the 
Army's more complex systems, such as aircraft, take more than 1 year to 
complete the induction and repair process alone, and aircraft with 
battle damage will often take 18-24 months to repair. Over the last 
year, depot-level maintenance Reset workload has exceeded 87,000 pieces 
of equipment, and the Army has Reset more than 292,000 pieces of other 
equipment in that same period.
                  army-related defense industrial base
    Question. What is your understanding and assessment of the systems 
and processes for identifying, evaluating, and managing risk in the 
Army's organic and commercial defense industrial base?
    Answer. The Army is actively engaged in several efforts to 
identify, evaluate, and manage risk in its organic and commercial 
defense industrial base. The Army is working with OSD's Manufacturing 
and Industrial Base Policy office in the ongoing sector-by-sector, 
tier-by-tier effort that is designed to establish early-warning 
indicators of risk at all the defense supply-chain tiers. The Army, in 
cooperation with industry, is conducting a comprehensive combat vehicle 
portfolio industrial base study and a similar study for tactical 
wheeled vehicles. The Army has also created a strategic plan to 
identify and retain critical skill sets within the organic industrial 
base. The Army recognizes that a healthy industrial base is a treasured 
national security asset.
    Question. If confirmed, what changes, if any, would you pursue in 
systems and processes to improve identification, monitoring, 
assessment, and timely actions to ensure that risk in the Army-relevant 
sectors of the defense industrial base is adequately managed in order 
to develop, produce, and sustain technically superior, reliable, and 
affordable weapons systems?
    Answer. If confirmed, I would assess existing systems and processes 
used to identify risk to the industrial base, monitor its overall 
health, and I would implement any improvements deemed appropriate to 
ensure that it remains reliable, cost-effective, and prepared to meet 
strategic objectives.
                      army science and technology
    Question. What is your understanding and assessment of the role 
that Army science and technology programs have played and will play in 
developing capabilities for current and future Army systems?
    Answer. Over more than a decade of war, the world has witnessed the 
value and impact that technology brings to the battlefield and how 
capabilities, enabled by technology, are critical to our warfighters. 
The Army's Science and Technology mission is to enable soldiers to 
continue to dominate the battlefield, today and tomorrow. To that end, 
the Army has established a 30-year modernization plan to guide Science 
and Technology investments. I believe that to prevent, shape, and win 
future conflicts in an ever-changing world, Army Science and Technology 
must deliver timely technological solutions that address top priority 
capability gaps.
    Question. Given the projected budget reductions, how will you 
ensure that Army science and technology programs will successfully 
transition to operational warfighting capabilities?
    Answer. Science and Technology remains a critical investment to 
ensure our soldiers maintain a technological edge over potential 
adversaries. These investments are required to develop and mature 
enabling technologies. If confirmed, I would support efforts to 
preserve investment in this area and ensure that it successfully 
transitions to the Army's current and future acquisition programs. 
Given the great uncertainty about, and increasing complexity of, future 
national security threats, it is especially important that the Army 
also continues investing in basic research and development.
    Question. If confirmed, what metrics would you use to judge the 
value and the investment level in Army science and technology programs?
    Answer. If confirmed, I would consider a variety of metrics to 
assess the value of our investment in science and technology programs, 
to include measures evaluating our success in transitioning these 
efforts into fielded capabilities, as well as our effectiveness in 
fully leveraging investment by industry, other Services, and other 
government research institutions.
  army laboratories and research, development, and engineering centers
    Question. What role should Army laboratories play in supporting 
current operations and in developing new capabilities to support Army 
missions?
    Answer. Army laboratories deliver technology-enabled solutions 
needed for current conflicts and help develop technologies that will 
enhance the Army's future capabilities that will be needed to prevent, 
shape, and win future conflicts.
    Question. If confirmed, how will you ensure that the Army 
laboratories and research and development centers have a high quality 
workforce, laboratory infrastructure, resources, and management, so 
that they can continue to support deployed forces and develop next 
generation capabilities?
    Answer. If confirmed, I promise to learn more and in great detail 
about the specific issues and challenges facing Army laboratories and 
centers in order to best ensure they have the necessary tools and 
personnel to effectively perform their missions. I fully recognize the 
important role that the science, technology, engineering, and 
mathematics workforce and laboratory facilities have in facilitating 
the Army of the future.
    Question. Do you support the full utilization of authorities 
established by Congress under the Laboratory Personnel Demonstration 
program that is currently being run in many Army Research, Development, 
and Engineering Centers (RDEC)?
    Answer. Yes, I have been informed that the authorities established 
by Congress under the Laboratory Personnel Demonstration Program have 
given the laboratories and centers the flexibility and tools necessary 
to manage and incentivize Army personnel performing this critical 
function.
    Question. Do you believe that all RDECs in the Army's Research, 
Development, and Engineering Command (RDECOM) need enhanced personnel 
authorities in order to attract and retain the finest technical 
workforce? Would you support expansion of the Laboratory Personnel 
Demonstration authorities to all of RDECOM's laboratories and 
engineering centers?
    Answer. It is my understanding that all the RDECOM laboratories and 
centers are currently part of the Laboratory Personnel Demonstration, 
and that this gives important management flexibility for the laboratory 
directors to shape their workforce and remain competitive with the 
private sector. If confirmed, I would assess the effectiveness of these 
existing authorities and recommend changes as needed and appropriate.
    Question. Do you believe that the Army's laboratories and 
engineering centers should have a separate, dynamic personnel system, 
uniquely tailored to support laboratory directors requirements to 
attract and retain the highest quality scientific and engineering 
talent?
    Answer. If confirmed, I would fully examine this issue to better 
understand the potential benefits and costs of such a system. However, 
with the exception of a few organizations, it is my understanding that 
the Laboratory Personnel Demonstration program provides the laboratory 
directors with the ability to attract and retain the highest quality 
scientific and engineering personnel.
    Question. How will you assess the quality of Army laboratory 
infrastructure and the adequacy of investments being made in new 
military construction and sustainment of that infrastructure?
    Answer. If confirmed, I would engage with the appropriate Army 
organizations to better understand the challenges facing our Science 
and Technology infrastructure and develop solutions to ensure we are 
making the necessary investments in this important area.
                    army test and evaluation efforts
    Question. If confirmed, how will you ensure that the Army's test 
and evaluation infrastructure is robust enough to ensure that new 
systems and technologies are tested to verify their combat 
effectiveness and suitability?
    Answer. If confirmed, I promise to become more keenly acquainted 
with the specifics regarding test infrastructure capabilities, and I 
will work to ensure the appropriate level of funding for test and 
evaluation infrastructure and instrumentation is budgeted.
    Question. What metrics will you use to assess the quality of the 
Army's test and evaluation infrastructure?
    Answer. At this time, I do not have sufficient information to 
adequately answer this question; however, if confirmed, I would assess 
the Army's capability to accomplish all essential testing requirements.
    Question. If confirmed, how would you ensure that weapon systems 
and other technologies that are fielded by the Army are adequately 
operationally tested?
    Answer. If confirmed, I will ensure that operational test protocols 
are observed, and I will support the continuation of the Army's current 
practice of conducting independent operational testing by organizations 
not associated with the programs undergoing test and evaluation.
                  army information technology programs
    Question. What major improvements would you like to see made in the 
Army's development and deployment of major information technology 
systems?
    Answer. Information technology (IT) is critically important to both 
industry and government. For the Army, IT is an enabler that provides 
warfighters an edge in combat operations. On the business side of the 
Army, IT is used to automate complex, critical business processes. If 
confirmed, I would work to ensure that the development and deployment 
of major IT systems facilitate simplifying, streamlining, and 
clarifying the interdependencies in the Army's Enterprise Architecture.
    Question. How will you encourage process and cultural change in 
organizations so that they maximize the benefits that new enterprise 
information technology systems can offer in terms of cost savings and 
efficiency?
    Answer. Leadership.
    Question. What is the relationship between Army efforts at 
implementing enterprise information technology programs and supporting 
computing services and infrastructure to support Army missions and 
efforts being undertaken by the Defense Information Systems Agency?
    Answer. The Army is in close, regular collaboration with the 
Defense Information Systems Agency (DISA). As DISA's largest supported 
organization, the Army believes that this partnership is critical. If 
confirmed, I would continue the trend of developing Army enterprise 
information technology from a joint requirements perspective. Current 
examples of this approach include Defense Enterprise Email, the Joint 
Information Environment and enterprise license agreements that leverage 
the buying power of the entire DOD.
                       contract support functions
    Question. DOD has engaged in the privatization of many of its 
support functions. As a result, the Department now relies heavily on 
contractors to perform acquisition, budget, and financial management 
functions that are critical to the execution of the Department's 
mission. Senior DOD officials have informed the committee both formally 
and informally that, because of reductions in the acquisition work 
force, the Department now lacks the capability to effectively oversee 
the work performed by its support contractors.
    Do you believe that the Army has become too reliant upon 
contractors to perform critical functions?
    Answer. If confirmed, I will examine this issue very closely. It is 
important to ensure that inherently governmental functions are not 
outsourced, and, if confirmed, I will scrutinize those areas where the 
distinction may have been blurred. From an operational perspective, the 
Army has processes in place to identify critical functions that should 
rarely be outsourced; if an Army command believes that using 
contractors for a critical function poses unacceptable operational 
risk, it is able to bring that work in-house.
    Question. What steps, if any, do you believe the Army should take 
to ensure that it has the resources it needs to provide effective 
oversight for its support contractors?
    Answer. In order to ensure the Army has the resources it needs to 
provide effective oversight for its support contractors, I believe that 
an appropriately sized and sourced workforce is necessary. A critical 
component of effective compliance is ensuring the Army has sufficient 
organic personnel for oversight, to include a robust number of 
contracting officer representatives supporting the operational and 
institutional Army. If confirmed, I will work toward this end.
    Question. The privatization of functions previously performed by 
DOD employees now extends to many functions performed on the 
battlefield. As a result, many functions that were performed by DOD 
personnel as recently as the Gulf War have been performed by contractor 
personnel in the current conflicts in Iraq and Afghanistan.
    Do you believe that DOD has reached, or exceeded, an appropriate 
balance in providing for the performance of functions by contractors on 
the battlefield?
    Answer. The use of the appropriate form of labor for specific 
functions is an important issue that requires constant rebalancing as 
missions and priorities change. I believe that DOD needs to evaluate 
functions on a case-by-case basis and source them as appropriate. The 
force of the future may not look the same as yesterday's force, or even 
the current force. The Army must do its part to take into account 
current, specific circumstances when determining the appropriateness of 
a labor source.
    Question. Where do you believe that DOD should draw the line 
between functions on the battlefield that can and should be performed 
by contractors and functions that should only be performed by DOD 
personnel?
    Answer. I believe it is vital that the Army retain sufficient 
critical enablers within the Active and Reserve components so that we 
can reduce the need for contractors on the battlefield. The Army must 
also ensure that it retains essential oversight personnel in the case 
of unforeseen requirements. Any use of contractors on the battlefield 
should be based on an appropriate and comprehensive assessment of risk.
    Question. Do you believe that contractors on the battlefield are 
subject to appropriate levels of control and accountability for their 
actions, or would additional regulation be appropriate?
    Answer. I believe that we must continually evaluate how effective 
our policies and regulations are at maintaining appropriate levels of 
control and accountability. The true challenge is ensuring proper 
oversight and enforcement of our existing regulations.
                      private security contractors
    Question. The Special Inspector General for Iraq Reconstruction 
reported that Federal agencies including DOD have spent more than $5 
billion for private security contractors in Iraq since 2003.
    Do you believe the Army should rely upon contractors to perform 
security functions that may reasonably be expected to require the use 
of deadly force in highly hazardous public areas in an area of combat 
operations?
    Answer. Contractors have served alongside soldiers throughout our 
Nation's history. While contractors may not always be the preferred 
method, they sometimes provide resource options critical to meeting 
commanders' requirements. The key is determining and clearly 
demarcating the line between soldier and contractor responsibility 
according to the situation. In certain cases, contractors may not be 
appropriate. In other cases, contractors may be the best sourcing 
solution to quickly fill a critical need on short notice.
    I believe that unit commanders and leaders at all levels play a 
valuable role in determining those missions best suited for contractors 
depending upon the situation. If confirmed, I will ensure that 
commanders have the training, experience, and flexibility to make these 
difficult choices. For example, in particular local political 
situations, capabilities such as entry control and convoy security may 
be best handled by a contractor. In other locations and times, this may 
not be the case.
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform such functions risked undermining our defense 
and foreign policy objectives in Iraq?
    Answer. I do not believe that time has shown, or that history will 
prove, the use of private security contractors to have undermined 
accomplishment of our objectives in Iraq.
    While contractors may augment Army organizations by freeing up 
soldiers to conduct more dangerous combat operations, it is certainly 
critical to ensure that contractors possess the appropriate training 
and situational awareness. Contractors, just like their civilian and 
military counterparts, must understand their role and consistently 
function in support of operational and strategic objectives in an area. 
When contractors are untrained or unaware of the impact of their 
actions, they may negatively impact strategic-level objectives, 
resulting in long-term consequences. (The same can also be said for 
government personnel, whether civilian or military, but there is more 
flexibility to quickly effect change in those populations.) I believe 
that proper oversight and control mechanisms are imperative to ensure 
that the actions of the military, government civilians, and contractors 
are fully consistent with law and durably support the objectives of the 
United States.
    Question. What steps would you take, if confirmed, to ensure that 
any private security contractors who may continue to operate in an area 
of combat operations act in a responsible manner, consistent with U.S. 
defense and foreign policy objectives?
    Answer. The Army and DOD have implemented policies to increase 
oversight and management of Private Security Contractors (PSCs) 
accompanying the force. These include contract requirements for 
training PSC employees on the authorized use of force, increasing use 
of past performance databases, and prosecuting contractor employees 
that violate use of force laws under the Military Extraterritorial 
Jurisdiction Act of 2000. Successful oversight is rooted in relevant 
training for contracting officers and commanders, vigilant monitoring 
and enforcement of applicable laws and regulations, and awareness of 
the full range of corrective measures available to the Government in 
the event of non-compliance. If confirmed, I will do my utmost to 
ensure we build on these past improvements.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in the past have 
testified that the military services under-invest in both the 
maintenance and recapitalization of facilities and infrastructure 
compared to private industry standards. Decades of under-investment in 
DOD installations has led to substantial backlogs of facility 
maintenance activities, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity. These challenges have been 
exacerbated by current budget pressures.
    What is your assessment of Army infrastructure investment?
    Answer. The majority of Army infrastructure and facilities are in 
good shape. This is the result of significant investments in 
sustainment and construction over the 10-year period ending in 2012. 
These construction investments significantly modernized facilities that 
supported the Army during transformation and realignment. However, the 
Budget Control Act for 2011 reduced the Army's ability to make 
continued and necessary investments in our infrastructure and 
facilities. Prolonged under-investment in sustainment will cause Army 
infrastructure and facilities to degrade much faster and, in turn, will 
increase energy consumption and overall operating costs.
    Question. If confirmed, what actions, if any, would you propose to 
increase resources to reduce the backlog and improve Army facilities?
    Answer. As the Army's end strength and force structure decline 
alongside its available funding, millions of dollars will be spent 
maintaining underutilized buildings and infrastructure. Trying to 
spread a smaller budget over the same number of installations and 
facilities will result in rapid decline in the condition of Army 
facilities. To save money and free up resources, the Army must reduce 
energy consumption at installations, reduce lease costs by moving to 
facilities opened up through restationing and force reduction 
decisions, and synchronize routine stationing actions to minimize 
costs. Greater efficiency is the watchword.
                     base closure and realignments
    Question. DOD has requested another Base Realignment and Closure 
(BRAC) round.
    Do you believe another BRAC round is necessary? If so, why?
    Answer. Yes, for the many compelling reasons stated in my answer to 
question 76. If the Army is unable to make the tough decisions 
necessary to identify inefficiencies and eliminate unneeded facilities, 
scarce resources will be diverted away from training, readiness, and 
family programs. Additionally, the quality of Army installation 
services that support the warfighter will suffer.
    Question. If confirmed, and if Congress were to authorize another 
BRAC round, how would you go about setting priorities for 
infrastructure reduction and consolidation within the Department of the 
Army?
    Answer. BRAC legislation provides for developing closure and 
realignment recommendations based on specific selection criteria. I 
would prioritize Army recommendations consistent with congressionally-
approved BRAC selection criteria, Army force structure, and stationing 
plans.
    Question. If confirmed and if Congress were to authorize another 
BRAC round, what is your understanding of the responsibilities of the 
Army in working with local communities with respect to property 
disposal?
    Answer. I understand that BRAC law ordinarily provides for local 
communities, through designated Local Redevelopment Authorities (LRA), 
to prepare reuse plans that will guide future development and use of 
the property. The Army gives substantial deference to those plans in 
disposing of the property. BRAC law also usually provides Economic 
Development Conveyance authority, under which the Army can convey 
property directly to a LRA to further enable those local reuse plans to 
be implemented.
    Question. It has been noted repeatedly that the 2005 BRAC round 
resulted in major and unanticipated implementation costs and saved far 
less money than originally estimated.
    What is your understanding of why such cost growth and lower 
realized savings have occurred?
    Answer. I understand that BRAC 2005 was primarily focused on 
transformation. Nearly half of the recommendations from 2005 were 
intended to take advantage of opportunities that were available under 
BRAC authority to move forces and functions to where they made sense, 
even if doing so would not save much money. This transformation effort 
cost over $29 billion and resulted in a small proportion of savings, 
but it allowed the Army and DOD to redistribute its forces and 
personnel within its infrastructure in a way that is typically 
difficult when not in the middle of a BRAC round. The remaining 
recommendations implemented under BRAC 2005 paid back in fewer than 7 
years--even after experiencing cost growth.
    Question. How do you believe such issues could be addressed in a 
future BRAC round?
    Answer. Unlike BRAC 2005, which was implemented during a time that 
drove the need for transformation, a future BRAC round would be 
implemented as Army end strength is declining and the need for 
efficiencies is paramount. Consistent with BRAC law and selection 
criteria, the Army would make savings a priority in the development of 
specific recommendations.
                        end strength reductions
    Question. The Department last year laid out a defense strategy that 
proposes an eventual end strength of 490,000 for the Army, which the 
Army is on pace to hit by the end of 2015.
    What is your understanding of the Army's ability to meet these 
goals without forcing out many soldiers who have served in combat over 
the past 10 years with the implicit promise that they could compete for 
career service and retirement?
    Answer. The Army is committed to retaining the best qualified and 
most talented soldiers. Competitive selection boards and retention 
programs will enable soldiers currently serving in the Army, including 
those who have served in combat, to compete for continued service. 
Reduction programs will focus on overstrength Military Occupational 
Specialties, identifying those that should depart our ranks through a 
qualitative assessment of potential for continued contribution.
    Question. To what extent will the Army have to rely on involuntary 
separations in 2014 through 2018? How will sequestration affect this?
    Answer. I understand that the Army will rely on involuntary 
separations to meet end strength goals through fiscal year 2017. The 
present assessment is that continued sequestration is unlikely to 
impact these programs unless current end strength targets change.
    Question. What programs are in place to ensure that separating and 
retiring servicemembers are as prepared as they can be as they enter a 
struggling economy?
    Answer. In coordination with the Department of Veterans Affairs and 
the Department of Labor, the Army has developed an enhanced version of 
its Transition Assistance Program. Called the Army Career and Alumni 
Program (ACAP), this commander's program features soldier counseling 
and training sessions, employment and career workshops, and education 
opportunities, all while maintaining leadership focus on, and 
involvement in, each soldier's transition process. ACAP affords 
soldiers the opportunity to prepare for successful post-Service 
careers.
    Question. How fast can the Army responsibly and fairly reduce end 
strength while maintaining the integrity and readiness of combat units?
    Answer. The Army believes that it can responsibly reduce end 
strength by 15,000 to 20,000 per year, while still maintaining 
operational readiness.
    Question. How does the Bipartisan Budget Act of 2013, which 
restores $22 billion to the DOD budget in 2014, and an additional $9 
billion in 2015, affect the Army's end strength reduction plans?
    Answer. I have been informed that the Bipartisan Budget Act and the 
funds it restores will not impact current personnel drawdown programs.
    Question. What is your understanding of the need for additional 
force shaping tools requiring legislation beyond what Congress has 
provided the past few years?
    Answer. The Army believes that, if reduction measures are required 
beyond fiscal year 2017, additional tools may be required to target 
specific overstrength skills and occupational specialties.
             voluntary and involuntary force shaping tools
    Question. Over the past several years, Congress has provided the 
services force shaping tools to allow them to accomplish their 
drawdowns responsibly and humanely while maintaining grade structure 
and critical specialties.
    What voluntary and involuntary measures does the Army plan to use 
in the next 2 years to reach and maintain its target end strength of 
490,000?
    Answer. The Army will continue to support requests for voluntary 
separation, where possible. In some cases, service commitments may be 
waived to allow soldiers to separate prior to fulfilling their 
remaining obligations. Involuntary separations will continue through 
fiscal year 2015 in support of a reduced end strength (490,000). 
Officer Separation Boards, Selective Early Retirement Boards, Selective 
Continuation, Selective Retention Boards, Qualitative Service Program, 
Precision Retention and a reduction in overall accessions will allow 
the Army to meet end strength goals.
    Question. How will the Army ensure that it retains the best 
personnel, given that these individuals often have multiple 
opportunities in the private sector and may be more likely to accept 
monetary or other incentives to leave early?
    Answer. The Army will work to sustain robust promotion selection 
rates as a means to incentivize continued service for the best-
qualified soldiers. Existing programs allow the Army to identify and 
retain the best talent while releasing those soldiers serving in over-
strength skill sets. Soldiers who desire to leave the Army prior to 
fulfilling remaining service obligations may request separation if they 
meet criteria to participate in early release programs.
    Question. How does the Army plan to attain the proper grade mix in 
senior enlisted and officer communities to avoid the grade disparities 
that can take years to correct? In your view, does the Army require any 
additional legislative authority to allow end strength reductions by 
offering early retirement or other early separation incentives?
    Answer. End strength reduction programs target soldier populations 
in which the inventory exceeds requirements. The Army proposes to shape 
the future force based on grade and skill through a combination of 
reduced promotion opportunities, involuntary losses, and decreased 
demand and accessions. The Army will release soldiers in overstrength 
areas based on specific current and future requirements. I have been 
informed that the Army will not require any additional legislative 
authority to meet end strength requirements for fiscal year 2015.
 annual increase in rates of basic pay below the employment cost index
    Question. The Department requested an across-the-board pay raise 
for 2014 for military personnel of 1 percent, versus a 1.8 percent rise 
in the Employment Cost Index (ECI) benchmark, and has indicated that in 
order to restrain the growth of personnel costs, similar below-ECI pay 
raises may be necessary over the next several years.
    What is your assessment of the impact on recruiting and retention 
of pay raises below ECI in 2015 through 2018?
    Answer. Compensation is, and has always been, an important 
component in motivating men and women to join the Army and remain in 
service for a career. The precise impact of lower pay raises on future 
recruiting and retention efforts is unclear. But continued authority to 
leverage limited bonus and targeted incentive programs may well 
mitigate any adverse impact of this proposal, especially in critical 
specialties.
 annual increase in rates of retired pay below the consumer price index
    Question. Section 403 of the recently enacted Bipartisan Budget Act 
of 2013 reduces the annual cost-of-living adjustment (COLA) for 
military retirees under the age of 62 to CPU minus 1 percent. Monthly 
retired pay for those individuals would be readjusted upward at age 62 
as if the COLA reduction had not taken place and retirees would receive 
full annual COLAs thereafter.
    In your view how will this change to the law impact the Army's 
planning and programming assumptions about projected force and end 
strength requirements, retention, and advancement opportunities?
    Answer. It is unclear whether or how this provision of law may 
affect retention or the propensity of individuals to serve in the Army 
in the future. I have been informed by experts in the Army that this 
change in law will have little to no impact on current promotions, 
which are based on requirements. The Army is uncertain about the impact 
this provision will have on end strength, as retention is a significant 
driving force of this number.
    Question. What impact will this change have on the Army's annual 
budget and personnel costs?
    Answer. This adjustment will reduce the amount the Army is 
contributing to trust funds that cover expenses related to military 
retirement payments for our soldiers. While the associated Army savings 
will approach $200 million per year, I am concerned about the impact on 
recruiting, retention, and soldiers and their families.
    Question. Do you support section 403 of the Bipartisan Budget Act 
of 2013? Why or why not?
    Answer. Compromise is the art of politics. I understand that the 
enacted adjustment to COLA for military retirees will certainly help 
DOD control the growth of military compensation costs; it is difficult 
to project the degree, if any, to which this change will impact 
recruiting and retention. Nonetheless, adjustments to the COLA are not, 
standing alone and in absence of countervailing benefits, a 
particularly desirable course.
                          religious guidelines
    Question. In your view, do Department of the Army policies 
concerning religious accommodation in the military appropriately 
accommodate the free exercise of religion and other beliefs, including 
individual expressions of belief, without impinging on those who have 
different beliefs, including no religious belief?
    Answer. Yes. Army policies appropriately accommodate the varied 
religious practices of soldiers, including those with no religious 
belief. Army and DOD policies are intended to protect both the free 
exercise of religion, while avoiding the appearance of an official 
endorsement of any particular religion. If confirmed as Under 
Secretary, I will ensure that these policies are strictly enforced.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact good order and 
discipline?
    Answer. Yes. The Army values the rights of soldiers to observe and 
practice their diverse religious faiths, or to have no religious faith 
at all. Army policy permits soldiers to request waivers of regulations 
when necessary to accommodate religious practices, and these waivers 
will be granted unless a compelling military necessity otherwise 
exists.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by Army chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. Yes. Army chaplains are well-trained to provide prayers in 
pluralistic settings, where sensitivity to diverse religious beliefs is 
at a premium. At the same time, chaplains, while providing ritualistic 
services on many occasions in both private and public settings, are 
never required to act in a manner inconsistent with the tenets of their 
endorsing agencies or in conflict with their individual convictions, 
beliefs, or religious traditions.
    Question. Recent press coverage focused on two separate events 
involving unit-level Army equal opportunity training at Fort Hood and 
Camp Shelby that incorporated the views of an outside organization that 
certain organizations were ``extremist'' because of their faith-based 
opposition to same-sex relationships. The training appeared to 
officially endorse the views of the outside organization because it did 
not expressly state that the views of the outside organization did not 
represent the views of the Department of the Army or DOD. As a result 
some individuals who received the training were confused about the 
official views of the Army and became concerned that their affiliation 
with the organizations that were inappropriately identified as 
``extremist'' could subject them to administrative or disciplinary 
action in accordance with Army policy prohibiting active support to 
extremist organizations. In fact, two of the organizations are included 
in the annual Combined Federal Campaign to which members of the Army 
may make charitable contributions.
    What are your views on the permissible extent to which an 
individual soldier or Army civilian employee may express, in public or 
in private, sincerely-held personal views based on religious belief or 
conscience to oppose recognition and acceptance of same sex 
relationships or marriage?
    Answer. Soldiers and Army civilian employees may express their 
sincerely-held personal beliefs, whether based on religious tenet or 
philosophical conviction, about the acceptance of same-sex 
relationships or same-sex marriage.
    Question. If confirmed, what actions would you take to establish 
policy to clearly articulate the appropriate balancing of expressions 
of sincerely-held religious belief or matters of conscience by 
individual soldiers or civilian employees in the Army workplace?
    Answer. If confirmed as Under Secretary, I will ensure that the 
Army always protects the constitutional right of soldiers and Army 
civilians to hold and express religious beliefs and matters of 
conscience.
    Question. If confirmed, what actions would you take to ensure that 
the development and presentation of training delivered within the 
Department of the Army is properly supervised and does not include 
views from organizations outside the Army or DOD that are inconsistent 
with official policy except when including those views is essential for 
the purpose of the training and are properly cited as the views of an 
outside organization?
    Answer. If confirmed as Under Secretary, I will support and sustain 
the measures, recently directed by the Secretary of the Army, that 
require all training materials and instruction to reflect the official 
policy of the Department of the Army. It is inappropriate for training 
presentations to include material that is found on the internet or 
gleaned from some other informal source which is not approved by the 
Army. This action by the Secretary of the Army will ensure that 
incidents such as those referenced in this question do not occur again.
    Question. What is your assessment of measures taken at the U.S. 
Military Academy (USMA) to ensure religious tolerance and respect?
    Answer. The USMA is working diligently to create an environment in 
which Cadets, faculty, and staff, are supported in their personal faith 
choices, whatever those may be. USMA leaders have reached out to 
members of all faiths and have implemented policies to ensure religious 
tolerance and respect. If confirmed, I will see that these values of 
religious tolerance and respect are realized at USMA.
                        recruiting and retention
    Question. How would you evaluate the status of the Army in 
successfully recruiting and retaining high caliber personnel?
    Answer. I understand that the fiscal year 2013 Army recruiting 
mission was extremely successful, attracting high-quality recruits 
comprised of 98 percent High School Diploma Graduates and only 1.2 
percent Category IV accessions across the Active and Reserve 
components. These new soldiers are a reflection of the best of America, 
highly qualified and with a genuine desire to serve.
    Although consistently succeeding in meeting retention needs, the 
Army retains only the most highly-qualified soldiers. This is a 
remarkable feat given that, in recent years, the Army has increased 
retention standards, demanding the highest qualifications and 
performance from those who would remain in the force. The soldiers the 
Army enlists and retains today and in the near future, are among the 
smartest, most fit, and most capable young people in our Nation.
    Question. How would you evaluate the recruiting and retention of 
uniformed and civilian health care professionals?
    Answer. The Army has a two-pronged approach for recruiting military 
health professionals: directly recruiting fully-qualified health care 
professionals for military health care positions and recruiting 
individuals into various military health care training programs, such 
as the Health Professions Scholarship Programs. The Army has been very 
successful in recruiting students into these training programs, upon 
completion of which the student incurs an active duty service 
obligation. However, the recruitment of fully-qualified health care 
providers remains a challenge, exacerbated by national shortages in 
various physician subspecialties. The Army uses a variety of retention 
incentives, such as Special Pays and Professional Health Education 
Training opportunities that have proven very effective in retaining 
military healthcare providers.
    Recruiting BH professionals continues to present a particular 
challenge. In 2013, more than 2,900 prescreened health care 
professional candidates were referred; of these, approximately 625 were 
behavioral health (BH) professionals. The ability of colleges and 
universities to produce more qualified BH professionals has not kept 
pace with the ever-increasing need for BH services. The Army must 
compete with other government agencies, such as the Department of 
Veterans Affairs, as well as the private sector, to recruit from the 
field of qualified candidates. If confirmed as Under Secretary, I will 
support efforts to reinforce our recruiting and retention successes, 
with a view to positioning the Army to compete favorably as an employer 
of choice.
    Question. What initiatives would you take, if confirmed, to further 
improve Army recruiting and retention, in both the Active and Reserve 
components, including health care professionals?
    Answer. Inevitably, the recruiting environment will become more 
challenging. If confirmed, I will work to ensure accession programs are 
appropriately resourced to allow the Army to continue to recruit and 
retain the highest quality soldiers. I have been informed of several 
promising initiatives, including working with the Department of 
Education to improve recruiter access in public schools, evaluating 
non-cognitive testing measures for applicant screening, and 
facilitating senior leader engagement with students and leaders at top-
tier educational institutions across the Nation--particularly those 
hosting undergraduate and graduate medical programs--about 
opportunities for service in the Army.
                            gi bill benefits
    Question. Congress passed the Post-9/11 Veterans Educational 
Assistance Act in 2008 (Post-9/11 GI Bill) that created enhanced 
educational benefits for servicemembers who have served at least 90 
days on active duty since September 11. The maximum benefit would 
roughly cover the cost of a college education at any public university 
in the country. One purpose of the act was to recognize and reward the 
service of those who served voluntarily after September 11, 
particularly those who do not serve full careers and qualify for 
retirement benefits.
    What is your assessment of the impact of the Post-9/11 GI Bill on 
recruiting and retention in the Army, including the provision of 
transferability for continued service?
    Answer. The Post-9/11 GI Bill has enhanced the Army's ability to 
recruit and retain soldiers. In particular, giving soldiers the ability 
to transfer their Post-9/11 GI Bill benefits has greatly aided our 
effort to retain quality mid-grade and career soldiers.
       management and development of the senior executive service
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and 
forward-thinking management of senior executives.
    What is your vision for the management and development of the Army 
senior executive workforce, especially in the critically important 
areas of acquisition, financial management, and the scientific and 
technical fields?
    Answer. My vision is for the Army to have a well-developed senior 
executive workforce capable of partnering with senior military officers 
to lead the Army in accomplishing assigned missions. The Army is 
already a leader in strengthening civilian talent management, 
especially through the Talent and Succession Management process. This 
is an annual opportunity for communication with senior civilians, their 
supervisors, and the Army regarding each person's future potential and 
readiness for new assignments. If confirmed, I will continue these 
measures and augment them to ensure transparency and fairness. This 
will allow the Army to attract and retain the best talent for all 
positions, including those in acquisition, financial management, and 
the scientific and technical fields.
    Question. Do you believe that the Army has the number of senior 
executives it needs, with the proper skills to manage the Department 
into the future?
    Answer. I believe the Army presently has the number of senior 
executives it needs. As with any large organization, we have a steady 
influx of new talent to replace those we lose to retirement and to 
other Federal agencies and the private sector. In anticipation of those 
losses, the Army has implemented the Senior Enterprise Talent 
Management Program, which is designed to build a bench of high-
potential GS-14 and GS-15 leaders that establishes a robust talent pool 
ready and capable of assuming executive level positions in the future.
                systems and support for wounded soldiers
    Question. Servicemembers who are wounded or injured in combat 
operations deserve the highest priority from the Army and the Federal 
Government for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from active duty if required, and continuing support beyond retirement 
or discharge. Despite the enactment of legislation and renewed emphasis 
over the past several years, many challenges remain.
    What is your assessment of the progress made to date by the Army to 
improve the care, management, and transition of seriously ill and 
injured soldiers and their families?
    Answer. I believe the Army has made great strides by implementing 
and continuously improving three programs: the Warrior Care and 
Transition Program, the Integrated Disability Evaluation System, and 
the Soldier for Life program. All three programs are designed to 
address the care and transition of wounded, ill, and injured soldiers. 
If I am confirmed, I will ensure that the Army continues to support 
these vital programs for our most vulnerable soldiers and their 
families.
    Question. What are the strengths upon which continued progress 
should be based? What are the weaknesses that need to be corrected?
    Answer. The strength of the Army's Warrior Care and Transition 
Program is the dedicated and highly-trained cadre of nearly 4,000 
military and civilian personnel who currently staff the 29 Warrior 
Transition Units, 9 Community-Based Warrior Transition Units, and 49 
Soldier Family Assistance Centers. If I am confirmed, it will be a 
priority for me to continue to support the efforts of the many highly-
dedicated professionals who are making a difference at these facilities 
every day. They make sure Wounded Warriors are afforded the support, 
guidance, and assistance they require to recover, return to the force, 
or successfully transition to Veteran status, and integrate well into 
their communities.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Army's support for 
wounded personnel, and to monitor their progress in returning to duty 
or to civilian life?
    Answer. If I am confirmed, I will work closely with the Secretary 
of the Army, the Chief of Staff of the Army, the leadership of the 
Warrior Transition Command, and the rest of the Army to ensure that we 
continue to make the changes and improvements necessary to maintain and 
enhance the support to soldiers who require medical care. The Nation 
and the Army owe our soldiers no less.
                           suicide prevention
    Question. The number of suicides in the Army continues to be of 
concern to the committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the Department of the Army to 
prevent suicides and increase the resiliency of soldiers and their 
families?
    Answer. If confirmed, I will focus on providing clear guidance, 
effective policy, and sufficient resourcing for the Ready and Resilient 
Campaign. One of the primary purposes of this Campaign is to reduce 
suicides throughout our Army family by integrating suicide prevention 
efforts across the Army and providing support to our soldiers, 
civilians, and family members. I am committed to ensuring that best 
practices are incorporated throughout the Army.
                      family readiness and support
    Question. Soldiers and their families in both the Active and 
Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of concerns among military families as a result of 
the stress of deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for soldiers and their families, and, if confirmed, how would 
you ensure that family readiness needs are addressed and adequately 
resourced?
    Answer. For more than a decade, the Army has continuously asked its 
soldiers to be apart from their families during long deployments, 
commit to Permanent Change of Station moves to unfamiliar climes, and 
cope with the vagaries of a high operational tempo. The Army 
understands that soldiers must have peace of mind that their families 
are well cared-for at all times, and is therefore 100 percent committed 
to ensuring family readiness. Family readiness is the state of being 
prepared to effectively navigate the challenges of daily living in the 
unique context of military service. The Army has invested in a wide 
array of Family Programs to make this concept a reality. Initiatives 
such as the Extraordinary Family Member Program (which considers family 
members with special needs during the assignments process), Child 
Development Centers (which provides soldiers with affordable, quality 
day care), and the Financial Readiness Program (which offers soldiers 
financial counseling) are just a few examples of the different ways the 
Army is committed to helping its soldiers. If confirmed, I will commit 
to maintaining family readiness by wholeheartedly supporting such 
programs.
    Question. How would you address these family readiness needs in 
light of global rebasing, deployments, and future reductions in end 
strength?
    Answer. If confirmed, I would not change the overall direction of 
Army Family Programs. My goal would be an Army of strong and resilient 
soldiers and families who will thrive as we reduce our deployed 
footprint. With the restructuring of the Army and the current austere 
fiscal climate, I would apply resources to programs and services that 
have the greatest impact on sustaining soldier and family readiness and 
resilience.
    Question. If confirmed, how would you ensure support is provided to 
Reserve component families related to mobilization, deployment, and 
family readiness, as well as to Active Duty families who do not reside 
near a military installation?
    Answer. If confirmed, I intend to continue the existing structured 
partnership with the Guard and Reserve to support all Army families, 
regardless of their component or geographic location, and to ensure the 
most efficient and effective delivery of programs and services wherever 
and whenever they are needed most. I will also continue to partner with 
the sister Services and local communities to fill gaps in programs, to 
provide alternatives to government-provided services, and to support 
geographically-dispersed soldiers and families in order to reduce 
stress on Army families.
    Question. If confirmed, what steps will you take to sustain Army 
family support, given current fiscal constraints?
    Answer. Despite the fiscal climate, I would not change the future 
direction of military Family Programs. I would, however, ensure that 
scarce resources are dedicated to the programs and services that have 
the greatest impact on sustaining soldier and family readiness and 
resilience.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of deployments. These programs must be 
relevant and attractive to all eligible users, including Active-Duty 
and Reserve personnel, retirees, and families.
    What challenges do you foresee in sustaining Army MWR programs, 
particularly in view of the current fiscal environment and, if 
confirmed, are there any improvements you would seek to achieve?
    Answer. Family and MWR programs provide a comprehensive network of 
quality support and leisure services that enhance quality of life for 
soldiers, family members, and retirees. Sustained reductions to these 
programs may negatively impact future readiness and unit cohesion. 
Where possible, I will strive to improve program offerings while 
focusing on delivering affordable, quality services that best enhance 
the readiness and resilience of the military community.
                   army civilian personnel workforce
    Question. Section 955 of the National Defense Authorization Act for 
Fiscal Year 2013 required the Secretary of Defense to develop a plan to 
reduce the size of the civilian personnel workforce by 5 percent over 
the next 5 years. The plan developed by the Secretary does not meet 
this objective. Since the time that section 955 was enacted, the 
Department has implemented hiring freezes and furloughs due to 
sequestration. As a result, the DOD civilian personnel workforce is 
substantially smaller than it was when section 955 was enacted or at 
the time the plan was submitted.
    Do you agree that the Army civilian employee workforce plays a 
vital role in the functioning of the Department of the Army?
    Answer. Absolutely.
    Question. How does the Bipartisan Budget Act of 2013, which 
restores $22 billion to the Department's budget in 2014, and an 
additional $9 billion in 2015, affect the Army's civilian personnel 
workforce plans?
    Answer. The Bipartisan Budget Act will enable the Army to avoid 
further reductions in key mission areas. Civilian employees play a 
vital role in nearly all missions, so the Army expects to have fewer 
personnel reductions and enough funding to replenish the skills lost 
through natural attrition. This will allow the Army to hire the next 
generation of skilled professionals and to ensure mission-essential 
trades and crafts are integrated into the future workforce. In short, 
the additional funding will allow workforce planning to be accomplished 
in a calculated way.
    Question. In your view, would it be preferable for the Army to make 
planned, prioritized reductions to the civilian workforce, or to 
downsize using arbitrary reductions based on hiring freezes and 
workforce attrition?
    Answer. In my view, the Army must use all tools available to shape 
our civilian force while ensuring that the Army remains capable of 
meeting its mission objectives. As the Army transitions to a force that 
is operationally adaptable, it is crucial to employ solid workforce 
planning that will ensure that our civilian workforce possesses the 
skills and experience necessary to sustain the Army mission. Recently, 
the Army has used hiring freezes, workforce attrition, voluntary early 
retirement, voluntary separation incentives, and reductions in force to 
achieve the mandated civilian reductions. The use of planned, 
prioritized reductions is certainly preferable, and if confirmed, this 
will be one of my goals.
                 sexual assault prevention and response
    Question. In 2012, for the fourth year in a row, there were more 
than 3,000 reported cases of sexual assault in the military, including 
2558 unrestricted reports, and an additional 816 restricted reports. 
Moreover, DOD's most recent survey indicates that the actual number of 
sexual offenses could be considerably higher, as 6.1 percent of Active 
Duty women and 1.2 percent of Active Duty men surveyed reported having 
experienced an incident of unwanted sexual contact in the previous 12 
months. This survey has been criticized by some because its conclusions 
are extrapolated from an unscientific sample set and the questions 
asked in the survey were too imprecise. Both former Secretary of 
Defense Panetta and Secretary Hagel have implemented new initiatives 
for addressing sexual assault in the military.
    What is your assessment of the Army's implementation of the new 
policies for addressing sexual assault offenses?
    Answer. In my assessment, the leadership demonstrated by the 
Secretary of Defense and the Secretary of the Army in starting an 
unprecedented number of program and policy initiatives to end sexual 
assault--more than 20 over the past year--will have a decidedly 
positive impact on the reporting, investigation, and prosecution of 
these offenses; on increasing the accountability of military leaders at 
all levels; and on fostering cultural change. In the last 12 months, 
the Army has:

        <bullet> Implemented a Special Victims Counsel Program 
        available to all servicemembers and their dependents who are 
        victims of sexual assault;
        <bullet> Added sexual assault prevention and response as a 
        rated category for all officer and non-commissioned officer 
        evaluations;
        <bullet> Required Command Climate Surveys for every officer 
        assuming a new command;
        <bullet> Raised the level of leadership of the Army's Sexual 
        Harassment/Assault Response and Prevention (SHARP) office to 
        the Senior Executive Service level;
        <bullet> Instituted expedited transfer of victims;
        <bullet> Expanded the implementation of its special victim 
        capability for the investigation and prosecution of offenses by 
        instituting trauma-informed investigation training and 
        increasing the number of special victim prosecutors;
        <bullet> Credentialed thousands of Sexual Assault Response 
        Coordinators (SARCs) and Sexual Assault Prevention and Response 
        Victim Advocates (SAPR VAs);
        <bullet> Required judge advocates to now serve as investigating 
        officers in Article 32 proceedings;
        <bullet> Enhanced victim participation in the post-trial 
        process of military courts-martial;
        <bullet> Required administrative separation of soldiers 
        convicted of sexual assault offenses; and
        <bullet> Improved commander awareness of soldier misconduct.

    The Army also continues to develop metrics to measure its progress 
in addressing sexual assault and harassment. The tools used by the Army 
to evaluate its prevention programs include:

        <bullet> Workplace and Gender Relations Surveys;
        <bullet> Personnel Screening and Certification;
        <bullet> DOD and Department of the Army Inspector General; 
        Inspections, workplace inspections, and Annual Command 
        Assessments
        <bullet> Annual reports to Congress, OSD, J-1, and Army senior 
        leaders;
        <bullet> Quarterly reports to OSD, J-1, and Army senior leaders 
        (including statistics and analysis);
        <bullet> Annual OSD and USMA Assessments;
        <bullet> DOD Annual Report on Sexual Harassment and Violence at 
        the Military Service Academies;
        <bullet> Annual ``I. A.M. Strong'' Sexual Harassment/Assault 
        Prevention Summit Command Outbriefs;
        <bullet> Command Climate Surveys within 30 days of assuming 
        command, again at 6 months, and annually thereafter for the 
        Active component;
        <bullet> Command Climate Surveys within 120 days of assuming 
        command for the Reserve component;
        <bullet> Initial Entry Training Surveys;
        <bullet> SAPR program compliance inspections;
        <bullet> Department of Defense Safe Helpline feedback (for 
        trends);
        <bullet> Workplace inspections;
        <bullet> Army Operational Troops Survey (OTS);
        <bullet> Health-of-the-Force installation visits;
        <bullet> Senior leader-conducted focus groups;
        <bullet> SHARP Red Team Assessments;
        <bullet> Army SHARP Standdown Plan (directed by the Secretary 
        of the Army); and
        <bullet> Army Directive 2013-20, Assessing Officers and 
        Noncommissioned Officers on Fostering Climates of Dignity and 
        Respect and on Adhering to the Sexual Harassment/Assault 
        Response and Prevention Program.

    These changes demonstrate the Army's committed, holistic approach 
to effectively change culture, prevent sexual assault and harassment in 
the ranks, provide world-class support for victims, and prosecute 
offenders to the fullest extent of the law. Assessment of the impact of 
these many policy changes, along with implementation of the provisions 
of the National Defense Authorization Act for Fiscal Year 2014 in the 
coming year, will be a top priority of mine, if confirmed.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults have 
occurred?
    Answer. I firmly believe that commanders must lead the effort to 
change Army culture. The Army relies on commanders to ensure that our 
soldiers are properly trained, equipped, safe, and healthy. The Army 
relies on commanders to ensure that standards are met or exceeded, to 
maintain order in the ranks, and to instill values in our troops. The 
Army also relies on commanders to discipline soldiers when these 
standards are not met. As part of these responsibilities, commanders 
are ultimately responsible for fostering respect within their units, 
creating a climate in which sexual assaults and sexual harassment are 
not tolerated, and cultivating an environment in which victims feel 
comfortable reporting all forms of misconduct. To carry out their 
responsibilities, commanders must have the authority and the tools to 
address the problem of sexual assault in our ranks. In turn, the Army 
must hold commanders accountable in the event of failures, as is 
contemplated by the new rating evaluation requirement. These crimes 
violate the trust that is at the core of the Army profession.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. Requiring a judge advocate outside the chain of command to 
determine whether allegations of sexual assault should be prosecuted 
would in effect create a parallel justice system for sexual assault 
cases, in which commanders handle some offenses but not others. In 
addition to generating confusion and inefficiencies in the military 
justice system, I believe that this change might undermine the Army's 
efforts to change the military culture in which sexual assaults have 
occurred. Within the Army, commanders are responsible for their 
soldiers' performance, safety, morale, and well-being. In carrying out 
their responsibilities, it is critical that commanders have the 
authority and the tools to address problems within their ranks, 
including sexual assault. Rather than removing commanders from their 
role within the military justice system, the Army should instead hold 
them accountable for ensuring that all victims feel comfortable in 
reporting misconduct and all soldiers believe that the system is fair 
and transparent.
    Question. What is your understanding of the resources and programs 
the Army has in place to provide victims of sexual assaults the 
medical, psychological, and legal help that they need?
    Answer. I believe that the Army is dedicated to providing sexual 
assault victims with extensive medical, psychological, and legal 
support services. The Army is learning from the increasing body of 
peer-reviewed research about the neurobiology of trauma and how it 
affects the needs, behavior, and treatment of victims of sexual assault 
and other traumatic experiences. The Army is committed to both 
understanding this research and in implementing innovative and 
successful strategies to combat the effects of Military Sexual Trauma. 
All sexual assault victims are assigned a SARC and SAPR VA. When a 
victim of sexual assault presents to any Military Treatment Facility in 
the Army, his or her care is managed by a Sexual Assault Clinical 
Provider (SACP) and Sexual Assault Care Coordinator (SACC) from initial 
presentation to completion of all follow-up visits related to the 
sexual assault. The victim will be offered a Sexual Assault Forensic 
Exam, and if not already accompanied by a SARC or SAPR VA, the SACP or 
SACC will coordinate that process and explain reporting options. The 
SARC or SAPR VA will also provide a referral to appropriate services. 
With the implementation of the Special Victim Counsel Program, the 
victim will also be notified of the availability of a Special Victim 
Counsel by the SARC.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults? In your view, are these steps 
adequate?
    Answer. In 2013, the Secretary of the Army listed the prevention of 
sexual assault as first among his published priorities for the Army. In 
June 2013, the Chief of Staff of the Army also stated the prevention of 
sexual assault is his top priority. Conforming to this important 
guidance, the Army has made the prevention of sexual assault a matter 
of utmost importance. Leaders at every echelon are committed to 
preventing sexual assaults and caring for victims, and the Army is 
working diligently to ensure that all soldiers share these commitments. 
For example, from the day they join the Army and continuing throughout 
their careers, soldiers receive training on sexual assault prevention. 
I recognize that training alone will not stop sexual assaults, but it 
has brought unprecedented awareness of the issue to the force. To 
eliminate sexual assaults, the Army must change the culture of the 
force, which includes eliminating the stigma associated with reporting 
these crimes, regardless of whether the reporting soldier is a victim 
or a bystander. The Army continues to look for new and innovative ways 
to combat the difficult problem of sexual assault. With continued 
command emphasis, education throughout all of our ranks, and resources 
devoted to victim care, I believe the Army will achieve the necessary 
cultural change.
    Question. What is your view of the adequacy of the training and 
resources the Army has in place to investigate and respond to 
allegations of sexual assault?
    Answer. I believe that the Army has invested a substantial amount 
of resources and training toward the investigation and response to 
sexual assault allegations. The U.S. Army Military Police provides 
Special Victim Unit Investigative Training that focuses on memory and 
trauma, common victim behaviors, alcohol-facilitated sexual assaults, 
sex offender behaviors, male victimization, and the innovative victim 
interviewing technique that has resulted in a more in-depth and 
complete recollection of events than traditional methods of 
questioning. Investigators and attorneys from all three Services, as 
well as the Coast Guard and National Guard Bureau, attend this 
training, and I am told that it is the best education available to 
investigators and attorneys anywhere in the Federal Government.
    The Army also has a dedicated group of nearly 30 Sexual Assault 
Investigators (SAI) in the Criminal Investigation Command (CID), each 
of whom is specially trained to ensure that allegations of sexual 
assault are fully and appropriately investigated. The Judge Advocate 
General also manages 23 specially-trained Special Victim Prosecutor 
(SVP) Teams comprised of SVPs, paralegals, and SAPR VAs. Special Victim 
Investigators collaborate closely with Special Victim Prosecutors, who 
are hand-selected at the Department of the Army level for their 
expertise in the courtroom and their ability to work with victims.
    Developing a properly trained cadre of investigators is 
extraordinarily important in our efforts to increase reporting because 
victims' willingness to initiate and follow through with investigations 
is directly related to whether they feel supported and believed. If 
their initial contact with law enforcement is an unpleasant one, 
victims' likelihood of pursuing cases is virtually nil. This is an 
issue that I am particularly interested in and that I will continue to 
monitor closely if confirmed as Under Secretary.
    Question. Do you consider the Army's current sexual assault 
policies and procedures, particularly those on confidential reporting, 
to be effective?
    Answer. Yes, I believe the Army's system for receiving and 
processing reports of sexual assault, including both restricted and 
unrestricted reports, is effective, although this is a matter in which 
I will maintain a strong interest, if confirmed. Since implementing the 
``restricted'' reporting option (which does not initiate a law 
enforcement investigation) in 2004, the number of total reports has 
continued to increase. This option has been a very beneficial reform in 
the system; anecdotally, it is credited with bringing a considerable 
number of victims forward who would not have otherwise done so. Though 
the Army prefers for reports to be ``unrestricted'' so that it may hold 
perpetrators accountable and remove them from the ranks, by giving 
victims control over triggering the investigation, the restricted 
option gives them time to understand the process, seek the counseling 
and care they need, and to consult with an attorney if they wish. The 
conversion of restricted reports to unrestricted is continuing to 
increase, which I believe to be evidence of the success of our numerous 
SAPR initiatives and an indication that victims are gaining more trust 
in the system. I am optimistic--although definitive data is elusive--
that the increase in reports for fiscal year 2013 reflects growing 
confidence in our system. If confirmed, I will ensure that the Army 
continues to look for innovative ways to combat this difficult problem.
    Question. What is your view of the adequacy of resources in the 
Army to investigate allegations of sexual misconduct and to hold 
perpetrators accountable for their actions?
    Answer. I believe we have adequate numbers of and appropriate 
training for criminal investigators, forensic laboratory examiners, and 
prosecutors to ensure the successful investigation of sexual assaults 
and to hold offenders accountable. The CID has 747 authorized agents at 
71 Field Investigative Units to conduct sexual assault investigations. 
The average experience level for the 22 civilian SAIs is 18.1 years and 
8 more SAIs have been added this year; these investigators are 
exclusively assigned to handle sexual assault cases. Roughly 76 percent 
(54 of 71 Army installations with a CID office) have SVU-trained agents 
assigned, and the goal is to have SVU-trained agents at all CID field 
offices this year. In addition, the Commanding General of CID and the 
Army Judge Advocate General have closely aligned their forces and 
efforts to provide outstanding support to enable commanders to address 
these serious crimes and to hold offenders appropriately accountable. 
These leaders have prioritized the investigation and prosecution of 
sexual assaults and have dedicated considerable resources to ensuring 
that sexual assault victims receive the full efforts of the best-
trained and most experienced investigators and prosecutors.
    Question. What problems, if any, are you aware of in the manner in 
which the confidential reporting procedures have been put into effect?
    Answer. I am not aware of any problems with regard to the way 
confidential reporting procedures have been implemented. First and 
foremost, the Army must ensure that each victim gets necessary care and 
treatment. Toward this end, I understand the need for the restricted 
option, and respect a victim's choice to select that option as he or 
she sees fit. Ultimately, however, the Army's goal is to ensure that 
victims feel confident enough in the Army's process to report sexual 
assault through the unrestricted reporting process, which will trigger 
thorough criminal investigations, ultimately allowing the military 
justice system to work in a fair, impartial way. It is very important 
that the Army ensures that all soldiers understand what the reporting 
options are, to whom they may confidentially report, and those who have 
a duty to report if they are made aware of any allegation of sexual 
misconduct.
    Question. What is your view of the appropriate role for senior 
military and civilian leaders in the Secretariat and the Army staff in 
overseeing the effectiveness of implementation of new policies relating 
to sexual assault?
    Answer. Senior military and civilian leaders are responsible for 
ensuring that all Army policies relating to sexual assault are 
implemented fully. They are also responsible for evaluating the 
effectiveness of these efforts, and for making changes to those 
programs and policies, when appropriate. The National Defense 
Authorization Act for Fiscal Year 2014 also contemplates that the 
Secretary of the Army may review some sexual assault cases. If I am 
confirmed, I will ensure that the Army continues to assess and improve 
its policies and programs to combat and respond to sexual assault.
    Question. Do you believe that sexual assault continues to be an 
underreported crime in the Army?
    Answer. Yes. The research is clear that sexual assault is one of 
the most underreported crimes in society at large, and this is no less 
the case in the Army or other Military Services. The Army is working 
hard to foster a climate in which victims trust their chains of command 
to support them if and when sexual offenses occur, victims know that 
they will receive all necessary services and support from the Army, 
victims are confident their allegations will be taken seriously, and 
that all incidents of sexual assault and harassment will be thoroughly 
investigated. The increase in reporting during this past fiscal year is 
possibly reflective of victims' growing confidence in our system.
    Question. If so, what are the barriers that discourage or prevent 
victims from coming forward?
    Answer. There are no doubt many reasons a victim does not always 
come forward to report a sexual assault, whether in the civilian world 
or in the military. Data from the 2012 Workplace and Gender Relations 
Survey of Active Duty Members shows that victims of sexual assault 
often do not come forward because of privacy concerns. Sexual assault 
is the most personal and intrusive of crimes, and victims report 
feeling reluctant to report this crime because they feel ashamed or 
embarrassed and because they feel that others might blame them or 
retaliate against them. Another one of the biggest barriers for victims 
is the fear of being ostracized by their peers in the unit--and this is 
an issue whose remedy lies directly in the hands of the leadership and 
authority of the commander. I believe that commander-driven change in 
unit culture and compassionate, thorough support of victims are 
critical to address these concerns.
    Question. If confirmed, what additional steps would you take to 
remove barriers to reporting sexual assaults?
    Answer. If confirmed, I will begin by focusing on victim care and 
commander accountability. The Army has made significant programmatic 
changes to ensure victims receive the support they need when they come 
forward to report a sexual assault. I intend to evaluate the 
effectiveness of these (and related) efforts, and to look for ways to 
continue to improve the Army's programs and policies for victim care. I 
also believe that effective leadership training, demonstrated values 
and accountability of leaders at all levels is essential.
    In response to the Annual Report on Sexual Harassment and Violence 
at the Military Service Academies for Academic Program Year 2011-2012, 
the Secretary of Defense wrote to the Service Secretaries and the Under 
Secretary of Defense for Personnel and Readiness stating: ``Despite our 
considerable and ongoing efforts, this year's Annual Report on Sexual 
Harassment and Violence at the Military Service Academies demonstrates 
that we have a persistent problem. I am concerned that we have not 
achieved greater progress in preventing sexual assault and sexual 
harassment among academy cadets and midshipmen. These crimes and 
abhorrent behavior are incompatible with the core values we require of 
our Armed Forces' future officers. A strong and immediate response is 
needed.''
    Question. What has the Army done to respond to the Secretary of 
Defense's requirement for a strong and immediate response?
    Answer. I have been advised that, under the USMA Superintendent's 
guidance, Cadets established the Cadets Against Sexual Harassment and 
Assault committee, a SHARP-trained group of Cadets who are dedicated to 
preventing and responding to sexual assault at the USMA. Additionally, 
the Superintendent has met with all company commanders, regimental 
commanders, the brigade staff, and the Corps of Cadets to address 
leadership responsibilities, and he has emphasized each member's 
responsibility for establishing a positive command climate in his or 
her unit that is based on dignity and respect for all. The 
Superintendent addressed the same subject during his briefings to the 
staff and faculty at the beginning of first semester, academic year 
2013-2014, and he will continue to deliver this message to cadet groups 
throughout the second semester of this academic year.
    Question. If confirmed, what additional steps will you take to 
address the findings contained in this report?
    Answer. If confirmed, I will continue to work with the Secretary of 
the Army, the Chief of Staff of the Army, the Assistant Secretary for 
Manpower and Reserve Affairs, the USMA Superintendent and the Deputy 
Chief of Staff, G-1 to ensure that the Sexual Harassment/Assault 
Response and Prevention Program, both Army-wide and at USMA, remains a 
top priority for Army leaders throughout the Army.
             army policies regarding drug and alcohol abuse
    Question. What is your understanding of the Army's policy with 
respect to disciplinary action and administrative separation of 
soldiers who have been determined to have used illegal drugs? Do you 
agree with this policy?
    Answer. In 2012, the Secretary of the Army directed revisions to 
the criteria and retention authorities for drug and alcohol-related 
separations. In short, the revised policies reflect an increased 
responsibility on the part of the soldier to remain resilient and 
follow substance abuse rehabilitative treatment, and it holds 
commanders responsible for processing administrative separations. The 
revised policy directs commanders to process administrative separations 
for those soldiers who commit repeated offenses, such as two serious 
incidents of alcohol-related misconduct within a 12 month period, or 
for soldiers who test positive for illegal drugs twice during their 
careers. The decision authority for retention is now the first general 
officer in the chain of command with a judge advocate or legal advisor.
    These revisions make the Army policy more responsive to the drug 
use and high-risk behavior trends that were identified in the Army. I 
believe the revised policy is well suited to assist the Army in 
identifying and retaining those soldiers who demonstrate the 
responsibility and maturity to learn from their incidents of high-risk 
behavior. At the same time, it provides commanders the necessary tools 
to process soldiers out of the Army who are unwilling to change. I 
support the current policy.
    Question. What is your understanding of the Army's policy with 
respect to rehabilitation and retention on Active Duty of soldiers who 
have been determined to have used illegal drugs or abused alcohol or 
prescription drugs? Do you agree with this policy?
    Answer. My previous response concerning the Army's disciplinary 
policy on illegal drug use outlines the Army's focus on both soldier 
responsibility and command responsibility. The Army policy, which 
allows for soldiers with a single alcohol incident or a single positive 
drug test to be referred for evaluation, intensive education, or 
outpatient treatment, reflects the Army's understanding of soldiers in 
terms of their ages and their representation of American society at-
large. The Army understands that younger soldiers may make poor 
decisions and makes allowances for this by providing commanders with 
the flexibility to retain soldiers who have the potential to learn from 
their mistakes and maintain Army standards. I support this policy.
    Question. Do you believe that the Army has devoted sufficient 
resources for implementation of its rehabilitation policies and 
objectives since 2001? If not, in what ways have resources been 
insufficient?
    Answer. I have been advised that, while the Army has increased 
resourcing over the past decade to combat the abuse and/or misuse of 
both legal and illegal substances, capability gaps still exist that 
require funding. These gaps primarily reside within the Reserve 
component (Army National Guard and U.S. Army Reserve) in the 
deterrence, prevention, and treatment realms. If confirmed as Under 
Secretary, I will work to bridge these gaps.
                      detainee treatment standards
    Question. Do you agree with the policy set forth in the July 7, 
2006, memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. I agree with the 2006 memorandum of Deputy Secretary 
England and the 2009 Executive Orders of President Obama that require 
all Department of Defense directives, regulations, policies, practices, 
and procedures to fully comply with Common Article 3 of the Geneva 
Conventions. Since 2006, the Department of the Army has reviewed and 
updated all Army regulations, policies, practices, and procedures to 
ensure such compliance.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. I support the standards for detainee treatment specified in 
the revised Army Field Manual on Interrogations, FM 2-22.3, and 
Department of Defense Directive 2310.01E. Current Army directives 
comply fully with the provisions of the Geneva Conventions, as noted 
above.
    Question. Do you believe it is consistent with effective military 
operations for U.S. Forces to comply fully with the requirements of 
Common Article 3 of the Geneva Conventions?
    Answer. Yes. It is entirely appropriate and consistent with 
effective military operations to comply fully with the requirements of 
Common Article 3 and establish a standard for the conduct of detainee 
operations that applies the Law of Armed Conflict in all military 
engagements, no matter how characterized, and in all other military 
operations.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the 
Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
          Questions Submitted by Senator Kirsten E. Gillibrand
                           combat integration
    1. Senator Gillibrand. Mr. Carson, in your testimony you stated 
that in the next few months the Army would be opening 33,000 positions 
that were previously closed to women due to the direct combat 
exclusion. How many of these positions have already been opened?
    Mr. Carson. The notification to Congress to open 33,000 positions 
occurred in January 2014; we will open these following expiration of 
the required 30 continuous days of congressional session. These 33,000 
will be in addition to the approximately 22,000 positions the Army has 
already opened since May 2012.

    2. Senator Gillibrand. Mr. Carson, why is it taking so long to open 
them?
    Mr. Carson. I understand that the integration of women into 
previously closed units is proceeding well. We began our work in 2012, 
focusing on the 14 Military Occupational Specialties (MOS)--such as the 
enlisted Combat Engineer MOS and the three enlisted MOSs in the 
Infantry, Armor, and Field Artillery branches--that were closed because 
their missions were related to direct ground combat. Our plan calls for 
all decisions on closed positions and occupations to be made by 2015, 
and we are on schedule to meet that goal.

    3. Senator Gillibrand. Mr. Carson, are there intermediate steps 
that you feel are necessary before you make this shift?
    Mr. Carson. To ensure success, the Army has directed Training and 
Doctrine Command (TRADOC) to conduct a Gender Integration Study. The 
Gender Integration Study surveys soldiers in formerly closed combat 
arms MOSs and female soldiers currently serving in the Army. I have 
been told that the results of this extensive study will help the Army 
develop strategies to ensure the successful integration of women into 
combat units and combat arms MOSs. I support the Gender Integration 
Study as a necessary intermediate step to opening closed positions and 
occupations.

    4. Senator Gillibrand. Mr. Carson, you specified that the Army is 
in the process of revalidating occupational standards for 14 previously 
closed MOSs. How many positions are included in those closed 
specialties?
    Mr. Carson. I understand that there are approximately 100,000 
positions in the now-closed specialties.

    5. Senator Gillibrand. Mr. Carson, at what pace are you opening up 
these positions?
    Mr. Carson. The Army's plan has three decision points: December 
2014 for the enlisted Combat Engineer MOS 12B, March 2015 for the three 
Field Artillery MOSs, and July 2015 for the remaining occupations and 
Army schools that are currently closed to women. We will decide to 
either notify the Office of the Secretary of Defense of our intent to 
open additional occupations and positions or request an exception to 
policy to keep the remaining occupations and positions closed if we 
cannot meet the Secretary of Defense's stated guidelines.

    6. Senator Gillibrand. Mr. Carson, how many of these positions have 
already been opened?
    Mr. Carson. To my knowledge, the Army has opened 22,000 positions 
since May 2012.

    7. Senator Gillibrand. Mr. Carson, are you on schedule to meet the 
timeline specified by the directive of Secretary Panetta and Chairman 
Dempsey?
    Mr. Carson. Yes.

    8. Senator Gillibrand. Mr. Carson, in your testimony you mentioned 
that the Army is revalidating the occupational requirements for the 
previously restricted MOSs. Could you please describe the methodology 
the Army is using to determine combat effectiveness?
    Mr. Carson. Currently, TRADOC is conducting a Physical Demands 
Study to establish occupation-specific accession standards for the 
specialties that are currently closed to women. The U.S. Army Research 
Institute of Environmental Medicine is assisting TRADOC by developing 
valid, safe, legally defensible physical performance tests to assess 
soldiers' abilities to perform the critical, physically demanding 
duties inherent in currently closed MOSs.

    9. Senator Gillibrand. Mr. Carson, is the expertise of service 
women, and in particular of those women who have already participated 
in combat operations and accompanied Special Forces into the field as 
members of Female Engagement Teams, being sought out and utilized to 
inform this process?
    Mr. Carson. Yes they are. We are using a multitude of venues to 
gain lessons learned from the experiences of female soldiers, 
particularly those who have deployed, operated in Female Engagement 
Teams, and/or been members of Cultural Support Teams. Their successes 
enabled the Army to start opening positions in May 2012.

    10. Senator Gillibrand. Mr. Carson, in your testimony you stated 
that the Army is not responsible for integrating the MOSs associated 
with Special Forces. Could you clarify what role the Army has in 
selecting individuals for service in its Special Forces and providing 
guidance to Special Forces in ensuring that the most qualified 
candidates are allowed to compete for positions, regardless of gender?
    Mr. Carson. It is my understanding that Special Forces is an Army 
occupational specialty and the assessment, selection, and training of 
Special Forces soldiers are all conducted by Army personnel at the 
certified Special Operations Forces (SOF) Center of Excellence. 
However, Special Forces is funded by U.S. Special Operations Command 
(SOCOM), and the Army must coordinate changes to the Special Forces 
MOSs with that combatant command. The Army, through U.S. Army Special 
Operations Command, is working with SOCOM to ensure the most qualified 
candidates will be able to compete for positions, regardless of gender.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                 financial improvement and auditability
    11. Senator McCain. Mr. Carson, if confirmed, you would, of course, 
serve as the Chief Management Officer (CMO) in charge of overseeing, 
among other things, the Army's business transformation and financial 
improvement efforts. In your testimony, in response to Chairman Levin's 
question, you said that the Army is ``on track'' to meet both the 
Statement of Budgetary Resources September 30, 2014, and the Financial 
Statements September 30, 2017 auditability deadlines, but some 
challenges remain. As to both the legislatively-required 2014 and 2017 
deadlines, what are the greatest areas of risk to the Army's ability to 
do so?
    Mr. Carson. Though the Army has clearly achieved several 
significant milestones, I understand that key challenges remain. First, 
the deployment of our Enterprise Resource Planning (ERP) systems 
requires us to undergo considerable financial management changes, a 
major challenge for an organization as large and complex as the Army. 
Second, our dependence on service providers for significant portions of 
our business processes also poses a risk to meeting these objectives. A 
third challenge we face is quickly and effectively implementing any 
corrective actions resulting from the ongoing audit by an independent 
public accountant. Finally, funding uncertainties, government 
shutdowns, and furloughs present risks to achieving auditability.

    12. Senator McCain. Mr. Carson, how is the Army mitigating those 
risks and what additional steps would you take to adequately address 
these risks?
    Mr. Carson. I understand that the Army will continue the activities 
that have facilitated success to date, particularly by following the 
guidance established by the Office of the Under Secretary of Defense 
(Comptroller). The Army will ensure change management is successful by 
implementing effective controls and processes and transforming our 
financial management organizations to be more effective and efficient. 
We are working closely with our service providers to ensure they follow 
these new controls and processes. As weaknesses from our current Exam 3 
are identified, we will implement corrective action plans. The Army 
leadership, both military and civilian, will continue the active 
engagement that has helped establish the requisite accountability for 
audit readiness support at all levels and across all Army commands.

    13. Senator McCain. Mr. Carson, who should be held accountable if 
the Army misses either the 2014 or the 2017 deadline?
    Mr. Carson. Army senior leaders, including the Under Secretary, 
should be held accountable.

    14. Senator McCain. Mr. Carson, has the Army, in your view, been 
successfully implementing Business Process Reengineering (BPR) in 
connection with its auditability goals?
    Mr. Carson. Yes. BPR is the centerpiece of our business process 
improvement and audit readiness efforts. By leveraging our successful 
deployment of the General Fund Enterprise Business System and the 
results of several audit examinations, we have been continually 
reengineering our processes to improve efficiency and audit readiness. 
The Army Financial Improvement Plan is focused on long-term, 
sustainable business process improvements rather than short-term, 
manually-intensive efforts that are difficult or impossible to sustain. 
This approach has resulted in several ``quick wins'' that have 
confirmed the appropriateness and sustainability of the Army's plan.
    Using an end-to-end process reengineering approach, we have 
analyzed all Army financial and financial feeder systems, processes, 
and controls to ensure comprehensive process optimization and 
accountability. Also, we are linking IT portfolio optimization, 
enterprise architecture, Lean Six Sigma-informed continuous process 
improvement, and best business practices into a very powerful, 
synergistic method of evaluation across all Army core business 
processes. While we have made significant progress, there remains work 
to do. However, I am confident that our efforts will broaden over the 
coming years.

    15. Senator McCain. Mr. Carson, in June 2010, then-Secretary of 
Defense Robert Gates said that the Department of Defense (DOD) must 
significantly improve the effectiveness and efficiency of its business 
operations stressing the importance of changing how DOD does business. 
Yet, to date, DOD has struggled to implement successful business 
transformation because it has failed to fully utilize BPR. Do you agree 
with Secretary Gates' comments and, if so, how will you improve the 
efficiency of the Army's business operations?
    Mr. Carson. Yes, I believe that this was an accurate assessment at 
the time. In the years following Secretary Gates' comments, I 
understand that the Army has made significant strides in BPR and in 
improving the efficiency of the Army's business operations. We just 
released our 2014 Business Transformation Report that highlights many 
of our successful efforts in 2013. Going forward, if I am confirmed as 
Under Secretary, I will continue to emphasize four efforts to improve 
business operations: (1) achieving audit-readiness goals for 2014 and 
2017; (2) improving the way we make cost-informed decisions for 
enterprise functions; (3) ensuring the alignment of the activities of 
the Headquarters, Department of the Army with those of DOD and Army 
operating forces; and (4) increasing momentum in improving the 
efficiency and effectiveness of our business operations. On the fourth 
point, we will continue to drive costs down on the business portfolio 
by reducing systems and reengineering high-cost processes. Also, we 
will increase our BPR efforts to streamline processes and optimize the 
systems that support it. Finally, we will maintain our support to the 
Army's enterprise-wide Lean Six Sigma program in order to accelerate 
Army-level BPR and help lower-level commands to make their own 
processes more efficient.

    16. Senator McCain. Mr. Carson, how will you measure the success of 
your efforts?
    Mr. Carson. I think that an actively managed performance assessment 
system is the key to measuring success, understanding our costs, and 
helping the Army make better resource-informed decisions. The Army 
Campaign Plan and the Army Business Management Strategy establish our 
measures, and our business governance structure provides the mechanism 
for Army leaders to routinely review progress, identify problem areas, 
and develop timely strategies to overcome obstacles. In addition to 
these, we will cooperate with the DOD Inspector General and Government 
Accountability Office (GAO), undergo external and internal audits, and 
utilize other sources of assessment to assist efforts to refine our 
performance measures. If confirmed as Under Secretary and Chief 
Management Officer (CMO), I will work to ensure that we have the right 
performance assessment mechanisms in place to measure progress and 
adjust our plans as needed.

    17. Senator McCain. Mr. Carson, what do you believe is the role of 
ERP systems in improving how the Army does business?
    Mr. Carson. The Army's four ERP systems are the backbone to a 
connected and integrated Army business environment. While each ERP has 
a unique functionality, they share valuable data, reduce inefficiencies 
in our business activities, and provide the internal controls and 
traceability required for a credible financial management system. Our 
ERPs are paramount for achieving audit-readiness.

    18. Senator McCain. Mr. Carson, how do you plan to implement 
lasting cultural change so that new processes are both welcomed and 
quickly accepted by Army personnel in connection with the Army's 
financial improvement/business transformation efforts?
    Mr. Carson. In my opinion, active, multi-echelon change management 
is the key to ensuring that Army personnel readily adopt new processes. 
I believe that education and training are the most important elements 
for lasting, transformative cultural change. To that end, we are 
reviewing our education and leader development programs to place more 
emphasis on leader roles in performance assessment and process 
improvement. Likewise, we are reengineering our institutional training 
programs to include hands-on training across the full range of our new 
ERP systems.
    I also feel that to effect change, we must also be responsive to 
user and customer feedback. I am confident that our change management 
plans include the right mechanisms to receive and consider user inputs 
and that our culture and personnel will adapt as necessary to embrace 
these new processes.

    19. Senator McCain. Mr. Carson, if confirmed, how would you make 
the redesign of the Army's business processes, wherever warranted, a 
priority?
    Mr. Carson. The Army has specified the improvement of business 
processes as a major objective of the Army Campaign Plan, and Under 
Secretary Westphal recently published the Army Business Management 
Strategy to provide detailed guidance in this area. If confirmed, I 
will employ the principles in these documents to take an active role in 
this important Army priority, which spans across all of our major end-
to-end processes and is driven by the development and successful 
fielding of our ERP systems. I plan to press for the optimization of 
business processes and the rationalization of the business Information 
Technology (IT) portfolios that support them. Reducing costs and 
improving effectiveness across our business operations would be among 
my main priorities if I became Under Secretary.

    20. Senator McCain. Mr. Carson, what lessons did you learn from the 
Air Force's failed Expeditionary Combat Support System (ECSS) program?
    Mr. Carson. The Air Force was very forthcoming about their ECSS 
challenges when discussing ERP management with us. The biggest lesson 
from ECCS--which was reinforced during our successful fielding of the 
General Fund Enterprise Business System--is to reengineer existing 
business processes to work within the ERP software rather than 
customizing the software to fit existing processes. We also understand 
the importance of having the right expertise on our government teams to 
advise process owners on BPR efforts to align with the ERP software, 
and not relying solely on the contracted system integrator to perform 
this function. We have also taken steps to maintain stability within 
our acquisition teams. Lastly, we understand the importance of internal 
Army oversight processes over program duration. I am confident we have 
learned the right lessons and have incorporated them into our plans to 
ensure the successful fielding of Army ERPs and other business IT 
systems.

    21. Senator McCain. Mr. Carson, how would you ensure that the Army 
effectively implements these lessons to current and future ERP 
procurement efforts?
    Mr. Carson. As the CMO of the Army, I would play a very hands-on 
managerial role in the governance structure we have established to 
continue to drive positive, meaningful change in the way the Army does 
business. If confirmed, I will direct the continuation of our robust 
audit and testing schedules to ensure we remain on track. I look 
forward to a productive relationship and open dialog with our 
acquisition executive as we apply those lessons to complete the 
fielding of ERPs.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                          army national guard
    22. Senator Ayotte. Mr. Carson, in your view, how has the Army 
National Guard performed in Iraq and Afghanistan?
    Mr. Carson. The Army National Guard (ARNG) and the U.S. Army 
Reserve (USAR) have performed admirably in Iraq and Afghanistan.

    23. Senator Ayotte. Mr. Carson, could we have accomplished the 
missions in Iraq and Afghanistan without the National Guard?
    Mr. Carson. No.

    24. Senator Ayotte. Mr. Carson, as the Army tries to maintain 
readiness and necessary force structure under tighter budgets, do you 
believe it makes sense for us to increase our reliance on the National 
Guard?
    Mr. Carson. It is my understanding that the Army plans to continue 
its reliance on the Reserve component for operational depth and 
critical expertise in meeting the National Military Strategy.

                        involuntary separations
    25. Senator Ayotte. Mr. Carson, to what extent has the Army 
utilized involuntary separations to achieve end strength reduction 
goals?
    Mr. Carson. To my knowledge, the majority of end strength 
reductions have been focused on reduced accessions and normal 
attrition. The Army has used limited involuntary separations to meet 
end strength goals for both officers and enlisted personnel.

    26. Senator Ayotte. Mr. Carson, how many enlisted soldiers and 
officers have been involuntarily separated?
    Mr. Carson. I have been told that under the Qualitative Service 
Program (QSP), the Army selected 123 Active component (AC) 
Noncommissioned Officers (NCO) and 37 NCOs from the ARNG and USAR for 
denial of future service in fiscal year 2013. In fiscal year 2014, the 
QSP denied continued service to 497 NCOs from the AC and 9 NCOs from 
the ARNG and USAR. Under the Selective Early Retirement Board for 
fiscal year 2013, 103 colonels and 136 lieutenant colonels were 
selected for early retirement. 73 officers have also been identified 
for early termination of selective continuation on active duty.

    27. Senator Ayotte. Mr. Carson, are the soldiers being separated 
well-performing soldiers with multiple combat tours?
    Mr. Carson. I understand that, in some cases, those identified for 
separation were well-performing soldiers with multiple combat tours. 
While it is certainly lamentable that some honorable soldiers' careers 
will be truncated, the Army is also concerned that the overall force 
may not have the proper rank structure or mix of specialties without 
involuntary separations. The Army recognizes and appreciates the many 
hard sacrifices its soldiers and their families make daily. However, we 
maintain that a reasoned, measured approach to involuntary separations 
is necessary to ensure that the Army's force structure can properly 
meet mission needs and that we do not repeat the mistakes made during 
the Cold War drawdown that left the force imbalanced.

    28. Senator Ayotte. Mr. Carson, to what extent do you anticipate 
that the Army will have to use involuntary separations to achieve 
future end strength reductions?
    Mr. Carson. The Army will continue to use involuntary measures to 
shape the force to the minimum extent possible; reduced accessions and 
natural attrition will remain our primary levers to meet end strength.

    29. Senator Ayotte. Mr. Carson, setting aside the impact on a 
soldier who is involuntarily separated, when soldiers see their 
brothers and sisters in arms, especially those not eligible for 
retirement, forced to leave the Army after multiple deployments and 
years of faithful service, what impact could this have on unit morale 
and readiness?
    Mr. Carson. Involuntary separations remain difficult and inevitably 
impact the morale of the force. As discussed above, the Army will 
eschew the use of involuntary separations except when it is absolutely 
necessary. We will also continue to actively communicate to the 
soldiers and their families about the impact of budgetary constraints 
and the possibility of involuntary separation.

    30. Senator Ayotte. Mr. Carson, do I have your commitment that you 
will work to avoid involuntary separations?
    Mr. Carson. Yes. If I am confirmed, I will work to ensure that 
lower accessions and natural attrition will remain the Army's preferred 
means to meet end strength requirements. However, budgetary constraints 
will likely require some involuntary separations.

    31. Senator Ayotte. Mr. Carson, are you aware of the requirement in 
section 525 of the National Defense Authorization Act for Fiscal Year 
2013 regarding reports on involuntary separation of members of the 
Armed Forces?
    Mr. Carson. Yes.

    32. Senator Ayotte. Mr. Carson, will you ensure the Army complies 
with this reporting requirement?
    Mr. Carson. Yes.

                            wounded warriors
    33. Senator Ayotte. Mr. Carson, recently the Army announced changes 
to the organization of its Warrior Care and Transition Program. Can you 
describe those changes?
    Mr. Carson. Warrior Transition Units (WTUs) are located at major 
Military Treatment Facilities and provide support to wounded, ill, and 
injured soldiers who require at least 6 months of rehabilitative care 
and complex medical management. The Army is restructuring the WTUs in 
response to the scheduled withdrawal of troops from Afghanistan and the 
decline in the number of combat-wounded. The transition will be 
completed by 30 September 2014. The changes are designed to improve 
care and transition of soldiers through increased standardization, 
increased cadre-to-soldier ratios, improved access to resources on 
installations, and reduced delays in care. They are not related to 
budget cuts, sequestration, or furloughs. The restructuring includes 
inactivation of the WTUs at Fort Irwin, CA; Fort Huachuca, AZ; Fort 
Jackson, SC; Joint Base McGuire-Dix-Lakehurst, NJ; and the U.S. 
Military Academy, West Point, NY. As of 21 January 2014, each location 
has fewer than 35 soldiers assigned.
    The restructuring plan also includes the inactivation of nine 
Community Based Warrior Transition Units (CBWTUs) in Alabama, Arkansas, 
California, Florida, Illinois, Massachusetts, Puerto Rico, Utah, and 
Virginia. The CBWTUs currently provide services for Army Reserve and 
National Guard soldiers who do not require day-to-day care, allowing 
soldiers to continue their recoveries closer to home. CBWTU soldiers 
will be re-assigned to 13 new Community Care Units (CCUs) at WTUs 
located on Army installations. The Army will establish these CCUs at 
Fort Carson, CO; Joint Base Lewis-McChord, WA, Forts Hood and Bliss, 
TX; Fort Riley, KS; Fort Knox, KY; Forts Benning, Stewart, and Gordon, 
GA; Fort Bragg, NC; and Fort Belvoir, VA. Forts Belvoir and Knox will 
each have two CCUs. The Puerto Rico CBWTU will become a Community Care 
detachment under the mission command of the Fort Gordon Warrior 
Transition Battalion. Soldiers will not have to move to those 
installations or change their care plans to receive medical attention 
after this reorganization.

    34. Senator Ayotte. Mr. Carson, why were those changes made?
    Mr. Carson. As of 21 January 2014, the WTU population was 7,078. 
This represents a decline of approximately 3,000 soldiers in the Army-
wide Warrior Care Transition Program population over the past 14 
months, a result of reduced contingency operations (fewer soldiers are 
arriving into WTUs/CBWTUs as fewer units deploy) and reduced 
mobilization of ARNG and USAR soldiers. These changes will allow the 
Army to scale the program to best meet the needs of the declining 
population.

    35. Senator Ayotte. Mr. Carson, how can we sustain and improve the 
quality support we are providing to our wounded warriors and their 
family members?
    Mr. Carson. The Army recognizes the care of our wounded, ill, and 
injured soldiers as a sacred obligation. Be assured that the Army will 
not falter in its commitment to the best care and transition of our 
wounded warriors and their families. They will continue to receive the 
best possible care and support as they transition either back to the 
force or into civilian life as veterans.
    The Army is constantly looking at ways to improve the care and 
support for our wounded, ill, and injured soldiers and their families. 
To that end, the Army has developed numerous programs. The 
implementation of the Army's System of Health has empowered soldiers 
and their families with tools to improve their resiliency as they heal. 
The Army has also established Soldier Centered Medical Homes, which 
bring health care to soldiers in need. Moreover, the Warrior Transition 
Command conducts an annual review that includes all key Army 
stakeholders to ensure we provide quality care to our soldiers and 
their families.
    The Army has also reorganized as part of ensuring that wounded 
warriors receive optimum care. The force structure changes discussed 
above reflect the inherent scalability of this program, which can 
expand or contract while continuing to meet the evolving need. The 
standardization of care and transition services brought about by the 
force structure changes will continue to ensure that all soldiers 
receive quality services and support across the Army.
    In addition, the Army Medical Command and the Warrior Transition 
Command actively participate in the congressionally-mandated 
Interagency Care Coordination Committee which has studied and has made 
informed recommendations for improvements to the Services' individual 
programs for wounded, ill, and injured military members. These 
recommendations have been incorporated into the Warrior Care and 
Transition Program.
    The Army also uses information gleaned from independent sources to 
ensure continuous improvement; the Army Inspector General, DOD 
Inspector General, Recovering Warrior Task Force, GAO, and other 
auditing agencies monitor satisfaction levels of our wounded, ill, and 
injured soldiers. They provide timely and accurate information that 
allows the Army to continue to both sustain and improve the quality 
support we are providing to our wounded warriors and their family 
members.

                             modernization
    36. Senator Ayotte. Mr. Carson, what are the Army's top 
modernization priorities?
    Mr. Carson. My understanding is that, given significant fiscal 
pressures, the Army's investment in modernized equipment and 
capabilities will likely see reductions in the near-term. The Army will 
continue to prioritize a range of investments focusing on incremental 
upgrades to existing systems and new developmental programs. The Army's 
top priorities include the Network, Joint Light Tactical Vehicle, 
Paladin Integrated Management program, Armored Multipurpose Vehicle, 
and aviation platforms such as the Apache, Chinook, and Blackhawk 
helicopters.

    37. Senator Ayotte. Mr. Carson, do you believe the fiscal year 2014 
omnibus bill adequately resources the Army's modernization priorities?
    Mr. Carson. The amount requested in the President's budget 
submitted in fiscal year 2014 adequately addressed the Army's 
requirements for modernization priorities. We are currently assessing 
the impacts of the fiscal year 2014 appropriation on our equipment 
modernization investments.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee
                                  army
    38. Senator Lee. Mr. Carson, with the military's role in 
Afghanistan coming to an end and reduced budgets due to sequestration, 
the Army will likely need to undergo some form of restructuring. What 
are the biggest factors that you will consider and will drive the way 
in which Army restructures in the coming years?
    Mr. Carson. The enduring priority of the Army is to preserve the 
high-quality All-Volunteer Force. The Army is committed to the Total 
Force Policy, in which the ARNG and USAR play key roles. In an era of 
likely budget austerity, the biggest factors driving restructure will 
be the need to meet the force and readiness requirements of the 
National Military Strategy, while ensuring that the drawdown in Army 
end strength is managed efficiently and equitably.

    39. Senator Lee. Mr. Carson, the National Guard played a key and 
essential role in the conflicts of the past decade. Do you believe that 
its role and relationship to the Active components will change as our 
troops withdraw from Afghanistan?
    Mr. Carson. I believe that the ARNG provides operational 
capabilities and strategic depth to meet our Nation's defense needs 
across the range of military operations. It is my understanding that 
there will be continuity in the relationship between the AC and Reserve 
components after the withdrawal from Afghanistan.

    40. Senator Lee. Mr. Carson, how should the National Guard figure 
into the Army's need to cut costs in future years?
    Mr. Carson. It is my understanding that the fiscal environment will 
likely result in cuts to all components of the Army. If confirmed as 
Under Secretary, I will work to ensure that the cuts are distributed 
fairly across the components and are based solely on the best interests 
of the Nation.
                                 ______
                                 
    [The nomination reference of Hon. Brad R. Carson follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                   January 6, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Brad R. Carson, of Oklahoma, to be Under Secretary of the Army, 
vice Joseph W. Westphal.
                                 ______
                                 
    [The biographical sketch of Hon. Brad R. Carson, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Brad R. Carson
Education:
    Baylor University

        <bullet> 1985-1989
        <bullet> B.A., History

    Oxford University

        <bullet> 1989-1991
        <bullet> B.A./M.A., Politics, Philosophy, & Economics

    University of Oklahoma

        <bullet> 1991-1994
        <bullet> J.D.
Employment record:
    Crowe & Dunlevy, P.C.

        <bullet> Attorney
        <bullet> September 1994-August 1997
        <bullet> Tulsa, OK

    Department of Defense

        <bullet> White House Fellow
        <bullet> September 1997-December 1998
        <bullet> Washington, DC

    Crowe & Dunlevy, P.C.

        <bullet> Attorney
        <bullet> January 1999-February 2000
        <bullet> Tulsa, OK

    U.S. Congress

        <bullet> Congressman (2nd District - Oklahoma)
        <bullet> January 2001-January 2005
        <bullet> Washington, DC

    Harvard University

        <bullet> Fellow, Institute of Politics
        <bullet> February 2005-May 2005
        <bullet> Cambridge, MA

    Cherokee Nation Businesses, L.L.C.

        <bullet> Chief Executive Officer/Director of Business 
        Development
        <bullet> June 2005-November 2008
        <bullet> Catoosa, OK

    U.S. Navy

        <bullet> Officer-in-Charge, MND-S, Weapons Intelligence Teams
        <bullet> December 2008-December 2009
        <bullet> Basrah, Iraq

    University of Tulsa

        <bullet> Associate Professor & Director, National Energy Policy 
        Institute
        <bullet> January 2010-December 2011
        <bullet> Tulsa, OK

    Department of Defense

        <bullet> General Counsel, U.S. Army
        <bullet> January 2012-present
        <bullet> Washington, DC
Honors and awards:
    Military Awards

        <bullet> Bronze Star
        <bullet> Army Achievement Medal

    Academic Awards

        <bullet> Rhodes Scholar
        <bullet> Bledsoe Award for Outstanding Law School Graduate at 
        the University of Oklahoma College of Law (1994)
        <bullet> Phi Beta Kappa
        <bullet> Magna cum laude, Baylor University
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate, and certain 
senior military officers as determined by the committee, to 
complete a form that details the biographical, financial and 
other information of the nominee. The form executed by Hon. 
Brad R. Carson in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Brad Rogers Carson.

    2. Position to which nominated:
    Under Secretary, U.S. Army.

    3. Date of nomination:
    November 21, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    Winslow, AZ; March 11, 1967.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Julie Kruse Carson.

    7. Names and ages of children:
    Jack David Carson; age 8.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Baylor University, B.A., 1989, 1985-1989
    Oxford University, B.A./M.A., 1991 (1989-1991)
    University of Oklahoma, J.D., 1994 (1991-1994)

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    U.S. Congressman, 2nd District of Oklahoma, January 2001-January 
2005, Washington, DC.
    Fellow, Kennedy School of Government, Harvard University, February 
2005-May 2005, Cambridge, MA.
    CEO & President/Director, Cherokee Nation Businesses, LLC, June 
2005-December 2008, Catoosa, OK.
    Officer-in-Charge, Weapons Intelligence Teams, MND-S, December 
2008-December 2009, Iraq.
    Associate Professor of Business, Associate Professor of Law, 
University of Tulsa, December 2009-January 2012, Tulsa, OK.
    Director, National Energy Policy Institute, University of Tulsa, 
December 2009-January 2012, Tulsa, OK.
    General Counsel, U.S. Army, Department of Defense, 2011 
(confirmed)/2012 (assumed duties)-present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    White House Fellow, Special Assistant to the Secretary of Defense, 
1997-1998

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Oklahoma Bar Association, Member, 1994-present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    U.S. Congress, 2nd District of Oklahoma.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Obama for America National Finance Committee, 2006-2008.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Williams for City Council, 2011, $500
    Smith-Soap for Chief, 2011, $5,000
    Obama Victory Fund, 2011, $1,000
    Reid for Senate, 2010, $1,000
    Edmondson for Governor, 2010, $4,000
    Gumm for Senate, 2010, $1,000
    Williams for House, 2010, $500
    Burrage for Senate, 2010, $2,000
    Boren for Congress, 2010, $2,000
    Paddock for State Superintendent, 2010, $750
    Adelson for Mayor, 2009, $3,000
    AmeriPac, 2008, $2,500
    Adelson for Senate, 2008, $2,000
    Hoskin for House, 2008, $250
    Rice for Senate, 2008, $250

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Bronze Star, 2009
    Army Achievement Medal, 2009
    Board of Directors, National Job Corps Association, 2005-2008
    U.S. Junior Chamber of Commerce Ten Outstanding Young Americans, 
2002
    Rhodes Scholar, 1989-1991
    White House Fellow, 1997-1998
    Exceptional Contribution to Legal Services of Eastern Oklahoma, 
1996
    Bledsoe Award for Outstanding Law School Graduate from The 
University of Oklahoma, 1994
    Adjunct Professor of Law (Law and Literature), University of Tulsa 
College of Law, 1997
    Legal Services of Eastern Oklahoma, Board of Directors, 1997

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``The Liberal Moment What Happened?'' in Symposium Issue of 
Democracy: A Journal of Ideas (along with Michael Sandel, Michael 
Walzer, Danielle Allen, William Galston, Martha Nussbaum, Robert Reich, 
Katha Pollit, and Joe Klein) (Spring 2010)
    ``The Claremore Diarist'' in The New Republic (November 22, 2004)
    ``Does the Democratic Party Have a Future?'' in The Weekly Standard 
(September 16, 2002) (review of The Emerging Democratic Majority by 
Judis and Texeira)
    ``Pay to Play,'' in Blueprint Magazine (May 31, 2005)
    ``The Fall of the House of Representatives'' in Democracy: A 
Journal of Ideas (September 2006) (review of The House: A History Of 
The House Of Representatives by Remini)
    ``Smart Development Subsidies'' in Democracy: A Journal of Ideas 
(part of ``20 Ideas for the Next President'') (Spring 2008).
    Tate v. Browning-Ferris Industries: Oklahoma Adepts A Common Law 
Action For Employment Discrimination, 46 Okla. L. Rev. 557 (1993).
    Legal Issues Facing Small Businesses And Their Owners (with Michael 
Troilo) in Human Resource Management in Small Business (New Horizons In 
Management) (eds. Cooper and Burke)
    Federal Appellate Practice (with Robert E. Bacharach) in Appellate 
Manual For Oklahoma Lawyers (eds. Muchmore & Ellis) (3 vols.) (1997)
    The Economics of Renewable Energy, in The Handbook of Energy 
Finance (Wiley. 2012) (ed. Simians)
    Renewable Energy Economics (available at www.ssm.com)

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    N/A.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Brad R. Carson.
    This 6th day of December, 2013.

    [The nomination of Hon. Brad R. Carson was reported to the 
Senate by Chairman Levin on January 28, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 12, 2014.]
                              ----------                              

    [Prepared questions submitted to Dr. William A. LaPlante by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions, particularly with respect to the role of the service 
acquisition executives?
    Answer. I agree with the goals of these defense reforms; indeed 
they have yielded a demonstrated improvement in the joint warfighting 
capabilities of the U.S. military. I do not currently see the need for 
any modifications.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. None at this time.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Air Force for Acquisition?
    Answer. The Assistant Secretary of the Air Force for Acquisition is 
the Service Acquisition Executive (SAE) for the Air Force, the senior 
position authorized to exercise, on behalf of the Secretary, overall 
responsibility for acquisition functions within the Air Force.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I possess more than 28 years of experience in defense 
technology including positions at the MITRE Corporation and the Johns 
Hopkins University Applied Physics Laboratory. I have also served as 
member of the Defense Science Board, a special advisor to the U.S. 
Strategic Command's Senior Advisory Group and Naval Research Advisory 
Committee.
    Prior to entering public service, I was the Missile Defense 
Portfolio Director for the MITRE Corporation. In this role, I led a 
technical team providing analytic and system engineering expertise 
across the Missile Defense Agency portfolio of ballistic missile 
defense systems. Previously, I was the Department Head for Global 
Engagement at the Johns Hopkins University Applied Physics Laboratory 
(JHU/APL) where I was responsible for all of APL's work supporting 
offensive military capabilities. Additionally, I was a member of APL's 
Executive Council and served on many other Laboratory leadership 
initiatives. As a senior manager at both MITRE and JHU/APL, I've had 
the opportunity to successfully lead large organizations with 
significant technical missions in support of the Department of Defense 
(DOD) and its major research and acquisition programs.
    In the brief time I have been in the government, I have been 
extremely impressed with the dedication and professionalism of the Air 
Force acquisition workforce as well as OSD. I am absolutely committed 
to help the Air Force Acquisition Enterprise achieve the levels of 
excellence, including improving acquisition outcomes, that I know it 
can.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Air Force for Acquisition?
    Answer. No; however, if confirmed, important to my success in this 
role will be my continued interaction, engagement and collaboration 
with other senior leaders engaged in the defense establishment, such as 
the other Component Acquisition Executives, the Defense Acquisition 
Executive, and the Air Force leadership. Additionally, continued 
interaction, engagement and collaboration with the scientific community 
and defense industry will be a foundation of acquisition success. I 
intend to heavily leverage my network of defense and technology experts 
across the government, industry, and academia.
                             relationships
    Question. If confirmed, what would your working relationship be 
with:
    The Under Secretary of Defense for Acquisition, Technology, and 
Logistics
    Answer. The Under Secretary of Defense for Acquisition, Technology, 
and Logistics USD(AT&L) is DOD's most senior acquisition official. If 
confirmed, I look forward to working with Mr. Kendall on all matters 
related to acquisition, technology, and logistics programs impacting 
the Department of the Air Force. In my present role, I have a very good 
professional relationship with Mr. Kendall and I have found him to be 
extremely effective and helpful to Air Force efforts to execute our 
largest and most visible programs.
    Question. The Deputy Under Secretary of Defense for Acquisition and 
Technology.
    Answer. If confirmed, I look forward to working with the Principal 
Deputy on all matters related to acquisition, technology, and logistics 
programs impacting the Department of the Air Force. In my present role, 
I have a very good professional relationship with Mr. Estevez and if 
confirmed, I look forward to continuing that relationship.
    Question. The Secretary of the Air Force.
    Answer. Subject to the authority, direction, and control of the 
Secretary of Defense, the Secretary of the Air Force is responsible for 
and has the authority necessary to conduct all affairs of the 
Department of the Air Force. If confirmed, I look forward to continuing 
the solid working relationship of the past as a direct report 
responsible to the Secretary for all acquisition, research, and 
development. In my present role, I have already had significant 
interaction with Secretary James and have found her to be extremely 
engaged and supportive of Air Force acquisition success.
    Question. The Under Secretary of the Air Force.
    Answer. The Under Secretary of the Air Force is authorized, subject 
to the Secretary of the Air Force's direction and control, to act for 
and with the authority of the Secretary of the Air Force on all matters 
for which the Secretary is responsible; that is, to conduct the affairs 
of the Department of the Air Force. If confirmed, I would continue to 
foster a close working relationship with Mr. Fanning to ensure that 
policies and resources are appropriate to meet the needs of the Air 
Force.
    Question. The other Assistant Secretaries of the Air Force.
    Answer. If confirmed, I will work closely with the other Assistant 
Secretaries of the Air Force and foster teamwork and information 
sharing in order to carry out the goals and priorities of the 
Department of the Air Force and in cross cutting areas where horizontal 
integration of Air Force people and resources is required and provides 
best value to DOD, the combatant commanders, and the taxpayer.
    Question. The Chief of Staff of the Air Force.
    Answer. The Chief of Staff of the Air Force is subject to the 
authority, direction, and control of the Secretary of the Air Force, 
presides over the Air Staff, and is a principal advisor to the 
Secretary. In addition, as a member of the Joint Chiefs of Staff he is 
a military adviser to the President, the National Security Council, and 
the Secretary of Defense. The relationship between the Assistant 
Secretary and the Chief of Staff is extremely important. If confirmed, 
I would continue to foster a close working relationship with General 
Welsh to ensure that policies and resources are appropriate to meet the 
needs of the Air Force and respect his additional responsibilities as a 
member of the Joint Chiefs of Staff.
    Question. The General Counsel of the Air Force.
    Answer. The General Counsel is the chief legal officer and chief 
ethics official of the Department of the Air Force and serves as the 
senior legal advisor to Air Force leaders. He is responsible, on behalf 
of the Secretary of the Air Force, for the effective and efficient 
provision of legal services in the Air Force. If confirmed, I will 
continue to foster a good working relationship with the General 
Counsel.
    Question. The Service Acquisition Executives of the Army and Navy.
    Answer. If confirmed, I look forward to continuing the close 
working relationship with Mr. Sean Stackley and Ms. Heidi Shyu. A 
strong national defense will require joint capability portfolios, 
reduction of program redundancy, improved joint interoperability across 
service centric platforms, and increased joint R&D and acquisition 
initiatives with new organizations and processes that cut across 
traditional stovepipes. As senior leaders in acquisition in the 
Department, all three SAEs must work together to reshape the defense 
enterprise.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Air Force for Acquisition?
    Answer. The Air Force Acquisition Enterprise is exceptionally 
capable and continues to deliver the world's best and most advanced 
weapons and other capabilities. After having been in the Principal 
Deputy position for over 8 months, I have a much better understanding 
of the challenges and opportunities facing the Air Force Acquisition 
Enterprise. My initial assessment is that the Enterprise has the 
following areas of concern that require attention: the challenges 
linked to declining and unstable budgets as well as the need to better 
manage and develop the acquisition workforce. Furthermore, while 
progress has been made on acquisition improvement via initiatives such 
as Better Buying Power, the Air Force acquisition community will need 
to continue to improve cost and schedule performance. The often well 
cited challenges to do better up front systems engineering, robust risk 
management, assessment of technology maturity levels, and disciplined 
approaches to requirements development and changes, are all areas that 
are improving in the Air Force but still have ways to go to 
systemically improve acquisition outcomes across the enterprise. This 
must be sustained over a long term to have lasting impact, and if 
confirmed, will be my areas of emphasis.
    The budgetary environment challenges acquisitions directly by 
impacting the dollars available to develop, procure, field and sustain 
systems, as well as indirectly, including the recent furloughs and 
government shutdown cutting into the time available for the workforce 
to accomplish essential tasks. Budgetary limitations and instability 
will be a fact of life for the foreseeable future. While both the Air 
Force and DOD are taking steps to mitigate these challenges, there is 
no doubt the current environment will impact existing programs. 
Minimizing the impact to key programs like the KC-46 Tanker, F-35, the 
Long-Range Strike Bomber and others, is a major challenge. 
Additionally, I have witnessed how budget uncertainty has made it 
extremely difficult for our program managers to manage established cost 
and schedule baselines; for example driving decisions toward short term 
contracts and strategies that may be less efficient for the taxpayer 
than longer term ones (such as multi-year contracts).
    The performance of the workforce is even more impressive given the 
environment in which they are performing. With the likelihood of a 
shrinking workforce, it is essential we develop a workforce structure 
that is agile enough to realign program staffing and skill mix to meet 
evolving mission needs. The desired end state should be to ensure solid 
functional career management while permitting the flexibility to better 
realign the workforce when necessary. We also need to closely monitor 
the morale and associated attrition rates of our highly skilled early 
career personnel--the past year has impacted our workforce in ways we 
are still trying to understand, and we must minimize any negative 
effect on the broader long-term effort to revitalize the acquisition 
workforce.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will focus on forcing the Enterprise to 
determine if a capability requirement is worth the cost. In my current 
position, I have stressed how requirements can drive cost, with the 
intent of guiding the community to evaluate how changing or reducing a 
requirement, even slightly, can have significant cost and schedule 
ramifications. Cost/schedule versus capability trade-off curves are a 
valuable tool in identifying which requirements are key cost drivers 
and can assist in the assessment of which requirements can be reduced. 
The Configuration Steering Boards (CSB) and the Air Force Requirements 
Oversight Council (AFROC) provide two forums to evaluate requirements 
priorities and trade-offs, and while the AFROC has been essential to 
this task, I am seeking to increase the effectiveness of CSBs in this 
regard. Finally, the acquisition community has demonstrated its 
commitment to cultivating a strong working relationship with the 
requirements community, and the teamwork between acquisitions and 
requirements will continue to pay dividends as we face a challenging 
future.
    While there are a number of initiatives in work to help the Air 
Force reduce the cost of programs, I think the most important thing I 
can do is to increase the senior leadership emphasis on execution. I 
will personally hold Program Executive Officers (PEO) and individual 
program managers accountable for the outcomes of their programs. To 
enable this, quarterly and Annual Acquisition Performance Assessments 
of the Acquisition Enterprise are reported and assessed. These can be 
an invaluable tool to evaluate the state of acquisition cost, schedule, 
and performance.
    Workforce qualifications are another major challenge facing the 
enterprise. It will be essential that personnel in key positions have 
knowledge and experience in specific program domains and phases. I have 
been impressed in my short tenure as Principal Deputy in the quality of 
the workforce in our key programs; challenges that need attention are 
to build depth in the talent as well as building mechanisms for 
increased mobility and flexibility to quickly move top talent to high 
need programs.
    Question. If confirmed, what management actions and timelines would 
you establish to address these challenges?
    Answer. If confirmed, I will work closely with our new Secretary of 
the Air Force as well as our Chief of Staff of the Air Force to 
establish an action plan that aligns with their priorities for Air 
Force Acquisition in order to address these areas. I see these 
challenges as an opportunity to revamp the Air Force Acquisition 
Enterprise to be more efficient and effective.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
for Air Force acquisition, research, and technology?
    Answer. If confirmed, I plan to focus on what I consider some of 
the Air Force's most challenging problems in the acquisition arena. My 
preliminary assessment is that our effectiveness is often measured by 
how well we execute our most visible programs; however, the discipline 
and tradecraft with which we do so also makes us successful in the 
execution of our less visible, smaller programs. Rightfully so, 
acquisition performance will be judged by our weakest programs, not our 
strongest. We must continue to develop and grow our acquisition 
workforce to ensure it can keep our most critical acquisition programs 
on track, but so that we can also ``own the technical baseline'' for 
our weapon systems and other capabilities. We must strengthen our 
organic ability to develop, produce, field and sustain the most 
technologically advanced systems this world has ever known. I believe 
this priority is consistent with our new Air Force Secretary's priority 
to take care of people, which includes recruiting, training and shaping 
a quality force.
    Sound resource execution is another critical focus item so that we 
can more effectively stretch the benefit of every dollar with which we 
are entrusted. Our Secretary of the Air Force (SECAF) has identified as 
a priority the need to ensure our Air Force remains the most capable in 
the world at the lowest possible cost. In this environment of declining 
resources and budget uncertainty, we must be extremely efficient and 
effective in how we plan to use, and ultimately spend our scarce fiscal 
resources. Mr. Kendall's Better Buying Power Initiatives are a good set 
of guiding principles that help us to be effective resource stewards.
    Finally, we have a responsibility to develop and deliver the Air 
Force capabilities required to fight and win in the 2023 timeframe and 
beyond. Among other things, this means being able to fight and win in 
highly contested environments, including being challenged in space, 
control of the electro-magnetic spectrum, and cyber. I believe this 
priority meshes well with our SECAF's priority to balance today's 
readiness with tomorrow's modernization. As we preserve the Service's 
current readiness posture, our Air Force must also make investment 
decisions that will ensure we remain the most capable Air Force in the 
world in the 2023 and beyond timeframe. This requires that we invest in 
important science and technology advancements, maintain a global 
technology horizon scan to identify emerging disruptive technologies, 
and developing comprehensive modernization and recapitalization 
strategies designed to keep our Air Force the greatest in the world.
                    major weapon system acquisition
    Question. Do you believe that the current investment budget for 
major systems is affordable given decreasing defense budgets, the 
historic cost growth trends for major systems, and the continuing costs 
of ongoing contingency operations?
    Answer. Yes. Air Force Acquisition is responsible to uniformed 
servicemembers and the American taxpayers to ensure that they have the 
best equipment at the best value. I support USD(AT&L)'s affordability 
initiative to establish goals and caps to ensure funding limitations 
are identified early and revalidated at milestone decisions. If 
programs exceed their affordability goals, the Air Force will make a 
decision to restructure the programs so they are affordable.
    Question. If confirmed, how do you plan to address this issue?
    Answer. If confirmed, I am committed to working with the 
requirements and resource communities to ensure programs have clear, 
achievable requirements and realistic funding profiles.
    Question. What would be the impact of a decision by the Department 
to reduce purchases of major systems because of affordability issues?
    Answer. Air Force requirements are carefully structured to ensure 
the service can support its needs based on current threats. Any 
reduction of major systems will affect our overall. Any reduction of 
major system purchases will result in reduced force structure. Such 
reductions to planned force structure will impact the Services ability 
to meet COCOM requirements, thus affecting readiness. I am committed to 
ensuring that all Air Force programs meet their affordability goals to 
best support the warfighter.
    Question. Specifically, are sufficient funds allocated in future 
years' budgets to execute the Air Force's current acquisition plans for 
major systems, including, but not limited to, the F-35, KC-46, the 
Long-Range Strike Bomber (LRS-B).
    Answer. The deep cuts brought on by sequestration-level funding has 
forced the Air Force to make profound cuts to readiness and major 
defense acquisition programs funded out of investment accounts in order 
to achieve the targeted reduction amounts in the first few years of the 
fiscal year defense plan. When forced to make tough decisions, I 
understand the Air Force will favor new capabilities over upgrades to 
legacy forces. I understand the top three acquisition priorities remain 
the KC-46, the F-35, and the LRS-B. As best as possible, the Air Force 
will aim to protect these programs in the current fiscal environment.
    Question. Nearly half of DOD's major defense acquisition programs 
have exceeded the so-called ``Nunn-McCurdy'' cost growth standards 
established in section 2433 of title 10, U.S.C., to identify seriously 
troubled programs. Section 206 of the Weapon Systems Acquisition Reform 
Act of 2009 (WSARA) tightened the standards for addressing such 
programs.
    Answer. The Air Force is committed to reducing costs across all 
acquisition programs. The Air Force closely tracks execution and 
provides guidance as necessary to keep efforts ``on track''. The number 
of Nunn-McCurdy breaches has declined significantly since the mid-2000s 
(fiscal year 2005-2008 had 26 breaches over 14 programs). Over the past 
3 years, the Air Force has had 5 programs declare a significant or 
critical Nunn-McCurdy breach. Of those, three are no longer Major 
Defense Acquisition Programs (MDAP) (C-27J, C-130AMP, and National 
Polar-orbiting Operational Environmental Satellite System), one was 
driven by a combination of quantity reductions and cost growth (Global 
Hawk), and one resulted from restoration to MDAP status (EELV). This 
past year, the Air Force had no Nunn-McCurdy breaches.
    Question. In your opinion, what is the root cause for cost growth 
in the Department's major weapon system programs?
    Answer. The 2013 USD/AT&L Report on the Performance of the 
Acquisition System lists three dominant root causes of Nunn-McCurdy 
cost growth over the past 3 years. Poor Management effectiveness was 
the primary root cause and included: poor systems engineering to 
translate user requirements into testable specifications; ineffective 
use of contractual incentives; poor risk management; and poor 
situational awareness. Additional dominant root causes are unrealistic 
baseline cost and schedule estimates and changes in procurement 
quantities.
    Question. To what extent does requirements creep and changes in 
requirement quantities impact cost growth triggering Nunn-McCurdy 
breaches?
    Answer. These two factors may impact Unit Cost growth. Changing 
requirements based on warfighter needs can lead to cost and schedule 
growth. However, as the Air Force has worked to better integrate the 
requirements and budgeting process, changing requirements is being seen 
less as a driver, and I expect that to remain so, especially as we move 
into an era of decreased budgets. Although over the past 3 years, only 
22 percent of Nunn-McCurdy breeches were driven by changes in 
procurement quantities, I am concerned with the impact budget 
reduction-driven changes in quantities will have on Defense programs in 
an environment of declining resources.
    Question. What steps if any would you take, if confirmed, to 
address the out-of-control cost growth on DOD's major defense 
acquisition programs?
    Answer. DOD, in concert with recent legislation such as WSARA, has 
begun to address much of the cost growth seen in the past. This may be 
evidenced by the reduced number of Nunn-McCurdy breaches over the past 
few years. As a cautionary note, many of the WSARA reforms as well as 
the related Better Buying Power initiatives are going to take years to 
affect the final acquisition outcomes of programs; for that reason it 
is critical that the enterprise be persistent in their dissemination 
and application. If confirmed, I am committed to working with fellow 
SAEs in supporting the Department's efforts in Better Buying Power 
implementation and related foundational reforms of WSARA. The intent of 
this effort is to contain cost growth to provide the warfighter 
increased capability with decreased costs--truly better buying power. I 
am particularly focused on controlling cost and schedule growth of 
development programs as that is where we can perhaps see the biggest 
impact in the near to mid-term.
    Question. What steps, if any, do you believe that the Air Force 
should consider taking in the case of major defense acquisition 
programs that exceed the critical cost growth thresholds established in 
the ``Nunn-McCurdy'' provision?
    Answer. Under such circumstances, there are mechanisms in place 
that allow for major restructuring or termination of poorly performing 
programs. While program terminations are rare, the Air Force 
leadership, working in conjunction with the Office of the Secretary of 
Defense and the Joint Staff has the authority to cancel programs. In 
this era of sharply declining budgets, it would not be surprising to 
see program terminations used more frequently in the case of troubled 
programs.
    If confirmed, I will continue to work with the Defense Acquisition 
Executive and PEOs to ensure the Air Force continues to avoid programs 
exceeding thresholds. PEOs have been tasked with implementing Program 
Integration precepts which organize and synchronize the analyses and 
outputs that programs must carry out into a comprehensive process. 
Examples of analyses are cost estimating, schedule management, earned 
value management, and integrated risk analysis. The program integration 
function assists them in overseeing proper and efficient execution of 
the efforts within their respective portfolios.
    Question. Do you see the need for any changes to the Nunn-McCurdy 
provision, as revised by section 206?
    Answer. I do not currently envision any required changes to the 
current provision.
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced critical cost 
growth under Nunn-McCurdy?
    Answer. If a program has a Nunn-McCurdy breach, then OSD conducts a 
review and certification process to meet the requirements as laid out 
in title 10, U.S.C., section 2433. My recommendation to continue or 
terminate a program would be based on an assessment of program 
execution performance, remaining risk, and Air Force needs.
    Question. What principles will guide your thinking on whether 
someone should be held accountable for Nunn-McCurdy breaches?
    Answer. An investigation into the decisions, and information 
available at the time of the decisions, are considered prior to making 
an accountability determination for anyone in the acquisition execution 
chain. Using well established best practices, we must arrive at root 
cause of acquisition failures before moving to the steps of assessing 
accountability. Accountability must also be directly tied to authority 
and resources. If an individual did not have the authority or the 
resources to properly execute their program due to budget, cost, 
schedule, technical or other factors outside of their control, then the 
individual cannot and should not be held accountable. In all cases, if 
confirmed I am committed to giving our program managers and PEOs the 
right authorities, responsibilities, and then holding the chain of 
command accountable for the outcome.
                   possible revisions to dodi 5000.02
    Question. Under Secretary of Defense for Acquisition, Technology, 
and Logistics Frank Kendall has recently released revisions to 
Department of Defense Instructions (DODI) 5000.02, which governs the 
defense acquisition system.
    What are the top five changes to this instruction you would 
recommend to streamline or otherwise improve the defense acquisition 
system?
    Answer. I am still in the process of reviewing the recent revision 
to DODI 5000.02, but if confirmed, I look forward to working with Mr. 
Kendall on continuing to streamline and improve the defense acquisition 
system.
    Question. What is your understanding of the objectives of the 
review effort?
    Answer. My understanding is the objectives of the review was to 
publish a revised instruction that: decreased emphasis on ``rules'' and 
increases emphasis on process intent and thoughtful program planning; 
provides program structures and procedures tailored to the dominant 
characteristics of the product being acquired and to unique program 
circumstances, (e.g., risk and urgency); enhances the discussion of 
program management responsibility and key supporting disciplines; and 
institutionalizes changes to statute and policy since the last issuance 
of DODI 5000.02.
                      operating and support costs
    Question. The Department estimates that operating and support (O&S) 
costs account for up to 70 percent of the acquisition costs of major 
weapon systems. Section 832 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2012 requires the Department to take a series of 
steps to improve its processes for estimating, managing, and reducing 
such costs.
    What is the current status of the Air Force's efforts to implement 
the requirements of section 832?
    Answer. The Air Force has implemented the NDAA for Fiscal Year 
2012, section 832 through comprehensive guidance on assessing, managing 
and controlling operating and support (O&S) cost for major weapon 
systems. The Air Force is working with key stake holders on readiness 
and O&S funding drivers to balance readiness and cost in weapon system 
sustainment strategies. Examples of ongoing section 832 related 
initiatives include: implementation of guidance requiring life cycle 
sustainment planning documents to include comprehensive sustainment 
strategy and cost information; implementation of independent logistics 
assessments to ensure effectiveness of sustainment planning; and the 
establishment and monitoring of program affordability targets.
    Question. What steps remain to be taken to implement section 832, 
and what is the Air Force's schedule for taking these steps?
    Answer. The Air Force, in a collaborative effort between 
acquisition and sustainment leadership, is taking steps to increase the 
effective implementation of performance based product support per 
guidance from OSD (AT&L). Current actions expected to be completed in 
2014 include establishing a program evaluation methodology, identifying 
a high payoff target program list, and finalizing implementation 
strategy recommendations.
    Question. Regarding section 832(b)(8), what Air Force processes are 
being performed to ensure O&S costs are reduced by ensuring the depot 
maintenance considerations are part of the entire acquisition process? 
What additional processes are required to further bring down O&S costs 
by ensuring depot maintenance considerations are part of the entire 
acquisition process?
    Answer. Through implementation of statute and regulation, Air Force 
guidance requires early and continuous consideration of depot 
maintenance including at oversight reviews and in life cycle planning 
documentation. Additionally, the Air Force is already taking steps to 
shift the organizational and cultural focus of acquisition headquarters 
to adopt an Integrated Life Cycle Management and portfolio perspective. 
I have no additional process recommendations, but if confirmed, I will 
continue to look for opportunities to reduce O&S costs.
    Question. What steps, if any, are needed to ensure that the 
requirements and acquisition communities fully and effectively 
collaborate to understand and control the O&S costs prior to and early 
in product development, when it is possible to have the most 
significant impact on those costs?
    Answer. In November 2012, as a direct result of the Acquisition 
Continuous Process Improvement (CPI) 2.0 effort, the Air Force 
implemented policy titled ``Implementation of Contractual and 
Requirements Sufficiency'' to address Life Cycle Affordability Cost 
versus Capability Tradeoff Analysis at all requirements and acquisition 
review boards. The policy mandates cost/schedule versus capability/
design trade-off curves (metrics) throughout the life of the program. 
Implementing Commands, such as Air Force Materiel Command, support the 
requirements sponsor by providing the analysis for all developmental 
Joint Capabilities Integration and Development System (JCIDS) 
documents.
    Question. What additional steps, if any, do you believe the Air 
Force needs to take to bring O&S costs under control?
    Answer. In concert with the logistics community, Air Force 
Acquisition is focusing efforts on the design, development, and 
delivery of life cycle supportable and sustainable systems and the 
appropriate support equipment. The goal is to enhance warfighter 
mission capabilities while minimizing corrosion, environment, safety, 
and occupational health risks along with minimizing life cycle system 
product support costs. The Air Force is also linking weapon systems 
sustainment resources to readiness measures to optimize cost versus 
readiness.
                          systems engineering
    Question. One of the premises for WSARA was that the best way to 
improve acquisition outcomes is to place acquisition programs on a 
sounder footing from the outset by addressing program shortcomings in 
the early phases of the acquisition process. The Defense Science Board 
Task Force on Developmental Test and Evaluation reported in May 2008 
that ``the single most important step necessary'' to address high rates 
of failure on defense acquisition programs is ``to ensure programs are 
formulated to execute a viable systems engineering strategy from the 
beginning.''
    Do you believe that the Air Force has the systems engineering and 
developmental testing organizations, resources, and capabilities needed 
to ensure that there is a sound basis for key requirements, 
acquisition, and budget decisions on major defense acquisition 
programs?
    Answer. The Air Force has been successfully building towards 
achieving the systems engineering resources and capabilities required 
to perform important acquisition activities. Sound systems engineering, 
especially early on, is fundamental to ensuring there is a sound basis 
for requirements and that they are affordable, as well as ensuring we 
implement and execute a successful acquisition program strategy. To 
this end, the Air Force continuously evaluates the resources and 
capabilities necessary to supply systems engineering support to 
acquisition programs. In the process of getting to the necessary 
systems engineering workforce resource levels, the Air Force has been 
consistently hitting our yearly goals and there is a plan in place for 
more improvements for fiscal year 2014. In addition, there is currently 
a significant enterprise-level effort to evaluate and improve 
deficiencies in Air Force systems engineering capabilities to enable 
high quality engineering decisions, improve engineering discipline 
through technical information management and standardization, as well 
as continuously address engineering workforce issues.
    In terms of test and evaluation, the Air Force test personnel, 
facilities, equipment are first class, adequate and efficient. The Air 
Force Materiel Command reorganization to a 5-center construct has 
improved management of developmental test. At this time, my concern is 
that budget pressures will reduce available test resources which may 
ultimately increase weapon system cost and warfighter risk.
    Question. Are all the steps which the Air Force takes to ensure a 
viable systems engineering strategy necessary to achieve the goals 
articulated in the 2008 Report? Specifically, which processes and 
procedures provide little or no value added, or for which any value 
added is outweighed by the cost or schedule delay of the processes or 
procedures. In addition, what elements of organizations and layers of 
review are redundant and unnecessary, add cost, or create schedule 
delays without adding commensurate value.
    Answer. Section 102 of the Weapon Systems Acquisition Reform Act 
required systems engineering to support key three key requirements.

    1.  Acquisition and budget decisions made for each major defense 
acquisition program prior to Milestone A approval and Milestone B 
approval through a rigorous systems analysis and systems engineering 
process.
    2.  Include a robust program for improving reliability, 
availability, maintainability, and sustainability as an integral part 
of design and development within the systems engineering master plan 
for each major defense acquisition program.
    3.  Identify systems engineering requirements, including 
reliability, availability, maintainability, and lifecycle management 
and sustainability requirements, during the Joint Capabilities 
Integration Development System process, and incorporate such systems 
engineering requirements into contract requirements for each major 
defense acquisition program.

    All three of the key requirements have been implemented and I 
consider value added. The program Systems Engineering Plan and the 
execution of this plan is key to accomplishing the requirements. In 
addition, the Air Force has streamlined program technical oversight 
reviews, when determined necessary by the Air Force Chief Engineer, to 
minimize added cost while being value added to ensure program success. 
The Air Force assists the Deputy Assistant of Secretary of Defense 
Systems Engineering Program Support Reviews which are completed for 
ACAT ID, MAIS programs, and special interest programs.
    Question. What is your assessment of the Air Force's implementation 
to date of section 102 of WSARA, regarding systems engineering?
    Answer. I am pleased by the good working relationship that Air 
Force acquisition has with the Deputy Assistant Secretary of Defense 
for Systems Engineering. We work with his staff to make improvements in 
WSARA focus areas and we collaborate to document the status of Air 
Force systems engineering in the annual WSARA Report.
    Specifically, the Air Force is making progress implementing two 
important areas cited in section 102 of WSARA, early systems 
engineering and reliability. In 2013, SAF/AQ helped establish the Air 
Force Requirements Review Group (AFRRG) in order to increase program 
success by tightening the linkage between requirements development and 
acquisition. SAF/AQ participates in the AFRRG, allowing Air Force 
engineers to ensure tight linkage between requirements, technology 
maturity, and accomplishment of sufficient early systems engineering to 
inform cost and capability analyses.
    In the area of reliability, the Air Force continues to collaborate 
with OSD and the Army and Navy through the Service Leads meetings held 
by DASD(SE). We have aided efforts refining the DAES Reliability Growth 
Curve (RGC) reporting requirement mandated under DTM 11-003, the 
development and review of the OSD R&M engineering management guide, 
improving RAM-C Rationale Report Guidance, and the ongoing human 
capital initiatives for the RAM workforce.
    Question. What additional steps will you take, if confirmed, to 
implement this provision?
    Answer. If confirmed, I will continue to refine Air Force 
engineering enterprise governance to enable high-quality engineering 
decisions and seamless communication. Air Force engineers must have the 
technical expertise to build a strong collaborative partnership with 
industry to ensure we acquire and field the capabilities the Air Force 
needs while ensuring the American taxpayers' interests remain a 
priority. Furthermore, hiring the best and brightest talent is 
challenging in this fiscal environment but must also continue to be a 
priority. I will exercise my authority as Air Force Scientist and 
Engineer Career Field Functional Authority to explore and pursue, as 
cited in section 102, additional authorities or resources needed to 
attract, retain, and reward systems engineers with appropriate levels 
experience and technical expertise to meet Air Force needs.
                         technological maturity
    Question. Section 2366b of title 10, U.S. Code, requires the 
Milestone Decision Authority for a major defense acquisition program to 
certify that critical technologies have reached an appropriate level of 
maturity before Milestone B approval.
    What steps if any will you take, if confirmed, to make sure that 
the Air Force complies with the requirements of section 2366b?
    Answer. If confirmed, I will ensure the Air Force continues to 
comply with 2366b certification requirements. The Air Force has 
established robust compliance processes that I will monitor and 
continue to improve upon. For example, the Technology Readiness 
Assessment (TRA) process has been reestablished and guidance is being 
published to ensure a formal, independent assessment of critical 
technologies. In accordance with this guidance, TRAs will be conducted 
by a team of subject matter experts, carefully selected from the 
Centers' engineering and scientific community, prior to Milestone B. 
These experts will verify the technologies are sufficiently mature to 
meet the Milestone B 2366b certification requirement, and their TRA 
report will be approved by the Deputy Assistant Secretary of the Air 
Force for Science, Technology, and Engineering before a program is 
recommended to proceed to Milestone B.
    Question. Are you satisfied that technology readiness assessments 
adequately address systems integration and engineering issues which are 
the cause of many cost overruns and schedule delays in acquisition 
programs?
    Answer. No. While technology readiness assessments are essential to 
help avoid many cost overruns and schedule delays, they are not 
sufficient as a stand-alone solution for systems integration and 
engineering risks. The expertise of a professional engineering 
workforce within the Air Force acquisition community to perform early 
systems engineering analysis is also critical to addressing these 
challenges. This workforce must balance the integration of:

    (1)  Overall systems engineering design and process,
    (2)  Concerns for operational mission requirements,
    (3)  The state of current available technologies (TRLs 8 & 9),
    (4)  Near-term technologies in laboratory development (TRLs 4-6), 
and
    (5)  Increasingly stringent concerns for funding and schedule 
realism.

    An engineering workforce effectively addressing these issues 
earlier in the program will help mitigate cost overruns and schedule 
delays in future systems.
    Question. Beyond addressing technological maturity issues in 
acquisition programs, what other steps should the Air Force take to 
increase accountability and discipline in the acquisition process?
    Answer. It would be unreasonable to hold a program manager 
accountable for program failures for which he/she has inadequate 
authorities or resources to affect outcomes. If confirmed, I will 
continue to improve accountability and discipline in acquisitions by 
first ensuring program managers have the adequate authorities to 
execute their missions. I am committed to vigorously defending the 
authorities granted to the program manager and ensuring he/she 
continues to have the required expertise and resources to lead our 
programs successfully. Finally, the culture must allow for program 
managers to be able to ``raise a flag'' if they assess the program they 
are to manage is not executable.
    Question. What features of an acquisition program, in your view, 
contribute most to the effective maturation and integration of advanced 
technologies?
    Answer. Competitive prototyping, when practical and affordable, is 
important because it drives technology maturation early in the 
acquisition, enables effective systems engineering, and allows the 
warfighter to see the potential capability demonstrated in an 
operational or relevant environment. This leads to the most effective 
maturation of technology with the minimization of programmatic risk.
                              concurrency
    Question. Some of the Department's largest and most troubled 
acquisition programs appear to have suffered significantly from 
excessive concurrency--the effort to produce a weapon system, even as 
it is still being designed.
    What impact do you believe that such excessive concurrency has on 
our efforts to produce major weapon systems on schedule and on budget?
    Answer. With any strategy there are risks of cost growth and 
schedule slippages. Concurrency is often highlighted as a reason for 
cost growth. Unfortunately, research into this acquisition strategy is 
sparse. A study published in the July 2011 edition of the Defense 
Acquisition Research Journal found that ``concurrency by itself is 
insufficient to predict cost growth''. There may be other factors, such 
as quantity, requirements and budget changes that create cost growth. 
Surprisingly, the study found that ``too little concurrency was 
actually more problematic than too much concurrency'' and could 
contribute to greater cost growth.
    Mr. Kendall has spoken extensively on this subject. He has noted 
that excessive concurrency can drive cost growth and result in major 
schedule disruptions that produce further inefficiency. One must keep 
in mind that the acceptable degree of concurrency between development 
and production depends on a range of factors including the risk 
associated with the development phase, the urgency of the need, and the 
likely impact on cost and schedule of realizing that risk. A careful 
balance must be struck on every program, taking all these factors and 
others into account. If confirmed, I look forward to working with the 
DAE and PEOs to ensure that balance is carefully assessed and properly 
managed.
    Question. What steps will you take, if confirmed, to address this 
issue?
    Answer. If confirmed, I will weigh the risks with the potential 
rewards of concurrency and make informed decisions that are in the best 
interest of the Air Force and the taxpayer.
    Question. Under what circumstances, if any, do you believe that it 
is useful and appropriate to require prime contractors on major defense 
acquisition programs to share in concurrency costs?
    Answer. If the driving reason for taking on concurrency would 
benefit the prime contractor in executing the contract and the risks 
and rewards were acceptable to the Air Force, I believe that both 
parties should share in the concurrency costs and share in both the 
risk and reward.
    Question. In your view, would a requirement for such cost sharing 
reduce the likelihood of excessive concurrency in the development and 
production of major weapon systems?
    Answer. Yes. If both parties have ``skin in the game,'' then the 
likelihood of taking on concurrency will be a deliberate decision by 
both parties to accept the risks and rewards.
        unrealistic cost, schedule, and performance expectations
    Question. Many acquisition experts attribute the failure of DOD 
acquisition programs to a cultural bias that routinely produces overly 
optimistic cost and schedule estimates and unrealistic performance 
expectations. Section 201 of WSARA seeks to address this problem by 
promoting early consideration of trade-offs among cost, schedule, and 
performance objectives in major defense acquisition programs.
    Do you believe that early communication between the acquisition, 
budget, and requirements communities in DOD can help ensure more 
realistic cost, schedule, and performance expectations?
    Answer. Yes.
    Question. If so, what steps if any would you take, if confirmed, to 
ensure such communication?
    Answer. If confirmed, I will continue efforts to shift the 
organizational and cultural focus of acquisition headquarters to adopt 
an Integrated Life Cycle Management and portfolio perspective. This 
will help address WSARA section 201 and will align acquisition 
headquarters with life cycle organizational changes already made in the 
field headquarters and amongst the PEO organizations. The main shift 
will be having our acquisition program element monitors partnering with 
the O&S program element monitors and other functional staff to ensure 
that all actions are a result of total life cycle deliberative process.
    Question. DOD has increasingly turned to incremental acquisition 
and spiral development approaches in an effort to make cost, schedule, 
and performance expectations more realistic and achievable.
    Do you believe that incremental acquisition and spiral development 
can help improve the performance of the Air Force's major acquisition 
programs?
    Answer. Yes. While not a panacea, using an incremental acquisition 
approach (e.g. block) can help improve program performance. This 
approach is premised on knowledge-based, incremental development that 
provides increasing degrees of warfighting capability with each block. 
This is the preferred strategy that provides the most effective balance 
of technical risk, financial resources, and the Air Forces' operational 
needs.
    Question. What risks do you see in the Air Force's use of 
incremental acquisition and spiral development?
    Answer. If implemented correctly, there would be modest to very 
little technical risk to using such a strategy. If not correctly 
implemented, incremental development could result in the program being 
overwhelmed with frequent milestone or fielding decision points and 
associated approval reviews. It is important to structure programs so 
multiple activities or build phases may be approved at any given 
milestone or decision point, subject to adequate planning, well-defined 
exit criteria, and demonstrated progress. Having a well-trained 
acquisition workforce is critical to mitigating the risk since the use 
of incremental development can lead to additional complexities in all 
phases of the program including testing, management, sustainment, and 
security.
    Question. In your view, has the Air Force's approach to incremental 
acquisition and spiral development been successful? Why or why not?
    Answer. The Air Force has had successes with both incremental 
acquisition (Advanced Medium-Range Air-to-Air Missile, F-16, F-15) and 
spiral development (Ops software for Air Operations Centers). We 
consider both approaches fundamental in our acquisition strategies. 
However, using incremental/spiral development strategies with the 
emerging technologies in MDAP or MAIS programs must be evaluated on a 
case-by-case basis as there is no one solution that works best. We have 
found that incremental acquisition/spiral development approaches using 
mature technologies are critical in both IT and non-IT systems as they 
allow capability to be delivered to the warfighter faster.
    Question. What steps if any do you believe are needed to ensure 
that the requirements process, budget process, and testing regime can 
accommodate incremental acquisition and spiral development approaches?
    Answer. While the Service is working to make our processes more 
flexible and complementary to accommodate incremental acquisition and 
spiral development approaches, more can be done to take additional 
steps to make these approaches more amenable. We can start with working 
on budgeting models that are more flexible to shorter timelines. This 
is similar to the concerns raised in the section 804 report about the 
budgeting lag and difficulty in differentiating appropriations for some 
of the new technology.
    For testing, we have to continue to strengthen the integrated 
testing approach to ensure that we are using dollars and testing 
activities more efficiently. We have made strides in the requirements 
community in implementing methodologies that allow us to set high level 
requirements through the formal process and standing up lower level 
boards to manage requirements for increments and releases, but we need 
to continue on working on setting realistic and executable requirements 
up front. Finally, demanding open architecture designs for our programs 
is critical to helping enable cost effective spiral development; this 
leads to a need for government and industry to arrive at mutually 
agreeable terms on data rights ownership.
    Question. How should the Air Force ensure that the incremental 
acquisition and spiral development programs have appropriate baselines 
against which to measure performance?
    Answer. As part of implementing statute and regulation, Air Force 
guidance requires each program or increment to have a baseline 
establishing program goals--thresholds and objectives--for the minimum 
number of cost, schedule, supportability, and performance parameters 
that describe the program over its life cycle.
                   funding and requirements stability
    Question. The poor performance of major defense acquisition 
programs has also been attributed to instability in funding and 
requirements. In the past, DOD has attempted to provide greater funding 
stability through the use of multi-year contracts. More recently, the 
Department has sought greater requirements stability by instituting 
Configuration Steering Boards (CSB) to exercise control over any 
changes to requirements that would increase program costs.
    Do you support the use of CSBs to increase requirements stability 
on major defense acquisition programs?
    Answer. Yes. In my current position, I have received a CSB briefing 
on every ACAT I program. I have found them to be an effective forum for 
stabilizing requirements of major defense acquisition programs. CSBs 
provide a collaborative environment for rigorous scrutiny on 
controlling derived requirements and I believe they will continue to be 
a value-added function.
    Question. What other steps if any would you recommend taking to 
increase the funding and requirements stability of major defense 
acquisition programs?
    Answer. Funding and requirements stability are critical to stable, 
successful programs. The acquisition community has an obligation to 
work closely with the requirements and other stakeholder communities to 
ensure programs have clearly defined and achievable requirements with 
realistic funding profiles. I have found that the Defense Acquisition 
Management System tends to have optimism baked in (overoptimistic 
schedules, cost estimates, execution plans). The acquisition community 
must guard against overoptimistic planning and remain engaged with 
stakeholders throughout the process to enable requirements and funding 
profiles that are inherently stable because they are realistic and 
affordable.
    Question. The Joint Requirements Oversight Council (JROC) has 
recently launched an initiative to ensure ``appropriate trade-offs are 
made among the life-cycle cost, schedule, and performance objectives, 
and procurement quantity objectives in the establishment and approval 
of military requirements.'' Specifically, the JROC has issued guidance 
that ``encourages Program Managers, Program Executive Officers and 
Component Acquisition Executives, in coordination with the requirements 
sponsor, to officially require requirements relief, through the 
appropriate requirements validation authority, where Key Performance 
Parameters appear out of line with an appropriate cost-benefit 
analysis.''
    If confirmed, what steps will you take to ensure the continued 
success of this initiative?
    Answer. The Air Force has taken steps to incorporate the 
appropriate trade-offs during the requirements development and 
validation process as part of the Capability Based Analysis and 
Analysis of Alternatives. During program execution, the Air Force 
continues to address trade-off opportunities in CSBs and Air Force 
Review Boards. If confirmed, I will continue to work with the 
Secretary, Chief, and other departmental offices to foster a culture of 
teamwork with the Requirements and Resource Communities to ensure the 
programs started have firm cost goals in place, appropriate priorities 
set, and the necessary analysis to make these informed trade-offs to 
keep programs within affordable limits while meeting warfighter needs.
                       fixed price-type contracts
    Question. Recent Congressional and DOD initiatives attempt to 
reduce technical and performance risks associated with developing and 
producing major defense acquisition programs so as to minimize the use 
of cost-reimbursable contracts.
    Do you think that the Air Force should move towards more fixed 
price-type contracting in developing or procuring major defense 
acquisition programs? Why or why not?
    Answer. I prefer not to make blanket statements regarding the use 
of contract types as I believe it's important to match the contract 
type to each specific and unique circumstance. That said, cost-type 
contracts are generally the best option to explore concepts, mature 
technologies and buy down risk during development. Cost-type contracts 
may also be appropriate during system integration when performing Low 
Rate Initial Production (LRIP). Once a program is in production, fixed-
price contracts become a more appropriate contract type. What is 
fundamental is to understand risk.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for the Air Force to use a cost-type contract for the 
production of a major weapon system?
    Answer. Initial production of satellites is a situation where cost-
type contracting is often appropriate. Often in this situation, the 
LRIP number is so low that the initial production space vehicles may 
begin production prior to the LRIP space vehicles completing final 
integration testing. Production actuals are key to an effectively 
negotiated fixed-price agreement. The low production volume for 
satellites does not usually allow cost visibility to be carried over 
until later production lots enter production.
                         technology transition
    Question. The Department continues to struggle with the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms. Further, the Department also has struggled with 
moving technologies from DOD programs or other sources rapidly into the 
hands of operational users.
    What impediments to technology transition do you see within the Air 
Force?
    Answer. I see resource constraints and risk as the greatest 
impediments to technology transition. Technology transition has a cost 
and in our current fiscally constrained environment, this is among the 
greatest impediments. The Air Force will continue to carefully assess 
costs associated with sustaining existing weapon systems vice 
recapitalizing with new ones, all while ensuring we continue to meet 
the needs of the warfighters. Our industry partners continue to invest 
in and share incredible technological advances, but, we simply cannot 
afford to pursue them all. Those the Air Force chooses to pursue 
introduce risk into development programs, especially in instances where 
the technology has never before been integrated into similar 
capabilities or designs. It is imperative that defense program managers 
perform adequate risk assessments of such technologies and develop well 
thought out risk mitigation plans. Once a choice is made to pursue a 
new technology, the program team must effectively utilize early systems 
engineering and integration, sound technology maturation techniques and 
carefully manage associated lifecycle costs.
    Question. What steps if any will you take, if confirmed, to enhance 
the effectiveness of technology transition efforts?
    Answer. If confirmed, I will facilitate effective communication of 
capability gaps and promising technologies between the warfighter and 
S&T communities. As a former member of the Defense Science Board, and a 
key contributor to the recent DSB Study on ``Technology Enablers for 
Military Superiority in 2030,'' I am committed to finding, developing, 
and transitioning technology into our systems. I will further champion 
the continued investment in innovative technologies important to 
ensuring the best Air Force in the world remains the most capable in 
the future. For those technologies that we pursue, I will emphasize 
strong early systems engineering and integration, and when appropriate, 
prototyping, to reduce schedule and cost risks. I also look to 
collaborate with organizations such as small business. Small businesses 
drive the majority of our technology revolutions, while our large prime 
contractors lead integration, prototyping, and major program 
production. If confirmed, I will place increased emphasis on large 
prime contractor partnerships with innovative small business companies.
    Question. What can be done from a budget, policy, and 
organizational standpoint to facilitate the transition of technologies 
from science and technology programs and other sources, including small 
businesses, venture capital funded companies, and other non-traditional 
defense contractors, into acquisition programs?
    Answer. If confirmed, with regards to policy, I will focus on 
ensuring the warfighter's prioritized capability gaps are appropriately 
communicated and aligned with the efforts of our laboratories and 
industry partners, to include small businesses and venture capitalists. 
I will continue to coordinate efforts with my counterparts in the other 
Services and in OSD to maximize the return on our investment and 
continue to sustain/modernize the most capable warfighting force in the 
world.
    With regards to budget, I will ensure appropriate cost assessments 
are accomplished for technologies available for transition, enabling 
effective decisions in a fiscally constrained environment. I intend to 
reach out to the small business, venture capital, and non-DOD 
traditional industrial base to leverage technology innovations of 
benefit to the future Air Force.
    Finally, if confirmed, I will continue to assess, and when 
necessary, make required organizational adjustments, to maximize our 
ability to effectively transition technologies from our S&T community 
to the warfighter.
    Question. Do you believe that the Air Force's science and 
technology organizations have the ability and the resources to carry 
technologies to higher levels of maturity before handing them off to 
acquisition programs?
    Answer. The Air Force Research Laboratory has the ability to mature 
technology to Technology Readiness Level (TRL)/Manufacturing Readiness 
Level (MRL) 6/7 and then in partnership with our Program Executive 
Officers and Centers to take that technology to TRL/MRL levels of 8 or 
9 where it can be transitioned into a program of record. The Research 
Laboratory does a phenomenal job balancing the resources associated 
with research, applied research and technology development. If more 
resources are prioritized for increasing the level of maturity, then 
resources for longer-term activities decrease or fewer projects are 
selected to be matured at a higher level.
    A major challenge is securing funding for the demonstration and 
evaluation of technology that is at TRL/MRL 6/7. This is why the role 
of our Program Executive Officers is so important. They serve as the 
transition agent between the lab and the warfighter.
    Question. What steps if any do you believe the Air Force should 
take to ensure that research programs are sufficiently funded to reduce 
technical risk in programs so that technological maturity can be 
demonstrated at the appropriate time?
    Answer. With limited funding, it's critical we prioritize our 
efforts and allocate resources appropriately. To accomplish this, we 
must clearly understand our warfighter's capability gaps, the potential 
capability inherent in the new technology, and the cost associated with 
maturing, integrating and transitioning it to the warfighter. These 
steps will enable effective investment in research programs that will 
maximize the benefit to the warfighter and ensure the continued 
national security of the United States.
    Question. What role do you believe Technology Readiness Levels and 
Manufacturing Readiness Levels should play in the Air Force's efforts 
to enhance effective technology transition and reduce cost and risk in 
acquisition programs?
    Answer. TRLs and MRLs play an important role in communicating the 
development stage of the technology and the risk associated with 
pursuing various research, development, test, and evaluation or 
acquisition decisions. TRLs and MRLs are tools that should be 
considered by stakeholders in determining whether to proceed with the 
next stage of technology development. As a guide, TRL/MRL 6 indicates a 
technology has reached the point where it should be considered for 
demonstration. However, as Under Secretary of Defense Frank Kendall 
often says, TRLs do not end the conversation about risk. TRLs may start 
the risk conversation, and they may provide a convenient shorthand 
benchmark, but they do not provide the answer to the question is the 
risk acceptable to proceed. Mr. Kendall believes, as do I, good program 
managers will take the TRL assessment and then perform a professional 
risk assessment and produce well thought out risk mitigation plans 
before moving forward.
    Question. What is your view of the Rapid Innovation Program 
established pursuant to section 1073 of the Ike Skelton NDAA for Fiscal 
Year 2011?
    Answer. The Rapid Innovation Program has been an excellent means 
for the Air Force to communicate critical needs and solicit vendors to 
respond with innovative technology solutions. The response to the 
program has been overwhelming, and instrumental to the transition of 
capability by small businesses. Over the last 3 years, the Air Force 
has received submissions from thousands of vendors offering solutions 
to critical Air Force needs. We have awarded over 60 projects directly 
to small businesses and anticipate awarding another 25 by the end of 
the year.
    Question. What do you see as the major challenges to successful 
implementation of this program?
    Answer. The main challenge is centered on the overwhelming vendor 
response to the program. Since the Rapid Innovation Fund started 3 
years ago, we have reviewed over 2,200 white papers on innovative 
solutions to our critical needs. Setting up and managing the program to 
review these white papers, down-selecting only the most compelling, and 
awarding contracts on the top 3 percent is challenging. We are up to 
this task but it does take time to complete. The pressure on our 
acquisition team, especially our contracting officers, intensifies 
greatly with budget uncertainty. Last year due to the length of the 
Continuing Resolution Authority, many of our contracts were not signed 
until September, the final month prior to expiration of the funds.
    Question. What steps will you take, if confirmed, to ensure that 
funds authorized and appropriated for this program are spent in the 
most effective manner possible to promote the objectives of the 
program?
    Answer. If confirmed, I will continue to monitor and improve the 
established robust processes to increase the likelihood that these 
technologies transition into programs of record. We have Air Force 
transition agents identify critical focus areas, a fair and open 
competition where subject matter experts from the field select winning 
proposals, and rely on our transition agents to execute the contracts. 
Ensuring direct Program Executive Office sponsorship from the beginning 
is the way to guarantee a very effective use of the appropriated 
monies. If confirmed, I will continue to capitalize and build on these 
processes to enable decentralized execution with our transition agents 
to ensure we have a high rate of success.
                          multi-year contracts
    Question. The statement of managers accompanying section 811 of the 
NDAA for Fiscal Year 2008 addresses the requirements for buying major 
defense systems under multi-year contracts as follows: ``The conferees 
agree that `substantial savings' under section 2306b(a)(1) of title 10, 
U.S.C., means savings that exceed 10 percent of the total costs of 
carrying out the program through annual contracts, except that multi-
year contracts for major systems providing savings estimated at less 
than 10 percent should only be considered if the Department presents an 
exceptionally strong case that the proposal meets the other 
requirements of section 2306b(a), as amended. The conferees agree with 
a Government Accountability Office (GAO) finding that any major system 
that is at the end of its production line is unlikely to meet these 
standards and therefore would be a poor candidate for a multi-year 
procurement contract.''
    What are your views on multi-year procurements? Under what 
circumstances do you believe they should be used?
    Answer. I believe multi-year contracts are appropriate if the 
business case indicates they will provide significant savings and if 
there is a strong commitment to the procurement. The economies of scale 
linked to multi-years have the potential to generate substantial 
savings and can present strong incentives for suppliers to reduce 
negotiated price and cost. Because they create a multiple-year funding 
commitment with penalties, the Business Case supporting such a 
determination must clearly demonstrate an advantage to the Air Force 
and the taxpayer.
    Question. What is your opinion on the level of cost savings that 
constitute ``substantial savings'' for purposes of the defense multi-
year procurement statute, title 10, U.S.C., Sec. 1A2306b?
    Answer. There is historical support for 10 percent cost savings as 
being adequate to justify the pursuit of a multi-year contract. While 
this is a good rule of thumb, it is not an absolute determining factor. 
Thorough analysis is required. The associated business case analysis 
should demonstrate the savings associated with the contract would be 
substantial in terms of the relative difference in price the Service 
would pay otherwise for annual procurement and in terms of dollars 
saved for the taxpayer.
    Question. If confirmed, under what circumstances, if any, do you 
anticipate that you would support a multi-year contract with expected 
savings of less than 10 percent?
    Answer. It is difficult to answer this question in absolute terms. 
While generally, I would like to see a business case analysis 
projection of at least 10 percent savings before proceeding, there may 
be rare circumstances when I might support pursuing a multi-year with 
just short of 10 percent projected savings. For example, if I had 
strong confidence in the government contract negotiation team's ability 
to achieve an excellent price for the Department, and if I had equal 
confidence the Air Force will acquire the systems I might consider 
supporting the multi-year.
    Question. If confirmed, under what circumstances, if any, would you 
support a multi-year contract for a major system at the end of its 
production line?
    Answer. I cannot imagine under what circumstances I would support a 
multi-year contract for a major system at the end of its production 
line; however, there may be a future situation where this would be 
appropriate. The Business Case supporting such a determination would 
have to clearly demonstrate an advantage to the Air Force and the 
taxpayer.
    Question. Under what circumstances, if any, do you believe that a 
multi-year contract should be used for procuring weapons systems that 
have unsatisfactory program histories, e.g., displaying poor cost, 
scheduling, or performance outcomes but which might otherwise comply 
with the requirements of the defense multi-year procurement statute, 
title 10, U.S.C., Sec. 2306b?
    Answer. If confirmed, I look forward to working with the DAE and 
PEOs to correct circumstances which may have led to unsatisfactory 
program histories. Once a program has demonstrated a capability to 
deliver satisfactory cost, schedule, and performance outcomes, it may 
become a candidate for multi-year procurement. The Business Case 
supporting such a determination would have to clearly demonstrate an 
advantage to the Air Force and the taxpayer.
    Question. What is the impact of the Department's current budget 
situation, in your view, on the feasibility and advisability of 
additional multi-year procurement contracts for major weapon systems?
    Answer. Given ongoing budget uncertainties, additional multi-year 
procurement contracts for major weapons systems would have to be on a 
longstanding program with many years remaining and the Business Case 
supporting such a determination clearly demonstrates an advantage to 
the Air Force and the taxpayer.
    Question. Under what circumstances, if any, should the Air Force 
ever break a multi-year procurement?
    Answer. The circumstances that I would consider ever breaking a 
multi-year procurement would be if the contractor fails to perform, the 
Air Force has significant changes to requirements, or the Business Case 
supporting such a determination clearly demonstrates an advantage to 
the Air Force and the taxpayer.
    continuing competition and organizational conflicts of interest
    Question. Section 202 of WSARA requires DOD to take steps to 
promote continuing competition (or the option of such competition) 
throughout the life of major defense acquisition programs.
    What is your view on the utility of continuing competition as a 
tool to achieve long-term innovation and cost savings on major defense 
acquisition programs?
    Answer. I agree that implementing appropriate measures to ensure 
competition throughout the life of a program, such as those identified 
in section 202, can be a valuable tool to achieve long-term innovation 
and cost savings.
    Question. Do you believe that such continuing competition is a 
viable option on major defense acquisition programs?
    Answer. Continuing competition is a viable option on many major 
defense acquisition programs, but may not be viable for all areas of 
all major programs. It does require continued effort and management.
    Question. If so, what steps if any can and should the Air Force 
take to address this issue?
    Answer. The Air Force should continue to address long-term 
competitive effects of program decisions during periodic system or 
program reviews.
    Question. Section 203 of WSARA requires the use of competitive 
prototypes for major defense acquisition programs unless the cost of 
producing such prototypes would exceed the lifecycle benefits of 
improved performance and increased technological and design maturity 
that prototypes would achieve.
    Do you support the use of competitive prototypes for major defense 
acquisition programs?
    Answer. Yes, I support the USD(AT&L) implemented policy changes to 
address WSARA that increased focus on early and competitive prototyping 
and all efforts that will result in improvements in the Defense 
acquisition process. Competitive prototyping has the clear benefit of 
protecting procurement flexibility by keeping multiple competitors in 
the hunt during system development. In addition, it is key to 
addressing several critical program issues, to include risk management, 
assessment of technology maturation and integration, identification of 
potential problems and assessment of the framing assumptions upon which 
requirements are based. This contributes to the assessment of potential 
trade-offs between requirements and cost. It is also useful in 
establishing reliability growth potential and to help prepare systems 
for manufacturing. Finally, it supports efforts to maintain the Defense 
industrial base by funding companies to continue to develop 
technologies and systems.
    Question. Under what circumstances do you believe the use of 
competitive prototypes is likely to be beneficial?
    Answer. Competitive prototyping is likely to be beneficial when 
more mature designs are required to begin manufacturing planning, to 
reduce technological risk, to aid in developing operational 
requirements, and the competition is likely to result in lower costs. 
Competitive prototyping can be especially cost-effective when it can be 
focused on individual subsystems and components or focused on 
integration challenges, rather than prototyping full systems. Subsystem 
and component prototyping is beneficial when there are critical 
technologies that require significant innovation and maturation prior 
to system integration. Competitive prototyping of integration issues is 
valuable for programs that involve mature platforms, subsystems, and 
components.
    Question. Under what circumstances do you believe the cost of such 
prototypes is likely to outweigh the potential benefits?
    Answer. Competitive prototyping is likely to be cost prohibitive 
when it requires complete prototypes of complex systems, especially 
those with significant integration and technology maturation issues. 
Additionally, there are certain sectors of the industrial base that are 
low volume and highly technically specialized that may not support more 
than a single vendor.
    Question. Section 207 of WSARA required the Department to 
promulgate new regulations to address organizational conflicts of 
interest on major defense acquisition programs.
    Do you agree that organizational conflicts of interest can reduce 
the quality and value of technical support services provided to the Air 
Force and undermine the integrity of the Air Force's acquisition 
programs?
    Answer. I agree that organizational conflicts of interest can 
increase risk and that the quality and value of technical support 
services provided to the Air Force would be impacted. It could also 
undermine the integrity of the Air Force's acquisition programs.
    Question. What is your understanding of the steps the Air Force has 
taken to implement section 207 and the new regulations?
    Answer. The Air Force revised acquisition policy and contracting 
guidance to implement the requirements of section 207, including 
reiterating restrictions on lead system integrators and inherently 
government functions.
    Question. What additional steps if any do you believe the Air Force 
should take to address organizational conflicts of interest in major 
defense acquisition programs?
    Answer. I believe the current statutory and regulatory framework is 
adequate to protect the government's interests in this area, but will 
continue to look for opportunities to reduce risks to programs.
    Question. What are your views on the use of system engineering and 
technical assistance contractors that are affiliated with major defense 
contractors to provide ``independent'' advice to the Air Force on the 
acquisition of major weapon systems?
    Answer. It is critical for advice to the Air Force to be truly 
independent. In those instances where subject matter expertise is 
required, I will seek to avoid any conflicts of interest so that advice 
received is truly unbiased.
    Question. What lines do you believe the Air Force should draw 
between those acquisition responsibilities that are inherently 
governmental and those that may be performed by contractors?
    Answer. It is my understanding that new Defense Federal Acquisition 
Regulations Supplement provisions, coupled with heightened awareness of 
the issue among the contracting workforce and changes in the defense 
industrial base, have gone a long way to ameliorating the issue making 
the likelihood of unmitigated Organizational Conflicts of Interests 
less common. I will continue to support these efforts.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not misuse their access to sensitive and 
proprietary information of the Air Force and other defense contractors?
    Answer. Policies emphasize reliance upon competition at the prime 
and subcontract levels to provide for innovation, flexibility, reduced 
life cycle costs, and increased quality. The Air Force expects their 
program managers and contracting officers to pay close scrutiny to the 
government's best interests when a contractor may propose the use of 
its own resources when other capabilities are available, and we Reserve 
the right to consent to subcontracts to ensure that the government's 
interests are adequately protected. I will continue to support these 
efforts.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not unnecessarily limit competition for 
subcontracts in a manner that would disadvantage the government or 
potential competitors in the private sector?
    Answer. If confirmed, I will support Air Force policies that 
emphasize reliance upon competition at the prime and subcontract levels 
to provide for innovation, flexibility, reduced life cycle costs, and 
increased quality. The Air Force expects their program managers and 
contracting officers to pay close scrutiny to the government's best 
interests when a contractor may propose the use of its own resources 
when other capabilities are available, and the Air Force Reserves the 
right to consent to subcontracts to ensure that the government's 
interests are adequately protected.
                        contracting for services
    Question. Do you believe that the Air Force can do more to reduce 
spending on contract services?
    Answer. The Air Force uses a mix of military, civilians and 
contractors to accomplish its mission, and in today's fiscal 
environment, we are looking at each for potential savings without 
compromising mission effectiveness. In services acquisition, we are 
examining opportunities to reduce costs through the use of enterprise-
wide vehicles as well as partnering with other Services and agencies. 
We need to improve understanding of types of services being contracted 
and ways they can be made more efficient.
    Question. Do you believe that the current balance between 
government employees (military and civilian) and contractor employees 
is in the best interests of the Air Force?
    Answer. I believe we must continue to examine this balance and to 
ensure that inherently governmental functions are not outsourced. 
Additionally, we must assess the work accomplished by military, 
civilian, and contractor personnel to achieve the correct balance. For 
services acquisition projects, the Air Force does have a process to 
conduct these discussions during the requirements definition phase.
    Question. What steps if any would you take, if confirmed, to 
control the Air Force's spending on contract services?
    Answer. The Air Force has made significant improvements in the 
management of services acquisition--from requirements review to 
contract execution. If confirmed, I will continue to refine these 
processes, raise visibility and oversight, and partner with Major 
Command Commanders and the Program Executive Officer for Combat and 
Mission Support to maximize the effectiveness of available services 
resources.
    Question. Do you believe that the Air Force has appropriate 
organizations, capabilities, and procedures in place to manage its 
service contracts?
    Answer. Through the Single Manager for Services and Program 
Executive Officer structures, the Air Force has successfully put in 
place the right capabilities and processes to manage services 
acquisition. Even with these advances, the Service is still examining 
methods to increase effectiveness, such as engaging senior leaders to 
improve their understanding of services related to their mission area. 
We recognize this is an important area to manage and improve for the 
taxpayer.
    Question. If not, what steps would you take, if confirmed, to 
develop such organizations, capabilities, and procedures?
    Answer. N/A
    Question. Section 863 of the NDAA for Fiscal Year 2011 requires DOD 
to establish a process for identifying, assessing, reviewing, and 
validating requirements for the acquisition of contract services.
    What is the status of the Air Force's efforts to implement the 
requirements of section 863?
    Answer. Focused on these same areas, the Air Force instituted a 
requirements review process for services acquisitions in 2008 and 
continues to refine it to address the requirements in section 863 and 
meet the needs of the Service.
    Question. What steps remain to be taken, and what schedule has the 
Air Force established for taking these steps?
    Answer. While the Major Command Commanders and SAF/AQ are involved 
in the current requirements review process, the Service is expanding 
the involvement of senior leaders who oversee their functional services 
and expect to formalize their involvement in this process during fiscal 
year 2014.
    Question. What additional steps if any would you take, if 
confirmed, to improve the Air Force's management of its contracts for 
services?
    Answer. If confirmed, I will continue to engage with senior leaders 
within the Air Force and across the Department on requirements, 
acquisition strategies and methodologies for managing the execution of 
services acquisitions. I will work similarly with OSD AT&L.
    Question. Do you believe that the use of Indefinite Delivery 
Indefinite Quantity (IDIQ) contracts are beneficial or harmful for the 
acquisition of services?
    Answer. If used correctly, Single- and Multiple-Award IDIQ 
contracts are very beneficial. Our acquisition teams perform market 
research to determine the appropriate strategy to meet the mission 
requirement. In services acquisitions, the Air Force has been using 
Multiple-Award IDIQ contracts extensively as they provide a continuous 
opportunity for competition among a set of qualified contractors.
       contractor performance of critical governmental functions
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, has the Air Force become too reliant on contractors 
to support the basic functions of the Department?
    Answer. I recognize this is an area of concern. The Service must 
continue to examine mission requirements and ensure that inherently 
governmental functions are not outsourced. If confirmed, I will review 
the Air Force use of contractors in basic functions.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of the Air Force?
    Answer. I believe the appropriate use of personal services 
contracts is in the best interest of the Air Force. The Federal 
Acquisition Regulation (FAR) and title 10, U.S.C., section 129, 
restrict the use of personal services contracts. While not extensive, 
the Air Force does use it where authorized, such as in the medical 
support area. If confirmed, I would continue to work with leaders 
across the Air Force to ensure compliance with applicable laws and 
policies.
    Question. What is your view of the appropriate applicability of 
personal conflict of interest standards and other ethics requirements 
to contractor employees who perform functions similar to those 
performed by government employees?
    Answer. While they are prohibited from making decisions on behalf 
of the government, I believe the rule set for these personnel should 
more closely mirror the rule set of a government employee.
                          contracting methods
    Question. In recent years, DOD has relied heavily on time-and-
materials contracts for the acquisition of services. Under such a 
contract, the Department pays a set rate per hour for contractor 
services, rather than paying for specific tasks to be performed. In 
some cases, contractors have substituted less expensive labor under 
time-and-materials contracts, while continuing to charge Federal 
agencies the same hourly rates, resulting in effective contractor 
profits of 25 percent or more.
    What is your view of the appropriate use of time-and-materials 
contracts by the Air Force?
    Answer. In general, I prefer the use of almost any other type of 
contract for services, but there are still limited situations where 
time-and-materials contracts are appropriate. For example, time-and-
materials contracts may be appropriate when the Government lacks 
historical data on the nature of work to be performed or there is a 
large variation in the work to be performed. These situations prevent 
the reasonable estimation of the resulting work and labor mix for an 
effective task-based contract. If confirmed, I will strive to limit the 
use of time-and-materials contracts to only appropriate situations and 
provide effective oversight to prevent contractor abuse.
    Question. What steps if any do you believe the Air Force should 
take to minimize the abuse of time-and-materials contracts?
    Answer. The Air Force began focusing on reducing the use of time-
and-materials contracts several years ago and if confirmed I will 
continue these efforts. In fiscal year 2006, the Air Force spent 
approximately $3 billion on time-and-materials contracts and that 
number was reduced to $371 million in fiscal year 2013.
    Question. Section 802 of the NDAA for Fiscal Year 2013 requires DOD 
to promulgate regulations to ensure the review and justification of any 
``pass-through'' contracts on which more than 70 percent of the work 
will be performed by subcontractors.
    What is your understanding of the status of the Department's 
efforts to implement the requirements of section 802?
    Answer. It is my understanding that a FAR case, 2013-012, was 
initiated for this statutory provision. I also understand as part of 
the rule making process some concerns were raised and I believe those 
have been resolved and the case is moving forward in the process.
    Question. What additional steps if any do you believe the Air Force 
should take to address the problem of unjustified pass-through 
contracts?
    Answer. I support the idea of the language because it is in the 
best interest of the Air Force and cost to the taxpayer.
                          better buying power
    Question. DOD's Better Buying Power initiative provides acquisition 
professionals with important guidance on how to achieve greater 
efficiency, enhanced productivity and affordability in how the 
Department procures goods and services.
    What steps if any will you take, if confirmed, to ensure that the 
Air Force's acquisition and contracting professionals implement this 
guidance, and achieve intended results?
    Answer. If confirmed, I will continue to ensure that all Air Force 
acquisition and contracting professionals implement this guidance and 
achieve the levels of success already seen to date. In my current 
position, I have been actively engaged in promoting the concepts behind 
Better Buying Power to our workforce, through visits to the field and 
recognition of our personnel on individual successes and cost savings. 
Additionally, the Air Force has set policy and guidance on a wide 
variety of initiatives including Better Buying Power, and integrated 
these tenets in all levels of acquisition reviews. This active 
engagement is just the first step towards institutionalizing the 
process and making it the new way of doing business.
    Question. Which elements of this guidance, if any, do you disagree 
with and would not expect to fully implement, if confirmed?
    Answer. OSD's Better Buying Power initiatives are positive steps 
towards achieving successful program management and acquisition 
excellence. If confirmed, I look forward to working with USD(AT&L) to 
implement the initiatives to the maximum extent possible.
    Question. How would you measure how effectively the Air Force's 
acquisition and contracting workforce is implementing the tradecraft 
and best practices called for under this initiative?
    Answer. Some of the initiatives are easier to measure effectiveness 
than others, but one concrete example on which we are already seeing 
great returns is the implementation of ``should cost''. The ``should 
cost'' strategy is aimed at seeking out and eliminating low- and non-
value added aspects of program costs. Managers are then `rewarded' by 
being given the opportunity to utilize those savings as additional 
resources to support efforts within the program, the portfolio itself, 
or elsewhere within the Department's acquisition community as deemed 
appropriate and necessary.
    The Air Force is actively gathering should cost data and reporting 
our successes to OSD. In fiscal year 2013, the Air Force realized $673 
million in should-cost savings. Additionally, in fiscal year 2013, only 
one program requested a should cost waiver, down from 79 percent of 
programs in fiscal year 2012, which indicates that these initiatives 
are becoming second nature. This is just one example of how the Air 
Force has already accepted and begun to implement Better Buying Power. 
If confirmed, I will continue to implement Better Buying Power to the 
maximum extent possible, and I am confident we will continue to see 
cost savings and other efficiency trends throughout the Air Force.
    Question. What steps would you take, if confirmed, to implement the 
following elements of the Better Buying Power initiative?
    Answer. If confirmed, I am committed to the Air Force being the 
leader in implementing Better Buying Power initiatives throughout DOD. 
The Air Force has been at the forefront through preliminary 
implementation and will continue to realize cost savings as these new 
processes become more familiar.
(1) Sharing the benefits of cash flow
    I agree with the Department's initiative to better align 
profitability with performance goals, and with including the use of 
cash flow as another incentive. If confirmed, I will emphasize training 
and education for contracting officers on the benefits from cash flow 
as an incentive tool during negotiations.
(2) Targeting non-value-added costs
    The Air Force continues to make great progress with respect to 
identifying opportunities to reduce and eliminate non-value added 
costs. The Air Force is primarily doing this through our concerted 
efforts aimed at implementing should cost based management practices. 
The program executive officers are actively instilling a culture within 
their portfolios that requires their program managers to continually 
scrutinize each element of cost under their control and assess how it 
can be reduced.
    This should cost strategy is aimed at seeking out and eliminating 
low- and non-value added aspects of program costs. Managers are then 
`rewarded' by being given the opportunity to utilize those savings as 
additional resources to support efforts within the program, the 
portfolio itself, or elsewhere within the Department's acquisition 
community as deemed appropriate and necessary.
(3) Mandating affordability as a requirement
    The Air Force has already taken steps to improve management of 
long-term affordability for Major Defense Acquisition Programs in the 
establishment and tracking of Affordability Goals/Caps at the next 
Milestone review. If confirmed, I would continue to work with the user 
community to improve articulation of long-term affordability 
constraints during the requirements process.
(4) Eliminating redundancy within warfighting portfolios
    The staff is working hand-in-hand with the acquisition staffs of 
the Navy and Army to assure everyone is meeting the intent of this 
initiative. Last month the Senior Acquisition Executives provided a 
status to AT&L regarding joint efforts to address this initiative. The 
Air Force feels comfortable that processes and guidance are well-
established for the larger ACAT Programs across the Services. While the 
Air Force believes that there are many processes in place to help 
eliminate redundancy in the smaller ACAT programs, if confirmed, I will 
continue to work together to assure duplication is eliminated.
                        interagency contracting
    Question. What is your assessment of the risks and benefits 
associated with the Air Force's use of interagency contracts?
    Answer. A risk of interagency contracts is additional costs and 
fees which could result in higher costs to the Air Force. One of the 
primary benefits of interagency contracts is the ability to leverage 
existing contracts to expedite contract award and delivery while 
reducing duplication of effort. Interagency contracts can create an 
efficient use of scarce resources and provide better support to our 
warfighter. The use of existing vehicles makes sense and is encouraged 
when it results in faster delivery for the warfighter at a fair and 
reasonable price.
    Question. Do you believe additional authority or measures are 
needed to hold Air Force or other agency personnel accountable for 
their use of interagency contracts?
    Answer. No. The Air Force has a process that requires any Military 
Interdepartmental Purchase Request (MIPR) or interagency transfer of 
funds to be reviewed by the contracting officer. This ensures the 
contracting officer engages the requiring activity to use the most cost 
effective mechanism to receive the supply or service. This review has 
been effective in ensuring the appropriate use of interagency contracts 
while also maintaining control and accountability of MIPR'd funds.
    Question. Do you believe contractors have any responsibility for 
assuring that the work requested by Air Force personnel is within the 
scope of their contract?
    Answer. Yes. Contractors are required by the terms and conditions 
of their contract to inform the contracting officer if they believe 
work is outside the scope of the contract. If asked to perform work 
outside contract scope, the contractor must request the contracting 
officer modify the contract and reach an agreement on the work and 
resulting consideration.
                 acquisition of information technology
    Question. Most of the Department's Major Automated Information 
System (MAIS) acquisitions are substantially over budget and behind 
schedule. In particular, the Department has run into unanticipated 
difficulties with virtually every new business system it has tried to 
field in the last 10 years. Section 804 of the NDAA for Fiscal Year 
2010 required DOD to establish a new acquisition process for 
information technology.
    What role if any do you expect to play, if confirmed, in oversight 
and management of the Air Force's acquisition of information 
technology?
    Answer. If confirmed, I will work with the MAIS stakeholders, to 
include USD(AT&L), the Chief Management Officer, the Chief Information 
Officer and functional communities, to provide rigorous oversight and 
efficient management. I will actively engage in efforts to implement 
important lessons learned from previous IT acquisition efforts.
    Question. Do you believe that unique problems in the acquisition of 
business systems require different acquisition strategies or 
approaches?
    Answer. Yes, I believe there are unique challenges associated with 
the acquisition of information systems that call for the use of 
acquisition approaches different from those normally used by the 
Department for acquiring weapons and other systems. Under Secretary of 
Defense Kendall often says that all acquisitions should be tailored to 
the nature of the product being acquired. He has further noted that as 
a class, business systems are products having characteristics that tend 
to dictate a specific type of program structure. Additionally, there is 
an existing requirement to keep Air Force business systems relevant 
with evolving technology and ensure both current and planned systems 
are meeting mission needs in a cost-effective way. In particular, the 
success of the Service with these programs depends on the ability to 
recognize, plan and execute to a roadmap for how each acquired system 
will exchange very vast and complex sets of data within our existing 
(``As-Is'') and future (``To-Be'') information architectures. Air Force 
decision-makers at all levels must have clear policy and an effective 
governance structure that they can translate into execution of a 
tailored strategy to smartly acquire business systems--particularly at 
the program manager level. Likewise, end-users must be accepting of the 
changes a new business system will likely have on their operating 
culture.
    Question. What steps, if any, do you believe the Air Force should 
take to address these problems?
    Answer. The Air Force is addressing these problems by moving away 
from large-scale Enterprise Resource Planning (ERP) programs, like the 
former Expeditionary Combat Support System (ECSS), in favor of smaller-
scoped capability-based increments.
    A perfect example of the Air Force's current efforts is the 
Logistics Transformation Maintenance Repair and Overhaul initiative 
(MROi). MROi is the first critical increment to transforming the Air 
Force's entire logistics IT required functionality. Subsequent 
capability initiatives will follow MROi, building upon each other to 
ultimately achieve critical improvements across all areas of the Air 
Force's logistics enterprise.
    With both MROi and future business systems acquisition, the Air 
Force will implement a more robust requirements definition process up 
front that fully maps out our existing and required end-state 
architectures before pursuing any materiel solution through the use of 
Business Process Re-engineering (BPR) and related architecture 
disciplines. Another key element of the application of these 
architecture and BPR disciplines is the ability to scope the delivered 
IT solution to a user-defined capability as opposed to a developer-
defined software release that may not be the most effective solution 
for the user. This user focus serves as the basis for determining the 
appropriate increments. The architecture and BPR disciplines provide 
the means to manage and deliver smaller-scoped solutions and satisfy 
mission objectives. This BPR rigor also ensures that the users' 
requirements are defined correctly up front and remain stable through 
the lifecycle of the program.
    Question. What steps has the Air Force taken to implement the 
requirements of section 804? What steps remain to be taken?
    Answer. On November 26, 2013, OSD published a new DODI 5000.02 that 
further clarifies policies, streamlines defense acquisition procedures 
and eliminates redundant/conflicting guidance. As a result, the core 
processes within DODI 5000.02 and the former Business Capability 
Lifecycle (BCL) process are better aligned. The Air Force has also 
strengthened the processes associated with Business Process Re-
engineering (BPR) and IT certification to further ensure acquired 
capabilities meet mission needs. OSD DCMO, now working in concert with 
USD(AT&L) is further refining these processes to better integrate its 
key assertions into DOD acquisition guidance, in part as a result of 
its previous joint efforts with the Air Force.
    Question. If confirmed, how would you work with the Chief 
Information Officer of the Air Force to take these steps?
    Answer. If confirmed, I will continue to collaborate with our CIO 
to identify and take steps needed to improve acquisition of information 
technology and to leverage use of a common technology baseline across 
Air Force IT systems. This common baseline will facilitate common 
hosting standards and promote consistent security practices and 
sustainment methods allowing us to bring new capabilities online more 
quickly and at lower cost. If confirmed, I will also work with the CIO 
to ensure cyber security is built into Air Force systems, leveraging 
the processes of the newly defined Risk Management Framework.
    Question. Some have argued that the current test and evaluation 
process does not appropriately address the unique circumstances 
applicable to the acquisition of information technology systems.
    What steps if any do you believe the Air Force should take to 
improve the test and evaluation process for information technology 
systems, including their vulnerabilities in the face of a growing 
cybersecurity threat environment?
    Answer. The Air Force needs to better integrate developmental test, 
operational test, and certification and accreditation activities to the 
greatest extent practical. Programs should utilize early user 
involvement, automated testing, and continuous monitoring of deployed 
capabilities. To better address the growing cybersecurity threats, 
programs will need to engineer and test mission assurance and cyber 
security from the ground up.
    Question. The Air Force planned for the Expeditionary Combat 
Support System to be an ``underlying business system intended to tie . 
. . [the Service's] transformation efforts together and provide a 
holistic, end to end view of the . . . [Air Force's] logistics 
enterprise.'' This was to be accomplished using commercial off-the-
shelf software. Unfortunately, after approximately 7 years and $1.03 
billion the program was cancelled.
    What lessons have you and the Air Force learned from this episode 
and how will future MAIS programs be structured differently to ensure 
such a result does not occur in the future?
    Answer. The Air Force has learned a great deal from Expeditionary 
Combat Support System (ECSS) and is following through on the specific 
recommendations made in the Acquisition Incident Review (AIR) report. 
Specifically, the AIR report found four contributing causes and six 
root causes to the failure of ECSS. The four contributing causes were a 
confusing and sometimes ineffectual governance structure; challenges 
with tactics, techniques and procedures of acquisition tools; 
difficulty of changing from our legacy systems; and a high rate of 
churn among personnel and organizational structures. The six root 
causes were the Air Force's lack of understanding of the data, lack of 
understanding of the ``As-Is'' and ``To-Be'' architectures, lack of a 
transition plan, lack of an execution plan, an unrealistic development 
environment, and the fact that the right culture was not in place for 
ECSS to be successful.
    Following the release of the AIR report the Secretary of the Air 
Force directed a review of existing major Air Force business systems to 
determine to what extent the ECSS AIR lessons learned were being 
incorporated, and recommended specific actions in addition to the AIR 
report to further ensure mistakes made during ECSS are not repeated on 
future programs. The Air Force is taking steps to ensure the 
recommendations from both the AIR report and the Secretary of the Air 
Force-directed review are fully implemented.
    Several examples of Air Force actions to implement lessons learned 
include: Standardizing practices to increase collaboration with 
functional stakeholders earlier on in the acquisition process; 
Blueprinting current architecture for our existing core logistics 
systems; Applying rigorous Business Process Re-engineering (BPR) before 
determining whether new materiel solutions are required and should be 
pursued; Establishing Integrated Functional and Program Executive 
Office teams to bolster co-accountability for program outcomes among 
key stakeholders; Increasing training opportunities for end-users on 
technology transition management curricula.
    Question. The Department's Information Technology Enterprise 
Strategy and Roadmap, dated 6 September 2011, proposes overhauling IT 
policies to provide improved access to information, common identity 
management, standardized Department-wide services/applications/tools, 
streamlined IT acquisition, consolidated data centers, and cloud 
computing services.
    What reorganization, if any, do you believe will be needed in the 
IT acquisition structures of the Air Force to achieve these objectives?
    Answer. At this time, I do not believe the Air Force needs to 
reorganize in the IT acquisition structures to achieve these 
objectives. The Air Force is taking steps to clearly define roles and 
responsibilities, develop common standards and to empower the CIO to 
provide strategic direction and corporate investment inputs. These 
steps will move us closer to these objectives and ultimately, improve 
warfighting effectiveness across the cyber mission area.
    Question. In your view, how fundamentally different, in ways 
relevant to procuring needed defense capability effectively, is 
acquiring information technology products and services from how the Air 
Force more typically procures products and services?
    Answer. The fundamental difference in procuring information 
technology products and services is the greater use of rapidly evolving 
commercial technology. Leveraging this commercial technology allows the 
Department to more quickly deploy capabilities through shorter delivery 
cycles, incremental and concurrent development and test, use of 
established standards, use of common infrastructures and integrated 
cyber-security. With shorter timelines and incremental capabilities, 
there is a greater need for architecture and integration. The interim 
DODI 5000.02 identifies models tailored for IT to better enable rapid 
delivery and an incremental build process to reach full system 
functionality.
    Question. What specific changes, if any, would you recommend to 
improve how the Air Force procures MAISs?
    Answer. I would recommend clearly defining the roles and 
responsibilities of the many MAIS stakeholders, to include AT&L, CIO, 
DOT&E and the Chief Management Office. Additionally, in order for MAIS 
acquisitions to be successful, there must be efficient execution 
authority, improved governance and stable requirements throughout the 
process.
    Question. In your view, what are the implications of the challenges 
and differences you discussed above on efforts by the Air Force to 
procure effectively cyber-security products and services?
    Answer. One implication is that much more collaboration will be 
required in order to procure effective cyber-security products and 
services. As we move towards more common and integrated capabilities, 
the shared opportunities will be greater, but so will the shared risks. 
The Air Force, other members of DOD and the Federal Agencies must act 
in concert to implement cyber capabilities and security. Stakeholders 
need to collaborate on everything from architectures, to acceptable 
common technologies, to cyber-security strategies, and how to best 
access and share information. Collaboration must be part of our 
culture. Having been a member of the recent Defense Science Board Task 
Force on Resilient Military Systems and the Advanced Cyber Threat, I am 
under no illusions that making our combat systems cyber resilient to a 
competent adversary will be simple or easy. The magnitude of the 
challenge to all of the Department here is significant and will be so 
for the years ahead. We will need to systemically build resiliency in 
at the beginning, continually assess end-to-end potential 
vulnerabilities, and then implement countermeasures (whether they be 
material solutions or new concept of operations/TTPs).
    Question. Are there any special acquisition authorities not 
currently available that if authorized could help address some of the 
observed IT and cybersecurity-related acquisition shortfalls?
    Answer. While not specifically an acquisition authority, a major 
challenge with IT acquisition is the application of funding rules that 
are based on traditional, non-IT weapon system procurement. As 
identified in the 804 report, IT programs are currently funded with a 
mix of three principal appropriations (Research and Development, 
Procurement, and Operations and Maintenance), each with unique rules 
and definitions that are based on funding for traditional weapon system 
models. IT acquisition would benefit greatly from a specific 
appropriation designed for unique IT needs and challenges. A specific 
IT appropriation would also help the Air Force articulate, support and 
defend the type and amount of funding needed to meet requirements.
    Question. In your view, does the Defense Information Systems Agency 
(DISA) deliver enterprise computing services and provide IT 
infrastructure in an operationally responsive and cost effective 
manner?
    Answer. It does, in most cases. Air Force systems continue to move 
to the DISA services, to leverage this common, enterprise suite of 
capabilities. The Air Force is working closely with DISA to 
characterize Air Force IT infrastructure requirements and develop a 
streamlined process for hosting Air Force systems. The Service expects 
DISA to gain efficiencies through economies of scale and a la carte 
menu of services.
    Question. What specific recommendations would you make to improve 
DISA's delivery of telecom and IT contracting, enterprise services, and 
computing/application hosting?
    Answer. Air Force engagement with DISA is essential to ensure that 
the IT infrastructure and services DISA provides meet Service needs. 
Competitive pricing, clearly defined standards and interfaces, and 
increased collaborative engagement will continue to facilitate movement 
to DISA services.
                         acquisition workforce
    Question. Section 852 of the NDAA for Fiscal Year 2008 established 
an Acquisition Workforce Development Fund to help DOD address 
shortcomings in its acquisition workforce. The fund provides a 
continuing source of funds for this purpose.
    Do you believe that the Acquisition Workforce Development Fund is 
still needed to ensure that DOD has the right number of employees with 
the right skills to run its acquisition programs in the most cost 
effective manner for the taxpayers?
    Answer. Yes. With the pressure on O&M budgets, the Defense 
Acquisition Workforce Development Fund (DAWDF) has become even more 
important to providing a highly capable acquisition workforce. As O&M 
funds have been reduced, the Air Force has become much more reliant on 
DAWDF to train and develop the acquisition workforce with both Defense 
Acquisition University and Air Force specific courses. If confirmed, I 
would also like to explore utilizing the fund to replenish skilled 
personnel losses from retirements and attrition as well to adjust the 
personnel skill mix as future needs dictate.
    Question. What do you see as the most significant shortcomings, if 
any, in the quality of the Department's acquisition and contracting 
workforce?
    Answer. I believe the Air Force has an exceptional workforce that 
is executing very difficult tasks. The workforce receives excellent 
training from Defense Acquisition University and other sources; 
however, if confirmed, I intend to increase the emphasis of on-the-job 
experience to put into practice the training received. The Air Force 
needs to continue to address development of practical application 
skills emphasizing technical and business acumen because classroom 
training is not enough.
    Question. What role do you expect to play, if confirmed, in 
addressing these shortcomings?
    Answer. If confirmed, I plan to work closely with OSD(AT&L) and Air 
Force acquisition leadership at all levels to continue to improve the 
training and development provided to the acquisition workforce. In my 
current role, I've been directly involved in leading and communicating 
workforce requirements through multiple forums including the OSD(AT&L) 
acquisition workforce Senior Steering Board and Business Senior 
Integration Group as well as the Air Force Leadership and Development 
Review. Additionally I will continue to work closely with the Air 
Force's Director, Acquisition Career Management who manages the Air 
Force Acquisition Professional Development Program.
    Question. How do you communicate those shortcomings to such 
organizations as the Defense Acquisition University?
    Answer. If confirmed, I will communicate shortcomings via the 
forums identified above. Additionally, the Air Force Defense 
Acquisition Career Manager and Functional Managers routinely 
communicate training requirements to the Defense Acquisition University 
and OSD counterparts.
    Question. What specific skill sets or core competencies if any do 
you believe to be vital the Department's ability to procure goods and 
services effectively and are lacking within the Department's 
acquisition and contracting workforce?
    Answer. I believe improved business acumen is vital to acquisition 
excellence. The Air Force should strive to leverage experience from 
commercial industry as well as promote, track and leverage business 
experience within the workforce.
    Question. Do you believe that the Department's human capital plan 
for the acquisition workforce includes adequate measures to acquire or 
reconstitute these vital skill sets or core competencies?
    Answer. Yes. I believe the incorporation of the DAWDF into the 
Department's overall approach to the acquisition workforce has been the 
most important addition to its human capital plan.
    Question. What steps if any would you take if confirmed to improve 
the Department's human capital plan for the acquisition workforce?
    Answer. If confirmed, I will continue to work with OSD(AT&L) to 
make replenishment of the acquisition workforce a focus of the human 
capital plan. I will advocate use of the DAWDF to enable continued 
entry level hiring of recent college graduates in order to backfill as 
members move up, separate or retire. I will also explore modifying 
existing demo programs to better target shortage skills using direct/
expedited hiring authorities.
                         science and technology
    Question. What, in your view, is the role and value of science and 
technology programs in meeting the Air Force's transformation goals and 
in confronting irregular, catastrophic, traditional and disruptive 
threats?
    Answer. The Air Force Science and Technology (S&T) Program prepares 
and equips the warfighter to face threats in an uncertain future. The 
Air Force S&T Program investigates game-changing technologies to 
affordably transition the ``art-of-the possible'' into military 
capabilities. The Air Force invests in research that addresses urgent, 
near-term warfighter needs as well as research that will provide 
revolutionary capabilities in the future.
    Question. If confirmed, what direction will you provide regarding 
funding targets and priorities for the Air Force's long-term research 
efforts?
    Answer. If confirmed, I will actively work with the Air Force S&T 
Executive, the Air Force Chief Scientist and Air Force Research 
Laboratory leadership to develop affordable research priorities and 
resource those priorities accordingly.
    Question. What specific metrics would you use, if confirmed, to 
assess whether the Air Force is making adequate investments in its 
basic research programs?
    Answer. If confirmed, I will work to ensure the Air Force's S&T 
investment supports a balanced foundation of basic research, applied 
research, and advanced technology development that will provide 
demonstrated transition options for future warfighting capabilities. 
The Air Force is currently working with OSD and Service counterparts to 
identify appropriate leading indicators (such as metrics) to assess S&T 
investments.
    Question. Do you feel that there is sufficient coordination between 
and among the science and technology programs of the military services 
and defense agencies such as DARPA?
    Answer. While there is always room for communication improvements, 
I believe there is sufficient coordination. The Air Force, working with 
the other Services, OSD, and their Agencies, have an extensive formal 
coordination mechanism for S&T focused on areas with Defense 
Department-wide utility. Currently, they have organized into 17 
Communities of Interest covering technology areas such as materials and 
manufacturing, cyber security, and autonomy. Service representatives 
are engaged daily in nurturing and growing this formal approach to 
address S&T needs and priorities.
    Additionally, informal coordination, discussions, and debates that 
happen at the individual researcher or program manager level with 
counterparts in the other Services and Agencies through professional 
societies and other avenues are just as important.
    In many areas such as hypersonics, lasers, and cyber technology, AF 
partnerships with DARPA, other agencies, and sister Services are 
pushing the new capabilities that will keep the Air Force the best in 
the world.
    Question. What is the Department's role and responsibility in 
addressing national issues related to science, technology, engineering, 
and mathematics education and workforce development?
    Answer. Nurturing the next generation of science, technology, 
engineering, and mathematics (STEM) professionals is an Air Force, DOD 
and national concern. To maintain the U.S. military's decisive 
technological edge, the Department must be able to recruit, retain and 
develop a capable STEM workforce in the face of worldwide competition 
for the same talent. An objective of the STEM Strategic Communication 
Plan is to encourage all airmen to attract tech-savvy students to an 
Air Force career.
    Question. What steps if any would you take to support efforts to 
ensure that the Nation has the scientific and technical workforce 
needed for its national security technological and industrial base?
    Answer. If confirmed, I look forward to continue supporting efforts 
to recruit, retain and develop a world-class STEM workforce for the Air 
Force and the Nation. The Air Force has successfully used tools such as 
the Science, Mathematics, and Research for Transformation (SMART) 
Scholarship Program. Over the past 8 years, the Air Force has averaged 
providing 60 scholarships per year to scientists and engineers. After 
payback of the recipient's commitment, the Air Force has retained 88 
percent of scholars in Air Force jobs. Additionally, the Air Force is 
updating the Bright Horizons STEM workforce strategic roadmap published 
in 2011. This roadmap addresses the ``people'' dimension of delivering 
and operating required technology by having the right STEM qualified 
people in the right place, at the right time, and with the right 
skills.
    Question. How would you use science and technology programs to 
better reduce technical risk and therefore potentially reduce costs and 
schedule problems that accrue in large acquisition programs?
    Answer. If confirmed, I will continue efforts to deliberately align 
S&T planning, technology transition planning, and development planning. 
The linkages between these activities are critical to initiating 
acquisition programs with mature technologies and credible cost 
estimates.
    Question. Do you feel that the science and technology programs of 
the Air Force are too near-term in focus and have over-emphasized 
technology transition efforts over investing in revolutionary and 
innovative research programs?
    Answer. No. A top priority of the Air Force S&T Strategy is to 
execute a well-balanced, integrated program. I am confident that the 
Air Force S&T portfolio is properly balanced between meeting current 
warfighter capability needs and discovering and developing innovative 
new technology opportunities.
    Question. Are you satisfied that the Air Force has a well-
articulated and actionable science and technology strategic plan?
    Answer. Yes. The Air Force is currently updating the Air Force S&T 
Strategy, which was signed by Air Force Leadership 2010. This flexible 
strategy allows the Air Force to adapt its S&T program to dynamic 
strategic, budgetary and technology environments. Additionally, the 
priorities in the strategy will shape actionable S&T plans.
    Question. Do you see a need for changes in areas such as hiring 
authority, personnel systems, financial disclosure, and ethics 
requirements, to ensure that the Air Force can recruit and retain the 
highest quality scientific and technical workforce possible?
    Answer. An objective of the Air Force STEM Strategic Communication 
Plan is to build the understanding and recognition that the Air Force's 
success is based on the innovation and technical contributions of 
airmen. The Air Force is updating the Bright Horizons STEM workforce 
strategic roadmap published in 2011. This roadmap is investigating 
these areas and others to assure technologically superior warfighting 
capabilities through attracting, recruiting/accessing, developing, and 
retaining a world class STEM workforce.
    Question. What is your view of the effectiveness of the Military 
Accessions Vital to National Interest Program to recruit non-U.S. 
citizens who graduate from U.S. universities with advanced degrees in 
scientific and technical fields of critical national importance?
    Answer. Citizenship is required for commissioned service in the 
military. The military does not commission scientists who do not meet 
citizenship requirements. The Military Accessions Vital to the National 
Interest Program (MAVNI) is a pilot program that could be considered 
useful in its ability to utilize the limited authority provided in law 
to enlist non-citizens in the military service to fill critical skills. 
To date, the Air Force has only used MAVNI to enlist people with 
certain language and associated culture capabilities to meet a critical 
strategic need.
    Question. What steps if any would you take if confirmed to ensure 
the continued effectiveness of this program?
    Answer. If confirmed, I will work with other Air Force and DOD 
leaders to ensure we are taking full advantage of all authorities 
within the law to acquire military and civilian forces to meet our 
science and technology needs in the Air Force.
                          test and evaluation
    Question. The Department has, on occasion, been criticized for 
failing to adequately test its major weapon systems before these 
systems are put into production.
    What are your views about the degree of independence needed by the 
Director of Operational Test and Evaluation in ensuring the success of 
the Air Force's acquisition programs?
    Answer. I support the independence of the Director of Operation 
Test and Evaluation as granted by title 10, U.S.C., (title 10 U.S.C. 
2399, Operational Test & Evaluation of Defense Acquisition Programs). 
This independence is important to ensuring the Department's acquisition 
systems are realistically and adequately tested in their intended 
operational environment. Third party verification of system performance 
is a necessary and important step in acquiring weapon systems.
    Question. Are you concerned with the level of test and evaluation 
conducted by the contractors who are developing the systems to be 
tested?
    Answer. The level of test and evaluation conducted by contractors 
in developing systems to be tested is appropriate; however, it is 
important to ensure government representatives lead the testing and 
perform effective oversight of all contractor test events.
    Question. What is the impact of rapid fielding requirements on the 
standard testing process? If confirmed, how will you work to ensure 
that all equipment and technology that is deployed to warfighters is 
subject to appropriate operational testing?
    Answer. If confirmed, I will continue efforts to ensure 
capabilities provided in response to urgent operational requirements 
are balanced with testing that ensures the system is reasonably safe 
and effective within resource and time constraints. Many times this 
balance is achieved by the combined efforts of the acquisition and 
operational communities, sometimes taken to the extent of the design 
engineers working side by side with the warfighter to resolve issues in 
real time. In addition to meeting the urgent mission needs, the initial 
operational data derived during this activity actually adds to a more 
realistic, complete and robust operational test regime than an isolated 
test alone. Sometimes when a capability is fielded, the innovative 
warfighter effectively uses the capability in a way other than expected 
or tested; this drives a constant evolution of concept of operations 
and test planning and execution to maximize effectiveness.
    Question. Do you believe that the developmental testing 
organizations in the Air Force are adequate to ensure an appropriate 
level of developmental testing, and testing oversight, on major defense 
acquisition programs?
    Answer. Yes. The AFMC reorganization with the 5-center construct is 
an improvement in consolidating leadership and management of 
development test in order to ensure an appropriate level of 
developmental testing and testing oversight. The reorganization is 
leading to increased test efficiency and cross flow of information 
among the test organizations located at the Arnold Engineering 
Development Complex, 96th Test Wing at Eglin AFB and the 412th Test 
Wing at Edwards AFB. However, reduced budgets could have a negative 
impact on testing as resources continue to shrink.
    Question. If not, what steps would you take, if confirmed, to 
address any inadequacies in such organizations?
    Answer. If confirmed, I will work with AF/TE to continue to look at 
Air Force test organizations to ensure structures support the Air Force 
vision for 2023. Continued test efficiencies need to be investigated to 
accommodate budget constraints. Part of this investigation should 
include, where appropriate, increased integrated developmental and 
operational testing. Duplication of test effort must be avoided to 
ensure resources are used as efficiently and effectively as possible.
    Question. As systems grow more sophisticated, networked, and 
software-intensive, DOD's ability to test and evaluate them becomes 
more difficult. Some systems-of-systems cannot be tested as a whole 
until they are already bought and fielded.
    Are you concerned with Air Force's ability to test these new types 
of systems?
    Answer. Yes. These new complex systems deserve a healthy concern 
and respect so they are not underestimated and are addressed 
adequately. The Air Force needs to continue to conduct robust 
Developmental and Operational Test of all new systems to ensure they 
are safe and meet their intended purpose.
    Question. What steps, if any, do you believe the Air Force should 
take to improve its test and evaluation facilities to ensure adequate 
testing of such systems?
    Answer. First and foremost, the Air Force must maintain its unique 
core set of T&E infrastructure and associated workforce. These must be 
preserved as a national asset to provide T&E capabilities to support 
national defense. The Air Force must continue to assess test facilities 
to ensure they are sized, operated, and maintained appropriately to 
provide for the mission.
    Question. In your view, does the Air Force have sufficient 
capabilities to test and evaluate the cybersecurity of its new 
information technology systems and networks?
    Answer. The cyber world is rapidly progressing and evolving and the 
Air Force must continue to work hard to keep pace with this evolution. 
``Sufficient capabilities'' is a constantly changing standard in this 
rapidly changing world. Underestimating its dynamism is to be left 
behind.
    Question. What steps, if any, would you propose to take, if 
confirmed, to enhance this capability?
    Answer. We will continue to build on the Air Force Chief 
Scientist's, Cyber Vision 2025, which provides a blueprint for cyber 
S&T and includes test and evaluation shortfalls. In addition, the Air 
Force will continue to support the tri-Service/OSD Technical Assessment 
Sub-Working Group for Cyber issues.
    Question. Some have argued that testing takes too long and costs 
too much. Others contest this view pointing out that testing and 
evaluation is an essential tool to assist in the development of weapon 
systems and ensure that they perform as intended. The Armed Services 
Committee has expressed concern that problems with weapons systems have 
been discovered during operational testing and evaluation that should 
have been discovered during developmental testing and corrected during 
subsequent development.
    Do you believe that major defense acquisition programs are helped 
or hurt by cutting tests budgets and reducing the time available for 
developmental testing?
    Answer. Reduced test budgets and time are detrimental to Major 
Defense Acquisition Programs and inherently increase costs over the 
life of the system and delays fielding to the warfighter.
    Question. What steps if any will you take, if confirmed, to ensure 
that the program management community and the testing and evaluation 
community work collaboratively and effectively in a way that maximizes 
the likelihood that developmental testing and evaluation will detect 
and identify problems timely in software and hardware to provide 
opportunities to correct them before production and before operational 
testing and evaluation begins?
    Answer. If confirmed, to ensure that the program management 
community and the test and evaluation community work collaboratively 
and effectively I would continue to ensure an emphasis is placed on 
integrated T&E. In my current position, I have taken steps to foster 
this collaboration, meeting bi-weekly with the Air Force T&E executive. 
Linkages for coordination between developmental test, operational test, 
live fire test and evaluation and modeling and simulation must be 
maintained through communication among the various agencies as well as 
the program management office.
    Question. To what extent do you think that dedicated operational 
testing can be more efficiently integrated into developmental and live-
fire testing in a way that is also sufficiently rigorous?
    Answer. I support increased integration of operational testing into 
developmental and live-fire testing. The newly revised DODI 5000.02 
emphasizes integration of developmental and operational testing where 
possible. The key is early involvement of operational testers in the 
development of the Test and Evaluation Master Plan. Early collaboration 
between weapons designers, developmental testers and operational 
testers allows test scenarios to be developed that provide the needed 
data for the developer and in turn can be utilized by the operational 
tester in determining operational suitability. This integration can 
also uncover operational issues early in the development cycle when 
resolution is possible with less impact to cost and schedule.
    Question. Noted defense analysts Andrew Krepinevich and Todd 
Harrison have argued the formal requirements of a weapons system should 
also include a statement as to how a weapons system will be tested. 
Therefore, a testing program will be identified before awarding 
contracts. The purpose of this proposal is to enable the contractor to 
have a much better understanding of what the military hopes to achieve.
    Do you agree with this proposal?
    Answer. A proposal limiting the development of test protocols to 
one single stage of the acquisition process may not fully address the 
complexity of the issue. However, I agree that testing should be a 
consideration early in the acquisition process. There should be early 
focus on the development of requirements that are operationally 
relevant, technically feasible and testable. The Air Force saw this 
need when forming the AFRRG in 2012. AF/TE was included in this Group 
that reviews all requirements documents for new weapons development in 
the future. The AFRRG tightly couples requirement, technical, 
acquisition and test and this process should improve Air Force 
performance in this area.
                       air force industrial base
    Question. What is your assessment of the health and status of the 
key elements of the Air Force's industrial base, including the Air 
Logistic Complexes?
    Answer. The readiness of the Air Force to provide the capabilities 
inherent in Global Vigilance, Global Reach, and Global Power is 
sustained by the products and services purchased from the national 
technology and industrial base. Without the support of both the organic 
and the commercial components of the industrial base, the Air Force 
would not be ready to respond to the needs of the Nation. From the 
laces in boots to the electronics in air, space, and cyber systems, the 
Air Force draws upon a broad and diverse network of suppliers.
    Through this dynamic network, the Air Force equips airmen, 
maintains bases, laboratories, and ranges, modernizes current systems, 
and designs, develops, and procures new capabilities to remain the 
world's preeminent Air Force. I assess the overall health of this 
dynamic network of suppliers and sustainers as sufficient for the 
current needs of the Air Force.
    As I look to the ability of the industrial base to support future 
requirements in military-unique areas such as tactical aircraft and 
strategic missiles, I have some concerns about whether the Air Force 
can sustain the current level of these key industrial capabilities 
during this period of fiscal challenges. In addressing these concerns, 
the Air Force is collaborating with the other elements of the Defense 
Department to ensure thorough analysis leading to informed decisions 
about mitigating these concerns.
    Question. In your view, is DOD's sector-by-sector, tier-by-tier 
(S2T2) activity providing useful information to assist the Army in 
maintaining and improving key elements of its industrial base?
    Answer. The Air Force recognizes and supports the need to 
understand the network of firms providing goods and services to the Air 
Force and how the demands of the Air Force interact with those of the 
other Services and Defense Agencies. Since the inception of the S2T2 
concept, the Air Force has collaborated with OSD, the other Services, 
and Defense Agencies to define, develop, and mature the S2T2 concept 
into a useful tool. This is an ongoing effort. In its current state, 
the S2T2 effort has been useful in validating known areas of concern 
such as the industrial base supporting solid rocket motors and fuzes. I 
look forward to the continued development of the S2T2 effort and its 
eventual maturation.
               small business innovation research program
    Question. What do you see as the major successes and challenges 
facing the Air Force SBIR program?
    Answer. Successes and challenges exist for the Air Force SBIR 
program. In terms of success, the Air Force Small Business Innovation 
Research (SBIR) Commercialization Readiness Program (CRP) established a 
successful process to mature SBIR developed technologies to acceptable 
readiness levels for Air Force customers. Using this process, 
transition plans have been implemented in the last several years 
between innovative small businesses and customers, with 43 producing 
technologies now in the hands of the warfighter. One example of a 
program is enhanced communication via an ultra-light, manportable, 
collapsible antenna which reduces acquisition costs by $40 million over 
5 years and support costs by 90 percent. This technology has also been 
utilized domestically during Hurricane Sandy and recent tornado events.
    Challenges remain with matching Air Force acquisition and 
sustainment programs to high risk technologies typically at the 
technology and manufacturing readiness levels of 4 or 5. Program 
Managers are under tight budgets and schedule constraints, and they are 
more inclined to avoid risk and seek out higher readiness technologies 
at the 7 or 8 levels. Although maturation is the strength of the Air 
Force SBIR Commercialization Readiness Program, it remains difficult to 
convince program managers to align future program dollars to a 
technology that is still maturing.
    Question. What steps would you take if confirmed to ensure that the 
Air Force has access to and invests in the most innovative small 
businesses?
    Answer. I believe the current call and response process where the 
Service solicits proposals to address capability gaps can be augmented 
by a more proactive, aggressive search process to seek out those small 
businesses that may be new startups or unfamiliar with the SBIR 
program. Enhancing the visibility of the SBIR program and our 
communication channels among stakeholders will serve to enhance our 
effectiveness in delivering cutting edge capabilities to our 
warfighters.
    In my current position, I am planning to conduct a Small Business 
Roundtable next month, which for the first time will put Program 
Executive Officers, major defense contractors, and SBIR and other Small 
Business representatives together discussing priorities, budgets, 
concerns, and communication improvements to enhance our access and 
ability to invest in most innovative Small Businesses. Several targeted 
Industry Days are planned this year to seek out small businesses that 
have innovative solutions and capabilities for our mission needs.
    If confirmed, I will continue to maintain a strong partnership with 
our Air Force Small Business team and ensure our Program Executive 
Officers focus their efforts to achieve our objectives with our Small 
Business partners within industry.
    Question. What steps would you take if confirmed to ensure that 
successful SBIR research and development projects transition into 
production?
    Answer. If confirmed, I believe successful transition requires far 
better communication between the supply and demand entities involved. 
The warfighter end user must be central in articulating the demand via 
the Major Commands, PEOs, laboratories, and the small business 
community. We have the tools, including a network of transition agents, 
to facilitate the development of innovative solutions, and I intend to 
ensure that the demand function is well-articulated and to industry. 
The targeted Industry Day approach previously mentioned is one such 
effort, as are the multi-party roundtables.
                             technical data
    Question. Do you believe that the Air Force has been as aggressive 
as it should have been in: (1) securing ownership of technical data in 
connection with items and processes associated with major weapon 
systems that it procures when doing so would best serve the 
Government's interests; and (2) asserting ownership rights over this 
data in a manner sufficient to ensure competition for the production 
and maintenance of these systems over their lifecycle?
    What steps if any will you take if confirmed to ensure that the Air 
Force obtains the technical data rights that it needs to avoid being 
locked into unnecessary sole-source follow-on production and 
sustainment to incumbents to the detriment of the taxpayer and the 
warfighter?
    Answer. In the past, the Air Force abrogated its rights to data 
through Total System Responsibility agreements for a number of our 
major weapons systems. However, for the past several years several 
improvements have been made. The Air Force has been prudently pursuing 
its deliverables and data (license) rights requirements in the best 
interests of the government, seeking ``license rights'' vice 
``ownership'' of contractor developed technical data.
    If confirmed, I will continue efforts to actively implement the 
Defense Department's Better Buying Power focus area of open systems 
architecture enforcement and effective management of data rights in 
order to ensure competition and lower lifecycle costs. I will also 
continue efforts to actively secure the required deliverables and data 
(license) rights as appropriate in order to promote new strategies to 
compete sustainment and modernization efforts that were previously sole 
source to the original contractor.
           nuclear command, control and communication systems
    Question. Some elements associated with the acquisition of Nuclear 
Command, Control and Communications (NC3) systems are fragmented 
between two Air Force acquisition organizations--Space Systems (SAF/
AQS) and Global Power Systems (SAF/AQP). The primary result of this 
fragmentation is the Family of Advanced Beyond Line of Site Terminals 
(FAB-T), which are to be installed in command post and airborne 
platforms. SAF/AQS has oversight of the procurement while the actual 
implementation in nuclear command and control platforms is found in 
SAF/AQP. This mismatch between acquisition programs (and requirements) 
has been documented in a recent General Accountability Office Report 
``Space Acquisitions - DOD Needs More Knowledge Before It Commits to 
Producing Satellite Terminal Critical to Nuclear Mission'', GAO-14-
24SU, December 2013. The primary outcome of this mismatch is that the 
Air Force cannot install the FAB-T terminals its airborne platforms, 
principally the B-2 and B-52 aircraft but also Navy E-6B aircraft as 
well, causing a cascade of cancelled programs associated with these 
aircraft that were to use the FAB-T systems.
    Have you read this GAO report?
    Answer. Yes.
    Question. Do you agree with its findings?
    Answer. I agree with the GAO's recommendations to develop and 
approve a risk mitigation plan to address remaining FAB-T cost, 
schedule, and performance risks, and to direct the FAB-T program to 
establish agreements with user platform organizations. However, I 
disagree with the recommendation to delay production decisions.
    Question. Where you agree what will you do to correct the 
deficiencies found in the report?
    Answer. DOD initiated an updated risk mitigation plan for FAB-T in 
July 2013 that addresses the risks noted in the GAO report. The FAB-T 
program office continues to execute a risk mitigation process that 
involves leadership, stakeholders, and the contractor. If confirmed, I 
will remain committed and will work with the Program Executive Officer 
and FAB-T Senior Materiel Leader to manage the key risks on this 
critical program.
    Additionally, the FAB-T Program Office will formally produce 
Memorandums of Agreement with each platform program office to further 
stabilize terminal and platform requirements. These agreements will be 
finalized following the production contract award to simplify the 
process for each platform.
    Question. Where you disagree, please explain why.
    Answer. The Department believes that programmatic actions taken to 
date have reduced program risk to an acceptable level and support the 
current acquisition strategy. While we appreciate the GAO concerns over 
manufacturing and technology readiness, the Department is confident 
that the winning bidder of the FAB-T production contract will be ready 
to deliver the system. Based on over 10 years of working on the Boeing 
development contract, the government has an in-depth understanding of 
the design and its readiness for production. Raytheon already has three 
other AEHF terminals currently in production. Delaying the down-select 
decision to a production vendor will jeopardize critical national 
leadership command and control capabilities and add significant cost, 
effectively negating the savings created through healthy competition.
    Question. Do you agree the matching of requirements and acquisition 
for nuclear command, control and communications is fragmented, as 
evidenced by the two acquisition organizations (SAF/AQS and SAF/AQP) 
responsible for the program?
    Answer. No. Matching requirements and acquisition is a fact of life 
for all acquisition programs. This often must occur across Program 
Executive Officers and Major Commands; however, there are robust 
requirements and acquisition processes in place that ensure key 
interfaces and program interrelationships are properly managed and 
integrated at all levels. As with all SAF/AQ Capability Directorates, 
these two staff acquisition organizations (SAF/AQS and SAF/AQP) 
understand these processes in detail, and work across the acquisition 
and requirements communities to ensure this integration occurs.
    Question. What lessons do you think can be learned from the FAB-T 
program and applied to future nuclear command and control acquisition 
programs?
    Answer. The lessons from the FAB-T program apply not only to NC3 
programs but to all acquisition programs. They include: (1) program and 
requirements instability increase system cost and delay the schedule; 
(2) competition can be an effective tool to lower technical and 
schedule risk, and overall program costs; and (3) life cycle costs 
drive the ultimate affordability of these systems in the context of 
other requirements that also must be met.
    Question. If confirmed, are you committed to fixing this 
acquisition problem and once confirmed will you brief the congressional 
defense committees on plans to fix this structural acquisition problem?
    Answer. While I disagree the SAF/AQ organizational structure was a 
contributing factor to the problems the Air Force faced on FAB-T, if 
confirmed I will work in cooperation with the USD(AT&L) and Congress to 
continue to apply the lessons learned from FAB-T and other programs to 
improve all aspects of the acquisition process.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASAALT?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                       top acquisition priorities
    1. Senator McCain. Dr. LaPlante, please identify the Air Force's 
top major systems acquisition priorities and, for each priority, please 
identify what you view as the critical pathway to obtaining capability 
to be delivered by those programs on time, on budget, and with the 
required capability.
    Dr. LaPlante. The Air Force's top three priorities remain the KC-
46, the F-35, and the Long Range Strike Bomber (LRS-B).
    At this point in the development of the LRS-B, stable requirements 
are essential to keeping the program on track. The capability level 
requirements for the LRS-B--approved by DOD--set affordable, 
achievable, realistic requirements balanced by cost considerations. In 
order to reduce system and program complexity the program has minimized 
new development, allowing integration of mature technologies/existing 
systems. Industry is actively designing the system to stable, agreed 
upon requirements. It is important that we also maintain schedule 
performance to successfully achieve our program milestones.
    For the F-35 Joint Strike Fighter program, mission software, the 
Autonomic Logistics Information System (ALIS), and reliability and 
maintainability are items on the critical pathway that must be 
delivered on time, on budget, and with the required capability.
    Overall, flight envelope testing for Block 2B (initial warfighting 
capability) mission software is 86 percent complete, and high angle of 
attack testing is 70 percent complete. Looking forward in 2014, the F-
35 Joint Program Office (JPO) expects to complete Block 2B flying 
qualities, weapons environment, and software testing and continue Block 
3F (full warfighting capability) envelope expansion and software flight 
testing. The Program Executive Officer (PEO) remains moderately 
confident Block 2B will release on time in support of U.S. Marine Corps 
initial operating capability (IOC) in 2015. The PEO is also moderately 
confident in an on-time delivery of Block 3i (which provides updated 
processors and the same operational capability as Block 2B) to support 
USAF IOC in 2016. However, there is some risk with the on-time delivery 
of Block 3F to support USN IOC in 2018.
    Maturation of ALIS is a continuing challenge. A revised development 
plan is in work and expected to be complete next month. It will include 
fixes to support Block 2B fleet release and U.S. Marine Corps IOC in 
2015. As a result of performance issues at Marine Corps Air Station 
Yuma, the JPO implemented independent software reviews, brought in 
expertise from across the Lockheed Martin enterprise, and increased 
visibility (at Program Executive Officer and Office of the Secretary of 
Defense (OSD) levels). A joint government/contractor Red Team 
determined in December 2013 that although there are issues, the ALIS 
architecture is sound. The team is continuing to provide 
recommendations to improve system performance and robustness.
    Reliability and maintainability remain below projected growth 
curves, but we are optimistic they will improve. The JPO and Lockheed 
Martin have identified the top 20 design-controllable reliability and 
maintainability ``degraders''. Revised reliability and maintainability 
goals will be finalized in March 2014. Air vehicle availability and 
not-mission capable for maintenance rates have improved steadily since 
October 2013.
    The KC-46 program remains on schedule and contract costs remain 
stable. Maintaining both requirements and funding stability has been, 
and will continue to be, key in ensuring the success of the KC-46 
program. Requirements stability to date on the KC-46 program is 
evidenced by zero engineering changes and the program having met every 
contractual milestone since contract award 36 months ago. A cornerstone 
of this stability has been the support provided by both DOD and 
Congress in maintaining funding required to execute the program. All 
four EMD aircraft are in assembly at the production facility and 
preparations are well underway for flight test. The first provisional 
tanker aircraft will be delivered to accomplish first flight this 
summer, followed by the first KC-46 aircraft delivery and first flight 
scheduled for early calendar year 2015.

    2. Senator McCain. Dr. LaPlante, at this point, do you expect any 
of those programs to experience significant or critical cost growth 
over their original or revised acquisition program baseline costs and 
if so, why? Please explain your answer.
    Dr. LaPlante. I do not anticipate any additional government cost 
growth in KC-46 Engineering and Manufacturing Development contract. The 
contract is a Fixed Price Incentive Firm (FPIF) vehicle which 
establishes a $4.9 billion ceiling price; this is the Government's 
maximum financial liability, assuming no program changes, and shields 
the taxpayer from increased costs. Regarding acquisition program 
baseline cost, I do anticipate some cost growth in KC-46 life cycle 
Operating and Support (O&S) costs due to the Air Force decisions to 
increase KC-46 crew ratios and the flying hour program post-fiscal year 
2020 in order to take advantage of the enhanced capabilities of the 
weapon system. These increased costs are not a result of the aircraft 
development program, but simply a change in field operations. There is 
no projected increase in Air Force Total Obligation Authority, as other 
tanker manpower and flying hour resources will be repurposed to KC-46 
in the out-years. This increase in projected O&S costs was reported in 
the 2012 KC-46 Selected Acquisition Report.
    I do not expect the F-35 Joint Strike Fighter program to experience 
significant or critical cost growth over the revised acquisition 
program baseline cost. The F-35 program was rebaselined in March 2012 
after declaring a critical Nunn-McCurdy breach. I believe the F-35 
program was put on sound footing with a realistic budget and schedule 
when it was restructured after the Nunn-McCurdy breach.
    At this point in the development of the LRS-B, stable requirements 
are essential to keeping the program on track. The capability level 
requirements for the LRS-B--approved by DOD--set affordable, 
achievable, realistic requirements balanced by cost considerations. In 
order to reduce system and program complexity the program has minimized 
new development, allowing integration of mature technologies/existing 
systems. Industry is actively designing the system to stable, agreed 
upon requirements.

                    major systems acquisition reform
    3. Senator McCain. Dr. LaPlante, at your confirmation hearing, in 
response to Senator Ayotte's question regarding the failed $1 billion 
Expeditionary Combat Support System (ECSS) program, you conceded that 
the Air Force does not have ``firm accountability in the acquisition 
process.'' ECSS, in particular, had six different program managers and 
five different program executive officers during its 8-year acquisition 
lifecycle.
    Some have proposed addressing this problem by better empowering 
program managers (PM) to make decisions important to the effective 
management of a given program and holding them accountable for those 
decisions by aligning their tenure with key investment decision-points, 
or milestones, during a given program's acquisition lifecycle. What do 
you think of this proposal?
    Dr. LaPlante. Wherever possible, it is my belief we should empower 
PMs to proactively make key decisions and effectively manage their 
programs. For there to be real accountability, we must first ensure PMs 
and PEOs have the required authorities and resources to effectively 
manage their programs. With those required authorities and resources, 
PEOs and PMs are then in a position from which they can execute 
effective programs. The PEOs and PMs have a responsibility to use the 
chain of command to communicate all systemic and institutional process 
issues that impede program success. Mr. Kendall's new OSD Interim 
5000.02 reinforces the responsibility and accountability of the Service 
Acquisition Executives (SAE), PEOs and PMs for the programs that they 
manage. If confirmed I will work to ensure that our acquisition 
professionals have the necessary resources and an unfettered line of 
authority to be successful at program management. In instances where 
programs are managed ineffectively, I will hold acquisition 
professionals accountable for their failures.
    I support the requirement that a major defense acquisition program 
manager's tenure be aligned to key milestones during a program's 
acquisition lifecycle, with provision for waivers, as called for by 
title 10, U.S.C., Sec. 1734, and DOD and Air Force policy.
    The Air Force has taken a number of steps to strengthen its 
management of PM and PEO tenure. AFI 36-1301 specifies that for ACAT I 
PMs and Deputy PMs, tenure should be through completion of the major 
milestone that occurs closest in time to the date on which the person 
has served in the position for 4 years; and that for all key leadership 
positions, including ACAT II PMs, PEOs will recommend appropriate 
tenure periods to the SAE based on program requirements. Determination 
of tenure is restricted to the SAE and this responsibility is not 
delegated to lower levels. Personnel selected for these key leadership 
positions will not be eligible if they decline to sign the required 
tenure agreement.
    Our goal is to balance PM tenure and the career development demands 
to grow future acquisition leaders. We are using the flexibility 
provided in title 10, U.S.C., Sec. 1734, and DOD policy to tailor PM 
tenure appropriately, based on the program and its point in the 
acquisition life cycle.

    4. Senator McCain. Dr. LaPlante, if confirmed, would you be 
committed to instituting such an approach?
    Dr. LaPlante. Yes. I support the requirement that a major defense 
acquisition program manager's tenure be aligned to key milestones 
during a program's acquisition lifecycle, with provision for waivers, 
as called for by title 10, U.S.C., Sec. 1734, and DOD and Air Force 
policy.
    The Air Force has taken a number of steps to strengthen its 
management of PM and PEO tenure. AFI 36-1301 specifies that for ACAT I 
PMs and Deputy PMs, the tenure should be through the program milestone 
closest to 4 years; and that for all key leadership positions, 
including ACAT II PMs, PEOs will recommend appropriate tenure periods 
to the SAE based on program requirements. Determination of tenure is 
restricted to the SAE and this responsibility is not delegated to lower 
levels. Personnel selected for these key leadership positions will not 
be eligible if they decline to sign the required tenure agreement.
    Wherever possible, I empower PMs to proactively make key decisions 
and effectively manage their programs. PEOs and PMs are fully 
encouraged to use the chain of command to communicate all systemic and 
institutional process issues that impede program success. Additionally, 
Mr. Kendall's new OSD Interim 5000.02 reinforces how Service 
Acquisition Executives (SAE), PEOs and PMs are responsible and 
accountable for the programs they manage. If confirmed I will hold 
acquisition professionals accountable to the maxim extent possible.

    5. Senator McCain. Dr. LaPlante, if confirmed, how would you 
otherwise ensure greater accountability for acquisition managers of the 
Air Force's largest weapons procurement programs?
    Dr. LaPlante. If confirmed, I would institutionalize greater 
accountability in a deliberate and fair-minded manner. Ensuring greater 
accountability encompasses a range of potential factors. Using well 
established best practices, we must arrive at root cause of acquisition 
failures before moving to the steps of assessing accountability. 
Accountability must also be accompanied by appropriate authorities and 
responsibilities for it to be truly real.
    Of critical importance is the need to consider the extent to which 
acquisition mangers do not have the authority or the resources to 
properly execute their program due to budget, cost, schedule, technical 
or other factors outside of their control. The culture must allow for 
program managers to be able to ``raise a flag'' if they assess the 
program they are to manage is not executable. In all cases, if 
confirmed I am committed to giving our program managers and PEOs 
appropriate authorities and responsibilities, and then holding the 
chain of command accountable for the outcomes.

    6. Senator McCain. Dr. LaPlante, during your testimony, you cited 
root and contributing causes to ECSS' failure identified in the ECSS 
Acquisition Incident Report (AIR). In your view, how effectively is the 
Air Force addressing these causes in other similar business systems or 
other major automated information systems?
    Dr. LaPlante. In my view, we are effectively addressing the ECSS 
AIR team's findings across our defense business system portfolio. Upon 
completing the ECSS AIR in mid-2013, the AIR Team briefed lessons-
learned to all levels of Air Force requirements and acquisition 
organizations. The requirements community and program managers are 
asked to link AIR recommendations to all applicable points in the 
acquisition strategy and planned milestones. These are briefed at Air 
Force governance boards, program milestone events and management 
reviews to ensure any need for course correction is detected and 
implemented early in the program's lifecycle.
    In addition to the ongoing reviews that take place, the Under 
Secretary of the Air Force directed a review of our Major Automated 
Information Systems (MAIS) to analyze the extent to which the AIR 
lessons-learned are being implemented and determine where the Air Force 
should make additional improvements. This MAIS review was accomplished 
under the direction of the Air Force Deputy Chief Management Officer in 
August 2013. The review used the AIR findings as the basis for 
assessment across five business systems of varying size and scope. The 
review afforded the Air Force the opportunity for both internal 
stakeholders (i.e., program and functional managers) and an external 
group of experts to look for problems similar to those of ECSS in 
existing programs. The findings (strengths, weaknesses and recommended 
corrective actions) were reported to Air Force program acquisition 
executives and Headquarters functional sponsors to help ensure our 
major business initiatives are on a solid path to success.
    The MAIS review complements work the Air Force has done to improve 
business systems acquisition. As an example, with Defense Enterprise 
Accounting Management System (DEAMS), the Air Force adopted a seven-
phase release strategy with each phase being comprised of small, 
manageable increments. This strategy allows for the development and 
deployment of must-have capabilities to meet the Financial Improvement 
Audit Readiness (FIAR) goals across the Air Force and their Defense 
Finance and Accounting Services (DFAS) and U.S. Transportation Command 
partners.

    7. Senator McCain. Dr. LaPlante, if confirmed, would you take any 
additional steps to make sure that these lessons have, in fact, been 
learned so that ECSS' failures are not repeated?
    Dr. LaPlante. Yes, as the Service's Acquisition Executive, I will 
make every effort to ensure the Air Force's ECSS AIR Report lessons 
learned are fully considered and the right actions are taken to ensure 
mistakes made during ECSS are not repeated. I will regularly review 
programs that require my oversight and with specific regard to our 
defense business systems I will work with Major Automated Information 
System (MAIS) stakeholders, to include the Office of the Under 
Secretary of Defense for Aquisition, Technology, and Logistics 
(USD(AT&L)), the Chief Management Officer, the Chief Information 
Officer and functional communities to better articulate roles and 
responsibilities and efficient management. I will work closely with the 
functional users to ensure programs are built on a robust foundation of 
documented data decomposition, carefully mapped requirements, extended 
use cases, and well laid-out transition plans that move us from the 
current, to the interim, and ultimately to the desired end-state 
environments. I will monitor potential cost drivers in our MAIS 
programs through rigorous Configuration Steering Boards (CSB) to ensure 
we regularly revisit technical requirements and schedule metrics to 
drive program affordability.
    Additionally the AIR report pointed out shortcomings in how we 
assign and tenure our Program Managers. I will ensure that our Air 
Force Program Managers have the highest level of training and 
experience and placed in the right jobs. Specifically, I will work with 
our acquisition career management community to ensure Key Leadership 
Position (KLP) tenure agreements strike the appropriate balance between 
tenure and the career development demands to grow our future 
acquisition leaders. I will also make sure our Program Managers are 
empowered with the guidance they need to make and act on their 
decisions and that our policies hold the right people accountable for 
program outcomes. This is particularly relevant to the November 2013 
release of DOD 5000.02 Interim acquisition policy. Upon its release, my 
office promptly engaged our counterparts at Headquarters Air Force and 
the Program Executive Offices to help broadcast the most critical 
changes in guidance and helped reduce uncertainty among stakeholders in 
how the new policy should be implemented. I plan to remain engaged on 
this topic and will pursue opportunities to help shape internal reforms 
within the Air Force and DOD to mitigate encumbering regulations and 
will reexamine the decision processes and metrics applied at each stage 
of the acquisition lifecycle to make sure we have established the most 
effective tools to assess each program's value and affordability.

    8. Senator McCain. Dr. LaPlante, in May 2009, then-Secretary of the 
Air Force Michael B. Donley and then-Chief of Staff of the Air Force 
General Norton Schwartz released the Air Force Acquisition Improvement 
Plan (AIP) to rebuild an ``acquisition culture that delivers products 
and services as promised'' and ``on time''. The plan outlined five 
target areas to realign the Air Force's culture with acquisition ``best 
practices'', including: (1) revitalizing the Air Force acquisition 
workforce; (2) improving requirements generation process; (3) 
instilling budget and financial discipline; (4) improving Air Force 
Major Systems source-selections; and (5) establishing clear lines of 
authority and accountability within acquisition organizations. In your 
view, has the AIP been fully implemented?
    Dr. LaPlante. Yes, it has been implemented and we requested the Air 
Force Audit Agency to validate our implementation (see their report 
F2011-0008-FC3000 29 July 2011). All improvement efforts must be 
continuously sustained and kept in the forefront of our minds to be 
effective over time. The 2012 follow-up review produced more 
recommendations and our assessment was in the areas that were 
applicable and had value, were largely already in work or had been 
completed.
    We have seen improvements in unit price, overall costs and 
performance. Nunn-McCurdy breaches as well as successful protest are 
measurably lower in recent years. Areas to see improvement and 
requiring focus continue to be schedule--particularly during 
development. If confirmed, this will be an area of emphasis.

    9. Senator McCain. Dr. LaPlante, what target areas has the Air 
Force yet to address satisfactorily?
    Dr. LaPlante. The Air Force 2009 AIP implemented 33 initiatives 
across five areas (Revitalize the Acquisition Workforce; Improve 
Requirements; Budget/Financial Discipline; Improve Source Selection; 
Acquisition Organization) and yielded over 170 process improvements. 
Although we have closed out AIP, Air Force Acquisition continues to 
seek improvement opportunities.
    For our workforce, we're creating succession plans for acquisition 
leadership in functional specialties, working to ensure we grow our key 
leaders. We continue improving the qualifications and proficiency of 
the Acquisition workforce by concentrating on the development of 
practical application skills, qualifications, and business and 
technical acumen necessary to successfully execute the mission. At the 
same time, we're concentrating on growing and strengthening our systems 
engineering workforce with the right technical expertise needed to 
perform early systems engineering analysis.
    We continue to work on decreasing the length of time to field major 
systems to the warfighter to reduce the years that it is currently 
taking from the original projection to deliver capabilities. 
Specifically, development programs take too long. Using an incremental 
acquisition approach (e.g. block) can help improve program performance. 
This approach is premised on knowledge-based, incremental development 
that provides increasing degrees of warfighting capability with each 
block.
    An incremental acquisition approach is the preferred strategy that 
provides the most effective balance of technical risk, financial 
resources, and the Air Forces' operational needs. As a result, we're 
implementing procedures and processes to ensure we utilize incremental 
acquisition strategies with technologies that are established and 
mature, while enabling technologies still in development to be injected 
into future increments of the program once they have matured.
    Finally, we continue to work with the requirements community to 
prevent requirements creep, control costs, and scope requirements to 
enable us to more successfully utilize incremental acquisition 
approaches.

    10. Senator McCain. Dr. LaPlante, if you are confirmed, how would 
you ensure that they are addressed?
    Dr. LaPlante. If confirmed, I will address these issues by creating 
actionable initiatives for what I consider to be some of the Air 
Force's biggest challenges in the acquisition arena.
    My first priority is to ensure the Air Force's most critical 
programs stay on track. To do this, we must continually assess 
requirements and their costs throughout the acquisition lifecycle. 
Consequently, I am working with the requirements community to ensure we 
institutionalize the use of cost/capability trades, working to build 
more rigor into the Developmental Planning process, and strengthening 
the oversight and review processes.
    The Air Force must also address Technology Development and maturity 
early in the acquisition process; therefore, I am working with the 
requirements community to ensure we use incremental acquisition 
strategies when appropriate. Further, if confirmed I will focus on 
strengthening the government program offices in gaining access to top 
technical talent to manage and assess technology risk.
    Sound resource execution is another critical focus item that must 
be addressed so we can more effectively stretch the benefit of every 
dollar with which we are entrusted. OSD's Better Buying Power (BBP) 
initiatives are a good set of guiding principles that can help the Air 
Force be effective resource stewards. Our acquisition workforce will 
ensure the BBP 2.0 initiatives are implemented to produce the greatest 
benefit in affordability, should cost, and stronger partnerships with 
the requirements community.

    11. Senator McCain. Dr. LaPlante, particularly in the KC-46A tanker 
replacement program, your predecessor successfully put in place a 
strict change management governance approach that was intended to 
freeze requirements early and ensure that this program did not 
experience requirements creep, and commensurately excessive cost-
growth, during its acquisition lifecycle. Do you believe that the Air 
Force should take a similar approach to other sufficiently similar 
major defense acquisition programs? If so, if confirmed, how would you 
institute such an approach? Or, if not, why not?
    Dr. LaPlante. Yes. If confirmed, I will continue to stress the 
relationship between requirements instability and cost/schedule growth 
and system affordability. The KC-46 change management governance 
approach is an excellent example of the commitment required to guard 
against requirements creep and its deleterious effects.
    As I have started in my current position, I will continue to 
strengthen the role of the CSB as one of the change management 
governance oversight mechanisms that enables the acquisition and 
requirements communities to work in concert to shield programs from 
requirements instability. In my current role, I have already reached 
out to the Vice Chief of Staff of the Air Force and the Deputy Chief of 
Staff of the Air Force for Operations, Plans and Requirements to 
explore methods to more closely link the efforts of the requirements 
and acquisition communities. In order to achieve true requirements 
stability, there must be a strong commitment among all stakeholders. 
This is an area that will yield good acquisition outcomes with proper 
leadership focus.

                     better buying power initiative
    12. Senator McCain. Dr. LaPlante, what is your view of the BBP 
initiative, started by then-USD(AT&L) (later Deputy Secretary) Ash 
Carter and continued by USD(AT&L) Frank Kendall?
    Dr. LaPlante. I strongly endorse AT&L's BBP initiatives, and in my 
currently delegated role of Service Acquisition Executive, I have 
emphasized them in my priorities for the Air Force Acquisition 
Enterprise. The BBP 2.0 initiatives represent a collection of many 
tried and true best practices that DOD acquisition community should be 
implementing consistently. More than anything else, BBP 2.0 is a 
framework to train and teach the acquisition workforce time tested 
methods of acquiring systems and services.
    The BBP initiatives certainly call for a significant cultural 
reawakening in the acquisition workforce which has been taking place 
now for several years. In fact, I have found that there are some BBP 
initiatives that pockets of leaders in the Air Force Acquisition 
Enterprise were executing prior to the initial publication of the AT&L 
BBP initiatives.
    I am pleased with the positive gains the community has made, for 
example, in the implementation of Should Cost initiatives, Cost/
Capabilities Trades, Affordability initiatives and other cost control 
measures. I have witnessed the benefits of BBP initiatives in our major 
acquisition programs, as well as in the Air Force acquisition of 
services. If confirmed, I will continue to implement BBP to the maximum 
extent possible, and I am confident we will continue to see cost 
savings and other efficiency trends in our Air Force acquisition 
programs.

    13. Senator McCain. Dr. LaPlante, in your view, how successfully 
has the Air Force acquisition workforce implemented its tenets?
    Dr. LaPlante. We are actively working on the implementation of the 
BBP initiatives and some efforts are easier to measure effectiveness 
than others, but one concrete example on which we are already seeing 
great returns is the implementation of ``should cost.'' The ``should 
cost'' strategy is aimed at seeking out and eliminating low- and non-
value added aspects of program costs. Managers are then `rewarded' by 
being given the opportunity to utilize those savings, if necessary, as 
additional resources to manage program risk within the baseline 
program, or have the funds returned to the Air Force or OSD for high 
priority needs.
    The Air Force is actively gathering should cost data and reporting 
our successes to OSD. In fiscal year 2013, the Air Force realized $673 
million in should-cost savings. Additionally, in fiscal year 2013, only 
one program requested a ``should cost'' waiver, down from 79 percent of 
programs in fiscal year 2012, which indicates that these initiatives 
are becoming second nature. This is just one example of how the Air 
Force has already accepted and begun to implement BBP.
    OSD's BBP initiatives are positive steps towards achieving 
successful program management and acquisition excellence. If confirmed, 
I will continue to implement BBP to the maximum extent possible, and I 
am confident we will continue to see cost savings and other efficiency 
trends throughout the Air Force.

    14. Senator McCain. Dr. LaPlante, if confirmed, how would you 
ensure its continued implementation?
    Dr. LaPlante. The BBP initiatives are a responsible framework for 
improving our acquisition workforce skills and capabilities. A total of 
16 initiatives have been delegated to the Service Acquisition 
Executives for implementation.
    If confirmed, I will continue to ensure that all Air Force 
acquisition and contracting professionals implement this guidance and 
achieve the levels of success already seen to date. In my current 
position, I have been actively engaged in promoting the concepts behind 
BBP to our workforce through visits to the field and recognition of our 
personnel on individual successes and cost savings. Additionally, the 
Air Force has set policy and guidance on a wide variety of initiatives 
including BBP, and integrated these tenets in all levels of acquisition 
reviews. This active engagement is just the first step towards 
institutionalizing the process and making it the new way of doing 
business.
    If confirmed, I look forward to working with USD(AT&L) to implement 
the initiatives to the maximum extent possible, and will assure that 
the senior executives assigned to implement the initiatives are 
accountable for their implementation successes.

                        contracting negotiators
    15. Senator McCain. Dr. LaPlante, if confirmed, what kinds of 
experience and knowledge would you look for in the individuals who 
negotiate major contracts for the Air Force?
    Dr. LaPlante. I expect any Airman negotiating major Air Force 
contracts to possess the appropriate and significant level of 
professional training, hands-on experience, and requisite knowledge of 
the specific mission area as well as tough negotiating skills. What I 
also look for are individuals who think conceptually and listen 
critically. I expect airmen to possess the acumen, judgment, and 
character of an Air Force Contracting Professional. Above all, I look 
for integrity.

    16. Senator McCain. Dr. LaPlante, do you feel the Air Force has a 
sufficient number of such experts in its acquisition workforce?
    Dr. LaPlante. While I feel that we have many such experts, I cannot 
say that we have a sufficient number of them. Experience takes years to 
build, and while we are actively doing so, retirement eligibility, 
competition with other agencies and competition with industry for such 
experts continues to impact our retention. I am concerned and will 
focus on the mobility of Air Force contracting experts--that is our 
ability to surge our best experts to emerging high priority contracting 
needs. Again, if confirmed this is an area I am committed to improving.

                            program maturity
    17. Senator McCain. Dr. LaPlante, the Government Accountability 
Office (GAO) has consistently reported that the use of insufficiently 
mature technologies has resulted in significant cost and schedule 
growth in the major acquisitions of the Air Force and the other 
military departments. Do you believe that the use of insufficiently 
mature technologies drives up program costs and leads to delays in the 
fielding of major weapons systems?
    Dr. LaPlante. Yes. It is my goal that all Air Force major 
acquisitions achieve a high level of technology maturity by the start 
of system development to ensure a match between resources and 
requirements. Continuing to exercise the well-established Air Force 
Technology Readiness Assessment (TRA) process, which includes an 
independent assessment of critical technologies, will help to ensure 
the necessary resource/requirements match. Understanding and then 
actively managing programmatic and technical risk is foundational for 
successful acquisition.

    18. Senator McCain. Dr. LaPlante, do you believe the Air Force has 
made progress in ensuring the right amount of technology knowledge is 
in place before embarking on major programs?
    Dr. LaPlante. Yes. While the Technology Readiness Assessment (TRA) 
serves to ensure an alignment between resources and requirements prior 
to major program initiation, the TRA by itself does not address systems 
integration and engineering risks. The expertise of a professional 
engineering workforce within the Air Force acquisition community to 
perform early systems engineering analysis is critical before embarking 
on major programs. This workforce can balance the integration of:

    (1)  Overall systems engineering design and process,
    (2)  Concerns for operational mission requirements,
    (3)  The state of current available technologies (Technology 
Readiness Levels (TRL) 8 & 9)
    (4)  Near-term technologies in laboratory development (TRLs 4-6), 
and
    (5)  Increasingly stringent concerns for funding and schedule 
realism.

    Effectively addressing these issues earlier in the program will 
help mitigate cost overruns and schedule delays in future systems. 
Again, the TRA is a successful instrument for measuring knowledge 
points, but it must be augmented by a competent and professional 
workforce.

    19. Senator McCain. Dr. LaPlante, if confirmed, as to major defense 
acquisition programs, what steps would you take to make sure that 
critical technologies have indeed reached an appropriate level of 
maturity before Milestone B approval?
    Dr. LaPlante. If confirmed, I will ensure the Air Force continues 
to apply its well-established Technology Readiness Assessment (TRA) 
process to ensure major defense acquisition programs (MDAPs) meet the 
Section 2366b of title 10, U.S. Code certification requirement that 
program technology be demonstrated in a relevant environment. The 
Deputy assistant Secretary of the Air Force for Science, Technology and 
Engineering facilitates the Air Force TRA process on my behalf and 
ensures that a formal, independent assessment of critical technologies 
has been completed prior to recommending a program proceed to Milestone 
B.

    20. Senator McCain. Dr. LaPlante, the USD(AT&L) has also issued a 
memorandum directing that the largest DOD acquisition programs undergo 
competitive prototyping to ensure technological maturity, reduce 
technical risk, validate designs, reduce cost estimates, evaluate 
manufacturing processes, and refine requirements. Do you support this 
requirement, and if so, why?
    Dr. LaPlante. Yes, I support the USD(AT&L) policy changes to 
implement the Weapon Systems Acquisition Reform Act, which provides for 
early and competitive prototyping as well as other efforts to improve 
the Defense acquisition process. Competitive prototyping, when 
practical and affordable, drives technology maturation early in the 
acquisition, enables effective systems engineering, allows the 
warfighter to see the potential capability demonstrated in an 
operational or relevant environment, and leads to effective maturation 
of technology while minimizing programmatic risk. Wherever appropriate, 
I believe prototyping should be used to directly support initial system 
designs as well as experimentation.

                              cost growth
    21. Senator McCain. Dr. LaPlante, GAO has reported that the use of 
unrealistically optimistic cost and schedule estimates by the Air Force 
and the other military departments is a major contributor to cost 
growth and program failure. Do you believe this is still the case 
within the Air Force?
    Dr. LaPlante. The Air Force has made great progress toward 
improving the accuracy of cost and schedule estimates. In addition, Air 
Force senior decision makers now consider independent cost assessments 
in annual resource programming and budgeting decisions.
    Since the passage of the Weapon Systems Acquisition Reform Act of 
2009, the Air Force continues to improve the quality of cost and 
schedule estimates that form the baselines for our major acquisition 
programs. Independent cost estimates are developed that form the cost 
baseline for all our major acquisition programs. In addition, we are 
more rigorously budgeting to the cost baseline which facilitates 
program stability. New policy guidance and procedures require annual, 
independent cost estimates on all major acquisition programs.
    In my current position, I have stressed how requirements can drive 
cost by evaluating how changing or reducing a requirement, even 
slightly, can have significant cost ramifications.
    We have also addressed improving our cost estimating workforce in 
recent years by working with the Defense Acquisition University to 
improve the cost estimating curriculum required for their Defense 
Acquisition Workforce Improvement Act certification. These actions and 
improvements have resulted in more realistic, objective cost and 
schedule estimates in support of the budget process and acquisition 
decisions.
    The Air Force is committed to improving cost and schedule estimates 
and enhancing program success across all acquisition programs. The Air 
Force closely tracks execution and provides guidance as necessary to 
keep efforts ``on track''. The number of Nunn-McCurdy breaches has 
declined significantly since the mid-2000s (fiscal year 2005-2008 had 
26 breaches over 14 programs). Over the past 3 years, the Air Force has 
had five programs declare a significant or critical Nunn-McCurdy 
breach. Of those, three are no longer MDAP programs (C-27J, C-130AMP, 
and National Polar-orbiting Operational Environmental Satellite System 
(NPOESS)), one was driven by a combination of quantity reductions and 
cost growth (Global Hawk), and one resulted from restoration to MDAP 
status (Evolved Expendable Launch Vehicle (EELV)). This past year, the 
Air Force had no Nunn-McCurdy breaches.

    22. Senator McCain. Dr. LaPlante, what steps would you take to 
ensure that cost and schedule estimates are fair and independent and 
provide a sound basis for Air Force programs?
    Dr. LaPlante. Since the passage of the Weapon Systems Acquisition 
Reform Act of 2009, the Air Force continues to improve the quality of 
its cost and schedule estimates and we are more rigorously budgeting to 
them. New policy guidance and procedures have been adopted that require 
annual, independent cost estimates on all major acquisition programs. 
Additionally, the Air Force routinely develops independent schedule 
assessments on major acquisition programs. This has resulted in more 
realistic, objective cost and schedule estimates in support of the 
budget process and acquisition decisions. Finally, there has been a 
cultural shift to emphasize starting programs where the service is 
fully committed with funding and fit within affordability caps derived 
from realistic budget assumptions.

                   information technology acquisition
    23. Senator McCain. Dr. LaPlante, in your advance policy questions, 
you note that information technology (IT) acquisitions would benefit 
from having a specific appropriations account. Would it be restricted 
only to major defense automated systems? Please explain this concept 
more fully.
    Dr. LaPlante. I was expanding on a specific point that was raised 
in the ``A New Approach for Delivering Information Technology 
Capabilities in the Department of Defense'' report to Congress from 
November 2010. The specific appropriations account was one item in a 
larger response stating that, ``The PPBE system, used to build the 
entire DOD budget, operates on a timeline that is mismatched to the 
fast-paced IT commercial marketplace. It is unreasonable to expect the 
funding process for the entire DOD to be shortened sufficiently to 
respond to the rapid changes of the IT environment, yet PPBE 
flexibility is needed.'' This is an example of one potential action 
that could be taken to provide DOD with more flexibility in procuring 
all IT, not just major automated information systems, while also 
providing more oversight into the resources spent on IT. The report 
stated, ``The funding appropriation would have the flexibility for 
development, procurement, and operations and maintenance to permit 
funding a range of potential IT materiel solutions based on a sound 
business case.'' Additionally, the single IT appropriation would 
contain provisions for performance-based metrics that must be 
established before funds could be obligated and would offer complete 
transparency to ensure accountability to oversight officials. If 
aligned into a portfolio approach, the single IT appropriation would 
allow flexibility when selecting options for developing and procuring a 
new system. Overall, options need to be explored in how to fund IT 
systems and the single IT appropriation is one example of an idea that 
could be implemented to result in faster, more responsive IT.

           family of advanced beyond line-of-sight terminals
    24. Senator McCain. Dr. LaPlante, significant technical challenges 
on the Family of Advanced Beyond Line-of-Sight Terminals (FAB-T) 
program have led to severe schedule delays and cost increases. 
Consequently, after more than a decade since program initiation, 
important nuclear command, control, and communications (NC3) 
capabilities are yet to be delivered and fielded to the warfighter. 
Recently, it has been reported that the Air Force has decided to 
initially move forward with producing only command post terminals (84 
units) and deferring production of terminals designed to be installed 
on strategic bomber aircraft (132 units). Does this reduction in 
production units mean the FAB-T program will breach the Nunn-McCurdy 
critical unit cost increase threshold, or are the bomber aircraft 
terminals still a part of the program?
    Dr. LaPlante. The Department still has a validated FAB-T 
requirement to procure an AEHF capability on the 132 B-2, B-52 and RC-
135 force element platforms, but procurement has been deferred beyond 
the Future Years Defense Program. We have prioritized procuring the 
command post terminals first in order to deliver Presidential and 
National Voice Conferencing by the fiscal year 2019 Initial Operational 
Capability date. I do not foresee the potential for a Nunn-McCurdy unit 
cost breach at this time

    25. Senator McCain. Dr. LaPlante, to what extent is there or should 
there be a Plan B to mitigate risk and help ensure needed capabilities 
are delivered in case the FAB-T program continues to experience delays 
and cost increases?
    Dr. LaPlante. The current Air Force acquisition strategy, approved 
by the USD(AT&L) in 2012, brings an alternate source to the FAB-T 
development, effectively implementing a Plan B. The decision to 
complete development from both sources on firm fixed price contracts 
greatly mitigates the cost, schedule, and performance risks previously 
associated with the program. Further, this plan introduces competition 
into the FAB-T program which is expected to provide better cost 
effective capability then having a single supplier.

    26. Senator McCain. Dr. LaPlante, what assurances can you provide 
that the program is on the right track?
    Dr. LaPlante. I believe programmatic actions taken to date have 
reduced program risk to an acceptable level and support the current 
acquisition strategy. Last year, the Department initiated an updated 
plan for FAB-T with a rigorous risk mitigation process involving 
leadership, stakeholders, and contractors. Based on over 10 years of 
working on the Boeing development contract and recent test activity on 
that program, the government has an in-depth understanding of the 
design and its readiness for production. Currently, Raytheon has three 
other AEHF terminals in production. The FAB-T program is on track to 
select a single source for production of command post terminals in the 
second quarter of fiscal year 2014. I am confident the winning bidder 
will be ready to deliver a system that meets requirements and 
affordability goals. I look forward to working with the USD(AT&L); the 
Air Force Program Executive Officer for Space; and the FAB-T program 
manager to ensure the program is ready for a successful Milestone C 
decision.

                      military space acquisitions
    27. Senator McCain. Dr. LaPlante, since 2006 DOD has funded the 
fixed costs of its supplier under the EELV program under a contract 
line-item known as Launch Capability. This expenditure is in excess of 
$1 billion annually and is executed on a cost-plus basis today. As you 
may know, in a November 2012 Acquisition Decision Memorandum (ADM), 
USD(AT&L) Frank Kendall directed the Air Force to aggressively 
reintroduce competition into the EELV program. In your view, what does 
the aggressive reintroduction of competition into the EELV program 
mean?
    Dr. LaPlante. In my opinion, ``aggressive reintroduction of 
competition'' means taking steps wherever possible to establish a 
competitive environment, even if that competitive environment only 
covers a portion of the mission. Furthermore, it means posturing 
ourselves for increased competition (competition growth) as we move 
forward to 2018. The Air Force is taking steps to do this:

        <bullet> We will compete portions of the launch manifest each 
        year in 2015, 2016, and 2017 if there is even one New Entrant 
        ready to compete; i.e., they have successful launches and have 
        completed the required certification steps
        <bullet> We will work early with declared New Entrants to 
        certify their systems as ready as evidenced by our Cooperative 
        Research and Development Agreement with SpaceX
        <bullet> We will award early integration contracts supporting 
        timely space vehicle integration to meet launch schedules
        <bullet> We have added government team resources to assure 
        timely review of certification products, data and other 
        supporting information throughout the certification process

    The Air Force is committed to competition within the EELV program 
and is aggressively taking steps to do so while ensuring its 
responsibilities to deploy National Security Space payloads into their 
orbits safely and with acceptable risk.

    28. Senator McCain. Dr. LaPlante, if you are confirmed, how would 
you ensure that this directive is implemented in that program?
    Dr. LaPlante. I will continue to work closely with the USD(AT&L), 
and the Program Executive Officer for Space to introduce competition 
into the EELV program. In my current role, I recently met with the 
USD(AT&L) to discuss the status of the program and will continue to 
provide him additional information on the competitive request for 
proposal later this spring. We will continue those actions I previously 
described toward strengthening the competitive environment for launch.

    29. Senator McCain. Dr. LaPlante, given that the recently revised 
National Space Transportation Policy removed the previous policy that 
the Secretary of Defense fund the fixed costs of its launch provider, 
what actions does the Air Force plan to take to phase-out this Launch 
Capability contract line item, reduce the complexity of the existing 
contract structure, and establish a level playing field for all 
potential offers of national security space launch?
    Dr. LaPlante. The Air Force reduced the complexity of the EELV 
contract for the current economic order quantity commitment through 
consolidation of the entire effort into a single contract. In 
accordance with the recently revised National Space Transportation 
Policy, we ensured the new EELV contract only pays for the capability 
to launch the 36-core buy and the previously purchased cores that 
haven't yet launched. We are currently working on the strategy for the 
next phase of the EELV-class program which will start in fiscal year 
2018 with procurement of launch services for satellite launch 
requirements starting in fiscal year 2020. As part of this strategy, 
the Air Force does not intend the future contract to contain a contract 
line item structure similar to the one currently in place. The approach 
for this next phase will balance mission assurance with cost and 
satellite requirements within a full-and-open competition environment 
for certified providers

    30. Senator McCain. Dr. LaPlante, what additional steps, if any, 
would you take in this regard, if you are confirmed?
    Dr. LaPlante. If confirmed, I will continue to work with potential 
competitors to understand their concerns and ensure we comply with 
National Policy, Federal Acquisition Regulation, and Department of 
Defense (DOD) requirements.

    31. Senator McCain. Dr. LaPlante, what do you see as the main 
challenges to achieving full-and-open competition in the EELV program?
    Dr. LaPlante. I see three main categories of challenges to 
achieving full-and-open competition:
    First, industry developments. To have full-and-open competition you 
must have competitors. While New Entrants, especially SpaceX, have made 
great strides in developing their launch systems, we still do not have 
any other provider capable of doing the entire mission required to be 
executed by the United Launch Alliance today. The new entrants have a 
lot of work ahead of them and I will be watching their progress with 
great interest and enthusiasm.
    Second, mission assurance. We have had a tremendously successful 
run in the launch business in great part because of the strong 
engineering disciplines imposed upon our current launch systems. We do 
not want to lower our standards. So we must find an effective way to 
assure quality and mission assurance for New Entrants in a timely and 
affordable way. We are well on our way with SpaceX, but there is much 
work to go as mutually agreed to in our Cooperative Research and 
Development Agreement with them.
    Third, wise purchasing. We will be challenged to establish a fair 
competition that complies with the Federal Acquisition Regulation, 
treats all competitors fairly, aggressively pursues a good deal for the 
U.S. Government, and at the same time postures us for success given 
possible developments in the domestic and international defense and 
commercial launch markets.
    I think our team is up to this challenge, but it is indeed a tough 
job.

    32. Senator McCain. Dr. LaPlante, if confirmed, would you encourage 
a move to full-and-open competition if more than one launch company was 
certified to launch EELV-class payloads? If so, how so? If not, why 
not?
    Dr. LaPlante. Yes, if confirmed I will continue to encourage a move 
to competitive procurement if more than one company is certified. 
However, this would in the near term be a limited competition versus 
full and open, as it would be limited to the certified competitors. The 
first opportunity for competition is in fiscal years 2015-2017, where a 
limited number of missions are available for competition. I envision a 
competitive procurement for all launches starting in fiscal year 2018 
if more than one provider is certified.

    33. Senator McCain. Dr. LaPlante, as to military space procurement 
generally, do you see a need for any changes/modifications to DOD's or 
the Air Force's current acquisition policies? If so, what areas might 
be appropriate for change, and why?
    Dr. LaPlante. The USD(AT&L) recently released a revision to the DOD 
instruction (known as DODI 5000.02) that governs the defense 
acquisition system. I am still reviewing the instruction and how it 
specifically addresses military space procurement. Overall, I agree 
with its objectives that emphasize thoughtful program planning; 
tailored program structures and procedures that account for unique 
program circumstances, such as high-cost first article acquisitions 
like space programs; and program management responsibility. I see an 
opportunity under the new revision to implement changes to oversight 
and program structure of our space programs such as improved cost 
management and incentives. I think there are some excellent 
opportunities to drive down the cost of commercial satellite 
communications services through investment versus leases, and we 
continue to work with AT&L to identify the specific policy changes that 
might be required to implement these approaches. If confirmed, I look 
forward to working with the USD(AT&L) on continuing to streamline and 
improve the defense acquisition system.

    34. Senator McCain. Dr. LaPlante, the Air Force has only recently 
taken significant steps to gain insight into contractors and their 
costs for major space and other programs. These efforts have benefitted 
the Air Force, helping to lower prices for space launch services and 
key satellites. If confirmed, what would you do to ensure the Air Force 
continues and strengthens these efforts?
    Dr. LaPlante. If confirmed, I will continue to implement USD(AT&L) 
BBP initiatives to the greatest extent possible. We continue to make 
excellent progress reducing and eliminating non-value added costs 
especially through our ``should cost'' efforts. The ``should cost'' 
concept enables us to understand a system's cost elements in great 
depth, and then, through prudent, cost-benefit based considerations of 
the associated risks, implement measures that eliminate or reduce non-
value added costs. As an example, effective ``should cost'' management, 
along with other affordability initiatives made possible by good 
collaboration between DOD and Congress, enabled over $1.6 billion of 
savings over buying the vehicles separately for the procurement of the 
fifth and sixth Advanced Extremely High Frequency production 
satellites. In addition, we must continue to grow the quality of our 
workforce to ensure personnel in key positions have the right knowledge 
and experience to ``own the technical baseline'' and drive these BBP 
initiatives.
    Additionally, the complexity and high-unit cost of space systems 
creates a strong imperative for a high level of insight into our 
program costs. We learned this in EELV where the commercial nature of 
the original program did not provide such insight. So, as the market 
contracted and costs rose we did not have the data we needed. As you 
noted, we corrected that problem in EELV and have learned that lesson. 
I will apply these hard-learned lessons by continuing to ensure we have 
cost visibility into our expensive launch and space programs

    35. Senator McCain. Dr. LaPlante, we know that several prime space 
contractors have likewise taken actions to increase efficiencies and 
streamline operations. This is a welcome trend--but not without risk. 
How is the Air Force staying abreast of these changes and assuring that 
key areas of expertise are not being lost or that technical risks are 
not significantly increased?
    Dr. LaPlante. I believe our understanding of and collaboration with 
the network of suppliers that provide space products and services to 
the Air Force will help us manage these risks. If confirmed, I will 
continue to support initiatives that accomplish this, such as the DOD's 
sector-by-sector, tier-by-tier (S2T2) activity and the numerous 
government-industry forums, councils, and committees the Air Force 
participates in along with the National Reconnaissance Office and the 
National Aeronautics and Space Administration.
    In addition, I believe we must continue our efforts to recruit, 
retain and develop a world-class acquisition workforce to ensure 
technical risks, regardless of origin, are properly managed. In my 
current role, I've been pleased with the quality of our acquisition 
workforce and their ability to manage space acquisition programs. 
However, we must maintain a constant focus on growing our expertise to 
ensure implementation of efficiency initiatives and streamlining does 
not incur undue programmatic risk.

    36. Senator McCain. Dr. LaPlante, fixed-price contracts are a 
preferred approach for satellites that are in the production phase. 
Yet, for the past decade, the Air Force has maintained an acquisition 
workforce that is accustomed to working in a cost-plus environment as 
it recapitalized the majority of its space portfolio. If confirmed, how 
would you ensure that the Air Force adjusts within this environment to 
more extensively use fixed-price contracts, where their use is, in 
fact, warranted and appropriate?
    Dr. LaPlante. If confirmed, I will continue to support fixed-price 
contracting where appropriate. In order to do this more extensively, I 
will work closely with the Program Executive Officer for Space to 
assess and adjust training and development opportunities for the space 
acquisition workforce that continue to grow the necessary skills to 
effectively implement fixed-price contracting approaches. We have begun 
to manage one of our major satellites under a fixed-price contract and 
are in the process of transitioning a second and preparing a third. I 
am fully utilizing this opportunity to evolve the space acquisition 
workforce to operate efficiently and effectively in a fixed-price 
environment.

    37. Senator McCain. Dr. LaPlante, in your view, how will the Air 
Force's oversight and insight into space programs change in a fixed-
price contract environment?
    Dr. LaPlante. The Air Force is responsible for providing space 
capabilities and must be an informed consumer. To accomplish this task, 
we will continue to provide oversight to space programs and require 
insight into contractor execution. When doing this, we must only 
implement fixed-price contracts where appropriate; and even when 
contracts are fixed-price, we must continue to closely monitor cost and 
schedule performance, demand in-progress testing and thorough 
evaluation of test results while at the same time enforce our mission 
assurance engineering disciplines on our space system development 
efforts. I anticipate fixed-price contracts for mature, lower-risk 
acquisitions to reduce costs in government oversight and contract 
execution. For example, the Wideband Global Satcom (WGS) program is an 
example of a mature, low-risk acquisition where we were able to 
substantiate the cost data and use a firm-fixed price contract. The 
risks with providing capability to the warfighter are low and there are 
other, available commercial options that provide similar capability. 
These factors allowed the Air Force to successfully leverage a 
commercial business model to yield efficiencies. In other cases, fixed-
price contracts for higher risk, more complex acquisitions with unique 
mission requirements may require a higher level of government focus. 
For instance, the FPIF contract for AEHF 5/6 still requires significant 
government oversight to manage the higher risks associated with Nuclear 
Command, Control and Communications requirements and where substitute 
options are unavailable on the commercial market. These two programs 
highlight our ability to continue to provide oversight and leverage 
efficiencies from fixed-price contracts while maintaining focus on 
mission assurance and system activities.

    38. Senator McCain. Dr. LaPlante, how will the size and composition 
of the Air Force's acquisition workforce change in light of these 
changes?
    Dr. LaPlante. When considering fixed-price contracting for our 
space systems, there are several factors that influence the size and 
composition of the space acquisition workforce that need to be 
evaluated. Some of the factors include different oversight requirements 
based on contract risks, cost savings or cost/risk avoidance functions 
such as ``should-cost'' analyses, and the development of more resilient 
architectures. We have been able to reduce workforce requirements for 
WGS by focusing on higher level oversight of cost, schedule, and 
performance. This has allowed us to realign that workforce to higher 
risk acquisitions that are critical to develop more affordable and 
resilient space systems architectures. If confirmed, I will work with 
the Program Executive Officer for Space to evaluate the size and 
composition of the space acquisition workforce to ensure that we are 
able to efficiently and effectively complete our missions.

    39. Senator McCain. Dr. LaPlante, many government groups have 
pointed out problems in the synchronization of space systems' 
development, such as ground control systems not being ready when 
satellites are launched, or user equipment not being available for the 
warfighter when advanced signals and information are being produced by 
satellites. In some cases, the gap between the availability of a 
satellite and its user equipment has added up to a delay of many years. 
What are some options you think will help to reduce these problems and 
improve coordination on space systems Government-wide?
    Dr. LaPlante. I believe we must continue to improve the way we 
manage the space enterprise and our acquisition processes to field 
capabilities that are complete and useful to the warfighter. Although 
we coordinate all of our capability fielding plans with the combatant 
commands, budgetary limitations and instability often force changes to 
these plans that can push a system's synchronization to a less optimal 
state. We can help mitigate these concerns by ensuring our space 
systems are affordable, and where practical, commit to longer-term 
plans that stabilize capability delivery. Additionally, we must 
continue to communicate and collaborate across the separate acquisition 
programs that make up an end-to-end space capability.

    40. Senator McCain. Dr. LaPlante, do you believe this problem is 
rooted in a lack of focused leadership for space systems? If so, how 
would you address this issue if confirmed?
    Dr. LaPlante. I don't believe this problem is rooted in a lack of 
focused leadership for space systems. I understand that the Air Force's 
Space Launch Broad Area Review (BAR) in 1999 and later, the 
congressionally-directed Space Commission in 2000 took a hard look at 
how space activities should be managed. The Air Force adopted many of 
the BAR and Commission's key findings, to include assigning Air Force 
Space Command responsibility for providing the resources to execute 
space research, development, acquisition, operations and sustainment 
under one four-star commander. This construct created a strong center 
of advocacy for space systems and resources, and I believe maintains 
the proper level of leadership focus on our space systems.

    41. Senator McCain. Dr. LaPlante, multiple organizations are 
responsible for acquiring satellite communications for DOD, including 
the Air Force, the Defense Information Systems Agency, and the Navy, 
among others. Additionally, each Military Service is responsible for 
acquiring satellite communications terminals. To what extent should 
there be a single acquirer of satellite communications for DOD?
    Dr. LaPlante. As you state, currently the Air Force procures 
wideband and protected military space and ground control segments, 
while the Navy procures narrowband military space and ground control 
segments. Similarly, each individual service procures associated 
terminals that best match their warfighting requirements. Finally, DISA 
leases commercial satellite bandwidth to augment overall Department 
capabilities. I do think the Department can do a better job delivering 
these capabilities in the future. A number of ongoing activities, as 
evidenced by the Protected Satellite Communication Services Analysis of 
Alternatives (AoA) and our commercial satellite communication 
pathfinder efforts are underway.
    I don't believe a single acquirer of satellite communications is 
the answer to these problems. Each individual service is best equipped 
to develop and procure terminals that best match their unique needs. 
Similarly, there resides a level of technical expertise within the Air 
Force and Navy focused on wideband and protected, and narrowband 
satellite communications, respectively. While in theory that expertise 
could be consolidated into a single organization, the costs associated 
with consolidation may outweigh the benefits. That said, I believe 
opportunities remain to increase communications, collaboration, and 
integration between the separate organizations to improve the overall 
efficiency, effectiveness, and synchronization of satellite 
communications capabilities.

    42. Senator McCain. Dr. LaPlante, to what extent does DOD have the 
knowledge it needs to determine its short-term to mid-term 
communications bandwidth-needs to enable long-term leases of commercial 
satellite communications bandwidth?
    Dr. LaPlante. To my knowledge, DOD is following a rigorous process 
to improve its knowledge and detailed understanding of its short-, 
medium-, and long-term commercial SATCOM bandwidth requirements. The 
DOD process accounts for the specifics of near-term requirements while 
utilizing a scenario-based process that documents, prioritizes and 
validates requirements for the medium- and long-term periods. This 
information can enable the use of longer-term leases and potential new 
acquisition approaches for more cost-effective methods to provide 
commercial satellite bandwidth to the warfighter.

    43. Senator McCain. Dr. LaPlante, when will acquisition and budget 
decisions need to be made on the way forward for providing space system 
capabilities following the fifth and sixth Space Based Infrared System 
(SBIRS) geosynchronous Earth orbit satellites, and the third and fourth 
highly elliptical orbit sensors, the fifth and sixth Advanced Extremely 
High Frequency (AEHF) satellites, the final two Defense Meteorological 
System (DWSS) program satellites, and the Space Based Space 
Surveillance (SBSS) satellite?
    Dr. LaPlante. The Overhead Persistent Infrared AoA is expected to 
commence in 2014 to inform the way ahead to meet future requirements in 
a cost-effective manner. Currently, we anticipate the AoA's preliminary 
results to inform the fiscal year 2016 President's budget, with the 
final results of the AoA informing the fiscal year 2017 President's 
budget. The acquisition development decision is projected for fiscal 
year 2018.
    We expect the Protected Satellite Communications (SATCOM) Services 
AOA, which will recommend how to best provision for protected military 
SATCOM capabilities beyond the sixth AEHF satellite, to provide 
recommendations in 2014 that will inform the fiscal year 2016 budget 
formulation. Final budget and acquisition decisions will have to be 
made by fiscal year 2017.
    Acquisition and budget decisions are currently being considered 
within the fiscal year 2015 budget process for the Weather System 
Follow-on (WSF) effort. These decisions are being informed by the 
Space-Based Environmental Monitoring (SBEM) AOA, which included an 
assessment of the SBEM capabilities provided by the Defense 
Meteorological Satellite Program (DMSP), as well as civil and 
international SBEM partners.
    The SBSS Block 10 system is the Air Force's only dedicated, 
operational space-based space situational awareness asset. Providing 
over 28 percent of all deep space collects in the space surveillance 
network and delivering vital mission data products to the warfighter, 
it is a cornerstone capability for deep-space Space Situational 
Awareness. In order to mitigate a critical capability gap post-SBSS 
Block 10 end of life (September 2017), acquisition and budget decisions 
are currently being considered within the fiscal year 2015 budget 
process.

    44. Senator McCain. Dr. LaPlante, what are the primary schedule-
drivers for making these decisions?
    Dr. LaPlante. For SBIRS, the primary schedule drivers for making 
these decisions are the predicted replenishment windows to avoid 
critical capability gaps to our warfighters and leadership. We also 
incorporate the acquisition, budgeting, and other process timelines to 
determine when decisions must be made.
    For AEHF, current functional availability analysis indicates 
replenishment for a four satellite AEHF constellation needs to start in 
fiscal year 2027. As such, we need to make a decision no later than 
fiscal year 2017. The Protected SATCOM Services AoA and a number of 
ongoing risk reduction activities posture us to start that acquisition 
in time.
    The Air Force's path forward for the next generation weather system 
(follow-on to the Defense Meteorological Satellite Program) will be 
informed by the Space-Based Environmental Monitoring (SBEM) AoA. The 
AoA was recently completed by the Air Force and submitted to OSD CAPE 
for a sufficiency review and to Joint Staff for their review and 
validation process. The AoA evaluated the contribution of DOD, civil, 
and international SBEM systems to fulfill the Joint Requirements 
Oversight Council (JROC)-endorsed capability gaps. This analysis will 
allow DOD to focus on a military solution to fulfill those capability 
gaps. The Air Force is formulating this strategy to inform the fiscal 
year 2015 budget.
    Analyses and risk reduction efforts are underway to inform future 
decisions regarding timely space situational awareness of the 
geosynchronous regime. Many of these efforts should complete within the 
next 1 to 2 years.

    45. Senator McCain. Dr. LaPlante, do you believe that the Air Force 
should pursue a more disaggregated approach to the architectures for 
its space systems, such as fielding more numerous but simpler and 
smaller satellites or hosting payloads on commercial satellites? Why or 
why not?
    Dr. LaPlante. Disaggregation is a concept that may offer advantages 
in areas of resiliency and affordability in certain situations; 
however, it is premature to embark on such a sweeping architectural 
solution to established mission areas without further rigorous study 
and analysis. I do believe that the Air Force should consider 
disaggregated approaches when determining how to best meet the mission 
needs, especially in a fiscally constrained environment. We expect the 
ongoing Protected SATCOM Services and soon-to-be Overhead Persistent 
Infrared systems AoA will examine disaggregated and other architectures 
in detail to inform the best approach to address requirements in the 
future. Furthermore, the Air Force and the National Security Space 
community have enacted requirements for protection as key performance 
parameters on all future space systems, with space situational 
awareness being a key architectural design consideration enabling our 
Nation's National Security Space (NSS) systems to operate in a 
contested space environment. There is no ``silver bullet'' that applies 
to all situations; the right answer will possibly be a mix of 
disaggregation, hosted payloads, in situ Space Situational Awareness, 
commercial services, and simpler satellites architected across the 
entire NSS enterprise.

    46. Senator McCain. Dr. LaPlante, if you agree that the Air Force 
should take such an approach, how would you ensure that it does, if 
confirmed?
    Dr. LaPlante. The question of whether a disaggregated approach is 
the best approach to meet a particular need should be addressed during 
the materiel solution analysis phase of an acquisition program, prior 
to Milestone A. The Analyses of Alternative in particular should 
consider disaggregated architectures. As the Service Acquisition 
Executive, I can personally ensure that disaggregated approaches will 
be considered during my review at this Milestone.

    47. Senator McCain. Dr. LaPlante, considering DOD's interest in 
disaggregated space systems, what efforts do you believe are needed in 
the launch area to develop domestic launch capabilities that are 
appropriately responsive and inexpensive in order to make 
disaggregation of national security space systems effective?
    Dr. LaPlante. Disaggregated space systems could mean smaller 
satellites which could eliminate the need for larger boosters. The 
larger boosters are more expensive, take longer to build, and require 
more time on the pad. However, having multiple satellites going to 
similar orbits may mean EELV-class launch vehicles provide the best 
value by launching multiple satellites on the same booster. Regardless 
of the outcome, having additional launch providers on contract through 
the Rocket Systems Launch Program or EELV program will provide more 
options for a variety of system architectures.

    48. Senator McCain. Dr. LaPlante, I understand that the position of 
Air Force Program Executive Officer for Space Launch may be subsumed 
under the Program Executive Officer for Space. Do you believe that this 
change should be made? Please explain your answer.
    Dr. LaPlante. Yes, I believe this change should be made. The 
program needed to get as good at the ``business of launch'' as they 
were at ``day of launch.'' We separated the Program Executive Officer 
(PEO) for Space Launch to achieve cost control and focus on 
implementing a new acquisition strategy that maintains mission success, 
reduces costs, prevents or mitigates cost or redesign impacts to space 
vehicles, and sustains the program to assure access to space. This 
mission was accomplished and with the award of the Launch Vehicle 
Production Services and Capability contract, the program was placed 
back under the Program Executive Officer for Space on December 12, 
2013. This was done in consultation with the Under Secretary of Defense 
for Acquisition, Technology, and Logistics, and the Air Force Space 
Command Commander. The EELV program is well aligned under the Program 
Executive Officer for Space who, as commander of the Space and Missile 
Systems Center, is also the EELV launch certification decision 
authority, as well as the New Entrant certification authority. To 
ensure a smooth transition, several existing members of the former PEO 
for Space Launch team will continue working the program through at 
least fiscal year 2015.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                    air force acquisition priorities
    49. Senator Chambliss. Dr. LaPlante, Air Force Chief of Staff 
General Mark Welsh has made it quite clear the Air Force's top three 
acquisition priorities going forward are the F-35, the KC-46, and the 
LRS-B. He has also recently added a replacement for the aging E-8C 
Joint Surveillance Target Attack Radar System (JSTARS) as another top 
priority. Considering the effects of sequestration, is it realistic to 
believe the Air Force will be able to execute current acquisition plans 
for these major systems?
    Dr. LaPlante. I believe we will be able to execute the current 
acquisition plans for the F-35, KC-46, and LRS-B programs in addition 
to JSTARS. As General Welsh has testified, we must recapitalize the 
aging fleets these capabilities are targeting. The effects of 
sequestration will undoubtedly threaten each of our top priority 
programs and lower priority programs, but the Air Force leadership is 
committed to ensuring the Service makes the required investments to 
execute its core missions against the expected threats in the 2023 and 
beyond timeframe. Budget constraints will make this challenging; 
however, when faced with difficult choices we will favor 
recapitalization over modernization, keeping these important programs 
in the foremost of our priorities. The JSTARS acquisition will take 
advantage of mature technology and more efficient commercial airframes 
to reduce acquisition risk and lifecycle costs.

    50. Senator Chambliss. Dr. LaPlante, how do you intend to continue 
modernizing our Air Force fleet in the face of budget constraints?
    Dr. LaPlante. There are some things we cannot modernize to keep it 
viable against the threat after 5 or 10 years. There are some places we 
have to recapitalize and that is going to take money away from the 
modernization program, which is being hit by sequestration.
    Continuing to modernize the Air Force fleet while living with 
severe budget constraints requires sound resource execution so we can 
more effectively stretch the benefit of every dollar with which we are 
entrusted. Our Secretary of the Air Force has identified as a priority 
the need to ensure our Air Force remains the most capable in the world 
at the lowest possible cost. In this environment of declining resources 
and budget constraints, we must be extremely efficient and effective in 
how we plan to use, and ultimately spend our scarce fiscal resources.
    The Air Force must own the technical baseline for acquisition 
programs. Strong, stable program offices, augmented by experts and 
reach-back to the Laboratories, Federally Funded Research and 
Development Centers and University Affiliated Research Centers are 
required in order for the government to own the technical baseline. 
Furthermore, this process must be institutionalized into the life of 
each program, rather than depending upon our industrial partners to 
manage technical performance, dictate sustainment solutions and shape 
evolutionary technical solutions.
    I want the Air Force acquisition community to design, develop and 
field systems for our Air Force that will be resilient to the 
capabilities of our anticipated peer competitors of 2023 and beyond. To 
do this we must make smart investment decisions and leverage 
experimentation and innovation. To ensure Air Force investment 
solutions and strategies support capabilities that will enable 
effectiveness in the highly contested domains beyond 2023, the Air 
Force must position itself through significant science and technology 
and advance research investments.
    We will continue our heightened focus on the high priority 
programs. I am committed to launching these programs right and keeping 
them on track. The Air Force currently lists F-35, KC-46 Tanker, LRS-B, 
and replacement for aging E-8C JSTARS as our top priorities.

             joint surveillance target attack radar system
    51. Senator Chambliss. Dr. LaPlante, how will the Air Force attempt 
to complete the acquisition of a replacement for JSTARS without 
compromising what has become a critical intelligence, surveillance, and 
reconnaissance (ISR) capability?
    Dr. LaPlante. Although the primary role of JSTARS is Battle 
Management Command and Control, it also provides critical Ground Moving 
Target Indicator data to the ISR Enterprise. If a JSTARS replacement 
program is pursued, the Air Force will continue to maintain and operate 
the E-8C JSTARS fleet, with fewer aircraft in the short term, to 
support mission requirements. As the JSTARS replacement aircraft become 
available, the remaining E-8C legacy fleet will be brought down.

    52. Senator Chambliss. Dr. LaPlante, would the Air Force consider 
standing down legacy aircraft to facilitate paying for new aircraft 
with the savings generated?
    Dr. LaPlante. Yes. Sequestration has created a very constrained 
budget environment for the Air Force, forcing the Service to make some 
very difficult decisions. During his testimony last year before the 
Senate, General Welsh discussed as a result of sequestration impacts we 
have been faced with difficult budget choices. He further stated that 
in those instances we will favor recapitalization over modernization. 
As the Air Force leaders make difficult force structure divestiture 
decisions, they will work to ensure that they are timed such that there 
will not be a loss of important capability for the warfighter.

    53. Senator Chambliss. Dr. LaPlante, what would be the associated 
risk of such a decision?
    Dr. LaPlante. The consideration to stand down legacy aircraft in 
order to facilitate paying for new aircraft with the savings generated, 
would be approached with a balanced risk perspective. Ultimately, the 
Air Force would retain a reduced capability to support combatant 
commanders during the transition period.

    54. Senator Chambliss. Dr. LaPlante, is the Air Force totally 
committed to replacing the JSTARS or might we be looking at another 
round of upgrades, beyond what is already taking place, to the current 
fleet?
    Dr. LaPlante. At this time, the AoA and other supporting analyses 
support replacing the current E-8C JSTARS.

    55. Senator Chambliss. Dr. LaPlante, what would be the impact of an 
Air Force decision to scrap plans to replace the JSTARS in favor of 
further upgrades?
    Dr. LaPlante. Scrapping the JSTARS replacement would commit the Air 
Force to an aircraft that is likely unaffordable in the long term. 
Legacy JSTARS operations and sustainment costs are high and are 
projected to continue to increase. Legacy JSTARS also has a significant 
bow-wave of needed communications and avionics modernization efforts 
within the FYDP, with larger bills for modernization of the radar just 
outside the FYDP. In contrast, recapitalizing the JSTARS fleet will 
provide the AF with a more cost-effective airframe, a modern sensor, 
updated communications, and manned Battle Management. A JSTARS 
replacement ensures affordable dominance of the JSTARS Battle 
Management and Intelligence, Surveillance, and Reconnaissance mission 
areas through the 2040s.

    56. Senator Chambliss. Dr. LaPlante, what level of involvement has/
will combatant commanders and other consumers of J-STAR-provided ISR 
play in planning for the aircraft's ultimate replacement?
    Dr. LaPlante. Combatant commanders' (CCDR) requirements are 
considered throughout the Joint Capability Integration and Development 
Systems (JCIDS) process of developing the requirement and pursuing the 
replacement capability for the E-8C JSTARS. Specifically, the CCDR's 
Operational Plan requirements and Integrated Priorities Lists were 
reviewed and integrated into the overall requirements development 
process. Additionally, CCDRs and the military services (as force 
providers) participate in all Functional Capability Boards and Joint 
Capability Boards to provide input and concurrence on proposed 
Capability Development Documents, Capability Production Documents, and 
Acquisition plans. This coordination ensures awareness and validation 
that proposed solutions will effectively meet operational needs.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                         air force auditability
    57. Senator Ayotte. Dr. LaPlante, Secretary Hagel said that DOD 
needs ``auditable statements . . . to reassure the public, and 
Congress, that we are good stewards of public funds.'' Do you share 
Secretary Hagel's belief that we need auditable statements to ensure 
the Air Force is a good steward of our tax dollars--especially in this 
period of difficult budget cuts?
    Dr. LaPlante. Yes, I share Secretary Hagel's belief that the 
Department needs auditable financial statements and I agree that 
auditable financial statements provide Congress and the American public 
confidence that the Air Force manages the taxpayer's funds in an 
efficient and transparent manner. The current budget environment makes 
this effort even more urgent.

    58. Senator Ayotte. Dr. LaPlante, as required by section 1005 of 
the National Defense Authorization Act (NDAA) for Fiscal Year 2013, do 
you understand that submitting an audit-ready statement of budgetary 
resources by September 30, 2014 is not just a goal, it is the law?
    Dr. LaPlante. Yes. I fully understand that section 1005 of the NDAA 
for Fiscal Year 2013 requires an audit-ready Statement of Budgetary 
Resources. If confirmed, I will actively support DOD and the Secretary 
of the Air Force's continued focus on financial auditability.

    59. Senator Ayotte. Dr. LaPlante, I am concerned that the Air Force 
may not be on track to meet the audit deadlines. Do you share this 
concern?
    Dr. LaPlante. The Air Force is on a well-designed, albeit 
aggressive, path to assert audit readiness by the mandated deadline of 
September 30, 2014. The Air Force plan has been reviewed and integrated 
with the OSD FIAR plan that integrates the entire DOD business 
environment but, it is still not without risk. However, the Air Force 
is seeing successes on the path to audit readiness, to include seven 
favorable opinions with two more assertions currently under 
examination. If confirmed, I will make it a priority to assist in any 
way I can to ensure the Air Force meets these deadlines.

    60. Senator Ayotte. Dr. LaPlante, what are your greatest challenges 
in meeting the audit deadlines?
    Dr. LaPlante. Our biggest challenge will be that the Air Force's 
current 1960s accounting system does not comply with the Federal 
requirement to use the standard government general ledger structure of 
accounts at the detailed, transaction level. The Air Force's ultimate 
solution to this challenge is to field a modern accounting system, the 
DEAMS, as quickly as possible. Recent indications are that the system 
is working pretty well, with dramatic performance improvements in the 
last year. The interim solution for remediation of shortcomings in the 
legacy environment is to use a DFAS-developed data analysis tool that 
sorts and matches data from multiple systems. Furthermore, the Air 
Force continues to collaborate within the Department to share lessons 
learned, establish performance measures, and consolidate efforts where 
applicable. Finally, some of the feeder systems to the financial 
systems being used are acquisition/contract related systems. If 
confirmed, those systems will fall within my purview and I will do 
everything in my power to ensure they are compliant with audit 
requirements.

    61. Senator Ayotte. Dr. LaPlante, how can Congress help the Air 
Force in meeting the audit deadlines?
    Dr. LaPlante. The Air Force is fully committed to meeting the 
requirement of becoming audit ready. The Air Force has consistently 
acknowledged to you that is the 2014 audit deadline required an 
aggressive strategy that is not without risk. We do not consider any 
one achievement or failure on our path to audit readiness as a defining 
action. The Air Force is on an aggressive path towards audit readiness 
and will not relent. Your assistance in implementing a more predictable 
appropriations cycle free from protracted continuing resolutions or 
government shut downs would be most helpful. This would minimize the 
disruption of the government and contractor resources working to make 
the Air Force audit ready.

                                  a-10
    62. Senator Ayotte. Dr. LaPlante, please provide a detailed, 
itemized list of how the Air Force has modernized the A-10 since 
September 11, 2001. The list should clearly delineate the name of the 
modernization investment, how much was spent on the modernization, the 
purpose of the modernization investment, and the current status of the 
modernization investment (e.g. completed or still ongoing). For each of 
these modernization items, where possible, it should be made clear what 
kind of life extension the modernization investment was intended to 
provide. The itemized list should provide the total amount of money 
spent on A-10 modernization since September 11, 2001. The list should 
clearly delineate which modernization programs the Air Force has 
decided to cancel, when this decision was made to cancel the program, 
and what the rationale was for this decision.
    Dr. LaPlante. Since 11 September 2001, the Air Force has invested 
over $2.85 billion in major modernization for the A-10, for enhanced 
capabilities, improved sustainment and life extension.
    Note: Unless noted, program does not contribute to service life 
extension. Programs are listed from oldest to current, and reflect 
funding spent, to date. Estimates provided where actual figures were 
not available within the time constraint.
Completed Programs:
    Program Name: A-10 Service Life Extension Program (SLEP)
    Funding: $786 million, Weapon System Support and National Guard and 
Reserve Equipment Account (NGREA)
    Purpose: To extend service life of legacy wings to 16,000 
Equivalent Flying Hours (EFH) to meet Air Combat Command Required 
Service Life.
    Status: Complete. 2004 wing fatigue test results determined maximum 
life extension of A-10 to 13,000 EFHs, necessitating A-10 Wing 
Replacement Program.
    Life Extension: Extends legacy thin- and thick-skin wings from 
original 8,000 EFH service life to 13,000.

    Program Name: Embedded Global Positioning System/Inertial 
Navigation System
    Funding: $39 million, Investment
    Purpose: To provide enhanced capabilities to pinpoint location of 
aircraft and to improve navigation.
    Status: Complete.

    Program Name: Multi-Function Color Display
    Funding: $30 million (estimated), NGREA
    Purpose: To provide ANG and AF Reserve aircraft with a moving map 
capability ahead of deployment of Precision Engagement.
    Status: Complete.

    Program Name: Propulsion Upgrade Program
    Funding: $29 million, Investment
    Purpose: To provide additional thrust at low and medium altitudes 
to minimize time in high-threat airspace.
    Status: Complete. Efforts limited to RDT&E. Fielding estimated to 
cost >$2 billion; not implemented.

    Program Name: Precision Engagement Program
    Funding: $546 million, Investment
    Purpose: To bring smart munitions, stores management, situational 
awareness and enhanced safety to the A-10. Includes aircrew training-
related devices.
    Status: Complete.

    Program Name: Situational Awareness Data Link
    Funding: $55 million, Investment
    Purpose: To provide pilots with a more detailed situational picture 
of the air battle space.
    Status: Complete.

    Program Name: Aircraft Protection/Countermeasures Systems
    Funding: $98 million, Investment
    Purpose: To provide enhanced aircraft and pilot protection in high-
threat environments. Includes AAR-47, Countermeasures Dispensing and 
Infrared Countermeasures programs.
    Status: Complete.

    Program Name: Single ARC-210 Secure Line-of-Sight/Beyond Line-of-
Sight Radio
    Funding: $85 million, Investment
    Purpose: Upgrades voice radio for secure line of sight and beyond 
line-of-sight communications.
    Status: Complete.

    Program Name: On-Board Oxygen Generating System
    Funding: $9 million, Investment
    Purpose: To provide one Active Duty squadron with a self-contained, 
continuously generating oxygen system.
    Status: Complete.

    Program Name: Second ARC-210 Secure Line-of-Sight/Beyond Line-of-
Sight Radio
    Funding: $11 million, NGREA
    Purpose: To upgrade ANG and AF Reserve aircraft with a second 
secure line-of-sight and beyond line-of-sight (satellite) radio to 
allow near-instantaneous communications with the ground and command and 
control assets/locations.
    Status: Complete.
    Continuing Programs:

    Program Name: Operational Flight Programs (OFP)
    Funding: $307 million, Weapon System Support and Investment
    Purpose: To provide integration of hardware and software-based 
capabilities, as well as to perform Post-Fielding Support (sustainment) 
on the existing aircraft software baseline and maintain a Systems 
Integration Lab.
    Status: Suites 3, 4, 5, 6, 7A, and 7B are fielded. The Secretary of 
the Air Force directed that Suite 8 development be continued through 
fiscal year 2014. An organic Systems Integration Lab will be complete 
in October 2014 at Hill AFB, UT. Post-Fielding Support continues 
indefinitely.

    Program Name: A-10 Wing Replacement Program
    Funding: $695 million, Investment
    Purpose: To procure a replacement wing for the A-10 based on the 
existing thick-skin wing with targeted structural enhancements.
    Status: Installs ongoing through fiscal year 2017.
    Life Extension: Allows aircraft to reach 16,000 EFH Required 
Service Life.

    Program Name: Mode S/5
    Funding: $35 million, Investment
    Purpose: To provide enhanced Identification, Friend or Foe 
capabilities.
    Status: Mode S is complete. Mode 5 software development is ongoing 
with the continuation of Suite 8 in fiscal year 2014. Mode 5 FOC 
mandate is fiscal year 2020.

    Program Name: Helmet-Mounted Cueing System
    Funding: $46 million, Investment and NGREA
    Purpose: To provide off-bore sight cueing, targeting and 
situational awareness to more rapidly engage targets in the battle 
space.
    Status: Installs ongoing through the first quarter of fiscal year 
2015.

    Program Name: Lightweight Airborne Radio System V12
    Funding: $17 million, NGREA
    Purpose: To upgrade ANG and AF Reserve aircraft with an enhanced 
combat search and rescue radio.
    Status: Installs ongoing through the first quarter of fiscal year 
2015.

    Program Name: Turbine Engine Monitoring System/Airborne Data 
Recorder (TEMS/ADR)
    Funding: $11 million, Investment
    Purpose: To upgrade existing TEMS units to provide enhanced engine 
monitoring and reporting, as well as flight parameter reporting to 
assist Aircraft Structural Integrity Program engineers in assessing 
structural health.
    Status: Installs ongoing through fiscal year 2014.

    Program Name: Rapid Innovation Funds
    Funding: $10 million, Investment
    Purpose: Funds multiple, small studies to meet needs/gaps in A-10 
capabilities.
    Status: Ongoing through fiscal year 2014.

    Program Name: Portable Aircraft Test System (PATS)-70
    Funding: $50 million, Investment
    Purpose: To address obsolescence issues with legacy A-10 aircraft 
testers. Combines multiple legacy testers into a single unit to reduce 
logistics footprint and ease maintenance burden. Planning follow-on 
effort via PATS-70A to further consolidate and improve testing 
capabilities.
    Status: Awaiting Milestone C decision with first fielding projected 
in April 2014.

    Program Name: On-Board Oxygen Generating System
    Funding: $4 million (estimated), NGREA
    Purpose: To provide Air Force Reserve aircraft with a self-
contained, continuously generating oxygen system.
    Status: Installs begin in fiscal year 2014.

    Program Name: Aircraft Parking Brake
    Funding: $4 million, NGREA
    Purpose: To provide ANG and Air Force Reserve aircraft with an 
aircraft parking brake.
    Status: Acquisition and source selection ongoing with first 
installs planned in fiscal year 2014.

    Program Name: Covert Overt Lighting Assembly
    Funding: $1.5 million, NGREA
    Purpose: To provide ANG and AF Reserve aircraft with landing lights 
compatible with night vision (covert) and traditional (overt) 
operations.
    Status: Acquisition and source selection ongoing.

    63. Senator Ayotte. Dr. LaPlante, is it true that Air Combat 
Command has issued an official notification to cease Suite 8 
development immediately with the exception of work required to preserve 
and store Suite 8 work to date?
    Dr. LaPlante. The Secretary of the Air Force directed that Suite 8 
development be continued through fiscal year 2014.

    64. Senator Ayotte. Dr. LaPlante, if this is accurate, what impact 
will this have on the ability to conduct future subsystem 
modernization?
    Dr. LaPlante. As previously stated, the Air Force will continue 
development of OFP Suite 8 through fiscal year 2014. Also, in order to 
facilitate integration of required software updates, the Air Force is 
standing up an organic software integration laboratory (SIL). The SIL 
will provide us the ability to make software updates and modifications 
as required.

    65. Senator Ayotte. Dr. LaPlante, the Operational Flight Program 
(OFP) provides the mechanism to drive the central computer and its 
interface with many subsystems. Any updates to existing hardware or 
software within these subsystems require an OFP update. Does this 
decision represent a decision to end all future A-10 modernization 
efforts?
    Dr. LaPlante. As previously stated, the Air Force will continue 
development of OFP Suite 8 through fiscal year 2014.

    66. Senator Ayotte. Dr. LaPlante, do you believe this action 
violates section 143 of the NDAA for fiscal year 2014 that prohibits 
DOD from using any funds to ``prepare to retire'' the A-10?
    Dr. LaPlante. Because the Secretary of the Air Force has directed 
that development of OFP Suite 8 continue through fiscal year 2014, we 
believe this issue to be moot.

    67. Senator Ayotte. Dr. LaPlante, what are the operating costs per 
hour for the A-10, compared to the F-15E, F-16, B-1, AC-130, and B-52?
    Dr. LaPlante. The Operational Cost Per Fly Hour (OCPFH) is a 
historically based metric from the Air Force Total Ownership Cost 
(AFTOC) system that provides visibility into the total cost to operate 
an aircraft during a specific year. The OCPFH is calculated by dividing 
the total operating and sustainment costs (excluding hardware 
modifications) associated with a weapon system by the total flying 
hours flown in the same year. The following represents the fiscal year 
2013 OCPFH (TY$):

A-10.......................................................     $17,398
F-15E......................................................     $37,504
F-16.......................................................     $22,954
B-1........................................................     $54,218
AC-130.....................................................     $37,492
B-52.......................................................     $67,475
 


                     air force acquisition programs
    68. Senator Ayotte. Dr. LaPlante, please provide a list of all 
canceled acquisition category (ACAT) 1, 1A, and 2 Air Force acquisition 
programs since September 11, 2001, in which the Air Force did not end 
up procuring the item. The list should include how much the Air Force 
spent on the program before it was canceled.
    Dr. LaPlante. There are 12 Air Force acquisition programs (5 ACAT 
I, 4 ACAT IA, and 3 ACAT II) since September 11, 2001, in which the Air 
Force did not procure the item.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Amount
                                                    Spend
             Name                Reviewed Status    Prior       Full Name           Type              ACAT
                                                   to Canx
----------------------------------------------------------------------------------------------------------------
AFNet Inc 2...................  Terminated-2013       29.1  Air Force           ..............  IAC
                                 (TY$).                      Intranet
                                                             Increment 2
                                                             (AFNet Inc 2).
AFNet Inc 3...................  Terminated-2013       29.8  Air Force           ..............  IAC
                                 (TY$).                      Intranet
                                                             Increment 3
                                                             (AFNet Inc 3).
BCS-M.........................  Terminated-2009       98.8  Battle Control    MAIS............  IAC
                                 (TY$).                      System--Mobile
                                                             (BCS-M).
ECSS Inc 1....................  Terminated-2012      894.9  Expeditionary     Unbaselined MAIS  IAM
                                 (TY$).                      Combat Support
                                                             System
                                                             Increment 1.
CVLSP.........................  Terminated-2012        6.1  Common Vertical   Pre-MDAP........  IC
                                 (TY$).                      Lift Support
                                                             Platform.
NPOESS........................  Terminated-2012    2,837.6  National Polar-   MDAP............  IC
                                 (BY 2002).                  orbiting
                                                             Operational
                                                             Environmental
                                                             Satellite
                                                             System.
CSAR-X........................  Terminated 2009       33.0  Combat Search     Pre-MDAP........  ID
                                 (TY$).                      and Rescue
                                                             Replacement
                                                             Vehicle (CSAR-
                                                             X).
E-10..........................  Terminated-2007       98.2  E-10 Multi-       MDAP............  ID
                                 (TY$).                      Sensor Command
                                                             and Control
                                                             Aircraft
                                                             Program.
TSAT..........................  Terminated-2009    2,507.4  Transformational  Pre-MDAP........  ID
                                 (TY$).                      Satellite
                                                             Communications
                                                             System.
B-52 EHF......................  Terminated-2013       21.7  B-52 Extremely      ..............  II
                                 (TY$).                      High Frequency.
B-52 SR2......................  Terminated-2013        9.8  B-52 Strategic      ..............  II
                                 (TY$).                      Radar
                                                             Replacement.
GEMS..........................  Terminated-2011      281.3  Ground Element                      II
                                 (TY$).                      Minimum
                                                             Essential
                                                             Emergency
                                                             Communications
                                                             Network (MEECN)
                                                             System.
----------------------------------------------------------------------------------------------------------------


    69. Senator Ayotte. Dr. LaPlante, please provide a list of all ACAT 
1, 1A, and 2 Air Force acquisition programs since September 11, 2001, 
in which the program costs were more than 25 percent greater than 
initial cost estimates. The list should include the initial cost 
estimate, how much the program ended up costing, and the difference 
between the two.
    Dr. LaPlante. Answer: 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                      air force civilian personnel
    70. Senator Ayotte. Dr. LaPlante, how many Air Force civilians does 
the Air Force currently employ? What was this number in 2010, 2011, 
2012, and 2013? What was this number on September 11, 2001?
    Dr. LaPlante. The number of Air Force full-time U.S. (appropriated 
funded) civilians employed by end of fiscal year:

2010.......................................................      139,428
2011.......................................................      147,861
2012.......................................................      143,351
2013.......................................................      141,253
 

    The number of Air Force full-time U.S. civilians employed on 
September 11, 2001 was 140,425.

    71. Senator Ayotte. Dr. LaPlante, how has the total number of Air 
Force civilians changed annually over this period (2010 to present) 
compared to the total number of uniformed Air Force end strength, i.e. 
provide the annual total Air Force civilian number for 2010 to present, 
as well as the same number for uniformed personnel?
    Dr. LaPlante. The data below reflects the inventory of Air Force 
full-time U.S. (appropriated funded) civilians and Active Duty military 
personnel (includes officer, enlisted, and cadets) as of the end of 
each fiscal year.

------------------------------------------------------------------------
                    Fiscal Year                      Civilian   Military
------------------------------------------------------------------------
2010..............................................    139,428    333,113
2011..............................................    147,861    333,243
2012..............................................    143,351    331,880
2013..............................................    141,253    332,320
------------------------------------------------------------------------


    72. Senator Ayotte. Dr. LaPlante, how many Air Force civilians 
serve in each major command?
    Dr. LaPlante. The number of U.S. full-time (appropriated funded) 
civilians at the end of fiscal year 2013 for each major command 
(Excludes Field Operating Agencies, Direct Reporting Units, Air 
National Guard or HQ USAF).

Air Combat Command (ACC)...................................       9,899
Air Education and Training Command (AETC)..................      14,196
Air Force Global Strike Command (AFGSC)....................       2,391
Air Force Materiel Command (AFMC)..........................      59,146
Air Mobility Command (AMC).................................       8,017
Air Force Reserve Command (AFRC)...........................      12,768
Air Force Space Command (AFSPC)............................       7,317
Air Force Special Ops Command (AFSOC)......................       1,518
Pacific Air Forces (PACAF).................................       3,058
U.S. Air Forces Europe (USAFE).............................       1,667
                                                            ------------
  Total....................................................     119,977
 


    73. Senator Ayotte. Dr. LaPlante, how many of these Air Force 
civilians serve in the area of acquisitions?
    Dr. LaPlante. As of September 30, 2013, there were 24,993 Air Force 
civilian personnel serving in acquisition positions throughout the Air 
Force such as program management, contracting, engineering and science, 
product support/life cycle logistics and T&E.

    74. Senator Ayotte. Dr. LaPlante, how many of these civilians serve 
in headquarters elements?
    Dr. LaPlante. As of September 30, 2013, there were 762 Air Force 
civilian personnel serving in management headquarters acquisition 
positions throughout the Air Force.

    75. Senator Ayotte. Dr. LaPlante, how many of these civilians serve 
in Headquarters, Department of the Air Force?
    Dr. LaPlante. As of September 30, 2013, there were 223 Air Force 
civilian personnel serving in Headquarters USAF acquisition positions.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee
                         air force acquisition
    76. Senator Lee. Dr. LaPlante, there have been many reports in the 
press in the past month regarding the cost of the F-35 and efforts of 
both DOD and the contractors to bring these costs down. The program 
manager at Lockheed Martin stated that the cost of an F-35A would be 
around $75 million by 2019. What do you believe needs to be done to 
make these cost projections realistic?
    Dr. LaPlante. The F-35 JPO, in collaboration with the contractors, 
must continue to study and pursue affordability measures that further 
reduce costs. The F-35 JPO has already made significant progress in 
reducing the production cost of the aircraft. Lot over lot, the unit 
cost of the F-35 aircraft continues to come down. As an example, the 
average aircraft unit recurring flyaway decreased 3.2 percent from low 
rate initial production (LRIP) Lots 5 to 6 and 4.7 percent between LRIP 
lots 6 and 7. More work needs to be done and if confirmed I will work 
closely with the Navy SAE and USD(AT&L) to continue reducing the F-35A 
fly-away cost.

    77. Senator Lee. Dr. LaPlante, what do you believe should be done 
to lower not just the acquisition costs of these aircraft but bring 
down the lifecycle costs as well?
    Dr. LaPlante. The F-35 JPO and the contractors are already working 
on ways to lower the lifecycle costs of the program. Some of the 
affordability initiatives being pursued include the stand-up of a Cost 
War Room manned by F-35 JPO, Lockheed Martin, and Pratt & Whitney 
personnel; injecting competition into long-term sustainment based on 
Industry Day discussions (support equipment, global supply chain, 
training center operations); establishing an affordability database 
containing items for evaluation; and exploring contract efficiencies. 
In addition, the F-35 JPO is analyzing other ways to reduce costs such 
as obtaining technical data and data rights where it is cost effective 
to do so; streamlining the supply chain; implementing efficiencies in 
the assembly line; eliminating production scrap, rework, and repair; 
and implementing process improvements.

    78. Senator Lee. Dr. LaPlante, what are your biggest acquisition 
priorities for the Air Force?
    Dr. LaPlante. My five biggest acquisition priorities for the Air 
Force acquisition community are:
    First, continue our heightened focus on the high priority programs. 
I am committed to launching these programs right and keeping them on 
track. The Air Force currently lists F-35, KC-46 Tanker, LRS-B, and 
replacement for aging E-8C JSTARS as our top priorities.
    Second, continuously improve relationships and transparency with 
stakeholders, including the USD(AT&L), Capitol Hill, Industry, and the 
Laboratories. Through regular meetings, briefings, and other 
discussions, I will lead by example, and require our acquisition 
workforce to share the Air Force message with our stakeholders to help 
promote a culture of transparency.
    Third, the Air Force must own the technical baseline for 
acquisition programs. Strong, stable program offices, augmented by 
experts and reach-back to the Laboratories, Federally Funded Research 
and Development Centers and University Affiliated Research Centers are 
required in order for the government to own the technical baseline. 
Furthermore, this process must be institutionalized into the life of 
each program, rather than depending upon our industrial partners to 
manage technical performance, dictate sustainment solutions and shape 
evolutionary technical solutions.
    Fourth, in concert with OSD, I will continue to implement highest 
impact BBP 2.0 initiatives as my fourth acquisition priority. Included 
in this goal are implementing ``should cost,'' building strong 
partnerships with requirements, employing appropriate contract types, 
eliminating unproductive processes and bureaucracy, enforcing open 
system architectures and effectively managing data rights, improving 
the acquisition of Services outside traditional acquisition, ensuring 
technical development is used for true risk reduction, increasing the 
cost consciousness of the workforce, and increasing small business 
roles and opportunities.
    Finally, I want the Air Force acquisition community to design, 
develop and field systems for our Air Force that will be resilient to 
the capabilities of our anticipated peer competitors of 2023 and 
beyond. To do this we must make smart investment decisions and leverage 
experimentation and innovation. To ensure Air Force investment 
solutions and strategies support capabilities that will enable 
effectiveness in the highly contested domains beyond 2023, the Air 
Force must position itself through significant science and technology 
and advance research investments. Our program office personnel must be 
versed in cost and capability tradeoffs and analyses, and dedicated to 
should cost and other efficiency initiatives to generate savings for 
reinvestment. The result will be that all Air Force systems and 
capabilities will be able to operate through degraded conditions, 
including contested environments, and can withstand operational and 
engineered challenges in a variety of environments, including cyber, 
electronic warfare and space.

    79. Senator Lee. Dr. LaPlante, how do you plan to balance the need 
to acquire the best quality equipment while finding areas to save money 
in the budget?
    Dr. LaPlante. I have a commitment to the warfighter to acquire the 
best quality equipment and to the American taxpayers, minimize costs; 
and I plan to balance those priorities. In my current position, I have 
stressed how requirements can drive cost, with the intent of guiding 
the community, to evaluate how changing or reducing a requirement, even 
slightly, can have significant cost ramifications.
    Cost/schedule versus capability trade-off curves are a valuable 
tool in identifying which requirements are key cost drivers and can 
assist in the assessment of which requirements can be reduced. The CSBs 
and the Air Force Requirements Oversight Council (AFROC) provide two 
forums to evaluate requirements priorities and trade-offs, and while 
the AFROC has been essential to this task, I am seeking to increase the 
effectiveness of CSBs in this regard. Finally, the acquisition 
community has demonstrated its commitment to cultivating a strong 
working relationship with the requirements community, and the teamwork 
between acquisitions and requirements will continue to pay dividends as 
we face a challenging future.
                                 ______
                                 
    [The nomination reference of Dr. William A. LaPlante, Jr., 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                   January 6, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    William A. LaPlante, Jr., of Maryland, to be Assistant Secretary of 
the Air Force, vice Sue C. Payton.
                                 ______
                                 
    [The biographical sketch of Dr. William A. LaPlante, Jr., 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
          Biographical Sketch of Dr. William A. LaPlante, Jr.
    Dr. William A. LaPlante, Jr., is the Principal Deputy, Assistant 
Secretary of the Air Force (Acquisition), Washington, DC. He is the 
senior civilian assistant to the Assistant Secretary of the Air Force 
(Acquisition). His duties include providing expert advice and guidance 
on Air Force acquisition programs and procurements. Dr. LaPlante is 
also responsible for development and execution of policies and 
procedures in support of the operation and improvement of the Air 
Force's acquisition system. He oversees an Air Force research and 
development, test, production, and modernization program portfolio of 
over $40 billion annually.
    Dr. LaPlante has more than 28 years of experience in defense 
technology including positions at the MITRE Corporation and the Johns 
Hopkins University Applied Physics Laboratory. He has also served on 
the Defense Science Board (DSB), U.S. Strategic Command (STRATCOM) 
Senior Advisory Group and Naval Research Advisory Committee. He has 
also taught as an adjunct lecturer in the Department of Mechanical 
Engineering at the Catholic University of America.
    Prior to entering public service, Dr. LaPlante was the Missile 
Defense Portfolio Director for the MITRE Corporation. In this role, Dr. 
LaPlante led a technical team providing analytic and system engineering 
expertise across the Missile Defense Agency portfolio of ballistic 
missile defense systems. Previously, he was the Department Head for 
Global Engagement at the Johns Hopkins University Applied Physics 
Laboratory (APL) where he was responsible for all of APL's work 
supporting offensive military capabilities. Dr. LaPlante was a member 
of APL's Executive Council and served on many other Laboratory 
leadership initiatives. His earlier APL work included Associate 
Department Head of the National Security Technology Department and 
Program Area Manager for the Strategic Submarine Security Program.
    Dr. LaPlante has also served on numerous prestigious scientific 
boards. He was appointed to the Defense Science Board in 2010 where he 
co-chaired a study on Enhancing the Adaptability of U.S. Military 
Forces and participated in studies on technology and innovation 
enablers, missile defense, cyber resiliency and contractor logistics. 
Dr. LaPlante chaired a Commander, STRATCOM Strategic Advisory Group 
study on nuclear planning factors and participated in various studies 
sponsored by the National Academy of Sciences, the Naval Research 
Advisory Committee, STRATCOM and the Office of the Secretary of Defense 
(Acquisition, Technology, and Logistics).
Education
    1985 - Bachelor of Science degree in engineering physics, 
University of Illinois
    1988 - Master of Science degree in applied physics, Johns Hopkins 
University
    1998 - Doctorate in mechanical engineering, Catholic University of 
America
Career Chronology
    1985, Began career at Johns Hopkins University Applied Physics 
Laboratory, Laurel, MD
    1993-1998, Chief Scientist and Technical Director for several large 
at-sea submarine security experiments, Johns Hopkins University Applied 
Physics Laboratory, Laurel, MD
    1998-2001, Program Area Manager for the Strategic Submarine (SSBN) 
Security Program, Johns Hopkins University Applied Physics Laboratory, 
Laurel, MD
    2001-2003, Business Area Executive for Undersea Warfare and 
Associate Department Head, National Security Technology Department 
(Undersea Warfare, Homeland Security, and Biomedicine), Johns Hopkins 
University Applied Physics Laboratory, Laurel, MD
    2003-2011, Department Head, Global Engagement Department, Johns 
Hopkins University Applied Physics Laboratory, Laurel, MD
    2011-2013, Missile Defense Portfolio Director, MITRE Corporation, 
Mclean, VA
    2013-present, Principal Deputy Assistant Secretary of the Air Force 
(Acquisition), Washington, DC
Other Achievements
    Defense Science Board Member
    STRATCOM Strategic Advisory Group Member
    Lecturer, Department of Mechanical Engineering, Catholic University 
of America
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate, and certain 
senior military officers as determined by the committee, to 
complete a form that details the biographical, financial and 
other information of the nominee. The form executed by Dr. 
William A. LaPlante, Jr., in connection with his nomination 
follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William Albert LaPlante, Jr.

    2. Position to which nominated:
    Assistant Secretary of the Air Force (Acquisition).

    3. Date of nomination:
    October 30, 2013.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 9, 1963; Philadelphia, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Joanne Marie Hogan.

    7. Names and ages of children:
    Claire LaPlante, 19
    Caroline LaPlante, 14

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Illinois at Urbana-Champaign, 1985, B.S. Engineering 
Physics
    Johns Hopkins University, 1988, M.S. Applied Physics
    Catholic University of America, 1998, Ph.D. Mechanical Engineering

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    May 2013-Present: Principal Deputy Assistant Secretary of the Air 
Force (Acquisition), U.S. Air Force, Pentagon, Washington DC
    May 2011-May 2013: Missile Defense Portfolio Director, MITRE 
Corporation, McLean, VA
    1985-April 2011: Department Head, Global Engagement, Johns Hopkins 
Applied Physics Laboratory, Laurel, MD
    Aug. 1998-May 2013: Lecturer, Department of Mechanical Engineering, 
Catholic University of America, Washington, DC

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, Defense Science Board, 1/2010-5/2013
    Advisor, U.S. Strategic Command Advisory Group, 2005-2013
    Member, National Academies Committee on Distributed Remote Sensors 
for Undersea Warfare, 2005-2007
    Member, Naval Research Advisory Council Committee on Protection of 
Critical Undersea Infrastructure, 2007-2009
    Member, Strategic Systems Steering Task Group, 2003-2011

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None (no positions held with fiduciary or governance 
responsibilities).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member - American Society of Mechanical Engineers

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    None.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    2002 - Journal of Vibration and Control, ``Active Control of 
Vibration and Noise Reduction from Fluid-Loaded Cylinder using Active 
Constrained Layer Damping.''
    2006 - Report of the Defense Science Board, ``Information 
Management for Net Centric Operations.'' Vol. I and II.
    2007 - Committee on Distributed Remote Sensing for Naval Undersea 
Warfare, Naval Studies Board, Division on Engineering and Physical 
Sciences, National Research Council of the National Academies, 
``Distributed Remote Sensing for Naval Undersea Warfare.''
    2009 - Report of the Defense Science Board, ``Time Critical 
Conventional Strike from Strategic Standoff.''
    2010 - Report of the Defense Science Board, ``Enhancing 
Adaptability of U.S. Military Forces.'' Part A and B.
    2011 - Report of the Defense Science Board, ``Science and 
Technology Issues of Early Intercept Ballistic Missile Defense 
Feasibility.''

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Spoke at National Defense Industrial Association (NDIA) Gulf Coast 
Chapter Air Armament Symposium on November 5, 2013. No written speech 
was prepared and no transcript was taken.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                           William A. LaPlante, Jr.
    This 17th day of December, 2013.

    [The nomination of Dr. William A. LaPlante, Jr., was 
reported to the Senate by Chairman Levin on January 28, 2014, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on February 12, 2014.]
                                     



 NOMINATIONS OF HON. ROBERT O. WORK TO BE DEPUTY SECRETARY OF DEFENSE; 
HON. MICHAEL J. McCORD TO BE UNDER SECRETARY OF DEFENSE (COMPTROLLER); 
 MS. CHRISTINE E. WORMUTH TO BE UNDER SECRETARY OF DEFENSE FOR POLICY; 
 MR. BRIAN P. McKEON TO BE PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE 
 FOR POLICY; HON. DAVID B. SHEAR TO BE ASSISTANT SECRETARY OF DEFENSE 
 FOR ASIAN AND PACIFIC SECURITY AFFAIRS; AND MR. ERIC ROSENBACH TO BE 
          ASSISTANT SECRETARY OF DEFENSE FOR HOMELAND DEFENSE

                              ----------                              


                       TUESDAY, FEBRUARY 25, 2014

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:05 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, McCaskill, 
Manchin, Shaheen, Gillibrand, Blumenthal, Donnelly, Kaine, 
King, Inhofe, McCain, Sessions, Wicker, Ayotte, and Fischer.
    Other Senators present: Senators Nunn and Warner.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nominations of Robert Work to be 
Deputy Secretary of Defense; Michael McCord to be Under 
Secretary of Defense, Comptroller; Christine Wormuth to be 
Under Secretary of Defense for Policy; Brian McKeon to be 
Principal Deputy Under Secretary of Defense for Policy; David 
Shear to be Assistant Secretary of Defense for Asian and 
Pacific Security Affairs; and Eric Rosenbach to be Assistant 
Secretary of Defense for Homeland Defense.
    I thank everybody for their understanding of the scheduling 
difficulties that we faced between last week's snowstorm and 
this morning's floor votes and the need to shift the hearing to 
a 9 o'clock start.
    We welcome our nominees and their families. We thank them 
for the support that those families provide to our nominees. 
Our nominees should feel free, during their opening statements, 
to introduce the family members who are here to support them 
today.
    We're also delighted, all of us, to welcome back two dear 
friends and former chairmen of this committee, Senators Nunn 
and Warner. They're here to introduce two of our nominees.
    Senators Nunn and Warner have an extraordinary record of 
public service, including, between the two of them, more than 
50 years of service on this committee. By the way, Senator 
Warner first appeared before this committee 45 years ago, 
almost to the day, for a February 6, 1969, hearing on his 
nomination to the position of Under Secretary of the Navy.
    Now, I'm not exactly sure why our nominees here this 
morning, all stood until the gavel banged. That's never 
happened before. I finally figured it out. It's because 
Senators Warner and Nunn were here. I think it's in your honor, 
not in ours, that we saw our nominees standing here this 
morning. In any rate, we're all delighted to have you back here 
with us.
    Mr. Work is well known to us from his service as Under 
Secretary of the Navy from 2009 to 2013.
    Mr. McCord has spent almost 30 years in service to our 
country, including 5 years as the Department of Defense's (DOD) 
Deputy Comptroller; before that, of course, Mike spent 21 years 
on the staff of this committee, and many of us remember his 
great expertise, his work ethic, and his commitment. They 
qualify him well for this job.
    Ms. Wormuth has served in senior national security 
positions in the executive branch from 1996 to 2002 and from 
2009 to the present; most recently, as Special Assistant to the 
President for Defense Policy and Strategy, and as Deputy Under 
Secretary of Defense for Strategy, Plans, and Force 
Development.
    Mr. McKeon has spent the majority of his 29-year career in 
national security affairs, including 12 years on the 
professional staff of the Senate Foreign Relations Committee, 
and he is currently the Executive Secretary and Chief of Staff 
of the National Security Council.
    Mr. Shear spent his 31-year career in the Foreign Service 
and serves currently as U.S. Ambassador to Vietnam.
    Mr. Rosenbach has held a variety of national security-
related positions in academia and in the private sector, and 
has served our country as an intelligence officer in the Army, 
as a professional staff member of the Senate Select Committee 
on Intelligence, and as the Deputy Assistant Secretary of 
Defense for Cyber Policy.
    The security challenges that we face as a Nation are 
complex, and they're growing. Our nominees are going to be 
asked to help manage them in a time of decreased budgetary 
resources and increased budgetary uncertainty. I believe 
they're all well qualified to do just that.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    I'd echo the same remarks about Senator Warner and Senator 
Nunn. Nice to have you back. You haven't changed a bit, either 
one of you.
    The Director of National Intelligence (DNI) Clapper stated, 
on February 12, ``Looking back over my now more than a half 
century in intelligence, I've not experienced a time when we've 
been beset by more crises and threats around the globe.'' Based 
on what I've seen and heard in many travels over the years, I 
think that's exactly right. Yet, over the last few years, 
massive cuts to our military, our national security, including 
half a trillion dollars cut before sequestration took effect 
have resulted in deep decline in military readiness and 
capabilities.
    We know what's happened to the Navy and the Air Force and 
the Army, in terms of the cuts in end strength. It's something 
that's disturbing. I think, particularly the speech that was 
made yesterday by Secretary Hagel. I'm going to read one of the 
quotes that I wrote down. He said, ``American dominance on the 
seas, in the skies, and in space can no longer be taken for 
granted.'' I never thought I'd see that, but, that was the 
statement. Even though the recent budget deal provides some 
minor sequester relief, our military is still subject to nearly 
$77 billion in sequester cuts in 2014 and 2015. Protecting the 
United States is more than just the resource levels, however. 
Resourcing must directly address the threats that we face using 
an effective and comprehensive strategy. Instead, the President 
and his administration continue to base their strategy and 
justify cutting national security spending on the naive world 
view that, ``the tide of the war is receding'' and ``al Qaeda 
is on the run and on a path to defeat''. If you look across the 
Middle East and northern Africa, we know better than that. Even 
the top intelligence official, Director Clapper, told us, 
during testimony, that al Qaeda isn't on the run and, instead, 
is morphing and franchising. Tragically, this is what happens 
when strategy is driven by hope rather than reality.
    We've talked about this before, and I won't go into any 
detail now, as I was going to, but, in terms of the defense 
acquisition process, making sense of a convoluted and 
cumbersome acquisition process and instituting commonsense 
reforms will be a vital step towards maximizing taxpayer 
dollars and delivering necessary technology, on budget and on 
schedule.
    I'm also deeply concerned about recent headlines that 
depict ethical and leadership failings of some of our military 
leaders. I know firsthand that the vast majority of our 
military cadre are strong and ethical leaders who serve our 
Nation with distinction. However, the failings of some have the 
potential to undermine the service of the rest.
    I expect the Secretary of Defense, the Chairman of the 
Joint Chiefs, and all of the senior officers to renew their 
commitment to integrity and to firmly address failures in a 
transparent manner. If confirmed, the nominees today will be 
responsible for addressing these challenges. I look forward to 
the hearing.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Inhofe.
    We're first going to call on Senator Warner, who's going to 
be introducing the nominee for Deputy Secretary, and then we're 
going to turn over to Senator Nunn to introduce Mr. McCord.
    John Warner, welcome.

  STATEMENT OF HON. JOHN WARNER, FORMER U.S. SENATOR FROM THE 
                       STATE OF VIRGINIA

    Senator Warner. I thank you, Mr. Chairman, distinguished 
ranking member, and colleagues and friends of many, many years. 
It's a special occasion for me, and I thank the chair for his 
thoughtful recollection that 45 years ago I did appear here. 
It's the symbolism of the wonderful Nation that we have and are 
preserving today to give the opportunity to people for public 
service. My Nation has been more than generous to me in that 
opportunity to have public service.
    We're here today, my friend Sam Nunn and I, to introduce 
two individuals, one of whom I associate myself with your 
remarks, even though I haven't read them about Mike McCord. 
[Laughter.]
    Mr. McCord served on our committee 21 years, and did a 
marvelous job, and he's here today with his family.
    Bob Work, I've come to know, because he was, by parallel, 
Under Secretary of the Navy, the position I held under Melvin 
Laird and David Packard. As I reflected last night on the 
Laird-Packard team, Bob Work is much like David Packard. 
Packard founded Hewlett-Packard. Bob Work spent 27 years in the 
U.S. Marine Corps, advancing through all the positions of 
officer. He was number two in his basic class. I hasten to 
mention, I was in the Marine Corps, but I didn't rank number 
two. He was number one in his field artillery class. I went to 
communications school, and again, I was not number one. We have 
one parallel; we both served as Under Secretary. But, his 
career is far more distinguished in uniform than mine. He went 
on to take over positions of his skill, for which he was known 
in the Marine Corps, as an absolute expert analyst, an absolute 
hands-on manager. He carried those learning experiences of the 
Marine Corps right straight through as Under Secretary of the 
Navy.
    There's an old saying in our business, Is this person a 
workhorse or a show horse? I don't know about his showmanship, 
but I do know that Bob Work is a workhorse. He's well known. 
His writings are prolific on the subjects of military, the most 
arcane aspects of our military. He's well known on taking on 
budgets. Given the dramatic announcements by the Secretary of 
Defense yesterday and the goals that the administration has set 
for the Defense Department, Bob Work and, I believe, Mike 
McCord, are the two right individuals to be in partnership with 
Secretary of Defense Hagel and get this job done.
    Gentlemen of the committee and ladies of the committee, I 
thank you for the privilege of appearing this morning. I've 
rarely seen--and I examined the biographic achievement of all 
these nominees--a better qualified group to come before the 
Senate and seek confirmation and to serve in public service. On 
behalf of the men and women of the Armed Forces, I would simply 
say, in the case of Bob Work, that we're very pleased, Bob, 
that you and your lovely wife have reenlisted.
    Thank you very much.
    Chairman Levin. Thank you so much, Senator Warner.
    Senator Nunn.

STATEMENT OF HON. SAM NUNN, FORMER U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Nunn. Thank you very much, Mr. Chairman. Thank you, 
Mr. Chairman, Senator Inhofe, Senator McCain, Senator Reed, 
other members of the committee. I'm delighted and honored to be 
here.
    I associate myself with the remarks of Senator Warner about 
Bob Work, and all of these nominees. I'm here to introduce a 
member of the Senate Armed Services Committee staff, as has 
been mentioned, for 21 years, Mike McCord. I'm very, very proud 
to have a chance to be with Mike and to meet his new bride and 
to see his family, and to be with all the members of the 
committee.
    Being here with Senator Warner does bring back a lot of 
memories. One of those memories that I have so vividly was an 
individual by the name of Ed Braswell. I just received notice 
yesterday that Ed died, in the last couple of days, and I have 
certainly been in touch with his family. But, Ed served this 
committee with distinction as the chief of staff--general 
counsel, we called the leader, back in those days, of the 
staff. It reminded me of Ed's tremendous service to the 
committee and to the Senate and to the Nation, and it also 
reminded me of the work we often take for granted of all of our 
staff people that have done such a tremendous job in the last 
40 years while I followed this committee, and even before that, 
in, basically, putting the security of our Nation first. I 
thank Ed for his service, and certainly, Mr. Chairman, I would 
hope someone would put something in the record about Ed's 
service, because he was indeed a tremendous leader here, a man 
of great, great integrity.
    Senator Warner. May I associate myself with the remarks 
about Ed Braswell? I remember him very well, as we all did. He 
exemplified the type of person that joins the staff of the 
Senate Armed Services Committee. He set the gold standard.
    Senator Nunn. That's exactly right.
    Mr. Chairman, I have a great pleasure of introducing Mike 
McCord today. Mike currently serves as the DOD's Deputy 
Comptroller, a position he's held for approximately 5 years. 
He's fully prepared for his critical role, if he is confirmed, 
as our Nation's Under Secretary of Defense, Comptroller.
    Mike is well-known to the committee, having served 21 years 
here. Mike joined the Senate Armed Services Committee staff 
when I became chairman in 1987. He was recruited by a couple of 
people that I know that Senator McCain and Senator Levin and 
other members of this committee may recall, and that's Arnold 
Punaro and John Hamre. Of course, John went on from a position 
that Mike has been nominated for, as Comptroller, to be the 
Deputy Secretary of Defense, and now Chair of the Center for 
Strategic and International Studies, and he's served our 
country with great distinction.
    Mike, John's path is a pretty good one to follow, there, 
and you're doing it with tremendous skills.
    I believe our Nation is fortunate to have a nominee with 
the experience, the knowledge, and the credibility that Mike 
brings to this position, particularly at a critical time for 
the Department of Defense budget, as you all know.
    First, Mike brings a background and spirit of 
nonpartisanship and a long history of working both sides of the 
aisle. While at this committee, he served more than 10 years in 
the majority and more than 10 years in the minority. He served 
under four chairmen--Senator Thurmond, Senator Warner, Senator 
Levin, and myself. At the Defense Department, he served under 
both political party Secretaries, Bob Gates, Leon Panetta, and 
Chuck Hagel. He's worked in the same nonpartisan fashion over 
the years with both the Budget Committee and the Appropriations 
Committee, two other key committees, where he has built respect 
and goodwill.
    Second point is that Mike has served our Nation for almost 
30 years in a number of critical national security and 
budgetary positions. His career spans from the last years of 
the Cold War through the fall of the Berlin Wall, Operation 
Desert Storm, the post-Cold War drawdowns of the 1990s, Bosnia 
and Kosovo, September 11, as well as our wars in Iraq and 
Afghanistan. Mike has seen buildups, he's seen wars, and he's 
seen drawdowns at the conclusion of wars.
    Mike was a key member of this staff during the turbulent 
years of the post-Cold War period when our budgets--not only 
our budgets, but indeed our strategic views and map of the 
world was rearranged. While here at the Armed Services 
Committee, his oversight responsibilities included defense 
budget matters, oversight of the Department's Quadrennial 
Defense Review, supplemental funding for contingent operations 
and natural disasters, ensuring compliance with discretionary 
and mandatory spending targets, and advising the committee on 
fiscal and budget policy issues.
    During our work together on this committee when I was 
chairman, Mike also exhibited his deep understanding of our 
broader fiscal challenges in his work with me on entitlement, 
spending caps, and budget resolutions over many years. We all 
know the Defense Department's place in the overall budget is 
enormously important, but it gets squeezed in many directions 
because of other matters beyond the Defense Department. Mike's 
knowledge there, I think, will serve his position as 
Comptroller very well.
    In his current role as Deputy Comptroller, Mike provides 
guidance to the Comptroller, the Secretary of Defense, and the 
Deputy Secretary of Defense on all budget, fiscal, and 
financial management matters. He's a member of numerous senior-
level decisionmaking bodies inside the Department on budget, 
program, strategy, financial management, and legislative 
matters.
    In conclusion, Mr. Chairman, with Mike's depth of 
experience and leadership skills, I can't think of anyone who's 
better prepared or equipped to serve our Nation as the 
Department of Defense's Comptroller. The committee wisely 
confirmed Michael McCord several years ago for his current 
position, and I urge you to do so again, and I urge his 
confirmation by the full Senate.
    Thank you.
    Chairman Levin. Thank you so much, Senator Nunn.
    Both you and Senator Warner's words mean, I know, a great 
deal to the nominees and to this committee, and we appreciate 
your being here. We're privileged to be in your presence, as 
always. We look forward to many, many future years of being 
associated with both of you in some way or another.
    Of course, you have busy lives to lead and schedules to 
follow, so you're free to leave, should you deem fit, at any 
time.
    Senator Warner. Mr. Chairman, if I could just add a word 
about Bob Work. I dwelled on the Marine Corps, because of 
personal reasons, with him. But, he went on into the private 
sector to do extensive analytical work, and is now Chief 
Executive Officer of the Center for New American Security. We 
worked very closely together, both when he was Under Secretary 
and in his new position. Again, this man looks into the future 
and is able to make the tough decisions and priorities that are 
facing this Department right now.
    Chairman Levin. Thank you again. Thank you both.
    We're going to be calling on the witnesses, for their 
opening comments and any introductions that they wish to make, 
in the order that they're listed on the notice of this hearing. 
Before that, though, I will ask all of you to answer, at one 
time, the following questions, which are standard questions we 
ask of all our civilian nominees:
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    [All six witnesses answered in the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    [All six witnesses answered in the negative.]
    Will you ensure that your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings?
    [All six witnesses answered in the affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    [All six witnesses answered in the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings?
    [All six witnesses answered in the affirmative.]
    Do you agree, if confirmed, to appear and testify, upon 
request, before this committee?
    [All six witnesses answered in the affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by a duly-constituted committee, or to consult with 
the committee regarding the basis for any good-faith delay or 
denial in providing such documents?
    [All six witnesses answered in the affirmative.]
    Thank you very much.
    First, we will call upon Mr. Work.

  STATEMENT OF HON. ROBERT O. WORK, TO BE DEPUTY SECRETARY OF 
                            DEFENSE

    Mr. Work. Thank you very much, Mr. Chairman.
    Chairman Levin, Ranking Member Inhofe, distinguished 
members of the committee, I'm really honored to appear before 
you today as President Obama's nominee as the Deputy Secretary 
of Defense. I firmly believe there is no higher calling than 
serving one's nation, and I am deeply humbled by the confidence 
that the President and Secretary Hagel have shown in me by 
nominating me for this demanding role.
    Before continuing, I would like to thank several people 
here today. First, I'd like to thank Senator Warner for doing 
me the honor of introducing me, and for his kind remarks, and 
for both Senator Warner and Senator Nunn for everything they 
have done in service of this hallowed institution, as well as 
this great Nation.
    I'd next like to introduce and thank my wife of 35 years, 
Cassandra, and my wonderful daughter, Kendyl, for being by my 
side today and for supporting me as I once again am being 
considered for demanding years in Government service.
    I'd also like to recognize my younger brother, Skip. He 
retired as a Marine Master Sergeant, and I really appreciate 
his presence and support here today, as well as those of my 
colleagues from the Center for a New American Security, some of 
whom actually made it here today. I thank them.
    Finally, I appreciate my five friends and colleagues here 
for joining me on this panel, as well as for volunteering to 
serve 3 more years in the administration, and especially for 
agreeing to answer all of the hard questions that I'm certain 
are surely to come.
    I think the next 3 years are really going to be a period of 
extraordinary challenge and opportunity for the Department of 
Defense. The decision made by the administration, Congress, and 
the Department will impact the capabilities and capacities of 
our Armed Forces far into the future.
    To reach the best decisions, I think all concerned will 
need to address these issues deliberatively, collaboratively, 
and with a spirit of cooperative purpose. For my part, if 
confirmed, I pledge to you, the President, Secretary Hagel, and 
all of the soldiers, sailors, airmen, marines, civilians, 
contractors, and their families, that I will spend every waking 
day doing everything humanly possible to address forthrightly 
the pressing national security challenges that face our 
country, and to improve both the warfighting capabilities and 
health, welfare, and resiliency of our superb total force.
    While so doing, I will continuously strive to improve the 
Department's management, programming, and budgeting processes, 
guided by the principle that fiscal discipline and 
accountability can coexist with prudent discussions on national 
defense without harming national security or threatening 
commitments made to our servicemembers, past and present.
    In closing, if the Senate chooses to confirm me as the next 
Deputy Secretary of Defense, I will make every effort to 
justify your decision, and I vow to work with every Member of 
Congress to maintain what I believe to be the greatest military 
in the world, so help me God.
    Thank you, Mr. Chairman. I look forward to answering the 
committee's questions.
    Chairman Levin. Thank you so much, Mr. Work.
    Mike McCord, welcome back to the committee.

 STATEMENT OF HON. MICHAEL J. McCORD, TO BE UNDER SECRETARY OF 
                     DEFENSE (COMPTROLLER)

    Mr. McCord. Thank you, Mr. Chairman and Senator Inhofe, 
members of the committee.
    I have so much to be thankful for, being here today. First, 
I am grateful to the President for nominating me to this 
important position, and to Secretary Hagel for his confidence 
in me. It's been an honor and a privilege to serve with 
Secretary Hagel and with former Secretaries Gates and Panetta 
over the past 5 years.
    I'm also thankful to the President and the Secretary for 
choosing Bob Work to be our next Deputy, and Christine Wormuth 
to be our Under Secretary for Policy. I've enjoyed a great 
working relationship with both of them over the past several 
years. I have not worked as closely with Brian, Eric, or 
Ambassador Shear yet, but it's a real pleasure to be here with 
them and all our nominees today.
    It's especially meaningful to me to be back here with the 
committee, where I served on the staff for 21 years and had the 
opportunity to learn from the outstanding Senators who have led 
this committee as Chairman and Ranking Member during my time 
here. Mr. Chairman, you, Senator McCain, who joined this 
committee, I notice, the same day I joined the staff, back in 
1987, and our two former chairmen, Senator Warner and Senator 
Nunn. I'm very honored they're here today, and I'm especially 
grateful to Senator Nunn for making the trip all the way here 
and for his kind introduction.
    Chairman Levin, it's an honor to be part of your staff for 
11 years. Although it's too early to start saying goodbye, I 
want to recognize not just what you've done as a Senator, but 
the way you've done it, with the highest standards of 
integrity. I'm always proud to tell people that I worked for 
Sam Nunn and Carl Levin.
    Senator Inhofe, I saw your dedication to our country and 
our military firsthand as chairman and ranking member of the 
Readiness and Management Support Subcommittee, back when I was 
supporting Senators Chuck Robb and Daniel Akaka. It's a 
pleasure to work with you again.
    I also want to recognize my former colleagues on the staff, 
led by Peter Levine and John Bonsell, for the work they do to 
uphold the committee's high standards of bipartisanship and 
dedication, and especially the 52-year winning streak.
    Most importantly, I want to thank my family. First and 
foremost, my wife, Donna--other shoulder. [Laughter.]
    I could not serve without her love and support, and I'm so 
lucky today and every day to have her. My mother, Ann, and 
sister, Cathy, have joined us today. This is their second trip 
from Ohio in 2 weeks for this hearing, and I thank them for 
that. Donna and our daughter-in-law, Kim, and granddaughter, 
Charlotte Rose, are here. Charlotte's in the front row. My 
wife's law partner and friend, Ann Jones. I'm so happy all of 
them are here to share this important day in my life.
    Finally, I want to recognize Bob Hale, who is not here, but 
for the outstanding job he's done as our Comptroller for the 
past 5 years. He's given the job his all, and he's been a great 
friend and mentor to me. The team that Bob and I lead take 
great pride in what we do. Our people work extremely hard to 
ensure the Department accomplishes its missions; in particular, 
meeting the needs of a military at war. These past few years 
have been especially challenging, as we work through the 
longest continuing resolutions in the Department's history, a 
sequester and a shutdown and furloughs, all while supporting 
the demands of our wartime operations.
    Should I be confirmed, I'll continue to lead our 
Comptroller organization as we support our military and our 
Nation. We face many challenges, going forward, in this era of 
dynamic security changes and constrained resources, but I'm 
confident we'll continue to meet those challenges.
    Thank you.
    Chairman Levin. Thank you so much, Mike.
    Charlotte, as a grandfather, I know how important it is to 
your grandpa that you're here today supporting him.
    Ms. Wormuth.

STATEMENT OF MS. CHRISTINE E. WORMUTH, TO BE UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Ms. Wormuth. Thank you, Chairman Levin, Ranking Member 
Inhofe, and members of the committee.
    It's a privilege to appear before you this morning. I very 
much appreciate the opportunity to answer any questions you may 
have regarding my nomination as Under Secretary of Defense for 
Policy.
    I'd like to thank President Obama and Secretary Hagel for 
their support of my nomination. I've had the privilege to serve 
President Obama, former Secretaries Gates and Panetta, and now 
Secretary Hagel, for the past 5 years, and, if the Senate 
chooses to confirm me for this position, I look forward to 
continuing to support the men and women of the U.S. military.
    I began my service in the Office of the Secretary of 
Defense in 1995, and was a member of the career Civil Service 
for 7 years. I grew up professionally in the Office of the 
Secretary of Defense (OSD) Policy, and, over the years in and 
out of government, I've continued to be very impressed with the 
quality of our national security workforce. They're 
hardworking, patriotic individuals who serve with dedication 
alongside their military colleagues. I'm very humbled and 
honored by the opportunity to serve with them as Under 
Secretary, if confirmed.
    I wouldn't be here before you today as someone who's 
pursued a career in international affairs and public service 
without the support and inspiration I've drawn from my mother, 
Deanna Wormuth. I'd also like to thank other members of my 
immediate family, who are such an important part of my life and 
who, in many ways, have made my service in Government possible. 
My sister, Jennifer Wormuth, who's a surgeon in Baltimore, is 
here. My husband, Drew Kuepper, who also works in Government 
and is a retired Navy officer. Finally, I'd like to thank my 
two amazing daughters, Rachel and Madeleine, who keep me 
grounded and remind me every day what matters in life. Thank 
you all for being here today and for being with me every day.
    Senators, we live in a globalized, rapidly changing world 
at a time when the United States faces a number of challenges, 
as Senator Inhofe noted, but there are also opportunities to 
shape a more peaceful world. If confirmed, I would look forward 
to working with you all in Congress, with this committee, in 
particular, and with the executive branch, to advance U.S. 
national security interests in this environment.
    I would support Secretary Hagel in building and sustaining 
strong defense relationships with countries around the world, 
with a goal of preventing crises wherever possible and ensuring 
our military is ready to respond to crisis, if needed.
    I would also make it a priority to provide day-to-day 
leadership and management of the Office of Secretary of Defense 
Policy organization so that it continues to provide excellent 
support to Secretary Hagel and to the President.
    Chairman Levin, Senator Inhofe, members of the committee, 
I'm grateful for your consideration this morning, and I look 
forward to your questions. I will make every effort to live up 
to the confidence that's been placed in me with this 
nomination.
    Thank you very much.
    Chairman Levin. Thank you very much, Ms. Wormuth.
    Mr. McKeon.

STATEMENT OF MR. BRIAN P. McKEON, TO BE PRINCIPAL DEPUTY UNDER 
                SECRETARY OF DEFENSE FOR POLICY

    Mr. McKeon. Mr. Chairman, I've submitted a slightly longer 
statement, for the record, which I will try to abbreviate now.
    Mr. Chairman, Ranking Member Inhofe, members of the 
committee, it's a distinct honor to appear before you as the 
President's nominee to be the Principal Deputy Under Secretary 
of Defense for Policy. I would like to thank the President and 
the Secretary of Defense for their confidence in me in 
selecting me for this position. I would also like to express my 
deep appreciation to the Vice President, for whom I worked for 
nearly 25 years in the Senate and in the White House, and who's 
been a great mentor and friend to me.
    I would not be here today without the strong support of my 
family, particularly my parents and my wife. I owe a great debt 
of gratitude to them, particularly my wife. She spent nearly 25 
years working for five different Senators, so she understands 
and has patiently tolerated the long hours required of working 
in the Senate and in the White House.
    I'm also joined today by my mother-in-law, Hope, and my 
nephew, who shares my name and works here in the Senate for one 
of your colleagues.
    I've been fortunate to spend my professional life working 
in all three branches of the Federal Government. In addition to 
working here in the Senate and the White House, I clerked for a 
Federal judge who was put on the bench by Senator Warner, so I 
should thank him, since he is here, for appointing Judge 
Doumar. It gave me a great opportunity.
    My over 20 years of service in this chamber, and 5 years in 
the executive branch, have given me a strong appreciation for 
the challenges that confront our country, long experience in 
national security policy, and a deep knowledge of how the two 
political branches operate. I believe I have demonstrated an 
ability to manage people as well as complex policy issues to 
get things done and to work well across party lines.
    I also continue to have great respect for the role of 
Congress in national security. The most seminal change in the 
American defense establishment in the last several decades, the 
Goldwater-Nichols Act, would not have occurred without the 
persistence of Congress.
    The debates in this chamber on the Gulf and Balkan wars, in 
significant treaties like the Chemical Weapons Convention and 
the North Atlantic Treaty Organization (NATO) expansion, were 
among the most memorable of my time here. They were also among 
the most important, for, in a democratic society, matters of 
war and peace must be publicly debated and require the informed 
consent of the American people through their representatives 
here in Congress.
    I'm fully aware that not all wisdom resides in the 
executive branch, and I recognize that we will not always 
agree, but we are all motivated by the same commitment to 
protecting the country in our national interests, and I pledge 
that, if confirmed, I will help the Department to maintain a 
regular dialogue with the committee and its well-respected 
professional staff.
    In my time at the White House, I've worked closely with 
many OSD Policy employees, including Ms. Wormuth. Just as the 
ranks of the uniformed military are filled with highly 
dedicated professionals, so too is OSD Policy. These women and 
men have gone through a difficult period in the last year with 
widespread furloughs resulting from sequestration, followed by 
the shutdown of the Government in October. Our Government is 
only as strong as its people, so an important priority, if 
confirmed, will be to focus on our human capital.
    Mr. Chairman, I appreciate the opportunity to appear before 
you today, and I look forward to your questions.
    [The prepared statement of Mr. McKeon follows:]
               Prepared Statement by Mr. Brian P. McKeon
    Mr. Chairman, Ranking Member Inhofe, members of the committee, it 
is a distinct honor to appear before you as the President's nominee to 
be Principal Deputy Under Secretary of Defense for Policy.
    I would like to thank the President and the Secretary of Defense 
for their confidence in me in selecting me for this position. I would 
like also to express my appreciation to the Vice President, for whom I 
worked for nearly 25 years in the Senate and in the White House and who 
has been a great teacher, mentor, and friend. I should also thank 
former National Security Adviser Tom Donilon for giving me the chance 
to serve in my current position on the National Security Council staff, 
and to Susan Rice for keeping me on when she succeeded Mr. Donilon and 
for supporting my possible move to a position in the Department of 
Defense.
    I would not be here today without the strong support of my family, 
particularly my parents and my wife. My father, who hitchhiked from his 
home in New York to Michigan to attend college and paid for his studies 
by working in an auto factory at night--taught me the value of hard 
work, that every day brings new opportunities, and that politics is a 
noble profession. My mother, as much as anyone, drove me to succeed in 
school and to reach my full potential. My wife, who spent nearly 25 
years working in this chamber for five different Senators, has, simply 
put, made me a better person. She has provided unstinting love, 
support, and friendship, while patiently tolerating the long hours 
required of working in the Senate and the White House, for which I am 
deeply grateful.
    Finally, I would like to thank the committee and its staff for 
scheduling this hearing today, so soon after the nomination was 
submitted. I worked on hundreds of nominations in my time on the staff 
of the Committee on Foreign Relations, so I fully appreciate the 
preparatory work required to convene a hearing of this nature.
    I have been fortunate to spend my professional life working in all 
three branches of the Federal Government. My over 20 years of service 
in this chamber and 5 years in the executive branch have given me a 
strong appreciation for the many challenges that confront our country, 
long experience in national security policy, and a deep knowledge of 
how the two political branches operate. I believe I have demonstrated 
an ability to manage people as well complex policy issues, to get 
things done and to work well across party lines.
    I also have great respect for the role of Congress in national 
security. The most seminal change in the American defense establishment 
in the last several decades--the Goldwater-Nichols Act--would not have 
occurred without the initiative and persistence of Congress. The 
debates in this chamber in the 1990s on matters such as the Gulf War, 
the Balkan conflicts, the Chemical Weapons Convention and the expansion 
of the North Atlantic Alliance were among the most memorable of my time 
here, and among the most important, for in a democratic society, 
matters of war and peace must be publicly debated and require the 
informed consent of the American people, through their representatives 
in Congress. I am fully aware that not all wisdom resides in the 
executive branch, and I recognize that we will not always agree. But we 
are all motivated by the same commitment to protecting the country and 
our national interests. I pledge to you that, if confirmed, I will help 
the Department maintain a regular dialogue with the committee and its 
professional staff. Throughout my tenure working in the Senate, this 
committee had a well-deserved reputation for bipartisanship, 
productivity and a strong professional staff, a reputation that 
continues today.
    In my time in the White House, I have worked closely with many 
Office of the Secretary of Defense (OSD) Policy employees. Just as the 
ranks of the uniformed military are filled with highly dedicated 
professionals, so, too, is OSD Policy. The women and men of OSD Policy 
have gone through a difficult period in the last year, with widespread 
furloughs resulting from sequestration, followed by the shutdown of 
most government operations in October. Our Government is only as strong 
as its people, so an important priority, if confirmed, will be to focus 
on our human capital, as did Under Secretaries Flournoy and Miller, so 
that we can continue to recruit and retain talented professionals.
    Mr. Chairman, I appreciate the opportunity to appear before you 
today. I look forward to your questions.

    Chairman Levin. Thank you so much, Mr. McKeon.
    Now Ambassador Shear.

STATEMENT OF HON. DAVID B. SHEAR, TO BE ASSISTANT SECRETARY OF 
         DEFENSE FOR ASIAN AND PACIFIC SECURITY AFFAIRS

    Ambassador Shear. Thank you, Mr. Chairman, Ranking Member 
Inhofe, and members of the committee. I'm honored to appear 
before you today, and I appreciate the opportunity to answer 
questions you may have regarding my nomination to serve as the 
Assistant Secretary of Defense for Asian and Pacific Security 
Affairs.
    I wish to thank the President for nominating me for this 
position and to thank Secretary Hagel for supporting my 
nomination.
    I'd also like to thank my family and friends for their 
strong support. My wife, Barbara, and my daughter, Jennifer, 
could not be with us today, but they're here in spirit.
    I'm joined, instead, by my big brother, George, his wife, 
Diana, and their daughter, Laura. My brother, George, has 
served as an inspiration to me throughout my life, but 
particularly in my youth, when he was a U.S. Navy officer.
    I'd like to thank the soldiers, sailors, airmen, and 
marines with whom I've worked closely throughout my career. 
Their commitment to our Nation is a testament to the continued 
strength of our military traditions. If confirmed, it would be 
an honor for me to help build on those traditions.
    The mission of the Asian and Pacific Security Affairs 
Office is critical to our Nation's security. The Asia-Pacific 
region boasts over half the world's population, half the 
world's gross domestic product, and nearly half the world's 
trade. It presents the United States with profound challenges 
and opportunities. These include the continued fight against 
terrorism, the military and political transition in 
Afghanistan, the rise of China, and the need to strengthen our 
alliances and partnerships.
    The administration has responded to these challenges and 
opportunities in East Asia by implementing the rebalance, a 
whole-of-government approach to strengthening our economic, 
diplomatic, and military positions in the region. If confirmed, 
I hope to help implement the balance as we draw down from 
Afghanistan, support a stable Afghan political transition, and 
continue to fight al Qaeda and other terrorist groups.
    Mr. Chairman, I've worked closely with the military 
throughout my Foreign Service career. I believe my work 
demonstrates that close coordination between the diplomatic 
corps and the military ensures the effective execution of 
national security policy.
    At the Embassy in Tokyo, I worked with U.S. forces to 
strengthen our alliance while adjusting our presence in Japan. 
While serving with the State Department's Office of Korean 
Affairs, I coordinated U.S.-Republic of Korea alliance issues 
with OSD and the Joint Staff. Most recently, as Ambassador to 
Vietnam, I helped to build a new partnership that includes a 
growing security cooperation component, adding both Navy and 
Coast Guard officers to our Defense Attache office. The Pacific 
Command has been a partner throughout my career.
    My assignment as Deputy Chief of Mission in Kuala Lumpur 
and as Ambassador to Vietnam have allowed me to hone my skills 
as a leader and manager of large groups of people in a 
constrained fiscal environment. If confirmed, I look forward to 
working with this committee and the whole of Congress to 
address the national security challenges we face in order to 
keep America safe, secure, and prosperous. I will make every 
effort to live up to the confidence that has been placed in me. 
I'm grateful for your consideration, and I look forward to your 
questions.
    Thank you very much.
    Chairman Levin. Thank you so much, Ambassador.
    Mr. Rosenbach.

 STATEMENT OF MR. ERIC ROSENBACH, TO BE ASSISTANT SECRETARY OF 
                  DEFENSE FOR HOMELAND DEFENSE

    Mr. Rosenbach. Good morning, Mr. Chairman, Ranking Member 
Inhofe. Thank you very much for the privilege of appearing 
before you in the committee today. I appreciate everything that 
you and the other members of the Senate Armed Services 
Committee do to help our military, and I look forward to 
answering your questions about my nomination for Assistant 
Secretary of Defense.
    I'd like to start by thanking my family. First of all, my 
wife, Alexa, and my two kids, Max and Sophia, who are here 
today. Their support and understanding, in particular over the 
last several years when I've been in the Pentagon, has been 
heartwarming and essential to me surviving.
    I'd also like to thank my parents, Bill and Colleen, who 
are here. Without them, I wouldn't be here today. It's their 
love and hard work that got me here.
    I also would like to explicitly thank the service men and 
women of the U.S. military. The last decade has been hard on 
the country, but particularly hard on them and their families. 
We should always remember what they do.
    Mr. Chairman, I've been in and around the military my 
entire life. My father served in Vietnam. I was born--and 
raised--at the U.S. Air Force Academy. I moved to and grew up 
in Gettysburg, and the battlefields there. I served on Active 
Duty in the Army in the military. I'm now working in the 
Pentagon. I can say, with all honesty, I see no higher honor 
than serving as Assistant Secretary of Defense and focusing, in 
particular, on Homeland defense and defending our country and 
working closely with the National Guard, U.S. Northern Command, 
U.S. Cyber Command, and U.S. Strategic Command, in particular.
    If confirmed, I look forward to working with you and your 
staffs, in particular. As a former member of the Senate staff, 
I know that's important. I'll make every effort, if confirmed, 
to live up to your expectations. I look forward to your 
questions.
    Thank you very much.
    Chairman Levin. Thank you very much.
    We're going to have a 7-minute first round of questions. I 
think we're still, with that number of minutes, able to make 
our 11:15 expected cutoff time, since the Senate will begin a 
series of votes at that time.
    Let me start with you, Mr. Work. Secretary Hagel, 
yesterday, previewed the Department's 2015 budget request, 
which is not going to be released in full until a few days from 
now. He included numerous personnel-related proposals that are 
intended to slow the growth of personnel costs. Among those 
proposals are a 1-percent pay raise for most military 
personnel, which is lower than the currently projected 1.8 
percent that would take effect under current law; a pay freeze 
for 1 year for general and flag officers; a reduction in the 
growth of the housing allowance over time to 95 percent of 
housing expenses rather than the 100 percent currently covered; 
a phased-in reduction in the annual direct subsidy provided to 
military commissaries; changes to the TRICARE health program to 
encourage greater use of the most affordable means of care; 
some fee increases for retirees in TRICARE; and, of course, the 
reduction in the Army's Active Duty end strength to 450,000, 
down from the currently planned 490,000.
    Let me ask you, Mr. Work, what is the relationship between 
those proposals and our need to invest in modernization and 
readiness?
    Mr. Work. Thank you, Mr. Chairman.
    This is one of the big issues that I dealt with as the 
Under Secretary of the Navy, and I expect it will be one of the 
issues that I'll deal with, if confirmed, as Deputy Secretary.
    The rate of increase in personnel costs, especially since 
2001, has been far above the rate of inflation. As a result, 
today, by at least all accounts, our servicemembers, men and 
women, are being compensated about 10 percent above their 
average civilian counterpart. I think what Secretary Hagel--and 
Chairman Dempsey--are trying to signal is that we want to 
compensate our men and women for everything that they do for 
their Nation, but we need to slow down the growth of personnel 
compensation so that we can spend more money on readiness and 
modernization. There is a direct link. It's a very, very 
important and difficult issue, but one, if confirmed, I look 
forward to working with the committee and the members of the 
Department on trying to come to the right answer.
    Chairman Levin. Mr. McCord, do you have a comment on that?
    Mr. McCord. Mr. Chairman, I certainly agree with Mr. Work's 
comments. I think the chiefs wrestle with this when we go 
through our budget deliberations in the building, and the 
tradeoff is exactly as you state. They very directly feel it's 
the people who have to train and equip the force for today, as 
well as tomorrow, that there is a direct tradeoff between 
military capability and being able to control our compensation 
costs. I think the Secretary made clear that we are totally 
respecting the work that our warfighters do, we are just trying 
to restrain the growth a little bit. The compensation of our 
military is about a third of our budget; including military and 
civilian, it's about half. We cannot leave that area completely 
untouched. However, as has been the case every year that we 
have made some proposals in this area, they are 
disproportionately small. We are relatively protecting 
compensation, just recognizing the need that we have to make 
some savings there to do what we need to do.
    Chairman Levin. Thank you.
    Mr. Work, the National Commission on the Structure of the 
Air Force has concluded that the Department can and should 
place greater reliance on the Air Reserve components more than 
we have previously planned to do, and that a shift to placing a 
larger portion of the Air Force's capability in the Air Reserve 
component should be made even if we weren't facing these budget 
reductions.
    These are strong positions that were unanimously adopted by 
the Commission, which included a former Secretary of the Air 
Force and a former Under Secretary of the Air Force. I'm 
wondering whether you have been briefed on the Commission's 
report, and, if so, what your reaction is.
    Mr. Work. Mr. Chairman, I haven't been briefed, but I have 
read the report in full, and have digested it.
    In essence, the Commission recommends shifting about 28,000 
Active Duty airmen to the Reserve, primarily in the areas of 
cyber, pilot training, space, and special ops. This would save 
about $2.1 billion a year, and would increase the proportion of 
the Reserve contribution to the U.S. Air Force total force from 
about 35 percent to 42 percent.
    If confirmed, I will work with the Department to try to 
understand whether all of these recommendations could be 
implemented, but the general thrust of the report, that we need 
to take a very close look at, the balance between the Active 
and the Reserve Force, is an important one, and one that I 
wholly endorse.
    Chairman Levin. Mr. Work, last year, Secretary Hagel began 
to implement his plan to reduce the Department of Defense staff 
by 20 percent. Last year's authorization act contains a 
provision requiring the Secretary of Defense to develop a plan 
for streamlining Department of Defense management headquarters 
by reducing the size of staffs, eliminating tiers of 
management, cutting functions that provide little value--or 
little additional value, consolidating overlapping and 
duplicative program offices. The objective is to reduce 
aggregate spending for management headquarters by not less than 
$40 billion, beginning in fiscal year 2015.
    What is your view on reductions to the size and composition 
of the Department's management headquarters?
    Mr. Work. I fully endorse Secretary Hagel's thrust here. We 
have long been focused, in the Department--or when I was the 
Under Secretary, we were long focused on taking overhead and 
taking forces out of what we would refer to as ``tail'' and put 
it into ``tooth'', combat power. This is a first step, I 
believe. The 20-percent reduction that Secretary Hagel has 
ordered, all of the Department staffs as well as the combatant 
commander staffs, is an important first step and will reap 
important savings that we'll be able to plow back into 
capabilities and capacities that our warfighters need.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Ms. Wormuth, thank you for the time we spent together 
yesterday to go over some of these problems that we have.
    I do want to concentrate my questions on the current 
strategy that we have, but, before doing that, just one 
comment, and if it's going to be longer, we can do it for the 
record. Mr. Work, this is addressing the acquisition reform 
problem that we've been talking about for years and years, and 
that you've been close to. Do you have any comments on what 
your ideas are, in the near future, on that type of reform?
    Mr. Work. If confirmed, I look forward to working with 
Under Secretary of Defense Kendall, who is really being 
aggressive in this regard. I think we have to take a look at 
the way we generate requirements. I think all of us realize 
that sometimes we overshoot the mark on requirements, which add 
costs. All of the better business buying approaches that 
Secretary Kendall is asking for, I fully endorse.
    Senator Inhofe. Okay, that's good, Mr. Work. If you don't 
mind, for the record, getting as much detail as you can to give 
us your recommendations as to how to address this type of 
reform.
    Mr. Work. I will do so, sir.
    [The information referred to follows:]

    I understand that the Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)), the Honorable Frank Kendall, 
directed a number of parallel efforts to institute a continuous 
improvement process for the defense acquisition system and I support 
this ongoing effort. Prominent elements include: Better Buying Power 
2.0 initiatives, an interim policy update to the Department of Defense 
Instruction (DODI) 5000.02, ``Operation of the Defense Acquisition 
System,'' a more dynamic coupling of military requirements and defense 
acquisition processes, and a review of current statutes aimed at 
suggesting a comprehensive consolidation and streamlining of 
legislative prescriptions for defense acquisition. If confirmed I will 
review this work, which is described in more detail below, and will 
seek out additional steps to improve defense acquisition.
                          better buying power
    Better Buying Power (BBP) 2.0, which is a second iteration of the 
BBP initiatives that were introduced by Dr. Ashton Carter when he was 
the USD(AT&L), identifies efficiencies and improvements across the 
Defense of Defense (DOD) acquisition system. It focuses Defense-wide 
review of critical process elements ranging from requirements 
generation to system engineering, cost control, and life-cycle 
sustainment. It also addresses professional training and shaping of the 
Defense Acquisition Workforce (DAW). Stimulated by problem 
identification, definition, and resolution, BBP is also a pragmatic 
forum actively pursuing incremental efficiencies solicited from the 
entire DAW. Proposals for improvement are tested and refined before 
implementation into a growing body of acquisition best practices. The 
goal is to deliver better value to the taxpayer and improve the way the 
Department acquires goods and services in support of the warfighter.
    BBP 2.0 consists of 34 initiatives organized into 7 focus areas:

        <bullet> Achieve affordable programs
        <bullet> Control costs throughout the product life cycle
        <bullet> Incentivize productivity and innovation in industry 
        and Government
        <bullet> Eliminate unproductive processes and bureaucracy
        <bullet> Promote effective competition
        <bullet> Upgrade tradecraft in acquisition of services
        <bullet> Improve the professionalism of the total acquisition 
        workforce

    One notable addition is a new focus area on increasing the 
professionalism of DOD's acquisition workforce. BBP 2.0 recognizes that 
people are essential to changing the way DOD provides critical 
capabilities to the warfighters. Within this area, Mr. Kendall is 
introducing four new initiatives: (1) establish higher standards for 
key leadership positions; (2) establish stronger professional 
qualification requirements for all acquisition specialties; (3) 
increase the recognition of excellence in acquisition management; and 
(4) continue to increase the cost consciousness of the acquisition 
workforce by focusing on culture change.
                          dodi 5000.02 update
    Interim DODI 5000.02, ``Operation of the Defense Acquisition 
System,'' provides fundamental guidance for Defense components. This 
interim policy released on November 25, 2013:

        <bullet> Promotes best practices and flexibility to produce 
        improved acquisition outcomes; and
        <bullet> Reflects many of the BBP initiatives to include a 
        substantially increased emphasis on improved business 
        arrangements, program affordability, and what a program 
        ``should cost'' the government, rather than what the 
        expectations are that it ``will cost'' the government if no 
        cost savings initiatives are attempted.

    The product of close collaboration with DOD acquisition, 
requirements, and resource experts, this interim policy includes a 
series of program acquisition models that are tailored to the unique 
characteristics of the product being acquired and to the totality of 
circumstances associated with the program, including operational 
urgency and risk factors.
  dynamic interaction of military requirements and defense acquisition
    In previous years, enhancements to the Defense acquisition process 
resulted in synchronization of requirements documentation at specific 
contractual milestones in product design, development, and production. 
BBP initiatives pursue a more profound integration of requirements and 
acquisition within Services and agencies to promote a dialogue to 
refine needs apace with evolving knowledge of product design and 
limitations.
    Interim DODI 5000.02 adds a checkpoint immediately before the 
Engineering and Manufacturing Development phase to ensure that military 
needs and acquisition activities are fully aligned. This new decision 
point confirms that Requests For Proposals from potential contractors 
are informed by the latest validated requirements of joint military 
needs authority.
    The BBP process also fosters expansion of the use of Configuration 
Steering Boards across the Department to ensure continuous examination 
of requirements, resources, and associated acquisition activities 
within the defense component organizations. This dynamic interaction of 
the principal authorities involved in investment decisions for 
warfighting capabilities aims to deliver affordable solutions by 
focusing on tradespace and increasing knowledge of technology options 
and associated costs.
                       at&l legislative proposal
    The process of updating DODI 5000.02 revealed that the current body 
of laws associated with major system acquisition has placed an 
unnecessarily complex burden upon Program Managers. As a result, 
USD(AT&L) initiated an effort to comprehensively review current 
applicable statutes and regulations and is drafting a legislative 
proposal to simplify the existing body of acquisition law and 
regulations while maintaining the overall intent of existing statutes. 
In a February 2014 Defense News article, Mr. Kendall reaffirmed that 
this initiative ``is not to really change any of the intent behind the 
existing laws, but just to simplify that body of law, make it more 
comprehensible, make it easier to implement and make it something that 
is much more focused on results and not as confusing and complex for 
everybody.''
    Using the interim DODI 5000.02 as a starting point, the proposal 
will focus on areas such as Milestone certification, oversight regime 
overlap, duplicative documentation and reports, and proposed changes to 
the Federal Acquisition Regulation, the DOD FAR Supplement, and service 
supplement. Service program deep dive case studies will highlight key 
areas of interest and provide specific examples of statutory burden.
    Congressional and industry-targeted engagement will also inform the 
effort. In order to ensure coordination and transparency, meetings have 
occurred with Senate and House Armed Services Committees professional 
staff and leadership. These engagements, in addition to industry-
targeted opportunities, will continue.
    The proposal should be finalized in time to be included in the 
National Defense Authorization Act (NDAA) for Fiscal Year 2016; 
however, some elements may be included in the NDAA for Fiscal Year 
2015.

    Senator Inhofe. Ms. Wormuth, you've had these positions 
working very closely with the administration. The President's 
letter, at the front of the January 2012 Defense Strategy 
Guidance, he stated that we have, ``put al Qaeda on a path to 
defeat''. In opening statement, I mentioned other statements 
that he made, ``The tide of war is receding,'' ``We have al 
Qaeda on the run,'' and all of that. But, when we asked the 
Director of National Intelligence, James Clapper, if al Qaeda 
is on the run, on a path to defeat, he answered, ``No, it is 
morphing and franchising.'' General Michael Flynn, who is also 
on the same panel--this was a couple of weeks ago--the Director 
of Defense Intelligence Agency, said, simply, ``They are not.''
    If you look at the chart over here, Ms. Wormuth, this shows 
what they're concerned with, what's happening with al Qaeda. 
Does it look like to you, that they are on the run or these 
statements that are made by the President?
    [The chart referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Ms. Wormuth. Senator, in my view, I would say that we have 
significantly degraded the core of al Qaeda, but I would 
certainly agree with Director Clapper that the broad al Qaeda 
threat has metastasized, and we are very concerned about the 
threat posed by, for example, al Qaeda in the Arabian 
Peninsula, al Qaeda and Associated Movements, and other groups. 
This is, I believe, a significant threat that we, in the 
Department, have to be very, very attentive to.
    Senator Inhofe. You do agree, though, with James Clapper?
    Ms. Wormuth. I agree that the threat has metastasized, yes.
    Senator Inhofe. Yes, okay. All right, that's a good 
question. Metastasized, does that mean it's bigger or smaller?
    Ms. Wormuth. I think it has spread and it's a nodal threat.
    Senator Inhofe. We think al Qaeda--you can follow up on 
that--is spreading. North Korea has the nuclear weapons. We all 
know what's happening out there and the threats that are 
different today than they've ever been in the past. Under the 
current strategy, I don't think that the strategy is working, 
and also, when you hear statements by General Odierno, who 
talks about what is happening with the current strategy, the 
Chief of Naval Operations (CNO), Admiral Greenert, his 
statement saying that we will preclude our ability to execute 
the 2012 Defense Strategic Guidance, both in the near term and 
the long term. The same thing with General Amos. We will have 
fewer forces to provide less trained and arrive later in the 
fight.
    I would say, to all of you, that, with the strategy that I 
think clearly is not working, we would have, maybe, one of two 
choices, to either change the strategy to try to enhance our 
abilities, and that would cost more--that would be more 
resources, or it would be to lower the expectations of the 
American people that we've always had. I will repeat the 
question. I'll ask each one of you if you agree with the 
statement that was made yesterday by Secretary Hagel when he 
took option number two--he said, ``The American dominance on 
the seas, in the skies, and in space can no longer be taken for 
granted.'' Do you agree with that?
    Ms. Wormuth. Senator, I think what Secretary Hagel is 
perhaps getting at there is that we are not taking for granted 
our position in the world, and, in fact, are doing everything 
we can to make sure that we have the capabilities we need and 
the ready forces we need to confront challenges.
    Senator Inhofe. Okay. I don't agree with that. I read this 
thing, that ``can no longer be taken for granted''.
    Anyone else want to comment on that? [No response.]
    Nobody?
    Mr. Work. Sir, there is a broad proliferation of guided 
weapons. The United States has enjoyed a monopoly in guided 
weapons for about 20 years. That monopoly is eroding. When that 
happens, operations in the air and on the surface of the ocean 
and under the surface of the ocean become much more 
challenging.
    I think what Secretary Hagel is saying is, given the 
current trends, we really have to be careful or we will be 
faced with a situation where, when we fight, we could take more 
losses. That's one of the reasons why one of his key themes was 
to maintain technological superiority, and he made such a big 
issue of that in his speech.
    Senator Inhofe. Yes, but I would say that it's the strategy 
that I look at this and I say we're going to have to change, 
because this expectation is there. All the Chiefs that I quoted 
a minute ago, they know that the problems that are out there, 
and they are greater. That means greater risk, which means loss 
of more lives. This is a great concern to me, and I'd like to 
have any of you, for the record, to respond in any more detail 
than you already have, because, to me, it's very simple. When 
he made the statement, he said, ``American dominance of the 
seas, in the skies, and in space can no longer be taken for 
granted.'' I'd like to get that for the record, and I'm not 
really satisfied at the responses we've had.
    [The information referred to follows:]

    Mr. Work. As I said in my testimony, the United States is losing 
the virtual monopoly that it has enjoyed in precision-guided weapons. 
In recent years, a number of adversaries and potential adversaries have 
fielded military systems that can target and strike our ships and 
aircraft, as well as the forward bases from which they operate. Space 
is no longer a sanctuary and increasingly sophisticated adversaries are 
seeking to deny U.S. forces the advantages they currently enjoy in 
space.
    For these reasons, it is essential that our defense program sustain 
investments in the types of capabilities that will be required to 
address these proliferating threats. Priorities for investment, in my 
opinion, include defenses against ballistic and cruise missiles, fifth-
generation combat aircraft, undersea warfare platforms, standoff attack 
weapons, and more resilient systems for intelligence, surveillance, and 
reconnaissance (ISR), communications, and timing and positioning. The 
joint force must also develop new operational concepts for maintaining 
freedom of action in the face of anti-access/area denial threats.
    Mr. McCord. The Department of Defense (DOD) can no longer afford to 
conduct business as usual given the dynamic security and fiscal 
environments we face. DOD has protected its investments in capabilities 
to counter anti-access/area-denial threats as well as those who seek to 
constrain the ability of U.S. forces to operate freely across domains. 
Ensuring we can continue to counter such threats is motivating many of 
the Department's modernization efforts. If the Department does not 
invest in new capabilities and develop new ways of operating, the Joint 
Force likely will face challenges projecting power in the future.
    Ms. Wormuth. Yes. Over the past decade or more we have witnessed 
the proliferation of advanced technologies to a number of states and 
even to non-state actors, including U.S. adversaries. Systems such as 
guided anti-ship weapons, quiet submarines, advanced surface-to-air 
missiles, modern fighter aircraft and air-to-air missiles, long-range 
ballistic and cruise missiles, sensor platforms, and command and 
control systems can be used by adversaries to impede U.S. access to 
theaters of operation, threaten forces at forward bases, and contest 
for control of access to sea and airspace and potentially interfere 
with U.S. operations. For example, China has successfully tested a 
direct-ascent anti-satellite weapon and, along with other countries, is 
developing electronic warfare and laser systems that can interfere with 
the operation of U.S. military satellites.
    As a result, U.S. power projection operations are facing threats 
that we did not encounter in the past. It will take substantial and 
sustained investments in new capabilities, operating concepts, and 
infrastructure to maintain U.S. flexibility and the freedom to operate 
in these areas. The Department is paying close attention to these 
developments and is making needed investments to ensure that U.S. 
forces can operate in non-permissive environments.
    Mr. McKeon. I agree that we cannot assume that adversaries will not 
seek to challenge our dominance in these spheres. Based on the 
trajectory of current trends in the threat environment, if the 
Department does not invest in new capabilities and develop new ways of 
operating, the Joint Force will face challenges projecting power into 
some environments. I understand that the need to counter these threats 
is motivating many of the Department's modernization efforts.
    Mr. Rosenbach. I agree that the United States cannot assume that 
significant U.S. conventional capabilities will go unchallenged in the 
future. The diffusion of advanced technology enables potential 
adversaries--state and non-state actors alike--to try to blunt 
traditional U.S. power projection capabilities. Those seeking to deny 
U.S. forces operational access across the air, maritime, cyber, and 
space domains are growing in sophistication and in number. As a result, 
the Department must prioritize investments in capabilities needed to 
overcome these challenges.
    Mr. Shear. I agree that we cannot take our position in Asia for 
granted and that improving it will require constant effort. Actors in 
the Asia-Pacific region, as elsewhere across the globe, seek to 
constrain the ability of U.S. forces to operate freely across domains. 
For this reason, the Department has been engaging China, strengthening 
our alliances, and seeking new partners. I also understand that the 
Department is doing everything it can to ensure that the United States 
possesses adequate capabilities that can counter anti-access/area-
denial threats.

    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Let me now call on Senator Reed, and also turn the gavel 
over to him for the balance of this morning's hearing.
    Thank you.
    Senator Reed [presiding]. Thank you very much, Mr. 
Chairman.
    Thank you all for your commitment to serve the Nation.
    I first want to recognize Senator Warner and Senator Nunn, 
whose bipartisan, thoughtful, and patriotic leadership has set 
the standard for this committee. Thank you, Senators.
    I also have to commend the people whose shoes you are 
stepping into. Ash Carter, Bob Hale, and Christine Fox have 
done a superb job at the Department of Defense. All of you have 
predecessors who you can be proud of and you can match your 
effort against theirs and they're a good target to aim for.
    The questions we've been debating go toward the heart of a 
fundamental issue. Do budgets drive strategy, or do strategies 
drive budgets?
    Mr. Work, you've indicated that you don't feel, given the 
Budget Control Act (BCA), as modified by the Ryan-and-Murray 
agreement, which this Congress supports--in fact, we give you 
the resources--is adequate to fully carry out the strategy. Is 
that a fair comment of your position?
    Mr. Work. I very much agree with the statements of 
Secretary Hagel and Chairman Dempsey, yesterday, who said that 
if we go to the full BCA levels from 2016 and beyond, that the 
risks will be elevated, and our ability to perform all parts of 
the strategy, which I believe is a very coherent strategy, as 
published in January 2012, being able to fully implement that 
strategy would be very difficult at the BCA levels.
    Senator Reed. That is a direct result of the budgets that 
Congress has agreed to, so far?
    Mr. Work. Yes, sir, it is.
    Senator Reed. Part of the response to the threats around 
the globe is to at least reevaluate the budget priorities that 
we've given the Department of Defense--we, in Congress, have 
legislated. Is that fair?
    Mr. Work. Yes, sir.
    Senator Reed. Now, let's take the other side of the 
question. We've dealt with the budget. In your view, it seems 
to be less than adequate to meet the strategy. What are the 
threats? Because I would like to think, simply, that you take 
the threats, you craft a strategy, and then you come to us and 
we give you adequate resources. Can you just briefly describe 
what you think the threats are to us, and how DOD is 
responding?
    Mr. Work. There's a broad range of threats, Senator. A 
rising power in the Asia-Pacific--it's rising very quickly. It 
has the means to compete with us militarily in a way that many 
of our former competitors have not. We have a broad problem in 
the Middle East that we can see the results of the Arab Spring 
and all of the problems that are happening in Syria, and the 
attendant reactions--or the attendant results on terrorism. We 
are focused very much on Iran and preventing Iran from becoming 
a nuclear power. We have a lot of small-scale contingencies 
around the world in which we must watch carefully.
    Counterterrorism, cyber terrorism--or cyber warfare--rising 
powers, potential nuclear regional powers, these are all very, 
very big challenges that the Department has to face.
    Senator Reed. In some respects, we are in a world--and 
that's why it's much more complicated than perhaps in 
retrospect, the Cold War--where we have a range of challenges. 
Senator Inhofe's description, accurately, of the dispersion of 
al Qaeda, raises a special operations challenge, an 
intelligence challenge, a cyber challenge, et cetera. A lot 
different than a rising maritime power requiring surface 
vessels and major fleets and aircraft, or a conventional force, 
like the North Koreans. We are now at a stage where we have to 
cover down on all our bets. Is that one of the things that 
complicates your life, in terms of strategizing?
    Mr. Work. It certainly complicated my life as the Under 
Secretary of the Navy as we tried to balance all of the 
requirements with force structure. If confirmed, it would just 
be magnified as we take a look at the joint force and all of 
the capabilities and capacities that we need to address these 
threats.
    Senator Reed. Let me follow up, one of the points, I think, 
of the many that Senator Inhofe made that were right on target, 
which is the acquisition process. Fortunately, you had great 
support from people like Sean Stackley, et cetera, in your 
service in the Navy, but there are programs in the Navy that 
are consuming significant resources and have yet to produce the 
kind of results that were anticipated when the programs were 
initiated. A lot of discussion recently is about the littoral 
combat ship (LCS), but this acquisition process is something 
that everyone in your job has worked on, every Secretary of 
Defense has worked on. We haven't got it right yet. I would 
join Senator Inhofe in urging you to specifically focus, along 
with Secretary Kendall, on improving that. There's no silver 
bullet, in terms of saving resources and shifting them, but 
that's something we have to do, and have to do better.
    Mr. Work. Yes, sir.
    Senator Reed. Mr. McCord, I'd again, thank you for your 
extensive work. You have a valuable role. One is to make sure 
that the money is well and wisely spent. The goal is to have as 
they say, a clean audit of the Department of Defense. Can you 
give us an idea of any initiatives that you're going to 
undertake to improve the auditing quality and the financial 
controls in the Department of Defense?
    Mr. McCord. Thank you, Senator Reed, yes. That effort's 
very important to us, and one of the things that's very helpful 
to us is that it's a shared goal between us and Congress and 
the Armed Services Committees. We have a goal that Secretary 
Panetta set for 2014 for the Statement of Budgetary Resources, 
and we have a larger goal for 2017.
    I believe that we're on track, we're making progress toward 
those goals. The plan that we have in place, that Mr. Hale's 
put in place, I support that plan. I'm going to stay with that 
plan, as long as I see that it's making the kind of progress 
that we've been making recently with the Marine Corps audit, 
for example. But, certainly I will come back to you and I will 
work within the Department to change that plan if I see that we 
are off track. But, right now, I believe we're on track.
    Senator Reed. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. McCord, welcome back. Do you remember the first year we 
passed a requirement for an audit?
    Mr. McCord. I was here at that time, Senator, yes.
    Senator McCain. Was it in the 1980s?
    Mr. McCord. I'm remembering it's 1990, but I might be 
mistaken, sir.
    Senator McCain. You understand there might be a slight germ 
of doubt or cynicism about this latest claim that this year 
we're going to have a clean audit?
    Welcome, our old friend, Chairman Warner, and Senator Nunn. 
It's great to see these two great public servants with us.
    Ms. Wormuth, I've heard a lot of good names--``nodal 
threat''--it's a ``nodal threat,'' is that what al Qaeda is?
    Ms. Wormuth. Senator, what I meant by that was, it's 
diffused, and there are cells that are----
    Senator McCain. I see.
    Ms. Wormuth.--geographically distributed----
    Senator McCain. You still didn't answer the question, 
whether it's growing or receding. Is the threat of al Qaeda 
growing or receding? I note your statement about, ``core al 
Qaeda,'' whatever that is worth. Is it growing or receding?
    Ms. Wormuth. I would describe----
    Senator McCain. Is the tide of war receding or growing?
    Ms. Wormuth. Senator, I would describe it as a persistent 
threat.
    Senator McCain. You won't answer the question, is that it? 
It's a simple question. Is it receding or growing? It's not a 
very complicated question.
    Ms. Wormuth. I think it's persistent.
    Senator McCain. You won't answer the question. Is that it? 
I'm asking you, again, for the third time. Is it receding or 
growing?
    Ms. Wormuth. Senator, I think, in saying it's persistent, 
I'm attempting to answer your question. I think there are----
    Senator McCain. Actually----
    Ms. Wormuth.--there are elements----
    Senator McCain. Actually, you----
    Ms. Wormuth.--of al Qaeda----
    Senator McCain.--are not. Actually, you are not. It's a 
pretty simple question. We look at al Qaeda, and we decide, 
over the past few years, whether it is a receding threat or a 
growing threat. Since you keep saying ``persistent,'' you're in 
disagreement with the Director of National Intelligence, which 
either means you refuse to answer the question or you're not 
well informed.
    Ms. Wormuth. There are elements of the threat posed by al 
Qaeda that I would say are growing.
    Senator McCain. Which parts would you say are growing?
    Ms. Wormuth. But, just for example, al Qaeda in the Arabian 
Peninsula, the activities in Yemen, that is a growing threat, I 
think, of considerable concern to us.
    Senator McCain. Obviously you don't agree with the map that 
Senator Inhofe just put up, because it's spreading all over 
North Africa, Ms. Wormuth. Anybody who doesn't know that has 
either been somewhere else or not knowing what's going on in 
the world.
    Mr. Work, as the former Navy Under Secretary, you wrote a 
very candid paper about the LCS program. I have a memorandum 
from Secretary Hagel to the Chief of Naval Operations. I don't 
know if you're aware of it, or not. He says, ``Therefore, no 
new contract negotiations beyond 32 ships will go forward,'' 
talking about the LCS. Do you agree with that assessment?
    Mr. Work. As I understand it, what the assessment is saying 
is, we will stop building the flight-zero-plus LCS at 32 ships, 
and we will consider follow-on ships, small combatants. A 
modified LCS could be one of the options. A domestic or foreign 
design could be one of the options.
    I think this is very normal with Navy shipbuilding. We 
build----
    Senator McCain. You think it's normal? You think it's 
normal that the cost overruns associated with this ship, the 
fact that we don't even know what the mission is, that there's 
been this whole idea of moving different modules off and on--
you disagree with the Government Accountability Office (GAO) 
statement, regarding the cost overruns? This is normal, Mr. 
Work?
    Mr. Work. Sir, up until 2007, 2008, 2009, when the program 
almost imploded, there were significant cost overruns. When 
Secretary Mabus, Secretary Stackley, and I arrived in the 
Department of the Navy in 2009, I believe, since then, the 
program has met its cost targets. In 2001, the guidance to the 
Department of the Navy was to be able to build three LCSs for 
the price of one Arleigh Burke. The Department of the Navy is 
doing that today.
    I think you have to look at the performance of the----
    Senator McCain. Sort of makes it hard to understand why 
Secretary Hagel would assess at 32 when the original plans, as 
presented to Congress for their approval, was 52 ships.
    By the way, was anybody ever held responsible for these 
failures in 2007, 2008, 2009, 2010?
    Mr. Work. Those happened in the administration prior to 
ours, so I don't know what----
    Senator McCain. Everything's been fine under this 
administration, as far as the LCS is concerned?
    Mr. Work. I believe that the program is on solid ground and 
is meeting its cost targets, yes, sir.
    Senator McCain. You do believe that?
    Mr. Work. Yes, sir.
    Senator McCain. You're in direct contradiction to the 
Government Accountability Office study of 2013.
    Mr. Work. I haven't read that particular----
    Senator McCain. You haven't read it?
    Mr. Work. No, sir.
    Senator McCain. Wow. I'm stunned that you haven't. But, the 
fact is that the ship has still not had a clear mission, the 
modules that were supposed to be moving back and forth have 
not. We have not pursued the fly-before-you-buy policy, and do 
you remember the original cost estimate for an LCS?
    Mr. Work. It was $220 million for the C frame, Senator, 
and, depending on the number of modules that you would buy, the 
total cost for a missionized LCS, average cost, was supposed to 
be no more than $400 million, in fiscal year 2005 dollars.
    Senator McCain. What is it now?
    Mr. Work. I haven't been briefed on the most recent cost. 
I'll do that, if confirmed, and look at it. But, I know that 
we're on track----
    Senator McCain. Thank you for doing that. What's the cost 
now? You don't even know the cost now, Mr. Work?
    Mr. Work. I believe the average cost, with modules, is 
about $450 million, but not in fiscal year 2005 dollars. If you 
take a look at the original costing factors, I believe the cost 
of today's LCSs are very close to the costs that were set, back 
in 2002-2003.
    Senator McCain. Given that, then it's hard to understand 
why the Secretary of Defense would curtail the production of it 
by some 24 ships. Mr. Work, every objective study, whether it 
be the Director of Operational Test and Evaluation, the 
Government Accountability Office, every other objective 
observer, the LCS has not been anywhere near what it was 
presented to for Congress by funding. This, again, makes me 
wonder about your qualifications, because the one thing that we 
are plagued with is significant cost overruns and lack of 
capability.
    I thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator McCain.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Warner, Senator Nunn, thank you for your tremendous 
service. I am blessed to follow Senator Lugar, and he and 
Senator Nunn will be in my home State tonight to talk about 
these issues. Thank you for everything you've done for our 
country.
    Mr. Work, what I'd like to start off with is that article 
yesterday in Reuters, ``Iraq Signs Deal to Buy Arms from 
Iran''. Now, they have come here and talked to us about 
possible arms purchases. One of the big problems has been, how 
do you sell arms to a country where the army is 93 percent Shia 
and they have purchased them from Iran? Where does that leave 
us there now?
    Mr. Work. Sir, I haven't been briefed on the particulars of 
the report. If confirmed, I would take a look seriously at 
these and work with the Under Secretary of Defense for Policy, 
as well as the other Under Secretaries, to look at this issue 
very closely.
    Senator Donnelly. In this position, what are your ideas on 
how to get Iraq in a better place in regards to how we view it, 
the sectarianism just seems to continue to grow, which will, as 
it looks, if it continues that way, lead to a possible 
implosion there?
    Mr. Work. The sectarian violence in Iraq is very troubling. 
I know that the Department is looking at different aid packages 
for the Iraqi security forces, and, if confirmed, I would look 
very hard at this issue. But, I have not been briefed on any 
particular plans in this regard.
    Senator Donnelly. Let me ask you about Syria and the 
presence of al-Nusra and other al Qaeda-related forces. Do you 
see those forces growing in Syria right now? What strategies do 
you have in mind as to how to deal with that?
    Mr. Work. As DNI Clapper has said, Syria is now the magnet 
for many of the foreign fighters of the global jihadi movement. 
You even see different types of al Qaeda affiliates, or people 
who are associated with the movement, starting to fight against 
themselves. The Islamic State of Iraq (ISIS) in the Levant, are 
actually fighting against al-Nusra. This is a very big problem, 
as DNI Clapper has stated. If confirmed, I'd look forward to 
working with Ms. Wormuth, if she is confirmed, and also the 
uniformed officers, to look at all military options that are on 
the table.
    Senator Donnelly. Ms. Wormuth, do you have any ideas on 
this?
    Ms. Wormuth. Senator, I would agree with Mr. Work, that we 
would want to work, I think, carefully with our interagency 
partners, with our European partners who share our concerns 
about the growing extremism in the region. We've already been 
doing quite a bit of work with the Jordanian armed forces and 
the Lebanese armed forces to try to help them enhance their 
border security. But, we're certainly concerned about the flow 
of foreign fighters into Syria.
    Senator Donnelly. Let me ask you, Ms. Wormuth, about 
military suicide, as well. I see this as an incredible 
challenge, an incredible problem, and an obligation we have to 
eliminate. I was wondering your views on how we can reduce it 
to zero.
    Ms. Wormuth. Senator, I share your view that this is a 
terrible problem, and it's a very perplexing problem, I think, 
that the Department of Defense has been putting a lot of energy 
in, in the last several years.
    If I were to be confirmed, I would certainly want to do 
everything possible to work with the Under Secretary 
Organization for Personnel and Readiness (P&R) to try to find 
as many solutions as possible. I think we need to look at the 
number of providers we have to provide counseling, to try to 
look at what we can do to help servicemembers deal with some of 
what we think are the underlying causes of suicide--financial 
issues, substance abuse, for example. But, it's a very 
difficult problem, but one, I think, that we have to continue 
to put energy against.
    Senator Donnelly. As I mentioned to you yesterday, we are 
expecting a report from DOD, in line with a piece of 
legislation I have authored. Your assistance in helping to 
provide that to us, I would appreciate it a great deal, because 
this is a problem not only for those who are deployed, but also 
at home, as well. It seems, when we lost more young men and 
women to suicide than in combat in 2012, this would be right at 
the very top of the plate of everything we're trying to do.
    Mr. McCord, one of the things that, in reviewing numbers, 
has seemed to become clear is that, in many cases, the Guard 
can do it for a lower cost. When the Reserve or the Guard 
operates at about one-third of the cost of Active Duty, how 
will this factor into your recommendations, going forward, as 
we look at some of the changes that Secretary Hagel and others 
have talked about and in the budget environment we're in?
    Mr. McCord. Senator, you're correct that cost is one of the 
factors that we have absolutely taken into account as we've 
gone through the recommendations, starting last summer, with 
these so-called Strategic Choices and Management Review leading 
on into, then, the budget that will be delivered to you next 
week. As you say, the Reserve component forces are less 
expensive when they're not mobilized. That difference tends to 
shrink quite a bit once called up.
    The other main factor that we're considering, though, is 
the deployment times, the so-called ``dwell times'' that are 
the standard and the understanding that things like 1-to-3, 1-
to-5 ratios--that we have to balance what's realistic of what 
we get out of the Reserve components while still maintaining 
the dwell-time commitments that we'd like to make with them.
    Senator Donnelly. Okay.
    Ambassador Shear, when we look at North Korea, we see 
possibly a string of some of the most unstable decisions one 
could look at. What is your impression of the decisionmaking 
chain there, how those decisions are made? Who will we reach 
out to, to try to put some influence on decisions that are made 
there?
    Ambassador Shear. Senator, I think the decisionmaking chain 
in North Korea is extremely unclear. They are in the midst of a 
succession, a political succession in which Kim Jong-un is 
trying to secure his leadership. We will be watching that very 
closely, of course. We want a complete verifiable and 
irreversible denuclearization on the Korean Peninsula, through 
authentic and credible negotiations. We consistently reach out 
to the Chinese, among others, to encourage them to use what 
leverage they have with North Korea to encourage the North 
Koreans to be more moderate.
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Donnelly.
    Senator Wicker, please.
    Senator Wicker. Thank you, Mr. Chairman.
    First, for Mr. Work, you are a former Marine Corps officer 
and former Under Secretary of the Navy, so you know a lot about 
amphibious warships. I have a yes-or-no question to ask you, 
but let me preface it by saying I believe they are a necessity 
to project American influence in regions such as the Asia-
Pacific. I hope you agree. Amphibious ships are versatile, 
interoperable, and survivable platforms that are able to meet 
the full range of military and humanitarian missions abroad.
    I do remain seriously concerned that our Navy may be unable 
to support all requests for amphibious ship support from our 
combatant commanders. I secured a provision in the most recent 
National Defense Authorization Act (NDAA) that calls for the 
Commandant of the Marine Corps to report to Congress on the 
number of amphibious ships required for the Marine Corps to 
execute the President's national security strategy. This 
committee eagerly awaits the Commandant's findings later this 
year.
    Mr. Work, if you are confirmed, will you pledge to meet 
with me and other members of the committee within 30 days to 
discuss, in plain English, the Department of Defense's plan to 
provide sufficient amphibious ships to execute the full range 
of operational requirements from the combatant commanders?
    Mr. Work. Yes, sir, I will.
    Senator Wicker. Thank you very much. I appreciate that, and 
I look forward to a further conversation.
    Mr. Work. Sir, if I could make one correction, for the 
record. I am a marine and a former Under Secretary.
    Senator Wicker. When I was reading that statement, I 
expected to be challenged. [Laughter.]
    At least in the minds of all the marines in the audience 
and within the sound of my voice. Thank you for clarifying 
that. If I had seen Senator Roberts on the floor, he would have 
made that correction, also.
    Now, let me move to Mr. McKeon. There's been some publicity 
about a letter that Senator Ayotte and I wrote to you on 
February 20, 2014, citing, at the outset, a January 29, 2014, 
New York Times report that the Obama administration has known, 
for years, about potential Russian violations of the 
Intermediate-Range Nuclear Forces Treaty, the INF Treaty, that 
bans testing, production, and possession of medium-range 
missiles. Apparently, American officials believe Russia began 
conducting flight tests of a new ground-launched cruise 
missile, in violation of the INF Treaty, as early as 2008. Now, 
this would have been very helpful information to the Senate 
when we were discussing the New Strategic Arms Reduction Treaty 
(START) in 2010.
    Senator Ayotte and I wrote a letter asking, in part, ``As 
the Senate Armed Services Committee considers your nomination 
to be Principal Deputy Under Secretary of Defense for Policy, 
we request that you provide the committee with answers to the 
following questions. Number one, were you aware of any 
intelligence regarding potential Russian violations of the INF 
Treaty in 2010, when we were considering the new treaty with 
the Russian Federation?'' Which has apparently violated the 
previous treaty. ``Number two, do you believe that the Senate 
should have been made aware of any potential Russian violations 
of the INF Treaty during consideration of the New START treaty? 
Number three, do you believe the Senate was made aware of any 
potential Russian violations of the INF Treaty during 
consideration of the New START treaty? If so, please provide 
details.'' And, ``Number four, questions of how to respond to 
arms-control cheating and noncompliance are ultimately policy 
decisions. One year from now, if Russia is not in compliance 
with this treaty, in your current position or in the position 
for which you are nominated, do you believe the United States 
should continue to comply with the older treaty, the INF 
Treaty?''
    We sent this to you on February 20, 2014, in anticipation 
of this hearing, and, at the close of business yesterday, we 
still did not have an answer to this letter. Turns out that, 
around 8 p.m. last night, after most staff had left, and after 
the Senate had finished voting and people were on their way 
home, a letter was delivered to the committee, in answer to 
Senator Ayotte's and my letter. It was delivered at the 
codeword security level [TS/SCI].
    Senator Ayotte and I are under some very serious 
constraints in asking you about this letter today. If I were 
cynical, I would wonder why this letter was not responded to 
earlier so that Senator Ayotte and I and our staffs and people 
with codeword security clearance who advise us on this side of 
the aisle in the committee could thoroughly look at the letter, 
consider the answers, and ask you questions in a non-classified 
manner. If I were cynical, I would question the fact that the 
response was delivered so late and in such a way that we're 
really not able to get into the answers to our questions in 
this hearing.
    Let me just ask you in this way, Mr. McKeon. President 
Obama recently gave a speech calling for further cuts to our 
nuclear deterrent. He stated, ``We need to work with Russia on 
new arms-control agreements that go beyond New START levels.'' 
Did you play a role in drafting this speech, sir?
    Mr. McKeon. Senator, I probably saw drafts of the speech. I 
think you're referring to the speech that he gave in Berlin 
during his trip to Germany last June?
    Senator Wicker. Yes, I am.
    Mr. McKeon. I probably saw drafts, and maybe I made 
comments, but I don't recall with any specificity.
    Senator Wicker. Can you say whether the President knew 
about these major violations of the arms control agreement at 
the same time he was making a speech calling for further cuts 
and for further working with the Russian Federation on arms 
control?
    Mr. McKeon. I don't know when the President has been 
informed of the issue that you've described. I'd have to check 
on----
    Senator Wicker. You don't know what the President knew, and 
when he knew it?
    Mr. McKeon. That's correct.
    If I could answer, briefly, your reference to the letter, I 
apologize that it got here so late last night. I very much 
wanted to get it here earlier. I was coordinating with the 
committee staff to inform them of our progress to try to get it 
here. One of the great joys of working in the executive branch, 
as opposed to the legislative branch, is, you get to coordinate 
your letters with about 50 people, and the clearance process 
took longer than I would have liked. I apologize that you got 
the letter so late.
    What I can say about that issue, sir, is, as you know from 
the letter, which I hope you've read by now, is that we are 
concerned about the Russian activity that appears to be 
inconsistent with the INF Treaty. We've raised this with the 
Russians. The Russians have come back to us with an answer 
which we do not consider to be satisfactory, and we've told 
them the issue is not closed.
    Senator Wicker. When did you raise it with the Russians?
    Mr. McKeon. It's been raised with the Russians by several 
officials--this particular issue that you're referring to--over 
the course of the last 6 to 8 months, but I don't know the 
specific dates. I'd have to check on that.
    Senator Wicker. If you can supply that to the committee in 
a non-classified answer, I would appreciate it.
    [The information referred to follows:]

    This matter was raised by senior administration officials in three 
meetings with Russian officials in May 2013, including by Deputy 
Secretary of State William J. Burns and Acting Under Secretary of State 
Rose Gottemoeller. It was raised with a Russian official by Under 
Secretary of Defense for Policy James Miller in December 2013. It was 
also raised in meetings with Russian officials by Acting Under 
Secretary of State Rose Gottemoeller in June 2013, August 2013, October 
2013, November 2013, and February 2014.

    Senator Wicker. Let me just say--I don't know whether you 
can answer this or not, based on the letter that you sent, but 
if you had such information during the context and during the 
timeframe of the 2010 deliberations on the New START treaty, 
you would have felt dutybound to give that information to 
members of the Senate who were voting on the treaty, would you 
not?
    Mr. McKeon. Sir, as you may recall during September 2010, 
on the eve of the vote in the Foreign Relations Committee in 
mid-September, there was an issue that the Intelligence 
Community (IC) flagged for us and for this committee and the 
Foreign Relations Committee, and I believe it was literally the 
day before the committee's vote. General Clapper, when he 
appeared in an all-Senators briefing, late that month, which 
was focused primarily on the National Intelligence Estimate on 
the IC's ability to monitor New START, raised this issue, as 
well, and told that the Senators that were there in the Senate 
briefing about this issue that had been raised in the middle of 
September that implicated possibly New START, possibly INF.
    I believe, sir, that the IC and the executive branch were 
committed to providing timely information about potential 
concerns.
    Senator Wicker. I don't think I can ask you the substance 
of what was told to the committee, can I, in this setting?
    Mr. McKeon. No, I'm afraid not.
    Senator Wicker. Yes, okay.
    You can understand the position that places the committee 
today.
    Mr. McKeon. I do, sir, and I can't really get around it. 
The information that is involved here is highly classified. As 
General Clapper said when he was here 2 weeks ago for the 
threats hearing when he was asked about this issue, he said a 
lot less than I did and wanted to defer all of it to a closed 
session, which I believe you are having later this week.
    Senator Wicker. Let me just say that I have very serious 
concerns about this, and I will alert members of the committee 
and members of the Senate that I do not believe this committee 
and this body was provided with all of the information that you 
had and that we needed to know to cast a fully informed vote on 
the New START treaty. But, we will follow up in the proper 
context.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Wicker.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you all for your service to our Nation, both in your 
past and what you will do when you're confirmed, which I assume 
will happen, and I'm proud to be here and to support your 
nomination.
    Mr. Work, let me begin with you and ask you a couple of 
questions about the HH-60G Pave Hawk combat rescue helicopter. 
The NDAA included the replacement of the aging 30-year-old 
helicopters that have served to rescue our downed warfighters 
in the past--in that measure. The Senate approved it. It has 
also included it in the budget, $330-plus million, for this 
fiscal year, to support the development of the replacement 
airframe. I'd like a commitment from you that this program will 
be carried forward, as is the intent and mandate of Congress.
    Mr. Work. Senator, I don't know if I can make a firm 
commitment. I promise and I'd vow to work with Congress to work 
through this issue. As it was briefed to me, the Department is 
struggling to try to come up with the overall size and 
capability and capacities of the combat rescue force. It may be 
that the Department would come back and recommend some changes. 
But, I will promise and vow that I will work closely with you 
and all members of the committee and Members of Congress to 
make sure that this issue is looked at very carefully.
    Senator Blumenthal. You'd agree, wouldn't you, that the 
mission of rescuing our warfighters in peril is one of 
predominant urgency?
    Mr. Work. It's a very, very high priority mission. Yes, 
sir.
    Senator Blumenthal. The 30-year-old helicopters that now do 
that mission have to be replaced, do they not?
    Mr. Work. Yes, sir, they do.
    Senator Blumenthal. It would seem that this project is one 
that has to be reauthorized and that the spending has to be 
made in some form, does it not?
    Mr. Work. Yes, sir. I spoke with the Vice Chief of Staff of 
the Air Force, and they are looking at this very hard. I look 
forward to being briefed fully on it, if confirmed. I look 
forward to working with you.
    Senator Blumenthal. I would like your commitment, on behalf 
of myself and other colleagues who are very intent that the 
will of Congress be carried out, that this project go forward.
    Mr. Work. I commit that anything in the law, Department of 
Defense will follow through. There will be cases where we might 
come back and recommend alternatives, but the mission remains 
the same. There will be systems purchased, and I guarantee you 
that we will work with Congress to find the right answer.
    Senator Blumenthal. The question will be one of perhaps 
timing and alternative forms of the contract that's authorized, 
but the mission has to be accomplished, and the helicopters 
have to be replaced.
    Mr. Work. That is correct, is my understanding, yes, sir.
    Senator Blumenthal. Thank you.
    Turning to the base realignment and closure (BRAC) proposal 
that the Secretary of Defense made yesterday--and I'm not going 
to expect that you would contradict the Secretary of Defense. 
The recommendation made last go-around was not adopted by the 
Senate or Congress. The reason is, quite simply, in my view, 
BRAC is not cost-efficient. Do you have some facts that would 
contradict that contention?
    Mr. Work. Sir, I believe all of the prior BRAC rounds, up 
to 2005, did achieve savings, and the 2005 BRAC round was 
broken up between what was called a ``transformational BRAC'' 
and an ``efficiencies BRAC''. The efficiencies BRAC did achieve 
significant savings. I believe what the Department of Defense 
is asking is, in the future, if we are granted the authority 
for a BRAC, that we would approach the problem in that regard. 
I would expect to see savings.
    Senator Blumenthal. Isn't there excess capacity in overseas 
military installations?
    Mr. Work. I believe there is. I have not been briefed 
fully, but I understand that the Department is looking 
carefully at the laydown of bases in Europe and will be coming 
back and making recommendations on modifications to that.
    Senator Blumenthal. Has any actual action been taken to 
eliminate that excess capacity?
    Mr. Work. Since 2001, I don't know the exact figures, sir. 
I will get back to you, on the record. But, since 2001, there 
has been significant reductions in basing structure overseas, 
but I just don't know the numbers off the top of my head.
    Senator Blumenthal. I'd appreciate the numbers, if you can 
provide them. Thank you, Mr. Work.
    [The information referred to follows:]

    Between 2000 and 2011, the Department decreased the number of sites 
in Europe from 523 to 366 (a 30-percent reduction). Of the 366, an 
additional 70 sites were in the process of being returned to host 
nations, with another 62 identified for possible return. These returns 
are being validated through the European Infrastructure Consolidation 
(EIC) process, along with options for additional reductions. Once the 
EIC initiative is complete the Department expects the number of 
European sites will have decreased by more than 55 percent since 2000. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Senator Blumenthal. Just to finish on this topic, shouldn't 
we be closing or eliminating that excess capacity before we 
talk about another round of BRAC, which, in many ways, has been 
extraordinarily costly? I would appreciate, also, the numbers 
on BRAC that support its supposed cost-effectiveness.
    Mr. Work. Yes, sir. I believe Secretary Hagel and the 
Chairman of the Joint Chiefs believe that these can work in 
parallel, that there is over-capacity both in our continental 
U.S. infrastructure as well as overseas, and that we would hope 
to work with Congress in a parallel fashion to reduce it.
    [The information referred to follows:]

    I understand that historically savings from Base Realignment and 
Closure (BRAC) have been substantial. The first four rounds of BRAC 
(1988, 1991, 1993, and 1995) are producing a total of about $8 billion 
in savings, and BRAC 2005 is producing an additional $4 billion in 
annual, recurring savings.
    I understand that even though the BRAC 2005 round required an 
investment of $35 billion, that investment is paying the Department $4 
billion a year--in perpetuity. Thirty-five billion dollars is a 
significant investment, but also an aberration when compared to the 
cost of BRACs generally. BRAC 2005 were higher because half of the 
recommendations were not designed to save money but to achieve other 
goals. This portion of BRAC 2005--the so-called ``Transformation 
BRAC''--was comprised of reorganizations and movements of functions to 
transform infrastructure (and of a nature that could only be 
accomplished as part of the BRAC process). This portion of BRAC 2005 
cost $29 billion and is saving $1 billion annually--but these 
recommendations were pursued because of their transformational value to 
the Department, regardless of the cost.
    If one isolates the remainder of the BRAC 2005 (the Efficiency BRAC 
portion of BRAC 2005), these recommendations had a payback of less than 
7 years--one sees a [one time] cost of $6 billion and savings of $3 
billion per year in perpetuity. This is similar to what the Department 
experienced in the 1993/1995 rounds, and it is what I understand the 
Department expects from the BRAC 2017 round it is requesting.

    Senator Blumenthal. Turning to the utilization of our 
National Guard and Reserve in force, Ms. Wormuth, I'd like to 
ask you to take a very close look as to whether Executive Order 
13223, which was enacted on September 14, 2001, by President 
Bush, is still necessary. As you probably know, the order 
enables up to 1 million members of the Reserve component to be 
called up for Active Duty for up to 2 years. This year, we're 
completing our major force presence in Afghanistan. That's the 
action that necessitated the order. Although the Department has 
good force management plans now in place, I think that 
rescission of this Executive order, the withdrawal of it, would 
be a powerful symbol of the stability to guardsmen, their 
family, and their employers. I'd ask for your comment.
    Ms. Wormuth. Senator, I would be happy to go back to the 
Department, if confirmed, and work with, again, P&R--in 
particular, the Assistant Secretary for Reserve Affairs--to 
look at that order and to assess whether we continue to need 
those authorities. We also have additional mechanisms to access 
the Reserve component. I think it's very fair to go back and 
look at the range of callup authorities we have, to see which 
ones continue to be useful in the future.
    Senator Blumenthal. Would you agree that rescission of that 
one would send a message about the stability and the new era 
that we're entering to our National Guard and Reserve?
    Ms. Wormuth. Senator, I would want to look carefully at the 
Executive order before making a final recommendation to the 
Secretary. I certainly think we are looking to find policy ways 
to move off of the perpetual war footing that we've had for the 
last 10 years. But, again, without looking in detail at the 
Executive order, I wouldn't want to make a commitment at this 
time. I'd commit to look at it for you.
    Senator Blumenthal. Thank you.
    Thank you very much. My time has expired. I have a lot more 
questions. I may submit some more for the record. I thank all 
of you for being here today and for your very helpful and 
informative answers.
    Thank you.
    Senator Reed. Thank you, Senator Blumenthal.
    Senator Ayotte, please.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here today.
    Let me follow up, Mr. Work, on the question that Senator 
Blumenthal asked you with regard to BRAC. I would like you to 
give us a commitment that the Department of Defense will not 
undertake BRAC without the approval of Congress, and will also 
not try to undertake BRAC through a workaround that undermines 
the will of Congress without seeking our approval for a BRAC 
round. Will you give me that commitment?
    Mr. Work. Senator, as I understand, the wording of the 
speech yesterday was that Secretary Hagel believes that there 
are some authorities that the Department could use, but I don't 
know what those authorities are. I commit to you that, if 
confirmed, I will work with the Department to get back to you. 
Of course, we would not start a BRAC unless we are given 
explicit approval in the law.
    Senator Ayotte. I take that as a lack of commitment. That 
troubles me, because I believe that Congress should be in the 
position to approve BRAC and that there should not be a 
runaround done. That troubled me in the Secretary's comments 
yesterday, and I believe this is a very important issue for the 
authority of this committee, in particular, that Congress 
should be the body to approve a BRAC round, not for the 
Department of Defense to undertake this on its own initiative 
without the full approval of Congress. I do expect an answer on 
that.
    I would like to know, from the Secretary, in particular, 
what authority he believes he does have, so that we can be 
aware of it here, so that we can exercise appropriate authority 
to make sure that our voices are heard here on the policy 
matters. I think this is a very important issue, and I would 
like a followup answer to that.
    Mr. Work. Yes, ma'am.
    [The information referred to follows:]

    I understand that the Department only has authority to undertake a 
Base Realignment and Closure (BRAC) round if Congress authorizes it to 
do so; that is why the Department has repeatedly submitted legislation 
to authorize a BRAC round.
    I also understand that the Secretary of Defense has the authority 
to close and realign military installations outside of a traditional 
BRAC round, provided that action does not trigger the thresholds 
established in section 2687 of title 10, U.S.C. If the action exceeds 
the thresholds in the statute, the Secretary still has the authority to 
undertake the action, but only after satisfying the study and 
congressional reporting requirements and waiting the specified period 
of time. This is the authority to which the Secretary referred.

    Senator Ayotte. Thank you.
    Mr. McKeon, I wanted to follow up on some of the questions 
that my colleague Senator Wicker asked you with regard to the 
INF--potential Russian INF Treaty violation. I understand that 
the answer, in terms of what you said to this committee, is 
that, in fact, there was information provided--I believe it 
would have been to the Senate Foreign Relations Committee--that 
would be addressing the potential New START treaty in September 
2010. But, obviously, we can't discuss the substance of that 
information in this setting. Is that what you just testified 
to, that there was information provided to that committee about 
potential matters related to the INF right before--and that was 
on the eve of the vote, I believe you said?
    Mr. McKeon. What I said, Senator, was, there was a briefing 
by the Intelligence Community. I am informed by a former 
colleague from the Foreign Relations Committee that it was for 
the senior staff of the Foreign Relations Committee, the 
Intelligence Committee, and this committee, as well as the 
Senate leadership, and that was on or about September 15, 2010. 
Later that month, after the committee had voted, General 
Clapper appeared, in a all-Senators briefing, where he raised 
the same issue.
    Senator Ayotte. Now, without getting into the substance of 
the material that was provided, just to be clear, that wasn't 
all the information that the Intelligence Community possessed 
at the time that may have related to potential Russian INF 
violations, was it, Mr. McKeon?
    Mr. McKeon. Senator, I'm hesitant to get into any more 
detail about this issue. I've laid it out in great detail in my 
3-page letter to you.
    Senator Ayotte. Let me reframe the question. In a more 
generic fashion, one of the responsibilities that is very 
important is that we receive a compliance report on treaties, 
correct? There's a compliance reporting mechanism that comes 
forward to Congress?
    Mr. McKeon. That's correct. There's a statutory provision 
that requires it.
    Senator Ayotte. That's right. When there is a situation 
where there is ambiguity as to whether a particular country has 
complied with a treaty of the United States, do you believe, 
when there's an ambiguity, that the Intelligence Community has 
a responsibility to brief policymakers, and that policymakers, 
in turn, have a responsibility to brief the U.S. Senate, 
whether they are calling it ambiguity or not? How do you know, 
and when do you then brief the U.S. Senate?
    I think this is a very important issue for us, particularly 
when we are considering new treaties, when the Intelligence 
Community may be aware, even if they are unsure what it means. 
How do you draw that line?
    Mr. McKeon. Senator, as somebody who worked up here for 20 
years, I think it's essential that there be a regular dialogue 
between the executive branch and Congress on issues. The 
administration, as I understand it, the State Department in 
particular, regularly updates the Foreign Relations Committee 
on compliance-related issues, and has done so throughout the 
tenure of President Obama.
    When we came into office, the compliance report, the annual 
report that you referred to, had not been submitted for several 
years, so we had some work to do to make up for the work that 
had not been done in the last few years of the Bush 
administration. As a general matter, I agree with you that we 
have to have a regular dialogue with the national security 
committees on compliance issues.
    Senator Ayotte. Can you tell me, in answer to my specific 
question, if there is a potential violation of a treaty, 
generically, and the Intelligence Community has information 
that exists that they're not sure whether it is a violation or 
it isn't a violation--in other words, it could potentially be a 
violation--do you believe that's the type of information that 
should be provided to Congress?
    Mr. McKeon. Senator, that's a fairly broad and abstract 
question, and I'd rather get into a specific issue with you in 
a closed session or in private, if you would permit me. Because 
I know what you're getting at, and I don't think it's right for 
me to talk about it in an unclassified forum.
    Senator Ayotte. Fair enough. We will get into it in a 
classified forum.
    Let me just say, for the record, that I believe that we 
were not fully informed--meaning, I wasn't even in the U.S. 
Senate then, when the New START treaty was taken up, and that, 
regardless of how the Intelligence Community viewed particular 
information, that Congress should be fully informed. I do look 
forward to taking up the specific issue with you, in a 
classified setting, but it's not just you. Mr. McKeon, I 
appreciate that you're here before us today. There were 
certainly other individuals that certainly should be questioned 
about this. I don't mean to single you out, here. This is a 
very important issue for Congress.
    I have other questions that I will submit for the record.
    I know my time is up, but, very quickly--would you agree 
with me that a violation of the INF Treaty is a serious matter?
    Mr. McKeon. Yes, I would.
    Senator Ayotte. I thank you very much, and I thank all the 
witnesses for being here today.
    Senator Reed. Thank you, Senator Ayotte.
    Senator King, please.
    Senator King. Thank you, Mr. Chairman.
    Mr. Work, industrial base. What sections of the industrial 
base do you believe are under the greatest threat as we go 
through this continued period of budget tightness, budget 
austerity? Do you see mitigation measures we can take so that 
we have the industrial base that we need when we need it?
    Mr. Work. Senator, I think there are large portions of the 
industrial base that are in threat simply because the amount of 
spending and investments and research and development (R&D) 
have been coming down. The aerospace community, right now, has 
two tactical fighter production lines. We've stopped building 
our wide-body aircraft. We do have the bomber coming online, as 
well as new unmanned systems. I don't know the exact state. If 
confirmed, I'd have to ask Secretary Kendall.
    The shipbuilding industrial base right now is, I think, 
solid, but it is under pressure because of lower investments. 
Once again, if confirmed, I'd work with Secretary Kendall, who 
has a very, very good feel for this, and would work with 
Members of Congress to address industrial-base issues.
    Senator King. Do you agree that this is a significant issue 
that we need to pay attention to, just as we do compensation, 
training, and other matters under the jurisdiction of this 
committee?
    Mr. Work. I absolutely do, yes, sir.
    Senator King. Ms. Wormuth, what's your opinion of the 
appropriate force level and capacities that the United States 
should retain in Afghanistan after 2014? What's your 
understanding of the latest date that we can wait until in 
order to get some resolution of that important policy question?
    Ms. Wormuth. Senator, I think the President is still 
reviewing options for what our enduring presence should be 
after 2014, but I think we're looking at the kinds of 
capabilities we need to both pursue our counterterrorism 
objectives in Afghanistan, but also our train-and-advise 
mission with the Afghan national security forces. As we look at 
that, we are, again, weighing the options, and there are a 
variety under consideration.
    It is very important that we sign a bilateral security 
agreement with Afghanistan. My understanding is that the 
President will be speaking with President Karzai this morning 
and will be raising that topic, and there will be a readout of 
that call.
    Senator King. I'd like to listen in on that call. That'll 
be a pretty interesting call, I suspect.
    Ms. Wormuth. I think as we move further into the spring and 
early summer, we are going to come to some decision points, in 
terms of our ability to move forces out of the region. Even 
more than our own forces, our coalition partners, who don't 
necessarily have the same flexible logistics system, they are 
going to be approaching decision points, in terms of very much 
needing to have that agreement or having to make decisions to 
move forces out.
    Senator King. As a policy advisor, what is your personal 
opinion? Do you believe we're going to have to maintain some 
force in Afghanistan after 2014?
    Ms. Wormuth. I think it's important that we find ways to 
support the Afghan security forces and the government, in terms 
of bringing more stability to the region. I haven't been fully 
briefed on the options that are being considered, but we need 
to, I think, pursue a variety of mechanisms to be able to help 
the Afghans have stability. Again, we have significant 
contributions and commitments from international partners that 
I think are going to be important, in addition to what military 
capabilities we may retain in place.
    Senator King. The counterterrorism basis is an important 
consideration, as well.
    Ms. Wormuth. Yes, Senator, absolutely.
    Senator King. Mr. McKeon, we just received a worldwide 
threats briefing from the leaders of the Intelligence 
Community, and a common theme was cybersecurity. In fact, I 
think every hearing in defense and intelligence that I've been 
in, practically for the past year, has talked about 
cybersecurity. If confirmed, will this be a high priority for 
you in dealing with this threat? What do you consider the 
appropriate role for the Department to play in defending 
commercial assets from cybersecurity threats?
    Mr. McKeon. Senator, as a general matter, I agree with you 
about the concern of the threat. As to the specific duties that 
I may undertake, if Ms. Wormuth and I are both confirmed, I 
think we have discussed, in general terms, about having a 
division of labor so each of us are focusing on a set of 
issues, but we've not completed those discussions. Since she 
outranks me, she'll get the first choice, I suspect, of which 
issue she would like to work on.
    In terms of our protection of the defense industrial base, 
I've not been deeply briefed on the DOD programs on this, sir, 
so I'd have to get back to you on that.
    Senator King. I just hope that this is a priority for this 
panel, for this administration, because I think this is our 
area of maximum exposure. The incident that occurred--I see 
Senator Manchin is no longer here--but, the incident that 
occurred in West Virginia was an accident, and it could have 
easily been an act of some kind of sabotage akin to a cyber 
attack. We're vulnerable, and your title is the Department of 
Defense, and I hope that you will take this as a very serious 
threat before it materializes.
    Ambassador Shear, southeast Asia. What's our role in these 
territorial conflicts that are in the region in the South and 
East China Sea? My concern is, we have mutual defense treaties 
with Japan, South Korea, the Philippines, and I would certainly 
hate to see a Guns of August situation, where minor conflicts 
escalate into something which engages us in a major conflict in 
that region.
    Ambassador Shear. Senator, we are very concerned about the 
possible effects those territorial claims could have on 
regional peace and stability. We watch it very closely. We, of 
course, support a peaceful negotiated solution to those 
conflicting claims. We would look with great concern on the use 
of force or coercion in the region. While we don't take sides 
in those territorial disputes, we do believe that claims should 
be based on customary international law, and that claims should 
be generated from land features, and that they should be 
consistent with international law.
    We, of course, consult very closely with the Chinese as 
well as with our allies, on this issue.
    Senator King. Thank you very much.
    I'll have other questions I'll be submitting for the 
record.
    Thank you all.
    Senator Reed. Thank you very much.
    Senator Fischer, please.
    Senator Fischer. Thank you, Mr. Chairman. My thanks also to 
the Ranking Member and to the panel for being here today. I 
appreciate it.
    Mr. Work, in your previous position with the Center for 
Strategic and Budgetary Assessments, you wrote about making 
some significant changes to the Navy's force structure, 
particularly about focusing on smaller platforms, as opposed to 
large surface ships. Do you think that we need any kind of 
paradigm shift for our nuclear forces?
    Mr. Work. Senator, I believe the current plan for our 
nuclear forces is very sound. Secretary Hagel is committed to 
the triad and having a safe, secure nuclear deterrent. We're 
moving to a three-plus-two warhead scheme in which we go to 
three interoperable warheads for our intercontinental ballistic 
missiles (ICBM) and our submarine-launch ballistic missiles, 
and only two air-delivered weapons. I think this is a very 
sound approach. We need to really focus in on costs now, and I 
applaud Congress for writing into the 2014 NDAA to establish an 
Office of Cost Assessment and Program Evaluation (CAPE)-like 
capability at the NNSA so that we can reduce costs as we pursue 
this plan.
    Senator Fischer. You would share the views of your 
predecessor, Dr. Carter? When he was here before the committee, 
he and I had a conversation on this, and he stated that the 
impact of sequestration on the deterrent was the last thing 
that we would want to do serious damage to. Would you agree 
with his assessment on that?
    Mr. Work. Yes, ma'am, I would. Secretary Hagel indicated 
that keeping the nuclear deterrent safe was job number one.
    Senator Fischer. I was encouraged to hear the Secretary say 
that in his comments yesterday, in support of all the legs of 
the triad.
    Do you know if there is any contemplation in the future at 
looking at changing any of the structure on the triad, any of 
the emphasis on any of the different legs of the triad?
    Mr. Work. Ma'am, I'm not aware of it. If confirmed, this is 
one of the issues that I expect I would be centrally involved 
in.
    Senator Fischer. With our nuclear forces, it's not a big 
part of the budget. I'm sure you know it's about 4 percent of 
the national defense spending in 2014. Do you think we're 
getting a good bang for our buck on that?
    Mr. Work. I believe we do. I think we should always look at 
every part of our program, and our nuclear deterrent is 
absolutely at the top of the list. Pursuing that in the most 
cost-effective way I think is a principle that we should all 
aspire to.
    Senator Fischer. How do you think we're doing on 
modernization?
    Mr. Work. I believe the Ohio replacement program is 
proceeding apace. That is going to be a very difficult program, 
simply because of the costs, and the impacts on the Navy's 
shipbuilding budget are a matter of concern, I think, for 
everyone in the Department. I understand that moving with the 
B-61 is proceeding--the air-delivered bomb. Also, there is a 
well-thought-out plan. I believe the plan is well resourced 
right now. It's under stress, like all of the other parts of 
the budget. If confirmed, I vow to work with you and other 
Members of Congress to make sure we have a safe nuclear 
deterrent.
    Senator Fischer. Thank you for that. Do you believe there 
are ways around sequestration so we can make sure that we do 
maintain the strength of our nuclear deterrent? If so, can you 
share those?
    Mr. Work. At the full BCA sequestration levels, 
prioritization is key. Secretary Hagel said the nuclear 
deterrent is at the very top of the priority list. I would 
expect it to remain there. The workaround in sequestration is 
really being ruthless about your prioritization.
    Senator Fischer. Thank you.
    I think this next question would apply to the nominations 
of Ms. Wormuth and also Mr. McKeon. I'd like for you to provide 
me with a written explanation of the Department's understanding 
of section 8128 of the omnibus appropriations bill. I'm going 
to make a statement, here, more so than a question.
    It's clear to me that this section prohibits the Department 
from undertaking any environmental studies related to the ICBM 
silos. If the Department has any different interpretation or is 
taking any action to the contrary, I want to know.
    I'll get you that question for the record so that you can 
respond in writing. I would urge you to do so quickly. Would 
you please get me an answer to that when you receive it, then?
    Ms. Wormuth. We will do so, Senator.
    Senator Fischer. Thank you.
    Mr. Work?
    Mr. Work. Yes, ma'am.
    Senator Fischer. Mr. McKeon?
    Mr. McKeon. Yes, Senator, we'll do that.
    Senator Fischer. Okay. Thank you so much.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Fischer.
    Before I recognize Senator McCaskill--I've conferred with 
Senator Inhofe--we have votes beginning at 11:15 a.m.--about 
five votes. We're going to continue the hearing. Senator Inhofe 
and I will go to the floor as quickly as possible, and return. 
In the interim, I would ask my colleagues, based on seniority, 
to take the chair in my absence. We will allow everyone to ask 
their questions before we adjourn the hearing. If a Republican 
colleague returns, obviously we will alternate back and forth.
    With that general plan, Senator McCaskill.
    Senator McCaskill. Thank you.
    Thank you all. You have an amazing responsibility in front 
of you. I appreciate, as all Americans do, your willingness to 
serve.
    We have been grappling with the tenacious and overwhelming 
problem of sexual assault in the military. Senator Gillibrand 
and I have worked together on a number of historic reforms that 
have been signed into law that you will have the responsibility 
of implementing. I know I can speak for her in this regard, 
that we're going to hold you accountable, that we're going to 
be paying very close attention to how all of this is done.
    I wanted to take, though, a minute to ask some technical 
questions about the Gillibrand proposal, in terms of where we 
do have a policy disagreement which would remove the command 
from any disposition authority on any crimes in the military, 
with a few exceptions--but, the vast majority of crimes, 
including writing bad checks and bunk theft and all of the 
things that currently are handled within the system with the 
current command disposition authority.
    I have read the letter, from Elizabeth King, where she 
talks about the requirement that we would now have to have O-
6s--colonels or Navy captains--in all of these new offices that 
would have to be stood up, the disposition offices. For some 
inexplicable reason, the amendment does not allow any new 
resources to be spent. Which means we would have to pull these 
O-6s from existing billets.
    What I need from you, Mr. Work--and you're probably not 
prepared to answer it today--I need numbers. I need to know how 
short we are. The head of legislative affairs for the Defense 
Department says there's not enough O-6s to do it and that they 
would have to be pulled from positions they now hold as judges 
and as trial counsel and as supervising victim advocates. We 
would still be short, in terms of how many O-6s we have.
    The question is, how would we do this if we have no new 
resources? Has there been any estimates done of the 
administrative costs of standing up these offices, which 
clearly--justice delayed is justice denied--if we're going to 
be trying to handle a bunk theft, a barracks theft in 
Afghanistan out of an office in the United States, has there 
been any calculation done of the time it was going to take for 
these decisions to be made? Or are we envisioning standing up 
these new disposition authority offices around the globe? Are 
these going to be new Judge Advocate General (JAG) offices that 
will be put various places?
    I know some thought has to have been given to this, and I 
think it would be important for us to know the technical 
ramifications of no new resources being allowed to be used for 
this if, in fact, this were to pass into law.
    Mr. Work, if you would make a commitment to try to get 
those numbers back to this committee, I think it would be very 
helpful.
    Mr. Work. I absolutely will, yes, ma'am.
    [The information referred to follows:]

    I understand that the Services have considered how they would 
implement a system that would require judge advocates in the grade of 
O-6 or higher to exercise prosecutorial discretion over many offenses 
under the Uniform Code of Military Justice. I also understand that the 
Services have estimated that this would require at least 74 O-6 judge 
advocate disposition authorities. That accounts for approximately one-
fifth of all authorized O-6 judge advocates across the Services. The 
requirement that these 74 new billets be filled by O-6 judge advocates 
who ``have significant experience in trials by general or special 
court-martial'' would further limit the pool of O-6s who can be 
detailed to those new billets. As there are no Active Duty O-6 judge 
advocates without current assignments, reassigning 74 O-6 judge 
advocates to duties required by the bill would necessarily remove these 
senior judge advocates from critical billets as military judges, 
supervisory prosecutors and defense attorneys, and staff judge 
advocates. Additionally, I understand that many junior judge advocates 
and support personnel would also be required to staff these new 
offices.

    Senator McCaskill. Thank you.
    On Prisoner of War/Missing-in-Action (POW/MIA). Ms. 
Wormuth, are you familiar with the long problems we've had in 
this area?
    Ms. Wormuth. Senator, yes, I'm broadly familiar with the 
issues with Guantanamo Bay (GTMO).
    Senator McCaskill. No, we're talking about--not GTMO--we're 
talking about recovering remains.
    Ms. Wormuth. I apologize, Senator. Yes, I'm familiar 
broadly, with that area, as well.
    Senator McCaskill. We get daily complaints about the 
dysfunction at Joint POW/MIA Accounting Command. I have never 
seen a more inexcusable turf war in my life than the turf war 
that has gone on within this important responsibility within 
the military. Here's the problem we have right now. By the way, 
you know how long we've been talking about this? Decades. For 
decades, we have been talking about this. It's embarrassing, if 
you go back and read old GAO reports and old committee hearings 
on this subject, how long this problem has been identified and 
not fixed. Here's what you have. It's a little bit like 
Arlington National Cemetery. When you have too many cooks in 
the kitchen, when there's a problem, guess what everybody does? 
That's what you have going on right now. You have one function 
blaming the other function, and one part of the office blaming 
the other part of the office. I've taken enough time to get 
into this that, I will tell you, it is a mess. You have an 
opportunity to clean this up. You have an opportunity to do a 
clear chain of command and accountability in this area. It is 
costing millions of dollars for every recovery we have. 
Millions.
    Now, I don't think any American will begrudge us spending 
this money to recover remains of our fallen. But, there's just 
a lot of work to be done here, and I want to be comfortable, 
Ms. Wormuth, that you are aware of it, because I believe it's 
going to fall in your folder.
    Ms. Wormuth. Yes, Senator, it will. It is a very solemn 
obligation. It's one that I take seriously, it's one the 
Department takes seriously. Certainly, we do have significant 
problems in this area. My understanding is that Secretary Hagel 
has very recently required that the Acting Under Secretary of 
Defense for Policy provide recommendations to him, within 30 
days, on how we would propose to restructure the community to 
make it more effective and to have greater accountability.
    I would be happy, if confirmed, to work with you and talk 
with you about the results of those recommendations. As you 
probably are also aware, we have other studies that our CAPE 
organization has undertaken in this area very recently.
    Senator McCaskill. Yes, I'm aware of the CAPE study. My 
subcommittee that has looked at this really closely will be 
happy--it's on the Homeland Security and Government Affairs 
Subcommittee--but, we'd be happy to share with you, not only 
all the information we have, but, obviously, protecting 
whistleblowers giving you a taste of how bad it is.
    Finally, Mr. Work, I want to just quickly go to our 
airborne electronic attack capability. If we have radar and 
surface-to-air missile batteries, if we have an anti-access 
aerial denial contested environment, right now, the only 
aircraft that can provide the capability of an airborne 
electronic attack, which is pretty important for our country to 
have, is the EA-18 Growler. With these challenges on the 
horizon and the need for our capability in this area of 
electronic attack, can you talk about how we would benefit from 
additional electronic warfare capabilities?
    Mr. Work. Senator, airborne electronic attack, and all 
aspects of electronic attack, are going to be absolutely 
critical in this area of proliferating threats, as you have 
said. These type of capabilities are absolutely critical to 
support our aviation component, as well as other components of 
the joint force. The EA-18G is one critical component. It's a 
world-class platform. There are other capabilities that the 
Department is considering, such as stand-in jammers and other 
expendable decoys, et cetera. It's a very, very important 
subject. If confirmed, I would look very carefully at this, 
along with all other aspects of the force structure, to 
determine we have the proper mix of capabilities and capacities 
to meet our requirements.
    Senator McCaskill. If we were to abandon the Growler, I 
would be anxious to hear what the capabilities would be to 
replace it, and where they are in the pipeline. I want to make 
sure that we do not leave ourself exposed in this critical 
area, going forward.
    Mr. Work. Yes, ma'am.
    Senator McCaskill. Thank you all very much.
    Senator Reed. Thank you, Senator McCaskill.
    Senator Kaine, please.
    Senator Kaine. Thank you, Mr. Chairman.
    To the witnesses, thank you for your service and for being 
here today.
    Mr. McCord, I'd like to ask you some questions and really 
focus on the speech that was delivered by Secretary Hagel 
yesterday, to just make sure I follow the concept. We do not 
have the budget. Secretary Hagel will be here next week, so I'm 
not going to get into line items, but just the concept in the 
speech in the one particular area that he mentioned.
    My read of the speech is that a lot of the speech is about 
the continuing effect that full sequester cuts would have on 
the military budget, but also on the national security strategy 
of the Nation. Is that a fair statement?
    Mr. McCord. That's correct. I think the Secretary did, 
yesterday, and will continue to try and distinguish between the 
path that we're going to present to you in the budget and a 
strict adherence to the BCA caps for the remainder of the 
period through 2021, and what a difference that's going to make 
to us.
    Senator Kaine. Mr. McCord, I gather, from reading the 
speech, that, just as you indicate, the intent, when the budget 
comes, is to present us with alternative scenarios. A first 
scenario would be the full-sequester version, acknowledging the 
relief that the 2-year budget provided, to the tune of about 
$30 billion in 2014 and 2015, but then, assuming that there's 
no additional sequester relief, that will be the budget that is 
presented, the full-sequester version. Then there's also an 
intention to deliver an alternative, which I would call the 
national security version, which would take the sequester 
version, but provide an additional $115 billion of relief from 
sequester cuts, at least through the end of 2019. Is that your 
understanding?
    Mr. McCord. Senator, that's pretty accurate. Let me just 
rephrase it a little bit, though.
    The budget that we'll present is the higher level. That 
will be the President's budget, the higher level. The sequester 
alternative would really be described as a notional 
alternative, to illustrate the differences. But, there's not 
going to be two budgets.
    Senator Kaine. I see.
    Mr. McCord. There will be one, and it will be higher than 
the BCA caps for 2019.
    Senator Kaine. But, the committee members and the public 
and all of the Senate will be able to look at the submission 
with both the President's budget submission and the discussion 
of what full sequester would mean, and see, essentially, the 
delta, in key line items and programs, between a full sequester 
and this sort of national security version that adds $115 
billion back. Is that correct?
    Mr. McCord. We would certainly attempt--the Secretary and 
the Chiefs that will follow him, the Service Secretaries--to 
illustrate the major differences. As you say, not an 
excruciating line-item differential, but the major import of 
that difference. Yes, sir.
    Senator Kaine. Just for the record, I would note that I 
think the format of this budget sounds like it will be very 
helpful, and it was a format that was, I think, suggested in a 
letter from Senators Levin and Inhofe to Secretary Hagel last 
summer. We really need to see what the delta is between an 
optimum and full sequester. I look forward to it.
    My quick reading of the math on this would suggest, if we 
just go by what the Secretary said in his speech yesterday, 
that, if we opt for the President's budget--just wave a magic 
wand and say we'll do it, the national security version--DOD 
would still have absorbed over 60 percent of the sequester 
cuts, even if you add back in the $115 billion and the $30 
billion that we provided as sequester relief in the 2014-2015 
budget we just passed. Is that your general understanding?
    Mr. McCord. That sounds accurate, Senator, and I could 
certainly provide detailed figures for the record if you 
desire.
    Senator Kaine. I will ask that question in writing--because 
I think it's important to know that, based on the reading of 
the speech of the Secretary, DOD is not coming with a 
presidential budget submission asking for the elimination of 
sequester. I think what we will see is a budget where DOD and 
the President are saying, ``We'll take 60 percent of the 
sequester cuts--whether we like them or not, we'll take 60 
percent of the sequester cuts. Give us, in addition to what has 
already been done, additional sequester relief to avoid 40 
percent of the sequester, in the interests of national 
security.'' It sounds like that's what we'll see with the 
presentation of the budget coming later in the week or next 
week.
    Mr. McCord. Yes, Senator, since the BCA was passed, every 
year we have gotten some relief in some form from the absolute 
cap, but we've also gotten much less than we requested, every 
single year, from 2012, 2013, 2014. We've been cut about $80 
billion--over $80 billion below what we requested each in those 
years. However, we have gotten about $40 billion more than the 
absolute worst-case, lowest BCA caps, which were delayed 1 
year, and then, as you alluded to, modified by the Murray-Ryan 
proposal in 2014-2015. There's been a middle ground that has 
been where we have taken a substantial part, more than half of 
the total sequestration cuts, but not the entire amount. That 
informs the look, going forward in our budget, that is above 
the absolute sequester, but certainly mindful of the fiscal 
realities that we're going to take reductions from what we had 
proposed before.
    Senator Kaine. Let me just use one example that I spoke 
with you and Mr. Work about yesterday. Then I'll ask each of 
you a question. This deals with carriers.
    Secretary Hagel, in his speech yesterday, said, ``The 
spending levels proposed under the President's budget plan 
would also enable the Navy to maintain 11 carrier strike 
groups. However, we will have to make a final decision on the 
future of the George Washington aircraft carrier in the 2016 
budget submission. If sequestration spending levels remain in 
place in fiscal year 2016, she would need to be retired before 
her scheduled nuclear refueling and overhaul. That would leave 
the Navy with 10 carrier strike groups. But, keeping the George 
Washington in the fleet would cost $6 billion, so we would have 
no other choice than to retire her, should sequestration-level 
cuts be reimposed. At the President's budget level, we would 
pay for the overhaul and maintain 11 carriers.''
    I'd like to ask both Mr. Work and Mr. McCord this. Do you 
support the presidential position, as outlined in the 
Secretary's speech, about the importance of maintaining an 11-
carrier Navy?
    Mr. Work. Yes, Senator, I do. The law of the land requires 
11 carriers, and, if we had to go to the full sequestration 
level, we would have to get relief from the law. Secretary 
Hagel has made clear that, if we can remain at the President's 
budget, that we would retain 11 carriers.
    Senator Kaine. Mr. McCord?
    Mr. McCord. I would agree with that, and this is going to 
be one of those most clear differences that we've been 
discussing about sequester path versus the President's budget 
path.
    Senator Kaine. Just to clarify what Mr. Work said, the 
maintaining of an 11-carrier Navy is not just a presidential 
policy that we will see in the budget, as elaborated yesterday 
by the Secretary, it is also a statutory requirement. Correct?
    Mr. McCord. Yes, sir.
    Mr. Work. Yes, sir.
    Senator Kaine. Thank you, Mr. Chairman.
    I'll look forward to seeing how the presidential budget 
supports this statutory policy of the 11-carrier Navy. I 
appreciate your testimony.
    Senator Reed. Thank you, Senator Kaine.
    Senator Gillibrand, please.
    Senator Gillibrand. Thank you, Mr. Chairman.
    I want to follow up from Senator McCaskill's questions. We 
had information that there's too many JAGs, actually. This is a 
letter from Dana Chipman, Lieutenant General USA, Judge 
Advocate General, and he writes, ``As our Army begins to take 
the steps necessary to draw down to 490,000 Active component 
(AC) end strength, the JAG Corps must rebalance appropriately 
and be postured for the future. Historically high promotion and 
retention rates in recent years have created an excess of Judge 
Advocate Generals. Deliberate steps taken in a thoughtful 
manner will retain our ability to support the Army and the 
joint force. To do so, I have requested authority to conduct 
selective early retirement for a portion of our JAGs.''
    As you do your analysis for Senator McCaskill, please 
recognize that, according to our information, we have an excess 
of JAGs. Isn't it true, though, that JAGs are stationed all 
over the world, not just in the United States?
    Mr. Work. Yes, ma'am, it certainly is.
    Senator Gillibrand. Isn't it true that, today, when there 
is a serious crime that's taken place, there are sufficient 
lawyers to investigate those crimes, there's investigative 
units, and the lawyers, in fact, do recommend to their 
commanding officers how to proceed in the cases?
    Mr. Work. I believe that is correct, yes, ma'am.
    Senator Gillibrand. Those same lawyers can be used today, 
but just not in their own chain of command?
    Mr. Work. Yes, ma'am. I haven't been fully briefed on the 
laydown of JAGs so I would have to get back to you. But, what 
you have described is what I understand.
    Senator Gillibrand. Thank you.
    Moving to a related issue, do you think it's appropriate 
for a commander to ignore the advice of counsel or an Article 
32 investigating officer when they recommend proceeding to 
prosecution, based on evidence supporting a sexual assault 
crime?
    Mr. Work. No, ma'am. I believe the commanding officer 
should be able to make those type of decisions.
    Senator Gillibrand. Do you think he should disregard the 
advice of counsel in an Article 32 hearing that says there's 
evidence a serious crime has been committed?
    Mr. Work. Ma'am, I believe the commander always listens to 
the JAG and to the advice of counsel and makes the best 
judgment that he or she can to make sure that justice is 
served.
    Senator Gillibrand. If you believe he can decide not to 
pursue a prosecution if there is sufficient evidence that a 
crime has been committed, on what basis do you think he should 
make that decision?
    Mr. Work. I know of no cases where personally, a commanding 
officer knew of enough evidence to pursue prosecution, and 
elected not to do so.
    Senator Gillibrand. There are documented cases. In fact, 
recently, both the Washington Post and the Associated Press 
(AP) have run stories on ethical issues, and senior leaders 
specifically. The AP, after a 4-year Freedom of Information Act 
request, finally got documentation for a base in Japan, and 
found at least two cases where the attorney's judgment in the 
Article 32 hearing was disregarded, where the recommendations 
were to go forward, based on the evidence, and commanders 
declined to prosecute. There's at least two cases that the AP 
was able to report. I daresay--and I fully request all cases 
from the military, where counsel was disregarded or where a 
commander chose not to move forward after an Article 32 hearing 
where there was evidence that a crime had been committed and 
the recommendation was to go forward. I'd like you to 
investigate that and submit that information for the record.
    Mr. Work. Yes, ma'am.
    [The information referred to follows:]

    I understand that, based on a preliminary review of recent cases 
across the Services, in 2012, sexual assault-related charges were 
referred to court-martial in every case in which a staff judge advocate 
recommended that the case go forward. At this time, however, I do not 
have any information about instances in which a convening authority 
disagreed with the recommendations of an Article 32 investigating 
officer, or in which a convening officer decided to refer charges after 
a staff judge advocate or Article 32 investigating officer recommended 
against doing so.

    Senator Gillibrand. Because, just because you've never seen 
it doesn't mean it doesn't happen. In fact, one victim survivor 
that I spoke to said she was supposed to go to trial and 4 days 
before the trial, her command changed, and her new commander 
looked at the file and said, ``I don't think a crime has been 
committed. He might not have been a gentleman, but it wasn't a 
rape.'' He decided the trial would not go forward. There's a 
third example that I, at least, know about, anecdotally.
    I'd like you to do a full review of all cases when that 
happens, because, to say it's never happened, we have evidence 
of three cases where it exactly did happen and that's 
concerning. I'd like you to investigate that.
    Mr. Work. Ma'am, I totally agree. I just don't know of any 
personal instances. But, I read the exact same report about 
Japan that you referred to, and it's extremely troubling. If 
confirmed, this is one of the top priorities of the Department, 
and I assure you that everyone is looking at this very closely.
    Senator Gillibrand. If a commander decided not to 
prosecute, despite the evidence, what would be permissible 
reasons or acceptable reasons, in your mind, for him not to 
proceed?
    Mr. Work. Ma'am, it's a hypothetical question. I would have 
to know the exact nature of the evidence against them and to 
talk with the commander and see what the judgment would be. A 
commander should listen to the JAG, make his best judgment, as 
the commander, on how to proceed. I believe, in most cases, if 
the JAG feels there is enough evidence, that most commanders 
would proceed.
    Senator Gillibrand. But, what about the instances where 
they don't proceed or wouldn't proceed? What do you think are 
legitimate reasons not to proceed, when the evidence says a 
crime's been committed?
    Mr. Work. Ma'am, when I was the Under Secretary of the 
Navy, we looked at this very, very closely, and the only time 
that this happens is when a JAG feels that the evidence is not 
sufficient to move forward. In most cases, or in many cases, 
the commander decides to go forward, even if the JAG feels that 
there is not enough evidence to support an ultimate conviction. 
It works both ways. It's important for us to understand that 
the commanders are trying to make the best judgment that they 
can.
    Senator Gillibrand. Yes, but I'm not interested in cases 
where innocent accused are convicted. I'm not interested in 
cases going forward where there is no evidence that a serious 
crime's been committed. Just moving forward because you want to 
be perceived as being tough on sexual assault is not the right 
answer.
    Mr. Work. I didn't----
    Senator Gillibrand. You have to understand. In this 
country, justice is blind. You do not tip the scales of justice 
in favor of a victim or an accused. You have to have blind 
justice. My question to you is specific. What possible reason 
would a commander disregard facts and evidence that trained 
prosecutors have already developed through an Article 32 
hearing to say, ``I don't think we should go forward''? Do you 
think morale is a reason why you shouldn't go forward? Do you 
think the fact that the accused may be popular or well 
decorated or a great soldier--are those good reasons why you 
don't go forward to trial? Because if you think they are, that 
is the point of why this reform is so necessary.
    I do not believe the commander should overrule the judgment 
based on evidence. I believe the decision should only be based 
on the evidence. If there's evidence a serious crime has been 
committed, you move forward. If there's not evidence that a 
serious crime has been committed, you don't move forward. Not 
based on politics, not based on who you like better, not based 
on who's more effective for your unit, not based on who you 
just happen to like. It's not relevant, and it's not 
appropriate. This is why victims and survivors have told us 
over and over again, ``We don't trust the system. We don't 
trust the chain of command. We don't believe justice will be 
done.''
    The last DOD survey specifically said the number-one reason 
why victims did not report these crimes is because they 
believed that nothing would be done. The second reason cited 
is, they believed they would be retaliated against if they 
report it.
    That's where the breach of trust has been. I really want to 
hear from you why you think that discretion is needed, whether 
there's evidence or no evidence. Why do you need discretion if 
there's evidence of a serious crime? What kind of discretion do 
you think is legitimate?
    Mr. Work. Ma'am, again, it's a hypothetical question, and I 
believe that the record shows that JAGs are more likely to 
press forward on prosecutions than their civilian counterparts. 
I believe that most commanders are----
    Senator Gillibrand. There's no evidence of that, sir. The 
only evidence we have are 100 cases where the decision about 
whether to keep it by the DOD's prosecution was made. You don't 
know if the civilian system said, ``If you want jurisdiction, 
take it. It's your judgment.'' You don't know that those cases 
were reviewed. That information is not provided. That evidence 
is misleading, and your conviction rate for some of those cases 
was closer to 50 percent. Today in the military, your 
conviction rate is about 95 percent for the cases that you take 
up. Arguably, you didn't perform as well as you needed to, 
because there wasn't evidence; or maybe there were innocent 
accused.
    I do not think you can say that with a straight face. There 
are no facts or evidence that back that up. If you have it, 
please send it to me.
    Mr. Work. Very well, ma'am.
    [The information referred to follows:]

    I understand that on July 23, 2013, the Vice Chairman of the Joint 
Chiefs of Staff sent a letter to Chairman Levin indicating that, in the 
previous 2 years, commanders had exercised jurisdiction in 93 sexual 
assault cases after civilian authorities had either failed to pursue a 
full investigation or formally declined to prosecute. I also understand 
that because the military justice system has some military-specific 
offenses without civilian counterparts, there are sometimes instances 
where the military can bring a prosecution when civilians cannot. 
Additionally, I understand that the Vice Chairman noted that the 93 
sexual assault cases referred to above include 73 in which courts-
martial had been completed, resulting in 52 convictions, a 71 percent 
conviction rate.

    Senator Gillibrand. I'm going to submit a question for the 
record, Mr. Chairman, Mr. McCord, it's just specifically for 
you. We've heard reports that you are restructuring how the 
Army uses the Defense Finance and Accounting Services (DFAS), 
and the plan could severely impact the effect on civilian 
employees working in DFAS sites, like the one in Rome, NY. What 
I would like is a commitment from you to give me information in 
advance of these kinds of decisions. I don't want to have to 
hear this kind of report through back channels. Do I have your 
assurance that my office will be kept apprised of all future 
action relating to changes to the DFAS's mission and force 
structure?
    Mr. McCord. Senator, yes, I'll work with the Army in that. 
The Army is the one really undertaking the study, and the Army 
is the customer, and so, DFAS does work for the Army. The Army 
is looking at how to possibly revise some of their operations 
but, we will work together with them to get you information on 
any conclusions that they reach. I understand they are not at 
that stage yet.
    Senator Gillibrand. Thank you.
    Mr. Chairman, I'm going to submit, for the record, 
questions about cyber.
    Senator Reed. Thank you very much.
    There being no further questions, thank you, ladies and 
gentlemen, for your testimony.
    Senator Inhofe. One question.
    Senator Reed. Certainly, Senator Inhofe. Please go ahead.
    Senator Inhofe. Just quickly.
    There's not time to pursue this, Mr. Work, but I've been 
concerned about the changes that take place with the Director 
of Operational Testing and Evaluation (DOT&E), Dr. Gilmore--
coming along and changing the standards after the fact. I would 
like to ask if you would just respond, in some detail, for the 
record. What is the proper managerial relationship between the 
Deputy Secretary and the DOT&E? Would you do that?
    Mr. Work. Yes, sir. The DOT&E is a direct report to the 
Secretary of Defense and the Deputy Secretary of Defense. He 
works closely with the Under Secretary of Defense for the----
    Senator Inhofe. Yes, I understand that, but I would like to 
have you talk about the problems that I see that are taking 
place, that you have a set of standards that is set, and then 
you come along later, change that set of standards, when 
decisions have already been made predicated on the standards 
that came out of the legitimate process. That's my concern.
    Mr. Work. It's a very valid question, sir.
    Senator Inhofe. Go ahead.
    Mr. Work. Essentially, I think DOT&E should work with the 
established criteria, like the Joint Requirements Oversight 
Council (JROC), to come forward and say, ``I believe a 
requirement isn't correct.'' If the JROC agrees with him, they 
can make that change so that the entire system then is working 
towards a common requirement.
    [The information referred to follows:]

    I understand that by statute, the Director of Operational Test and 
Evaluation is the principal adviser to the Secretary of Defense and the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
on operational test and evaluation, providing, among other 
responsibilities, independent and objective evaluations of the 
operational effectiveness and suitability for use in combat of weapons, 
equipment, and munitions. If I am confirmed, I will meet regularly with 
the Director with respect to issues associated with the operational and 
live-fire testing being conducted by the Department. I believe that the 
Director plays a critical role in validating system performance, and 
ensuring the effective stewardship of our resources.

    Senator Reed. Thank you very much, Senator Inhofe.
    Again, thank you to the witnesses.
    There are votes pending. With that, I adjourn the hearing 
and thank you very much.
    [Whereupon, at 11:30 a.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Robert O. Work by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I do not believe that modifications to the Goldwater-
Nichols Act provisions are necessary at this time. However, if 
confirmed and appointed, I will consider this question as I perform my 
duties as Deputy Secretary of Defense. If I come to believe that 
modifications are necessary, I will recommend appropriate amendments to 
the act.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not believe that modifications to the Goldwater-
Nichols Act provisions are necessary at this time.
                             relationships
    Question. What is your understanding of the relationship between 
the Deputy Secretary of Defense and each of the following?
    The Secretary of Defense.
    Answer. The Secretary of Defense assigns the duties performed by 
the Deputy Secretary and is the Deputy Secretary's immediate superior. 
The Deputy Secretary performs the duties of the Secretary of Defense 
when the Secretary is unable to do so. The Deputy Secretary serves as 
the Department's Chief Operating and Management Officer (COO/CMO) and 
focuses primarily on the daily activities of the Department, including 
financial management, acquisition, civilian and military personnel 
policy and the implementation of policy and strategy decisions. As a 
result, the Secretary and Deputy Secretary must have a close working 
relationship and the Secretary must be able to rely completely on the 
Deputy Secretary.
    Question. The Under Secretaries of Defense.
    Answer. The five Under Secretaries establish policy and provide 
oversight over major Departmental functions, subject to the authority, 
direction, and control of the Secretary of Defense. The Deputy 
Secretary oversees the Under Secretaries and coordinates their 
activities. The Deputy Secretary must work closely with the Under 
Secretaries, ensuring that they understand the Secretary's guidance and 
implement that guidance faithfully. The Deputy Secretary must also 
resolve differences of opinion between or among the Under Secretaries, 
referring to the Secretary those important issues that require his 
decision.
    Question. The Deputy Chief Management Officer of the Department of 
Defense (DOD).
    Answer. The Deputy Secretary, who is the Chief Management Officer, 
supervises the Deputy Chief Management Officer, assigning tasks, 
providing oversight, and ensuring accountability. The Deputy Secretary 
must be able to rely on the Deputy Chief Management Officer to monitor 
the Department's performance in attaining management goals and keep the 
Deputy Secretary informed. The two must keep in constant communication 
to ensure seamless oversight of the Department's management program, 
and immediate intervention when required.
    Question. The Assistant Secretaries of Defense.
    Answer. There are two categories of Assistant Secretaries. Most of 
the Assistant Secretaries fall under the authority, direction, and 
control of the Under Secretaries. For those Assistant Secretaries, the 
Deputy Secretary exercises oversight through the Under Secretaries. For 
Assistant Secretaries who report directly to the Secretary, the Deputy 
Secretary should exercise a broader and more direct oversight, working 
closely together to ensure the Secretary's guidance is accomplished 
efficiently and effectively.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. The Secretary and Deputy Secretary must have complete 
confidence in the professional military advice of the Chairman and Vice 
Chairman, work closely with them, and communicate direction to the 
combatant commanders through them. The Deputy Secretary works most 
closely with the Vice Chairman, particularly on matters regarding 
budgeting, programming, and requirements.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the Military Departments are under the 
authority, direction, and control of the Secretary of Defense. The 
Deputy Secretary assists the Secretary in providing direction to and 
oversight of the Secretaries of the Military Departments. The Deputy 
Secretary also helps resolve differences of opinion between the 
Secretaries of the Military Departments and the Under Secretaries of 
Defense.
    Question. The Chief Management Officers of the Military 
Departments.
    Answer. The Chief Management Officers of the Military Departments 
are the Under Secretaries of the Army, Air Force and Navy. They report 
to the Secretaries of the Military Departments. The Deputy Secretary 
and Deputy Chief Management Officer of DOD work closely with the Chief 
Management Officers of the Military Departments to ensure that the 
management program of DOD, as implemented in the respective Military 
Departments, is carried out consistently with the direction of the 
Secretary of Defense.
    Question. The Service Acquisition Executives.
    Answer. The Deputy Secretary and the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (USD(AT&L) perform essential 
roles in the Department's acquisition program, including providing 
guidance to, and oversight of, the Service Acquisition Executives. The 
Deputy Secretary works primarily through the USD(AT&L) when dealing 
with the Service Acquisition Executives.
    Question. The Chiefs of Staff of the Military Services.
    Answer. The Chiefs of Staff of the Military Services perform two 
vital roles for the Department. In their roles as Service Chiefs, they 
normally work with the Deputy Secretary through the Secretaries of the 
Military Departments. In their roles as members of the Joint Chiefs of 
Staff, they normally work with the Deputy Secretary through the 
Chairman of the Joint Chiefs of Staff. The Deputy Secretary seeks to 
ensure that the Chiefs of Staff in both of their roles have the 
resources necessary to accomplish their assigned missions and that they 
have ample opportunity to provide their professional military advice on 
significant matters.
    Question. The Chief of the National Guard Bureau.
    Answer. The Deputy Secretary works closely with the Chief of the 
National Guard Bureau on important issues regarding the States and the 
National Guard. The Deputy Secretary relies on the Chief of the 
National Guard to be a clear and persuasive channel of communication 
between the Department and the States on all National Guard matters.
    Question. The Judge Advocates General of the Services.
    Answer. The Deputy Secretary normally works through the General 
Counsel of DOD in dealing with the Judge Advocates General and the 
Staff Judge Advocate to the Commandant of the Marine Corps. Because the 
Judge Advocates General have an important role in providing legal 
advice to senior officials, military and civilian, in the Military 
Departments, the Deputy Secretary ensures that the Judge Advocates 
General are able to perform that vital function.
    Question. The Inspector General of DOD.
    Answer. The Deputy Secretary relies on the Inspector General to 
provide candid information on significant issues addressed by the 
auditors, inspectors, and investigators in the Inspector General's 
office. The Deputy Secretary plays a direct role in ensuring the 
independence of the Inspector General.
    Question. The General Counsel of DOD.
    Answer. The Deputy Secretary receives legal advice on all issues 
from the General Counsel, so he or she must have a close and candid 
relationship with the General Counsel. The General Counsel must feel 
that he or she may approach the Deputy Secretary with legal advice at 
any time, on any issue.
    Question. The Director of National Intelligence.
    Answer. When addressing matters of significance affecting both the 
Department and the Intelligence Community, the Deputy Secretary works 
with the Director of National Intelligence. The Under Secretary for 
Intelligence assists the Deputy Secretary in maintaining a close 
relationship with the Director of National Intelligence.
               duties of the deputy secretary of defense
    Question. Section 132 of title 10, U.S.C., provides that the duties 
of the Deputy Secretary of Defense are to be prescribed by the 
Secretary of Defense.
    Assuming that you are confirmed, what duties do you expect the 
Secretary to prescribe for you?
    Answer. I expect the Secretary to assign me the primary duties of 
being prepared to perform his duties in his absence, assisting him in 
leading the Department, providing him my best professional and candid 
advice, and performing the statutory duties of Chief Management 
Officer. In addition, I expect that the Secretary will assign me 
additional duties in areas that will assist him in accomplishing his 
many missions.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties?
    Answer. I have either been a part of or analyzed and studied DOD 
and the armed services my entire life.
    My first 17 years were spent as military dependent in a Marine 
Corps family. I learned first-hand what it was like moving every 2 to 4 
years, sometimes unexpectedly. I lived on bases, off bases, and in 
foreign countries. I changed neighborhoods and schools, lost track of 
old friends and made new ones, and watched my Mom cope with my Dad's 
long absences.
    After 4 years of preparing for a commission in the U.S. Marine 
Corps through the Naval Reserve Officer Training Corps, I spent 27 
years as a Marine artillery officer, retiring at the rank of colonel. I 
commanded at the platoon, battery, battalion, and training base level. 
At different times I served as the personnel, intelligence, and 
assistant operations officer in an artillery battalion, assistant 
operations and logistics officer in an infantry regiment, and 
operations officer in an artillery regiment. I also spent time on the 
Headquarters Marine Corps staff as the Enlisted Force Planner and 
director of Marine Corps space plans and operations. As the head of the 
Strategic Initiatives Group, I provided analytical support to the 
Commandant of the Marine Corps on a variety of issues, including during 
the 1997 Quadrennial Defense Review (QDR). My time in the Marine Corps 
taught me much about leadership, strategy, operations, tactics, 
programming, and budgeting.
    I was married for 23 of my 27 years in the Marine Corps, and was a 
father for 11. I watched my wife cope with frequent moves and the 
stresses of me being away. I missed some of her birthdays and our 
anniversaries. Then, I missed some my daughter's birthdays, school 
plays, and dance recitals. As a former member of a military family, I 
knew how hard it was to be constantly on the move and not having my dad 
around. But now it was me often leaving my wife and daughter to take 
care of themselves.
    My last 2 years on Active Duty was spent as the Military Assistant 
and Senior Aide to Richard Danzig, 71st Secretary of the Navy. During 
this time, I observed what it was like to lead a Military Department, 
where strategy, Service culture, politics, programming, and budgeting 
come into play. I observed the 2001 QDR from the Department of Navy 
level, recognizing the Navy-Marine Corps Team was very much more than 
the sum of its two parts. In the process, I became an ardent 
Departmentalist, seeking cooperation and understanding across 
institutional boundaries.
    After retiring, I spent most of the next 8 years at the Center for 
Strategic and Budgetary Assessments, a national security Think Tank, 
first as a Senior Fellow and later as Vice President for Strategic 
Studies. I studied, wrote, and spoke extensively on strategy, global 
posture, revolutions in war, and maritime affairs. I assisted the Red 
Team for the 2006 QDR, testing key assumptions and challenging major 
objectives.
    This body of experience prepared me well to be Under Secretary of 
the Navy. The Department of the Navy is a microcosm of DOD, with two 
Services (the Navy and Marine Corps) and a $140-$160 billion annual 
budget. As Under Secretary, I was the principal deputy and advisor to 
the Secretary of the Navy, the Chief Operating/Management Officer of 
the Department, and Chief of Staff for the Navy Secretariat. As such, I 
assisted the Secretary in pursuing his priorities and agenda, 
supervising the organize, train, and equip function of both the Navy 
and Marine Corps; developing Departmental policy, capabilities, and 
capacities; and fashioning a balanced program. I worked extensively 
with the Deputy Secretary of Defense, the Under Secretaries of Defense, 
the Director of Cost Analysis and Program Evaluation, the Chief and 
Vice Chief of Naval Operations, the Commandant and Assistant Commandant 
of the Marine Corps, the Assistant Secretaries of the Navy, and Under 
Secretaries of the Army and the Air Force, and the senior military 
leadership of the Army and Air Force. I learned the rhythm and 
processes of the Pentagon, and how to make things happen. I led the 
Department's efforts on the 2010 QDR, and participated in the 2011 
Strategic Review. Throughout this time, I gained a great appreciation 
for DOD civilians, who are a vital part of the Total Force.
    For the last year, I have been the Chief Executive Officer for the 
Center for a New American Security, where I have tried to build a 
series of programs that view the entire range of national security 
issues, including strategy and statecraft; responsible defense; 
technology and national security; energy, environment and security; 
military, veterans and society; and Middle East and Asian studies.
    Throughout my career, I have valued and sought out opportunities to 
better educate myself. I have a Masters in Science in Systems 
Management, a Masters of Systems Technology (Space Systems Operations); 
and a Masters in International Public Policy.
    Although no job will ever prepare someone for the expansive 
responsibilities of the Deputy Secretary of Defense, I believe this 
body of experience qualifies and prepares me to tackle the duties of 
the Deputy Secretary of Defense.
    Question. Do you believe there are actions you need to take to 
enhance your ability to perform the duties of the Deputy Secretary of 
Defense?
    Answer. Yes. If confirmed and appointed, I would begin immediately 
to establish close working relationships with those whom I will work 
daily on national security issues, including:

        <bullet> Secretary Hagel and his personal staff;
        <bullet> The Under Secretaries of Defense, Director of Cost 
        Evaluation and Program Evaluation (CAPE), the Deputy Chief 
        Management and Information Officers, and other senior officials 
        in the Office of the Secretary of Defense;
        <bullet> The Chairman and Vice Chairman of the Joint Chiefs of 
        Staff and senior leadership in the four armed services;
        <bullet> The three Service Secretaries and Under Secretaries;
        <bullet> Senior leadership at the Office of Management and 
        Budget and the Cabinet departments who work national security 
        issues;
        <bullet> Senior leadership in the White House and on the 
        National Security Council staff; and
        <bullet> Leadership in Congress, particularly those who sit on 
        the congressional defense committees.

    I would review the analysis and conclusions of the Strategic 
Choices and Management Review and the 2013 QDR in order to understand 
what had happened and the OSD decisions made since I left my job as 
Under Secretary of the Navy in March 2013.
    I would also begin detailed study of the fiscal, administrative, 
and operational issues that the Secretary assigns to me. I would spend 
time analyzing the business processes of the Department so that I could 
evaluate whether any changes may be appropriate and so advise the 
Secretary.
    Question. What changes to section 132, if any, would you recommend?
    Answer. I would not recommend any changes to section 132 at this 
time; I believe section 132 adequately provides for the duties of the 
Deputy Secretary. If I am confirmed and appointed, I will consider this 
issue while performing my duties, and if I determine that changes may 
be necessary, I will suggest them to the Secretary for consideration as 
a legislative proposal.
                  national security budget reductions
    Question. Section 132 was amended by section 904 of the National 
Defense Authorization Act (NDAA) for Fiscal Year 2008, to provide that 
the Deputy Secretary serves as the Chief Management Officer (CMO) of 
DOD. The Deputy Secretary is to be assisted in this capacity by a 
Deputy Chief Management Officer (DCMO).
    What is your understanding of the duties and responsibilities of 
the Deputy Secretary in his capacity as CMO of DOD?
    Answer. The primary duty of the Chief Management Officer is to 
provide leadership and to ensure accountability for the business 
operations of DOD. These operations involve all of the Department's 
components and cut across the responsibilities of the Under Secretaries 
of Defense. As such, they require leadership and accountability at a 
high level. In this role, the CMO should ensure that the business 
functions of the Department are optimally aligned to support the 
warfighter, that they form a simplified, efficient, and effective 
business environment, and that DOD maintains a strategic perspective 
and has the capacity to carry out its plans.
    In addition, the CMO's role is to lead, oversee, and support the 
roles of the Secretaries of the Military Departments and agency heads 
in managing their business operations, as well as provide direction to 
DOD's Deputy CMO and the CMOs of the Military Departments.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. As the former Under Secretary and CMO of the Navy, I am 
very familiar with the array of management and business challenges that 
continue to confront DOD. Additionally, I spent my previous career, 
first as a military officer and then as a member of a number of think-
tanks and academia, analyzing defense issues such as transformation, 
strategy, and programs. This experience has provided me with the 
background and expertise to serve as the Department's CMO.
    Question. Do you believe that the CMO and DCMO have the resources 
and authority needed to carry out the business transformation of DOD?
    Answer. My understanding is that the Secretary of Defense has 
recently announced a series of reforms following his Organizational 
Review to further strengthen the Deputy CMO to provide full spectrum 
oversight of OSD and DOD management, administration, and compliance. I 
am not currently in a position to determine if the CMO and Deputy CMO 
have the appropriate authority and resources to carry out their roles 
in light of these changes. If confirmed, I will examine the authorities 
and resources available to both functions to determine if they fully 
address the need.
    Question. What role do you believe the DCMO of DOD should play in 
the planning, development, and implementation of specific business 
systems by the Military Departments?
    Answer. The most important role the Deputy CMO can play regarding 
specific business systems is to ensure that the Department's 
overarching and functional business strategies and standards are 
clearly articulated at all levels and the Military Department's systems 
implementation plans will achieve these strategies. On occasion, there 
may be specific business systems that require the attention of the 
Deputy CMO to ensure alignment and resource prioritization across the 
budget horizon.
    Beyond defense business systems, however, there is a significant 
role the Office of the Deputy CMO can play in helping the Deputy 
Secretary lead efforts across the Department to increase its efficiency 
and effectiveness. I have read the Secretary's December 4th public 
statement that strengthens the role of the Office. This is an important 
step in gaining better control and oversight of the Office of the 
Secretary of Defense, the Defense agencies and activities, and the 
Department as a whole. If confirmed, I will review the decisions made 
and make new ones, if necessary, to strengthen to the role of the 
Deputy CMO.
    Question. Do you believe that the DCMO should have clearly defined 
decisionmaking authorities, or should the DCMO serve exclusively as an 
advisor to the Deputy Secretary in his capacity as CMO?
    Answer. I believe that the Deputy CMO should meet the statutory 
responsibilities currently in law, as well as have the responsibilities 
assigned by the CMO and the Secretary of Defense. There may be areas or 
circumstances where it would be appropriate for the Deputy CMO's duties 
to include independent decisionmaking authority and others where it 
would not be appropriate. This should be determined by the CMO or the 
Secretary.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the positions of CMO and DCMO?
    Answer. At this time, I believe the statutory authorities for the 
positions of the Chief Management Officer and the Deputy Chief 
Management Officer are sufficient. If confirmed, I would inform 
Congress if I determined that any changes in statute were necessary to 
more effectively perform the duties of this office.
    Question. In your view, what are the major challenges confronting 
the next Deputy Secretary of Defense.
    Answer. Clearly, the first challenge and responsibility is to get 
the entire Department working behind the Secretary's priorities. While 
doing so, the Deputy Secretary must be cognizant that the Department 
confronts a broadening range of missions within a complex strategic 
environment while it must carefully manage its diminished resources. 
Indeed, the dynamic fiscal environment is a major challenge since it 
relates to the principal function of the Deputy and CMO roles. 
Continued fiscal uncertainty generates potentially cascading effects 
across all elements of the Department enterprise. Having a stable 
fiscal picture will help the Department avoid inefficiencies and 
maximize the resources allocated to it. Another challenge will be the 
implementation of our National Security Strategy, consciously and 
deliberately managing risk and applying resources in accordance with 
the priorities of that strategy. This includes successful 
implementation of our plans in Afghanistan and adapting our force 
posture in the Asia-Pacific region.
    I also foresee the need to carefully manage our Science & 
Technology investments. I agree with recent comments from the Under 
Secretary for AT&L about not taking our technological dominance for 
granted. We should deliberately prioritize our long-term needs and 
carefully allocate funding to key programs and potential game-changing 
technologies that meet our strategic requirements.
    Another major challenge is the need to assess and define our force 
structure design in accordance with our strategy and to make resource-
informed decisions about our force levels. A force sizing construct 
will be a key aspect of the upcoming QDR to help define those force 
levels, against various levels of risk. Finally, as we go forward with 
force level cuts and management overhead reductions, we must keep faith 
with our Total Force. We cannot overlook the contributions that have 
been made by our servicemembers, civilians, and their families over the 
last decade of conflict.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I look forward to working with the Secretary 
and the senior leadership of the Department and the components in 
addressing these myriad challenges. I would anticipate that the 
deliberations of the QDR, and the insights offered by Congress and the 
National Defense Panel, will help generate solutions to them.
    Question. What broad priorities would you establish, if confirmed, 
with respect to issues which must be addressed by DOD?
    Answer. Secretary Hagel has defined a set of broad priorities that 
establish the essential framework for resolving the Department's 
critical challenges.
    The first involves a focus on institutional reform. We can set an 
example here for the components by scaling back our headquarters and 
adopting better business practices. We need to direct more resources to 
invest in concrete military capabilities and readiness, as well as make 
Defense organizations flatter and more responsive to today's threats 
and priorities.
    Next we must re-evaluate our force planning and force-sizing 
construct. We need to ensure our strategy is aligned with how the 
Military Departments are organizing, training and equipping the force. 
The QDR will provide direction for that, with a force planning 
construct reflecting priorities and modern threats.
    The Secretary's third priority is avoiding a long-term readiness 
challenge. This mandates finding a balance between force size, 
investment accounts, and readiness levels. Sequestration fell hard on 
the Department's future readiness accounts. The parameters for force 
planning in the QDR should assist the Department in precluding a 
readiness crisis and identifying the implications for Congress.
    Fourth, the Department must protect investments in critical 
military capabilities. This challenge requires us to preserve and 
extend emerging priority capabilities-especially space, cyber, special 
operations and intelligence, surveillance, and reconnaissance (ISR). A 
critical aspect of this challenge is the ability to maintain access in 
traditional and emergent domains. Our access is being increasingly 
contested. We must recognize that future adversaries will learn much 
from the last decade of war and avoid our traditional advantages. 
Maintaining a technological edge will be key to our ability to maintain 
access and secure our interests.
    Fifth, we must achieve a balanced strategic posture. This will 
include a capability/capacity balance for the military. In particular, 
defining the right balance of Active and Reserve components is 
necessary. We should leverage the potential of our Reserve component, 
ensuring that we define the training readiness, responsiveness and 
mobilization timelines required for their deployment. Balancing the 
military properly will also include an examination of forward-stationed 
and home-based forces. The force must also be balanced between its 
readiness for conventional, irregular, and unconventional warfare. The 
QDR will help define the balance required for general purpose and 
Special Operations Forces.
    Finally, personnel and compensation policy is a priority. We must 
find the proper balance between compensation and other defense 
priorities in a time of scarce resources. The Department and Congress 
will need to work together to find comprehensive solutions that allow 
us to recruit and retain the quality of today's force, while also 
providing the resources to train and equip that force for their 
missions.
    Question. The Budget Control Act, as amended by the recent Murray-
Ryan budget agreement, calls for reductions in defense spending in 
excess of $900 billion.
    Do you believe that a national security spending reduction of this 
magnitude can be accomplished without significant adverse impact on our 
national security?
    Answer. Based on my experience as Navy Under Secretary, and as an 
outside analyst, my answer would be ``no''. I believe the Department 
has expressed similar views. The BCA-level of funding will require 
significant force structure reductions, undermine readiness and delay 
modernization. My understanding is that the Department believes these 
actions will leave it unable to meet fully the current Defense 
Strategy.
    Question. If confirmed, will you report to the committee on the 
impact of these reductions personnel, readiness, infrastructure, and 
modernization?
    Answer. Yes, if confirmed, I will continue to work with Congress to 
define the impacts of potential reductions to the Defense budget and 
its impact on all the inter-related pillars of our security.
                       streamlining headquarters
    Question. Last December, Secretary Hagel began implementation of 
his plan to reduce DOD staff by 20 percent. He expects this effort to 
save $1.0 billion over a 5-year period by eliminating contract and 
civilian workers while reorganizing certain offices, such as the Office 
of the Secretary of Defense, Policy.
    Answer. The NDAA for Fiscal Year 2014 contains a provision 
requiring the Secretary of Defense to develop a plan for streamlining 
DOD management headquarters by reducing the size of staffs, eliminating 
tiers of management, cutting functions that provide little or no 
addition value, and consolidating overlapping and duplicative program 
offices. The objective is to reduce aggregate spending for management 
headquarters by not less than $40.0 billion beginning in fiscal year 
2015.
    Question. What is your view on reductions to the size and 
composition of DOD management headquarters?
    Answer. I understand Secretary Hagel said he expected to save at 
least $1 billion over the next 5 years. Given the fiscal challenges the 
Department faces, I fully support his efforts to reduce the size of 
headquarters. I am not familiar with the specifics of headquarters 
reduction plans, but, if confirmed, I believe it would be prudent to 
review these reductions to determine if additional savings can be 
achieved, and also to ensure these reductions do not create 
unacceptable risks to our national security interests.
    Question. What role do you expect to play, if confirmed, in 
ensuring that the expected savings are achieved?
    Answer. Again, I am not familiar with the specifics of headquarters 
reduction plans. However, if confirmed, it will be my responsibility to 
make sure these savings are realized.
    Question. Do you believe that DOD can achieve significant 
additional savings in this area?
    Answer. I do believe the Department can achieve savings by reducing 
headquarters. If confirmed, I look forward to ensuring that happens. 
Until given the opportunity to review those plans and the associated 
risk, however, I think it would be unwise to speculate on a specific 
savings number without understanding the functions involved and 
potential downsides in acquisition, cyber-security, intelligence, et 
cetera.
                           management issues
    Question. GAO recently reported that ``the DOD systems environment 
that supports [its] business functions is overly complex and error 
prone, and is characterized by: (1) little standardization across the 
department; (2) multiple systems performing the same tasks; (3) the 
same data stored in multiple systems; and (4) the need for data to be 
entered manually into multiple systems. . . . According to the 
department's systems inventory, this environment is composed of 2,258 
business systems and includes 335 financial management, 709 human 
resource management, 645 logistics, 243 real property and installation, 
and 281 weapon acquisition management systems.''
    If confirmed, what key management performance goals would you want 
to accomplish, and what standards or metrics would you use to judge 
whether you have accomplished them?
    Answer. If confirmed, I would strive to achieve the four key goals 
and five guiding principles that are identified in the Department's 
Strategic Management Plan. Each goal has associated performance 
measures to track progress. If confirmed, I would use the plan's 
upcoming development cycle to carefully review the strategic goals, 
initiatives, and performance measures included in the plan. I will 
ensure that future plans demonstrate clear alignment with the 
Department's strategic objectives and that initiatives and measures are 
clear, consistent, relevant and outcome-based.
    Question. Would you agree that the Department will not be able to 
put its financial house in order until it effectively addresses this 
problem?
    Answer. While I would agree that a simpler DOD systems environment 
will make it easier to achieve financial objectives such as audit 
readiness, it is only part of the holistic approach to financial 
management that is needed to achieve the Department's goals. The 
Department has reported that it is making better business management a 
priority with a simpler business system environment as a component of 
the broader agenda for improvement.
    Question. Do you believe that a comprehensive, integrated, 
enterprise-wide architecture and transition plan is essential to the 
successful transformation of DOD's business systems?
    Answer. Yes, I believe these are elements of what is required for 
overseeing such a large and complex organization. However, I would 
caution anyone from underestimating the challenges of changing DOD's 
business practices and processes by just looking at technical systems. 
The Department is far more complicated and requires far more than these 
technical tools for simplifying, strengthening, and leaning out the 
business environment.
    Question. What steps would you take, if confirmed, to ensure that 
DOD's enterprise architecture and transition plan meet the requirements 
of section 2222?
    Answer. It is my understanding that strengthening DOD's business 
processes and tools is a goal of the OSD transition plan. If confirmed, 
I will review those plans and ensure we are meeting the full intent of 
section 2222 in our revised organization structure and processes.
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding managers accountable?
    Answer. Timely and accurate financial and business information is 
very important to the overall management of DOD's business operations. 
It allows senior leaders to make fact-based decisions about the most 
effective and efficient allocation of resources, while ensuring good 
stewardship of the taxpayers' dollars. If confirmed, I will continue to 
emphasize the Department's on-going efforts to improve our business 
processes and systems which will better enable effective leadership and 
management.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to DOD managers?
    Answer. If confirmed, I would take my role as Chief Management 
Officer/Chief Operating Officer and chair of the Deputy's Management 
Action Group seriously. In these roles, I would hold the Department's 
senior leaders accountable for meeting DOD's objectives, including 
those identified in the Strategic Management Plan and Financial 
Improvement and Audit Readiness Plan that are directly linked to 
improving financial and business information.
                            audit readiness
    Question. Former Secretary Panetta stated: ``While we have 
reasonable controls over much of our budgetary information, it is 
unacceptable to me that DOD cannot produce a financial statement that 
passes all financial audit standards. That will change. I have directed 
that this requirement be put in place as soon as possible. America 
deserves nothing less.''
    What is your understanding of the efforts and progress that have 
been made in DOD toward the goal of being able to produce a clean 
audit?
    Answer. My understanding is that DOD, as an agency, has made 
significant progress, particularly in the last 4 years. Secretary Hale 
worked with the Services and agencies to provide a coherent set of 
priorities and Secretary Hagel is fully engaging the entire leadership 
team. In my former position as the Department of Navy CMO, I saw how 
challenging this effort can be, and am gratified to see the Marine 
Corps recently achieve an important initial milestone (an unqualified 
opinion on the current year of their budget statement). If confirmed, I 
intend to sustain the leadership emphasis in this area.
    Question. Do you believe the Department will meet its statutory 
goal to achieve an auditable Statement of Budgetary Resources by the 
end of fiscal year 2014 or are additional steps necessary? If so, what 
are those steps?
    Answer. I understand that the Department has told Congress that, 
while it is too soon to know for sure because remediation efforts are 
ongoing, they expect most budget statements to be ready for audit by 
September 2014. Because of years of budget turmoil and other problems, 
some may not be ready. Once the audit begins, I understand that the 
Department plans to conduct the audit in a cost-effective manner by 
starting with the current year. I also know that this whole project 
will be extremely challenging.
    Question. Do you believe the Department will meet its statutory 
goal and achieve an auditable financial statement by the end of fiscal 
year 2017 or are additional steps needed? If so, what are those steps?
    Answer. I know from my time as Navy Under Secretary that the 
Department is fully committed to this goal and has a plan to meet the 
target. I understand that the Department believes it is on track to 
meet this target despite the technical complexity of the problem and 
the scale of the Department's resources. However, I am not currently in 
a position to make a specific prediction about timing.
    Question. Do you believe the Department will meet its statutory 
goal ``to ensure a full audit is performed on the financial statements 
of DOD . . . '' for fiscal year 2018 and that audit will be completed 
by September 30, 2018 or are additional steps needed? If so what are 
those steps?
    Answer. My understanding is that the Department is fully committed 
to this goal and timing and believes it is on track to meet the goal. 
However, I am not currently in a position to make a specific prediction 
about timing.
    Question. Do you believe the Department will meet its statutory 
goal and submit to Congress the results of the audit to be completed by 
September 30, 2018 or are additional steps needed? If so, what are 
those steps?
    Answer. My understanding is that the Department is fully committed 
to this goal and timing and believes it is on track to meet the 
targets. However, I am not currently in a position to make a specific 
prediction about timing.
    Question. Do you believe in order to meet its statutory goal to 
conduct a full audit that the Department will have to place a monetary 
value on all of its property?
    Answer. Yes. My understanding is that the Department will need to 
follow the government accounting and auditing rules, as well as its own 
policies. Those rules require property valuation. I know that the 
policies also provide some flexibility to make sure that the cost of 
accomplishing this valuation does not exceed the value of the 
information.
    Question. Do you believe that the Department can achieve a clean 
audit opinion through better accounting and auditing, or is the 
systematic improvement of the Department's business systems and 
processes a prerequisite?
    Answer. I believe that the Defense Department will need to do both. 
Over the past 5 years, the Department has made significant progress in 
audit readiness, despite the fact that it doesn't have modern business 
systems across the enterprise. However, the Department needs to 
continue efforts to improve and streamline the systems environment for 
operational efficiency, as well as to sustain cost effective annual 
financial audits.
    Question. When do you believe the Department can achieve a clean 
audit?
    Answer. The Department is fully committed to the goal of having 
audit ready statements by September 2017. After achieving audit 
readiness, experience in other Federal agencies suggests that it 
usually takes several years to secure a clean audit opinion.
    Question. If confirmed, what steps would you take to sustain the 
commitment of the Department's top leadership to the long-term goal of 
transforming the Department's financial management?
    Answer. I understand the Department has made substantial progress 
in transforming business operations, to include financial management. 
This progress is most visible in the audit readiness area, but I 
understand progress has also been made in reducing improper payments 
and the number of Anti-Deficiency Act violations reported. However, 
there is still a long way to go. Sustaining gains will continue to 
demand the attention and commitment of senior leadership. When I served 
as CMO in the Department of the Navy, I knew how difficult the problem 
appeared at the beginning, but we pressed forward and made solid 
progress. If confirmed, I intend to continue to make this a priority, 
not only for the Comptroller, but for all DOD leaders.
    Question. Do you think that having the Deputy Secretary of Defense 
``dual-hatted'' as the CMO is consistent with the prioritization and 
sustained day-to-day focus needed for the success of the Department's 
financial improvement efforts?
    Answer. Yes, based on my 4 years as Under Secretary of the Navy 
where I had both ``hats'' in a $140 billion enterprise. While demanding 
in terms of management time, this ``dual-hat'' approach provides the 
high-level attention necessary to make progress on important but 
difficult initiatives such as financial improvement. Progress on 
financial initiatives also requires a close working relationship 
between the Comptroller and the CMO/DCMO leadership. I believe that 
relationship is working today and if confirmed, I will work to sustain 
it into the future.
                        business transformation
    Question. Since 2005, the Government Accountability Office (GAO) 
has designated DOD's approach to business transformation as ``high 
risk'' due to its vulnerability to waste, fraud, abuse and 
mismanagement. However, GAO has recently found that the Department's 
senior leadership has shown commitment to transforming business system 
operations and has made progress in establishing management oversight 
and developing a strategic plan to guide transformation efforts. 
Nonetheless, in GAO's view, the Department needs to take additional 
action to further define management roles and responsibilities and to 
strengthen strategic planning.
    Do you believe that the Department needs to more clearly define 
roles and responsibilities, as well as relationships among key 
positions and governance entities?
    Answer. The Department has clearly defined roles and 
responsibilities among key positions and governance entities; however, 
I understand that Secretary Hagel recently announced a plan to realign 
certain reporting relationships and functions to the Deputy CMO to 
provide full spectrum oversight of OSD and DOD management, 
administration, and compliance. He further seeks to strengthen the role 
of the CIO in the Department. If confirmed, I look forward to working 
with the Secretary to implement those changes so that the Department 
can best meet the challenges that lie ahead.
    Question. If so, what steps do you believe the Department should 
take to achieve this objective?
    Answer. I believe that Secretary Hagel's plan will improve the 
Department's ability to transform its business operations and its 
systems. My understanding is that the plan is intended to strengthen 
both the Deputy CMO's role in full spectrum management and the DOD 
Chief Information Officer's role in overarching IT oversight. If 
confirmed, I look forward to driving implementation of the Secretary's 
announced realignments so that management improves not only for 
business systems, but also across the Department.
    Question. If confirmed, what steps, if any, would you take to 
further refine strategic goals, performance measures, and other 
elements of the Department's strategic management plan?
    Answer. The Department's Strategic Management Plan is updated on a 
regular basis. If confirmed, I would use the plan's upcoming 
development cycle to carefully review the strategic goals, initiatives, 
and performance measures included in the plan. I will make sure that 
future plans demonstrate clear alignment with the Department's 
strategic objectives and that initiatives and measures are clear, 
consistent, relevant and outcome-based.
    Question. If confirmed, what steps, if any, would you take to more 
clearly define the Department's strategic planning process, including 
mechanisms to guide and synchronize efforts to develop strategic plans; 
monitor the implementation of reform initiatives; and report progress, 
on a periodic basis, towards achieving established goals?
    Answer. If confirmed, I would seek to ensure that initiatives and 
measures are clearly linked to the overall strategic objectives of the 
Department. I believe establishing clear and meaningful outcome-based 
performance measures, periodic reporting, and use of these measures to 
inform management decisions is critical to success. Achieving these 
goals requires coordination among all of the Department's senior 
leaders.
    Question. Do you believe that the Deputy Chief Management Officer 
should have control over funds for the components' business systems 
programs to ensure that the components follow guidance from the Office 
of the Secretary of Defense on the Department's business transformation 
efforts?
    Answer. I believe the components should maintain control over their 
funds for business systems programs; however, the Deputy Chief 
Management Officer needs to be able to confirm that components are 
following Department processes and guidance. As the Navy Chief 
Management Officer, it was my experience that the Deputy Chief 
Management Officer had sufficient ability to ensure components followed 
guidance on business transformation through the Defense Business 
Council. However, if confirmed, I would notify Congress if I assess 
that further controls over funds were necessary.
                    acquisition of business systems
    Question. Most of the Department's business transformation programs 
are substantially over budget and behind schedule. At the request of 
the Armed Services Committee, GAO reviewed DOD's 9 largest Enterprise 
Resource Programs (ERP), which are intended to replace more than 500 
outdated business systems, and reported that 6 of the 9 had experienced 
schedule delays ranging from 2 to 12 years and incurred cost increases 
ranging from $530.0 million to $2.4 billion. GAO reported that DOD has 
failed to follow good management practices for developing schedules and 
cost estimates for many of these programs.
    If confirmed, how would you work with the Deputy Chief Management 
Officer, the Chief Management Officers of the Military Departments, the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
(AT&L), the Chief Information Officer (CIO), and the Under Secretaries 
of Defense to address these problems?
    Answer. If confirmed, I would work directly with the Under 
Secretary of Defense for Acquisition, Technology, and Logistics (AT&L), 
the Deputy Chief Management Officer, the Chief Management Officers of 
the Military Departments, the Under Secretaries of Defense, and the DOD 
Chief Information Officer to implement better management practices and 
lessons learned. Successful ERP implementations require integrated, 
end-to-end thinking and therefore must consider policy, business 
process, and acquisition equities. Each of these officials has an 
important role to play in addressing the planning, implementation, and 
change management challenges that historically have hamstrung the 
Department's ability to deliver programs such as ERPs in accordance 
with established cost and schedule baselines.
    Question. What lessons can be learned from acquisition management 
of the Air Force's now cancelled Expeditionary Combat Support System?
    Answer. I am not familiar with the details as to what happened 
regarding the Expeditionary Combat Support System. If confirmed, I will 
ensure the Department implements a full range of management controls to 
our business systems modernization efforts and will ensure that the 
lessons learned from Expeditionary Combat Support System are 
incorporated into our processes.
    Question. DOD must implement a full range of business systems 
modernization management controls to ensure that its business system 
investments are the right solutions for addressing its business needs; 
that these investments are being managed to produce expected 
capabilities efficiently and cost-effectively; and that, ultimately, 
its business stakeholders are satisfied.
    What additional steps, if any, do you believe are needed to ensure 
that both the corporate and component investment management processes 
are appropriately defined and institutionalized?
    Answer. If confirmed, I will work with the Department's senior 
leadership to ensure our collective investment processes are balanced 
and focused on achieving the enterprise needs of the Department. I will 
review the Department's investment review process for business systems 
and ensure it provides the necessary framework so that component 
investments are aligned with the Department's strategy.
    Question. What additional steps, if any, do you believe are needed 
to ensure that business system investments are managed with the kind of 
acquisition management rigor and discipline that is embodied in 
relevant guidance and best practices, so that each investment will 
deliver expected benefits and capabilities on time and within budget?
    Answer. I am not aware of any additional steps being necessary at 
this time. If confirmed, I will work with the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, the Deputy Chief 
Management Officer, the Chief Information Officer, and the Military 
Departments to identify opportunities to strengthen business system 
development acquisition processes and practices to improve our 
investment outcomes.
    Question. Do you believe that unique challenges to acquiring 
services related to information-technology (IT) systems may require an 
acquisition strategy or approach different from those used for 
acquiring property or services unrelated to IT systems?
    Answer. I believe DOD should ensure acquisition strategies or 
approaches are structured and tailored to best suit the required 
product, including information technology systems. If confirmed, I will 
ensure that we appropriately manage business system requirements 
development and acquisition.
    Question. What additional steps, if any, do you believe are needed 
to ensure that requirements management, systems testing, and data 
quality are improved and to help resolve other problems that have 
continued to hinder the Department's efforts to implement its automated 
systems on schedule, within cost and with the intended capabilities?
    Answer. I believe the Department must place appropriate management 
emphasis on the entire business system process, from requirements 
development to fielding. If confirmed, I will work with the Under 
Secretary of Defense for Acquisition, Technology, and Logistics, the 
Deputy Chief Management Officer, the Chief Information Officer, and the 
Military Departments to strengthen our efforts in this area.
                       defense acquisition reform
    Question. Congress enacted the Weapon Systems Acquisition Reform 
Act of 2009 (WSARA), without a dissenting vote in either House. WSARA 
is designed to ensure that new defense acquisition programs start on a 
sound footing, to avoid the high cost of fixing problems late in the 
acquisition process.
    What are your views regarding WSARA and the need for improvements 
in the Defense acquisition process?
    Answer. When I first took office as the Under Secretary of the Navy 
in 2009, Congress had just passed the Weapon Systems Acquisition Reform 
Act, which has become a valuable tool for the Department. I supported 
the implementation of WSARA at that time, and I continue to support the 
improvements in the area of Defense acquisition organization and 
policy. If confirmed, I would continue to support the efforts to 
improve the defense acquisition system consistent with the direction 
provided in WSARA.
    Question. If confirmed, how would you improve all three aspects of 
the acquisition process--requirements, acquisition, and budgeting?
    Answer. My time as the Under Secretary of the Navy taught me the 
value of strong communications and interactions between the 
requirements, acquisition, and financial communities. Given the complex 
nature of the acquisition process, it is important to review all three 
aspects of the process holistically and not independently. If 
confirmed, I will work to effectively synchronize these processes to 
balance warfighters needs with budget and acquisition realities.
    Question. If confirmed, how would you improve acquisition 
accountability?
    Answer. Short, clear lines of authority and accountability for 
acquisition were established by the Goldwater-Nichols Act. I emphasized 
this chain as Under Secretary of the Navy and would continue to do so, 
if confirmed. Further I will hold those responsible for establishing 
requirements, budgets, and acquisition programs accountable for meeting 
the needs of the warfighter. I also believe our industry partners must 
be held accountable for their performance as well, and that incentives 
and rewards should align with actual performance and outcomes.
    Question. Do you believe that the current investment budget for 
major systems is affordable given increasing historic cost growth in 
major systems, costs of current operations, and asset recapitalization?
    Answer. I believe it is critical that we ensure major systems are 
affordable. The constrained budget environment facing the Department 
for the foreseeable future increases the pressure on the Department to 
maintain affordability. If confirmed, I will examine the cost balance 
between current operations, readiness and weapon system acquisition and 
assess our risks in those areas. I will work with the Under Secretary 
of Defense for Acquisition, Technology, and Logistics to manage weapon 
system cost growth.
    Question. If confirmed, how do you plan to address this issue and 
guard against the potential impact of weapon systems cost growth?
    Answer. If confirmed, I will work with the Under Secretary of 
Defense for Acquisition, Technology, and Logistics to manage weapon 
system cost growth. We must spend the Department's resources prudently 
given our projected top line. That is why I support steps, such as 
those included in the Department's Better Buying Power initiatives, to 
manage requirements, improve affordability, and ensure completion where 
possible.
    Question. Do you believe that the Department has adequately 
addressed its shortfalls in systems engineering and developmental 
testing capabilities, or does more remain to be done in these areas?
    Answer. Systems engineering and developmental test and evaluation 
are essential to weapon system program success. Based on my experience 
in the Navy, I believe the Department has strengthened its system 
engineering and developmental test capabilities. If confirmed, I will 
work with the Secretary and other stakeholders in the Department to 
evaluate what more needs to be done to ensure that the Department has 
adequate systems engineering and developmental testing capabilities.
    Question. Do you believe that additional steps are needed to ensure 
that WSARA principles are implemented on current major programs like 
the Joint Strike Fighter (JSF) program?
    Answer. Maintaining major acquisition programs on schedule and 
within budget is a high priority for me and the Department. If 
confirmed, in conjunction with the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, I will review major programs, 
to include the JSF program, to assess whether WSARA principles have 
been implemented, and will determine if additional steps are required.
    Question. Under Secretary of Defense (Acquisition, Technology, and 
Logistics) Frank Kendall recently released an updated Defense 
Department Instruction 5000.02. He has stated that the rewrite had ``to 
do with the need for a requirements decision point during what is the 
risk-reduction phase, the technology demonstration phase.'' The latest 
version of 5000.02 is to put a ``place to finalize requirements . . . 
we added a new decision point, which I'll participate in for major 
programs, but it's largely a Joint Requirements Oversight Council, 
Joint Staff, service, requirements community decision'' between 
Milestone A and Milestone B.
    Are you familiar with Under Secretary Kendall's rewrite of DODI 
5000.02?
    Answer. I am generally familiar with Under Secretary Kendall's 
focus on strengthening our acquisition process, but I am not familiar 
with the recent rewrite of DODI 5000.02.
    Question. Do you believe a new decision point is necessary to 
finalize requirements between Milestone A and Milestone B?
    Answer. I believe that we need to fully assess requirements and 
cost trades before finalizing requirements and committing to full scale 
development. If confirmed, I will review the new decision point with 
the Under Secretary of Defense for Acquisition, Technology & Logistics.
    Question. Does having a new decision point between Milestone A and 
Milestone B risk creating a new bureaucratic hurdle in the acquisition 
process that will slow the process?
    Answer. I believe it is important that major cost and performance 
trades have been completed and we have appropriately reduced risk 
before committing to full scale development. If confirmed, I will 
review the new decision point with the Under Secretary of Defense for 
Acquisition, Technology & Logistics to ensure it does not unnecessarily 
add bureaucracy and slow the acquisition process.
    Question. Recently, the Joint Requirements Oversight Council (JROC) 
issued guidance which ``encourages Program Managers, Program Executive 
Officers and Component Acquisition Executives, in coordination with the 
requirements sponsor, to officially request requirements relief, 
through the appropriate requirements validation authority, where Key 
Performance Parameters appear out of line with an appropriate cost-
benefit analysis.''
    Do you agree with this reform?
    Answer. Yes. It is important to ensure that major cost and 
performance trades are made in order to control costs of our weapon 
systems.
    Question. Do you support the JROC's review of the analysis of 
alternatives prior to Milestone A as was called for in the Government 
Accountability Office's June 2011 report titled DOD Weapon Systems: 
Missed Trade-off Opportunities During Requirements Reviews?
    Answer. I am not familiar with this report, but if confirmed, I 
will review it and consider the recommendation.
   role of service secretaries and chiefs in the acquisition process
    Question. Some have suggested that the Service Secretaries and 
Chiefs should be given a different or expanded role in the acquisition 
of major systems. Others have expressed concern that such a change 
would reverse efforts in the Goldwater-Nichols legislation to reduce 
the layers between the Under Secretary and the program managers, and 
ensure that there was a dynamic tension between those who defined 
requirements (Service Chiefs) and those who filled the requirements 
(Service Acquisition Executives).
    What do you believe is the appropriate role for Service Chiefs in 
the acquisition of major systems?
    Answer. Service Chiefs must play a major role in acquisition 
through their deep involvement in the requirements, manpower, and 
budget processes. I believe that the Service Chiefs profoundly affect 
the acquisition process through the way they and their organizations 
generate, prioritize, and review requirements, program budgets, manage 
workforce, and interact with the Acquisition Enterprise.
    Question. Do you believe there is value in having greater 
participation of the Service Secretaries and Chiefs involved in the 
acquisition process?
    Answer. I believe that the Service Chiefs and Service Secretaries 
must play a role in the acquisition process since they ensure the 
requirements development process, the manpower process, and the budget 
processes are properly managed and integrated with the acquisition 
process. If confirmed, I intend to work with the Service Chiefs and 
Service Secretaries to ensure effective interactions between the 
requirements, budgeting, staffing, and acquisition systems.
                        contracting for services
    Question. Over the last decade, DOD's spending on contract services 
has more than doubled. As a result, the Department now spends more for 
the purchase of services than it does for products (including major 
weapon systems). When he was USD(AT&L), former Deputy Secretary of 
Defense Ashton Carter testified that ``the low-hanging fruit really is 
[in contract services]. There's a lot of money. There has been a very, 
very high rate of growth over the last decade, in services. They have 
grown faster than everything else . . . . So, there's a lot we can do. 
I think great savings can be had there, across the Services' spend. 
It's essential that we look there, because that's half the money.''
    Do you believe that the cuts made to contract services have fully 
addressed the issues of waste and inefficiency in this area, or are 
further reductions possible?
    Answer. While the Department has made progress, I believe more can 
be done. With the current fiscal realities facing the Department, we 
need to look for efficiencies in our service contracts. The Department 
needs to strengthen oversight of the requirements for services 
contracts, improve both competition and small business utilization, and 
strengthen the professionalism of those outside the acquisition 
workforce that are principally engaged in buying services. If 
confirmed, I will work with the Under Secretary of Defense for 
Acquisition, Technology, & Logistics and the Military Departments to 
improve the processes and procedures to manage contracted services.
    Question. What additional steps would you take, if confirmed, to 
control the Department's spending on contract services?
    Answer. If confirmed, I will review the current efforts in the 
Department to improve our visibility into, and accountability for, 
contracted services and focus on improving our insight into the 
appropriate utilization, cost effectiveness, and alignment of 
contracted services in support of the Department's mission. If 
confirmed, I will also support additional steps to ensure the 
Department's acquisition of services is more efficient and effective.
       contractor performance of critical governmental functions
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, is DOD still too reliant on contractors to support 
the basic functions of the Department?
    Answer. The Department uses a Total Force approach to manage its 
workload. Contractors are an important element of the Total Force and 
provide flexibility and technical competence.
    However, we must be careful to ensure work is appropriately 
assigned to military personnel (Active/Reserve), civilian employees, 
and contract support.
    If confirmed, I will work to ensure the Department continues 
efforts to implement a Total Force strategy that aligns functions and 
work to military, civilian, and contract support in a cost effective 
and balanced manner consistent with workload requirements, funding 
availability, laws, and regulations.
    Question. What additional steps, if any, do you believe are needed 
to reduce the Department's reliance on contractors to perform critical 
functions?
    Answer. If confirmed, I will work with the acquisition and 
personnel communities to review our current use of contractor support 
and reduce such use where appropriate.
                      base realignment and closure
    Question. DOD has requested another Base Realignment and Closure 
(BRAC) round.
    Do you believe another BRAC round is necessary? If so, why?
    Answer. With declining budgets and shrinking force structure, I 
believe the Department's supporting infrastructure must be examined; 
both for alignment with strategic needs, and opportunities to reduce 
unneeded capacity. BRAC provides a fair and comprehensive way to do 
that.
    Question. It has been noted repeatedly that the 2005 BRAC round 
resulted in major and unanticipated implementation costs and saved far 
less money than originally estimated. What is your understanding of why 
such cost growth and lower realized savings have occurred?
    Answer. I did not participate in the BRAC 2005 process. However, it 
is my understanding that the 2005 BRAC round was not designed 
specifically to save money. A good portion of the recommendations were 
focused on transformation, jointness, and relocating forces from 
overseas to the United States. These recommendations increased the 
costs of that BRAC round.
    Question. How do you believe such issues could be addressed in a 
future BRAC round?
    Given the Department's limited resources, I expect that a future 
BRAC round would be similar to the 1993/1995 rounds in which DOD cut 
excess capacity and achieved a relatively quick payback. That should be 
the focus of a future round should Congress provide that authority.
                           strategic reviews
    Question. What is your understanding and evaluation of DOD's 
processes for strategic assessment, analysis, decisionmaking, and 
reporting for each of the following strategic reviews?
    Answer. The processes for these reviews are important tools to help 
the Department's senior leaders provide strategic guidance across the 
Department in keeping with defense objectives in the broader National 
Security Strategy. They help the Military Department and other 
Components prioritize efforts and resources to achieve the Department's 
objectives effectively and efficiently in light of the changing 
security and fiscal environment.
    I have been involved directly and indirectly in many of these 
reviews at different points throughout my career. The Secretary of 
Defense determines how best to oversee these review processes. I have 
seen various approaches used over the years--each differs based on 
strategic changes, timing, and leadership preferences. However, each 
Defense review should be based on candid deliberations and advice from 
across the military and civilian leadership, supported by rigorous data 
and analysis. This analytical rigor and intense engagement are critical 
for the Department and the country's national security.
    Question. The Quadrennial Defense Review (QDR) (section 118 of 
title 10, U.S.C.);
    Answer. The QDR articulates the Nation's defense strategy in 
support of the President's national security strategy. Specifically, 
title 10 U.S.C. section 118, requires the Department to conduct a 
comprehensive examination of the national defense strategy, force 
structure, force modernization plans, infrastructure, budget plan, and 
other elements of the defense program and policies of the United States 
with a view toward determining and expressing the defense strategy of 
the United States and establishing a defense program for the next 20 
years. In my experience, effective QDRs include a wide range of 
stakeholders and help to ensure the defense strategy guides U.S. 
military force structure, plans, and programs.
    Question. The National Military Strategy (section 153 of title 10, 
U.S.C.);
    Answer. The Chairman prepares the National Military Strategy as a 
means to delineate how the armed services support the National Defense 
Strategy, and to convey the military's views on strategic priorities 
and associated risks.
    Question. Global Defense Posture Review (section 2687a of title 10, 
U.S.C.);
    Answer. In my previous role as Under Secretary of the Navy, I 
participated in the Department's continuous review process for global 
defense posture. I have witnessed how this process is informed by the 
strategy and the Department's operational needs. The annual report to 
Congress encapsulates the Department's current overseas defense posture 
and the collaborative process by which the Department makes posture 
decisions.
    Question. The Quadrennial Roles and Missions Review (section 118b 
of title 10, U.S.C.).
    Answer. The Quadrennial Roles and Missions Review (QRM) describes 
how the Department intends to align organizational responsibilities and 
military capabilities to carry out assigned missions. Specifically, 
title 10 U.S.C., section 118b, requires the Department to complete a 
comprehensive assessment of the roles and missions of the Armed Forces 
and the core competencies and capabilities of the Department to perform 
and support such roles and missions. In the past, conclusions reached 
during the QDR significantly influenced the Department's assessment of 
its military roles and missions.
    Question. If confirmed, what recommendations would you make, if 
any, to change title 10, U.S.C., that would update, improve, or make 
these reviews more useful to the Department and to Congress?
    Answer. The QDR and associated reviews serve a useful function for 
the Department by helping make sure that at least every 4 years the 
Department deliberately reassesses and, if necessary, adjusts the 
Nation's defense strategy, defense capabilities, and force structure in 
line with national security interests, the future security environment, 
and available resources. If confirmed, I look forward to working with 
Members of Congress to help make the specific requirements and 
information the Department provides in these reviews as relevant and 
useful as possible.
    Question. If confirmed, what recommendations would you make, if 
any, to improve DOD's processes for strategic assessment, analysis, 
policy formulation, and decisionmaking relative to each review above?
    Answer. From previous experience, I find that the following factors 
contribute to successful strategic reviews:

        <bullet> The Secretary or Deputy Secretary provide clear 
        initial guidance and maintain ``hands-on'' oversight of the 
        review from start to finish.
        <bullet> All relevant DOD stakeholders are a part of the formal 
        review and decisionmaking fora. These stakeholders generally 
        include senior leaders within the Office of the Secretary of 
        Defense, the Joint Staff, military and civilian leadership from 
        the Military Department and Services and the combatant 
        commands.
        <bullet> Working groups and review groups are co-led by the 
        offices within the Office of the Secretary of Defense and the 
        Joint Staff, allowing for the most relevant expertise and 
        involvement in the issue areas being examined.
        <bullet> The working groups' deliberations and findings are 
        transparent and vetted with the key stakeholders.

    If confirmed, I would recommend that insights gained from previous 
reviews, along the lines of those outlined above, be applied to 
additional reviews that the Department undertakes.
    Question. The law requires the QDR to identify the budget plan that 
would be required to provide sufficient resources to execute 
successfully the full range of missions called for in that national 
defense strategy at a low to moderate level of risk, and any additional 
resources (beyond those programmed in the current Future Years Defense 
Program) required to achieve such a level of risk. The law also 
requires the QDR to make recommendations that are not constrained to 
comply with and are fully independent of the budget submitted to 
Congress by the President.
    What is your understanding and assessment of the Department's QDR 
analysis and decisionmaking processes to address these two 
requirements?
    Answer. The QDR assessment should be strategy-driven and resource-
informed to determine the best mix of capabilities and investment 
portfolios for the Department to pursue in these complex and uncertain 
times. However, the Department should not be so constrained by this 
approach as to overlook gaps and risks in resource allocation or 
changes to the strategy.
    Question. In your view, is there analytical and/or practical value 
in a defense strategy that is unconstrained by or independent of the 
current budget request or fiscal environment?
    Answer. No. One of the first rules of strategy is that all 
resources are scarce. An effective defense strategy should take a 
comprehensive view of the future security environment to assess and 
prepare the Department prudently for a range of missions and associated 
risks to U.S. national interests. By definition, a strategy seeks to 
identify ways to meet policy goals, and allocate projected resources 
and means in response to perceived risks. As such, the QDR process 
ensures a broad review of the trends, threats, challenges, and 
opportunities that shape that environment. Although this assessment is 
strategy-driven, particularly in this fiscal environment, the defense 
strategy should also be resource-informed to ensure the Department 
sufficiently prioritizes its efforts and addresses trade-offs in the 
needed capabilities, activities, and posture of the future force.
                                  iraq
    Question. What in your view are the key U.S. strategic interests 
with regard to Iraq?
    Answer. I have not been given a thorough update on developments in 
Iraq. However, I believe it is imperative that the United States 
maintain a long-term security partnership with Iraq as part of a 
broader enduring commitment to regional peace and security. The United 
States has invested and sacrificed heavily in Iraq. Iraq's strategic 
location, oil production capacity, and work to counter violent 
extremism make Iraq an important regional partner. As such, the United 
States has a strategic interest in ensuring that Iraq remains stable, 
sovereign, and secure. If confirmed, I will work to strengthen the 
Department's relationship with Iraq, by maintaining consultation on 
security issues, continuing to develop Iraq's military capabilities 
through foreign military sales (FMS), and deepening Iraq's integration 
into the region.
    Question. What do you see as the major areas, if any, of common 
security interest between the United States and Iraq?
    Answer. I see areas of mutual strategic interest in partnership 
with a sovereign, stable, and democratic Iraq in several areas, 
including: countering Iran's aggression and pursuit of nuclear weapons 
capability, mitigating destabilizing effects on the region from 
violence in Syria, cooperating with regional allies and partners to 
reduce the capacity of the Islamic State of Iraq and the Levant (ISIS), 
maintaining stable production of petroleum exports, and actively 
participating in regional multilateral exercises.
    Question. In what areas, if any, do you see U.S. and Iraqi security 
interests diverging?
    Answer. Both Iraq and the United States have an interest in 
fighting terrorism, securing borders, combating undesirable external 
influence, and routing extremist militias to ensure the peace and 
security of Iraq and the stability of the Middle East region. The 
United States has an interest in Iraq remaining a close partner, and 
although our approaches may sometimes differ, our interests tend to be 
aligned.
    Question. What do you see as the greatest challenges for the U.S.-
Iraq security relationship over the coming years?
    Answer. The greatest challenge facing the U.S.-Iraq security 
relationship is the successful transition to a more traditional 
security cooperation relationship--with a robust bilateral and 
multilateral training and exercise program--despite the complicated 
history we share, persistent sectarian violence, and tensions over 
Iranian support to Syria and proxy forces in the region. If confirmed, 
I will support efforts to work with the Iraqis to make sure that we 
maintain and expand our bilateral security relationship and will seek 
to bolster the U.S.-Iraq defense partnership on a wide array of 
security matters.
    Question. Iraq faces a resurgent violent extremist threat that has 
sought to exploit popular discontent with the current Maliki 
Government, particularly within Sunni communities in western Iraq.
    What role, if any, should the United States play in assisting the 
Government of Iraq in confronting the threat of violent extremism?
    Answer. Iraq is the lead in providing for its own security, but the 
United States plays an important role in providing Iraq with security 
assistance to counter violent extremism. Information sharing, non-
operational training and advice to the Iraqi Counterterrorism Services, 
and provision of key defense systems through the foreign military sales 
program play an important role in improving the capability of the Iraqi 
military in its campaign against extremists.
    Question. In your view, what conditions, if any, should the United 
States place on the provision of equipment or assistance to the 
Government of Iraq in its fight against violent extremism?
    Answer. I believe we already have sufficient conditions in place. 
All countries receiving defense equipment and assistance through the 
foreign military sales program are required to abide by stringent end-
use monitoring (EUM) protocols that govern the use and application of 
military equipment. I understand that the United States holds Iraq to 
the same EUM standards of accountability and proper use of equipment as 
with other U.S. defense partners, and the Department makes it clear 
that cooperation is contingent on the proper use of these systems.
                              afghanistan
    Question. In your view, has the military campaign in Afghanistan 
been successful in achieving its objectives?
    Answer. Although I have not received a full briefing on the current 
situation in Afghanistan, I believe the campaign has made significant 
progress. Coalition and Afghan partners were successful against the 
insurgency's summer offensive for the second consecutive year. The 
progress made by ISAF and the ANSF over the past 3 years has put the 
Government of Afghanistan in control of all of Afghanistan's major 
cities and 34 provincial capitals, and has driven the insurgency into 
the countryside. I understand that the Department continues to pursue 
counterterrorism objectives. Afghanistan continues to face many 
challenges, but has made positive strides.
    Question. What is your assessment of the performance of the Afghan 
National Security Forces (ANSF) in assuming the lead for security 
throughout Afghanistan?
    Answer. I understand that Afghan security forces are now providing 
security for their own people, fighting their own battles, and holding 
their own against the Taliban. This is a fundamental shift in the 
course of the conflict. The ANSF now conduct the vast majority of 
operations in Afghanistan. However, ANSF capabilities are not yet fully 
self-sustainable, and they require continued support to make lasting 
progress.
    Question. Do you support the retention of a limited U.S. military 
presence in Afghanistan after 2014?
    Answer. I understand that the United States and coalition partners 
are on track to bring the ISAF mission to a close by the end of 2014 
and transition to a new, post-2014 NATO train, advise, and assist (TAA) 
mission. Beyond the TAA mission, I understand that the United States 
also plans to conduct a narrowly focused counterterrorism mission 
against al Qaeda and its affiliates.
    As the President has made clear, however, the United States must 
secure an agreement that protects U.S. Forces and must have an 
invitation from the Afghan Government in order to remain in 
Afghanistan.
    My view is that the United States is, and should remain, committed 
to a long-term relationship with Afghanistan. The United States' 
fundamental goal in Afghanistan remains to defeat al Qaeda and disrupt 
other extremists who present a serious threat to the United States, its 
overseas interests, and its allies and partners.
    Question. If the United States and Afghanistan are unable to 
conclude a Bilateral Security Agreement that ensures legal protections 
for such residual U.S. Forces after 2014, should the United States 
withdraw its military forces from Afghanistan?
    Answer. The President has made clear that the United States must 
have an invitation from the Afghan Government and must secure an 
agreement that protects U.S. personnel.
    It is my understanding that the current Status of Forces Agreement 
between the United States and Afghanistan does not have an expiration 
date. However, further consultation would be necessary if the United 
States were to rely on it after 2014.
    My understanding is that the administration's position continues to 
be that if we cannot conclude a BSA promptly, we will initiate planning 
for a post-2014 future with no U.S. or NATO forces in Afghanistan. It 
continues to be up to the Afghans to determine what is in their 
interests.
    That is not a future I will seek, and it is not in Afghanistan's 
interests. However, the further this slips into 2014 without a signed 
agreement, the more likely this outcome becomes.
    Question. On Thursday, January 27, 2014, the Karzai Government 
announced it will release 37 Bagram detainees whom the United States 
has classified as `` . . . legitimate threats to security''.
    How will you ensure that detainees held in Afghanistan which are 
thought to be threats to our security will continue to be held by the 
Afghan Government?
    Answer. I understand that the Department is working through the 
mechanisms established by the Detention-related Memorandum of 
Understanding (MOU) with Afghanistan to resolve the matter. The MOU 
provides a process for the United States to object to releases that it 
deems inappropriate. Ultimately, however, the decision to release 
detainees is with the Government of Afghanistan.
    Question. The current end strength of the ANSF is around 350,000 
personnel. At the North Atlantic Treaty Organization (NATO) Summit in 
Chicago in May 2012, coalition participants discussed a proposal to 
reduce the future size of the ANSF to around 230,000, with an annual 
cost of $4.1 billion.
    Do you agree that any future reductions in the ANSF from the 
352,000 troop level should be based on the security conditions in 
Afghanistan at the time the reductions would occur?
    Answer. It is my understanding that the ANSF force structure is 
regularly evaluated to ensure the ANSF is right-sized based on 
operational and security conditions. If confirmed, I would review any 
plans for the final size and structure of the ANSF, including an 
appropriate force reduction.
    Question. Would you support reinvesting a portion of the savings 
from the drawdown of U.S. Forces into sustaining the Afghanistan 
security forces at an end strength at or near their current level of 
350,000 if necessary to maintain security in Afghanistan?
    Answer. If confirmed, I would review the recommendations of the 
military commanders on the ground regarding the force structure and 
requisite funding of the Afghan National Security Forces.
    Question. What do you see as the United States' long-term strategic 
interests in Afghanistan after 2014?
    Answer. My view is that the United States should remain committed 
to a long-term relationship with Afghanistan. The United States' 
fundamental goal in Afghanistan remains to defeat al Qaeda and disrupt 
other extremists who present a serious threat to the United States, its 
overseas interests, and its allies and partners. As the President said 
in the January 2014 State of the Union address, after 2014, the United 
States will support a unified Afghanistan as it takes responsibility 
for its own future. If the Afghan Government signs the Bilateral 
Security Agreement with the United States, a small force of U.S. 
personnel could remain in Afghanistan with NATO allies to carry out two 
narrow missions: training and assisting Afghan forces, and 
counterterrorism operations to pursue any remnants of al Qaeda.
                                pakistan
    Question. What is your assessment of the current relationship 
between the United States and Pakistan?
    Answer. My understanding is that since Pakistan reopened the Ground 
Lines of Communication to Afghanistan, the defense relationship with 
Pakistan has improved significantly. The United States has refocused 
the bilateral defense relationship on shared security interests, 
including promoting peace and reconciliation in Afghanistan, finishing 
the job of disrupting, dismantling, and defeating al Qaeda and its 
affiliates, and supporting Pakistan's fight against the militant and 
terrorist networks that threaten both the United States and Pakistan. 
However, if confirmed, I would ensure that the Department continues to 
engage on issues where there is discord, particularly the need for 
stronger and more effective action against insurgent groups--especially 
the Haqqani Network--that threaten U.S. personnel and their Afghan 
counterparts.
    Question. Do you see opportunities for expanded U.S.-Pakistan 
cooperation on security issues? If so, how would you prioritize these 
areas of cooperation?
    Answer. I believe the United States should continue to shape the 
defense relationship by taking a pragmatic approach, focused on 
cooperation in areas of shared interests, such as the fight against al 
Qaeda and other militant and terrorist networks. Doing so would involve 
supporting Pakistan military efforts to counter the threat of militant 
and insurgent groups along the border with Afghanistan. It may also 
mean working with Pakistan to develop longer-term solutions to 
Pakistan's militant challenge.
    If confirmed, I would ensure that the Department engages with 
Pakistan where strategic interests diverge, such as the direction of 
the Pakistani nuclear program and support for proxy militant 
organizations.
    Question. What is your assessment of Pakistan's efforts to combat 
the threat of international terrorism?
    Answer. Pakistan continues to make a major contribution to the 
fight against terrorism. I understand that thousands of Pakistani 
troops are engaged in counterinsurgency operations along the border 
with Afghanistan. The enormous casualties Pakistan has suffered in the 
fight against terrorism demonstrate Pakistan's strong commitment.
    However, I believe Pakistan also needs to counter militant and 
terrorist groups operating within its territory that do not directly 
threaten the Pakistani state, especially the Haqqani Network. These 
networks pose a direct threat to U.S. personnel, threaten regional 
security, endanger the prospects for a settlement in Afghanistan, and 
undermine Pakistan's own stability.
    Question. What additional steps, if any, do you believe Pakistan 
should take to address the threat posed by violent extremist groups 
such as the Haqqani Network and the Taliban Quetta Shura that currently 
use their safe haven in Pakistan to launch cross-border attacks on 
U.S., coalition, and Afghan forces?
    Answer. I believe Pakistan needs to curtail the ability of these 
violent extremist groups to plan and execute attacks against U.S. 
service men and women, coalition forces, and Afghan National Security 
Forces. Pakistan should take additional steps to target these groups 
with military and law enforcement assets, improve its efforts to 
interdict improvised explosive device precursor materials, and prevent 
these groups from moving freely throughout the country and across the 
Afghan border. At the same time, Pakistan needs to continue to support 
reconciliation efforts to promote a political settlement that bring 
peace and stability to Afghanistan.
    Question. What conditions, if any, should the United States place 
on its security assistance to Pakistan?
    Answer. It is difficult to make a comprehensive statement about the 
impact of conditions on security assistance to Pakistan. The United 
States and Pakistan do work together on areas of common interest, but 
it is important to be cautious about explicit conditions on assistance 
to encourage or require Pakistani cooperation. Any prospective 
conditions on U.S. assistance should be carefully examined to ensure 
they advance U.S. strategic interests.
    Question. In your view, what impact will the conclusion of the 
International Security Assistance Force mission at the end of 2014 have 
on the U.S.-Pakistan relationship?
    Answer. Following the conclusion of the ISAF mission at the end of 
2014, the United States and Pakistan will still need to work to promote 
peace and reconciliation in Afghanistan, cooperate in the fight to 
defeat al Qaeda, its affiliates, and other militant groups, and improve 
regional security. U.S. Force reductions in Afghanistan will amplify 
the importance of Pakistani support for these efforts. It is, 
therefore, critical that the United States sustain its defense 
relationship with Pakistan, through 2014 and beyond.
                                 china
    Question. From your perspective, what effect is China's expanding 
economy and growing military having on the region at-large and how is 
that growth influencing the U.S. security posture in Asia and the 
Pacific?
    Answer. China's rapid economic growth is welcomed by many 
neighboring states as a driving force of economic dynamism and 
prosperity in the Asia-Pacific region. At the same time, the scale and 
character of China's military growth is increasingly becoming a source 
of concern. China's annual defense budget is growing faster than its 
economy--with average annual increases in defense spending topping 10 
percent over the past decade. In certain respects, China's growing 
military capabilities create opportunities to partner and cooperate 
where our interests and those of China converge. However, China's rapid 
rise and the relative lack of transparency surrounding its intentions 
are increasingly perceived as threatening in the region, especially as 
its modernization efforts emphasize advanced anti-access and area 
denial (A2/AD) capabilities. I understand the Department has been 
making investments focused on countering A2/AD environments around the 
world, including in the Asia-Pacific region. If confirmed, I would 
evaluate the impact of these developments--as well as the impact of 
other security trends--on requirements for the U.S. defense posture in 
the region.
    Question. What do you believe are the objectives of China's 
military modernization program?
    Answer. As I understand it, China is pursuing a long-term, 
comprehensive military modernization program designed to improve the 
capacity of its armed forces to fight and win short-duration, high-
intensity conflicts along its periphery, and to counter third party 
intervention. China's near-term focus appears to be preparing for 
potential contingencies involving Taiwan, and deterring or denying 
effective third party intervention in a cross-Strait conflict. China is 
also devoting increasing attention and resources to conducting 
operations beyond Taiwan and China's immediate periphery. This broader 
focus includes military missions such as humanitarian assistance and 
disaster relief, military medicine, peacekeeping, and counter-piracy. 
Lastly, China is strengthening its nuclear deterrent and enhancing its 
strategic strike capabilities through the modernization of its nuclear 
forces, and is improving other strategic capabilities, such as in 
space, counter-space, and computer network operations.
    Question. How do you believe the United States should respond to 
China's military modernization program?
    Answer. I believe the scope and pace of China's military 
modernization and China's relative lack of transparency with respect to 
its military plans and programs require that the United States closely 
monitor the evolution of China's armed forces. It is my understanding 
that the President's strategy of rebalancing to the Asia-Pacific region 
seeks, in part, to ensure that the United States remains the preeminent 
military power in the Asia-Pacific region so that we can continue to 
help preserve peace and prosperity. I believe the U.S. response to 
China's military modernization should be comprehensive and encompass 
changes to U.S. Force posture in the region, the strengthening of 
Alliances and partnerships, the maintenance of global presence and 
access for U.S. Forces, and the modernization of key capabilities in 
such areas as countering anti-access and area denial capabilities.
    Question. U.S.-China military-to-military dialogue has been 
strained over the past several years and efforts to establish and 
maintain mutually beneficial military relations has been hampered by 
China's propensity for not responding to requests for military 
engagements, although there are signs that China has been more inclined 
to engage in the past 2 years.
    What is your assessment of the current state of U.S.-China 
military-to-military relations and what would be your intention, if 
confirmed, regarding these relations?
    Answer. I understand that the U.S.-China military-to-military 
relationship has experienced positive momentum over the past year. If 
confirmed, I would look for ways to strengthen the U.S.-China military-
to-military relationship consistent with U.S. interests and values, in 
pursuit of sustained, substantive dialogue; concrete, practical 
cooperation; and enhanced risk reduction measures to manage our 
differences responsibly. At the same time, I would seek to ensure that 
we balance these exchanges with continued, robust interactions with 
allies and partners across the region.
    Question. What is your view of the relative importance of sustained 
military-to-military relations with China?
    Answer. I believe there is value in sustained and substantive 
military dialogue with China as a way to improve mutual understanding 
and reduce the risk of miscommunication and miscalculation. I believe 
we should continue to use military engagement with China as one of 
several means to demonstrate U.S. commitment to the security and 
stability of the Asia-Pacific region, to encourage China to play a 
constructive role in the region, to discuss the peacetime interaction 
of our respective military forces with a view to minimizing the risk of 
accidents, and to urge China to partner with the United States and our 
allies and partners in addressing common security challenges.
    Question. Do you believe that we should make any changes in the 
quality or quantity of our military relations with China? If so, what 
changes and why?
    Answer. I believe that military exchanges with China can be 
valuable, but can only truly move the relationship forward if China is 
equally committed to open and regular exchanges. If confirmed, I would 
support deepening and enhancing our military-to-military relationship 
with China. I would also continue to encourage China to act 
responsibly, both regionally and globally.
                              north korea
    Question. What is your assessment of the current security situation 
on the Korean peninsula?
    Answer. Nearly a year has passed since the last period of 
heightened tension on the Korean Peninsula, but North Korea continues 
to be a serious concern for the United States and our allies and 
partners in the region.
    North Korea's December 2012 missile launch and February 2013 
nuclear test were highly provocative acts that undermined regional 
stability, violated North Korea's obligations under numerous U.N. 
Security Council resolutions, and contravened its commitments under the 
September 19, 2005, Joint Statement of the Six-Party Talks.
    My understanding is that Kim Jong Un remains in full control and is 
consolidating his power. There is a strong possibility of more North 
Korean provocations, as Kim Jong Un continues to consolidate his power 
and Pyongyang attempts to coerce us back into negotiations on its own 
terms.
    If confirmed, I would continue to monitor the situation closely and 
work with our allies and partners to maintain peace and stability in 
the region.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile and WMD 
capabilities and the export of those capabilities?
    Answer. North Korea's missile and weapons of mass destruction (WMD) 
programs, and its proliferation activities, continue to pose a direct 
and serious threat to U.S. Forces deployed in the Asia-Pacific region 
as well as our regional allies and partners. Although these programs 
are largely untested at longer ranges, they could pose a direct threat 
to U.S. territory.
    If confirmed, I would ensure that the Department draws upon the 
full range of our capabilities to protect against, and, if necessary, 
to respond to, these threats.
    Question. In your view are there additional steps that DOD could 
take to ensure that North Korea does not proliferate missile and 
weapons technology to Syria, Iran, and others?
    Answer. I understand that DOD, with its interagency partners, has 
taken several steps to prevent North Korea's proliferation of weapons-
related technology. These steps include strengthening proliferation 
control regimes, advancing international nonproliferation norms, and 
promoting cooperation with partners to interdict vessels and aircraft 
suspected of transporting items of proliferation concern. Despite these 
efforts, I believe North Korea will continue to attempt weapons-related 
shipments via new and increasingly complex proliferation networks. If 
confirmed, I would work to enhance DOD's countering WMD, partner 
capacity-building programs and the Department's ability to discover and 
disrupt these illicit networks.
                       law of the sea convention
    Question. What is your view on whether or not the United States 
should join the Law of the Sea convention?
    Answer. I support U.S. accession to the Law of the Sea Convention. 
I believe that accession to the Convention would demonstrate a U.S. 
commitment to upholding the established legal order that codifies the 
rights, freedoms, and uses of the sea and airspace, including those 
that are critical to the global mobility of U.S. military forces.
    Question. How would being a party to the Law of the Sea convention 
help or hinder the United States' security posture in the Asia-Pacific 
region?
    Answer. I believe that becoming a party to the Law of the Sea 
Convention would enhance the U.S. security posture around the globe, 
including in the Asia-Pacific region, in several ways. First, it would 
enable the United States to reinforce all of the rights, freedoms, and 
uses of the sea codified in the Convention, including those that are 
critical to the global mobility of U.S. Forces. A significant portion 
of the world's oceans are located in the Asia-Pacific region, and the 
ability for U.S. Forces to respond to situations depends upon the 
freedom of the seas. Second, it would help the United States promote a 
common, rules-based approach among other nations to resolve their 
territorial and maritime disputes peacefully, including those in the 
Asia-Pacific region. Third, it would reassure some nations that have 
expressed concerns about the legal basis of cooperative security 
efforts that the United States supports, such as the Proliferation 
Security Initiative.
                 department of defense counternarcotics
    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1.5 billion to support the Department's CN 
operations, building the capacity of certain foreign governments around 
the globe, and analyzing intelligence on CN-related matters. In a 
recent Government Accountability Office (GAO) report, GAO found that 
DOD ``does not have an effective performance measurement system to 
track the progress of its counternarcotics activities.'' This is the 
second such finding relating to DOD CN in the last decade.
    What is your assessment of the DOD CN program?
    Answer. I am not familiar with all aspects of the DOD CN program. 
However, I know that the CN program should provide policy guidance and 
fiscal resources to perform this important mission, and it has been 
successful in identifying networks and preventing illicit drugs from 
entering this country. I understand the Department concurred in the 
2010 GAO study that cited a need to improve performance measurement, 
and that DOD continues to work closely with the Office of National Drug 
Control Policy to refine these processes. If confirmed, I would ensure 
that the CN program continues to take concrete steps to improve its 
evaluation system.
    Question. In your view, should DOD continue to play a role in 
attempting to stem the flow of illegal narcotics?
    Answer. Yes. In my view, DOD should continue to play a role in 
detecting and monitoring drug trafficking. Because of its links to 
terrorism and other forms of transnational organized crime, drug 
trafficking has become a major national security challenge. The 
Department's efforts to build the counternarcotics capacity of partner 
nation security forces have helped them prevent and deter global 
trafficking of illegal narcotics.
    Question. In your view, should DOD continue to fund the National 
Guard Counterdrug Program for Youth Intervention and local law 
enforcement education programs that may be duplicative of the efforts 
of other agencies, using CN funds?
    Answer. I am aware that, in light of the fiscal environment, the 
National Guard has had to limit its Counterdrug youth outreach program 
in recent years. If confirmed, I would work with the National Guard 
Bureau to assess CN programs and to ensure they remain effective and 
efficient.
                    building partner capacity (bpc)
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations, including the global train and equip authority (section 1206) 
and the Global Security Contingency Fund.
    In your view, what should be our strategic objectives in building 
the capacities of partner nations?
    Answer. My understanding is that these temporary DOD authorities 
are intended to address emerging threats, and as such the Department's 
primary objective should be to develop near-term capacity for partners 
to take effective actions against these threats. From a strategic 
perspective, the Department's objective should be to help partner 
countries develop effective and legitimate defense and security 
institutions that can provide for their countries' internal security. 
Doing so reduces the burden on U.S. Forces responding to security 
threats outside the United States and promotes interoperability between 
U.S. Forces and allied and partner forces. If confirmed, it would be my 
aim to ensure that DOD security assistance programs will fulfill 
defined strategic requirements and close vitally important capability 
gaps.
                       special operations forces
    Question. The previous two QDRs have mandated significant growth in 
our Special Operations Forces and enablers that directly support their 
operations.
    Do you believe QDR-directed growth in the size of Special 
Operations Forces can and should be maintained in light of current 
fiscal challenges?
    Answer. The United States has grown Special Operations Forces 
substantially since 2001--doubling the size of the force and tripling 
the budget. As U.S. Forces draw down in Afghanistan, where Special 
Operations Forces have been heavily committed, the Department has an 
opportunity to rebalance the force to align it better with our overall 
strategy and declining resources. If confirmed, I would work with the 
Assistant Secretary of Defense (SO/LIC) and the Commander, SOCOM to 
understand more fully the issues associated with developing, employing, 
and resourcing our Special Operations Forces.
    Question. Special Operations Forces heavily rely on enabling 
capabilities provided by the general purpose forces to be successful in 
their missions.
    In light of current fiscal challenges, do you believe sufficient 
enabling capabilities can be maintained within the general purpose 
forces and that such capabilities will remain available to Special 
Operations Forces when needed?
    Answer. It is my experience that U.S. Special Operations Forces 
(SOF) receive excellent support from the Services. As the Department 
reshapes and resizes overall force structure, it needs to ensure proper 
balance, including the right density of enabling capabilities such as 
intelligence, explosive ordnance disposal, communications, and medical 
support that are essential to both SOF and General Purpose Forces. If 
confirmed, I would work closely with our Service Chiefs and the 
Commander, SOCOM, to ensure the Department has the right balance across 
the entire force.
    Question. Do you believe Special Operations Forces should develop 
additional organic enabling capabilities in addition or in place of 
those currently provided by the general purpose forces?
    Answer. I believe organic enablers assigned to SOCOM should be 
purposely designed for ``SOF-specific'' requirements. Service-common 
capabilities should fill the rest of SOF's enabler requirements. This 
arrangement allows the Department to focus its Special Operations 
funding on SOF-specific requirements and avoids duplication with the 
Services.
    Question. The Commander of U.S. Special Operations Command (SOCOM) 
has sought more control over the deployment and utilization of Special 
Operations Forces. For example, the Secretary of Defense modified 
policy guidance for the combatant commands earlier this year that gave 
SOCOM, for the first time, responsibility for resourcing, organizing, 
and providing guidance to the Theater Special Operations Commands of 
the geographic combatant commanders and Special Operations Forces 
assigned to them. It has been reported that the Commander of SOCOM is 
also seeking new authorities that would allow him to more rapidly move 
Special Operations Forces between geographic combatant commands.
    Please provide your assessment of whether such changes are 
appropriate and can be made without conflicting with civilian control 
of the military, infringing upon authorities provided to the geographic 
combatant commanders, or raising concerns with the State Department.
    Answer. It's appropriate always to look for ways to manage the 
force more efficiently and effectively, and in this time of transition 
and declining resources this is increasingly important. At the same 
time, I believe the Department should maintain a proper degree of 
oversight and control of force deployments, as it does with 
conventional forces. I understand the Department will continue to rely 
on our geographic combatant commanders to oversee activities in their 
respective areas of responsibility, similar to how they oversee 
Service-led activities overseas. If confirmed, I would work closely 
with interagency colleagues to ensure deployments of Special Operations 
Forces are fully coordinated and synchronized with the geographic 
combatant commanders and the Chiefs of Mission and Chiefs of Station in 
the affected countries.
    Question. Do you believe SOCOM is appropriately resourced to 
adequately support the Theater Special Operations Commands and Special 
Operations Forces assigned to them?
    Answer. I have not been briefed on any gap between SOCOM requests 
and available resources. I believe SOCOM is appropriately resourced to 
support the forces assigned to them. I understand a recent change gave 
SOCOM increased responsibility for the Theater Special Operations 
Commands (TSOCs), which also receive funding and support from the 
Geographic Combatant Commands through their respective Service support 
activities. If confirmed, I would ensure the division of responsibility 
for TSOC resourcing is properly divided between SOCOM and the Services.
                        section 1208 operations
    Question. Section 1208 of the NDAA for Fiscal Year 2005 (Public Law 
108-375), as amended, authorizes the provision of support (including 
training, funding, and equipment) to regular forces, irregular forces, 
and individuals supporting or facilitating military operations by U.S. 
Special Operations Forces to combat terrorism.
    What is your assessment of this authority?
    Answer. Section 1208 provides the Secretary of Defense with 
authority to combat terrorism in a wide range of operational 
environments--often where Special Operations Forces are operating under 
austere conditions and require specialized support from indigenous 
forces or persons. Although I have not been briefed on the particulars 
of these activities, I understand that combatant commanders and chiefs 
of mission place a high value on this program, and if confirmed, I 
would make it a priority to gain a deeper understanding of the costs, 
benefits, and risks associated with activities conducted under section 
1208 authority.
               dod's cooperative threat reduction program
    Question. The Cooperative Threat Reduction (CTR) program was 
historically focused primarily on eliminating Cold War era WMD in the 
states of the former Soviet Union and Russia. The bilateral agreement 
with Russia has now ended.
    What are the principal issues remaining to be addressed in this 
program with the former Soviet states?
    Answer. I believe the principal issue that the CTR program needs to 
address in the former Soviet States is the threat posed by WMD 
terrorism. It is my understanding that the CTR Program has made 
significant progress to reduce the dangerous legacy of the Cold War-era 
WMD. In addition, I understand there is important work that could be 
done to assist partners within the former Soviet States to achieve the 
biosecurity measures referenced in the newly released Global Health 
Security Agenda.
    Question. What are the principal issues with this program in the 
Middle East and North Africa?
    Answer. I believe that reducing the threat from WMD should be the 
principal driver for the program in the Middle East and North Africa. 
One great example of this work that I am aware of is the Libyan 
Government's recent announcement that it had completed destruction of 
its chemical weapons stockpile with the help from the U.S. Government 
through the CTR Program and from the German Government.
    Question. Do you think the CTR program is well coordinated among 
the U.S. Government agencies that engage in threat reduction efforts, 
including DOD, the Department of Energy, and the State Department?
    Answer. My understanding is that the CTR Program and other non-
proliferation programs executed by Federal agencies are coordinated 
well through the National Security Council staff. If confirmed, one of 
my priorities would be to ensure that all of the Department's 
activities in this area are well-coordinated with interagency partners.
    Question. As the CTR program expands to geographic regions beyond 
the states of the former Soviet Union, in your view what proliferation 
and threat reduction goals should the DOD establish?
    Answer. My understanding is that the President has highlighted 
nuclear and biological terrorism as key threats, and that the CTR 
Program strongly supports these priorities with particular emphasis on 
biological threats. I agree with these priorities and, if confirmed, I 
would work to make countering these threats a DOD priority. I 
understand that in the near term, one of the high-priority efforts of 
the CTR Program is the destruction of the Syrian Chemical weapons and 
production materiel.
                          prompt global strike
    Question. The 2010 QDR concluded that the United States will 
continue to experiment with prompt global strike prototypes. There has 
been no decision to field a prompt global strike capability as the 
effort is early in the technology and testing phase.
    In your view, is there a role for a conventional prompt global 
strike capability in addressing the key threats to U.S. national 
security in the near future?
    Answer. Yes, I believe there is a role. Prompt global strike 
weapons can provide a means for striking high value, time sensitive and 
defended targets from ranges beyond the capabilities of existing 
weapons or in situations where other forces are unavailable. The DOD 
technology development program is designed to determine whether the 
Department can achieve that desired capability at an affordable cost.
    Question. What approach to implementation of this capability would 
you expect to pursue if confirmed?
    Answer. I have not had the opportunity to review the status of 
current technology efforts that support this capability. If confirmed, 
I will monitor progress, and evaluate costs and options for 
implementation.
    Question. In your view what, if any, improvements in intelligence 
capabilities would be needed to support a prompt global strike 
capability?
    Answer. Discussion of intelligence capabilities and their 
limitations is classified. If confirmed, I will seek to understand and 
identify what improvement in intelligence capabilities would be needed 
in the context of a prompt global strike capability.
               nuclear weapons and stockpile stewardship
    Question. Congress established the Stockpile Stewardship Program 
with the aim of creating the computational capabilities and 
experimental tools needed to allow for the continued certification of 
the nuclear weapons stockpile as safe, secure, and reliable without the 
need for nuclear weapons testing. The Secretaries of Defense and Energy 
are statutorily required to certify annually to Congress the continued 
safety, security, and reliability of the nuclear weapons stockpile.
    As the stockpile continues to age, what do you view as the greatest 
challenges with respect to assuring the safety, reliability, and 
security of the stockpile?
    Answer. I believe the greatest challenge for an aging stockpile in 
today's fiscal environment is maintaining a balanced program to ensure 
that the current stockpile can be maintained and the infrastructure 
modernized, and that the science and technology program that underpins 
the program is adequate to meet current and future tasks. It is my 
understanding that the most recent stockpile assessment reports from 
our Nation's Weapons Laboratory Directors and the Commander of STRATCOM 
indicate that the stockpile is safe, secure, and reliable. However, the 
average age of U.S. nuclear weapons is 27 years, and the nuclear 
weapons complex includes facilities that date back to the Manhattan 
project. As the stockpile continues to age, efforts to sustain and 
certify the deterrent through warhead surveillance activities will 
become even more challenging.
    I understand that DOD and the Department of Energy have made 
significant investments in the nuclear complex since the 2010 Nuclear 
Posture Review. If confirmed, I would continue to work with Congress 
and the Department of Energy to update and execute a long-term 
modernization strategy that will continue to ensure the safety, 
reliability, security and effectiveness of the nuclear stockpile.
    Question. If the technical conclusions and data from the Stockpile 
Stewardship Program could no longer confidently support the annual 
certification of the stockpile as safe, secure, and reliable, would you 
recommend the resumption of underground nuclear testing?
    Answer. My understanding is that the administration's investments 
in the nuclear enterprise, including the Department of Energy's 
Stockpile Stewardship Program, continue to provide us confidence in the 
nuclear stockpile. If confirmed, I will look into this issue and take 
whatever steps are necessary to ensure that our nuclear stockpile is 
safe, secure, and reliable.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. Maintaining a safe, secure, and effective nuclear stockpile 
is a critical national security priority. If confirmed, I would 
advocate for the required funding to do so. The section 1043 report, 
which I understand has superseded the section 1251 report, describes 
the administration's plan for sustainment and modernization of nuclear 
deterrent capability, including how the plan will be funded. It is my 
understanding that DOD works closely with the Department of Energy, and 
other relevant agencies, to prioritize modernization efforts and align 
them with funding realities. If confirmed, I would continue that 
cooperation.
    Question. Can DOD afford the plan set out in the report?
    Answer. Modernizing the nuclear weapons complex is imperative to 
our Nation's security, and, if confirmed, I would work to ensure 
adequate funding for this critical national security priority. The 
current plan includes extending the life of nuclear weapons and 
investing in weapons infrastructure through refurbishment of existing 
facilities and construction of new facilities. I understand that DOD 
and the National Nuclear Security Administration are funding the B61 
gravity bomb, the W76 warhead for Submarine Launched Ballistic 
Missiles, and the W88 warhead for Submarine Launched Ballistic 
Missiles. In the near future, cruise missile warheads and ICBM warheads 
must also be refurbished. The Nation's nuclear weapons complex also 
requires investment in new plutonium and uranium processing facilities 
to guarantee that critical nuclear components are available for warhead 
modernization programs. Even in a constrained budget environment, DOD 
and the Department of Energy, acting through the Nuclear Weapons 
Council, must work to ensure a safe, secure, and effective nuclear 
stockpile.
    Question. Do you support the nuclear employment strategy released 
in June of 2013?
    Answer. Yes, based on what I've seen in unclassified forms, I 
support the President's new guidance that aligns U.S. nuclear policies 
to the 21st century security environment. If confirmed, I would make 
sure that DOD takes the steps necessary to implement this policy. 
Consistent with the President's new guidance, I would support 
maintaining a credible deterrent, capable of convincing potential 
adversaries that the adverse consequences of attacking the United 
States or our allies and partners far outweigh any potential benefit 
they may seek to gain through an attack.
    Question. Prior to completing this modernization effort, do you 
believe it would be prudent to consider reductions below New Strategic 
Arms Reduction Treaty (START) limits for the deployed stockpile of 
nuclear weapons? If so, what are the potential risks and benefits 
associated with further reductions?
    Answer. The 2010 Nuclear Posture Review concludes: ``The United 
States will retain the smallest possible nuclear stockpile consistent 
with our need to deter adversaries, reassure our allies, and hedge 
against technical or geopolitical surprise.'' The President has stated 
his willingness to next reduce U.S. nuclear forces by up to one-third 
over New START treaty limits. I believe such reductions below the New 
START treaty limits should only be done on a mutually negotiated basis, 
subject to the trajectory of other potential threats.
    Question. If confirmed will you commit to participating in 
exercises involved with the nuclear command, communications, and 
control system in facilities and platforms outside the Pentagon?
    Answer. Yes.
                       tactical fighter programs
    Question. Perhaps the largest modernization effort that we will 
face over the next several years is the set of programs to modernize 
our tactical aviation forces with fifth generation tactical aircraft 
equipped with stealth technology, to include the JSF.
    Based on current and projected threats, what are your views on the 
requirements for and timing of these programs?
    Answer. I believe the Department needs to transition to a fifth 
generation capability. We need the F-35 capability to address advanced 
threats world-wide, especially in the stressing electronic warfare 
environments of the future. If confirmed, I will review the Departments 
tactical aviation modernization programs.
    Question. What is your view on the affordability of these programs?
    Answer. I believe affordability is critical to these programs, as 
well as with all of our acquisition programs and services. If 
confirmed, this is an area I will be reviewing closely to assess these 
programs in the context of the overall DOD program, and make 
appropriate adjustments in consultation with the Secretary and other 
Department leadership.
    Question. Even if all of the current aircraft modernization 
programs execute as planned, the average age of the tactical, 
strategic, and tanker fleet will increase. Aging aircraft require ever-
increasing maintenance, but even with these increasing maintenance 
costs, readiness levels continue to decline.
    Can both the maintenance of the legacy force and the modernization 
efforts be affordable at anywhere near the expected budget levels?
    Answer. Given expected budget levels, balancing the costs of 
maintaining an aging aircraft fleet while recapitalizing and 
modernizing that fleet is an area I would examine closely, if 
confirmed. I expect risk-informed tradeoffs to be necessary. The 
Department will have to continue to assess where trades are required to 
meet those readiness and modernization needs.
    Question. Some critics believe that there is still too much service 
parochial duplication in procuring new systems.
    Do you agree with these critics?
    Answer. I believe that the Department has improved in this area, 
but it is an area that requires continued vigilance and oversight to 
ensure the Department is not wasting scarce resources on duplicative 
systems. Service investments should be complementary to benefit the 
entire department
    Question. What steps will you take as Deputy Secretary to reduce 
such duplication?
    Answer. If confirmed, I will ensure Service investments are 
complementary, and that any duplication I find is reduced 
appropriately.
    Question. What additional steps, if any, do you believe the 
Department should take in the future?
    Answer. If confirmed, I will investigate what levels of readiness 
exist and any reasons why readiness does not match investments in 
maintenance. I will then determine what additional actions to take.
                            unmanned systems
    Question. Congress has established a goal that by 2015, one-third 
of the aircraft in the operational deep strike force aircraft fleet and 
one-third of operational ground combat vehicles will be unmanned.
    Do you support this goal?
    Answer. I support the goal of fielding unmanned systems with 
greater capability for the future, especially as our National Defense 
Strategy shifts to one focused on the Pacific Region and more 
sophisticated operating environments than what we have experienced over 
the past decade in Iraq and Afghanistan.
    Question. What is your assessment of DOD's ability to achieve this 
goal?
    Answer. Based on what I know, I think the 2015 goal is overly 
optimistic. If confirmed, I will assess the ability of DOD to achieve 
this goal.
    Question. What steps do you believe the Department should take to 
achieve this goal?
    Answer. The Department should continue to focus on research and 
development efforts related to UAS and ground robotics technology, as 
well as on the development of concepts of operations and requirements 
for unmanned systems. This is vital to realizing increased unmanned 
capabilities that are properly aligned with evolving warfighter needs, 
at affordable cost. At the same time, if confirmed I will ensure the 
Department remains focused on being responsive in fielding urgently 
needed capabilities to meet the needs of today's warfighter.
                          shipbuilding budget
    Question. With about half of the Navy's construction and 
development dollars being needed to build nuclear submarines, the 
Navy's commitment to building new submarines could crowd out funding 
needed to modernize the surface fleet.
    In your view, will the level of funding in the shipbuilding budget 
and certain high-cost programs force the Department to make requirement 
decisions in a constrained budget environment that may not be in the 
best interest for our national security?
    Answer. There are multiple options to make the shipbuilding budget 
support our national security including new procurements, modernizing 
legacy systems and security cooperation with other navies. It will take 
a balanced approach to sustain a maritime force structure adequate for 
national defense with acceptable risk. If confirmed, I will assess the 
shipbuilding budgets and programs and the potential consequences to 
operational capabilities over time, to include the industrial base.
    Question. What steps, if any, do you believe the Department should 
take to address this concern and ensure adequate funding for the 
ballistic missile submarine replacement program?
    Answer. I believe the strategic deterrence value of the Ohio 
Replacement Program remains valid. If confirmed, I will evaluate the 
need for, and level of, funding. I understand the Navy is working to 
manage the affordability of the Ohio replacement by managing 
requirements and leveraging advantages of the Virginia submarine 
program.
    Question. Do you believe that certain high cost ``national assets'' 
should be funded outside the services' budgets where they do not have 
to compete with other critical weapon systems modernization needs of 
the Services?
    Answer. At this time, I do not believe that moving programs outside 
of the Service budgets will protect programs or reduce pressure on the 
Department's topline. If confirmed, I will work with Congress to 
properly fund prioritized programs within the overall defense budget.
                             cyber security
    Question. Deputy Secretary Lynn and Deputy Secretary Carter were 
heavily involved in developing the DOD cyber strategy.
    If confirmed will you also play a major role in DOD cyber issues?
    Answer. In 2013, for the second year in a row, Director of National 
Intelligence James Clapper named cyber as a top-tier threat to the 
Nation. If confirmed, I would invest significant time and attention to 
cybersecurity and to DOD's ability to operate effectively in 
cyberspace. I would work closely with the Secretary of Defense and 
others to make certain that DOD can accomplish its three principal 
cyber missions: to defend the Nation from strategic cyber-attack; 
conduct effective cyber operations in support of combatant commanders, 
when directed; and defend DOD networks.
                          test and evaluation
    Question. What is your assessment of the appropriate balance 
between the desire to reduce acquisition cycle times and the need to 
perform adequate testing?
    Answer. Testing is needed to validate system performance, and I 
believe it is a necessary part of the acquisition process. The optimal 
balance of cycle time and testing is likely unique to each system, and, 
if confirmed, I would seek to examine opportunities to achieve this 
goal.
    Question. Under what circumstances, if any, do you believe we 
should procure weapon systems and equipment that has not been 
demonstrated through test and evaluation to be operationally effective, 
suitable, and survivable?
    Answer. Systems should demonstrate their effectiveness, suitability 
and survivability through operational testing prior to a full rate 
production decision. In specific cases, based on the nature and 
seriousness of the deficiencies found in testing, it may be acceptable 
to continue production while the deficiencies are corrected. There can 
be circumstances when it might also be necessary to field a system 
prior to operational testing in order to address an urgent need in a 
critical capability, especially in those circumstances when the system 
is better than anything already in the field. Even then, operational 
evaluation should still be done at the earliest opportunity to assess 
the system's capabilities and limitations and identify any deficiencies 
that might need to be corrected.
             funding for science and technology investments
    Question. In the past, the QDR and the Department's leaders have 
endorsed the statutory goal of investing 3 percent of the Department's 
budget into science and technology programs.
    Do you support that investment goal?
    Answer. Yes. I recognize the critical importance of a robust 
science and technology program that can develop and deliver near-term 
capabilities and maintain long-term options for the Department. As we 
consider the Department's future budget situation, every part of the 
budget must be assessed to identify the appropriate level of investment 
consistent with the Departments' needs and long-term strategy.
    Question. How will you assess whether the science and technology 
investment portfolio is adequate to meet the current and future needs 
of the Department?
    Answer. If confirmed, I would work closely with the Secretary, the 
Chairman of the Joint Chiefs, the Services, and others to establish 
guidelines for investment priorities. Based on these priorities, I 
would work through the Under Secretary of Defense for Acquisition, 
Technology, and Logistics to assess the adequacy of the current science 
and technology investment portfolio and to identify any changes 
required in the planned program to address the Department's priorities.
    Congress established the position of Director of Operational Test 
and Evaluation to serve as an independent voice on matters relating to 
operational testing of weapons systems. As established, the Director 
has a unique and direct relationship with Congress which allows him to 
preserve his independence.
    Question. What is your view on the responsibility of the Deputy 
Secretary of Defense to provide oversight of the Director of 
Operational Test and Evaluation?
    Answer. If confirmed, I will rely on the Director of Operational 
Test and Evaluation to provide both me and the Secretary independent 
and objective evaluations of system key performance parameters and 
their effectiveness and suitability for the Department's systems. This 
function is critical to advancing our acquisition priorities and 
ensuring the effective stewardship of our resources. I will meet 
regularly with the Director to review the scope, content, and findings 
of the operational and live-fire testing being conducted by the 
Department.
    Question. Do you support the Director of Operational Test and 
Evaluation's ability to speak freely and independently with Congress?
    Answer. Yes.
                       ballistic missile defense
    Question. Do you support the policies, strategies, and priorities 
set forth in the February 2010 Ballistic Missile Defense Review and, if 
confirmed, will you implement them?
    Answer. Yes, I support the conclusions of the 2010 Ballistic 
Missile Defense Review (BMDR). The policy priorities laid out in the 
BMDR are still valid, and, if confirmed, I would continue U.S. efforts 
already underway to implement them.
    Question. Do you agree that operationally effective and cost-
effective ballistic missile defenses are essential for both Homeland 
defense and regional defense and security?
    Answer. Yes, even in these days of tight budgets, it is important 
that we invest in effective, affordable missile defense systems. If 
confirmed, I would support the U.S. commitment, described in the 2010 
BMDR, to deploying capabilities that have been proven through extensive 
testing and assessment and that are affordable over the long term.
    Question. The two most recent attempted intercept flight tests of 
the Ground-based Midcourse Defense (GMD) system failed to intercept 
their targets, one in December 2010, using a Capability Enhancement-2 
(CE-2) kill vehicle, and one in July 2013, using the older CE-1 kill 
vehicle. The Director of the Missile Defense Agency (MDA) has inducted 
that MDA's highest priority is correcting the problems that caused 
these flight test failures, and that such corrections need to be 
demonstrated through successful intercept flight testing.
    Do you agree that it is essential to demonstrate through successful 
and operationally realistic intercept flight testing that the problems 
that caused these flight test failures have been corrected, and that 
the GMD system will work as intended, with both the CE-1 and CE-2 kill 
vehicles?
    Answer. Yes, I agree.
    Question. On March 15, 2013, Secretary Hagel announced plans to 
improve our Homeland ballistic missile defense capability to stay ahead 
of ballistic missile threats from North Korea and Iran, including the 
deployment of 14 additional Ground-Based Interceptors (GBI) at Fort 
Greely, AK, by 2017. Secretary Hagel stated that, prior to deploying 
these 14 additional GBIs, there would need to be confidence that the 
system would work as intended, through successful testing of the GMD 
system with the CE-2 kill vehicle.
    Do you agree with Secretary Hagel's ``fly before you buy'' approach 
that the GMD system needs to demonstrate successful operationally 
realistic intercept flight test results before we deploy any additional 
GBIs?
    Answer. Yes, I agree.
    Question. In a recent report, the Director of Operational Test and 
Evaluation said that the GMD flight test failures had raised questions 
about the robustness of the EKV design and recommended that the 
Department consider redesigning the EKV to be more robust. The 
Department is already planning a re-designed EKV, and Congress 
supported the funding requested for fiscal year 2014 to develop Common 
Kill Vehicle Technology.
    Do you agree there is a need to improve the GMD system, including 
through development and testing of a re-designed EKV and improvements 
to sensor and discrimination capabilities, to increase the reliability 
and performance of the system against evolving homeland missile threats 
from North Korea and Iran?
    Answer. Yes, I agree.
    Question. DOD has successfully completed deployment of Phase 1 of 
the European Phased Adaptive Approach (EPAA) to missile defense and is 
proceeding toward planned deployment of Phases 2 and 3 in 2015 and 
2018, respectively, to protect all of NATO European territory against 
Iranian missiles.
    Do you support the EPAA and other similar United States regional 
missile defense efforts and, if confirmed, will you work to implement 
them?
    Answer. Yes. Our regional missile defenses are an important element 
of our deterrence and defense strategies, and provide an essential 
capability for defending U.S. Forces and presence abroad, and our 
allies and partners. If confirmed, I would continue to support the 
European Phased Adaptive Approach as well as other regional missile 
defense efforts.
                           readiness funding
    Question. After almost a decade of combat operations, each of the 
military Services faces a rising bill for maintenance and repair. The 
Army has stated that reset funding will be needed for at least 2 to 3 
years beyond the end of Overseas Contingency Operations (OCO). The 
Marine Corps leadership has acknowledged that a $10 billion bill awaits 
at the end of combat operations, but has requested only $250 million 
for reset this year. The Navy has identified a 1-year backlog of 
deferred ship and aircraft depot maintenance. The Air Force has 
requested funding for only 84 percent of needed aircraft repairs this 
year.
    What level of priority do you place on reset and reconstitution 
funding for the Military Services?
    Answer. Reset and reconstitution are important to the Services as 
they transition from a counterinsurgency-focused force to a force ready 
and capable of operating across a full range of operations across the 
globe. Reset activities are funded out of the OCO budget. The 
Department needs these funds, and I understand that OCO funding, or 
some similar funding mechanism, will need to continue for several 
years. Some equipment can be repaired and some will have to be replaced 
if required for future contingencies. Reset and reconstitution 
requirements must be carefully managed to ensure these funds contribute 
to future readiness. If confirmed, I will work to ensure this happens.
    Other maintenance needs are funded out of the base budget. Given 
the magnitude of sequestration reductions and despite some relief as a 
result of the BBA of 2013, the Military Services will have to make 
tough choices to balance their budgets to maintain the All-Volunteer 
Force, maintain readiness, and sustain infrastructure and modernization 
investments in equipment while continuing to give priority support to 
troops deployed in combat. If confirmed, I will make every effort to 
ensure adequate funding for these initiatives, consistent with the 
budget limitations that Congress places on the Department.
    Question. What steps would you take, if confirmed, to address 
maintenance backlogs and ensure that the military departments request 
adequate funding for reset, reconstitution, and other maintenance 
requirements?
    Answer. If confirmed, I would continue to monitor readiness 
reporting and work with the service secretaries and other components to 
ensure DOD is prepared to achieve the National Security Strategy goals.
                  protection against internal threats
    Question. DOD has fallen victim to numerous internal threats, 
leading both to physical attacks and loss of life, and the theft and 
exposure of huge amounts of sensitive and classified information. The 
NDAA for Fiscal Year 2014 included legislation mandating reforms of the 
personnel security system and integration of that reformed system with 
other elements of a coordinated insider threat program. Prior NDAAs 
mandated comprehensive insider threat protection programs coordinated 
with cybersecurity systems. The President issued a memorandum in late 
2012 directing all departments and agencies to build and maintain an 
insider threat analytic capability that is integrated across many 
different domains and functions, including personnel security, 
personnel records, counterintelligence, law enforcement, information 
assurance, and computer network auditing. These requirements present a 
daunting information technology acquisition and integration challenge.
    What type of management structure, resources, and authorities do 
you believe is necessary to succeed in this endeavor?
    Answer. I believe the Department must take a very deliberative 
approach to understanding and evaluating potential threats posed by 
insiders while simultaneously ensuring that privacy and civil liberties 
are preserved. As I understand it, DOD is working both internally and 
with OMB, OPM, and other agencies to develop better approaches to guard 
against insider threats. I believe this challenge, and the associated 
challenges of information technology acquisition and integration, 
require the sustained attention of the Department's leadership. If I am 
confirmed, I will utilize the tools and procedures available to me as 
the Department's Chief Management Officer to ensure that the Department 
meets these critical challenges
 annual increase in rates of basic pay below the employment cost index
    Question. The Department requested an across-the-board pay raise 
for 2014 for military personnel of 1 percent, versus a 1.8 percent rise 
in the Employment Cost Index (ECI) benchmark, and has indicated that in 
order to restrain the growth of personnel costs, similar below-ECI pay 
raises may be necessary over the next several years.
    What is your assessment of the impact on recruiting and retention 
of pay raises below the increase in ECI in 2015 through 2018?
    Answer. From my time as Under Secretary of the Navy, I know our 
military compensation package is and must remain highly competitive in 
order to recruit and retain the high quality men and women who make up 
our Nation's military.
    I understand that even under the Department's plan to slow the 
growth of military compensation, military members continue to receive a 
robust package of pay and benefits that compares favorably with 
private-sector compensation. Thus, I do not assess the below-ECI level 
pay raise as materially impacting our recruiting or retention efforts.
    If confirmed, I will monitor this issue and remain vigilant to 
ensure our military pay levels remain appropriate and ensure the 
Department remains good stewards of the funds provided by Congress and 
the American taxpayers.
              religious accommodation in the armed forces
    Question. In your view, do DOD policies concerning religious 
accommodation in the military appropriately accommodate the free 
exercise of religion and other beliefs, including individual 
expressions of belief, without impinging on those who have different 
beliefs, including no religious belief?
    Answer. Yes. From my previous experience as a Marine Corps Officer 
and Under Secretary of the Navy, I believe the Department is fully 
committed to the free exercise of religion.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact good order and 
discipline?
    Answer. Yes. That is my understanding of the current law and 
policy.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by chaplains in a variety of formal 
and informal settings strike the proper balance between a chaplain's 
ability to pray in accordance with his or her religious beliefs and the 
rights of other servicemembers with different beliefs, including no 
religious beliefs?
    Answer. Yes. I have had numerous opportunities during my decades of 
service in the Department to observe firsthand how chaplains strike 
this balance by considering their audience and the tenets of their 
faith before addressing groups in formal and informal settings.
    Question. DOD Instruction 1300.17, ``Accommodation of Religious 
Practices Within the Military Services'' provides that servicemembers 
submitting requests for waiver of religious practices will comply with 
the policy, practice or duty from which they are requesting 
accommodation, including refraining from unauthorized grooming and 
appearance practices unless and until the request is approved.
    In your view, does the requirement to comply with the policy from 
which the servicemember is seeking a waiver unless and until it is 
approved interfere with the accommodation of religious faith of a 
person, such as a male of the Sikh faith whose faith requires an 
unshorn beard, if that servicemember must comply with grooming 
standards that require that he shave his beard pending a determination 
of the waiver?
    Answer. Servicemembers accept the standards of service upon entry 
into the military.
    My understanding is the Department has recently updated its policy 
in this area to provide more latitude for members in favor of 
accommodation which can be approved on a case-by-case basis as long as 
those waivers do not affect mission accomplishment, military readiness, 
unit cohesion, good order, discipline, health and safety.
    If confirmed, I look forward to receiving an update on the 
Department's revised policy.
    Question. Section 774 of title 10, U.S.C., authorizes members of 
the Armed Forces to wear items of religious apparel, such as the Jewish 
yarmulke, while wearing their uniform so long as the items are neat and 
conservative and do not interfere with the performance of military 
duties.
    Does DOD policy presumptively allow the wear of religious apparel 
or do servicemembers have to request approval in every instance, even 
for the wear of apparel that is neat and conservative and that does not 
interfere with the performance of military duties?
    Answer. My understanding is that servicemembers must comply with 
the uniform policies of their individual Service.
    Question. Do you believe that requests to waive grooming and 
appearance standards and to wear of items of religious apparel are more 
appropriately addressed prior to the member's entry into military 
service?
    Answer. My understanding of the Department policy is that it does 
allow members to request waivers at any time during their service.
    Question. Under what circumstances would you consider it 
appropriate to grant waivers for grooming and appearance standards and 
for wear of religious apparel for all members of a specific faith 
group?
    Answer. Given my concern for the safety and well-being of our 
personnel and the often dangerous and austere conditions in which they 
operate, I cannot envision a set of circumstances that would make for a 
blanket waiver from military standards advisable. I believe the best 
approach is a case-by-case examination for each servicemember and duty 
station or service specialty.
    Question. Under what circumstances would you consider it 
appropriate to grant waivers for grooming and appearance standards and 
for wear of religious apparel for a member of a faith group that could 
remain in place regardless of new assignment, transfer of duty 
stations, or other significant change in circumstances, including 
deployment?
    Answer. Given my concern for the safety and well-being of our 
personnel and the often dangerous and austere conditions in which they 
operate, I cannot envision a set of circumstances that would make a 
blanket waiver from military standards for an entire career advisable. 
I believe the best approach is a case-by-case examination for each 
servicemember and duty station.
    Question. In your view, what is the appropriate role in assisting 
the Department to develop policy for religious accommodation for the 
following:
    The Armed Forces Chaplains Board?
    Answer. To inform and advise Department policies.
    Question. Ecclesiastical Endorsing Agents?
    Answer. To provide advice on specific religious practices.
    Question. Civil organizations?
    Answer. I understand the Department often receives information from 
various private organizations and this information helps inform us 
regarding the views of the public.
    Question. Section 533 of the NDAA for Fiscal Year 2013 (P.L. 112-
239) protects rights of conscience of members of the Armed Forces and 
chaplains of such members, and prohibits, so far as possible, use of 
such beliefs as the basis of any adverse personnel action, 
discrimination, or denial of promotion, schooling, training, or 
assignment. Members of some religious denominations have sincerely held 
beliefs in opposition to same-sex marriage.
    In your view, may a member of the armed forces who has a sincerely 
held belief in opposition to same-sex marriage be subject to adverse 
personnel action or similar other adverse action, if he or she shares 
those personal views on the subject in an official capacity?
    Answer. It is my understanding that the Department has a 
longstanding practice of generally not supporting the expression of 
personal views in one's official capacity because of the likelihood of 
confusion between the two.
    Question. Can he or she be subject to adverse personnel action if 
they express personal views on same sex marriage in their personal 
capacity?
    Answer. My understanding is the Department does not inhibit the 
rights of members to talk about their beliefs, as long as such speech 
is free of compulsion or coercion and does not encroach upon the 
dignity and respect of others who do not hold the same moral or 
religious views.
                 sexual assault prevention and response
    Question. On December 20, 2013, the President commended the 
Pentagon leadership for moving ahead with a broad range of initiatives 
to address sexual assault in the military, including reforms to the 
military justice system, improving and expanding prevention programs, 
and enhancing support for victims. The President directed the Secretary 
of Defense and Chairman of the Joint Chiefs to continue their efforts 
and to report back to him by December 1, 2014, with a full-scale review 
of their progress.
    What is the Department's plan for complying with the President's 
directive?
    Answer. It is my understanding that the Department is working 
collaboratively with the White House to ensure the report reflects its 
progress toward satisfying the President's goal of detailing major 
improvements in the prevention and response to sexual assault, 
demonstrates the Department's efforts and leadership on the issue, and 
shows clear measures of progress--both quantitative and qualitative.
    Question. If confirmed, do you expect to participate in the 
progress review directed by the President?
    Answer. Yes. If confirmed, I will actively, and vigorously, 
participate in and support this review process.
    Question. If confirmed, what will be your role in the Department's 
effort to prevent and respond to sexual assault in the military?
    Answer. The Secretary has made it very clear that eliminating 
sexual assault from the armed forces is a priority. I share his 
commitment. Sexual assault is a crime and since it erodes the trust and 
cohesion that is central to our values and our operational mission 
effectiveness, it has no place in our Nation's military.
    If confirmed, I intend to be an active participant in the 
Secretary's comprehensive efforts to prevent this crime from occurring, 
and if it does occur, ensuring we protect victims' privacy, provide 
responsive care, professionally investigate these crimes, and hold 
offenders appropriately accountable.
    The Department must sustain its focus and current level of emphasis 
on this issue and continue fielding solutions that inspire victim 
confidence. If confirmed, I will support these efforts wholeheartedly.
    Question. What is your view of the role of the chain of command in 
addressing sexual assault in the military?
    Answer. I support the Department's position on the importance of 
retaining the Chain of Command as an integral part of an effective 
response to sexual assault.
    Commanders make countless important decisions every day, both in 
and out of combat that impact the lives and careers of servicemembers 
and their families. They are accountable for mission accomplishment as 
well as the health, welfare, and readiness of those under their 
command. Having a defined role in the administration of justice helps 
commanders carry out these critical responsibilities.
                        end strength reductions
    Question. What is your understanding of the Army and Marine Corps' 
ability to meet their end strength reduction goals without forcing out 
soldiers and marines who want an opportunity to compete for career 
service and retirement?
    Answer. I understand that the Army will continue to use lowered 
accessions and natural voluntary attrition as the primary levers to 
reduce end strength. Involuntary measures, however, are necessary to 
achieve lowered end strength goals. The Army has taken a proactive and 
transparent approach to communicating the drawdown to the force. The 
Army is committed to a fair board process and will work to ensure an 
equitable process for transitioning soldiers and families by affording 
them the maximum amount of time to transition while connecting them 
with opportunities for continued service in the Reserve component, 
civilian employment, education, and healthcare prior to separation.
    Similarly, I understand the Marine Corps is maximizing voluntary 
incentives to meet its end-strength goals. The Commandant of the Marine 
Corps provided testimony in November that he intended to work with 
Congress to ``map out a resource strategy that protects our global 
interests as a nation, keeps faith with our servicemembers, and 
provides the greatest value to the American people.'' The NDAA for 
Fiscal Year 2014 increased the allowable rate of drawdown for the 
Marine Corps to 7,500 per year.
    If confirmed, I will be committed to achieving the highest quality 
force within our allocated end strength.
    Question. What programs are in place to ensure that separating and 
retiring servicemembers are as prepared as they can be as they enter a 
struggling economy?
    Answer. It is my understanding that the Department's current 
Transition Assistance Program (TAP) provides information and training 
to ensure servicemembers leaving military service are prepared for 
their next step--whether pursuing additional education, finding a job 
in the public or private sector, or starting their own business.
    Question. What impact, if any, will the additional budget authority 
for fiscal years 2014 and 2015 provided by the Bipartisan Budget Act 
have on the end strengths of the Services?
    Answer. If the Budget Control Act's sequestration-level cuts remain 
the law of the land, not only would they force deep reductions in force 
structure, they would also starve the Department of funds for readiness 
and maintaining our technological edge. I understand that Budget 
Control Act spending caps remain in place for fiscal year 2016 and 
beyond and there is significant lead-time involved in adjusting 
military end strength levels. This may inhibit the Military Services 
from using any of the additional fiscal year 2014 and fiscal year 2015 
budget authority provided by the Bipartisan Budget Act for this 
purpose.
    Question. What is your understanding of the need for additional 
force shaping tools requiring legislation beyond what Congress has 
provided the past 2 years?
    Answer. Based on my experience as the Under Secretary of the Navy, 
I believe the Department has been granted the necessary force shaping 
tools to meet the drawdown in its current plan.
    However, continued budget reductions may make it necessary to 
review the size of all components of the Total Force--the Active and 
Reserve components, DOD civilians and contractors.
    If confirmed, I am committed to studying this issue in detail.
                          recruiting standards
    Question. Recruiting highly qualified individuals for military 
service during wartime in a cost-constrained environment presents 
unique challenges.
    What is your assessment of the adequacy of current standards 
regarding qualifications for enlistment in the Armed Forces?
    Answer. I believe our qualification standards are appropriate with 
respect to aptitude, medical fitness, and adaptability. Today, our 
measures of quality are at some of the highest rates over the history 
of the All-Volunteer Force.
    In my experience, the All-Volunteer Force continues to perform 
exceptionally well. Over the past 12 years of protracted conflict, the 
military has proven its ability to accomplish the mission when tasked. 
These standards have helped to ensure we have the strongest and most 
respected military in the world.
    Question. In your view, is there any way to increase the pool of 
eligible enlistees without sacrificing quality?
    Answer. If confirmed, I will engage the Military Departments to 
make certain our policies are not overly restrictive and allow us to 
recruit a diverse force drawn from the best and the brightest of our 
youth.
    Question. In your view, are there any enlistment requirements or 
standards that are overly restrictive or which do not directly 
correlate to successful military service?
    Answer. I am not aware that the Department's military enlistment 
standards are overly restrictive. The Services employ medical fitness, 
adaptability, and aptitude standards that correlate to the physical, 
disciplined, regulated lifestyle and cognitive demands needed to 
succeed in the Armed Forces. We continually assess and modify our 
policies based on empirical data or changes in law.
             assignment policies for women in the military
    Question. The Department in January rescinded the policy 
restricting the assignment of women to certain units which have the 
primary mission of engaging in direct ground combat operations, and has 
given the Military Services until January 1, 2016, to open all 
positions currently closed to women, or to request an exception to 
policy to keep a position closed beyond that date, an exception that 
must be approved by the Chairman of the Joint Chiefs of Staff and the 
Secretary of Defense. The services are working now to develop gender-
free physical and mental standards for all military occupations, 
presumably with the goal of allowing individuals, regardless of gender, 
to serve in those positions if they can meet those standards.
    If confirmed, what role will you play in the development of these 
standards?
    Answer. The Services and Special Operations Command are conducting 
the review and validation of their occupational standards.
    If confirmed, along with the Secretary of Defense and Chairman of 
the Joint Chiefs of Staff, I will monitor their progress toward 
integration of female servicemembers into previously closed positions, 
in accordance with each of their implementation plans.
    Question. If confirmed, will you ensure that the standards are 
realistic and preserve, or enhance, military readiness and mission 
capability?
    Answer. Yes. If confirmed I will ensure I will monitor the progress 
of the Military Departments in terms of reviewing and validating their 
occupational standards to ensure the standards are current, 
definitively tied to an operational requirement, and gender-neutral.
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements? If so, what steps would you 
take to ensure that such decisions are made on this basis?
    Answer. Yes, it is in the best interest of the Department to allow 
both men and women who meet the validated standards for military 
positions and units to compete for them on the merits.
    If confirmed, I will ensure I monitor the progress of the Military 
Departments.
                      rising costs of medical care
    Question. The President's budget request for the Department's 
Unified Medical Program has grown from $19 billion in fiscal year 2001 
to $49.4 billion in fiscal year 2014. In recent years, the Department 
has attempted to address this growth through fee increases for military 
retirees, while also attempting to identify and implement other means 
to ensure the viability of the military health system in the future.
    Do you agree with the health care efficiencies proposed by the 
Department over the past few years?
    Answer. If confirmed, I am committed to keeping faith with our 
troops and will continue to review military health care and be 
transparent about any proposed changes. Efficiencies that preserve care 
and resources should be our first move. Given today's budget 
environment, we must continue to look for savings opportunities, and 
given the dramatic cost increases, this should include military health 
care.
    Question. What reforms in infrastructure, benefits, or benefit 
management, if any, do you think should be examined in order to control 
the costs of military health care?
    Answer. I understand the Department included proposals in the 
fiscal year 2014 President's budget that would slow the growth of 
healthcare costs while preserving and enhancing the quality and range 
of health care. If confirmed, I will continue this comprehensive review 
of all initiatives that would help control the costs of military health 
care.
    Question. What is your assessment of the long-term impact of rising 
medical costs on future DOD plans?
    Answer. As I understand the situation, health care consumes nearly 
10 percent of the Department's budget and could grow considerably over 
the next decade taking an ever larger bite of our ability to invest in 
our people or in enhanced warfighting capability. I realize the 
healthcare benefit is a key component of retention for our men and 
women so I will work closely with the healthcare leadership in DOD to 
find reasonable and responsible ways to stem this growth without 
breaking faith with our troops and their families.
                systems and support for wounded warriors
    Question. Servicemembers who are wounded or injured in combat 
operations deserve the highest priority from their Service and the 
Federal Government for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from active duty if required, and continuing support beyond retirement 
or discharge. Despite the enactment of legislation and renewed emphasis 
over the past several years, many challenges remain.
    What is your assessment of the progress made to date by DOD and the 
Services to improve the care, management, and transition of seriously 
ill and injured servicemembers and their families?
    Answer. The Walter Reed revelations in 2007 were a sobering moment 
for the Department. I believe we have made significant progress in how 
we support our recovering servicemembers. However, there is still more 
to learn, and more to be done. As the military continues to draw down 
forces in Afghanistan and moves to a new readiness posture, the focus 
will be to ensure current practices are maintained and updated to 
prevent us having to relearn the lessons of the last decade.
    If confirmed, I look forward to working with the Department's 
healthcare professionals to better understand both the visible and 
invisible wounds of war, and continue to support advancements in how we 
support servicemembers and their families through treatment, recovery, 
rehabilitation, and possibly transition out of service.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. If confirmed, I will be a proactive participant in making 
certain the necessary resources are in place to properly take care of 
our recovering wounded, ill, and injured servicemembers and their 
families. I am particularly interested in understanding the research 
initiatives we have in place to evaluate the effects of PTSD and TBI, 
making certain we are addressing these signature injuries of our most 
recent conflicts in a meaningful way.
    Question. If confirmed, what role would you expect to play in 
ensuring that the Departments of Defense and Veterans Affairs achieve 
the administration's objectives in DOD and VA collaboration?
    Answer. I understand and support the Department's commitment to 
continually improve DOD-VA collaboration and ensure our support to 
servicemembers and veterans. Secretary Hagel has made it clear that he 
intends to strengthen efforts with Secretary Shinseki to accelerate 
improvements to our interoperable systems and processes. I understand 
the Department has cooperated with VA and assisted in reducing VA's 
disability claims backlog from nearly 611,000 to 400,000 during the 
course of 2013 and the hope is it will continue to be reduced in 2014. 
If confirmed, I will support efforts to improve cooperation on joint 
initiatives such as the electronic health record, care coordination, 
medical care and transition issues. I look forward to working with the 
veterans community as well in identifying ways of reducing our claims 
backlog and outreach.
                           suicide prevention
    Question. The numbers of suicides in each of the services continue 
to be of great concern to the committee.
    If confirmed, what role would you play in shaping DOD policies to 
help prevent suicides both in garrison and in theater and to increase 
the resiliency of all servicemembers and their families?
    Answer. Suicide is influenced by many factors: stressed 
relationships, mental health, substance misuse, legal and financial 
issues, exposure to trauma, social isolation, and many other influences 
from the broader social, cultural, economic, and physical environments.
    Suicide is a serious problem that causes immeasurable pain, 
suffering, and loss to individuals, families, survivors, military 
formations, and to military communities.
    The health and resilience of the force, our military members, and 
our Family members increase our combat effectiveness, and our overall 
readiness.
    I know the Department has placed a significant amount of emphasis 
on implementing a wide variety of resilience programs in place to help 
our servicemembers.
    Suicide prevention requires our best efforts, and the attention of 
leaders at all levels. Thus, if confirmed, I look forward to learning 
more about these efforts and it would be my intent to become engaged 
in, and supportive of, these important programs.
                        military quality of life
    Question. The committee is concerned about the sustainment of key 
quality of life programs for military families, such as family support, 
childcare, education, employment support, health care, and morale, 
welfare and recreation services, especially as DOD's budget declines.
    How do you perceive the relationship between military recruitment 
and retention and quality of life programs and your own top priorities 
for the Armed Forces?
    Answer. Quality of life programs improve the well-being and 
resilience of our servicemembers and military families and enhance the 
Department's ability to recruit an All-Volunteer Force (AVF). We cannot 
sustain the quality and readiness of today's AVF without also 
supporting their family adequately. It is part of an overall holistic 
approach to both readiness and personnel compensation.
    Taking care of our servicemembers and their families is one of the 
Department's top priorities. If confirmed, I will continue to 
prioritize those quality of life programs that effectively meet our 
servicemembers' needs and that of their families.
    Question. If confirmed, what military quality of life programs 
would you consider a priority, and how do you envision working with the 
Services, combatant commanders, family advocacy groups, and Congress to 
sustain them?
    Answer. If confirmed, I will work with the Services to sustain key 
quality of life programs that support mission and family readiness. The 
benefits of core programs such as family support, child and youth 
programs, spouse employment and education, and Morale, Welfare and 
Recreation programs are invaluable to the well-being and readiness of 
military families and deserve the support of the Department and 
Congress.
    I will strive to enhance cooperative relationships with advocacy 
groups to leverage resources that optimize support for the military 
community.
                      family readiness and support
    Question. Servicemembers and their families in both the Active and 
Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of concerns among military families as a result of 
the stress of deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families, and, if confirmed, how 
would you ensure that family readiness needs are addressed and 
adequately resourced, especially in light of current fiscal 
constraints?
    Answer. I believe the Department has a responsibility to help 
prepare families to face the challenges inherent with military service 
and deployments. Focusing on the social, financial, educational, and 
psychological well-being of military families will help to build and 
sustain resilient families.
    If confirmed, I will prioritize sustainment of family resilience 
programs in the current fiscally constrained environment, while 
continuing to review and adapt them to improve efficiency and to 
maximize support from non-government sources.
    Question. How would you address these family readiness needs in 
light of global rebasing, deployments, and future reductions in end 
strength?
    Answer. Family readiness services including health care, non-
medical counseling, education, and employment support must be available 
to families wherever they reside. Innovative solutions, such as web-
based delivery systems, allow the Department to be more flexible and 
responsive to the diverse needs of the population.
    The Department should continue to engage with Federal agencies, as 
well as local governments, businesses, and non-profit stakeholders to 
address the myriad aspects of military life, and work together to 
provide the necessary resources.
    If confirmed, I will consider these impacts on our military 
families to ensure their needs are met.
                           medical marijuana
    Question. What is your assessment on the need for legitimate 
scientific study of the efficacy of medical marijuana in alleviating 
the symptoms of post-traumatic stress disorder experienced by 
servicemembers and veterans?
    Answer. This is not something I have studied in detail. I would 
look to our medical leadership for an assessment. I understand that the 
Federal Government's position is that marijuana does not have a valid 
medical purpose, but some research efforts have been undertaken.
                         human capital planning
    Question. Section 115b of title 10, U.S.C., requires the Secretary 
of Defense to develop and annually update a strategic human capital 
plan that specifically identifies gaps in the Department's civilian 
workforce and strategies for addressing those gaps. DOD has not yet 
produced a strategic human capital plan that meets the requirements of 
these provisions.
    Would you agree that a strategic human capital plan that identifies 
gaps in the workforce and strategies for addressing those gaps is a key 
step toward ensuring that the Department has the skills and 
capabilities needed to meet future challenges?
    Answer. I believe this type of plan, and the workforce skill 
assessments required to develop it, would be of significant assistance 
to the Department's efforts relative to acquiring developing, and 
retaining the workforce needed to meet current and future mission 
challenges.
    Question. Do you see the need for any changes in the requirements 
of section 115b regarding the requirement for a strategic human capital 
plan?
    Answer. I will, if confirmed, ensure that the Department strives to 
meet the human capital plan under section 115b and assess the need for 
any changes.
    Question. If confirmed, will you ensure that DOD fully complies 
with these requirements?
    Answer. Yes, if confirmed, I will continue to work toward ensuring 
the Department fully complies with statutory strategic workforce 
planning requirements.
                       detainee treatment policy
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes. I believe the proper treatment of detainees is of 
paramount importance to ensuring the Department has principled, 
credible, and sustainable detention policies and procedures.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes. The Department must ensure that it holds its personnel 
to the highest standards of treatment while detaining individuals in 
the context of armed conflict. Gaining intelligence from captured enemy 
forces is paramount to the war effort, and it must be done in a manner 
consistent with our values. Early in his first term, President Obama 
established the Army Field Manual on Interrogation as the ``standard'' 
for all U.S. Government agencies to adhere to. It is my understanding 
that this has been strictly adhered to throughout all DOD agencies, 
Services, and commands.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes. If confirmed, I would ensure that the Department 
continues to implement policies that are consistent with its current 
humane treatment standards.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, without reservation.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Secretary of 
Defense?
    Answer. Yes, if confirmed, I am committed to provide information 
relating to my position and the performance of the Department.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, and I look forward to working with the committee and 
staff on advancing the Nation's security.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Question Submitted by Senator Bill Nelson
                          strategic dispersal
    1. Senator Nelson. Mr. Work, since 2005, congressional and military 
leadership have reaffirmed the importance of dispersing the Atlantic 
Fleet in two ports. In February 2005, then Chief of Naval Operations 
(CNO), Admiral Clark, stated that it was his view that, ``over-
centralization of the [carrier] port structure is not a good strategic 
move . . . the Navy should have two carrier-capable homeports on each 
coast.'' He went on to say, `` . . . it is my belief that it would be a 
serious strategic mistake to have all of those key assets of our Navy 
tied up in one port.'' Despite current fiscal constraints, both the 
current CNO, Admiral Greenert, and the Secretary of the Navy, Secretary 
Mabus, have affirmed their commitment to accomplishing strategic 
dispersal of the east coast fleet.
    The principle of strategic dispersal is decades old. What is your 
understanding of the principle of strategic dispersal and what are your 
thoughts regarding the priority of accomplishing strategic dispersal on 
the east coast?
    Mr. Work. It is my understanding that the Navy remains committed to 
the concept of strategic dispersal. Strategic dispersal ensures that 
the fleet's ships and aircraft, their crews, supporting maintenance, 
training-critical infrastructure, and the public/private skilled labor 
force required to keep these assets running, are located at different 
locations in the continental United States, Hawaii and Alaska, U.S. 
territories, and overseas to the greatest degree possible consistent 
with available resources. I supported the general idea of strategic 
dispersal as Under Secretary of the Navy, and continue to do so.
    It is my understanding that the Navy's goal remains to 
strategically disperse its east coast fleet to the maximum extent 
practical. At this point, there are two major surface fleet 
concentration areas on the east coast, including the Hampton Roads area 
of Virginia and Mayport, FL. Submarine bases are likewise distributed 
on the east coast in Groton, CT and King's Bay, GA. At this point in 
time, however, all east coast carriers and support infrastructure are 
consolidated within a 15 nautical mile radius in the Hampton Roads 
area. The Navy remains committed to strategic dispersal of east coast 
carriers, and I believe the Navy would still like to homeport a carrier 
in Mayport in the future. Due to fiscal constraints, the Navy has been 
forced to defer the investment required to homeport a carrier in 
Mayport at this time.
    If confirmed, I will continue to monitor Navy plans for strategic 
dispersal, particularly with regard to the east coast carrier fleet.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                             cyber security
    2. Senator Gillibrand. Mr. Work, the National Commission on the 
Structure of the Air Force recently released their findings, which 
highlighted the importance of the National Guard and Reserve in the 
U.S. cyber mission. Specifically, it noted that the Guard and Reserve 
were uniquely positioned, because of their part-time status, to attract 
and retain the best and the brightest in the cyber field. I have long-
agreed with this assessment, and introduced the Cyber Warrior Act which 
would establish National Guard cyber teams in each State to leverage 
this talent pool. In addition to the Air Force Commission review, I 
know that DOD is also looking at the role of the Reserve component in 
U.S. Cyber Command (CYBERCOM). If confirmed, do I have your commitment 
to look at the role of the Reserve component beyond CYBERCOM?
    Mr. Work. I agree that the National Guard and Reserves provide the 
Joint Force with a wide array of talents in cyber and a variety of 
other important joint capability areas. As such, if confirmed, I commit 
to looking at the role of the Reserve component in supporting CYBERCOM. 
Although not fully briefed on the initiative, I understand the 
Department is currently conducting a mission analysis looking at this 
very subject in response to section 933 of the National Defense 
Authorization Act (NDAA) for Fiscal Year 2014. If confirmed, I look 
forward to working across the Department to ensure that the mission 
analysis is both rigorous and thorough, and meets congressional 
timelines.

    3. Senator Gillibrand. Mr. Work, I want to be helpful to DOD in 
recruiting the best talent and acquiring the best tools for our cyber 
mission. In your opinion, what can Congress do to assist DOD in this 
effort?
    Mr. Work. The NDAA for Fiscal Year 2014's requirement for CYBERCOM 
to build infrastructure to conduct military-specific operations was a 
critical step for equipping the cyber mission force with the tools 
necessary to fulfill its missions. If confirmed, I look forward to 
working with Congress to ensure that cyber capabilities for CYBERCOM, 
the Military Departments, and the Services are appropriately resourced 
and efficiently managed.
    As part of this effort, I would monitor Departmental efforts to 
recruit and retain highly-qualified personnel in our officer, enlisted, 
and civilian cyber workforces. However, I understand there are 
challenges to organizing and equipping the total cyberspace workforce. 
For example, although the Services have plans to retain their most 
talented uniformed cyberspace operators, I have been told that the 
recruitment and retention of our civilian cyberspace workers is 
lagging. One way to tackle this problem is to encourage more students 
to enter Science, Technology, Engineering, and Mathematical (STEM) 
fields, and to incentivize some of them to pursue a career in the DOD 
cyber workforce cyber career. If confirmed, I look forward to working 
with Congress and the acquisition community within DOD to advance STEM 
education and recruit highly skilled personnel from less technical 
educational backgrounds as well.

    4. Senator Gillibrand. Mr. Work, what do you believe DOD needs in 
order to remain on the cutting edge of cyber defense?
    Mr. Work. The quality of our people--Active, Reserve, civilian, and 
contractors--is what sets the U.S. military apart from all others. This 
is especially true in the realm of cyber warfare. To remain on the 
cutting edge of cyber defense, DOD needs to continue to invest in an 
elite, highly trained military and civilian workforce to carry out its 
missions of defending the Nation against strategic cyberattack, 
supporting combatant commands, and defending DOD networks. In addition 
to investing in quality people, DOD needs to continue investing in the 
tools, technical infrastructure, and intelligence capabilities 
necessary for conducting effective cyberspace operations.
    In my view, DOD must also build information systems that are more 
difficult to attack and easier to defend. Over the coming years, DOD is 
planning to invest in the Joint Information Environment, an information 
system composed of consolidated data centers, enterprise services, and 
a single security architecture. In achieving those goals, the Joint 
Information Environment should make it easier for DOD to see threats, 
prevent intrusions, and improve network defense operations.
    Finally, cyber is a true national and international team sport. DOD 
needs to maintain strong partnerships with other government agencies, 
with the private sector, and with international allies and partners to 
defend the United States and its interests against cyberattacks.
    If confirmed, I look forward to working with you and other Members 
of Congress to ensure DOD's cyber capabilities remain unequalled in the 
world.

    5. Senator Gillibrand. Mr. Work, in your advance policy questions 
you were asked about ways to increase the pool of eligible enlistees 
without sacrificing quality. I think this is an especially important 
question as it pertains to our cyber workforce. If confirmed, will you 
look at some of the requirements for emerging missions, such as cyber, 
to determine if there are alternative requirements that we might 
consider in order to truly attract the best and the brightest?
    Mr. Work. Success in cyberspace will rely on our people--just as it 
does in other domains. The Services have a long history of excellence 
in recruitment, and I am confident that they will attract the best and 
brightest enlisted personnel to this growing career field. If 
confirmed, I will work with the Services to ensure that they can 
recruit and retain highly skilled cyber personnel who remain 
competitive, in both rank and position, with military personnel in 
other career specialties.

                             sexual assault
    6. Senator Gillibrand. Mr. Work, would you please share with me 
information about all the cases in which a convening authority did not 
follow the legal advice of his or her staff judge advocate or Article 
32 investigating officer about whether to prefer charges for sexual 
assault, rape, or sodomy, or attempts, conspiracies, or solicitations, 
to commit these crimes?
    Mr. Work. Sexual assault is a major problem in our military that 
must be aggressively addressed. If confirmed, I look forward to working 
with you, Secretary Hagel, the Office of the Secretary of Defense, the 
Military Services, and all Members of Congress to improve the 
Department's ability to determine the scope of the sexual assault 
issue, to increase awareness and improve DOD policies so that victims 
feel confident reporting incidents, and to hold accountable those that 
perpetrate these crimes.
    Based on a preliminary review of recent cases across the Services 
in 2012, sexual assault-related charges were referred to court-martial 
in every case in which a staff judge advocate recommended that the case 
go forward. At this time, however, I do not have any information about 
instances in which a convening authority disagreed with the 
recommendations of an Article 32 investigating officer, or in which a 
convening officer decided to refer charges after a staff judge advocate 
or Article 32 investigating officer recommended against doing so.
                                 ______
                                 
           Questions Submitted by Senator Richard Blumenthal
              department of defense medical record system
    7. Senator Blumenthal. Mr. Work, DOD was charged with modernizing 
its health record infrastructure almost 7 years ago. To date, over $1 
billion has been spent in the effort. Although many Secretaries have 
directed the action, DOD is still using the legacy Armed Forces Health 
Longitudinal Technology Application. The improvements made to date seem 
to be superficial and overly expensive. The health records are still 
not interoperable with the current Veterans Affairs (VA) system. System 
modernization cost estimates are said to be $28 billion. What will you 
do to ensure that DOD will modernize its health record system quickly?
    Mr. Work. Providing high-quality healthcare for current 
servicemembers and their dependents, and facilitating high-quality 
healthcare for our veterans are among our Nation's and DOD's highest 
priorities. I fully support Secretary Hagel's decision to pursue a 
competitive acquisition strategy for a new DOD electronic health record 
that is compatible with VA electronic health records. I also support 
Secretary Hagel's decision to assign acquisition oversight of the 
program to Under Secretary Kendall.
    I am not aware of the combined amount that both Departments (DOD 
and VA) have spent to date on the effort to improve health record 
infrastructure. If confirmed, I will support efforts to improve 
cooperation on joint initiatives with the VA, such as electronic health 
records, with two distinct goals: (1) Modernize the software supporting 
our clinicians; and (2) ensure health data interoperability among VA, 
DOD, and the private sector. The Department's commitment to achieving 
these goals in the most efficient and effective way possible is 
demonstrated by the ongoing personal engagement of Secretary Hagel. I 
also plan to be personally engaged and ensure this priority program 
remains on track.

    8. Senator Blumenthal. Mr. Work, is DOD currently reviewing any 
system modernization methods that could occur at significantly lower 
cost (such as adopting VA records infrastructure)?
    Mr. Work. DOD is pursuing a competitive acquisition strategy for 
electronic health records that will consider commercial alternatives 
that may offer reduced cost, reduced schedule and technical risk, as 
well as access to increased capability and capacity by leveraging 
ongoing advances in the commercial marketplace.
                                 ______
                                 
             Question Submitted by Senator Mazie K. Hirono
                department of defense sequestration cuts
    9. Senator Hirono. Mr. Work, the Bipartisan Budget Agreement (BBA) 
reduced the impact of sequestration by $22 billion in fiscal year 2014 
and $9 billion in fiscal year 2015. With this additional funding as a 
result of this agreement, how will DOD prioritize readiness funding 
levels for these fiscal years--by program or capacity, and what will 
the readiness impacts be for fiscal year 2016, should sequestration 
remain a reality?
    Mr. Work. I have not had the opportunity to review the President's 
budget for 2015. However, Secretary Hagel has said the BBA enabled the 
Department to mitigate the most serious cuts in readiness and 
modernization accounts in both fiscal year 2014 and fiscal year 2015. 
Nevertheless, some challenges remain at the fiscal year 2015 budget 
levels. As Secretary Hagel announced on 24 February, after careful 
deliberation, the administration has proposed a $26 billion investment 
``bridge'' in fiscal year 2015. As I understand it, approximately 40 
percent of this added investment would be devoted to readiness; 40 
percent would be devoted to modernization; 2 percent would be devoted 
to infrastructure; and the remainder for other pressing needs.
    As for fiscal year 2016 and out, Secretary Hagel has stated for the 
record that full sequestration level funding generates unacceptable 
levels of risk to our national security. The administration's budget 
proposal includes an additional $115 billion across the remainder of 
the Future Years Defense Program (FYDP). This $141 billion total 
increase to the current budget caps ($26 billion in fiscal year 2015, 
and an additional $115 billion across the FYDP) will help to preserve 
force readiness as DOD shifts from a wartime footing to a more 
sustainable peacetime posture.
    I cannot tell you at this point exactly how DOD is planning to 
prioritize its readiness funding. However, if confirmed I will do my 
best to ensure that resources are prioritized to support the readiness 
requirements for our warfighters worldwide. I lived through the 
``hollow force'' of the late 1970s, and have no desire to do so again. 
If confirmed, I will do everything humanly possible to make sure we 
retain a force ready to respond to any contingency.
                                 ______
                                 
                Question Submitted by Senator Tim Kaine
                department of defense sequestration cuts
    10. Senator Kaine. Mr. Work, the Budget Control Act (BCA) 
originally placed DOD under reduced discretionary spending caps that 
have since been adjusted by the American Taxpayer Relief Act (ATRA) and 
the BBA. These across-the-board cuts have had significant negative 
implications for readiness, operational capacity, and our military 
personnel and their families. Fortunately, the President's budget 
request for fiscal year 2015 aims to ease the strain on DOD by $26 
billion in 2015 and $115 billion over the next 5 years. Considering the 
adjustments that have been made with respect to ATRA and BBA, and with 
the proposed cap adjustments in the President's fiscal year 2015 budget 
request, how much of the original sequestration cuts is DOD proposing 
to absorb?
    Mr. Work. As you indicate, after careful deliberation, the 
administration has proposed an additional $26 billion defense 
investment ``bridge'' on top of the BBA fiscal year 2015 caps, and an 
additional $115 billion in defense spending above BCA levels across the 
remainder of the FYDP. How much DOD will absorb of sequestration 
depends on future congressional action.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                             sequestration
    11. Senator Inhofe. Mr. Work, I believe we can all agree that 
sequestration has had a devastating impact on our Nation's military 
readiness. However, I also believe many are under the mistaken 
impression the Ryan/Murray agreement solved this problem. It did not. 
It helped, but DOD is still subject to $76.96 billion in sequester cuts 
in fiscal year 2014 and fiscal year 2015. Even with the small relief in 
fiscal year 2014 and fiscal year 2015, do you think we can execute the 
current Defense Strategic Guidance? If you believe we can execute the 
strategy but with greater risk, can you explain what you mean by risk? 
To me, risk equals lives, the lives of our men and women in uniform.
    Mr. Work. As Under Secretary for the Navy, I participated in the 
Strategic Review that followed the passage of the 2011 Budget Control 
Act. This review sought to balance strategic ends, ways and means with 
the $487 billion reduction in planned defense spending over a 10-year 
period. I believe the results of that review, as outlined in Sustaining 
U.S. Global Leadership: Priorities for 21st Century Defense and the 
2012 Defense Strategic Guidance that followed, maintained an excellent 
balance between strategic aims and expected resources.
    I left the Department of the Navy in March 2013, just as DOD was 
coming to grips with the impact of an additional $500 billion in cuts 
necessitated by sequestration. I am aware that the Strategic Choices 
and Management Review (SCMR) ordered by Secretary Hagel, and the 
subsequent fiscal year 2015 budget review, looked closely at ways to 
accommodate potential reductions. Based on Secretary Hagel's 
recommendations, the President proposes to budget at the cap level in 
fiscal year 2015 but at levels that exceed the caps by a total of $115 
billion for the years fiscal year 2016 through 2019. The President also 
proposes, and Secretary Hagel supports, a government-wide initiative to 
add some funding in fiscal year 2015.
    I have not yet seen or been able to analyze the defense strategy in 
the 2014 Quadrennial Defense Review (QDR), which, as I understand, will 
update the 2012 Defense Strategic Guidance. Nor have I seen the 
Chairman's Risk Assessment associated with the QDR. However, if 
confirmed, I am committed to ensuring the Department of Defense (DOD) 
identifies and clearly communicates with Congress the risks and 
strategic choices associated with resourcing the strategy.

             alternatives to the quadrennial defense review
    12. Senator Inhofe. Mr. Work, you are currently the Chief Executive 
Officer of the Center for New American Security (CNAS). CNAS recently 
participated in a joint think-tank exercise which offered alternatives 
to the QDR and proposals for the fiscal year 2015 defense budget. 
Though the author was another CNAS analyst, CNAS's recommendations 
appear to draw upon work you had previously conducted. For example, in 
a May 29, 2013, briefing, you proposed a smaller Army, smaller tactical 
air forces, a smaller Navy, an expeditionary-focused Marine Corps, 
while retaining a special operations force and air and sea mobility 
forces, which are comparable in size to current levels. In addition, 
you proposed to invest in technologies such as electromagnetic rail 
guns, unmanned systems, cyber, and directed energy weapons. I must say, 
this sounds much like the 2001 all over again. Specifically, Secretary 
Rumsfeld's Transformation Initiative advocated for smaller forces using 
new technologies. Therefore, are these positions incorporated in the 
fiscal year 2015 defense budget?
    Mr. Work. As Secretary Hagel stated at his press conference on 
February 24, 2014, the Department's fiscal year 2015 budget supports 
the joint force's ability to defend the United States against all 
strategic threats, build security globally by projecting U.S. influence 
and deterring aggression, and remain prepared to win decisively against 
any adversary should deterrence fail. Although I am not aware of the 
details of the fiscal year 2015 budget proposal, the broad outlines 
highlighted in the Secretary's speech seem consistent not only with the 
approach I advocated in my CNAS work, but also with the requirements of 
U.S. Forces in this dynamic security environment. It seems to me that 
DOD has chosen to take selective reductions in end strength and force 
structure in order to sustain investments in readiness and 
modernization. As a result, although the joint force will be smaller, 
it will become more modern and more ready to confront a broad range of 
future defense challenges. I think this is the right overall approach.

    13. Senator Inhofe. Mr. Work, would it not be more prudent to 
reduce the size of our forces after we have developed the technologies 
you envision?
    Mr. Work. I believe the Department must begin to act now to ensure 
that it can rebalance the force for the future. This will require 
difficult tradeoffs between near-term capacities and future 
capabilities that Secretary Hagel has been discussing since the 
Strategic Choices and Management Review.
    Given reduced resources, in practical terms this means that if we 
want a force that is ready while it continues to modernize, it will 
likely be necessary to scale back force structure. Only by reducing 
some parts of the force now will we have the resources necessary to 
develop the systems and capabilities that the future force will need to 
confront a broad range of challenges. From what I understand, the 
fiscal year 2015 President's budget submission follows this general 
approach.

    14. Senator Inhofe. Mr. Work, over the last 50 years, time and 
again we have seen assumptions regarding our national security proven 
wrong. Given today's current security environment, can we afford to bet 
it all on a smaller force?
    Mr. Work. Some degree of uncertainty is unavoidable in defense 
planning, as we must always make choices in the present that will limit 
some future options. The challenge is to strive for a force that is 
well-trained, well-led, well-equipped, ready to adapt to unforeseen 
circumstances, and with the will to win, despite the odds or level of 
adversity. Such a force depends first and foremost on the quality of 
the people, not on technology or force structure--that is why the U.S. 
Armed Forces stand apart from all others.
    Said another way, continuing to invest in a robust joint force with 
diverse capabilities and a broad set of missions is one means of 
hedging against uncertainty. But equally, if not more important, is 
ensuring that the U.S. Armed Forces continue to attract the Nation's 
most capable, adaptable, and dedicated professionals. Maintaining force 
structure per se does not ensure that we will retain a capable force. 
Indeed, were the Department to retain more forces than it could afford 
to keep trained, ready, and well-equipped, it would risk undermining 
the quality and readiness of its force and, hence, its adaptability.
    If confirmed, I intend to work tirelessly with other Department 
leaders to continually weigh the risks of fielding too small a force 
against those associated with holding onto force structure at the cost 
of underfunding training, readiness, and modernization.

                 national security and defense strategy
    15. Senator Inhofe. Mr. Work, a new QDR should be published soon. 
This is a critical document which sets DOD's strategies and priorities. 
Recently, DOD conducted a Strategic Choices Management Review, commonly 
called the Skimmer. The Skimmer explored different military 
capabilities based upon various funding scenarios. Both of you have 
watched the Skimmer process closely and Ms. Wormuth you have worked on 
the QDR itself. Many are concerned that in an effort to seek defense 
cuts, the new QDR will expose the United States to risks which recently 
would have been unthinkable. Therefore, will the QDR articulate where 
we are going to be taking additional risks?
    Mr. Work. I did not participate in the development of the 2014 QDR 
nor have I been briefed on it. However, the QDR statute requires an 
assessment of risk, and the Chairman of the Joint Chiefs of Staff is 
required to submit his own assessment of the review, including his 
assessment of risk and a description of the capabilities needed to 
address such risk. If confirmed, I will closely review both the QDR 
report and the Chairman's risk assessment to understand the levels of 
risk assumed in our strategy, and how it seeks to reduce, hedge 
against, or mitigate them.
    That said, based on his recent speech, Secretary Hagel has said 
that under the PB15 proposals, the military can protect the United 
States and fulfill the President's defense strategy--but with some 
increased levels of risk. His speech provides more detail on those 
risks.

    16. Senator Inhofe. Mr. Work, will the defense cuts cause major 
changes to our National Security Strategy and National Military 
Strategy?
    Mr. Work. It is my understanding that the National Security 
Strategy and National Military Strategy are under development. I have 
not been briefed on either of them and therefore do not know their 
current status. If confirmed, I will work closely with the Chairman and 
the Joint Chiefs of Staff on the National Military Strategy and with 
interagency counterparts on the National Security Strategy.

    17. Senator Inhofe. Mr. Work, how can you tell when a strategy has 
gone from being budget-informed to being budget-driven?
    Mr. Work. A budget-informed strategy begins by defining one's 
objectives; assessing threats, challenges, and opportunities impinging 
upon those objectives; and then determining how best to harness 
available resources in the pursuit of them. A budget-driven strategy is 
not really a strategy at all but rather an exercise through which the 
force is developed to fit a given funding level. The former approach 
has several advantages because it enables decisionmakers to set 
priorities, make tradeoffs, and adjust investments in ways appropriate 
to the demands of the security environment and the strategy. Such an 
approach also helps one to understand more clearly the risks associated 
with the choices one has made. Budget-informed strategy and planning 
cannot eliminate risks but offer a proven means of making best use of 
the resources available. Such an approach is especially important in 
times of diminished resources.

    18. Senator Inhofe. Mr. Work, how are our risks affected when you 
change from being budget-informed to being budget-driven?
    Mr. Work. In a budget-informed approach, risk is identified by 
comparing what the force can or cannot do in terms of national security 
objectives. Risk is characterized in terms of the ability (or 
inability) of military forces to conduct all missions called for by the 
defense strategy. That ability can be defined in terms of the expected 
time and/or costs associated with conducting required missions. It can 
also define the level of risk associated with executing the mission 
successfully (high, moderate, or low).
    A budget-driven approach simply identifies what the force can do, 
making risks more difficult to identify, mitigate, or manage. It is 
also more likely to miss opportunities to pursue innovative mixes of 
investments and approaches to accomplish desired objectives.

                          roles and functions
    19. Senator Inhofe. Mr. Work, included in last year's Senate 
version of the NDAA was a provision to create a new position, the Under 
Secretary of Defense for Management, which would replace the existing 
DOD Deputy Chief Management Officer (DCMO) and combine them with the 
DOD's Chief Information Officer (CIO) functions. The purpose was to 
empower the modernization effort of DOD's business/back office 
functions. However, many believe such duties should rest/have rested 
with the Deputy Secretary of Defense. Do you believe we should create 
an Under Secretary for Management which combines the DCMO and CIO 
functions?
    Mr. Work. I have not yet had the opportunity to study the 
recommendation you refer to, or understand its intent. I therefore am 
not comfortable offering an opinion at this time. In the most general 
sense, however, I agree more attention on the DOD's business/back 
office functions is required-especially in this time of scarce defense 
resources. I believe reducing overhead and becoming more efficient 
should be top priorities for all senior DOD managers. If confirmed, I 
plan to aggressively pursue this belief. The Secretary took important 
steps last December to strengthen the Office of the DCMO, which I 
support. I believe that we should allow these reforms to be implemented 
and mature before we decide to establish a sixth Under Secretary of 
Defense.

    20. Senator Inhofe. Mr. Work, what will be the role of the DCMO if 
you are confirmed?
    Mr. Work. It is too early for me to answer this question 
definitively. If confirmed, I must first assess the progress made on 
Secretary Hagel's most recent headquarters review, as well as the 
capability of the DCMO organization. I would likely first focus the 
DCMO on strengthening, streamlining and cutting the costs of those 
business activities in the Office of the Secretary of Defense (OSD) and 
in the Defense agencies. These organizations include about 45 separate 
organizations with about 110,000 civilian, military, and contract 
employees. They currently account for approximately $84 billion of 
annual defense appropriations ($34 billion on Defense Health Program 
alone). It is these organizations that make up what Secretary referred 
to last November as the ``world's largest back office.''
    Because the scope, scale and complexity of these 45 agencies 
currently exceeds what can reasonably be expected to be overseen by the 
Department's five Under Secretaries, my sense is that their business 
operations are ``under-governed.'' If confirmed, I would focus the DCMO 
on assessing the defense agencies' business operations in direct 
support of the Under Secretaries, so as to strengthen their authority 
to provide direction and control over the related policy matters of 
those entities. By taking steps to strengthen the management of the OSD 
staff and defense agencies, as well as the rest of the Department, 
through an empowered DCMO function, I would aim to help Secretary Hagel 
deliver a higher level of service to the military departments at lower 
cost to the American taxpayer.

                       compensation and benefits
    21. Senator Inhofe. Mr. Work, Congress established the Military 
Compensation and Retirement Modernization Commission to review military 
compensation and retirement systems and to make recommendations to 
modernize those systems. The Commission will report its recommendations 
in February 2015. Do you believe the administration should propose 
fragmented changes to personnel compensation and benefits before the 
Commission makes public its recommendations in 2015?
    Mr. Work. Based on my time as Under Secretary of the Navy, I 
believe the Department has ample analyses and information to request 
changes in some forms of military compensation. I also believe the 
Department must strive to find the proper balance between competitive 
pay and benefits and sustaining a force equipped with the latest 
technology and ready to meet current and future challenges. If 
confirmed, I would work with Secretary Hagel, the administration, and 
Congress to find that balance.
    Due to the complexity of the military retirement system, however, I 
agree that changes in this area should not be fragmented. They should 
only be considered and evaluated in the context of a holistic, top-to-
bottom review of the system, such as the one being conducted by the 
Commission.

    22. Senator Inhofe. Mr. Work, how would development of a piecemeal 
package of retirement benefits and compensation reforms get us to an 
optimal solution for controlling DOD's sky-rocketing personnel costs?
    Mr. Work. Finding the appropriate balance between providing the men 
and women who serve our great nation a competitive package of pay and 
benefits while also providing them the best possible training and 
equipment is a monumental challenge in the current fiscal environment. 
Based on my experience as Under Secretary of the Navy, I can readily 
see how adjusting some military personnel compensation costs now would 
allow the Department to achieve the balance it seeks, and that our men 
and women deserve.
    However, due to the complexity of the military retirement system, I 
believe changes should not be made in this area until the Military 
Compensation and Retirement Modernization Commission completes its work 
and any recommendations it might make can be reviewed and evaluated by 
the President, the Department, and Congress.

    23. Senator Inhofe. Mr. Work, Congress and the President have both 
promised our men and women in uniform that they would be grandfathered 
from any changes in the military retirement system. Do you support 
grandfathering those currently retired and those serving from any 
proposed changes?
    Mr. Work. Yes, I do. I believe that any retirement changes should 
be grandfathered; to do otherwise would break faith with our members.

    24. Senator Inhofe. Mr. Work, do you feel that current 
servicemembers should also be grandfathered for all changes to proposed 
military benefits? Why or why not?
    Mr. Work. If confirmed, I will remain committed to ensuring that 
any proposed changes keep faith with those who are serving today and 
with those who have served in the past. That said, I will also remain 
committed to ensuring that the Department finds the proper balance to 
maintain force structure, readiness, and modernization capabilities 
while adequately compensating personnel. These will require hard 
choices in all parts of the defense program, including military 
benefits.

                            missile defense
    25. Senator Inhofe. Mr. Work, do you agree there is a need to 
improve the Ground-based Midcourse Defense (GMD) system against 
evolving Homeland missile threats from North Korea and Iran?
    Mr. Work. Yes, based on my understanding of the evolving threat, I 
think we need to improve the GMD system. If confirmed, I would look at 
the options and make recommendations to Secretary Hagel.

    26. Senator Inhofe. Mr. Work, would you support funding for the 
development of a redesigned kill vehicle for the ground-based 
interceptor and improvements to sensor and discrimination capabilities?
    Mr. Work. Yes.

                         nuclear modernization
    27. Senator Inhofe. Mr. Work, last month during a visit to Wyoming, 
Secretary Hagel said, ``it's clear that we have some work to do on 
[nuclear] modernization.'' Secretary Hagel also said ``we're going to 
invest in the modernization we need to keep the deterrent stronger than 
it's ever been, and you have my commitment to that.'' If confirmed, 
would we have your commitment to modernize our nuclear triad?
    Mr. Work. Yes. Our nuclear forces make vital contributions to the 
national security of the United States and our allies and partners. The 
2010 Nuclear Posture Review and the report on the President's June 2013 
Nuclear Employment Strategy make clear the President's commitment to 
maintain the nuclear Triad and a safe, secure, and effective nuclear 
stockpile and infrastructure.
    Accordingly, if confirmed, I will vigorously support the 
President's and the Secretary's commitment to modernize U.S. nuclear 
forces, the nuclear stockpile, and its associated infrastructure.

    28. Senator Inhofe. Mr. Work, your predecessor, Dr. Ashton Carter, 
observed that nuclear weapons are ``not a big swinger in our budget''. 
Were you aware that, according to recently released Congressional 
Budget Office (CBO) figures, total DOD and Department of Energy (DOE) 
funding for nuclear forces accounts for only 4 percent of national 
defense spending in 2014?
    Mr. Work. I am aware of the CBO Report and the figures reported.

    29. Senator Inhofe. Mr. Work, do you consider this to be a 
reasonable and necessary investment in U.S. national security?
    Mr. Work. Yes. Based on my experience, I believe the planned 
investment in our nuclear forces is both reasonable and necessary. Our 
nuclear forces deter strategic attack on the United States, provide 
extended deterrence to our allies and partners, and contribute to 
strategic stability writ large. If confirmed, I will maintain the 
Department's focus on, and prioritization of, this vital component of 
our national security.

                      integrity and accountability
    30. Senator Inhofe. Mr. Work, two recent reports on cheating 
suggest a disturbing problem with integrity in the Armed Forces. The 
Navy reported on February 4 that 30 senior sailors serving as 
instructors cheated on written exams at the Navy Nuclear Power School. 
This follows a recent Air Force incident in which 92 airmen at 
Malmstrom Air Force Base were implicated in a cheating incident 
involving intercontinental ballistic missiles (ICBM) readiness 
examinations. Both incidents are under investigation. But they follow 
recent reports of senior officers and officials who behaved as if 
ethics rules didn't apply to them or who mistook toxic leadership for 
effective leadership. I view the recent failures of junior personnel as 
a failure of leadership. Do you agree and if so, why?
    Mr. Work. At this time, I am not privy to anything more than 
newspaper reports about these troubling incidents. It would therefore 
be premature and inappropriate for me to attribute the underlying 
justification or causation of these incidents.
    What I can say unequivocally is that integrity, personal courage 
and accountability are the hallmarks of the U.S. military, and must be 
reinforced-particularly when it comes to our strategic forces. Senior 
leaders, both civilian and military, must model and reinforce the 
highest standards of behavior. If confirmed, I will promote a work 
environment that exemplifies these ideals.

    31. Senator Inhofe. Mr. Work, if you are confirmed, what would be 
your role in restoring integrity and accountability?
    Mr. Work. If confirmed, I will work to implement Secretary Hagel's 
efforts to foster a culture of ethical values-based decisionmaking and 
stewardship among senior DOD leaders and their staffs. I will also work 
with General Martin Dempsey, the Chairman of the Joint Chiefs of Staff, 
to implement his general and flag officer professional character 
initiatives, which are aimed at maintaining the integrity of the 
military profession and preserving the public trust.

                              total force
    32. Senator Inhofe. Mr. Work, as we enter a time of end strength 
drawdowns, we must consider the total force structure and how to best 
use our servicemembers in the Active, Reserve, and Guard components. 
How do you envision the composition of the total force as we begin 
troop drawdowns and wind down from the wartime efforts?
    Mr. Work. I support our Total Force policy and, if confirmed, would 
welcome the opportunity to evaluate how we can best meet our security 
requirements using the Active, Reserve, and Guard components. When 
determining the composition of the Total Force, the Department looks at 
the expected demands and seeks a solution that will meet our national 
strategic goals, account for the strengths of each of the components, 
and fit within the budget topline.
    If I am confirmed, and as the Department steps down from its war 
footing, I will work to ensure the Department considers and implements 
force shifts and drawdowns, and adopts the Total Force composition and 
capacity best suited for our strategy and available resources. 
Considerations of risk, readiness and responsiveness across the full 
range of military operations, which involves supporting the homeland, 
quickly responding to contingencies, and providing global presence, 
will be incorporated in these deliberations.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                        credible threat of force
    33. Senator Wicker. Mr. Work, combined with diplomacy and 
sanctions, the credible threat of military force has been a key 
component of the U.S. strategy to prevent Iran from developing a 
nuclear weapon. President Obama has repeatedly said ``all options are 
on the table'' to prevent Iran from acquiring a nuclear weapon and 
America ``will do what is necessary to prevent Iran from getting the 
world's worst weapons''. As diplomacy moves forward with Iran, a 
process I hope succeeds, I believe it is crucial that Iran understand 
both that additional sanctions will be forthcoming if an agreement is 
not reached and that we remain committed to using military force if all 
else fails to stop their nuclear weapons ambition. Will it remain U.S. 
policy that all options, including military force, remain on the table 
to prevent Iran from developing a nuclear weapon?
    Mr. Work. The President has been very clear on this issue-the 
United States is determined to prevent Iran from acquiring a nuclear 
weapon, and all options remain on the table to achieve this objective. 
These options include tough-minded diplomacy and economic sanctions and 
pressure, reinforced and complemented by credible military capabilities 
and options. If confirmed, I will fully and faithfully support this 
policy.

    34. Senator Wicker. Mr. Work, if confirmed, will you ensure that 
our forces will always be prepared to disrupt a potential Iranian 
nuclear breakout?
    Mr. Work. If confirmed, I will work to ensure that the Department 
continues to provide the President with all the options he might need 
to prevent Iran from acquiring a nuclear weapon.

            cooperation between the united states and israel
    35. Senator Wicker. Mr. Work, a central hallmark of the U.S.-Israel 
defense relationship has been the close cooperation between the 
countries. In the past few years, this cooperation has grown immensely 
in breadth and depth. As the region continues to be unstable, Israel 
has remained a constant ally and friend. What is your view of the 
importance of the U.S.-Israel strategic relationship?
    Mr. Work. I believe the bond between the United States and Israel 
is unbreakable, and that the defense relationship between the United 
States and Israel has never been stronger. This relationship is based 
not only on mutual security interests, but on common values.
    I therefore strongly support the President's and Secretary Hagel's 
proven commitment to Israel's security. This includes providing Israel 
with the most Foreign Military Financing in history, working tirelessly 
to maintain Israel's qualitative military edge by authorizing the sale 
of advanced technology to Israel, and supporting Israel's active 
missile defense efforts, including funding programs such as Iron Dome.
    With such significant change in the region, DOD must continue to 
forge an ever closer relationship with Israel. If confirmed, I will 
work hard to ensure that the strategic relationship between our two 
countries becomes stronger, and that our military-to-military 
cooperation remains robust.

    36. Senator Wicker. Mr. Work, do you intend to continue to engage 
and strengthen the cooperation between the United States and Israel?
    Mr. Work. Yes. If confirmed, I will work to support the President's 
and Secretary Hagel's efforts to make the defense relationship between 
the United States and Israel the strongest it has ever been. Prime 
Minister Netanyahu has said that the security cooperation between our 
two countries is ``unprecedented.'' I believe that no U.S. 
administration has done as much for Israel's security.
    Under the leadership of Secretary Hagel, DOD has strengthened the 
U.S.-Israeli defense relationship significantly by providing $3.1 
billion in Foreign Military Financing (FMF) and by releasing some of 
the most advanced U.S. military capabilities--like the F-35 and V-22 
aircraft. If I am confirmed, I will work to ensure that DOD continues 
to expand this defense cooperation with Israel across the board and 
that our military-to-military ties are stronger than ever.

                   israel's qualitative military edge
    37. Senator Wicker. Mr. Work, it is U.S. policy to maintain and 
enhance Israel's qualitative military edge (QME)--effectively, Israel's 
ability to defend itself, by itself, and against any threat or 
potential combination of threats. Given the growing instability among 
Israel's neighbors and the region overall, this U.S. commitment is of 
upmost importance. How would you help to enhance Israel's QME as 
Secretary Hagel has pledged?
    Mr. Work. Secretary Hagel has said, ``Our commitment to Israel's 
security is ironclad and unyielding.'' To me, this commitment means 
ensuring that Israel has what it needs to defend itself--anytime and 
anywhere. Currently, the United States is providing $3.1 billion in 
FMF, which is the most FMF that the United States has ever provided to 
any country in history. This funding commitment directly supports 
Israel's security, as it allows Israel to purchase the sophisticated 
defense equipment it needs to protect itself, to deter aggressors, and 
to maintain its qualitative military edge. If confirmed, I will work to 
ensure Israel's qualitative military edge, and that Israel always has 
access to the most advanced military capabilities possible.

    38. Senator Wicker. Mr. Work, if confirmed, will you make ensuring 
Israel's QME is maintained a constant priority?
    Mr. Work. If confirmed, I will work not only to preserve, but to 
ensure Israel's qualitative military edge remains a constant priority. 
I fully support Secretary Hagel's statement from his visit to Israel in 
April 2013, where he said that DOD is ``committed to providing whatever 
support is necessary for Israel to maintain military superiority over 
any state or coalition of states and non-state actors.'' This includes 
not only providing Israel with the most Foreign Military Financing in 
history, but ensuring that Israel has access to the most advanced 
military technologies available, including the F-35 and the V-22.

    39. Senator Wicker. Mr. Work, will you ensure our military 
cooperation and arms sales to the region are always weighed against 
their impact on Israel's QME?
    Mr. Work. I believe that ensuring that Israel's qualitative 
military edge (QME) is maintained is the cornerstone of the U.S. 
security assurance to Israel. Israel must have the ability to defeat 
any adversary--anytime, anywhere.
    As you well know, the United States' commitment to Israel's 
qualitative military edge is not just based on shared values and 
interests, but is U.S. law. This law provides that any proposed sale or 
export of defense articles or services to the Middle East will include 
a determination that the sale or export will not adversely affect 
Israel's QME. If confirmed, I will work diligently to ensure that DOD 
upholds its obligations under the law, and that we continue to support 
Israel's qualitative military edge.

    40. Senator Wicker. Mr. Work, what steps should the United States 
undertake to mitigate the impact of unfolding Middle East events on 
Israel's QME?
    Mr. Work. I believe the bond between the United States and Israel 
is unshakable, and I fully support Secretary Hagel's efforts to ensure 
that Israel's qualitative military edge is maintained in the midst of 
the uncertainty and instability that has plagued the Middle East in 
recent years. Maintaining Israel's qualitative military edge includes 
ensuring that Israel has access to the most advanced military 
technology possible. Last year, Secretary Hagel announced that the 
United States would make available to Israel a package of advanced 
military capabilities, including the V-22, advanced fighter aircraft 
radars, and anti-radiation missiles. This significant decision 
underscores the United States and DOD's support for Israel's security. 
If confirmed, I will work with our policy community and all members of 
the defense enterprise to ensure that Israel continues to have access 
to advanced technologies, and that military-to-military cooperation 
between the United States and Israel continues to expand and strengthen 
in the future.

    41. Senator Wicker. Mr. Work, when we sell arms to the Middle East, 
there are often commitments and guarantees made by the purchasers that 
are meant to limit the potential threat to U.S. interests in the 
region. If confirmed, will you ensure these commitments are closely 
monitored and promptly advise Congress of any violations?
    Mr. Work. It is my understanding that when DOD sells arms to any 
overseas customers, the United States includes provisos to protect U.S. 
national security interests. These include technology security measures 
such as end-use monitoring requirements, equipment security, and end-
use assurances where required in accordance with the Foreign Assistance 
Act and the Arms Export Control Act. Compliance with these provisions 
is necessary to preclude inadvertent use beyond their intended 
defensive purpose. If confirmed, I will work to ensure these provisos 
are closely monitored and that any violations are identified and 
reported to Congress in strict accordance with the law.
                                 ______
                                 
              Question Submitted by Senator Kelly Ayottee
                           civilian furloughs
    42. Senator Ayotte. Mr. Work, can you assure me that, if you are 
confirmed, you will do everything in your power to avoid furloughs of 
civilians at our public shipyards and depots?
    Mr. Work. The furlough of any civilian workers should be an 
absolute last resort. Our civilian and contracting workforce are 
important to the success of the defense of the Nation. The impact of a 
furlough ripples throughout the entire organization and directly 
impacts the morale and welfare of our dedicated civilian employees.
    Furloughs also degrade the readiness of our military, which depend 
on public shipyards and depots to maintain their ships, aircraft, and 
equipment. If confirmed, I will do my best to ensure that we will 
consider furloughs only if every reasonable alternative has been 
exhausted or no alternative exists. For example, if there is another 
lapse in appropriations, the Department could have no alternative but 
to furlough civilians.
                                 ______
                                 
               Questions Submitted by Senator Deb Fischer
   section 8128: environmental studies of intercontinental ballistic 
                             missile silos
    43. Senator Fischer. Mr. Work, section 8128 of the fiscal year 2014 
Consolidated Appropriations Act (H.R. 3547, Public Law 113-76) 
expressed congressional opposition to any environmental study relating 
to the silos of Minuteman III ICBMs. Specifically, it states: ``None of 
the funds available to DOD shall be used to conduct any environmental 
impact analysis related to Minuteman III silos that contain a missile 
as of the date of the enactment of this act.'' Please state DOD's 
interpretation of this section.
    Mr. Work. As I understand it, section 8128 of the Consolidated 
Appropriations Act, 2014 states that no funds shall be used to conduct 
any environmental impact analysis related to Minuteman III silos 
currently containing a missile. I also understand that section 8136 of 
the fiscal year 2014 Consolidated Appropriations Act, referencing 
section 1056 of the NDAA for Fiscal Year 2014 appears to authorize the 
Department to conduct an environmental assessment (but not an 
environmental impact statement), provided the Department meets certain 
reporting requirements. I believe that the Department has not yet 
reached a final decision on how best to interpret these provisions.
    If confirmed, I would certainly look into this issue.

    44. Senator Fischer. Mr. Work, what interactions has DOD had with 
other Federal agencies or parties outside of the Federal Government to 
prepare for conducting any environmental studies on the ICBM silos?
    Mr. Work. I am unaware of any DOD interactions with other agencies 
or non-governmental organizations regarding environmental studies of 
ICBM silos.

    45. Senator Fischer. Mr. Work, does DOD believe the decisions with 
respect to New Strategic Arms Reduction Treaty (START) force structure 
depend on the results of an environmental study of ICBM silos?
    Mr. Work. As I understand it, the President must evaluate options 
to adjust our force structure in order to implement the New START 
treaty. The Department's role should be to develop options and 
recommendations for the President; and to preserve the decision space 
necessary for the administration to make its final force structure 
decision.
    There are different options under consideration to bring the total 
number of deployed and non-deployed launchers within New START treaty 
limits. Keeping some number of ICBM silos warm or converting or 
eliminating some submarine-launched ballistic missile (SLBM) tubes is 
one possible option. Eliminating some number of ICBM silos while 
keeping SLBM tubes available is another possible option. An 
environmental assessment would help ensure that the Department is able 
to fulfill its responsibilities under the National Environmental Policy 
Act.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
                    electronic warfare capabilities
    46. Senator Blunt. Mr. Work, you have previously discussed the 
importance of electronic warfare capabilities and the necessity of 
dominating the electromagnetic (EM) spectrum in any warfighting 
scenario. Your comments at the nomination hearing this week echoed the 
position of the CNO as it pertains to the same topic. It appears to me 
that stealth doesn't necessarily control the EM spectrum, but more 
appropriately neutralizes limited portions of it. I am interested in 
the manned airborne electronic attack (AEA) full spectrum coverage and 
how it operates in the future. Would you please discuss the current 
role that the EA-18G Growler plays in controlling the EM spectrum for 
the Navy and the joint warfighter? I believe that it plays the most 
critical role in enabling mission effectiveness in contested 
environments.
    Mr. Work. EA-18G Growlers bring the fundamental attributes of 
range, speed, persistence, and flexibility to regions of the globe 
where AEA capability is required to support the Joint force, whether 
operating from aircraft carriers or land bases. There is no other Joint 
or Navy program that offers the broad AEA capability afforded by the 
EA-18G aircraft. EA-18G's have the ability to passively monitor the EM 
spectrum to provide targeting information. With legacy jamming pods or 
Next Generation Jammers, the EA-18G provides precise control of a broad 
range of the EM spectrum to create virtual tactical sanctuaries from 
which joint warfighters can execute offensive missions while providing 
the Joint Force with defensive capabilities.

    47. Senator Blunt. Mr. Work, in your time with the Navy, or in your 
capacity at CNAS, have you seen or performed any analyses that address 
the benefit of this capability in the form of additional Growlers on 
the carrier air wing?
    Mr. Work. Yes, I am aware of studies that have been conducted and 
are ongoing that address options for additional Growlers in the carrier 
air wing. However, I have not been briefed on the status of these 
studies inside DOD. If confirmed, I would ask to be briefed to 
understand the full range of options considered.

    48. Senator Blunt. Mr. Work, aside from budget constraints, do you 
feel that additional Growlers could enhance operational effectiveness 
in the anti-access/area-denial (A2/AD) environment for not only the 
Navy, but also the entire Joint Force?
    Mr. Work. Electromagnetic warfare is a core competency and primary 
mission of the Joint force. The growing character of A2/AD capabilities 
possessed by potential future adversaries could create a highly 
contested environment requiring precise control of the magnetic 
spectrum. The Growler is the only DOD AEA tactical aircraft in the 
joint force inventory. The Growler with legacy jamming pods or Next 
Generation Jammers is the only flexible joint system that creates the 
necessary sanctuaries for our fourth and fifth generation aircraft to 
execute offensive and defensive tasks. If confirmed, I would work to 
obtain the highest level of electromagnetic warfare capabilities and 
capacities consistent with budget resources.

   joint strike fighter and tactical aviation defense industrial base
    49. Senator Blunt. Mr. Work, the Navy variant of the Joint Strike 
Fighter program--the F-35C--has an initial operational capability 
objective of late 2018 or early 2019. Last year, Secretary Kendall 
testified that the program made progress last year, but that there are 
remaining challenges with software, the new helmet, and the landing 
hook, in particular. I am concerned that before some of these 
challenges are overcome, DOD proposes shutting down the only risk 
mitigation to the program--the F/A-18 manufacturing line. I strongly 
disagree with the premature closure of the F/A-18 line. Would you 
please tell me how you will evaluate the risk still inherent in the F-
35C development program and how delays might affect the tactical 
aviation inventory?
    Mr. Work. I left government service nearly a year ago, so I do not 
have the most up-to-date information on the F-35 program. However, I 
understand the program is generally tracking with the schedule 
established following the 2010 program re-baselining, though challenges 
remain. I understand the F-35C, carrier variant, recently completed 
developmental testing of the re-designed arresting hook system with 
positive results. The initial at sea testing period aboard the aircraft 
carrier is scheduled for later this year.
    If confirmed, I will work with Under Secretary Kendall to ensure 
the F-35 program is closely monitored, that risks are carefully 
assessed, and issues are brought to resolution. I will also ensure the 
Department continues to carefully monitor and manage the strike fighter 
inventory to meet current and future operational requirements.

    50. Senator Blunt. Mr. Work, do you have any concerns about the 
tactical aviation defense industrial base if there is a single tactical 
aviation provider with the F-35?
    Mr. Work. Yes. Budget cuts are decreasing production and R&D for 
many Defense systems. In the tactical aircraft industrial base, I am 
concerned about maintaining engineering design capabilities for the 
future. To address this, I understand the Department has initiated a 
Defense Advanced Research Projects Agency-led Air Dominance Initiative 
with extensive participation from both the Navy and the Air Force, 
partnered with major tactical aviation industry suppliers. This team is 
exploring concepts for the next generation of air dominance and 
undertaking prototyping efforts based on the results of concept 
exploration.
    I also know about and support DOD efforts to promote competition 
and innovation in aeronautics more broadly with investments in enabling 
technologies and programs, including the Unmanned Carrier Launched 
Airborne Surveillance and Strike aircraft.
                                 ______
                                 
    [The nomination reference of Hon. Robert O. Work follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 February 10, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Robert O. Work, of Virginia, to be Deputy Secretary of Defense, 
vice Ashton B. Carter, resigned.
                                 ______
                                 
    [The biographical sketch of Hon. Robert O. Work, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Robert O. Work
Education:
    University of Illinois

        <bullet> 1970-1974
        <bullet> BS Biology

    University of Southern California
        <bullet> 1978-1980
        <bullet> MS Systems Management

    Naval Postgraduate School

        <bullet> 1988-1990
        <bullet> MS Systems Technology

    John Hopkins School of Advanced International Studies (SAIS)

        <bullet> 1993
        <bullet> Masters in International Public Policy (MIPP)
Employment record:
    Center for New American Security

        <bullet> Chief Executive Officer
        <bullet> April 2013-Present

    Department of the Navy

        <bullet> Under Secretary of the Navy
        <bullet> May 2009-March 2013

    Center for Strategic and Budgetary Assessments

        <bullet> Vice President for Strategic Studies
        <bullet> January 2007-May 2009

    Center for Strategic and Budgetary Assessments

        <bullet> Senior Fellow
        <bullet> April 2002-December 2006

    George Washington University

        <bullet> Adjunct Professor
        <bullet> May 2003-May 2009

    U.S. Marine Corps

        <bullet> Various Officer assignments
        <bullet> May 1974-2001
Honors and awards:
    Navy Distinguished Civilian Service Award, 2013
    Legion of Merit, 2001, 1998
    Meritorious Service Medal, 1996, 1992, 1988
    Defense Meritorious Service Medal, 1994
    Marine Corps Achievement Medal, 1985, 1980
    Ancient Order of St. Barbara for Conspicuous Service to Marine 
Field Artillery, 1995
    1st Marine Brigade Nominee for the annual Leftwich Award, which 
recognizes the best small unit leader in the Marine Corps, 1983
    Distinguished Speaker Award, U.S. Marine Corps Amphibious Warfare 
School, 1981
    Distinguished Honor Graduate (1 of 53), U.S. Army Artillery School, 
Fort Sill, OK, 1975
    Honor Graduate (2 of 242), Marine Officer's Basic School, Quantico, 
VA, 1975
    Distinguished Marine Graduate, Naval Reserve Officers Training 
Course, University of Illinois, 1974
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. Robert O. 
Work in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Robert Orton Work.
    Robert O. Work.
    Bob Work.

    2. Position to which nominated:
    Deputy Secretary of Defense.

    3. Date of nomination:
    February 10, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 17, 1953; Charlotte, NC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cassandra Faye Baugher.
    Married Name: Cassandra B. Work.

    7. Names and ages of children:
    Kendyl Taylor Work, 23.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Illinois, 5/1970-8/1974; BS Biology, 8/8/1974.
    University of Southern California, 1/1978-1/1980; MS Systems 
Management, 1/31/1980.
    Naval Postgraduate School, 6/1988-9/1990; MS Systems Technology, 9/
27/1990.
    John Hopkins School of Advanced International Studies (SAIS), 8/
1992-5/1993, Masters in International Public Policy (MIPP), 5/26/1994.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Chief Executive Officer, Center for a New American Security, 1152 
15th St., NW, Suite 950, Washington, DC, April 2013-present.
    Under Secretary of the Navy, Department of the Navy, 1000 Navy 
Pentagon, Washington, DC, May 2009-March 2013.
    Vice President for Strategic Studies, Center for Strategic and 
Budgetary Assessments, 1776 K St., NW, Washington, DC, January 2007-May 
2009.
    Senior Fellow, Center for Strategic and Budgetary Assessments, 1730 
Rhode Island Ave., Washington, DC, April 2002-December 2006
    Adjunct Professor, George Washington University, Washington, DC, 
January 2003-May 2009

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, President-elect Obama's Defense Transition Team, November-
December, 2008.
    Member, 2006 QDR Red Team for the Office of the Secretary of 
Defense
    As Senior Fellow and VP for Strategic Studies at the Center for 
Strategic and Budgetary Assessments, provided consultative analysis for 
the Office of Net Assessment, Office of the Secretary of Defense.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Chief Executive Officer, Center for a New American Security, 
Washington, DC, April 2013-present.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, International Institute of Strategic Studies (IISS)
    Member, U.S. Naval Institute
    Member, Navy League
    Member, Marine Corps Association

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $1,500 to Obama Victory Fund, 9/19/2012
    $500 to Obama Victory Fund, 9/29/2012
    $500 to Obama for America, 9/29/2012
    $100 to Obama for America, 10/26/2012
    -$100 from Obama for America 11/15/2012
    $100 to Democratic National Committee, October 2013 (2x$50)
    $117 to Democratic National Committee, November 2013 (2x$50; 1x$17)

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Scholarships:

        <bullet> Naval Reserve Officer Training Course, 4-year 
        scholarship, University of Illinois, 1970-1974

    Honorary Society Memberships:

        <bullet> National Honor Society

    Military Awards:

        <bullet> Legion of Merit, 2001,1998
        <bullet> Meritorious Service Medal, 1996,1992,1988
        <bullet> Defense Meritorious Service Medal, 1994
        <bullet> Marine Corps Achievement Medal, 1985,1980

    Recognitions:

        <bullet> Navy Distinguished Civilian Service Award, 2013
        <bullet> Ancient Order of St. Barbara for Conspicuous Service 
        to Marine Field Artillery, 1995
        <bullet> 1st Marine Brigade Nominee for the annual Leftwich 
        Award, which recognizes the best small unit leader in the 
        Marine Corps, 1983
        <bullet> Distinguished Speaker Award, U.S. Marine Corps 
        Amphibious Warfare School, 1981
        <bullet> Distinguished Honor Graduate (1 of 53), U.S. Army 
        Artillery School, Fort Sill, OK, 1975
        <bullet> Honor Graduate (2 of 242), Marine Officer's Basic 
        School, Quantico, VA, 1975
        <bullet> Distinguished Marine Graduate, Naval Reserve Officers 
        Training Course, Univ. of Illinois, 1974
        <bullet> Presidential Classroom for Young Americans, 1970

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Published Writings:

        <bullet> The Challenge of Maritime Transformation: Is Bigger 
        Better (Washington, DC: Center for Strategic and Budgetary 
        Assessments, 2002)
        <bullet> Meeting the Anti-Access and Area-Denial Challenge, 
        with Andrew Krepinevich and Barry Watts (Washington, DC: Center 
        for Strategic and Budgetary Assessments, 2003)
        <bullet> Naval Transformation and the Littoral Combat Ship 
        (Washington, DC: Center for Strategic and Budgetary 
        Assessments, 2004)
        <bullet> ``Small Combat Ships and the Future of the Navy,'' 
        Issues in Science and Technology,'' Fall 2004
        <bullet> To Take and Keep the Lead: A Naval Fleet Platform 
        Architecture for Enduring Maritime Supremacy (Washington, DC: 
        Center for Strategic and Budgetary Assessments, 2005)
        <bullet> ``DDX,'' Written Testimony before the House Armed 
        Services Committee Projection Forces Subcommittee Hearing on 
        DD(X), July 19, 2005
        <bullet> Thinking About Seabasing: All Ahead, Slow (Washington, 
        DC: Center for Strategic and Budgetary Assessments, 2006)
        <bullet> The 313-Ship Fleet and Navy's 30-Year Shipbuilding 
        Plan,'' Written Testimony before the House Armed Services 
        Committee Projection Forces Subcommittee Hearing on the 
        Affordability of the Navy's 313-Ship Navy and the Executability 
        of the 30-Year Shipbuilding Plan, March 30, 2006
        <bullet> `` `Economics' and Established Maritime Powers: 
        Implications of the New Maritime Strategy,'' William B. Ruger 
        Chair Workshop Report No. 2, U.S. Naval War College, 2006
        <bullet> ``On Seabasing,'' Reposturing the Force: U.S. Overseas 
        Presence in the Twenty-First Century (Newport, RI: U.S. Naval 
        War College Newport Paper 26, February 2006)
        <bullet> Know When to Hold `Em, Know When to Fold 'Em: A New 
        Transformation Plan for the Navy's Surface Battle Line 
        (Washington, DC: Center for Strategic and Budgetary 
        Assessments, 2007)
        <bullet> ``Numbers and Capabilities: Building a Navy for the 
        21st Century,'' in Of Men and Material: the Crisis in Military 
        Resources, Gary J. Schmidt and Thomas Donnelly, ed, 
        (Washington, DC: the AEI Press, 2007)
        <bullet> A New U.S. Global Defense Posture for the Second 
        Transoceanic Era, with Andrew Krepinevich (Washington, DC: 
        Center for Strategic and Budgetary Assessments, 2007)
        <bullet> ``The Global Era of National Policy and the Pan-
        Oceanic National Fleet,'' William B. Ruger Chair Workshop 
        Report No. 3, U.S. Naval War College, 2007
        <bullet> Range, Endurance, Stealth, and Networking: The Case 
        for a Carrier-Based Unmanned Air Combat System, with Thomas P. 
        Ehrhard, Ph.D. (Washington, DC: Center for Strategic and 
        Budgetary Assessments, 2008)
        <bullet> ``A Cooperative Strategic for 21st Century Seapower: 
        an Assessment,'' with Jan van Tol, CSBA Backgrounder, March 26, 
        2008
        <bullet> ``The Global Era of National Policy and the Pan-
        Oceanic National Fleet,'' Orbis, Fall 2008
        <bullet> The Challenges to U.S. National Security, with Andrew 
        Krepinevich and Robert. Martinage (Washington, DC: Center for 
        Strategic and Budgetary Assessments, 2008)
        <bullet> The U.S. Navy: Charting a Course for Tomorrow's Fleet 
        (Washington, DC: Center for Strategic and Budgetary 
        Assessments, 2009)
        <bullet> ``The Coming Naval Century,'' Proceedings, May 2012
        <bullet> 20YY: War in the Robotics Age with Shawn Brimley 
        (Washington, DC: The Center for a New American Security, 2014)

    Forthcoming:

        <bullet> The Littoral Combat Ship: How We Got Here, and Why, 
        Newport Paper No. 43, (Newport, RI: Naval War College)

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have given many speeches over the past 5 years. I typically speak 
without notes, although I often use PowerPoint to guide me. I have 
attached a CD with several examples. Below is a short list of speeches 
or public remarks that I made as the Under Secretary of the Navy and as 
the Chief Executive Officer of the Center for New American Security.
    23 July 2013 - Senate Budget Committee testimony
    12 June 2013 - Center for New American Security (CNAS) annual 
conference
    29 May 2013 - CNAS ``Strategic Choices'' out-brief
    17 May 2013 - EAST: Joint warfighting symposium
    26 October 2012 - Navy Flag Leadership Conference
    25 October 2012 - Navy SES Leadership Town Hall
    22 October 2012 - Navy Leadership Forum
    26 September 2012 - Master Chief Petty Officer of the Navy 
Leadership Summit
    12 July 2012 - John Hopkins APL Integrated Air--Missile Defense 
Symposium
    12 June 2012 - Current Strategy Forum (Naval War College)
    5 June 2012 - Navy Opportunity Forum
    21 May 2012 - CATO Institute--Speech on Fleet Design
    10 May 2012 - Navy Postgraduate School--State of the Navy
    30 April 2012 - Marine Corps Combat Development Command
    11 April 2012 - Army War College
    15 February 2012 - Expeditionary Operations Symposium
    12 January 2012 - Surface Navy Association Annual Conference
    10 January 2012 - Naval War College
    15 December 2011 - Navy Flag Officers/SES seminar
    13 December 2011 - Center for Naval Analysis--Air/Sea Battle 
Seminar
    28 October 2011 - Navy Flag Officers/SES seminar
    26 October 2010 - AIE Counter Anti-Access/Area-Denial Symposium
    9 June 2010 - Armed Forces Communications/Electronics Association

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Robert O. Work.
    This 10th day of February, 2014.

    [The nomination of Hon. Robert O. Work was reported to the 
Senate by Chairman Levin on March 26, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 30, 2014.]
                              ----------                              

    [Prepared questions submitted to Hon. Michael J. McCord by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Currently, I do not see the need for modifications. I 
believe the Goldwater-Nichols Act reforms have been and are effective 
and continue to serve us well. If confirmed, I will continue to assess 
any need to recommend changes to the act.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not believe any modifications are presently required.
                             relationships
    Question. What is your understanding of the relationship between 
the Under Secretary of Defense (Comptroller) and each of the following?
    The Secretary of Defense.
    Answer. The Under Secretary of Defense (Comptroller) is the 
principal assistant and advisor to the Secretary on fiscal and 
budgetary matters. If confirmed, I will continue to support the 
Secretary in any aspect of the responsibilities of the Comptroller that 
the Secretary may prescribe.
    Question. The Deputy Secretary of Defense.
    Answer. My relationship with the Deputy Secretary of Defense will 
be based on the role as described above. During my time as the 
Department's Deputy Comptroller, the Comptroller and I have worked 
closely with the Deputy Secretary on budget and management issues and I 
would expect that will continue. If confirmed, I would support the 
Deputy Secretary in any matter within the purview of the Comptroller 
that the Deputy Secretary may prescribe.
    Question. The other Under Secretaries of Defense.
    Answer. If confirmed, I will continue to work closely with the 
Under Secretaries, to carry out the policies and guidance of the 
Secretary and Deputy Secretary.
    Question. The Assistant Secretaries of Defense.
    Answer. My relationship with the Assistant Secretaries of Defense 
and other senior officials of the Office of the Secretary of Defense 
would be similar to that described above in relation to the other Under 
Secretaries of Defense. In most cases I would expect to deal with the 
Assistant Secretaries through the Under Secretaries to whom they 
report. In those cases where the Assistant Secretary reports directly 
to the Secretary, as is the case with the Assistant Secretary of 
Defense for Legislative Affairs, I would expect to continue the 
excellent direct working relationships that both I and the incumbent 
Comptroller have had.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I will continue to work closely 
with the Chairman and Vice Chairman of the Joint Chiefs of Staff, both 
directly and frequently through their Director for Force Structure, 
Resources, and Assessment on any matter pertaining to resourcing our 
forces and military operations and financial management.
    Question. The Secretaries of the Military Departments.
    Answer. If confirmed, I will continue to work closely with the 
Secretaries of the Military Departments on a wide range of resource 
allocation, budget execution, and other financial management issues. I 
will ensure that they are aware of the President's and the Secretary of 
Defense's policies and priorities and assist them in implementing 
Departmental policies and programs as they may relate to their specific 
Services.
    Question. The heads of the defense agencies.
    Answer. If confirmed, I will continue to work closely with the 
heads of the defense agencies in any matter pertaining to resources and 
financial management. I will ensure that they are aware of the 
President's and the Secretary of Defense's policies and priorities and 
assist them in implementing Departmental policies and programs as they 
may relate to the specific agency.
    Question. The Assistant Secretaries for Financial Management of the 
Military Departments.
    Answer. The Department's Comptroller and I work very closely with 
the Assistant Secretaries for Financial Management of the military 
departments in the development and execution of budgetary matters, 
fiscal policy, and initiatives of the President and the Secretary of 
Defense. If confirmed, I will continue to work closely with the 
Assistant Secretaries in contributing to the successful development and 
implementation of effective DOD policies and programs and management of 
the defense budget.
    Question. The General Counsel of the Department of Defense (DOD).
    Answer. The Office of the Under Secretary of Defense (Comptroller) 
works closely with the Department's Office of the General Counsel on a 
daily basis. I will, if confirmed, continue to consult and coordinate 
with the General Counsel on all legal matters, and specifically, 
matters related to fiscal and budgetary issues that may have legal 
implications.
    Question. The Inspector General.
    Answer. If confirmed, I consider it my responsibility to support 
the DOD Inspector General (DODIG) in carrying out his or her duties as 
set forth in the Inspector General Act.
    Question. The Director, Office of Cost Assessment and Program 
Evaluation.
    Answer. If confirmed, I will continue to coordinate and work 
closely with the Director for Cost, Assessment and Program Evaluation 
in meeting his or her duties and in providing advice, assessments, and 
options to the Secretary or Deputy Secretary. I will continue to work 
with the Director to ensure that a robust and successful program/budget 
review is conducted and that our programs are aligned with and managed 
in accordance with their guidance.
    Question. The Deputy Chief Management Officer.
    Answer. If confirmed, I will continue to work to improve the 
management of the Department's complex operations and organization. In 
particular, I will work with the Deputy Chief Management Officer on 
monitoring the Department's progress on implementing efficiency 
measures directed by the President, the Secretary, and Congress, and on 
improving the systems that provide management information, particularly 
financial management information, and the development of appropriate 
metrics in those areas.
    Question. The Director, Office of Management and Budget.
    Answer. If confirmed, I will continue the near near-daily 
interaction with the Office of Management and Budget on the preparation 
and execution of the Department's budgets, and the advancement of both 
the administration's and the Department's management priorities.
    Question. The Comptroller General.
    Answer. If confirmed, I will continue to review the recommendations 
of the Comptroller General and the Government Accountability Office 
regarding DOD financial matters and, as required, support actions to 
improve the Department's processes.
                       duties of the comptroller
    Question. The duties of the Comptroller of DOD are set forth in 
section 135 of title 10, U.S.C., and in DOD Directive 5118.3. Among the 
duties prescribed in statute are advising and assisting the Secretary 
of Defense in supervising and directing the preparation of budget 
estimates of DOD, establishing and supervising DOD accounting policies, 
and supervising the expenditure of DOD funds.
    Assuming you are confirmed, what duties do you expect that 
Secretary Hagel will prescribe for you?
    Answer. To provide the Secretary and Deputy Secretary expert and 
timely advice on all issues related to the budgetary and financial 
management of the Department.
    To ensure that the men and women serving within the Department for 
their Nation, to include the members of our Armed Forces, our Federal 
civilian employees and the contractors that support them, especially 
those engaged in overseas contingency operations, have the resources 
they need to meet national security objectives.
    To ensure that funds are obligated and expended in accordance with 
laws and regulations that govern such funds and to exercise the 
fiduciary responsibilities vested in us by the American taxpayers to 
provide the best possible value for their tax dollars.
    To be responsible for and accurately manage funds that have been 
authorized and appropriated to the Department by Congress.
    Question. What background and experience do you possess that you 
believe qualifies you to perform the duties of the Comptroller?
    Answer. I believe that my experience as the Principal Deputy Under 
Secretary of Defense (Comptroller) for the past 5 years demonstrates my 
qualification for this position. I am intimately familiar with the 
budgetary and financial issues that pertain to the Department.
    Including my 5 years as the Department's Deputy Comptroller, I have 
over 29 years of experience in defense budget and financial management 
analysis. This includes:

          The 21 years as a professional staff member of the Senate 
        Armed Services Committee overseeing the DOD budget and 
        providing expert analysis on issues such as funding overseas 
        contingency operations, the fiscal impact of legislation, 
        reprogramming of funds to meet emerging needs, questions of 
        fiscal law and financial management, the analysis of 
        alternative courses of action with respect to specific 
        programs, and knowledge of the Federal budget process.
          Two years at the Congressional Budget Office analyzing 
        military pay and benefits, including military retirement, and 
        force structure costs.
          Service on the staff of the House Budget Committee working 
        topline funding issues pertaining to both defense and veterans 
        issues, which enhances my understanding of benefit issues and 
        the areas of interaction between the two Departments, as well 
        as the analysis of the cost of contingency operations and the 
        overall Federal budget process.

    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform these duties?
    Answer. Although I have been with the Department over the past 5 
years as the Principal Under Secretary of Defense (Comptroller), the 
vast breadth of the Department's programs and policies require me to 
constantly enhance my expertise as they relate to the Department's 
budget and financial management issues.
    Question. Do you expect Secretary Hagel to make any changes in the 
duties of the Comptroller as set out in DOD Directive 5118.3?
    Answer. There are several initiatives Secretary Hagel is 
implementing to reduce size and increase the efficiency of the Office 
of the Secretary of Defense. I believe it is possible roles and 
responsibilities within DOD may be modified once these initiatives are 
fully implemented, but at this time I do not anticipate any significant 
change in the duties of the Comptroller or our office or Defense 
agencies.
                        chief financial officer
    Question. DOD Directive 5118.3 designates the Comptroller as the 
Chief Financial Officer of DOD.
    Does Secretary Hagel intend to continue to designate you, if 
confirmed as the Comptroller, as the Chief Financial Officer of DOD?
    Answer. I have no information that Secretary Hagel would do 
otherwise if I am confirmed.
    Question. If so, what would be your major responsibilities as Chief 
Financial Officer?
    Answer. As specified by DOD Directive 5118.03 dated April 20, 2012, 
the Chief Financial Officer shall:

          Oversee all financial management activities relating to the 
        programs and operations of DOD;
          Oversee the development and maintenance of integrated DOD 
        accounting and financial management systems, including 
        financial reporting and management controls, which comply with 
        law;
          Direct, manage, and provide policy guidance and oversight of 
        DOD financial management personnel, activities, and operations;
          Monitor the financial execution of the DOD budget for actual 
        obligations, expenditures, and costs incurred;
          Review, the fees, royalties, rents, and other charges imposed 
        by DOD for services and things of value it provides and make 
        recommendations on revising those charges to reflect costs 
        incurred by it in providing those services and things of value.

                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Under Secretary of Defense (Comptroller)/Chief Financial 
Officer?
    Answer. The Comptroller's major and recurring challenge is to 
prepare and manage defense budgets and work with Congress to provide 
the Department the necessary resources to accomplish our national 
security objectives. Although the Department is transitioning from a 
wartime posture, it does so in an uncertain strategic environment. The 
Department will continue to require substantial resources to maintain 
the warfighting readiness of our Armed Forces, and to carry out a broad 
range of missions at the direction of the President and the Secretary 
of Defense on behalf of the Nation.
    Providing our operational commanders with the resources and 
flexibility they need to carry out their directed missions. As the 
world security situation continues to grow in complexity and move at 
increasing speeds, I am concerned that our current executive and 
legislative processes may not be agile enough to keep pace. I intend to 
work with the defense committees to seek the additional flexibility I 
believe we need to ensure that we can meet our Nation's security needs 
in the 21st century, while respecting and preserving appropriate 
oversight on behalf of the taxpayers.
    Continuing to improve our financial management and the financial 
information available to DOD managers, providing them with the 
information they need to help identify areas where they can help make 
defense spending as efficient as possible.
    Maintaining a trained and capable financial management workforce in 
the face of significant challenges in recruiting, retaining, and 
training a skilled workforce in the face of the sequestration, hiring 
freezes, furloughs, and pay freezes the Federal workforce has 
experienced over the last several years.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will work closely with other senior 
officials in DOD, our Comptroller staff, the Military Departments and 
Defense agencies, the Office of Management and Budget, and Congress to 
develop policies to meet these challenges.
    I will also provide my commitment, leadership, and support to our 
staff in the immediate office of the Comptroller, the Defense Finance 
and Accounting Service, and the Defense Contract Audit Agency in 
meeting these priorities.
    I will ensure that we maintain our progress on the centerpiece of 
our financial management improvement efforts, which is achieving 
auditable financial statements.
    An important part of our efforts to maintain or enhance the quality 
of our financial management workforce will be to continue the strong 
start we have made in implementing the course-based certification 
program for Defense financial managers that was authorized by Congress 
in the fiscal year 2012 defense authorization bill.
              authorization for national defense programs
    Question. Do you believe that an authorization pursuant to section 
114 of title 10, U.S.C., is necessary before funds for operation and 
maintenance, procurement, research and development, and military 
construction may be made available for obligation by DOD?
    Answer. The Department is committed to work with the Armed Services 
and Appropriations Committees to resolve any matter relating to the 
authorization or appropriation of the Department's activities. If 
confirmed, I will continue to respect the prerogatives of the 
Department's oversight committees, and will work closely with the 
committees to achieve a consensus necessary to meet our defense needs.
                        contracting for services
    Question. Over the last decade, DOD's spending on contract services 
has more than doubled. As a result, the Department now spends more for 
the purchase of services than it does for products (including major 
weapon systems). When he was USD(AT&L), former-Deputy Secretary of 
Defense Ashton Carter testified that ``the low-hanging fruit really is 
[in contract services]. There's a lot of money. There has been a very, 
very high rate of growth over the last decade, in services. They have 
grown faster than everything else. . . . So, there's a lot we can do. I 
think great savings can be had there, across the Services' spend. It's 
essential that we look there, because that's half the money.''
    Do you believe that the cuts made to contract services have fully 
addressed the issues of waste and inefficiency in this area, or are 
further reductions possible?
    Answer. The funding reductions the Department has already made in 
contract services are a good start. These reductions are the result of 
several initiatives undertaken across the Department. We have gained 
efficiencies by improving requirements definition, negotiating lower 
labor and overhead rates, increasing competition, improving our 
purchasing processes, and by aggressively reviewing services contracts. 
Further reductions are possible as we reduce the military force 
structure and continue to implement process and system improvements to 
actively manage contracted services.
    Question. What additional steps would you take, if confirmed, to 
control the Department's spending on contract services?
    Answer. I support the efforts we are taking to improve our 
visibility into, and accountability for, contracted services. This 
improved data will help ensure appropriate utilization, cost 
effectiveness, and alignment to mission for contracted services and 
provide the information we need to target specific areas for 
improvement. We face the prospect of a prolonged period of constrained 
resources that will force us to continue to get the most bang for the 
buck in this area, among others.
                        chief management officer
    Question. The positions of Chief Management Officer of DOD and 
Deputy Chief Management Officer of DOD were established by section 904 
of the National Defense Authorization Act for Fiscal Year 2008. In 
accordance with section 904, the purpose of these new positions is to 
improve the overall efficiency and effectiveness of the business 
operations of DOD and to achieve an integrated management system for 
business support areas within DOD.
    Do you believe that a comprehensive, integrated, enterprise-wide 
architecture and transition plan is essential to the successful 
transformation of DOD's business systems?
    Answer. Yes. The Department's Business Enterprise Architecture and 
the Enterprise Transition Plan are key elements in the successful 
modernization and integration of our business systems. They are 
critical in ensuring an interoperable business systems environment that 
effectively supports our business operations.
    Question. Do you believe that the Department needs senior 
leadership from a Chief Management Officer and a Deputy Chief 
Management Officer to cut across stovepipes and ensure the 
implementation of a comprehensive, integrated, enterprise-wide 
architecture for its business systems?
    Answer. Yes. The Chief Management Officer and the Office of the 
Deputy Chief Management Officer play a vital and significant role 
within the Department. Responsible for looking holistically at the 
Department's business operations, they are able to bring a cross-
functional, end-to-end perspective to the management of the 
Department's business operations.
    Question. If confirmed, what role do you expect to play in working 
with the Chief Management Officer and the Deputy Chief Management 
Officer to improve the business operations of DOD?
    Answer. If confirmed, I will continue to work closely with the 
Chief Management Officer and Deputy Chief Management Officer, and the 
Under Secretaries of the Military Departments, in ensuring unified, 
standardized and integrated business processes and systems. 
Additionally, I will work closely with the Deputy Chief Management 
Officer as the co-chair of the Financial Improvement and Audit 
Readiness Governance Board to ensure we meet our financial improvement 
goals.
    Question. What responsibilities, if any, that may have formerly 
been performed by the Comptroller do you believe have been, will be, or 
should be reassigned to the Chief Management Officer or the Deputy 
Chief Management Officer of DOD?
    Answer. During my time as the Department's Deputy Comptroller, the 
Department's first Deputy Chief Management Officer was confirmed. Our 
office worked with hers to reconcile and clarify our responsibilities 
and we updated our governing directives to that effect fairly recently. 
Therefore I do not believe that any further changes are required, but 
if confirmed, I will assess the roles and responsibilities of the 
Office of the Comptroller and make recommendations for any changes 
required.
                            audit readiness
    Question. Former Secretary Panetta stated: ``While we have 
reasonable controls over much of our budgetary information, it is 
unacceptable to me that the Department of Defense cannot produce a 
financial statement that passes all financial audit standards. That 
will change. I have directed that this requirement be put in place as 
soon as possible. America deserves nothing less.''
    What is your understanding of the efforts and progress that have 
been made in DOD toward the goal of being able to produce a clean 
audit?
    Answer. DOD is making real progress toward a clean audit. The large 
trust funds for retiree benefits and the revolving funds for several 
Defense Agencies have received positive audit results. The U.S. Army 
Corps of Engineers earned a clean audit opinion, as did the U.S. Marine 
Corps' Schedule of Budgetary Activity.
    There is, however, a substantial amount of work still to do, 
including efforts to address some of the most challenging problems. 
Under the leadership of our Comptroller, Robert Hale, the Department 
implemented a new strategy to achieve a clean audit that focuses 
improvement efforts on the financial information most used to manage, 
and that strategy is yielding very positive results throughout DOD. We 
expect most of the Department to undergo a financial audit of the 
Schedule of Budgetary Activity in fiscal year 2015. If confirmed, I 
will pursue appropriate actions to ensure continued progress toward 
meeting clean audit goals.
    Question. Do you believe the Department will meet the statutory 
goal and achieve an auditable Statement of Budgetary Resources by the 
end of fiscal year 2014 or are additional steps necessary? If so, what 
are those steps?
    Answer. The Department is making steady progress toward achieving a 
clean audit opinion. We intend to validate our audit readiness for 
budgetary accounts by the end of fiscal year 2014. Using the Marine 
Corps model, this will allow us to begin an audit of the Schedule of 
Budgetary Activities during fiscal year 2015. This represents a crucial 
step towards an auditable Statement of Budgetary Resources. While it is 
too soon to know for sure, I expect most budget statements to be audit 
ready. For those elements that are not ready, appropriate actions will 
be taken to achieve this state at the earliest possible opportunity. If 
confirmed, I will ensure that we clearly communicate our status in our 
regular status reports and staff briefings.
    Question. Do you believe the Department will meet the statutory 
goal and achieve an auditable financial statement by the end of fiscal 
year 2017 or are additional steps needed? If so, what are those steps?
    Answer. I believe that we have made significant progress and, if 
confirmed, I will continue the current approach that has supported this 
progress. We are committed to achieving audit readiness for all aspects 
of our business by the end of fiscal year 2017, supporting an audit of 
all required financial statements during fiscal year 2018 as described 
in this year's defense authorization bill. I believe that we are on 
track to meet this commitment, and if confirmed, I will ensure that we 
sustain this effort. While much work remains, we have a clear 
understanding of the breadth of work that is required.
    Question. Do you believe the Department meets the statutory goal 
``to ensure a full audit is performed on the financial statements of 
DOD . . . '' for fiscal year 2018 and that audit will be completed by 
September 30, 2018, or are additional steps needed? If so what are 
those steps?
    Answer. We are committed to performing a full scope financial audit 
of the entire Department in fiscal year 2018. Based on experience 
within DOD as well as in non-defense agencies, this initial full scope 
audit will likely continue well into fiscal year 2019.
    Question. Do you believe the Department will meet the statutory 
goal to submit to Congress the results of the audit to be completed by 
September 30, 2018, or are additional steps needed? If so, what are 
those steps?
    Answer. The results from our initial fiscal year 2018 full-scope 
audit will be submitted by the DOD Inspector General when audit work is 
completed in fiscal year 2019. While I am hopeful those results will be 
positive, experience of other Federal agencies as well as our own 
experience in auditing the Marine Corps and other entities, is that 
achieving an unqualified opinion the first year under audit is rare.
    Question. Do you believe in order to meet the statutory goal to 
conduct a full audit that the Department will have to place a monetary 
value on all of its property?
    Answer. Yes. Under current Government audit standards, the 
Department will need to value all of its property that is above the 
appropriate capitalization thresholds. Depending on the type of 
property, this information may not always be useful. Current accounting 
standards allow us some flexibility to minimize the cost of valuing 
property, particularly when this information is not used.
    Question. Do you believe that the Department can achieve a clean 
audit opinion through better accounting and auditing, or is the 
systematic improvement of the Department's business systems and 
processes a perquisite?
    Answer. Strengthening the Department's business systems and 
processes has been and is essential to achieving audit readiness. This 
includes timely and accurate accounting. The business operations of the 
Department are complex, often decentralized and not necessarily set up 
to support audit standards. We have found that we can achieve audit 
readiness by emphasizing controls in our existing systems, but 
sustaining audit readiness and supporting cost effective audits will 
require us to continue to improve and modernize our business systems 
and processes so that they can be relied upon by financial auditors.
    Question. When do you believe the Department can achieve a clean 
audit?
    Answer. We expect most of the Department's components to be 
prepared to undergo an audit of the Schedule of Budgetary Activity 
during fiscal year 2015. Using the Marine Corps experience and 
considering relative size, we anticipate clean audits for these smaller 
audits within several years. Building on this foundation, I believe the 
entire Department should be ready to undergo a full scope financial 
audit beginning in fiscal year 2018. Experience of other Federal 
agencies as well as our own experience in auditing the Marine Corps and 
other entities, is that achieving a clean opinion can take several 
years.
           the financial improvement and audit readiness plan
    Question. The Department's Financial Improvement and Audit 
Readiness (FIAR) plan is organized into five waves that focus on audit 
readiness of the Statement of Budgetary Resources (SBR) (waves 1 and 
2), the existence and completeness of assets (wave 3), and a full 
financial statement audit (waves 4 and 5).
    Answer. To provide clarification, the Department's FIAR plan is 
organized into four waves that focus on audit readiness of 
Appropriations Received and the SBR (waves 1 and 2, respectively), the 
existence and completeness of mission-critical assets (wave 3), and a 
full financial statement audit (wave 4).
    Question. If confirmed, what steps, if any, would you take to 
ensure the implementation of specific detailed plans for achieving a 
full audit through waves 4 and 5?
    Answer. The Department is very close to completing the required 
work on the first 2 waves and is on track to complete Wave 3 (Existence 
and Completeness of property) by June 2016. Because of our intense 
focus on audit readiness of budgetary accounts, we have just provided 
the initial guidance for developing detailed plans for Wave 4--full 
financial statement audit. If confirmed I will ensure that these plans 
are completed and executed across the Department. Our progress on the 
auditability of our budgetary execution will provide the transaction-
based foundation for full statement audits.
    Question. What is your understanding of the roles and 
responsibilities of the Military Department Chief Management Officers 
(CMOs) in implementing the FIAR plan through their individual financial 
improvement plans (FIP)?
    Answer. One of the key roles the Under Secretaries of the Military 
Departments, as CMOs, play in their organizations is integrating and 
coordinating efforts between the functional communities (e.g., 
Logistics or Personnel) to improve their business operations. This is 
particularly true when it comes to financial improvement. The Military 
Department CMOs ensure that all parts of the organization recognize 
their vital role in achieving audit readiness, since most financial 
transactions originate as the result of business events in the 
functional communities' operations, and work together to implement 
their FIPs. Additionally, the Military Department DCMOs sit on the FIAR 
Governance Board to help the Department maintain effective governance 
of the audit readiness process.
    Question. What steps, if any, do you believe are needed to clarify 
those roles and responsibilities?
    Answer. I believe that the role of the Military Department CMOs is 
clear. As the Under Secretaries of their organizations, they have the 
authority and responsibility necessary to ensure progress in 
implementing their FIPs and hold their functional communities, 
including the financial management community, accountable.
    Question. Do you believe that performance measurement and 
monitoring mechanisms need to be improved?
    Answer. Our current ability to link financial information to other 
measures of performance is not as robust as it should be. As part of 
our business systems modernization effort, we are improving our 
capability in this area.
    Question. If confirmed, what steps would you take to sustain the 
commitment of the Department's top leadership to the long-term goal of 
transforming the Department's financial management?
    Answer. Secretary Hagel has made improving financial information 
and audit readiness a Department-wide, all-hands responsibility, and if 
confirmed, I will do everything I can to support his leadership on this 
issue. I believe DOD leaders understand that audit success supports 
mission success and have embraced the need to transform financial 
management. We have made great progress in helping those outside the 
financial community understand how stronger controls will also improve 
the quality of their financial information and enhance their decision-
making ability. I think we have made substantial progress in all 
aspects of financial management to include sustaining a professional 
work force through a strong certification program.
    Question. Do you think that having the Deputy Secretary of Defense 
``dual-hatted'' as the CMO is consistent with the prioritization and 
sustained day-to-day focus needed for the success of the Department's 
financial improvement efforts?
    Answer. Yes. Dual-hatting the Deputy Secretary of Defense as the 
CMO is a critical component in ensuring that the Department's financial 
improvement efforts are both sustained over time and given the priority 
needed to be successful. The seniority and cross-cutting nature of the 
position of CMO/Deputy Secretary of Defense ensures that financial 
improvement issues can be elevated to a position with the authority 
necessary to drive change across all components within the Defense 
enterprise.
                  incremental funding vs. full funding
    Question. Do you believe DOD should continue to adhere to the 
longstanding practice of fully funding the purchases of major capital 
assets, including ships and aircraft, in the year the decision to 
purchase the asset is made, or do you believe incremental funding of 
such purchases is justified in some cases?
    Answer. I agree with the longstanding Office of Management and 
Budget policy on fully funding end items in 1 fiscal year. However, 
there are circumstances where incremental funding of large assets, such 
as nuclear aircraft carriers and complex military construction 
facilities, which often take several fiscal years to complete, can be 
appropriate. In these limited situations, and with proper management 
oversight, incremental funding would not lead to inefficient delivery 
of the item being financed over 2 or more fiscal years. Such decisions 
should be made on a case-by-case basis after careful analysis.
    Question. If you believe a change in policy is warranted, please 
explain how you believe such changes would benefit the Department and 
the taxpayer.
    Answer. Currently, I do not see the need for a change in policy, or 
a need for new legislation. The use of incremental funding for 
Procurement and Military Construction projects should be limited, and 
justified case-by-case.
                    fiscal year 2015 investment fund
    Question. It has been reported that the Department's fiscal year 
2015 budget request will include an outline of how it would spend an 
additional $26 billion above the fiscal year 2015 discretionary limit 
set in the Bipartisan Budget Act (BBA). The reports describe the 
additional $26 billion as an ``investment fund''.
    How was this wedge of additional spending created? That is, was the 
wedge created after the fiscal year 2015 program was drafted or was the 
fiscal year 2015 program drafted at a higher level and then program 
budgets reduced so the Department's budget would conform to the 
discretionary cap in the BBA?
    Answer. I cannot discuss the specifics of the fiscal year 2015 
budget request at this time. The administration will release the budget 
on March 4, 2014. The Department has sought to prepare a budget that 
meets the President's strategic national security guidance within the 
fiscal year 2015 discretionary spending limits in the BBA. Given the 
uncertainty of the fiscal climate difficult choices will have to be 
made.
    Question. How does the wedge differ from the Secretary of Defense-
screened compilation of the Services ``Unfunded Priority Lists'' of 
prior years?
    Answer. As noted above, I cannot provide details on the fiscal year 
2015 budget request at this time.
                   budgeting beyond fiscal year 2015
    Question. It has been reported that DOD budget projections in the 
out-years (beyond fiscal year 2015) may exceed the Budget Control Act 
(BCA) caps currently in law.
    What are the principal risks and possible consequences facing the 
Department in basing its fiscal year 2015 program on the assumption 
that out-year budgets will exceed the current out-year BCA caps?
    Answer. I cannot comment on the fiscal year 2015 budget request at 
this time. The Department is very concerned about our ability to 
execute the Defense Strategy if constrained to budgets at the BCA cap 
levels over the long term, so there is a risk associated with reducing 
our forces and capabilities down to that level. There is a different 
kind of risk in building a program that more fully supports our 
strategy but requires additional resources, should those additional 
resources not be provided.
                        sequester and readiness
    Question. The fiscal year 2013 sequester reduced DOD's funding by 
$37 billion. The Services were directed to minimize fiscal year 2013 
sequester impacts on readiness.
    What steps did the Department take to protect readiness?
    Answer. The Department did what it could to protect readiness, and 
sought to protect training and other key readiness enablers to the 
extent we could given the discretion we have in our operations and 
maintenance accounts. However, given the across-the-board formulaic 
nature of sequestration and the sheer mathematical imperative to cut 
$37 billion in less than a full fiscal year, we were not able to 
completely protect readiness. The primary step we took to protect 
readiness was to shield our operations in and in support of Afghanistan 
from sequestration to the maximum extent possible by shifting those 
burdens to the rest of the force where possible.
    The fiscal year 2013 sequester resulted in significant reductions 
to training events, including fewer rotations through the National 
Training Center, significant reductions in flying hours, and decreases 
in Navy operations. The Department made sure to support our deployed 
forces and ensured our next-to-deploy units were ready to go. Due to 
increased costs being experienced in Afghanistan, the Department had to 
reprogram significant funds, with the strong support of our defense 
committees, to ensure support to the deployed troops was adequately 
funded.
    Sequestration resulted in substantial reductions in both facility 
and equipment maintenance activities. Hiring freezes and travel 
limitations were imposed. Most troubling to us was the necessity to 
furlough a large portion of our civilian work force, which could have 
long-term as well as short-term impacts on our readiness and 
capability.
    The Department accommodated the sequestration funding limitations 
in part by deferring some requirements from fiscal year 2013 to fiscal 
year 2014. Our hope is the funding made available in the fiscal year 
2014 Consolidated Appropriations Act will enable a gradual recovery 
from the readiness degradation experienced in fiscal year 2013.
    Question. Within the operation and maintenance accounts, what steps 
were taken to protect operating accounts and activities?
    Answer. Given the formulaic nature of sequestration, there is very 
little the Department could do to protect any of the accounts. In the 
operating accounts, priority was given to supporting deployed forces, 
treating wounded warriors, and sustaining family support programs. 
Beyond those activities, reductions in virtually all other operating 
account-funded activities such as peacetime training, facilities 
maintenance, depot maintenance, and base operations had to be 
implemented in order to accommodate the sequestration funding 
reductions.
    Question. The Ryan/Murray Bipartisan Budget-Conference Agreement 
reduced the impact of sequester on Defense by $22 billion in fiscal 
year 2014 and $9 billion in fiscal year 2015. As a result, the 
Department remains subject over $30 billion in cuts in fiscal year 2014 
and $45 billion in cuts in fiscal year 2015. Under these constraints, 
how does the Department intend to continue to take steps to protect 
readiness?
    Answer. The additional $22 billion above the Budget Control Act cap 
level of funding provided in the Consolidated Appropriations Act for 
fiscal year 2014 does provide an opportunity to begin a limited 
recovery from the readiness problems in fiscal year 2013. While our 
fiscal year 2014 budget was not built to recover from a sequester we 
did not anticipate in fiscal year 2013, the services and other 
components will use that topline relief provided by the Bipartisan 
Budget Act to recover readiness where possible. However, readiness is a 
function of time and available trained personnel and other factors 
beyond funding, so there will still be continued challenges to achieve 
the level of training required to improve readiness. Priority will 
continue to be given to supporting deployed forces and taking care of 
our wounded warriors.
    The Department will also continue the implementation of 
efficiencies where possible to reduce support costs. The Department 
appreciates the additional funding that was provided and will seek to 
maintain readiness at the highest possible level.
    Question. Does the Department intend to protect readiness in its 
base budget request or does it intend to request readiness resources 
through an additional ``investment fund'' request that lies outside of 
the prescribed BCA caps?
    Answer. The Department seeks to fund our essential readiness 
activities in our base budget. Because there are so many activities 
that enable readiness directly or indirectly, not all of which can be 
fully funded given constrained resources, it will probably always be 
possible to enhance readiness through additional investments if 
additional resources can be provided.
                           strategic reviews
    Question. What is your understanding and evaluation of the DOD's 
processes for strategic assessment, analysis, decisionmaking, and 
reporting for each of the following strategic reviews?
    The Quadrennial Defense Review (QDR) (section 118 of title 10, 
U.S.C.);
    Answer. The QDR is required by law and asks the Department to take 
a long-term look at the Defense Strategy and related issues. It is 
important that the Department periodically conduct an intensive review 
and assessment of the future national security environment and 
highlight the required priorities. The QDR is an important tool to 
inform the critical decisions that need to be made concerning future 
resource levels.
    Question. The National Military Strategy (section 153 of title 10, 
U.S.C.);
    Answer. Section 153 directs the Chairman of the Joint Chiefs of 
Staff to assist the President and Secretary of Defense in assessing the 
strategic and military risks in executing missions under the National 
Military Strategy (NMS). It is extremely important for the civilian 
leadership of the Department to get the best military advice possible 
on the military force's ability meet the goals and objectives addressed 
in our strategy.
    Question. Global Defense Posture Review (section 2687a of title 10, 
U.S.C.);
    Answer. The Global Defense Posture Review provides an analysis and 
recommendations concerning the current global defense posture strategy 
and the status of key overseas posture realignments. The current Asia-
Pacific pivot has engendered an intensive look at the changes needed to 
realign our global posture to the new priorities. My view is that this 
review, led primarily by the Under Secretary of Defense (Policy) and 
the Chairman of the Joint Chiefs of Staff, provides a disciplined way 
to focus reviews of this nature and can be used to inform future 
resource decisions.
    Question. The Quadrennial Roles and Missions Review (QRM) (section 
118b of title 10, U.S.C.).
    Answer. The QRM is required by law and the next one is due in 2016. 
The Department is in a very dynamic situation. As we complete the 
mission in Afghanistan and adjust to the current fiscal climate, I 
think it will be important to assess future roles and missions. The QRM 
provides an opportunity to assess the impact of the ongoing changes and 
what they mean for the roles and missions of all the Services. That 
said, as Comptroller I would not expect to be directly involved in this 
review.
    Question. If confirmed, what recommendations would you make, if 
any, to change title 10, U.S.C., that would update, improve, or make 
these reviews more useful to the Department and to Congress?
    Answer. We are in a period of enormous strategic uncertainty and 
fiscal pressure. We should use all the tools available to inform the 
difficult decisions that will need to be made over the next few years. 
The Department's leadership appreciates the need to conduct robust 
reviews to inform our decisions. I do not think any statutory changes 
are needed at this time to assist us in these efforts.
    Question. If confirmed, what recommendations would you make, if 
any, to improve DOD's processes for strategic assessment, analysis, 
policy formulation, and decisionmaking relative to each review above?
    Answer. Given the dynamic world security situation and our 
constrained and uncertain funding situation, DOD needs to periodically 
re-evaluate our plans, our program, and our budgets to meet our 
evolving challenges. Because we have to carry out so many essential 
missions for the Nation and have so many stakeholders, it is a complex 
and difficult process to revise our strategy, plans, and resource 
decisions. We will need a combination of all the above reviews, and 
more, to arrive at informed decisions going forward. If confirmed, I 
will work with all the Defense communities to ensure we make fact-based 
decisions in an inclusive, participatory manner.
    Question. The law requires the QDR to identify the budget plan that 
would be required to provide sufficient resources to execute 
successfully the full range of missions called for in that national 
defense strategy at a low-to-moderate level of risk, and any additional 
resources (beyond those programmed in the current Future Years Defense 
Program) required to achieve such a level of risk. The law also 
requires the QDR to make recommendations that are not constrained to 
comply with and are fully independent of the budget submitted to 
Congress by the President.
    What is your understanding and assessment of the Department's QDR 
analysis and decisionmaking processes to address these two 
requirements?
    Answer. The QDR should do an assessment of all the factors 
impacting the national security strategy and outline a program that 
allows us to best meet our multiple goals with acceptable risk. I will 
provide my resource-informed advice and counsel in the development of 
the QDR.
    Question. In your view, is there analytical and/or practical value 
in a defense strategy that is unconstrained by or independent of the 
current budget request or fiscal environment?
    Answer. The Defense Department must be mindful of fiscal realities. 
It would not be useful to develop a national military strategy that is 
unaffordable. Like any other enterprise, the Department must be 
realistic in its assessment of available resources.
    funding for overseas contingency operations in fiscal year 2014
    Question. The fiscal year 2014 Consolidated Appropriations Act 
provided $160 billion for base operation and maintenance (O&M) funding 
which was $15 billion below the request. The Act funded slightly more 
than $9 billion of the base O&M request with OCO appropriations. In 
total, net of all changes, the act provided $68 billion for OCO O&M 
which was $6 billion above the request.
    Did the realignment of funding comport with OMB criteria for what 
constitutes an OCO item?
    Answer. The fiscal year 2014 Consolidated Appropriations Act did 
fund readiness-related activities in the Overseas Contingency 
Operations budget. The Department will use this funding to begin the 
recovery from the readiness reductions experienced in fiscal year 2013. 
I am not aware of an OMB assessment of this act for compliance with 
existing criteria.
    Question. Did the realignment of funds from base to OCO distort 
actual base requirements?
    Answer. The realignment of funds will make it more difficult to 
make year-to-year comparisons. The need to reduce funding by 
approximately $30 billion below our fiscal year 2014 request level due 
to the BCA caps, as amended by the BBA, and the uncertainty and late 
enactment of those changes, constituted the major difference between 
our request and final enacted appropriations.
           future funding for overseas contingency operations
    Question. With the end of a U.S. military role in Iraq, and the 
forthcoming end to U.S. combat operations in Afghanistan, when do you 
anticipate it will it be possible to end the requirement for a separate 
budget request for overseas contingency operations?
    Answer. The future of our separate overseas contingency operations 
(OCO) budget can and should be examined once the timing and 
circumstances of our enduring presence in Afghanistan becomes clear. 
Sufficient funding needs to be provided until all forces have 
redeployed from the theater and the retrograde of the equipment is 
complete. The Department has also emphasized that it will take at least 
2-3 years subsequent to the end of major combat operations to repair 
and replace the equipment degraded, damaged, or destroyed as a result 
of combat operations. The OCO budgets have gone down significantly in 
recent years, but we must be cautious not to end funding prematurely 
before the mission is complete in all its phases.
               phasing of military construction projects
    Question. In some cases, the Department has proposed phasing, as 
opposed to incrementing, some large military construction projects over 
multiple fiscal years even when each distinct phase does not satisfy 
the overall requirement of the Department. For example, the Army has 
proposed construction of a Command and Control Facility at Fort 
Shafter, HI, over five distinct phases. It has been shown that phasing 
large military construction projects, rather than requesting a single 
authorization for the complete facility and then seeking incremental 
authorization of appropriations over multiple fiscal years, can result 
cost growth of 10 percent or more if all phases are executed 
independently.
    Do you believe phasing, as opposed to incrementing, large military 
construction projects is appropriate? If so, when?
    Answer. It is the administration's policy that military 
construction projects should normally be fully funded. I am supportive 
of the policy. Phasing requires that each phase of a large military 
construction effort be a complete and usable segment of the facility. 
When those segments have different time sensitivities, phasing can help 
the Department to better balance competing critical requirements by not 
tying up limited budgetary resources ahead of the actual need for a 
segment. For example, in the case of the Command and Control Facility 
at Fort Shafter, HI, the military construction effort replaces over 10 
separate World War II facilities, which are dispersed across the 
installation. The personnel occupying those dispersed, aging facilities 
will move into the newly constructed segments as they are completed, 
while continuing operations.
    Question. Do you believe phasing of large military construction 
projects can be justified even when it results in cost growth for the 
complete facility? If so, how?
    Answer. The phasing of a military construction effort allows more 
flexibility to respond to any changes to the requirement over time, 
provides more flexibility to future administrations to address their 
priorities, and provides more opportunity for oversight by the 
Department and the congressional committees. That said, our policy is 
to fully fund our construction projects unless there is a compelling 
reason to do otherwise.
    While the full funding of military construction projects is the 
administration's policy, as previously noted, there is an exception 
process to also allow for incremental funding of projects that have a 
very high cost and demonstrated major national security impact. 
Sometimes, incrementally funding a project can be a better fit for very 
large, complex military construction efforts or when the project is 
time sensitive, as incrementally funded projects are not subject to new 
start prohibitions under a continuing resolution and can continue with 
little or no disruption. For example, the Department is incrementally 
funding a very large and complex hospital replacement project at 
Landstuhl, Germany.
                      base realignment and closure
    Question. DOD has requested another Base Realignment and Closure 
(BRAC) round.
    Do you believe another BRAC round is necessary? If so, why?
    Answer. Yes. It has been nearly a decade since the last base 
closure round in 2005, and much has changed in that time. Furthermore, 
the funding caps in the Budget Control Act of 2011 mean the Department 
faces a period of constrained resources through at least 2021. 
Decreasing budgets mean force structure reductions are needed, which is 
a primary reason why we must eliminate excess infrastructure to avoid 
wasting resources maintaining unnecessary facilities--resources that 
that could be much better spent on readiness and modernization.
    Question. It has been noted repeatedly that the 2005 BRAC round 
resulted in major and unanticipated implementation costs and saved far 
less money than originally estimated.
    Answer. The 2005 BRAC round was an anomaly--the only round 
conducted while our force structure was growing. It focused on 
transformation, jointness, and relocating forces from overseas to the 
United States. Additionally, during the implementation phase, Congress 
added extra requirements to medical facilities that added to the 
program cost.
    Question. What is your understanding of why such cost growth and 
lower realized savings have occurred?
    Answer. There were two types of BRAC in 2005: a ``transformation'' 
BRAC that had implementation costs of $29 billion and resulted in a 
small portion of the savings, and an ``efficiency'' BRAC that cost $6 
billion and had an annual payback of $3 billion, accounting for most of 
the $4 billion total recurring savings from that round. The movement of 
Army brigades from Europe to the United States in that round is an 
example of a transformation move that had substantial costs.
    Question. How do you believe such issues could be addressed in a 
future BRAC round?
    Answer. Our intent is to conduct a future BRAC round similar to the 
1993 or 1995 rounds in which DOD cut excess capacity and achieved a 
relatively quick payback.
         repeal of cola reduction for certain military pensions
    Question. The Bipartisan Budget Act included a provision that 
reduces the cost-of-living adjustment (COLA) made annually to military 
retired pay to 1 percent below the annual rise in the Consumer Price 
Index for working-age military retirees. The Consolidated 
Appropriations Act amended that provision to exclude disability 
retirees and their survivors. Deputy Secretary Fox and Admiral 
Winnefeld testified that the Services will save $500 million per year 
in their discretionary budgets owing to reduced contributions to the 
Military Retirement Fund as a result of this change.
    Will the Services realize any of these savings in 2014?
    Answer. No. The actuarial valuation and determination processes 
detailed in chapter 74 of title 10 U.S.C., do not allow for adjustments 
to the normal cost contribution accrual percentages after the start of 
a fiscal year. Therefore, since the Bipartisan Budget Act was not 
enacted prior to the start of fiscal year 2014, the earliest 
adjustments to the Department's normal cost contribution accrual rates 
can be made is at the beginning of fiscal year 2015.
    Question. If Congress were to repeal the COLA reduction for working 
age military retirees but desire to retain the discretionary budget 
savings the reduction affords, would the security caps under the Budget 
Control Act have to be raised by $500 million per year?
    Answer. If Congress repealed the COLA reduction for working age 
military retirees, the Department would have to fund an additional $500 
million contribution to the Military Retirement Fund. These funds would 
have to come from other DOD programs to remain within the BBA cap 
unless Congress provided relief from that cap.
    Question. Would repealing the COLA reduction affect the additional 
budget authority provided by the Bipartisan Budget Act to the 
Department for fiscal years 2014 and 2015?
    Answer. If the COLA reduction were simply repealed, the BBA caps 
would be unaffected. However, the Department would lose the accrual 
savings described above and thus have fewer resources available to 
devote to other needs within the BBA caps.
                      rising costs of medical care
    Question. The President's budget request for the Department's 
Unified Medical Program has grown from $19 billion in fiscal year 2001 
to $49.4 billion in fiscal year 2014. In recent years, the Department 
has attempted to address this growth through fee increases for military 
retirees, while also attempting to identify and implement other means 
to ensure the viability of the military health system in the future.
    What is your assessment of the long-term impact of rising medical 
costs on future DOD plans?
    Answer. Health care consumes nearly 10 percent of the Department's 
budget and could grow considerably over the next decade, putting even 
more pressure on our ability to invest in enhanced warfighting 
capability. I realize the healthcare benefit is a key component of 
retention for our men and women, so I will continue to work closely 
with other senior military and civilian leaders in the Department to 
find reasonable and responsible ways to stem this growth.
    Question. What additional cost saving measures has the Department 
considered other than raising enrollment fees and pharmacy co-pays?
    Answer. Controlling health care costs is a priority for the 
Department. A continual emphasis is placed on achieving savings and 
efficiencies within the operational environment of the Military Health 
System. This has been a success story, with roughly $3 billion in 
savings per year achieved through programs like Federal Ceiling Pricing 
(a discount drug program), implementing the Outpatient Prospective 
Payment system (a transition to more favorable Medicare rates for 
private hospitals), medical supply chain optimization and 
standardization, and increased efforts to detect fraud, waste, and 
abuse from fraudulent providers and institutions.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
(Comptroller)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Joe Manchin
                   hefty bank fees for servicemembers
    1. Senator Manchin. Mr. McCord, the Wall Street Journal published 
an article on January 15, 2014, that described hefty bank fees for 
servicemembers. My office has been in contact with the Office of 
Financial Management and Comptroller and I am familiar with the 2011 
investigation report. Are you familiar with the news article's claim 
and the Army financial investigation report?
    Mr. McCord. Yes. I am aware of the Wall Street Journal article and 
the reference to the Army's review.

    2. Senator Manchin. Mr. McCord, do you agree with the Wall Street 
Journal's claim?
    Mr. McCord. I'm concerned about any allegations that our 
servicemembers are being unfairly treated, and we are reviewing this 
issue. I would prefer to have the benefit of that additional review 
before reaching final conclusions on this matter.

    3. Senator Manchin. Mr. McCord, would the Department of Defense 
(DOD) be willing to work with civilian financial regulatory agencies to 
create banking products that are tailored for servicemembers and to 
help them avoid unnecessary fees and charges?
    Mr. McCord. The Department takes seriously any practice, including 
financial products or services, that take unfair advantage of our 
servicemembers and their families. While DOD does not have the 
expertise to create new military-unique banking products, it does make 
sense, as you suggest, for the Department to work with other entities, 
such as financial institutions and bank regulators, who may have that 
expertise to seek improvements to financial products, services, or 
regulations, in addition to making sure our personnel are educated 
about existing policies, fees, services, and regulations.

    4. Senator Manchin. Mr. McCord, what additional measures would you 
suggest to reduce these large numbers of unnecessary bank fees that 
servicemembers are disproportionately incurring?
    Mr. McCord. The commercial financial institutions operating on DOD 
installations must abide by applicable Federal and State banking laws 
for commercial banking activities. Any additional measures related to 
fees, disclosure policies, or commercial banking activities should come 
from these Federal and State authorities.
    There is also an element of personal responsibility that must be 
reinforced. To ensure our servicemembers and their families have access 
to financial management education, the Services' Family Support/
Community Centers provide financial counseling, as well as conduct 
workshops on subjects such as money management, budgeting, consumer 
awareness, home buying, investment strategies, predatory lending, and 
savings. In addition, financial institutions on military installations 
are required to provide financial education to any servicemember, even 
if they are not a customer. The Department should assess whether our 
financial education programs are addressing this particular problem 
adequately so that our servicemembers can be as well educated as 
possible on how to recognize and avoid such fees.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                defense finance and accounting services
    5. Senator Gillibrand. Mr. McCord, you said during your nomination 
hearing that as the client, it is the Army that is looking at a 
proposal to change its requirements from the Defense Finance and 
Accounting Services (DFAS) as part of an effort to restructure the 
Army's financial enterprise. As Under Secretary of Defense 
(Comptroller), part of your responsibility will be to oversee DOD's 
financial policy, financial management systems, and business 
modernization efforts. Can you please clarify for me who has oversight 
over this current proposal and over DFAS's role, responsibilities, and 
functions?
    Mr. McCord. The Under Secretary of Defense (Comptroller) has 
oversight of the DFAS. However, in this case, the Army is undertaking a 
review of the work that DFAS performs for it, as part of a broader 
review of Army business practices. As the customer, the Army reimburses 
DFAS for the work that is accomplished at DFAS's location in Rome, NY.
    Although I am aware that the Army is reviewing its business 
practices to seek efficiencies, as stated during the hearing, I am 
unaware of any Army decisions at this time that would reduce the 
workload that is conducted by DFAS in Rome, NY.

    6. Senator Gillibrand. Mr. McCord, this plan could severely impact 
the civilian employees currently working at DFAS sites like the one in 
Rome, NY, who ensure the centralization, professionalism, and 
efficiency of DOD accounting. I believe DFAS is a logical focal point 
to ensure that DOD has independent accountants developing standardized, 
auditable records. What is your vision for DFAS's role and functions?
    Mr. McCord. DFAS does and will continue to play an important role 
to standardize, consolidate, and improve accounting and financial 
functions throughout the DOD. The goal is to reduce the cost of the 
Department's finance and accounting operations while strengthening its 
financial management. If confirmed, I will continue to seek 
opportunities to strengthen the roles and functions of DFAS and ensure 
its operations are efficient and effective. Any changes to operations 
at any of the DFAS sites should be designed to meet mission 
requirements in the most efficient and effective way, from a corporate 
DOD perspective.

    7. Senator Gillibrand. Mr. McCord, I am concerned that I had to 
hear about the impact to my State through back channels. Do I have your 
assurance that my office will be kept apprised of all future actions 
relating to changes in the DFAS mission and force structure?
    Mr. McCord. If confirmed, I will keep you and your staff apprised 
of any changes with respect to DFAS mission and force structure.
                                 ______
                                 
             Questions Submitted by Senator Mazie K. Hirono
                department of defense sequestration cuts
    8. Senator Hirono. Mr. McCord, the Bipartisan Budget Agreement 
(BBA) reduced the impact of sequestration by $22 billion in fiscal year 
2014 and $9 billion in fiscal year 2015. With this additional funding 
as a result of this agreement, how will DOD prioritize readiness 
funding levels for these fiscal years--by program or capacity, and what 
will the readiness impacts be for fiscal year 2016, should 
sequestration remain a reality?
    Mr. McCord. While readiness concerns remain, the President's budget 
offers a deliberate and responsible approach that puts us on a path to 
restore readiness, while maintaining a force large enough to fulfill 
our defense strategy, though with some risk for some missions. If 
sequestration funding levels should remain in place in 2016 and out, we 
will have to make some very difficult decisions. This will most likely 
result in a smaller force that will be less ready, less modern, and 
less capable. Were we to go back down to sequestration funding levels 
in fiscal year 2016, we would also waste much of the effort and 
resources we will devote in fiscal year 2014 and 2015 to recovering 
from the readiness problems resulting from the fiscal year 2013 
sequester.

              alternative energy and research development
    9. Senator Hirono. Mr. McCord, as alternative energy research 
continues, there appear to be opportunities for reducing our reliance 
on petroleum. What is DOD's fiscal strategy for investment priorities 
in operational energy improvements and in particular, ones that impact 
Hawaii?
    Mr. McCord. The President's 2014 budget included $2.6 billion for 
operational energy initiatives, 88 percent of which was to reduce the 
demand for energy in military operations, and 12 percent of which was 
to increase the supply of energy for operations. These initiatives 
include new and ongoing investments in energy efficiency, propulsion 
improvements, energy storage, new materials, unmanned systems, and 
alternative energy sources, such as high-efficiency solar and waste-to-
energy. The goal of these efforts is to ensure that our Armed Forces 
have the energy they require to meet our 21st century defense 
challenges. These investments are primarily meant to increase military 
capabilities and effectiveness. While I cannot predict the precise 
extent to which they will benefit the broader energy security 
challenges we face as a Nation, these technologies hold promise for 
potential crossover applications in our civilian economy, including in 
Hawaii.
                                 ______
                                 
                Question Submitted by Senator Tim Kaine
                department of defense sequestration cuts
    10. Senator Kaine. Mr. McCord, the Budget Control Act (BCA) 
originally placed DOD under reduced discretionary spending caps that 
have since been adjusted by the American Taxpayer Relief Act (ATRA) and 
the BBA. These across-the-board cuts have had significant negative 
implications for readiness, operational capacity, and our military 
personnel and their families. Fortunately, the President's budget 
request for fiscal year 2015 aims to ease the strain on DOD by $26 
billion in 2015 and $115 billion over the next 5 years. Considering the 
adjustments that have been made with respect to ATRA and BBA, and with 
the proposed cap adjustments in the President's fiscal year 2015 budget 
request, how much of the original sequestration cuts is DOD proposing 
to absorb?
    Mr. McCord. The sequestration level reductions required by the BCA 
of 2011 between fiscal year 2013 and fiscal year 2019 were nearly $400 
billion compared to the President's budget for fiscal year 2013. The 
changes to the original BCA which were enacted by Congress for fiscal 
year 2013, 2014, and 2015 increased the Department's budget above the 
original sequestration levels by approximately $50 billion. The 
Department's President's budget fiscal year 2015 would provide an 
additional $115 billion above sequestration levels for fiscal year 2016 
to fiscal year 2019.
    While the relief provided in fiscal years 2014 and 2015 is helpful 
in supporting readiness and some procurement accounts, if nothing is 
done to eliminate sequestration in fiscal year 2016 and beyond, the 
Department could still see up to 80 percent of the original BCA 
sequestration level reductions. This will directly impact the current 
and future readiness of our Armed Forces.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                                 audit
    11. Senator Inhofe. Mr. McCord, currently, there is an argument in 
DOD over whether to include valuations of property as part of the audit 
which is required to be completed in fiscal year 2018. Though 
establishing the value of a company's property is critical in the 
private sector, the benefit of ascertaining the value of property owned 
by DOD has much less significance. For example, what is gained by 
establishing the value of a destroyer? In addition, the amount of work 
to establish the value of each piece of DOD's equipment is a herculean 
enterprise sure to require vast numbers of auditors and could delay the 
timely completion of the audit. What is gained by DOD establishing the 
value of all of its property?
    Mr. McCord. In order to achieve a clean opinion, DOD must adhere to 
Federal financial accounting standards, which require that capital 
property be fairly valued. The current standards mandate that Federal 
agencies report property and equipment assets at full acquisition cost. 
The Department has recently published equipment valuation guidance, 
which provides various options for valuing our assets and costs 
associated with this effort. We will meet with each of our components 
to determine which options work best within their standard business 
processes. The Department is committed to meet its audit goals, 
including verifying the existence, completeness, location, and status 
of all equipment assets, which will provide assurance of physical 
control of assets, stewardship, and the information that is most 
meaningful to the management and our stakeholders, while also doing 
this in a cost-effective way.

    12. Senator Inhofe. Mr. McCord, why do we need to know the monetary 
value of each ship, truck, and aircraft in the inventory?
    Mr. McCord. In most cases, we do not need to know the value of this 
kind of equipment to perform our mission. However, we do need to know 
depreciated value and remaining useful life of an asset as we make 
decisions such as disposition for equipment in theater. Additionally, 
to ensure that we are auditable and meet Federal accounting standards, 
our current plan is to first compute values on our newer, high value 
assets using actual costs or the estimating methodologies that are now 
permitted. Older assets will be valued if deemed necessary. The current 
value of the Department's property plant and equipment represents more 
than 71 percent of the property, plant, and equipment values reported 
for the entire Federal Government. To omit the Department's equipment 
values would therefore impact the Federal Government's overall 
consolidated annual financial statements, as well.

    13. Senator Inhofe. Mr. McCord, will that enable DOD to make better 
business decisions or enhance our support of the warfighter?
    Mr. McCord. Verifying the existence, completeness, location, and 
status of our property and equipment in support of the upcoming 
financial audit is expected to provide valuable information to help 
inform decisions on priorities for refurbishment, replacement, or 
obsolescence of that property and equipment. The valuation of this 
property, which is harder than verifying existence and completeness, is 
less useful to us, but is required by current accounting standards. 
Modifications to current accounting standards to address the concerns 
you raise would require a dialogue and consensus among the Department, 
Congress, the Office of Management and Budget, the Government 
Accountability Office, and the Federal Accounting Standards Advisory 
Board.

    14. Senator Inhofe. Mr. McCord, won't we have to employ vast number 
of auditors to make these valuation determinations?
    Mr. McCord. The Department is studying the cost of making and 
auditing property and equipment values. Auditors will verify not only 
the estimated value, but also the existence of our property, whether we 
have inventoried and reported all of our equipment and property, and 
whether we own or have the right to use that property. Valuation is 
only one element in the audit of property, plant and equipment. I agree 
that the valuation aspect of auditability will require a significant 
investment of time and resources, not just by auditors, but by many 
people across the Department, to include the logistics community. 
However, I recognize the importance of this information in reaching 
full auditability as required by law. If confirmed, I will work the 
committee and other interested parties to meet the requirements as they 
stand, and to discuss whether modifications to those requirements would 
be cost-effective and better serve the interests of the taxpayer and 
the Federal Government.

    15. Senator Inhofe. Mr. McCord, when Congress has concerns about 
DOD meeting the statutory goals of audit readiness, should we not 
devote more of our resources to achieving the core of the requirement?
    Mr. McCord. The Department currently devotes considerable resources 
to audit readiness, focusing first and foremost on our core 
requirements of our budget statements and then existence and 
completeness of assets. It will require significant additional 
resources in the coming years to fully meet our goals. We are committed 
to achieving full auditability, but given the Department's constrained 
resources, I share the concern that the resources we will have to 
devote to the valuation effort could be considerable and will come at 
the expense of other DOD needs. I am particularly concerned about our 
ability to meet all the Department's needs, including this one, should 
we return to the sequestration-level funding caps again in fiscal year 
2016.

                              tricare fees
    16. Senator Inhofe. Mr. McCord, for many years, the military 
associations and veterans' service organizations vigorously opposed 
TRICARE fee increases, but in the NDAAs for Fiscal Years 2012 and 2013, 
Congress authorized increases to TRICARE enrollment fees and pharmacy 
co-pays based on annual military retired pay cost-of-living 
adjustments. In this current budget environment, will more TRICARE fee 
increases alone sustain the great health benefit that military retirees 
and their families have today?
    Mr. McCord. Given the significant fiscal pressures the Department 
faces over a sustained period, as exemplified by the restrictions of 
the BCA of 2011, no single policy or savings proposal will generate the 
kind of savings we need. However, increases in co-pays for 
pharmaceuticals and implementing an enrollment fee for new TRICARE-for-
Life beneficiaries would go a long way in helping to sustain the great 
health benefits that military retirees and their families have today 
while freeing up funds badly needed for training and maintenance. In 
the past, Congress has permitted small increases in the TRICARE Prime 
enrollment fees for working age retirees and some adjustments to retail 
and mail order pharmacy co-pays, but more needs to be done.

    17. Senator Inhofe. Mr. McCord, I believe Congress, DOD, and 
beneficiaries--all of us--must share the responsibility for helping to 
control health care costs. What can DOD and its beneficiaries do, 
either separately or together, to help control the rapid growth in 
DOD's health care costs?
    Mr. McCord. I agree, this is an area where the Department's 
leadership, Congress, our beneficiaries and providers, including our 
private sector partners, all need to work together. In the fiscal year 
2015 budget, DOD proposes replacing the current three TRICARE plans 
with a consolidated TRICARE Health Plan starting in 2016 for about 3.3 
million retirees under age 65 and about 2.1 million Active-Duty family 
members, while implementing new military treatment facility (MTF) fees 
and other fee increases. The proposed TRICARE reforms include higher 
copays designed to ensure that the quality of health care is not 
compromised, while allowing the Department to sustain an efficient and 
cost effective health care system.
    The Department remains committed to ensuring any proposed changes 
keep faith with those who are serving, but this means more than just 
maximizing their benefits at the expense of everything else.
    We all have a solemn responsibility as well to make sure our people 
are trained and equipped to do the missions we send them to do on 
behalf of the Nation.

    18. Senator Inhofe. Mr. McCord, in the President's budget request 
last year, DOD proposed increases in TRICARE fees and co-pays again, 
but Congress didn't authorize those increases. In a few weeks, I 
imagine that DOD will send over more TRICARE proposals with the 
President's fiscal year 2015 budget request. If Congress doesn't agree 
with the administration's TRICARE proposals in the fiscal year 2015 
budget request, what is your plan to make up the resulting large budget 
deficit resulting from the savings you assumed in the Defense Health 
Program budget?
    Mr. McCord. To adequately fund readiness and modernization under 
constrained budgets, we have to slow the growth in military 
compensation. Our budget balances the need to protect our national 
security with the need to be realistic about the resources we can 
expect. If Congress chooses not to support our TRICARE proposals, our 
readiness and modernization accounts will be significantly affected, 
and ultimately we will probably need to further reduce the size of our 
force to keep whatever force we can afford trained and ready.

    19. Senator Inhofe. Mr. McCord, if you have to move operation and 
maintenance (O&M) funds from the Services' budgets to the Defense 
Health Program O&M account to pay for incurred health care costs, how 
will that impact the readiness of the force?
    Mr. McCord. Increases in health care spending will largely come at 
the expense of readiness spending, which would be detrimental to the 
Department's ability to carry out its missions.

    20. Senator Inhofe. Mr. McCord, if confirmed as Comptroller, what 
role would you have in implementing necessary oversight measures for 
the responsible use of Government resources?
    Mr. McCord. If confirmed, I expect to have a significant role in 
reviewing, implementing, and as required, recommending changes to 
policies and procedures to ensure the responsible use of Government 
resources. I will work closely with the Deputy Chief Management 
Officer, the Under Secretaries of the military departments, and other 
senior leaders to support the Secretary and Deputy Secretary in 
carrying out the Department's missions efficiently and effectively and 
in accordance with laws and regulations that govern the use of the 
Department's funds.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                           a-10 cost savings
    21. Senator Ayotte. Mr. McCord, based on your current position as 
Principal Deputy Under Secretary of Defense (Comptroller), as well as 
the position for which you are nominated--Under Secretary of Defense 
(Comptroller)--could you please clarify the number Secretary Hagel 
cited on February 24 ($3.5 billion) for potential A-10 savings?
    Mr. McCord. The savings from retirement of the A-10 fleet by fiscal 
year 2019 is approximately $3.7 billion. The response to question 88 
provides additional detail on how those savings are achieved. If the 
cost avoidance to replace wings for 100 aircraft ($500 million) is 
factored in, the total savings would be approximately $4.2 billion over 
the Future Years Defense Program.

    22. Senator Ayotte. Mr. McCord, how will the Air Force specifically 
achieve that $3.5 billion in savings? Please provide an annual 
breakdown by Program, Project, and Activity (PPA).
    Mr. McCord. The below table provides the breakdown for the $3.7 
billion savings specified in the response to question #21.
       
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    23. Senator Ayotte. Mr. McCord, for any A-10 related funds that the 
Air Force claims as savings, please provide a detailed explanation of 
how the Air Force (not just the A-10 program) will no longer incur the 
expense. For example, for savings related to contract personnel or 
organic depot maintenance costs, can you confirm that the cost 
associated with that workload will not be transferred to other Air 
Force activities but represents sustaining activities that can actually 
be terminated?
    Mr. McCord. It is my understanding that the costs associated with 
that workload would be eliminated, and represent a savings to the Air 
Force. Depot maintenance requirements are determined based upon 
individual weapon system needs. As aircraft are retired they will no 
longer require depot activities, such as engine overhauls, aircraft 
heavy maintenance, and spare parts. As a result, the cost of the 
activities associated with that workload would not be incurred.

    24. Senator Ayotte. Mr. McCord, for A-10 personnel costs associated 
with Air Force personnel (organic depot maintenance), can you confirm 
that those personnel will no longer be employed with the Air Force as a 
result of losing this specific workload, and will not simply be 
transferred to other Air Force activities?
    Mr. McCord. Although the Air Force would be better suited to 
provide specific details, I understand that the overall size of the 
depot workforce is expected to decrease when the A-10 is retired. Given 
the fiscal pressures the Department faces due to the BCA of 2011, any 
savings that can be realized, whether in manpower, operating costs, or 
modernization costs, will generally be applied to meeting these 
constrained toplines. Although some employees who support or maintain 
the A-10 may seek retraining or reassignment to other Air Forces 
systems, while others may retire or leave Federal service, I do not 
think it is possible to know enough about the portability of the skill 
sets of all such employees in a way that would allow a comprehensive 
answer to this question.

    25. Senator Ayotte. Mr. McCord, please provide a comprehensive list 
of which contracts would be terminated. In other words, for the $3.5 
billion number please differentiate between actual savings to the 
overall Air Force budget, and simply moving expenses to other Air Force 
accounts.
    Mr. McCord. The $3.5 billion of potential savings Secretary Hagel 
referenced is associated with operating and support (O&S) funding for 
the A-10 as set out in the response to question #22. As was previously 
mentioned in other responses, these potential savings to the A-10 
program can be broken down into the following cost elements: Military 
Personnel ($1.47 billion), Flying Hours ($1.51 billion), and Weapon 
System Sustainment (WSS) ($0.70 billion). The total of these elements 
sum to $3.68 billion in O&S savings across the Future Years Defense 
Program from divestiture of a 283-aircraft fleet.
    Because there are no contracts associated with the Personnel and 
Flying Hours elements, this response will address the contracts 
associated with the WSS element. These contracts are funded with the 
O&M appropriation and are usually 1-year efforts, with follow-on option 
years that may be exercised at the government's discretion. It is my 
understanding that as the Air Force executes its A-10 divestiture plan, 
it will take appropriate contracting actions. In some cases, the Air 
Force may decide not to exercise future options on existing contracts. 
In instances where ongoing contracted work is underway, the Air Force 
may reduce the scope of those contracts. Finally, in instances where 
the Air Force was planning to award new contracts, such contracts may 
no longer be required.
    Although the Air Force is better suited to address all the specific 
items that fall within this element, I am aware of the following 
information:
    Full Mission Trainer (<$27 million/year): The current contract runs 
to fiscal year 2016 and can be scaled back to required work; the 
follow-on contract will also be scalable with base plus option years;
    Pacific Air Forces (PACAF) Depot Support (5 year/$40 million cap, 
the Air Forces only pays for work required): The current contract runs 
out 30 Sep 2014 with a 6-month extension option. A new contract has 
gone out for proposals that will only carry cost if PACAF A-10s require 
depot maintenance;
    Sustaining engineering contracts: These are scalable efforts to 
monitor fleet health and maintain fleet safety of flight; these provide 
support to meet Operational Safety Suitability and Effectiveness 
mandatory requirements;

          Aircraft Structural Integrity Program (ASIP) - Legacy (value 
        varies by year);
          ASIP - Modernization (value varies by year);
          Reliability Center Maintenance Contract (value varies by 
        year).
          The Air Force is best suited to provide additional details if 
        required.

    26. Senator Ayotte. Mr. McCord, please provide a revised number for 
the potential A-10 divestment that reflects what the Air Force--not 
just A-10 PPAs--would no longer expend.
    Mr. McCord. Please refer to the response to question #22.
                                 ______
                                 
    [The nomination reference of Hon. Michael J. McCord 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 30, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael J. McCord, of Ohio, to be Under Secretary of Defense 
(Comptroller), vice Robert F. Hale.
                                 ______
                                 
    [The biographical sketch of Hon. Michael J. McCord, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Michael John McCord
Education:
    The Ohio State University

        <bullet> September 1977-June 1981
        <bullet> Bachelor of Art in Economics with honors in Liberal 
        Arts

    The University of Pennsylvania

        <bullet> September 1981-May 1984
        <bullet> Master of Arts in Public Policy
Employment Record:
    Department of Defense

        <bullet> Principal Deputy Under Secretary of Defense 
        (Comptroller)
        <bullet> January 2009-Present

    U.S. Senate

        <bullet> Professional Staff Member, Committee on Armed Services
        <bullet> March 2004-January 2009

    U.S. House of Representatives

        <bullet> Budget Analyst, Committee on the Budget
        <bullet> January 2003-February 2004

    U.S. Senate

        <bullet> Professional Staff Member, Committee on Armed Services
        <bullet> January 1987-January 2003

    Congressional Budget Office

        <bullet> Assistant Analyst
        <bullet> December 1984-January 1987
Honors and awards:
    Federal Civilian Awards

        <bullet> Department of Defense Medal for Distinguished Public 
        Service (Bronze Palm), February 2013
        <bullet> Department of Defense Medal for Distinguished Public 
        Service, October 2011

    Academic Awards

        <bullet> National Merit Scholarship, The Ohio State University, 
        1977-1981
        <bullet> Member, Phi Beta Kappa, The Ohio State University, 
        1981

    Fellowships

        <bullet> Stennis Congressional Staff Fellow, 110th Congress, 
        The Stennis Center for Public Service Leadership, 2007-2008
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. Michael 
J. McCord in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael John McCord.

    2. Position to which nominated:
    Under Secretary of Defense (Comptroller).

    3. Date of nomination:
    January 30, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 23, 1959; Marion, OH.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Donna Miller Rostant.

    7. Names and ages of children:
    Alejandra E. McCord, 28 (child).
    Meredith J. McCord, 26 (child).
    Joseph F. Slade IV, 27 (step-child).
    Andrew T. Slade, 25 (step-child).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    River Valley High School, Marion, OH, Fall 1972-Spring 1977, high 
school degree received May 1977.
    The Ohio State University, September 1977-June 1981, Bachelor of 
Art in Economics with honors in the liberal arts, June 1981.
    The University of Pennsylvania, September 1981-May 1984, Master of 
Arts in Public Policy, May 1984.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    January 2009-present, Principal Deputy Under Secretary of Defense 
(Comptroller), U.S. Department of Defense, The Pentagon, Washington DC.
    March 2004-January 2009, Professional Staff Member, Committee on 
Armed Services, U.S. Senate, Washington DC (also January 1987-January 
2003).
    January 2003-February 2004, Budget Analyst, Committee on the 
Budget, U.S. House of Representatives, Washington DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Department of Defense, Principal Deputy Under Secretary of Defense 
(Comptroller), January 2009-present.
    U.S. Senate, Professional Staff Member, Committee on Armed 
Services, March 2004-January 2009.
    U.S. House of Representatives, Budget Analyst, Committee on the 
Budget, January 2003-February 2004.
    U.S. Senate, Professional Staff Member, Committee on Armed 
Services, January 1987-January 2003.
    Congressional Budget Office, Assistant Analyst, December 1984-
January 1987.
    President-Elect's Transition Team, Department of Defense Agency 
Review Team, The Pentagon, Washington DC, November-December 2008 (on 
detail from the Senate Armed Services Committee staff).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Unitarian Universalists for Social Justice, Washington DC. Board 
Member.
    Member, American Society of Military Comptrollers, Alexandria, VA.
    Member, Reston Runners, Reston VA.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    My cumulative 2009-2013 contributions to any entity of $100 or more 
are:

        <bullet> Obama for America Presidential campaign, $1,075
        <bullet> Democratic Senatorial Campaign Committee, $965
        <bullet> Democratic National Committee, $705
        <bullet> Fairfax County (VA) Democratic Committee, $635
        <bullet> Democratic Party of Virginia, $570
        <bullet> Democratic Congressional Campaign Committee, $540
        <bullet> Virginia Inaugural Ball 2013, $500
        <bullet> McAuliffe for Governor (VA), $450
        <bullet> Kaine for Senate (VA), $450
        <bullet> Friends of Mark Warner, $200
        <bullet> Ohio Democratic Party, $200
        <bullet> Deeds for Governor (VA), $120

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.

        <bullet> National Merit Scholarship, The Ohio State University, 
        1977-1981
        <bullet> Member, Phi Beta Kappa, The Ohio State University, 
        1981
        <bullet> Stennis Congressional Staff Fellow, 110th Congress, 
        The Stennis Center for Public Service Leadership, 2007-2008
        <bullet> Department of Defense Medal for Distinguished Public 
        Service, October 2011
        <bullet> Department of Defense Medal for Distinguished Public 
        Service (Bronze Palm), February 2013

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
Congressional Testimony:

        <bullet> Written testimony to the House Small Business 
        Committee regarding the potential impact of sequestration on 
        small business, September 20, 2012.
        <bullet> Written testimony to the Senate Committee on Homeland 
        Security and Governmental Affairs, Subcommittee on Federal 
        Financial Management, Government Information, Federal Services, 
        and International Security, hearing on termination of the C-17 
        aircraft, July 13, 2010.
Speeches and Presentations:
    I have given several speeches during the last 5 years. A list of 
all speeches is provided. Copies of three representative speeches are 
provided, and additional speeches can be made available upon request.

        <bullet> Public Contracting Institute, Washington, DC, April 
        18, 2013. Roundtable discussion was on the record but I had no 
        prepared remarks.
        <bullet> AGA Conference, San Diego, CA, July 30, 2012
        <bullet> ASMC Regional PDI, Washington DC, March 22, 2012
        <bullet> Credit Suisse conference, New York, NY, November 30, 
        2011
        <bullet> AGA/ASMC Regional PDI Conference, Honolulu, HI, August 
        17, 2011 (two presentations)
        <bullet> ASMC National PDI, Minneapolis, MN, June 2, 2011
        <bullet> AICPA, Washington, DC, August 16, 2010
        <bullet> Credit Suisse conference, Arlington VA, June 10, 2010
        <bullet> ASMC National PDI, Orlando FL, June 4, 2010
        <bullet> DOD Managers Internal Controls Programs conference, 
        Washington, DC, November 24, 2011
        <bullet> Remarks on DOD Budget and Financial Management 
        Priorities to the Association of Government Accountants/
        American Society of Military Comptrollers Professional 
        Development Institute Conference, Honolulu, HI, October 14, 
        2009. (previously provided for 2010 confirmation) .

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes,
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes,
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Michael J. McCord.
    This 10th day of February, 2014.

    [The nomination of Hon. Michael J. McCord was reported to 
the Senate by Chairman Levin on March 26, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 12, 2014.]
                              ----------                              

    [Prepared questions submitted to Ms. Christine E. Wormuth 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe there is no need to modify the provisions of the 
Goldwater-Nichols Act at this time. The Act was a very significant 
piece of legislation that, over the course of more than two decades, 
has led to dramatic improvements in the effectiveness of the Armed 
Forces. Based on my experience since 2009, there is not a need for 
changes in the near term.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Please see my response above.
          duties of the under secretary of defense for policy
    Question. Section 134 of title 10, U.S.C., provides that the Under 
Secretary of Defense for Policy (USD(P)) shall assist the Secretary of 
Defense in preparing written policy guidance for the preparation and 
review of contingency plans, and in reviewing such plans. Additionally, 
subject to the authority, direction, and control of the Secretary of 
Defense, the Under Secretary shall have responsibility for supervising 
and directing activities of the Department of Defense (DOD) relating to 
export controls. Further, subject to the authority, direction, and 
control of the Secretary of Defense, the USD(P) is responsible for 
overall direction and supervision for policy, program planning and 
execution, and allocation and use of resources for the activities of 
DOD for combating terrorism.
    Department of Defense Directive 5111.1 reiterates these duties and 
specifically notes that the USD(P) is the principal staff assistant and 
advisor to the Secretary of Defense and the Deputy Secretary of Defense 
for all matters on the formulation of national security and defense 
policy and the integration and oversight of DOD policy and plans to 
achieve national security objectives.
    What is your understanding of the duties and functions of the 
USD(P) under current regulations and practices?
    Answer. If confirmed, I would perform the duties set forth in title 
10 and the Department of Defense Directive. The USD(P) serves as the 
principal staff assistant and advisor to the Secretary and Deputy 
Secretary of Defense for all matters concerning the formulation of 
national security and defense policy as well as the integration and 
oversight of DOD policy and plans to achieve national security 
objectives. Specifically, the USD(P) directly supports the Secretary of 
Defense in the interagency process, dealings with foreign counterparts, 
developing strategy and planning guidance for the Planning, 
Programming, Budgeting, and Execution (PPBE) process, providing policy 
oversight of current operations, and guiding the development and review 
of contingency plans. He or she is the Secretary's principal policy 
advisor on the use of the U.S. military and its adaptation for future 
missions.
    Question. What is your understanding of the responsibilities of the 
USD(P) in combating terrorism, in particular as differentiated from 
those of the Assistant Secretary of Defense for Special Operations and 
Low Intensity Conflict?
    Answer. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict (ASD/SOLIC) functions under the authority, 
direction, and control of the USD(P) in combating terrorism. More 
broadly, the ASD(SO/LIC) is defined in title 10 as the principal 
civilian advise to the Secretary of Defense on special operations and 
low intensity conflict matters.
    Question. Assuming you are confirmed, what additional duties and 
functions do you expect that the Secretary of Defense would prescribe 
for you?
    Answer. If confirmed, I will discuss with Secretary Hagel how the 
Office of the Secretary of Defense (OSD) Policy organization and I can 
best support him, including whether there are any duties and functions 
he would prescribe beyond those set forth in section 134(b) of title 
10, and the Department of Defense Directive for USD(P). At this time, I 
have not identified any such additional duties and functions.
    Relationships
    Question. What is your understanding of the relationship between 
the USD(P) and each of the following?
    The Secretary of Defense.
    Answer. The USD(P) serves as the principal staff assistant and 
advisor to the Secretary of Defense for all matters concerning the 
formulation of national security and defense policy and the integration 
and oversight of DOD policy and plans to achieve national security 
objectives. The USD(P) provides policy support to the Secretary in 
interagency fora (such as National Security Council deliberations), in 
engagement with international interlocutors, and in the PPBE processes 
inside the Department, including the Quadrennial Defense Review (QDR), 
the Nuclear Posture Review, and annual program and budget reviews.
    Question. The Deputy Secretary of Defense.
    Answer. The Under Secretary for Policy provides similar support to 
the Deputy Secretary as described above.
    Question. The other Under Secretaries of Defense.
    Answer. The Under Secretary for Policy works closely with the other 
Under Secretaries of Defense to achieve the Secretary's objectives. 
This includes providing policy input, as appropriate, to each of them 
in their respective areas of responsibility. In addition, the Under 
Secretary for Policy works closely with the Under Secretary for 
Intelligence and other intelligence officials to ensure that policy 
formulation and execution are well informed and supported by 
intelligence.
    Question. The Principal Deputy Under Secretary of Defense for 
Policy.
    Answer. The Principal Deputy Under Secretary for Policy (PDUSD(P)) 
is the principal assistant to the USD(P) and is responsible for 
assisting the USD(P) in carrying out all responsibilities, fulfilling 
functions, managing relationships, and exercising authorities provided 
for in law to the USD(P). The PDUSD(P) advises on and supports the 
USD(P) in regard to all responsibilities in providing advice to the 
Secretary of Defense in interagency fora (such as National Security 
Council deliberations), engagement with international interlocutors, 
and in the PPBE processes inside the Department, including the QDR and 
annual program and budget reviews.
    Question. The Assistant Secretaries of Defense.
    Answer. The USD(P) exercises authority, direction, and control over 
the PDUSD(P), and the Assistant Secretaries of Defense for 
International Security Affairs, Asian and Pacific Affairs (APSA), 
Global Strategic Affairs, Special Operations and Low-Intensity Conflict 
(SOLIC), and Homeland Defense and Americas' Security Affairs (HD/ASA). 
This team works together to provide the Secretary with advice and 
recommendations on the full range of policy issues under consideration 
in the Department and provides policy oversight to ensure that the 
Secretary's guidance and decisions are implemented properly.
    Question. The Secretaries of the Military Departments.
    Answer. The USD(P) works closely with the Secretaries of the 
Military Departments on a broad range of issues, including defense 
strategy and policy development, force planning, and other areas in 
which the Military Departments are critical stakeholders.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. As the principal military advisor to the Secretary of 
Defense, the President, and the National Security Council, the Chairman 
has a unique and critical military role. The USD(P) works closely with 
the Chairman and Vice Chairman to support the efforts of the Secretary 
and Deputy Secretary in providing for the strategic direction of the 
Armed Forces, and to ensure that military advice is taken into account 
in an appropriate manner.
    Question. The Service Chiefs.
    Answer. The USD(P) works closely with the Service Chiefs on a broad 
range of issues, including defense strategy and policy development, 
force planning, and other areas in which the Military Departments and 
Services are critical stakeholders.
    Question. The Commanders of the Regional and Functional Combatant 
Commands.
    Answer. The USD(P) works closely with the regional and functional 
combatant commanders to support the efforts of the Secretary and Deputy 
Secretary, particularly in the areas of regional and functional 
strategy and policy, contingency planning, and policy oversight of 
operations.
    Question. The Director of the National Guard Bureau.
    Answer. The USD(P) works closely, through the Chairman and Vice 
Chairman, with the members of the Joint Chiefs of Staff. In accordance 
with the National Defense Authorization Act for 2012, the Chief of the 
National Guard Bureau is a member of the Joint Chiefs, and has a 
specific responsibility to provide information on the non-Federalized 
National Guard.
    Question. The General Counsel of DOD.
    Answer. The USD(P) works closely with the General Counsel on all 
policy issues that involve a legal dimension. In practice, this means 
significant and regular coordination on a broad range of issues.
    Question. The Director, Defense Security Cooperation Agency.
    Answer. The USD(P) exercises authority, direction, and control over 
the Director of the Defense Security Cooperation Agency (DSCA). The 
Policy organization works closely with DSCA to provide the Secretary 
with advice and recommendations on the full range of security 
cooperation issues facing the Department.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. Since joining the administration in March 2009, I have 
served in three senior defense-related positions that have enabled me 
to work on a very broad array of challenges facing DOD, and to 
understand how to work effectively in the interagency process to 
address difficult national security policy issues. As Principal Deputy 
Assistant Secretary of Defense for Homeland Defense and Americas' 
Security Affairs, I had the opportunity to work on a wide range of 
homeland security, Homeland defense, and defense support of civil 
authorities issues. In that role, I managed a staff of more than 300 
people and worked closely with the National Security Council staff, as 
well as the Departments of Homeland Security and Justice and other key 
Federal departments and agencies. Then, as Special Assistant to the 
President and Senior Director for Defense Policy at the National 
Security Council, I had the opportunity to work on many of the most 
challenging defense policy issues in recent years, from helping to 
formulate the Defense Strategic Guidance to addressing a range of 
regional security issues in the Asia-Pacific region and the Middle 
East. For the last year and one-half, I have served as Deputy Under 
Secretary of Defense for Strategy, Plans, and Forces. In this capacity, 
I have collaborated closely with the Joint Chiefs of Staff, Military 
Department Secretaries, and Combatant Commanders on issues including 
strategy development, the global force management process, contingency 
planning, force structure analysis and development, and regional 
posture. I have frequently represented OSD Policy in the annual PPBE 
process on behalf of the USD(P). In each of these three positions, I 
have had the opportunity to work directly with the current and two 
previous Secretaries of Defense.
    Prior to joining the administration, I focused professionally on 
defense and security policy issues both in and out of government for 
many years. As a Senior Fellow at the Center for Strategic and 
International Studies (CSIS) for 5 years, I worked on a host of 
national security issues, and was privileged during that time to serve 
as the Executive Director for the Independent Commission on Iraqi 
Security Forces, also known as the ``Jones Commission.'' Before coming 
to CSIS, I was a senior manager in a small defense consulting firm for 
almost 3 years, which gave me valuable insight into defense industry 
concerns and provided me an opportunity to hone my management skills.
    I also believe that my early years as a Presidential Management 
Intern and career civilian action officer in OSD Policy are an 
important part of what will enable me to be effective as Under 
Secretary, if I am confirmed. I grew up professionally in OSD Policy. I 
have seen how it works, in good times and in bad, from the ground up. I 
care deeply about the talented people who work there, and the important 
work we do to provide the Secretary and the President with the best 
possible policy advice on matters of national security. Drawing on that 
deep knowledge and commitment to the organization, if confirmed, I 
would work with the Policy staff to ensure we serve the Secretary as 
effectively as possible.
                    major challenges and priorities
    Question. In your view, what are the major challenges confronting 
the USD(P)?
    Answer. If confirmed as USD(P), I would expect to confront a large 
number of very significant and difficult policy issues. Among the most 
important in the near term will be working with other U.S. departments 
and agencies to transition security responsibility effectively in 
Afghanistan and prevent that country from once again becoming a safe 
haven for groups like al Qaeda. Looking ahead, I think that we will 
continue to face a changing and increasingly complex security 
environment. I believe it will be essential to continue to demonstrate 
our strong commitment to our partners in the Middle East, while working 
to advance U.S. interests in the context of the sweeping changes that 
are unfolding in that region, and in North Africa. If confirmed, I 
would continue to prioritize defending the homeland and seek to ensure 
we effectively address emerging threats like cyber and the 
proliferation of weapons of mass destruction. If confirmed as Under 
Secretary, I would work closely with the rest of the Department and 
other U.S. departments and agencies to continue our efforts to defeat 
al Qaeda, counter the threat of violent extremism across the globe, and 
protect the United States and our vital interests from an attack. 
Addressing each of these challenges, and many others, will be made more 
difficult in the context of the significant fiscal pressures and 
uncertainty the Department is facing. If confirmed as Under Secretary, 
a major challenge I anticipate will be working to ensure that the 
Department allocates its more limited resources in ways that align to 
the needs of our defense strategy, and in ways that enable us to 
prepare as effectively as possible for future challenges and 
opportunities.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I look forward to working with the Secretary 
and the senior leadership of the Department, as well as interagency 
colleagues to develop and oversee implementation of effective 
strategies, policies, and plans that address these challenges. I would 
also work closely with Congress, U.S. allies and partners, and, where 
appropriate, nongovernmental organizations and the private sector. In 
working to address difficult policy issues, I would anticipate drawing 
on the deliberations of the QDR, gaining insights from the upcoming 
National Defense Panel report and other outside organizations and 
commissions, and using the range of annual planning and programming 
processes within the Department to generate potential policy solutions.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the USD(P)?
    Answer. At the outset of the QDR process, Secretary Hagel outlined 
a number of priorities that guide his thinking in how to lead the 
Department. If confirmed, I would seek to ensure the Policy 
organization is focused on how we contribute to making progress in 
those areas, particularly those with significant policy implications. 
The forthcoming QDR report will outline our approach to some of those 
priorities, including re-evaluating our force planning and sizing 
construct, ensuring we avoid a long-term readiness challenge, and 
protecting investment in critical military capabilities most needed to 
implement our defense strategy. A key priority for me, if confirmed, 
would be to ensure that the Department executes our defense strategy 
through a disciplined and rigorous process that effectively matches 
resources to strategy.
    If confirmed, I also would make it a priority to continue and 
deepen the Department's efforts to implement the President's guidance 
to rebalance to the Asia-Pacific region. Since the publication of the 
Defense Strategic Guidance in January 2012, the Department's senior 
leadership has made implementation of the rebalance a priority. If 
confirmed, I would work closely with other components of the 
Department, and with my interagency colleagues, to develop additional 
creative approaches to implement the military component of the 
rebalance, and continue to ensure that the rebalance is prioritized in 
the resource allocation process.
    Secretary Hagel recently approved, as part of his efforts to 
streamline the Department further, a reorganization of the Policy 
organization. I support this reorganization, and if confirmed as Under 
Secretary, I will make it a priority to ensure that we successfully 
implement the reorganization plan. Ultimately, the strength of the 
Policy organization is its workforce, so I would continue to invest in 
developing, recruiting, and retaining a dynamic workforce. If 
confirmed, I would make it a priority to ensure that we make this 
transition in an effective, transparent, and well-organized way that 
enables us to continue to provide excellent advice to the Secretary, 
and function as a strong, effective part of the overall OSD.
    If confirmed as Under Secretary, I also would make it a priority to 
set aside time, both personally and at the organizational level, to 
think strategically about over-the-horizon challenges and opportunities 
the United States may face in the future. It can be very challenging in 
government to find time to address emergent, long-term issues, but 
having worked in a think tank for a lengthy period, I am convinced that 
decisionmakers benefit when we are able to ``give the future a seat at 
the table.'' If confirmed, I would push myself and the Policy 
organization to devote sufficient time to strategic thinking and 
planning, even as we work to address more immediate threats and 
opportunities.
       reorganization of office of the under secretary for policy
    Question. The Secretary of Defense has announced a plan to 
reorganize the Office of the USD(P). The reorganization has begun and 
is expected to be completed by 2015.
    What is your understanding of the major changes planned for the 
organization that you have been nominated to lead, and what do you 
believe will be the primary benefits of the reorganization plan?
    Answer. By 2015, the Policy reorganization will eliminate seven 
senior leader positions, including a DUSD, the Policy Chief of Staff, 
four DASDs, and a USD(P) senior advisor. The changes should increase 
efficiency by aligning similar functions and reducing the total number 
of offices overall. The reductions also ensure that Policy will be in 
compliance with pending DOD headquarters budget reductions and the 
requirement to eliminate the DUSD position itself.
    Question. How do you plan to ensure that the reorganization leads 
to improvements and efficiencies in the formulation and execution of 
policy within the Department?
    Answer. If confirmed, I would work with the PDUSD(P) and Assistant 
Secretaries to ensure that synergies created by the reorganization lead 
to development of more comprehensive and cohesive policy options. For 
example, defending the Nation from cyber attacks is an important 
element of protecting the U.S. Homeland. By placing responsibility for 
development of cyber policy in the Office of the Assistant Secretary 
for Homeland Defense, that Assistant Secretary will be better able to 
leverage the tools in the Cyber Policy office to ensure the homeland is 
defended against cyber threats. Implementation of the reorganization 
will also enable the Policy organization to recognize some efficiencies 
in terms of reducing and streamlining front office staffs due to the 
consolidation of a number of offices.
    Question. What is your understanding of the Department's rationale 
for combining the functional experts in Cyber and Space under one 
Deputy Assistant Secretary of Defense?
    Answer. The reality of modern telecommunications is that there's a 
strong nexus between policy issues related to cyber and space. During 
its comprehensive reorganization review, Policy recognized that the two 
offices worked together frequently and that improved synergy could be 
achieved by unifying the office under a single leader. Programs in both 
offices have matured significantly over the last few years, allowing 
the efficiency of single office management.
    Question. How do you intend, if confirmed, to achieve unity of 
effort within the Prisoner of War (POW)/Missing in Action (MIA) 
accounting community given its fragmented command and control and 
budgetary processes?
    Answer. As the committee is aware, the POW/MIA accounting community 
has been the subject of several organizational studies over the past 18 
months. The Government Accountability Office (GAO) completed a study in 
2013, and it is my understanding that the Department is implementing 
recommendations from the GAO report.
    Additionally, the Office of Cost Assessment and Program Evaluation 
(CAPE) is reviewing DOD's organizational structure in this area. If 
confirmed, I would consider the results of these reviews, and seek the 
views of family and veterans' groups to determine how we can better 
achieve unity of effort.
                          afghanistan strategy
    Question. What are our key strategic objectives in Afghanistan and 
in your view are we on track to achieve those objectives?
    Answer. I understand that Coalition and Afghan Forces are meeting 
campaign objectives. The Afghan Government is able to exert control 
over all of Afghanistan's major cities and provincial capitals. Afghan 
forces have assumed the lead for security and, with the Coalition, have 
successfully countered the insurgency's efforts in the 2012 and 2013 
summer fighting seasons. I understand that we continue to make progress 
in our counterterrorism efforts.
    Question. If confirmed, what changes, if any, would you recommend 
to the U.S. strategy in Afghanistan?
    Answer. I believe the U.S. strategy is succeeding and would 
recommend that we follow through on our commitments made in Chicago and 
Tokyo. Our core goal in Afghanistan remains disrupting, dismantling, 
and defeating al Qaeda and preventing its return to Afghanistan. To 
achieve this, we should maintain our commitment to Afghanistan after 
2014 and continue to transition security responsibility to the Afghans.
    Question. What do you see as the United States' long-term strategic 
interests in Afghanistan after 2014?
    Answer. The United States has made a commitment to an enduring 
partnership with Afghanistan, and it will continue to be in the U.S. 
interest to work towards defeating al Qaeda and disrupting other 
extremists who present a serious threat to the U.S. Homeland, allies, 
partners, and interests. We have also pledged at Chicago and Tokyo to 
support the Government of Afghanistan's development as it takes 
responsibility for its own future.
    Question. Do you support the retention of a limited U.S. military 
presence in Afghanistan after 2014?
    Answer. I support a long-term partnership with Afghanistan, 
including a limited U.S. presence after 2014 to support the two 
missions the President discussed in the State of the Union address--a 
narrowly focused counterterrorism mission against al Qaeda and its 
affiliates; and a North Atlantic Treaty Organization (NATO)-led train, 
advise, and assist (TAA) mission to support the Afghan forces. To 
accomplish these missions, we must conclude an agreement with the 
Afghan government in order to remain in Afghanistan and to secure 
privileges and protections for our forces.
    Question. If so, what in your view should be the size, mission, and 
duration of such a residual U.S. military force?
    Answer. If confirmed, I would engage our military commanders to 
assess the appropriate size, mission, and duration of such a residual 
force.
    Question. In your view, what would be the consequences for 
Afghanistan's security and stability if the United States were to 
reduce its post-2014 military presence in Afghanistan to a ``normal'' 
Office of Defense Cooperation under chief of mission authority?
    Answer. At this time, I am unable to assess the impact of reducing 
our presence to an Office of Defense Cooperation. My understanding is 
that the Afghans are leading the majority of security operations, but 
that they require additional support and assistance at ministerial 
levels.
    Question. If the United States and Afghanistan are unable to 
conclude a Bilateral Security Agreement that ensures legal protections 
for such a residual U.S. military force, should the United States 
withdraw its military forces from Afghanistan?
    Answer. If confirmed, I would support a U.S. military presence in 
Afghanistan if our forces have the requisite legal protections that a 
status of forces agreement, such as the Bilateral Security Agreement, 
would provide.
    Question. What is your understanding, as a legal matter, of when 
the current agreements that provide legal protections for the U.S. 
military between the Afghan Government and the U.S. Government expire? 
If a residual U.S. military force were to remain in 2015, would it have 
the same legal protections as the current U.S. military force does now 
even without the signing of the Bilateral Security Agreement?
    Answer. I understand that the current bilateral Status of Forces 
Agreement with Afghanistan does not have an expiration date. The 
President has made clear that for the United States to remain in 
Afghanistan post-2014, it must be at the request of the Afghan 
government and under a Bilateral Security Agreement concluded with 
Afghanistan.
                         afghanistan transition
    Question. Do you support the transition of full responsibility for 
the security of Afghanistan to the Afghan National Security Forces 
(ANSF) by 2014?
    Answer. Yes. My understanding is that the ANSF has shown over the 
last year that it is up to the task of providing security across 
Afghanistan. The ANSF is now conducting virtually all operations 
independently and has prevented the insurgents from making any 
significant gains. I realize that the ANSF will require continued 
international assistance to sustain these gains, and, if confirmed, I 
would support such efforts in line with whatever decision the President 
makes about our post-2014 force level, mission, and resourcing.
    Question. In your view, what are the main challenges to the success 
of such a transition?
    Answer. In my view, the main challenge will be ensuring that the 
ANSF has adequate financial resources to sustain the gains they have 
made. This will require continued international assistance; if 
confirmed, I would support such efforts in line with whatever decision 
the President makes about our post-2014 force level, mission, and 
resourcing. Another challenge is that the Afghans now have limited 
combat enabler support from the coalition, so we will have to monitor 
closely how this affects their readiness and morale when the fighting 
becomes more intense later this year.
                  afghanistan national security forces
    Question. What is your assessment of the progress in developing a 
professional and effective ANSF?
    Answer. My understanding is that the Afghan military and police 
forces have a competent cadre of officers and leaders, but the rapid 
growth in the size of the ANSF over the last few years has created a 
requirement to produce even more leaders--a task that cannot be 
accomplished quickly. The international assistance effort has expanded 
the institutional training base for all levels of ANSF leaders. If 
confirmed, I would support continuing this focus, consistent with the 
President's decision about our post-2014 force level and mission.
    Question. What do you see as the main challenges to building the 
capacity of the ANSF, including after 2014?
    Answer. My understanding is that building this capacity at the 
ministerial and institutional level will be the focus of the NATO-led 
train/advise/assist mission. One of the main challenges I see will be 
ensuring that the Afghans have the right leaders in place and that we 
have the right advisors with the right skillsets in place. Another 
challenge I foresee is ensuring the ANSF has the financial resources 
needed to sustain a force structure that is adequate to maintain the 
security gains it has made over the past year while continuing to 
develop their ability to improve their functional skills, such as in 
the areas of resource management, contracting, and logistics.
    Question. If confirmed, what recommendations, if any, would you 
make for addressing those challenges?
    Answer. If confirmed, I would work closely with our Afghan and 
coalition partners to ensure we are working toward the same objectives. 
The key will be to ensure the focus is on building Afghan capacity--not 
doing tasks for them. If confirmed, I would reinforce this focus and 
ensure DOD contributions are aligned with this approach.
    Question. What do you see as the main challenges to sustaining the 
ANSF beyond 2014, and if confirmed, what recommendations, if any, would 
you make for addressing these challenges?
    Answer. The ANSF is leading nearly all security missions in 
Afghanistan. I understand the main challenges to sustaining the ANSF 
beyond 2014 are ensuring that those forces have the training and 
equipment necessary to plan for and carry out their missions. This 
entails financial and personnel support for the NATO-led TAA mission at 
the ministerial and institutional levels to enable the planning, 
contracting, and logistics functions needed to sustain the ANSF forces. 
It also means engaging regularly with the U.S. civilian leadership to 
gauge progress in the Afghan missions.
    Question. Do you agree that any future reductions from the current 
ANSF troop level should be based on the security conditions in 
Afghanistan at the time the reductions would occur?
    Answer. If confirmed, I would participate in what I understand to 
be a biannual DOD review of the appropriate size of the ANSF, which 
considers operational and security issues, among other factors.
                    u.s. relationship with pakistan
    Question. What is your assessment of the current relationship 
between the United States and Pakistan?
    Answer. The bilateral relationship with Pakistan continues to 
improve through cooperation to defeat al Qaeda, promote peace and 
reconciliation in Afghanistan, and support Pakistan's fight against 
militant and terrorist networks. There is still room for progress, 
however. If confirmed, I would focus on strengthening areas of common 
interest and continue engagement where we disagree, especially to spur 
greater action against the Haqqani Terrorist Network and other 
terrorist groups that operate on Pakistani soil.
    Question. Do you see opportunities for expanded U.S.-Pakistan 
cooperation on security issues? If so, how would you prioritize these 
areas of cooperation?
    Answer. I believe we should continue to focus our defense 
relationship with Pakistan on areas of mutual interest; specifically, 
the fight against al Qaeda and other terrorist networks. This will 
involve supporting Pakistan's military efforts to counter the threat of 
militant and insurgent groups along the border with Afghanistan.
    Question. What is your assessment of Pakistan's efforts to combat 
the threat of international terrorism?
    Answer. Pakistan plays a major role in the fight against terrorism, 
as demonstrated by the large number of forces Pakistan has deployed in 
counterinsurgency operations. Pakistan also has suffered significant 
military and civilian casualties combating terrorism in their country, 
which underscores the breadth of Pakistan's commitment to the fight 
against terrorism.
    Question. What conditions, if any, should the United States place 
on its security assistance to Pakistan?
    Answer. If confirmed, I would work to assess the level of our 
assistance, the return on that investment, and whether there is value 
in attaching conditions.
    Question. What impact do you believe the end of coalition combat 
operations in Afghanistan will have on: (1) U.S.-Pakistan relations 
after 2014; and (2) U.S. strategic interests in the South Asia region?
    Answer. Militants and terrorist groups may attempt to exploit 
perceived security gaps as the Afghan National Security Forces (ANSF) 
play an increased role in maintaining security after International 
Security Assistance Force (ISAF) combat operations end. Despite the 
drawdown, the United States will continue to have a strategic interest 
in promoting stability and countering the threat of terrorist groups in 
South Asia. As the coalition footprint decreases, the importance of 
cooperating with Pakistan and other partners to promote our strategic 
interests in the region will increase.
                          the haqqani network
    Question. The Haqqani Network, which has been linked to a number of 
deadly attacks on Afghan, U.S., and other coalition forces in 
Afghanistan, operates from safe havens in Pakistan.
    In your view, should additional steps be taken to track and counter 
the illicit financial activities of the Haqqani Network, and if so, 
what role--if any--should DOD play?
    Answer. The Haqqani Network continues to pose a threat to U.S., 
coalition, and Afghan personnel, threaten regional security, and 
undermine Pakistan's stability. I understand that DOD and the broader 
U.S. Government are taking steps to counter this network. The 
Department of State's designation of the group as a global terrorist 
network and the Department of Treasury's move on February 6, 2014, to 
freeze the assets of three suspected militants linked to the network 
are steps in the right direction. If confirmed, I would support DOD and 
other agencies' efforts to counter the Haqqani Network.
                                  iraq
    Question. What in your view are the key U.S. strategic interests 
with regard to Iraq?
    Answer. I believe we have a key interest in making sure Iraq 
remains stable and secure. If confirmed, I would work to deepen the 
strategic partnership to make sure we continue collaboration on 
security challenges and work to deepen Iraq's military capabilities to 
repel the Islamic State of Iraq and the Levant (ISIL) and further 
integrate Iraq with regional partners.
    Question. What in your view are the major areas, if any, for 
security cooperation between the United States and Iraq?
    Answer. I believe we share many security interests with Iraq. We 
have cooperated and need to continue to cooperate in areas such as 
countering threats from Iran and terrorist organizations, including 
ISIL. We also have similar interests in making sure the region is 
peaceful and secure, including stemming instability emanating from the 
violence in Syria.
    Question. In what areas, if any, do you see U.S. and Iraqi security 
interests diverging?
    Answer. I don't see the United States and Iraq having divergent 
security interests. Both the United States and Iraq are working to 
ensure that Iraq remains stable, sovereign, and secure; is able to 
protect its borders from external aggression; and develops capabilities 
to fight terrorism and extremism inside its borders.
    Question. What do you see as the greatest challenges for the U.S.-
Iraq security relationship over the coming years?
    Answer. Despite numerous security problems in the region, if I am 
confirmed, I would work to help Iraq integrate into the region, ensure 
it has the resources it requires to counter violent extremism, and move 
our relationship with Iraq to a more traditional security partnership 
like ones we have with other global and regional allies and partners.
    Question. In your view, what steps, if any, should the United 
States take to engage with Iraq to promote greater security and 
stability across the Middle East region?
    Answer. I believe by maintaining and increasing robust foreign 
military sales, information sharing, and additional training and 
exercises, the United States will help Iraq remain stable and secure 
and promote broader stability across the region.
    Question. Iraq faces a resurgent violent extremist threat that 
seeks to exploit popular discontentment with the current Maliki 
Government, particularly within Sunni communities in western Iraq.
    What role, if any, should the United States play in assisting the 
Government of Iraq in confronting the threat of violent extremism?
    Answer. Despite the many challenges the Iraqis are facing, they are 
demonstrating to us that they are in the lead for their security, but 
are also asking the United States for help in the form of training and 
expedited weapons deliveries. I believe that with these tools, coupled 
with information sharing and non-operational training for the Iraqi 
Ministry of Defense and Ministry of Interior Counter Terrorism 
Services, we can assist the Iraqis in deepening their capabilities and 
dealing with violent extremists across Iraq.
    Question. In your view, what conditions, if any, should the United 
States place on the provision of equipment or assistance to the 
Government of Iraq in its fight against violent extremism?
    Answer. I believe that we should follow the end-use monitoring 
protocols that are already in place for all countries that we sell 
weapons to, including Iraq. The United States has made clear to Iraq 
that U.S. assistance is dependent on the Iraqis adhering to proper use 
of U.S.-origin systems. If confirmed, I would ensure that appropriate 
end-use monitoring is part of the discussion on negotiations for U.S. 
security assistance.
    Question. What steps can be taken to ensure that the Maliki 
Government uses any equipment, training or advice provided by the 
United States to fight extremists and not to suppress the political 
opposition from the Sunni minority in Anbar?
    Answer. In addition to the end-use monitoring protocols, I believe 
that deep and sustained U.S. diplomatic engagement to encourage the 
Government of Iraq to integrate all Iraqi citizens more fully into the 
political process offers the only way to achieve a lasting and durable 
peace and stability. We have seen vigorous engagement from officials 
across the U.S. Government as the security situation in Iraq has 
worsened and, if confirmed, on behalf of the Department I would 
continue to communicate the message that Iraq will be secure and free 
from extremists when all the people of Iraq are given a voice.
    Question. The death toll in Iraq has risen to levels not seen since 
2007-2008. The deteriorating security conditions in Iraq have been 
blamed on the growth of extremists in Syria and on Prime Minister 
Maliki's inability or unwillingness to address Sunni concerns.
    What is your view on the cause of the increased violence?
    Answer. The spillover of instability from Syria has clearly 
affected Iraq's security and aggravated Iraqi sectarian tensions. The 
Government of Iraq has taken notable steps to address these twin 
challenges. First, Iraqi Security Forces have deployed to western Iraq 
and are working with local governmental and tribal authorities to 
dislodge and expel terrorist elements that have taken refuge in the 
undergoverned spaces of Anbar. Second, the Iraqi Government announced 
plans to better integrate Sunni tribal forces more effectively into the 
national military and has publicly affirmed its intent to proceed with 
national elections in April despite the violence.
                                  iran
    Question. What is your assessment of the military and political 
threat posed by Iran?
    Answer. In my view, some of the policies and activities of the 
Islamic Republic of Iran constitute a significant and direct threat to 
our regional allies and partners, to some of our core interests in the 
region, and to broader international norms. This is most evident in 
Iran's pursuit of capabilities that, if left uncontested, would enable 
it to build missile-deliverable nuclear weapons. Iran also has the 
largest inventory of ballistic missiles in the region, and some of 
these missiles are inherently capable of delivering weapons of mass 
destruction. Last, Iran is the most active state-sponsor of terrorism 
in the world.
    Question. What is your assessment of U.S. policy with respect to 
Iran?
    Answer. I believe that the comprehensive approach of tough-minded 
diplomacy and unrelenting pressure has sharpened considerably the 
strategic choices for Iran. This policy has mobilized and unified the 
international community against the Iranian regime, resulting in Iran's 
unprecedented regional and global isolation. It has inflicted a heavy 
economic toll on Iran through a comprehensive set of smart and robust 
sanctions. It has sent a powerful message that unless Iran changes 
course, all options are on the table. Ultimately, the U.S. policy 
forced Iran to the negotiating table and to agree to the Joint Plan of 
Action. I believe that sustained application of our policy gives us the 
best chance of reaching a comprehensive nuclear deal with Iran, while 
holding Iran accountable for a range of destabilizing activities in the 
region and its dismal human rights record.
    Question. In your opinion, what impact, if any, do ongoing P5+1 
negotiations with Iran on Iran's nuclear program have on our ability to 
counter Iranian ambitions in Syria and Iran's support of international 
terrorism?
    Answer. In my opinion, the ongoing P5+1 negotiations on Iran's 
nuclear program do not limit our ability or weaken our resolve to 
counter Iranian ambitions in Syria and Iran's support of international 
terrorism. I believe that we should not and will not relax our efforts 
to hold Iran accountable for its support of terrorism, interference 
across the region, and human rights violations.
    Question. In your view, what are the risks associated with reducing 
U.S. presence in the Middle East with respect to the threat posed by 
Iran?
    Answer. I believe that a substantial reduction of our military 
presence in the Middle East at this time could have a significant, 
adverse impact on the effectiveness of our policy vis-a-vis Iran and 
our credibility with our partners in the region. Therefore, if 
confirmed, I would support the Department's position, as stated by 
Secretary Hagel in Manama last December, that DOD will continue to 
maintain a strong military posture in the Gulf region.
    Question. In your view, what role should DOD play in countering 
Iran's support of international terrorism?
    Answer. In my view, the Department has an important role to play in 
supporting broader U.S. Government efforts to counter Iran's support 
for international terrorism. If confirmed, I would work with 
interagency and international partners to continue holding Iran 
accountable for a range of destabilizing activities in the region and 
elsewhere as necessary.
    Question. In your view, is there a trust deficit with Saudi Arabia 
and our other Gulf partners based in part on negotiations with Iran?
    Answer. I believe that the United States and our partners in the 
region share the same assessment of the threat and policy objective 
vis-a-vis Iran's nuclear pursuits. Although there may be occasional 
tactical differences, our extensive bilateral relations and especially 
our strong defense relationships serve to reassure our partners of our 
commitment to regional security and to building their capacity to deal 
with common threats, including those posed by Iran. This includes not 
just a strong U.S. military presence, which itself is clear evidence of 
continued U.S. commitment, but a robust schedule of combined exercises, 
routine key leader engagement, and a significant foreign military sales 
program. If confirmed, I would work to maintain and build on those 
strong relationships.
                                 israel
    Question. With regard to our relationship with Israel, President 
Obama has stated: ``Our military and intelligence cooperation has never 
been closer. Our joint exercises and training have never been more 
robust. Despite a tough budget environment, our security assistance has 
increased every year. We are investing in new capabilities. We're 
providing Israel with more advanced technology--the type of products 
and systems that only go to our closest friends and allies. Make no 
mistake: we will do what it takes to preserve Israel's Qualitative 
Military Edge--because Israel must always have the ability to defend 
itself, by itself, against any threat.''
    Do you agree with President Obama's position and views with regard 
to the U.S. security relationship with Israel?
    Answer. Yes, I agree with the President's views, which Secretary 
Hagel has reaffirmed on several occasions. Under the leadership of 
Secretary Hagel, the Department has worked diligently to strengthen the 
U.S.-Israeli relationship, which includes the largest amount of Foreign 
Military Financing (FMF) in history and the approval to release 
advanced military capabilities, including the F-35 and the V-22 
aircraft, to Israel. If confirmed, I would work to continue DOD's 
substantial cooperation with Israel and maintain the strength of our 
security relationship.
           post-arab uprising military-to-military engagement
    Question. The past few years have brought great change to the 
Middle East and North Africa. These changes may require adjustments to 
our military-to-military engagement efforts throughout the region.
    What is your understanding of U.S. military-to-military engagement 
in the MiddleEast and North Africa (e.g. Yemen, Tunisia, Egypt, and 
other countries in the region), and what changes--if any--would you 
advocate for in light of the Arab Uprising?
    Answer. DOD's military-to-military and defense civilian relations 
with our partners in the Middle East and North Africa constitute a 
variety of tailored programs and efforts. Our military engagement 
includes working with key partners' defense ministries and militaries, 
having a forward presence to enable operations and deter threats, 
building partner capacity to meet common challenges, and being prepared 
for future contingencies. These programs are matched to partners' 
perspectives, capabilities, and needs, and play a critical role in 
advancing U.S. strategic interests, which include: securing and 
protecting Israel, preventing Iran from acquiring a nuclear weapon, 
defeating extremists, countering terrorist organizations, ensuring the 
free flow of commerce, and supporting operations in Afghanistan.
    During this time of continuing change and uncertainty in the 
region, it is imperative that the Department sustains and improves 
military-to-military and defense civilian relations, while continuing 
to evaluate and recalibrate the nature and substance of each of our 
relationships to ensure they are consistent with U.S. values and 
advance U.S. vital national interests.
                                 egypt
    Question. What is your assessment of the security situation in 
Egypt?
    Answer. I am troubled by the government's crackdown on the Muslim 
Brotherhood, opposition groups, and journalists. I know that the 
Department has repeatedly voiced concerns about the crackdown to the 
Government of Egypt and urged that the interim government protect the 
rights provided in the new constitution.
    I am also concerned with the recent increase in violence 
perpetrated by Sinai-based terrorist organizations. I understand that 
the Department has continued to provide maintenance support for 
platforms that support CT operations, and that the Secretary has 
personally offered our assistance. If confirmed, I would continue the 
Department's work to support Egypt's efforts to combat terrorist 
threats.
    Question. What is your assessment of the U.S.-Egypt security 
relationship?
    Answer. The U.S.-Egypt relationship is one of our most significant 
and enduring security relationships in the Middle East. Egypt is an 
important regional actor, and for more than 30 years our relationship 
has served to further our countries' joint security interests. Our 
security relationship with Egypt helps us facilitate expedited U.S. 
military access to the Suez Canal and critical overflight privileges, 
ensure the security of Israel, cooperate on counterterrorism efforts, 
and maintain the security of our embassy and consulate. Supporting 
Egypt's transition while encouraging a non-violent, transparent, and 
inclusive process ensures our security relationship is maintained and 
our interests protected.
    Question. What is your assessment of the role Egypt plays with 
respect to regional stability?
    Answer. Egypt remains an important partner for regional security. 
Egypt's upholding of the 1979 Peace Treaty with Israel, the security 
support that it provides to military and commercial ships transiting 
the Suez Canal, and its efforts to combat terrorist elements in the 
Sinai all advance critical regional security objectives. In addition, 
Egypt's work to prevent illicit trafficking across its shared borders 
with Libya, Sudan, and Israel demonstrate its commitment to promoting 
stability in the region.
    Question. In your view, should the U.S. Government continue to 
provide defense articles and services purchased by the Egyptian 
military using U.S. FMF funds?
    Answer. Our FMF funds have been an important part of our overall 
relationship with Egypt for more than 30 years. I understand the 
Department's position to be that we want to maintain our security 
assistance relationship with Egypt, and if confirmed I would continue 
the Department's efforts, working with other U.S. departments and 
agencies, to exercise the authorities granted in the fiscal year 2014 
omnibus appropriations act to continue providing assistance to Egypt.
    Question. If current Defense Minister Field Marshal el-Sisi were 
elected president of Egypt based on free and fair elections, what 
impact do you believe that might have on our military relationship with 
Egypt?
    Answer. Egypt is an important partner of the United States and is 
critical to stability and security in the region, but Egypt's path 
forward is for the Egyptians to decide. The military and security 
aspect of the U.S.-Egypt relationship remains important to the United 
States and for our interests in the region, but the overall 
relationship is far broader than military assistance.
    Regardless of who Egypt's president is, our shared interests in 
upholding the Camp David Peace Accords, counterterrorism and Sinai 
security, maritime security, and border security will remain, and I 
understand that the Department will continue to work with Egypt to 
advance those interests.
                                 syria
    Question. The civil war in Syria continues and President Assad's 
commitment to continuing his regime's ongoing operations appear 
unwavering despite international condemnation. To date, the United 
States has limited its support to opposition forces to non-lethal 
assistance to forces on the ground, as well as technical assistance to 
elements of the opposition working to build a cohesive political 
entity.
    In your view, what is the proper role on the U.S. military in this 
conflict?
    Answer. A political solution to the Syria conflict would be the 
best outcome. DOD continues to be involved in interagency discussions 
that explore potential military roles, to support the important U.S. 
national interest in stopping atrocities in Syria. The U.S. military 
stands ready to support these goals, as determined by the President.
    Question. In your view, should the United States provide support to 
opposition groups on the ground in Syria, including lethal support?
    Answer. Yes, the United States should provide assistance to the 
moderate Syrian opposition. In fact, in addition to diplomatic support, 
the U.S. Government is providing nonlethal support--nearly $260 
million--to the Syrian Opposition Coalition (SOC) and the Supreme 
Military Council (SMC).
    DOD also has been supporting the State Department in this endeavor. 
Since April 2013, DOD has delivered additional assistance directly to 
the SMC as well as the SOC in the form of meals ready-to-eat and 
medical supplies.
    The provision of lethal assistance by DOD to the opposition would 
be a serious undertaking and would require a change in U.S. policy. If 
confirmed, I look forward to working closely through the U.S. 
interagency process to address such difficult policy questions.
    Question. In your view, would the removal of the Assad regime be a 
strategic defeat of Iran in the region?
    Answer. I believe the removal of the Assad regime would be a 
setback for Iran's destabilizing efforts in the region. The extent of 
that setback, however, would depend on what follows the downfall of 
Assad's regime.
    As the President has said, there can only be a political resolution 
to the conflict in Syria. That is why the administration is focused on 
a negotiated transition that does not include Bashar al-Assad.
    Question. National Counterterrorism Center Director Matthew Olsen 
said ``As the conflict in Syria rages on, we are concerned about the 
flow of fighters to the country and the likelihood that they will pose 
a threat when they return from Syria to their home countries,'' and 
that dealing with this threat ``will be the primary focus of our 
counterterrorism efforts in 2014.''
    If confirmed, what recommendations, if any, would you have for a 
counterterrorism strategy to blunt the rising tide of extremists in 
Syria?
    Answer. Any counterterrorism strategy will need to involve active 
engagement with partner nations and allies, who have legitimate 
concerns about the growing extremist problem emanating from Syria. We 
must approach this issue regionally in order to combat these groups 
effectively, since this terrorist activity is not limited to Syria 
alone. Further, the Department must work closely with our interagency 
partners to develop options reflecting a whole-of-government approach 
to addressing the terrorist threat and disrupting terrorist efforts to 
attack the U.S. Homeland, our allies and partners, and our interests 
abroad.
    Question. After the United States threatened the use of military 
force in response to Syria's use of chemical weapons against Syrian 
civilians in August 2013, Syria agreed to an international plan to 
eliminate its chemical weapons program by the end of June 2014. 
Although Syria acceded to the Chemical Weapons Convention and has 
eliminated its capacity to mix and fill chemical agents and munitions, 
it has failed to meet recent deadlines to transport its chemical agents 
and precursors to Latakia for removal and destruction.
    Given Syria's apparent unwillingness to meet all its 
internationally mandated deadlines, what are your views on the 
prospects for eliminating Syria's chemical weapons program by June 30, 
2014?
    Answer. I understand that the international community is poised to 
complete destruction of Syria's chemical materials once Syria fulfills 
its obligations. The United States is engaging bilaterally and 
multilaterally with key international partners to increase pressure on 
the Syrian Government in order to achieve complete elimination of 
Syria's chemical weapons program.
    Question. What additional steps, if any, do you believe DOD could 
take as part of the international effort to ensure the successful 
elimination of Syria's chemical weapons program in 2014?
    Answer. I understand the Department is playing a critical role in 
the international effort. If confirmed, I would continue the robust 
coordination within DOD, other U.S. departments and agencies, and with 
international partners necessary to ensure successful completion of our 
mission.
                       gulf security cooperation
    Question. The administration has been working with Gulf Cooperation 
Council (GCC) governments to enhance regional cooperation and security 
against ballistic missile threats, particularly from Iran.
    What is your view of the potential for missile defense cooperation 
within the GCC to enhance regional security, and how do you see this 
potential cooperation fitting into the United States missile defense 
and security efforts in the Middle East?
    Answer. I understand that our efforts concerning missile defense 
cooperation with our Gulf partners are progressing. The plans that many 
GCC states have developed, including acquisition of advanced ballistic 
missile defense capabilities and participation in ballistic missile 
defense training and exercises, put us on a path to building stronger 
bilateral security partnerships, which could in turn provide a solid 
foundation for future progress in the multilateral arena.
    Question. What role do you see for the sale to the United Arab 
Emirates of Terminal High Altitude Area Defense (THAAD) and Patriot 
missile defense systems, and similar sales to other GCC partners, in 
regional security against Iranian missile threats?
    Answer. I understand that the United States is working with a 
number of GCC States regarding regional missile defense initiatives, 
including supporting their consideration of ballistic missile defense 
capabilities through the Foreign Military Sales program. As a result, 
many GCC partners are becoming increasingly interested, and active, in 
acquiring and fielding substantial ballistic missile defense 
capabilities. When complemented by the deployment of U.S. capabilities, 
these systems could make a significant contribution to deterrence of, 
and defense against, the Iranian ballistic missile threat.
    Question. To your knowledge, have there been any requests by the 
GCC to purchase military equipment or services as a bloc, as Secretary 
Hagel announced in December 2013?
    Answer. No, to my knowledge the GCC has not yet initiated any 
Foreign Military Sales requests following the recent Presidential 
Determination.
    Question. Given the relative wealth of GCC states and their ability 
to buy complete systems independently (e.g., UAE's purchase of THAAD), 
what dynamics do you believe could lead to purchasing military 
capabilities as a GCC bloc?
    Answer. I believe that a GCC decision to purchase military 
capabilities as a bloc would largely be a function of a shared view 
that the deployment of a collective capability would enhance the 
national, sovereign defenses of member states.
    Question. Do you believe that, after the rotation of an aircraft 
carrier presence from the Gulf, the U.S. military should take any steps 
to reassure our GCC partners of U.S. willingness and capability to 
defend against the threat of Iranian aggression?
    Answer. The United States has deep and enduring interests in the 
Middle East and maintains a robust regional military posture able to 
deter aggression and respond to potential security contingencies. This 
is a message that Secretary Hagel firmly delivered in his public 
remarks during the Manama Dialogue in Bahrain in December, and a theme 
he has repeatedly conveyed in consultations with our GCC partners.
            regional ballistic missile threats and response
    Question. Iran and North Korea each have hundreds of short- and 
medium-range ballistic missiles today that are capable of reaching 
forward-deployed U.S. forces, allies, and other friendly nations in the 
U.S. European Command, U.S. Central Command (CENTCOM), and U.S. Pacific 
Command areas of responsibility (AORs). The Ballistic Missile Defense 
Review Report of February 2010 stated that the United States intends to 
pursue regionally tailored phased adaptive approaches to ballistic 
missile defense against such missile threats in various regions.
    Do you believe that such regionally tailored phased adaptive 
approaches will provide our regional combatant commanders with the 
missile defense capabilities needed to defend our forward deployed 
forces and our allies and partners in the region?
    Answer. Yes. I believe our tailored missile defense approaches will 
contribute to the defense of our forward-deployed forces and our allies 
and partners. If confirmed, I would work to ensure that U.S. missile 
defenses are tailored to address the threat to each region using the 
capabilities that are most suited for deployment.
    Question. What role do you see for the Aegis Ballistic Missile 
Defense system with Standard Missile-3 interceptors in U.S. missile 
defense capabilities in these AORs?
    Answer. Ships equipped with the Aegis ballistic missile defense 
weapons system are a good example of the mobile systems that allow for 
the tailored defense of key regions and the capacity to surge missile 
defenses to a particular region in a crisis.
    Question. In addition to U.S. missile defense capabilities in these 
AORs, what role do you see for other nations to contribute to regional 
missile defense capabilities?
    Answer. The missile defense contributions from our allies and 
partners help to strengthen regional deterrence and defense by 
increasing defense cooperation ties with the United States while making 
themselves and our forward deployed forces less vulnerable to coercion 
and ballistic missile attack. If confirmed, I would encourage even 
closer cooperation with allies and partners in this area.
                                 libya
    Question. What role do you envision the United States playing in 
helping Libya build capable security institutions?
    Answer. Libya remains a country in a difficult democratic 
transition. I understand that building Libyan security capacity is a 
priority for DOD, and I would support this effort if confirmed. In 
response to a request from Libyan Prime Minister Zeidan, the United 
States will train a 5,000-8,000-member general purpose force (GPF), 
which will be a foundational element of Libya's future security. The 
United Kingdom, Italy, and Turkey are also committed to training Libyan 
GPF personnel, and we are working with them closely to ensure our 
efforts are coordinated. To underwrite the development of, and to 
sustain, this force, DOD also contributes to international efforts to 
provide defense advisor and defense institution reform programs to help 
the Libyan Ministry of Defense develop the capabilities necessary to 
manage the country's security forces.
    Question. What is your assessment of the risks associated with the 
paramilitary forces that continue to have control of large swaths of 
Libya?
    Answer. It is my assessment that paramilitary forces disrupt 
Libya's democratic transition and undermine the basic peace and 
stability of the state.
    Question. In your view, what role, if any, should DOD play in 
assisting the Libyans with addressing the threat to stability posed by 
paramilitary forces?
    Answer. I understand that the United States is committed to working 
with the Libyan Government as it addresses the risks paramilitary 
forces pose to Libyan stability, and DOD plays an important role in 
those efforts. In addition to the GPF program, I understand DOD 
provides training and equipment to increase Libya's border security and 
counterterrorism capacity. The Department also contributed to weapons 
abatement efforts and defense institution reform programs.
    Question. What do you view as the most significant challenges to 
the Libyan Government in building capable and sustainable security 
institutions?
    Answer. Libya was left without a deep bench of experienced 
technocrats and civil servants, and its ability to administer governing 
institutions is nascent. This poses challenges to Libya's capacity to 
absorb and coordinate international assistance efforts. For this 
reason, the administration is focused on ensuring that the United 
States and our international partners coordinate among ourselves to 
provide Libya with the assistance it needs.
    Question. In what ways can the United States be most effective in 
assisting the Libyan Government in building capable and sustainable 
security institutions?
    Answer. To complement our GPF, border-security, and 
counterterrorism training, DOD seeks to assist the Libyan Ministry of 
Defense with institution-building programs to facilitate the 
recruiting, retention, and integration of trained personnel into the 
Libyan military. In my view, a capable Libyan Ministry of Defense is 
essential to the consolidation of Libya's security capacity.
    Question. What security assistance programs do you consider most 
vital to providing security assistance to Libya and to help Libya build 
its security capacity?
    Answer. Once implemented, I understand that the Libyan-funded 
General Purpose Force training will be our largest effort to help build 
Libya's security capacity. With Congress's support, we funded programs 
to develop counterterrorism forces as well as a border security company 
in Libya. I understand that DOD's defense advisor and defense 
institution reform programs also benefit Libyan Ministry of Defense 
development.
    Question. In your opinion, how important is the Global Security 
Contingency Fund to U.S. security assistance efforts in Libya?
    Answer. I understand that the United States has the strategic goals 
of supporting Libyan Government efforts to develop a basic capability 
to secure its own borders and maintain stability in the face of 
internal and regional challenges, and to create the space for a 
peaceful, successful democratic transition. By developing Libyan 
special operations and border security capacity, the Global Security 
Contingency Fund could play a critical role in advancing these 
objectives.
                    africa-related security matters
    Question. The new DOD strategic guidance, ``Sustaining U.S. Global 
Leadership: Priorities for 21st Century Defense,'' announced by 
President Obama on January 5, 2012, sets out the defense priorities for 
the 21st century and the key military missions for which DOD will 
prepare. The primary emphasis of the strategy relates to the Middle 
East and Asia. The strategy makes little reference to Africa and its 
myriad security challenges.
    In light of the emphasis on areas outside of the African continent, 
if confirmed, how would you draw attention to the myriad security 
challenges confronting African nations?
    Answer. We must protect U.S. lives and interests from al Qaeda and 
its affiliates and those who intend to do us harm. Building the 
capability of African security forces, defense institutions, and 
regional organizations to combat transnational threats will continue to 
be a cornerstone of our defense efforts in Africa. As part of these 
efforts, if confirmed, I would support ongoing programs and policies 
that instill in African militaries a commitment to operate under 
civilian authority, respect the rule of law, abide international human 
rights norms, and support international peacekeeping operations. Over 
the long run, it will be Africans who will best be able to address 
African security challenges, and DOD will be positioned to advance U.S. 
security interests most effectively through focused security engagement 
with our African partners.
    Question. In the last few years, there has been a growth of 
terrorist networks, capabilities, and operations in North and East 
Africa, including groups that reportedly intend to target Western 
nations, including the United States. Some have characterized the U.S. 
counterterrorism effort in North and East Africa as an ``economy of 
force'' effort.
    Do you agree with that characterization of the U.S. 
counterterrorism effort in North and East Africa?
    Answer. The growing terrorist threats in Northwest and East Africa 
present a complex security challenge to U.S. security interests. The 
vast under-governed areas in North and East Africa have contributed to 
a permissive environment for extremist networks. Working closely with 
international and regional partners, I understand that DOD focuses its 
efforts on disrupting and dismantling al Qaeda, its affiliates, and 
adherents. U.S. support of France's operations in Mali and support of 
United Nations peacekeeping forces have resulted in significant 
progress in addressing the terrorist threat in the Sahel. Our support 
to the African Union Mission in Somalia (AMISOM) has been critical to 
reducing al-Shabaab's freedom of movement in south and central Somalia.
    Question. In your view, should these U.S. counterterrorism efforts 
be expanded, contracted, or remain the same?
    Answer. In my view, U.S. counterterrorism efforts should align with 
the threat to the United States, our allies and partners, and our 
interests. If confirmed, I would support counterterrorism efforts to 
disrupt and over time defeat violent extremist organizations that pose 
a direct threat to U.S. and allied interests, and threaten regional 
security.
      u.s. military operations against the lord's resistance army
    Question. Despite pressure by the Ugandan People's Defense Forces 
(UPDF) and efforts by U.S. Special Operations personnel to support 
them, elements of the Lord's Resistance Army (LRA)--including Joseph 
Kony--continue to operate and commit atrocities against civilian 
populations. Some observers have identified operational concerns with 
this mission, including that: (1) supported forces are trying to find 
an elusive foe in an area roughly the size of California, much of which 
is covered in thick jungle; (2) technical support to U.S. forces and 
their UPDF partners from the Defense and Intelligence Community 
continues to be inadequate; (3) limitations continue to be placed on 
the ability of U.S. Special Operations personnel to accompany UPDF 
partners outside of main basing locations, thereby limiting the level 
of direct support they can provide; and (4) logistics and operational 
enablers for U.S. forces.
    In your view, what is the objective of Operation Observant Compass 
(OOC)?
    Answer. The mission of U.S. OOC forces is to enhance African 
capacity to end the threat posed by the Lord's Resistance Army (LRA). 
It is my understanding that U.S. military advisors are working with 
these forces to strengthen information-sharing and synchronization, 
enhance their operational planning, and increase the effectiveness of 
African security forces. If confirmed, I would support the current U.S. 
policy of pursuing a comprehensive, multi-faceted strategy to help the 
governments and people of this region in their efforts to end the 
threat posed by the LRA and to address the impacts of the LRA's 
atrocities.
    Question. In your view, what is the appropriate level of priority 
to be accorded to efforts to counter the Lord's Resistance Army?
    Answer. OOC balances the operational needs of our African partners 
with our desire to ensure those partners remain in the lead as they 
confront their security challenges, and contributes to a whole-of-
government effort to support local resistance to and eventual defeat of 
the LRA. I understand that this approach has yielded dividends. Since 
2012, there have been more than 100 defections from the LRA, including 
LRA fighters, with many citing U.S.-supported defections messaging as 
influential in their decisions to defect. In December 2013, 19 
individuals defected from the LRA, the largest LRA defection since 
2008.
    Question. If confirmed, will you work to review the four concerns 
outlined above and report back to the committee?
    Answer. Yes.
                  transatlantic relationship and nato
    Question. In your view, how important to U.S. national security 
interests is the NATO and the U.S. transatlantic relationship with our 
Alliance partners?
    Answer. Europe is and remains the United States' partner of first 
resort. The transatlantic community has never been more closely aligned 
in confronting the challenges of a complex, dangerous, and fast-
changing world. The breadth and depth of our cooperation are 
remarkable. For example, in Libya, NATO allies came together with Arab 
and other partners to prevent a catastrophe and to support the Libyan 
people. In Afghanistan, with nearly 40,000 allied and partner personnel 
alongside our own, we built and sustained NATO's largest-ever overseas 
deployment. As President Obama has said, ``Europe remains the 
cornerstone of our engagement with the world,'' and NATO is ``the most 
capable Alliance in history''.
    Question. If the United States were to have to take military action 
against Iran in the future, do you believe that could occur without 
strategic basing in Europe, and if so how difficult would that be?
    Answer. I cannot address the basing requirements for specific 
operations in an unclassified setting. I understand that, 
traditionally, U.S. basing in or transit through Europe has been 
essential to a broad range of contingency plans and global operations. 
For example, European bases provided critical support to Operation 
Desert Shield in Iraq and Operation Allied Force in Kosovo in the 
1990s, and more recently to Operation Enduring Freedom in Afghanistan 
and Operation Unified Protector in Libya.
    Question. Do you believe that any moderate to major military 
operation (e.g. Operation Odyssey Dawn, Operation Unified Protector) 
that the United States might undertake in Africa or the Middle East is 
likely to involve U.S. forces from Europe and/or with Europe?
    Answer. Yes, I expect that U.S. forces and facilities in Europe 
would likely be involved in any moderate or major military operation 
the United States might undertake in Africa or the Middle East. 
Additionally, as recent and ongoing operations in the Middle East and 
Africa show, I expect that a moderate to major military operation in 
Africa or the Middle East would include European allies and partners.
    Question. What changes, if any, would you recommend to strengthen 
that transatlantic relationship, if confirmed?
    Answer. The strength of the transatlantic relationship has always 
been based on shared values of democracy, individual liberty, and rule 
of law enshrined in the North Atlantic Treaty. However, shared security 
interests and U.S. leadership are the glue that binds the Alliance. 
Making the transatlantic relationship stronger requires sustained U.S. 
support and leadership of the Alliance, a re-dedication on the part of 
the next generation of leaders on both sides of the Atlantic to the 
founding principles and values of the Alliance, and sharing the 
responsibility among allies for supporting the Alliance so that future 
leaders continue to believe that investments in the Alliance are in 
their national interest. If confirmed, I would work to ensure U.S. 
support for these principles.
    Question. As the United States pursues a pivot toward the Asia-
Pacific region, do you believe there should be a reduction in the U.S. 
security commitment to Europe?
    Answer. No. Even as we add focus on the Asia-Pacific, we must 
sustain our commitments to Europe. Europe is home to many of our most 
committed and capable allies and partners, many of whom who have 
sacrificed--and continue to sacrifice--alongside U.S. forces in 
Afghanistan, Iraq, and elsewhere. In fact, economic austerity, the 
transnational nature of today's threats, and the rise of other centers 
of power in a multipolar world, make a strong transatlantic alliance 
all the more important to retaining our influence and defending our 
common interests.
    Question. As the International Security Assistance Force mission in 
Afghanistan nears completion, do you foresee a need for NATO to re-
evaluate its purpose, missions and objectives going forward?
    Answer. Since the end of the Cold War, NATO has continually re-
evaluated its purpose, missions, and objectives. The end of the 
International Security Assistance Force mission in Afghanistan should 
be no different. The purpose of the Alliance as stated in the 2010 
Strategic Concept is still valid, but the end of NATO combat operations 
in Afghanistan at the end of this year provides an opportunity for the 
Alliance to reassess the balance between various missions and to review 
objectives. I understand that NATO's transition in Afghanistan will 
provide an opportunity to reinvest in areas that received less focus 
during the ISAF operation, and allies will face the challenge of 
maintaining the level of interoperability that we achieved after years 
of operating together in Afghanistan.
    Question. Do you believe NATO should reduce the number of U.S. non-
strategic nuclear weapons based in Europe at this time? If so why and, 
if not, what conditions could lead to such a reduction?
    Answer. The President stated in Berlin last June that we will work 
with our NATO allies to seek bold reductions in U.S. and Russian 
tactical weapons in Europe. The 2012 Deterrence and Defense Posture 
Review (DDPR) reflects the consensus position of NATO members, and it 
commits NATO to remaining a nuclear Alliance as long as nuclear weapons 
exist. The DDPR concluded that the ``Alliance's nuclear force posture 
currently meets the criteria for an effective deterrence and defence 
posture.'' The DDPR also notes, however, that, NATO is prepared to 
consider further reducing its requirement for non-strategic nuclear 
weapons assigned to the Alliance in the context of reciprocal steps by 
Russia, taking into account the greater Russian stockpiles of non-
strategic nuclear weapons stationed in the Euro-Atlantic area.
    Question. What is your assessment of the participation of NATO 
partners other than the U.S. in the European Phased Adaptive Approach 
(EPAA) program and other NATO missile defense efforts?
    Answer. It is my understanding that our allies contribute to NATO 
missile defense through common funding to the command and control 
network, hosting U.S. missile defense assets in the region, and 
contributing their own missile defense capabilities. If confirmed, I 
would work to ensure robust Allied participation in NATO missile 
defense.
    Question. If confirmed, what recommendations, if any, would you 
have for maintaining the unprecedented level of interoperability 
between the U.S. and NATO partners after the draw down in Afghanistan?
    Answer. NATO political leaders recognize that as ISAF ends, 
Alliance forces will need to maintain the interoperability we have 
developed during the last 20 years of continuous deployments. I 
understand that those leaders tasked NATO's military planners to work 
on several training-related Summit deliverables, including an updated 
Education, Training, Exercise, and Evaluation Policy; a new NATO 
Training Concept looking at the 2015 to 2020 timeframe; and a new Major 
Exercise Program for 2016 and onwards. If confirmed, I would recommend 
following through on the work already undertaken by our NATO military 
planners.
    Question. Two Brigade Combat Teams have been inactivated in Europe. 
What is your understanding of the status of a rotational brigade 
designed to provide regular training with NATO forces to help maintain 
engagement and interoperability?
    Answer. I understand that DOD will continue to allocate a U.S. 
Brigade Combat Team to the Response Forces Pool of the NATO Response 
Force (NRF). We have also requested funding to support the deployment 
of a U.S.-based battalion to Europe twice per year for up to 2 months 
at a time, so that our U.S.-based Army units can exercise with the NRF 
and train with allies and partners in the same way that units stationed 
in Europe do. The U.S. European Command has already developed a plan to 
integrate the rotational battalion into several U.S. Army Europe-led 
multinational exercises, as well as several NATO-led exercises.
                                 russia
    Question. What in your view are the major security issues in the 
U.S.-Russian relationship?
    Answer. There are a number of areas where the United States and 
Russia can and do cooperate in order to build common ground and 
increase shared security. These include, but are not limited to, 
strategic arms reductions, counterterrorism and counter-extremism, 
Afghanistan, preventing proliferation of dangerous technologies, 
military relations, and dissuading Iran from becoming a nuclear-armed 
nation.
    In the last 4 years, we have achieved significant results by 
cooperating in areas of mutual interest, and produced real benefits for 
the American and Russian people. We negotiated, ratified , and are 
successfully implementing the New Strategic Arms Reduction Treaty 
(START); supported the conclusion of Russia's WTO negotiations; adopted 
tough multilateral sanctions on Iran and North Korea to prevent them 
from pursuing nuclear weapons programs; and worked together on 
stabilizing Afghanistan.
    Right now we have differences on a number of important issues--
including Georgia's security and territorial integrity, NATO's role in 
European security, missile defense in Europe, and conventional arms 
control in Europe. If confirmed, I would continue to engage the Russian 
government to try to find common ground, and when appropriate, to speak 
out about our concerns. I would also continue to work with Russia in 
areas where our interests overlap because it is in the long-term 
strategic interests of the United States and our allies and partners to 
do so.
    Question. Where do you see U.S. and Russian security interests 
aligning and where are they diverging?
    Answer. Although points of friction exist in many areas of our 
relationship, the United States and Russia should be able to cooperate 
effectively in the many areas in which we share common interests, 
communicate effectively in areas where we have competing interests, and 
negotiate reasonably in areas where we have overlapping interests.
    Among the most important areas where the United States and Russia 
have common interests is in countering the proliferation of weapons of 
mass destruction, particularly nuclear weapons. We have had significant 
cooperation with Russia on Iran. The Russians supported U.N. Security 
Council Resolution 1929, which imposed international sanctions on 
Iran's ballistic missile and nuclear programs. Similarly, Russia is a 
key player in reversing North Korea's nuclear and missile programs, and 
shares common interests in this regard. As a third key example, Russia 
shares our concerns, and those of the international community, 
regarding what it views as the potential for regional instability 
should the conflict in Syria remain unresolved and should Syria retain 
its chemical weapons program. The United States and Russia have agreed 
on a framework to eliminate Syria's chemical weapons program. This 
framework represents an important step toward degrading the Assad 
regime's ability to use chemical weapons. Finally, the United States 
and Russia share strong interests in reducing the likelihood of nuclear 
war, as reflected in the New START treaty and in prior arms control 
treaties.
    Question. In your view what policy steps should DOD take to improve 
relations with Russia? For instance, would you support increased 
military to military relations and exchanges with Russia?
    Answer. DOD has been a proponent and a beneficiary of the ``reset'' 
with Russia.
    I understand that DOD is constantly looking for ways to improve 
military-to-military relations by ensuring that our cooperation with 
Russia serves U.S. and Russian interests and contributes to greater 
security in the Euro-Atlantic space. Over time, cooperation on a wide 
range of issues may help to build a foundation for more concrete and 
substantive cooperation with Russia.
    Question. Would you support any joint development or other programs 
with Russia?
    Answer. If confirmed, I would be interested in supporting joint 
programs that would benefit the United States. I understand that DOD 
recently proposed a project with Russia on Countering Improvised 
Explosive Devices (CIED) through the U.S.-Russia Defense Relations 
Working Group. If confirmed, I would support moving forward on CIED 
issues in both bilateral security cooperation and defense technology 
cooperation.
    Question. Would you support joint U.S.-Russian cooperation on 
missile defense as a way to send a signal to Iran against Iran's 
developing long-range missiles or having nuclear weapons?
    Answer. If confirmed, I would support U.S.-Russian cooperation on 
missile defense because it could improve the effectiveness of U.S. and 
NATO missile defenses, thereby improving our capability to protect the 
United States, our forces overseas, and our allies. Missile defense 
cooperation with Russia could strengthen capabilities across Europe to 
intercept Iranian ballistic missiles.
    Question. Do you support efforts mandated by the New START Treaty 
Resolution of Ratification to seek reductions in the stockpiles of 
Russian and U.S. tactical nuclear weapons?
    Answer. Yes.
    Question. If so, what steps would you recommend for pursuing such 
reductions, if confirmed?
    Answer. If confirmed, I would recommend that our focus for the next 
stage of arms control consist of bilateral negotiated efforts to 
increase transparency and pursue further reductions that could 
potentially include all nuclear weapons--deployed and non-deployed, 
strategic and non-strategic--while ensuring that we maintain our 
commitments to stability with other nuclear powers, deterrence of 
potential adversaries, and assurance of our allies and partners.
    Question. What role, if any, should DOD play in responding to 
Russian attempts to exert influence over other countries on its border, 
including Ukraine, Georgia, and the Baltic countries?
    Answer. I believe that stable democracies on Russia's borders 
contribute not only to Europe's security, but to Russia's as well. In 
that vein, if confirmed, I would stand by DOD's commitment to continue 
building partner capacity and establishing robust security cooperation 
programs with our partners throughout Europe and Eurasia.
    Question. In your view, does Russia want Iran to have a nuclear 
weapon?
    Answer. In my view, I do not believe Russia seeks a nuclear armed 
Iran. Russia is an active participant in the P5+1 dialogue. Russia also 
supported UNSCR 1929, which imposed international sanctions on Iran's 
ballistic missile and nuclear programs. I hope that we will continue to 
find ways to cooperate with Russia in dissuading Iran from a nuclear 
weapons path.
    Question. After the Sochi Olympics are over, do you expect any 
change in Russia's pursuit of its interests in the international 
environment?
    Answer. Russia has consistently pursued what it perceives as its 
national interests, and I believe that it will continue to do so after 
the Sochi Olympics.
    Question. In your view, what additional risk does the presence of 
Russian Iskander missiles in Kaliningrad pose to NATO allies and 
military facilities in Europe?
    Answer. President Putin recently dismissed reports that his country 
has deployed missiles in its Kaliningrad region. That said, any 
potential deployment of state-of-the-art missiles near the Alliance's 
eastern borders is destabilizing to the region, is cause for concern, 
and would underscore the need for regular communications between 
Russian and NATO military leaders.
                                 china
    Question. China's defense spending has had double-digit increases 
annually for about the past 20 years. While a certain amount of 
military growth is to be expected for a country experiencing the kind 
of economic growth that China has had over about that same period, the 
types of platforms and capabilities China is developing have been 
interpreted by some as designed to project power, limit access and 
freedom of movement by potential adversaries, and conduct military 
operations at increasing distances. Such developments, coupled with 
strident rhetoric and a lack of transparency, stoke growing concerns 
about China's intentions in the region.
    How would you characterize the current U.S. relationship with 
China?
    Answer. The U.S.-China relationship is characterized by elements of 
both cooperation and competition. In November 2013, National Security 
Advisor Ambassador Susan Rice stated that the United States seeks to 
manage inevitable competition while forging deeper cooperation on 
issues where our interests converge--in Asia and beyond. The United 
States continues to seek to manage those areas where we may have 
differences and pursue opportunities to engage where there is mutual 
benefit.
    Question. To what extent do you believe the policies and actions of 
the United States and other major regional and international actors 
will affect the direction in which China develops?
    Answer. The policies and actions of the United States and other 
actors can and do influence the direction of China's development. By 
that same token, U.S. policy and actions, or the policies and actions 
of any country or group of countries, cannot alone determine China's 
future. The choices of China's leaders play the central role in 
charting China's future. However, no country has done more to assist, 
facilitate, and encourage China's national development and integration 
into the international system than the United States. More 
fundamentally, the United States can also help to shape the environment 
in which China makes its strategic choices, and in so doing, encourage 
China to ``do the right thing''.
    Question. What do you believe are the objectives of China's steady 
increase in defense spending and its overall military modernization 
program?
    Answer. China is pursuing a long-term, comprehensive military 
modernization program designed to improve the capacity of its armed 
forces. Taiwan contingencies remain the principal focus of much of this 
modernization, which seeks to enable China to fight and win high-
intensity regional military operations of short duration. One can also 
see growing indications that China's expanding regional and global 
influence is prompting it to develop capabilities for missions that go 
beyond China's immediate territorial concerns.
    Question. How do you believe the United States should respond to 
this Chinese military growth and modernization?
    Answer. The United States has been and should remain the foremost 
military power in the Asia-Pacific region. The United States must 
continue to monitor developments in China's military modernization and 
continue encouraging China to be more transparent about its military 
and security affairs. This lack of transparency breeds suspicion and 
the potential for misperception of intentions. The U.S. response to 
China's military modernization should be flexible and supported by two 
efforts: first, the continued evolution of our force posture in the 
Asia-Pacific region and the maintenance of our global presence and 
access, including through the strengthening of our alliances and 
partnerships; and second, the transformation of our own capabilities in 
such areas as countering anti-access and area denial challenges.
    Question. What effect is China's military growth having on other 
countries in the region?
    Answer. China's rapid rise and the relative lack of transparency 
surrounding its intentions are increasingly creating uncertainty in the 
region. Other countries in the region are closely watching the growth 
of China's military, and how its military acts. Tensions between China 
and its neighbors in the East and South China Seas have increased, 
spurring regional actors to modernize their forces.
    Security concerns regarding Chinese military intentions have 
contributed to a greater focus on regional forums where issues may be 
addressed multilaterally and the need to adhere to international law 
and norms can be amplified. Such security concerns regarding Chinese 
military intentions have also led to stronger demand signals from 
regional countries and the United States as a security partner of 
choice.
    China's annual defense budget is growing faster than its economy--
with average annual increases in defense spending topping 10 percent 
over the past decade. In certain respects, China's growing military 
capabilities create opportunities to partner and cooperate where U.S. 
interests, regional states' interests, and China's interests converge.
    Question. What is your assessment of the current state of U.S.-
China military-to-military relations?
    Answer. If confirmed, I would look for ways to strengthen the U.S.-
China military-to-military relationship. I understand that the U.S.-
China military-to-military relationship has experienced positive 
momentum over the past year. Our approach should continue to pursue 
this positive development, consistent with U.S. interests and values, 
in pursuit of sustained, substantive dialogue; concrete, practical 
cooperation; and enhanced risk reduction measures to manage our 
differences responsibly. At the same time, I would seek to ensure that 
we balance these exchanges with continued, robust interactions with 
allies and partners across the region.
    Question. Do you believe that the United States should make any 
changes in the quality or quantity of our military relations with 
China? If so, what changes and why?
    Answer. Military exchanges are an important mechanism to build 
trust and mutual understanding, reducing the risk for miscalculation. I 
believe that military exchanges with China can be valuable, but can 
only truly move the relationship forward if China is equally committed 
to open and regular exchanges. If confirmed, I would continue to 
encourage China to act responsibly, both regionally and globally. I 
would also support deepening and enhancing our military-to-military 
relationship with China.
    By most accounts, China has become more assertive in its claims of 
sovereignty in various domains, including maritime, air and space. 
There are numerous examples of this assertiveness, but one in 
particular is China's increased aggressiveness in asserting its 
excessive maritime claims in the South China Sea.
    Question. What role should the United States play in the ongoing 
maritime disputes in the South China Sea?
    Answer. The United States is a Pacific nation that has a national 
interest in freedom of navigation, open access to Asia's maritime 
domain, the maintenance of peace and stability, free and open commerce, 
and respect for international law in the South China Sea. The United 
States should sustain its presence in the South China Sea and uphold 
its commitments to its allies and partners in order to maintain peace 
and stability in the region. I believe all parties should resolve their 
disputes through peaceful means and in accordance with customary 
international law, without resorting to the threat or use of force.
    Question. How does the presence of the U.S. Navy in the South China 
Sea influence this maritime dispute and, in your view, would an 
increase in U.S. activity in that region serve to stabilize or 
destabilize the situation?
    Answer. Although the United States does not take a position on the 
territorial and maritime disputes, I believe it is essential for the 
U.S. Navy to maintain a visible presence and assert its freedom of 
navigation and overflight rights in the East and South China Seas in 
accordance with customary international law. The U.S. Navy is a key 
provider of the military presence that underlies peace and stability 
across the globe, including in the Asia-Pacific region.
    If confirmed, I would work with our military commanders to evaluate 
the appropriate level of naval activities in the region to maintain 
peace and stability as well as unimpeded access for lawful commerce and 
economic development.
    Question. Cyber space has become a critical realm for civilian and 
military applications and, as a result, it represents a potentially 
substantial vulnerability. There are reports that China is aggressively 
pursuing cyber espionage and warfare capabilities, and would likely 
seek to take advantage of U.S. dependence on cyber space in the event 
of a potential conflict situation.
    If confirmed, what would you do to help ensure our military is 
protected in cyber space and prepared to defend itself against a cyber 
attack?
    Answer. The protection of U.S. military networks from cyber attack 
is one of DOD's core missions. If confirmed, I would continue to 
support DOD's ongoing efforts to develop new capabilities to defend 
military networks, support the development of our cyber workforce, and 
develop partnerships with other government agencies, the private 
sector, and our allies and international partners to strengthen our 
collective defenses. DOD must also continue to ensure that we are able 
to conduct operations in degraded information environments.
    Question. In January 2007, China used a ground-based missile to hit 
and destroy one of its weather satellites in an anti-satellite test 
creating considerable space debris and raising serious concerns in the 
international community. Since then, China has continued its active 
pursuit of ballistic missile and anti-satellite technology.
    What is your view of China's purposes for its pursuit of these 
capabilities?
    Answer. In my view, this test was a troubling incident. It was yet 
another element of China's comprehensive, long-term military 
modernization effort to develop and field disruptive military 
technologies, including those for anti-access/area-denial, as well as 
for nuclear, space, and cyber warfare.
    Question. What do you see as the long-term implications of such 
developments for the U.S. military, for U.S. national security, and for 
U.S. interests in space?
    Answer. The United States should seek ways to protect our interests 
in space; space systems are vital to our national security and our 
economy. I believe we need to enhance our deterrence and ability to 
operate in a degraded environment by increasing the resilience of 
national security systems against threats to space-based architectures 
and developing space control capabilities. If confirmed, I would 
continue to pursue partnerships with commercial suppliers, 
collaboration with international partners, and changes in our own 
architectures and operational tactics that can improve the resiliency 
of our systems and strengthen strategic stability in space.
                              north korea
    Question. What is your assessment of the current security situation 
on the Korean peninsula?
    Answer. I believe that the security situation on the Korean 
Peninsula is serious and deserves our constant vigilance. North Korea 
has demonstrated--through its December 2012 missile launch and February 
2013 nuclear test--that it has the capabilities and the will to 
undermine regional stability in pursuit of its national interests.
    North Korea's provocative behavior, large conventional military, 
pursuit of ballistic missile and weapons of mass destruction programs, 
and proliferation activities continue to be serious concerns for the 
United States and our allies and partners in the region. Kim Jong Un's 
unpredictability adds to our concerns.
    If confirmed, I would ensure that our military deterrence of North 
Korean aggression continues to support our diplomatic efforts to end 
North Korea's nuclear and missile programs.
    Question. What is your understanding of the threats posed to the 
United States and our allies by North Korea's ballistic missile and WMD 
capabilities?
    Answer. North Korea's ballistic missile and weapons of mass 
destruction (WMD) capabilities, and its proliferation of these 
capabilities, pose a serious threat to U.S. forces in the region as 
well as to our regional allies and partners. Although largely untested 
at longer ranges, these capabilities could pose a direct threat to U.S. 
territory. If confirmed, I would do my best to ensure that DOD uses its 
full range of resources and capabilities to defend against these 
threats.
    Question. What concerns you most about North Korea and, if 
confirmed, what would you do to address those concerns?
    Answer. Although under Kim Jong Un the North Korean regime has 
demonstrated unpredictability, my understanding is that Kim Jong Un 
remains in full control and is consolidating his power. We must remain 
vigilant against North Korean provocations given Kim Jong Un's 
continuing efforts to consolidate power, North Korea's tactic of 
escalating tension to draw parties to the negotiating table, and the 
onset of the spring military training cycle. If confirmed, I would work 
to ensure the Department is prepared for any potential provocations by 
North Korea.
                           republic of korea
    Question. What is your understanding of the current status of the 
U.S.-South Korean security relationship?
    Answer. The U.S.-ROK Alliance is a linchpin of peace and stability 
in the Asia-Pacific region. The United States and the Republic of Korea 
(ROK) are making shared investments in the security of the Korean 
Peninsula to enhance our combined ability to deter North Korean 
aggression. Our security relationship represents part of a 
comprehensive, strategic Alliance and plays an important role in 
contributing to stability not only on the Peninsula but also throughout 
Northeast Asia and globally.
    Question. If confirmed, what measures, if any, would you take to 
improve this security relationship?
    Answer. My understanding is that DOD and the ROK are focused on 
developing the strategies, interoperable capabilities, and processes 
needed to deter and, if necessary, respond to North Korean 
provocations. If confirmed, I would support a continued emphasis on 
these areas.
    The United States and the ROK continue to work closely to realign 
U.S. forces on the Peninsula and to assess the conditions for the 
transition of wartime operational control to the ROK.
    If confirmed, I would also prioritize supporting the ROK as it 
plays a greater role in regional and global security befitting its 
economic status and influence. I would work diligently to maintain 
strong, cooperative relationships with my ROK and interagency 
counterparts to ensure that we all work together to strengthen the 
Alliance.
    Question. What is your view regarding the timing of the transfer of 
wartime operational control from the United States to South Korea, now 
planned for December 2015, and what will you do to ensure this 
transition takes place as planned?
    Answer. The United States and the ROK remain committed to the 
transfer of wartime operational control on the timeline identified in 
the Strategic Alliance 2015 (SA2015) plan. Wartime OPCON transition has 
always been conditions-based, and, if confirmed, I would support the 
continued assessment and review of the security situation on the Korean 
Peninsula in the context of implementing SA2015.
    Question. Do you believe that the security relationship with South 
Korea should remain focused on defense of the Korean Peninsula, or 
should U.S. forces stationed in Korea be available for regional or 
global deployments?
    Answer. I believe it is essential that the United States remains 
committed to the combined defense of the Korean Peninsula in accordance 
with our mutual defense treaty obligations. U.S. force posture on the 
Peninsula contributes to the stability of the Northeast Asia region. 
Our ROK allies are a linchpin for peace and stability on the Korean 
Peninsula and in the Asia-Pacific region, and we expect that they will 
remain so into the foreseeable future.
    Question. What is your assessment of the security benefits of the 
force repositioning under the Land Partnership Plan and the Yongsan 
Relocation Plan and how does repositioning U.S. forces change the way 
they will operate on the Korean Peninsula?
    Answer. I understand that both of these plans are based on the 
security benefits of being outside the tactical effective range of 
North Korean artillery. By being outside the range of North Korean 
artillery, U.S. forces gain operational advantages regarding force 
protection, survivability, and consolidation of personnel and 
equipment. There are also other potential benefits of the force 
repositioning, including efficiencies, reduced costs, and contribution 
to the political sustainability of our forward presence on the Korean 
Peninsula.
    Question. What is your understanding of the U.S. obligations in the 
event of an attack on South Korea by North Korea, and under what 
circumstances do you believe the U.S. Armed Forces should be committed 
to engage North Korean forces in response to an attack on South Korea?
    Answer. It is my understanding that under the Mutual Defense Treaty 
of 1953, when the political independence or security of the ROK or the 
United States are threatened by an external armed attack, the United 
States and the ROK will maintain and develop appropriate means to deter 
armed attack. Patterns of North Korean rhetoric and provocations 
necessitate that the two sides continue to consult closely so that 
Alliance responses are effective.
    Question. Does the new Counter-Provocation Plan affect U.S. 
obligations in the event of an attack on South Korea by North Korea?
    Answer. My understanding is that the new Counter-Provocation Plan 
is a ROK-led, U.S.-supported contingency plan developed by mutual 
understanding between the Chairmen of the Joint Chiefs of Staff of both 
countries after a November 2010 North Korean artillery attack on 
Yeonpyeong Island. The plan improves the Alliance readiness posture to 
allow for a strong and decisive combined South Korean and U.S. response 
to North Korean provocations and threats.
    Question. How has the new Counter-Provocation Plan changed the 
consultation process between the ROK military and USFK after a 
provocation by North Korea?
    Answer. The Counter-Provocation Plan includes procedures for 
consultation and ensures a well-coordinated combined action in response 
to North Korean provocations and threats. I understand that U.S. Forces 
Korea (USFK) and the ROK military closely consult to ensure the proper 
response and control escalation.
    Question. Does the ROK military have the obligation to consult with 
USFK before it engages in a response to a provocation by North Korea?
    Answer. The ROK military has the inherent right of self-defense to 
respond to a provocation by North Korea. However, USFK and the ROK 
military closely consult on a daily basis to deter North Korea and 
maintain peace and stability on the Korean Peninsula.
                                 japan
    Question. How would you characterize the U.S.-Japan security 
relationship?
    Answer. The U.S.-Japan Security Relationship is very strong and 
remains the cornerstone of our security strategy in the Asia-Pacific 
region. The U.S.-Japan relationship has underwritten the peace, 
stability, and prosperity of the region for more than a half century. 
Japan is a valued ally and anchor of democracy and prosperity in the 
region. The Joint Statement following the October 3, 2013, Security 
Consultative Committee meeting in Tokyo captures our full range of 
cooperative activities, which I would fully support, if confirmed.
    Question. How does Japan's relationship with its regional 
neighbors, mainly China, North Korea and South Korea influence the 
U.S.-Japan relationship?
    Answer. We encourage a healthy and open trilateral relationship 
among Japan, the ROK, and the United States, to facilitate better 
relations between our two closest allies in northeast Asia. A strong 
trilateral relationship is an important element of deterrence against 
North Korean challenges. We also continue to encourage both China and 
Japan to increase the level of communication between the two sides in 
order to reduce the possibility of mistakes or miscalculation in 
contested areas.
    Question. What steps, if any, do you believe Japan ought to take to 
become a more active partner in security activities with the United 
States and in the international security arena?
    Answer. We welcome any steps Japan chooses to take that will enable 
it to play a larger role in the Alliance, and to increase its 
contributions to regional and global security. In my view, the steps 
Japan is considering represent a natural evolution in policy that 
reflects its stature on the global stage.
    Question. What is your view of the U.S.-Japanese joint development 
of the Standard Missile-3, Block IIA missile defense interceptor, and 
of the overall program of cooperation between the United States and 
Japan on ballistic missile defense?
    Answer. Japan is one of our most significant ballistic missile 
defense partners. Our cooperation on development of the SM-3 Block IIA 
and Japan's commitment of more than $1 billion to the program serve as 
excellent examples of that partnership. Japan also hosts the U.S. Navy 
SEVENTH fleet, which includes multiple ballistic missile defense-
capable Aegis ships; is licensed to co-produce the PATRIOT PAC-3 
missile; and hosts a U.S. AN/TPY-2 missile defense radar with plans to 
host a second such radar by the end of 2014.
    Question. The current plan is for the closure of the Marine Corps 
Air Station on Okinawa after the construction of a Futenma Replacement 
Facility (FRF) at Camp Schwab on Okinawa. While the Governor of Okinawa 
has signed the landfill permit to allow construction of the FRF to go 
forward, local opposition and a long construction timeline make the 
completion of the FRF uncertain.
    What is your opinion of the prospects for the successful 
construction of the Futenma Replacement Facility at Camp Schwab on 
Okinawa?
    Answer. In short, DOD is optimistic about the prospect for 
successful construction.
    In December of last year, the Governor of Okinawa signed the land 
reclamation, or landfill, permit. This had been a significant political 
hurdle. This year, DOD expects to work closely with Japan on concrete 
steps to move forward with the landfill and the eventual construction 
of airfield facilities at the current Marine Corps Camp Schwab. Many of 
the necessary relocations within Camp Schwab required for the landfill 
are already underway, and we have every confidence that Japan will 
continue to make progress on this very significant forces realignment 
effort.
    Question. Is the cost-sharing arrangement between the United States 
and Japan to pay for the relocation of U.S. forces from Okinawa to Guam 
and the costs associated with the continued presence of U.S. forces in 
Japan equitable and appropriate? Why or why not?
    Answer. I understand that a revision to the Guam International 
Agreement signed last year by the Secretary of Defense and Secretary of 
State with their Government of Japan counterparts reaffirmed Japan's 
commitment to provide $3.1 billion (in fiscal year 2012 U.S. dollars) 
in cash toward the construction of Marine Corps facilities on Guam and 
the Commonwealth of Northern Mariana Islands (CNMI). For Japan, this 
unprecedented commitment of funds for U.S. military facilities on U.S. 
territory makes perfect sense, preserving a strong U.S. military 
presence in the region while simultaneously reducing the pressure 
associated with the U.S. presence in Okinawa. It is also consistent 
with our policy to have a geographically distributed, operationally 
resilient, and politically sustainable force presence in the region.
    The Japanese funds will not only assist in the construction of 
operational and administrative facilities for the U.S. Marines, but 
also contribute to the construction of training areas in Guam and the 
CNMI to ensure the operational readiness of our regional forces. I 
understand that we will also support opportunities for Japan to train 
at these facilities.
    Question. How, in your view, does building an unpopular new 
airfield on Okinawa, one that could take 7 to 10 years to finish at a 
cost of at least $3.6 billion, serve to improve the U.S.-Japan 
relations in general and the U.S. military-Okinawa relations in 
particular?
    Answer. Since at least 1996, the United States and Japan have 
shared the view that there is a need to relocate the existing Marine 
Corps Air Station at Futenma, around which a significant population had 
grown over the years. Since 1999, we identified a replacement site in 
the vicinity of Camp Schwab near the village of Henoko. This was 
confirmed most recently in the October 2013 2+2 meeting Joint 
Statement.
    I understand that the Department is confident that once this 
facility is completed and operational, the resulting benefit to the 
areas of Okinawa south of Kadena Air Base, where the vast majority of 
the Okinawa population resides, will be apparent to all. At the same 
time, this facility will allow the Marine Forces on Okinawa to maintain 
their operational readiness and be able to respond quickly as the 
regional emergency force. The Marine Corps will be able to continue to 
train as they fight, as a combined arms team.
    Question. Is Japan carrying a fair share of the burden of the cost 
of the U.S. presence in Japan under the current Special Measures 
Agreement?
    Answer. My understanding is that Japan is meeting its obligations 
as negotiated under the 2011 Special Measures Agreement. If confirmed, 
I would monitor implementation to ensure that Japan continues to do its 
part to sustain the U.S. presence.
                                 india
    Question. What is your view of the current state of the U.S.-India 
security relations?
    Answer. In my view, the United States and India have built a strong 
strategic partnership, in which defense cooperation plays a major role, 
and the Secretary is strongly committed to this partnership. Over the 
past decade in particular, we have built a bilateral defense 
relationship that includes a robust number of military exercises, a 
strong track record on defense trade, and increasingly close 
consultations on regional security issues. As India continues its 
military modernization efforts, we look to India to be a net provider 
of security in the region, and a partner on issues ranging from 
maritime security to humanitarian assistance/disaster relief (HA/DR) to 
broader regional stability.
    Question. How has the recent diplomatic crisis regarding the Indian 
diplomat who was arrested for failing to pay her domestic servant the 
minimum wage affected the U.S.-India security relationship?
    Answer. This was an unfortunate incident, but it does not change 
the important bilateral defense agenda we are pursuing with India. I 
understand that we are putting this incident behind us and moving 
forward.
    Question. If confirmed, what specific priorities would you 
establish for this relationship?
    Answer. If confirmed, there are several key priorities with India 
that I would pursue. First, I would continue to build on the 
significant progress we have made in our military-to-military 
relationship, working to increase the scope and complexity of 
exercises, encouraging exchanges, and continuing to prioritize senior-
level engagements. We should continue to consult closely on issues 
affecting broader regional stability and look to expand in other areas 
of cooperation. For example, I would continue the work over the past 
several years on maritime security and HA/DR, and I would continue to 
work toward increasingly sophisticated defense trade and technology, 
among other areas.
    Question. What is your assessment of the current relationship 
between India and Pakistan?
    Answer. Long-term stability in South Asia will depend upon progress 
in the India-Pakistan relationship, and I was encouraged by the meeting 
last year between Prime Minister Singh and Prime Minister Sharif on the 
margins of the U.N. General Assembly. DOD hopes to see more similar 
high-level engagements, and a greater degree of trust built up between 
India and Pakistan to ease longstanding tensions, particularly along 
the line of control. In the meantime, we continue to build our own 
bilateral relationships with both countries and to urge them to be 
transparent with each other on their activities in the region.
    Question. In your view, what impact has the ongoing tension between 
Pakistan and India had on the stability of Central and South Asia 
generally, and on the prospects for lasting security in Afghanistan?
    Answer. Central and South Asian stability will require India, 
Pakistan, and Afghanistan to achieve some level of sustained, mutual 
cooperation and trust, as well as productive relationships between 
Afghanistan and all of its neighbors, including those in Central Asia. 
We also need to recognize the need for separate bilateral relationships 
in the region, including the strategic partnership between India and 
Afghanistan, which is not, in my view, directed at any other country 
nor is it a threat to Pakistan. If confirmed, I would encourage all 
parties to be transparent with each other regarding their activities 
and relationships in the region.
                      republic of the philippines
    Question. What is your view of the current state of U.S.-Philippine 
military-to-military relations?
    Answer. We have a very strong U.S.-Philippine defense partnership 
and a strong alliance. We have made progress in several key areas and 
continue to work with the Armed Forces of the Philippines as they 
pursue long-term military modernization and to increase cooperation on 
shared security challenges.
    Question. What do you believe the U.S. goals should be in the 
Republic of the Philippines and how best can we achieve those goals?
    Answer. If confirmed, I would support ongoing efforts to build 
Philippine capacity with respect to internal security, military 
modernization, and a role as a positive contributor to regional and 
global security challenges, such as counterterrorism and maritime 
security; and I would continue to support the negotiations now underway 
to enhance our defense cooperation and facilitate an increased 
rotational presence of U.S. forces in the Philippines.
    Question. Do you believe Operation Damayan was a successful 
disaster relief effort? What were the lessons learned from the 
operation? What are the needed areas of improvement for U.S. disaster 
relief operations and joint task force operations in this area?
    Answer. Operation Damayan was a very successful disaster relief 
effort, which saw a rapid international response and closed cooperation 
within the U.S. Government and between the U.S. Government, the 
Government of the Philippines, and other responders. The process of 
examining and incorporating lessons learned is ongoing, and if 
confirmed I would work to ensure we build on this experience to keep 
improving our own disaster response capabilities and those of our 
partners.
    Question. Do you anticipate a reduced or increased U.S. military 
footprint or change in mission for U.S. military forces in the 
Philippines in the near to mid-term?
    Answer. The United States and the Government of the Philippines are 
discussing ways to facilitate an enhanced rotational presence in the 
Philippines. I do not want to prejudge the outcome of those 
discussions. With regard to operations in the Southern Philippines, if 
confirmed, I would ensure that DOD continues to assess the requirements 
for the Joint Special Operations Task Force-Philippines mission as 
security improves in that region.
    Question. In your opinion, how important is the Global Security 
Contingency Fund to U.S. security assistance efforts in the 
Philippines?
    Answer. If confirmed, I would support the employment of the Global 
Security Contingency Fund as an important mechanism to help build 
partner capacity in the Philippines, particularly in the areas of 
maritime security and maritime domain awareness. This will help us 
support the Philippines' efforts to bolster important capabilities in 
these key areas.
                               indonesia
    Question. What is your view of the current state of military-to-
military relations with Indonesia and, specifically, Kopassus?
    Answer. As the U.S.-Indonesia defense relationship continues to 
expand, we view Indonesia as a regional leader and a strong defense 
partner. Bilateral defense cooperation focuses on enhancing the 
Indonesian military's (TNI) capability to conduct the external missions 
of maritime security, peacekeeping, and humanitarian assistance/
disaster relief. Bilateral defense trade is becoming an important part 
of our relationship as well.
    With respect to the Kopassus military unit, we see Indonesian 
progress on human rights issues and continue to work with Indonesia to 
improve human rights and accountability.
    Question. Do you favor increased U.S.-Indonesian military-to-
military contacts? If so, under what conditions? Why?
    Answer. If confirmed, I would favor increased U.S.-Indonesia 
military-to-military engagement to build on the progress in our defense 
relationship over the last decade. I would also advocate for continued 
DOD support to Indonesian defense reform efforts, including continued 
progress towards prevention of, and accountability for, human rights 
violations.
    Question. What is your understanding of the factors that informed 
the decision to re-engage with Kopassus members?
    Answer. I understand that in recent years we have seen a great deal 
of progress with respect to human rights and accountability. I believe 
that then-Secretary Gates' decision to resume limited engagement in 
2010 was a recognition of this progress and a way to encourage 
continued improvement. Since then, I believe we have seen gradual 
improvement and, if confirmed, I would work to support Indonesia's 
continued progress.
    Question. What is your view of the commitment of the Indonesian 
military leadership to professionalization of its Armed Forces, 
adhering to human rights standards, improving military justice, and 
cooperating with law enforcement efforts to investigate and prosecute 
those military personnel accused of human rights abuses?
    Answer. I believe that Indonesia has made significant progress in 
institutionalizing respect for human rights and in ensuring 
accountability when abuses do occur. If confirmed, I would continue to 
maintain an open dialogue between DOD and Congress on how best to keep 
this trend moving in the right direction, and, would support continued 
emphasis on necessary further reforms in our military engagement with 
Indonesia.
    Question. If confirmed, what would you do to encourage respect for 
human rights and accountability in the Indonesian military?
    Answer. If confirmed, I look forward to working with Indonesian 
leadership on this important issue through increased engagement with 
senior Ministry of Defense officials, personnel exchanges, and support 
for professional military education. We would also continue to 
encourage positive actions taken by the Indonesian Government when 
violations do occur, including: suspensions and removals of military 
officials accused and convicted of abuses, and cooperation with the 
prosecution of accused military members.
                                colombia
    Question. Plan Colombia has enabled the Colombian Government to 
make significant gains against the FARC (Revolutionary Armed Forces of 
Colombia) and other paramilitary forces in Colombia, as well as enabled 
the government to secure many previously ungoverned areas. Since fiscal 
year 2000, the United States has provided more than $7 billion to 
support Colombia's efforts to counter the threat of transnational 
criminal organizations and various terrorist groups.
    What are your views regarding the current situation in Colombia 
focusing upon: (1) the current military and political situation in 
Colombia; (2) the ability of the Colombian military to control its 
territory; and (3) ongoing DOD programs?
    Answer. It is clear to me that as one of our strongest defense 
partners in the region, Colombia has taken tremendous steps, with 
important U.S. support, to improve its own internal stability and 
citizen security. Colombia has dramatically improved its security 
throughout the country against several threats, including insurgents 
(such as the FARC), paramilitaries, criminal bands, and drug 
trafficking organizations. However, Colombia's efforts against such 
groups are not finished, nor is stability in Colombia assured. 
Colombia's Ministry of Defense, with U.S. support, continues to apply 
pressure on organizations like the FARC, while also working to address 
citizen security and external defense issues.
    We also see Colombia as an increasingly capable and willing partner 
in addressing common security challenges and contributing to efforts to 
improve stability more widely in the Western Hemisphere. While 
providing training and engagement on its own to many countries in the 
Hemisphere, Colombia has also partnered with us directly in Central 
America, an area of common security interest. We are confident that 
Colombia will continue to grow as a stable, interoperable partner in 
supporting security in the region.
    Question. In your view, is the Colombian Government capable of 
sustaining the last decade's gains during this economic downturn and 
the scheduled decline in U.S. security assistance?
    Answer. Yes, Colombia is capable of maintaining its gains, if it 
continues to build on the strengthened institutional, operational, and 
technical capacity that it has developed, with U.S. support, over the 
past decade. DOD is working closely with Colombia to prioritize and 
streamline our mutual security cooperation programs, understanding that 
resources are declining, while also acknowledging that certain U.S. 
support, such as Intelligence, Surveillance, and Reconnaissance (ISR), 
will remain critical to Colombia's success for the foreseeable future. 
Colombia has been a good partner in acknowledging the new realities of 
more limited resources, and DOD remains committed to working with our 
Colombian partners to address their emerging needs while sustaining 
their hard-won security gains.
    Question. In light of budget conditions, do you believe continued 
U.S. security assistance to Colombia at the current levels is 
sustainable?
    Answer. Security assistance to Colombia has been slowly decreasing, 
and given budget realities across the U.S. Government, it will likely 
continue to decrease in the future. We have made hard decisions about 
where to focus our cooperation with Colombia, and also identified some 
areas where continued U.S. support remains critical into the 
foreseeable future (institutional reform efforts, for example). 
Although we acknowledge that fewer resources are available for security 
assistance in Colombia, we will stand by Colombia as it continues to 
move toward improved stability and a greater strategic partnership with 
the United States, and this type of commitment will continue to require 
U.S. resources.
    Question. In your view, what are the remaining U.S. supported 
programs that will need to be continued to ``lock in'' the progress 
that has been made?
    Answer. I believe that the United States should continue to support 
programs that strengthen Colombian defense institutions, providing them 
the capacity to plan, forecast, and sustain their enhanced abilities. 
The United States should also continue to provide support to programs 
that provide the Colombian Government the technical and tactical edge, 
including critical capabilities it needs to defeat internal threats and 
guarantee stability over the long term.
                       central america and mexico
    Question. During a Senate Armed Services Committee hearing in 2011, 
General Douglas Fraser--the Commander of U.S. Southern Command--and 
Admiral Winnefeld--the former Commander of U.S. Northern Command--
discussed the increasingly dangerous region between Colombia and 
Mexico, and the devastating impact transnational criminal organizations 
are having on the people and security in this region. The United States 
has increased its assistance in this region, but--to date--DOD has had 
only a small role.
    What is your assessment of the threats posed by transnational 
criminal organizations in this region?
    Answer. I understand that the level of threat posed by 
Transnational Criminal Organizations (TCOs) to the Governments of 
Mexico and in Central America varies. While the Government of Mexico 
continues to deal significant blows to TCOs, Honduras and other Central 
American governments struggle. The governments in Central America 
continue to build nascent democratic institutions, but are often 
susceptible to the corrupting influences of TCOs. DOD believes that the 
Governments of Mexico and in Central America will continue to require 
varying levels of support to address the TCO threat. Although Mexico is 
a more mature partner and has developed better capabilities to face 
TCOs, Central American Governments lack the means to confront the 
challenge successfully.
    Question. What is your understanding and assessment of DOD's 
current activities in Mexico and Central America?
    Answer. I understand that the Department conducts security 
assistance and security cooperation programs to advance the capacity of 
Mexico and Central American countries to maintain host nation security, 
and to advance regional and hemispheric defense cooperation and 
coordination. To support Mexican and Central American efforts against 
TCOs, DOD security assistance and security cooperation activities focus 
on professionalization and capacity building of regional Armed Forces. 
Within Central America, much of DOD's efforts are focused on maritime 
capacities to help curb illicit trafficking and training programs 
emphasizing respect for human rights and being responsive to civil 
authority. Although these efforts are important, and have significantly 
improved the capacity of our partners to meet the TCO threat, defense 
cooperation alone will not be sufficient to defeat the TCOs.
                                  cuba
    Question. What is your view of the need to review and, potentially, 
revise U.S. policies regarding Cuba?
    Answer. DOD stands in support of the overall U.S. Government policy 
towards Cuba. When the administration periodically reviews our Cuba 
foreign policy, DOD has the opportunity to contribute to the 
interagency process. Current policy is that the United States is open 
to forging a new relationship with Cuba when the Cuban people enjoy 
fundamental human rights and the ability to determine their own 
political future freely. The policy also emphasizes targeted bilateral 
engagement that advances U.S. national interests and the enactment of 
measures that help reduce the dependence of Cuban citizens on the 
state.
    Question. What is your opinion about the need for, and the pros and 
cons of, military-to-military contact with Cuba?
    Answer. The Department views military-to-military engagements as a 
valuable tool for building confidence. I understand that we currently 
conduct limited military-to-military engagement, including at monthly 
fence line talks at the Guantanamo Naval Base, which focus on ensuring 
there are no misunderstandings on either side of the fence.
    Question. In your view, is Cuba currently supporting or sponsoring 
international terrorism?
    Answer. Cuba remains designated by the Secretary of State as a 
State Sponsor of Terrorism. I am not aware that the Cuban Government 
has provided weapons or paramilitary training to terrorist groups in 
recent years. However, if confirmed, I would work with the Department 
of State on all State Sponsorship of Terrorism designations, and advise 
the Secretary of Defense on the Department's appropriate response to 
complement those designations.
            united nations convention on the law of the sea
    Question. Do you support U.S. accession to the United Nations 
Convention on the Law of the Sea (UNCLOS)? If so, please explain why?
    Answer. I strongly support U.S. accession to the Law of the Sea 
Convention. I believe that accession to the Convention would show a 
U.S. strategic commitment to upholding the established legal order that 
codifies the rights, freedoms, and uses of the sea and airspace, 
including those that are critical to the global mobility of U.S. 
military forces.
    Question. From a national security standpoint, what do you see as 
the advantages and disadvantages to being a party to UNCLOS?
    Answer. I see many advantages to being a Party to the Convention. 
The primary national security advantage of U.S. accession would be 
strengthening U.S. credibility to promote the robust set of rights, 
freedoms, and uses of the sea reflected in the Convention. These rights 
are vital to the mobility of U.S. military forces around the world. As 
a non-Party, we are impeded in our ability to encourage other states to 
respect the rules of law contained in the Convention.
    I do not see any disadvantages to the United States joining the Law 
of the Sea Convention. If confirmed, I would work with Members of the 
Senate to address any concerns that may be raised.
    Question. What is your understanding of the principal arguments 
against ratifying UNCLOS, and what is your response to those arguments?
    Answer. One of the arguments I have heard Convention opponents make 
is that U.S. accession may erode U.S. sovereignty. I believe that U.S. 
accession to the Convention would strengthen U.S. sovereignty and 
sovereign rights. The Convention recognizes that a State Party may 
claim 12 nautical miles of territorial sea, may establish an exclusive 
economic zone, and may assert resource-related sovereign rights on its 
extended continental shelf. Other nations may question whether they are 
obligated to respect a U.S. assertion of these coastal State rights as 
a non-Party to the Convention.
                        peacekeeping operations
    Question. In testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, U.S. Ambassador to the 
U.N., stated that the United States ``is willing to consider directly 
contributing more military observers, military staff officers, civilian 
police, and other civilian personnel--including more women I should 
note--to U.N. peacekeeping operations.''
    What is your view on whether the United States should contribute 
additional military personnel to both staff positions and military 
observers in support of U.N. peacekeeping operations?
    Answer. Successful U.N. peacekeeping operations are in the national 
security interest of the United States, as they generally cost less 
than U.S. operations, reduce the burden on U.S. forces, and in many 
cases directly advance U.S. security interests. In principle, I support 
additional contributions of U.S. military personnel to key staff 
officer positions that provide an opportunity to add significant value 
to mission effectiveness, and where the mission is a strategic priority 
for the Department and the United States.
    Question. If confirmed, would you support identifying methods 
through which the DOD request for forces system could be more 
responsive to requests for personnel support from multilateral 
peacekeeping missions, like the U.N.?
    Answer. We should explore more effective ways to contribute U.S. 
personnel in support of the United Nations and overcome barriers to 
U.S. military personnel serving in U.N. headquarters. If confirmed, I 
would support seeking ways where the Department could identify desired 
positions and turnover dates, and work to fill those positions.
                       mass atrocities prevention
    Question. President Obama identified the prevention of mass 
atrocities and genocide as a core U.S. national security interest, as 
well as a core moral interest, in August 2011 under Presidential Study 
Directive 10.
    What is DOD's role in addressing atrocity threats, and what tools 
does DOD have for preventing or responding to atrocities?
    Answer. DOD is a member of the Atrocities Prevention Board, which 
has strengthened our efforts and given us more tools with which to 
work. DOD plays an important role in early warning and providing 
support to enable international partners to prevent mass atrocities. If 
confirmed, I would continue to ensure that the Department contributes 
to U.S. efforts to prevent mass atrocities.
       authority for use of military force/law of armed conflict
    Question. On September 18, 2001, Congress passed the Authorization 
for the Use of Military Force (AUMF) (Public Law 107-40), which 
provides that ``the President is authorized to use all necessary and 
appropriate force against those nations, organizations, or persons he 
determines planned authorized, committed, or aided the terrorist 
attacks that occurred on September 11, 2001, or harbored such 
organizations or persons, in order to prevent any future acts of 
international terrorism against the United States by such nations, 
organizations or persons.'' This AUMF remains in effect and provides 
the legal authority for certain U.S. military actions.
    What is your understanding of the role of the USD(P) in 
interpreting the AUMF and in the application of the AUMF to military 
activities?
    Answer. The AUMF is the domestic legal basis for use of force 
against al Qaeda and associated forces. If confirmed as the USD(P), my 
role would be to advise the Secretary of Defense on the policy 
dimensions of proposed operations, working closely with interagency 
colleagues, to ensure our operations and activities are aligned to our 
policy and strategy objectives.
    Question. In your view, does DOD have the legal authorities it 
needs to conduct military operations against entities responsible for 
September 11 and against those who plan further attacks against the 
United States?
    Answer. Yes, I believe the 2001 AUMF is appropriate for such 
military operations.
    Question. In your view, do existing authorities provide the U.S. 
military the flexibility it needs to respond to new and emerging 
terrorism threats?
    Answer. Yes. The President's authority as Commander in Chief 
provides sufficient flexibility to respond to emerging terrorism 
threats posed by organizations not covered by the 2001 AUMF. If 
confirmed, I would provide my best advice to the Secretary and Congress 
to ensure we're doing everything we can to protect our Nation from 
terrorist attacks.
    Question. Without the AUMF, would the U.S. military have the 
authority to use force, including deadly force against members of al 
Qaeda and associated forces? If so, under what circumstances?
    Answer. Yes. The President's authority as Commander in Chief 
empowers him to order military operations necessary to protect an 
important national interest, subject to Constitutional and statutory 
limitations on the scope and duration of military operations the 
President may order without the express authorization of Congress.
    Question. What is the impact of the President's Policy Guidance on 
Counterterrorism on the application of the AUMF with respect to 
counterterrorism operations?
    Answer. The President's Policy Guidance on Counterterrorism 
provides rigorous processes for reviewing and approving 
counterterrorism direct action operations. The President's Policy 
Guidance on Counterterrorism is not limited to operations conducted 
solely under authority of the 2001 AUMF. If confirmed, I intend to 
ensure we remain committed to conducting counterterrorism operations 
lawfully, and in accordance with this policy.
    Question. In your view, would it be appropriate for the United 
States to use military force against terrorist groups that have not 
engaged in hostilities directly against the United States, but merely 
shown an intent to do so? If so, under what circumstances?
    Answer. The decisions to use military force are made based on 
careful, fact-intensive assessments to identify the individuals and 
groups that pose a threat to the United States. The most important 
policy consideration is the protection of U.S. lives.
                            unmanned systems
    Question. Over the last 4 years, the administration has worked to 
establish a framework that governs our use of force against 
terrorists--insisting upon clear guidelines, oversight, and 
accountability that is now codified in Presidential Policy Guidance the 
President signed on May 22, 2013. As a part of that effort, the 
President has indicated a preference that the U.S. military should 
carry out the use of force in active warzones, and beyond.
    What are your views on whether DOD should assume greater 
responsibility for lethal strikes by remotely-piloted aircraft 
(drones)?
    Answer. I believe that DOD is the part of Government where 
expertise in the use of force abroad should reside. Our best efforts 
come when we are working in concert with our interagency partners to 
collect intelligence, collaborate with the host nation, and synchronize 
our actions. If confirmed, I would remain committed to ensuring DOD is 
capable and ready to fulfill its under the President's Policy Guidance.
    Question. What benefits or risks to national security would be 
implicated if the Department were to take the lead role in operating 
unmanned systems?
    Answer. The application of force abroad in a disciplined and 
accountable manner is a core strength of DOD. I understand that 
countering terrorist threats must be a collaborative effort that 
involves experts from across our Government, and if confirmed as 
USD(P), I would join my counterparts to ensure we are executing 
counterterrorism operations in a manner that takes advantage of current 
capabilities and provides a solid foundation to protect our Nation from 
terrorist attack.
                          contingency planning
    Question. One of the purposes of Goldwater-Nichols was to increase 
military and civilian attention on the formulation of strategy and 
contingency planning. The USD(P) is specifically directed to assist the 
Secretary of Defense in preparing written policy guidance for the 
preparation and review of contingency plans and in reviewing such 
plans.
    What is your view of the civilian role, as compared to the military 
role, in the formulation of strategy and contingency planning?
    Answer. The role of the civilian leadership is not only statutorily 
mandated, but is critical to translating broad national security 
policies and principles into a defense strategy and strategic 
priorities that ultimately drive military planning and resource 
allocation. Civilian and military perspectives are both important to 
successful defense planning. The Civilian leadership plays the 
principal role in providing policy guidance to shape military planning 
and then has the responsibility to review that planning to ensure it 
fits within the policy guidelines outlined. The role of military 
leaders and planners is to provide their best military advice on how to 
achieve objectives within the parameters outlined by the President and 
Secretary of Defense.
    The USD(P) is responsible for developing the guidance issued by the 
Secretary for the preparation of contingency plans and for reviewing 
DOD plans to ensure that they support strategic objectives. The USD(P) 
is also uniquely responsible for facilitating interagency coordination 
on contingency planning efforts, as necessary.
    Question. In your opinion, does the civilian leadership currently 
have an appropriate level of oversight of strategy formulation and 
contingency planning?
    Answer. Yes, I believe that the current level of civilian oversight 
of strategy formulation and contingency planning is appropriate. If 
confirmed, I would sustain the strong and healthy dialogue that is 
already ongoing between civilian and military leaders.
    Question. What steps do you believe are necessary to ensure 
effective civilian control and oversight of strategy formulation and 
contingency planning?
    Answer. Based on my experience, I believe that current oversight 
processes work well. Active and forthright dialogue between the 
Secretary, the senior civilian leadership, and the senior military 
leadership is essential for effective oversight of strategy and 
planning. Although all parties may not agree on a specific issue, in my 
experience we currently have a very healthy dialogue on strategy and 
planning issues.
    If confirmed, I would be committed to reflecting civilian and 
military perspectives in my recommendations to the Secretary of Defense 
to provide him the best possible advice in fulfilling his statutory 
responsibilities and meeting the intent of Goldwater-Nichols.
                           strategic reviews
    Question. What is your understanding and evaluation of the DOD's 
processes for strategic assessment, analysis, decisionmaking, and 
reporting for each of the following strategic reviews?

          The QDR (section 118 of title 10, U.S.C.);
          The National Military Strategy (section 153 of title 10, 
        U.S.C.);
          Global Defense Posture Review (section 2687a of title 10, 
        U.S.C.);
          The Quadrennial Roles and Missions Review (section 118b of 
        title 10, U.S.C.).

    Answer. These strategic reviews are important opportunities for 
substantive dialogue with Congress, and to provide guidance to the 
entire defense enterprise. Senior DOD leaders use these reviews to 
guide the Department in meeting the defense objectives described in the 
broader National Security Strategy. They are valuable processes for 
managing and guiding the defense enterprise. These documents set 
priorities across the Military Departments and Services, combatant 
commands, and components and are especially useful as the Department 
seeks to achieve its objectives more effectively and efficiently in 
light of the changing security and fiscal environment. The end products 
are also used to inform a variety of other audiences, including the 
U.S. public and the international community.
    I have been involved in several of these reviews throughout my 
career and have seen a wide variety of review processes. Each review is 
different based on strategic circumstances, timing, and preferences of 
the senior defense leadership at the time. The Secretary of Defense 
determines how best to oversee these review processes. Candid 
deliberations, significant collaboration, and analytic rigor are 
important hallmarks of each of these reviews.
    The QDR (title 10 U.S.C., section 118) requires the Department to 
conduct a comprehensive examination of the national defense strategy, 
force structure, force modernization plans, infrastructure, budget 
plan, and other elements of the defense program and policies of the 
United States with a view toward determining and expressing the defense 
strategy of the United States and establishing a defense program for 
the next 20 years. The QDR is designed to articulate a defense strategy 
in support of the President's National Security Strategy. Based on my 
experience, effective QDRs involve a wide range of stakeholders and 
ensure the defense strategy sets priorities for U.S. military force 
structure, plans, and programs. The Department has strengthened its 
dialogue on QDRs with both interagency and international partners in 
recent years, which has been beneficial.
    As directed in title 10 U.S.C., section 153, the National Military 
Strategy is prepared by the Chairman as a means to convey the 
military's views on strategic priorities and associated risks.
    The Department employs a continuous review process to determine the 
best mix of continental United States and overseas-based forces, and 
reports annually to Congress on the status of these assessments in the 
Global Defense Posture Review. This report, authored primarily by the 
Under Secretary of Defense (Policy) and the Chairman of the Joint 
Chiefs of Staff, provides a comprehensive review of DOD's overseas 
posture, new initiatives, defense agreements, and negotiations; the 
report also plays an important role in supporting future resource 
decisions.
    Title 10 U.S.C., section 118b, requires the Department to complete 
a comprehensive assessment of the roles and missions of the Armed 
Forces and the core competencies and capabilities of the Department to 
perform and support such roles and missions. The Quadrennial Roles and 
Missions Review (QRM) describes how the Department will align 
organizational responsibilities and military capabilities to carry out 
its missions. The QDR should have a strong influence on the 
Department's assessment of its military roles and missions.
    Question. If confirmed, what recommendations would you make, if 
any, to change title 10, U.S.C., that would update, improve, or make 
these reviews more useful to the Department and to Congress?
    Answer. These reviews serve a useful function for the Department. 
They provide deliberate processes for DOD to reexamine and, if 
necessary, adjust the defense strategy and the capabilities, capacity, 
and posture of the Armed Forces. The security environment and resources 
available for the Defense Department are not static, and periodic 
reviews are useful ways to ensure the Department refreshes, as 
required, the strategic approach it takes to defend the Nation. If 
confirmed, I look forward to working with Members of Congress to ensure 
these reviews are relevant, timely, and valuable to both defense 
leaders and the U.S. Congress.
    Question. If confirmed, what recommendations would you make, if 
any, to improve DOD's processes for strategic assessment, analysis, 
policy formulation, and decisionmaking relative to each review above?
    Answer. First, I note that from my experience, successful strategic 
reviews feature the following:

        <bullet> Strong participation from the senior defense 
        leadership, including the Secretary, throughout the process.
        <bullet> Transparent and inclusive processes and decision fora. 
        Civilian and military leadership from each DOD component is 
        essential, including: the OSD, the Joint Staff, the Military 
        Departments and Services, and the combatant commands.
        <bullet> A structured process that is co-led by the OSD and the 
        Joint Staff, which allows the appropriate subject matter 
        expertise to be brought into the discussion. Such a structure 
        allows analysis to be vetted with the key experts and 
        stakeholders before being presented to the Department's senior 
        leaders.

    Strategic reviews also require robust analytical efforts to assess 
the sufficiency and proficiency of current, programmed, and projected 
forces. This is important to ensure that the appropriate information, 
data, and analysis are available for each QDR so that key questions can 
be formulated and informed decisions made. If confirmed, I would seek 
to apply insights gained from previous reviews to ensure future reviews 
are efficient and effective.
    Question. The law requires the QDR to identify the budget plan that 
would be required to provide sufficient resources to execute 
successfully the full range of missions called for in that national 
defense strategy at a low-to-moderate level of risk, and any additional 
resources (beyond those programmed in the current Future Years Defense 
Program) required to achieve such a level of risk. The law also 
requires the QDR to make recommendations that are not constrained to 
comply with and are fully independent of the budget submitted to 
Congress by the President.
    What is your understanding and assessment of the Department's QDR 
analysis and decisionmaking processes to address these two 
requirements?
    Answer. In my view, the Department's QDR process is strategy-driven 
and resource-informed. This is appropriate and ensures that the QDR 
usefully sets priorities for the Department. A strategy-driven approach 
allows the Department to take a comprehensive view of the strategic 
environment and identify the full range of missions that the Department 
would need to undertake to meet potential challenges to U.S. national 
interests. A resource-informed process motivates the Department to 
pursue innovation and reach difficult decisions in determining the best 
mix of investments in capabilities, capacity, and readiness to execute 
the strategy.
    If, in the process of shaping the overall defense program, the 
Department's leaders were to determine that available resources were 
not sufficient to execute a defense strategy necessary to achieve the 
larger national security objectives set forth by the President, it 
would be incumbent upon them to say so.
    Question. In your view, is there analytical and/or practical value 
in a defense strategy that is unconstrained by or independent of the 
current budget request or fiscal environment?
    Answer. A defense strategy completely unconstrained by fiscal 
realities would not be very useful, in my view. An effective defense 
strategy should examine the future security environment to assess and 
prepare the Department for the range of missions needed to meet 
potential challenges to U.S. national interests. Although the QDR is 
strategy-driven, the defense strategy should also be resource-informed, 
particularly in this fiscal environment, because a defense strategy is 
effective only if it is executable. Because it is not possible to 
eliminate all risk from the Nation's security, devising a resource-
unconstrained strategy and accompanying force structure is not 
practical, given that it is impossible to eliminate risk completely in 
such a complex strategic environment.
    A resource-informed process ensures that the Department sets 
priorities among its investments and activities--a central function of 
an effective strategy--and considers risks explicitly.
    Question. In your view, what would be the indications that the line 
between a budget-informed strategy and a budget-driven strategy has 
been crossed?
    Answer. A budget-driven strategy defines ends, ways, and means 
based on available resources. A budget-driven strategy would contain 
little to no risk because, by definition, the strategy is designed to 
do only what can be done with available resources, regardless of what 
might be needed in terms of advancing national interests. A budget-
informed strategy first considers national interests and objectives, 
then assesses how to achieve those objectives given the strategic 
environment, and then develops specific ways and means to try to meet 
desired ends, informed by the likely available resource levels. A 
budget-informed strategy would explicitly consider risks to the 
strategy that may result from the reality that resource levels are 
finite. A strategy that failed to describe any inherent risks would be 
an indication, in my view, that the line between a budget-informed and 
a budget-driven strategy has been crossed.
                          global force posture
    Question. As the Defense Department continues its assessment of 
projected budget cuts on its end strength, force structure, and other 
programs, it must also consider the costs, benefits, and risks 
associated with the permanent stationing of military forces in 
countries around the world. Based on a series of reports by GAO, 
evidence indicates that the Department is challenged in its ability to 
comprehensively and reliably estimate the cost of our global defense 
posture.
    What is your understanding and assessment of the cost and benefits 
of the U.S. global defense posture and the stationing of U.S. military 
forces overseas?
    Answer. The financial cost of overseas stationing must be balanced 
against U.S. national interests and national security imperatives. 
DOD's global defense posture enables military operations overseas and 
is a visible expression of U.S. national security interests and 
priorities abroad. In many cases, our posture is essential to 
interoperability with partners and encourages other nations to work 
alongside with us to address common interests. As with any defense 
investment, global defense posture decisions should be strategy-driven 
and carefully examine risk and trade-offs.
    Question. In light of the force structure reductions associated 
with the Department's planned end strength cuts, and potentially even 
deeper future end strength cuts, if confirmed, how would you propose to 
allocate those reductions between forces based within the United States 
and forces stationed outside the United States?
    Answer. If confirmed, I would allocate available forces consistent 
with our defense strategy, selectively tailoring U.S. defense presence 
overseas to advance and protect our interests most effectively. Any 
force allocation, whether permanent or rotationally deployed, would 
need to contribute measurably to a strategic priority, such as 
protecting the homeland, sustaining defense contributions to the Asia-
Pacific rebalance, maintaining U.S. assurances of security in the 
Middle East, sustaining NATO Article V commitments, and retaining the 
ability to engage actively in building partnerships globally.
    Question. What is your understanding and assessment of the DOD 
methodology and assumptions used to evaluate the relative cost of 
overseas posture compared to stationing forces in the United States?
    Answer. Although forward stationing can, in many cases, meet the 
required presence for a specific mission with less total force 
structure--a consideration in an austere budgetary environment--there 
are also significant costs associated with forward stationing that 
merit careful review. When considering the relative costs and benefits 
of overseas stationing, the Department employs a rigorous process to 
evaluate the ``business case'' of each forward stationing decision, 
taking into consideration our national strategy, U.S. costs, host 
nation contributions, and political-military and operational 
considerations.
    Question. If confirmed, what actions would you take or changes 
would you recommend, if any, to DOD's methodology and assumptions in 
determining the cost of overseas force posture compared to forces 
stationed in the United States?
    Answer. At this time, in my view, the Department's methodology and 
assumptions for determining overseas force posture are appropriate and 
useful, given the complexity of the issues, and assist in our posture 
decisionmaking processes.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations, including the global train and equip authority (section 1206), 
targeted authorities in Yemen and East Africa, and the Global Security 
Contingency Fund.
    In your view, what are our strategic objectives in building the 
capacities of partner nations?
    Answer. The Department's principal capacity-building objective 
should be to develop partner nation forces and their supporting defense 
and security institutions so that they can provide for their own 
internal security, and, when necessary, take effective action against 
those that pose an external threat.
    Question. What improvements, if any, would you recommend, if 
confirmed, to the strategic direction, oversight, and management of the 
Department's programs for building partner capacity (BPC) to ensure 
that these programs are executed consistent with our national security 
goals and objectives?
    Answer. If confirmed, I would ensure that DOD capacity-building 
programs fulfill defined strategic requirements, close important 
capability gaps, and adhere to the Department's strategic guidance. As 
part of the Policy reorganization, we are creating a new DASD for 
Security Cooperation, which will help us ensure even better alignment 
between the BPC programs and our larger defense strategy.
    Question. In your view, what should be the role of DOD, vis-a-vis 
the State Department and other civilian departments and agencies in 
efforts to build the capacity of foreign security forces?
    Answer. Building the capacity of foreign security forces can best 
be achieved when the expertise and resources of the entire U.S. 
Government are brought together in a synchronized and coordinated 
manner. If confirmed, I would seek strong relationships with DOD's 
interagency partners, in particular the State Department, to support 
and inform our combined efforts.
                          combating terrorism
    Question. What is your assessment of the threat posed by al Qaeda 
and its associated forces to the U.S. Homeland, U.S. interests 
overseas, and Western interests more broadly?
    Answer. Al Qaeda's intent and capability to attack the United 
States varies by affiliate, but striking the homeland is a common theme 
in al Qaeda's propaganda and planning. We take these threats seriously 
and, if confirmed, I would work to ensure the Department remains 
capable and ready to take appropriate action to counter them.
    Question. What do you believe is the terrorism threat from al Qaeda 
and affiliated groups in each of the geographic combatant commands? Of 
these threats, what do you consider the highest counterterrorism 
priorities?
    Answer. Al Qaeda's core has been relatively isolated by pressure 
from the United States. However, core al Qaeda and its affiliates and 
adherents in the Afghanistan-Pakistan region are a persistent and 
serious threat and remain a priority. New groups of geographically 
dispersed, diverse, and loosely affiliated extremists have also 
emerged, which pose localized threats to U.S. personnel overseas.
    Yemen-based al Qaeda in the Arabian Peninsula (AQAP) has the intent 
and the capability to conduct attacks against the United States, and is 
among our highest counterterrorism priorities. The Department 
collaborates extensively with Yemeni forces to capture or kill key AQAP 
leadership and operatives, and our programs to train, advise, and equip 
Yemeni forces are critical to long-term efforts against AQAP.
    In the Levant, thousands of foreign fighters are traveling to 
support the Syrian insurgency against the Assad regime. Al Qaeda-
affiliated groups in Syria are becoming a growing regional threat and a 
potential threat to the U.S. Homeland. If confirmed, I would support 
improving coordination and information sharing on foreign extremist 
flows from Syria, and would continue working with Jordan and Israel to 
support their stability.
    In Africa, Somalia-based al-Shabaab is a threat to U.S. and Western 
interests in the Horn of Africa, and potentially to the homeland 
through its links to al Qaeda and Somali diaspora communities. Al-
Shabaab has demonstrated the capability to stage complex, high-profile 
attacks against Western targets outside Somalia and to harm U.S. 
citizens abroad.
    Algeria-based al Qaeda in the Islamic Maghreb (AQIM) and its 
regionally based associates threaten U.S. persons and interests in 
North and West Africa. These threats have flourished from instability 
in Libya and Mali, leading to hostage situations and high-profile 
attacks in Mali and Niger. However, my understanding is that there is 
no current, credible evidence that AQIM is a direct threat to the U.S. 
Homeland.
    Question. What is your understanding of the Department's role in 
the U.S. strategy to combat terrorism?
    Answer. The U.S. Government is engaged in a multi-departmental, 
multi-national effort guided by the National Strategy for 
Counterterrorism. DOD supports this strategy principally by building 
the capacity of partner security forces, collecting intelligence, 
conducting information operations, and, when appropriate, conducting 
operations to capture or kill terrorists who pose a continuing, 
imminent threat to U.S. persons.
    Question. Are you aware of any nexus between non-state actors and 
criminal networks?
    Answer. It is my understanding that there is a strong nexus between 
illicit non-state actors and criminal networks worldwide. I am aware of 
a few examples that pose threats to our national security interests and 
to those of our allies and partners. The Taliban continues to finance 
their insurgency activities through regional trade in illicit drugs. 
Additionally, the transnational drug cartels in Mexico rely on global 
criminal networks to sell their product and expand into new markets, 
and pirates off the coast of Somalia depend on land-based illicit 
networks to finance their operations.
    Question. Given your current knowledge of DOD's programs, do you 
believe resources are aligned in a manner consistent with these 
counterterrorism priorities?
    Answer. Yes. I believe the Department's counterterrorism resources 
are currently aligned consistent with the priorities outlined in the 
National Strategy for Counterterrorism. If confirmed, I would continue 
working with the Secretary, the Joint Staff, the Combatant Commands, 
and interagency partners to ensure that alignment of the Department's 
resources evolves with the nature--and geography--of the threat.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent legislation, authorizes the provision of support 
(including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by U.S. Special Operations Forces to combat terrorism.
    What is your assessment of the overall effectiveness of this 
authority?
    Answer. Section 1208 remains critical to our counterterrorism 
efforts across a wide range of operational environments. If confirmed, 
I would make it a priority to gain a deeper understanding of the costs, 
benefits, and risks associated with activities conducted under section 
1208 authority.
    Question. The fiscal year 2014 appropriations bill makes a number 
of changes to the prohibitions and vetting process required for 
training and equipping foreign security forces that have committed 
gross violations of human rights.
    What is your understanding of the impact of these changes on the 
1208 program?
    Answer. I fully support ensuring that foreign security forces who 
have committed gross violations of human rights are prohibited from 
receiving U.S. training or equipment. If confirmed, I would ensure that 
Congress is fully informed of any required changes to our programs as a 
result of this provision in the DOD Appropriations Act, 2014.
           department of defense counternarcotics activities
    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends more than $1.0 billion to support CN operations, build the 
capacity of certain foreign governments around the globe, and analyze 
intelligence on CN-related matters.
    What is your understanding and assessment of the DOD CN program?
    Answer. It is my understanding that the Department's role in U.S. 
counterdrug efforts is to employ knowledge, skills, and capabilities to 
confront a range of national security threats associated with drug 
trafficking and related forms of transnational crime. As the lead 
agency for the detection and monitoring of aerial and maritime drug 
traffic bound for the United States, DOD has provided critical 
counterdrug support to State, local, Federal, and foreign law 
enforcement partners to combat the flow of illicit drugs into our 
country. DOD counterdrug efforts support the National Security 
Strategy, the National Drug Control Strategy, and the Strategy to 
Combat Transnational Organized Crime.
    Question. What is your understanding of the Department's CN 
authorities?
    Answer. In my experience, the Department's counternarcotics 
authorities are important tools to confront the threat of narcotics 
trafficking, terrorism, and transnational organized crime that 
increasingly pose a threat to our national security interests. Under 
its CN authorities, the Department serves as the lead U.S. Government 
agency for the detection and monitoring of aerial and maritime drug 
traffic bound for the United States, supporting State, local, tribal, 
Federal, and international law enforcement partners' activities to stem 
the flow of illicit drugs into the United States. The CN authorities 
also provide for the National Guard's counterdrug activities in 50 
States and 3 Territories and support the theater campaign plans of all 
6 geographic combatant commands.
    Question. Should the Department continue to play a role in 
countering illegal narcotics trafficking?
    Answer. Yes. The global flow of illicit narcotics and other 
contraband commodities provides resources that finance transnational 
terrorism and insurgencies and that undermine legitimate government 
institutions, foster corruption, and distort legitimate economic 
activity. The Department's CN programs focus on building the capacity 
of our foreign partners to confront these issues, serving to prevent 
and deter conflicts that could require a much more costly U.S. military 
intervention in the future.
                         counter threat finance
    Question. A number of officials in DOD and the Intelligence 
Community (IC) have called for investing significantly more resources 
in identifying and tracking the flow of money associated with terrorist 
networks and illicit trafficking.
    What are your views on the role of DOD in counter-threat finance 
activities?
    Answer. I believe it is essential to engage all U.S. government 
tools to track and halt the illicit flow of money and to fight our 
adversaries' ability to access and use global financial networks. While 
DOD is not the lead U.S. Agency for Counter-Threat Finance (CTF), the 
Department works with and supports other departments, agencies, and 
partner nations through a unique set of capabilities, including long-
term planning, network analysis, and intelligence analysis.
    Question. In your view, should DOD seek to expand its support to 
other U.S. Government departments and agencies conducting counter 
threat finance activities?
    Answer. I believe DOD should continue to support U.S. Government 
departments, agencies, and partner nations with CTF assistance, within 
existing DOD resources. If confirmed, I will work to ensure the 
Department remains fully engaged in the interagency process on counter 
threat finance and is postured to provide additional support if 
necessary.
       national strategy to combat transnational organized crime
    Question. Transnational criminal organizations are having a 
debilitating impact on the ability of our foreign partners to govern 
their nations and provide opportunities for their people. DOD is by no 
means the U.S. Government's law enforcement agency, but it does bring 
unique enabling capabilities to our Nation's Federal law enforcement 
agencies.
    What role, if any, should the Department play in combatting 
transnational criminal organizations?
    Answer. The President's Strategy to Combat Transnational Organized 
Crime (TOC) declares TOC a threat to national security. Although DOD 
does not serve as the lead U.S. Government agency for TOC, it has 
provided and can provide unique, important support to U.S. efforts. 
These DOD-specific capabilities primarily include military intelligence 
support and counter-threat finance support to U.S. law enforcement.
                        nuclear weapons council
    Question. The USD(P) is a member of the Nuclear Weapons Council 
(NWC).
    In your view, what are the significant issues that the NWC should 
take up in the coming years?
    Answer. The significant issues facing the NWC in the coming years 
involve the need to sustain and modernize our weapons and our 
infrastructure in a time of limited budgets. Key decisions will have to 
be made on the scope and sequencing of both weapon and facility 
modernization. Additionally, in the wake of recent incidents involving 
personnel in our nuclear forces, I believe the NWC should examine any 
relevant implications of the Secretary's ongoing internal and external 
reviews of the nuclear enterprise.
    Question. If confirmed would you commit to active personal 
participation in Nuclear Weapons Council matters?
    Answer. Yes. If confirmed, I would commit to active personal 
participation in NWC matters. I have participated in Council meetings 
previously and would welcome the opportunity to do so again.
                 nuclear weapons complex modernization
    Question. Section 1251 of the National Defense Authorization Act 
for Fiscal Year 2010 (Public Law 111-84) required a report (the ``1251 
report'') on plans for modernizing the nuclear weapons complex and 
strategic delivery systems. Prior to the Budget Control Act of 2011, 
the 1251 report that accompanied the New START treaty set forth a 
robust plan for modernizing the nuclear weapons complex and the triad 
of nuclear delivery vehicles.
    Do you support the modernization plan set forth in the 1251 report?
    Answer. I do support the modernization plan set forth in the report 
by the administration.
    Question. Do you agree that modernizing the nuclear triad and 
replacing critical infrastructure, such as the Chemistry and Metallurgy 
Research Replacement (CMRR) at Los Alamos and the Uranium Processing 
Facility (UPF) at Y-12, should be national security priorities that 
should be addressed in a timely manner?
    Answer. I agree that modernizing both the nuclear Triad and the 
critical infrastructure should be priorities that are addressed in a 
timely manner. DOD has reviewed how best to replace critical nuclear 
infrastructure like the UPF, and has identified a more cost-effective 
way forward. If confirmed, I would support efforts to modernize both 
the weapons and facilities in a cost effective manner.
               dod's cooperative threat reduction program
    Question. Do you think the Cooperative Threat Reduction (CTR) 
program is well coordinated among the U.S. Government agencies that 
engage in threat reduction efforts, e.g., DOD, the State Department, 
and the Department of Energy?
    Answer. My understanding is that the CTR Program and other threat 
reduction programs executed by Federal agencies are effectively 
coordinated by the National Security Council staff. If confirmed, I 
would work to ensure that the CTR program's activities continue to be 
well-coordinated within the Department and with interagency and 
international partners.
    Question. The CTR program has been expanded to geographic areas 
outside the former Soviet Union, for example including Syrian chemical 
weapons destruction.
    What in your view are the key proliferation concerns that CTR 
should address outside the former Soviet Union? Please explain.
    Answer. In my view, the key proliferation concerns the CTR Program 
should address outside the FSU are preventing the proliferation of WMD 
technology, materials, and expertise, as well as delivery systems. The 
President has highlighted nuclear and biological materials 
proliferation as key threats, and if confirmed, I would ensure that the 
CTR Program strongly supports efforts to reduce these threats.
    Question. Which countries outside the former Soviet Union should be 
the focus of this expansion of the CTR program?
    Answer. The threat of WMD proliferation is a global concern. I 
understand that the CTR Program uses a threat-based approach to 
identify potential partners to allow for flexibility in responding to 
rapidly evolving situations. If confirmed, I would continue to use a 
threat-based approach as a principal driver of future CTR activities.
    Question. CTR has completed its scheduled work with Russia.
    What in your view is the next step, if any, in the U.S.-Russia CTR 
program?
    Answer. I understand that although the CTR Program has concluded 
most of its work with Russia, there are still important nuclear 
security activities underway with Russia as part of the CTR Program, 
which now will occur under a new bilateral framework agreement 
(Multilateral Nuclear Environmental Programme in the Russian 
Federation) and a related bilateral Protocol. I also understand that 
Russia is interested in cooperating with the United States and other 
nations to address the threat posed by WMD terrorism. If confirmed, I 
would work with members of Congress to ensure current efforts are 
completed and would explore additional cooperative opportunities with 
Russia to reduce the threat posed by WMD.
                        illicit arms trafficking
    Question. What is your understanding of the problem of illicit arms 
trafficking and the role of the United States to deal with the problem?
    Answer. Illicit arms trafficking, unfortunately, continues to be a 
pervasive, worldwide problem. Because it has a robust arms export 
control system, the United States can help partner countries, through 
dialogue, to develop best practices and methods of controlling the 
transfer of arms.
    Question. In your view, to what extent, if at all, does the lack of 
national controls and enforcement on arms flows contribute to the 
illicit trafficking problem, and could efforts to respond to illicit 
trafficking be improved if other countries adopted and enforced 
national regulations on arms import, export, and transit similar to 
those of the United States?
    Answer. Where illicit arms trafficking is widespread, partner 
countries should indeed seek to improve their export, import, and 
transit controls for the transfer of arms. It is important for other 
countries to advance these controls, to a standard closer to that of 
the United States, so the international community can make significant 
progress in combatting this problem.
    Question. Do you think the arms trade treaty would enhance U.S. 
national security interests?
    Answer. Yes. My understanding is that the Arms Trade Treaty (ATT) 
would help establish higher standards for the international transfer of 
arms. This would help in preventing them from reaching the illicit 
market. The treaty would also establish international norms so that 
countries can better regulate, on a national basis, the transfer of 
arms and thus prevent them from getting into the hands of terrorists or 
other criminals. In this regard, the ATT would enhance U.S. national 
security interests.
                              arms control
    Question. What role do you see for arms control as a means of 
improving U.S. national security?
    Answer. Arms control can contribute to U.S. national security by 
providing predictability, stabilizing the strategic or military balance 
between the United States and other nations at lower levels of weapons, 
constraining arms competition, and reducing the number of weapons other 
States possess. Such agreements, and their attendant verification 
provisions, make the United States safer, more secure, and provide 
mutual transparency and predictability regarding military forces that 
builds confidence and assists in force modernization planning.
    Question. What are your views on the possible next steps to address 
nuclear weapons issues between the United States and Russia?
    Answer. The New START treaty strengthens strategic stability with 
Russia at reduced nuclear force levels and limits the number of Russian 
ballistic missile warheads. After a comprehensive review of U.S. 
nuclear forces, the President concluded that we can ensure the security 
of the United States and our allies and partners and maintain a strong 
and credible nuclear deterrent while safely pursuing up to a one-third 
reduction in deployed nuclear weapons below the limits established in 
the New START treaty. The administration is seeking to pursue such 
reductions through negotiations with the Russian Federation. To date, 
Russia has shown little interest in pursuing such negotiations, though 
discussions can and should continue.
    Question. What conditions, if any, do you believe need to be met to 
further reduce strategic and non-strategic nuclear stockpiles through 
arms control?
    Answer. The United States has publicly and privately conveyed to 
Russia its desire to seek additional negotiated reductions. However, 
Russia has so far shown no interest in negotiating further reductions. 
The administration will continue to engage with Russia in appropriate 
bilateral and multi-lateral venues to gauge interest in pursuing 
opportunities for arms control relating to both strategic and 
nonstrategic nuclear stockpiles.
    Question. What might be the risks and benefits of pursuing 
reductions below New START force levels?
    Answer. Further nuclear reductions would reduce the number of 
weapons that can be targeted against the United States, promote our 
nuclear non-proliferation objectives, and support strategic stability 
and predictability at lower numbers of nuclear weapons. Such a posture, 
if supported by modernization programs to maintain the effectiveness 
and credibility of our nuclear forces and by close consultation and 
strategic cooperation with allies and partner nations in Europe and 
Northeast Asia, poses few if any risks as the United States will have a 
sufficient stockpile to deter and/or respond to 21st century threats.
                       ballistic missile defense
    Question. Do you support the policies, strategies, and priorities 
set forth in the February 2010 Ballistic Missile Defense Review and, if 
confirmed, will you implement them?
    Answer. Yes, I support the conclusions of the 2010 Ballistic 
Missile Defense Review. If confirmed, I would continue ongoing U.S. 
implementation efforts.
    Question. Do you agree that any ballistic missile defense systems 
that we deploy operationally must be operationally effective, suitable, 
survivable, cost-effective, affordable, and should address a credible 
threat?
    Answer. Yes, it is important that we invest in effective, 
affordable missile defense systems that counter credible threats.
    Question. Do you agree that ballistic missile defense testing needs 
to be operationally realistic, and should include Operational Test and 
Evaluation, in order to assess operational capabilities and limitations 
of ballistic missile defense systems, prior to deploying such systems?
    Answer. Yes, I agree. Realistic testing is an essential element on 
the path to deployment.
    Question. The two most recent attempted intercept flight tests of 
the Ground-based Midcourse Defense (GMD) system failed to intercept 
their targets, one in December 2010, using a Capability Enhancement-2 
(CE-2) kill vehicle, and one in July 2013, using the older CE-1 kill 
vehicle. The Director of the Missile Defense Agency (MDA) has indicated 
that MDA's highest priority is correcting the problems that caused 
these flight test failures, and that such corrections need to be 
demonstrated through successful intercept flight testing.
    Do you agree that it is essential to demonstrate through successful 
and operationally realistic intercept flight testing that the problems 
that caused these flight test failures have been corrected, and that 
the GMD system will work as intended, with both the CE-1 and CE-2 kill 
vehicles?
    Answer. Yes, I fully support rigorous and realistic testing as an 
essential element to improving the reliability of the GMD system.
    Question. On March 15, 2013, Secretary Hagel announced plans to 
improve our Homeland ballistic missile defense capability to stay ahead 
of ballistic missile threats from North Korea and Iran, including the 
deployment of 14 additional Ground-Based Interceptors (GBIs) at Fort 
Greely, AK, by 2017. Secretary Hagel stated that, prior to deploying 
these 14 additional GBIs, there would need to be confidence that the 
system would work as intended, through successful testing of the GMD 
system with the CE-2 kill vehicle.
    Do you agree with Secretary Hagel's ``fly-before-you-buy'' approach 
that the GMD system needs to demonstrate successful operationally 
realistic intercept flight test results before we deploy any additional 
GBIs?
    Answer. Yes, I agree. ``Fly-before-you-buy'' is a fiscally 
responsible approach that will ensure the best use of defense funds.
    Question. In a recent report, the Director of Operational Test and 
Evaluation said that the GMD flight test failures had raised questions 
about the robustness of the EKV design and recommended that the 
Department consider redesigning the EKV to be more robust. The 
Department is already planning a redesigned EKV, and Congress supported 
the funding requested for fiscal year 2014 to develop Common Kill 
Vehicle Technology.
    Do you agree there is a need to improve the GMD system, including 
through development and testing of a redesigned EKV and improvements to 
sensor and discrimination capabilities, to increase the reliability and 
performance of the system against evolving homeland missile threats 
from North Korea and Iran?
    Answer. Yes, I agree. GMD improvements will increase the 
reliability and performance of the system against evolving missile 
threats to the Homeland from North Korea and Iran.
    Question. DOD has successfully completed deployment of Phase 1 of 
the EPAA to missile defense and is proceeding toward planned deployment 
of Phases 2 and 3 in 2015 and 2018, respectively, to protect all of 
NATO European territory against Iranian missiles.
    Do you support the EPAA and other similar United States regional 
missile defense efforts and, if confirmed, will you work to implement 
them?
    Answer. Yes. Our regional missile defenses provide an essential 
capability for defending U.S. forces abroad, and our allies and 
partners. If confirmed I would continue to support the EPAA as well as 
other regional missile defense efforts.
                   space management and organization
    Question. What role, if any, do you believe the USD(P) should play 
in the establishment of a national security space policy?
    Answer. The role of the USD(P) is to oversee implementation of 
existing national security space policy in coordination with other 
departments and agencies and with Congress. The USD(P) also oversees 
development of new policy when circumstances warrant. If I am 
confirmed, I look forward to working with my Departmental and 
interagency colleagues, and the members of this committee, on 
implementing our existing national security space policies and on 
continually assessing developments in the international security 
environment that could affect our national security interests in space.
    Question. Do you support the policy of having an operationally 
responsive space (ORS) capability as a means to lower the cost and time 
for the development of national security space payloads?
    Answer. I support the objectives of ORS to meet warfighter 
requirements at a lower cost and in a more timely way. DOD remains 
committed to achieving those goals. To that end, DOD is working to 
ensure that resilience, survivability, flexibility, and responsiveness 
are considered in all future space programs.
    Question. The launch of the ORS-1 satellite demonstrated that 
giving combatant commanders such as CENTCOM the ability to control a 
small operationally responsive satellite can be successful.
    Would you support extending this capability to other COCOMs through 
the development of additional small tactically responsive satellites?
    Answer. DOD is committed to satisfying validated and prioritized 
combatant commander requirements to the extent that resources allow. 
ORS-1 was an appropriate solution to the urgent need to support U.S. 
Central Command (CENTCOM) with increased intelligence during Operations 
Iraqi Freedom and Enduring Freedom, given the options available. As we 
move forward, we need to exhibit flexibility and look to both 
government solutions and increasingly capable and available commercial 
options for meeting urgent warfighter requirements.
    Question. Space systems, like other military systems, rely on the 
availability of sufficient frequency spectrum. However, frequency 
spectrum is becoming scarce, and its sale has been used as a source of 
revenue for the government.
    If confirmed, how will you work with the Services, the Joint Staff 
and other elements of DOD to ensure that the Department's frequency 
spectrum requirements are accounted for in interagency discussions 
about potential spectrum auctions?
    Answer. DOD's Chief Information Officer (CIO) has the lead 
responsibility for DOD interests regarding spectrum requirements, 
including representing DOD in interagency discussions about spectrum 
auctions. If confirmed as the USD(P), I would ensure continued close 
cooperation between OSD Policy and the CIO organization, as well as 
with the Services and Joint Staff, to address the interests of all DOD 
and non-DOD spectrum users.
                       special operations forces
    Question. The previous two QDRs have mandated significant growth in 
our Special Operations Forces and enablers that directly support their 
operations.
    Do you believe QDR-directed growth in the size of Special 
Operations Forces can and should be maintained in light of current 
fiscal challenges?
    Answer. Since 2001, the United States has doubled the size of U.S. 
Special Operations Command (SOCOM) and tripled its budget. As forces 
withdraw from Afghanistan, we have opportunities to redistribute 
Special Operations Forces (SOF) to engage with partner nations, build 
capabilities, and remain vigilant for future threats. If confirmed, I 
would work closely with my interagency counterparts to develop options 
for the best use of these capabilities and, with the Assistant 
Secretary of Defense (SO/LIC) and the Commander, SOCOM, to examine this 
issue further.
    Question. Special Operations Forces heavily rely on enabling 
capabilities provided by the general purpose forces to be successful in 
their missions.
    Answer. In light of current fiscal challenges, do you believe 
sufficient enabling capabilities can be maintained within the general 
purpose forces and that such capabilities will remain available to 
Special Operations Forces when needed?
    I believe that, as the Department reshapes overall force structure, 
it will ensure that the excellent intelligence, medical, 
communications, and other support provided by the Services to both SOF 
and the general purpose forces continue. If confirmed, I would work 
closely with the Secretaries of the Military Departments, the Service 
Chiefs, the ASD(SO/LIC), and the Commander, SOCOM to ensure the 
Department achieves the appropriate balance.
    Question. Do you believe Special Operations Forces should develop 
additional organic enabling capabilities in addition or in place of 
those currently provided by the general purpose forces?
    Answer. I believe SOF's enabling requirements can likely be met by 
both internally reexamining the SOF force structure for ``SOF-
particular'' requirements, and by establishing common Service 
capabilities to fill the remaining SOF enabler requirements. This 
arrangement allows for more focused application of SOF-specific funds 
and avoids duplication of capabilities with those of the Services.
    Question. The Commander of SOCOM has sought more control over the 
deployment and utilization of Special Operations Forces. For example, 
the Secretary of Defense modified policy guidance for the combatant 
commands earlier this year that gave SOCOM, for the first time, 
responsibility for resourcing, organizing, and providing guidance to 
the Theater Special Operations Commands of the geographic combatant 
commanders and Special Operations Forces assigned to them. It has been 
reported that the Commander of SOCOM is also seeking new authorities 
that would allow him to more rapidly move Special Operations Forces 
between geographic combatant commands.
    Please provide your assessment of whether such changes are 
appropriate and can be made without conflicting with civilian control 
of the military, infringing upon authorities provided to the geographic 
combatant commanders, or raising concerns with the State Department.
    Answer. The Secretary of Defense continues to rely on the 
geographic combatant commanders to oversee all military activities in 
their respective areas of responsibility, including deployments of SOF 
personnel resourced by SOCOM. If confirmed, I would work closely with 
interagency colleagues to ensure deployments of SOF are fully 
coordinated and synchronized with the geographic combatant commanders, 
interagency partners, and the relevant Chiefs of Mission.
    Question. Do you believe SOCOM is appropriately resourced to 
adequately support the Theater Special Operations Commands and Special 
Operations Forces assigned to them?
    Answer. Yes, I believe we have the right resources in place today. 
If confirmed, I would work with the ASD(SO/LIC) and the Commander, 
SOCOM to understand more fully future requirements to support the 
Theater Special Operations Commands and Special Operations Forces 
assigned to them.
                      private security contractors
    Question. What steps, if any, would you take, if confirmed, to 
ensure that any private security contractors (PSC) who may continue to 
operate in an area of combat operations act in a responsible manner, 
consistent with U.S. defense and foreign policy objectives?
    Answer. I am aware that over the years and based on lessons 
learned, DOD has published formal policy and procedures for the use of 
PSCs as both a department instruction and as part of the Code of 
Federal Regulations (title 32 CFR 159). The Department has also 
contributed to the development and publication of U.S. national 
standards from the American National Standards Institute for PSCs. If 
confirmed, I would work closely with the Under Secretary of Defense for 
Acquisition, Technology, and Logistics to continue to ensure that PSCs 
act in a responsible manner.
                       detainee treatment policy
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes. The humane treatment of detainees is fundamental to 
the Department's detention operations in armed conflict. If confirmed, 
I would ensure that all our policies continue to be consistent with all 
applicable law, including Common Article 3 of the Geneva Conventions.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes. It is vital to the war effort for the Department to 
continue gaining intelligence from captured enemy forces, in a manner 
consistent with our values. The Department must hold its personnel to 
the highest treatment standards for detention in armed conflict.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes. If confirmed, I would ensure that all of the 
Department's policies and plans continue to be implemented consistent 
with Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. Yes. I believe that the manner in which the Department 
treats detainees in the current conflict reflects our character and 
sets the standards by which we should expect our own personnel to be 
treated in future conflicts.
             training and equipping foreign security forces
    Question. The fiscal year 2014 appropriations bill makes a number 
of changes to the prohibitions and vetting process required for 
training and equipping foreign security forces that have committed 
gross violations of human rights.
    What is your assessment of these changes and their possible effect 
on the Department's ability to provide needed training, especially in 
countries such as Mexico, Afghanistan, and Myanmar?
    Answer. The Secretary of Defense and I strongly support both the 
letter and spirit of the Leahy law. As I understand it, OSD Policy, the 
Office of the General Counsel, the Joint Staff, and the Combatant 
Commands are working closely with the State Department to assess the 
impact of the changes to the Leahy law in the fiscal year 2014 DOD 
Appropriations Act.
    Question. What concerns, if any, do you have regarding the changes 
to the law?
    Answer. Overall, I fully support the Leahy law and human rights 
vetting. As with any changes in law, if confirmed, I would ensure that 
we work to develop clear implementation guidance for our commanders. I 
do not have any specific concerns at this point.
    Question. Would it be beneficial to have an exception to the 
prohibitions on training and providing assistance to allow the 
Department to provide limited training on human rights, rule of law, 
the English language, and the law of armed conflict?
    Answer. It is my understanding that, at this point, the Department 
is not recommending any changes to the Leahy law.
         prisoner of war/missing in action accounting community
    Question. In the 2010 National Defense Authorization Act, Congress 
directed that the POW/MIA accounting community be resourced 
sufficiently to realize significant increases in identifications, with 
the goal of 200 per year by 2015. Despite increasing resources, the 
Department continues to identify less than half that number annually. 
Last year, GAO found that the Department's response to that accounting-
for goal has revealed and brought to the fore: ``longstanding disputes 
[within the community] that have not been addressed by top-level 
leaders, and have been exacerbated by the accounting community's 
fragmented organizational structure. . . . Leadership from the USD(P) 
and Pacific Command have been unable to resolve disputes between 
community members in areas such as roles and responsibilities and 
developing a community-wide plan to meet the statutory accounting-for 
goal. Further, the accounting community is fragmented in that the 
community members belong to diverse parent organizations under several 
different chains of command. With accounting community organizations 
reporting under different lines of authority, no single entity has 
overarching responsibility for community-wide personnel and other 
resources.''
    What is your reaction to this finding?
    Answer. I support GAO's findings, and understand that the 
Department began implementing these recommendations in 2013. If 
confirmed, I would continue implementation of GAO's remaining 
recommendations.
    Question. What is your view of the organization, management, and 
budget structure of the POW/MIA community?
    Answer. I support the recent findings of the GAO's review of the 
accounting community. The accounting community suffers from a 
fragmented organizational structure. The community is currently the 
subject of reviews by CAPE and the DOD IG, and should I be confirmed, I 
would be committed to making the community more efficient and 
effective.
    Question. If confirmed, what changes would you propose to address 
these organizational, management, and budgetary issues that appear to 
be hampering the recovery mission of the POW/MIA community?
    Answer. The accounting community suffers from a fragmented 
organizational structure, and command and control functions should be 
streamlined as much as possible. If confirmed, I would be committed to 
reforms to make it more efficient and effective, including examining 
all options and recommendations for streamlining the community.
    Question. The committee has historically maintained that recovery 
operations in North Korea are a humanitarian effort, and should not be 
tied to the larger political and strategic issues surrounding North 
Korea. Since its inception in 1996 until its suspension in 2005, this 
program was seen by both parties as humanitarian in nature. The program 
is very important to the families of these missing servicemembers.
    What is the status of resumption of recovery operations in North 
Korea?
    Answer. In October 2011, the United States and the Democratic 
People's Republic of North Korea (DPRK) agreed to resume joint remains 
recovery operations in the DPRK. As I understand it, in March 2012, the 
United States suspended operations because the DPRK took actions that 
violated the arrangement to recover remains. I am committed to 
achieving the fullest possible accounting for all our missing, 
including the more than 7,900 U.S. servicemen from the Korean War of 
which we estimate that 5,300 are missing in the DPRK.
    Question. Does the Department intend to wait until political and 
strategic issues are resolved before approaching North Korea?
    Answer. Engagement with the DPRK on remains recovery issues is a 
national-level issue. As I understand it, the United States will engage 
with the DPRK when conditions permit.
                           minerva initiative
    Question. The Minerva Initiative is a DOD-sponsored, university-
based social science research initiative established in 2008 focusing 
on areas of strategic importance to U.S. national security policy. The 
goal of the Minerva Initiative is to improve DOD's basic understanding 
of the social, cultural, behavioral, and political forces that shape 
regions of the world of strategic importance to the United States for 
better awareness for Phase 0 operations. OSD Policy and the ASD 
(Research & Engineering) co-lead this initiative. Since its inception, 
examples of research funded by the Minerva Initiative include insights 
into China's technology and innovation sector and counter narratives to 
help countering violent extremism. The Initiative has also established 
research and teaching chairs at the professional military education 
colleges.
    What is your understanding and assessment of the Minerva 
Initiative?
    Answer. Over the past 6 years, the Minerva Initiative has been a 
useful vehicle for enabling DOD to encourage and invigorate basic 
social science research in the academic community that supports better 
understanding of emerging national security issues. As a result of 
Minerva-funded research, the Department has strengthened its ability to 
draw on relevant and critical research in the social sciences and 
improved its understanding of emerging features in the global security 
environment. These insights have informed the development of the 
Department's defense strategy and policy.
    Question. If confirmed as USD(P), what guidance, if any, would you 
provide to the Minerva Initiative, including incorporating the results 
from the research produced thus far and utilizing the expertise 
affiliated with this initiative?
    Answer. The Minerva Initiative is a unique channel in that it 
enables Defense Department personnel to draw on the deep body of 
relevant knowledge that resides in academia. Most importantly, it 
facilitates a productive dialogue between decisionmakers and academic 
experts that shapes the direction of future academic research. If 
confirmed, I would seek to ensure that as the Department shapes the 
Minerva Initiative in the future, it strengthens this dialogue so that 
academic research sponsored by the Initiative is fully informed by 
policy priorities.
    Question. What are your thoughts on the usefulness of the Conflict 
Records Research Center at the National Defense University and how can 
it support the Minerva Initiative?
    Answer. The Conflict Records Research Center performs a useful 
function, facilitating academic research by providing access to primary 
source materials captured in past conflicts and helps us learn the 
lessons of past wars. This support to academic research is very much 
aligned with the Minerva Initiative's mission to encourage social 
science research in support of national security.
    The passage of the National Defense Authorization Act for Fiscal 
Year 2014 has authorized funding for the CRRC to become independent 
from government for the first time. I understand the Department is 
working with the Joint Staff, NDU, and other interested parties to find 
a mechanism to facilitate that transition.
    As directed by the legislation, the Department will report back to 
Congress on that effort later this year.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the USD(P)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                             sequestration
    1. Senator Inhofe. Ms. Wormuth, I believe we can all agree that 
sequestration has had a devastating impact on our Nation's military 
readiness. However, I also believe many are under the mistaken 
impression the Ryan/Murray agreement solved this problem. It did not. 
It helped, but the Department of Defense (DOD) is still subject to 
$76.96 billion in sequester cuts in fiscal year 2014 and fiscal year 
2015. Even with the small relief in fiscal year 2014 and fiscal year 
2015, do you think we can execute the current Defense Strategic 
Guidance (DSG)? If you believe we can execute the strategy but with 
greater risk, can you explain what you mean by risk? To me, risk equals 
lives, the lives of our men and women in uniform.
    Ms. Wormuth. The Bipartisan Budget Act did provide the Department 
modest relief from the impact of sequestration in fiscal year 2014 and 
fiscal year 2015, but your observation is correct in that it still 
reduced the Department's budget relative to the President's fiscal year 
2014 budget request. Using the 2012 DSG as our starting point, the 2014 
Quadrennial Defense Review (QDR) updates the defense strategy in light 
of the evolving security and fiscal environments. The 2014 QDR will 
make clear that, at the President's budget level in fiscal year 2015, 
we could execute the defense strategy, although there would be 
increased risk in some mission areas. We would continue to experience 
gaps in training and maintenance over the near term. U.S. Forces would 
remain actively engaged in building partner capacity, but our 
engagement would be even more tailored and selective. Over the long 
term, we would face the risk of uncertainty that is inherent in the 
dynamic and shifting nature of the security environment. We would have 
less margin of error to address unforeseen events, and we would face 
some risk as others develop more advanced capabilities and weapons 
systems. Returning to sequestration level cuts would significantly 
increase these and other risks.

                 national security and defense strategy
    2. Senator Inhofe. Ms. Wormuth, a new QDR should be published soon. 
This is a critical document which sets DOD's strategies and priorities. 
Recently, DOD conducted a Strategic Choices Management Review, commonly 
called the Skimmer. The Skimmer explored different military 
capabilities based upon various funding scenarios. Both of you have 
watched the Skimmer process closely and Ms. Wormuth you have worked on 
the QDR itself. Many are concerned that in an effort to seek defense 
cuts, the new QDR will expose the United States to risks which recently 
would have been unthinkable. Therefore, will the QDR articulate where 
we are going to be taking additional risks?
    Ms. Wormuth. The 2014 QDR does address the risks associated with 
the updated defense strategy and the future force, as envisaged in the 
President's fiscal year 2015 budget submission. It also describes the 
risks that the Department would face should sequester-level cuts be re-
imposed in fiscal year 2016, if proposed reforms are not accepted, or 
if budget uncertainty continues. At the President's budget level, we 
would be able to execute the strategy with increased risk in some 
mission areas; we would still be able to meet the requirements of the 
force planning construct, including the ability to defeat or deny any 
adversary. If sequestration continues, DOD would be unable to adjust 
the size and shape of the force in the more balanced way envisioned in 
the President's budget submission. As a result, readiness would be 
reduced, modernization would be slowed, and reductions in capacity and 
capability would challenge our ability to respond to strategic 
surprise. The 2014 QDR report will describe in detail the implications 
and risks of sequestration to the Department's ability to implement the 
updated defense strategy fully.

    3. Senator Inhofe. Ms. Wormuth, will the defense cuts cause major 
changes to our National Security Strategy and National Military 
Strategy?
    Ms. Wormuth. The 2014 QDR will articulate that at the President's 
budget level, the Department can continue to implement the updated 
defense strategy, which incorporates the priorities of the 2012 DSG, 
with increased risk in some mission areas. If sequestration level cuts 
are reinstated in fiscal year 2016 or beyond, the Department's ability 
to implement the defense strategy fully would be at significant risk. 
The 2014 QDR takes into account the fact that the National Security 
Strategy is being updated. Because the National Security Strategy has 
yet to be finalized, I cannot comment on that document in any detail. 
As I understand it, the Chairman is considering options for developing 
an updated National Military Strategy this year given changes to the 
updated defense strategy, the budget environment, and readiness. The 
updated defense strategy in the 2014 QDR will be the starting point for 
the Chairman, but I would defer to him to answer specific questions 
about the content of a new National Military Strategy.

    4. Senator Inhofe. Ms. Wormuth, how can you tell when a strategy 
has gone from being budget-informed to being budget-driven?
    Ms. Wormuth. A budget-informed strategy would first consider 
national interests and objectives, then assess how to achieve those 
objectives given the strategic environment. Next, it would develop 
specific ways and means to meet desired ends, informed by the likely 
available resource levels. A budget-informed strategy explicitly 
considers risks to the strategy that may result from the reality that 
resource levels are finite. A strategy that failed to describe any 
inherent risks would be an indication, in my view, that the line 
between a budget-informed and a budget-driven strategy has been 
crossed. A budget-driven strategy defines ends, ways, and means based 
on available resources. By definition, a budget-driven strategy would 
describe little to no risk, because this kind of strategy is designed 
to do only what can be done with available resources, regardless of 
what might be needed to protect and advance national interests.

    5. Senator Inhofe. Ms. Wormuth, how are our risks affected when you 
change from being budget-informed to being budget-driven?
    Ms. Wormuth. A budget-informed approach characterizes risk in terms 
of the ability of the force to accomplish the missions that are 
necessary to support the defense strategy. The 2014 QDR will describe 
the risks we as a nation would face should sequestration be re-imposed 
in fiscal year 2016 and beyond or if proposed reforms are not accepted. 
A budget-driven approach will almost always result in greater strategy 
risks than a budget-informed approach because it does not focus on 
interests, threats to those interests, and trade-offs among investment 
choices.
                                 ______
                                 
               Questions Submitted by Senator Deb Fischer
   section 8128: environmental studies of intercontinental ballistic 
                             missile silos
    6. Senator Fischer. Ms. Wormuth, section 8128 of the Fiscal Year 
2014 Consolidated Appropriations Act (H.R. 3547, Public Law 113-76) 
expressed congressional opposition to any environmental study relating 
to the silos of Minuteman III intercontinental ballistic missiles 
(ICBM). Specifically, it states: ``None of the funds available to DOD 
shall be used to conduct any environmental impact analysis related to 
Minuteman III silos that contain a missile as of the date of the 
enactment of this act.'' Please state DOD's interpretation of this 
section.
    Ms. Wormuth. I understand that DOD has not yet developed a final 
position on the application and interaction of the relevant provisions, 
including sections 8136 and 8128 of the Consolidated Appropriations 
Act.

    7. Senator Fischer. Ms. Wormuth, what interactions has DOD had with 
other Federal agencies or parties outside of the Federal Government to 
prepare for conducting any environmental studies on the ICBM silos?
    Ms. Wormuth. I am not aware that DOD, or the U.S. Air Force, has 
met with any other Federal departments or agencies or parties outside 
the U.S. Government with respect to conducting environmental studies 
for the elimination of ICBM silos.

    8. Senator Fischer. Ms. Wormuth, does DOD believe the decisions 
with respect to New START treaty force structure depend on the results 
of an environmental study of ICBM silos?
    Ms. Wormuth. An environmental assessment that deals with ICBM silos 
that currently contain Minuteman III missiles is important to 
determining the best path forward to achieving New START treaty 
compliance, whether compliance is to be achieved through dismantlement 
of some missile silos or through keeping a certain number of such silos 
``warm''.
                                 ______
                                 
    [The nomination reference of Ms. Christine E. Wormuth 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 30, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Christine E. Wormuth, of Virginia, to be Under Secretary of Defense 
for Policy, vice James N. Miller, Jr., resigned.
                                 ______
                                 
    [The biographical sketch of Ms. Christine E. Wormuth, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Christine E. Wormuth
Education:
    University of Maryland, School of Public Affairs

        <bullet> September 1992-August 1995
        <bullet> Masters of Public Policy

    Williams College

        <bullet> August 1987-May 1991
        <bullet> Bachelor of Arts cum laude in political science and 
        fine arts
Employment Record:
    Office of the Secretary of Defense, Department of Defense, Pentagon

        <bullet> Deputy Under Secretary of Defense for Strategy, Plans, 
        and Forces
        <bullet> August 2012-present

    National Security Staff, The White House

        <bullet> Special Assistant to the President for National 
        Security Affairs and Senior Director for Defense
        <bullet> December 2010-August 2012

    Office of the Secretary of Defense, Department of Defense, Pentagon

        <bullet> Principal Deputy Assistant Secretary of Defense for 
        Homeland Defense and Americas' Security Affairs
        <bullet> March 2009-December 2010

    Center for Strategic and International Studies, Washington DC

        <bullet> Senior Fellow, International Security Program
        <bullet> December 2004-March 2009

    DFI International, Washington, DC

        <bullet> Principal, DFI Government Services
        <bullet> April 2002-December 2004

    Office of the Assistant Secretary of Defense for International 
Security Policy, Department of Defense, Pentagon

        <bullet> Country Director for France, Belgium, Netherlands, and 
        Luxembourg
        <bullet> September 2001-March 2002

    Office of the Under Secretary of Defense for Policy, Department of 
Defense, Pentagon

        <bullet> Special Assistant to the Under Secretary of Defense 
        for Policy for Programs and Legislation
        <bullet> March 2000-June 2001

    Office of the Assistant Secretary of Defense for Strategy and 
Threat Reduction, Department of Defense, Pentagon

        <bullet> Senior Assistant for Strategy Development
        <bullet> January 1998-February 2000

    Office of the Secretary of Defense, Department of Defense, Pentagon

        <bullet> Presidential Management Intern
        <bullet> January 1996-December 1997

    The Henry L. Stimson Center, Washington, DC

        <bullet> Senior Research Assistant
        <bullet> January 1995-December 1995

    Alliance for International and Educational and Cultural Exchange, 
Washington, DC

        <bullet> Policy Analyst
        <bullet> April 1994-January 1995

    House Foreign Affairs Europe/Middle East Subcommittee

        <bullet> Professional Staff, Women's Research and Education 
        Institute Fellow
        <bullet> July 1993-April 1994
Honors and awards:
    Office of the Secretary of Defense Medal for Exceptional Civilian 
Service, 2000
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Ms. Christine 
E. Wormuth in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Christine Elizabeth Wormuth.

    2. Position to which nominated:
    Under Secretary of Defense for Policy.

    3. Date of nomination:
    January 30, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 19, 1969; La Jolla, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Andrew Rabe Kuepper.

    7. Names and ages of children:
    Madeleine Wilson Heinemann, 12.
    Rachel Wilkens Heinemann, 12.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Williams College, 1987-1991, Bachelor of Arts, Political Science 
and Fine Art (1991).
    University of Maryland, College Park, 1992-1995, Masters degree, 
public policy, (1995).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Office of the Secretary of Defense, Department of Defense, 
Pentagon.

        <bullet> Deputy Under Secretary of Defense for Strategy, Plans, 
        and Forces
        <bullet> August 2012-present

    National Security Staff, The White House

        <bullet> Special Assistant to the President for National 
        Security Affairs and Senior Director for Defense
        <bullet> December 2010-August 2012

    Office of the Secretary of Defense, Department of Defense, Pentagon

        <bullet> Principal Deputy Assistant Secretary of Defense for 
        Homeland Defense and Americas' Security Affairs
        <bullet> March 2009-December 2010

    Center for Strategic and International Studies, Washington DC

        <bullet> Senior Fellow, International Security Program
        <bullet> December 2004-March 2009

    DFI International, Washington, DC

        <bullet> Principal, DFI Government Services
        <bullet> April 2002-December 2004

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Private consultant to Department of Homeland Security 2007-2008

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None currently.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2012, $750, Obama for America ($250, $500 contributions)

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Exceptional Civilian Service Award, Office of the Secretary of 
Defense, 2000.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
Attachment A - Published Writings
        <bullet> February 20, 2009, ``The Future of U.S. Civil Affairs 
        Forces.'' CSIS.
        <bullet> January 2009, ``Merging the HSC and NSC: Stronger 
        Together.'' Homeland Security Affairs 5, issue 1.
        <bullet> January 1, 2009, ``The Next Catastrophe: Ready or 
        Not?'' The Washington Quarterly - Winter 2009 Journal. CSIS.
        <bullet> December 9, 2008, ``Transitioning Defense 
        Organizational Initiatives: An Assessment of Key 2001-2008 
        Defense Reforms.'' CSIS.
        <bullet> June 6, 2008, ``Managing the Next Domestic 
        Catastrophe: Ready (Or Not)?' Beyond Goldwater-Nichols Phase 
        Four Report.'' CSIS.
        <bullet> February 1, 2008, The Commission on the National Guard 
        and Reserves Final Report. CSIS.
        <bullet> 2007, ``Is a Goldwater-Nichols Act Needed for Homeland 
        Security?'' Threats at Our Threshold: Homeland Defense and 
        Homeland Security in the New Century. U.S. Army War College.
        <bullet> 2007, ``Transformation of the Reserve Component: 
        Opportunity for Real Change.'' Threats at Our Threshold: 
        Homeland Defense and Homeland Security in the New Century. U.S. 
        Army War College.
        <bullet> November 14, 2007, ``The Realities of ``Getting Out of 
        Iraq'' in Global Forecast: the Top Security Challenges of 
        2008.'' CSIS.
        <bullet> October 2007, ``Total Force Policy: The Sequel.'' The 
        Future of the Citizen Soldier. Conference Proceedings.'' The 
        Cantigny Foundation and the Virginia Military Institute.
        <bullet> Summer 2007, ``Independent Commission on the Security 
        Forces of Iraq.'' The Jones Commission.
        <bullet> March 2007, ``Rethinking the National Guard and 
        Homeland Defense.'' CSIS.
        <bullet> July 12, 2006, ``The Future of the National Guard and 
        Reserves.'' CSIS.
        <bullet> July 1, 2006, ``Beyond Goldwater-Nichols Phase III.'' 
        CSIS.
        <bullet> July 28, 2005. ``Elevating and Strengthening Homeland 
        Security Policy'' Beyond Goldwater-Nichols Phase II. CSIS.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Please see Attachment B for copies of written statements provided 
as congressional testimony in 2008 and 2009.
    Other than congressional testimony, I have not made any ``formal 
speeches'' of which I have copies since 2008. As a Senior Fellow at 
CSIS, I spoke at many conferences and on panels, etc. Typically I would 
speak extemporaneously from an outline or bullet points.
    Since joining the Obama administration in March 2009, I have also 
made a number of presentations at conferences and other professional 
gatherings, but again, I generally do not give formal speeches.
    [Nominee responded and the information is contained in the 
committee's executive files.]
    Please see Attachment C for a list of events at which I've spoken 
in the last several years.

Attachment C - Speaking Engagements
        <bullet> November 30, 2010, International Symposium on Societal 
        Resilience.
        <bullet> May 24, 2010, Smart Security 2010 Conference. 
        ``Technology - Leading the Way toward a Secure Future.''
        <bullet> February 25, 2010, Women in Defense Symposium.
        <bullet> November 19, 2009, Panel member at CSIS conference 
        session on ``The Evolving Role of the National Guard and the 
        Services' Reserves in Homeland Defense and Civil Support.''
        <bullet> September 21, 2009, Domestic Operations Essential 
        Requirements Conference.
        <bullet> March 2008, Moderator of a panel at a CSIS Conference 
        on ``The Role of DOD, the Guard and the Reserves in the 
        Homeland''
        <bullet> January 24, 2008, Moderator of a panel at a CSIS Event 
        on ``Goldwater-Nichols: A Critical Look.''
        <bullet> April 27, 2007, Naval Reserve Association Conference. 
        ``Increased utilization of the Guard and Reserve and the 
        concerns regarding the operational Guard and Reserve.''

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              Christine E. Wormuth.
    This 10th day of March, 2014.

    [The nomination of Ms. Christine E. Wormuth was reported to 
the Senate by Chairman Levin on March 26, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 19, 2014.]
                              ----------                              

    [Prepared questions submitted to Mr. Brian P. McKeon by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Not at this time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.
  duties of the principal deputy under secretary of defense for policy
    Question. Section 134a of title 10, U.S.C., provides that the 
Deputy Under Secretary of Defense for Policy shall assist the Under 
Secretary of Defense for Policy (USD(P)) in the performance of his 
duties. Department of Defense Directive 5111.3 emphasizes that the 
Deputy Under Secretary of Defense for Policy advises and assists the 
USD(P), particularly on strategy formulation, contingency planning, and 
the integration of Department of Defense (DOD) plans and policy with 
overall national security objectives.
    What is your understanding of the duties and functions of the 
Principal Deputy Under Secretary of Defense for Policy (PDUSD(P)) under 
current regulations and practices?
    Answer. Section 137a of title 10, U.S.C., governs the position for 
which I have been nominated. It provides that the Principal Deputy 
``shall be the first assistant to an Under Secretary of Defense and 
shall assist such Under Secretary in the performance of the duties of 
the position of such Under Secretary and shall act for, and exercise 
the powers of, such Under Secretary when such Under Secretary is absent 
or disabled.'' DOD Directive 5111.03 (January 8, 2009) provides a broad 
statement that the Principal Deputy ``advise[s] and assist[s]'' the 
Under Secretary for Policy ``with all responsibilities in providing 
advice and assistance to the Secretary of Defense.''
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense and the USD(P) would prescribe 
for you?
    Answer. Unless and until I am confirmed, I will not know the 
specific set of issues that will be assigned to me by the Secretary and 
the Under Secretary for Policy. If confirmed, it is likely that Ms. 
Wormuth and I will divide responsibilities so that each of us has a 
lead role on certain issues for Office of the Secretary of Defense 
(OSD) Policy.
                             relationships
    Question. What do you see as the relationship between the PDUSD(P) 
and each of the following?
    The Secretary of Defense.
    Answer. Pursuant to the authority, direction, and control of the 
USD(P), as the USD(P)'s principal assistant, the PDUSD(P) serves as a 
staff assistant and advisor to the Secretary of Defense on all matters 
concerning the formulation of national security and defense policy and 
the integration and oversight of DOD policy and plans to achieve 
national security objectives.
    Question. The Deputy Secretary of Defense.
    Answer. The PDUSD(P) provides support to the Deputy Secretary 
similar to that provided to the Secretary, as described above.
    Question. The Under Secretary of Defense for Policy.
    Answer. The PDUSD(P) is the principal assistant to the USD(P) and 
is responsible for assisting the USD(P) in carrying out all 
responsibilities, fulfilling functions, managing relationships, and 
exercising authorities provided for in law to the USD(P). The PDUSD(P) 
advises and supports the USD(P) with all responsibilities in providing 
advice to the Secretary of Defense in interagency fora (such as 
National Security Council system deliberations), engagement with 
international interlocutors, and in the Planning, Programming, 
Budgeting, and Execution processes inside the Department, including the 
Quadrennial Defense Review, the Nuclear Posture Review, and annual 
program and budget reviews.
    Question. The other Under Secretaries of Defense.
    Answer. Pursuant to the authority, direction, and control of the 
USD(P), the PDUSD(P) works closely with the other Under Secretaries of 
Defense and their Deputies to achieve the Secretary's objectives. This 
includes providing policy input, as appropriate, to each of them in 
their respective areas of responsibility (AOR).
    Question. The Assistant Secretaries of Defense.
    Answer. Pursuant to the authority, direction, and control of the 
USD(P), the PDUSD(P) works closely with Assistant Secretaries of 
Defense across the Department to achieve the Secretary's objectives. 
This includes providing policy input, as appropriate, to each of them 
in their respective AORs. As the USD(P)'s principal assistant, within 
the Office of the Under Secretary for Policy, the PDUSD(P) provides 
oversight of Assistant Secretaries on issues and at times as directed 
by the USD(P). The Policy team works together to provide the USD(P) and 
the Secretary with advice and recommendations on the full range of 
policy issues under consideration in the Department and provides policy 
oversight to ensure that the Secretary's guidance and decisions are 
implemented properly.
    Question. The Secretaries of the Military Departments.
    Answer. The PDUSD(P) works closely with the Secretaries of the 
Military Departments on a broad range of issues, including strategy 
development, force planning, and other areas in which the Military 
Departments are critical stakeholders.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. As the principal military advisor to the Secretary of 
Defense, the President, and the National Security Council, the Chairman 
has a unique and critical military role. The PDUSD(P) works closely 
with the Chairman and Vice Chairman to support the efforts of the 
USD(P), the Secretary, and the Deputy Secretary, and to help ensure 
that military advice is taken into account in an appropriate manner 
across a broad range of issues relating to strategy, force development, 
force employment, and other matters.
    Question. The Service Chiefs.
    Answer. The PDUSD(P) works closely with the Service Chiefs in 
support of the USD(P) on a broad range of issues, including defense 
strategy and policy development, force planning, and other areas in 
which the Military Departments and Services are critical stakeholders.
    Question. The Commanders of the Regional and Functional Combatant 
Commands.
    Answer. The PDUSD(P) also works closely with the combatant 
commanders to support the efforts of the USD(P), the Secretary, and 
Deputy Secretary, particularly in the areas of strategy and policy, 
contingency planning, and policy oversight of operations.
    Question. The Director of the National Guard Bureau.
    Answer. The Principal Under Secretary of Defense for Policy works 
closely, through the Chairman and Vice Chairman, with the members of 
the Joint Chiefs of Staff. The Chief of the National Guard Bureau is a 
member of the Joint Chiefs, and has a specific responsibility to 
provide information on the non-Federalized National Guard.
    Question. The General Counsel of DOD.
    Answer. The PDUSD(P) works closely with the General Counsel on all 
policy issues that involve a legal dimension. Doing so requires 
significant and regular coordination on a broad range of issues.
    Question. The Administrator and Deputy Administrators of the 
National Nuclear Security Administration.
    Answer. The PDUSD(P) works with the Administrator and Deputy 
Administrator of the National Nuclear Security Administration, in 
support of the USD(P)'s oversight of strategy for nuclear weapons and 
forces, as well as USD(P)'s role on the Nuclear Weapons Council. The 
PDUSD(P) also works with the Administrator and Deputy Administrator to 
coordinate policies and programs to reduce nuclear threats.
    Question. The Director, Defense Security Cooperation Agency.
    Answer. The PDUSD(P) supports the USD(P) in exercising authority, 
direction, and control over the Director of the Defense Security 
Cooperation Agency (DSCA). The Policy organization works closely with 
DSCA to provide the Secretary with advice and recommendations on the 
full range of security cooperation issues facing the Department.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have worked on national security issues for Congress and 
the executive branch for most of the past 25 years. Consequently, I 
have gained experience and knowledge on a very broad range of regional 
and functional issues. This experience has also given me a deep 
understanding about how policy is developed and advanced in the two 
political branches.
    For the last 16 years, I have also been assigned management 
responsibilities. In my current position, I supervise a staff of 
approximately 370 people and have served as the de facto chief 
operating officer for 2 National Security Advisors, managing the 
budget, administration, and personnel, as well overseeing the Executive 
Secretariat and the White House Situation Room. I believe I have 
demonstrated an ability to manage people and processes.
    Through my long service in the Senate and in the White House, I 
have developed strong personal and professional relationships with many 
senior officials currently serving in DOD, as well as in the White 
House, the Department of State, and the Intelligence Community. These 
relationships will help me in the performance of my duties, should I be 
confirmed.
    My experiences as Deputy National Security Advisor to the Vice 
President and in my current position have given me first-hand 
experience in diplomacy and policy-making at the highest levels of the 
executive branch.
    Finally, my long experience working in the Senate would enable me, 
if confirmed, to help the Department in its frequent interactions with 
Congress. Having spent so much of my professional career working in 
Congress, I have deep respect for its role in national security policy 
and am committed to ensuring a regular dialogue between the Department 
and Congress.
                     major challenges and problems
    Question. In your view, what are the major challenges confronting 
the PDUSD(P)?
    Answer. Section 137a of title 10, U.S.C., provides only a general 
statement of the duties of the position for which I have been 
nominated. It provides that the ``Principal Deputy Under Secretary of 
Defense shall be the first assistant to [the] Under Secretary of 
Defense and shall assist such Under Secretary in the performance of the 
duties of the position of such Under Secretary and shall act for, and 
exercise the powers of, such Under Secretary when such Under Secretary 
is absent or disabled.'' Until and if I am confirmed, I will not know 
the specific set of issues that will be assigned to me by the Secretary 
and the Under Secretary for Policy. If I am confirmed, it is likely 
that the USD(P) and I would divide responsibilities so that each of us 
has a lead role on certain issues for OSD Policy.
    As a general matter, I recognize that the women and men of OSD 
Policy have been through a difficult period in the last year, with 
furloughs resulting from sequestration, followed by the government 
shutdown in October. Among other things, I intend to focus on our human 
capital to ensure that OSD Policy can continue to recruit and retain 
strong talent.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. See response above.
    Question. If confirmed, what broad priorities would you recommend 
be established in terms of issues which must be addressed by the 
PDUSD(P)?
    Answer. See response above.
                              afghanistan
    Question. What are our key strategic objectives in Afghanistan and, 
in your view, are we on track to achieve those objectives?
    Answer. I understand we continue to make progress in our pursuit of 
the remnants of core al Qaeda. Additionally, our Afghan partners are 
proving effective in their combat operations, which supports our 
security objectives in Afghanistan.
    Question. If confirmed, what changes, if any, would you recommend 
to the U.S. strategy in Afghanistan?
    Answer. If confirmed, I would support the current U.S. strategy to 
defeat of core al Qaeda, to include preventing its reconstitution in 
the region.
    Question. What do you see as the United States' long-term strategic 
interests in Afghanistan after 2014?
    Answer. The U.S. strategic interests in Afghanistan include the 
defeat of core al Qaeda in the region as well as the realization of a 
stable Afghan Government that can provide security to its people.
    Question. Do you support the retention of a limited U.S. military 
presence in Afghanistan after 2014?
    Answer. A post-2014 U.S. military presence can help Afghanistan by 
continuing a focused counterterrorism mission against core al Qaeda and 
by being part of a North Atlantic Treaty Organization (NATO)-led 
mission to train, assist, and advise the Afghan National Security 
Forces (ANSF). As the President has stated, however, the Afghan 
Government must conclude the Bilateral Security Agreement (BSA) in 
order for U.S. troops to remain in Afghanistan.
    Question. If so, what in your view should be the size, mission, and 
duration of such a residual U.S. military force?
    Answer. The President has stated that if a BSA is signed, a small 
U.S. force could remain in Afghanistan with NATO allies to carry out 
two narrow missions: training and assisting Afghan forces, and 
counterterrorism operations to pursue any remnants of core al Qaeda. If 
confirmed, I will support DOD's work to develop options and a 
recommendation on the appropriate force size.
    Question. If the United States and Afghanistan are unable to 
conclude a BSA that ensures legal protections for such a residual U.S. 
military force, should the United States withdraw its military forces 
from Afghanistan?
    Answer. The President will make that decision at the appropriate 
time. In the meantime, I understand that the United States is prepared 
to sign the BSA. The longer it takes the Afghan Government to conclude 
the BSA, the greater the risk for higher costs and constrained options 
for the United States and coalition partners.
                         afghanistan transition
    Question. Do you support the transition of full responsibility for 
the security of Afghanistan to the ANSF by 2014?
    Answer. Yes. I understand that the ANSF now has the lead for 
virtually all operations, conducts these operations independently, and 
over the last year has proven itself to be up to the task. The ANSF has 
prevented insurgents from making any significant gains.
    Question. In your view, what are the main challenges to the success 
of such a transition?
    Answer. I believe the main challenge will be ensuring that the ANSF 
has the necessary financial support to preserve the progress achieved 
so far. This will require a continued U.S. commitment as well as 
assistance from allies and partners.
    Question. What do you see as the major challenges of transitioning 
away from a DOD-lead for programs currently in Afghanistan to a 
civilian-led effort in Afghanistan?
    Answer. There are many missions that DOD led during the 
counterinsurgency campaign (e.g., rule of law development) that will 
transition to civilian agencies post-2014. If confirmed, I would work 
with U.S. departments and agencies--particularly the Department of 
State--the international community and the Afghan Government to ensure 
that we are positioned to protect our strategic interests in 
Afghanistan with appropriate assistance, consistent with the 
President's decision on the post-2014 military mission.
                  afghanistan national security forces
    Question. What is your assessment of the progress in developing a 
professional and effective ANSF?
    Answer. I am informed that current ANSF officers and leaders are 
very competent, but more are needed. The ANSF has grown rapidly over 
the last few years, but developing a larger leadership cadre takes time 
and sustained effort.
    Question. What do you see as the main challenges to building the 
capacity of the ANSF, including after 2014?
    Answer. My understanding is that capacity at the ministerial and 
institutional level is one of the main challenges facing the ANSF. 
Having advisors with the right skill sets in place will be critical in 
mitigating this challenge. Sustaining financial resources and ensuring 
the ANSF continue to build capacity to execute funding will also be 
critical in maintaining security gains made over the past 3 years.
    Question. If confirmed, what recommendations, if any, would you 
make for addressing those challenges?
    Answer. If confirmed, I would closely consult and coordinate with 
Afghan leaders, NATO allies, and other partners to ensure we are 
working together on shared priorities. We must also ensure we are 
promoting professionalism and self-sufficiency within the Afghan 
forces.
    Question. What do you see as the main challenges to sustaining the 
ANSF beyond 2014, and if confirmed, what recommendations, if any, would 
you make for addressing these challenges?
    Answer. My view is that we need to ensure that the Afghan forces 
continue to receive the necessary international support and assistance, 
as well as the training and equipment, to plan and conduct missions 
independently. If confirmed, I would recommend that we continue to 
focus on improving the Afghans' ability to conduct planning, 
contracting, and logistics functions at the ministerial levels.
    Question. Do you agree that any future reductions from the current 
ANSF troop level should be based on the security conditions in 
Afghanistan at the time the reductions would occur?
    Answer. It is difficult to contemplate or foresee the size or 
structure of the ANSF over an indefinite time period. I agree that, for 
the remainder of the Obama administration, the size of the ANSF should 
be governed primarily by security conditions.
                    u.s. relationship with pakistan
    Question. What is your assessment of the current relationship 
between the United States and Pakistan?
    Answer. The relationship has improved since 2012, and the recent 
visit of Prime Minister Sharif to Washington was an indicator of that 
improvement. I attribute the improvement to both countries' decision to 
refocus the relationship on areas of mutual interest. This includes 
promoting peace and reconciliation in Afghanistan, eliminating core al 
Qaeda, and aiding Pakistan in its fight against militants that target 
the United States, Pakistan, and other nations. The relationship still 
faces significant challenges, but it is in a stronger position than it 
was. If confirmed, I would engage my Pakistani counterparts on common 
interests, as well as in areas where we have disagreement.
    Question. Do you see opportunities for expanded U.S.-Pakistan 
cooperation on security issues? If so, how would you prioritize these 
areas of cooperation?
    Answer. I believe we should continue to take a practical approach 
to the security relationship with Pakistan. We should focus on areas 
where our strategic interests overlap, while engaging in areas where 
they do not. In their joint statement issued last October, President 
Obama and Prime Minister Sharif agreed that no country's territory 
should be used to destabilize its neighbors. This presents an 
opportunity for strengthened cooperation on counterterrorism.
    Question. What is your assessment of Pakistan's efforts to combat 
the threat of international terrorism?
    Answer. Pakistan has suffered significant military and civilian 
casualties in the fight against terrorism and deployed large numbers of 
forces in counterinsurgency operations along the Afghan border. These 
actions attest to the extent of Pakistan's commitment to the fight 
against terrorism. At the same time, we have longstanding concerns that 
we regularly discuss with the Pakistan government about the use of its 
territory by terrorist or extremist organizations that threaten U.S. 
interests and the security of Pakistan's neighbors.
    Question. What conditions, if any, should the United States place 
on its security assistance to Pakistan?
    Answer. The provisions of U.S. law and regulations governing the 
transfer of governing U.S. security assistance to foreign governments, 
including those found on the Enhanced Partnership with Pakistan Act of 
2009 (P.L. 111-73), provide appropriate conditionality.
                          the haqqani network
    Question. The Haqqani Network, which has been linked to a number of 
deadly attacks on Afghan, U.S., and other coalition forces in 
Afghanistan, operates from safe havens in Pakistan.
    In your view, should additional steps be taken to track and counter 
the illicit financial activities of the Haqqani Network, and if so, 
what role--if any--should DOD play?
    Answer. I understand that the U.S. Government is taking action 
against the Haqqani Network through DOD action in Afghanistan and 
Treasury's decision on February 6, 2014, to freeze the assets of three 
suspected militants. If confirmed, I would work across the U.S. 
Government, and with international partners and organizations, to 
counter the Haqqani Network.
                                  iraq
    Question. What in your view are the key U.S. strategic interests 
with regard to Iraq?
    Answer. The United States has a strategic interest in helping Iraq 
build a sovereign, stable, self-reliant country with a representative 
government that can be a partner in the region and not a safe haven for 
terrorists. We are working to develop a strong, long-term strategic 
partnership in accordance with the U.S.-Iraq Strategic Framework 
Agreement. Strengthening our partnership with Iraq will help us to 
advance significant interests, including counterterrorism cooperation 
against threats to our national security and that of the region, 
economic growth and the stabilization of global energy markets, and the 
development of democracy.
    Question. What in your view are the major areas, if any, for 
security cooperation between the United States and Iraq?
    Answer. We share key interests with the Iraqis in the security 
realm, including reducing the threat from violent extremists such as 
the Islamic State of Iraq and the Levant, containing the spread of 
extremism from Syria, and countering threats from Iran.
    Question. In what areas, if any, do you see U.S. and Iraqi security 
interests diverging?
    Answer. The United States and Iraq have similar security interests. 
We both have an interest in fighting terrorism and ensuring that Iraq 
is stable and free from external influences. We also both have an 
interest in maintaining stability and security in the Middle East.
    Question. What do you see as the greatest challenges for the U.S.-
Iraq security relationship over the coming years?
    Answer. Today's Iraq is still recovering from decades of 
dictatorship and years of conflict and international isolation. To 
continue on a path of progress, it needs an inclusive government so 
that all people of Iraq feel they have a voice in their government. As 
the President said during the visit to Washington of Prime Minister 
Maliki last November, the United States stands ready to deepen its 
security cooperation and to honor the sacrifice of the U.S. Armed 
Forces by ensuring a strong, prosperous, inclusive, and democratic 
Iraq.
    Question. In your view, what steps, if any, should the United 
States take to engage with Iraq to promote greater security and 
stability across the Middle East region?
    Answer. The United States has encouraged Iraq and its neighbors to 
act to re-integrate Iraq into the region after years of isolation. 
Progress has been made over the last year in resolving longstanding 
disputes between Iraq and Kuwait, but more needs to be done. One 
important way to support this integration is by encouraging Iraq to 
take part in regional dialogues as well as military exercises as 
demonstrated by Iraq's participation in the Eager Lion exercise held in 
Jordan last summer. If confirmed, I would work with partners in the 
region to assist Iraq in becoming more integrated in the regional 
framework and to participate in additional trainings and exercises.
    Question. Iraq faces a resurgent violent extremist threat that 
seeks to exploit popular discontentment with the current Maliki 
Government, particularly within Sunni communities in western Iraq.
    What role, if any, should the United States play in assisting the 
Government of Iraq in confronting the threat of violent extremism?
    Answer. Although the Government of Iraq is responsible for 
providing its own security, we can assist in a variety of ways to help 
the Iraqis increase their capabilities and capacity to meet current 
threats. It is my understanding that the Department, in concert with 
interagency partners, is already using a variety of key security 
assistance and cooperation tools to build the capacity of Iraqi 
Security Forces. If confirmed, I would support information sharing, 
non-operational training for the Iraqi Ministry of Defense and Ministry 
of Interior Counterterrorism Services, and continued sales of key 
defense articles to the Government of Iraq.
    Question. In your view, what conditions, if any, should the United 
States place on the provision of equipment or assistance to the 
Government of Iraq in its fight against violent extremism?
    Answer. The Foreign Military Sales program provides what I believe 
are stringent measures to monitor the Government of Iraq on the use of 
military equipment and assistance, consistent with U.S. laws. These are 
the same conditions imposed on other countries that have and receive 
U.S. defense articles. Prime Minister Maliki also pledged, in a recent 
letter to Chairman Menendez, that U.S. equipment would not be used 
against innocent civilians. The United States has made clear to Iraq 
that it will be held accountable for complying with end-use monitoring 
protocols, and that U.S. assistance is dependent on the Iraqis adhering 
to proper use of the systems we sell to them.
                  transatlantic relationship and nato
    Question. In your view, how important to U.S. national security 
interests is NATO and the U.S. transatlantic relationship with our 
Alliance partners?
    Answer. NATO and our transatlantic relationships remain very 
important, as U.S. security and engagement in Europe are closely 
intertwined. Europe is home to some of the United States' most stalwart 
allies and partners, who have fought and continue to fight and 
sacrifice alongside U.S. forces. Europe is our principal partner in 
seeking global and economic security, and will remain so for the 
foreseeable future. The United States has enduring interests in 
supporting peace and prosperity in Europe as well as bolstering the 
strength and vitality of NATO.
    Question. What changes, if any, would you recommend to strengthen 
that transatlantic relationship, if confirmed?
    Answer. The transatlantic relationship is as strong as ever, but we 
should not take Alliance cohesion and solidarity for granted. The 
commitment of allies to a strong NATO must be manifested in a 
willingness to invest in the future of the Alliance by pooling 
resources and sharing risk to develop the capabilities needed to 
fulfill future missions. If confirmed, I would encourage allies to make 
those investments.
    Question. As the United States pursues a pivot toward the Asia-
Pacific region, do you believe there should be a reduction in the U.S. 
security commitment to Europe?
    Answer. The rebalance to the Asia-Pacific region does not imply a 
shift of attention from Europe. Far from it. Europe remains our 
principal partner in seeking global and economic security. Moreover, we 
continue to have security obligations to our NATO allies pursuant to 
the North Atlantic Treaty. A peaceful and prosperous Asia-Pacific is in 
the interests of both Europe and the United States.
    Question. As the International Security Assistance Force mission in 
Afghanistan nears completion, do you foresee a need for NATO to re-
evaluate its purpose, missions and objectives going forward?
    Answer. Like any organization, NATO should periodically examine its 
purpose, missions, and objectives. The successful completion of NATO's 
largest and most challenging operation represents a turning point for 
the Alliance. As allies sustained regular troop rotations to 
Afghanistan, defense investment in new capabilities and the readiness 
of some forces for other potential missions declined. The purpose of 
the Alliance continues to be deterrence and defense, crisis management, 
and cooperative security. However, as NATO completes the International 
Security Assistance Force mission in Afghanistan, some of its 
operational objectives will likely be replaced by objectives related to 
training and readiness, with more emphasis on live exercises to 
maintain interoperability.
                                 libya
    Question. What role do you envision the United States playing in 
helping Libya build capable security institutions?
    Answer. The administration has made building Libyan security a 
priority. It is my understanding that DOD will train a 5,000-8,000-
member general purpose force (GPF) with the basic skills needed to 
protect government institutions and maintain order. I believe that DOD 
plans to complement its training efforts with defense advisor and 
defense institution reform programs to build the institutional capacity 
of the Libyan Ministry of Defense. Importantly, DOD is coordinating 
security-capacity-building efforts with our partners in the United 
Kingdom, Italy, Bulgaria, and Turkey, and ensuring that our programs 
complement the U.N. Support Mission in Libya and other international 
activities to support Libya's security sector development efforts.
    Question. What is your assessment of the risks associated with the 
paramilitary forces that continue to have control of large swaths of 
Libya?
    Answer. Paramilitary forces present significant risk to the Libyan 
Government and the Libyan people. Building a government security force 
that is respected by Libya's people will be essential to Libya's 
future.
    Question. In your view, what role, if any, should DOD play in 
assisting the Libyans with addressing the threat to stability posed by 
paramilitary forces?
    Answer. I believe that DOD's GPF training and related efforts are 
intended to help Libya develop the security foundation necessary to 
protect government institutions and maintain order. DOD's border 
security and counterterrorism training and equipping programs are also 
aimed at building the Government of Libya's capacity to address its 
security challenges.
    Question. What do you view as the most significant challenges to 
the Libyan government in building capable and sustainable security 
institutions?
    Answer. Qaddafi left Libya with deep deficits in government 
capacity. As a generation of Libyans deprived of self-government takes 
on the challenges and responsibilities of renewing Libya's security 
sector, the United States will support their capacity- and capability-
development goals through practical training and advice. If confirmed, 
I would support these efforts.
    Question. In what ways can the United States be most effective in 
assisting the Libyan government in building capable and sustainable 
security institutions?
    Answer. If confirmed, I would continue to advance the U.S. effort 
to couple our training and equipping efforts with institution-building 
programs to facilitate the Libyan Ministry of Defense's ability to 
recruit, sustain, and retain trained GPF personnel.
                    africa-related security matters
    Question. The new DOD strategic guidance, ``Sustaining U.S. Global 
Leadership: Priorities for 21st Century Defense,'' announced by 
President Obama on January 5, 2012, sets out the defense priorities for 
the 21st century and the key military missions for which DOD will 
prepare. The primary emphasis of the strategy relates to the Middle 
East and Asia. The strategy makes little reference to Africa and its 
myriad security challenges.
    In light of the emphasis on areas outside of the African continent, 
if confirmed, how would you draw attention to the myriad security 
challenges confronting African nations?
    Answer. If confirmed, I would support the Department's continued 
focus on disrupting and dismantling al Qaeda and its affiliates in the 
region while building the capacity of African security forces, defense 
institutions, and regional organizations to combat transnational 
threats and participate in peace operations. As part of these efforts, 
if confirmed, I would support the Department's efforts to instill 
within African militaries a commitment to operate under civilian 
authority, respect the rule of law and human rights, and support 
international peacekeeping operations.
      u.s. military operations against the lord's resistance army
    Question. Despite pressure by the Ugandan People's Defense Forces 
(UPDF) and efforts by U.S. Special Operations personnel to support 
them, elements of the Lord's Resistance Army (LRA)--including Joseph 
Kony--continue to operate and commit atrocities against civilian 
populations. Some observers have identified operational concerns with 
this mission, including that: (1) supported forces are trying to find 
an elusive foe in an area roughly the size of California, much of which 
is covered in thick jungle; (2) technical support to U.S. forces and 
their UPDF partners from the Defense and Intelligence Community 
continues to be inadequate; (3) limitations continue to be placed on 
the ability of U.S. Special Operations personnel to accompany UPDF 
partners outside of main basing locations, thereby limiting the level 
of direct support they can provide; and (4) logistics and operational 
enablers for U.S. forces.
    In your view, what is the objective of Operation Observant Compass 
(OOC)?
    Answer. OOC is one component of a wider U.S. strategy to counter 
the LRA. This strategy has four pillars: increasing the protection of 
civilians; apprehending or removing Joseph Kony and senior commanders 
from the battlefield; promoting the defection, disarmament, 
demobilization, and reintegration of remaining LRA fighters; and 
increasing humanitarian access and providing continued relief to 
affected communities. Under OOC, U.S. Special Operations Forces seek to 
enhance the capacity of local forces to end the threat posed by the 
LRA. I understand that U.S. military advisors work with African forces 
to strengthen information-sharing and synchronization, enhance 
operational planning, and increase overall operational effectiveness.
    Question. In your view, what is the appropriate level of priority 
to be accorded to efforts to counter the LRA?
    Answer. I understand that, as with all of the Department's efforts 
in Africa, OOC is a low-cost, small-footprint effort that leverages the 
capabilities of our African partners. This approach has yielded 
significant results to date. Two of the top five LRA leaders have been 
removed from the battlefield, and recent reports suggest that the 
Ugandan military also removed a third leader, Okot Odhiambo. Since OOC 
was launched, civilian deaths attributed to the LRA have decreased by 
75 percent, and LRA abductions are down by 50 percent. Such statistics 
indicate that the current level of effort is making progress against 
the LRA while keeping our African partners appropriately in the lead.
    Question. If confirmed, will you work to review the four concerns 
outlined above and report back to the committee?
    Answer. Yes.
                                 russia
    Question. What in your view are the major security issues in the 
U.S.-Russian relationship?
    Answer. There are a number of areas where the United States and 
Russia cooperate, including strategic arms reductions, counter-
terrorism, Afghanistan, preventing proliferation of dangerous 
technologies, military relations, and dissuading Iran from becoming a 
nuclear-armed nation. If confirmed, I would continue to engage Russian 
counterparts to try and find common ground and new areas of 
cooperation, such as the work we have done together to eliminate 
Syria's chemical weapons.
    Question. Where do you see U.S. and Russian security interests 
aligning and where are they diverging?
    Answer. Although there are points of friction in many areas of our 
relationship, the United States and Russia have worked together 
effectively on issues such as the removal of the Syrian chemical 
weapons program, countering the proliferation of weapons of mass 
destruction, and Afghanistan. If confirmed, I would work with Russia to 
make progress on such areas where we share common interests and 
communicate effectively where we disagree.
    Question. In your view what policy steps should DOD take to improve 
relations with Russia? For instance, would you support increased 
military to military relations and exchanges with Russia?
    Answer. My general view is that military-to-military exchanges are 
useful to increase channels of communication and mutual understanding. 
It is my understanding that DOD has a robust military-to-military work 
plan scheduled for this calendar year, with more than 60 events and a 
variety of quality activities such as military exercises, senior leader 
visits, and conferences. If confirmed, I would support our military-to-
military cooperation agenda and support increasing our engagement for 
the benefit of both sides.
    Question. Would you support any joint development or other programs 
with Russia?
    Answer. If confirmed, I would support joint development programs 
that would benefit the United States.
    Question. Would you support joint U.S.-Russian cooperation on 
missile defense as a way to send a signal to Iran against Iran's 
developing long-range missiles or having nuclear weapons?
    Answer. If confirmed, I would support U.S.-Russian cooperation on 
missile defense. U.S.-Russia and NATO-Russia cooperation on missile 
defense would signal to Iran that its development of missiles and 
pursuit of nuclear capabilities are reducing rather than enhancing 
Iranian security.
    Question. Do you support efforts mandated by the New Strategic Arms 
Reduction Treaty (START) Resolution of Ratification to seek reductions 
in the stockpiles of Russian and U.S. tactical nuclear weapons?
    Answer. Yes.
    Question. If so, what steps would you recommend for pursuing such 
reductions, if confirmed?
    Answer. If confirmed, I would recommend that our focus for the next 
stage of arms control consist of bilateral efforts to increase 
transparency and pursue further reductions that would include all 
nuclear weapons--deployed and non-deployed, strategic and non-
strategic. Consultation with allies and partners will be essential to 
ensure that extended deterrence and assurance remain strong.
    Question. What role, if any, should DOD play in responding to 
Russian attempts to exert influence over other countries on its border, 
including Ukraine, Georgia, and the Baltic countries?
    Answer. DOD's role and potential response would depend on the 
particular situation and whether it involved a military dimension. For 
example, in the current crisis in Ukraine, DOD officials have urged 
their counterparts in Ukraine to stay out of the political struggle. 
The United States, of course, has a treaty alliance with each of the 
Baltic States. It seeks to maintain strong partnerships with other 
countries in the region, including Ukraine and Georgia.
    Question. In your view, does Russia want Iran to have a nuclear 
weapon?
    Answer. No. Russia is a partner in the P5+1 process, which is 
working toward a long-term, comprehensive solution to prevent Iran from 
obtaining a nuclear weapon.
                                  iran
    Question. What is your assessment of the military and political 
threat posed by Iran?
    Answer. If left uncontested, some of the policies and activities of 
the Iranian regime constitute a significant threat to the security of 
the United States and that of many U.S. friends and partners. This 
trend is particularly concerning with regard to Iran's advancement of 
its ballistic missile program. Iran's inventory of ballistic missiles, 
which is the largest in the region, is therefore a source of tremendous 
concern. Iran is the most active state-sponsor of terrorism in the 
world, with a proven track record of meddling in the internal affairs 
of countries in the region.
    Question. What is your assessment of U.S. policy with respect to 
Iran?
    Answer. The Obama administration's dual-track approach of combining 
smart diplomacy with economic and military pressure has resulted in a 
considerable sharpening of Iran's strategic choices. This policy has 
unified and mobilized the international community against Iran, 
resulting in Iran's regional and global isolation. It has imposed 
tremendous economic costs on Iran through robust and comprehensive 
sanctions. By keeping all options on the table, it has sent a powerful 
message to Iran that unless it changes course, its policies risk making 
it less, not more, secure. Ultimately, it is this comprehensive and 
focused policy that forced Iran to the negotiating table, where it 
agreed to the Joint Plan of Action. The sustained application of this 
policy, I believe, gives us the best chance of reaching a comprehensive 
nuclear deal with Iran. Meanwhile, I believe we should continue to hold 
Iran accountable for a host of destabilizing activities in the region 
and its deplorable human rights record.
    Question. In your view, what are the risks associated with reducing 
U.S. presence in the Middle East with respect to the threat posed by 
Iran?
    Answer. In my view, a significant reduction in our military 
presence in the Middle East during negotiations with Iran over its 
nuclear program would negatively impact the effectiveness of our policy 
in relation to Iran and our credibility with regional partners. If 
confirmed, I would support the position of DOD to maintain a strong 
military posture in the Gulf region, made clear by Secretary Hagel in 
December at the Manama Dialogue.
    Question. In your view, what role should DOD play in countering 
Iran's support of international terrorism?
    Answer. It is my view that DOD has a significant role to play in 
countering Iran's support for international terrorism through DOD's 
support to broader U.S. Government efforts. If confirmed, I would 
continue to work with interagency and international partners to ensure 
that Iran is held accountable for the full scope of its destabilizing 
activities in the region and beyond, as necessary.
                                 israel
    Question. With regard to our relationship with Israel, President 
Obama has stated: ``Our military and intelligence cooperation has never 
been closer. Our joint exercises and training have never been more 
robust. Despite a tough budget environment, our security assistance has 
increased every year. We are investing in new capabilities. We're 
providing Israel with more advanced technology--the type of products 
and systems that only go to our closest friends and allies. Make no 
mistake: we will do what it takes to preserve Israel's Qualitative 
Military Edge--because Israel must always have the ability to defend 
itself, by itself, against any threat.''
    Do you agree with President Obama's position and views with regard 
to the U.S. security relationship with Israel?
    Answer. Yes. Under the leadership of Secretary Hagel, the 
Department has worked to strengthen further this already historically 
strong U.S.-Israeli defense relationship. Key components include 
significant Foreign Military Financing (FMF) and the approval to 
release advanced military capabilities to Israel, like the F-35 and the 
V-22 aircraft. If confirmed, I would ensure that DOD's already deep 
cooperation with Israel is continued and I would work to sustain our 
strong security relationship.
           post-arab uprising military-to-military engagement
    Question. The past few years have brought great change to the 
Middle East and North Africa. These changes may require adjustments to 
our military-to-military engagement efforts throughout the region.
    What is your understanding of U.S. military-to-military engagement 
in the Middle East and North Africa (e.g. Yemen, Tunisia, Egypt, and 
other countries in the region), and what changes--if any--would you 
advocate for in light of the Arab Uprising?
    Answer. My understanding is that DOD cooperation with Middle East 
and North African partners is specifically tailored to partners' 
strategic interests and tactical needs while advancing U.S. strategic 
interests. In my view, during this time of continuing change and 
uncertainty in the region, DOD should sustain and improve military-to-
military and defense civilian relations, while continuing to evaluate 
and re-calibrate the nature and substance of each of our engagements to 
ensure that they are consistent with U.S. values and advance U.S. 
national interests.
    I also would stress the critical importance of reassuring partners 
that we will remain engaged in the region and committed to our joint 
strategic interests.
                                 syria
    Question. The civil war in Syria continues and President Assad's 
commitment to continuing his regime's ongoing operations appears 
unwavering despite international condemnation. To date, the United 
States has limited its support to opposition forces to non-lethal 
assistance to forces on the ground, as well as technical assistance to 
elements of the opposition working to build a cohesive political 
entity.
    In your view, what is the proper role on the U.S. military in this 
conflict?
    Answer. The President has been very clear that he will direct the 
use of military force when necessary to protect the United States and 
in furtherance of U.S. national security interests. In the case of 
Syria, the President has been clear that there is no military solution 
to the conflict. The Department continues to be involved in interagency 
discussions that examine possible military roles to support U.S. policy 
goals in Syria. If confirmed, I look forward to advising the Secretary 
and working with interagency partners on this matter.
    Question. In your view, should the United States provide support to 
opposition groups on the ground in Syria, including lethal support?
    Answer. The United States should provide, and has been providing, a 
range of assistance to moderate elements of the Syrian opposition, both 
civilian and armed. This assistance is critical to building opposition 
capacity to meet essential needs, strengthen the effectiveness of the 
armed opposition on the ground, and counter the growing influence of 
extremist groups. We are providing nearly $260 million in non-lethal 
support to the Syrian civilian opposition, including the Syrian 
Opposition Coalition (SOC), local activists, and the Supreme Military 
Council (SMC). This assistance includes the provision of equipment 
(e.g., ambulances, food, computers, communications equipment, and 
generators), small grants to local councils and Syrian nongovernmental 
organizations (NGO) and associations on the ground, and support for 
media.
    It is my understanding that since April 2013, DOD has delivered 
additional assistance directly to the SMC as well as the SOC. To date, 
DOD has provided more than 480,000 meals ready to eat and 18 tons of 
medical supplies, as well as communications gear and vehicles. We seek 
to be responsive to the needs of the armed opposition and ensure that 
our assistance serves the military purposes of the SMC. We have 
provided this support in consultation with the SMC. We continue to 
provide our support in consultation with and cooperation with other 
countries in the region, in an effort to build the effectiveness of the 
armed opposition.
    We are constantly looking at what options are available to help 
resolve the crisis in Syria. We are focused on ways to help end the 
conflict, alleviate the suffering of the Syrian people, and mitigate 
the growing threat from extremists. If confirmed, I would continue 
OSD's efforts, in partnership with the Joint Staff, to examine the 
risks and opportunities related to the provision of lethal assistance 
to the moderate opposition and other military options for Syria to 
support the administration's decisionmaking on this question.
    Question. In your view, would the removal of the Assad regime be a 
strategic defeat of Iran in the region?
    Answer. Yes. Iran has an interest in the outcome of the conflict in 
Syria, and has invested resources in seeking to ensure that the Assad 
regime stays in power. Therefore, removal of the Assad regime would be 
a loss for Iran.
    Question. After the United States threatened the use of military 
force in response to Syria's use of chemical weapons against Syrian 
civilians in August 2013, Syria agreed to an international plan to 
eliminate its chemical weapons program by the end of June 2014. 
Although Syria acceded to the Chemical Weapons Convention and has 
eliminated its capacity to mix and fill chemical agents and munitions, 
it has failed to meet recent deadlines to transport its chemical agents 
and precursors to Latakia for removal and destruction.
    Given Syria's apparent unwillingness to meet all its 
internationally mandated deadlines, what are your views on the 
prospects for eliminating Syria's chemical weapons program by June 30, 
2014?
    Answer. The U.S. Government and international community are 
concerned about Syria's lack of progress in meeting its obligations, 
and further delays will make meeting the June 30 deadline more 
challenging. We are working with key international partners to increase 
pressure on the Syria to fulfill its obligations in accordance with the 
agreed timeline.
    Question. What additional steps, if any, do you believe DOD could 
take as part of the international effort to ensure the successful 
elimination of Syria's chemical weapons program in 2014?
    Answer. I understand that the Department is contributing 
capabilities critical to eliminating Syria's chemical weapons, and is 
postured to fulfill its role in the international effort as soon as 
Syria fulfills its obligations to remove the chemical materials from 
Syrian territory. If confirmed, I would work with my colleagues in the 
policy, operational, and technical communities, as well as with key 
international partners, to ensure the successful elimination of Syria's 
chemical weapons program.
                                 egypt
    Question. What is your assessment of the security situation in 
Egypt?
    Answer. I know that the Department is concerned with the recent 
upswing in terrorist violence in the Sinai and around Cairo, and I 
understand that Secretary Hagel has personally offered assistance to 
help Egypt respond to and prevent future attacks. Despite the hold on 
delivery of some weapons systems, the Department continues to provide 
maintenance support for Apache helicopters used in counterterrorism 
operations. If confirmed, I would continue to support Egypt's 
counterterrorism efforts.
    The Egyptian Government's detainment and arrest of journalists, 
opposition group members, and the Muslim Brotherhood are also a 
significant concern. I understand that the Department has continued to 
encourage the interim government to uphold the new constitution's 
rights and has raised U.S. concerns about this crackdown.
    Question. What is your assessment of the U.S.-Egypt security 
relationship?
    Answer. The U.S. security relationship with Egypt provides us with 
important over-flight routes and facilitates Suez Canal transit access, 
helps us to ensure Israel's security, allows us to cooperate on 
combatting terrorist threats, and helps to maintain the security of our 
embassy and consulate. Egypt is an important regional actor, and our 
security relationship with Egypt helps us protect our interests in the 
region.
    Question. What is your assessment of the role Egypt plays with 
respect to regional stability?
    Answer. Egypt has historically played an important role in 
promoting regional stability. By continuing to fulfill its obligations 
under its Peace Treaty with Israel, increasing its counterterrorism 
operations in the Sinai, providing security for both military and 
private vessels transiting the Suez Canal, and efforts to prevent 
illicit trafficking across its shared borders with Libya, Sudan, and 
Israel, Egypt makes significant contributions to regional security.
    Question. In your view, should the U.S. Government continue to 
provide defense articles and services purchased by the Egyptian 
military using U.S. FMF funds?
    Answer. FMF remains an important element of the U.S.-Egypt 
relationship. At the same time, we have serious concerns about the 
Egyptian government's actions, as described in my response to question 
69, above. The delivery of some weapons systems remains on hold. In 
addition, the fiscal year 2014 appropriations law restricts the use of 
fiscal year 2014 FMF for Egypt unless certain certifications are made 
by the Secretary of State. If confirmed, I would support the 
Department's efforts to work with the Department of State on making the 
required assessments, and implementing these authorities.
                       gulf security cooperation
    Question. The administration has been working with Gulf Cooperation 
Council (GCC) governments to enhance regional cooperation and security 
against ballistic missile threats, particularly from Iran.
    What is your view of the potential for missile defense cooperation 
within the GCC to enhance regional security, and how do you see this 
potential cooperation fitting into the U.S. missile defense and 
security efforts in the Middle East?
    Answer. It is my understanding that U.S. missile defense 
cooperation with GCC nations, including their acquisition of advanced 
ballistic missile defense capabilities, is increasing. Such cooperation 
on defensive systems is beneficial to those countries as well to the 
United States and the region.
    Question. What role do you see for the sale to the United Arab 
Emirates of Terminal High Altitude Area Defense (THAAD) and Patriot 
missile defense systems, and similar sales to other GCC partners, in 
regional security against Iranian missile threats?
    Answer. It is my understanding that a number of GCC countries are 
considering acquiring ballistic missile defense capabilities. These 
systems would play an important role in countering Iranian missile 
threats.
            regional ballistic missile threats and response
    Question. Iran and North Korea each has hundreds of short- and 
medium-range ballistic missiles today that are capable of reaching 
forward-deployed U.S. forces, allies, and other friendly nations in the 
U.S. European Command, U.S. Central Command (CENTCOM), and U.S. Pacific 
Command AOR. The Ballistic Missile Defense Review (BMDR) report of 
February 2010 stated that the United States intends to pursue 
regionally tailored phased adaptive approaches to ballistic missile 
defense against such missile threats in various regions.
    Do you believe that such regionally tailored phased adaptive 
approaches will provide our regional combatant commanders with the 
missile defense capabilities needed to defend our forward deployed 
forces and our allies and partners in the region?
    Answer. Yes. I believe that continuing to deploy U.S. and allied 
and partner missile defenses appropriate to each region can make a 
significant contribution to defending our deployed forces and our 
allies and partners from ballistic missiles.
    Question. What role do you see for the Aegis Ballistic Missile 
Defense system with Standard Missile-3 interceptors in U.S. missile 
defense capabilities in these AORs?
    Answer. My understanding is that Aegis destroyers and cruisers with 
SM-3 interceptors are important capabilities that are in great demand 
for defending against ballistic missile threats in Europe, the Middle 
East, and Asia.
    Question. In addition to U.S. missile defense capabilities in these 
AORs, what role do you see for other nations to contribute to regional 
missile defense capabilities?
    Answer. Given the large number of short- and medium-range ballistic 
missiles that can threaten NATO, the Middle East, and East Asia, the 
missile defense capabilities of allies and partners in those regions 
are important both for their own defense and as a complement to U.S. 
ballistic missile defense capabilities.
                                 china
    Question. China's defense spending has had double-digit increases 
annually for about the past 20 years. While a certain amount of 
military growth is to be expected for a country experiencing the kind 
of economic growth that China has had over about that same period, the 
types of platforms and capabilities China is developing have been 
interpreted by some as designed to project power, limit freedom of 
movement by potential adversaries, and conduct military operations at 
increasing distances. Such developments, coupled with strident rhetoric 
and a lack of transparency, stoke growing concerns about China's 
intentions in the region.
    How would you characterize the current U.S. relationship with 
China?
    Answer. The relationship is both cooperative and competitive. Our 
policy is to manage the areas of competition while seeking to expand 
our cooperation in areas where our interests align, both in Asia and 
globally.
    Question. What do you believe are the objectives of China's steady 
increase in defense spending and its overall military modernization 
program?
    Answer. As is set forth in an annual report to Congress on this 
subject, China is undertaking a long-term, comprehensive military 
modernization program designed to improving the capacity of its Armed 
Forces to fight and win high-intensity regional military operations of 
short duration (i.e., a Taiwan contingency). In addition, there are 
indications that the People's Liberation Army (PLA) is developing 
capabilities beyond those required to address China's immediate 
territorial concerns.
    Question. How should the United States respond to this Chinese 
military growth and modernization?
    Answer. I believe that the U.S. response to China's military 
modernization should be flexible and supported by the continued 
evolution of our force posture in the Asia-Pacific region, the 
maintenance of our global presence and access, the modernization of our 
own capabilities in such areas as countering anti-access and area 
denial capabilities, and the strengthening of our alliances and 
partnerships. The United States should continue to monitor developments 
in China's military modernization program while encouraging China to be 
more transparent about its military and security affairs. The United 
States has been and should remain the preeminent military power in the 
Asia-Pacific region.
    Question. What is your assessment of the current state of U.S.-
China military-to-military relations?
    Answer. The trajectory of the U.S.-China military-to-military 
relationship is positive. If confirmed, I would look for ways to build 
on this positive momentum consistent with U.S. interests and values, 
always balancing increased engagement with China against increased 
engagement with allies and partners across the region.
    Question. Do you believe that the United States should make any 
changes in the quality or quantity of our military relations with 
China? If so, what changes and why?
    Answer. I believe that military exchanges with China can be 
valuable. These exchanges require that China be as committed as the 
United States is to sustained and substantive exchanges. If confirmed, 
I would support increasing military-to-military engagement with China 
while encouraging China to act responsibly, both regionally and 
globally.
    Question. By most accounts, China has become more assertive in its 
claims of sovereignty in various domains, including maritime, air, and 
space. There are numerous examples of this assertiveness, but one in 
particular is China's increased aggressiveness in asserting its 
excessive maritime claims in the South China Sea.
    What role should the United States play in the ongoing maritime 
disputes in the South China Sea?
    Answer. Freedom of navigation and overflight, open access to Asia's 
maritime domain, the maintenance of peace and stability, free and open 
commerce, and respect for international law are key national security 
interests of the United States in the South China Sea. U.S. policy is 
that all parties should resolve their disputes through peaceful means 
and in accordance with international law, without resorting to the 
threat or use of force.
    Question. How does the presence of the U.S. Navy in the South China 
Sea influence this maritime dispute and, in your view, would an 
increase in U.S. activity in that region serve to stabilize or 
destabilize the situation?
    Answer. I believe it is critical for the U.S. Navy to maintain a 
visible presence and assert its freedom of navigation and overflight in 
the East and South China Seas, in accordance with international law.
    Question. Cyber space has become a critical realm for civilian and 
military applications and, as a result, it represents a potentially 
substantial vulnerability. There are reports that China is aggressively 
pursuing cyber warfare capabilities, and would likely seek to take 
advantage of U.S. dependence on cyber space in the event of a potential 
conflict situation.
    If confirmed, what would you do to help ensure our military is 
protected in cyber space and prepared to defend against a cyber attack?
    Answer. The protection of U.S. military networks from cyber attack 
is one of DOD's core missions, and if confirmed, I would work with DOD 
components and other departments and agencies throughout the U.S. 
Government to ensure a coordinated approach to cyber threats, not only 
from China, but from others as well. If confirmed, I would continue to 
support DOD's efforts to develop its cyber capabilities and cyber 
workforce, which are two of the most important enablers for defending 
DOD's networks. We must also work closely with the private sector and 
international partners to strengthen our overall cybersecurity and 
collective defense.
                              north korea
    Question. What do you see as the implications for regional security 
and stability of North Korea's continued refusal to curb its 
provocative behavior?
    Answer. The security situation on the Korean Peninsula is serious 
and requires constant vigilance. North Korea's December 2012 missile 
launch and February 2013 nuclear test demonstrate that it has the 
capabilities and the will to undermine regional stability.
    North Korea's provocative behavior, large conventional military, 
pursuit of ballistic missile and weapons of mass destruction (WMD) 
programs, and proliferation activities continue to be serious concerns 
for the United States and our allies and partners in the region. The 
murky nature of the North Korean regime and the unpredictability of its 
leader, Kim Jong Un, add to our concerns.
    If confirmed, I would ensure that our military deterrence of North 
Korean aggression continues to support our diplomatic efforts to end 
North Korea's nuclear and missile programs.
    Question. What is your understanding of the threats posed to the 
United States and our allies by North Korea's ballistic missile and WMD 
capabilities?
    Answer. My understanding is that North Korea's missile programs are 
largely untested at longer ranges. However, they are a direct threat to 
U.S. forces in the Asia-Pacific and to our allies and partners in the 
region. Combined with North Korean proliferation activities, they pose 
a direct threat to U.S. territory. I take this threat very seriously, 
and if confirmed, I would ensure that DOD is prepared to defend against 
it.
    Question. What concerns you most about North Korea and, if 
confirmed, what would you do to address those concerns?
    Answer. My top concerns regarding North Korea are the 
unpredictability of North Korea's leadership, its capabilities 
described in response to the previous question, its longstanding 
practice of provocations designed to draw parties to the negotiating 
table, and the upcoming spring military training cycle. If confirmed, I 
would work with our South Korean allies to ensure that we have the 
capabilities necessary to address the full range of possible North 
Korean aggression, including ballistic missile and WMD threats.
                           republic of korea
    Question. What is your understanding of the current status of the 
U.S.-South Korean security relationship?
    Answer. The U.S.-Republic of Korea (ROK) alliance is very strong. 
Together we are making investments necessary to deter North Korean 
aggression and ensure security on the Korean peninsula. The President 
plans to visit the Republic of Korea in April, at which time he will 
reaffirm the strength of our partnership.
    Question. What is your view regarding the timing of the transfer of 
wartime operational control from the United States to South Korea, now 
planned for December 2015, and what will you do to ensure this 
transition takes place as planned?
    Answer. If confirmed, I would support the continued assessment and 
review of the security situation on the Korean Peninsula in 
implementing Strategic Alliance 2015 (SA2015), of which the transition 
of wartime operational control (OPCON) is a part. OPCON transition has 
always been conditions-based. If confirmed, I will continue to support 
this approach.
    Question. What is your assessment of the security benefits of the 
force repositioning agreed to under the Land Partnership Plan and the 
Yongsan Relocation Plan and how does repositioning U.S. forces change 
the way they will operate on the Korean Peninsula?
    Answer. I am not familiar with the specifics of these plans and 
would need to be briefed on them before providing an assessment.
    Question. There have been a number of North Korean attacks against 
South Korea in the last few years including the sinking of the South 
Korea Navy ship Cheonan, the artillery attack on the South Korean 
island, as well as the 2013 cyber attack against television stations 
and banks. South Korea has been adamant that it will respond ``firmly'' 
to the next such provocation.
    What is your understanding of the U.S. obligations in the event of 
an attack on South Korea by North Korea, and under what circumstances 
do you believe the U.S. Armed Forces should be committed to engage 
North Korean forces in response to an attack on South Korea?
    Answer. These obligations are set forth in the U.S.-Republic of 
Korea Mutual Defense Treaty of 1953, specifically Articles II and III.
    Question. Are you confident that the recent Counter-Provocation 
Plan provides a sufficient framework to de-escalate tensions on the 
peninsula if there are future attacks?
    Answer. My understanding is that the Counter-Provocation Plan 
includes procedures for consultation and ensures a well-coordinated 
combined action in response to North Korean provocations and threats. 
It is also my understanding that U.S. Forces Korea and the ROK military 
closely consult to ensure the proper response and control escalation, 
and if confirmed, I would work to ensure those close consultations 
continue.
                                 japan
    Question. How would you characterize the U.S.-Japan security 
relationship?
    Answer. The U.S.-Japan security relationship is very strong. It 
enables virtually all U.S. military activity in the Western Pacific, 
allowing peace, stability, and prosperity to flourish in the region for 
more than a half century. The President will visit Japan in April, at 
which time he will reaffirm the strength of our partnership.
    Question. What steps, if any, do you believe Japan ought to take to 
become a more active partner in security activities with the United 
States and in the international security arena?
    Answer. I support any steps that Japan chooses to take to increase 
its contributions to the Alliance and to regional and global security. 
I believe the changes Japan is currently contemplating are a logical 
reflection of Japan's role in the world.
    Question. The current plan is for the closure of the Marine Corps 
Air Station on Okinawa after the construction of a Futenma Replacement 
Facility (FRF) at Camp Schwab on Okinawa. While the Governor of Okinawa 
has signed the landfill permit to allow construction of the FRF to go 
forward, local opposition and a long construction timeline make the 
completion of the FRF uncertain.
    What is your opinion of the prospects for the successful 
construction of the FRF at Camp Schwab on Okinawa?
    Answer. I believe that Japan took a significant step towards 
enabling the construction of the FRF last December with the signing of 
the landfill permit by the Governor of Okinawa. This concrete step 
forward will lead to the construction of airfield facilities at the 
current Marine Corps Camp Schwab. It is my understanding that many of 
the necessary relocations within Camp Schwab required for the landfill 
are already underway. By working closely with Japan, we have every 
confidence that this very significant forces realignment effort will be 
successfully completed.
    Question. Is the cost-sharing arrangement between the United States 
and Japan to pay for the relocation of U.S. forces from Okinawa to Guam 
and the costs associated with the continued presence of U.S. forces in 
Japan equitable and appropriate? Why or why not?
    Answer. Current cost sharing arrangements for relocation of U.S. 
forces from Okinawa to Guam are both equitable and appropriate. Japan 
has made an unprecedented commitment to provide $3.1 billion to fund 
U.S. military facilities on U.S. territory. This contribution helps us 
achieve our common goals of maintaining a strong U.S. military presence 
in the region while creating a U.S. military presence on Okinawa that 
is politically sustainable over the long term.
    Question. How, in your view, does building an unpopular new 
airfield on Okinawa, one that could take 7 to 10 years to finish at a 
cost of at least $3.6 billion, serve to improve the U.S.-Japan 
relations in general and the U.S. military-Okinawa relations in 
particular?
    Answer. My understanding is that since at least 1996, the United 
States and Japan have been in agreement on the need to relocate the 
existing Marine Corps Air Station at Futenma, around which a 
significant population had grown over the years. Since 1999, we have 
identified a site in the vicinity of Camp Schwab near the village of 
Henoko. This was confirmed most recently in the October 2013 2+2 
Meeting Joint Statement. I believe that once this facility is completed 
and operational, the resulting benefit to the areas of Okinawa south of 
Kadena Air Base, where the vast majority of the Okinawa population 
resides, will be apparent to all.
    Question. Is Japan carrying a fair share of the burden of the cost 
of the U.S. presence in Japan under the current Special Measures 
Agreement?
    Answer. My understanding is that Japan is meeting its obligations 
under the 2011 Special Measures Agreement (SMA). If confirmed, I will 
ensure that Japan continues to meet its obligations under the current 
and future SMAs.
                                 india
    Question. What is your view of the current state of U.S.-India 
security relations?
    Answer. I see the United States and India as committed to a long-
term strategic partnership, based on common values, interests, and 
shared challenges. President Obama has referred to this relationship as 
one of the defining partnerships of the 21st century. The defense 
relationship is a vital and growing component of that relationship. My 
understanding is that defense cooperation has increased rapidly over 
the last decade since the signing of the 2005 New Framework Agreement 
on defense cooperation, and now includes a strong slate of high-level 
dialogues, personnel exchanges, exercises, and defense trade.
    Question. If confirmed, what specific priorities would you 
establish for this relationship?
    Answer. If confirmed, I would continue to prioritize a number of 
lines of effort with India currently underway. I would work to build 
upon current military-to-military engagement, including exercises, 
which remain the most visible part of the defense relationship. I would 
focus on accelerating defense trade, seeking out new joint ventures, 
and pursuing opportunities for technology transfer, co-production, and 
co-development of defense systems under the aegis of the defense trade 
and technology initiative approved by President Obama and Prime 
Minister Singh in 2013. In addition, if confirmed, I would seek to 
further cooperation in such areas as maritime security, humanitarian 
assistance and disaster relief response and counterterrorism.
    Question. What is your assessment of the current relationship 
between India and Pakistan?
    Answer. The relationship between India and Pakistan is marked by 
historic distrust. In recent years, the two governments have undertaken 
efforts to improve the relationship, with limited success. The U.S. 
Government is committed to constructive and durable relationships with 
both India and Pakistan. If confirmed, I would continue to encourage 
further confidence-building measures and senior-level engagements 
between India and Pakistan, and would encourage both countries to be 
transparent with each other on their activities in the region.
    Question. In your view, what impact has the ongoing tension between 
Pakistan and India had on the stability of Central and South Asia 
generally, and on the prospects for lasting security in Afghanistan?
    Answer. The distrust between India and Pakistan does not promote 
regional stability, and that is also the case in Afghanistan. The 
United States believes that the bilateral relationship between India 
and Afghanistan is not a threat to Pakistan, nor is it directed against 
any other country in the region. It is vital for Afghanistan to develop 
constructive relationships with all countries in the region to achieve 
long-term regional stability. I support the administration's view that 
we should continue to encourage all regional actors to be transparent 
with each other with respect to their bilateral relationships and 
cooperative activities.
    Question. What effect, if any, do you anticipate that India's 
successful test launch of the Agni V rocket on April 19, 2012, will 
have on India-U.S. relations?
    Answer. In the 2 years since that test, we have not seen a major 
impact on U.S.-India relations.
                      republic of the philippines
    Question. What is the current state of U.S.-Philippine military-to-
military relations, including efforts to increase the number of 
rotational U.S. forces operating from the Philippines?
    Answer. My understanding is that DOD is in the process of 
modernizing the U.S.-Philippines alliance to position our two countries 
more effectively to address 21st century security challenges in the 
Asia-Pacific region. DOD supports the Armed Forces of the Philippines' 
long-term modernization. I understand that DOD is also currently 
negotiating a new agreement to further enhance our defense cooperation 
and enable an increased rotational presence of U.S. forces.
    Question. Do you believe Operation Damayan was a successful 
disaster relief effort? What were the lessons learned from the 
operation? What are the needed areas of improvement for U.S. disaster 
relief operations and joint task force operations in this area?
    Answer. The U.S. whole-of-government response to Super Typhoon 
Haiyan/Yolanda was highly successful. In close cooperation with 
Philippine authorities, the United States was able to move responders 
and supplies rapidly into the affected area. I was pleased to see such 
close cooperation between DOD, the Department of State, U.S. Agency for 
International Development, Philippine authorities, and all of the other 
international and nongovernmental partners that came to the aid of 
those affected by this tragedy. I believe that the U.S. Government and 
international community are still discussing lessons learned, and I 
agree that it will be important to incorporate them into future 
disaster relief training, exercises, and preparedness. I would work to 
do so, if confirmed.
    Question. Do you anticipate a reduced or increased U.S. military 
footprint or change in mission for U.S. military forces in the 
Philippines in the near to mid-term?
    Answer. My understanding is that there are two primary 
considerations that will determine future U.S. military missions and 
footprint in the Philippines. First, discussions between the United 
States and the Philippines on enhanced rotational presence of U.S. 
forces are ongoing. I cannot predict the outcome of those discussions. 
Second, I understand that DOD continues to assess requirements for the 
current counterterrorism mission in the southern Philippines as 
security in that region improves. If confirmed, I look forward to 
engaging on both of these issues as we chart the future of the 
alliance.
                               indonesia
    Question. What is the current state of military-to-military 
relations with Indonesia and, specifically, Kopassus?
    Answer. My understanding is that DOD considers Indonesia to be a 
strong defense partner and that the U.S.-Indonesian military-to-
military relationship continues to improve after the years of 
restrictions ended in 2005. In my view, increased military-to-military 
engagement supports our ability to foster the continued reform and 
professionalization of the Indonesian Armed Forces. Current defense 
cooperation is focused on maritime security, peacekeeping, and 
humanitarian assistance and disaster relief. Bilateral defense trade is 
also growing.
    With respect to Kopassus, I agree with the July 2010 decision by 
then-Secretary Gates to begin limited engagement. If confirmed, I would 
work with Congress to ensure that we help Indonesia continue to make 
progress on reform, human rights, and accountability issues.
    Question. Do you favor increased U.S.-Indonesian military-to-
military contacts? If so, under what conditions? Why?
    Answer. If confirmed, I would support increased military-to-
military engagement with Indonesia. My understanding is that we have a 
strong bilateral defense relationship as well as many shared regional 
security interests, including maritime security, counterterrorism, and 
cooperation within regional architectures. Indonesia is a key regional 
leader, including within the Association of Southeast Asian Nations, 
and will be an important partner in increasing multilateral defense 
cooperation in the region. I support continuing and building on our 
engagement consistent with required human rights vetting, and we will 
continue to encourage further defense reform efforts.
                                colombia
    Question. Plan Colombia has enabled the Colombian government to 
make significant gains against the FARC (Revolutionary Armed Forces of 
Colombia) and other paramilitary forces in Colombia, as well as enabled 
the government to secure many previously ungoverned areas. Since fiscal 
year 2000, the United States has provided more than $7 billion to 
support Colombia's efforts to counter the threat of transnational 
criminal organizations and various terrorist groups.
    What are your views regarding the current situation in Colombia 
focusing upon: (1) the current military and political situation in 
Colombia; (2) the ability of the Colombian military to control its 
territory; and (3) ongoing DOD programs?
    Answer. Since the start of Plan Colombia, the Government of 
Colombia has made enormous strides, with substantial U.S. support, to 
improve its internal stability and citizen security. It has 
dramatically improved its capacity to secure the country against 
several threats, including insurgents (such as the FARC), 
paramilitaries, illegally armed groups, and drug trafficking 
organizations. Colombia's Ministry of Defense, with U.S. support, 
continues to apply pressure on organizations like the FARC, while also 
working to address citizen security and external defense issues.
    Colombia has made progress in asserting better governmental control 
of its territory and maintaining consistent pressure on the FARC, and 
continues to work to consolidate those gains. If confirmed, I would 
support the Department's efforts to encourage Colombia to maintain 
pressure on the FARC and other threats to internal stability.
    I understand that DOD's security cooperation programs with Colombia 
have focused on training, equipping, and mentoring Colombians and also 
provide support to intelligence, surveillance, and reconnaissance 
programs. Colombia has also partnered with the United States in Central 
America, an area of common security interest. I am confident that 
Colombia will continue to grow as a stable, interoperable partner in 
supporting security in the region, and if confirmed, I look forward to 
working with my Colombian counterparts to this end.
    Question. In your view, is the Colombian Government capable of 
sustaining the last decade's gains during this economic downturn and 
the scheduled decline in U.S. security assistance?
    Answer. Yes.
    Question. In light of budget conditions, do you believe continued 
U.S. security assistance to Colombia at the current levels is 
sustainable?
    Answer. Given Colombia's substantial progress, described above in 
response to question 110, security assistance to Colombia has been on a 
downward glide path. Given budget realities, this trend will likely 
continue. I understand that the Department has made difficult decisions 
about where to focus our cooperation with Colombia, and has also 
highlighted some areas where continued U.S. support remains critical, 
such as institutional reform efforts.
    Question. In your view, what are the remaining U.S. supported 
programs that will need to be continued to ``lock in'' the progress 
that has been made?
    Answer. It has been several years since I have been briefed on the 
details of our assistance programs in Colombia, so I would want to 
Reserve judgment on this question until and if I am confirmed. 
Colombia's long-term stability and response to transnational interests 
is in our direct interest. As a general matter, well-designed and well-
implemented programs that restore security, provide social services, 
promote justice and human rights, and encourage legitimate economic 
development in areas formerly under guerrilla and terrorist control are 
essential to helping Colombia secure the progress that has been made.
                       central america and mexico
    Question. During a Senate Armed Services Committee hearing in 2011, 
General Douglas Fraser--the Commander of U.S. Southern Command--and 
Admiral Winnefeld--the former Commander of U.S. Northern Command--
discussed the increasingly dangerous region between Colombia and 
Mexico, and the devastating impact transnational criminal organizations 
are having on the people and security in this region. The United States 
has increased its assistance in this region, but--to date--DOD has had 
only a small role.
    What is your assessment of the threats posed by transnational 
criminal organizations in this region?
    Answer. In the region between Colombia and Mexico, the Central 
American Governments continue to struggle against the threat described 
in the question. Several Central American countries have nascent 
governmental institutions, making them susceptible to the corrupting 
influences of transnational criminal organizations.
    Question. What is your understanding and assessment of DOD's 
current activities in Mexico and Central America?
    Answer. My understanding is that DOD's Mexico and Central America 
programs support host nation security efforts, as well as regional and 
hemispheric defense cooperation and coordination. DOD activities focus 
on professionalization, respect for human rights, and developing 
sustainable capabilities with regional Armed Forces. Within Central 
America, DOD's efforts are focused on building maritime capacity to 
curb illicit trafficking.
    Additionally, DOD has the lead responsibility for the detection and 
monitoring of maritime and air illicit narcotic smuggling flow to 
Central and North America and manages those efforts through the Joint 
Interagency Task Force South, a component of U.S. Southern Command.
                                  cuba
    Question. What is your view of the need to review and, potentially, 
revise U.S. policies regarding Cuba?
    Answer. The President's policy is to promote positive change in 
Cuba and the ability of the Cuban people freely to determine their 
future. The President's policy changes have allowed separated Cuban 
families to reunite and given Cuban citizens greater access to 
resources and information that allow them to establish greater 
independence from the state. We are open to a more constructive 
relationship with Cuba, consistent with our national interests, but 
that will be difficult to achieve while Cuba continues to hold in jail 
U.S. citizen Alan Gross and continues to detain, harass, and abuse its 
citizens for exercising their fundamental freedoms. Consistent with 
current policy, I support targeted bilateral engagements that advance 
U.S. national interests and the enactment of measures that help reduce 
the dependence of Cuban citizens on the state.
    Question. What is your opinion about the need for, and the pros and 
cons of, military-to-military contact with Cuba?
    Answer. I understand that the U.S. military currently conducts 
regular military-to-military fence line talks at U.S. Naval Station 
Guantanamo Bay with representatives of the Cuban Frontier Brigade in 
order to prevent misunderstandings on either side. The U.S. military 
also conducts an annual disaster-relief exercise with the Cuban 
military at Guantanamo Bay. I look forward to learning more about these 
engagements, if confirmed.
    Question. In your view, is Cuba currently supporting or sponsoring 
international terrorism?
    Answer. As designated by the Secretary of State, Cuba remains on 
the list of State Sponsors of Terrorism.
                       building partner capacity
    Question. In the past few years, the Defense Department has 
requested and Congress has approved a number of temporary authorities 
to build the capacity of partner nations or provide security 
assistance. These include the ``section 1206'' global train and equip 
authority, targeted authorities to build capacity in Yemen and East 
Africa, and the Global Security Contingency Fund.
    In your view, what are the strategic objectives and priorities for 
the Department's programs for building the capacity of partner nations?
    Answer. In my view, the Department's capacity building programs aim 
to develop partners' defense and security institutions, and enable them 
to provide for their own security and contribute to regional and 
multilateral responses to threats and instability. Doing so reduces the 
burden on U.S. forces to respond to security threats outside the United 
States, and develops a group of partner countries that can effectively 
participate in coalition-based operations.
    Question. What improvements, if any, would you recommend, if 
confirmed, to the strategic direction, oversight, and management of the 
Department's programs for building partner capacity to ensure that 
these programs are executed consistent with U.S. national security 
goals and objectives?
    Answer. I have not yet had the opportunity to review the 
Department's partner capacity building programs in detail. If 
confirmed, I would ensure that DOD assistance programs are 
appropriately managed and assessed for strategic effectiveness, are 
coordinated with interagency efforts, and adhere to the Defense 
Strategic Guidance.
    Question. What is your assessment of the implementation and 
effectiveness of the Department's programs for building partner 
capacity in achieving U.S. national security goals and objectives?
    Answer. I have not been involved in the implementation of the 
Department's partner capacity building programs, but I understand the 
Department has undertaken in-depth assessments of their effectiveness. 
If confirmed, I look forward to continuing the Department's close 
collaboration with the Department of State and Congress on these 
programs.
    Question. In your view, what should be the role of DOD, vis-a-vis 
the State Department and other civilian departments and agencies, in 
efforts to build the capacity of foreign security forces?
    Answer. DOD is an important member of the interagency group that 
considers, executes, and evaluates the U.S. Government approach to 
building partner capacity. If confirmed, I would seek to maintain 
strong relationships with DOD's interagency partners, to ensure the 
Department's efforts to strengthen foreign security forces fully 
contribute to regional foreign policy objectives.
       authority for use of military force/law of armed conflict
    Question. On September 18, 2001, Congress passed the Authorization 
for the Use of Military Force (Public Law 107-40), which provides that 
``the President is authorized to use all necessary and appropriate 
force against those nations, organizations, or persons he determines 
planned authorized, committed, or aided the terrorist attacks that 
occurred on September 11, 2001, or harbored such organizations or 
persons, in order to prevent any future acts of international terrorism 
against the United States by such nations, organizations or persons.'' 
This AUMF remains in effect and provides the legal authority for 
certain U.S. military actions.
    What is your understanding of the role of the USD(P) in 
interpreting the AUMF and in the application of the AUMF to military 
activities?
    Answer. My understanding is that the USD(P) is a principal advisor 
to the Secretary of Defense on policy-related matters regarding the 
application of the AUMF to military activities.
    Question. In your view, does DOD have the legal authorities it 
needs to conduct military operations against entities responsible for 
September 11 and against those who plan further attacks against the 
United States?
    Answer. Yes.
    Question. In your view, do existing authorities provide the U.S. 
military the flexibility it needs to respond to new and emerging 
terrorism threats?
    Answer. Yes.
    Question. Without the AUMF, would the U.S. military have the 
authority to use force, including deadly force against members of al 
Qaeda and associated forces? If so, under what circumstances?
    Answer. I believe that the President may, in certain circumstances, 
direct the use of military force without the express authorization of 
Congress, but I would defer to the General Counsel on the more detailed 
analysis of the circumstances under which he could do so.
    Question. What is the impact of the President's Policy Guidance on 
Counterterrorism on the application of the AUMF with respect to 
counterterrorism operations?
    Answer. As far as I am aware, the Presidential Policy Guidance on 
Counterterrorism had no impact on the Department's application of the 
AUMF with respect to counterterrorism operations.
    Question. In your view, would it be appropriate for the United 
States to use military force against terrorist groups that have not 
engaged in hostilities directly against the United States, but merely 
shown an intent to do so? If so, under what circumstances?
    Answer. My understanding is that any decision to use such force 
against a terrorist group showing an intent to engage in hostilities 
directly against the United States would be fully informed by analysis 
from the Intelligence Community; policy deliberation, and appropriate 
legal review.
                            unmanned systems
    Question. Over the last 4 years, the administration has worked to 
establish a framework that governs our use of force against 
terrorists--insisting upon clear guidelines, oversight and 
accountability that is now codified in Presidential Policy Guidance the 
President signed on May 22, 2013. As a part of that effort, the 
President has indicated a preference that the U.S. military should 
carry out the use of force in active warzones, and beyond.
    What are your views on whether DOD should assume greater 
responsibility for lethal strikes by remotely-piloted aircraft 
(drones)?
    Answer. I support the view that the U.S. military is the part of 
government that should be responsible for using force against terrorist 
threats abroad.
    Question. What benefits or risks to national security would be 
implicated if the Department were to take the lead role in operating 
unmanned systems?
    Answer. I believe that close cooperation between DOD and its 
interagency partners can address risks to our security, while providing 
the benefits of improved transparency with Congress and the public and 
greater efficiency across our Government.
             strategy formulation and contingency planning
    Question. One of the purposes of Goldwater-Nichols was to increase 
military and civilian attention on the formulation of strategy and 
contingency planning. DOD Directive 5111.3 specifically assigns a major 
role to the Deputy Under Secretary of Defense for Policy for those 
important matters.
    What is your view of the civilian role, as compared to the military 
role, in the formulation of strategy and contingency planning?
    Answer. In my opinion, defense strategy and contingency plans must 
be anchored in national security principles established by the 
President. Civilian leaders play an important role in providing 
necessary guidance to shape military planning, and then have a role 
reviewing that planning. Working within the parameters outlined by the 
President and Secretary of Defense, military leaders provide their best 
military advice on how to achieve objectives.
    Question. In your opinion, does the civilian leadership currently 
have an appropriate level of oversight of strategy and contingency 
planning?
    Answer. Having not served previously in DOD, I am not in a position 
to evaluate the level of civilian oversight of strategy and contingency 
planning. If confirmed, I intend to play an active role in supporting 
the Secretary of Defense and the USD(P) as they establish the strategic 
direction for the Defense Department and fulfill their statutory 
responsibilities.
    Question. What steps do you believe are necessary to ensure 
effective civilian control and oversight of strategy and contingency 
planning?
    Answer. In my experience working with both civilian and military 
leaders of DOD, I believe it is important to have open discussions on 
both what we ask the military to achieve and the proposed military 
approaches to key security challenges. If confirmed, I intend to 
support the Secretary and Under Secretary fully in fostering such 
discussions.
                department of defense strategic guidance
    Question. The DOD strategic guidance, ``Sustaining U.S. Global 
Leadership: Priorities for 21st Century Defense,'' announced by 
President Obama on January 5, 2012, sets out the defense priorities for 
the 21st century and the key military missions for which the DOD will 
prepare.
    Do you agree with the defense priorities set out in that guidance? 
What changes, if any, would you recommend to those defense priorities?
    Answer. Yes. Any changes to this guidance should be reviewed in 
light of an evolving future security environment, as well as the 
realities of the changing fiscal environment.
    Question. The DOD strategic guidance includes a new emphasis on 
U.S. security interests and challenges in the Asia-Pacific region. 
Accordingly, the Department is taking steps to shape U.S. forces 
relative to the air and maritime demands of the Far East and 
deemphasizing readiness for prolonged or large-scale stability 
operations.
    What is your understanding and assessment of the new strategic 
guidance's shift of emphasis to the Asia-Pacific and away from large-
scale stability operations, and the implications of this shift for 
shaping U.S. force structure?
    Answer. The United States has strong and longstanding ties with 
countries in the Asia-Pacific region, where the United States has 
supported security and stability with our military presence and 
partnerships. The rebalance reflects an understanding of the growing 
importance of Asia to the world economy and our own security and 
prosperity. In terms of force structure changes to support the 
rebalance, I understand that DOD is building resiliency in its regional 
operating bases, enhancing capacity for long-range strike, and making 
investments in cyber and space capabilities. DOD also continues to 
invest in advanced capabilities for undersea operations and fifth-
generation fighter aircraft.
    I understand that U.S. ground forces will retain sufficient 
capacity to undertake limited counterinsurgency and stability 
operations, if required. DOD is also ensuring that it has the ability 
to mobilize and regenerate forces if a larger-scale stability operation 
becomes necessary in the future. Finally, the institutional elements of 
the ground forces are seeking to retain and refine the lessons learned 
and specialized capabilities that have been developed over the past 10 
years in Iraq and Afghanistan.
                          combating terrorism
    Question. What is your assessment of the threat posed by al Qaeda 
and its associated forces to the U.S. Homeland, U.S. interests 
overseas, and Western interests more broadly?
    Answer. Al Qaeda and its associated forces continue to pose a 
persistent threat to the U.S. Homeland, U.S. interests overseas, and 
Western interests more broadly.
    Question. What do you believe is the terrorism threat from al Qaeda 
and affiliated groups in each of the geographic combatant commands? Of 
these threats, what do you consider the highest counterterrorism 
priorities?
    Answer. I believe the highest counterterrorism priorities remain in 
the CENTCOM AOR. Core al Qaeda and its affiliates and adherents in 
Afghanistan and Pakistan remain a persistent and serious threat. Al 
Qaeda in the Arabian Peninsula has proven its capability to initiate 
attacks against the United States, and is the most lethal al Qaeda 
affiliate. Al Qaeda's continued persistence in Iraq and Syria raises 
regional concerns.
    In the U.S. Africa Command AOR, al-Shabaab remains a threat to U.S. 
and Western interests in the Horn of Africa, and has staged high-
profile attacks against Western targets in the region. My understanding 
is that there is no current, credible evidence that al Qaeda in the 
Islamic Maghreb is a direct threat to the U.S. Homeland. AQIM and its 
associates do, however, threaten U.S. persons and interests abroad, as 
well as those of our European allies.
    In the remaining geographic combatant command AORs, I understand 
that the threat from al Qaeda is less pronounced. If confirmed, I would 
work with the Intelligence Community, the Department's interagency 
partners, and our foreign partners to disrupt and dismantle any 
emerging threats from al Qaeda in the regions.
    Question. What is your understanding of the Department's role in 
the U.S. strategy to combat terrorism?
    Answer. DOD supports the President's National Strategy for 
Counterterrorism principally by building partner capacity and, when 
appropriate, capturing or killing terrorists who pose a continuing, 
imminent threat to U.S. persons.
    Question. Are you aware of any nexus between non-state actors and 
criminal networks?
    Answer. Yes, it is my understanding that a strong nexus exists 
between illicit non-state actors and global criminal networks. In 
locations such as Colombia, Peru, Afghanistan, and the Sahel, there is 
plenty of evidence of instability fostered and funded by the 
convergence of criminal networks and terrorist organizations. These 
relationships pose threats to the national security of the United 
States and to our allies and partners.
    Question. Given your current knowledge of DOD's programs, do you 
believe resources are aligned in a manner consistent with these 
counterterrorism priorities?
    Answer. I understand the Department has appropriately aligned its 
counterterrorism resources with the priorities outlined in the National 
Strategy for Counterterrorism. If confirmed, I look forward to working 
on this issue in greater detail and ensuring we remain agile in our 
ability to address emerging threats.
                       mass atrocities prevention
    Question. President Obama identified the prevention of mass 
atrocities and genocide as a core U.S. national security interest, as 
well as a core moral interest, in August 2011 under Presidential Study 
Directive 10.
    Among interagency partners, what is DOD's role in addressing 
atrocity threats, and what tools does DOD have for preventing or 
responding to atrocities?
    Answer. As President Obama noted in April 2012, preventing and 
responding to atrocities is a core national security interest of the 
United States. I understand that the Department has played an active 
role in the efforts of the Atrocities Prevention Board and has worked 
to strengthen support to emerging atrocity situations. If confirmed, I 
would continue these efforts and ensure that the Department plays an 
active role in supporting the Atrocities Prevention Board.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent legislation, authorizes the provision of support 
(including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by U.S. Special Operations Forces to combat terrorism.
    What is your assessment of the overall effectiveness of this 
authority?
    Answer. Although I understand that DOD section 1208 programs are 
widely supported by both interagency partners in the field and our 
foreign partners, I would make it a priority--if confirmed--to ensure 
that the Department has objective measures for assessing the program's 
strategic effectiveness.
           department of defense counternarcotics activities
    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends more than $1.0 billion to support U.S. CN operations, build the 
capacity of certain foreign governments around the globe, and analyze 
intelligence on CN-related matters.
    What is your understanding and assessment of the DOD CN program?
    Answer. DOD is assigned the mission of lead U.S. agency for the 
detection and monitoring aerial and maritime drug traffic bound for the 
United States. It is my understanding that DOD provides militarily 
unique capabilities to support law enforcement organizations, both 
foreign and domestic, in their efforts to combat illicit drug 
trafficking. The revenues generated by illicit narcotics trafficking 
provide support for terrorists, insurgents, and other criminal groups 
that threaten U.S. national security interests. The Department's 
counternarcotics program serves as a cost-effective way to protect 
these interests.
    Question. What is your understanding of the Department's CN 
authorities?
    Answer. It is my understanding that the Department's CN authorities 
allow DOD to provide critical enablers to law enforcement and partner 
nations' security forces to confront the threat posed by illicit 
narcotics trafficking, and terrorism. The use of these authorities 
often provides ancillary benefits to law enforcement efforts in other 
areas including addressing other forms of transnational organized 
crime. As the lead agency for the detection and monitoring of aerial 
and maritime drug traffic bound for the United States, the Department 
also has authority to assist our State, local, tribal, Federal, and 
international law enforcement partners. DOD CN authorities also support 
our geographic combatant commanders' CN programs, covering regions in 
Central and South America as well as Afghanistan. CN authorities also 
allow for the provision of CN programs and activities through the 
National Guard Counterdrug Programs of 50 States and 3 Territories. If 
confirmed, I look forward to working with Congress to preserve these 
authorities.
    Question. Should the United States reassess ongoing efforts to 
combat the trafficking of illegal narcotics in the Western Hemisphere 
given the increasing concerns of many of the Nations in the Hemisphere 
about the lack of results from the decades old war on drugs?
    Answer. In my view, DOD has played a key role in supporting U.S. 
and partner nation counternarcotics efforts that have made progress 
against cocaine use and distribution throughout the Western Hemisphere. 
According to the Office of National Drug Control Policy, DOD 
counternarcotics efforts helped reduce the amount of cocaine reaching 
the United States, which has contributed to declines in cocaine 
overdose deaths, positive workplace drug tests, retail drug purity, and 
cocaine seizures in the United States. Nevertheless, continued high 
levels of cocaine, heroin, and methamphetamine trafficking, and the 
growing threat of synthetic drugs, continue to present a difficult 
challenge, and there is room for improvement. If confirmed, I would 
work to find better ways to disrupt the production and trafficking of 
illegal drugs, which in turn can contribute to reduced stability in 
affected countries.
             training and equipping foreign security forces
    Question. The fiscal year 2014 defense appropriations act makes a 
number of changes to the prohibitions and vetting process required for 
training, equipping, or providing other assistance to foreign security 
forces that have committed gross violations of human rights.
    What is your assessment of these changes and their possible effect 
on the Department's ability to provide needed training, equipment, or 
other assistance, especially in countries such as Mexico, Afghanistan, 
and Myanmar?
    Answer. I strongly support the Leahy law, and I am aware that the 
Secretary of Defense, and the Secretary of State strongly support it 
also. If confirmed, I would review the impact of fiscal year 2014 
changes to the Leahy law on DOD activities.
    Question. What concerns, if any, do you have regarding the changes 
to the law?
    Answer. I do not have any concerns at this point with the changes 
to the Leahy law made in the fiscal year 2014 act.
    Question. Would it be beneficial to have an exception to the 
prohibitions on training and providing assistance to allow the 
Department to provide limited training on human rights, rule of law, 
the English language, and the law of armed conflict?
    Answer. I am not aware that the administration is recommending any 
changes to the Leahy law.
       national strategy to combat transnational organized crime
    Question. Transnational criminal organizations are having a 
debilitating impact on the ability of our foreign partners to govern 
their nations and provide opportunities for their people. Last July, 
President Obama released the first National Strategy to Combat 
Transnational Organized Crime. DOD is not a law enforcement agency, but 
it does bring unique enabling capabilities to our Nation's Federal law 
enforcement agencies.
    What role, if any, should DOD play in combatting transnational 
criminal organizations?
    Answer. The President stated in his Strategy to Combat 
Transnational Organized Crime that transnational organized crime is a 
threat to our national security. I agree with the Strategy's call for 
the U.S. Government to build, balance, and integrate the tools of 
national power to combat transnational organized crime and related 
threats. DOD has a supporting role to play in this effort. Although DOD 
does not, and should not, serve as the lead U.S. Government agency for 
transnational organized crime, it is my view that DOD should continue 
to provide unique support to U.S. law enforcement and foreign partners 
in our common efforts against transnational organized crime.
            united nations convention on the law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views on U.S. accession to UNCLOS?
    Answer. I support U.S. accession the Law of the Sea Convention. The 
United States has a significant interest in promoting a rules-based 
international order, including the international law of the sea. Dating 
back to the Nixon administration, the United States played a 
substantial role in drafting and negotiating the Law of the Sea 
Convention and its 1994 Implementing Agreement. The Convention 
effectively preserves our interests as both a coastal nation and a 
maritime nation.
    Question. From a national security standpoint, what do you see as 
the advantages and disadvantages to being a party to UNCLOS?
    Answer. The Convention advances the interests of the United States 
as a global maritime power. Specifically, the Convention codifies the 
rights, freedoms, and uses of the sea, including rights of innocent 
passage in the territorial sea, transit passage in straits used for 
international navigation, archipelagic sea lanes passage, and the 
traditional freedoms of navigation and overflight beyond the 
territorial seas of any coastal State. I am unaware of any 
disadvantages of the United States joining the Convention.
    Question. What is your understanding of the principal arguments 
against ratifying UNCLOS, and what is your response to those arguments?
    Answer. The Senate Foreign Relations Committee twice approved the 
Convention during the last decade, in 2004 and in 2007. The arguments 
against the Convention, and the responses to those arguments, are fully 
developed in the reports of the committee. I agree with the arguments 
set forth by the majority of members who twice approved the Convention, 
which are reflected in those reports, specifically S. Exec. Rept. 108-
10 (2004) and S. Exec. Rept. 110-9 (2007).
                               cyberspace
    Question. What is your understanding of the role of the Office of 
the Under Secretary of Defense for Policy (OUSD(P)) in the development 
of policy and strategy for military operations in cyberspace and in 
exercising oversight of U.S. Cyber Command (CYBERCOM) and the National 
Security Agency?
    Answer. My understanding is that the OUSD(P) plays an important 
role in providing senior-level civilian oversight of CYBERCOM, working 
closely with U.S. Strategic Command and CYBERCOM on cyberspace strategy 
and policy, contingency planning, and policy oversight of cyberspace 
operations. In accordance with the National Defense Authorization Act 
for Fiscal Year 2014, OUSD(P) will work closely with the Secretary's 
principal cyber advisor. Finally, OUSD(P) works closely with and 
supports the Office of the Under Secretary of Defense for Intelligence 
in its role overseeing NSA.
    Question. In the cyberspace domain, for each of the mission areas 
of cyber network defense, cyber network exploitation, and cyber network 
attack, what is your understanding of the relationship between the 
OUSD(P) and each of the following: the Chief Information Officer; the 
Under Secretary of Defense for Acquisition, Technology, and Logistics; 
and the Under Secretary of Defense for Intelligence?
    Answer. My understanding is that, to defend DOD networks, the 
OUSD(P) and the Chief Information Officer frequently work together to 
support initiatives such as the Joint Information Environment that 
improve the resiliency of DOD networks. OUSD(P) also works closely with 
the Office of the Under Secretary of Defense for Acquisition, 
Logistics, and Technology (OUSD(AT&L)), in particular through the Cyber 
Investment Board, which addresses resource allocation issues across the 
cyber mission areas. OUSD(P) has a strong relationship with the Office 
of the Under Secretary for Intelligence (OUSD(I)) because of the nexus 
between intelligence and cyber operations, which also support 
activities across the cyber mission areas.
    Question. What is your assessment of the maturity and adequacy of 
policy and doctrine governing defensive, offensive, and intelligence-
gathering operations in cyberspace, both within DOD and the 
interagency? What gaps or deficiencies remain, in your view?
    Answer. My understanding is that DOD continues to refine doctrine, 
policies, and organizational relationships to enable CYBERCOM to 
execute its missions in cyberspace. In particular, CYBERCOM continues 
to refine its concepts of operations and employment, command and 
control structure, and training and readiness standards. These efforts 
represent a significant maturation of the policy and doctrine that 
govern cyberspace operations. DOD also supports the newly released 
framework developed by the National Institute of Standards and 
Technology and the Department of Homeland Security (DHS) to improve the 
defenses of critical infrastructure upon which the Department depends.
    Question. What is your assessment of the appropriate roles and 
responsibilities of DOD, vis-a-vis other government agencies (such as 
the Department of Homeland Security, the Intelligence Community, and 
the Justice Department) and the private sector in preparing for, and 
the conduct of, the defense of government and critical infrastructure 
networks in cyberspace?
    Answer. DOD is responsible for defending the Nation against attacks 
in all domains, including cyberspace. When directed by the President or 
the Secretary of Defense, DOD conducts cyberspace operations to enable 
military operations, to operate and defend military systems, and to 
secure DOD critical infrastructure. If and when directed, DOD provides 
support to State and local governments and to the private sector. 
Departments and agencies across the Federal Government coordinate with 
the private sector to develop cybersecurity solutions and to mitigate 
risks and vulnerabilities.
    It is my understanding that DHS has the primary responsibility for 
coordinating domestic cyber incident prevention, protection, 
mitigation, and recovery. In addition, DHS is responsible for securing 
unclassified Federal civilian networks and systems. DOD and the 
Department of Justice (DoJ) provide technical support to DHS as it 
carries out these missions. DoJ investigates, attributes, disrupts, and 
prosecutes cybercrimes outside of military jurisdiction. The 
Intelligence Community provides cyber threat information to agencies of 
the U.S. Government as they carry out their missions.
                        illicit arms trafficking
    Question. What is your understanding of the problem of illicit arms 
trafficking and the role of the United States to deal with the problem?
    Answer. The trafficking of illicit arms is a serious, worldwide 
problem. Because of the United States' experience in this area and our 
strong and well-developed arms export control system, we can be a 
leader in engaging partner countries on ways to combat illicit arms 
trafficking more effectively.
    Question. In your view, to what extent, if at all, does the lack of 
national controls and enforcement on arms flows contribute to the 
illicit trafficking problem, and could efforts to respond to illicit 
trafficking be improved if other countries adopted and enforced 
national regulations on arms import, export, and transit similar to 
those of the United States?
    Answer. Where illicit trafficking is pervasive, partner countries 
should improve their arms transfer processes. If confirmed, I would 
encourage other countries to improve the standards of their controls, 
to make them closer to those of the United States, so that the 
international trafficking of illicit arms would become much more 
difficult.
    Question. Do you think the arms trade treaty would enhance U.S. 
national security interests?
    Answer. Yes. The Arms Trade Treaty would help to establish higher 
international standards for the transfer of arms that are based on the 
standards that apply in the United States, thus making it much more 
difficult for terrorists or other illicit actors to obtain them. It is 
in the interest of U.S. national security to have fewer weapons in the 
hands of illicit actors.
                              arms control
    Question. What role do you see for arms control as a means of 
improving U.S. national security?
    Answer. Arms control can contribute to U.S. national security by 
providing predictability and stabilizing the strategic or military 
balance between the United States and other nations at lower levels of 
weapons, including strategic nuclear forces. I believe such agreements, 
and their attendant verification provisions, make the United States 
safer and more secure, as they provide mutual transparency and 
predictability regarding military forces.
    Question. What are your views on the possible next steps to address 
nuclear weapons issues between the United States and Russia?
    Answer. The President determined after a review of our nuclear 
strategy that we can ensure the security of the United States and our 
allies and partners and maintain a strong and credible nuclear 
deterrent while safely pursuing up to a one-third reduction in deployed 
nuclear weapons below the limits established in the New START treaty. 
The administration is seeking to pursue such reductions through 
negotiations with the Russian Federation. The United States has made 
clear our interest in seeking reductions in all categories of nuclear 
weapons, including non-strategic nuclear weapons.
    Question. What conditions, if any, do you believe need to be met to 
further reduce strategic and tactical nuclear stockpiles through arms 
control?
    Answer. We require a willing partner, but to date, Russia has not 
shown interest in pursuing such discussions. The administration will 
continue to engage with Russia to gauge interest in pursuing 
opportunities for arms control relating to both strategic and non-
strategic nuclear stockpiles.
    Question. What might be the risks and benefits of pursuing 
reductions below New START force levels?
    Answer. Further reductions in the nuclear forces of Russia and the 
United States offer a number of benefits, including reducing the number 
of nuclear weapons that can be targeted against the United States and 
promoting our nuclear non-proliferation objectives. Reducing nuclear 
forces also benefits the United States by permitting us to maintain 
strategic stability and predictability at lower force levels. Such a 
posture, supported by modernization programs to maintain the 
credibility of our deterrent force, will provide the United States 
sufficient forces to deter or respond to 21st century threats.
                       ballistic missile defense
    Question. In February 2010, the Defense Department issued its 
report on the first-ever comprehensive review of U.S. ballistic missile 
defense policy and strategy, the BMDR, as required by Congress. The 
BMDR established a number of policy priorities, including establishing 
defense against near-term regional missile threats as a top priority of 
missile defense plans, programs and capabilities. It also stated the 
policy of sustaining and enhancing the ability of the Ground-based 
Midcourse Defense system to defend the homeland against attack by a 
small number of long-range missiles by countries such as North Korea 
and Iran, and of hedging against future uncertainties.
    Do you support the policies, strategies, and priorities set forth 
in the BMDR?
    Answer. Yes.
    Question. Do you agree that our missile defense must be fiscally 
sustainable?
    Answer. Yes, we have an obligation to invest in effective, 
affordable missile defense systems. If confirmed, I would continue to 
implement DOD's commitment to deploying capabilities that have been 
proven through testing and assessment and that are affordable over the 
long term.
    Question. In September 2009, President Obama announced that he had 
accepted the unanimous recommendation of the Secretary of Defense and 
the Joint Chiefs of Staff to pursue a Phased Adaptive Approach (PAA) to 
missile defense in Europe. This approach is intended to defend all of 
Europe against existing and emerging threats from Iranian missiles, 
increasing in capability with each of its four phases. Phase 4 of the 
European PAA is intended to provide a capability to defend against 
potential future long-range missiles from Iran that could reach the 
United States, thus augmenting the existing homeland missile defense 
capability.
    Do you support the PAA to Missile Defense in Europe and, if 
confirmed, will you implement it?
    Answer. Yes, I support the European Phased Adaptive Approach and 
the plans for it that Secretary Hagel announced on March 15, 2013. If 
confirmed, I would continue to implement those plans.
    Question. Do you agree that any ballistic missile defense systems 
that we deploy operationally must be operationally effective, suitable, 
survivable, cost-effective, affordable, and should address a credible 
threat?
    Answer. Yes.
    Question. Do you agree that ballistic missile defense testing needs 
to be operationally realistic, and should include Operational Test and 
Evaluation, in order to assess operational capabilities and limitations 
of ballistic missile defense systems, prior to deploying such systems?
    Answer. Yes.
    Question. The United States and NATO are seeking options to 
cooperate with Russia on missile defense, including the possibility of 
sharing radar and early warning data. President Obama has announced 
that such cooperation would not limit U.S. or NATO missile defense 
capabilities.
    Do you agree that such cooperation could enhance the security of 
the United States, NATO, and Russia against common missile threats from 
Iran, and could send a powerful signal to Iran that could help persuade 
Iran not to pursue long-range missiles or nuclear weapons?
    Answer. Yes. U.S./NATO cooperation with Russia on missile defense 
has the potential to improve our mutual security against the threat of 
Iranian ballistic missiles and nuclear weapons and would send a strong 
signal to Iran of our common resolve.
    Question. Do you agree that, notwithstanding Russian concerns, the 
United States is committed to the continued development and deployment 
of U.S. missile defense systems, including qualitative and quantitative 
improvements to such systems, needed to meet our security needs?
    Answer. Yes. I believe that the proliferation of ballistic missiles 
is a real and growing threat to the United States, our deployed forces, 
and our allies and partners. If confirmed, I would work to improve our 
missile defense forces to meet our national security needs.
                     national security space policy
    Question. What role, if any, do you believe the PDUSD(P) should 
play in the establishment of a national security space policy?
    Answer. The role of the PDUSD(P) is to support the USD(P) in 
carrying out the responsibilities of overseeing implementation of 
existing national security space policy in coordination with other 
agencies and with Congress. The Principal Deputy Under Secretary also 
supports the Under Secretary in carrying out responsibilities for 
overseeing development of new policy when circumstances warrant.
                       special operations forces
    Question. The previous two Quadrennial Defense Reviews (QDR) have 
mandated significant growth in our Special Operations Forces (SOF) and 
enablers that directly support their operations.
    Do you believe QDR-directed growth in the size of SOF can and 
should be maintained in light of current fiscal challenges?
    Answer. I understand that SOF are a highly-efficient and effective 
capability that the Department intends to preserve. If confirmed, I 
would work with the Service Chiefs, the Assistant Secretary of Defense 
for Special Operations and Low Intensity Conflict (ASD(SO/LIC)), and 
the Commander, U.S. Special Operations Command (SOCOM) to ensure the 
SOF community is appropriately sized to meet the full range of missions 
assigned globally.
    Question. Special Operations Forces heavily rely on enabling 
capabilities provided by the GPFs to be successful in their missions.
    In light of current fiscal challenges, do you believe sufficient 
enabling capabilities can be maintained within the GPFs and that such 
capabilities will remain available to Special Operations Forces when 
needed?
    Answer. If confirmed, I would work closely with the Service Chiefs, 
the ASD(SO/LIC), and the Commander, SOCOM to ensure the Department is 
appropriately structured and resourced to make enablers available to 
both SOF and the GPFs.
    Question. Do you believe Special Operations Forces should develop 
additional organic enabling capabilities in addition or in place of 
those currently provided by the GPFs?
    Answer. If confirmed, I would work with the ASD(SO/LIC) and the 
Commander, SOCOM to examine this issue.
    Question. The Commander of U.S. Special Operations Command (SOCOM) 
has sought more control over the deployment and utilization of Special 
Operations Forces. For example, the Secretary of Defense modified 
policy guidance for the combatant commands earlier this year that gave 
SOCOM, for the first time, responsibility for resourcing, organizing, 
and providing guidance to the Theater Special Operations Commands of 
the geographic combatant commanders and Special Operations Forces 
assigned to them. It has been reported that the Commander of SOCOM is 
also seeking new authorities that would allow him to more rapidly move 
Special Operations Forces between geographic combatant commands.
    Please provide your assessment of whether such changes are 
appropriate and can be made without conflicting with civilian control 
of the military, infringing upon authorities provided to the geographic 
combatant commanders, or raising concerns with the State Department.
    Answer. I understand that SOCOM resources deployments of SOF 
personnel to the geographic combatant commands, but that the geographic 
combatant commanders continue to exercise operational control over 
those deployed forces. If confirmed, I would work closely with the 
Department of State and other relevant interagency partners to 
understand the contours of this issue more fully.
    Question. Do you believe SOCOM is appropriately resourced to 
adequately support the Theater Special Operations Commands and Special 
Operations Forces assigned to them?
    Answer. If confirmed, I would work with ASD(SO/LIC) and the 
Commander, SOCOM, to understand more fully the resourcing issues 
associated with the Theater Special Operations Commands and their 
assigned forces.
                       interagency collaboration
    Question. The collaboration between U.S. Special Operations Forces, 
GPFs, and other U.S. Government departments and agencies has played a 
significant role in the success of counterinsurgency and 
counterterrorism operations in recent years. However, much of this 
collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. The lessons learned on interagency efforts over the past 
decade have led to well-informed, transparent, constant communication 
and collaboration at multiple levels. If confirmed, I would work to 
ensure we continue operating under a common strategic framework and 
build long-lasting, multi-departmental relationships with our 
interagency partners.
    Question. How do you believe these efforts can be improved?
    Answer. I strongly support a whole-of-government approach to 
counterinsurgency and counterterrorism operations. If confirmed, I 
would work to maintain and expand the capacities and institutions that 
have supported successful, collaborative interagency efforts over the 
course of the past decade.
    Question. If confirmed, what would be your role in encouraging 
greater interagency collaboration between U.S. Special Operations 
Forces, GPFs, and other U.S. Government departments and agencies?
    Answer. I believe that interagency collaboration is the most 
important contributing factor to many SOF achievements. If confirmed, I 
would work with the ASD(SO/LIC) and the Commander, SOCOM, to help them 
oversee, maintain, and build upon the important relationships developed 
over the past decade.
                  multilateral peacekeeping operations
    Question. In testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, U.S. Ambassador to the 
United Nations, stated that the United States ``is willing to consider 
directly contributing more military observers, military staff officers, 
civilian police, and other civilian personnel--including more women I 
should note--to U.N. peacekeeping operations.''
    What is your view on whether the United States should contribute 
additional military personnel to both staff positions and military 
observers in support of U.N. peacekeeping operations?
    Answer. If confirmed, I would support additional contributions of 
U.S. military personnel to staff officer positions, provided that they 
are positions that would add significant value to the mission, and that 
the mission is a strategic priority for the United States.
    Support for international peacekeeping remains an important 
security objective for the U.S. Government, and the United States has a 
stake in the success of U.N. peacekeeping operations. I believe that, 
where practical, the United States should continue to provide military 
personnel for U.N. peacekeeping operations, especially for key staff 
positions that can help shape the direction and success of the mission. 
If confirmed, I would carefully evaluate any proposals to contribute 
military or civilian personnel to a U.N. peacekeeping operation, 
weighing the potential positive impact of U.S. participation in the 
mission against other military commitments we have around the globe, 
and the estimated cost of U.S. involvement.
    Question. What are the advantages and disadvantages of contributing 
additional military personnel to U.N. operations?
    Answer. Contributing additional military personnel to U.N. missions 
can provide the opportunity to shape U.N. missions and enhance mission 
success. Successful U.N. peacekeeping operations are in the core 
national security interest of the United States, as they generally are 
cost effective, reduce the burden on U.S. forces, and in many cases 
directly advance U.S. security interests. Additionally, the Department 
gains real-time information and insights on emerging threats and crises 
from places where there might not otherwise be a U.S. presence. We must 
be mindful, however, of the additional demands these assignments could 
impose on the Department.
                       detainee treatment policy
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. Yes.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the PDUSD(P)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                             sequestration
    1. Senator Inhofe. Mr. McKeon, I believe we can all agree that 
sequestration has had a devastating impact on our Nation's military 
readiness. However, I also believe many are under the mistaken 
impression the Ryan/Murray agreement solved this problem. It did not. 
It helped, but DOD is still subject to $76.96 billion in sequester cuts 
in fiscal year 2014 and fiscal year 2015. Even with the small relief in 
fiscal year 2014 and fiscal year 2015, do you think we can execute the 
current Defense Strategic Guidance? If you believe we can execute the 
strategy but with greater risk, can you explain what you mean by risk? 
To me, risk equals lives, the lives of our men and women in uniform.
    Mr. McKeon. I am not yet in a position to evaluate the Department's 
updated defense strategy in the 2014 Quadrennial Defense Review (QDR). 
However, if confirmed for this position, I will focus on ensuring the 
Department can fulfill our defense strategy, based on the means 
provided, and identify clearly the risks we are not able to mitigate 
for our country and for our servicemembers.

                 national security and defense strategy
    2. Senator Inhofe. Mr. McKeon, a new QDR should be published soon. 
This is a critical document which sets DOD's strategies and priorities. 
Recently, DOD conducted a Strategic Choices Management Review, commonly 
called the Skimmer. The Skimmer explored different military 
capabilities based upon various funding scenarios. Both of you have 
watched the Skimmer process closely and Ms. Wormuth you have worked on 
the QDR itself. Many are concerned that in an effort to seek defense 
cuts, the new QDR will expose the United States to risks which recently 
would have been unthinkable. Therefore, will the QDR articulate where 
we are going to be taking additional risks?
    Mr. McKeon. Although I have not reviewed the 2014 QDR, I understand 
that it articulates risk to some missions at various defense funding 
levels. These include the President's fiscal year 2015 budget request, 
as well as the risk if sequestration-level funding returns, proposed 
reforms are rejected, and budget uncertainty continues.

    3. Senator Inhofe. Mr. McKeon, will the defense cuts cause major 
changes to our National Security Strategy and National Military 
Strategy?
    Mr. McKeon. The Department of Defense (DOD) is working closely with 
the White House as the National Security Council Staff updates the 
National Security Strategy. This close coordination will ensure that 
the National Security Strategy, the 2014 QDR, and the President's 
fiscal year 2015 budget request will be consistent and mutually 
reinforcing. I am currently unfamiliar with the state of development of 
the National Military Strategy.

    4. Senator Inhofe. Mr. McKeon, how can you tell when a strategy has 
gone from being budget-informed to being budget-driven?
    Mr. McKeon. A strategy goes from being budget-informed to budget-
driven when it sets investment priorities without a logical connection 
to how these investments support the Department's primary missions or 
U.S. national security interests. Strategies should be informed by the 
budget to ensure realistic expectations on what the Armed Forces can 
achieve. Strategies should not be driven by the budget because doing so 
risks developing a future force that is not aligned with the 
President's expectations of what the Armed Forces should be prepared to 
do.

    5. Senator Inhofe. Mr. McKeon, how are our risks affected when you 
change from being budget-informed to being budget-driven?
    Mr. McKeon. In a budget-informed approach, risk can be defined in 
terms of the ability of military forces to conduct the missions called 
for by the defense strategy. In a budget-driven approach, risk is more 
difficult to assess or reduce because the methodology does not allow 
for the development of different approaches to meet the objectives of 
the strategy.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                   potential russian treaty violation
    6. Senator Wicker. Mr. McKeon, in Berlin last year, President Obama 
gave a speech calling for further cuts to our nuclear deterrent. He 
stated that we need to work with Russia on new arms control agreements 
that go below the New Strategic Arms Reduction Treaty (START) levels. 
What role did you play in the drafting of this speech?
    Mr. McKeon. As I testified on February 25, I may have reviewed some 
of the drafts of the speech, and may have offered comments to the 
speechwriter.

    7. Senator Wicker. Mr. McKeon, did the President call for these 
cuts and for working with Russia while he knew Russia was violating a 
major arms control agreement? Wasn't this disingenuous on the White 
House's part?
    Mr. McKeon. Based on your questions during the public hearing, I 
believe you are referring to the Intermediate-Range Nuclear Forces 
(INF) Treaty. As I testified, and indicated in my letter of February 
24, the administration is concerned about Russian activity that raises 
concerns about Russian compliance with the INF Treaty; a formal 
compliance review is ongoing but has not yet been completed.

    8. Senator Wicker. Mr. McKeon, in December 2012, the administration 
threatened to veto the NDAA because of section 1035(c) of that Act. 
Specifically, this provision stated that the United States could not 
reduce its nuclear deterrent until the President certified that Russia 
was in compliance with its Arms Control Treaty obligations. Were you on 
the National Security Staff at the time?
    Mr. McKeon. Yes.

    9. Senator Wicker. Mr. McKeon, in light of the New York Times story 
on the INF Treaty, is it fair to say that the President issued that 
veto threat because he could not certify that Russia was complying with 
its treaty obligations?
    Mr. McKeon. The administration released two Statements of 
Administration Policy (SAP) in connection with the National Defense 
Authorization Act (NDAA) for Fiscal Year 2013. The first was issued on 
May 15, 2012, in connection with H.R. 4310; the second one was issued 
on November 29, 2012, in connection with S. 3254. The former expressed 
strong objections to sections 1053-1059, because they ``would impinge 
on the President's ability to implement the New START treaty and to set 
U.S. nuclear weapons policy.'' The latter does indicate that the 
President's senior advisers would recommend the President veto the bill 
in its current form but there is no mention in the SAP of provisions 
relating to Russia or arms control treaty obligations.
    The President signed the NDAA for Fiscal Year 2013 in January 2013 
(Public Law 112-239). section 1035, as modified by section 801(a) of 
the American Taxpayer Relief Act of 2012 (Public Law 112-240), adds a 
new section 495 to title 10, United States Code. On January 3, 2013, in 
signing the NDAA, the President issued a signing statement which said--
--

          Section 1035, which adds a new section 495(c) to title 10, is 
        deeply problematic, as it would impede the fulfillment of 
        future U.S. obligations agreed to in the New START treaty and 
        hinder the executive's ability to determine an appropriate 
        nuclear force structure. I am therefore pleased that Congress 
        has included a provision to adequately amend this provision in 
        H.R. 8, the American Taxpayer Relief Act of 2012, which I will 
        be signing into law today.

    I believe the concern expressed at the time by the administration 
about this provision related to the fact that the administration was 
unable to certify Russian compliance with certain treaties, including 
the Conventional Forces in Europe Treaty and the Chemical Weapons 
Convention, and, as expressed in the President's statement, that the 
executive branch could not accept constraints on the President's 
ability to set U.S. nuclear policy.

    10. Senator Wicker. Mr. McKeon, were you aware that in October 
2012, the chairmen of the House Armed Services and House Intelligence 
Committees had written to the President with their concerns about 
Russia's violation of the INF Treaty?
    Mr. McKeon. I was likely aware of it at the time the letter was 
received in the White House.

    11. Senator Wicker. Mr. McKeon, you were a central staff member 
behind the administration's push to ratify the New START treaty in 
2010. You recalled, I assumed, the letter the President wrote to 
Senators on December 20th of that year stating: ``I recognize that 
nuclear modernization requires investment for the long-term, in 
addition to this 1-year increase. That is my commitment to Congress--
that my administration will pursue these programs and capability for as 
long as I am President.'' Can you assure us that the National Security 
Staff, under Ms. Sherwood Randall, is not undertaking any reviews of 
how to walk away from that commitment for the sake of the President's 
nuclear disarmament legacy?
    Mr. McKeon. Yes, the President stands behind the commitment made in 
the letter. The administration remains fully committed to the 
investments required to ensure that our nuclear arsenal remains safe, 
secure, and effective.

    12. Senator Wicker. Mr. McKeon, do you agree that the United States 
has an obligation to keep our allies, such as the North Atlantic Treaty 
Organization (NATO), fully and timely informed on matters that impact 
their national security, such as a violation of the INF Treaty?
    Mr. McKeon. The United States has obligations to our NATO allies 
under the North Atlantic Treaty. Included in the treaty is a commitment 
in Article 3 that the parties will ``separately and jointly maintain 
and develop their individual and collective capacity to resist armed 
attack''. Accordingly, we regularly inform and consult with our allies 
about matters affecting their security and the security of the 
Alliance.

    13. Senator Wicker. Mr. McKeon, in 2012, NATO undertook a 
Deterrence and Defense Posture Review, which included a full 
examination of their nuclear posture. Did the United States have 
important information on the INF Treaty which we did not share with 
NATO?
    Mr. McKeon. The United States keeps our NATO allies informed about 
matters that affect their national security and the security of the 
Alliance, including treaty compliance issues. Throughout the Deterrence 
and Defense Posture Review (DDPR) process, the United States consulted 
closely with our NATO allies about the overall security environment and 
the capabilities we and our allies require to meet the challenges we 
face, and we continue to do so.

    14. Senator Wicker. Mr. McKeon, would you please explain why we 
wouldn't inform our Article V mutual defense and security allies of a 
violation, which is a threat to their security more than ours, 
especially during their consideration of a review focusing on 
deterrence and defense?
    Mr. McKeon. Throughout the DDPR process, the United States 
consulted closely with our NATO allies about the overall security 
environment and the capabilities we and our allies require to meet the 
challenges we face, and we continue to do so. As noted previously, a 
compliance review regarding Russian compliance with the INF Treaty is 
ongoing.

    15. Senator Wicker. Mr. McKeon, on January 30th, a New York Times 
article described a previously undisclosed Russian violation of the INF 
Treaty. When State Department spokeswoman Ms. Jen Psaki was asked about 
the facts of the New York Times report, she stated: ``I don't have 
anything to refute.'' We take this to mean that the facts of the 
article are accurate. Do you have anything to refute?
    Mr. McKeon. As I stated in the February 25 hearing, and in my 
letter to you of February 24, we have concerns about Russian compliance 
with the INF Treaty. As I cannot comment on the details of these 
concerns in an unclassified form, I refer you to my letter of February 
24 for additional information.

    16. Senator Wicker. Mr. McKeon, the Senate received a classified 
briefing in late 2010, prior to its vote on the New START treaty, 
regarding a potential arms control issue with Russia. What role did you 
play in organizing that briefing?
    Mr. McKeon. I recall two classified briefings in September 2010 
related to a potential arms control issue with Russia.
    One occurred on or about September 15, 2010, for the senior staff 
of the Senate leadership and the national security committees. I 
understand that this briefing was conducted by officials from the 
Intelligence Community (IC). I do not recall having any role in 
organizing it.
    The second occurred on September 29, 2010, when the Director of 
National Intelligence briefed an all-Senators session on the National 
Intelligence Estimate on the IC's ability to monitor the New START 
treaty. I included an excerpt of Director Clapper's statement in my 
letter of February 24. As part of the administration's efforts to 
ensure that all Senators were briefed on the treaty and relevant 
issues, I believe that I worked with the Office of the Director of 
National Intelligence (ODNI) as well as the Departments of State and 
Defense to arrange for this briefing to occur prior to the adjournment 
of that session of the Senate, in response to a request from the Senate 
leadership staff.

    17. Senator Wicker. Mr. McKeon, can you assure me that all possible 
issues and facts, of which Ms. Jen Psaki had nothing to refute, were 
fully briefed to the Senate as it was considering the New START treaty?
    Mr. McKeon. I believe that the Senate had access to, or was 
provided, a range of unclassified and classified information about the 
New START treaty, about Russian compliance with treaties in force at 
the time, and about Russian activities relevant to the New START 
treaty. I understand that on February 27, 2014, the Director of 
National Intelligence testified in closed session before your committee 
regarding what had been shared with the Senate while the New START 
treaty was being considered, and will be providing additional 
classified information about information made available to Congress in 
2010 and in the years prior.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                intermediate-range nuclear forces treaty
    18. Senator Ayotte. Mr. McKeon, in Berlin last summer, President 
Obama gave a speech calling for further cuts to our nuclear deterrent. 
Did the President call for these cuts and for working with Russia while 
knowing Russia was potentially violating the INF?
    Mr. McKeon. On June 19, 2013, the President gave a speech in Berlin 
on a range of issues. Among other things, he announced the results of a 
review of our nuclear employment guidance, stating that he had 
determined that we can ``ensure the security of America and our allies, 
and maintain a strong and credible strategic deterrent, while reducing 
our deployed strategic nuclear weapons by up to one-third''. He further 
expressed an intention to seek ``negotiated cuts with Russia to move 
beyond Cold War nuclear postures''.
    Prior to June 2013, the administration had submitted reports to 
Congress in unclassified and classified form setting forth information 
about Russian compliance with all arms control obligations, including 
those contained in the INF Treaty.

                        relationship with russia
    19. Senator Ayotte. Mr. McKeon, I am interested in your responses 
to the advance policy questions related to Russia. You were asked, 
``What in your view are the major security issues in the U.S.-Russia 
relationship?'' In your response, you proceeded to list several areas 
in which you believe we have cooperated well with the Russians 
including strategic arms reductions. You did not mention any specific 
challenges in the relationship with Russia. In the next question you 
were asked, ``Where do you see U.S. and Russian security interests 
aligning and where are they diverging?'' In your response to this 
question you mentioned working with the Russians on the removal of 
Syrian chemical weapons as evidence of good collaboration. You 
mentioned areas of friction but did not mention any specifics. What is 
your assessment of the U.S. relationship with Russia?
    Mr. McKeon. The bilateral relationship with Russia is marked by 
pragmatic cooperation where our interests converge and one of 
disagreement where they do not. The United States has worked closely 
with Russia in the P5+1 (permanent five members of the U.N. Security 
Council plus Germany) in connection with that group's efforts to 
prevent Iran from obtaining a nuclear weapon. We have cooperated with 
Russia when we can in the United Nations Security Council, where it is 
a permanent member. At the same time, we have made clear our concerns 
about a number of issues, such as the current Russian military 
activities in Crimea. We have expressed our strong concern about this 
violation of Ukrainian sovereignty and territorial integrity, which we 
firmly believe is destabilizing. We have criticized in public and in 
private Russia's decision to allow Edward Snowden to remain in Russia. 
As noted above and in my testimony, we have made clear to Russia our 
concerns about its compliance with certain treaties, including 
questions concerning its obligations under the INF Treaty. We also 
strongly criticized Russia's clampdown on civil society and its 
intimidation of the political opposition.

    20. Senator Ayotte. Mr. McKeon, do you believe the President's 
reset policy with Russia has failed?
    Mr. McKeon. I do not believe that the ``reset'' policy failed. In 
President Obama's first term, the ``reset'' policy yielded several 
important results, including the negotiation and ratification of the 
New START treaty, the expanded use of the Northern Distribution Network 
for the transport of supplies needed by the U.S. Armed Forces fighting 
in Afghanistan, the cancellation of the sale of the S-300 air defense 
system by Russia to Iran, Russian cooperation in the imposition of new 
sanctions against Iran and North Korea, Russian cooperation in the P5+1 
in that group's effort to prevent Iran from obtaining a nuclear weapon, 
and Russia's entry into the World Trade Organization. These 
achievements have helped to enhance global security and economic 
prosperity. At the same time, the administration has expressed its 
concerns about several issues, particularly Russia's increasingly 
authoritarian stance at home and its aggressive behavior towards its 
neighbors.

    21. Senator Ayotte. Mr. McKeon, where are the U.S. and Russian 
security interests diverging?
    Mr. McKeon. The administration has a serious disagreement with 
Russia on the right of all countries--including those in Russia's 
neighborhood--to exercise their rights fully as sovereign States and in 
accordance with the democratic will of their people. We reject Russia's 
use of economic and military threats against its neighbors to try to 
influence decisionmaking of independent States. We likewise reject 
Russia's continued decision to base military forces in Moldova and 
Georgia against the will of their governments, and its deployment of 
military forces on Ukrainian territory to which the Government of 
Ukraine has not consented, and which is a clear violation of Ukrainian 
sovereignty and territorial integrity. We also criticize the 
politically motivated trade restrictions Russia has imposed on its 
neighbors and other States, including the United States.

                   treaty clause of the constitution
    22. Senator Ayotte. Mr. McKeon, in your answers to the advance 
policy questions, you reiterate the administration's interest in 
pursuing, ``a one-third reduction in deployed nuclear weapons below the 
limits established in the New START treaty''. Can you assure us that 
any cuts of this nature will adhere to the Biden-Helms standard and 
will only be done with the advice and consent of the Senate treaty 
ratification process?
    Mr. McKeon. The President said in his Berlin speech that he intends 
to seek negotiated reductions in strategic weapons with Russia. Should 
conditions in the future become conducive to negotiating such an 
agreement with Russia, I fully expect that it would be submitted to the 
Senate for its advice and consent to ratification, as has been the case 
with all other strategic arms reduction treaties in the last several 
decades, with the exception of the Strategic Arms Limitation Talks 
Agreement (SALT I).

                         nuclear modernization
    23. Senator Ayotte. Mr. McKeon, I understand that you were a 
central staff member supporting the administration's push to ratify the 
New START treaty in 2010. You may be aware of the letter the President 
wrote to Senators on December 20, 2010, stating: ``I recognize that 
nuclear modernization requires investment for the long-term, in 
addition to this 1-year increase. That is my commitment to Congress--
that my administration will pursue these programs and capability for as 
long as I am President.'' Can you assure us the National Security 
Staff, under Ms. Sherwood Randall, is not undertaking any reviews of 
how to walk away from that commitment for the sake of the President's 
nuclear disarmament legacy?
    Mr. McKeon. Yes, the President stands behind the commitment made in 
the letter. The administration remains fully committed to the 
investments required to ensure that our nuclear arsenal remains safe, 
secure, and effective.

                      keeping our allies informed
    24. Senator Ayotte. Mr. McKeon, do you agree that the United States 
has an obligation to keep our NATO allies informed in a full and timely 
manner regarding matters that impact their national security, such as a 
potential violation of the INF Treaty?
    Mr. McKeon. The United States has obligations to our NATO allies 
under the North Atlantic Treaty. Included in the treaty is a commitment 
in Article 3 that the parties will ``separately and jointly maintain 
and develop their individual and collective capacity to resist armed 
attack''. Accordingly, we regularly inform and consult with our allies 
about matters affecting their security and the security of the 
Alliance.

    25. Senator Ayotte. Mr. McKeon, in 2012, NATO undertook a 
Deterrence and Defense Posture Review (DDPR), which included a full 
examination of their nuclear posture. Did the United States have 
important information on the INF Treaty which we did not share with 
NATO?
    Mr. McKeon. The United States keeps our NATO allies informed about 
matters that affect their national security and the security of the 
Alliance, including treaty compliance issues. Throughout the DDPR 
process, we consulted closely with our NATO allies about the overall 
security environment and the capabilities we and our allies require to 
meet the challenges we face, and we continue to do so.

    26. Senator Ayotte. Mr. McKeon, would you please explain why we 
wouldn't inform our Article V mutual defense and security allies of a 
violation, which is a threat to their security more than ours, 
especially during their consideration of a review focusing on 
deterrence and defense?
    Mr. McKeon. Throughout the DDPR process, we consulted closely with 
our NATO allies about the overall security environment and the 
capabilities we and our allies require to meet the challenges we face, 
and we continue to do so. As noted previously, a compliance review 
regarding Russian compliance with the INF Treaty is ongoing.

    27. Senator Ayotte. Mr. McKeon, if Russia is not in compliance with 
this treaty 1 year from now, in your current position or in the 
position for which you are nominated, do you believe the United States 
should continue to comply with the INF Treaty?
    Mr. McKeon. I refer you to my response to this question in my 
letter of February 24.
                                 ______
                                 
               Questions Submitted by Senator Deb Fischer
   section 8128: environmental studies of intercontinental ballistic 
                             missile silos
    28. Senator Fischer. Mr. McKeon, section 8128 of the Fiscal Year 
2014 Consolidated Appropriations Act (H.R. 3547, Public Law 113-76) 
expressed congressional opposition to any environmental study relating 
to the silos of Minuteman III Intercontinental Ballistic Missiles 
(ICBM). Specifically, it states: ``None of the funds available to DOD 
shall be used to conduct any environmental impact analysis related to 
Minuteman III silos that contain a missile as of the date of the 
enactment of this act.'' Please state DOD's interpretation of this 
section.
    Mr. McKeon. I understand the Department was interested in 
conducting an Environmental Assessment in order to help inform the 
decision of what force structure is best for U.S. national security. I 
also understand that the provisions in both the Fiscal Year 2014 
Consolidated Appropriations Act and the NDAA for Fiscal Year 2014 are 
currently under review by the DOD General Counsel, and that there is no 
final position on whether the Department will proceed with the 
Environmental Assessment this fiscal year.

    29. Senator Fischer. Mr. McKeon, what interactions has DOD had with 
other Federal agencies or parties outside of the Federal Government to 
prepare for conducting any environmental studies on the ICBM silos?
    Mr. McKeon. I am unaware of discussions with other Federal agencies 
or outside entities about preparations to conduct environmental studies 
on ICBM silos.

    30. Senator Fischer. Mr. McKeon, does DOD believe the decisions 
with respect to New START treaty force structure depend on the results 
of an environmental study of ICBM silos?
    Mr. McKeon. An Environmental Assessment would help to inform the 
decision that the President must make on a nuclear force structure that 
meets New START treaty requirements.
                                 ______
                                 
    [The nomination reference of Mr. Brian P. McKeon follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 30, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Brian P. McKeon of New York, to be a Principal Deputy Under 
Secretary of Defense, vice Kathleen H. Hicks, resigned.
                                 ______
                                 
    [The biographical sketch of Mr. Brian P. McKeon, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Brian P. McKeon
Education:
    University of Notre Dame

        <bullet> Attended 1981-1985
        <bullet> B.A. awarded, May 1985

    Georgetown University Law Center

        <bullet> Attended 1991-1995
        <bullet> J.D. awarded, May 1995

Employment Record:
    March 2012 to present: Deputy Assistant to the President, Executive 
Secretary of the National Security Council, and Chief of Staff for the 
National Security Staff, the White House.
    January 2009 to March 2012: Deputy National Security Adviser, 
Office of the Vice President, Executive Office of the President.
    January 1997 to January 2009: Democratic Chief Counsel, Committee 
on Foreign Relations, U.S. Senate. In 2007-2008, also served as Deputy 
Staff Director, and during the fall of 2008 also served as Acting Staff 
Director.
    September 1996 to November 1996: full-time volunteer, foreign 
policy office, Clinton-Gore 1996 campaign.
    August 1995 to August 1996: Law clerk to U.S. District Judge Robert 
G. Doumar, Eastern District of Virginia, Norfolk Division.
    July 1988 to June 1995: Legislative Assistant for Foreign Policy 
and Defense, Office of Senator Joseph R. Biden, Jr., U.S. Senate.
    February 1988 to June 1988: researcher, Community of the Peace 
People, Belfast, Northern Ireland.
    October 1985 to February 1988: Legislative Correspondent, Office of 
Senator Joseph R. Biden, Jr., U.S. Senate.
    June 1985 to September 1985: Intern, Washington Office on Latin 
America.
Honors and awards:
    Academic Awards

        <bullet> Cum Laude graduate of Georgetown University Law Center
        <bullet> Associate Editor, Georgetown Law Journal
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Mr. Brian P. 
McKeon in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Brian Patrick McKeon.

    2. Position to which nominated:
    Principal Deputy Under Secretary of Defense for Policy.

    3. Date of nomination:
    January 30, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 11, 1964; Auburn, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Lizabeth Tankersley.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Auburn High School (NY), 1977-1981; high school diploma awarded 
June 21, 1981.
    University of Notre Dame, 1981-1985; B.A. awarded May 19, 1985.
    Georgetown University Law Center, 1991-1995; J.D. awarded May 29, 
1995.
    I took Spanish language courses at the USDA Graduate School in the 
mid-1980s. I do not recall the precise dates but it was for either one 
or two semesters. No degree awarded.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    March 2012 to present: Deputy Assistant to the President, Executive 
Secretary of the National Security Council, and Chief of Staff for the 
National Security Staff, the White House.
    January 2009 to March 2012: Deputy National Security Adviser, 
Office of the Vice President, Executive Office of the President.
    January 1997 to January 2009: Democratic Chief Counsel, Committee 
on Foreign Relations, U.S. Senate. In 2007-2008, also served as Deputy 
Staff Director, and during the fall of 2008 also served as Acting Staff 
Director.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    November 2008 to January 2009: member of Obama/Biden transition 
team, Department of State.
    August 1995 to August 1996: Law clerk to U.S. District Judge Robert 
G. Doumar, Eastern District of Virginia, Norfolk Division.
    July 1988 to June 1995: Legislative Assistant for Foreign Policy 
and Defense, Office of Senator Joseph R. Biden, Jr., U.S. Senate.
    October 1985 to February 1988: Legislative Correspondent, Office of 
Senator Joseph R. Biden, Jr., U.S. Senate.
    Summer 1984: employed by Auburn (NY) Water Department.
    June 1983 to August 1983: Intern, Office of Senator Daniel Patrick 
Moynihan, U.S. Senate.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Admitted to practice law in the District of Columbia (active 
status) and Maryland (inactive status).
    Member of Notre Dame Monogram Club

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2011-2012: $1,010 to Obama for America

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Awarded New York State Regents Scholarship, April 1981
    Auburn High School Achievement Award, June 1981
    Kellogg Institute for International Studies (Notre Dame), awarded 
human rights internship, 1985
    Georgetown University Law Center, graduated cum laude.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.

    ``Need for Reform of Life Sentence Review Process,'' oped, The 
Independent (UK), July 8, 1988.
    Letter to the Editor, Ms. Magazine, November 1989 (letter was in 
response to an article about an NGO in Northern Ireland for which I had 
volunteered).
    ``Twenty-Second Annual Review of Criminal Procedure: United States 
Supreme Court and Courts of Appeals 1991-1992.'' Georgetown Law Journal 
(81 Georgetown L.J. 853, 1356-70) (April-May 1993) (as a member of the 
Law Journal, I updated the chapter on Prosecutorial Misconduct).
    ``A New START in Prague,'' blog post on White House web site, April 
8, 2010.
    ``The New START Treaty Sent to the Senate,'' blog post on White 
House web site, May 13, 2010.
    While a student at the University of Notre Dame, I had a regular 
oped column in the student newspaper, The Observer, during much of my 
senior year. I also wrote a guest column or two prior to becoming a 
regular columnist for the paper. Titles of articles that I have found 
are as follows:

          ``Notre Dame Election System Needs Change,'' February 27, 
        1984.
          ``Improve Social Life Through Coed Dorms,'' September 18, 
        1984.
          ``The Significance of the Next President,'' October 2, 1984.
          ``College Football's Motto: Anything for the Money'' (1984/
        precise date uncertain but likely October).
          ``Reagan's Foreign Policy is Nothing to Applaud,'' November 
        7, 1984.
          ``United States Should Obey World Court Ruling,'' December 
        11, 1984.
          Today's Concern Seems to be Making the Most'' January 22, 
        1985.
          ``Freshman, Year Program Needs Some Changes,'' February 5, 
        1985.
          ``Napoleon Duarte Faces a Very Rocky Road,'' February 19, 
        1985.
          ``Does Rice Serve the Best Interests of Campus?,'' March 5, 
        1985.
          ``Are the Democrats Doomed to Suffer Defeats?,'' April 12, 
        1985.
          ``U.S. Affluence Cannot Hide World Poverty,'' May 17, 1985.

    While working as a volunteer for the Community of the Peace People, 
a cross-community nongovernmental organization in Belfast Northern 
Ireland, in the spring of 1988, I wrote two articles that appeared in 
their monthly newsletter. Their titles and dates:

          ``Deja-Vu,'' April 1988 (related to the political situation 
        at the time in Northern Ireland)
          ``The Way of the Cross,'' May 1988 (reporting on a march on 
        Good Friday of that year by members of the organization that 
        traversed both Catholic and Protestant neighborhoods in 
        Belfast).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Speech to Phi Kappa Phi (honors society) spring awards luncheon, 
U.S. Military Academy (April 21, 2011)

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Brian P. McKeon.
    This 10th day of February, 2014.

    [The nomination of Mr. Brian P. McKeon was reported to the 
Senate by Chairman Levin on April 8, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 28, 2014.]
                              ----------                              

    [Prepared questions submitted to Hon. David B. Shear by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions? If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not believe that modifications to the Goldwater-
Nichols Act provisions are necessary at this time. However, if 
confirmed, I would consider this question as it relates to my area of 
responsibility as I perform my duties as Assistant Secretary of Defense 
for Asian and Pacific Security Affairs (ASD(APSA)).
                                 duties
    Question. Department of Defense Directive 5111.17 assigns the 
responsibilities, functions, relationships and authorities of the 
ASD(APSA). The directive establishes ASD(APSA) as the principal advisor 
to the Under Secretary of Defense for Policy (USD(P)) and the Secretary 
of Defense on various matters relating to the Asian and Pacific 
regions, their governments, and defense establishments.
    What is your understanding of the duties and functions of the 
ASD(APSA)? Will they differ in any way from those described in DOD 
Directive 5111.17?
    Answer. As I understand it, the ASD(APSA) is the primary advisor to 
the USD(P) and the Secretary of Defense on defense matters related to 
the Asia and Pacific region. The ASD(APSA) is responsible for 
developing regional security and defense strategy; formulating and 
coordinating regional defense policies in support of the Secretary's 
objectives; overseeing operational execution of the Secretary's 
approved policies for the region; and fostering bilateral and 
multilateral security relationships in the region. This position is the 
focal point for Asia policy within the Department of Defense (DOD) for 
DOD components, the U.S. Pacific Command (PACOM), and the U.S. Central 
Command. The ASD(APSA) also represents the Office of the Secretary of 
Defense (OSD) in interagency policy deliberations and defense-related 
international negotiations in the Asia and Pacific region.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have worked closely and effectively with the Military 
Services and DOD components in the Asia and Pacific throughout my 
career.
    As a political officer in the U.S. Embassy in Tokyo, I worked with 
U.S. forces to strengthen our alliance while adjusting our presence in 
Japan. As the Deputy Director of the Office of Korean Affairs, I 
coordinated U.S.-Republic of Korea (ROK) alliance issues with the Joint 
Staff, and most recently, as Ambassador to Vietnam, I helped build a 
new partnership that includes a growing military-to-military component. 
Assignments as a Deputy Chief of Mission in Kuala Lumpur and as 
Ambassador to Vietnam have allowed me to hone my skills as a leader and 
manager of large groups of people in a constrained fiscal environment. 
Finally, as Deputy Assistant Secretary in the Bureau of East Asian and 
Pacific Affairs at the State Department, I worked closely with DOD and 
interagency partners to develop national policy for the Asia-Pacific 
region.
    I believe that my background and experience demonstrate that close 
coordination between the diplomatic and military arms of government is 
essential for a successful security policy. If confirmed, I look 
forward to serving my country in a new capacity by representing the OSD 
and carrying forward our national security objectives in the region.
                             relationships
    Question. If confirmed, what will be your relationship with:

          The Secretary of Defense
          The Deputy Secretary of Defense
          The Under Secretaries
          The Chairman of the Joint Chiefs of Staff
          Commander, U.S. Pacific Command
          Commander, U.S. Central Command
          Commander, U.S. Special Operations Command
          Other Combatant Commanders
          The Service Secretaries and Service Chiefs
          The Regional and Functional Assistant Secretaries
          Commander, U.S. Forces Korea
          Commander, U.S. Forces Afghanistan/Commander, International 
        Security Assistance Force
          Director of the National Guard Bureau

    Answer. If confirmed, I would report to the Secretary of Defense 
and Deputy Secretary of Defense through the USD(P). I would also work 
closely with the Principal Deputy Under Secretary of Defense for 
Policy. I expect to develop and maintain close working relationships 
with Under Secretaries and Assistant Secretaries across the Department, 
the General Counsel of DOD, the Secretaries of the Military 
Departments, the Chairman and Vice Chairman of the Joint Chiefs of 
Staff, the Service Chiefs, and the commanders of the combatant 
commands, particularly U.S. Central Command, PACOM, and U.S. Special 
Operations Command and, as appropriate, with the Commanders of U.S. 
Forces Korea and U.S. Forces Afghanistan on policy and strategy issues 
involving Korea and Afghanistan.
    If confirmed, I would also work closely with and coordinate with 
the other Assistant Secretaries of Defense within the Office of the 
USD(P). Many policy challenges in the Asia-Pacific region involve 
resources and expertise that are distributed across the regional and 
functional portfolios of OSD. Examples of this coordination include 
working with the Assistant Secretary of Defense for International 
Security Affairs on the role of the North Atlantic Treaty Organization 
(NATO) in Afghanistan; the Assistant Secretary of Defense for Special 
Operations and Low Intensity Conflict on counterterrorism; and the 
Director of the National Guard Bureau on disaster relief efforts.
                       challenges and priorities
    Question. In your view, what are the major challenges that will 
confront the next ASD(APSA)?
    Answer. I believe that the most significant challenge is managing a 
changing and dynamic security environment in one of the most critical 
parts of the world. The President has rightly acknowledged the 
importance of Asia to U.S. prosperity and security interests.
    Toward that end, the major challenges the next ASD(APSA) will face 
include: managing an effective drawdown in Afghanistan; continuing to 
work with partners in Afghanistan and Pakistan to combat the threat of 
al Qaeda; continuing to monitor closely the evolving North Korean 
threat; continuing to work with China to encourage greater transparency 
about how it will use its growing military capabilities; negotiating 
the peaceful resolution of territorial disputes in accordance with 
international law; and ensuring that the countries in the region adhere 
to key norms and principles that benefit all nations.
    Meeting these challenges requires continued implementation of the 
rebalance to the Asia-Pacific region as well as modernizing and 
enhancing U.S. regional security Alliances and partnerships to address 
both traditional and non-traditional threats.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. I believe that the administration and DOD have sound 
strategies in place for dealing with the challenges that the ASD(APSA) 
will face, particularly through the continued implementation of the 
rebalance to the Asia-Pacific region.
    If confirmed, I would work closely with others in the Department, 
interagency partners, Congress, and our international allies and 
partners to understand more fully ways to address these challenges more 
effectively. This would include, among other things, analysis of 
current strategies and assessments, involvement in ongoing policy 
reviews, and continued senior-level engagement with allies and partners 
in the region. If confirmed, I look forward to collaborating closely 
with Congress on the range of challenges and opportunities in the 
region.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASD(APSA)?
    Answer. If confirmed, I would be carefully evaluating the current 
strategies to determine if a reordering of priorities, applicable to 
ASD(APSA), is in order. That said, the key priorities to focus on would 
include ensuring the successful drawdown and transition of U.S. forces 
in Afghanistan to a train-advise-assist role and continuing to make 
progress against al Qaeda and its affiliates with our partners in 
Afghanistan and Pakistan; continuing implementation of the rebalance to 
the Asia-Pacific region--modernizing existing Alliances, enhancing our 
relationships with emerging regional frameworks and partners, working 
on a constructive relationship with China, advancing key norms and 
principles--to address shared regional challenges; and ensuring that 
the U.S. military is postured to protect and advance U.S. interests.
                           engagement policy
    Question. One of the central pillars of our national security 
strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, joint 
combined exchange training exercises, combatant commander exercises, 
humanitarian assistance operations, and similar activities are used to 
achieve this goal.
    If confirmed, would you support continued engagement activities of 
the U.S. military? If yes, would you advocate for expanding U.S. 
military-to-military engagement? If not, why not?
    Answer. If confirmed, I will support continued U.S. military-to-
military engagement with nations in Asia. Throughout my career, 
including during my recent time serving as U.S. Ambassador to Vietnam, 
I have seen firsthand the importance of DOD engagement with the 
militaries of our allies and partners in the region. I also believe the 
current and emerging security environment presents important 
opportunities to build productive relationships with many countries 
with whom our past military-to-military engagements have been limited 
or entirely absent. U.S. military engagement helps professionalize and 
improve standards of conduct and capabilities of partner nation 
militaries, and is vital to advancing U.S. national security interests 
in the region.
    Question. Do you believe that these activities contribute to U.S. 
national security?
    Answer. Yes, I do believe that these important activities directly 
contribute to U.S. national security.
                       building partner capacity
    Question. In the past few years, Congress has provided a number of 
authorities to provide security assistance to partner nations, 
including the global train and equip authority (``section 1206'') and 
the Global Security Contingency Fund.
    In your view, what are our strategic objectives in building the 
capacities of partner nations in the Asia and Pacific region?
    Answer. My understanding is that these temporary DOD authorities 
are intended to address emerging threats. That being the case, I 
believe that our strategic objective should be to help our partners 
develop effective and legitimate defense and security institutions. If 
our partners each can provide for their own country's security, this 
will help reduce the burden on U.S. forces responding to security 
threats outside the United States and promote interoperability between 
U.S. forces and allied and partner forces. If confirmed, my goal would 
be to ensure that DOD building partner capacity programs can fulfill 
defined strategic requirements and address vitally important capability 
gaps and ensure that these objectives are directly in line with the 
2012 Defense Strategic Guidance.
    Question. In a resource-constrained fiscal environment, how would 
you prioritize the types of programs or activities that should receive 
support under these security assistance authorities?
    Answer. In a resource-constrained fiscal environment, I believe it 
would be important to continue to improve military-to-military and 
defense-civilian relations, while continuing to evaluate and re-
calibrate the nature and substance of our relationships to ensure they 
are consistent with U.S. values and advance U.S. national interests.
    If confirmed, it would be my aim to ensure our assistance programs 
supporting partner nations can fulfill defined strategic requirements 
and close important capability gaps; these objectives are directly in 
line with the 2012 Defense Strategic Guidance.
    Question. In your view, what should be the role of DOD, vis-a-vis 
other civilian departments and agencies of the Government, in the 
exercise of instruments of soft power (civilian expertise in 
reconstruction, development, and governance)?
    Answer. As I experienced firsthand during my time as an Ambassador 
in Southeast Asia, building the capacity of foreign security forces is 
a shared responsibility within the executive branch, particularly 
between the Departments of State and Defense. Close collaboration 
between the Departments is a key characteristic of the Section 1206 
authority, and one of its greatest strengths. I believe the Global 
Security Contingency Fund epitomizes this shared responsibility and 
provides an opportunity for the Departments of State and Defense to 
establish a new business model for interagency planning of security 
sector assistance.
    force posture in the u.s. pacific command area of responsibility
    Question. Significant changes to the U.S. force posture in the 
region are planned over the next several years, including movement of 
marines from Okinawa to Guam and the relocation of U.S. forces within 
South Korea. There are also plans to increase presence in southern 
parts of the Asia-Pacific, including in Australia and Singapore, and to 
develop comprehensive engagement strategies with a number of other 
countries in the region. These initiatives will likely compete with 
other global commitments for increasingly constrained funding.
    In your opinion, what should be the national security priorities in 
the Asia-Pacific?
    Answer. I believe that U.S. national security priorities in the 
Asia-Pacific region, as outlined in the 2010 National Security Strategy 
and 2012 Defense Strategic Guidance, include protecting U.S. territory, 
citizens, and allies and partners; deterring aggression and maintaining 
regional stability; maintaining free and open access to the maritime, 
air, and space domains; deterring and defeating violent extremism; and 
preventing the proliferation of weapons of mass destruction and their 
associated materials.
    Question. In your view, what strategic criteria, should guide the 
posture of U.S. military forces in that region to best address those 
priorities at acceptable risk?
    Answer. It is my understanding that DOD's strategic criteria 
include the development of a defense posture that is geographically 
distributed, operationally resilient, and politically sustainable. The 
continuing U.S. Marine Corps rotations in Australia and the Littoral 
Combat Ship rotations in Singapore are examples of initiatives that 
support a more geographically disbursed posture in the Asia-Pacific 
region. Increasing the resiliency of U.S. forces in the region will 
require long-term investments in key capabilities. Reducing the U.S. 
Marine Corps presence on Okinawa will result in a more politically 
sustainable force posture in Japan.
    Question. How, if at all, do the methods of forward basing, 
rotational forces, and agreements with allies for training and 
logistics activities support our national security priorities 
throughout the region?
    Answer. As I saw firsthand during my time as Ambassador to Vietnam, 
bilateral and multilateral defense engagements with allies and partners 
in the region strengthen these relationships and support broader 
regional objectives. Pursuing agreements (e.g., such as access 
arrangements) can increase the ability of U.S. forces to operate out of 
strategic locations and support the U.S. commitment to long-term 
engagement in the region. These forward operating forces engage in 
regular training events and exercises with allies, such as Japan and 
Korea, and contribute to regional stability and security.
    Question. In your view, is the right mix of these forward presence 
methods necessary to achieve an affordable theater posture at 
acceptable levels of risk? If so, how would you propose broadly 
assessing each method relative to its cost and benefit?
    Answer. Yes, I believe it is important to evaluate the best way to 
leverage DOD's forward presence in the region and balance the demands 
on the force globally. I understand that DOD has established processes 
for deciding how U.S. forces are assigned and allocated globally, based 
on strategic priorities outlined in the guidance documents. Commander, 
PACOM, also develops regional plans that prioritize the type and 
frequency of military engagements with allies and partners in the 
region.
    Question. How important is a forward basing strategy to the ability 
of PACOM to execute its day-to-day mission? Its operational contingency 
plans?
    Answer. I believe that forward-stationing U.S. forces in the Asia-
Pacific region is vitally important to our national security interests, 
as it increases contingency responsiveness; deters adversaries and 
assures allies and partners; and contributes to security cooperation 
activities as well as day-to-day joint training events and exercises. 
In the event of a crisis, these forces can provide Commander, PACOM 
additional response options due to their proximity in the region.
    Question. What do you see as the implications, if any, of the force 
posture changes in Korea, Japan, and Guam on the U.S. commitment to the 
Asia-Pacific region in general? How does the planned relocation of U.S. 
forces from Okinawa to Guam and other locations in the Pacific improve 
U.S. security in the region? How does the planned relocation of U.S. 
forces on the Korean Peninsula improve security?
    Answer. It is my understanding that ongoing force posture changes 
will serve to strengthen U.S. presence in the region in line with the 
key principles of being geographically distributed, operationally 
resilient, and politically sustainable. For instance, the reduction of 
the U.S. Marine Corps presence on Okinawa supports all three of these 
principles, most notably by developing a long-term U.S. posture in 
Japan that both sides agree is politically viable. In the Republic of 
Korea, U.S. forces will continue to work closely with the South Korean 
military to maintain a robust presence and provide unique capabilities 
to sustain security and stability on the Peninsula.
    Question. What is your understanding of the plans for the U.S. 
military presence in Australia and how, in your view, does the presence 
advance U.S. security interests?
    Answer. In 2011, President Obama and then-Prime Minister Gillard 
announced two force posture initiatives designed to expand the 
cooperation between the U.S. Air Force and the U.S. Marine Corps with 
the Australian Defence Force. In the first initiative, DOD would rotate 
up to a 2,500 Marine Air Ground Task Force (MAGTF) through Australia, 
and I understand that DOD has concluded two company-sized rotations of 
approximately 250 marines each at Darwin. It is my understanding that 
in April 2014, DOD will increase the rotation to approximately 1,100 
marines.
    The second initiative decided upon by the United States and 
Australia was for greater access for U.S. military aircraft to the 
Royal Australian Air Force facilities in northern Australia. These 
posture initiatives strengthen the Alliance and increase opportunities 
for U.S. forces to engage throughout the region. I support a more 
distributed presence in Southeast Asia that will better prepare the 
United States for the types of missions its forces are likely to face 
in the future, including humanitarian assistance and disaster relief 
(HA/DR).
    Question. In your view, are the levels of funding, manning and 
military-to-military engagement in the Asia-Pacific region appropriate 
to the management of current and future risk to U.S. strategic 
interests in the region? Do you foresee a requirement to increase or to 
decrease those funding levels in the coming years?
    Answer. If confirmed, I would work with others in DOD to assess the 
levels of investment and engagement that is required and sustainable to 
achieve U.S. strategic interests in the region. As the United States 
continues to execute defense initiatives, including developing advanced 
capabilities with direct applicability in the region, continued 
investment will be critical to demonstrating the U.S. commitment to the 
strategy.
                                 china
    Question. China is viewed by some in the United States as an 
emerging adversary that poses a potential threat to security in the 
region, and by others as a constructive international partner that 
should be welcomed and integrated into the international economic and 
political community. Others yet believe we are at a crossroads 
somewhere between those two scenarios.
    How would you characterize the current U.S. relationship with 
China?
    Answer. As the President said when hosting President Xi Jinping 
last summer, the United States welcomes the continuing peaceful rise of 
China as a world power and that, in fact, it is in the U.S. interest 
that China continues on the path of success, because we believe that a 
peaceful and stable and prosperous China is not only good for the 
Chinese people but also good for the world and for the United States. I 
would describe the U.S. relationship with China as having elements of 
cooperation and competition. The United States continues to pursue 
opportunities to engage where there is mutual benefit, while 
constructively managing those areas where we may have differences. 
Moreover, I believe that getting this relationship right will be 
critical to the future of U.S. national security as well as 
international security for decades to come.
    Question. To what extent do you believe the policies and actions of 
the United States and other major regional and international actors 
will affect the direction in which the U.S. relationship with China 
develops?
    Answer. I believe that U.S. policies and actions can influence the 
direction of China's development. The United States has done more than 
any other country to assist, facilitate, and encourage China's national 
development and integration into the international system. However, 
U.S. policy and actions alone will not determine China's future, which 
will ultimately be based upon the choices that China's leaders make. I 
do think that there are opportunities for the United States to help 
shape the environment in which China makes its strategic choices and, 
in so doing, encourage China to adhere to international norms and 
standards of behavior in the region and globally.
    Question. What do you see as the impact of current global economic 
challenges on stability and security in China specifically, and in the 
Asia-Pacific region generally?
    Answer. The full impact of the global economic crisis on stability 
and security in China and in the Asia-Pacific region more broadly will 
continue to play out over time. I believe that those who manage defense 
and security issues must be attentive to the connections between 
security and economic issues. If confirmed, I would actively work with 
colleagues in economic and diplomatic fields, both to guard against 
negative outcomes and also to seek positive ways forward where they may 
exist.
    Question. China's defense spending has had double-digit increases 
annually for about the past 20 years. While a certain amount of 
military growth is to be expected for a country experiencing the kind 
of economic growth that China has had over about that same period, the 
types of platforms and capabilities China is developing have been 
interpreted by some as designed to project power, limit freedom of 
movement by potential adversaries, and conduct military operations at 
increasing distances. Such developments, coupled with strident rhetoric 
and a lack of transparency, stoke growing concerns about China's 
intentions in the region.
    What do you believe are the objectives of China's steady increase 
in defense spending and its overall military modernization program?
    Answer. As documented in DOD's annual Reports to Congress on 
Military and Security Developments Involving the People's Republic of 
China, China appears to be conducting a long-term, comprehensive 
military modernization program which is focused on enabling the 
People's Liberation Army to fight and win high-intensity, but short 
duration, military operations in the Asia-Pacific region. Taiwan 
appears to be the driver of much of China's military modernization, but 
China's leaders, under the rubric of the ``New Historic Missions,'' 
have tasked the military to also be prepared for missions and 
contingencies beyond China's periphery. If confirmed, I will continue 
to press for greater transparency from China in its military and 
security affairs.
    Question. How should the United States respond to this Chinese 
military growth and modernization?
    Answer. I believe that the United States should continue to monitor 
China's military modernization program while encouraging China to 
increase transparency in the military and security domains. The U.S. 
response to China's military modernization should be flexible and 
supported by our sustained presence in the Asia-Pacific region, through 
continued evolution of our force posture; maintenance of our global 
presence and access; modernization of our own capabilities in such 
areas as countering anti-access and area denial; and strengthening of 
our alliances and partnerships. The United States has been and should 
remain the preeminent military power in the Asia-Pacific region. If 
confirmed, ensuring that DOD maintains an effective and flexible 
approach to China's military growth and modernization will be one of my 
top priorities.
    Question. What do you believe are the Chinese political-military 
goals in the Asia-Pacific region? Globally?
    Answer. In my view, the overriding objectives of China's leaders 
appear to be the following: ensuring the continued rule of the Chinese 
Communist Party; continuing China's economic development; maintaining 
the country's domestic political stability; defending China's national 
sovereignty and territorial integrity; and securing China's status as a 
great power. Within this context, preventing any moves by Taiwan toward 
de jure independence remains a key part of China's strategy. Within 
each of these dimensions there lies a mix of important challenges and 
opportunities for the United States that will continue to deserve 
priority attention.
    Question. What effect is China's military growth having on other 
countries in the region?
    Answer. The scale and character of China's military modernization 
program are increasingly becoming a source of concern. Other countries 
in the region are closely watching the growth of China's military, and 
how its military acts. China's annual defense budget is growing faster 
than its economy--with average annual increases in defense spending 
topping 10 percent over the past decade. In certain respects, China's 
growing military capabilities create opportunities to partner and 
cooperate where U.S. interests, regional states' interests, and China's 
interests converge.
    However, China's rapid rise and the relative lack of transparency 
surrounding its intentions creates uncertainty, especially as maritime 
tensions between China and its neighbors in the East and South China 
Seas increase. Security concerns regarding Chinese military intentions 
have contributed to a greater focus on regional forums, where issues 
may be addressed multilaterally and the need to adhere to international 
law and norms can be amplified. Such security concerns have also led to 
stronger demand signals from regional countries to the United States as 
a security partner of choice.
    Question. How do you assess the current cross-strait relationship 
between China and Taiwan, and how can we help prevent miscalculation on 
either side?
    Answer. Since Taiwan President Ma took office in 2008, Taiwan has 
made considerable progress to reduce tension across the Taiwan Strait. 
In February of this year, representatives from Taipei and Beijing held 
their first official talks in mainland China since 1949. The meeting 
marked a symbolic development in the continued easing of cross-strait 
tensions. I believe the United States consistent policies, based on the 
three joint U.S.-China Communiquees and the Taiwan Relations Act--which 
include making available to Taiwan ``such defense articles and services 
in such quantities as may be necessary to enable Taiwan to maintain a 
sufficient self-defense capability''--have provided the security and 
confidence necessary for an easing of cross-Strait tensions.
    Question. How do China's efforts to establish a strategic presence 
in the Indian Ocean by securing and maintaining access to various 
seaports in South and Southeast Asian countries affect its political-
military posture and influence in the region?
    Answer. China looks to South and Southeast Asia as an area of 
strategic importance, which includes political objectives, access to 
resources, trade, and investment. With regard to South and Southeast 
Asian seaports, the important question is how China intends to use its 
presence. The United States retains strong relationships in South and 
Southeast Asia, and we do not view each of our respective activities in 
those areas in zero-sum terms.
    Question. What are your views of China's deployment of warships to 
counter piracy in the western Indian Ocean and how does this deployment 
contribute to China's ability to project power?
    Answer. Generally speaking, I see China's participation in counter-
piracy operations as a positive development: it contributes to 
addressing a global security challenge; demonstrates China's ability to 
use its military in a positive, constructive, and responsible manner; 
and increases opportunities for contact between our navies. To your 
second question, from this experience China could begin to develop 
capabilities to enhance its ability to sustain a deployed force over an 
extended period of time.
    Question. What is the role of DOD in helping to ensure that China's 
nuclear power industry does not contribute to the proliferation of 
nuclear weapons in the region?
    Answer. The administration has reiterated that preventing the 
proliferation of weapons of mass destruction and delivery systems, 
along with related technologies and materials, is a key goal for the 
United States. I believe that DOD should continue to work with 
interagency partners and through existing processes to ensure that any 
proliferation concerns relating to China, including its nuclear power 
industry, are expressed to the Chinese Government clearly, 
consistently, and directly in appropriate forums, and should similarly 
support the development of appropriate interagency responses in the 
event that China takes steps that do contribute to nuclear 
proliferation.
    Question. Our military-to-military relations with the Chinese 
military can be characterized as modest at best and the Chinese 
approach to these relations can be accurately described as ``on again, 
off again''.
    What is your assessment of the current state of U.S.-China 
military-to-military relations?
    Answer. The U.S.-China military-to-military relationship appears to 
have experienced modest improvements in recent years, highlighted by a 
series of senior-level visits and exchanges, and cooperative activities 
such as counter-piracy exercises. If confirmed, I would look for ways 
to strengthen the U.S.-China military-to-military relationship 
consistent with U.S. interests and values--and within the context of 
our overarching strategy in the Asia-Pacific region--to improve our 
ability to cooperate with China while managing our differences.
    Question. Do you believe that the United States should make any 
changes in the quality or quantity of our military relations with 
China? If so, what changes and why?
    Answer. I believe that military exchanges with China can be an 
important mechanism to improve mutual understanding, enhance 
communications, and reduce the risk of miscalculation between the 
United States and China. If confirmed, I would look for ways to 
strengthen our program of defense contacts and exchanges with China, 
consistent with our interests and with relevant laws, to explore areas 
of cooperation, encourage China to act responsibly in world affairs, 
and to manage our differences constructively.
    Question. What is your view regarding the longstanding U.S. policy 
of selling defense articles and services to Taiwan despite objections 
and criticism from China?
    Answer. U.S. policy on arms sales to Taiwan is based on the 1979 
Taiwan Relations Act, which provides that the United States will make 
available to Taiwan such defense articles and services in such 
quantities as may be necessary to enable Taiwan to maintain a 
sufficient self-defense capability. The Act also provides that the 
President and Congress shall determine the nature and quantity of such 
defense articles and services based solely upon their judgment of the 
needs of Taiwan. That policy has contributed to peace and stability in 
the region for more than 30 years and is consistent with the 
longstanding U.S. calls for peaceful resolution of the Taiwan issue in 
a manner acceptable to the people on both sides of the Taiwan Strait. I 
believe our arms sales have been carried out in a responsible manner.
    Question. In your view, to what extent, if at all, should China's 
possible reaction to such sales be considered by the United States when 
making decisions about the provision of defense articles and services 
to Taiwan?
    Answer. We should continue U.S. policy under the Taiwan Relations 
Act to provide Taiwan with ``such defense articles and services in such 
quantities as may be necessary to enable Taiwan to maintain a 
sufficient self-defense capability'' without considering China's 
potential reaction.
    Question. By most accounts, China has become more assertive in its 
claims of sovereignty in various domains, including maritime, air and 
space. There are numerous examples of this assertiveness, including 
China's increased aggressiveness in asserting its maritime claims in 
the South China Sea and the recent declaration of its Air Defense 
Identification Zone (ADIZ).
    What role should the United States play in the ongoing maritime 
dispute in the South China Sea?
    Answer. The United States is a Pacific nation that has a national 
interest in freedom of navigation, open access to Asia's maritime 
domain, the maintenance of peace and stability, free and open commerce, 
and respect for international law in the South China Sea.
    I agree with the assessments of the Departments of State and 
Defense that the United States should not take a position on the 
competing territorial claims over land features in the South China Sea. 
I also believe all parties should resolve their disputes through 
peaceful means and in accordance with customary international law, 
without resorting to the threat or use of force. The United States 
should sustain its presence in the South China Sea and uphold its 
commitments to its allies and partners in order to maintain peace and 
stability in the region.
    Question. How does the presence of the U.S. Navy in the South China 
Sea influence this maritime dispute and, in your view, would an 
increase in U.S. activity in that region serve to stabilize or 
destabilize the situation?
    Answer. The U.S. Navy is a key provider of the military presence 
that underlies peace and stability across the globe, including in the 
East and South China Seas. Although the United States does not take a 
position on the territorial and maritime disputes, I believe it is 
essential for the U.S. Navy to maintain a visible presence and assert 
its freedom of navigation and overflight rights in the South China Sea 
in accordance with customary international law.
    If confirmed, I would work with our military commanders to evaluate 
the appropriate level of naval activities in the South China Sea to 
maintain regional peace and stability as well as unimpeded access for 
lawful commerce and economic development.
    Question. What should the United States do to help prevent 
dangerous encounters in the South China Sea?
    Answer. To reduce the risk of conflict in the South China Sea, I 
believe that the United States should use its position in several 
regional organizations, including the East Asia Summit, the Association 
of Southeast Asian Nations (ASEAN) Regional Forum, and the ASEAN 
Defense Ministers Meeting Plus, to facilitate initiatives and 
confidence-building measures that will help generate momentum for 
claimant states to reach agreement on a binding Code of Conduct in the 
South China Sea.
    Question. How should the United States view China's recent 
declaration of an ADIZ zone that includes the area over the Senkaku 
Islands and does the declaration increase the risk for instability in 
the region?
    Answer. As Secretary Hagel has made clear, the United States does 
not recognize and does not accept China's ADIZ. The announcement was 
provocative and raised tensions. If confirmed, I would support the DOD 
position that China's announced ADIZ will not change how the United 
States conducts military operations in the region.
    Question. Cyber space has become a critical realm for civilian and 
military applications and, as a result, it represents a potentially 
substantial vulnerability. There are reports that China is aggressively 
pursuing cyber warfare capabilities, and would likely seek to take 
advantage of U.S. dependence on cyber space in the event of a potential 
conflict situation.
    What is your understanding of China's efforts to develop and deploy 
cyber warfare capabilities?
    Answer. I understand that in recent years, numerous computer 
systems around the world, including some owned by the U.S. Government, 
have been the target of intrusions, some of which appear to have 
originated within China. Increasingly, U.S. businesses are calling 
attention to sophisticated, targeted theft of confidential business 
information and proprietary technologies through cyber intrusions 
emanating from China on an unprecedented scale. The international 
community cannot tolerate such activity from any country. Government-
sponsored cyber-enabled theft for commercial gain is outside the bounds 
of acceptable international behavior.
    Question. If confirmed, what would you do to help ensure our 
military is protected in cyber space and prepared to defend against a 
cyber attack?
    Answer. The United States, like many other nations, has been the 
target of innumerable malicious activities via cyberspace. I understand 
that numerous steps have been taken to increase network defense and 
monitoring capabilities. If confirmed, I would work closely with the 
Assistant Secretary of Defense for Global Strategic Affairs, the 
current lead for cyber policy, to take action to protect our economy 
and national security against cyber-threats so that we are better able 
to protect our networks, critical infrastructure, and value private and 
public sector property.
    Question. Since 2009, DOD has been funding, under the Minerva 
Initiative, academic research focusing on the evolving relationship 
between technology and national security in China. The goal of this 
research is to create a better understanding of China's dynamic 
science, technology and innovation enterprise and its impact on its 
military.
    Are you aware of this research and in your view, should DOD 
continue to fund activities like this to increase the breadth and depth 
of its understanding of the Chinese military-industrial enterprise?
    Answer. I am aware of this research, and believe that DOD would 
benefit from similar investments in the future. China's military growth 
concerns us, and we are paying particular attention to Chinese 
investments in technology development as well as what they are 
fielding. We must do more than watch and analyze actions. To help 
understand future developments, it is also important to understand what 
is shaping those investments. As I understand it, Minerva Initiative 
research efforts in China help DOD understand the social, cultural, and 
historical factors that define China's strategic priorities in science 
and technology, drive its approaches to international engagement, and 
shape state-internal balances of power between political, military, and 
industrial forces.
    Question. In January 2007, China used a ground-based missile to hit 
and destroy one of its weather satellites in an anti-satellite test 
creating considerable space debris and raising serious concerns in the 
international community. Since then, China has continued its active 
pursuit of ballistic missile and anti-satellite technology.
    What is your view of China's purposes for its pursuit of these 
capabilities?
    Answer. In my view, this test was just one element of China's 
military modernization effort to develop and field disruptive military 
technologies, including those for anti-access/area-denial, as well as 
for nuclear, space, and cyber warfare.
    Question. What do you see as the long-term implications of such 
developments for the U.S. military, for U.S. national security, and for 
U.S. interests in space?
    Answer. The question highlights the importance to U.S. national 
security and strategic stability of increasing the resilience of 
national security systems against threats to space-based architectures 
and developing space control capabilities. If confirmed, I would 
continue to pursue partnerships with commercial suppliers, 
collaboration with international partners, and changes in our own 
architectures and operational tactics that can improve the resiliency 
of our systems and strengthen strategic stability in space. I would 
also work closely with Congress in implementing Presidential and DOD 
guidance that directs DOD to retain counter space capabilities to 
address the growing space capabilities of potential adversaries, 
including anti-satellite capabilities.
    Question. What are your views regarding the potential weaponization 
of space and the international agreements and efforts to prevent space 
weaponization?
    Answer. I support the principles outlined in the 2010 National 
Space Policy, including that all nations have a right to explore and 
use space for peaceful purposes, and that all nations should act 
responsibly in space to help prevent mishaps, misperceptions, and 
mistrust.
    Space is vital to U.S. national security and that of our allies and 
partners. I support our longstanding national policies of affirming the 
right of all nations to use outer space for peaceful purposes, the 
right of free passage through space, and the right to protect our 
forces and our Nation from those that would use space for hostile 
purposes.
                                 taiwan
    Question. Much of the recent discourse regarding Taiwan has 
involved the state of Taiwan's defensive military capabilities and the 
U.S. commitment to do what is ``necessary to enable Taiwan to maintain 
a sufficient self-defense capability'' as required by the Taiwan 
Relations Act. In particular, much of the debate about how best to 
enhance Taiwan's current defensive capabilities has revolved around 
fighter aircraft and what air defense capabilities are most prudent and 
appropriate under the circumstances.
    What is your view of the current state of the U.S.-Taiwan security 
relations?
    Answer. I believe that U.S.-Taiwan security relations have never 
been stronger. DOD works closely with Taiwan to ensure it maintains the 
defensive capabilities to deter and, if necessary, resist coercion from 
China. Since 2010, the United States has made available to Taiwan 
defense equipment and services of more than $12.5 billion. If 
confirmed, I would ensure that DOD continues to make available to 
Taiwan the defense articles and services necessary to maintain its 
self-defense capability.
    Question. What do you believe should be the priorities for U.S. 
military assistance to Taiwan?
    Answer. Our priority should be to assist Taiwan in implementing an 
asymmetric and innovative defense strategy to deter aggression from 
China. Taiwan's military must develop a defense force that can 
challenge a larger adversary and undermine China's ability to coerce 
Taiwan.
    Question. What is your opinion of the Taiwan Relations Act (TRA)? 
Enacted 30 years ago this year, do you see any need to modify the TRA 
to reflect the current state of affairs in the region? If so, how?
    Answer. In my view, the Taiwan Relations Act has helped maintain 
peace and stability in Northeast Asia for 35 years, and it continues to 
serve the United States well. Consistent with the act, the United 
States will continue to make available to Taiwan such defense articles 
and services necessary to maintain its self-defense capability, and at 
the same time maintain the capacity of the United States to resist any 
resort to force or other forms of coercion that would jeopardize the 
security, or the social or economic system, of the people on Taiwan.
    Question. Given the increasing military imbalance across the Taiwan 
Strait, do you think Taiwan is making appropriate investments in its 
defensive capabilities? If not, what is the best way to encourage 
Taiwan to invest more appropriately in its military?
    Answer. I believe that Taiwan should increase its defense budget to 
3 percent of its gross domestic product (GDP) and use these funds to 
implement an innovative defense strategy and adequately man, train, and 
equip its military, particularly as it transitions to an All-Volunteer 
Force. Low defense expenditures send the wrong message to China; and, 
it sends the wrong signal to the U.S. Congress and the U.S. public, who 
could be asked to come to Taiwan's defense in the future.
    Question. What military capabilities do you believe would be most 
effective in improving Taiwan's self-defense capability over the next 5 
to 10 years?
    Answer. Taiwan should implement a defense strategy with asymmetric 
capabilities that undermine the offensive capabilities by potential 
adversaries. To be effective, Taiwan's military needs to be resilient, 
which can be accomplished through increasing mobility, redundancy, 
camouflage, concealment, deception, decoys, hardening, and joint 
operations.
    Question. What do you believe should be appropriate criteria for 
the consideration of potential United States sales of military aircraft 
to Taiwan?
    Answer. I understand that DOD is mindful of Taiwan's air defense 
needs and remains committed to supporting Taiwan Air Force's efforts to 
address the challenge posed by China's growing quantity and quality of 
fighter aircraft. If confirmed, I would continue to work closely with 
Taiwan counterparts to address Taiwan's air defense capabilities to 
ensure it is able to maintain a sufficient self-defense capability.
                              north korea
    Question. North Korea still represents one of the greatest near-
term challenges to security and stability in Asia and deterring 
conflict on the Korean peninsula remains a top U.S. priority.
    What is your assessment of the current security situation on the 
Korean peninsula and of the diplomatic efforts to date to persuade 
North Korea to comply with international mandates regarding its 
ballistic missile and nuclear weapon programs?
    Answer. The security situation on the Korean Peninsula remains 
serious and warrants our constant vigilance. North Korea's December 
2012 missile launch and February 2013 nuclear test demonstrate that the 
country has both the capabilities and the will to undermine regional 
stability in pursuit of its national interests.
    Although a year has passed since the last cycle of provocation, 
North Korea's provocative behavior, large conventional military, 
pursuit of ballistic missile and weapons of mass destruction (WMD) 
programs, and proliferation activities continue to be serious concerns 
for the United States and our allies and partners in the region. Also, 
the murky nature of the North Korean regime and the unpredictability of 
the young leader Kim Jong Un add to our concerns.
    If confirmed, I would support the longstanding U.S. effort to 
ensure that North Korea meets its international obligations. If 
confirmed, I would ensure that our military deterrence of North Korean 
aggression continues to support our diplomatic efforts to end North 
Korea's nuclear and missile programs.
    Question. What is your understanding of the threat posed to the 
United States and our allies by North Korea's ballistic missile and WMD 
capabilities, and the possible export of those capabilities?
    Answer. As documented in the DOD Report to Congress on Military and 
Security Developments Involving the Democratic People's Republic of 
Korea, North Korea's continued pursuit of ballistic missile and WMD 
capabilities, and its proliferation of these capabilities to others, 
poses a serious threat to U.S. forces in the Asia-Pacific region as 
well as our regional allies and partners. Moreover, these capabilities, 
although largely untested at longer ranges, could also pose a direct 
threat to U.S. territory.
    If confirmed, I would do my best to ensure that DOD uses the full 
range of our resources and capabilities to defend against these 
threats.
    Question. How has the new government of Kim Jong Un changed the 
Department's risk assessments of North Korea?
    Answer. If confirmed, I would actively review DOD's risk 
assessments of North Korea to ensure that we are prepared for all 
contingencies. This being said, my sense is that the Kim Jong Un regime 
has demonstrated some unpredictability, particularly with the purge and 
execution of Jang Song-thaek. We must remain vigilant against North 
Korean provocations given Kim Jong Un's continuing efforts to 
consolidate power, North Korea's tactic of escalating tension to draw 
parties to the negotiating table, and the onset of the spring military 
training cycle.
                           republic of korea
    Question. The longstanding alliance between the United States and 
the Republic of Korea (ROK) has been a key pillar of security in the 
Asia-Pacific region. This relationship, while strong, is undergoing 
substantial changes in terms of command and control and force laydown 
over the next several years.
    What is your understanding of the current status of the U.S. 
security relationship with South Korea?
    Answer. My sense is that the U.S.-ROK Alliance is very strong and 
is a linchpin of peace and stability in the Asia-Pacific region. The 
United States and the ROK are making shared investments in the security 
of the Korean Peninsula in order to enhance our combined ability to 
deter North Korean aggression. At the same time, our security 
relationship represents one part of a comprehensive, strategic Alliance 
and plays an important role in contributing to stability not only on 
the Peninsula but also throughout Northeast Asia and globally.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-South Korean security relationship?
    Answer. The U.S. alliance with the Republic of Korea stands as a 
linchpin for peace and stability in the Northeast Asia and, 
increasingly, in the Asia-Pacific region and globally. I understand 
that DOD and the Republic of Korea Ministry of National Defense have 
been focused in recent years on improving the ability of the alliance 
to deter and if necessary, respond to, North Korean aggression or 
provocation, including by enhancing combined planning, increasing 
interoperability, strengthening capabilities for missile defense, 
command and control, and intelligence, surveillance, and 
reconnaissance, and realigning our forces on the Korean Peninsula. If 
confirmed, I would work to continue to make progress in these areas, as 
well as our combined efforts to assess and prepare the alliance for the 
transition of wartime operational control to the Republic of Korea.
    Question. Do you believe South Korea is providing sufficient 
financial contributions to U.S. Forces Korea under the current Special 
Measures Agreement (SMA) and the recently negotiated SMA for future 
years?
    Answer. Based on the press reports I have seen, the recently 
negotiated SMA provides for a tangible increase in the ROK's support to 
offset the costs associated with stationing U.S. forces on the 
Peninsula and also promotes a more stable stationing environment by 
improving various aspects of the cost-sharing programs. It is critical 
that the ROK shares in the investments the Alliance makes to defend 
South Korea, and my impression is that the SMA sends an important 
signal in that regard. Additionally, the support provided through the 
SMA represents only one aspect of the ROK's investment in the Alliance 
and, if confirmed, I would work hard to advocate for continued shared 
investments in the combined defense.
    Question. What is your view regarding the timing of the transfer of 
wartime operational control from the United States to South Korea, 
planned for December 2015, and what will you do to ensure this 
transition takes place by the end of 2015?
    Answer. I understand that the United States and the ROK remain 
committed to the transfer of wartime operational control on the 
timeline identified in the Strategic Alliance 2015 (SA2015) plan. 
Wartime operational control and transition have always been conditions-
based. If confirmed, I would support the continued assessment and 
review of the security situation on the Korean Peninsula in the context 
of implementing SA2015.
    Question. How do we ensure that we continue to protect our vital 
regional interests, while continuing meaningful progress toward the 
transfer of command and control to the Republic of Korea and the 
relocation of U.S. forces on the Korean Peninsula?
    Answer. As Secretary Hagel and ROK Minister of Defense Kim noted at 
the last Security Consultative Meeting on October 2, 2013, the 
transition of wartime operational control should sustain and enhance 
the Alliance's combined defense posture and capabilities. Also at that 
meeting, I understand that Secretary Hagel reaffirmed the continuing 
U.S. commitment to provide specific capabilities until the ROK obtains 
full self-defense capabilities. Similarly, Minister Kim reaffirmed that 
the ROK is committed to developing or acquiring the critical military 
capabilities necessary to assume the lead of the combined defense. I 
support all of these positions.
    Question. Do you believe that the security relationship with South 
Korea should remain focused on defense of the Korean Peninsula, or 
should U.S. forces stationed in Korea be available for regional or 
global deployments?
    Answer. U.S. military forces on the Korean Peninsula play a 
critical role in deterring conflict and supporting the defense of the 
Republic of Korea consistent with U.S. treaty obligations, and I 
believe that this should remain our principal focus. At the same time, 
the U.S. military forces stationed on the Korean Peninsula--as well as 
the armed forces of the Republic of Korea--have played important roles 
both regionally and globally in places such as Iraq and Afghanistan, 
and, I believe, they should be available to continue to do so in 
future.
    Question. What is your assessment of the security benefits of the 
force repositioning agreed to under the Land Partnership Plan and the 
Yongsan Relocation Plan and how does repositioning U.S. forces change 
the way they will operate on the Korean Peninsula?
    Answer. Both of these plans are predicated on the security benefits 
of being outside the tactical effective range of North Korean 
artillery. By being outside the range of North Korean artillery, U.S. 
forces gain operational advantages regarding force protection, 
survivability, and consolidation of personnel and equipment. If 
confirmed, I would look into potential costs savings to be found in 
this consolidation of U.S. forces on the Korean Peninsula that include 
efficiencies, reduced costs, and contribution to the political 
sustainability of our forward presence on the Korean Peninsula.
    Question. What is your understanding of the U.S. obligations in the 
event of an attack on South Korea by North Korea, and under what 
circumstances do you believe U.S. Armed Forces should be committed to 
engage North Korean forces in response to an attack on South Korea?
    Answer. Under the Mutual Defense Treaty of 1953, when the political 
independence or security of the Republic of Korea or the United States 
is threatened by an external armed attack, both of our countries will 
maintain and develop appropriate measures to deter and defeat armed 
attack. Patterns of North Korean rhetoric and provocations necessitate 
that the two sides continue to consult closely so that Alliance 
responses are effective.
    Question. The February 2010 Ballistic Missile Defense Review Report 
established a policy and program priority for defending against near-
term regional ballistic missile threats, and elaborated on the Phased 
Adaptive Approach to regional missile defense, including to defend 
against North Korean ballistic missile threats.
    Do you support the missile defense policies and priorities 
established in the Ballistic Missile Defense Review, including the 
Phased Adaptive Approach to missile defense in the Asia-Pacific region 
to defend against North Korean regional ballistic missile threats?
    Answer. Yes. Development of our regional missile defenses is an 
important element of our deterrence and defense strategies as it 
provides essential capabilities for defending U.S. forces abroad as 
well as our allies and partners.
                                 japan
    Question. How would you characterize the U.S.-Japan security 
relationship?
    Answer. I understand that U.S.-Japan security relationship is very 
strong and remains the cornerstone of our security strategy in the 
Asia-Pacific region. The U.S.-Japan relationship has underwritten the 
peace, stability, and prosperity of the region for more than a half 
century. Japan is a valued ally and anchor of democracy and prosperity 
in the region. The Joint Statement that followed the October 3, 2013, 
Security Consultative Committee meeting in Tokyo captures our full 
range of cooperative activities, which I fully support.
    Question. How does Japan's relationship with its regional 
neighbors, mainly China, North Korea and South Korea influence the 
U.S.-Japan relationship?
    Answer. I understand that DOD encourages, to the fullest extent 
possible, a healthy and open trilateral relationship between Japan, the 
Republic of Korea, and the United States, in order to facilitate better 
relations with our two closest allies in Northeast Asia. A strong 
trilateral relationship is an important element of deterrence against 
North Korean challenges. We also continue to encourage both China and 
Japan to increase the level of communication between the two sides in 
order to reduce the possibility of mistakes or miscalculation in 
contested areas.
    Question. What steps, if any, do you believe Japan ought to take to 
become a more active partner in security activities with the United 
States and in the international security arena?
    Answer. As described in the October 3, 2013 Joint Statement of the 
Security Consultative Committee in Tokyo, the United States would 
welcome any steps that Japan chooses to take that will enable it to 
play a larger role in the Alliance, and to increase its contributions 
to regional and global security. If confirmed, I would work with my 
Japanese counterparts to identify ways in which Japan could partner 
with the United States and others in contributing to peace and 
stability, including by examining the potential future roles, missions, 
and capabilities needed to meet the challenges of the 21st century.
    Question. What is your view of the United States-Japanese joint 
development of the Standard Missile-3, Block IIA missile defense 
interceptor, and of the overall program of cooperation between the 
United States and Japan on ballistic missile defense?
    Answer. I understand that Japan is one of the United States' 
closest ballistic missile defense partners. The significance of this 
partnership is reflected in the U.S.-Japan cooperation on development 
of the SM-3 Block IIA to which Japan has already committed over $1 
billion, Japan's hosting of one ballistic missile defense radar and 
plans to host a second by the end of 2014, Japan's co-production of the 
PATRIOT PAC-3 missile, as well as hosting a number of the U.S. Navy's 
ballistic missile defense-capable Aegis ships. This cooperation is 
significant in enhancing the ability of the United States to defense of 
the Homeland, U.S. forces deployed forward, and U.S. allies and 
partners from regional missile threats.
    Question. The current plan is for the closure of the Marine Corps 
Air Station on Okinawa after the construction of a Futenma Replacement 
Facility (FRF) at Camp Schwab on Okinawa. While the Governor of Okinawa 
has signed the landfill permit to allow construction of the FRF to go 
forward, local opposition and a long construction timeline make the 
completion of the FRF uncertain.
    What is your opinion of the prospects for the successful 
construction of the FRF at Camp Schwab on Okinawa?
    Answer. In short, I am encouraged by the prospects for successful 
construction.
    Following the approval by the Governor of Okinawa [Nakaima] on 
December 27, 2013, we are continuing to work closely with Japan to 
implement our realignment plans, including the construction of the FRF. 
As I understand it, for the FRF, the plan is simple--once it is fully 
operationally capable, we can leave Marine Corps Air Station (MCAS) 
Futenma and begin the process for return. The Government of Japan is 
motivated to move quickly on this project, and we will work hand-in-
glove to see it though. Until that time, my understanding is that we 
will continue to work with Japan on sustaining MCAS Futenma so that it 
supports our operational needs.
    Question. Is the cost-sharing arrangement between the United States 
and Japan to pay for the relocation of U.S. forces from Okinawa to Guam 
and the costs associated with the continued presence of U.S. forces in 
Japan equitable and appropriate? Why or why not?
    Answer. A revision to the Guam International Agreement signed last 
year by the Secretary of Defense and Secretary of State with their 
Government of Japan counterparts reaffirmed Japan's commitment to 
provide $3.1 billion (in fiscal year 2012 U.S. dollars) in cash toward 
the construction of Marine Corps facilities on Guam and the 
Commonwealth of Northern Mariana Islands (CNMI). I believe that this 
level of support is appropriate as it helps to ensure a strong U.S. 
military presence in the region while improving the political 
sustainability of the U.S. presence in Okinawa.
    The Japanese funds will not only assist in the construction of 
operational and administrative facilities for the U.S. Marines, but 
also contribute to the construction of training areas in Guam and the 
CNMI to ensure the operational readiness of our regional forces. If 
confirmed, I would also support opportunities for Japan to train at 
these facilities.
    Question. How, in your view, does building an unpopular new 
airfield on Okinawa, one that could take 7 to 10 years to finish at a 
cost of approximately $3 to $4 billion, serve to improve the U.S.-Japan 
relations in general and the U.S. military-Okinawa relations in 
particular?
    Answer. Since at least 1996, the United States and Japan have 
shared the view that there is a need to relocate the existing Marine 
Corps Air Station at Futenma, around which a significant population has 
grown over the years. Since 1999, we identified a replacement site in 
the vicinity of Camp Schwab. This was confirmed most recently in the 
Joint Statement issued by the October 3, 2013 Security Consultative 
Committee meeting in Tokyo.
    I understand that once this facility is completed and operational, 
there will be substantial benefits to the areas of Okinawa south of 
Kadena Air Base, where the vast majority of the Okinawa population 
resides. At the same time, this facility will allow the Marine forces 
on Okinawa to maintain their operational readiness and be able to 
respond quickly as the regional emergency force. The marines will be 
able to continue to train as they fight, as a combined arms team.
    Question. Is Japan carrying a fair share of the burden of the cost 
of the U.S. presence in Japan under the current Special Measures 
Agreement?
    Answer. My understanding is that Japan is meeting its obligations 
as negotiated under the 2011 Special Measures Agreement. If confirmed, 
I would monitor implementation to ensure that Japan continues to do its 
part to sustain the U.S. presence.
                              afghanistan
    Question. If confirmed, what would your role be with respect to 
U.S. activities in Afghanistan?
    Answer. As the ASD(APSA), I would be the principal advisor to the 
USD(P) and the Secretary of Defense on security strategy and policy 
related to Afghanistan, including defense relations with the Government 
of Afghanistan and coalition partners. I would also be responsible for 
the oversight of security cooperation programs in Afghanistan.
    Question. What are the key objectives of the campaign in 
Afghanistan and in your view are we on track to successfully achieve 
those objectives?
    Answer. I have not received a full briefing on the current status 
of the U.S. efforts in Afghanistan, but understand that the Coalition 
and Afghanistan National Security Forces (ANSF) are meeting campaign 
objectives. The Government of Afghanistan is in control of all of 
Afghanistan's major cities and provincial capitals. The Coalition and 
the ANSF successfully blunted the insurgency's 2012 and 2013 summer 
offensive, and I understand we continue to make progress on our 
counterterrorism objectives.
    Question. What is your assessment of the performance of the ANSF in 
assuming the lead for security throughout Afghanistan?
    Answer. I understand that Afghan security forces conduct the vast 
majority of operations unilaterally, and are in the lead for security 
across their country. I understand they performed well in the 2013 
fighting season and held ground against the Taliban. This is a 
fundamental shift in the conflict. I am mindful that the ANSF has made 
progress but they are not yet fully self-sustainable, and they require 
continued support.
    Question. Do you support the transition of full responsibility for 
the security of Afghanistan from coalition forces to the ANSF by the 
end of 2014?
    Answer. Yes. The only sustainable and long-term solution to the 
security challenge facing Afghanistan is an ANSF that is capable of 
providing security for a legitimate Afghan Government. ISAF and the 
ANSF have been working towards this goal for years, and I believe that 
they will succeed.
    Question. Do you support the retention of a limited U.S. military 
presence in Afghanistan after 2014?
    Answer. The President has described two missions for post-2014 
Afghanistan; a narrowly focused counterterrorism mission against al 
Qaeda and its affiliates; and a NATO-led train, advise, and assist 
(TAA) mission to support the ANSF. The President has also made it clear 
that the United States must conclude an agreement with Afghanistan in 
order to remain in Afghanistan; this agreement would secure the 
necessary privileges and protections for our forces. I support the U.S. 
commitment to a long-term relationship with Afghanistan, as outlined by 
the Strategic Partnership Agreement concluded in May 2012.
    Question. If so, what in your view should be the size, mission, 
objectives, and duration of such residual U.S. forces in Afghanistan 
after 2014?
    Answer. Any post-2014 forces should be tailored to support the 
counterterrorism mission and the train, advise, and assist (TAA) 
mission described by the President. As the President outlined in his 
State of the Union Address, a small U.S. force could remain in 
Afghanistan with NATO allies to train and assist Afghan forces, as well 
as conduct counterterrorism operations, if the Afghan Government signs 
the bilateral security agreement that has been negotiated.
    The exact size and duration of that commitment remain at the 
discretion of our national leaders.
    Question. If the United States and Afghanistan are unable to 
conclude a Bilateral Security Agreement that ensures legal protections 
for such residual U.S. forces, should the United States withdraw its 
military forces from Afghanistan?
    Answer. My understanding is that the administration continues to 
seek to conclude the Bilateral Security Agreement (BSA) promptly.
    As the President outlined in his State of the Union Address, a 
small U.S. force could remain in Afghanistan with NATO allies to train 
and assist Afghan forces, as well as conduct counterterrorism 
operations, if the Afghan Government signs the BSA that has been 
negotiated.
    The President will make the decision regarding the post-2014 U.S. 
force presence. My understanding is that he continues to weigh options, 
with input from military officials, the Intelligence Community, 
diplomats, and development experts.
    The longer it takes to conclude the BSA, options for a post-2014 
force presence become more costly and may become more narrow for the 
United States and our NATO partners.
    The United States is prepared to sign the agreement and to support 
the long-term security and stability of Afghanistan though a continuing 
partnership.
    Question. In your view, what would be the consequences for 
Afghanistan's security and stability if the United States were to 
reduce its post-2014 military presence in Afghanistan to a ``normal'' 
Office of Defense Cooperation under chief of mission authority?
    Answer. If confirmed, I would work with DOD and State Department 
counterparts to understand what we could accomplish through an Office 
of Defense Cooperation.
    Question. What is your understanding, as a legal matter, of when 
the current agreements that provide legal protections for the U.S. 
military between the Afghan Government and the U.S. Government expire? 
If a residual U.S. military force were to remain in 2015, would it have 
the same legal protections as the current U.S. military force does now 
even without the signing of the Bilateral Security Agreement?
    Answer. It is my understanding that the current Status of Forces 
Agreement between the United States and Afghanistan does not expire. 
However, the President has made clear that for a small U.S. force to 
remain in Afghanistan after 2014, the United States must have an 
invitation from the Afghan Government.
    If the Afghan Government signs the security agreement that has been 
negotiated, the President could decide that a small U.S. force would 
remain in Afghanistan to train and assist Afghan forces and conduct 
counterterrorism operations.
    Question. The current end strength of the ANSF is around 350,000 
personnel. At the NATO Summit in Chicago in May 2012, coalition 
participants discussed a proposal to reduce the future size of the ANSF 
to around 230,000, with an annual cost of $4.1 billion.
    Do you agree that any future reductions in the ANSF from the 
352,000 troop level should be based on the security conditions in 
Afghanistan at the time the reductions would occur?
    Answer. It is my understanding that the Department conducts a 
review every 6 months to evaluate the size of the ANSF. The Department 
considers both the operational and security conditions to ensure that 
the ANSF force level is appropriate for the environment. If confirmed, 
I would participate in this review process and any decision concerning 
the final size and structure of the ANSF, including force reduction.
    Question. Would you support reinvesting a portion of the savings 
from the drawdown of U.S. forces into sustaining the Afghanistan 
security forces at an end strength at or near their current level of 
350,000 if necessary to maintain security in Afghanistan?
    Answer. If confirmed, I would discuss these issues with our 
military commanders to develop recommendations for the Secretary.
    Question. What would be your priorities for building the 
capabilities of the ANSF after 2014?
    Answer. If confirmed, my priorities for building the capabilities 
of the ANSF after 2014 would depend on the President's decision on a 
U.S. force presence and mission, as well as on the level of Afghanistan 
Security Forces Fund resourcing. Depending on these variables, 
priorities could include ministerial institutional development, 
ministerial logistics and sustainment capacity, and moving Afghanistan 
to traditional security assistance.
    Question. What do you see as the United States' long-term strategic 
interests in Afghanistan after 2014?
    Answer. The United States has committed to a long-term partnership 
with Afghanistan. Beyond the primary goal of defeating al Qaeda and 
disrupting other extremists who present a serious threat to the United 
States, overseas interests, and allies and partners, the United States 
has pledged to support the development and stability of the Government 
of Afghanistan as it takes responsibility for its own future. Once the 
Afghan Government signs the BSA, a contingent of U.S. personnel could 
remain in Afghanistan with our NATO allies to conduct two specified 
missions: training and assisting Afghan forces, and counterterrorism 
operations.
                                pakistan
    Question. What is your assessment of the current relationship 
between the United States and Pakistan?
    Answer. Since Pakistan reopened the Ground Lines of Communication 
to Afghanistan in July 2012, the bilateral relationship has improved 
significantly, although there is still room for improvement. If 
confirmed, I would support focusing the defense relationship on 
defeating al Qaeda, promoting peace and reconciliation in Afghanistan, 
and supporting Pakistan's fight against militant and terrorist networks 
that threaten both the United States and Pakistan. Although there is 
room for improvement in the relationship, it is stronger today than it 
has been in recent years. However, Pakistan must take greater action to 
combat militant groups operating from its territory--like the Haqqani 
Network--who do not openly target the Pakistani state. These militant 
groups undermine regional stability and threaten U.S. and coalition 
personnel.
    Question. Do you see opportunities for expanded U.S.-Pakistan 
cooperation on security issues? If so, how would you prioritize these 
areas of cooperation?
    Answer. We should continue to work with Pakistan to promote 
regional security and counter the threat of al Qaeda. If confirmed, I 
would work to maintain cooperation in areas where our strategic 
interests align, while pressing Pakistan to take more direct action 
against all terrorist groups operating in its country.
    Question. What is your assessment of Pakistan's efforts to combat 
the threat of international terrorism?
    Answer. Pakistan has invested its military in fighting terrorism 
and has suffered enormous military and civilian casualties. The 
Pakistan military has deployed more than 140,000 personnel to the 
western border to conduct counterinsurgency (COIN) and counterterrorism 
(CT) operations. If confirmed, I would engage Pakistani defense 
officials to expand their COIN and CT efforts to target militant groups 
operating in Pakistan more directly.
    Question. What additional steps, if any, do you believe Pakistan 
should take to address the threat posed by violent extremist groups 
such as the Haqqani Network and the Taliban Quetta Shura that currently 
use their safe haven in Pakistan to launch cross-border attacks on 
U.S., coalition, and Afghan forces?
    Answer. I believe that Pakistan must prevent these terrorist 
networks from planning and executing attacks against U.S. and Afghan 
targets. This should involve a stronger effort to target militant 
groups and prevent them from acquiring the necessary material to 
execute attacks. Pakistan also needs to restrict more effectively these 
groups' ability to move across the border and throughout the region.
    Question. What conditions, if any, should the United States place 
on its security assistance to Pakistan?
    Answer. If confirmed, I would work the Department of State and 
other interagency partners to assess the level of our assistance to 
Pakistan, the return on that investment, and whether there is value in 
attaching conditions.
    Question. What impact do you believe the end of coalition combat 
operations in Afghanistan will have on: (1) U.S.-Pakistan relations 
after 2014; and (2) U.S. strategic interests in the South Asia region? 
After 2014, assuming safe havens for international terrorists in 
Afghanistan don't grow, will Pakistan's relative importance to U.S. 
interests eclipse that of Afghanistan due to the presence of nuclear 
weapons in Pakistan?
    Answer. I do not believe that the end of the International Security 
Assistance Force's (ISAF) combat operations in Afghanistan is a signal 
of U.S. disengagement from South Asia or a weakening of the bilateral 
relationship with either Afghanistan or Pakistan. In fact, U.S. 
engagement with both countries will remain important to support 
regional stability and secure our interests in the region. Vibrant 
defense relationships across South Asia will deter international 
terrorists from using South Asia as a safe haven to strike the U.S. 
Homeland or attempting to acquire a nuclear weapon.
                                 burma
    Question. There has been a lot of discussion recently about 
increasing military to military engagements between the U.S. and 
Burmese military, which has a long history of human rights abuses.
    What is the strategic importance of Burma to PACOM and how does it 
fit within PACOM's overall Southeast Asia strategy?
    Answer. Burma's openness after decades of self-imposed isolation--
its size, its strategic location between South and Southeast Asia as 
well as India and China, and its wealth of natural resources--has the 
potential to alter the geopolitics of the region. A strong, prosperous, 
and ideally democratic Burma could become a major player within ASEAN 
and in the region. Additionally, a successful transition to democracy 
could serve as a powerful model for many other countries around the 
world struggling to become more responsive to its people and a 
testament to U.S. willingness to assist with such transitions.
    More immediately, Burma is the current chair of ASEAN, one of the 
cornerstones of U.S. engagement in the region. As ASEAN chair, Burma 
sets the ASEAN agenda for the year--including on such issues as the 
South China Sea--and is the host for all its meetings. It is my 
understanding that DOD is seeking to craft limited and calibrated 
reengagement with the Burmese military in support of reforms.
    Question. How would you characterize current military to military 
engagement with Burma and how do you assess its effectiveness?
    Answer. I would characterize engagement with the Burmese military 
as crucial to the overall success of the ongoing reform movement in 
Burma. The military remains a key constituency in Burma, and without 
military support, the reform movement and transition to democracy will 
likely falter. I understand that the current limited military-to-
military engagement is designed to incentivize support for reforms and 
improve the military's ability to institute greater respect for human 
rights, adhere to international standards of behavior, and submit to 
civilian control. I believe DOD should move forward with the calibrated 
and conditional engagement and continue to be clear-eyed about the 
Burmese military's poor human rights record and history of dominating 
Burmese politics and the economy.
    In terms of effectiveness, I believe that the institutional changes 
the U.S. Government is seeking to promote in Burma will take time to 
implement and will thus require some patience. However, I agree with 
the current policy approach that makes any expansion of bilateral 
defense engagement contingent upon further progress by Burma on 
democratization, improving its human rights record, national 
reconciliation, and ending its military trade with North Korea.
                                vietnam
    Question. What are the greatest challenges for greater engagement 
with Vietnam?
    Answer. Vietnam's human rights record remains a major concern and, 
as U.S. Ambassador, I have supported the current policy of withholding 
lethal assistance until we see further progress in this area. 
Meanwhile, Vietnamese leaders will continue to attempt to balance its 
relationships with the United States and with China. We should continue 
to respect this reality and the pace of engagement with which Vietnam 
is comfortable.
    We have come a long way in building a bilateral relationship based 
on mutual trust, respect, and understanding. I am confident that our 
two countries will continue to find ways to deepen engagement and 
promote our mutual interest in peace and stability in the region.
    Question. What is the strategic importance of Vietnam to PACOM and 
how does it fit within PACOM's overall Southeast Asia strategy?
    Answer. As Ambassador, I have seen first-hand what an important 
role Vietnam plays in South East Asia, and have been pleased to support 
our strengthened bilateral security relationship. It's been an honor to 
serve as Ambassador during a time in which we have expanded defense 
relations. Vietnam occupies a geo-strategically crucial location along 
the South China Sea and its busy sea lanes. As a South China Sea 
claimant, it is also a key player in one of the world's most sensitive 
and important political issues. Its large population and dynamic 
economy make it a growing economic force in the region.
    Vietnam often acts as one of ASEAN's most strategic thinkers on 
regional geo-politics. It founded the ASEAN Defense Ministers' Meeting 
Plus (ADMM+) forum in 2010, has developed new Experts Working Groups 
under ADMM+, and has been keen to develop ASEAN as a leading 
multilateral institution in many other ways.
                                 india
    Question. What is your view of the current state of the U.S.-India 
security relations?
    Answer. The United States is investing in a long-term relationship 
with India--what the President has called one of the defining 
partnerships of the 21st century--and our bilateral defense relations 
play a key role in advancing this strategic partnership. I know that 
the Secretary of Defense is committed to continuing to build a 
relationship where close cooperation with India is normal, expected, 
and routine in areas such as joint military exercises, defense trade, 
as well as co-production and co-development of defense articles. If 
confirmed, I would work to support this commitment and to build upon 
the progress made by former Deputy Secretary Carter in taking our 
already strong defense relationship to the next level.
    Question. If confirmed, what specific priorities would you 
establish for this relationship?
    Answer. If confirmed, I would continue to strengthen our military-
to-military cooperation, work together on broader regional stability, 
and expand cooperation in areas such as maritime security, HA/DR, 
defense trade, collaborative science and technology, and co-production 
and co-development of defense articles.
    Question. What, in your view, is the effect on DOD interests, if 
any, of the civil nuclear cooperation agreement with India?
    Answer. It is my understanding that DOD does not have direct 
equities in the civil nuclear agreement. That said, it shows us that 
big leaps forward are often possible with India--which extends to 
security cooperation. Of note, the 2005/2006 defense cooperation 
agreement that set the course for the bilateral defense relationship 
was signed the same year as the civil nuclear agreement, and the past 
decade has seen an incredible increase in military-to-military 
engagement, senior-level interactions, and defense trade.
    Question. What is your assessment of the relationship between India 
and China and how does that relationship impact the security and 
stability of the region?
    Answer. As with the United States, China's military modernization 
presents both challenges and opportunities for India. The relationship 
between these two rising powers--both engaged in serious military 
modernization efforts--has broad influence on greater regional 
security. We are pleased to see high-level visits over the last year as 
well as increased economic and commercial engagement, and we will 
continue our engagement with both countries to encourage positive 
contributions to Asian stability and security.
    Question. What do you believe the United States should do to assist 
the Indian Government in the prevention of and response to terrorist 
events in India?
    Answer. The United States and India have a shared interest in 
working together on counter-terrorism. Current U.S. counterterrorism 
efforts with India are led predominantly by the Department of State and 
the Department of Homeland Security, with support from DOD. If 
confirmed, I would continue support for these initiatives.
    Question. What is your assessment of the current relationship 
between India and Pakistan?
    Answer. The United States does not view the security situation in 
South Asia as a ``zero sum'' game between India and Pakistan, and we 
value our relationship with each country. We believe that peaceful 
cooperation between India and Pakistan benefits the entire region, and 
are hopeful that the two countries can focus on confidence-building 
measures that help resolve tensions peacefully.
    Question. In your view, what impact has the ongoing tension between 
Pakistan and India had on the stability of Central and South Asia 
generally, and on the prospects for lasting security in Afghanistan?
    Answer. Regional security cannot be achieved in isolation, and we 
believe that Afghanistan must build positive relationships with all of 
its neighbors. India and Afghanistan have their own bilateral 
relationship; we do not view this partnership as any kind of threat to 
Pakistan, and we have continued to encourage India to be transparent 
with Pakistan on this relationship. As for lasting security in 
Afghanistan, if confirmed, I would encourage Indian leadership to 
provide continued support to Afghanistan through trade and investment, 
reconstruction, and assistance to the Afghan Security Forces.
                      republic of the philippines
    Question. What is your view of the current state of U.S.-Philippine 
military-to-military relations?
    Answer. U.S.-Philippine Alliance relations are strong. In recent 
years, both countries have worked to hone bilateral defense activities 
to improve cooperation on mutual security challenges and assist the 
Armed Forces of the Philippines' long-term military modernization.
    Question. What do you believe the U.S. goals should be in the 
Republic of the Philippines and how best can we achieve those goals?
    Answer. With respect to security-related issues, I believe we 
should cooperate with the Government of the Philippines to ensure that 
the Philippines is secure internally; has a modern, professional, and 
externally focused military; and is an active contributor to addressing 
mutual security challenges in the region and globally.
    Question. What is your assessment of recent U.S. military efforts 
in the Philippines and the effectiveness of the U.S. assistance being 
provided to the Philippine military in its fight against insurgent 
groups?
    Answer. For more than a decade, DOD has cooperated closely with the 
Armed Forces of the Philippines (AFP) to strengthen its 
counterterrorism capabilities in the southern Philippines. I think that 
the ongoing effort to transition responsibility for internal security 
to the Philippine National Police is a testament to the impressive 
security gains made by the AFP and enabled by U.S. military support. I 
understand that DOD continues to assess the requirements for the 
counterterrorism mission in the southern Philippines as security in 
that region improves.
    Question. Has Super Typhoon Haiyan affected U.S. plans to increase 
partner capacity in the Philippines, especially with regard to maritime 
awareness?
    Answer. Bolstering Philippine maritime domain awareness 
capabilities is an important goal, which predates the storm; however, I 
understand that identifying lessons learned from the typhoon response 
could be valuable and incorporated into future Alliance activities.
    Question. What policy guidelines, if any, would you establish, if 
confirmed, to ensure that U.S. personnel do not become involved in 
combat or law enforcement in the Republic of the Philippines?
    Answer. Philippine security forces are already capably responding 
to internal security threats and reducing instability in that country. 
Through security cooperation and assistance, DOD aims to bolster the 
capabilities of Philippine forces.
    Question. In your opinion, how important is the Global Security 
Contingency Fund to U.S. security assistance efforts in the 
Philippines?
    Answer. The Global Security Contingency Fund is an important tool 
in our capacity-building efforts, which will help to reinforce 
Government of the Philippines successes in the south and strengthen 
that country's maritime security and maritime domain awareness 
capabilities.
                               indonesia
    Question. Indonesia is a key Asian power and is the largest Muslim 
country in the world. Consequently, it is important to build on 
opportunities to improve and expand U.S. relations with Indonesia where 
possible.
    What is your view of the current state of military-to-military 
relations with Indonesia?
    Answer. U.S.-Indonesia military-to-military relations are very 
strong and focused around the four focus areas of HA/DR, peacekeeping 
operations (PKO), military reform, and extensive security assistance or 
cooperation engagements. This growing relationship is apparent in the 
increased complexity within exercises and the recent Foreign Military 
Sales cases between the United States and Indonesia.
    Question. What is your understanding of the extent to which the 
Indonesian Government is cooperating with the United States in the war 
on terrorism?
    Answer. It is my understanding that Indonesia has taken steps to 
improve its ability to respond to indigenous terrorist activities 
according to the rule of law and has been concentrating its 
institutional efforts on an active campaign to counter violent 
extremism.
    Question. Do you favor increased U.S.-Indonesian military-to-
military contacts? If so, under what conditions? Why?
    Answer. We encourage increased military-to-military contacts as the 
U.S.-Indonesia relationship continues to strengthen. Our interactions 
have grown in complexity and frequency over the last decade, and we 
look forward to building on this momentum. This enhancement is 
contingent to Indonesia's continued progress in the area of preventing 
human rights violations and appropriately addressing violations when 
they occur.
    Question. What is your view of the commitment of the Indonesian 
military leadership to professionalization of its armed forces, 
adhering to human rights standards, improving military justice, and 
cooperating with law enforcement efforts to investigate and prosecute 
those military personnel accused of human rights abuses?
    Answer. I commend Indonesia for the strides it has made to 
institutionalize respect for human rights and accountability for 
abuses.
    It is my understanding that, over the last few years, the U.S.-
Indonesia military-to-military relationship has continued to deepen and 
expand. Support from the U.S. Congress is critical for ensuring that we 
can continue to deepen our cooperation with a key regional actor. If 
confirmed, I look forward to working with Congress on the next steps.
    Question. If confirmed, what would you do to encourage respect for 
human rights and accountability in the Indonesian military?
    Answer. We would continue to enhance our institutional linkages 
with the Indonesian Ministry of Defense through increased engagement, 
subject matter exchanges, and professional military education. We would 
also continue to emphasize recent progress in addressing human rights 
violations, including: suspending from active duty military officials 
credibly accused of human-rights abuses; removing from military service 
any member convicted of such abuses; and cooperating with the 
prosecution of accused military members.
                              central asia
    Question. What in your view are the U.S. strategic interests in the 
Central Asian region?
    Answer. As long as the United States has forces in Afghanistan or 
is supporting the Afghan National Security Forces (ANSF), it is in the 
U.S. strategic interests that we maintain alternative supply lines 
through Central Asia so that we do not remain dependent solely on 
supply lines through Pakistan.
    It is important that we continue to support the independence and 
territorial integrity of these nations, and ensure that they are 
capable of defending their own territory against extremists and narco-
traffickers.
    Beyond that, it is in our strategic interest to help ensure that 
these nations develop defense institutions similar to our own and with 
which we can work together to address future security challenges.
    Question. What opportunities, if any, do you see for expanding 
security cooperation with the countries of Central Asia?
    Answer. I understand that the countries of Central Asia are 
interested in modernizing their militaries and learning from U.S. 
counterinsurgency experiences in Afghanistan and Iraq. It is in the 
interest of the United States to assist them in this effort, within the 
limitations of increasingly tight budgets.
    Question. What is your assessment of the New Silk Road Initiative? 
Do you believe that increased economic integration among the Central 
Asian countries contributes to improved security and stability in the 
region?
    Answer. I understand that the DOD's Northern Distribution Network 
(NDN) and Local Procurement initiatives have helped to develop habits 
of trade and transit within Central Asia and Afghanistan. Increased 
economic integration of the Central and South Asian region could 
enhance stability, and the State Department's New Silk Road Initiative 
has the potential to build on these habits and promote greater economic 
integration within the region.
                          combatting terrorism
    Question. The administration's National Strategy for 
Counterterrorism highlights the need to maintain pressure on al Qaeda's 
core while building the capacity of partners to confront mutual 
threats. The strategy also underscores the need to augment efforts to 
counter threats from al Qaeda-linked groups ``that continue to emerge 
from beyond its core safe haven in South Asia''.
    If confirmed, what would be your role within DOD with respect to 
counter terrorism?
    Answer. I understand there is still a great need to maintain focus 
on pressuring al Qaeda's core while building foreign partnerships and 
capacity to strengthen our resilience against this threat. If 
confirmed, I would work closely with the countries in Asia to build 
enduring partnerships and capabilities, eliminate safe havens, and 
degrade links between al Qaeda and its affiliates and followers.
    Question. What do you believe is the terrorism threat from al Qaeda 
and affiliated groups in the Asia-Pacific region?
    Answer. There has been significant success in the last few years in 
the fight against al Qaeda, but al Qaeda continues to pose a persistent 
and evolving threat to the United States. Al Qaeda is still adapting to 
losses in its command structure, utilizing its safe havens for attack 
planning, communicating guidance to its operational cells in the 
region, soliciting logistical and financial support, and providing 
training and indoctrination to new recruits.
    Question. Is there a nexus between terrorist groups and criminal 
networks in the Asia-Pacific?
    Answer. During my time as a U.S. Ambassador in Southeast Asia, it 
was clear that the nexus between illicit non-state actors and criminal 
networks is strong. It can be found throughout the globe. Terrorist 
organizations are using criminal networks, including narcotics 
trafficking and arms smuggling, as pathways to move people and 
resources across the region. Criminal networks can provide financial 
support to terrorists, insurgents, and other adversaries, and 
contribute to global instability by undermining legitimate government 
institutions, fostering corruption, and distorting legitimate economic 
activity, including in the Asia-Pacific region.
    In Southeast Asia, most notably in the Philippines and Indonesia, 
U.S. engagement with these partner nations has helped combat violent 
extremist ideology and activities. The integration of operations by 
host nation security forces with U.S. capacity building, development, 
and information support operations has dramatically reduced the ability 
of violent extremist organizations to operate.
    Question. What more can the United States do in Southeast Asia to 
help combat the threat of terrorism perpetrated by violent extremists?
    Answer. Our partners in Southeast Asia have successfully maintained 
pressure on the region's most lethal terrorist organizations, but the 
region still remains fertile ground for local terrorists who share al 
Qaeda's ideology and motivations. I support efforts to continue to 
build the capacity of governments that demonstrate their commitment 
against al Qaeda and its affiliates and adherents. If confirmed, I 
would work with others in the Department, other U.S. departments and 
agencies, Congress, and partners in the region to continue to make 
progress on this issue.
    Question. Which Southeast Asian countries are most important in the 
fight against terrorism in that region and what should the United 
States do to enhance relations with those countries?
    Answer. Consistent with the National Strategy for Counterterrorism, 
the United States has developed a robust network of bilateral 
counterterrorism relationships with key countries in Southeast Asia, 
including Indonesia, Philippines, Singapore, Thailand, and Australia. 
It is my understanding that Indonesia and the Philippines continue to 
be top priorities for counterterrorism capacity-building assistance. I 
support continued efforts to work closely to enhance relationships with 
the Governments of Indonesia and the Philippines through continued 
policy dialogues, security cooperation, and support to action-oriented 
regional frameworks that address CT issues.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent legislation, authorizes the provision of support 
(including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by U.S. Special Operations Forces to combat terrorism.
    What is your assessment of the overall effectiveness of this 
authority?
    Answer. My understanding is that section 1208 provides the 
Secretary of Defense with the authority to combat terrorism in a wide 
range of operational environments where U.S. Special Operations Forces 
are often operating under austere conditions and require specialized 
support from indigenous forces. Although I have not been briefed on the 
particulars of these activities, from my time as a U.S. Ambassador, I 
am aware that combatant commanders and Chiefs of Mission place a high 
value on this program.
           department of defense counternarcotics activities
    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1 billion to support CN operations, build the 
capacity of certain foreign governments in Asia and around the globe, 
and analyze intelligence on CN-related matters.
    What is your understanding and assessment of the DOD CN program?
    Answer. From my time in Asia, I am aware that the DOD's role in 
U.S. counternarcotic efforts is to employ militarily unique knowledge, 
skills, and capabilities to confront the range of national security 
threats associated with drug trafficking and related forms of 
transnational crime. I believe that DOD's CN programs are a cost-
effective tool to build the capacity of our partners and allies' 
security forces but also serve to deter broader conflicts that could 
require more costly military involvement. Given the networked nature of 
threats we face today, it is evident that the expertise, authorities, 
and skill of our law enforcement partners are essential enablers in 
efforts to achieve national security objectives.
    Question. What is your understanding of the illegal narcotics 
industry in Asia?
    Answer. From my time as U.S. Ambassador to Vietnam, I am aware that 
Asia-Pacific criminal enterprise activities, including drug-
trafficking, are organized on a business model of networked criminal 
service providers. There are a number of drug trafficking organizations 
that see the Asia-Pacific region as a lucrative market for the illicit 
products and attempt to buy influence and subvert governmental 
institutions. In addition to trafficking drugs, these organizations 
exploit their global network to traffic precursor chemicals globally. 
This can create instability, put civilian populations at risk, and 
undermine democratic processes.
    Question. What role, if any, should DOD play in countering--either 
directly or by, through, and with our Asian partners--the illegal 
narcotics industry in Asia?
    Answer. I believe that DOD plays a critical role in countering the 
illegal narcotics industry in Asia. I understand that the Joint 
Interagency Task Force-West (JIATF-W) is PACOM's executive agent for 
countering narcotics, and works by, with, and through the U.S. embassy 
country teams to identify our Asian partners' needs in-country. JIATF-W 
works with foreign and domestic law enforcement partners to provide 
training and support. Capacity-building efforts are the hallmark of 
JIATF-W engagement with Asian partners and contribute to a whole-of-
government effort to hinder the growth of transnational criminal 
organizations, thereby reducing the risk to the U.S. Homeland. I 
believe DOD should continue efforts to address the threats posed by 
narcotics and narcotics trafficking in the Asia-Pacific region.
    Question. On an annual basis, DOD spends approximately $400 million 
building the capacity of the Afghanistan Government to counter the 
illegal narcotics trade. Despite this sizable annual investment, 
Afghanistan remains the ``well-spring of the global opium trade, 
accounting for 93 percent of all opium poppy cultivation'' according to 
the United Nations Office of Drugs and Crime (UNODC). UNODC has also 
found that about 80 percent of the drugs derived from Afghan opium 
poppies are smuggled out by transnational organized criminal groups 
through the Islamic Republic of Iran and Pakistan; the rest flow 
through Central Asia.
    What is your assessment of DOD's CN program in Afghanistan?
    Answer. It is my understanding that the CN programs in Afghanistan 
developed an Afghan capacity to conduct CN investigations and 
interdiction operations with little U.S. support. This capacity was 
developed by building vetted Afghan CN police units and the Special 
Mission Wing. Afghan border units were trained and equipped to 
interdict drug trafficking and other illicit goods crossing the Afghan 
border and at Afghan ports of entry, including airports. Prosecutions 
of drug traffickers in Afghanistan have put narco-traffickers 
supporting the insurgency in jail and removed them from the battle 
space. The narcotics trade has been a key resource for the insurgency. 
CN efforts have been able to reduce that resource flow.
    DOD has also established CN capacity-building programs in Pakistan 
and Central Asia to interdict drugs and networks trafficking Afghan-
origin narcotics. A regional approach is required to ensure a greater 
impact on transnational criminal organizations and to disrupt the 
narcotics flow.
    Question. Do you think the DOD CN program in Afghanistan has been 
successful to date?
    Answer. My understanding is that DOD's CN programs in Afghanistan 
have been successful. DOD, in coordination with the Departments of 
State and Justice, has been able to build the CN capacity of the Afghan 
National Security Forces. These forces are now capable of planning and 
executing law enforcement CN operations with minimal help from the 
United States, and Afghan-only CN operations are occurring more 
frequently and with greater success. If confirmed, I would work with 
others in the DOD and in other departments and agencies to assess 
whether we should provide continued support to these forces post-2014 
to ensure they remain capable in the future.
                             law of the sea
    Question. Do you support U.S. accession to the United Nations 
Convention on the Law of the Sea? If so, why?
    Answer. I believe accession by the United States to the United 
Nations Convention on the Law of the Sea would send a clear signal that 
the United States remains committed to advancing rule of law, in the 
world's oceans. The United States is at the forefront of promoting rule 
of law and under the Convention the United States would have the legal 
foundation for navigational rights needed to project power, respond to 
crises, reassure our allies and partners, sustain deployed forces, and 
secure sea and air lines of communication. Supporting the Convention 
would further sustain our economic prosperity and trade worldwide.
    Question. Would U.S. accession to the United Nations Law of the Sea 
Convention benefit the U.S. military's mission in the Asia-Pacific 
region? If so, how?
    Answer. It is my belief that U.S. accession to the Law of the Sea 
Convention would be of great benefit to the U.S. military's mission in 
the Asia-Pacific region. Accession would enhance the United States' 
exercise of the Convention's freedom of navigation and overflight 
rights. Accession to the United Nations Law of the Sea Convention would 
also support combined operations with Asia-Pacific partners and the 
Proliferation Security Initiative, strengthen the U.S. position in 
discussions with China, substantiate undisputed title to our extended 
continental shelf area, and further establish the United States as a 
leader in future developments in the law of the sea. Additionally, 
accession would further add to U.S. credibility in a myriad of Asia-
focused multilateral venues where Law of the Sea issues are debated.
          prisoner of war/missing in action accounting efforts
    Question. Recovery of remains of U.S. servicemembers from World War 
II, the Korean War, and the Vietnam war continues to be a high 
priority.
    If confirmed, what steps, if any, would you take to enhance 
Prisoner of War/Missing in Action (POW/MIA) recovery efforts in the 
PACOM area of responsibility?
    Answer. As I can personally attest to from my time as the U.S. 
Ambassador to Vietnam, POW/MIA recovery is a whole-of-government 
effort. If confirmed, I would work closely with the Deputy Assistant 
Secretary for POW/Missing Personnel Affairs, the State Department, and 
PACOM to provide the utmost support.
                        foreign language policy
    Question. In 2005, DOD approved the Defense Language Transformation 
Roadmap to improve the Department's foreign language capability and 
regional area expertise. Since then, the Department has been working 
toward implementing that roadmap.
    How many Mandarin and/or Cantonese speakers does DOD have in 
intelligence analyst positions?
    Answer. Unfortunately, I have not yet examined this issue in 
detail. If confirmed, I look forward to working with Congress and the 
Office of the Under Secretary for Personnel and Readiness to assess DOD 
requirements for capabilities in foreign languages and regional areas 
of expertise.
    Question. Is this number sufficient to ensure good intelligence 
assessments for use by the Office of Asian and Pacific Security 
Affairs?
    Answer. See previous answer.
    Question. In your view, how should the United States expand the 
foreign language skills of civilian and military personnel in order to 
improve the quality of intelligence input to, and policy output by, the 
Office of Asian and Pacific Security Affairs?
    Answer. See previous answer.
                         counter threat finance
    Question. A number of officials in DOD and the intelligence 
community (IC) have called for investing significantly more resources 
in identifying and tracking the flow of money associated with terrorist 
networks and illicit trafficking.
    What are your views on the role of DOD in counter-threat finance 
(CTF) activities?
    Answer. Our Nation's adversaries require access to financial 
networks to conduct their operations. To counter these activities, U.S. 
Government departments and agencies must cooperate together, using 
their respective capabilities, to trace and stop the flow of money to 
our adversaries, and to interdict adversaries' funding sources in non-
kinetic ways. Although DOD is not the lead U.S. agency for conducting 
CTF actions, DOD does have unique capabilities that can assist other 
U.S. departments and agencies and partner nations in accomplishing the 
CTF mission. I believe that DOD should continue to support U.S. law 
enforcement agencies, the Department of the Treasury, the Intelligence 
Community, and others with these unique DOD capabilities, which include 
planning, intelligence analysis and tools, and the integration of 
intelligence into operations.
    Question. In your view, should DOD seek to expand its support to 
other U.S. Government departments and agencies conducting CTF 
activities?
    Answer. I believe DOD should continue to support U.S. Government 
efforts and international partners with CTF assistance, within existing 
DOD resources, while ensuring that DOD CTF support reflects U.S. 
defense priorities. Through this support, DOD can enhance the U.S. 
Government's ability to target our adversaries successfully through 
financial and law enforcement actions.
    Question. The Haqqani Network in the Afghanistan-Pakistan border 
region poses a major threat to the security of U.S., coalition, and 
Afghan forces in Afghanistan, both by conducting direct attacks on 
those forces and by providing sanctuary to other militant extremists.
    In your view, should additional steps be taken to track and counter 
the financial activities of the Haqqani Network, and if so, what role, 
if any, should DOD play?
    Answer. The Haqqani Network poses a grave threat to U.S. persons 
and to U.S. interests. This threat requires a whole-of-government 
response. I believe that DOD should continue to provide support in 
order to assist U.S. Government efforts to target the financial 
activities of terrorist networks such as the Haqqani Network.
    Question. Transnational criminal organizations are having a 
debilitating impact on the ability of our foreign partners to govern 
their nations and provide opportunities for their people.
    Do you think expanding CTF activities in the Asia-Pacific region 
would be beneficial? If so, what role, if any, should DOD play in those 
activities?
    Answer. I believe that CTF cooperation with allies and partners in 
Asia and the Pacific benefits our Nations' security. If we are to 
succeed in stopping transnational criminal organizations, we must 
pursue transnational cooperation. If confirmed, I would recommend that 
DOD continue to provide support, within available authorities and 
resources, to other departments and agencies and to foreign partners, 
so that we can strengthen our collective capabilities to interdict the 
flow of financial resources to Asia-Pacific region transnational 
criminal organizations.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASD(APSA)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Mazie K. Hirono
                asia-pacific center for security affairs
    1. Senator Hirono. Ambassador Shear, as the next Assistant Security 
for Asian and Pacific Security Affairs, you will oversee the Asia-
Pacific Center for Security Studies (APCSS) in Honolulu, HI. Would you 
share both your short-term and long-term visions for the Center, and 
what role it can play in the administration's rebalance to the Asia-
Pacific?
    Ambassador Shear. Regional partners hold the APCSS in very high 
regard, and, if confirmed, I look forward to assessing additional ways 
in which the APCSS can play a greater role in the rebalance to the 
Asia-Pacific region. The APCSS is a valuable tool for bilateral and 
multilateral research, communication, and exchange of ideas focused on 
security issues in the region. It provides a unique venue for 
discussions and engagement with partners in the region. If confirmed, I 
would work with my colleagues in Office of the Secretary of Defense 
Policy as well as U.S. Pacific Command to identify opportunities to 
enhance partnerships and strategic thinking in the region.

                      japan-south korea relations
    2. Senator Hirono. Ambassador Shear, as you are well aware, 
relations between our treaty allies, Japan and South Korea, remain 
strained. Please provide an assessment of the situation between the two 
countries and your thoughts on how the United States can better foster 
bilateral cooperation between the two countries and trilateral 
cooperation to address regional threats.
    Ambassador Shear. Relations between Japan and the Republic of 
Korea, two of our closest treaty allies, remain strained. The United 
States has made a concerted effort to promote dialogue and cooperation 
between Japan and the Republic of Korea. I understand that the 
Department of Defense (DOD) has encouraged, to the fullest extent 
possible, a healthy and open trilateral relationship among Japan, the 
Republic of Korea, and the United States in order to insulate defense 
cooperation from larger political issues in the bilateral Japan-
Republic of Korea relationship. I believe that a strong trilateral 
relationship can be an important deterrent against regional threats 
such as those posed by North Korea. If confirmed, I would work to 
ensure that trilateral security cooperation with Japan and the Republic 
of Korea remains a priority for DOD.

                                 taiwan
    3. Senator Hirono. Ambassador Shear, under President Ma Ying-Jeou, 
Taiwan continues its historic steps toward closer cross-strait ties. 
What implications do you see for the U.S. relations with both sides, 
considering our commitments under the Taiwan Relations Act (TRA)?
    Ambassador Shear. I believe that closer ties between the People's 
Republic of China and Taiwan are a positive development and contribute 
to a reduction in cross-Strait tensions. In this respect, I believe 
that U.S. policy, based on the three joint U.S.-China Communiquees and 
the TRA, which includes making available to Taiwan ``such defense 
articles and services in such quantities as may be necessary to enable 
Taiwan to maintain a sufficient self-defense capability,'' has enabled 
Taiwan to enter into cross-Strait dialogue with confidence and in the 
absence of coercion. If confirmed, I would continue to support this 
policy.

                                 china
    4. Senator Hirono. Ambassador Shear, Admiral Locklear of the U.S. 
Pacific Command has mentioned a desire to have a direct line of 
communication with his counterparts in China. What are your thoughts on 
such a system and what steps would be needed to create it?
    Ambassador Shear. I support open lines of communication between our 
two defense establishments. As I understand it, the Secretary of 
Defense has a direct line of communication with his Chinese counterpart 
through the Defense Telephone Link. I believe that this system may be 
used by Commander, U.S. Pacific Command, to facilitate direct 
communications with his counterpart as well, and I would look into this 
if confirmed.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                       rebalance to asia-pacific
    5. Senator Inhofe. Ambassador Shear, thank you for your service as 
U.S. Ambassador to Vietnam. From your time in the region, you can 
evaluate the rebalance to the Asia-Pacific called for in the Defense 
Strategic Guidance. A rebalance toward the Asia-Pacific would seem to 
signal an increase in presence and resources. But despite the rhetoric 
due to resource constraints, if there is a minimal increase in presence 
or a perceived U.S. commitment to the Asia-Pacific region, what do you 
think the impact will be on our Asia-Pacific allies and partners?
    Ambassador Shear. Despite resource constraints over the past year, 
the United States--including DOD--has prioritized efforts such as 
modernizing our alliances and partnerships, increasing partner 
capabilities to respond to common challenges such as humanitarian 
disasters, and strengthening multilateral cooperation--which all 
demonstrate the United States' enduring commitment to the Asia-Pacific 
region.
    Should resources be further constrained, it would likely require 
the administration to adjust the timing or intensity of specific 
activities; however, I believe that the United States will continue to 
prioritize resources and efforts that will affect the Asia-Pacific 
region.

    6. Senator Inhofe. Ambassador Shear, I think that if we don't 
follow through on the rhetoric of a rebalance, that we will cause 
significant damage to our regional security relationships. Like the 
Middle East where we have left a leadership vacuum, our friends won't 
trust us and our enemies won't fear us. The Defense Strategic Guidance 
says ``the growth of China's military power must be accompanied by 
greater clarity of its strategic intentions . . . '' Do you think that 
China's unilateral declaration of an air defense identification zone 
(ADIZ) covering the airspace of Japan, South Korea, and Taiwan, has 
given us greater clarity on China's strategic intentions?
    Ambassador Shear. China's announcement of an ADIZ was provocative 
and raised tensions in one of the world's most geopolitically sensitive 
areas, and it suggests that China is willing to risk friction with its 
neighbors--and with the United States--to advance its regional policy 
goals. As Secretary Hagel has made clear, the United States does not 
recognize and does not accept China's ADIZ. If confirmed, I would 
support the DOD position that China's announced ADIZ will not change 
how the United States conducts military operations in the region.

    7. Senator Inhofe. Ambassador Shear, what strategy do you suggest 
to counter those aggressive intentions? A slow and weak response by the 
United States to Chinese bullying in the East and South China Seas 
decreases confidence in U.S. commitment to the security of our partners 
and allies in a region which is supposed to be seeing more, not less, 
U.S. attention. The lack of a strategy supported by inadequate 
resources will further erode U.S. leadership and influence in an 
important region of the world.
    Ambassador Shear. The U.S. response to provocative actions by any 
country, including China, should be firm and grounded in the principles 
of support for international law; open access by all to the global 
maritime domains; free and open commerce; and peaceful resolution of 
disputes. To achieve this, the United States should continue to evolve 
our force posture in the region, maintain a robust regional and global 
presence and access, modernize our own capabilities, and strengthen 
alliances and partnerships, while also promoting the expectation that 
disputes are resolved diplomatically without aggression, coercion, or 
retribution.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                          taiwan relations act
    8. Senator Chambliss. Ambassador Shear, this year marks the 35th 
anniversary of the TRA. The TRA forms the basis of U.S. policy towards 
Taiwan and affirms the U.S. commitment to maintain Taiwan's self-
defense capability. This has successfully ensured peace in the Taiwan 
Strait and contributed to stability in the U.S. Pacific Command. With 
the People's Republic of China's continued military advances and the 
U.S. Air Force's anticipated decision to defund the combat avionics 
programmed extension suite (CAPES) program--which upgrades Taiwan's F-
16 fleet with advanced avionics--how do you plan to continue to 
implement the security partnership the United States has with Taiwan?
    Ambassador Shear. The TRA has helped maintain peace and stability 
in Northeast Asia for more than 35 years, and it continues to serve the 
United States well. If confirmed, I would continue our policies, based 
on the three joint U.S.-China Communiquees and the TRA, which includes 
making available to Taiwan ``such defense articles and services in such 
quantities as may be necessary to enable Taiwan to maintain a 
sufficient self-defense capability.'' In this regard, I would look to 
explore ways in which the United States could support Taiwan's 
ambitions to adopt asymmetric and innovative concepts and capabilities 
as part of its defense strategy. With respect to the CAPES program, if 
confirmed, I would look into the matter to determine what, if any, 
effects there could be on our commitments under the TRA and seek ways 
to mitigate them, if necessary.

                        rebalance to the pacific
    9. Senator Chambliss. Ambassador Shear, in November 2011, then-
Secretary of State Hillary Clinton gave an address titled ``America's 
Pacific Century'' and stated that the United States has ``a strong 
relationship with Taiwan, an important security and economic partner''. 
How will you build on the existing foundation and further enhance our 
important relationship with Taiwan as we rebalance to the Pacific and 
look to bolster regional alliances?
    Ambassador Shear. In my view, the best way to build on the existing 
foundation and further enhance our important relationship with Taiwan 
is to maintain consistency with our longstanding policy based on the 
three joint U.S.-China Communiquees and the TRA, which provides that 
the United States will make available to Taiwan ``such defense articles 
and services in such quantities as may be necessary to enable Taiwan to 
maintain a sufficient self-defense capability.'' That policy has 
contributed to peace and stability in the region for more than 35 years 
and is consistent with the longstanding U.S. calls for peaceful 
resolution of the Taiwan issue in a manner acceptable to the people on 
both sides of the Taiwan Strait. If confirmed, I would work to ensure 
that the United States continues to assist Taiwan, consistent with the 
TRA.
                                 ______
                                 
            Question Submitted by Senator Richard Blumenthal
                          taiwan relations act
    10. Senator Blumenthal. Ambassador Shear, this year marks the 35th 
anniversary of the TRA. The TRA forms the basis of U.S. policy towards 
Taiwan and affirms the U.S. commitment to maintain Taiwan's self-
defense capability. This policy has successfully ensured peace in the 
region and contributed to the stability and prosperity in the Asia-
Pacific region. With the People's Republic of China's arms buildup and 
naval modernization shifting the cross-strait military balance in its 
favor as well as the U.S. Air Force planning to defund the CAPES 
program--which serves to upgrade Taiwan's F-16 fleet with advanced 
avionics--how do you and the administration plan to continue to 
implement the security commitment the United States has to Taiwan under 
this framework?
    Ambassador Shear. The TRA has helped maintain peace and stability 
in Northeast Asia for more than 35 years, and it continues to serve the 
United States well. If confirmed, I would continue our policies, based 
on the three joint U.S.-China Communiquees and the TRA, which includes 
making available to Taiwan ``such defense articles and services in such 
quantities as may be necessary to enable Taiwan to maintain a 
sufficient self-defense capability.'' In this regard, and consistent 
with the provisions of the TRA and our unique relationship with Taiwan, 
I would look for ways to support Taiwan's ability to maintain an 
effective deterrence and adopt asymmetric and innovative concepts and 
capabilities as part of its defense strategy. With respect to the CAPES 
program, if confirmed, I would look into the matter to determine what, 
if any, effects there could be on our commitments under the TRA and 
seek ways to mitigate them, if necessary.
                                 ______
                                 
    [The nomination reference of Hon. David B. Shear follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                   January 7, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    David B. Shear, of New York, to be an Assistant Secretary of 
Defense, vice Mark William Lippert, resigned.
                                 ______
                                 
    [The biographical sketch of Hon. David B. Shear, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of David B. Shear
Education:
    Earlham College

        <bullet> September 1971-June 1975 (Estimated)
        <bullet> Bachelor's Degree

    Waseda University

        <bullet> July 1973-June 1974 (Estimated)

    Paul Nitze School of Advanced International Studies

        <bullet> September 1980-June 1982 (Estimated)
        <bullet> Master's Degree

    Johns Hopkins Nanjing Center

        <bullet> January 1987-June 1987 (Estimated)

    Georgetown University

        <bullet> July 1998-June 1999
Employment record:
    U.S. Department of State

        <bullet> Foreign Service Officer
        <bullet> January 1982-Present

    Institute of International Education

        <bullet> Administrative Assistant
        <bullet> February 1980-September 1980

    American Institute in Taiwan

        <bullet> Contract Visa Clerk
        <bullet> June 1979-December 1979

    American National Red Cross

        <bullet> Flood Relief Volunteer
        <bullet> February 1977-June 1977

    Jiyu Foreign Language Center, Tokyo

        <bullet> English Teacher
        <bullet> August 1975-December 1976
Honors and awards:
    State Department Superior Honor Award (individual), May 2001
    State Department Superior Honor Award (individual), February 1997
    Superior Honor Award (group). January 2001
    Defense Civilian Meritorious Service Award, October 1995
    State Department Superior Honor Award (group), November 1989
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. David B. 
Shear in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    David Bruce Shear.

    2. Position to which nominated:
    Assistant Secretary of Defense for Asia/Pacific.

    3. Date of nomination:
    Janaury 7, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 25, 1954; Cobleskill, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Barbara Chai Shear (Maiden name: Barbara Chai).

    7. Names and ages of children:
    Jennifer Shear, age: 26.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Georgetown University, Rusk Fellow, 1998-1999 no degree
    Nanjing University, student, 1987, no degree
    Johns Hopkins School of Advanced International Studies, 1980-1982, 
M.A. degree
    National Taiwan University, Chinese language student, 1978-1979, no 
degree
    Cornell University, Chinese language student, 1977-1978, no degree
    Waseda University (Tokyo), Japanese language student, 1973-1974, no 
degree
    Earlham College, 1971-1975, B.A. degree
    Clayton A. Bouton Jr.-Sr. High School, Voorheesville, NY, 1967-1971

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Joined Department of State in August 1982.
    Last 10 years:

          August 2011-Present: U.S. Ambassador to Vietnam
          March 2011-April 2011: Vietnamese Language Training
          May 2009-February 2011: Deputy Assistant Secretary of State, 
        East Asia-Pacific Bureau, Department of State
          August 2008-May 2009: Director, Office of Chinese Affairs, 
        East Asia-Pacific Bureau, Department of State
          August 2005-July 2008: Deputy Chief of Mission, U.S. Embassy 
        Kuala Lumpur
          August 2001-July 2005: Political Minister, U.S. Embassy Tokyo

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    July 1999-July 2001: Deputy Director, Office of Korean Affairs, 
Department of State, July 1997-July 1998: Special Assistant to Under 
Secretary for Political Affairs Tom Pickering
    August 1994-July 1997: Political/Military Unit Chief, U.S. Embassy, 
Tokyo
    July 1992-August 1994: Political/Military Officer, Office of 
Japanese Affairs
    July 1990-June 1992: Deputy Director, Office of East Asian Regional 
Affairs
    August 1989-April 1990: Political Officer, U.S. Embassy, Tokyo
    June 1987-July 1989: Political Officer, U.S. Embassy, Beijing
    August 1986-January 1987: Chinese Language Training, Foreign 
Service Institute, Taipei, Taiwan
    July 1984-July 1986: Desk Officer, Office of Chinese Affairs, 
Department of State
    February 1983-July 1984: Vice Consul, U.S. Consulate, Sapporo, 
Japan
    November 1982-January 1983: Trainee, U.S. Mission to the United 
Nations
    August 1982-November 1982: Trainee, Foreign Service Institute, 
Washington, DC
    June 1979-December 1979: Contract Employee, Consular Section, 
American Institute in Taiwan, Taipei, Taiwan

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, American Foreign Service Association (AFSA)

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $200 to the campaign for President Obama, 2012.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    State Department Superior Honor Award (individual), May 2001
    State Department Superior Honor Award (individual), February 1997
    Superior Honor Award (group), January 2001
    Defense Civilian Meritorious Service Award, October 1995

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have given several speeches during the last 5 years. Three 
representative speeches are provided, and additional speeches can be 
made available upon request. I also have a record of written and oral 
testimony before Congressional oversight committees all of which are 
included in the Congressional Record.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any. actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    David B. Shear.
    This 15th day of January, 2014.

    [The nomination of Hon. David B. Shear was reported to the 
Senate by Chairman Levin on March 26, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 17, 2014.]
                              ----------                              

    [Prepared questions submitted to Mr. Eric Rosenbach by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I do not see a need to amend any provisions of the 
Goldwater-Nichols Act. Since its adoption in 1986, Goldwater-Nichols 
has met its intended goals of improving civilian oversight of the 
Department of Defense (DOD) and creating a joint environment among the 
Services.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Currently, I do not believe that modification to the 
Goldwater-Nichols Act is required.
                       duties and qualifications
    Question. DOD Directive 5111.13 of January 16, 2009 states that the 
Assistant Secretary of Defense for Homeland Defense and Americas' 
Security Affairs (ASD(HD&ASA)), ``under the authority, direction, and 
control of the Under Secretary of Defense for Policy (USD(P)), serves 
as the principal civilian advisor to the Secretary of Defense and the 
USD(P) on homeland defense activities, Defense Support of Civil 
Authorities (DSCA), and Western Hemisphere security matters.'' It 
further elaborates that the ASD(HD&ASA) shall provide overall 
supervision of homeland defense activities of DOD which include 
``Defense Critical Infrastructure Program (DCIP); domestic 
antiterrorism; the Defense Continuity Program; other homeland defense-
related activities; and alignment of homeland defense policies and 
programs with DOD policies for counterterrorism and counternarcotics.''
    The Secretary of Defense has announced a plan to reorganize the 
Office of the USD(P), under which the ASD for Homeland Defense is 
located. What is your understanding of the duties and functions of the 
Assistant Secretary of Defense (ASD) for Homeland Defense position to 
which you have been nominated, and do they differ from those described 
in DOD Directive 5111.13?
    Answer. My understanding of the duties and functions of the 
Assistant Secretary of Defense for Homeland Defense is consistent with 
those described in DOD Directive 5111.13, as well as other applicable 
DOD directives, with the exception of the duties and functions for 
Western Hemisphere security policy, which has been transferred within 
the Office of the USD(P) to the Assistant Secretary of Defense for 
International Security Affairs (ASD(ISA)). In the future, the Assistant 
Secretary of Defense for Homeland Defense will assume some of the 
duties and functions currently assigned to the Assistant Secretary of 
Defense for Global Strategic Affairs (ASD(GSA)), including the duties 
and functions for cyberspace, space, and countering weapons of mass 
destruction (WMD) policies.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My professional background includes nearly 20 years of 
experience working on national security issues in the military, private 
sector, academia, and Federal Government. I believe that both my 
substantive expertise and leadership experience provide me with the 
background necessary to serve successfully, if confirmed, as Assistant 
Secretary of Defense for Homeland Defense.
    My substantive background includes extensive practical and academic 
work in intelligence, counterterrorism, homeland security, and cyber 
policy. As the commander of an Army intelligence unit, I gained 
invaluable experience about military and intelligence operations. I 
gained a deep understanding of U.S. counterterrorism and homeland 
security efforts as a professional staff member on the Senate 
Intelligence Committee. At the Harvard Kennedy School, I taught classes 
on national security policy and authored a book focusing on 
counterterrorism. Over the last 2\1/2\ years at the Pentagon, I gained 
a deep understanding of the cybersecurity challenges facing the Nation.
    I believe that I also have the strong leadership and management 
skills necessary to serve effectively as Assistant Secretary. As a 
senior executive at a large international telecommunications firm, for 
example, I managed complex projects across fifteen nations. Later, I 
served as the Executive Director of a large center at the Kennedy 
School, where I was responsible for managing all aspects of the 
center's operations. Prior to my work in the Pentagon, I was a senior 
executive at an international consulting firm working with Fortune 500 
executives.
    Question. What additional actions do you believe you need to take, 
if any, to prepare yourself to fulfill these duties?
    Answer. If confirmed, I am prepared to undertake fully the duties 
and functional areas within the Office of the Assistant Secretary of 
Defense for Homeland Defense and anticipate working with the 
congressional defense committees to fulfill my responsibilities under 
title 10.
                             relationships
    Question. What do you see as the relationship between the Assistant 
Secretary of Defense for Homeland Defense and each of the following:
    The Secretary of Defense.
    Answer. Under the authority, direction, and control of the USD(P), 
the Assistant Secretary of Defense for Homeland Defense serves as the 
principal civilian advisor to the Secretary of Defense on homeland 
defense activities and Defense Support of Civil Authorities. In the 
future, I understand that this responsibility will expand to serving as 
the principal civilian advisor on DOD cyber, space, and countering WMD 
policy.
    Question. The Deputy Secretary of Defense.
    Answer. The Assistant Secretary of Defense for Homeland Defense 
provides support to the Deputy Secretary similar to that provided to 
the Secretary, as described above.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Assistant Secretary of Defense for Homeland Defense 
functions under the authority, direction, and control of the USD(P) and 
provides the USD(P) with advice and support on homeland defense policy 
formulation, interagency deliberations, engagement with interagency 
interlocutors, and the Planning, Programming, Budgeting, and Execution 
(PPBE) processes and strategic reviews within the Department. In the 
future, the ASD's role will be expanded to include DOD cyber, space, 
and countering WMD policy matters.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. Under the authority, direction, and control of the USD(P), 
the Assistant Secretary of Defense for Homeland Defense works closely 
with the Under Secretary of Defense for Intelligence (USD(I)) to 
achieve the Secretary of Defense's objectives, particularly the defense 
of the United States from attack upon its homeland.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low-Intensity Conflict.
    Answer. The Assistant Secretary of Defense for Homeland Defense 
works closely with the Assistant Secretary of Defense for Special 
Operations & Low-Intensity Conflict to provide the USD(P) and the 
Secretary of Defense with advice and recommendations on policy issues 
regarding combating terrorism within the United States and homeland 
defense policy oversight to ensure that the Secretary's guidance and 
decisions are implemented.
    Question. The Assistant Secretary of Defense for International 
Security Affairs.
    Answer. The Assistant Secretary of Defense for Homeland Defense 
works closely with the ASD(ISA) to provide the USD(P) and the Secretary 
of Defense with advice and recommendations on issues regarding emerging 
threats to the United States and homeland defense policy oversight to 
ensure that the Secretary's guidance and decisions are implemented.
    Question. The Assistant Secretary of Defense for Reserve Affairs 
and the civilian officials of the Military Departments in charge of 
Reserve Affairs.
    Answer. The Assistant Secretary of Defense for Homeland Defense 
works closely with the Assistant Secretary of Defense for Reserve 
Affairs and civilian officials of the Military Departments in charge of 
Reserve Affairs in the areas of DOD policy regarding the development, 
readiness, and employment of National Guard and other Reserve component 
forces within the United States, as well as homeland defense policy 
oversight to ensure that the Secretary of Defense's guidance and 
decisions are implemented properly.
    Question. The Chief of the National Guard Bureau, and the Directors 
of the Army and Air National Guard.
    Answer. The Assistant Secretary of Defense for Homeland Defense 
works closely with the Chief of the National Guard Bureau, and the 
Directors of the Army and Air National Guard, on the roles, 
capabilities, and readiness of the National Guard to support the 
homeland defense and civil support priorities and objectives of the 
Secretary of Defense.
    Question. The Director of the Defense Intelligence Agency.
    Answer. Under the authority, direction, and control of the USD(P), 
the Assistant Secretary of Defense for Homeland Defense works closely 
with--and provides advice on homeland defense, Defense Support of Civil 
Authorities, DOD cyber, space, and countering WMD policy to--the 
Director of the Defense Intelligence Agency to achieve the Secretary of 
Defense's objectives in defense of the United States.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff and the Joint Staff.
    Answer. As the principal military advisor to the Secretary of 
Defense, the President, the National Security Council, and the Homeland 
Security Council, the Chairman of the Joint Staff (CJCS) has a unique 
and critical military role. If confirmed as the Assistant Secretary of 
Defense for Homeland Defense, I would work closely with the Chairman 
and Vice Chairman to support the efforts of the Secretary and Deputy 
Secretary, and to ensure that their military advice is taken into 
account in an appropriate manner.
    Question. The Commander of U.S. Northern Command (NORTHCOM) and the 
North American Aerospace Defense Command.
    Answer. The Assistant Secretary of Defense for Homeland Defense 
works closely with the Commander of the North American Aerospace 
Defense Command and NORTHCOM to support the efforts of the Secretary, 
Deputy Secretary, and USD(P), particularly in the areas of homeland 
defense, Defense Support of Civil Authorities strategy and policy, 
contingency planning, and policy oversight of operations.
    Question. The Commander of U.S. Pacific Command (PACOM).
    Answer. The Assistant Secretary of Defense for Homeland Defense 
works closely with the Commander of PACOM to support the efforts of the 
Secretary, Deputy Secretary, and USD(P), particularly in the areas of 
homeland defense and Defense Support of Civil Authorities strategy and 
policy, contingency planning, and policy oversight of operations.
    At the direction of the USD(P) and in coordination with the CJCS, 
the Assistant Secretary of Defense for Homeland Defense works with the 
Commander of PACOM on a broad range of issues that affect strategy and 
policy for countering the proliferation of WMD, as well as for the 
space and cyberspace domains.
    Question. The Commander of U.S. Strategic Command (STRATCOM).
    Answer. At the direction of the USD(P) and in coordination with the 
CJCS, the Assistant Secretary of Defense for Homeland Defense works 
with the Commander of STRATCOM on a broad range of issues that affect 
strategy and policy for countering the proliferation of WMD, as well as 
for the space and cyberspace domains.
    Question. The Commander of U.S. Cyber Command (CYBERCOM).
    Answer. At the direction of the USD(P) and in coordination with the 
CJCS, the Assistant Secretary of Defense for Homeland Defense works 
with the Commander of CYBERCOM on a broad range of issues that affect 
the Department's activities in cyberspace. As I understand it, once 
duties that are currently performed by the Assistant Secretary of 
Defense for Global Security Affairs (OASD(GSA)) become part of the 
responsibilities of the Assistant Secretary of Defense for Homeland 
Defense, the Assistant Secretary of Defense for Homeland Defense would 
provide senior-level civilian oversight of CYBERCOM. If confirmed, I 
look forward to continuing to ensure that the relationship with 
CYBERCOM remains close and would facilitate coordination as the 
Department's role in the cyber domain evolves.
    Question. The Director of the Defense Threat Reduction Agency 
(DTRA).
    Answer. The Assistant Secretary of Defense for Homeland Defense, in 
coordination with the Office of the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, works closely with the Director 
of the DTRA, particularly regarding efforts in chemical, biological, 
radiological, and nuclear threat reduction and defense, counter-
proliferation, and emergency response support and training. This close 
coordination is necessary to ensure that the Assistant Secretary of 
Defense for Homeland Defense is able to provide policy oversight and 
guidance to the DOD's Cooperative Threat Reduction Program, which is 
implemented by DTRA.
    Question. The Assistant Secretary of Defense for Nuclear, Chemical, 
and Biological Defense Programs.
    Answer. The Assistant Secretary of Defense for Homeland Defense 
works closely with the Assistant Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs (ASD(NCB)) on DOD's chemical, 
biological, and nuclear defense programs as they relate to homeland 
defense, antiterrorism/force protection, and Defense Support of Civil 
Authorities.
    Question. The Department of Homeland Security (DHS).
    Answer. The Assistant Secretary of Defense for Homeland Defense 
(and my current office) has a close working relationship with the DHS 
due to the complementary responsibilities of homeland defense and 
homeland security missions and the need for a close, habituated, and 
well-exercised relationship for the rapid execution of Secretary of 
Defense-approved defense support of civil authorities missions as 
requested by the DHS and the Federal Emergency Management Agency 
(FEMA).
    Question. The State Governors.
    Answer. The Assistant Secretary of Defense for Homeland Defense 
serves as the principal DOD representative to State Governors on policy 
matters pertaining to homeland defense activities, Defense Support of 
Civil Authorities, and DOD security matters, including but not limited 
to: defense domestic consequence management; activities commonly 
referred to as mission assurance (Defense Critical Infrastructure 
Program, Defense Continuity Program, Defense Crisis Management); the 
alignment of homeland defense activities with counterterrorism and 
counternarcotics policy and programs; and DOD cyberspace activities, 
space policy, and WMD counterproliferation.
    In 2010, the Secretary of Defense designated the Assistant 
Secretary of Defense for Homeland Defense as the Executive Director of 
the Council of Governors. If confirmed, I would, as Executive Director, 
be responsible for coordinating the activities of the Council.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the ASD for Homeland Defense?
    Answer. If confirmed, my primary challenge and top priority would 
be to continue and improve the outstanding efforts DOD has devoted to 
protecting the homeland from a major terrorist attack. I would be 
particularly focused on preventing an attack using a weapon of mass 
destruction and on planning and preparing for the response to 
catastrophic incidents in the United States, including WMD.
    One of the most pressing challenges that I would immediately face, 
if confirmed, once duties of OASD(GSA) are transferred to the Office of 
the Assistant Secretary of Defense for Homeland Defense, would be 
managing the Department's efforts to help eliminate Syria's chemical 
weapons.
    I believe that DOD has a crucial role in planning for complex 
catastrophic incidents; thus, I would devote extensive attention to the 
Department's preparations for catastrophes like Super Storm Sandy.
    If confirmed, I would also devote special attention to the 
challenge of building the cyberspace workforce, growing DOD's 
operational capabilities, and continuing to rationalize the complex 
funding streams that support cyberspace initiatives.
    Question. If you are confirmed, what priorities and plans do you 
have for addressing these challenges?
    Answer. If confirmed, I would maintain support for the key issues I 
outlined above by actively addressing them in key DOD and interagency 
processes, including the PPBE processes, strategic reviews inside the 
Department, and the Interagency Policy Committee (IPC) process.
    Once duties that currently reside in OASD(GSA) become part of the 
responsibilities of the Assistant Secretary of Defense for Homeland 
Defense, I would address challenges in cyberspace initially by 
streamlining senior-level oversight of workforce, capabilities, and 
funding issues to improve efficiency throughout the Department for how 
the cyber force is organized, trained, and resourced.
    I am committed to continuing my close working relationships with 
partners across DOD, with other departments and agencies throughout the 
executive branch, and with Congress, to address whatever issues and 
concerns arise to implement the new policies and strategies.
    Question. What do you anticipate will be the most serious problems 
in the performance of the responsibilities of the ASD for Homeland 
Defense?
    Answer. If confirmed, I would initially focus my efforts on the 
changes that will be made to the Office of the Assistant Secretary of 
Defense for Homeland Defense as a result of the reorganization of the 
Office of the USD(P) that Secretary Hagel announced last December. 
There are many synergies that will occur as a result of this 
reorganization and, if confirmed, I would ensure that we maximize the 
collective talents of the staff in the new Homeland Defense 
organization.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, and upon implementation of the reorganization 
of the Office of the USD(P), I would work with each Deputy Assistant 
Secretary of Defense (DASD) under the Assistant Secretary of Defense 
for Homeland Defense to identify the synergies between the homeland 
defense issues and cyberspace, space, and WMD policy issues and 
establish a unified vision for the organization.
             combating terrorism roles and responsibilities
    Question. Section 902 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2003, which established the position of 
Assistant Secretary of Defense for Homeland Defense, also transferred 
the responsibility for the ``overall direction and supervision for 
policy, program planning and execution, and allocation and use of 
resources for the activities of the Department of Defense for combating 
terrorism'' to the USD(P).
    Please specify what combating terrorism activities will be under 
the jurisdiction of the Assistant Secretary of Defense for Homeland 
Defense, particularly domestic antiterrorism activities.
    Answer. It is my understanding that the specific counterterrorism 
activities that reside under the Assistant Secretary of Defense for 
Homeland Defense include providing critical staff support to the 
Secretary of Defense regarding support requested by the Attorney 
General, or as directed by the President of the United States to combat 
domestic terrorism. Also, as I understand it, the Assistant Secretary 
of Defense for Homeland Defense advises the Secretary of Defense on all 
domestic consequence management matters.
    Question. What DOD official or officials will be responsible for 
DOD combating terrorism activities not under the jurisdiction of the 
ASD for Homeland Defense?
    Answer. The USD(P) has the overall lead for DOD combating terrorism 
policy oversight. If confirmed, I would work closely with the Assistant 
Secretary of Defense for Special Operations and Low-Intensity Conflict 
(ASD(SO/LIC)) and the Under Secretary of Defense for Intelligence 
(USD(I)) to achieve the Secretary of Defense's objectives and proper 
alignment of DOD combating terrorism activities.
    The geographic combatant commanders have tactical control (TACON) 
for Force Protection of all DOD personnel within their areas of 
responsibility, with the exception of DOD personnel for whom the chiefs 
of U.S. diplomatic missions have security responsibility. If confirmed, 
I would work closely with both the Combatant Commanders and the 
Department of State to ensure that all DOD personnel serving overseas, 
including those at U.S. missions and embassies, have appropriate anti-
terrorism protection.
    Question. What steps will you take to ensure that the Department's 
efforts are focused and well-coordinated in this critical area of 
Homeland defense?
    Answer. If confirmed, I would work closely with the Assistant 
Secretary of Defense for Special Operations and Low-Intensity Conflict 
and the Under Secretary of Defense for Intelligence to achieve the 
Secretary of Defense's objectives in this critical area of Homeland 
defense.
    I would also use DOD's Mission Assurance Coordination Board, which 
the ASD for Homeland Defense leads, to ensure that the Department's 
efforts are focused and coordinated on antiterrorism and force 
protection issues. DOD's Mission Assurance Senior Steering Group 
integrates mission-related security issues of mutual interest with 
other executive committees and efforts within the Department.
       difference between homeland defense and homeland security
    Question. DOD is responsible for Homeland defense, and the DHS is 
responsible for Homeland security.
    Please describe your understanding of the differences between the 
two different missions.
    Answer. DOD is responsible for the protection of U.S. sovereignty, 
territory, population, and critical infrastructure against external 
threats and aggression, or other threats as directed by the President. 
The Department's missions are executed to deter, defend against, and 
defeat those who threaten the United States.
    DHS leads the Nation's efforts to prepare for, protect against, 
respond to, recover from, and mitigate against the risk of terrorist 
acts, natural disasters, and other natural and manmade disasters. DHS 
also secures the Nation's borders, ports, and airports; and ensures 
that the Federal Government works with States, localities, and the 
private sector as a partner in prevention, mitigation, and response.
    As necessary, and consistent with the law, DOD provides support to 
DHS in the execution of its missions.
    Question. Do you agree that DOD should not be responsible for 
Homeland security, but may serve in a supporting role to assist 
civilian Federal agencies, as directed by the President or Secretary of 
Defense?
    Answer. Yes. In enacting the Homeland Security Act of 2002, 
Congress assigned responsibility to DHS for preventing terrorist 
attacks within the United States; reducing the vulnerability of the 
United States to terrorism; and minimizing the damage and assisting in 
the recovery from, terrorist attacks within the United States. As 
necessary, and consistent with the law, DOD provides support to DHS in 
the execution of its missions.
         relationship with the department of homeland security
    Question. The establishment of the DHS was one of the U.S. 
Government's largest cabinet-level reorganizations in the last 50 
years. Despite this reorganization, DOD will continue to play an 
important role in providing Defense Support of Civil Authorities for 
Federal response to certain domestic incidents, as directed by the 
President or the Secretary of Defense.
    Please describe your understanding of the relationship between DOD 
and DHS, particularly with respect to Defense Support of Civil 
Authorities and cyber security.
    Answer. DOD has a strong, mutually supporting relationship with DHS 
that dates back to its inception. As I understand it, the preponderance 
of requests for assistance that the Department receives comes from one 
of DHS's operational components. Since the Office of the Assistant 
Secretary of Defense for Homeland Defense was created in 2003, FEMA has 
submitted to DOD more requests for assistance than all other sources 
combined. The Secret Service, Customs and Border Protection, and the 
Coast Guard have also made multiple requests each year.
    In the area of cyber security, DOD provides personnel, equipment, 
and facilities in order to increase interdepartmental collaboration in 
strategic planning for the Nation's cybersecurity, mutual support for 
cybersecurity capabilities development, and synchronization of current 
operational cybersecurity mission activities. The formal Memorandum of 
Agreement between the Departments focuses national cybersecurity 
efforts to increase the overall capacity and capability of both DHS's 
homeland security and DOD's national defense missions, while providing 
integral protection for privacy, civil rights, and civil liberties.
    Question. If confirmed, what role do you expect to play in the 
direction and coordination of DOD activities with DHS and its component 
elements?
    Answer. If confirmed, I would build on the strong professional 
relationships that have been developed between the Departments. I would 
represent DOD in senior-level discussions with colleagues from DHS and 
its operational components. I understand that key areas of 
collaboration and coordination include working with the U.S. Coast 
Guard on maritime domain awareness, Customs and Border Protection on 
support to border security, the Secret Service on Presidential and 
dignitary protection, and DHS's Office of Cyber Security and 
Communications on national cyber policy.
                  defense support of civil authorities
    Question. The ASD for Homeland Defense has primary responsibility 
for Defense Support of Civil Authorities (DSCA), particularly support 
to the DHS and its components, for response to natural and manmade 
disasters in the United States.
    Please describe your general understanding of the roles and 
responsibilities of DOD in providing DSCA, and the roles and 
responsibilities of other Federal agencies in responding to domestic 
disasters.
    Answer. Defense Support of Civil Authorities is one of the primary 
missions of the Department as articulated in the latest National 
Defense Strategy, ``Sustaining U.S. Global Leadership: Priorities for 
21st Century Defense,'' dated January 2012. When directed by the 
President or approved by the Secretary of Defense, the Department has 
robust capabilities and capacity that can be used to support civilian 
authorities at the Federal, State, and local levels.
    For domestic emergencies and disasters, FEMA has statutory 
responsibility to coordinate the Federal support to State, tribal, and 
local authorities. When requested by FEMA, or when directed by the 
President or Secretary of Defense, the vast capabilities of the 
Department can be used to supplement FEMA support to local, tribal, 
State, and other Federal departments and agencies.
    Question. Under current law, when DOD provides Defense Support to 
Civil Authorities, what are the responsibilities of other Federal 
agencies for paying for or reimbursing the Department for such support?
    Answer. During an emergency or disaster, when the Department is 
asked to support FEMA under the terms of the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act, the Department is 
reimbursed by FEMA for civilian overtime, temporary duty expenses, and 
the operational and maintenance costs of providing the support. DOD is 
not reimbursed for the pay and allowances of personnel providing the 
support.
    Under the Presidential Protection Assistance Act of 1976, when the 
Department provides temporary support to the Secret Service that is 
directly related to the protection of the President or Vice President, 
the support is provided on a non-reimbursable basis. When support is 
provided to the Secret Service for other protected persons, DOD is 
reimbursed for its expenses.
    When we support other Federal departments and agencies under the 
Economy Act (title 31, U.S.C., section 1535), DOD is reimbursed for all 
of our support costs, including the pay and allowances of the personnel 
providing the support.
                defense critical infrastructure program
    Question. The ASD for Homeland Defense is responsible for 
overseeing DOD efforts and programs to protect defense critical 
infrastructure in the United States.
    If confirmed, what plans, approaches, and priorities would you have 
for ensuring that the Defense Critical Infrastructure Program is 
functioning properly?
    Answer. I am familiar with the importance of the DCIP and worked 
closely with this program while leading the Cyber Policy office. If 
confirmed, one of my priorities would be to integrate this program 
further with other risk management programs across the Department to 
ensure DOD's ability to execute missions. I would review such plans, 
approaches, and priorities, and make recommendations to the USD(P) to 
ensure that adequate measures are taken for the protection of defense 
critical infrastructure in an all-hazards environment to ensure mission 
execution.
                         installation security
    Question. The security of U.S. military installations--both at home 
and abroad--has been a longstanding priority for the Senate Armed 
Services Committee.
    If confirmed, what would be your priorities for ensuring an 
adequate level of security for military installations in the United 
States?
    Answer. If confirmed, I would work to ensure the effectiveness of 
DOD antiterrorism and protection policies in detecting, deterring, and 
responding to threats directed at DOD installations, facilities, and 
personnel, including their families. I would also work to ensure that 
adequate resources are provided to execute these policies and that DOD 
is working closely with its Federal, State, local, and tribal partners 
in establishing a mutually supportive protective posture inside and 
outside DOD installations and facilities.
    Although the Under Secretary of Defense for Intelligence is the 
principal staff assistant for physical security, if confirmed, I would 
support an antiterrorism approach to physical security, focused on risk 
mitigation, which defends in-depth using technology and manpower to 
reduce risk and mitigate potential threats. In addition, I would 
encourage DOD components to share access control information and 
continuously vet individuals against U.S. criminal and terrorist 
databases. Moreover, I would help to ensure that antiterrorism policy 
is consistent with DOD physical security and installation emergency 
management policy, as part of the overall DOD Mission Assurance effort.
                defense continuity and mission assurance
    Question. The ASD for Homeland Defense has primary responsibility 
for the Defense Continuity Program and for DOD Mission Assurance in the 
United States.
    What is your understanding of the roles and responsibilities of the 
ASD for Homeland Defense with respect to the Defense Continuity Program 
and Mission Assurance?
    Answer. It is imperative that the Department has the ability to 
provide senior leaders a clear understanding of risks to mission 
accomplishment and that we possess the tools and processes needed to 
develop effective options to reduce associated risks. Defense 
Continuity and Mission Assurance provide this important capability to 
ensure resiliency and readiness.
    Under the authority, direction, and control of the USD(P), the 
Assistant Secretary of Defense for Homeland Defense has two major 
responsibilities for the Defense Continuity Program. The first is to 
develop, coordinate, and oversee implementation of Defense continuity 
policy (which includes activities supporting continuity of operations, 
continuity of government, and enduring constitutional government). The 
second is to develop and oversee a comprehensive continuity program, 
including continuity plans to support the Secretary, the Deputy 
Secretary, and their senior and supporting staffs, and the DOD 
components in coordination with the Chairman of the Joint Chiefs of 
Staff.
    Question. If confirmed, what would be your priorities for 
accomplishing these important missions?
    Answer. If confirmed, one of my mission assurance priorities would 
be to review how DOD prioritizes risk mitigation efforts to eliminate 
unnecessary redundancies, achieve closer integration of key activities, 
and more effectively inform the resourcing of existing programs and 
future investments related to mission assurance.
    If confirmed, one of my Defense Continuity Program priorities would 
be to continue modernization of selected DOD continuity capabilities to 
improve readiness and resilience while incorporating operational 
efficiencies.
                 cbrn consequence management enterprise
    Question. Among the specialized capabilities that the Defense 
Department can provide to civil authorities are the Chemical, 
Biological, Radiological, and Nuclear (CBRN) consequence management 
response forces. These comprise a mix of National Guard and Active 
component forces and units, both large and small.
    Please describe your understanding of the composition and role of 
the DOD CBRN consequence management enterprise, the circumstances under 
which they could be used, and the role of National Guard capabilities 
in responding to both state and Federal CBRN incidents.
    Answer. The consequence management enterprise is composed of 
approximately 18,500 Active and Reserve component forces on alert to 
support civilian authorities in rapidly responding to mitigate the 
consequences of a domestic CBRN incident (e.g., nuclear plant, chemical 
facility, or biological attack).
    Consequence management enterprise capabilities reside in the Active 
components and Reserve components, including National Guard forces 
under State command and control (some of which are DOD-funded). 
Maintaining capabilities in the National Guard better enables a rapid 
response in support of local and State responders.
    Each State and territory hosts at least one National Guard Weapons 
of Mass Destruction-Civil Support Team, and there are larger, 
regionally positioned National Guard forces, including CBRN Enhanced 
Force Packages and Homeland Response Forces, all prepared to provide 
immediate response capabilities, including casualty search and 
extraction, medical triage, and decontamination.
    Question. If confirmed, what would be your role with regard to the 
oversight, training, certification, coordination, and employment of the 
Defense Department's CBRN consequence management response forces?
    Answer. As I understand it, elements of the CBRN force participate 
in ambitious training, standardization, and evaluation programs. If 
confirmed, I would work closely with NORTHCOM and the National Guard 
Bureau to ensure that DOD's consequence management forces maintain 
their full operational capability.
                             cyber security
    Question. You are currently the DASD for Cyber Policy, and have 
experience working with the DHS and other Federal agencies that have 
domestic cyber security responsibilities. The planned reorganization of 
the Office of the USD(P) envisions the ASD for Homeland Defense having 
primary responsibility for DOD cyber security policy.
    What is your understanding of the roles and responsibilities of the 
DOD for cyber security, and how do they compare to the roles and 
responsibilities of the DHS?
    Answer. Ensuring the Nation's cybersecurity is a shared 
responsibility across the U.S. Government. DHS is the lead Federal 
department responsible for national protection against, mitigation of, 
and recovery from domestic cybersecurity incidents, for which both DOJ 
and DOD provide support. DHS is further responsible for the security of 
unclassified Federal civilian systems. DOJ is responsible for the 
investigation, attribution, disruption, and prosecution of cyber crimes 
outside of military jurisdiction. All three Departments share 
cybersecurity information with each other, and each coordinates with 
public, private, and international partners.
    DOD is responsible for defending the Nation from attack in all 
domains, including cyberspace. As such, DOD plans, coordinates, and 
conducts cyberspace operations to operate and defend DOD critical 
infrastructure and military systems. When directed, DOD can conduct 
cyberspace operations to defend the Nation and defend and enable 
military actions in all domains. Upon request, DOD may also assist in 
providing Federal support to the private sector and State and local 
governments.
    Question. Given that cyber threats can be inherently global in 
nature, and that cyber security is not a mission limited to the 
Homeland, how do you view the relationship of cyber security to 
homeland defense?
    Answer. Homeland defense includes the protection of U.S. 
sovereignty, territory, domestic population, and defense critical 
infrastructure against external threats and aggression, or against 
other threats as directed by the President. DOD is responsible for 
homeland defense. As with threats to the United States, our allies and 
partners, and our interests in other domains, DOD has the mission to 
defend the Nation in cyberspace. Because many cybersecurity threats 
allow would-be adversaries to attack the Nation from overseas, I 
believe cybersecurity is a key part of homeland defense. Of course, the 
Department must continue to work with other Federal departments and 
agencies, the private sector, and international partners to ensure the 
Department can carry out its assigned missions in cyberspace as well as 
in other domains.
            supervision and management of the cyber mission
    Question. The NDAA for Fiscal Year 2014 requires the Secretary of 
Defense to appoint a Senate-confirmed official from the Office of the 
USD(P) to act as the principal cyber advisor to the Secretary. This 
official must be responsible for overall supervision of cyber 
activities, including policy and operational considerations, resources, 
personnel, and acquisition and technology. This official also must 
assemble a small cross-functional team to integrate cyber expertise 
across the Department to enable sound decisions while leaving execution 
of decisions to existing organizations and officials.
    The description of the duties of the office to which you have been 
nominated provided to the committee does not mention these 
responsibilities and authorities.
    Has the position to which you have been nominated been designated 
as the principal cyber advisor to the Secretary? If not, which position 
has been so designated?
    Answer. At this time, the Secretary has not formally designated his 
principal cyber advisor. However, along with many colleagues throughout 
the Department, I am involved in deliberations that have studied how 
best to implement this legislation. Once the reorganization of the 
Office of the USD(P) is complete, the Assistant Secretary of Defense 
for Homeland Defense will be responsible for cyber policy matters.
    Question. How does DOD intend to implement the NDAA legislation? As 
the incumbent Deputy Assistant Secretary for Cyber in USD(P), have you 
taken any actions to begin implementation?
    Answer. Yes, as Deputy Assistant Secretary, I have initiated a 
Department-wide process to develop options for implementation of the 
legislation, but the Secretary has not yet made any formal decisions. 
The opportunity provided by this legislation to streamline oversight of 
cyber policy within DOD is crucial, so we want to ensure implementation 
reflects long-term goals for the Department in cyberspace, as well as 
short-term needs for effective organization and management. We remain 
mindful of the guidance from the committee contained in the Joint 
Explanatory Statement that accompanied the legislation.
                 infrastructure for u.s. cyber command
    Question. The NDAA for Fiscal Year 2014 requires the Secretary of 
Defense to provide CYBERCOM with infrastructure to enable CYBERCOM to 
independently access global networks to conduct military operations. 
Congress intends for CYBERCOM to have infrastructure for conducting 
operations that has attributes that are different from those of the 
intelligence community, including the ability to scale rapidly, to be 
disposable, and to cause minimal impacts on our capabilities if 
discovered by adversaries.
    What are your views on this requirement?
    Answer. I believe that it is essential for CYBERCOM to have 
infrastructure that allows it to accomplish military operations that 
are unique and distinguishable from the Intelligence Community. Over 
the past several months, the Department made significant strides in 
developing plans for diverse, highly-scalable, easily deployable, and 
disposable platforms, available on demand for the Cyber Mission Force 
to carry out its missions.
    Question. What is the Department's plan for complying with the 
legislation?
    Answer. DOD has already made significant progress toward achieving 
this 2014 NDAA requirement. In October 2013, the Deputy Secretary of 
Defense tasked CYBERCOM to create a strategy for determining the right 
mix and number of diverse platforms specifically for use by the Cyber 
Mission Force. These platforms will provide diversity from the 
intelligence platform, are able to scale quickly to address specific 
requirements, and, because they do not need to be overly sophisticated, 
can be inexpensive to build and deploy.
    Question. Do you believe DOD can implement the legislative 
direction in an effective and affordable manner?
    Answer. Yes. DOD has already taken large strides toward achieving 
this 2014 NDAA requirement.
    Question. Do you believe this can be implemented in a way that is 
not redundant or duplicative of existing infrastructure?
    Answer. It is fiscally prudent for DOD to leverage all existing 
capabilities, which is why CYBERCOM is working with the National 
Security Agency (NSA) to ensure there are not duplicative efforts. To 
ensure the intelligence community can execute its missions free of fear 
from being exposed by military actions, a CYBERCOM-dedicated 
infrastructure on demand is not only reasonable, it is mission 
critical.
    CYBERCOM is creating a unified architecture plan to ensure there 
are not redundant efforts, find ways to leverage previous investments, 
and ensure the Cyber Mission Force has the infrastructure it needs to 
carry out its missions. In my current position, I would be happy to 
provide additional detail about anything related to the ``diverse 
platform'' plan in a classified setting at a later time.
                   development of cyber officer corps
    Question. In a forthcoming article, the J3 of CYBERCOM, Major 
General Brett Williams, argues that: ``We have a pressing need to 
develop cyberspace operators who are credible and effective in the J3 
and J5, within both the Joint Staff (JS) and the Combatant Commands 
(CCMD). Just for emphasis, that is the J3 and J5, not just the J2 and 
J6; and at all of the CCMDs, not just CYBERCOM . . . Joint staffs 
consist of what we typically think of as operators, members of the 
combat arms who are educated, trained and experienced in operations. 
Cyberspace expertise usually comes from people with intelligence, 
communications, or cryptology backgrounds; career fields typically 
categorized as support forces. If we are going to treat operations in 
cyberspace like operations in the other domains, the services must 
commit to unique career fields for cyberspace . . . Cyberspace, like 
the other domains, requires officers who are developed across their 
careers in a way that positions them to lead at senior levels in both 
command and staff. Cyberspace officers should spend their first 10 
years becoming tactically proficient in all aspects of cyberspace 
operations, complete service and joint military education, serve on 
joint staffs, command in their area of operational specialty and do all 
of the other things necessary to produce general and flag officers 
whose native domain is cyberspace.''
    What are your views about whether cyber officer career development 
should be distinct from both intelligence and communications officer 
development?
    Answer. I believe, just like in other areas of combat arms, DOD 
needs to develop its enlisted, officer, and civilian force from a wide 
variety of career fields, including but not limited to the intelligence 
and communications communities.
    Question. Is it advisable to develop cyberspace officers as we do 
other combat arms or line officers? Why or why not?
    Answer. Yes. I believe cyber officers, as well as our enlisted 
forces and civilians should have well-defined career paths focused on 
operations. Over the past 18 months, the Services have invested 
extensive attention toward growing our force, and developed plans to 
recruit and retain our most highly-skilled enlisted and officer forces 
in the cyberspace operations workforce. Just as we do for other unique 
military career fields including pilots, cyberspace operators should 
receive certain incentives to remain in the field. If confirmed, I will 
continue to work with the Services for cyberspace operations military 
and civilian forces to be competitive, in both rank and position, with 
those whose operational focuses have been the other domains.
    alignment of military cyber operations with cyber intelligence 
                               collection
    Question. For the most part, the military service cyber 
organizations have been formed from the service cryptologic elements, 
and in general cyber warfare operations have been regarded as an 
extension of signal intelligence operations. More recently, however, 
there is a growing perception that military cyber operations, and the 
tools and techniques employed in them, should be different from those 
employed in intelligence operations in cyberspace.
    Do you think that, as CYBERCOM matures and as cyber military art 
develops, military cyber operations and cyber intelligence operations 
will diverge?
    Answer. Because the type of targets for military operations may be 
different than those targets for intelligence operations, I am inclined 
to think that these operations are likely to diverge in the future. 
However, a small subset of targets may remain common, such as foreign 
cyber adversaries.
    Question. In the long term, what are the pros and cons of treating 
the services' cyber organizations and the service cryptologic elements 
as distinct entities?
    Answer. Both communities play vital roles within the Services. An 
important benefit of the distinction is that cyber organizations will 
tend to have a more explicit focus on warfighting, while cryptologic 
elements are likely to focus more on their core intelligence-related 
competencies. However, one drawback of over-emphasizing this 
distinction would be to neglect the important nexus between warfighting 
and intelligence in the conduct of cyber operations. If confirmed, I 
would be sure to continue assessing the cyber force model in light of 
this distinction as that model evolves.
    Question. Would you expect that military cyber operations personnel 
assigned to CYBERCOM units will continue to be funded mainly in the 
intelligence budget and compete with intelligence priorities?
    Answer. If confirmed, I will likely conduct an assessment to 
determine the optimal methods to ensure appropriate funding for 
CYBERCOM personnel.
                    range support for cyber command
    Question. The NDAA for Fiscal Year 2014 included a provision 
requiring the Secretary of Defense to ensure that there are adequate 
range capabilities for training and exercising offensive cyber forces 
in operations that are very different from cyber intelligence 
operations. The committee understands that the community responsible 
for planning and managing cyber range capabilities has developed a plan 
for acquiring the range capabilities that CYBERCOM requires, but has 
not programmed funding to implement the plan.
    From your position as DASD for Cyber Policy, how do you expect the 
Department will implement the NDAA legislation?
    Answer. The Department is working to establish the DOD Enterprise 
Cyber Range Environment (DECRE) governance body to oversee Cyber Range 
issues. DECRE is currently working on establishing a persistent test 
and training environment intended to meet the demand of the Cyber 
Mission Force teams that are being fielded by providing on demand 
environments for training in both offensive and defensive cyberspace 
operations. The Department is also conducting an assessment to 
determine if we have the required cyber range capacity and capability 
to support Cyber Mission Force training. This assessment is expected to 
be completed by October 2014.
    Question. What is your understanding of CYBERCOM's range 
requirements for individual and unit training, and exercises, and the 
capabilities and capacity of the joint cyber range infrastructure to 
satisfy those requirements?
    Answer. It is my understanding that the persistent test and 
training environment is being developed based on requirements from 
CYBERCOM's Exercise CYBER FLAG, and represents our current best 
estimate of what cyber range capabilities are needed to train the Cyber 
Mission Force teams. Additionally, we are assessing the capacity needed 
to train all of the cyber forces as they are formed and will include 
requirements for large-scale exercises such as Cyber Flag, as well as 
National Mission Force Headquarters and Joint Force Headquarters-Cyber 
training, certification, and exercises.
                         information assurance
    Question. The President's Review Group on Intelligence and 
Communications Technologies recommended that the Information Assurance 
Directorate (IAD) of the NSA be separated from NSA and subordinated to 
the cyber policy component of the DOD. The Senate version of the NDAA 
for Fiscal Year 2014 included a provision that would transfer 
supervision of the IAD from the Under Secretary of Defense for 
Intelligence (USD(I)) to the Chief Information Officer (CIO). The 
committee's rationale for this transfer is that the IAD conducts cyber 
protection-related duties, which fall under the responsibility of the 
CIO, not the USD(I).
    As the position to which you have been nominated is presumed to 
become the principal cyber advisor to the Secretary of Defense, what 
are your views on the pros and cons of these proposals?
    Answer. I support the President's decision to maintain the IAD 
within NSA, as the synergy between information assurance and the 
signals intelligence missions should be maintained. Altering civilian 
relationships for oversight of the information assurance mission might 
risk creating divergent chains of oversight that are not synchronized 
with operational chains of command. However, it is undeniable that the 
CIO has a critical role to play as well. The interaction between CIO, 
USD(I), and IAD is an important one, and it must be closely monitored 
to ensure that the current oversight structure is functioning 
effectively.
   dual hatting of director of the national security agency and the 
                     commander, u.s. cyber command
    Question. The President's Review Group on Intelligence and 
Communications Technologies recommended that the positions of Director 
of the NSA and the Commander of CYBERCOM be separated and that the 
President appoint a civilian to be Director of NSA. The President 
decided against separating these two positions at this time. According 
to press reports, the President based his decision, in part, on his 
perception that CYBERCOM was not yet mature enough to stand on its own 
without a very strong institutional connection to NSA.
    Do you support the President's decision?
    Answer. I support the President's decision against separating these 
two positions at this time.
    Question. If CYBERCOM remains too dependent on NSA for their 
leadership to be bifurcated, does it follow that CYBERCOM is not mature 
enough to become a full unified command?
    Answer. When CYBERCOM was established in 2009, the dual-hat 
arrangement allowed for the unification of leadership for organizations 
responsible for defending the Nation in cyberspace and for signals 
intelligence. We continue to do extensive analysis of whether CYBERCOM 
should remain a subunified command under STRATCOM or be unified to a 
full combatant command. We will continue to remain in close 
consultation with Congress if the Department believes the current 
arrangement should change to ensure CYBERCOM remains operationally 
effective. Regardless of CYBERCOM's potential status as a command in 
the future, if confirmed I will work with my colleagues throughout the 
Department to ensure CYBERCOM has the resources it needs to continue to 
mature.
    Question. To the extent that military operations in cyberspace 
should evolve to be different and distinct from intelligence collection 
in cyberspace, is it possible that NSA's strong influence over 
CYBERCOM's development could hinder as well as support the proper 
maturation of the Command? What are your views on this issue?
    Answer. In the coming years, I expect the Department will continue 
to closely assess CYBERCOM's maturation and its ability to execute its 
missions. This includes ensuring that CYBERCOM has control over those 
assets its needs to be successful. Given NSA's status as a combat 
support agency, I anticipate NSA will continue to be supportive of 
CYBERCOM's maturation. If confirmed, I will look forward to working 
with colleagues across the Department to ensure CYBERCOM has the 
support it needs.
    Question. As NSA is a combat support defense agency subject to the 
authority, direction, and control of the Secretary of Defense, and NSA 
is subordinate to the Secretary of Defense in his capacity as the 
President's executive agent for signals intelligence under Executive 
Order 12333, is there any reason to expect that NSA's support for 
CYBERCOM and the other combatant commands would be questionable if the 
dual-hat arrangement were terminated?
    Answer. I am confident that NSA will continue to provide mission-
critical support to CYBERCOM and other combatant commands, regardless 
of the status of the dual-hat arrangement.
                   support for the combatant commands
    Question. The Secretary of Defense has ordered the military 
services and CYBERCOM to quickly develop operational military cyber 
teams to support the missions of defending the Nation against cyber 
attacks, supporting the war plans of the geographic and functional 
combatant commands, and defending DOD networks against attacks. The 
mission teams that will support the combatant commanders ultimately 
will be under the operational control of those commanders. The 
committee understands that, to date, the combatant commands have not 
committed to creating cyber component commands to direct the operations 
of those units.
    In your opinion, can the combatant commanders properly direct the 
operations of assigned cyber mission teams without a component command 
element?
    Answer. As the Department builds out the Cyber Mission Force and 
its teams, we will continue to evaluate and evolve command and control 
to ensure cyber capabilities are integrated and responsive to the 
combatant command operations.
    Question. Have cyber operations been integrated into the operations 
plans of the combatant commands?
    Answer. Yes, cyber capabilities are being integrated into planning 
the same as other capabilities from the physical domains. This is an 
area, however, in which the Department must continue to make steady 
progress.
    Question. How would you assess the progress of the Department in 
developing cyber capabilities for the use of these command cyber teams 
to support the specific needs of the combatant commands?
    Answer. Equipping the Cyber Mission Force teams is a work in 
progress. In addition to presenting trained personnel for the Cyber 
Mission Force, the Services are responsible for presenting real 
capability for the force. The Combat Mission Teams (CMTs), in 
particular, have unique requirements for full-spectrum military 
capabilities and the Services must continue to invest in capabilities 
to achieve cyber effects against DOD priority targets.
    Question. What priority has been assigned to the development of 
capabilities for national versus command cyber mission teams?
    Answer. Though the Cyber Mission Force build is still in its 
infancy, today, we have National Mission Teams (NMTs) and CMTs with 
fully trained personnel and equipped with sufficient technical 
capabilities needed to conduct their missions particularly against 
threats in the PACOM and CENTCOM areas of responsibility, based on the 
threat. The NMTs and CMTs have very different missions and therefore 
require very different sets of capabilities. As the force build 
continues, the Department will continue to develop capabilities for the 
NMTs, the CMTs, as well as the Cyber Protection Teams, since defending 
our networks is our top priority.
    Question. Who would you say is responsible for developing cyber 
capabilities to support joint task forces and lower echelons?
    Answer. Just as they man, train and equip for the combatant 
commanders in other domains, the Services will continue to be 
responsible for equipping CYBERCOM and the Combatant Commanders with 
cyber capabilities to conduct their missions.
    Question. Is it your view that CYBERCOM forces would control all 
cyber operations regardless of target type and battlefield situation, 
including where cyber and traditional electronic warfare are 
intertwined?
    Answer. I expect that control and employment of cyber operations 
will be in accordance with a model that will enable effective control 
and synchronization of cyberspace operations while balancing regional 
and global priorities. In regional situations where a combatant command 
is in the lead, CYBERCOM will provide direct support to ensure its 
cyber capabilities mesh with the supported command's operations. In a 
global situation, STRATCOM will be the supported command and, as 
STRATCOM's operational lead for cyber, CYBERCOM will direct the 
operations of regional units to ensure they are in synch with global 
priorities.
                   development of cyber capabilities
    Question. CYBERCOM has depended heavily to date on NSA for 
technology, equipment, capabilities, concepts of operations, and 
tactics, techniques, and procedures.
    Are you satisfied that DOD is organized and resourced to provide a 
broad base of innovation and capability development in the cyber domain 
that includes the military service's research and development 
organizations, defense agencies such as the Defense Advanced Research 
Projects Agency, and the private sector?
    Answer. While the Department has made much progress, more work 
certainly remains to ensure that DOD is organized and resourced to 
provide military-specific capabilities for the Cyber Mission Force. 
Combined, the Services and their dedicated research and development 
labs, Defense Advanced Research Projects Agency, federally-funded 
research and development centers, the defense industrial base, and the 
private sector all contribute greatly to providing real, viable cyber 
capability to the DOD. As the build of the Cyber Mission Force 
continues, CYBERCOM will continue to leverage the expertise of these 
organizations to build diverse capability to enable full-spectrum 
military operations.
    In October 2013, the Department made a series of decisions to 
enforce a process to ensure there is no redundancy of effort, and that 
several DOD entities can use the same capability multiple times when 
possible to get more return on investment.
                            cyber personnel
    Question. The Military Services have already provided thousands of 
servicemembers to man cyber mission units assigned to CYBERCOM. These 
personnel are going through training provided by the NSA. CYBERCOM, 
working with the Services, NSA, and others, has developed position 
descriptions, roles, and skills, and training programs. Over the next 
couple of years, the Services will be identifying thousands more 
positions for additional units before the current force goals are met.
    What direction has DOD given to the military services regarding the 
quality and existing skill levels of the personnel they shall provide 
for the cyber mission forces?
    Answer. The Services have some personnel with existing cyber 
skills. The Department is working to determine and grant, as 
appropriate, training equivalencies for these qualified personnel 
assigned to the cyber mission forces. For future personnel, the 
Services are applying screening criteria to ensure those entering 
training programs have the skills and aptitude to succeed. The Services 
are employing recruiting and retention mechanisms to facilitate the 
build plan for the cyber mission forces, including those specifically 
meeting CYBERCOM's needs.
    Question. So far, does it appear that there is a satisfactory match 
between the skills and aptitudes of the personnel provided by the 
services and the training programs developed by CYBERCOM?
    Answer. This has been a priority for DOD's senior leadership, and 
the subject of recent senior-level decision forums over the past year. 
As a result of guidance from the Deputy Secretary of Defense, each 
Service provided assessments of their ability to meet CYBERCOM training 
requirements, and the Joint Staff has been closely tracking progress 
across the range of readiness categories, including training. There has 
been significant progress by each Service in meeting the training 
goals, but because this is a multi-year effort, we don't expect to see 
full maturation across the Cyber Mission Force until fiscal year 2016.
    Question. What direction has been given to the services regarding 
recruiting goals and priorities for individuals with skills and 
aptitudes relevant to the needs of CYBERCOM?
    Answer. As a result of recent senior DOD decision management 
processes, each Service was given direction to prioritize the 
establishment of personnel management mechanisms to identify, recruit, 
retain, and provide incentivized career advancement paths for both 
military and civilian personnel with the type of high-end, advanced 
operational skills that CYBERCOM has identified within the Cyber 
Mission Force. There has been steady progress by each Service toward 
meeting this guidance, and this issue continues to be followed closely 
in monthly reporting by CYBERCOM to the Joint Staff. One of the more 
significant challenges in implementing the guidance has been in the 
civilian workforce, where DOD is looking at options that may require 
the assistance of Congress.
    Question. Has the Department considered delegating personnel 
authorities to CYBERCOM that are similar to those that are exercised by 
U.S. Special Operations Command to ensure that the Services manage the 
careers of their servicemembers with cyber skills appropriately?
    Answer. If confirmed, I would work with Congress, the Military 
Departments, and the Services to examine where the potential delegation 
of personnel authorities might be appropriate for consideration to 
maximize CYBERCOM's mission effectiveness as it evolves.
                relationship with u.s. northern command
    Question. NORTHCOM was established in October 2002 with the mission 
of conducting operations to deter, prevent, and defeat threats and 
aggression aimed at the United States, its territories, and interests 
within the Command's assigned area of responsibility; and, as directed 
by the President or Secretary of Defense, to provide military 
assistance to civil authorities, including consequence management 
operations.
    If confirmed, how do you anticipate you would coordinate roles and 
responsibilities with the Commander of NORTHCOM?
    Answer. If confirmed, I would expect to work closely with the 
Commander of NORTHCOM to support the efforts of the Secretary of 
Defense on the broad array of issues touching on homeland defense, 
Defense Support of Civil Authorities, theater strategy and policy, 
contingency planning, and policy oversight of operations.
    Question. How do you anticipate that the Assistant Secretary of 
Defense for Homeland Defense and the Commander of NORTHCOM will 
coordinate with other Federal and State entities in planning for 
response to catastrophic events that might require Defense Department 
support?
    Answer. If confirmed, I look forward to working closely with the 
Commander of NORTHCOM to ensure that DOD support to Federal and State 
entities in response to catastrophic events, if required, is provided 
in a timely and coordinated fashion. It is my understanding that this 
begins with DOD positioning itself to support civil authorities during 
disaster response activities by building its own resilience against 
cascading failures of critical infrastructure. Moreover, this effort 
continues, through the Secretary's complex catastrophe initiative, to 
ensure that the Department is able to provide its civil support 
capabilities from all components in support of civil authorities, 
making defense support of civil authorities faster and more effective 
when delivering life-saving and life-sustaining requirements.
           partnership with the national guard and the states
    Question. DOD has an important partnership with the National Guard 
because it has both Federal and State responsibilities. The Department 
has worked with the Council of Governors to establish procedures to 
ensure unity of effort between military forces operating in Federal and 
state status, including the creation of ``dual-status commanders.''
    Please summarize your understanding of how this unity of effort is 
maintained through the dual status commander arrangement, so that the 
authorities of the President and Secretary of Defense are preserved for 
Federal military forces, and the authorities of Governors are preserved 
for National Guard Forces acting in a State capacity.
    Answer. As I understand it, a signed memorandum of agreement 
between a Governor and the Secretary of Defense provides the terms, 
responsibilities, and procedures for the use of a dual-status 
commander, including the procedures for preserving the separate and 
mutually exclusive Federal and State chains of command. These 
procedures are tested in annual exercises and used in real-world 
operations such as the response to Super Storm Sandy in 2012.
          national guard and reserve role in homeland defense
    Question. The ASD for Homeland Defense has policy responsibility 
for the participation of National Guard units or personnel in Homeland 
defense activities, when the Secretary of Defense determines that such 
participation is necessary and appropriate.
    What role do you believe the National Guard and Reserves should 
have in Homeland defense, and how does their role relate to the role of 
the Active component?
    Answer. I believe that Homeland defense is viewed as a Total Force 
Mission. The role of the National Guard and non-National Guard Reserve 
Forces is to integrate with Active component forces seamlessly to 
accomplish U.S. objectives. National Guard and non-National Guard 
Reserve units are organized, trained, and equipped to succeed in 
accomplishing assigned missions.
    Question. What role do you believe the National Guard and Reserves 
should have in providing civil support assistance to other Federal 
agencies, and how does their role relate to the role of the Active 
component?
    Answer. Civil Support--or ``Defense Support of Civil Authorities'' 
as DOD terms it--is a Total Force responsibility. All of the 
appropriate resources of the Department, including those of the various 
Defense Agencies, are integrated in support of other Federal 
departments and agencies for specific missions. With the recent 
authority provided in the NDAA for Fiscal Year 2012, non-National Guard 
Reserve Forces may now be activated to provide assistance to respond to 
Federal requests during responses to major disasters and emergencies.
  use of active duty and reserve personnel for homeland defense/posse 
                               comitatus
    Question. What is your understanding of the legal issues and 
authority associated with using National Guard and Reserve personnel in 
security roles within the United States?
    Answer. Under the authority of State Governors, in State Active 
Duty status or duty status under title 32, the National Guard is not 
subject to the restrictions imposed by the Posse Comitatus Act. 
However, when ordered to Active Duty, National Guard and non-National 
Guard Reserve Forces are subject to the restrictions imposed by the 
Posse Comitatus Act and DOD policy.
    The National Guard, as a State militia, under the command and 
control of respective Governors and Adjutants Generals, may be used for 
any security role authorized under State law. When the Reserve 
components (including the National Guard) are mobilized under title 10, 
and placed under Federal command and control, they are subject to the 
same restrictions as other Federal military forces.
    Question. In your opinion, does the Posse Comitatus Act (title 18 
U.S.C. Sec. 1385) or chapter 18 of title 10, U.S.C. (which regulates 
the use of the Armed Forces in support of civilian law enforcement and 
related activities) require amendment to deal with the present homeland 
security situation?
    Answer. No. I believe that current laws and policies governing 
DOD's role in support to civilian law enforcement-related activities 
are sufficient.
    Question. Under what circumstances do you believe that it is 
appropriate for DOD to provide assistance to law enforcement 
authorities in response to a domestic terrorist event? What about a 
non-terrorist event?
    Answer. As I understand it (under title 18, U.S.C., section 831), 
the U.S. Attorney General may request that the Secretary of Defense 
provide emergency assistance if an emergency situation exists in which 
civilian law enforcement personnel are not capable of enforcing the law 
to address certain types of threats involving nuclear materials, such 
as potential use of a nuclear or radiological weapon. This could be for 
either a domestic terrorist event or a non-terrorist event.
    The Department does provide non-direct support to civilian law 
enforcement on a routine basis. As an example, DOD provides subject 
matter experts in the area of explosive ordnance disposal to detect 
and, if necessary, render safe an improvised explosive device that is 
of military origin. Further, DOD can provide logistics and training 
assistance to civilian law enforcement authorities.
    In response to a domestic terrorist event, I believe it is 
appropriate to provide DOD assistance to law enforcement authorities 
under existing authorities when requested by the U.S. Attorney General 
or directed by the President of the United States.
    For non-terrorist events, DOD does provide assistance to law 
enforcement authorities, consistent with the Posse Comitatus Act and 
other restrictions, to save human lives, mitigate human suffering, and 
prevent wide-spread property damage.
    Question. If confirmed, what role do you expect to play in making 
such determinations and making such assistance available?
    Answer. If confirmed, I would be the principal civilian advisor to 
the Secretary of Defense under the USD(P) on all matters related to 
Defense Support of Civilian Authorities. I expect that this would 
include support to civilian law enforcement agencies by DOD where 
appropriate. If confirmed, I would work with others in the Office of 
the Secretary of Defense, the Joint Staff, and heads of the DOD 
components and activities to facilitate informed decision-making by the 
Secretary of Defense.
             policy to counter weapons of mass destruction
    Question. The plan to reorganize the Office of the USD(P) envisions 
the ASD for Homeland Defense having primary policy and oversight 
responsibility for countering WMD, meaning nuclear, biological, and 
chemical weapons. This would be a new responsibility for the ASD for 
Homeland Defense.
    Please describe your understanding of the programs and activities 
to counter WMD for which the ASD for Homeland Defense would have policy 
responsibility.
    Answer. I understand that, in the future, the Assistant Secretary 
of Defense for Homeland Defense will be responsible for developing 
strategies and policies, and overseeing the execution of approved 
policies and programs, including chemical, biological, radiological, 
and nuclear (CBRN) defense; WMD and missile-related proliferation; and 
Cooperative Threat Reduction (CTR) program activities.
    Question. What do you believe are the principal challenges in 
countering WMD and, if confirmed, what would be your priorities for DOD 
policy for countering WMD?
    Answer. Preventing the proliferation or use of WMD by either state 
or terrorist actors is our principal challenge. The ability to respond 
to and mitigate WMD attacks remains essential, but our homeland, 
citizens, and interests are best protected by ensuring that these 
threats never fully materialize. I believe that by reducing incentives 
to proliferation, increasing the barriers to acquisition and use, and 
denying the effects of current and emerging WMD threats we can better 
protect our citizens and interests at home and abroad. If confirmed, I 
would prioritize DOD's efforts in these areas.
    Question. If confirmed, what role do you expect to play in the 
creation of policy for, and oversight of, Defense Department programs 
to counter WMD, and how would you ensure effective policy coordination 
of the various DOD actors and programs to counter WMD?
    Answer. If confirmed, my office would play a lead role in 
developing policies to prevent and counter WMD threats to our interests 
and citizens at home and abroad. This includes guiding Defense 
Department efforts to protect and defend our forces from such threats, 
bolstering the capabilities of allies and partners to deal with these 
challenges, ensuring appropriate support to civil authorities should 
these weapons threaten us at home, and developing the strategies, 
plans, and capabilities for DOD to prevent and mitigate these risks 
overseas. Countering WMD is a whole-of-government effort, and, if 
confirmed, I expect to partner with DOD, interagency, and international 
partners to ensure that appropriate policy and oversight are in place 
to reduce these threats and protect our interests.
                  cooperative threat reduction program
    Question. If confirmed, what will your role be in implementing and 
overseeing the CTR Program?
    Answer. If confirmed, I would continue the role currently performed 
by the ASD for Global Security Affairs as that responsibility migrates 
to the Office of the Assistant Secretary of Defense for Homeland 
Defense. I would provide policy guidance to the director of the Defense 
Threat Reduction Agency for implementing the CTR Program and continue 
to coordinate with the ASD(NCB) on program implementation issues.
    Question. If confirmed, what changes, if any, would you recommend 
to the CTR program, including changes in legislative authorities, 
programs, or funding?
    Answer. My understanding is that the DOD CTR Program has had, for 
the most part, the authorities, programs, and funding needed to address 
emerging WMD threats appropriately. Most of the DOD CTR legislation has 
existed for about 20 years, and therefore, if confirmed, I would work 
with interagency partners and Congress to review the existing 
legislation to see if it requires updating.
    Question. How do you envision the evolution of the program as it 
transitions away from Russia to countries outside the former Soviet 
Union?
    Answer. WMD threats are global, and I envision that the CTR Program 
will continue to evolve to meet those threats. I understand that the 
CTR Program is focused on countering WMD terrorism threats. If 
confirmed, I would work to ensure that CTR is well-positioned to 
continue to address those threats while also responding to unique 
challenges such as those posed by chemical weapons stockpiles in Libya 
and Syria, in cooperation with U.S. Government and international 
partners.
                    chemical and biological defense
    Question. One of the issue areas that will be placed under the 
Assistant Secretary of Defense for Homeland Defense is the Chemical and 
Biological Defense Program of the Defense Department.
    What do you believe are the principal challenges in chemical and 
biological defense, and what would be your priorities for the DOD 
Chemical and Biological Defense Program?
    Answer. As part of the Department's overall effort to counter WMD, 
the Office of the ASD/NCB manages the Chemical and Biological Defense 
(CBD) Program. I understand that the ASD for Homeland Defense would be 
responsible for development of policies to guide the program and would 
work to ensure close coordination between our offices. If confirmed, I 
would work to ensure that, given the constrained fiscal environment, 
the Department prioritizes capabilities that counter operationally 
significant risks, taking into consideration potential contributions 
from other partners in the U.S. Government or the international 
community.
    Question. Do you believe the Chemical and Biological Defense 
Program should be closely coordinated with related efforts of the 
Defense Department's CTR program focused on reducing biological 
threats?
    Answer. The President has highlighted the importance of countering 
biological threats, and my understanding is that both the CBD and CTR 
Programs strongly support this priority. I agree with these priorities, 
and if confirmed, would work to ensure awareness of and close 
coordination between the two Programs.
    Question. Do you believe the Chemical and Biological Defense 
Program should be coordinated closely with the Department of Health and 
Human Services in their respective development of medical 
countermeasures against chemical, biological, and radiological hazards?
    Answer. Yes, I believe that close coordination of the Department 
and HHS medical countermeasure efforts is required. I understand that 
both Departments are currently working together to ensure respective 
medical countermeasure efforts are transparent and mutually supportive, 
and if confirmed, I would continue this close coordination.
                       chemical demilitarization
    Question. DOD Directive 5160.05E states the DOD policy that ``the 
Department of Defense shall be in full compliance'' with the Chemical 
Weapons Convention (CWC) and the Biological Warfare Convention (BWC). 
In 2006, the Department announced that the United States would not meet 
even the extended deadline of April 2012 for destruction of its 
chemical weapons stockpile, as required under the CWC, and the United 
States does not expect to complete destruction until after 2020.
    Do you agree that DOD and the U.S. Government should be in full 
compliance with the terms and obligations of the CWC and the BWC, 
including the deadline for destruction of the U.S. chemical weapons 
stockpile under the CWC?
    Answer. I understand that in 2006 the United States informed the 
Organization for the Prohibition of Chemical Weapons (OPCW) that it did 
not expect to meet the 2012 CWC deadline for complete destruction of 
the U.S. chemical weapons stockpile. Since then, the United States has 
continued to follow a policy of transparency about the U.S. chemical 
weapons destruction program and has stressed U.S. efforts to complete 
chemical weapons destruction as safely and quickly as practicable. If 
confirmed, I would continue to support a policy of transparency and 
would support continued efforts to destroy the remainder of the U.S. 
chemical weapons stockpile as safely and quickly as practicable.
    Question. If confirmed, will you work to ensure that the Department 
takes steps needed to minimize the time to complete destruction of the 
U.S. chemical weapons stockpile, without sacrificing safety or 
security, and that the Department requests the resources necessary to 
complete destruction as close to the deadline as practicable?
    Answer. The Office of the USD(AT&L) and the Department of the Army 
continue to focus significant senior leadership attention on completing 
destruction of the U.S. chemical weapons stockpile as safely and 
quickly and practicable. If confirmed, I would work closely with these 
offices to ensure continued focus on meeting this objective.
                   proliferation security initiative
    Question. The Proliferation Security Initiative (PSI) is an 
international effort to identify and interdict WMD and related 
materials.
    If confirmed, would you recommend that the PSI program continue 
and, if so, do you believe that it should be modified in any way?
    Answer. I support the PSI and, if confirmed, would work to 
implement President Obama's call to make PSI a more durable effort. PSI 
has led the way in building international consensus on the importance 
of countering proliferation-related shipments. I believe that PSI sends 
a strong deterrent message to proliferators, strengthens 
nonproliferation engagement with partners, and builds partner capacity 
to interdict illicit WMD-related shipments.
                          defense space policy
    Question. The plan to reorganize the Office of the USD(P) envisions 
the ASD for Homeland Defense having primary responsibility for DOD 
Space policy. This would be a new responsibility for the ASD for 
Homeland Defense.
    Please describe your understanding of the space policy 
responsibilities intended for the ASD for Homeland Defense, and how 
those responsibilities would relate to cyber security policy 
responsibilities.
    Answer. As I understand it, under the plan to reorganize the Office 
of the USD(P), the Space Policy functions will be overseen by a DASD 
responsible for Space and Cyberspace, who will report to the Assistant 
Secretary of Defense for Homeland Defense. In my previous experience as 
the DASD for Cyber Policy, I worked closely with the DASD for Space 
Policy and we reported to the same Assistant Secretary, so the 
reorganization would maintain the close alignment between these two 
offices. These days, cyber and space policy face similar challenges. If 
confirmed, I would continue the close collaboration between these two 
critical areas. I would also participate actively in the development 
and oversight of space policy and strategy for the Department, in the 
DOD space-related decisionmaking processes, and in the DOD PPBE 
processes to ensure space system architectures support our national 
security objectives effectively.
    Question. If confirmed, what would be your priorities for DOD 
policy for space, and how would you ensure effective execution of DOD 
space policy?
    Answer. If confirmed, I would place priority on U.S. space control 
capability and on increasing national security space resiliency against 
growing threats to space-based architectures. Both Presidential and DOD 
guidance directs the Department to retain counter-space capabilities to 
address the growing space capabilities of potential adversaries, 
including anti-satellite capabilities. Through partnerships with 
commercial suppliers, collaboration with international partners, and 
changes in our own architectures and operational tactics, we can 
improve the resiliency of our systems and strengthen strategic 
stability in space.
    Question. If confirmed, what role will you play in establishing 
architectures for various space systems, such as those for 
communications and overhead persistent infrared?
    Answer. If confirmed, I would participate actively in the 
development of space architectures and the PPBE processes of the 
Department to ensure space system architectures support our national 
security objectives effectively, including our National Security Space 
Strategy.
    Question. If confirmed, what role will you play in developing a 
space protection strategy, and working with STRATCOM to implement that 
strategy, such as improving space situational awareness?
    Answer. If confirmed, I would work closely with the Commander, 
STRATCOM, to ensure appropriate and effective strategies are in place 
to increase our space situational awareness and to ensure that critical 
space capabilities are resilient and redundant, in order to maintain 
the advantages provided by these capabilities. I believe that 
continually improving space situational awareness underpins our ability 
to operate safely in the increasingly congested and contested space 
environment and enables the protection of our space assets. In 
addition, if confirmed, I would look to partner with the Space Security 
and Defense Program and the efforts they have been undertaking to 
develop a space protection strategy.
    Question. Over the course of the last several years there has been 
discussion about establishing international space rules of the road to 
deal with, mitigate, and reduce the generation of space debris.
    What are your views on establishing space rules of the road?
    Answer. Establishing non-legally binding norms for the responsible, 
peaceful, and safe use of space and preservation of the space 
environment is an important issue for all space-faring nations. 
Pragmatic guidelines, or rules of the road, could help avoid collisions 
and other debris-generating events, reduce radiofrequency interference, 
and strengthen safety, stability, sustainability, transparency, and 
security in the space domain. If confirmed, I would work to ensure that 
development of international norms strengthens safety and 
sustainability in space, consistent with U.S. national security 
interests.
                          space posture review
    Question. If confirmed, what role will you play in overseeing and 
implementing the policies, strategies, and priorities established in 
the Space Posture Review?
    Answer. If confirmed, I would support the USD(P) and the Secretary 
as they continue to implement the President's 2010 National Space 
Policy and the National Security Space Strategy, which included the 
Space Posture Review. I would help to develop and oversee 
implementation of DOD's space-related policies, and oversee 
implementation of strategy and plans related to space forces, systems, 
and activities in close coordination with other DOD officials, 
including by serving on the Defense Space Council.
                    terrorist threat to the homeland
    Question. In your view, what is the extent of the current threat to 
the Homeland of terrorist extremists both from outside the United 
States and from within the United States?
    Answer. Based on my understanding of intelligence community 
judgments, there is no question that al Qaeda, its associates, 
affiliates, and adherents continue to maintain the intent to strike the 
United States, posing a persistent threat to the homeland. A relatively 
new phenomenon is the growth of homegrown violent extremists (HVE) who 
are motivated by al Qaeda ideology to conduct attacks in the homeland. 
The intelligence community assesses judges that the number one target 
of HVEs is DOD installations and facilities. Al Qaeda, its associates, 
affiliates, and adherents continue to produce English-language 
propaganda that inspires and encourages violent attacks, highlighting 
al Qaeda's de-centralized nature since there is no direct command and 
control over the plotting or conduct of this type of attack.
    Question. How would you broadly characterize that threat--low, 
medium, or high?
    Answer. I would characterize the threat as persistent. There are 
threat streams that at the time of receiving them run the range of 
threat from low to high. Al Qaeda, its associates, affiliates, and 
adherents publicly express and maintain the intent to attack the 
homeland, and they are constantly seeking the best capability to do so. 
If confirmed, I look forward to working closely with the Intelligence 
Community to help to prevent an attack against the United States.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information in a timely manner.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes. If confirmed, I would appear before the congressional 
defense committees or other appropriate committees on matters under the 
purview of the Assistant Secretary of Defense for Homeland Defense.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Homeland Defense?
    Answer. Yes. If confirmed, I would appear and provide information 
to this committee, or its designated membership, on matters under the 
purview of the Assistant Secretary of Defense for Homeland Defense.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes. If confirmed, I agree to provide information to this 
committee and its staff on matters under the purview of the Assistant 
Secretary of Defense for Homeland Defense.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes. If confirmed, I would provide documents subject to 
appropriate and necessary security protection.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kay R. Hagan
                 modular airborne fire fighting system
    1. Senator Hagan. Mr. Rosenbach, I'm told by the North Carolina 
National Guard that the Deputy Assistant Secretary of Defense for 
Homeland Defense Integration and Defense Support of Civil Authorities, 
with the consent of the acting Assistant Secretary of Defense for 
Homeland Defense, has been trying for several years to change the 
authority under which the mission is conducted from its historic title 
32 of the U.S. Code, to title 10 of the U.S. Code.
    I asked the North Carolina National Guard about this. They tell me 
the mission as it has operated since its beginnings is not broken and 
does not require a fix. Further, they tell me title 32 affords them 
flexibility to quickly respond to a fire emergency, provides the 
maximum amount of benefits for their servicemembers and that all of the 
Modular Airborne Fire Fighting System (MAFFS) State National Guard 
commands--North Carolina, Wyoming, and California--along with the 
National Guard Bureau and even the U.S. Air Force, oppose this move and 
said as much following a study of the issue last year. If confirmed, 
would you continue to push this agenda over the objections of the 
States, the National Guard Bureau, and the others who have studied the 
issue?
    Mr. Rosenbach. I am not very familiar with this issue, but, if 
confirmed, I would examine it fully with the States, the National Guard 
Bureau, the U.S. Air Force and Air Force Reserve, and others who have 
studied the issue. Further, I would work to ensure that MAFFS units 
have the maximum flexibility when responding to wildfires and saving 
U.S. lives and property. I can assure you that DOD support to wildland 
firefighting efforts would be one of my top priorities.

    2. Senator Hagan. Mr. Rosenbach, please tell me how this proposal 
improves America's ability to fight wildfires or save American lives 
and property.
    Mr. Rosenbach. Please see answer #1 above.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                             cyber security
    3. Senator Gillibrand. Mr. Rosenbach, you currently serve as the 
Deputy Assistant Secretary of Defense for Cyber Policy, giving you a 
unique perspective on the cyber debate. What do you think are our two 
most important cyber needs for the next 5 years?
    Mr. Rosenbach. In my opinion, there are three cyber needs for the 
next 5 years that are most important to address: (1) for organizations 
across the U.S. Government and the private sector to invest in 
information systems that are more resilient, more difficult to attack, 
and easier to defend; (2) for the United States and its allies and 
partners to counter the proliferation of destructive malware; and (3) 
for Congress to pass legislation that will enhance information sharing 
between the U.S. Government and the private sector, among companies 
within the private sector, and between the private sector and the 
Government.
    On the first point, U.S. companies and Government organizations 
have under-prioritized cybersecurity and network resilience in their 
business plans and investments. This leaves the Nation at risk. 
Although the trend has begun to change, over the next 5 years companies 
and organizations across the country, including the Department of 
Defense (DOD), need to increase their cybersecurity and resiliency 
investments significantly to mitigate the risk of intrusion and to 
recover from an operational disruption if a successful attack occurs.
    On the second point, there is little international understanding 
regarding how to counter the proliferation of malware. Given the easily 
transferable nature of malicious computer code, I am concerned that 
destructive malware can easily be sold to dangerous actors. Working 
with our allies and partners, the United States should explore methods 
for keeping cyber weapons out of the wrong hands. Congress and the 
executive branch have both recognized this as an issue, and it is 
something that I am very focused on addressing.
    On the last point, in the event of a cyber attack, the U.S. 
Government and the private sector must share situational awareness of 
the threat, and must be able to share information about the incident as 
quickly as possible. Threats in cyberspace emerge and spread rapidly, 
so more needs to be done to help companies and the government share 
information about specific threats in a timely manner.

    4. Senator Gillibrand. Mr. Rosenbach, if confirmed, how will you 
incorporate cyber forces, especially in the National Guard, into our 
Homeland defense strategy?
    Mr. Rosenbach. The Department is currently undertaking a mission 
analysis to identify appropriate roles and missions for the National 
Guard and Reserve components in supporting DOD's cyber missions. In the 
Active component, we are developing National Mission Teams whose sole 
focus will be defending the U.S. Homeland from catastrophic cyber 
attacks. In addition, DOD, in partnership with the Department of 
Homeland Security, the Council of Governors, and the States, is 
developing an action plan for developing deeper ties to improve 
cybersecurity. I am confident that through these processes, as well as 
through U.S. Cyber Command's Cyber Guard exercises, the Department will 
develop a path to integrate cyber forces into our Homeland defense 
strategy.

    5. Senator Gillibrand. Mr. Rosenbach, in your advance policy 
questions you said if confirmed, you would ``devote special attention 
to the challenge of building the cyberspace workforce . . . '' In your 
opinion, what are the challenges of building the cyberspace workforce?
    Mr. Rosenbach. I believe that a primary challenge to building the 
cyberspace workforce is retaining highly-skilled personnel. Last fall, 
the Deputy Secretary of Defense tasked the Military Departments and 
Services to create a plan to retain their most highly-skilled enlisted 
and officer forces. Each Service accounted for ways to incentivize 
these highly skilled individuals not only to stay in the Service, but 
to stay specifically in a cyber-focused career field. However, I 
believe this will continue to be an area to improve upon as the 
Department continues to build the Cyber Mission Force. If confirmed, I 
would work with the Military Departments and Services and other 
organizations throughout DOD to ensure that we recruit and retain a 
world-class civilian cyberspace workforce just as we recruit and retain 
well-qualified military personnel.

    6. Senator Gillibrand. Mr. Rosenbach, what can Congress do to 
assist with building that workforce?
    Mr. Rosenbach. As we continue to grow our cyberspace cadre within 
the Department, if confirmed, I would work with Congress and the 
Military Departments and Services to identify any unique requirements 
that would warrant establishing alternative mechanisms, or that call 
for need special authorities, for attracting, recruiting, retaining, 
and sustaining a world-class cyberspace workforce.

    7. Senator Gillibrand. Mr. Rosenbach, at some point in the future, 
the position you have been nominated for will include civilian 
oversight of U.S. Cyber Command (CYBERCOM). How do you envision your 
role in this relationship with CYBERCOM?
    Mr. Rosenbach. If confirmed, I see my role as supporting the 
Secretary of Defense and Under Secretary of Defense for Policy in 
executing their statutory authorities for civilian oversight of 
CYBERCOM. In practical terms, I would engage in daily interaction with 
other Department offices, the Joint Staff, and CYBER's leadership to 
continue development of the Cyber Mission Force and associated 
capabilities, to mature processes and procedures for cyber operations, 
and to integrate cyber into joint operations across the Department. If 
confirmed, and if the Secretary of Defense designates the Assistant 
Secretary of Defense for Homeland Defense as the Principal Cyber 
Advisor, I would also develop the cross-functional team called for in 
the National Defense Authorization Act for Fiscal Year 2014 to support 
the Principal Cyber Advisor in streamlining oversight of cyber and to 
ensure we move forward in an integrated and organized fashion to 
support CYBERCOM's missions.
                                 ______
                                 
    [The nomination reference of Mr. Eric Rosenbach follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                   January 7, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Eric Rosenbach of Pennsylvania, to be an Assistant Secretary of 
Defense, vice Paul N. Stockton, resigned.
                                 ______
                                 
    [The biographical sketch of Mr. Eric Rosenbach, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Eric B. Rosenbach
Education:
    Davidson College

        <bullet> 1991-1995
        <bullet> Bachelor of Arts

    Harvard Kennedy School

        <bullet> 2002-2004
        <bullet> Masters Public Policy

    Georgetown University Law School

        <bullet> 2004-2007
        <bullet> Juris Doctorate
Employment record:
    Fulbright Foundation, Sofia, Bulgaria

        <bullet> Fulbright Scholar
        <bullet> 08/1995-08/1996

    U.S. Army, Germany/Bosnia/Kosovo

        <bullet> Intelligence Officer
        <bullet> 09/1996-11/2000

    World Online/Tiscali Telecom, Frankfurt, Germany

        <bullet> Chief Information Security Officer
        <bullet> 11/2000-1/2002

    Booz Allen Hamilton, Washington, DC

        <bullet> Associate Consultant
        <bullet> 02/2002-02/2005

    Senate Select Committee on Intelligence, Washington, DC

        <bullet> Professional Staff Member
        <bullet> 02/2005-08/2007

    Harvard Kennedy School, Belfer Center for International Affairs, 
Cambridge, MA

        <bullet> Executive Director
        <bullet> 08/2007-06/2010

    Markle Foundation, Washington, DC

        <bullet> Managing Director for National Security
        <bullet> 06/2010-05/2011

    Harvard Kennedy School, Cambridge, MA

        <bullet> Adjunct Lecturer
        <bullet> 09/2008-06/2011

    Good Harbor Consulting, Washington, DC

        <bullet> Principal
        <bullet> 05/2011-09/2011

    Department of Defense, Washington, DC

        <bullet> Deputy Assistant Secretary of Defense for Cyber Policy
        <bullet> 09/2011-Present
Honors and awards:
    Military awards:

        <bullet> Meritorious Service Medal, 2000. A military award 
        presented to members of the U.S. Armed Forces who distinguished 
        themselves by outstanding meritorious achievement or service to 
        the United States.
        <bullet> The Knowlton Award, 1999. The Knowlton Award 
        recognizes individuals who have contributed significantly to 
        the promotion of Army Military Intelligence in ways that stand 
        out in the eyes of the recipients, their superiors, 
        subordinates, and peers. These individuals must also 
        demonstrate the highest standards of integrity and moral 
        character, display an outstanding degree of professional 
        competence, and serve the MI Corps with distinction.
        <bullet> Distinguished Military Graduate, 1995. Presented to 
        the most outstanding graduate of the Davidson College ROTC 
        program.

    Federal civilian awards: N/A.
    Academic awards:

        <bullet> Harvard Kennedy School Faculty Advisor of the Year, 
        2009. Presented each year to the faculty member selected by 
        Kennedy School students as the best advisor.
        <bullet> Fulbright Scholar, 1995-1996. The Fulbright U.S. 
        Scholar Program sends distinguished American scholars to 
        approximately 125 countries, where they lecture and/or conduct 
        research in a wide variety of academic fields.

    Other awards: N/A.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Mr. Eric 
Rosenbach in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Eric Brien Rosenbach.

    2. Position to which nominated:
    Assistant Secretary of Defense for Homeland Defense.

    3. Date of nomination:
    January 7, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 23, 1972; Colorado Springs, CO.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cristina Alexandra Lopez-Casero.

    7. Names and ages of children:
    Sophia Marie Rosenbach, 6.
    Maximillian Francisco Rosenbach, 3.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Davidson College, 8/1991-6/1995, BA granted 6/1995.
    Harvard Kennedy School, 9/2002-6/2004, MPP granted 6/2004.
    Georgetown University Law Center, 9/2004-12/2007, JD granted 6/
2008.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Deputy Assistant Secretary of Defense for Cyber Policy, Department 
of Defense, Washington, DC, 9/2011-present.
    Principal, Good Harbor Consulting, Washington, DC, 5/2011-9/2011.
    Adjunct Lecturer, Harvard Kennedy School, Cambridge, MA, 9/2008-6/
2011.
    Managing Director for National Security, Markle Foundation, 
Washington, DC, 6/2010-5/2011.
    Executive Director, Harvard Kennedy School, Belfer Center for 
International Affairs, 8/2007-6/2010.
    Professional Staff, Senate Select Committee on Intelligence, 
Washington, DC, 2/2005-8/2007.
    Associate Consultant, Booz Allen Hamilton, Washington, DC, 1/2002-
2/2005.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    During my time at the Harvard Kennedy School I provided analysis 
for the Joint Staff Pakistan-Afghan Coordination Cell and the Director 
of National Intelligence.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Maryland Bar Association.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $100 - Juliette Kayyem for Governor of Massachusetts, 12/2013.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Fulbright Scholar, 1995-1996. The Fulbright U.S. Scholar Program 
sends distinguished American scholars to approximately 125 countries, 
where they lecture and/or conduct research in a wide variety of 
academic fields.
    The Knowlton Award, 1999. The Knowlton Award recognizes individuals 
who have contributed significantly to the promotion of Army Military 
Intelligence in ways that stand out in the eyes of the recipients, 
their superiors, subordinates, and peers. These individuals must also 
demonstrate the highest standards of integrity and moral character, 
display an outstanding degree of professional competence, and serve the 
MI Corps with distinction.
    Meritorious Service Medal, 2000. A military award presented to 
members of the U.S. Armed Forces who distinguished themselves by 
outstanding meritorious achievement or service to the United States.
    Harvard Kennedy School Faculty Advisor of the Year, 2009.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
Books:
    ``Find, Fix, Finish: Inside the Counterterrorism Campaigns That 
Killed Bin Laden and Devastated Al Qaeda'' Public Affairs Books, 2011.
    ``Military Leadership: In Pursuit of Excellence'' Westview Press, 
2009.
    ``Confrontation or Collaboration? Congress and the Intelligence 
Community'' Harvard Kennedy School, 2009.
    ``Trials By Fire: Counterterrorism and the Law'' Harvard 
University, 2009.
    ``Defeating the Jihadists'' Century Foundation Press, 2004.
Chapters:
    ``Securing Cyberspace: A New Domain for National Security'' Aspen 
Institute Press. 2011.
    ``The New Find-Fix-Finish Doctrine'' Joint Force Quarterly. 2011.
    ``The Incisive Fight: Recommendations for Improving 
Counterterrorism Intelligence'' American Academy of Political Science. 
Volume 618, 2008.
Op-Eds:
    ``Afghan Security for Afghanistan'' The Huffington Post: September 
5, 2009.
    ``Pakistan Smart to Hit Taliban'' Boston Globe: February 21, 2010.
    ``What Maliki's Power Means for U.S.'' The Boston Globe: July 24, 
2009.
    ``China's Cyber Warriors'' Baltimore Sun; July 18, 2008.
    ``Real Intelligence Men Don't Cry'' Washington Post: May 28, 2008.
    ``Rethinking U.S. Foreign Policy'' Globe and Mail: December 7, 
2007.
    ``President Bush Reciting Bin Laden's Script'' The Huffington Post: 
November 2, 2007.
    ``After success in Bosnia, why failure in Iraq? Arrogance in the 
Pentagon'' International Herald Tribune: September 4, 2004.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Event: Andreessen Horowitz, Software Eats DC, Technologies that 
will Change Government; Date: Thursday, May 9, 2013; 12:00-12:30; 
Topic/Description: Over the Horizon Challenges for Cybersecurity
    Event: Georgetown International Engagement on Cyber; Date: April 
10, 2013; Georgetown University; Topic/Description: Current 
International Cyber Affairs: Conflict or Consensus?
    Event: AFCEA Cybersecurity Symposium 2013; Date: February 22, 2013; 
09:00-09:35; Topic/Description: Combating the Proliferation of 
Destructive Malware
    Event: FEDcyber.com Cyber Security Summit; Date: Nov 15, 2012, 
08:10-09:00; Topic/Description: Addressing Cyber Workforce Challenges 
for a New Domain of Conflict
    Event: SINET Workshop; Date: Thursday, October 25, 2012; 11:10-
12:00; Topic/Description: ``DOD, DHS, and the Private Sector: Defining 
Roles and Responsibilities and Improving Information Sharing''.
    Event: Keynote at Minerva Project Conference; Date: September 13, 
2012, 11:15-12:00; Topic/Description: ``Theories of Power and 
Deterrence''.
    Event: Panelist Discussion at RSA Conference; Date: February 2012; 
Topic/Description: The Roles and Responsibilities of Government in 
Cybersecurity.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Eric Rosenbach.
    This 17th day of January, 2014.

    [The nomination of Mr. Eric Rosenbach was reported to the 
Senate by Chairman Levin on March 26, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 18, 2014.]

 
NOMINATIONS OF GEN. PAUL J. SELVA, USAF, FOR REAPPOINTMENT TO THE GRADE 
 OF GENERAL AND TO BE COMMANDER, U.S. TRANSPORTATION COMMAND; AND VADM 
 MICHAEL S. ROGERS, USN, TO BE ADMIRAL AND DIRECTOR, NATIONAL SECURITY 
 AGENCY/CHIEF, CENTRAL SECURITY SERVICES/COMMANDER, U.S. CYBER COMMAND

                              ----------                              


                        TUESDAY, MARCH 11, 2014

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Udall, 
Manchin, Blumenthal, Donnelly, Kaine, King, Inhofe, McCain, 
Chambliss, Wicker, Ayotte, Graham, Vitter, Lee, and Cruz.
    Other Senator present: Senator Kirk.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nomination of General Paul Selva to 
be Commander of the U.S. Transportation Command (TRANSCOM); 
Admiral Michael Rogers to be Commander, U.S. Cyber Command 
(CYBERCOM), Director of the National Security Agency (NSA), and 
Director of the Central Security Service.
    We welcome our nominees. We thank you for your many years 
of service and for your willingness to continue to serve in 
positions of great responsibility, and of course we thank your 
families, who give up so much to enable you to serve.
    TRANSCOM, which encompasses the Air Force's Mobility 
Command, the Navy's Military Sealift Command, the Army's 
Surface Deployment and Distribution Command, is the linchpin of 
our strategic mobility. TRANSCOM has played a crucial role in 
supplying our operations in Iraq and Afghanistan. It has also 
taken the lead in bringing troops and equipment home from 
Afghanistan.
    We'd be interested in the nominee's views on how long we 
can wait for a bilateral security agreement to be signed by 
President Karzai or his successor and still meet the December 
31, 2014, deadline for removing all of our people and equipment 
from Afghanistan in the event--and I emphasize--in the event we 
end up without an agreement.
    Like other elements of the Department of Defense (DOD), 
TRANSCOM suffers from constant threats from cyber intrusions. 
Because of the command's reliance on the commercial sector to 
supplement its transportation capacity, it must be sensitive 
not only to the vulnerability of its own computer systems, but 
also to the vulnerability of the private companies that it 
relies on to mobilize, transport, and resupply our troops.
    Our committee will soon release a report on cyber 
intrusions affecting TRANSCOM contractors and the extent to 
which information about such intrusion reaches TRANSCOM and 
other key entities within DOD. That's an issue which touches 
both of the nominees' prospective commands. We welcome your 
thoughts on dealing with this ongoing problem.
    Last month, we heard testimony from General Alexander, the 
current CYBERCOM Commander, regarding a number of pressing 
issues currently facing the command. We look forward to hearing 
Admiral Rogers' views on many of the same issues, including the 
qualifications of the personnel that the Military Services are 
making available for their new cyber units, the tools and data 
sources these forces will have to work with, the ability of the 
Military Services to manage the careers of their growing cadre 
of cyber specialists, and the steps that should be taken to 
ensure that the Reserve components are effectively integrated 
into the cyber mission.
    The committee will also be interested in Admiral Rogers' 
views on the collection of bulk telephone call records, the 
collection of the contents of Internet communications, and 
other NSA programs that have raised public concerns about 
threats to privacy and to civil liberties. For example, 
Admiral, we would like to know your reaction to the recent 
statement of the Privacy and Civil Liberties Oversight Board 
with respect to the section 215 telephone call record program 
that they have not, and this is the board saying this, that 
they have not, ``identified a single instance involving a 
threat to the United States in which the program made a 
concrete difference in the outcome of a counterterrorism 
investigation.''
    We'd be interested in knowing what steps, Admiral, you 
would take if confirmed to assess the continuing value of this 
program and to weigh that value against its potential impact on 
privacy and civil liberties. Do you support the President's 
recent directive to modify the program so that bulk records are 
no longer held by the Government, while ensuring that these 
records can be accessed when necessary? What is your view on 
the threshold or standard that the Government should be 
required to meet to search through such data? Admiral Rogers 
will play a key role in providing advice on these and other 
issues.
    Thanks again to both of our nominees for being here today, 
for your service to the Nation over many, many years, and your 
willingness to continue that service.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Two weeks ago I expressed to General Alexander my support 
for the progress under way at CYBERCOM to normalize cyber 
planning and capabilities. Despite these critical strides, the 
lack of a cyber-deterrence policy and the failure to establish 
meaningful norms that punish bad behavior have left us more 
vulnerable to continued cyber aggression. In particular, I'm 
deeply concerned about the two well-publicized events by Iran 
that involved an enduring campaign of cyber-attacks on U.S. 
banks and the financial sector and another involving the 
exploitation of a critical Navy network.
    The administration's failure to acknowledge or establish 
penalties for these actions emboldens countries like North 
Korea, Russia, China, and places American infrastructure such 
as the power grid or Wall Street at greater risk. The 
President's going to have to get serious and develop a 
meaningful cyber deterrence policy.
    General Selva, TRANSCOM provides the lifeline for every 
other combatant command by enabling them to execute a wide 
array of missions from combat operations to humanitarian 
relief, from training exercises to supporting coalition 
partners. I'm interested in your assessment of the readiness of 
TRANSCOM and its components, including the viability of the 
commercial sector to support TRANSCOM missions. I'm also 
interested in your assessment of TRANSCOM's ability to meet 
U.S. Central Command (CENTCOM) and International Security 
Assistance Force (ISAF) requirements.
    General Fraser testified last year that the number of 
cyber-attacks against TRANSCOM had doubled from 45,000 in 2011 
to nearly 100,000 in 2012. The committee has been investigating 
these incidents and it appears that there are a number of 
factors that should be addressed to ensure that TRANSCOM has 
the information necessary from its many contractors to defend 
its networks and protect mission-critical data.
    I look forward to hearing from our nominees on how they 
intend to work together to ensure that these issues are 
corrected and TRANSCOM's classified and unclassified networks 
are secured. It's something that not many people know about, 
but I don't draw a distinction between a cyber-attack and a 
military attack in places. We'll have a chance to talk about 
that during the questioning.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    We're delighted to have Senator Kirk with us this morning 
to introduce one of our nominees. It's great to have you with 
this committee and to call on you now for your introduction.

  STATEMENT OF HON. MARK KIRK, U.S. SENATOR FROM THE STATE OF 
                            ILLINOIS

    Senator Kirk. Thank you, Mr. Chairman. Mr. Chairman, I'm 
here to introduce Mike Rogers to the committee. I have known 
Mike Rogers for almost 40 years. We were in the same home room 
in high school together. I had the honor to work for Mike as a 
reservist when he was the head of intel for the Joint Chiefs of 
Staff.
    I would say that you cannot pick a better guy, an officer 
who has a stronger work ethic or detail orientation, than Mike. 
I wanted to say that being a Republican, I have not supported a 
lot of the nominees of the President. I would say that this is 
the best American you could have picked for this job.
    That would conclude my statement.
    Chairman Levin. Thank you so much for that wonderful 
introduction.
    The first question we're going to ask Admiral Rogers is 
what did he know about you in home room. He's going to tell us 
some secrets that you have now unleashed on yourself, I think.
    Thank you for being with us, Senator Kirk.
    All right. We'll call on, I think in order of their being 
listed, General Selva. Of course, Senator Kirk, you're free to 
stay or leave because we know you have a tough schedule. 
General Selva.

STATEMENT OF GEN. PAUL J. SELVA, USAF, FOR REAPPOINTMENT TO THE 
   GRADE OF GENERAL AND TO BE COMMANDER, U.S. TRANSPORTATION 
                            COMMAND

    General Selva. Chairman Levin, Senator Inhofe, 
distinguished members of the Senate Armed Services Committee, 
it's a great honor to appear before you today as the 
President's nominee to be the Commander of U.S. Transportation 
Command. First I want to thank the members of this committee 
for their steadfast support of the airmen in Air Mobility 
Command, who throughout the last decade have literally moved 
mountains to support our soldiers, sailors, airmen, and marines 
in Iraq and Afghanistan. It's because of your continued support 
that they've been able to provide the global reach that's so 
important to this great Nation.
    If confirmed, I look forward to working with you and other 
relevant committees to navigate the challenges of leading the 
men and women of TRANSCOM.
    I'm proud today to introduce you to my wife Ricky, who's 
seated right behind me, who has served with me and by my side 
for our 34 years of marriage, since our graduation as 
classmates from the U.S. Air Force Academy. She served in 
uniform for 9 years and gives generously of her time now to 
support the amazing airmen and their families that are part of 
Air Mobility Command. She is the love of my life and, apart 
from my mother, is one of the very few people that can give me 
the unabashed feedback I need when I step away from centerline.
    It's also a privilege to be here today with a friend and 
colleague, Admiral Mike Rogers, with whom I have served on the 
Joint Staff, and I can think of no better person to serve in 
the capacity for which he has been nominated.
    If confirmed, I look forward to working with the soldiers, 
sailors, airmen, and marines of TRANSCOM, Active, Guard, 
Reserve, and their civilian counterparts, as well as the vast 
network of commercial partners that provide the distribution 
and logistics networks that make our Nation successful.
    I appreciate the trust and confidence that the President, 
Secretary of Defense, and General Dempsey have put in me in 
considering me for this position. I'm grateful for the 
opportunity to be before you here today and I look forward to 
your questions. Thank you, Mr. Chairman.
    Chairman Levin. General, thank you so much. Again, I'm glad 
you introduced your family. I should have indicated that you're 
both welcome to introduce family and anyone else who's here to 
support you. We're delighted you did that.
    Admiral.

  STATEMENT OF VADM MICHAEL S. ROGERS, USN, TO BE ADMIRAL AND 
  DIRECTOR, NATIONAL SECURITY AGENCY; CHIEF, CENTRAL SECURITY 
          SERVICES; AND COMMANDER, U.S. CYBER COMMAND

    Admiral Rogers. Chairman Levin, Ranking Member Inhofe, and 
distinguished members of the committee, thank you for the 
opportunity to appear before you today. I am honored and 
humbled that the President has nominated me for duty as 
Commander, U.S. Cyber Command, and designated me as the next 
Director of the National Security Agency. I also thank 
Secretary of Defense Hagel and Chairman of the Joint Chiefs of 
Staff General Dempsey for their confidence in my ability to 
assume these significant duties.
    I'm joined today by my wife, Dana. One evening 30 years 
ago, in fact here in Washington, DC, she took a chance on a 
then-young Lieutenant Junior Grade Rogers, which just goes to 
show that truly great things can happen to a sailor on liberty. 
I want to very publicly thank her for her love and support, 
both for the past nearly 29 years of marriage and for her 
service to the Nation and, perhaps most importantly, her 
willingness to take on an even greater set of challenges if I 
am confirmed.
    I have always believed that the life we lead in uniform is 
even more difficult for our spouses and our families than it is 
on us, and I am blessed to have a great partner in Dana.
    Not with us today are our two sons, Justin, a serving naval 
officer currently on sea duty, which on a day like today sure 
sounds like a great place to be, and Patrick, a very hard-
working college student.
    I'm also honored to be here today alongside General Paul 
Selva, who, as he has indicated, we have had the pleasure of 
working together before and I can attest to his significant 
abilities firsthand.
    If confirmed, I look forward to working closely with the 
members of this committee in addressing the significant cyber 
challenges facing our Nation today and into the future. We face 
a growing array of cyber threats from foreign intelligence 
services, terrorists, criminal groups, and hacktivists, who are 
increasing their capability to steal, manipulate, or destroy 
information and networks in a manner that risks compromising 
our personal and national security. They do so via a manmade 
environment that is constantly evolving and through the use of 
techniques and capabilities that are continually changing.
    This is hard work and it requires change, something seldom 
easy either for individuals or for organizations. If confirmed 
as the Commander, CYBERCOM, my priority will be to generate the 
capabilities and capacities needed to operate in this dynamic 
environment and to provide senior decision makers and my fellow 
operational commanders with a full range of options within the 
cyber arena. I will partner aggressively with others in doing 
so, particularly with our allies and partners, those in the 
private and academic sectors, within DOD and agencies and 
organizations across the U.S. Government as well as Congress.
    I am also mindful that CYBERCOM and the NSA are two 
different organizations, each having its own identity, 
authorities, and oversight mechanisms, while executing often 
related and linked mission sets. Each has the potential to make 
the other stronger in executing those missions and I will work 
to ensure each is appropriately focused. When there is 
differing opinion between them, I will make the call as the 
commander, always mindful that the mission of each is to 
deliver better mission outcomes.
    I will also be ever mindful that we must do all of this in 
a manner which protects the civil liberties and privacy of our 
citizens. I will ensure strict adherence to policy, law, and 
the oversight mechanisms in place. I will be an active partner 
in implementing the changes directed by the President with 
respect to aspects of the NSA mission, and my intent is to be 
as transparent as possible in doing so and in the broader 
execution of my duties if confirmed.
    To the men and women of the NSA and CYBERCOM, I thank you 
for your commitment to the security of our Nation and for your 
professionalism. I believe in you and in the missions you 
execute in defending the security of the Nation and its 
citizens. I am honored to even be considered for duty as your 
leader and, if confirmed, I look forward to joining the team.
    I also want to thank General Keith Alexander for his almost 
40 years of commissioned service to this Nation. He has laid a 
solid foundation at CYBERCOM and the NSA for those who come 
behind him. He has made a huge contribution in this mission set 
and I thank him and Debby for all that they have given the 
Nation.
    Finally, let me conclude by thanking those men and women, 
far too numerous to name individually, who have given me the 
love and support in my life to live the dream I have had since 
I was literally a young boy of being a serving naval officer. 
From those who shaped me in my youth to those who have led, 
mentored, guided, taught, or in some instances flat-out just 
kicked me in the tail in my time in uniform when I needed it 
most, I thank them. I fully realize that I am in no small part 
here today because of the efforts of so many others in my life.
    Thank you again for the opportunity to appear before you 
and I look forward to answering your questions.
    Chairman Levin. Admiral, thank you so much.
    We have standard questions that we ask of our nominees and 
here they are: Have you both adhered to applicable laws and 
regulations governing conflicts of interest?
    Admiral Rogers. I have.
    General Selva. Yes, sir.
    Chairman Levin. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    General Selva. Yes, sir.
    Admiral Rogers. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Rogers. No, sir.
    General Selva. No, sir.
    Chairman Levin. Will you make sure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Selva. Yes, sir.
    Admiral Rogers. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Admiral Rogers. Yes, sir.
    General Selva. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Admiral Rogers. Yes, sir.
    General Selva. Yes, sir.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify before this committee?
    Admiral Rogers. Yes, sir.
    General Selva. Yes, sir.
    Chairman Levin. Finally, do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee, 
or to consult with the committee regarding the basis for any 
good faith delay or denial in providing such documents?
    General Selva. Yes, sir.
    Admiral Rogers. Yes, sir.
    Chairman Levin. Thank you both.
    Let's try 7 minutes for our first round of questions.
    General, let me start with you. I asked this in my opening 
statement, asked you to consider this question: How long can 
the negotiations on a bilateral security agreement continue 
before TRANSCOM will be at risk of being able to get all of our 
cargo out of Afghanistan if there is no bilateral security 
agreement and we have to leave Afghanistan completely by the 
end of the year?
    General Selva. Senator, my understanding from consulting 
with the TRANSCOM staff on that question is that through the 
early fall we still have sufficient capacity in the variety of 
networks that we're using to redeploy cargo from Afghanistan to 
be able to make the decision at that point. To be able to give 
you a specific date, I'd have to consult with General Lloyd 
Austin down at CENTCOM, and if confirmed we'll be happy to do 
so and come back to you with a more definitive answer.
    Chairman Levin. Thank you.
    The next question for you, General, has to do with the 
intrusions, the cyber intrusions, and whether or not they 
affect DOD information. Is it not important that TRANSCOM know 
of cyber intrusions that can pose a risk to operations even if 
they don't immediately affect DOD data?
    General Selva. Yes, sir. As you're aware, the network that 
we use inside TRANSCOM consists significantly of our 
relationship with commercial transportation and logistics 
providers. Roughly 90 percent of the information in my current 
position as Air Mobility Command, and I suspect inside TRANSCOM 
as well, travels across unclassified networks. Being able to 
maintain the security of those networks through appropriate 
mechanisms inside those commercial companies is critical to our 
success.
    We have an obligation to be able to assure the validity and 
veracity of the information that we pass on those networks. As 
a result, one of the initiatives that's been taken is to 
include in all of our commercial contracts a stipulation that 
commercial providers provide us with information on any 
intrusions into their networks.
    I'm not aware of the details of the report that you spoke 
about, but I look forward to working with your staff on being 
able to work those details if confirmed.
    Chairman Levin. Thank you.
    Admiral, in January the President ordered a transition to 
end the section 215 telephone metadata collection program as it 
currently exists, to, ``preserve the capabilities that we 
need,'' but without the Government collecting and holding the 
data on call detail records. Let me ask you this, what in your 
view are the essential capabilities that need to be preserved 
in transitioning the program as the President directed? What 
are those essential capabilities?
    Admiral Rogers. Sir, there's a process ongoing to work 
through that. I'm not part of that process, but one of my 
thoughts in particular would be the idea of speed, the ability 
to query the data, to work with the new mechanisms that we will 
put in place, and to do so in a timely manner to generate 
information and insight in a way that enables us to act in a 
timely manner.
    Chairman Levin. Now, do you agree that the Government 
itself does not need to hold all the metadata records in order 
to determine whether terrorist suspects overseas are 
communicating with persons located in the United States? In 
other words, is it possible that a third party could be 
designated to hold the data on the one hand and then have the 
service providers keep the data on the other hand?
    Admiral Rogers. I believe, sir, with the right construct we 
can make that work.
    Chairman Levin. You could have a third party other than the 
service providers, or would it be limited to the service 
providers holding that data?
    Admiral Rogers. Again, I think those are options all under 
consideration. I believe we could make either scenario work, 
whether the service providers did it or a third party did it. 
There are definitely some challenges we'll need to work 
through, but I'm confident in our ability to do so.
    Chairman Levin. As I mentioned in my opening statement, the 
Privacy and Civil Liberties Oversight Board and the President's 
Review Group on Intelligence and Communications Technology 
characterized the section 215 program as useful but not 
critical. The Oversight Board said that, ``We have not 
identified a single instance involving a threat to the United 
States in which the program made a concrete difference in the 
outcome of a counterterrorism investigation.''
    First of all, do you have an assessment of the utility of 
the program, and how that utility compares to the level of 
concern that the American people have about its perceived 
impact on privacy?
    Admiral Rogers. Sir, first, as the nominee I'm not in a 
position to really yet be able to comment on the value of 215. 
But if confirmed I certainly intend to be able to do so. I 
believe one of the most important functions of the Director of 
the NSA is to be able to articulate just that, what is the 
value of our efforts, so that we can make well-informed and 
smart decisions.
    Chairman Levin. Do you have an opinion as to whether or not 
there has been an instance involving a threat to the United 
States in which the 215 program made a concrete difference? Do 
you have an opinion going in on that subject?
    Admiral Rogers. Sir, nothing specific. I have not had a 
chance to sit down and particularly review the events, although 
if my memory is correct General Alexander has testified before 
this committee last month, as you indicated, in which he 
outlined a number of instances in which he thought 215 
generated value.
    Chairman Levin. This is also for you, Admiral. Do you think 
DOD is doing enough to provide capabilities for our defensive 
cyber units by exploiting commercial technology?
    Admiral Rogers. I will use my own experience right now as 
the Navy component, if you will, to CYBERCOM, where we have a 
continual outreach to the broader commercial and industry 
sectors in an attempt to identify just what technologies are 
available that we could use in the missions. There is an 
aggressive effort to do so.
    Chairman Levin. Thank you. Thank you both.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    We've expressed many times our concern about Iran and the 
threat that they pose to us and that our intelligence, 
unclassified intelligence, as far back as 2007 indicated that 
they would have a capability of a weapon and a delivery system 
by 2015. Then it was even more forcefully expressed in a report 
that was unclassified by our intelligence in 2010 reaffirming 
their suspicions earlier.
    I've been concerned about that for a long period of time. 
I'm concerned that we have a President that somehow thinks that 
there is an opportunity to get them to join the global 
community and reform their ways. A recent Wall Street Journal 
article suggested that the Iranians were able to successfully 
infiltrate the critical Navy computer network. The February 17 
article raises serious questions, suggesting Iran was able to 
access the bloodstream of the Navy network. Now, I'm going to 
quote from that report:
    ``Iran's infiltration of a Navy computer network was far 
more extensive than previously thought. It took the Navy about 
4 months to finally purge the hackers from its biggest 
unclassified computer network.''
    Now, if that's true, the geopolitical consequences of such 
an attack should really be profound. However, it remains 
unclear what, if anything, this administration would do in 
response to such behavior. Would a similar penetration by the 
Iranians' warplanes into American air space be treated with 
such ambivalence? I would hope not.
    Admiral Rogers, your current job as Commander of the Fleet 
Cyber Command means that you are the one responsible for 
defending Navy networks. This happened on your watch, correct?
    Admiral Rogers. Yes, sir, it did.
    Senator Inhofe. What are the consequences of Iranian action 
in cyber space?
    Admiral Rogers. First, sir, as a matter of policy and for 
operational security reasons we have never categorized who 
exactly, publicly, penetrated the network. I would be glad to 
discuss this with you in a classified session.
    Senator Inhofe. No, this has been discussed in an 
unclassified session for quite some time, that we're talking 
about Iran in this case. So go ahead.
    Admiral Rogers. I'm sorry, sir. Not to my knowledge. I 
apologize.
    Specifically, a segment of our global unclassified network 
was compromised. An opponent was able to gain access to the 
system. In response to that, I generated an operational 
requirement not just to push them out of the network, but I 
wanted to use this opportunity to do a much more foundational 
review of the entire network, to use this as an opportunity to 
drive change within my own Service.
    Senator Inhofe. What is the administration doing now in 
response to this attack?
    Admiral Rogers. I'm sorry, I apologize, but I'm not in a 
position to comment.
    Senator Inhofe. In my opening statement I quoted General 
Fraser. He testified last year that the number of cyber-attacks 
on TRANSCOM had doubled from 45,000 in 2011 to nearly 100,000 
in 2012. Now, that's not very good, is it? Does that concern 
you, and to what level, General Selva?
    General Selva. Senator, in my current position as Air 
Mobility Command Commander I'm aware of those statistics. We've 
taken pretty aggressive action to secure our networks. As I 
discussed before, the nature of our network that ties us to 
commercial providers of transportation requires us to have 
access to the information from their networks as well, and we 
have been working diligently with those contractors and 
commercial providers to secure those networks.
    The number of attacks doesn't actually equate to the number 
of actual intrusions and data exfiltrated, but to the number of 
probes and attempts to get into the network. If confirmed for 
the position of TRANSCOM Commander, I'll continue to work that 
issue hard with Admiral Rogers' team at CYBERCOM as well as 
with our 24th Air Force team, which is the designated unit that 
essentially provides the external security for our networks.
    Senator Inhofe. All right. When we had a hearing on 
February 27--General Alexander and I have become good friends 
over the years and we've had a chance to have a lot of 
conversations, personal conversations--he was asked when a 
cyber-attack is actually an act of war and to explain what sort 
of actions an adversary might take in crossing that threshold. 
He answered that he believes that if an attack destroys 
military or government networks or impacts our ability to 
operate, you have crossed that line.
    Admiral Rogers, do you agree with his characterization?
    Admiral Rogers. I would agree.
    Senator Inhofe. Do you agree that they've crossed that 
line?
    Admiral Rogers. I'm sorry? The ``they''?
    Senator Inhofe. They have crossed that line in the actions 
that they have taken?
    Admiral Rogers. What ``they'' you're referring to, sir?
    Senator Inhofe. I'm talking about, when General Alexander 
was asked when a cyber-attack does cross that line and become 
an act of war, and he said that, impacts our ability to 
operate, you have crossed that line. Do you agree with that 
characterization and do you believe that we've crossed that 
line?
    Admiral Rogers. No, I do not believe we have crossed that 
line.
    Senator Inhofe. Do you agree with the statement that was 
made by General Selva that the number of attacks, cyber attacks 
against TRANSCOM, doubling from 45,000 in 2011 to nearly 
100,000 in 2012 doesn't properly express our deterrent against 
these attacks? Does this concern you, that we have doubled in 
that period of time in the number of cyber-attacks on us?
    Admiral Rogers. I apologize. Is your question to the 
General or myself, sir?
    Senator Inhofe. The question is for you. I'm saying that 
General Fraser testified that the number of cyber-attacks on 
TRANSCOM, or let's say cyber-attacks period, has increased from 
45,000 to 100,000 in a period of a year. Isn't that concerning? 
Doesn't that mean that perhaps we're not doing the job we 
should be doing?
    Admiral Rogers. It is concerning. I think it's reflective 
of the level of investment that the Department is making in 
this cyber mission set. Even as we face challenging budget 
times, cyber remains one of the areas in which the Department 
remains committed to actual growth in capability.
    Senator Inhofe. My only concern here is that, first of all, 
I believe a lot of the things that I've gotten from the 
unclassified media and classified media, that Iran is very 
active in this area. I've been concerned about their 
capabilities and I've expressed that concern, and it appears to 
me that a statement such as we have from the administration, 
``If Iran seizes this opportunity and chooses to join the 
global community, then we can chip away at the distrust that 
exists.'' I just think that we need to be talking about the 
fact that we have an enemy out there, and he's demonstrated 
that very clearly.
    A few years ago nobody knew what a cyber attack was. But I 
think we all understand now it can be just as critical, just as 
damaging to our country, as an attack with weapons on this 
country. I think you all agree with that, don't you?
    Admiral Rogers. Yes, sir.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen. Thank you for your distinguished 
service to our Nation.
    Admiral Rogers, I want to turn to you and your written 
testimony and advance policy responses. In those, I noted that 
you stated if the Government could continue to access phone 
records through phone service provider repositories that could 
serve as a viable alternative to the current bulk phone records 
collection program. I was glad to read that.
    You also wrote that the business records 215 program, 
``grew out of a desire to address a gap identified after 
September 11,'' since one of the hijackers, Khalid Al-Midhar, 
made a phone call from San Diego to a known al Qaeda safe house 
in Yemen. You noted that the NSA saw that call, but it could 
not see the call was coming from an individual already in the 
United States.
    I'm concerned by the implication that somehow the section 
215 program could have prevented September 11 and I want to set 
the record straight from my point of view. As the 9/11 
Commission pointed out, the Central Intelligence Agency knew 
about Al-Midhar, but did not tell the Federal Bureau of 
Investigation. So the argument that business records data could 
have been the key to identifying Al-Midhar doesn't stand up in 
my view.
    Also, I don't know why the NSA couldn't have gained the 
authorization on an individualized basis to determine whether 
this Yemeni number was in contact with anyone in the United 
States, and I don't see why a bulk collection authority would 
have been necessary.
    As I'm sure you'll agree, the Constitution is not an 
impediment to our security; it's the source of our security. We 
can end bulk collection and focus on terrorists and spies 
without infringing on the constitutional rights of law-abiding 
Americans. Last year the President acknowledged what I've been 
saying: The status quo must change. I look forward to working 
with you to make those changes.
    If I might, in looking ahead I want to turn to the 702 
program and ask a policy question about the authorities under 
section 702. It's written into the Foreign Intelligence 
Surveillance Act (FISA). The committee asked your understanding 
of the legal rationale for the NSA to search through data 
acquired under section 702 using U.S. person identifiers 
without probable cause. You replied that the NSA court-approved 
procedures only permit searches of this lawfully acquired data 
using U.S. person identifiers for valid foreign intelligence 
purposes and under the oversight of the Justice Department and 
the Director of National Intelligence.
    The statute's written to anticipate the incidental 
collection of American communications in the course of 
collecting the communications of foreigners reasonably believed 
to be located overseas. But the focus of that collection is 
clearly intended to be foreigners' communications, not 
Americans'.
    But declassified court documents show that in 2011 the NSA 
sought and obtained the authority to go through communications 
collected under section 702 and conduct warrantless searches 
for the communications of specific Americans. My question is 
simple: Have any of those searches ever been conducted?
    Admiral Rogers. I apologize, sir, that I'm not in a 
position to be able to answer that as the nominee. But----
    Senator Udall. Yes?
    Admiral Rogers. But if you would like me to come back to 
you in the future, if confirmed, to be able to specifically 
address that question, I would be glad to do so, sir.
    Senator Udall. Let me follow up on that. You may recall 
that Director Clapper was asked this question at a hearing 
earlier this year. He didn't believe that an open forum was the 
appropriate setting in which to discuss these issues. The 
problem that I have, Senator Wyden's had, and others is that 
we've tried various ways to get an unclassified answer, simple 
answer, a yes or no to the question. We want to have an answer 
because it relates, the answer does, to Americans' privacy.
    Can you commit to answering the question before the 
committee votes on your nomination?
    Admiral Rogers. Sir, I believe that one of my challenges as 
the Director, if confirmed, is how do we engage the American 
people and by extension their representatives in a dialogue in 
which they have a level of comfort as to what we are doing and 
why. It is no insignificant challenge for those of us with an 
intelligence background, to be honest. But I believe that one 
of the take-aways from the situation over the last few months 
has been as an intelligence professional, as a senior 
intelligence leader, I have to be capable of communicating in a 
way that highlights what we are doing and why to the greatest 
extent possible.
    Perhaps the compromise is, if it comes to the how we do 
things and the specifics, those are best addressed perhaps in 
classified sessions, but that one of my challenges is I have to 
be able to speak in broad terms in a way that most people can 
understand. I look forward to that challenge.
    Senator Udall. I'm going to continue asking that question, 
and I also look forward to working with you to rebuild the 
confidence, as you pointed out, that the public has in the very 
vital mission that you have.
    If I might, let's turn to cyber for the last half of my 
time. Before I ask a specific question--and I don't want to 
steal Senator McCain's thunder, although that's impossible, to 
steal Senator McCain's thunder. I think he has a very creative 
idea in setting up a special committee on cyber security, so 
that we could cut through some of the jurisdictional tensions 
that exist.
    In a more specific context, you noted in your comments that 
we have to really work to develop and train a significant 
number of highly capable cyber personnel to meet the Nation's 
needs. There's no doubt if we're going to achieve dominance 
that we have to have those personnel. We've done it in the 
physical world and in the kinetic world, and we can do it in 
cyber space. Do you believe we're doing enough to cultivate 
cyber professionals in the early stages of their career?
    The Air Force Academy, which is located in my State, has 
given cadets the opportunity to fly small aircraft in their 
college years. They enter pilot training then already familiar 
with the fundamentals and the feel of flying an airplane or a 
helicopter. I'm afraid we're not giving that same level of 
attention to cyber training programs. Should we be investing in 
more hands-on real world training opportunities at our 
academies for the next generation of cyber warriors?
    Admiral Rogers. Yes, sir. As a naval officer, currently as 
the Navy component commander, I have worked with our own Naval 
Academy on doing just that. In fact, right now the requirement 
at the Naval Academy is there is a baseline cyber course 
requirement for every midshipman to graduate from the Naval 
Academy now. That's a new requirement laid down within the last 
couple of years.
    Senator Udall. I look forward to working with you in that 
area as well, because we will achieve dominance, but we have to 
make those investments upfront. I think you and I violently 
agree.
    Admiral Rogers. Yes, sir.
    Senator Udall. Thank you again, both of you, for your 
willingness to serve in these important positions.
    Thank you.
    Chairman Levin. Thank you, Senator Udall.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses for their outstanding service. Just 
to follow up, Admiral Rogers, General Alexander when I asked, 
he said because of the overlapping jurisdictions of many 
committees of Congress that he thought that a select committee 
to investigate this entire issue, which covers a wide spectrum, 
would be a good idea. Do you have a view?
    Admiral Rogers. Sir, steps which would try to bring 
together those focused----
    Senator McCain. I would ask if you have a view on whether 
we should have a select committee or not, Admiral. I'm not used 
to obfuscation here, okay? Let's not start out that way. Would 
you or would you not agree that a select committee would be a 
good idea?
    Admiral Rogers. Yes, sir.
    Senator McCain. Thank you.
    General, are you on track to remove all the necessary 
equipment and armaments from Afghanistan by the end of 2014 
that you are tasked to do?
    General Selva. Yes, sir.
    Senator McCain. You are confident?
    General Selva. Yes, sir.
    Senator McCain. You're on track right now?
    General Selva. Yes, sir.
    Senator McCain. Thank you.
    Admiral, I want to bring up this issue again of the Iranian 
hack of Navy computers. According to a Wall Street Journal 
article, the Iranian hack of the Navy's largest unclassified 
computer network reportedly took more than 4 months to resolve, 
raising concern among some lawmakers about security gaps 
exposed by the attack.
    The paper reported that the hackers were able to remain in 
the network until this past November. That contradicts what 
officials told the Journal when the attack was first publicly 
reported this past September. At that time, officials told the 
paper that the intruders had been removed. `` `It was a real 
big deal,' a senior U.S. official told the Journal. `It was a 
significant penetration. It showed a weakness in the system.' 
''
    Can you help out the committee on that whole scenario here?
    General Selva. Yes, sir. It was a significant penetration, 
which is one of the reasons why over the last few months 
multiple updates to staffers on this committee, because one of 
the things I wanted to do was, how do we learn from this, how 
do we work hard to make sure it doesn't happen again. As a 
result, I directed a rather comprehensive operational response 
to that. That response was much broader than just be able to 
come back and say they're not there anymore. I wanted to use 
this as an opportunity to try to drive change. We put a much 
more comprehensive, much longer term effort in place than if I 
had just said, I want to immediately remove them. I wanted to 
do more than that.
    Senator McCain. Was the damage done in your view, 
significant?
    General Selva. I'm not sure that I would agree with 
significant, but it is of concern, because in this case they 
did not opt to engage in any destructive behavior. My concern 
from the beginning was, what if they had decided that was their 
intent?
    Senator McCain. I thank you.
    Admiral, we have a real problem here, at least from the 
standpoint of those of us who feel that our ability to monitor 
the behavior of possible attackers of the United States of 
America is vital. Mr. Snowden has done some really significant 
damage. There were polls in the January Quinnipiac Survey, 57 
percent of Americans branded Mr. Snowden as a whistleblower, 
and 34 percent called him a traitor.
    A Fox News poll taken the same month found 68 percent of 
Americans were glad to know about the NSA programs Snowden 
revealed, while CBS' survey found those disapproving of 
Snowden's conduct outnumbered those approving 54 to 31. Still, 
it's a very significant number of Americans that view Mr. 
Snowden as a whistleblower and a significant portion of 
Americans as a patriot and approve of his conduct.
    What do you think we need to do to counter that impression 
the American people have, when I'm sure that you and I are in 
total agreement that this individual violated a solemn oath 
that he made not to reveal this information and has damaged our 
ability to defend this Nation?
    Admiral Rogers. Yes, sir, I would agree with your 
assessment. I think in general there's a couple things here. 
The first is this idea of transparency, as Senator Udall 
mentioned, this idea that we have to have a dialogue that talks 
about what are we doing and the why.
    In addition, we have to ensure strict accountability on the 
part of the NSA. We have to make sure that we do in fact follow 
those processes appropriately, and when we make a mistake, if 
we fail to meet those requirements, that we're very upfront 
about how and the why.
    Senator McCain. Do you have any thoughts about the 
allegations that the FISA courts are just a rubber stamp for 
the administration?
    Admiral Rogers. I don't believe that to be the case.
    Senator McCain. Do you believe that they are exercising 
sufficient oversight?
    Admiral Rogers. Yes, sir.
    Senator McCain. Do you appreciate the fact that we have, at 
least with a large number of Americans and people around the 
world, a significant problem with the public relations aspect 
of the work that you and your organization will be doing?
    Admiral Rogers. Yes, sir, which is why, for example, while 
my personal opinion is that the FISA structure has worked well, 
I am open to the idea that, with the view of instilling greater 
confidence, we should look at a range of potential options to 
improve that transparency.
    Senator McCain. If I had a recommendation for you it would 
be as much as possible, given the aspects of national security, 
that you give some speeches in various venues where you could 
explain better to the American people exactly what you're 
doing, perhaps not exactly what you're doing, but why you're 
doing it, and these threats, including this one that hacked 
into the Navy on your watch, which I doubt if hardly any 
Americans are aware of.
    I don't think Americans are aware of the extent of the 
penetration that is not only accomplished, but being attempted, 
by our adversaries and potential adversaries around the world. 
Do you agree?
    Admiral Rogers. Yes, sir, I think you're correct.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you both for your service to our Nation in the past 
and for what you're going to be doing in the future in very 
demanding and critical jobs. Thank you to your families as 
well.
    Admiral, the White House recently announced the creation of 
a voluntary framework to establish a cyber-security guide for 
organizations involved in running the Nation's critical 
infrastructure. This effort and framework standardizes the 
cyber security defensive measures to assist in identifying, 
protecting, detecting, responding to, and recovering from 
potential intrusions.
    How effective do you think that this voluntary framework 
will be in protecting us from cyber-attack, and what additional 
measures should the Senate or the NSA take?
    Admiral Rogers. Sir, I think it's a step in the right 
direction, but I do believe that in the end some form of 
legislation which addresses both the requirement and need to 
share information, as well as trying to address the issue of 
setting standards for critical infrastructure for the Nation, 
in the long run is probably the right answer. If confirmed, I 
look forward to working along with a host of other people who 
would be a party to that.
    Senator Blumenthal. I agree with you very, very strongly 
that legislation will be necessary. There have been efforts to 
achieve it, bipartisan efforts, I should emphasize, and some of 
them have been opposed by representatives of the business 
community on the ground that either there's no need for it, 
there's no urgency, or other reasons that I think are specious.
    I thank you for your offer of cooperation and I look 
forward to working with you. How urgent do you think it is that 
we have this kind of legislation?
    Admiral Rogers. The sooner the better. It's only a matter 
of time, I believe, before we start to see more destructive 
activity and that perhaps is the greatest concern of all to me.
    Senator Blumenthal. Are there areas of our private defense 
industrial base or even financial, utilities, and so forth that 
you regard as most vulnerable?
    Admiral Rogers. There's certainly core infrastructure 
that's critical for us as a Nation. In an unclassified forum 
I'd be leery of providing specific insights as to where do I 
think the greatest vulnerability is, but I would be glad to 
discuss that.
    Senator Blumenthal. If the chairman at some point does have 
a briefing in another setting, a more classified setting, that 
may be an area that I'd like to explore with you. Thank you.
    Let me shift to the role of the National Guard in cyber 
security. The CYBERCOM Commander, General Alexander, frequently 
talked about the critical value of the National Guard as a 
resource and the role that it could play in expanding our 
military cyber warfare and defense capabilities. Do you agree 
with him and how would you define the value that the National 
Guard can bring to this effort?
    Admiral Rogers. Yes, sir, I do agree. At the present, the 
Department as a matter of fact is in the process of doing the 
analysis right now to address that very question. If confirmed, 
I'll be a part of that process and I intend to dig deeper into 
it, because one of my take-aways after 30 months right now as 
the naval commander, if you will, for General Alexander in the 
cyber mission set is that in the end this is about how do you 
build an integrated team that harnesses the power and the 
expertise of every element of that team.
    While the U.S. Navy does not have a Guard structure, the 
Reserve structure we use has been very effective for us. I have 
worked hard to try to apply it in my current duty.
    Senator Blumenthal. Frequently those members of the Naval 
Reserve or of the Army National Guard or the Air Force National 
Guard bring capabilities, training, education, skills that are 
very valuable.
    Admiral Rogers. Oh, yes, sir.
    Senator Blumenthal. Turning to another area, if I may, the 
use of contractors. Following up on the very important 
questions asked by my colleague Senator McCain, just to state 
the obvious, here was a contractor who was entrusted with 
responsibilities that never should have been, and I think many 
of us are concerned by the scope and scale of the use of 
private contractors even to screen and evaluate other 
contractors.
    Are you concerned?
    Admiral Rogers. Yes, sir, I share your concern. If 
confirmed, this is an area that I think I need to ask some hard 
questions. Why are we where we are today? What led us to this, 
and are we comfortable with the position we find ourselves in 
with respect to the role of contractors?
    Senator Blumenthal. Are there obvious defects that you can 
see right away that need to be corrected?
    Admiral Rogers. Nothing comes to mind immediately, although 
to be honest in my current duties this has not been the same 
issue on the Navy side that I have seen it on the joint side, 
as it were.
    Senator Blumenthal. Do you think that concern is shared 
widely in the Intelligence Community?
    Admiral Rogers. I would believe so.
    Senator Blumenthal. General Selva, if I can ask you a 
question, the chairman began by asking some questions about how 
quickly we need to make determinations about our presence in 
Afghanistan. What's your assessment now about how flexible we 
are in determining our timeframe there in drawing down and 
withdrawing the equipment and personpower that we have?
    General Selva. Senator, today I'd say we have the greatest 
flexibility that we've had in the past several months. But as 
each day passes, as you're probably aware, our options 
decrease. There is a limit to the capacity of the networks to 
bring that equipment and those personnel out. I will commit to 
consulting with General Austin for his assessment and for 
General Dunford's assessment in ISAF of the specific limits of 
those networks. In TRANSCOM, our obligation is to make sure 
that the transportation layer and the distribution layer of 
those networks is prepared for whatever capacity comes at us.
    Senator Blumenthal. Thank you.
    My time has expired. I thank you both for your very helpful 
answers and again for your service. I look forward to working 
with you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    Gentlemen, to both of you, thank you for your service and 
your commitment to freedom. We appreciate the great job you do.
    I just want to make a comment for the record first, Admiral 
Rogers, with regard to some comments that Senator Udall made. I 
don't want to leave a false impression with the American people 
here that if we had had 702 and 215 in place in 2001 there is a 
strong probability that we would have been able to determine 
that a major attack was going to occur, and there's the 
probability that we would have picked up on conversation 
between Al-Midhar and those in Yemen with whom he was planning 
the attack.
    Knowing that he was in country versus knowing that he was 
in communication with terrorists planning an attack are two 
different things. We didn't have 215, we didn't have 702. We 
knew that a phone call came to the United States. We did not 
know it went to San Diego.
    It's pretty clear that if we had had more definitive 
information that we would have gleaned from these programs, 
that there is strong probability within the Intelligence 
Community that we might have picked up on that. I won't ask you 
to make a comment on it, but I want to make sure the record 
really reflects the actual facts on the ground relative to Al-
Midhar.
    Now, Admiral Rogers, you and I discussed something that 
Senator McCain mentioned a little earlier, and that is with 
respect to trying to communicate these programs to the American 
people. It's going to be very difficult. He mentioned doing 
speeches and what-not. I think you and I agree that that's part 
of it.
    But I'd like for you to elaborate a little bit more on 
really what you think we can do to show more transparency and 
to let the American people understand how these programs work.
    Admiral Rogers. As I said, I think we can be a little more 
communicative with why we're doing this, what led us to these 
kinds of decisions. I also think it's important that dialogue 
needs to be much broader than just the Director of the NSA, 
regardless whoever that individual is. There's a lot more 
aspects of this discussion than just the intelligence piece.
    In the end, this fundamentally boils down to an assessment 
of risk, both in terms of our security as a Nation as well as 
our rights as individuals. We value both and we have to come up 
with a way to enable us to ensure that both sides of that risk 
coin are addressed. But we should never forget that there's a 
threat out there that aims to do us harm, that does not have 
the best interests of this Nation in mind, and wants to defeat 
what this Nation represents.
    Senator Chambliss. You're exactly right. It's truly 
unfortunate that General Alexander was put out there on a limb 
by himself by the administration to seek to explain these 
programs. While he did a very good job of it, had the President 
with the bully pulpit been out there with him I think we would 
have already had a better understanding on the part of the 
American people of, number one, the misrepresentation of the 
facts regarding what information is collected on individuals, 
what's done with that information, and how very difficult it is 
to be able to access personal information on any single 
American. It simply is extremely difficult and requires the 
same process virtually that you would have to go through if you 
were a U.S. Attorney seeking to get information on an 
individual American.
    The FISA court is not a rubber stamp. All you have to do is 
look at the makeup of the court, as well as look at the 
decisions, now which some of them are going to be made public, 
and I think that's a good idea, as long as we don't reveal 
sources and methods.
    The fact that the administration did not give General 
Alexander the kind of support they should is really pretty 
disturbing on my part, and as I mentioned to you yesterday, I 
have expressed this to the administration. I hope they will 
give you more support in explaining these programs than they 
have given to General Alexander, and I have confidence that 
maybe they will.
    Let's talk for a minute about information sharing. We've 
been working on a cyber bill for years now. We're getting very 
close to an agreement within the Senate Intelligence Committee 
between the chairman and myself on a cyber bill that is much 
needed. One of the key provisions and the last remaining 
obstacle we have is the immunity provision or the liability 
protection provision. Would you talk for a minute about your 
opinion regarding how necessary liability protection is to 
companies who will share privileged and personal information if 
we're truly going to have a program that works relative to 
cyber?
    Admiral Rogers. Yes, sir. I'm not a lawyer, but my sense is 
it's a critical element in any legislation. I believe to be 
successful we ultimately have to provide the corporate partners 
that we would share information with some level of liability 
protection.
    Senator Chambliss. Do you think that firms will participate 
in the sharing of information if they are not granted pretty 
much blanket liability protection?
    Admiral Rogers. I would think they'd be much less inclined 
to do without it.
    Senator Chambliss. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Admiral, thank you. General, thank you, and your families.
    The chairman mentioned an article in the New York Times 
today. I thought one of the interesting quotes was where they 
said, why would somebody want to be the head of CYBERCOM now? 
It reminded me very much of the movie Apollo 13 where they 
said: This might be one of the worst things that could ever 
happen to us. They looked and they said: ``Well, this could be 
the best.''
    This could be the most amazing time, and we have more 
challenges maybe than ever before. We are giving you the 
football and expecting big things from both of you on this.
    I wanted to ask you, General. In regards to what we have 
seen in Ukraine and the dealings we've had with Russia before, 
are you making alternate plans in terms of TRANSCOM as to the 
work we do with Russia? Are you gaming out worst case scenarios 
as to how we proceed in the future?
    General Selva. Sir, not yet being in the seat at TRANSCOM, 
I'd have to say if confirmed that is a priority. I do know as 
the air component to TRANSCOM and working directly with the 
TRANSCOM director of operations that we have been building 
alternative plans. The Northern Distribution Network, part of 
which flows through Russia, consists of five different options 
for how we move cargo in and out of Afghanistan. We'll have to 
look at using other options than the overflight or transit 
through Russia should the conduct in Ukraine continue.
    Senator Donnelly. I would recommend we get working on that 
right away, in light of what we have seen going forward these 
days.
    Admiral, when you look at what happened with Mr. Snowden, I 
know we have done reviews. Have you continued to look and ask 
what-if about this or about that in regards to where we are 
now, our operations now, to make sure we are not going to face 
this again internally?
    Admiral Rogers. As the nominee I haven't done that for 
CYBERCOM or the NSA, sir.
    Senator Donnelly. Have you thought that through?
    Admiral Rogers. If confirmed, yes, sir, I do believe we 
need to ask ourselves, so given this compromise, what would be 
the indicators that would highlight to us, that in fact would 
point out that now we've been compromised, now we're seeing 
changes in behavior, and how are we going to have to change 
that to stay ahead of the threats that face us as a Nation.
    Senator Donnelly. I would suggest that one of the first 
things you do is sit down and determine where did we go off the 
highway? How do we fix it? How do we square it away?
    One of the areas of interest to me is contractors. You're 
not in the position yet, but why is it that we have contractors 
in those positions, as opposed to perhaps military personnel or 
other Government personnel who are expert in those areas? Is it 
a lack of individuals who can fill those positions?
    Admiral Rogers. I can't speak to the specifics of Mr. 
Snowden, the function he was fulfilling, as to why that was 
chosen to become a contractor vice Government, if you will. But 
I think it is reflective of a trend over the last decade or so 
where, as we looked at the size of Government, as we looked at 
the size of our workforce, some decisions were made that 
perhaps some of these functions could be executed on a 
contractor basis vice using permanent Government employees.
    I have always believed as a commander that what you should 
use contractors for are for those functions that are either so 
specialized that you don't have the capability or skill 
resident within the Government workforce, whether that be 
uniformed or civilians, or it is prohibitively expensive to try 
to achieve that capability, but that what we consider to be 
core operational functions, those need to be Government.
    Senator Donnelly. In regards to Mr. Snowden's area, will 
there be a review through all of these contractor areas as to 
what is core to what we need to do and when we regard and 
review expense? The next question is what is the expense of 
what we're dealing with now, with the situations that have been 
created by Mr. Snowden's conduct?
    Admiral Rogers. I apologize, but I don't know the answer to 
that.
    Senator Donnelly. No, I understand. I'm just trying to lay 
out, here are some things as we move forward that we look at.
    Mr. Snowden also remarked recently: The U.S. Government has 
no idea what I have and will not know what I have, and they'll 
find out as it goes on, in effect, not his exact words. But 
when we look at Ukraine one of the concerns that has to come up 
is how much of Mr. Putin's actions were based on knowledge that 
may have been given to him by Mr. Snowden.
    How good a handle do we have at this point on what Mr. 
Snowden has and what he does not have?
    Admiral Rogers. We have an in-depth analytic effort ongoing 
within the Department to determine that and ask that question. 
I haven't been party to that review, although I've seen some of 
the initial work, which has highlighted where the data he took 
exactly where it came from. We've tried to identify exactly 
what the implications are of what he took. That operation is 
ongoing and will take some period of time to finish.
    Senator Donnelly. In another area, it would be remiss of me 
not to ask you about supply chain integrity. It's something of 
concern to me, counterfeit parts, and this would be for both. 
How are we going to partner with industry? How are we going to 
work together with our intelligence officials and others to 
secure the integrity of the supply chain of what we have? We 
see counterfeit parts in missiles, in planes. It is an 
extraordinarily dangerous situation, and I was wondering what 
your plans are as we move forward to try to get this squared 
away.
    General Selva. Senator, our obligation in TRANSCOM is to 
work as the distribution process owner under the unified 
command plan. Part of that obligation is to work directly with 
the Defense Logistics Agency (DLA) on the issue of supply chain 
management and integrity of the supply chain. It's out of the 
lane that I've been in for the last year and a half as the 
commander of Air Mobility Command. It is one of the areas that 
I have committed to spend time with with Admiral Hernitchek, to 
get at the details of the supply chain integrity process.
    It's more than just the data. It is in fact the ability of 
counterfeiters to bring to that market parts that appear to be 
genuine, but in fact aren't. It's a physical issue as well as a 
data security issue. It goes right to the heart of our 
industrial capacity and the ownership of the intellectual 
rights and being able to produce the products that our 
soldiers, sailors, airmen, and marines use in battle.
    Senator Donnelly. I would ask you to make that a priority, 
because we are one counterfeit part away from disaster on a 
constant basis.
    General Selva. Yes, sir.
    Senator Donnelly. Thank you very much. Thank you both for 
your service and to your families.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Donnelly.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank both of you for your service to our 
country, and to your families as well for their support and 
sacrifices.
    General Selva, with regard to DOD's air refueling 
capability, how important is it to our military capabilities 
and our national security?
    General Selva. Senator, the capacity of Air Mobility 
Command to operate at TRANSCOM's behest and provide refueling 
around the world is critical to being able to move our forces 
to the places they need to be when they need to be there. The 
Air Force, as you've probably heard over months and years, 
talks about global vigilance, global reach, and global power. 
Tankers are what make us global.
    Senator Ayotte. I'm really pleased the 157th Air Refueling 
Wing at Pease, the New Hampshire Air National Guard Base, has 
been chosen as the top Air National Guard unit to receive the 
new tankers, the KC-46A. I want you to know we had a very 
positive public hearing for the basing of the KC-46A last week 
in New Hampshire.
    I wanted to ask you, in your role as Commander, Air 
Mobility Command, what's your assessment of the 157th Air 
Refueling Wing at Pease? How have they performed and how 
important is the Guard in all of its capabilities as we go 
forward?
    General Selva. Senator, the 157th has a pretty storied 
heritage in the tanker world, and they're a high performing 
organization. They're one of the units to which we've appended 
an Active Duty associate unit and the unit is performing quite 
well. The base and the unit exist in an area of fairly high 
demand for tanker services and as a result their performance 
speaks for itself. They're a great unit and we look forward to 
being able to base the KC-46A Pegasus at Pease, subject to the 
outcome of the environmental impact statement.
    Senator Ayotte. Fantastic. I think you're going to get a 
very positive outcome. The whole community is really excited 
and very supportive of having the new tanker there, and I look 
forward to working with you on that. It's incredibly important 
to our national security.
    I noted Senator Donnelly asked you about the issue of the 
Northern Distribution Network with regard to our retrograde 
from Afghanistan. In light of what's happening in the Ukraine, 
the President, many of us, are pushing for further economic 
sanctions, other types of sanctions against Russia for their 
invasion of Crimea.
    If the Russians were to take retaliatory action as a result 
of that to shut down the Northern Distribution Network with 
regard to the transit operations on those roads, what impact 
would that have to us and how would we address it? Because I 
think it's something we have to understand and be prepared to 
address.
    General Selva. Yes, ma'am. If the Russians were to take 
action to constrain our access to the Russian segments of the 
Northern Distribution Network, we have other options to move 
that cargo in and out of Afghanistan. The singular item that 
moves across that network that would concern me at this point 
is the subsistence cargoes in the form of food and non-combat 
articles. I'm told about 20 percent of the subsistence cargoes 
move through that network. We'd have to use another option to 
get it in. We do have several options in the Northern 
Distribution Network that do not include transitting Russia.
    Senator Ayotte. If for some reason, which obviously I would 
hope that they wouldn't take that type of action, but we'd be 
prepared to use other options if we had to and could do so?
    General Selva. Yes, Senator, we would.
    Senator Ayotte. Thank you. I appreciate it.
    Admiral Rogers, thank you for taking on at a very 
challenging time this important position. Last week it was 
reported in the press that Russia is using cyber-attacks 
against the Ukrainian telecommunications system to block the 
Ukrainian leadership from accessing the country's phone 
network. To what extent do you believe Russia is conducting 
cyber-attacks against the Ukraine, and what could the United 
States do to help the Ukraine better defend itself against 
attacks from Russia?
    Admiral Rogers. Ma'am, in an open, unclassified forum, I'm 
not prepared to comment on the specifics of nation state 
behavior. Clearly, cyber will be an element of almost any 
crisis we're going to see in the future. It has been in the 
past. I believe we see it today in the Ukraine. We've seen it 
in Syria, Georgia. It increasingly is becoming a norm.
    As we work to partner with others to develop norms of 
behavior and expectations for what is acceptable and what is 
not acceptable, examples like this highlight to us I think what 
is not acceptable. As we work with the Ukrainians and other 
nations to attempt to figure out what's the best way to address 
them, whether the Ukrainians ask for specific technical 
assistance, I think we'd have to work through everything on a 
case by case basis.
    Senator Ayotte. Do you believe we should help our allies in 
situations like this if they are receiving cyber-attacks, and 
working with them to combat these attacks?
    Admiral Rogers. Yes, ma'am.
    Senator Ayotte. I think that's very important, particularly 
with what's happening in the Ukraine right now, that we are 
active in this area in countering any type of actions by the 
Russians, cyber-attacks or otherwise.
    I wanted to ask you about DOD's vulnerability overall to a 
cyber-attack. In January 2013, the Defense Science Board issued 
a task force report titled ``Resilient Military Systems and the 
Advanced Cyber Threat''. The report concluded that, ``The 
United States cannot be confident that our critical information 
technology systems will work under attack from a sophisticated 
and well-resourced opponent utilizing cyber capabilities in 
combination with all of their military and intelligence 
capabilities.''
    In other words, we're not confident that many of our 
military systems would work if we were attacked by a high-end 
peer-to-peer adversary.
    Do you share that assessment and how can we make sure that 
DOD is more resilient to cyber-attacks?
    Admiral Rogers. I certainly share that concern, which is 
one reason why I believe creating a defensible architecture has 
to be one of the most important things we do. The reality is 
the network structure of today reflects a different time and a 
different place. I have experienced that firsthand in my 
current duties in the Navy as the operational commander for the 
Navy's networks. I have watched that challenge across the 
entire Department.
    That's why the Joint Information Environment (JIE) I think 
is so critical to the future for us. We have to get to a 
defensible architecture.
    Senator Ayotte. We have to work with you on that.
    Finally, there's been a lot of discussion about Edward 
Snowden here today. Do you believe that the disclosures that he 
made have potentially put at risk the lives of Americans and 
our allies, or at greater risk, because he has released this 
type of classified information?
    Admiral Rogers. Yes, ma'am.
    Senator Ayotte. Yes is the answer to that?
    Admiral Rogers. Yes.
    Senator Ayotte. I think that people need to understand 
that, that he has put potentially at risk American lives and 
the lives of our allies. That is very, very important for 
people to understand in terms of what we are addressing and 
what we're dealing with and how we characterize his behavior.
    Thank you both.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator King.
    Senator King. Thank you, Senator.
    General Selva, it's good to see you again. If I was in an 
airplane out of gas over the North Atlantic, I'd call the guys 
from Bangor. Forget about those guys from Pease. [Laughter.]
    Senator Ayotte. I don't think so. [Laughter.]
    Senator King. The 101st could take care of you quite 
adequately.
    As you look across the broad range of commercial assets, 
military assets, that TRANSCOM employs across the globe, what 
do you feel are the greatest risks and vulnerabilities to 
TRANSCOM today to execute its responsibilities? How about the 
vulnerability of commercial carriers to events like cyber 
intrusions? Going into this new job, what's going to keep you 
awake at night?
    General Selva. Senator, I think there's probably two things 
that worry me the most over the coming couple of years. The 
first is once we have completed whatever retrograde operation 
happens in Afghanistan, whether we have a residual force or no 
force remaining behind, the demand signal for lift, surface and 
air, will diminish significantly. We've already seen in the 
last year nearly a 50 percent reduction in the requirement for 
sustainment cargoes into and out of Afghanistan, combat 
articles as well as just regular sustainment.
    That has an implication for our organic fleets, sealift, 
airlift, as well as surface, and for our commercial partners 
whose networks we access to make that entire distribution 
network work. That decline in requirements, a return to a more 
stable environment, if you will, actually has some negative 
readiness implications across the enterprise. We're studying 
those in all of the organic and commercial sectors of the 
market to try and understand those implications. They have 
significant impacts on the commercial cargo carriers, both 
sealift and airlift, who have been such an integral part of 
that network into and out of Afghanistan.
    Senator King. What percentage of TRANSCOM's assets are 
organic versus commercial at this moment?
    General Selva. That's a difficult number to quantify, but 
I'll take a stab at it. Roughly 40 percent of our capacity is 
organic in the air environment and about 50 percent, if we 
access all of the available assets through the Civil Reserve 
Air Fleet (CRAF), would be brought to us by our commercial 
partners. I don't have the specific statistics.
    Senator King. As the demands of Afghanistan diminish, is 
there an industrial base issue here in terms of the commercial 
carriers? Are they going to go away? Are they going to be able 
to find other business? Is there a risk of not having the 
capacity when we need it?
    General Selva. There are two dynamics at play, Senator, in 
that environment. One is the health of the airline industry as 
a whole, both commercial cargo carriers and commercial 
passenger carriers, and two segments within that, that 
industry, the charter carriers and the scheduled carriers.
    The decline in the demand signal on those commercial 
carriers will change the economics of that industrial segment. 
The second thing that's changing is the very nature of 
commercial charter cargo across all of the global economy. With 
the introduction of large aircraft with large cargo bays below 
the passenger decks, we now see commercial passenger carriers 
reentering the charter cargo market. That has changed the 
dynamic of our CRAF partners and we have to understand the 
impacts of that change in the economy on their capacity to be 
with us in crisis.
    Senator King. That's an issue that we're just going to have 
to watch as it evolves?
    General Selva. Yes, sir. To be fair, right now we have an 
ongoing study. We're about a year into working with our 
commercial partners to understand the economic dynamics of 
what's changing in the cargo and passenger markets. We are 
right now in about a 3-month period of receiving their comments 
on the work we've done. We owe this committee a report in mid-
June, if I understand correctly, on the outcome of that 
discussion.
    Senator King. Thank you.
    Admiral Rogers, I'm going to ask a question that I don't 
think you're prepared to answer, but I may ask it again in a 
year. I've been in a number of hearings both in the 
Intelligence Committee and in this committee on cyber issues, 
CYBERCOM and the NSA. How can you possibly do both of these 
jobs?
    Admiral Rogers. There is no doubt it's a challenge, and 
I'll be in a much better position, as you indicate, if 
confirmed, to look back and say how hard has it been and what 
have been the challenges. But I just believe that where we are 
right now, many of the missions and functions are so 
intertwined and related that to not do it this way would create 
real concern. Right now, in my current duties in the Navy I 
work for General Alexander both as CYBERCOM and as NSA leader, 
and so I have experienced these same challenges firsthand 
within my own service.
    Senator King. But you understand how over the past year 
both jobs have grown in responsibility. You have to be a 
spokesman, you have to manage. I just think it's something that 
we're going to really have to think about along with the 
administration going forward. I understand the desire to have 
it in one person, but, boy, I would think running the NSA 
itself is more than a full-time job.
    Admiral Rogers. We'll be busy, sir.
    Senator King. One of the major issues that we've been 
discussing again for the past year and a half, actually for the 
past, I don't know, years before I was here, is the necessity 
of some kind of cyber legislation that allows better 
coordination between the private sector and the Government. How 
do you assess the importance of that kind of legislation coming 
out of this Congress?
    Admiral Rogers. Sir, I believe that legislation is a key 
for our future. We have to change the current dynamic.
    Senator King. I certainly hope people are listening around 
here, because ever since I've been here everybody's been saying 
that, but it doesn't seem to change. My father used to say if 
you drove straight at the Pentagon it kept getting further and 
further away. I feel like that's where we are with this 
legislation. Everybody's talking about it. I certainly hope 
you'll work with us to try to develop that legislation in the 
multiple committees that have jurisdiction.
    I believe one of our greatest vulnerabilities is to cyber-
attack. I think the next Pearl Harbor is going to be cyber. The 
problem is we're more vulnerable than many other places. It's 
an asymmetrical disadvantage because we're so advanced in terms 
of our linked-up, networked society. How do we prevent that or 
what are the tools and are we where we should be? I certainly 
don't want to have a hearing or a set of hearings here about 
why we were asleep at the switch.
    Admiral Rogers. I think clearly we're not where we want to 
be. We're generating capability, we're generating capacity, and 
those are all positive steps in the right direction. But in the 
end I believe we have to get to some idea of deterrence within 
the cyber arena.
    Senator King. I think you're absolutely right about that, 
and we have the whole strategy of deterrence on the nuclear 
side and I think we have to develop a strategy of deterrence on 
the cyber side, that if somebody comes into our networks 
they're going to have some serious problems with their 
networks.
    Thank you, Admiral.
    Chairman Levin. Thank you, Senator King.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thanks to both of you for joining us today and for your 
service to our country. Admiral Rogers, I thank you in 
particular for visiting with me in my office. I appreciated the 
opportunity to discuss those important issues.
    There does have to be a balance struck between achieving 
our national security goals and protecting the constitutionally 
guaranteed rights of American citizens. Ultimately, I agree 
with my friend Senator Udall that, properly understood, these 
two things are the same thing. Our security lies in our 
constitutional protections and so we can't overlook 
constitutional protections in the interest of national security 
without compromising a good deal of what is embodied in our 
national security interests.
    In our well-intended efforts to recover and move forward 
past September 11, 2001, we have at times tried to strike a 
balance in a way that I find troubling. As I've stated before, 
I have some pretty deep-seated concerns with some of the things 
that have been revealed in recent months to the public, things 
that previously were known only to Members of Congress and to 
other people with the right security clearance within the 
Government.
    I worry about the NSA's surveillance and metadata 
collection programs and the risks that such programs could pose 
to the constitutionally protected rights of American citizens. 
The Fourth Amendment stands to safeguard those rights, and even 
if one assumes for purposes of this discussion that currently 
the only people employed at the NSA are people with only our 
best interests at heart, we still run a risk, even if that 
assumption is made, that at some point in the future, whether 
it's a week from now, a month from now, a year from now, 10 or 
20 years from now, unless we have the right safeguards in place 
those powers will be abused. They will be abused with respect 
to American citizens.
    Particularly given the fact that the NSA's mission is 
related to foreign intelligence-gathering, we need to make sure 
that we protect American citizens in their constitutionally 
protected rights.
    Admiral Rogers, if confirmed to this position how would you 
work to protect the constitutionally protected rights of 
American citizens while doing your job?
    Admiral Rogers. Yes, sir. I would attempt to be as 
transparent as possible with the broader Nation about what 
we're doing and why. I would try to ensure a sense of 
accountability in what the NSA does. The Nation places a great 
deal of trust in this organization. It has an incredibly 
important mission. It's a mission that involves a tension in 
our society, given the fact that the fundamental rights of the 
individual are so foundational to our very concept of the 
Nation.
    I welcome a dialogue on this topic. I think it's important 
for us as a Nation. I look forward to being part of that 
dialogue. As you and I have previously discussed, I am 
committed to trying to be a good partner in that effort.
    Senator Lee. I understand that a certain level of 
confidentiality must almost unavoidably surround many of the 
NSA programs that might be of concern to the American people, 
to ensure the effectiveness and to keep our enemy actors from 
working around our systems. But the public has developed a 
certain distrust of many of those programs.
    In discussing this concept with Senator McCain a few 
minutes ago, you mentioned that there might be a range of 
options available to us. Can you describe what some of those 
options might look like in balancing the need for 
confidentiality on the one hand, in order to protect our 
programs, and the need for transparency on the other?
    Admiral Rogers. I'd be looking at what are the mechanisms 
we use to assess the value portion of this and how can we do 
this potentially in a more public way. I haven't fully formed 
my own thoughts in this regard, but I think it's something 
that's incredibly important and I think is very specific to the 
duties as the Director of the NSA, if confirmed, the ability to 
be able to lead an honest and open dialogue about just what is 
the value of these efforts as we try to move forward.
    As I said, I'm not on the job yet. I need to get much 
smarter, but I'm committed to doing so.
    Senator Lee. The President's directed that the Government 
start to transition out of having the Government itself hold 
onto the bulk metadata collected pursuant to section 215 of the 
Patriot Act. Can you give me an update on how that process is 
going and how it might unfold?
    Admiral Rogers. Sir, as the nominee I haven't been part of 
that process, so I'm not in a position to give you a sense for 
how it's unfolding. I know it is ongoing. The President set a 
deadline of the 28th of March, indicating he wanted feedback on 
how the best way to move forward was. The issue that's among 
the many that's important to me as we move forward is this, and 
we try to figure out the best way, is how do we address the 
idea of speed, the ability to query the data in a way that both 
protects the rights of the individual, but also enables us to 
get answers in a quick, reasonable time period.
    Senator Lee. Thank you.
    President Obama stated in a speech in January the 
following. He said: ``I've directed the Attorney General to 
work with the Foreign Intelligence Surveillance Court so that 
during this transition period the database can be queried only 
after a judicial finding or in case of a true emergency.''
    What do you think might constitute a ``true emergency'' in 
this context?
    Admiral Rogers. Potential loss of life, hostage, criminal 
kind of scenarios.
    Senator Lee. I assume that in those scenarios there would 
have to be a time component, an urgency component for that to 
qualify.
    Admiral Rogers. Yes, sir, I would think so.
    Senator Lee. Not a mere inconvenience to the Government 
personnel involved, but some practical reason that would make 
it impossible, rather than just inconvenient, to go to the FISA 
court. Is that your understanding?
    Admiral Rogers. Inconvenience is clearly not the standard 
that's intended.
    Senator Lee. I see my time has expired. Thank you very 
much, Admiral.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lee.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    I want to thank both of you and congratulate you on your 
nominations. I've read your resumes, quite impressive. Thank 
you for the service to our great country.
    I also want to acknowledge the passing on Sunday, March 9, 
2014, of one of your fellow Air Force officers, one of your 
fellow comrades, if you will, at the Air Force Academy, in the 
passing of Major General Stewart. We're very sorry for that, 
and a loss for all of us.
    If I can, General Selva, to start with, the equipment in 
Iraq, where did it go, the equipment that we should have taken 
out? How much did we leave behind? Where did it go? What have 
we done with it?
    That leads right into what we're going to do in 
Afghanistan. I'm hearing that we're going to leave so much 
stuff behind. The State of West Virginia is kind of watching 
its p's and q's and its pennies, nickels, and dimes. How does 
that fare?
    General Selva. Sir, I'm not in a position to comment on 
what we left behind in Iraq.
    Senator Manchin. Is that because of security?
    General Selva. No, sir. I wasn't party to those decisions.
    Senator Manchin. Could you get some information on that?
    General Selva. I could try to find out for you.
    [The information referred to follows:]

    The majority of equipment in Iraq was transported back to the 
United States or to Afghanistan based on military operational and 
training requirements. The Department of Defense (DOD) transferred 
equipment and property to the Government of Iraq (GoI) under a number 
of authorities to build up the security forces of Iraq. Specifically, 
DOD transferred $319.7 million (fair market value) worth of foreign 
excess personal property (FEPP) to the GoI under the authority of title 
40 U.S.C. Sec. 704. Examples of these items are installation and base 
life support equipment (e.g., commercial vehicles, power generators, 
living containers, security barriers, and air conditioners). DOD 
achieved an estimated cost avoidance in excess of $605 million by not 
transporting these items back to the U.S. Additionally, DOD transferred 
over 24,000 pieces of ``excess'' equipment under the authority of title 
22 U.S.C. Sec. 2321j (grant transfers of Excess Defense Articles) to 
the GoI. Examples of this equipment are helmets, older version weapons 
(M16), body armor, tools, and commercial vehicles. DOD also transferred 
1,305 pieces of ``non-excess'' equipment to the GoI under the authority 
of Sec. 1234 of Public Law 111-84. Examples of this equipment are High 
Mobility Multipurpose Wheeled Vehicles, 40 ton trailers, maintenance 
trucks, and airfield support equipment.
    Finally, DOD transferred 759 items valued at approximately $10.8 
million to 20 different U.S. State and Local organizations through the 
National Association of State Agencies for Surplus Property. Examples 
of this equipment are: non-tactical vehicles, light sets, generators, 
dozers, bobcats, and forklifts. The equipment is provided on an ``as-
is, where-is'' basis to the States, with the States funding all 
packaging and transportation costs. Items not claimed by any 
organization were disposed of in Iraq.

    Senator Manchin. Thank you, sir.
    General Selva. I will let you know that in the current 
discussions we're having with ISAF on what we might leave 
behind in Afghanistan, one of the key issues that we have to 
address is the residual value of the equipment and whether or 
not the cost of lifting it out of Afghanistan is worth that 
investment. We have to do that, essentially a business case.
    Senator Manchin. Do we have any buyers in that part of the 
world for it or are we just going to give it away?
    General Selva. Sir, in some cases the equipment will be 
disposed of through foreign military sales. In others it will 
be through grants. But I don't have the specifics.
    Senator Manchin. If you could do that, I'd appreciate it.
    General Selva. If confirmed, I will get with the DLA team 
and get you that information.
    [The information referred to follows:]

    Equipment that is required to meet future military operational and 
training requirements is being transported back to the United States. 
Equipment that is excess to the Department of Defense (DOD) 
requirements is offered to the Government of the Islamic Republic of 
Afghanistan (GIRoA) and other eligible countries under various 
authorities. As of March 30, 2014, DOD has transferred $91 million 
(fair market value) worth of foreign excess personal property to the 
GIRoA under the authority of title 40 U.S.C. Sec. 704. Examples of 
these items are installation and base life support equipment (e.g., 
commercial vehicles, power generators, living containers, security 
barriers, and air conditioners). DOD achieved an estimated cost 
avoidance in excess of $1.1 billion by not transporting these items 
back to the United States. As with the equipment in Iraq, excess 
military equipment is made available to GIRoA and other eligible 
countries on an ``as-is, where-is'' basis under the authority of title 
22 U.S.C. Sec. 2321j (grant transfers of Excess Defense Articles) or 
title 22 U.S.C. Sec. 2751 (Foreign Military Sales). Non-excess military 
equipment may be transferred to GIRoA under the authority of Sec. 1222 
of Public Law 112-239. DOD is providing lists of excess equipment to 
the National Association of State Agencies for Surplus Property 
(NASASP) for potential transfer to U.S. State and local organizations 
on an ``as-is, where-is'' basis. To date, no equipment has been 
requested by NASASP due to the high transportation costs.
    Commercial equipment that has no trade security controls may be 
sold to local Afghan vendors beginning in April 2014. Finally, 
equipment with trade security controls that is not disposed of in any 
of the methods above will be demilitarized and disposed of in 
Afghanistan.

    Senator Manchin. Admiral Rogers, if you can, give me an 
overview of the cyber-attacks from Russia, and especially with 
the Ukraine situation we have right now that we're dealing 
with, and how that escalates to concerns and maybe more 
activity into the former Soviet Union countries, such as 
Kazakhstan and some of the others that are very much concerned, 
and even Poland, at what's going on. Are you seeing an uptick 
in those type of cyber-attacks there?
    Admiral Rogers. We clearly see that there's an ongoing 
cyber element to the challenges in the Ukraine at the moment. 
In terms of specifics, I would respectfully ask that this is 
something that would perhaps be best shared in a classified 
setting.
    Senator Manchin. Okay. I was just wanting to see, I would 
assume there has been. If you can do that, I'd appreciate it, 
sir.
    Also, my State of West Virginia has gone through a water 
crisis, if you will, because of a spill. I've said this before. 
If anyone wanted to know the effects it has on the population 
and the concerns and the hysteria--and we had no loss of life, 
no one seriously ill--what a cyber-attack would do to the 
confidence of the people, we're a perfect example, if you would 
come down and work with us and help us on that.
    But with that being said, our most vulnerability I see is 
in our water, our food, and our grid system. Since a lot of 
this is privately owned or corporately owned, are you 
interacting and how much are you interacting with those 
concerned to beef up the security?
    Admiral Rogers. Sir, it's clearly not in my current duties, 
but if confirmed that would be an aspect of the mission. Absent 
legislation, we're attempting to do that on a voluntarily-in 
partnership basis. Those partnerships in some areas are working 
very well, in others clearly not as mature as we would like.
    Senator Manchin. Maybe you can even elaborate more. I know 
that Senator King had mentioned you probably wouldn't be able 
to answer it today, you could a year from now. Tell us what all 
has been thrown into the mix, if you will, of what you're 
expected and how you can bring everything together with the 
demands and the growth, I think is what we're concerned about, 
and if we should still stay under one umbrella? I think right 
now we're going down that direction. But how much more has been 
thrown at you?
    Admiral Rogers. Clearly, it's a demanding set of duties. 
I'd also highlight the Director of NSA and the Commander of 
CYBERCOM does not operate alone by themselves. There's a strong 
team in place. I've had the honor of working with that team on 
both the CYBERCOM side and the NSA side for the last 2\1/2\ 
years in my current duties. They're a real strength for the 
team.
    Senator Manchin. It's amazing to me--and I don't see this 
in West Virginia at all--they're trying to lift Snowden up to 
any type of hero. He is basically a traitor in our eyes and 
what he's done to our country.
    But with that being said, there had to be a frustration 
level to where he felt, he felt that that was the direction for 
him to go, because there was no outlet. Are you able to in your 
new position looking at how you can work, because you're going 
to have contractors involved and it looks like you're going to 
have more contractors--are they able to come and have their 
concerns and do you have any type of an outlet there that would 
work with them, so that we don't continue to go down this road?
    Admiral Rogers. Yes, sir, there are avenues both within the 
NSA chain of command, there are avenues both with an inspector 
general structure, both within NSA and CYBERCOM as agencies.
    Senator Manchin. Did Snowden ever take those avenues and 
try to air his concerns?
    Admiral Rogers. I don't know, but I'm sure in the ongoing 
investigation as we review the particulars of the Snowden case 
that'll be one of the questions of high interest.
    Senator Manchin. Yes, because basically he just went down 
the sabotage route. You've said before some of the things he's 
done and has continued to do is irreparable.
    Admiral Rogers. I'm not sure I said irreparable, but I 
believe it has significant risk, damage, and consequences for 
us.
    Senator Manchin. Would you look at him as a traitor?
    Admiral Rogers. I don't know that I would use the word 
traitor, but I certainly do not consider him to be a hero.
    Senator Manchin. Thank you.
    Chairman Levin. Thank you, Senator Manchin.
    Senator Graham.
    Senator Graham. Thank you both for your service and I look 
forward to working with you in the future. I have every 
confidence that you'll be confirmed, and these will be 
difficult, but I think very rewarding, jobs.
    General, on the transportation side, what effect will 
sequestration have on the ability of Air Transportation Command 
to meet our defense needs over the next 8 years?
    General Selva. Senator, I think there's two significant 
impacts sequestration will have. The first will be as an 
industrially funded organization, where our users that use 
transportation services pay out of their operation and 
maintenance (O&M) accounts for those services, the decrease in 
the availability of those funds is likely to cause a decrease 
in that demand signal. The corollary to that is that will force 
then our organic capacity, the training and seasoning of the 
people that do that work, whether it's Military Sealift Command 
or Air Mobility Command, to spend more of their O&M dollars to 
achieve that training they could as a byproduct of moving 
transportation requirements around the world. There is a bit of 
a two-sided coin there on the impact of sequestration on the 
readiness of those fleets.
    Senator Graham. In simpler terms, would it be really 
damaging?
    General Selva. Yes, sir.
    Senator Graham. From an Air Mobility Command point of view, 
which you are very familiar with, how has our air fleet been 
affected by the operational tempo (OPTEMPO) over the last 10 
years?
    General Selva. Senator, we've had a fairly high OPTEMPO, 
particularly in our airlift and air refueling fleets. The 
fleets are holding up pretty well. We do a continuous 
assessment of the structures in our large airlift aircraft. But 
the OPTEMPO is showing its----
    Senator Graham. Is it fair to say that when we accepted 
each plane into the fleet--the operational tempo has been 
really unprecedented since World War II probably, and that when 
it comes time to evaluate our future needs, we're flying the 
wings off of these planes basically? I know they're 
structurally sound, but I want the committee to understand that 
no one envisioned this level of operational tempo before 
September 11, and we're going to have to make accommodations 
for it.
    Admiral, are we at war?
    Admiral Rogers. I wouldn't use the word war, but there is 
no doubt we are in a conflict.
    Senator Graham. If it's not a war what is it?
    Admiral Rogers. War has a very----
    Senator Graham. Is it a disagreement?
    Admiral Rogers. I apologize, Senator. I didn't understand 
the question.
    Senator Graham. I said, are we at war? You said, no, I 
think it's something else, conflict. How could you say we're 
not at war?
    Admiral Rogers. War has a very specific legal definition 
and I don't believe we've met that.
    Senator Graham. Do you believe that we're at war with al 
Qaeda and their affiliates?
    Admiral Rogers. Yes, sir. Senator, if I could, I apologize. 
I assumed you were talking in the cyber arena. Please accept my 
apologies.
    Senator Graham. Absolutely. My bad, my bad.
    Admiral Rogers. Yes, sir, there is no doubt----
    Senator Graham. No, I got you. You don't want to go down 
the road. I got you, no.
    But we are at war in terms of radical Islam being the enemy 
of the Nation?
    Admiral Rogers. Yes, sir.
    Senator Graham. The NSA program is designed to protect us 
against an enemy who is hell-bent on attacking our Nation at 
home and throughout the world, do you agree with that?
    Admiral Rogers. Yes, sir.
    Senator Graham. Is it likely that there are fifth column 
movements already in the United States, embedded in our 
country, sympathetic to the enemy?
    Admiral Rogers. We've seen those kinds of actions by people 
in the United States sympathetic to that previously.
    Senator Graham. Do you believe if we had had the NSA 
capabilities in effect in September 2001 that we have today 
there's a high likelihood that we would have intercepted the 
attack on September 11?
    Admiral Rogers. The potential certainly would have been 
much greater.
    Senator Graham. As we reform the program, will you keep in 
the forefront of your thinking not to take us back to pre-
September 11 capabilities?
    Admiral Rogers. Yes, sir.
    Senator Graham. When it comes to monitoring content of an 
American citizen on a phone, the NSA program is very 
restrictive in that regard; is that a true statement?
    Admiral Rogers. Very restrictive, sir.
    Senator Graham. The threat we face is very real. Major 
Hassan, are you familiar with that gentleman?
    Admiral Rogers. At Fort Hood, I believe, yes, sir.
    Senator Graham. How could he, a major in the U.S. Army, 
communicate on the Internet with Anwar Awlaki, a leader of al 
Qaeda in Yemen, an American citizen, and we not understand that 
or not find out about, detect that? Do you know?
    Admiral Rogers. No, sir, other than to say in general I 
believe he took advantage of the protections afforded to our 
citizens.
    Senator Graham. Could you do me a favor and evaluate how we 
missed Major Hassan? Because I believe in privacy and 
transparency, but I believe that any system that's going to 
protect America from an attack has to be able to pick up a 
communication from a major in the U.S. Army with one of the 
leading terrorists in the world. If we can't do that, 
something's wrong. Would you please go back, evaluate how we 
missed Major Hassan? If we need to change the law to catch 
future Major Hassans, I would like to help you in that 
endeavor.
    [The information referred to follows:]

    Many factors contributed to the outcome of the 2009 Fort Hood 
incident and I'm not in a position to identify the specific or primary 
ones. This has been the subject of extensive study by the Department of 
Defense Independent Review Panel and by the Senate Homeland Security 
and Government Affairs Committee and I refer you to the reports that 
detail their respective investigations into the Fort Hood shooting and 
recommendations to prevent future incidents. Both reports are 
authoritative and comprehensive.

    Senator Graham. The Boston attack. Is it fair to say that 
our ability to pick, intercept communications, identify the 
perpetrators fairly quickly, gave us some lead time about 
anything they may have been planning in New York?
    Admiral Rogers. Yes, sir.
    Senator Graham. When it comes to being at war with radical 
Islam, do you consider the Homeland one of their chief targets?
    Admiral Rogers. Yes, sir.
    Senator Graham. If they could attack any place in the 
world, the top priority would probably be here at home?
    Admiral Rogers. Yes, sir.
    Senator Graham. Now, when it comes to reforming this 
program, how much can we talk about how the program works 
before we destroy its ability to protect us?
    Admiral Rogers. There's clearly always an element there 
that we don't want to divulge sources and methods.
    Senator Graham. Would you say that the discussions about 
how this program works and the details probably have already 
helped the enemy in terms of being able to adapt?
    Admiral Rogers. It's given them greater insights into what 
we do and how we do it.
    Senator Graham. Is it fair to say that the enemy, when they 
communicate, uses commercial networks like the rest of us?
    Admiral Rogers. Yes, sir.
    Senator Graham. The only way we'll be able to detect what 
they're up to is to be able to access these commercial networks 
in a reasonable fashion?
    Admiral Rogers. Yes, sir.
    Senator Graham. Do you agree with me that the only way to 
deter them is to prevent them from attacking us, because 
killing them is not a deterrent? They welcome death. The best 
way to protect us against radical Islam is to find out what 
they're up to and hit them or stop them before they hit us? Is 
that the world in which we live in?
    Admiral Rogers. Yes, sir.
    Senator Graham. Thank you.
    Chairman Levin. Thank you, Senator Graham.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you, 
gentlemen and your families, for your devoted service to the 
Nation.
    Let me begin with General Selva. General, one of the 
important components to TRANSCOM is the CRAF. Your agency is 
studying the relationships and what we do now, as we reset 
after significant extensions in Afghanistan and Iraq and around 
the globe. Can you give us an idea, a preliminary idea at 
least, of what we have to do to ensure the CRAF program 
continues to support our wartime needs, and any highlights of 
the study that are ready for prime time?
    General Selva. Senator, inside the relationship with the 
CRAF we have 28 separate carriers that provide cargo and 
passenger services, each with their own business plan, each 
with their own motivation for how they run their businesses. 
Part of the study was to get at the eachs of how the industry 
runs and get at the broad macroeconomics of how the industry is 
going to evolve over time.
    We've put those two big pieces together. We're now working 
with the senior executives in those individual carriers to come 
to some agreement on what a contract mechanism might look like 
to incentivize their volunteer service in the CRAF. As you may 
be aware, the policy that governs how we manage, National 
Airlift Policy, was last updated in 1987. This study is the 
first major effort post-Desert Storm to get at what the 
economics of the industry look like and how they affect our 
relationship with the CRAF.
    I fully expect, based on my interaction with senior 
executives from many of the airlines, that their volunteerism 
will continue. The question is how do we make it a meaningful 
business incentive for them to do that.
    Senator Reed. Do you anticipate any legislative 
requirements that you would have that would help you achieve a 
more efficient outcome for the Government?
    General Selva. Senator, based on the preliminary work we've 
done in the study and our interaction with the carriers, I 
don't believe any legislative changes are required to the 
National Airlift Policy to make us successful.
    Senator Reed. But if they do, you will inform us?
    General Selva. Yes, sir, absolutely.
    Senator Reed. Thank you.
    Admiral Rogers, congratulations. I don't know if that's in 
order or not, but congratulations.
    Admiral Rogers. Thank you.
    Senator Reed. You have two huge responsibilities, CYBERCOM, 
which is a DOD function, and the NSA. In your organization are 
you going to have, or are you contemplating having, principal 
deputies that would essentially focus exclusively on one or the 
other?
    Admiral Rogers. Yes, sir. Each organization has its own 
deputy and a complete operational organization.
    Senator Reed. There are no changes at this time in those 
deputies?
    Admiral Rogers. I believe you may see the CYBERCOM deputy 
changing in the course of the next few months. But that's again 
part of the normal rotation.
    Senator Reed. Part of the anticipated rotation, et cetera. 
There'll be the overlap, et cetera.
    Let me change gears slightly. We've all recognized the 
growing importance of cyber in every capacity, and I think the 
lessons of history suggest that the more we practice the better 
we are when the game starts. To my mind, I don't think we've 
had the kind of coordinated exercises between CYBERCOM, the 
NSA, the Department of Homeland Security, every other agency, 
which basically would confirm what we believe and maybe give us 
some surprises about what we don't know. Is that your 
impression, too?
    Admiral Rogers. I think we've done a good job of exercising 
within the Department. As we bring more capability, more 
capacity, on line, I think the next major evolution for us is 
how do we exercise more broadly across the U.S. Government in 
applying those capabilities.
    Senator Reed. Then also there's the issue of not only 
across the U.S. Government, but also reaching out to utilities, 
both financial utilities and public utilities. Is that 
something where again you would need either funding or 
authorization or encouragement from Congress?
    Admiral Rogers. At this stage of the game, I don't know. 
But I do make the commitment that if I am confirmed I will 
assess that, and if I believe that money or authorities or 
support from the legislative side is required I will approach 
you.
    Senator Reed. I would encourage you to do that, because 
again I think there are so many different moving parts in these 
issues that you're addressing, not just in terms of 
operational, but privacy, constitutional, policy, commercial 
enterprises versus Government enterprises, not-for-profits, 
that I think this exercise would be hugely important. This is 
probably not the most precise analogy, but when we saw war 
beginning in 1939 and 1940 we learned a lot in the Louisiana 
maneuvers. In fact, we discovered some very capable leadership 
down there that was in the junior ranks and vaulted over some 
others very quickly when the war started.
    I don't sense we've actually done that in the scale that we 
talked about. I would urge you to look very quickly and get 
back to us very quickly in terms of what we have to do to 
assist you.
    Again, I think both of you gentlemen bring extraordinary 
dedication and service, and not just yourselves personally but 
your families. Also, I think you bring appreciation that all of 
what we do ultimately is about the young men and women who wear 
the uniform, that really are in harm's way. For what you do for 
them, I thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Thanks to both of our witnesses today. Let me try to be 
brief.
    General Selva, I want to talk about moving C-130Js from 
Keesler Air Force Base. But let me say that DOD wants to do 
another base realignment and closure (BRAC) round, and often we 
hear Defense officials say it's not going to be like the 2005 
BRAC round. They say: Our days of spending lots of money just 
moving things around that won't result in financial savings, 
those days are over. Yet with the Air Force plans to shut down 
the 815th Airlift Squadron and their Active Duty partners, the 
345th Airlift Squadron, and move the squadron of C-130J 
aircraft away from Keesler Air Force Base, it seems to me the 
reasons have never been fully explained.
    The official announcement came yesterday. I have a news 
report from WLOX of Biloxi, MS, which says Keesler Air Force 
Base will lose 10 aircraft from the 403rd Wing under proposed 
defense cuts presented to Congress on Monday. The Air Force 
Reserve Command plans to transfer the 10 C-130J aircraft to the 
newly reactivated--newly reactivated--913th Airlift Group in 
Little Rock.
    First, I'm willing to work with the Air Force in making 
overall savings. Every Senator is going to defend our own 
bases. But if this is going to help the greater good, count me 
in to be your teammate here.
    But first these aircraft were going to go to Dobbins in 
Georgia. The Air Force abandoned that, and then they were going 
to send them to Pope Field to the 44th Airlift Wing in North 
Carolina. Now that wing's going to be deactivated, and we're 
newly reactivating an airlift group at Little Rock and sending 
these C-130Js from Keesler to Little Rock Air Force Base, to 
this newly reactivated group.
    The taxpayers have spent millions of dollars to provide 
Keesler Air Force Base with state of the art modern hangars and 
facilities. As a matter of fact, Keesler has enough space to 
house two squadrons. Yet the Air Force continues to propose to 
spend millions of dollars to move these aircraft away.
    I just want you to help us understand at the committee 
level the reason for this. Of course, the move would also cause 
serious disruptions to the unit's personnel and their families, 
and that happens every time there's a move. I just want to ask 
you three direct questions, General:
    How much will this move cost?
    General Selva. Senator, my understanding is that the move 
itself is cost-neutral to Little Rock. The savings are on the 
order of 600 manpower billets across the Air Force Reserve 
specifically as the Reserves looked at this decision, which 
equates to about $100 million across the Future Years Defense 
Program (FYDP) for savings.
    Senator Wicker. Okay. Is there going to be any military 
construction (MILCON) needed at Little Rock to accomplish this 
move?
    General Selva. Not to my knowledge.
    Senator Wicker. Now, I want you to supply me a statement 
then on the record, not to your knowledge. I want you to be 
able to look us in the eye on this committee, General, and 
assure us that not $1 of MILCON is going to be needed to 
accomplish this move.
    General Selva. Sir, I'll look into the costs of the move 
from the specifics of what might be required at Little Rock 
that wouldn't either be required at Pope or any other location 
where we would base that unit.
    Senator Wicker. It is your testimony that moving these 10 
aircraft from a base where there's already modern hangars and 
facilities to a new base is actually going to save enough money 
to offset the cost of making this move?
    General Selva. Senator, based on the consultations I've had 
with the Air Force Reserve Command in their making this 
decision and recommending it to the Air Force, my understanding 
is that they will save upwards of 600 manpower billets and that 
will save us $100 million across the FYDP, and that it's a 
reasonable thing to do.
    Senator Wicker. I want you to get back to us with the 
specific numbers there.
    [The information referred to follows:]

    Proposed C-130 fleet reductions in the fiscal year 2015 President's 
budget, including deactivation of Air Force Reserve Command's 440th 
Airlift Wing at Pope Army Air Field and Air Force Reserve Command's 
consolidation at Little Rock Air Force Base from 15 C-130Hs to 10 C-
130Js, combined with the existing infrastructure at Little Rock Air 
Force Base results in no additional MILCON needed to integrate Air 
Force Reserve Command's 10 C-130J aircraft at Little Rock Air Force 
Base.

    Senator Wicker. Let me just follow up on Senator Manchin's 
question about equipment being left in Afghanistan. I think 
your testimony was that you really weren't in a position to 
comment about equipment left in Iraq, is that correct?
    General Selva. Sir, I'm not in a position to testify about 
the details of the equipment left in Iraq because I wasn't in 
that decision process.
    Senator Wicker. Okay, but you are going to get back with 
the committee and with Senator Manchin on some follow-up 
answers regarding equipment being left in Afghanistan, is that 
correct?
    General Selva. Senator, the decisions on equipment left in 
Afghanistan will be up to General Austin in CENTCOM and General 
Dunford in ISAF, as well as our DOD leadership. The comment I 
made to Senator Manchin was there is some equipment that would 
normally be left in Afghanistan as a result of the value of the 
equipment, the residual value of the equipment, being less than 
the transportation costs in having to bring it home.
    Senator Wicker. Are you going to be able to get back to the 
committee about the factors there or do you suggest that 
Senator Manchin and I look elsewhere?
    General Selva. Sir, I would have to consult with General 
Austin and General Dunford----
    Senator Wicker. It's a question for another command?
    General Selva. Yes, sir.
    Senator Wicker. Okay. But it goes without saying--number 
one, we're going to leave friends there. Hopefully we're going 
to leave a follow-on force.
    General Selva. Yes, sir.
    Senator Wicker. Hopefully, we're going to try to continue 
to be successful in Afghanistan. There are some forces that are 
going to need this equipment.
    Second, there would be a cost to the taxpayers of 
transporting some of this equipment back that's not going to be 
necessary for us to be successful in the long haul, and it 
would make no sense to spend the money to bring it back if it's 
going to cost more. Would that be a fair statement?
    General Selva. That's correct, sir.
    Senator Wicker. Thank you very much. Good luck to both of 
you.
    Chairman Levin. Thank you, Senator Wicker.
    Let me interrupt just for one second. The first vote has 
now begun. I believe it's the first of four that are scheduled. 
After Senator Vitter, I think that Senator Kaine is coming 
back, and if there are no other Senators I'm then going to ask 
Senator Kaine, who is coming back I understand, to close off, 
unless Senator Inhofe has a different plan. Thank you.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman, and thanks to our 
witnesses for all of your service and for being here.
    Admiral Rogers, do you think that CYBERCOM has the 
necessary supporting policies and authorities and relationships 
and the will to act? Are all of those in place, and if you 
would supplement any of those what additional authorities or 
policies would you like to see?
    Admiral Rogers. In general, my immediate answer would be 
yes. I think as I've already indicated, that the things I think 
we need to continue to work on are this idea of deterrence, 
this idea of developing norms within the cyber arena. That's 
going to be much broader than just CYBERCOM, but clearly 
CYBERCOM I believe is part of that dialogue.
    Senator Vitter. But within CYBERCOM, do you have the 
authorities and the policies you need to do all of that 
effectively?
    Admiral Rogers. Yes, sir.
    If I could, and if I am confirmed and my experience leads 
me to believe otherwise in actually executing the mission, I 
will come back.
    Senator Vitter. Okay. In your statement you said, ``The 
level of expertise required to conduct potentially damaging 
operations has steadily lowered, enabling less capable actors 
to achieve some level of effect.'' How does this impact our 
allies and foreign partners and our ability to work with them?
    Admiral Rogers. I think it increases the level of risk for 
all of us, for all of our partners.
    Senator Vitter. Is it in particular a problem when we have 
allies and partners with less capable defenses than we do, and 
how do you handle that?
    Admiral Rogers. Yes, sir, and I think one of the ways we 
handle that is through strong, broad partnerships. We have a 
strong dialogue in the cyber arena now with many of our allies 
and partners. We need to continue to build on that.
    Senator Vitter. I know the Pentagon, for instance, wants 
more NATO members to have more access to unmanned aircraft. Are 
there particular issues or threats or vulnerabilities related 
to that, given these advanced opportunities for our enemies to 
have an effect?
    Admiral Rogers. Yes, sir, there clearly is a risk there.
    Senator Vitter. How do we mitigate and hedge against that 
risk?
    Admiral Rogers. I think we ask ourselves what can we do to 
try to mitigate that risk, whether it's changes to the physical 
systems on those aircraft themselves, whether it's asking 
ourselves what kind of tactics, techniques, and procedures are 
we doing that can help maximize our attempts to mitigate that 
risk.
    Senator Vitter. Are those risks ever such that, with regard 
to particular systems, we would change our mind in terms of a 
transfer to an ally?
    Admiral Rogers. Clearly it would be on a case-by-case 
basis. None that I'm currently aware of.
    Senator Vitter. Okay. Last week the press reported that 
Russia had used cyber-attacks against Ukrainian 
telecommunications, to hamper Ukrainian leadership's ability to 
access that. Do you agree that Russia has very sophisticated 
cyber capabilities, and if they use them that could impart 
considerable damage to Ukraine's critical infrastructure?
    Admiral Rogers. Yes, sir, I would agree with both of those 
statements.
    Senator Vitter. I want to move to Guard and Reserve, 
Admiral Rogers. A lot of us are interested in better 
integrating and using, leveraging, Guard and Reserve 
capabilities. Clearly it's a long-term trend that the Guard and 
Reserve are much more in the middle of any effort, any fight we 
have. What specifically is CYBERCOM doing to ensure that the 
Guard and Reserve components are being fully utilized and 
maximized?
    Admiral Rogers. First, CYBERCOM is part of that broader 
departmental discussion, that review that's ongoing right now, 
that is scheduled to be finished by July, that's designed to 
take a look at the mission analysis associated with asking 
ourselves just what kind of Reserve capability in the cyber 
arena do we need, how do we bring it to bear, how do we 
structure the Reserve component to maximize its effectiveness 
and its part in this mission.
    In addition, CYBERCOM currently has an ongoing series of 
exercises designed to exercise with Guard units in the cyber 
arena. CYBERCOM also has an ongoing dialogue and is part of a 
broader dialogue with governors and the adjutant generals as we 
work our way forward to figure out what's the best way to 
maximize that capability, and we have to maximize that 
capability.
    Senator Vitter. I would underscore and encourage that with 
regard to CYBERCOM in particular. As I hope you know, there's 
particular language in the last defense authorization bill 
requiring maximization of that with regard to the Guard and 
Reserve. I would really commend that to your focus and 
attention.
    A final question. I think some of your comments have gone 
to the fact that appropriate leadership needs to make the case 
more fully and publicly and persuasively for the use of 
important authorities that do exist and lay that out in 
layman's terms, if you will, why it's important. In that 
spirit, can you talk to a capability that has been fairly hotly 
debated, which is the use of geographic information regarding 
cellphones?
    Admiral Rogers. To be honest, sir, it's not an issue I have 
yet delved deeply into. It's one of those things I need to get 
specificly smarter on to be prepared to discuss very publicly. 
I think that's an important part of that public discussion.
    Senator Vitter. If you could look at that and maybe 
supplement the record in writing with regard to your thoughts 
on that, I would appreciate it.
    Admiral Rogers. Yes, sir.
    [The information referred to follows:]

    I appreciate that there has been some concern raised about whether 
the National Security Agency (NSA) would seek to obtain Cell Site 
Location Information (CSLI) under section 215 of the Patriot Act. CSLI 
provides identifying information for the cell tower used initially to 
place or receive the call. While CSLI identifies the tower, it does not 
reveal the precise location of the mobile device used to place or 
receive the call. As detailed in several declassified court orders by 
the Foreign Intelligence Surveillance Court (FISC), NSA is not 
authorized to obtain CSLI as part of the section 215 Telephony Metadata 
Program. Accordingly, should NSA seek to obtain CSLI under section 215 
at a future point in time it would need to obtain the approval of the 
FISC. It is important to note, however, that CSLI is potentially useful 
intelligence information in many other contexts, such as 
counterterrorism investigations and in support of U.S. military and 
intelligence operations abroad. For example, it could well be that 
knowing the general location where a terrorist was located or where an 
individual in contact with a terrorist was located when a call was made 
would be a key piece of information to those responsible for protecting 
the Homeland.

    Senator Vitter. That's all I have. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Vitter.
    Senator Kaine, when you're done, we're in the middle of a 
vote now--you have voted on this one, have you?
    Senator Kaine. I have, Mr. Chairman.
    Chairman Levin. If you could then turn it over to whoever 
is here next in line, I'd appreciate it.
    Senator Kaine. I will. Thank you, Mr. Chairman.
    Thanks to the witnesses for your service and for your 
testimony today. My questions will be primarily for Admiral 
Rogers.
    I have a little bit of an unorthodox view of some of these 
challenges about NSA programs. Many of my colleagues talk about 
these programs as if the solution to controversies is fixing 
the programs themselves, and I actually think the bigger 
challenge is many of these programs are being carried out 
pursuant to a vaguely defined war or conflict.
    Admiral Rogers, twice during your testimony today I think 
your testimony has at the vague notion of what we are, in fact, 
in. You indicated that you thought Edward Snowden's revelations 
were wrong and that they cost American lives, but you hesitated 
about whether to use the word traitor to describe Edward 
Snowden. When you were asked by Senator Graham whether we were 
at war, you said we're in a hostility or disagreement. But then 
there was a misunderstanding in terms of what he was asking. 
You thought he was asking about a cyber-war in particular; you 
understood that we're in a war on terror.
    My concern is we are carrying out a whole series of 
military actions and intelligence programs that are being done 
pursuant to an authorization for use of military force that was 
done on September 14, 2001, that has no temporal limitation, 
that has no geographic limitation, and that has been defined by 
both the Bush and Obama administrations to extend to taking 
action not only against those who planned the September 11 
attack, but against associated forces. That language does not 
appear in the authorization, but it has been the 
administrations', both administrations', decision about what 
that authorization means.
    We are currently in a war, but the war does not have a 
geographic limitation. It does not have any kind of a temporal 
limitation. It doesn't have an expiration date. This committee 
held a hearing on the authorization for use of military force 
in May. I asked Obama administration witnesses when does this 
war end, and they said: We're not sure; it could be 25 or 30 
years.
    I asked Obama administration witnesses: If someone who is 
born in 2020 and when they're 15 years old in 2035 joins an 
organization that is associated with al Qaeda that only popped 
up then, that has no designs against the United States, does 
the authorization allow us to take military action against that 
individual or that group? The answer was yes.
    There is no reform that we're going to be able to make to 
any of these NSA programs that I think will answer the 
questions of our citizens or civilians if our intelligence-
gathering operation is done in a significant way pursuant to an 
open-ended military authorization. The questions that you 
received about the dual-hatted nature of your job--you're part 
of a military command that is executing an authorization that 
has no limitation whatsoever for all practical purposes, and 
you're also in an NSA position where you're gathering 
intelligence.
    I feel like the challenge about limiting these NSA programs 
or trying to find the right balance between fighting terrorism, 
stopping evil, and protecting citizens' rights--we can do 
anything we want within the four corners of the programs. If we 
do not as a Congress revisit the 2001 authorization and try to 
put some sense of definition and scope to it--open-ended, it 
could be a war for another 25 or 30 years--we'll continue to 
have witnesses, sharp witnesses who are very talented, who will 
come before us and will have difficulty describing exactly what 
we're in the middle of because the primary job of Congress is 
to give some definition at the front end in terms of what the 
mission is. It's the military and the Commander in Chief that 
have to execute the mission.
    But Congress has given no definition of what it is we are 
doing at this point, and we will always have controversies in 
my opinion going forward.
    Now, Admiral Rogers, in your advance policy questions you 
were asked about what constitutes use of force in cyber space 
in relation to the War Powers Act, the exercise of the right of 
self-defense under the United Nations (U.N.) Charter, and also 
the triggering of collective defense obligations. I'd like if 
you could just elaborate a little bit on that answer today, use 
of force in cyber space and how in your view that triggers 
either the war powers or other obligations that the United 
States has.
    Admiral Rogers. I'd be first to admit, I apologize, of the 
120 questions I was asked, I don't remember word for word the 
specifics. Please, accept my apologies.
    Senator Kaine. Yes, indeed. What are unique challenges in 
defining ``war'' in cyber space, what war is, what hostilities 
are, what military action is?
    Admiral Rogers. Clearly, from a policy perspective we are 
still trying to work our way through those issues. The tenets I 
think that are applicable here are the fact that, whatever we 
do within the cyber arena, international law will pertain; that 
if we find ourselves getting to a point where we believe that 
cyber is taking us down an armed conflict scenario, that the 
rules and the law of armed conflict will pertain every bit as 
much in this domain as it does in any other.
    I don't think cyber is inherently different in that regard. 
I think those sets of procedures, those sets of policies and 
law, as a Nation have stood us in good stead. I think they 
represent a good point of departure for us.
    Senator Kaine. The phrase you used I think is an 
interesting one: If we believe that cyber activity is taking us 
down the path to armed conflict, then international law would 
apply. Would it be your view then that pure cyber war--somebody 
wipes out our grid and then we think about taking activity to 
respond--is that not war? It could have huge effect on human 
life. It could have huge effect on the economies of the two 
nations. Is that not war unless it then leads to armed 
conflict?
    Admiral Rogers. No, certainly I believe that an offensive, 
destructive act that has significant impact for us, I believe 
now we're starting to get on the boundaries of is that an act 
of war. Now, everything varies on a case by case basis and I'm 
always concerned about broad general statements.
    Senator Kaine. Right. It is just that question. We do have 
some important definitional work to do. The absence of a cyber-
bill makes this all harder for all of us.
    Let's switch topics. Yesterday I visited Northern Virginia 
Community College and was fortunate to be there at a time where 
there was a meeting of the DC-based organization CyberWatch, 
which was set up a number of years ago to help colleges, 
community colleges, and the private sector, coordinate what 
they think are the skills that our cyber professionals need. 
It's a work force organization.
    I was interested that someone from DOD is not commonly 
around that table and I might want to follow up separately to 
suggest that that would be a good avenue for participation.
    There has been testimony--General Alexander was here last 
week--on the need for 133 cyber mission teams managed by 6,000 
highly trained personnel by 2016. As the leader of CYBERCOM, 
what will be your approach on these recruiting and training 
issues? Because, first, the need is intense; and second, the 
competition from the private sector is also very intense for 
people with this skill set. What will your approach be to 
staffing out this important mission?
    Admiral Rogers. First, each of the Services continues to 
pay particular attention to this in their responsibilities to 
man, train, and equip the cyber force. As the Navy individual 
right now, to be honest, on the uniformed side our experience 
has exceeded our expectations. We have been able to recruit 
quality individuals and retain them. It's something I, in my 
current duties, continue to pay close attention to: What are 
the indicators that would suggest that potentially that is 
changing?
    In some ways, the civilian side I think represents an even 
potentially greater challenge. I think we need to look at 
incentives, whether that be pay, whether that be the ability to 
focus these individuals in particular areas for extended 
periods of time, in ways that traditionally we don't do now. I 
think we'll need to look at all of that.
    Senator Kaine. When you say the civilian side, you mean to 
do the work of CYBERCOM it takes a real balance of Service 
branch personnel, but also DOD civilians.
    Admiral Rogers. Yes, sir.
    Senator Kaine. There has to be a good mixture.
    Admiral Rogers. Yes, sir.
    Senator Kaine [presiding]. My time is up and all who are 
here for first rounds of questions are done. Is there a second 
round of questions? Ranking Member Inhofe?
    Senator Inhofe. Yes, Mr. Chairman. If you'd like to go 
ahead and continue, you could. I know that Senator Cruz is 
coming back, although you were involved, starting to talk about 
something that I unsuccessfully was trying to get at during my 
time, and that is this threat. I just fail to see that there's 
a major difference between someone who is attacking us, 
depending on what kind of weapon they're using, and this weapon 
of cyber attack.
    Let me ask you, Admiral Rogers, do you believe we're 
deterring or dissuading our adversaries in cyber space and out? 
Do you think we're deterring them?
    Admiral Rogers. Not to the extent we need to, sir, no.
    Senator Inhofe. Do you know what cyber deterrence looks 
like?
    Admiral Rogers. No, sir. We're still working our way----
    Senator Inhofe. That's the problem. There's not a lot of 
the public out there that is aware of the significance of 
what's going on. When I talk to people out there about what 
Iran's capabilities are, what they're going to be next year. We 
talk about a weapon, we talk about a delivery system, they 
understand that, but not cyber attack. I look at this and I 
just think that the Senator from Virginia was really onto 
something. A war is a war, and I think we're going to have to 
elevate the threat that we're talking about in this committee 
and you'll be dealing with, both of you are going to be dealing 
with, to the level of a military threat, because I think most 
people are not really aware of that.
    General Selva, DOD uses rail primarily for large training 
exercises and deployments. It also depends on the rail industry 
to be ready to meet DOD's surge requirements. What is your 
assessment of the rail industry to support DOD's requirements?
    General Selva. Senator, I'm not in a position as the Air 
Mobility Command Commander to give you a definitive answer 
other than to say that, having consulted with TRANSCOM, the 
recent work that's been done to look at the number of available 
rail cars and the status of the rail infrastructure in the 
Nation is in the hands of the TRANSCOM Evaluation and 
Assessments Division. I'll be happy to take a look into that 
data once I have an opportunity to do that if confirmed. But 
it's so far out of the area of my expertise right now, it 
wouldn't be appropriate for me to give you a definitive 
comment.
    Senator Inhofe. Admiral Rogers, I mentioned earlier that I 
have gotten to know the outgoing man in charge, General 
Alexander, quite well, and I've had a chance to talk to him 
some time ago, early on. I think he's really done an excellent 
job and he has informed me that you have the type of background 
that is going to be able to do the same thing. I would just 
hope that we could work together in getting this, raising this 
in the eyes and the views of the public so that people 
understand how real the threat is out there. I look forward to 
working with you.
    Senator Kaine. Thank you, Ranking Member Inhofe.
    Senator Cruz.
    Senator Cruz. Thank you, Senator Kaine.
    General, Admiral, thank you both for being here. Thank you 
both for your long and distinguished service to our Nation.
    Admiral, I'd like to talk some about the NSA's policies. I 
have long expressed concerns about the NSA's policies on really 
two fronts: one, an overbroad intrusion into the privacy rights 
of law-abiding citizens; and two, a pattern of not focusing 
sufficiently on bad actors and not collecting the information, 
the intelligence needed to prevent terrorist acts. It seems to 
me the focus overall of our intelligence and defense community 
and law enforcement community is directed far too much at law-
abiding citizens and far too little at individualized bad 
actors. I'd like to ask you questions on both fronts.
    Starting out with the citizenry at large: As you're aware, 
President Obama's Review Group on Intelligence and 
Communications Technology has said that the bulk metadata 
collected by the NSA should be held by a third party, and the 
Privacy and Civil Liberties Oversight Board has recommended 
ending bulk metadata collection altogether. Do you agree with 
either of these proposals?
    Admiral Rogers. In terms of pulling the data from the NSA, 
yes, I believe that there is a standard that we can work toward 
that would enable us to do that while still meeting the 
requirements of generating the intelligence we need and 
ensuring the protection of U.S. citizens.
    Sir, would you mind repeating the second portion?
    Senator Cruz. The second portion was that the Privacy and 
Civil Liberties Oversight Board recommended ending bulk 
metadata collection altogether, and I was asking if you agree 
with that recommendation.
    Admiral Rogers. No, sir, I would not. I believe we can 
still do this in a way that ensure the protection of our 
citizens while also providing us insights that generate value.
    Senator Cruz. But you believe that the information should 
not be held by the U.S. Government, is that correct?
    Admiral Rogers. I support the President's decision to shift 
that from the NSA.
    Senator Cruz. If confirmed, what would be a timetable for 
implementing that reform?
    Admiral Rogers. To be honest, sir, I don't know. I'm just 
not smart enough yet about the particulars. It'll be driven by 
the solution that we come up with. That dialogue is ongoing 
right now. I haven't been a part of that as a nominee.
    Senator Cruz. Will you commit, if confirmed, to working 
with members of this committee to implement it expeditiously?
    Admiral Rogers. Yes, sir.
    Senator Cruz. I want to ask more generally. The Fourth 
Amendment protects the privacy of law-abiding Americans. What 
is your view of the appropriate limitations on the ability of 
the Government to search through phone or email communications 
of law-abiding citizens not accused or under suspicion of any 
wrongdoing?
    Admiral Rogers. I believe such searches should not be done 
without a corresponding legal framework for their execution.
    Senator Cruz. Does that framework in your judgment require 
individualized suspicion?
    Admiral Rogers. I think it varies by the specifics of the 
threat that we're talking about, which is one reason why the 
metadata approach I think was taken to try to address that, to 
deal with no content, no names, no geographic locations, to try 
to strike that balance, if you will.
    Senator Cruz. Would you agree that for the Government to 
intercept content from telephones or emails requires under the 
Fourth Amendment individualized suspicion and some form of 
judicial oversight?
    Admiral Rogers. I don't know that I would make a blanket 
statement. Again, sir, I apologize; I am not a lawyer and 
you're asking me about the specifics of the law and it's just 
not an area of my expertise.
    Senator Cruz. I would ask after this hearing if you would 
follow up and answer that question in writing, and you can 
certainly consult with counsel. But the relevance of the Fourth 
Amendment in terms of how you would implement the policies at 
the NSA I think is a question of great interest to a great many 
citizens, and the Government collecting metadata or even more 
so the content of communications between law-abiding citizens 
is an issue that the Constitution I believe speaks very 
directly to. I would appreciate your expanded answer in writing 
after this hearing.
    [The information referred to follows:]

    Admiral Rogers. It is certainly the case that Americans are 
protected by the Fourth Amendment from unreasonable searches and I am 
fully committed to protecting this and all other rights of Americans. 
As to the requirements of the Fourth Amendment for the Government to 
intercept content from telephone calls or emails, I understand that 
this legal doctrine is the subject of numerous Supreme Court decisions 
and that those requirements would depend on the particular facts and 
circumstances of a given situation. Under the Foreign Intelligence 
Surveillance Act, absent limited exceptions such as an emergency, the 
National Security Agency may not target any unconsenting U.S. person 
anywhere in the world under circumstances in which the U.S. person 
would enjoy a reasonable expectation of privacy without an 
individualized determination of probable cause by a Federal judge that 
the target is a foreign power or agent of a foreign power.

    Senator Cruz. I'd like to shift to the other side, to the 
concern that I have that we are devoting far too many resources 
looking at law-abiding citizens and far too few resources 
looking at the bad guys. With regard, for example, to the 
Boston bombing, the Tsarnaev brothers, we had been notified by 
Russia that in their judgment they were having communications 
and may be radical Islamic terrorists. The elder Tsarnaev 
brother posted and advertised his desire for jihad on YouTube, 
not exactly a secure, hidden communication, but publicly for 
the world to see.
    Yet, even though we knew this individual or had reason to 
know this individual was a radical Islamic terrorist, and even 
though he was publicly proclaiming his desire for jihad, we 
failed to prevent that tragic bombing in Boston. I'd like to 
ask you, why do you think that was and what can we do to 
correct it so we don't fail to prevent the next Boston bombing?
    Admiral Rogers. The reality is, sir, I don't know the 
specifics of the Boston bombing. It's not an element of my 
current duties and it's not something I have express direct 
knowledge of. I think to comment knowingly I would need that 
kind of knowledge.
    Senator Cruz. A second example deals with Major Nidal 
Hassan and the Fort Hood murders. In that instance, Hassan had 
traded some 18 emails with radical Islamic cleric Anwar al-
Awlaki, a known terrorist leader who was a spiritual adviser of 
the September 11 bombers. This is not some extraneous person. 
This is someone known to be a serious threat to this country, 
and a major in the military is communicating repeatedly by 
email with him.
    Despite all of our surveillance capabilities, we failed to 
prevent that horrific terrorist attack at Fort Hood that 
claimed the lives of 14 innocents. In your judgment, why was 
that? What could we have done better to prevent that?
    Admiral Rogers. To be honest, I answered that question to 
Senator Graham.
    Senator Cruz. Let me suggest more broadly on both of these 
that it would be a far better allocation of resources in the 
NSA and in our efforts to prevent terrorism generally if much 
more resources were directed to targeting those who we have 
reason to know are dangerous, we have reason to know are or may 
be radical Islamic terrorists, and less resources were devoted 
and less energy was devoted to broader interception and 
surveillance of the law-abiding citizenry.
    It has struck me for some time that the priorities have 
been backwards and we ought to be targeting the bad guys and 
protecting innocents from terrorist attacks and at the same 
time respecting the constitutional rights of every American.
    Thank you, Admiral. Thank you, General.
    Senator Kaine. Thank you, Senator Cruz.
    Senator Inhofe, any additional questions for a second round 
of questioning?
    Senator Inhofe. No.
    Senator Kaine. Seeing none, I thank the witnesses for your 
appearance today and for your patience as we were going back 
and forth to vote. We appreciate your service and this hearing 
is adjourned.
    [Whereupon, at 12:00 p.m., the committee adjourned.]

    [Prepared questions submitted to Gen. Paul J. Selva, USAF, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe Goldwater-Nichols has transformed the Department 
of Defense (DOD) for the better and it has led to an unprecedented 
level of cooperation and understanding between the Services. Over the 
last 28 years, DOD and the military have fully embraced joint, 
interdependent operations. Having the opportunity to serve in multiple 
joint tours and now as Commander of Air Mobility Command, I have seen 
first-hand how we continue to improve our joint capabilities, 
ultimately producing a more effective means to grow the officers who 
are capable of leading our soldiers, sailors, airmen, and marines as a 
joint force.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I have no suggestions for altering Goldwater-Nichols at 
present, but I do recognize the need to continuously review and improve 
the framework in which DOD operates. If confirmed, I will work with 
Congress, the Secretary of Defense and other senior leaders of our 
military to ensure Goldwater-Nichols continues to meet the needs of our 
Armed Forces and champion any changes to the legislation that might 
become necessary.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Transportation Command (TRANSCOM)?
    Answer. The mission of the Commander, TRANSCOM is to provide air, 
land and sea transportation for DOD, in peace, crisis, and war. 
TRANSCOM relies on three Component Commands--Air Mobility Command 
(AMC), Military Sealift Command (MSC), and the Military Surface 
Deployment and Distribution Command (SDDC)--to accomplish this mission. 
The Commander has been assigned numerous responsibilities in the 
Unified Command Plan (UCP) to include the Distribution Process Owner 
(DPO) mission to improve the worldwide DOD distribution system; DOD 
single manager for global patient movement; Global Distribution 
Synchronizer (GDS) mission for synchronizing Phase 0 distribution 
operations; and facilitating the rapid establishment of joint force 
headquarters for combatant commanders through its subordinate command, 
Joint Enabling Capabilities Command. The TRANSCOM Team utilizes a blend 
of Active and Reserve Forces, civilian employees, and commercial 
industry partners to meet the command mission in support of a full 
range of military operations.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Throughout my military career, I have had the opportunity 
to be in positions that have prepared me, if confirmed, to perform the 
duties as the Commander of TRANSCOM.
    As the Assistant to the Chairman, Joint Chiefs of Staff, I had the 
opportunity to serve as an advisor to the Secretary of State and senior 
State Department leaders. In that capacity I worked directly with 
senior diplomats strengthening our relationship with allies, partners 
and friends, and building partnerships with foreign governments and 
international and non-governmental organizations.
    As a previous Director of Operations in TRANSCOM, I directed and 
synchronized the Defense Transportation System with national 
distribution processes to meet national security objectives. During my 
tenure I was responsible for day-to-day operations of the 
transportation and logistics networks that supported our forces engaged 
in combat in both Iraq and Afghanistan and supported humanitarian 
relief and disaster response operations at home and abroad.
    Finally, in my current capacity as Commander, Air Mobility Command, 
the Air Component of TRANSCOM, I command over 130,000 airmen from 
across our Air Force, Active, Reserve, and Air National Guard who 
provide worldwide cargo and passenger delivery, aerial refueling, 
special air mission and aeromedical evacuation. This includes the 
crucial role of humanitarian assistance and disaster relief to victims 
of natural disasters both at home and around the world.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
TRANSCOM?
    Answer. As a previous Director of Operations for TRANSCOM and as 
the current commander of one of TRANSCOM's Service components, I am 
aware of the command's global responsibilities. If confirmed, I will 
personally engage with all of TRANSCOM's component commands, DOD 
agencies, and commercial partners to ensure I fully understand the 
scope of the issues they face in order to execute this critical duty.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, U.S. Transportation 
Command to the following offices:
    The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense has full power and 
authority to act for the Secretary of Defense when serving as his 
designated representative in the Secretary's absence. As such, the 
Commander TRANSCOM will report to and through the Deputy Secretary when 
serving in that capacity. The Deputy Secretary also serves as the Chief 
Management Officer of DOD to optimize the business environment across 
the Defense enterprise. TRANSCOM supports such optimization to improve 
our support to the other combatant commands, at best value to the 
Nation.
    Question. The Under Secretaries of Defense.
    Answer. Under Secretaries of Defense coordinate and exchange 
information with DOD components, including combatant commands, which 
have collateral or related functions. In practice, this coordination 
and exchange is normally routed through the Chairman of the Joint 
Chiefs of Staff. In addition, as the DPO, the TRANSCOM commander 
receives oversight from the Under Secretary of Defense for Acquisition, 
Technology, and Logistics in his role as the Defense Logistics 
Executive via the Defense Logistics Board. If confirmed as a combatant 
commander, I will act accordingly.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is established by title 10 as the principal 
military advisor to the President, the National Security Council, the 
Homeland Security Council, and Secretary of Defense. The Chairman 
serves as an advisor, and is not, according to the law, in the chain of 
command, which runs from the President through the Secretary to each 
combatant commander. The President normally directs communications 
between himself and the Secretary of Defense to the combatant 
commanders via the Chairman of the Joint Chief of Staff. This keeps the 
Chairman fully involved and allows the Chairman to execute his other 
legal responsibilities. A key responsibility of the Chairman is to 
speak for the combatant commanders, especially on operational 
requirements. If confirmed, I will keep the Chairman and the Secretary 
of Defense promptly informed on matters for which I would be personally 
accountable.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. Although the Vice Chairman does not fall within the 
combatant command chain of command, he is delegated full power and 
authority to act for the Chairman in the Chairman's absence. If 
confirmed as a combatant commander, I will keep the Chairman informed, 
but if the Vice Chairman is representing the Chairman I will keep him 
informed as I would the Chairman.
    Question. The Director of the Joint Staff.
    Answer. The Director of the Joint Staff assists the Chairman in 
managing the Joint Staff. The Director of the Joint Staff does not fall 
within the combatant commander's chain of command. However, he enables 
important decisions to be made as the combatant commander's staff 
interacts with the Joint Staff. The Director is also a key interface 
with Office of the Secretary of Defense principles and interagency 
leadership, and can assist combatant commanders working issues below 
the Chairman's level.
    Question. The Secretaries of the Military Departments.
    Answer. Each Service Secretary is responsible for equipping, 
training, maintaining, and administering forces in the Secretary's 
Service. Close coordination with each Service Secretary is required to 
ensure that there is no infringement upon the lawful responsibilities 
held by a Service Secretary.
    Question. The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff of the Services organize, train, and 
equip their respective forces. No combatant commander can ensure 
preparedness of his assigned forces without the full cooperation and 
support of the Service Chiefs and their respective Reserve components. 
As members of the Joint Chiefs of Staff, the Service Chiefs have a 
lawful obligation to provide military advice. The experience and 
judgment the Service Chiefs provide is an invaluable resource for every 
combatant commander. If confirmed, as Commander, TRANSCOM, I will 
pursue an open dialogue with the Service Chiefs and the Commandant of 
the U.S. Coast Guard.
    Question. The other combatant commanders.
    Answer. Each combatant commander is assigned specific 
responsibilities in the Unified Command Plan. Given the complexity of 
today's security environment, it is essential that all the combatant 
commanders work together to execute U.S. national security policy. If 
confirmed, I will maintain open dialogue with the other combatant 
commanders to foster trust and build mutual support.
                    major challenges and priorities
    Question. In your view, what are the major challenges confronting 
the next Commander, TRANSCOM?
    Answer. TRANSCOM currently has the capability to meet all surge 
requirements, however, long-term budget uncertainty may erode this key, 
asymmetric military and logistics advantage. TRANSCOM is focused on 
providing logistics and transportation solutions and increasing 
efficiencies for all its customers but if the future budgets are not 
addressed, its readiness, particularly the readiness of commercial 
partners, could be negatively impacted. Maintaining the readiness of 
our organic lift and sustaining the readiness of our commercial 
partners in an uncertain budget environment will present significant 
challenges to our ability to respond to crisis or conflict.
    The talent and skill of the men and women that make up TRANSCOM and 
its component commands is the foundation of the command's success. I 
take very seriously the challenge and responsibility as a commander to 
be the champion for their readiness and to keep the entire team 
prepared to respond to the needs of the Nation. If confirmed, I would 
take an active role in preserving and enhancing the quality and 
expertise of TRANSCOM's personnel resources and will actively address 
the demand to maintain the readiness of the transportation and 
distribution networks to respond to crisis or conflict.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will work with my fellow combatant 
commanders to assess risks and develop mitigation strategies to ensure 
we can meet steady state and surge requirements. I will work to improve 
TRANSCOM's global, end-to-end ability to deliver to the point of need 
in the most cost-effective way possible--projecting American influence 
and power when and where our national interests dictate. To do this, I 
will work with TRANSCOM's commercial partners and the interagency to 
continue to build and maintain capacity and continue TRANSCOM's efforts 
around the world to secure diplomatic and physical accesses to ground 
and airspace infrastructure for logistics. I will also leverage ongoing 
multi-modal efforts to optimize our operations to support the 
warfighter while improving the performance and efficiency of the joint 
deployment and distribution enterprise.
    Question. If confirmed, what broad priorities would you establish?
    Answer. If confirmed, my main priorities will be to support the 
warfighter and preserve readiness to meet national objectives. Always 
mindful of our obligation to make the most of our existing resources, I 
will continue process improvement and enterprise synchronization 
efforts through relationships within the Department, across the U.S. 
Government, and with commercial and international partners.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Commander, TRANSCOM?
    Answer. In a resource constrained environment, the most significant 
area I would focus on would be improving the coordination and 
synchronization of the entire Joint Deployment and Distribution 
Enterprise--a vast network of organizations both in and out of DOD that 
relies heavily on commercial partnerships with industry. TRANSCOM has 
made great strides in improving the economies and efficiencies toward 
this end, and if confirmed, I will continue this work by aligning 
enterprise responsibilities commensurate with assigned authorities and 
available resources; improving our ability to rapidly build strategic 
distribution networks; and, institutionalizing best practices and 
lessons learned during more than a decade of war.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, I will work early to deepen strategic and 
personal relationships with fellow combatant commanders, TRANSCOM's 
components, commercial and international partners, interagency leaders 
and with Members of Congress. We will be challenged with difficult 
decisions in the near future; however, we must balance costs and 
benefits, matching our actions to available resources in the near term 
and adapting our efforts for greater economies and efficiencies in the 
long term.
              experience in managing logistics operations
    Question. You have served as the Commander of the Air Mobility 
Command.
    What steps do you believe you need to take to achieve a more 
complete understating of the logistics operations of the other 
component commands of the TRANSCOM?
    Answer. Fortunately, as a previous Director of Operations for 
TRANSCOM and as the current commander of one of TRANSCOM's Service 
components, I have an in-depth knowledge of the missions, roles and 
responsibilities of all facets of the TRANSCOM team. If confirmed, I 
will make it a priority to offer continued engagement with the 
component commanders, DOD agencies, and commercial partners to increase 
my understanding of the issues they face in order to better execute 
TRANSCOM's critical worldwide mission.
                       distribution process owner
    Question. In September 2003, following a review of logistics 
operations, the Secretary of Defense designated the Commander, 
TRANSCOM, as the Distribution Process Owner (DPO). As the DPO, TRANSCOM 
was tasked to improve the overall efficiency and interoperability of 
distribution related activities--deployment, sustainment, and 
redeployment support during peace and war.
    What is your understanding of TRANSCOM's responsibilities as the 
DPO?
    Answer. TRANSCOM, in partnership with the Defense Logistics Agency 
(DLA), General Services Agency, the Services, and combatant commanders 
others, is responsible for constantly working to improve the 
effectiveness and efficiency of the DOD Distribution Network. Working 
with all the network stakeholders, TRANSCOM must work carefully to 
optimize the effectiveness and efficiency of the entire military supply 
chain, from factory to end user.
    Question. What is your assessment of the progress has TRANSCOM made 
in improving the distribution process?
    Answer. In the last few years our DPO Strategic Opportunities team 
has focused on a number of cost avoidance initiatives on both the 
surface and air side. Through these efforts, we have successfully 
reduced the amount of containers moving globally through both better 
utilization and a decrease in the amount of less efficient 20 foot 
containers used. We applied similar utilization principles to aircraft 
movements to reduce the overall amount of air lift. Along the same 
lines, we expanded use of continental United States multi-modal hubs to 
maximize cheaper surface movements. Finally, we have developed methods 
to better manage aircraft fuel usage/purchase which is the single 
largest expense in aircraft operations.
    Question. Do you believe that the current system needs any changes 
to enhance the ability of TRANSCOM to execute the responsibilities of 
the DPO?
    Answer. I believe TRANSCOM has the necessary authorities to execute 
the Unified Command Plan designated responsibility of the DPO. If 
confirmed, I will continue the work underway in TRANSCOM's execution of 
the DOD Global Campaign Plan for Distribution. TRANSCOM is in its first 
cycle of this recently approved plan which will identify distribution 
issues, assess their risks, prioritize these issues and finally pursue 
issue resolutions. The plan has a built-in annual update to ensure it 
is still enhancing the Global Distribution Network. The plan sets the 
stage for successful execution of TRANSCOM's DPO role.
                           strategic airlift
    Question. According to DOD, the requirement for organic strategic 
airlift needed to support wartime requirements has fallen to a level of 
275 aircraft.
    Do you agree with the plan to reduce the number of strategic 
airlift to a level of 275 aircraft?
    Answer. Yes. The Mobility Capability Assessment (MCA) and the 
Mobility Requirements Capability Study concluded that in general the 
mobility capabilities support the strategic objectives in the 2012 
National Defense Strategy. While certain scenarios presented some 
mobility challenges, none precluded achievement of U.S. objectives with 
accepted timelines and risk.
    Question. What is your view of the requirements in peacetime for 
such organic airlift aircraft?
    Answer. In peacetime, the organic airlift force flies to maintain 
readiness to meet its wartime mission. The organic strategic airlift 
fleet is able to provide 80-90 aircraft per day to meet the DOD's 
airlift needs.
    Question. Do you believe that the Air Force could, at reasonable 
costs and within reasonable timeframes, reactivate some portion of the 
fleet of C-5 aircraft if we discover that 275 strategic airlift 
aircraft is not sufficient to meet our peacetime and wartime needs?
    Answer. Yes. C-5s not retained in service have been placed in the 
Aerospace Maintenance and Regeneration Center at Davis-Monthan Air 
Force Base in Arizona, where they can be returned to service if needed.
    Question. If we decide that 275 strategic airlift aircraft is 
insufficient to meet our requirements, should we consider buying more 
C-17 aircraft?
    Answer. The purchase of additional C-17s could be one of several 
alternatives to consider in an Analysis of Alternatives. This option 
will be increasingly expensive after the production line is shut down.
                     northern distribution network
    Question. The Northern Distribution Network (NDN) has been 
important in delivering equipment and supplies to Afghanistan, in part 
to reduce the U.S. reliance on supply routes through Pakistan. Yet 
significant portions of the NDN go through certain countries, 
particularly in Central Asia, that have extremely poor track records on 
human rights and corruption.
    What do you see as the major challenges to continued use of the NDN 
to deliver supplies to Afghanistan or withdraw equipment from 
Afghanistan as we draw down forces there?
    Answer. Sustainment and retrograde cargo volumes have greatly 
reduced with the reduction of troops in Afghanistan and the increased 
use of both military and commercial multi-modal operations. Should 
events in Ukraine strain relationships between the United States and 
Russia and countries strongly influenced by Russia, access to routes 
north of the Black Sea both for surface and over-flight movement could 
be limited. Additional concerns include border crossing and convoy 
security within the country of Afghanistan which could affect surface 
movement in and out of the country; if the security situation 
deteriorates, surface access may become very limited.
    The NDN accessed through the Mediterranean and the Caspian remain 
open and reliable as the countries involved are deeply interested in 
maintaining routes which will help them build the ``New Silk Road'' 
initiative.
    Question. To what extent, if any, should concerns about the human 
rights and corruption records of authoritarian regimes, particularly in 
Central Asia, be taken into account in using access to supply routes 
along the NDN?
    Answer. The DOD agencies, Department of State (DOS), and geographic 
combatant commands coordinate closely to develop and maintain NDN 
routes to ensure an efficient and effective means of moving warfighter 
cargo into and out of Afghanistan. Human rights violations as 
determined by the DOS, and corruption records, should be considered for 
participation on the NDN.
                           strategic sealift
    Question. Strategic sealift has always played a significant role in 
providing support to our forces overseas. Typically, we have seen 
strategic sealift delivering 95 percent of the equipment transported to 
overseas contingencies.
    An important component of our strategic sealift surge capability is 
the Ready Reserve Force (RRF). Many of the ships in the RRF are well 
beyond economic service life and may need to be replaced in the near 
future.
    What plans do you believe would be appropriate for modernizing the 
RRF?
    Answer. The capacity provided by the RRF is critical to TRANSCOM's 
ability to meet its wartime requirements. In the past, the fleet 
capacity was increased by using authorities to purchase vessels. The 
capacity was then maintained using selective Extended Service Life 
(ESL) programs on vessels where it was appropriate. For the future, we 
will explore all options to find a recapitalization strategy that is 
cost effective and minimizes the cost of ownership of the fleet for the 
long term, to include purchase and ESL where it makes sense.
    Question. What will the 2014 Quadrennial Defense Review (QDR) 
recommend for both airlift and sealift requirements?
    Answer. The QDR recommended combat coded inventory (i.e. PMAI) 
force structure for Air Force in fiscal year 2019 is 211 strategic 
airlift aircraft (39 C-5, 172 C-17) and 300 tactical aircraft (C-130). 
The sealift requirements were not defined as main elements in the Navy 
fiscal year 2019 force structure. If confirmed, I will work with the 
Navy, U.S. Maritime Administration (MARAD), and MSC to ensure we have 
adequate organic and commercial sealift capacity in the future. 
Moreover, I would reiterate the criticality of organic and commercial 
mobility capability and capacity, including robust sealift and aerial 
refueling, which remain the foundation of our Nation's ability to 
project power.
    Question. What is your assessment of the effectiveness of the 
National Defense Sealift Fund (NDSF) to facilitate resourcing sealift?
    Answer. Beginning in fiscal year 2015, Navy transferred NDSF 
funding to other appropriations, preserving the readiness of TRANSCOM's 
Surge Sealift assets. TRANSCOM supports Navy's effort to be auditable 
in accordance with Financial Improvement and Audit Readiness standards.
    Question. What would be the impact to strategic sealift if the NDSF 
were closed out and sealift funded out of through other Navy 
appropriations?
    Answer. It is my understanding that this change is an internal Navy 
funding realignment. Appropriated funds will be used by the Navy for 
our strategic sealift requirements. TRANSCOM will still have full 
visibility over these funds.
    Question. If you believe the NDSF has worked well, what is your 
assessment of the potential benefits that could be achieved by 
establishing a similar or combined airlift-sealift mobility fund to 
provide resources for both sealift and airlift and promote cost 
effective tradeoffs?
    Answer. TRANSCOM's Transportation Working Capital Fund (TWCF) was 
established to achieve land, sea and air cost effective tradeoffs while 
maintaining readiness. If confirmed I would explore options to improve 
transportation tradeoffs as well as afford better alternatives for 
readiness.
    Question. Are there any initiatives that you would pursue, if 
confirmed, to modernize or sustain our strategic sealift capability?
    Answer. TRANSCOM is currently examining various cost effective 
options to maintain our organic sealift capacity. If confirmed, I will 
work with the U.S. Navy, the Maritime Administration and the Office of 
the Secretary of Defense to implement a cost effective and timely 
recapitalization strategy to ensure critical vessel capacity is not 
lost in the organic fleets.
                       maritime security program
    Question. Through programs like the Maritime Security Program 
(MSP), the Voluntary Intermodal Sealift Agreement (VISA), and the 
Voluntary Tanker Agreement (VTA) administered by the Maritime 
Administration, DOD has maintained access to U.S. commercial 
capabilities and transportation networks while ensuring the continued 
viability of both the U.S.-flag fleet and the pool of citizen mariners 
who man those vessels.
    What is your view of the importance of these Maritime 
Administration programs?
    Answer. The MSP, VISA, and VTA are critical to TRANSCOM's ability 
to meet the needs of the warfighter and the Nation. For more than a 
decade of operations in Iraq and Afghanistan, our commercial sealift 
partners have provided the vast majority of sealift for DOD. The vessel 
capacity, intermodal transportation networks and the U.S. Citizen 
Merchant Marine are key components to TRANSCOM and its global mission.
    Question. What changes in these programs, if any, do you believe 
are appropriate and would make them more effective or more efficient in 
supporting DOD transportation requirements?
    Answer. The ability of these programs to meet DOD needs is directly 
tied to the health of the U.S.-flag international fleet, which has been 
declining in size for some time. Additionally, as force drawdowns 
continue in Afghanistan, so will the deployment and sustainment cargoes 
which have become a valuable piece of our commercial partners' 
business. In recognition of these dynamics, Congress tasked the 
Maritime Administration with the development of a National Maritime 
Strategy to ensure the health of the fleet and the U.S. Merchant 
Marine. TRANSCOM is coordinating closely with MARAD to ensure these 
vital commercial programs remain effective in supporting DOD well into 
the future.
                        civil reserve air fleet
    Question. The Air Force has in the past, and may very well in the 
future, rely heavily on the Civil Reserve Air Fleet (CRAF) to 
supplement its organic airlift. The National Defense Authorization Act 
(NDAA) for Fiscal Year 2014 requires the Secretary of Defense to 
provide an assessment of the requirement to maintain industrial base 
for CRAF carriers and ability of CRAF carriers to support the goals of 
the National Airlift Policy.
    What is your assessment of CRAF's ability to meet requirements to 
transport any equipment, materials, or commodities for the use of U.S. 
military operations and respond to a humanitarian disaster?
    Answer. We rely on our commercial partners as an integral part of 
providing global air lift assets to support military operations and in 
response to humanitarian disasters. In addition to our organic 
capability, commercial carriers that participate in CRAF provide the 
augmentation capability that allows us to say ``Yes'' to any call our 
Nation makes of us. The combined capability of military and commercial 
lift gives us the ability to transport equipment, materials, or 
commodities the warfighter will need to execute their mission to any 
point on the globe. To ensure the strength of our CRAF partnership and 
the program's continued viability, TRANSCOM conducts biannual Executive 
Working Group (EWG) conferences to bring together Chief Executive 
Officers, Presidents, and other representatives of the commercial 
airline industry to discuss vital issues affecting the program. The 
CRAF EWG will continue to meet on a regular basis to discuss future 
changes as we strive to maintain the readiness of the program to 
support our Nation. If confirmed, I will continue to work with our CRAF 
partners to ensure the business relationships remain solid and the 
contracts continue to support DOD requirements.
    Question. Do the changes in the commercial airline industry, 
characterized by bankruptcies and a move toward smaller and shorter-
range aircraft, impact the future viability of the CRAF system?
    Answer. The commercial airline industry is dynamic and always has 
been. We have been able to adapt to carrier's fleet planning and 
benefited by having a commercial augmentation capability ready to 
answer the call when needed. It is accurate there are fewer carriers in 
the CRAF program now than 15+ years ago. I have, however, met with 
several airline executives over the past 18 months, and to the person, 
they have all said they will support the DOD and CRAF program because 
it is the right thing to do for our Nation. It is also accurate to say 
as we drawdown forces from Afghanistan, there will be excess capacity 
in the commercial sector that we expect to go away as carriers right 
size their fleets to meet the new business environment. Through AMC 
sponsored research, conducted as part of an extensive ongoing CRAF 
study, we are confident the CRAF program will remain viable and able to 
meet operational plans in the future.
    Question. Do you think it is important to maintain an adequate 
industrial base for CRAF carriers?
    Answer. CRAF has been a healthy program for over 60 years. It is a 
capability that no other nation can replicate and ensures we can meet 
national requirements that our organic assets alone cannot provide in 
times of crisis or conflict. It is critical we maintain both an organic 
airlift capability and commercial augmentation capability that is 
``ready'' to answer the call when the next crisis arises. Striking a 
balance of airlift opportunities in this fiscally constrained 
environment is one of the biggest challenges we face going forward. If 
confirmed, I will work with all concerned to define a minimum business 
level for our commercial partners that will ensure we maintain 
readiness, not only for the carriers, but also for the Defense 
Transportation System.
    Question. How much should we be relying on CRAF to meet our 
peacetime and wartime airlift requirements?
    Answer. The CRAF program is a critical component in this nation's 
ability to rapidly deploy forces and equipment in times of crisis and 
peace. Because of the capability our commercial partners bring to the 
fight, we can deploy forces more rapidly and more efficiently than any 
other nation in the world. In peacetime, this workload changes from 
year-to-year due to dynamic customer requirements. Our forecast 
requirements are expected to be much lower starting in fiscal year 2016 
compared to the past 13 years, which will impact both military and 
commercial capacity. We will continue to strive for the balance between 
military and commercial capacity.
    Question. What changes, if any, do you think need to be made to 
CRAF--authorities, requirements, composition?
    Answer. AMC, in coordination with TRANSCOM, chartered a study of 
the CRAF program to look at these specific issues. Throughout the study 
we engaged industry experts for their advice on where the airline 
industry is headed and what to expect. The study team provided 
recommendations to senior leadership and industry executives. We are in 
the process of analyzing carrier feedback and revising the appropriate 
recommendations for senior leaders' decision. The results of this study 
are expected to be complete no later than June of this year, and I have 
committed to report the results of that study to interested Members of 
Congress at that time.
                       quadrennial defense review
    Question. What is your view of the QDR process? Was TRANSCOM asked 
to provide inputs to the QDR prior to it being finalized?
    Answer. I view the QDR process as vital to the future success of 
DOD to prevail in current operations, deter our enemies, and ensure 
success in any future conflicts. It is essential for all the combatant 
commands and Services to meet, discuss strategic and current issues, 
and come to agreement on the direction ahead for DOD for defense of our 
Nation.
    TRANSCOM was an active participant in the 2014 QDR process to 
include discussions on DOD strategy, implications of budget reductions, 
and Force Posture. In addition, TRANSCOM coordinated with Air Force 
leadership in the development of the tactical and strategic airlift 
requirements. As previously mentioned, the sealift requirements were 
not defined as main elements in the Navy fiscal year 2019 force 
structure.
                               readiness
    Question. Why did TRANSCOM recently downgrade its overall readiness 
assessment?
    Answer. It's my understanding that TRANSCOM's overall readiness 
assessment has been the same for more than 3 years and the current 
overall assessment is consistent with that trend. While current 
readiness levels are assessed as sufficient for operations, projected 
readiness levels are of concern and must also take into account the 
long-term effects of sequestration and funding reductions. TRANSCOM's 
readiness is dependent upon the long-term health of strategic airlift, 
surge sealift and other enabling capabilities that face significant 
challenges in times of budget uncertainty. Modernization, 
recapitalization, and balanced use of both organic and commercial lift 
are necessary to maintain agreements and readiness levels across the 
transportation and logistics enterprise.
    Also, because TRANSCOM must communicate over the unclassified 
networks with many private-sector entities in the transportation and 
shipping industry, protecting command and control systems from attack 
is a huge challenge to readiness. If I am confirmed, I will continue to 
advocate for improved security standards, incident reporting, and cyber 
defense capabilities across TRANSCOM's mission responsibilities.
                             transcom risks
    Question. What is your assessment of TRANSCOM's critical risks and 
key issues based on sequestration budget funding level?
    Answer. The reduced customer workload will drive impacts to organic 
and commercial capabilities that will likely be required in the future 
with potential readiness impacts on the organic and commercial 
transportation and logistics networks we rely on. Budgetary uncertainty 
makes it difficult to posture and plan for our customer's future 
transportation and logistics workload demand, as well as ensure all 
readiness and mobility capability aspects (people, infrastructure, 
assets) of our mission are preserved. The value of TRANSCOM being 
funded through a working capital fund (TWCF) is that the command can 
focus on long-term requirements and not make near-term suboptimal 
decisions.
                   cyberspace operations and security
    Question. Transportation Command must communicate over the 
unclassified Internet with many private-sector entities that are 
central to DOD's force generation and deployment operations--in the 
transportation and shipping industries in particular. Much of the rest 
of the critical communications and operations of the Defense Department 
can be conducted over the classified DOD internet service, which is not 
connected to the public Internet and is therefore much more protected 
against eavesdropping, espionage, and/or disruption by computer network 
attacks.
    What do you believe are the critical needs of TRANSCOM for cyber 
security?
    Answer. TRANSCOM moves vast amounts of information between military 
and commercial partners in its role as the distribution process owner 
for the Department. Command and control systems must get the right 
information to the right people at the right time, while protecting it 
from adversaries. If confirmed, I will continue the work to protect the 
command's information equities by working with our agency and 
commercial partners to further define roles, responsibilities, 
relationships and authorities for cyber security and to build trust and 
enhance information sharing.
    Question. What plans do you have for addressing these critical 
needs?
    Answer. TRANSCOM will need to continue addressing cyber issues on 
multiple fronts. Keeping command and control systems secure and 
protecting them from attack is a huge challenge. TRANSCOM has led the 
way in developing cyber language in its contracts to address security 
standards and incident reporting which, if confirmed, I will continue 
to push. In addition, I will continue the migration of component 
command and control systems inside the TRANSCOM security perimeter 
which will provide better situational awareness to my cyber security 
teams. I will also continue to collaborate with U.S. Cyber Command 
(CYBERCOM) and our Defense Information Systems Agency (DISA) partners 
to incorporate a solid command and control infrastructure that improves 
the accuracy and timeliness of cyber defense information providing 
synchronization of cyber operations across TRANSCOM's mission threats.
    Question. How important is it that TRANSCOM be aware of cyber 
intrusions by advanced persistent threat (APT) actors into the networks 
of airlines, shippers, and other defense contractors that enable 
TRANSCOM operations?
    Answer. Commercial partners provide volume, velocity and efficiency 
that make TRANSCOM's mission possible. Vulnerabilities within any 
organization's infrastructure, including cyber vulnerabilities, are a 
risk for all mission partners. TRANSCOM data that resides on our 
commercial partners' networks, if compromised by an APT, is a potential 
cyber security issue that, at minimum, provides insight into TRANSCOM 
operations. It is critical that we have awareness of these intrusions 
so that we can mitigate their operational impacts in the other domains.
    Question. Are you concerned about the level of reporting of cyber 
events by command contractors or other U.S. Government agencies to 
TRANSCOM?
    Answer. The level of reporting continues to be a concern. TRANSCOM 
has overcome some of these challenges with its cyber contract language 
and partnering efforts. The next step is to work with our commercial 
partners to develop a measurable standard of compliance.
    Question. When TRANSCOM becomes aware of an APT intrusion into an 
operationally critical contractor, what steps should the command take 
to determine whether operational plans should be adjusted to mitigate 
the risk of the intrusion affecting military operations?
    Answer. The level of reporting continues to be a concern. TRANSCOM 
has overcome some of these challenges with its cyber contract language 
and partnering efforts. If confirmed, I will work with all 
stakeholders, government, military, and commercial partners to define 
the steps necessary to adjust to cyber attacks, including APT 
intrusions.
    Question. Is DOD taking adequate steps to address your special 
needs?
    Answer. It is my understanding that TRANSCOM works very closely 
with DOD to share information on cyber security, intelligence and 
logistics operations to assess overall impact of cyber intrusions to 
the command's mission. Due to the high volume of the command's workload 
conducted on unclassified systems, the Department's use of cross-
cutting teams including CYBERCOM, DISA, and various intelligence 
agencies is necessary to protect mission critical information.
                        research and development
    Question. TRANSCOM's budget includes funding for a research and 
development activity designed to allow for examination and improvement 
of the entire supply chain as part of TRANSCOM's role as Distribution 
Process Owner.
    What are the major gaps in capability related to TRANSCOM's mission 
that need to be addressed through research and development efforts?
    Answer. Research and Development (R&D) investments will play an 
essential role in addressing a variety of challenges and capability 
gaps to ensure TRANSCOM's ability to accomplish its mission in an ever-
increasing contested cyberspace and Anti-Access/Area Denial (A2/AD) 
environment. New technologies may allow TRANSCOM to improve the 
efficiency and effectiveness of distribution operations and lower the 
operating costs for our Nation's joint logistics enterprise. If 
confirmed, I will champion TRANSCOM's R&D investment priorities to 
address these challenges and capability gaps while improving our 
effectiveness and efficiency by exploring and further developing 
technologies in the areas of End-to-End Visibility, Command and 
Control/Optimization/Modeling and Simulation, Cyber, and Global Access.
    Question. What unique processes and technologies do you feel 
TRANSCOM needs to develop through its own program and investments?
    Answer. As the DOD's Distribution Process Owner and Global 
Distribution Synchronizer, TRANSCOM must continue the business process 
management work begun under the Agile Transportation for the 21st 
Century program. Distribution processes should be designed, documented 
and/or refined in three distinct areas (e.g. Requirements Management, 
Network Design, and Capacity Management). In addition, TRANSCOM 
continues to enhance warfighter support with a range of technologies 
with particular emphasis on addressing A2/AD challenges. If confirmed, 
I will pursue and support innovative solutions which improve 
efficiency, effectiveness, and maintain organic readiness to support 
the Nation's global missions.
    Question. How will you work with other research and development 
organizations to ensure that TRANSCOM's current and future capability 
gaps are addressed?
    Answer. TRANSCOM annually engages combatant commands, Services, 
Office of the Secretary of Defense, DLA, the Joint Staff, other 
Government agencies, and academia S&T communities for updates and 
validation of joint deployment and distribution technology gaps and 
focus areas which guides our Research, Development, Test, and 
Evaluation (RDT&E) investments. Nearly 75 percent of our RDT&E projects 
are collaboratively funded which greatly increases the transition of 
efficiency-gaining, life-saving, and cost-reducing capabilities to the 
warfighter. If confirmed, I will continue to partner with these 
organizations to identify, validate and recommend RDT&E projects that 
address validated capability gaps.
                         technology priorities
    Question. Serving the needs of the combatant commanders both in the 
near term and in the future is one of the key goals of the Department's 
science and technology (S&T) executives, who list outreach to 
commanders as an activity of continued focus.
    What do you see as the most challenging technological needs or 
capability gaps facing TRANSCOM in its mission to provide air, land, 
and sea transportation to DOD?
    Answer. Primary concern will be developing and exploiting emerging 
technologies that improve the Department's ability to provide timely 
and precise delivery of sustainment to our warfighters as well as 
humanitarian aid and relief anywhere, in moment's notice, and in a 
fiscally responsible manner. Additionally, we need to explore 
information security and assurance as well as new cyber technologies to 
ensure greater efficiency and mission accomplishment. Furthermore, 
reducing dependency on fossil fuels will also remain a major focus area 
for TRANSCOM.
    Question. What would you do, if confirmed, to make your technology 
requirements known to the department's S&T community to ensure the 
availability of needed equipment and capabilities in the long term?
    Answer. If confirmed, I will work through appropriate S&T community 
forums including Joint Interagency Field Experimentations, Defense 
Innovation Marketplace, technology symposiums, and collaborative 
interservice/agency partnerships to preserve our 90 percent transition 
rate of proven technologies.
                         technology transition
    Question. TRANSCOM has been active in the Joint Capability 
Technology Demonstration (JCTD) process.
    What are your views on the JCTD process as a means to spiral 
emerging technologies into use to confront changing threats and to meet 
warfighter needs?
    Answer. The Department's JCTD program is an extremely effective 
tool that combatant commands leverage to rapidly develop and insert 
emerging technologies to address warfighter needs and capability gaps. 
In contributing to TRANSCOM's successful JCTD track record, if 
confirmed, I will strongly advocate for innovative technologies which 
enhance warfighter support and success.
    Question. What steps will you take, if confirmed, to enhance the 
effectiveness of technology transition efforts within your command and 
in cooperation with other Services and defense agencies?
    Answer. If confirmed, I will continue to apply the Command's RDT&E 
investments, in partnership with other combatant commands, Services, 
Defense Agencies, academia, and industry to advance our Nation's war 
fighting capabilities. I will work with stakeholders in leveraging the 
Department's many programs (JCTD, Coalition Warfare Program, Joint Test 
& Evaluation, Small Business Innovative Research, etc.) to rapidly 
develop, field, and transition mature technologies that address near 
term needs and identified gaps. Specifically, I will partner with our 
stakeholders to vet projects, gain buy-in, and avoid duplication. 
Finally, I will ensure that all projects develop a viable transition 
strategy and emphasize rapid fielding from day one.
                         deployment challenges
    Question. Multiple studies by TRANSCOM and the Army, and direct 
experience in Afghanistan and elsewhere, demonstrate that the airlift 
strategy and airlift platforms developed for the Cold War confrontation 
in Central Europe are not ideal to support operations in third-world 
regions. Unlike Europe, most of the world has few airfields with long 
runways, and there are fewer still that have parking space for more 
than a couple of cargo aircraft to unload at one time. This ``Maximum-
on-Ground'' (MOG) metric is the critical measure of throughput capacity 
at airfields. The few airfields with MOG greater than 2 are scarce and 
are located within major urban areas, usually far from where ground 
forces would be employed. Traditional fixed-wing airlifters--even 
flexible ones like the C-17--cannot be effectively employed in large 
numbers to deploy and support ground forces in these regions because of 
these infrastructure limitations.
    Previous analyses have indicated that alternatives to traditional 
fixed-wing transports, such as heavy-lift airships and heavy vertical 
take-off and landing (VTOL) rotorcraft, scored very high compare to 
current programs. These alternatives could deploy more forces faster, 
save lots of fuel, and increase sustainment. Because they deliver 
troops and supplies directly to the point of need, they could reduce 
the number of trucks on the road that are vulnerable to IEDs, as well 
as the length of supply lines. In other words, they would also reduce 
the vulnerability of our supply lines and save lives.
    What is your view of these analyses?
    Answer. My understanding is the Joint Future Theater Lift 
Technology Study (JFTL TS) was completed on 20 February 2013. The 
intent of the JFTL TS was to evaluate options to supplement the C-17, 
C-130, and C-27 capabilities to deliver medium weight combat vehicles 
into very austere environments. The JFTL TS assessed the overall value 
and cost of a variety of fixed wing aircraft, hybrid airships and tilt-
rotor platforms as to how they might perform in emerging, future intra-
theater airlift missions. The JFTL TS was comprehensive and provided 
insight to the cost effectiveness and risk of multiple technology 
options.
    Question. We understand that the Army favors a heavy lift, second 
generation tilt rotor that would provide VTOL capabilities.
    Answer. I understand that in the view of the JFTL TS, the Tilt 
Rotor (TR) technology alternative is the most operationally effective 
technology alternative because it is not restrained to fixed airfields; 
is capable of taking off and landing at more opportune landing sites 
(i.e., austere, short, unimproved landing areas), and is not limited by 
traditional Maximum on Ground (MOG) concepts. I believe it is 
reasonable to continue to examine these conclusions in the context of 
maturing CONOPs and anticipated schemes of maneuvers. It is also 
important to understand the maturity of the technologies that are 
necessary to develop heavy VTOL capabilities. If confirmed, I will 
assure that TRANSCOM will continue to monitor development of all 
emerging VTOL capabilities.
    Question. Do you support development of such a platform?
    Answer. Development of heavy lift Tilt Rotor or Hybrid Airship 
platforms will require careful consideration of our current and future 
warfighting needs, the planned fiscal environment, and our ability to 
mature both the technologies and operational concepts to make these 
delivery options operationally viable. While these platforms may fill 
future capability gaps of emerging warfighting concepts, they both 
would require significant investment to develop and field. At this 
time, a hybrid airship configured for heavy cargo, equivalent to legacy 
lift platforms, does not exist. I believe the DOD should support 
technology development which may lead to a commercially produced hybrid 
airship capability in the future.
    Question. In natural disasters, the airfields and roads and bridges 
that are required to fly in and distribute relief forces and supplies 
are frequently destroyed. Fixed-wing transports that need functioning 
airfields are not much use, but vertical lift aircraft or airships have 
the potential for continuing effective operations.
    Do you believe that the TRANSCOM analyses have adequately factored 
disaster relief into their assessments?
    Answer. Yes, the MCA included a number of disaster relief scenarios 
and found that ``PB13 mobility forces do not materially constrain the 
U.S. objectives associated with conducting simultaneous operations in 
different theaters, and have sufficient capabilities to concurrently 
support a heightened defense posture in and around the United States or 
support U.S. civil authorities in response to a large-scale attack or 
natural disaster.
    Question. How would you assess TRANSCOM's ability to respond to 
domestic disaster relief?
    Answer. Based on the results of the MCA and TRANSCOM's ongoing 
planning with U.S. Northern Command, the Command, in partnership with 
the National Guard and local authorities, can effectively respond to 
and support domestic disaster relief efforts as needed.
                    defense personal property system
    Question. For over 10 years, TRANSCOM and its subordinate command, 
Surface Deployment and Distribution Command, have been working to 
improve the process of moving servicemembers' household goods and 
gaining the support of the transportation provider industry for needed 
changes. Implementation of the new system--Defense Personal Property 
System (DPPS)--uses a ``best value'' approach to contracting with 
movers that focuses on quality of performance, web-based scheduling and 
tracking of shipments, servicemember involvement throughout the moving 
process, and a claims system that provides full replacement value for 
damaged household goods. Successful implementation of this system 
depends on replacement of the legacy Transportation Operational 
Personal Property Standard System (TOPS) with the web-based DPPS.
    What do you view as the most significant challenges that remain in 
continuing to implement DPPS?
    Answer. TRANSCOM is currently incorporating the remaining 
functionality for Non-Temporary Storage, Intra-Country Moves, and 
Direct Procurement Method into DPPS while modernizing the architecture 
to enhance overall system performance and the user experience. TRANSCOM 
recently re-competed a development and sustainment contract, which was 
awarded 9 Oct 2013. One of the most significant challenges that remain 
is ensuring capability development maintains schedule to enable the 
sunset of the legacy TOPS in fiscal year 2018.
    Question. What is your assessment of the performance of DPPS in 
achieving the requirement for full replacement value for damaged or 
missing household goods claims?
    Answer. Full replacement value is implemented across the Services 
for all modes of shipments in support of the Defense Personal Property 
Program. It is my understanding that the existing claims module is 
scheduled for redesign and will be deployed in fiscal year 2016 to 
improve the user experience. If confirmed, I will ensure improvements 
such as this continue.
    Question. What is your understanding under DPPS of the percentage 
of valid personal claims for damage or loss of household goods that is 
currently paid for by DOD and the percentage that is paid for by the 
movers who caused the damage?
    Answer. In 2013 less than 9 percent of submitted claims were 
transferred to the Military Claims Offices (MCOs). The MCOs are 
normally able to recover approximately 80-90 percent of what they pay 
out from the Transportation Service Provider (TSP). My understanding is 
TSPs settle most claims directly with the servicemember.
    Question. What is your assessment of the adequacy of the response 
rate on customer satisfaction surveys as a method for identifying best 
and worst performers?
    Answer. Customer Satisfaction Survey response rates have risen to 
40 percent. With 553,000 personal property moves in 2013, the survey 
response rates continue to be statistically significant. Survey 
response rates are the cornerstone for ensuring that quality 
transportation service providers are participating in the program, and 
opportunities for struggling performers are minimized or eliminated. If 
confirmed, I will continue to work closely with the Service 
Headquarters to increase the survey response rates.
    Question. If confirmed, what role would you play in ensuring that 
DPPS is fully funded and implemented and will you make every effort to 
ensure this program is successful in meeting its goals?
    Answer. If confirmed, I will leverage DPPS to continue to improve 
our business processes for household goods and services. OSD, Joint 
Staff, and the Services have committed to fully fund the DPPS program 
development and sustainment between fiscal year 2014-2018. I will work 
to ensure the DPPS program successfully meets the Services' goals to 
fully support servicemembers' personal property moves.
                    space available travel policies
    Question. DOD, in consultation with TRANSCOM, submitted a report to 
Congress on Space Available Travel for Certain Disabled Veterans and 
Gray-Area Retirees in December 2007. The report concluded that 
increases in space available eligibility would significantly impact 
DOD's ability to accomplish effectively the airlift mission and 
negatively affect support to active duty military space available 
travelers. Additionally, the report concluded that adding to the 
eligibility pool would increase support costs and displace the current 
policy that mandates that space-available travel not incur additional 
costs to dod.
    Do you consider the conclusions and recommendations of the December 
2007 report to still be valid?
    Answer. I believe the conclusions and recommendations of the 
December 2007 report remain valid. Also, I believe DOD's concern with 
any expansion to the Space-Available program was also reiterated in the 
GAO review as directed by section 362 of the NDAA for Fiscal Year 2012. 
DOD data showed the five most used air terminals had limited seats 
available with the three most traveled destinations from each terminal 
were near capacity. An expansion to the current pool of eligible 
travelers limits the ability to support the primary objective of the 
space available program which is to enhance the morale and welfare of 
our Active-Duty Force.
    Question. What are the constraints in today's operational 
environment of expanding the categories of individuals eligible for 
space available travel?
    Answer. I believe the conclusions and recommendations of the 
December 2007 report remain valid. Also, I believe DOD's concern with 
any expansion to the space available program was also reiterated in the 
GAO review as directed by section 362 of the NDAA for Fiscal Year 2012. 
We will work closely with DOD as the Secretary of Defense reviews space 
available policy in accordance with the NDAA for Fiscal Year 2013.
    Question. What recommendations, if any, do you have regarding 
changes to the existing policies controlling space available travel 
eligibility?
    Answer. In today's operational environment, DOD has limited ability 
to support continued expansion of the space available program. We will 
work closely with DOD as the Secretary of Defense reviews space 
available policy in accordance with the NDAA for Fiscal Year 2013.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, TRANSCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
                        civil reserve air fleet
    1. Senator Nelson. General Selva, in your response to the advance 
policy questions, you stated, ``In peacetime, the [airlift] workload 
changes from year-to-year due to dynamic customer requirements. Our 
forecast requirements are expected to be much lower starting in fiscal 
year 2016 compared to the past 13 years, which will impact both 
military and commercial capacity.'' Based on the lowered requirement 
for airlift, can the Transportation Working Capital Fund accounts 
adequately support both crew readiness requirements and the Civil 
Reserve Air Fleet (CRAF) program?
    General Selva. Over the last 13 years of supporting Overseas 
Contingency Operation requirements U.S. Transportation Command 
(TRANSCOM) has been able to maintain organic crew readiness while also 
supporting the CRAF. However, the current and future workload 
projections are significantly decreased due to the Afghanistan drawdown 
and Services' constrained transportation budgets. When TRANSCOM reaches 
a point where it can no longer reduce capacity supplied to match lower 
workload due to Service readiness requirements, the Transportation 
Working Capital Fund will realize a loss and our component command 
readiness will be impacted as no revenue is generated. Working Capital 
Fund policy dictates these losses become the responsibility of the 
Services and/or recouped by increased future rates.
    We have efforts underway regarding the CRAF to support the lower 
business levels. First, we have provided CRAF subscribers with business 
projections, which will help them size their fleets to meet their own 
requirements. Second, we are working to establish a minimum level of 
business to support commercial readiness and business. This will help 
support not only the CRAF subscribers, but also our military aerial 
ports to ensure they maintain readiness and familiarization with 
utilizing commercial aircraft.

    2. Senator Nelson. General Selva, are the training needs of our 
current airlift fleet negatively affecting CRAF carriers?
    General Selva. Ensuring the readiness of the CRAF while maintaining 
an organic fleet capable of meeting all DOD requirements is a priority 
for us and it requires the right balance of workload between the 
military and commercial segments. Achieving that balance for the future 
requires a careful analysis of commercial and military readiness 
requirements, capabilities required for all levels of response, and an 
understanding of economic factors affecting the industry's ability to 
meet DOD requirements. We are working through that analysis now.
    Recognizing the need to maintain a viable CRAF and the likelihood 
of both declining budgets and workload post-Afghanistan, our 
comprehensive review of the CRAF program is focused on the objective of 
developing recommended changes to assure the program's viability in the 
future and the readiness of participating carriers. We recognize the 
need for CRAF carriers to have business within the defense 
transportation system to maintain their readiness to support DOD.
    We also need to continue to season Active Duty and Air Reserve 
component airman and maintain a ready organic airlift capability. Air 
Mobility Command is working to balance this requirement, as well as 
certain combatant commander requirements that dictate use of organic 
assets with the need to maintain a ready commercial augmentation 
capability.

    3. Senator Nelson. General Selva, what are your plans to ensure the 
future viability of the CRAF program?
    General Selva. In the midst of declining business, TRANSCOM has 
made significant efforts to bolster relations with the commercial 
airline industry through military and industry joint venues. The CRAF 
Executive Working Group, National Defense Transportation Association, 
and the Military Aviation Advisory Committee are examples of venues 
which work to develop solutions and exchange ideas to effectively 
ensure the future viability of the CRAF program.
    We have listened to industry concerns and have pursued multiple 
avenues to maximize business opportunities, not only by pursuing CRAF 
preferences in policy, but adjusting operating procedures and guidance 
to maximize workload to our U.S. flag carriers. Additionally, we have 
been proactive and transparent in giving our industry partners the most 
accurate projected requirements during this drawdown period so 
commercial carriers can posture themselves appropriately. In addition 
to these efforts, we conducted a comprehensive review of the CRAF 
program with an objective of developing recommended changes to assure 
the program's viability in the future.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III
             equipment left behind in iraq and afghanistan
    4. Senator Manchin. General Selva, I am very concerned about the 
amount of equipment that the United States will be forced to leave in 
Afghanistan. I understand that the United States will not be able to 
recover a substantial amount of military equipment from Afghanistan. 
What is your assessment of the amount of equipment the United States 
will be forced to leave in Afghanistan?
    General Selva. The Services have made decisions on some of their 
equipment that will be returning to the United States and TRANSCOM will 
transport it when and where needed. The Services are still deciding on 
disposition of equipment that may be destroyed in place or declared 
excess and offered to other countries as Excess Defense Articles.

    5. Senator Manchin. General Selva, what is the value of this 
equipment and what will be the associated costs with removing and 
destroying the sensitive components among this arsenal?
    General Selva. The Services are in the best position to provide an 
overall cost analysis of equipment in theater. TRANSCOM assists the 
Services with calculating the transportation cost and readily supports 
equipment movement once the Services determine what is to be moved out 
of theater.

    6. Senator Manchin. General Selva, is there an existing plan to 
recoup these losses, perhaps through Foreign Military Sales (FMS)?
    General Selva. The Services are in the best position to provide an 
answer on their equipment replacement plans. Defense Security 
Cooperation Agency is in the best position to provide an answer on any 
possible recoupment of funds through FMS sales to offset equipment 
losses.

    7. Senator Manchin. General Selva, does this compare to the amount 
and value of equipment that the United States failed to retrograde from 
Iraq?
    General Selva. The Services are in the best position to provide an 
answer on the amount of equipment that was not retrograded from Iraq. 
TRANSCOM assisted in transporting equipment from Iraq once disposition 
decisions were made.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
              cyber attacks on u.s. transportation command
    8. Senator Gillibrand. General Selva, this committee is currently 
reviewing a report on cyber attacks on TRANSCOM dating from fiscal year 
2011. I am highly concerned about this information in light of the fact 
that TRANSCOM will be instrumental as we leave Afghanistan. If 
confirmed, how do you intend to handle this issue?
    General Selva. We have migrated the critical Transportation 
Component Command systems behind the TRANSCOM security boundary and 
exercise command and control over the defenses of those systems. These 
efforts align with the Department's Joint Information Environment 
initiative, as we are implementing a security architecture that fits 
within DOD's security architecture, led by the DOD CIO and the Defense 
Information System Agency (DISA). We expect to achieve significant 
efficiencies by leveraging common enterprise services and improving our 
cyber security posture.

    9. Senator Gillibrand. General Selva, from your perspective, what 
can we do to improve cyber defenses as they relate to contractors?
    General Selva. TRANSCOM actively engages with our commercial 
partners on cyber security; we have led multiple commercial partner 
outreach programs and highly encourage them to join the Defense 
Industrial Base Cyber Security/Info Assurance program. Of the 80 
current TRANSCOM commercial partners that we encouraged to participate 
in the Defense Industrial Base Cyber Security/Information Assurance 
Program, only 7 are full participants. Three additional companies have 
requested further information and are considering joining. In addition 
we have developed cyber security contract language for both our 
commercial carriers and information technology (IT) support contracts 
that require notification in the event of an actual intrusion that 
impacts TRANSCOM mission data. In these cases we work with our 
commercial partners and through law enforcement and contracting 
channels to mitigate the threat to mission and improve cyber defenses. 
We have recently streamlined some of that language changing reporting 
requirements from reporting intrusions affecting DOD data to reporting 
intrusions on any systems in which DOD data resides or transits. We 
also welcome the opportunity to help validate security controls with 
our commercial partners through voluntary exercises that will 
strengthen dialogue and a shared understanding of the threat to the 
TRANSCOM mission.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                         network vulnerability
    10. Senator Inhofe. General Selva, TRANSCOM has been subject to a 
growing number of cyber attacks. TRANSCOM's reliance on unique 
contracts--such as the CRAF program where U.S. civil air carriers agree 
to augment organic military airlift during a crisis in exchange for 
access to peacetime defense business--creates unique challenges. In a 
contingency, TRANSCOM's ability to move troops or supplies could be 
hindered if a vendor's network were compromised. Today there appears to 
be little sharing of threat and network vulnerability information. Do 
you share these concerns?
    General Selva. TRANSCOM has always shared this concern which is why 
we work to make substantial progress in organizing and resourcing our 
TRANSCOM cyber defense efforts. We stood up our Joint Cyber Center on 
our Fusion Center operations floor to ensure our cyber defense efforts 
are aligned with our transportation mission. CYBERCOM has provided a 
Cyber Support Element that gives us reach back into their capabilities, 
and Air Force Cyber Command has provided a Cyber Protection Team that 
has just reached Initial Operational Capability, with another on the 
way. In addition to these DOD cyber defense capabilities, our Joint 
Cyber Center has established relationships with law enforcement and 
other federal and state agencies to buttress our cyberspace defenses. 
There are opportunities for improvement of information sharing between 
the special investigations units within the Department and their 
counterparts within the Department of Justice. Both can benefit from 
understanding the TRANSCOM mission context and our current vendor list 
so they can address TRANSCOM national security equities in the course 
of their ongoing operations.

    11. Senator Inhofe. General Selva, what other unique cybersecurity 
challenges do you believe we should be aware of?
    General Selva. The primary challenge continues to be protection of 
mission data residing in or transiting the information systems of our 
commercial partners, which lie outside of DOD and TRANSCOM visibility, 
control, or authorities. Historically, TRANSCOM has encountered threat 
actors penetrating our military and commercial partner networks to gain 
access to our mission data which could disclose DOD operations, disrupt 
command and control of logistics movements, and have the potential to 
deny or degrade operations. The fact that we do utilize commercial 
partners across the enterprise means that some of our data resides on 
information systems that exist in the commercial business community. 
These systems provide volume, velocity, and efficiency for our TRANSCOM 
mission. To mitigate vulnerabilities, we are actively engaged with our 
commercial partners on cyber security both in our contracts and in our 
relationships with these companies. We also work with our interagency 
partners to provide context to the execution of their authorities and 
ongoing activities because cyber defense is a team effort where one 
organization's vulnerabilities are potential vulnerabilities for all.

    12. Senator Inhofe. General Selva, what steps are TRANSCOM and 
CYBERCOM taking to address these vulnerabilities?
    General Selva. TRANSCOM is integrating critical systems operated by 
our service components behind a common security boundary with common 
technology and policies and enhanced situational awareness for TRANSCOM 
and component network defenders. In addition, TRANSCOM is including the 
new Defense Federal Acquisition Regulation Clause, ``Safeguarding of 
Unclassified Controlled Technical Information'' in all of our new non-
transportation contracts, while retaining the Cyber Security language 
we previously developed in our transportation contracts. We are 
continuing to build relationships with our commercial partners and law 
enforcement to increase collaboration and incorporate contract language 
based on industry best practices. Additionally, I am gaining 
operational control of cyber protection teams to augment our organic 
network defense forces. This will enable a better protective posture 
across the TRANSCOM enterprise. We are fully engaged with CYBERCOM and 
Defense Information Systems Agency to work through command and control 
of these assigned forces. The command is satisfied with our efforts to 
date and will continue to leverage opportunities to improve as they 
present themselves.

    13. Senator Inhofe. General Selva, can TRANSCOM and DOD enact a 
policy change that can make the fixes that you envision?
    General Selva. DOD is working with its U.S. Government counterparts 
to enact policy and process changes that will enable coordinated 
employment of existing law enforcement and military authorities and 
capabilities, as appropriate. TRANSCOM continues to focus on improving 
information sharing between our network defenders and our commercial 
partners in the private sector to the greatest extent feasible in the 
current environment.

    14. Senator Inhofe. General Selva, do you feel that TRANSCOM and 
DOD need more legislative authority to fix this persistent threat 
brought about by the current cyber intrusion problem?
    General Selva. The President has the necessary authority to order 
military action to defend our nation against all attacks including 
those in the cyber domain. The President can delegate authorities to 
the Secretary of Defense in order to use the Department's operational 
capabilities to defend against such an attack so additional legislative 
authority for DOD is not necessary. However, TRANSCOM and its industry 
partners serve to highlight that with so much of the critical 
infrastructure owned and operated by private industry, the government 
has limited visibility and thus is often unaware of the malicious 
activity targeting our critical infrastructure. These blind spots 
prevent the Government from being positioned to either help the 
critical infrastructure to defend itself or to defend the nation from 
an attack. The contract language in place at TRANSCOM, relationships we 
are building to enhance mission context with other agencies, and 
aligning our cyber defense resources are the ways in which we are 
addressing this issue.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                    afghanistan equipment retrograde
    15. Senator McCain. General Selva, in your testimony, you agreed 
that TRANSCOM was ``on track to remove all the necessary equipment and 
armaments from Afghanistan by the end of 2014.'' How much U.S. military 
equipment do you assume will be left in Afghanistan? Please provide 
your answer as a percentage of total equipment currently in theater, as 
a dollar amount, or by some other meaningfully quantitative measure.
    General Selva. TRANSCOM provides common-user strategic lift on a 
global basis to our supported geographic combatant commands (GCCs). 
While we determine strategic sea, air, and surface lift feasibility to 
meet the transportation needs of the GCCs, we are not involved in 
determining equipment levels they require to execute missions in their 
Areas of Operation. In the case of Operation Enduring Freedom drawdown 
and the post-2014 enduring mission in Afghanistan, U.S. Central Command 
(CENTCOM), in coordination with the Military Services, will determine 
how much U.S. military equipment will be required to execute their 
assigned missions. As a supporting command in this effort, TRANSCOM is 
postured to generate the required strategic lift capacity to meet the 
Commander International Security Assistance Force drawdown timelines, 
and will continue to rely on our ground forces to identify and generate 
cargo for strategic lift to meet CENTCOM requirements. National level 
decisions associated with an approved and signed Bi-lateral Security 
Agreement will heavily influence the final mission set required for 
CENTCOM operations in Afghanistan.

    16. Senator McCain. General Selva, to the best of your knowledge, 
what will be the disposition of any equipment left in Afghanistan after 
the departure of U.S. forces?
    General Selva. CENTCOM, in coordination with the Military Services, 
will determine the disposition of U.S. military equipment in 
Afghanistan after the departure of U.S. forces. Final disposition of 
this equipment will be influenced by national level decisions 
associated with an approved and signed Bilateral Security Agreement, 
which will significantly impact the equipment-set required to execute 
any enduring U.S. and coalition mission in Afghanistan. CENTCOM will 
determine final disposition based on operational requirements and 
transportation cost-benefit analysis in coordination with Office of the 
Secretary of Defense and Joint Staff. If strategic transportation is 
required, TRANSCOM is postured to fully support retrograde/redeployment 
of U.S. military equipment from Afghanistan, as well as Foreign 
Military Sales movements and Excess Defense Articles transfers when 
authorized and approved at appropriate DOD and congressional levels.

    17. Senator McCain. General Selva, please list the commands or 
agencies that provide guidance to TRANSCOM regarding retrograde of 
military equipment. In other words, do the combatant commander, the 
component commanders, the Services, or some combination of these have 
authority to decide what equipment is retrograded from Afghanistan?
    General Selva. TRANSCOM provides common-user strategic lift on a 
global basis to our supported geographic combatant commands (GCCs), 
based on transportation requirements that have been validated for 
movement by the GCC-in this case CENTCOM. While TRANSCOM determines 
strategic sea, air, and surface lift feasibility to meet the 
transportation needs of CENTCOM, we are not involved in determining 
which equipment will or will not be retrograded from Afghanistan. 
CENTCOM, in coordination with the Military Services, Office of the 
Secretary of Defense, and Joint Staff, will determine which U.S. 
military equipment will remain in Afghanistan for any enduring mission 
post-2014. As the strategic transportation provider, TRANSCOM is 
postured to generate the required strategic lift capacity to meet the 
Commander International Security Assistance Force drawdown timelines. 
We also continually present transportation feasibility and costing data 
to all stakeholders for their consideration when making final decisions 
on retrograde equipment disposition and transportation.

    18. Senator McCain. General Selva, you noted in testimony that five 
routes are used to get equipment and personnel in and out of country 
and that you are developing courses of action to bypass Russia. What is 
the status of the alternative logistics plan?
    General Selva. TRANSCOM has a flexible strategic network consisting 
of various lines of communication both in and out of Afghanistan. With 
multiple air and surface routes available, bypassing Russia for transit 
will have no significant impact on overall theater operations. If 
access to Russian air or surface routes becomes unavailable, we will 
route cargo to an alternate route with little to no affect on inbound 
or outbound flow.

    19. Senator McCain. General Selva, what assumptions with regard to 
the so-called southern route through Pakistan and northern routes 
through Russia are included in your assessment that TRANSCOM will have 
all necessary equipment out of Afghanistan by the end of 2014?
    General Selva. Currently, TRANSCOM moves less than 10 percent of 
retrograde cargo from Afghanistan via the Northern Distribution Network 
(NDN) through Russia, all of which can be diverted to other routes if 
required.
    The Pakistan ground lines of communication (PAKGLOC) has achieved 
great velocity, but has also experienced challenges resulting in 
limited cargo flow in the past. Although the PAKGLOC is the preferred 
method of moving retrograde due to speed and cost, TRANSCOM is prepared 
to shift cargo to multi-modal and air direct operations as required. 
Albeit challenging with reduced ground line of communication access, 
TRANSCOM has the capacity to retrograde all necessary equipment from 
Afghanistan utilizing alternate transportation modes and routes 
provided the cargo is properly identified for strategic lift and 
prepared for movement in a timely manner.

    20. Senator McCain. General Selva, what would the impact be on 
TRANSCOM's equipment retrograde estimates if the northern ground road 
and rail routes were closed?
    General Selva. TRANSCOM supports warfighter and service priorities 
by providing a scalable transportation network that maximizes strategic 
flexibility and reduces operational risk across a variety of routes and 
modes, both into and out of Afghanistan. We continue to execute a 
variety of movement options utilizing both air and ground routes across 
the Northern Distribution Network, but historically these routes have 
accounted for a very low percentage of overall cargo. Loss of any 
strategic option increases risk, but ultimately TRANSCOM would be 
minimally affected by closure of the northern ground road and rail 
routes.

    21. Senator McCain. General Selva, what would the impact be on 
TRANSCOM's equipment retrograde estimates if the southern route was 
closed?
    General Selva. TRANSCOM works with its strategic partners to 
maintain an effective and flexible transportation network that includes 
air, ground and multimodal routes with organic and commercial 
capabilities. This robust structure minimizes reliance on any one 
nation, values fair and open competition, is reconfigurable and 
scalable, facilitating economic development and diplomatic engagement. 
The southern surface route (the Pakistan ground lines of communication) 
provides a low cost, potentially high volume option for retrograde 
operations, but ongoing issues (e.g. religious holidays, floods, 
political strife, and security concerns) have historically affected the 
volume of cargo and velocity of the route. TRANSCOM has successfully 
routed retrograde and redeploy cargo away from the PAKGLOC in the past 
with little to no affect on the strategic transportation network.

    22. Senator McCain. General Selva, you indicated during testimony 
that a business case would be applied to determine whether or not 
military equipment should be retrograded, disposed of via FMS, or given 
to allied or partner nations as grants. Do you have an accurate 
accounting of all U.S. military equipment in Afghanistan?
    General Selva. The Services are in the best position to provide an 
answer on their remaining equipment levels in Afghanistan. TRANSCOM 
will assist in transporting that equipment once disposition decisions 
are made.

    23. Senator McCain. General Selva, who makes the final disposition 
decision to lift, sell, or grant?
    General Selva. The Services are responsible for disposition 
decisions for their equipment. TRANSCOM then transports the equipment 
as needed. If U.S. defense articles are declared excess they can be 
made available for sale through the Foreign Military Sales program 
under the statutes of section 21 of the Arms Export Control Act or for 
grant transfer to eligible countries under the provisions of section 
516 of the Foreign Assistance Act. The ultimate responsibility for 
determining if an item should be identified as excess rests with the 
Service having cognizance over the item.
    When a country submits a request (via grant or sale) for excess 
defense articles (EDA), the Service evaluates and endorses the country 
request and submits it for review and staffing via Defense Security 
Cooperation Agency (DSCA) through the State Department, Commerce 
Department, and Office of the Secretary of Defense-Policy regional 
offices. If approved, DSCA prepares any required Congressional 
Notification. At the end of Congressional Notification, DSCA authorizes 
the Service to offer/transfer the EDA. Each fiscal year, the State 
Department Bureau of Political-Military Affairs, Office of Regional 
Security and Arms Transfers in coordination with DSCA identifies the 
countries eligible for grant EDA to Congress.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                       strategic airlift aircraft
    24. Senator Ayotte. General Selva, in your responses to the advance 
policy questions, you state that you support the plan to reduce the 
number of strategic airlift aircraft to a level of 275 aircraft. Yet, 
you acknowledge that certain scenarios presented some mobility 
challenges. Please describe what kind of scenario would present a 
challenge if our strategic airlift fleet drops to that level.
    General Selva. A force of 275 strategic airlift aircraft will 
support the national military strategy with acceptable risk. A force of 
275 aircraft will be challenged to support the strategy in a situation 
where we are unable to produce sufficient functional aircraft operated 
by fully qualified crews. This could happen if crews have insufficient 
flying hours to maintain qualifications or the aircraft are not 
maintained at adequate readiness levels.

    25. Senator Ayotte. General Selva, in your responses, you state 
that the Quadrennial Defense Review (QDR) recommended a force structure 
for the Air Force in fiscal year 2019 of 211 strategic airlift 
aircraft, 39 C-5s and 172 C-17s. If 275 strategic airlift aircraft 
presents challenges to TRANSCOM, what kind of challenges would 211 
present?
    General Selva. The force of 39 C-5s and 172 C-17s referenced in the 
QDR 2014 reflect U.S. Air Force ``combat coded'' inventory; that is 
aircraft assigned to units for the performance of their wartime 
missions. That force becomes 275 total aircraft inventory (TAI) if 
backup aircraft inventory (BAI) and primary training aircraft inventory 
(PTAI) are included.

    26. Senator Ayotte. General Selva, would 211 strategic airlift 
aircraft be sufficient to support one and a half major combat 
operations?
    General Selva. The force of 211 strategic airlift aircraft (39 C-5s 
and 172 C-17s) referenced in the QDR 2014 reflects U.S. Air Force 
``combat coded'' inventory; that is aircraft assigned to units for the 
performance of their wartime missions. That force of 211 ``combat 
coded'' inventory becomes 275 TAI if BAI and PTAI are included. A force 
of 275 strategic airlift aircraft will support the national military 
strategy with moderate risk.

    27. Senator Ayotte. General Selva, if our number of strategic 
airlift aircraft declines to 211, and a major combat operation were to 
begin, what kinds of delays might we confront in deploying Army ground 
units to a contingency in Korea, for example?
    General Selva. Based on TRANSCOM's analysis, we would expect any 
delays to be minor, but acceptable. Although the number of ``combat 
coded'' aircraft will decrease to 211 (with 24 additional aircraft 
assigned to BAI), the total size of the strategic airlift fleet remains 
at 275 (223 C-17s and 52 C 5Ms) TAI. During major combat operations, 
these additional 24 BAI aircraft are still available for contingency 
missions, but once added back to the fleet, would operate at a lower 
crew ratio, inducing manageable risk to force closure during sustained 
combat operations.

    28. Senator Ayotte. General Selva, would the delay in airlift be 
longer than is required to activate and train National Guard units?
    General Selva. No, the bulk of Army units moved at the onset of 
major crises are from the Active Component. However, those early 
deploying Army Reserve component units (U.S. Army Reserve and National 
Guard), as with the other Services' Reserve component units, are 
currently programmed to be ready to meet their planned early 
availability dates. Reserve component units requiring formal training 
or more lengthy activation processes prior to deploying are not 
generally associated with this early deployment period.
                                 ______
                                 
    [The nomination reference of Gen. Paul J. Selva, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  February 6, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Air Force 
to the grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General.

    Gen. Paul J. Selva, USAF, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. Paul J. Selva, USAF, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
            Biographical Sketch of Gen. Paul J. Selva, USAF
    General Paul J. Selva is Commander, Air Mobility Command (AMC), 
Scott Air Force Base, IL. Air Mobility Command's mission is to provide 
rapid, global mobility and sustainment for America's Armed Forces. The 
command also plays a crucial role in providing humanitarian support at 
home and around the world. The men and women of AMC--Active Duty, Air 
National Guard, Air Force Reserve, and civilians--provide airlift, 
aerial refueling, special air mission and aeromedical evacuation.
    General Selva graduated from the U.S. Air Force Academy in 1980, 
and completed undergraduate pilot training at Reese Air Force Base, TX. 
He has held numerous staff positions and has commanded at the squadron, 
group, wing and headquarters levels. Prior to his current assignment 
General Selva was the Vice Commander, Pacific Air Forces, Joint Base 
Pearl Harbor-Hickam, HI.
    General Selva is a command pilot with more than 3,100 hours in the 
C-5, C-17A, C-141B, KC-10, KC-135A, and T-37.

Education:
    1980 - Bachelor of Science degree in aeronautical engineering, U.S. 
Air Force Academy, Colorado Springs, CO.
    1983 - Squadron Officer School, Maxwell Air Force Base (AFB), AL.
    1984 - Master of Science degree in management and human relations, 
Abilene Christian University, Abilene, TX.
    1992 - Distinguished graduate, Air Command and Staff College, 
Maxwell AFB, AL.
    1992 - Master of Science degree in political science, Auburn 
University, Montgomery, AL.
    1996 - National Defense Fellow, Secretary of Defense Strategic 
Studies Group, Rosslyn, VA.

Assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
June 1980.......................  July 1981.........  Student,
                                                       undergraduate
                                                       pilot training,
                                                       Reese AFB, TX.
July 1981.......................  December 1984.....  Co-pilot and
                                                       aircraft
                                                       commander, 917th
                                                       Air Refueling
                                                       Squadron, Dyess
                                                       AFB, TX.
January 1984....................  December 1988.....  Co-pilot, aircraft
                                                       commander,
                                                       instructor pilot,
                                                       and flight
                                                       commander, 32nd
                                                       Air Refueling
                                                       Squadron,
                                                       Barksdale AFB,
                                                       LA.
January 1989....................  July 1991.........  Company grade
                                                       adviser to
                                                       Commander,
                                                       Strategic Air
                                                       Command, later,
                                                       manager of
                                                       offensive
                                                       aircraft systems
                                                       and executive
                                                       officer, Deputy
                                                       Chief of Staff,
                                                       Plans and
                                                       Resources,
                                                       Headquarters
                                                       Strategic Air
                                                       Command, Offutt
                                                       AFB, NE.
August 1991.....................  July 1992.........  Student, Air
                                                       Command and Staff
                                                       College, Maxwell
                                                       AFB, AL.
July 1992.......................  June 1994.........  Instructor pilot
                                                       and flight
                                                       commander, 9th
                                                       Air Refueling
                                                       Squadron, later,
                                                       Commander, 722nd
                                                       Operations
                                                       Support Squadron,
                                                       March AFB, CA.
June 1994.......................  June 1995.........  Commander, 9th Air
                                                       Refueling
                                                       Squadron, later,
                                                       Deputy Commander,
                                                       60th Operations
                                                       Group, Travis
                                                       AFB, CA.
July 1995.......................  June 1996.........  National Defense
                                                       Fellow, Secretary
                                                       of Defense
                                                       Strategic Studies
                                                       Group, Rosslyn,
                                                       VA.
July 1996.......................  August 1998.......  Assistant to the
                                                       Director, Office
                                                       of the Secretary
                                                       of Defense for
                                                       Net Assessment,
                                                       the Pentagon,
                                                       Washington, DC.
August 1998.....................  July 2000.........  Commander, 60th
                                                       Operations Group,
                                                       Travis AFB, CA.
July 2000.......................  June 2002.........  Commander, 62nd
                                                       Airlift Wing,
                                                       McChord AFB, WA.
June 2002.......................  June 2003.........  Vice Commander,
                                                       Tanker Airlift
                                                       Control Center,
                                                       Scott AFB, IL.
June 2003.......................  November 2004.....  Commander, Tanker
                                                       Airlift Control
                                                       Center, Scott
                                                       AFB, IL.
December 2004...................  August 2006.......  Director of
                                                       Operations, U.S.
                                                       Transportation
                                                       Command, Scott
                                                       AFB, IL.
August 2006.....................  June 2007.........  Director, Air
                                                       Force Strategic
                                                       Planning, Deputy
                                                       Chief of Staff
                                                       for Strategic
                                                       Plans and
                                                       Programs,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC.
June 2007.......................  October 2008......  Director, Air
                                                       Force Strategic
                                                       Planning, Deputy
                                                       Chief of Staff
                                                       for Strategic
                                                       Plans and
                                                       Programs,
                                                       Headquarters U.S.
                                                       Air Force, and
                                                       Director, Air
                                                       Force QDR, Office
                                                       of the Vice Chief
                                                       of Staff,
                                                       Washington, DC.
October 2008....................  October 2011......  Assistant to the
                                                       Chairman of the
                                                       Joint Chiefs of
                                                       Staff,
                                                       Washington, DC.
October 2011....................  November 2012.....  Vice Commander,
                                                       Pacific Air
                                                       Forces, Joint-
                                                       Base Pearl Harbor-
                                                       Hickam, HI.
November 2012...................  Present...........  Commander, Air
                                                       Mobility Command,
                                                       Scott AFB, IL.
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
September 1996..................  August 1998.......  Assistant to the
                                                       Director, Office
                                                       of the Secretary
                                                       of Defense for
                                                       Net Assessment,
                                                       the Pentagon,
                                                       Washington, DC,
                                                       as a lieutenant
                                                       colonel.
November 2004...................  July 2006.........  Director of
                                                       Operations and
                                                       Logistics, U.S.
                                                       Transportation
                                                       Command, Scott
                                                       AFB, IL, as a
                                                       brigadier
                                                       general.
October 2008....................  October 2011......  Assistant to the
                                                       Chairman of the
                                                       Joint Chiefs of
                                                       Staff,
                                                       Washington, DC,
                                                       as a lieutenant
                                                       general.
------------------------------------------------------------------------


Flight information:
    Rating: Command pilot
    Hours flown: More than 3,100
    Aircraft flown: C-5, C-17A, C-141B, KC-10, KC-135A, and T-37

Major awards and decorations:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit with two oak leaf clusters
    Defense Meritorious Service Medal
    Meritorious Service Medal with three oak leaf clusters
    Air Force Commendation Medal
    Air Force Achievement Medal
    Joint Meritorious Unit Award
    Combat Readiness Medal with two oak leaf clusters
    National Defense Service Medal with bronze star
    Armed Forces Expeditionary Medal with two bronze stars
    Southwest Asia Service Medal with bronze star
    Global War on Terrorism Service Medal
    Armed Forces Service Medal

Effective dates of promotion:
    Second Lieutenant, May 28, 1980
    First Lieutenant, May 28, 1982
    Captain, May 28, 1984
    Major, January 1, 1990
    Lieutenant Colonel, March 1, 1994
    Colonel, September 1, 1998
    Brigadier General, January 1, 2004
    Major General, June 2, 2007
    Lieutenant General, October 8, 2008
    General, November 29, 2012
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Paul J. 
Selva, USAF, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Paul J. Selva.

    2. Position to which nominated:
    Commander, U.S. Transportation Command.

    3. Date of nomination:
    February 6, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 27, 1958; Biloxi, MS

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Ricki S. Selva (Maiden Name: Smith).

    7. Names and ages of children:
    None.

    8 Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Air Force Association - Member.
    Airlift Tanker Association - Member.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                      Paul J. Selva, General, USAF.
    This 5th day of November, 2014.

    [The nomination of Gen. Paul J. Selva, USAF, was reported 
to the Senate by Chairman Levin on March 26, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 8, 2014.]
                              ----------                              

    [Prepared questions submitted to VADM Michael S. Rogers, 
USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The integration of joint capabilities under the Goldwater-
Nichols Act has been remarkable. All the warfighting benefits we enjoy 
from fighting as a joint force in air, land, sea--we are extending to 
cyberspace. In addition, it has improved civilian oversight of the 
Department of Defense (DOD) and fostered our military success over the 
last generation. Today U.S. military forces are more interoperable than 
ever before, and they set a standard for other militaries to attain. I 
see no need to modify the Goldwater-Nichols Act at this time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not believe modifications to the Goldwater-Nichols Act 
are currently needed.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Cyber Command?
    Answer. The Commander, U.S. Cyber Command (CYBERCOM) is responsible 
for executing the cyberspace missions specified in section 18.d.(3) of 
the Unified Command Plan (UCP) as delegated by the Commander, U.S. 
Strategic Command (STRATCOM) to secure our Nation's freedom of action 
in cyberspace and to help mitigate risks to our national security 
resulting from America's growing dependence on cyberspace. Subject to 
such delegation and in coordination with mission partners, specific 
missions include: directing Department of Defense Information Networks 
(DODIN) operations, securing and defending the DODIN; maintaining 
freedom of maneuver in cyberspace; executing full-spectrum military 
cyberspace operations; providing shared situational awareness of 
cyberspace operations, including indications and warning; integrating 
and synchronizing of cyberspace operations with combatant commands and 
other appropriate U.S. Government agencies tasked with defending our 
Nation's interests in cyberspace; provide support to civil authorities 
and international partners. All these efforts support DOD's overall 
missions in cyberspace of defending the Nation against cyber attacks, 
supporting the combatant commands, and defending DOD networks.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I am humbled and deeply honored that the President has 
nominated me to be the 2nd Commander of CYBERCOM and the 17th Director 
of the National Security Agency (NSA). Over the past 3 decades, I have 
served in a wide variety of Joint and Navy positions that have prepared 
me well for the challenges ahead if confirmed by the U.S. Senate.
    First, I have more than 32 years in the profession of arms, serving 
in various command, staff, and intelligence positions afloat and 
ashore. I have been the director for Intelligence for both the Joint 
Chiefs of Staff and U.S. Pacific Command, special assistant to the 
Chairman of the Joint Chiefs of Staff, and commanded at multiple 
levels. I have over 27 years of dedicated experience in the SIGINT 
arena as an Information Warfare Officer and have held significant 
responsibilities in the cyber arena for much of the past 12 years.
    In particular, my experiences and knowledge gained over the last 
2\1/2\ years while serving as Commander of both Fleet Cyber Command and 
Tenth Fleet have done much to prepare me for the challenges of this new 
complex warfighting domain that is cyberspace. I should note that my 
responsibilities there include the command of the U.S. Navy's 
cryptologic capabilities, and so I have seen firsthand the relationship 
between cryptology and cybersecurity, and the importance of 
partnerships with interagency capabilities, with our allies, and with 
industry to strengthen the defense of our collective networks. My 
service at Fleet Cyber Command/Tenth Fleet afforded me direct 
experience, particularly in the realm of deliberate and crisis action 
planning, to ensure the effective execution of cyberspace 
responsibilities as directed by the Secretary of Defense through the 
Commander, STRATCOM.
    Finally, my academic background has also helped prepare me for the 
challenges of high-level command, national security decisionmaking, and 
international engagement. I hold a Master of Science in National 
Security Strategy and am a graduate of both the National War College 
and the Naval War College. I was also a Massachusetts Institute of 
Technology Seminar XXI fellow.
    Question. Does the Commander of CYBERCOM have command of or 
exercise operational control of the Defense Information Systems 
Agency's (DISA) and Military Services' communications networks?
    Answer. If confirmed as Commander, CYBERCOM, I will be responsible 
for directing the operation and defense of DOD's information networks 
as specified in the UCP and as delegated by Commander, STRATCOM. The 
DISA provides, operates, and assures command and control, information 
sharing capabilities, and a globally accessible enterprise information 
infrastructure in direct support to national leaders, joint 
warfighters, and other mission and coalition partners across the full 
spectrum of operations. As a Combat Support Agency, DISA maintains a 
close working relationship with CYBERCOM, providing expertise on the 
networks, communications and computing infrastructure that it operates. 
I will not exercise command or operational control over DISA 
communications networks.
    Question. As a career intelligence officer, what qualifications do 
you have to command these networks?
    Answer. As noted in my biography, much of my career has involved 
not only intelligence duties but the command, administration, use, and 
employment of information networks and the data they carry, process, 
and store to protect and guard our Nation. Over the course of my 
services, I have witnessed and helped further the revolution in 
information technology that has helped make our military second-to-none 
in its ability to communicate and control forces while providing 
decisionmakers with unprecedented situational awareness. I have also 
devoted a great deal of my service to understanding and mitigating the 
vulnerabilities that our dependence on information networks can create 
for our military and our Nation. In my current duties as Commander, 
Fleet Cyber Command I exercise operational control over Navy's networks 
and have done so for 30 months.
    Question. What qualifications do you have to command military 
forces and military operations?
    Answer. As noted above, I have exercised command previously at both 
junior and senior levels. I currently command Fleet Cyber Command and 
Tenth Fleet, a global team of nearly 15,000 men and women. Their 
operating environment is dynamic, and demanding; Fleet Cyber Command/
Tenth Fleet has literally been ``in action'' against capable and 
determined adversaries seeking access to our networks since the day I 
assumed command in 2011. The planning and operations we have conducted 
to protect our networks and provide the Navy and our military and 
government freedom of maneuver in cyberspace have been complex.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
CYBERCOM?
    Answer. Any individual can learn more to enhance his or her 
expertise and abilities, and I have found that truth amply applies to 
me in understanding the very complex and rapidly evolving domain that 
is cyberspace. If confirmed, I shall meet with the combatant commanders 
to ascertain how CYBERCOM can better support their missions. 
Additionally, I would engage with key officials and personnel within 
the executive and legislative branches of the U.S. Government, leaders 
throughout the Intelligence Community, Law Enforcement, the Department 
of Homeland Security (DHS), and senior allied officials to hear their 
ideas about how we can work together to identify, assess, and mitigate 
the cyber threats we all face.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, 
CYBERCOM, to the following officials:
    The Secretary of Defense.
    Answer. Pursuant to title 10, U.S.C., section 164, and subject to 
the direction of the President, the Commander, STRATCOM performs duties 
under the authority, direction, and control of the Secretary of Defense 
and is directly responsible to the Secretary for the preparedness of 
the command to carry out missions assigned to the command. As a sub-
unified command under the authority, direction, and control of the 
Commander, STRATCOM, CYBERCOM is responsible to the Secretary of 
Defense through the Commander, STRATCOM. If confirmed, I will work 
closely with the Secretary in coordination with Commander, STRATCOM.
    Question. The Deputy Secretary of Defense.
    Answer. In accordance with title 10, U.S.C., section 132, the 
Deputy Secretary of Defense performs such duties and exercises powers 
prescribed by the Secretary of Defense. The Deputy Secretary of Defense 
will act for and exercise the powers of the Secretary of Defense when 
the Secretary is disabled or the office is vacant. If confirmed, I will 
work closely with the Deputy Secretary, in coordination with Commander, 
STRATCOM.
    Question. The Director of National Intelligence.
    Answer. The Intelligence Reform and Terrorist Prevention Act of 
2004 established the Director of National Intelligence to act as the 
head of the Intelligence Community, principal advisor to the President 
and the National Security Council on intelligence matters pertaining to 
national security, and to oversee and direct the implementation of the 
National Intelligence Program. Pursuant to title 50, U.S.C., section 
403, subject to the authority, direction, and control of the President, 
the Director of National Intelligence coordinates national intelligence 
priorities and facilitates information sharing across the Intelligence 
Community. If confirmed, I will work closely with the Commander, 
STRATCOM and through the Secretary of Defense to coordinate and 
exchange information with the Director of National Intelligence as 
needed to ensure unified effort and synergy within the Intelligence 
Community in matters of national security.
    Question. The Under Secretary of Defense for Policy.
    Answer. Title 10, U.S.C. and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisors to the Secretary of Defense regarding matters related to their 
respective functional areas. Within these areas, the Under Secretaries 
exercise policy and oversight functions, and in discharging their 
responsibilities, the Under Secretaries may issue instructions and 
directive memoranda that implement policy approved by the Secretary. If 
confirmed, I look forward to working with the Under Secretary of 
Defense for Policy, in coordination with Commander, STRATCOM, on all 
policy issues that affect CYBERCOM operations.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. Title 10, U.S.C. and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisors to the Secretary of Defense regarding matters related to their 
respective functional areas. Within these areas, the Under Secretaries 
exercise policy and oversight functions and, in discharging their 
responsibilities the Under Secretaries may issue instructions and 
directive memoranda that implement policy approved by the Secretary. If 
confirmed, I shall work closely with the Under Secretary of Defense for 
Intelligence, in coordination with Commander, STRATCOM, on matters in 
the area of CYBERCOM's assigned responsibilities.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. Title 10, U.S.C. and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisors to the Secretary of Defense regarding matters related to their 
respective functional areas. Within these areas, the Under Secretaries 
exercise policy and oversight functions and, in discharging their 
responsibilities the Under Secretaries may issue instructions and 
directive memoranda that implement policy approved by the Secretary. If 
confirmed, I shall work closely with the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, in coordination with Commander, 
STRATCOM, on matters in the area of CYBERCOM's assigned 
responsibilities.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. The Assistant Secretary of Defense for Homeland Defense 
executes responsibilities including overall supervision of the homeland 
defense and defense support of civil authorities activities of the DOD 
while serving under the Under Secretary of Defense for Policy. Any 
relationship the Commander, CYBERCOM requires with the Assistant 
Secretary of Defense for Homeland Security would exist with and through 
the Under Secretary of Defense for Policy. If confirmed, I shall work 
with the Assistant Secretary of Defense for Homeland Defense in concert 
with Commander, STRATCOM; Commander, U.S. Northern Command; and 
Commander, U.S. Pacific Command, on related national security issues.
    Question. The Chief Information Officer.
    Answer. Under the authority of Department of Defense Directive 
5144.02 and consistent with titles 10, 40, and 44, U.S.C., the DOD 
Chief Information Officer (CIO) is the Principal Staff Assistant and 
advisor to the Secretary of Defense and Deputy Secretary of Defense on 
information resources management and position, navigation, and timing 
matters. The DOD CIO is tasked with improving the combat power of the 
Department--as well as its security and efficiency--by ensuring that 
the Department treats information as a strategic asset and that 
innovative information capabilities are available throughout all areas 
of DOD supporting war fighting, business, and intelligence missions. 
The DOD CIO is the Department's primary authority for the policy and 
oversight of information resources management, to include matters 
related to information technology, network defense, and network 
operations, and it also exercises authority, direction, and control 
over the Director, DISA. If confirmed, I look forward to working 
closely with the Chief Information Officer through the Secretary and 
Deputy Secretary of Defense and Commander, STRATCOM, on matters in the 
area of CYBERCOM's assigned responsibilities.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is the principal military advisor to the 
President, National Security Council, and Secretary of Defense. Title 
10, U.S.C., section 163 allows communication between the President or 
the Secretary of Defense and the combatant commanders to flow through 
the Chairman. By custom and tradition, and as instructed by the UCP, if 
confirmed, I would normally communicate with the Chairman in 
coordination with the Commander, STRATCOM.
    Question. The Secretaries of the Military Departments.
    Answer. Under title 10, U.S.C., section 165, subject to the 
authority, direction, and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the Secretaries 
of the Military Departments are responsible for administration and 
support of forces that are assigned to unified and specified commands. 
The authority exercised by a sub-unified combatant commander over 
Service components is clear but requires coordination with each 
Secretary to ensure there is no infringement upon those lawful 
responsibilities which a Secretary alone may discharge. If confirmed, I 
look forward to building a strong and productive relationship with each 
of the Secretaries of the Military Departments in partnership with 
Commander, STRATCOM.
    Question. The Chiefs of Staff of the Services.
    Answer. The Service Chiefs are charged to provide organized, 
trained, and equipped forces to be employed by combatant commanders in 
accomplishing their assigned missions. Additionally, these officers 
serve as members of the Joint Chiefs of Staff and as such have a lawful 
obligation to provide military advice. Individually and collectively, 
the Service Chiefs are a tremendous source of experience and judgment. 
If confirmed, I will work closely and confer regularly with the Service 
Chiefs.
    Question. The combatant commanders and, specifically, the 
Commanders of STRATCOM and U.S. Northern Command.
    Answer. CYBERCOM is a subordinate unified command under STRATCOM. 
The Commander, CYBERCOM, has both supported and supporting 
relationships with other combatant commanders, largely identified 
within the UCP, the Joint Strategic Capabilities Plan, execute orders, 
and operation orders. In general, the Commander, CYBERCOM, is the 
supported commander for planning, leading, and conducting DOD defensive 
cyber and global network operations and, in general, is a supporting 
commander for offensive missions. Specific relationships with 
Commander, U.S. Northern Command will be delineated by the President or 
the Secretary of Defense in execute and/or operation orders. If 
confirmed, I look forward to working with the combatant commanders to 
broaden and enhance the level and range of these relationships.
    Question. The Director of the Defense Information Systems Agency.
    Answer. The DISA is a DOD Combat Support Agency that provides, 
operates, and assures command and control, information sharing 
capabilities, and a globally accessible enterprise information 
infrastructure in direct support to national leaders, joint 
warfighters, and other mission and coalition partners across the full 
spectrum of operations. Commander, CYBERCOM must maintain a close 
relationship with the Director, DISA to coordinate and represent 
requirements in this mission area, in order to accomplish STRATCOM-
delegated UCP missions. If confirmed, I shall work closely with the 
Director of DISA on matters of shared interest and importance.
                               oversight
    Question. The resourcing, planning, programming and budgeting, and 
oversight for CYBERCOM's missions is fragmented within the Defense 
Department, the executive branch as a whole, and within Congress. 
Section 932 of the National Defense Authorization Act (NDAA) for Fiscal 
Year 2014 requires the Secretary of Defense to appoint a Senate-
confirmed official from the Office of the Under Secretary of Defense 
for Policy to act as the principal cyber advisor to the Secretary.
    What is your view of this legislation? Do you believe that it will 
improve oversight, planning, and resource allocation for the cyber 
mission within DOD?
    Answer. I believe this legislation provides an opportunity to 
streamline cyber policy analysis and oversight within DOD, and its 
implementation will support DOD's long-term goals in cyberspace. Cyber 
is a complex issue that touches many parts of the Department and one 
single point of contact within the Office of the Secretary of Defense 
will reduce duplicative efforts and keep all offices that work on cyber 
issues in sync.
    Question. What changes to the legislation, if any, would you 
recommend?
    Answer. I do not recommend any changes at this time. If confirmed, 
I can assure you that I will work closely with the principal cyber 
advisor selected by the Secretary of Defense.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Commander, CYBERCOM?
    Answer. I believe the major challenge that will confront the next 
Commander, CYBERCOM, will be dealing with the changing threat in 
cyberspace. Adversaries today seek persistent presences on military, 
government, and private networks for purposes such as exploitation and 
potentially disruption. We as a military and a nation are not well 
positioned to deal with such threats. These intruders have to be 
located, blocked, and extracted, sometimes over long periods of time. 
We have seen the extent of the resources required to wage such 
campaigns, the planning and intelligence that are essential to their 
success, and the degree of collaboration and synchronization required 
across the government and industry (and with our allies and 
international partners). We in DOD are creating capabilities that can 
adapt to these uses and others, but we have some key capability gaps in 
dealing with increasingly capable threats. Our legacy information 
architecture, for instance, is not optimized for defense in its current 
form, and our communications systems are vulnerable. U.S. military 
forces currently lack the training and the readiness to confront 
advanced threats in cyberspace. Finally, our commanders do not always 
know when they are accepting risk from cyber vulnerabilities, and 
cannot gain reliable situational awareness, neither globally nor in 
U.S. military systems.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I plan to continue CYBERCOM's current course 
of building cyber capabilities to be employed by senior decisionmakers 
and combatant commanders. In accordance with the DOD Strategy for 
Operating in Cyberspace, CYBERCOM with its mission partners and allies 
has been helping the DOD to build:

    1.  A defensible architecture;
    2.  Trained and ready cyber forces;
    3.  Global situational awareness and a common operating picture;
    4.  Authorities that enable action;
    5.  Doctrine and concepts for operating in cyberspace.

    I would plan to assess these current priorities, which are DOD-
wide, with an eye to shifting emphases across them as necessary and 
appropriate, and as computer and communication technologies continue to 
evolve.
    Question. What are your priorities for the CYBERCOM?
    Answer. CYBERCOM is helping to accomplish something that our 
military has never done before. With the Services, allies, and a host 
of partners, it is putting in place foundational systems and processes 
for organizing, training, equipping, and operating military cyber 
capabilities to meet cyber threats. CYBERCOM and the Services are 
building a world class, professional, and highly capable force in 
readiness to conduct full spectrum cyberspace operations. Its Cyber 
Mission Force (CMF) is already engaged in operations and accomplishing 
high-value missions. It is no longer an idea on a set of briefing 
slides; its personnel are flesh-and-blood soldiers, marines, sailors, 
airmen, and coastguardsmen, arranged in military units. That progress 
is transforming potential capability into a reliable source of options 
for our decisionmakers to employ in defending our Nation. Future 
progress in doing so, of course, will depend on our ability to field 
sufficient trained, certified, and ready forces with the right tools 
and networks to fulfill the growing cyber requirements of national 
leaders and joint military commanders. If confirmed, my highest 
priority will be continuing and expanding this progress toward making 
CYBERCOM capable of protecting our Nation's freedom of maneuver in 
cyberspace.
     the fundamental prospects for defending against cyber attacks
    Question. The ease with which nation-states, terrorists, and 
criminals, are able to penetrate corporations and government 
organizations to steal information suggests that the prospects for 
cyberdefense, using current techniques at least, are poor. Nonetheless, 
CYBERCOM has been assigned the mission of defending the Homeland, which 
at least implies that a defensive mission is practical and achievable. 
It may be possible to build resilience into critical infrastructure to 
recover from an attack, through back-up systems and redundant control 
systems that are less automated or electronically connected, but the 
Government so far has not emphasized resilience over defense for our 
most critical infrastructure.
    On a sustained basis in a conflict with a very capable nation-
state, should we expect CYBERCOM to be able to prevent cyber attacks 
from reaching their targets or causing great damage?
    Answer. The United States possesses superior military might across 
all warfighting domains, cyberspace included. In truth, however, there 
has been no large scale cyber conflict yet in history, and the state of 
strategy and execution of cyber warfare is evolving as we speak. Our 
decision to collocate key intelligence operations and cyberspace 
capability serves as a force multiplier, if properly authorized and 
supported by policy, resources, and willpower. Our force construct is 
such that it provides the United States the flexibility to engage, both 
offensively and defensively, in specific areas of hostility or on a 
transnational basis. We are building or further developing our 
international partnerships and relationships for mutual support and 
recognition of norms of behavior. We know there are other nation-states 
who have equal or near-equal capability to ours; we have to be sure 
that we have the capabilities, processes, authorities, and, where 
appropriate, delegation and pre-approvals in place to prevent and 
respond to malicious activity. In a conflict where risk to our systems, 
information, and critical infrastructure was in play, that the United 
States would need to optimize our ability to see, block, and maneuver 
against attackers in a streamlined and efficient fashion. We still have 
significant work to do to build out our forces and capabilities. 
However, given the circumstances, yes, I believe it is realistic to 
expect that U.S. CYBERCOM could effectively engage the adversary to 
prevent attacks and severe damage.
    Question. Is it reasonable to expect the private sector nonetheless 
to build defenses to prevent serious impacts on critical 
infrastructure?
    Answer. Yes. I believe that mission assurance and the protection of 
our critical infrastructure is an inherent obligation of all, not just 
DOD, DHS, DOJ/Federal Bureau of Investigation (FBI) and our Government. 
In many cases, mission assurance relies on the provision, management, 
or facilitation of critical infrastructure lies in the private sector. 
Defensive measures could include not just automated capabilities to 
prevent or respond, but also adherence to proper standards of network 
security, administration, sharing of threat and vulnerability 
information, and compliance. These are as critical to protection of 
infrastructure as is military or cyber might. In almost any scenario, 
collaboration and information sharing across private and public, 
governmental and non-governmental organizations will be a key to 
successful outcomes.
    Question. In your view, could such cyber attacks be prevented 
through the development of offensive capabilities and the principles of 
deterrence?
    Answer. Yes, the development of both offensive and defensive 
capabilities can serve to deter an adversary from cyber attack. Strong 
capabilities can deter an attack by preventing an adversary from 
achieving his objectives and demonstrating the ability to impose costs 
on the adversary.
    Question. Should we expect CYBERCOM to be able to prevent the more 
limited attacks that could be expected from powers with lesser cyber 
capabilities, such as North Korea and Iran?
    Answer. Adversarial activities over recent years have shown that 
the level of expertise required to conduct potentially damaging 
operations has steadily lowered, enabling less capable actors to 
achieve some level of effect. Although we continue to build and develop 
our forces and capabilities, I believe that CYBERCOM has the capability 
to prevent such attacks, yes, whether from a capable or less capable 
adversary, given the order and provided that the supporting policies, 
authorities, relationships, and will to act are in place.
    Question. In your view, can cyber warfare capabilities provide an 
asymmetric advantage for such rogue nations, providing them the 
potential to strike the American people and economy?
    Answer. Yes. Regardless of the target--assuming that the adversary 
has somehow developed the access--the physics of the cyberspace domain 
and the technology supporting it make it easier for an adversary to 
hide or obfuscate his capability, attack vector, and location, and 
deliver an effect on his target either singularly or repeatedly within 
milliseconds. If he or she has subverted any number of proxies from 
which to operate, that further multiplies the advantage enjoyed. When 
the victim is placed in a reactive posture by processes which constrain 
the ability to respond, the advantage is multiplied. Internal defensive 
measures can mitigate that advantage to an extent, of course.
    Question. If so, how should we demonstrate or clarify our 
retaliatory capability as a means of contributing to deterrence? Should 
the U.S. Government be more forthcoming about the nature of cyber 
warfare, and the balance between offensive and defensive capabilities?
    Answer. I believe the recent disclosures of a large portion of our 
intelligence and military operational history may provide us with 
opportunity to engage both the American public and our international 
partners in discussion of the balance of offense and defense, the 
nature of cyber warfare, norms of accepted and unacceptable behavior in 
cyberspace, and so forth.
                      support to civil authorities
    Question. CYBERCOM has a mission to support civil authorities, such 
as DHS and law enforcement agencies, to help defend government networks 
and critical infrastructure networks owned and operated by the private 
sector.
    Please describe the ways that CYBERCOM should assist civil 
authorities and the capability of CYBERCOM to provide that assistance.
    Answer. I believe that a request for support to civil authorities 
for cyber related assistance normally occur as a response to a request 
for assistance from DHS to DOD, and in close coordination with the 
Commanders of STRATCOM and NORTHCOM. That support could be technical 
assistance in a number of different ways, such as recommendations for 
improved network configurations, information assurance measures, or 
specific defensive response actions. Other technical assistance could 
be in the form of mitigation options, forensics, or data analysis.
    Question. U.S. Northern Command was established to serve as the 
focal point for DOD support to civil authorities.
    Will cybersecurity support to civil authorities be provided through 
U.S. Northern Command, as a supported command, or otherwise? If not, 
why not?
    Answer. Depending on the nature of the national emergency or 
crisis, and the requirement for cybersecurity support, the Secretary of 
Defense would determine which combatant commander would be supported 
and supporting and CYBERCOM would comply with that determination. In 
any scenario with respect to cyber security support to civil 
authorities, a close collaborative relationship between U.S. Northern 
Command and CYBERCOM will be key.
                       use of force in cyberspace
    Question. Does the Defense Department have a definition for what 
constitutes use of force in cyberspace, and will that definition be the 
same for our activities in cyberspace and those of other nations?
    Answer. DOD has a set of criteria that it uses to assess cyberspace 
events. As individual events may vary greatly from each other, each 
event will be assessed on a case-by-case basis. While the criteria we 
use to assess events are classified for operational security purposes, 
generally speaking, DOD analyzes whether the proximate consequences of 
a cyberspace event are similar to those produced by kinetic weapons.
    As a matter of law, DOD believes that what constitutes a use of 
force in cyberspace is the same for all nations, and that our 
activities in cyberspace would be governed by Article 2(4) of the U.N. 
Charter the same way that other nations would be. With that said, there 
is no international consensus on the precise definition of a use of 
force, in or out of cyberspace. Thus, it is likely that other nations 
will assert and apply different definitions and thresholds for what 
constitutes a use a force in cyberspace, and will continue to do so for 
the foreseeable future.
    Question. Has the Defense Department, or the administration as a 
whole, determined what constitutes use of force in cyberspace in 
relation to the War Powers Act, the exercise of the right of self-
defense under the U.N. Charter, and the triggering of collective 
defense obligations?
    Answer. It is up to the President to determine when, based upon the 
circumstances of any event, including a cyberspace event, and the 
contemplated response that the President intends to proceed with, what 
consultations and reports are necessary to Congress, consistent with 
the War Powers Act.
    The United States would evaluate its individual self-defense 
rights, as well as the self-defense rights of other nations, consistent 
with international law and Article 51 of the U.N. Charter. This 
analysis would assess whether an illegal use of force had occurred, and 
whether a State's inherent right of self-defense was triggered. If the 
United States held a collective defense obligation to the state that 
was subject to the illegal use of force, then the United States would 
evaluate its obligations consistent with its treaty obligations, 
keeping in mind that the U.N. Charter recognizes a state's inherent 
right of individual and collective self-defense. After all, collective 
self-defense obligations apply when another state is threatened or 
subject to a use of force in the cyber domain just as they would in 
other warfighting domains.
    Question. Could CYBERCOM employ offensive cyber weapons against 
computers located abroad that have been determined to be sources of an 
attack on the United States or U.S. deployed forces if we do not know 
who is behind the attack (i.e., a foreign government or non-state 
actors)? Without confident ``attribution,'' under international law, 
would the Defense Department have the authority to ``fire back'' 
without first asking the host government to deal with the attack?
    Answer. International law does not require that a nation know who 
is responsible for conducting an armed attack before using capabilities 
to defend themselves from that attack. With that said, from both an 
operational and policy perspective, it is difficult to develop an 
effective response without a degree of confidence in attribution. 
Likely, we would take mitigating actions, which we felt were necessary 
and proportionate, to defend the Nation from such an attack. I'd note 
that in such an event, CYBERCOM would be employing cyber capabilities 
defensively, in the context of self-defense.
    policies governing access to sensitive targets for intelligence 
                        collection and targeting
    Question. Traditionally, espionage has not been regarded as a use 
of force or an act of war. However, in cyberspace operations, experts 
agree that gaining access to a target for intelligence collection is 
tantamount to gaining the ability to attack that target. If a 
penetration were detected, the victim may not know whether the purpose 
of the activity would be limited to espionage only, or would also 
constitute preparation for an attack.
    Are there classes of foreign targets that the U.S. Government 
considers should be ``off-limits'' from penetration through cyberspace?
    Answer. My view is that the U.S. Government should only conduct 
cyberspace operations against carefully selected foreign targets that 
are critical to addressing explicitly stated intelligence and military 
requirements, as approved by national policymakers and the national 
command authority.
    Question. Would or should such targets be immune to penetration by 
the United States in peacetime even for intelligence collection? Should 
there be a review process outside of DOD for such potential targets?
    Answer. Intelligence collection is conducted in response to 
specific needs expressed by policymakers and military commanders for 
information. Those needs are vetted through a formal requirements 
process managed by the Director of National Intelligence that includes 
a review of sensitive policy equities.
    Question. How does the NSA currently consider these issues when 
making decisions about targeting for intelligence collection?
    Answer. NSA conducts intelligence collection operations in response 
to specific requirements that are vetted through a formal process 
managed by the Director of National Intelligence. That process includes 
an interagency review of sensitive policy equities.
    Question. What role do the White House and the interagency 
coordination process play in this decision process?
    Answer. The White House and the interagency community are directly 
involved in approving foreign intelligence requirements and determining 
what targets are appropriate for cyberspace and other Signals 
Intelligence (SIGINT) operations. All cyberspace operations conducted 
by NSA and CYBERCOM are governed by the policy constraints set by the 
White House and the interagency coordination process. President Obama 
recently announced improvements to this process in Presidential Policy 
Directive PPD-28.
    NSA and CYBERCOM (under its delegated intelligence authorities) 
conduct intelligence collection operations in response to specific 
requirements that are vetted through a formal process managed by the 
Director of National Intelligence. That process includes an interagency 
review of sensitive policy equities.
    Question. Do you see a need for a change in the decisionmaking 
process?
    Answer. I believe that the recent improvements to the policy review 
process described in PPD-28 should be sufficient to ensure that all 
U.S. Government and privacy interests are considered prior to engaging 
in cyberspace operations. I have no specific recommendations for 
additional changes at this time.
              authorities of commander, u.s. cyber command
    Question. Offensive cyber warfare weapons or operations could have 
devastating effects, depending on the target of the attack and the 
method used, that could be comparable to those caused by weapons of 
mass destruction.
    Under what circumstances, if any, would you as Commander, CYBERCOM, 
have the authority to use offensive cyber weapons without prior 
approval by the President?
    Answer. Under current policy, Commander, CYBERCOM, would not use 
cyber capabilities for offensive purposes without prior approval by the 
President.
    Question. Are CYBERCOM forces the only forces permitted to conduct 
offensive military cyber operations?
    Answer. The President or Secretary of Defense could authorize any 
combatant command to direct assigned cyber forces to conduct military 
cyberspace operations. At present, we are building a CMF, which will be 
able to conduct these operations under the command and control of 
whichever combatant command to which they are assigned.
    Question. Are there official rules barring non-CYBERCOM forces 
from, for example, causing cyber effects against battlefield weapons 
systems, as an extension of traditional electronic warfare 
capabilities?
    Answer. As far as I am aware, there are none.
    Question. Are there clear distinctions between cyber warfare and 
electronic warfare?
    Answer. While there are clear distinctions between electronic 
warfare and cyber warfare, there may also be avenues to achieve greater 
operational synergy between these two missions and to examine the 
policy implications of their synchronized use in warfare.
                              laws of war
    Question. Has DOD determined how the laws of armed conflict 
(including the principles of military necessity in choosing targets, 
proportionality with respect to collateral damage and unintended 
consequences, and distinguishing between combatants and non-combatants) 
apply to cyber warfare, with respect to both nation-states and non-
state entities (terrorists, criminals), and both when the source of an 
attack is known and unknown?
    Answer. Per DOD guidance, all military operations must be in 
compliance with the laws of armed conflict--this includes cyber 
operations. The law of war principles of military necessity, 
proportionality and distinction will apply when conducting cyber 
operations.
    Question. If not, when will the Department produce authoritative 
positions on these issues?
    Answer. N/A.
                                equities
    Question. There have been many instances in history where military 
and political leaders had to struggle with the choice of acting on 
intelligence information to save lives or forestall an enemy success, 
but at the cost of the enemy learning that their classified information 
or capabilities had been compromised. These choices are referred to as 
``balancing equities'' or ``gain-loss'' calculations.
    Who is in charge of the equities/gain-loss process for cyberspace 
within the military?
    Answer. There is a clear framework established to adjudicate the 
equities/gain-loss and is part of both crisis and deliberate planning 
efforts on the part of the combatant commanders. The risk-loss equation 
in DOD is made after comprehensive consultation with the Intelligence 
Community and the impacted commander. CYBERCOM is the lead for DOD 
cyberspace deconfliction and is directly involved in cases of 
disagreement as part of the processes directed in key interagency 
documents. If the interagency disagreement is not resolved at this 
level, the issue goes to the Chairman, Joint Chiefs of Staff, the 
Secretary of Defense, NSC Deputies, and later to the President where 
the issue is resolved.
    Question. If these decisions rest with the Commander of CYBERCOM, 
how will the combatant commands, the military Services, and other 
defense agencies be persuaded that their interests will be fairly 
balanced with those of NSA?
    Answer. PPD-20 allows for representation from other agencies, 
giving each a voice in the process. When gain-loss issues arise, all 
parties have the responsibility to comprehensively state the issues and 
impacts with these discussions beginning at the action officer level. 
Formal disagreements unresolved after CYBERCOM review follow a clear 
path to department and national decisionmakers, to include the 
President if need be.
    Question. Since NSA personnel are filling a large number of key 
positions within CYBERCOM, how can you be confident that equity issues 
make it to senior levels in CYBERCOM, and are fully and fairly 
examined?
    Answer. The value of NSA's contribution to the CYBERCOM mission in 
terms of manpower and mission support is vitally important; however, I 
believe that the military and civilian personnel in the current 
CYBERCOM workforce contains a broad mix of experience and background 
from across the defense, intelligence, operations and law enforcement 
communities. Within the intelligence directorate for example, the 
Defense Intelligence Agency is the primary provider of personnel, with 
a senior executive from that agency holding the deputy director 
position. Staffing the leadership from a wide range of sources is a 
strength that has resulted in a more diverse level of input into the 
equities process than ever before. All issues requiring senior 
leadership attention are fully and fairly vetted through a rigorous 
system of boards and working groups, made up of representation from 
across our diverse leadership cadre.
    Question. How are equities/gain-loss decisions made for the Nation 
as a whole? How will the interests of the vulnerable private sector, 
critical infrastructure, and civil agencies be weighed in the selection 
of targets for intelligence collection and attack?
    Answer. The Tri-lateral Memorandum of Agreement contains a 
deconfliction mechanism involving DOD, DOJ, the Intelligence Community 
and agencies outlined in, and reinforced by PPD-20. Disagreements are 
handled similar to those internal to DOD; the issue is forwarded from 
the Seniors involved to the Deputies then on to the Principals 
Committee with the final stop being the President in cases where 
equities/gain-loss are ultimately resolved.
    Question. As a foreign intelligence agency, NSA has a mission to 
find vulnerabilities in the networks of our adversaries. However, the 
NSA's Information Assurance Directorate is responsible for securing 
national security systems and CYBERCOM has the responsibility of 
defending DOD networks and the Nation.
    How do you believe these responsibilities should be balanced?
    Answer. The basis for handling discovered vulnerabilities must be 
the national interests of the United States. Understanding particular 
vulnerabilities, and how they may impact our national interests, 
requires deep understanding of the technology, the risks a 
vulnerability can pose, options for mitigating these risks, and the 
potential for foreign intelligence if the vulnerability remains open. 
But the balance must be tipped toward mitigating any serious risks 
posed to the U.S. and allied networks. NSA has always employed this 
principle in the adjudication of vulnerability findings, and if 
confirmed, I intend to sustain the emphasis on risk mitigation and 
defense.
    Question. What are the policies and processes that apply to the 
discovery and disclosure of so-called ``0-day'' vulnerabilities in 
software?
    Answer. Within NSA, there is a mature and efficient equities 
resolution process for handling ``0-day'' vulnerabilities discovered in 
any commercial product or system (not just software) utilized by the 
United States and its allies. The basis for it is documented in formal 
NSA policy, which includes the adjudication process. The policy and 
process ensure that all vulnerabilities discovered by NSA in the 
conduct of its lawful missions are documented, subject to full 
analysis, and acted upon promptly.
    NSA is now working with the White House to put into place an 
interagency process for adjudication of 0-day vulnerabilities. If 
confirmed, I will support this process.
    Question. What is the impact of not disclosing these 
vulnerabilities? What is the impact of disclosing them?
    Answer. When NSA discloses a vulnerability discovery to a vendor, 
the goal is to achieve the most efficient and comprehensive mitigation 
of the risk. Upon disclosure, vendors usually fix the vulnerability, 
and issue an update or patch. The risk is mitigated only when users 
actually install the patch. Since adversaries frequently study industry 
patches to learn about underlying vulnerabilities that will remain in 
unpatched systems, NSA disclosure of a vulnerability may temporarily 
increase the risk to U.S. systems, until the appropriate patches are 
installed.
    When NSA decides to withhold a vulnerability for purposes of 
foreign intelligence, then the process of mitigating risks to U.S. and 
allied systems is more complex. NSA will attempt to find other ways to 
mitigate the risks to national security systems and other U.S. systems, 
working with stakeholders like CYBERCOM, DISA, DHS, and others, or by 
issuing guidance which mitigates the risk. If confirmed, I intend to 
strengthen collaboration with other Government stakeholders, under the 
auspices of the planned interagency process.
    Question. What is the impact of not disclosing these 
vulnerabilities? What is the impact of disclosing them?
    Answer. NSA currently follows its equity resolution process, as 
required under NSA policy. Technical experts document the vulnerability 
in full classified detail, options to mitigate the vulnerability, and a 
proposal for how to disclose it. The default is to disclose 
vulnerabilities in products and systems used by the United States and 
its allies. The information assurance and intelligence elements of NSA 
jointly participate in this process.
                   deterrence and escalation control
    Question. Does the U.S. Government have a cyber warfare deterrence 
strategy or doctrine?
    Answer. Deterrence in cyberspace is achieved through the totality 
of U.S. actions, including the United States overall defense posture 
and the resilience of our networks and systems. As the President stated 
in his International Strategy for Cyberspace, the United States 
reserves the right to defend itself against cyberattacks. Whenever 
possible, the United States will exhaust all options prior to military 
force, and will always act in accordance with U.S. values and in a 
manner consistent with the Constitution and international law. This 
administration has articulated these policies consistently since the 
International Strategy for Cyberspace was published in 2011. The 
establishment of CYBERCOM is an element of a deterrence strategy, but 
more work and planning will be required to evolve a solid national 
strategy.
    Cyber warfare is a complex and evolving discipline, and the subject 
of deterrence is drawing increasing attention at all levels of 
government and the Interagency, and in our discussions with our 
international partners. If confirmed, I will work with DOD, DHS, DOJ/
FBI and others as we work to establish the relationships and engagement 
necessary to build such a strategy and policy.
    Question. Would you agree that promulgating such a doctrine 
requires at least some broad statements of capabilities and intentions 
regarding the use of offensive cyber capabilities, both to influence 
potential adversaries and to reassure allies?
    Answer. Classic deterrence theory is based on the concepts of 
threat and cost; either there is a fear of reprisal, or a belief that 
an attack is too hard or too expensive. Cyber warfare is still evolving 
and much work remains to establish agreed upon norms of behavior, 
thresholds for action, and other dynamics. A broad understanding of 
cyber capability, both defensive and offensive, along with an 
understanding of thresholds and intentions would seem to be logical 
elements of a deterrence strategy, both for our allies and our 
adversaries and as they are in other warfighting domains. I believe 
we'll see much discussion of the structure and implementation of our 
cyber deterrence strategy from DOD and Intelligence Community experts, 
along with Interagency engagement.
    Question. How do you reconcile the utility of speaking more openly 
and candidly about cyber warfare capabilities in the interest of 
promoting greater public knowledge and the development of deterrence 
doctrine with the continued need to classify U.S. cyber capabilities?
    Answer. I believe that as we communicate more with the public, the 
understanding that the United States will defend and deter in 
cyberspace, in accordance with law and international agreement, is more 
important than understanding the intricacies of the capabilities it 
will use to do so. I believe the public will understand that we do not 
want to telegraph our strategy for action to the adversary. As 
cyberspace matures as a warfighting domain, I believe our 
classification policies will also evolve to support growing domestic 
and international partnerships and relationships. Regardless, we will 
adhere with all classification policies and practices dictated by 
Executive order.
    Question. Most experts believe that the attacker has a substantial 
advantage over the defender in cyber warfare. It is also widely 
believed that striking first against an adversary's networks offers an 
advantage if the adversary's command and control networks can be 
degraded, and because the attacker can take steps to protect itself 
from a retaliatory attack. These considerations suggest that cyber 
warfare is currently ``unstable'' from the perspective of classic 
deterrence theory and escalation control.
    What are your views of these dynamics?
    Answer. There is no doubt that the dynamics of offense and defense 
in cyberspace are complex, simply due to the physics of the engagement 
space. Automated capabilities, human response cycles, and many other 
factors make them even more so. These considerations are discussed and 
debated by experts across the whole of government, industry, and 
academia on a near-constant basis. The science and the philosophy are 
evolving. Just as it took time for doctrine, strategy, and concepts of 
deterrence and escalation to evolve in the other warfighting domains, 
so it is with cyber warfare. I believe we are making progress.
           implications of u.s. dependence on cyber networks
    Question. Many experts assert that the United States is the most 
vulnerable country in the world to cyber attack because we are the most 
networked nation and the one that has most fully exploited computer 
networks for business, government, and military functions.
    How could the Department compensate for U.S. dependence on 
vulnerable cyber networks in developing effective deterrent strategies?
    Answer. We have effective deterrent strategies in place in the 
other warfighting domains, in the form of our demonstrated military 
might and capability. Cyber deterrence should evolve in the same way; 
demonstrated capability to defend, respond, or be able to attack when 
necessary is a key to deterrence. Our dependence on our networks can be 
compensated for by having a strong, viable defense in the form of both 
traditional military strength and cyber capability. We have the ability 
to respond proportionately and discriminately in both kinetic and non-
kinetic modes when we can meet attribution requirements.
    We need, however, to move from what is currently a reactive 
posture, to a proactive one. We are integrating and synchronizing our 
military operations and supporting intelligence capabilities for 
optimal detection, analysis, assessment, and response to mitigate 
threats and vulnerabilities on a near real-time basis. The concepts we 
are maturing in the form of multi-layered approaches and scalability, 
in coordination with DHS and others, are expandable to the rest of our 
Government and critical infrastructure.
    Our networks are inherent to our way of life; their vulnerability 
is the key concern. A strong and deterrent defense, along with robust, 
resilient networks, will alleviate that vulnerability.
    Question. Given our vulnerabilities, is it in our interest to avoid 
engaging in certain kinds of offensive cyber warfare--so that we do not 
set precedents by example for others to follow?
    Answer. Any decision to engage in offensive cyber operations must 
reflect careful consideration and due diligence of the range of 
potential impacts, including adversary responses and the impact upon 
norms and precedents in cyberspace. Even as we must be prepared to 
undertake offensive cyber operations, these are important 
considerations in the decision to undertake such operations.
                      the challenge of attribution
    Question. An essential feature of military, intelligence, and 
criminal or malicious activities in cyberspace is the ease with which 
the origin and the identity of those responsible for an attack can be 
concealed--the problem of ``attribution''.
    Can deterrence be an effective strategy in the absence of reliable 
attribution?
    Answer. Yes, I believe there can be effective levels of deterrence 
despite the challenges of attribution. Attribution has improved, but is 
still not timely in many circumstances. We must employ several 
approaches to this challenge. A healthy, engaged partnership with the 
Intelligence Community is vital to continued improvement in 
attribution. Second, is development of defensive options which do not 
require full attribution to meet the requirements of law and 
international agreement. Cyber presence, being forward deployed in 
cyberspace, and garnering the indications and warnings of our most 
likely adversaries can help (as we do with our forces dedicated to 
Defend the Nation). We must ensure we leverage the newest technology to 
identify our attackers before and during an attack--not just after. 
Last, and perhaps most important, we need to make our networks and 
supporting architectures robust, resilient, and defensible by 
establishing and encouraging adherence to cybersecurity and information 
assurance standards. This last is a national problem across all of our 
networks, and is one which we should actively work to resolve.
    There are other actions that need to be taken, too, in order to 
advance our defensive capability and support a deterrent posture. These 
include partnerships with nation-states who share common goals and 
expectations for behavior in cyberspace. From these partnerships, we 
can build normative standards, thresholds for action, and evidential 
frameworks on which to base response. We also need to improve our 
relationships with private and industrial sector partners through 
information sharing regarding threat and vulnerabilities.
    I believe the United States may be considered an easier mark 
because our own processes and criteria for response lead the adversary 
to believe, rightly or wrongly, that we do not have the will to respond 
in a timely or proportionate manner, even when attribution is 
available. This is within our capacity to fix.
    The bottom-line is that we have much we can do to increase our 
posture to prevent attacks, mitigate them to at least a reasonable 
extent, or deter them outright, without full attribution.
    Question. Can the attribution problem be solved without 
comprehensive information sharing among the private sector and with the 
government?
    Answer. I believe that the difficulty of attribution is compounded 
without a close relationship with the private sector, and full 
information sharing to the degree that policy and law allow. Most of 
our national information systems and networks ride on or are composed 
of infrastructure that is privately owned; we need their engagement to 
build attribution capability.
                          systems acquisition
    Question. Combatant commands by design play a limited role in the 
acquisition process. However, the Commander of CYBERCOM is dual-hatted 
as the Director of the NSA, which is a large enterprise with 
substantial resources for developing, procuring, and supporting new 
equipment, systems, and capabilities. In addition, the Commander 
exercises operational control of DISA networks, and DISA is also an 
agency that acquires systems and capabilities.
    Is there a precedent for a combatant commander to exercise this 
degree of direct control over acquisition organizations, aside from 
Special Operations Command, which Congress expressly provided with 
acquisition authority?
    Answer. If confirmed as the Commander, CYBERCOM, I will rely upon 
the acquisition authority of other organizations, (e.g., the Services 
and Defense Agencies) to equip the cyber forces to satisfy validated 
operational requirements and comply with DOD policy and capability 
development guidance. This is the same process used by the other 
combatant and sub-unified commands, with the exception of U.S. Special 
Operations Command.
    Question. What measures have been taken to ensure that Commanders 
of CYBERCOM do not circumvent the requirements process and the 
established acquisition process by directing subordinates at NSA or 
DISA to directly address needs perceived by CYBERCOM without the rigor 
required by the DOD requirements and acquisition processes?
    Answer. CYBERCOM, NSA, and DISA are all separate organizations with 
their own, ability to acquire personnel and equipment, processes and 
staffs. Due to the separate nature of these three organizations, the 
oversight, accountability chains, and the ability to audit will ensure 
I follow the CYBERCOM requirements process and the Director of NSA 
follows the established NSA acquisition process. As mentioned earlier, 
CYBERCOM will operate under the same authorities and oversight as other 
combatant commands and sub-unified commands.
    Specifically regarding rigor, CYBERCOM adheres to all laws and 
policies regarding acquisition and if confirmed, I will ensure DOD 
requirements and acquisition processes will continue to be followed.
    Specifically, I understand the Department directed CYBERCOM to 
establish the DOD Cyber Operational Capabilities Board (COCB) to better 
integrate military cyber capabilities requirements into cyber 
capability development. The COCB is in its infancy and the draft 
Charter is still being staffed, but it will be fully alignment with the 
Department's Joint Capabilities Integration and Development System to 
ensure future cyberspace capability development supports the Combatant 
Commands.
    It is important to note that although CYBERCOM, as a sub-unified 
command, does not have its own acquisition authority, it has the 
management controls necessary to ensure Command activities for funding 
capability developments satisfy validated operational requirements and 
comply with DOD policy and capability development guidance. While 
CYBERCOM does not have the acquisition authority to designate a 
Milestone Decision Authority (MDA), the Command makes investment 
decisions that result in starting, continuing, suspending, or 
terminating its investments in cyberspace capability developments. 
These decisions are made in concert with executing MDAs and reflect the 
Command's focus on funding only those capability developments that will 
deliver required operational cyberspace capabilities within the 
timeframes needed. As discussed previously, CYBERCOM will rely upon the 
acquisition authority of other organizations, e.g., the Services and 
Defense Agencies.
    Question. The NDAA for Fiscal Year 2011 required the Secretary of 
Defense to establish a strategy for streamlining the acquisition and 
oversight process for cyber warfare capabilities, which resulted, among 
other things, in the establishment of the Cyber Investment Management 
Board (CIMB).
    Three years after the passage of this legislation, how would you 
characterize DOD's progress in establishing an agile acquisition 
process to provide capabilities for CYBERCOM?
    Answer. The CIMB was established in 2012 and has been meeting on a 
quarterly basis. The CIMB is chartered to provide strategic guidance 
and recommendations to support integration and synchronization of cyber 
capabilities across science and technology requirements, acquisitions, 
development, test and evaluation, and sustainment to ensure that cyber 
warfare investments are efficiently planned, executed, and coordinated 
across the Department. The CIMB continues to mature and is working to 
demonstrate a streamlined acquisition and oversight process for cyber 
warfare capabilities. Currently, they have identified pilot programs to 
demonstrate the proof of principle for rapid acquisition of cyber 
capabilities.
              military service roles in u.s. cyber command
    Question. Each of the Military Services is producing cyber 
operations units for assignment to CYBERCOM to defend the Nation, 
support the other combatant commands, and to defend DOD networks.
    Are these Army, Navy, Marine Corps, and Air Force units 
geographically organized and assigned, or is there also specialization 
among the Military Services by mission or type of target?
    Answer. Service provided CMF Teams are both geographically aligned 
and specialized depending upon their assigned mission area.
    The Cyber National Mission Force is comprised of National Mission 
Teams, National Support Teams, and National Cyber Protection Teams. 
They are assigned to the ``Defend the Nation'' in cyberspace mission 
area and, if directed, defend our critical infrastructure and key 
resources against nation state and non-state actors.
    The Combat Mission Forces are comprised of Combat Mission Teams and 
Combat Support Teams. They are assigned to the ``Provide Support to 
Combatant Commands'' mission area. Combat Mission Forces are 
geographically and functionally aligned under one of four Joint Force 
Headquarters-Cyber (JFHQ-C) in direct support of geographic and 
functional combatant commands. They are aligned as follows:

        <bullet> JFHQ-C Washington supports U.S. Special Operations 
        Command, U.S. Pacific Command, and U.S. Southern Command
        <bullet> JFHQ-C Georgia supports U.S. Central Command, U.S. 
        Africa Command, and U.S. Northern Command
        <bullet> JFHQ-C Texas supports U.S. European Command, STRATCOM, 
        and U.S. Transportation Command

    The Combat Protection Forces are comprised of Service, DISA, and 
Combatant Command Cyber Protection Teams. They are assigned to the 
``Secure, Operate, and Defend the Department of Defense Information 
Networks'' mission area. These teams are specialized to prepare and 
protect key cyber terrain to provide mission assurance.
    Question. Would, for example, Army units be assigned to operate 
against naval or air targets, and vice versa?
    Answer. Yes, targets developed for fires and effects delivered in 
and through cyberspace do not necessarily correspond with traditional 
Service domains much as an Air Force unit may be tasked to attack a 
naval vessel. The cyberspace domain often intersects with multiple 
elements of a single target. A Target System Analysis that yields 
multiple aimpoints provides a commander flexibility on how best to 
prosecute the target with the least risk. These options may require an 
Army unit to operate against naval or air targets and vice versa. 
Ultimately, the Joint Force Commander will determine how best to engage 
a target with the cyber mission forces at his/her disposal.
    Question. Will each geographic combatant command have a mix of 
units from each Military Service?
    Answer. Each geographic combatant command is supported by a Joint 
Force Headquarters-Cyber with personnel from all Services, and with the 
exception of U.S. Africa Command, all GCCs have a combination of 
Service established CMF teams aligned. Currently, all U.S. Africa 
Command CMFs are U.S. Army provisioned.
    Question. Will geographic combatant commanders be permitted to 
execute cyber operations under their own authorities?
    Answer. Geographic combatant commanders already have authority to 
direct and execute certain Defensive Cyberspace Operations (DCO) within 
their own networks. These actions consist of internal defensive 
measures to prepare and protect mission critical networks. In the event 
of hostilities or contingency operations, combatant commanders would be 
permitted to execute full spectrum cyber operations as approved by the 
President and directed by the Secretary of Defense.
      focus on intelligence gathering versus focus on warfighting
    Question. The NSA, as an intelligence agency, appropriately places 
the highest importance on remaining undetected, and accordingly invests 
in high-end--and therefore expensive and hard-to-develop--technical 
tools and tradecraft, following a deliberate methodology for developing 
and maintaining capability. CYBERCOM, as a military combatant command, 
has very different interests and objectives. For example, it must have 
the capability to act rapidly, it may need tools and processes that do 
not require computer scientists to operate them, and it may need to act 
in a fashion that makes it clear that the operation is an attack by the 
United States.
    Do you believe that you could direct CYBERCOM wartime operations 
effectively if CYBERCOM were only able to use the NSA infrastructure to 
support those operations?
    Answer. It depends. We must ensure we have the tools and 
infrastructure needed to accomplish our mission whenever necessary. 
CYBERCOM should leverage the NSA platform where appropriate and cost-
effective, while developing additional infrastructure to accomplish 
military operations that are unique and distinguishable from the 
Intelligence Community.
    Question. How scalable are NSA infrastructure, personnel, and tools 
for supporting combat operations in cyberspace?
    Answer. NSA's infrastructure and tools could be scaled to support 
combat operations in cyberspace. To most effectively manage risks 
across military and intelligence operations in cyberspace, CYBERCOM and 
the Services need to leverage NSA expertise to build cyberspace 
capabilities for combat operations which could include additional tools 
and infrastructure that are unique and distinguishable from the 
Intelligence Community.
    Question. On what schedule should CYBERCOM develop the capability 
to take offensive actions that do not require hiding the fact that the 
operations are being conducted by U.S. forces?
    Answer. As the Services field CMFs in accordance with Joint Staff 
guidance, capability development should occur concurrently to ensure 
the CMF have the requisite facilities, platform, equipment, and tools 
needed to accomplish their assigned mission. In many cases, Cyber 
forces, to be operationally effective, would need to retain the 
capability to operate in a manner which conceals the detailed specifics 
of U.S. military capabilities. If we were to operate ``in the clear,'' 
we may expose our tradecraft, tools, and infrastructure. If we do that, 
our enemy can deny us our capability and, in some cases, replicate it 
and use it against us.
    Question. Section 932 of the NDAA for Fiscal Year 2014 requires the 
Secretary of Defense to provide CYBERCOM with infrastructure to enable 
CYBERCOM to independently access global networks to conduct military 
operations.
    What are your views on this requirement?
    Answer. There is no doubt that collocating CYBERCOM with NSA, and 
dual-hatting the Commander and Director, allows for efficient use of 
available platform capabilities and technical expertise. I do believe; 
however, that CYBERCOM needs additional infrastructure to accomplish 
military operations that are unique and distinguishable from the 
Intelligence Community. The Department has made significant progress 
recently in identifying and planning for development of alternative, 
diverse, scalable, deployable, and disposable platforms that can be 
available on demand to the CMF for mission accomplishment.
    Question. What is your understanding of the Department's plan for 
complying with the legislation?
    Answer. My understanding is that CYBERCOM has already been tasked 
by the Deputy Secretary of Defense and has made measurable progress in 
laying out a strategy for identifying the numbers and mix of 
alternative platforms required to meet operational requirements, both 
for steady state and contingency purposes. These platforms will give 
the CMF the diversity and scalability needed to address the threat, 
apart from the intelligence platform. Additionally, since they do not 
require the breadth and sophistication of the existing platform, they 
should be less expensive to build and deploy.
    Question. Do you believe DOD can implement the legislative 
direction in an effective and affordable manner?
    Answer. Yes, there has been a significant amount of effort expended 
by the Department toward meeting this requirement.
                   development of cyber officer corps
    Question. In a forthcoming article, the J-3 of CYBERCOM, Major 
General Brett Williams, argues that: ``We have a pressing need to 
develop cyberspace operators who are credible and effective in the J-3 
and J-5, within both the Joint Staff (JS) and the combatant commands 
(CCMD). Just for emphasis, that is the J-3 and J-5, not just the J-2 
and J-6; and at all of the CCMDs, not just CYBERCOM . . . Joint staffs 
consist of what we typically think of as operators, members of the 
combat arms who are educated, trained and experienced in operations. 
Cyberspace expertise usually comes from people with intelligence, 
communications or cryptology backgrounds; career fields typically 
categorized as support forces. If we are going to treat operations in 
cyberspace like operations in the other domains, the Services must 
commit to unique career fields for cyberspace . . . Cyberspace, like 
the other domains, requires officers who are developed across their 
careers in a way that positions them to lead at senior levels in both 
command and staff. Cyberspace officers should spend their first 10 
years becoming tactically proficient in all aspects of cyberspace 
operations, complete service and joint military education, serve on 
joint staffs, command in their area of operational specialty and do all 
of the other things necessary to produce general and flag officers 
whose native domain is cyberspace.''
    What are your views about whether cyber officer career development 
should be distinct from both intelligence and communications officer 
development?
    Answer. Specialized expertise in our officer ranks is critical to 
mission accomplishment. At the same time, a shared understanding across 
the team is essential. The way we have deliberately approached this in 
the Navy has been the establishment of Cyber Warrant Officers and Cyber 
Warfare Engineers. These individuals are purposefully selected to join 
our ranks from either our enlisted force, the Intelligence Community, 
academia, or industry. We then train and employ them to leverage their 
specialized expertise. They serve side by side with Officers from 
varied career fields, but primarily intelligence and communications 
specialists although combat arms officers could be trained as cyber 
officers as well. I believe all officers should have an appreciation 
for cyberspace operations. Intelligence and communication officers must 
have a clear understanding of the same, and we have a responsibility to 
develop specialized expertise in a core of cyber officers.
    Question. Is it advisable to develop cyberspace officers as we do 
other combat arms or line officers? Why or why not?
    Answer. I am a strong proponent of diversity across the team and 
quick to recognize all have a responsibility to both understand and 
contribute in this mission area. We must find a way to simultaneously 
ensure combat arms and line officers are better prepared to contribute, 
and cyberspace officers are able to enjoy a long, meaningful career 
with upward mobility. A meaningful career should allow them to fully 
develop as specialized experts, mentor those around them, and truly 
influence how we ought to train and fight in this mission space. I am 
especially interested in the merit of how a visible commitment to 
valuing cyberspace officers in our ranks will affect recruitment and 
retention. I believe that many of today's youth who are uniquely 
prepared to contribute (e.g. formally educated or self-developed 
technical expertise) do not feel there is a place for them in our 
uniformed services. We must find a way to strengthen the message of 
opportunity and I believe part of the answer is to do our part to 
ensure cyberspace officers are viewed as equals in the eyes of line and 
combat arms officers; not enablers, but equals. Equals with 
capabilities no less valued than those delivered by professional 
aviators, special operators, infantry, or surface warfare.
    alignment of military cyber operations with cyber intelligence 
                               collection
    Question. Do you think that, as CYBERCOM matures and as cyber 
military art develops, military cyber operations and cyber intelligence 
operations should be distinct operations?
    Answer. Intelligence is a joint function integral to all military 
operations. Intelligence operations are conducted in cyberspace to 
inform military operations in all domains, including cyberspace.
    Question. In the long term, what are the pros and cons of treating 
the Services' cyber organizations and the service cryptologic elements 
as distinct entities?
    Answer. Just as there is a dynamic partnership between CYBERCOM and 
NSA, and the disciplines of military cyber operations and cyber 
intelligence operations are interwoven, there is a similar relationship 
and advantage to be had in the partnerships between the service 
cryptologic and cyber organizations. They provide key capability to 
their Services as independent focal points for warfighting and 
intelligence, but together provide the additive cyber capability for 
each Service. If confirmed, I will continue to assess the cyber force 
model as it develops in view of this synergism.
    Question. Do you think that military cyber operations personnel 
assigned to CYBERCOM units should, in the long term, continue to be 
funded mainly in the intelligence budget and competing with 
intelligence priorities?
    Answer. In view of our current fiscal environment and challenges, 
if confirmed, I would examine and assess all CYBERCOM funding streams 
and processes, including personnel.
                  range support for u.s. cyber command
    Question. Section 932 of the NDAA for Fiscal Year 2014 requires the 
Secretary of Defense to ensure that there are adequate range 
capabilities for training and exercising offensive cyber forces in 
operations that are very different from cyber intelligence operations.
    What is your understanding of CYBERCOM's range requirements for 
individual and unit training, and exercises, and the capabilities and 
capacity of the joint cyber range infrastructure to satisfy those 
requirements?
    Answer. It is my understanding that the persistent training and 
test environment is being developed based on requirements from 
CYBERCOM's exercise continuum of Cyber Knight, Cyber Guard, and Cyber 
Flag. This continuum is designed to train and/or certify CMF teams. 
Unfortunately, these exercises are executed using not only ad hoc range 
support, but also ad hoc facilities. Though the lack of a range 
continues to be a limiting factor, so does the lack of a physical 
infrastructure. Though the main effort in building the teams is 
individual training and qualification right now, collective training 
and certification will quickly make the lack of efficient range even 
more glaring than it is today. Our cyber forces need a persistent 
training environment they can depend on every day of the week to train. 
We must continually train against a high end adversary and not only in 
CJCS level exercises. The key to success here is training. A persistent 
range is a must have if we want to build a professional cyber force.
    Question. What is your view of the NDAA legislation?
    Answer. The Department continues to fully realize the potential of 
the DOD Enterprise Cyber Range Environment (DECRE) governance body to 
oversee Cyber Range issues. The main effort of DECRE is the 
establishment of a persistent test and training environment that will 
effectively meet the growing demand of the CMF teams. It is essential 
that we provide these teams, which are quickly reaching IOC and FOC in 
greater numbers, by providing on-demand environments for training in 
both offensive and defensive cyberspace operations. It is my 
understanding that the Department is on pace to deliver an assessment 
of the required cyber range capacity and capability to support CMF 
training by October 2014.
                         information assurance
    Question. The President's Review Group on Intelligence and 
Communications Technologies recommended that the Information Assurance 
Directorate (IAD) of the NSA be separated from NSA and subordinated to 
the cyber policy component of DOD. The Senate version of the NDAA for 
Fiscal Year 2014 included a provision that would transfer supervision 
of the IAD from the Under Secretary of Defense for Intelligence 
(USD(I)) to the Chief Information Officer (CIO). The committee's 
rationale for this transfer was that the IAD conducts cyber protection-
related duties, which fall under the responsibility of the CIO, not the 
USD(I).
    What do you see as the pros and cons of these proposals?
    Answer. I support the President's decision for the IAD to remain 
part of NSA. NSA has developed (and continues to develop) an extremely 
deep cadre of computer scientists, mathematicians, software engineers, 
etc. whose skills are translatable across the breadth of the 
Information Assurance (IA) and SIGINT missions. IAD and the Signals 
Intelligence Directorate (SID) operate in a common trade space, the 
global telecommunications network. NSA offensive and defensive missions 
have a proven track record of success at working together to counter 
the cyber threat. Code making and code breaking are two sides of the 
same coin. Breaking them apart will have significant consequences to 
the U.S. Government's ability to develop secure communications based on 
the understanding of how those communications might be attacked.
    NSA has developed an infrastructure that supports both Information 
Assurance and SIGINT missions. Creating a separate agency that would 
need to develop and build its own infrastructure and expertise would be 
extremely inefficient and costly in a time of constrained resources. 
IAD guidance and technology helps secure the NSA enterprise. The work 
IAD performs benefits the security of the Nation and the world. Current 
Media Leaks have unfortunately caused degradation in our trust 
relationships with industry. If confirmed, I am committed to restore 
the trust and will deepen the partnerships with the DOD CIO and the 
USD(I) to demonstrate oversight procedures and processes function 
appropriately.
   dual hatting of director of the national security agency and the 
                     commander, u.s. cyber command
    Question. The President's Review Group on Intelligence and 
Communications Technologies recommended that the positions of Director 
of NSA and the Commander of CYBERCOM be separated and that the 
President appoint a civilian to be Director of NSA. The President 
decided against separating these two positions at this time. According 
to press reports, the President based his decision, in part, on his 
perception that CYBERCOM was not yet mature enough to stand on its own 
without a very strong institutional connection to NSA.
    If CYBERCOM remains too dependent on NSA for their leadership to be 
bifurcated, does it follow that CYBERCOM is not mature enough to become 
a full unified command?
    Answer. My focus on sub-unified or unified will rest on what allows 
CYBERCOM to achieve the most effective cyber force--one that is best 
postured to defend the Nation and our national interests.
    The decision by Secretary of Defense to redesignate the position of 
Director, NSA as both Commander, CYBERCOM and Director, NSA enabled DOD 
to leverage the similarities and overlaps between the capabilities 
needed for the conduct of NSA's core missions--SIGINT and IA--and those 
of CYBERCOM to provide for the defense and secure operation of DOD 
networks; and, upon order by appropriate authority, to operate in 
cyberspace to defend the Nation. The strength of this arrangement as 
the most effective approach to accomplishing both organizations' 
missions was re-affirmed with the President's December 2013 decision to 
retain the dual-hat position.
    Question. To the extent that military operations in cyberspace 
should evolve to be different and distinct from intelligence collection 
in cyberspace, is it possible that NSA's strong influence over 
CYBERCOM's development could hinder, as well as support, the proper 
maturation of the Command? What are your views on this issue?
    Answer. I will ensure NSA, as a combat support agency, continues to 
support CYBERCOM's ability to execute its mission as well as its 
maturation. For example, there is a high correlation between the 
knowledge, tools, and techniques necessary for meeting military 
objectives and those for enabling intelligence collection. This 
correlation allows economy of scale in tool and technique development. 
In addition, I will ensure that CYBERCOM has control over the assets it 
needs and I will work within DOD to ensure CYBERCOM has the support it 
needs to be successful. As the dual-hatted Director/Commander, I will 
empower the Deputy Director, NSA and Deputy Commander, CYBERCOM to 
focus on running their respective organization with mission equities in 
mind, while I maintain accountability with insight into both missions 
and direct collaboration when necessary.
    Question. As NSA is a combat support defense agency subject to the 
authority, direction, and control of the Secretary of Defense, and NSA 
is subordinate to the Secretary of Defense in his capacity as the 
President's executive agent for SIGINT under Executive Order 12333, is 
there any reason to expect that NSA's support for CYBERCOM and the 
other combatant commands would be questionable if the dual-hat 
arrangement were ended?
    Answer. NSA has a long history of supporting combatant commands 
with SIGINT and IA products and services, well before CYBERCOM was 
established. I will ensure NSA provides mission critical support to all 
combatant commands, with or without the dual-hat arrangement.
              u.s. cyber command as a sub-unified command
    Question. The UCP establishes CYBERCOM as a sub-unified command 
reporting to STRATCOM. We understand that the administration considered 
modifying the UCP to establish CYBERCOM as a full combatant command.
    What are the best arguments for and against taking such action now?
    Answer. I understand that there was discussion at the CJCS and 
Service Chiefs' level in 2012 to establish CYBERCOM as a full unified 
command, and that discussion of this option has continued.
    I don't believe there are any major impediments to elevating 
CYBERCOM to full unified command status, with the exception of adding 
approximately 112 personnel to our headquarters manning (currently 912) 
required to accomplish administrative functions that would accompany 
unified command status, such as workforce recruitment, Planning, 
Programming, Budgeting and Execution (PPBE); and Global Force 
Management. In addition, there are formal processes that would have to 
be executed, including revision to the current UCP language, but 
cyberspace operations comprise both a warfighting and enabling 
discipline and domain in and of itself. CYBERCOM is working incredibly 
hard every day to develop its forces, processes, and capability, so 
perhaps the best argument against elevating the command is the need to 
focus energies in these areas.
    The argument for full unified command status is probably best 
stated in terms of the threat. Cyber attacks may occur with little 
warning, and more than likely will allow only minutes to seconds to 
mount a defensive action seeking to prevent or deflect potentially 
significant harm to U.S. critical infrastructure. Existing department 
processes and procedures for seeking authorities to act in response to 
such emergency actions are limited to unified combatant commanders. If 
confirmed, as the Commander of CYBERCOM, as a sub-unified combatant 
commander I would be required to coordinate and communicate through 
Commander, STRATCOM, to seek Secretary of Defense or even Presidential 
approval to defend the Nation in cyberspace. In a response cycle of 
seconds to minutes, this could come with a severe cost and could even 
obviate any meaningful action. As required in the current Standing 
Rules of Engagement, as a combatant commander, I would have the 
requisite authorities to directly engage with the Secretary of Defense 
or President of the United States as necessary to defend the Nation.
    There are some inherent inefficiencies in not elevating, also, in 
the form of redundant processes and timeliness. Elevation to full 
unified status would improve resource advocacy, allocation and 
execution by improving input to Department processes and eliminating 
competition in prioritization. Additionally, alignment of 
responsibility, authority, situational awareness, and capability under 
a single commander would improve cyberspace operations and planning.
    Question. What authorities for operating in cyberspace that are 
allocated to STRATCOM have been pre-delegated to CYBERCOM?
    Answer. CYBERCOM has been delegated by Commander, STRATCOM, the 
responsibility to conduct specified cyberspace missions as detailed in 
section 18(d)(3) of the UCP. The specific missions delegated include: 
directing DODIN operations, securing and defending the DODIN; 
maintaining freedom of maneuver in cyberspace; executing full-spectrum 
military cyberspace operations; providing shared situational awareness 
of cyberspace operations, including indications and warning; 
integrating and synchronizing of cyberspace operations with combatant 
commands and other appropriate U.S. Government agencies tasked with 
defending the Nation's interests in cyberspace; provide support to 
civil authorities and international partners.
                   support for the combatant commands
    Question. The Secretary of Defense has ordered the Military 
Services and CYBERCOM to develop operational military cyber teams to 
support the missions of defending the Nation against cyber attacks, 
supporting the war plans of the geographic and functional combatant 
commands, and defending DOD networks against attacks. The mission teams 
that will support the combatant commanders ultimately will be under the 
operational control of those commanders. The committee understands 
that, to date, the combatant commands have not committed to creating 
cyber component commands to direct the operations of those units.
    In your opinion, can the combatant commanders properly direct the 
operations of assigned cyber mission teams without a component command 
element?
    Answer. Geographic combatant commanders already have the authority 
to direct and execute certain DCO within their own networks. These 
actions consist of DCO internal defensive measures (DCO-IDM) to prepare 
and protect mission critical networks. The current Joint Staff C2 model 
provides an interim construct to direct DCO-IDM through a Joint Cyber 
Center/Cyber Support Element. Combatant commanders direct full-spectrum 
Cyberspace operations (ISR, OPE, Attack and Defend) through a Joint 
Cyberspace Component Command to ensure actions are synchronized and 
integrated throughout all warfighting domains. A JFCCC also provides 
for accountability through legal oversight and compliance--a 
requirement for Cyberspace Operations. Until a JFCCC is established, a 
Joint Force Headquarters directly supports combatant command planning, 
execution, and oversight.
    Question. Four years after the creation of CYBERCOM, to what extent 
have cyber operations been integrated into the operations plans of the 
combatant commands?
    Answer. My understanding is that progress has been made in 
integrating cyberspace capabilities into the operations plans of the 
combatant commands. Although much work remains, CYBERCOM has been 
successful in this effort by coordinating and cooperating with the 
combatant commands directly, by integrating cyberspace capabilities 
when the plans are undergoing Department-wide review, and also by 
drafting cyberspace support plans that supplement the higher level 
combatant command plans.
    Additionally, CYBERCOM is building 27 CMF teams assigned to the 
combatant commands to achieve exactly this kind of capability.
    Question. How would you assess the progress of the Department in 
developing cyber capabilities for the use of the command cyber teams to 
support the specific needs of the combatant commands?
    Answer. The Services have made progress developing capabilities to 
equip their CMF teams. At the Department's direction, CYBERCOM has 
established, and now chairs, the DOD Cyber Operational Capabilities 
Board (COCB) which will integrate military cyber capability development 
into existing requirements processes.
    In accordance with Department direction, CYBERCOM has also begun 
implementing changes to the Cyber Capabilities Registry (CCR). The CCR 
is now populated and accessible, providing military planners a 
compendium of available cyberspace capabilities for use in support of 
mission requirements. Ultimately, the CCR will become an informative 
source for all DOD cyberspace capabilities.
    CYBERCOM recognized that we needed to make progress faster in 
developing the tools our warfighters need in cyberspace. As such we 
stood up a J9 inside the command and staffed it with the best and most 
qualified military and NSA personnel (lead by a NSA senior and U.S. 
Army Colonel both with Ph.Ds) to work with the Services, industry, 
academia, the IC and our DOD labs to bring new ideas and tools to our 
cyber forces in the shortest time possible. This effort is starting to 
bear fruit delivering cyber tools our warfighters are already training 
with and integrating in tactical training exercise.
    While the Department has made progress in this area, there is still 
much work to be done to ensure we develop joint, interoperable 
cyberspace capabilities to equip the CMFs as they become operational.
    Question. What priority has been assigned to the development of 
capabilities for national versus command cyber mission teams?
    Answer. The prioritization of capability development for national 
and combatant command CMFs flows directly from CYBERCOM's three mission 
areas: (1) defend the Nation; (2) secure, operate, and defend DOD 
information networks (DODIN); and (3) provide support to combatant 
commands. CYBERCOM's highest priority is to defend the Nation. This is 
done in parallel with activities dedicated to securing the DODIN and 
supporting combatant commands. We are building out a robust cyber force 
over the next 3 years. While we rightfully have first focused on the 
DTN mission, we have simultaneously begun the buildout and IOC of our 
Combatant Command CMTs and CPTs. All of these mission areas are 
resourced in a balanced way in accordance with a continuous threat 
assessment and fiscal limitations.
    Question. Who would you say is responsible for developing cyber 
capabilities to support joint task forces and lower echelons?
    Answer. The Services are responsible for developing capabilities to 
equip their forces. That said, CYBERCOM plays a role coordinating 
operational and technical requirements to ensure interoperability for 
CMFs and compatibility with mission infrastructures. The DOD Cyber 
Operational Capabilities Board (COCB) provides a venue for much of the 
coordination to standardize military cyber capability development and 
leverage existing programs to avoid duplication of effort across the 
DOD. In its unique position, CYBERCOM can and should form a community 
of operational and technical subject matter experts from across DOD and 
the IC to inform policy and resourcing decisions.
                   development of cyber capabilities
    Question. CYBERCOM has depended heavily to date on NSA for 
technology, equipment, capabilities, concepts of operations, and 
tactics, techniques, and procedures.
    Are you satisfied that DOD is organized and resourced to provide a 
broad base of innovation and capability development in the cyber domain 
that includes the Military Service's research and development 
organizations, Defense agencies such as the Defense Advanced Research 
Projects Agency, and the private sector?
    Answer. While the Department has made much progress, more work 
certainly remains to ensure that DOD is organized and resourced to 
provide military-specific cyber capabilities. However, I believe the 
Department is moving in the right direction through a series of 
decisions to prevent redundancy and to ensure cyber innovation in both 
the public and private sectors can be leveraged. One of these decisions 
was to establish the aforementioned COCB to identify and track 
dependencies among capability requirements and to validate and 
prioritize all cyberspace capability requirements.
    CYBERCOM's Advanced Capabilities Directorate, J-9 has existing 
relationships with the Services and their dedicated research and 
development labs, DARPA, federally-funded research and development 
centers, the defense industrial base, the private sector, and other 
entities, allowing CYBERCOM to leverage their expertise to provide and 
build diverse capability to enable full-spectrum military operations. 
As a member of the COCB, the J-9 also helps enforce a process to ensure 
there is no redundancy of effort, and that several DOD entities can use 
the same capability multiple times when possible to get more return on 
investment.
             delegation of signals intelligence authorities
    Question. How important will it be for CYBERCOM personnel to be 
able to operate with SIGINT authorities that are not necessarily tied 
to NSA personnel who may be working temporarily for CYBERCOM?
    Answer. The ability of CYBERCOM personnel to operate under 
delegated SIGINT authorities and leverage the national cryptologic 
platform is a critical capability, enabling the command to fully 
execute its cyberspace mission in an informed, timely, and coordinated 
manner. SIGINT information remains vital to support cyber operations. 
Effective ``net-speed'' operations as conducted by an expanded U.S. CMF 
require ready access to the technical streams of information that 
SIGINT provides. Providing SIGINT information at the lowest possible 
level in a distributed force environment makes the delegation effort 
especially important. Time delay increases the potential for mission 
failure. It is important to note that under delegated SIGINT 
authorities, CYBERCOM personnel adhere to the same uniform techniques, 
training and standards, as well as intelligence oversight and 
compliance programs, as those who work for the NSA. We will not 
sacrifice our legal and security obligations to accomplish these goals.
                     joint information environment
    Question. The DISA advertises the Joint Information Environment 
(JIE) programs as delivering:

          ``. . . the largest restructuring of information technology 
        (IT) management in the history of the DOD. The end state is a 
        secure, joint information environment comprised of shared IT 
        infrastructure, enterprise services, and a single security 
        architecture. JIE will enable DOD to achieve full-spectrum 
        superiority, improve mission effectiveness, increase security, 
        and realize IT efficiencies.''

    To realize this potential, the CYBERCOM will have to operate within 
the JIE.
    Has CYBERCOM developed plans for integrating its warfighting 
operations into the JIE?
    Answer. In the JIE Management Construct (approved at the TANK), 
CYBERCOM is responsible for identifying requirements and concepts of 
operation which enable and align with the Command and Control (C2) and 
defense of the DODIN. JIE is a framework for which standards are being 
designed and built to meet these specified operational requirements.
    Question. Will the JIE systems architecture support a full range of 
potential CYBERCOM warfighting operations?
    Answer. The JIE systems architecture supports the full range of 
operations `of' and `on' the DODIN. The JIE will shift focus from 
protection of Military Service-specific networks, systems, and 
applications to securing data and its uses; a paradigm shift from the 
traditional net-centric to a data-centric environment. Key security 
features that will be employed under the JIE framework include: an 
enterprise-wide Single Security Architecture (SSA), a secure Out-of-
Band Management network; standardized identity and access management; 
and the integration of thin-client and cloud-based (virtualization) 
technologies.
    JIE changes the way the Department delivers IT capabilities in the 
largest, most complex operational environment in the world. Common 
services and capability will provide users information at the point of 
need from any networked device and from the enterprise level for all 
users. The ultimate beneficiary of the JIE will be the commander in the 
field and forces at the tactical edge. JIE will allow better 
integration of information technologies, operations, and cyber security 
at a tempo that supports today's fast-paced operational conditions. The 
operational capabilities delivered through the JIE will enable 
commanders to blend the art of command with the science of control, 
enabling JF 2020 to address emerging military challenges through the 
flexible integration of warfighting functions as required.
    JIE will afford organizations responsible for operating and 
defending this complex environment end-to-end visibility and 
situational awareness for security from strategic to tactical as well 
as down to the desktop. It will eliminate the barriers which prevent 
information sharing and consolidate computing power and storage 
capabilities while enabling support for low-bandwidth/disadvantaged 
users.
    Question. Should DOD approach the JIE as more of a ``weapons 
system'' than a pure IT system in order to support the range of 
CYBERCOM's warfighting plans?
    Answer. JIE is not a system, but is a framework of standards which 
the DOD Services and Agencies are using to procure, operate, and defend 
the DODIN. JIE is focused on helping the DOD achieve full spectrum 
superiority, improved mission operational effectiveness and increased 
security while realizing IT efficiencies. The JIE focuses on creation 
of a secured joint environment, comprised of a shared Information 
Technology infrastructure that will deliver common services from the 
enterprise, bound and secured by a single security architecture. The 
environment will be operated in accordance with responsibilities and 
authorities identified in the UCP based on common, enforceable 
standards and specifications, as well as common tactics, techniques, 
and procedures. The primary objective of creating the JIE is to provide 
DOD and mission partners secure access to Department IT capabilities at 
the point of need; i.e., home, work or deployed; by creating a Joint 
Enterprise Information Environment that encapsulates computing power; 
common enterprise services and mission applications; and access to data 
anywhere in the enterprise with the ability to extend the same 
capabilities in the deployed environment. However, once we build the 
underlying architecture(s) within the JIE framework, we need to look at 
them as a weapons system: measure its readiness, garner mission 
assurance, produce trained and ready operators, et cetera.
                       security of navy networks
    Question. The Wall Street Journal last September reported that Iran 
had compromised the Navy Marine Corps Intranet (NMCI), an unclassified 
but important and pervasive internal communications network. The Navy 
has made an award for the successor to NMCI, called the Next Generation 
Enterprise Network (NGEN). The winning contractor is the same company 
that bought the original contractor for NMCI.
    Is the NMCI properly architected and constructed against external 
cyber attacks? If not, why not?
    Answer. Yes, NMCI is properly architected and constructed against 
external cyber attacks. Since its inception the NMCI architecture has 
evolved to respond to the threat environment. The threat environment 
has clearly changed and cyber security improvements have been made to 
NMCI over the years. The Navy and DOD defense in depth cyber security 
architecture, when combined with NMCI security layers, provide 
appropriate protection. As with all networks, the NMCI security 
architecture continues to mature as technology and threats evolve. 
Based upon operations over the last 8 months and in collaboration with 
NSA, USCC, and DISA, I have identified additional network hardening and 
cyber security requirements for current and future Navy Networks that 
are currently being planned and programmed for implementation.
    Question. Is the NGEN architecture more secure than NMCI, and if 
so, in what respects?
    Answer. Yes, NGEN benefits from lessons learned and technological 
advances but is designed on the same solid security principles used to 
develop NMCI. Its increased security will be the byproduct of three 
important factors: increased Navy Command and Control (C2) of a network 
the Navy ``bought back'' as a result of the transition from a 
contractor-owned/contractor-operated model to a government-owned/
contractor-operated model; an increase in the Navy's ability to make 
and implement critical decisions about the selection of enterprise 
services under a more agile and innovative contract; and a firm 
commitment to align those services with the higher level JIE and 
Intelligence Community (IC) Information Technology Enterprise. The NGEN 
contract also allows us to add, modify, and delete services in addition 
to lowering overall operating costs through competition.
    Question. Is the NGEN program fully aligned with the security 
architecture of the JIE initiative? If not, why not?
    Answer. Yes, NGEN is designed and architected to current security 
standards and will leverage Technical Refresh and additional security 
funding to align to the JIE SSA as it becomes better defined, 
documented, and tested. Navy is participating actively in DOD's drive 
to define the SSA and the other components that will come together to 
form JIE. It has been playing a particularly active and important role 
in defining how the emerging SSA and related components will apply to 
JIE Increment II, which will properly secure U.S. and multinational 
information flows under the transformational Mission Partner 
Environment. As the definitions take shape, Navy will take decisive 
action to bring NGEN into alignment with JIE's SSA.
    Question. What steps and how much time and investment will it take 
to align NGEN with JIE?
    Answer. The Navy supports the concept of JIE and is working in 
coordination with the other Services, DISA, COCOMs, and OSD to fully 
develop this concept into a joint enterprise capability. By continuing 
such engagement, Navy will develop better insights regarding the time 
and money required to bring its NGEN into alignment with these higher-
level architectures. At present, we are of the belief that our agile 
and innovative contracts and the investments we've already programmed 
across the Future Years Defense Program within NGEN and our other IT 
infrastructure and network programs (e.g., Consolidated Afloat Networks 
and Enterprise Services (CANES) and OCONUS Navy Enterprise Network 
(ONE-Net)) constitutes a sufficient response to the challenge at hand. 
As the standards for JIE mature, Navy will be able to provide cost and 
schedule estimates using NGEN as our path to meet JIE standards.
                            cyber personnel
    Question. What is your understanding of the direction DOD has given 
to the Military Services regarding the quality and existing skill 
levels of the personnel they will provide for the CMFs?
    Answer. On behalf of the DOD (IAW CJCSI 3500.01G), CYBERCOM 
establishes CMFs joint standards for individual and collective 
training. These standards are contained in three foundational 
documents; the Joint Cyberspace Training and Certification Standard 
(JCT&CS), the Individual Training Pipelines, and the Training and 
Readiness Manual (T&R Manual). The JCT&CS identifies the unique 
Knowledge Skills and Abilities (KSAs) for each work role on the CMF 
Teams. The individual training pipelines outline an optimal path to 
achieving the required KSAs to satisfy the JCT&CS requirements. The T&R 
Manual provides the tasks, conditions and standards required to 
demonstrate individual and collective proficiency.
    Question. So far, does it appear that there is a satisfactory match 
between the skills and aptitudes of the personnel provided by the 
Services and the training programs developed by CYBERCOM?
    Answer. The CMF build out, when complete, will include over 6,100 
personnel organized across 133 teams in the CMFs. As we build this 
force, work roles have unique training requirements and we must 
continue to create sustainable, repeatable training programs to meet 
this demand. Over the past 18 months, we've come a long way working out 
training pipeline bottlenecks. Additionally, over the next 2\1/2\ years 
of the CMF build, the Services must continue for the Services to 
incorporate CYBERCOM training requirements into their training 
programs, and ensure their workforce meets the CMF standards.
    If confirmed, one of my first priorities will be to work closely 
with NSA and the Services to expand existing training classes, identify 
training equivalencies, and establish alternate training venues. I 
think we should also look collectively at increasing the time on 
station requirements to retain trained and fully qualified personnel 
until sufficient training programs are in place.
    Question. What direction has been given to the Services regarding 
recruiting goals and priorities for individuals with skills and 
aptitudes relevant to the needs of CYBERCOM?
    Answer. Senior DOD leadership directed the Services to establish 
management processes that identify, recruit, retain and provide 
incentivized career advancement paths for military and civilian 
personnel. This allows the high-end advanced skills that CYBERCOM has 
identified to work in the CMF. Progress is being made by each Service 
and the issue is monitored closely in monthly reporting by CYBERCOM to 
the Joint Staff. DOD is addressing one of the more significant 
challenges by looking at options pertaining to the civilian workforce 
that would establish a flexible and responsive workforce that improves 
the ability to attract, develop, motivate and retain a high quality 
Cyber workforce.
    Question. Has the Department considered delegating personnel 
authorities to CYBERCOM that are similar to those that are exercised by 
U.S. Special Operations Command to ensure that the Services manage the 
careers of their servicemembers with cyber skills appropriately?
    Answer. SOCOM's Article 167 Authorities continue to prove essential 
to their ability to work with the Services to develop truly Joint 
capabilities that meet Joint Standards. CYBERCOM continues to do a 
great job facilitating progress without such authority, but eventually 
delegating these authorities could greatly enhance their ability to 
meet the Nation's needs.
    Question. What would be the pros and cons of providing CYBERCOM 
such authorities?
    Answer. While there are no real cons in my opinion, the pro for 
CYBERCOM is the same as for SOCOM. This authority would allow CYBERCOM 
to shape the cyber force and ensure cyber training and capabilities are 
standardized and inherently Joint across the man, train, and equip 
spectrum. Once trained, these personnel are highly skilled and valuable 
commodities. They are bona fide high-demand, low-density assets--just 
as our Special Operations Forces are.
    We are growing a highly-skilled, highly-qualified standardized 
workforce.
    CYBERCOM, empowered with these types of authorities can more 
effectively advocate and ensure that we do everything in our power to 
retain these exceptional forces even as our manpower, promotion, and 
retention systems may be slow to recognize this.
               designing the internet for better security
    Question. How could the Internet be redesigned to provide greater 
inherent security?
    Answer. Advancements in technology continually change the 
architecture of the Internet. Cloud computing, for instance, is a 
significant change in how industry and individuals use Internet 
services. As evidenced by the growth of security conferences, companies 
and media attention, security is at the forefront of Internet use as 
businesses and government strive to protect intellectual property and 
citizens desire to protect their privacy. To put it simply, the 
environment is ripe for significant attention to inherent security and 
government, industry, and academia all have an interest in achieving 
this objective.
    I believe there are options for the Internet to provide greater 
inherent security. Several major providers of Internet services are 
already implementing increased security in email and purchasing 
services by using encryption for all transmissions from the client to 
the server. It is possible that the service providers could be given 
more responsibility to protect end clients connected directly to their 
infrastructures. They are in a position to stop attacks targeted at 
consumers and recognize when consumer devices on their networks have 
been subverted. The inability of end users to verify the originator of 
an email and for hackers to forge email addresses have resulted in 
serious compromises of end user systems. If confirmed, I look forward 
to working with this committee, as well as industry, academia and 
government leaders, on the advancement of security measures for the 
Internet.
    Question. Is it practical to consider adopting those modifications?
    Answer. I believe modifications to enhance security on the Internet 
will evolve and strengthen over time. Industry is developing and 
deploying solutions today to maintain the trust of their clients. 
Events such as recent payment card breaches are highlighting the 
concerns and accelerating solution deployment. These advancements in 
commercial technologies provide a benefit to all who use them, 
including government. Public-private working groups have and will 
continue to address hard problems and implementable solutions to 
strengthen security on the Internet.
    Question. What would the impact be on privacy, both pro and con?
    Answer. I believe the Government should strive to implement 
advanced security measures that enhance privacy. Tensions between 
security and privacy are not new, but I believe we cannot accept one 
without the other. Increased security should help protect identities, 
reduce cyber attacks, and assure the transmission and storage of 
private data; in turn, this enhanced security will ultimately improve 
individual and corporate privacy in the Internet. If confirmed, I look 
forward to working with this committee and industry and Government 
leaders to protect privacy while making the Internet as secure as 
possible.
                        the section 215 program
    Question. In January, 2014, the President ordered a transition to 
end the section 215 telephone metadata collection program as it 
currently exists, to ``preserve the capabilities we need'' without the 
government collecting and holding the data on call detail records.
    What are your views on what specific capabilities need to be 
preserved as the program is transitioned?
    Answer. The program grew out of a desire to address a gap 
identified after September 11. One of the September 11 hijackers--
Khalid al-Mihdhar--made a phone call from San Diego to a known al Qaeda 
safe-house in Yemen. NSA saw that call, but it could not see that the 
call was coming from an individual already in the United States. The 
telephone metadata program under section 215 was designed to map the 
communications of terrorists so we can see who they may be in contact 
with as quickly as possible. It does not involve the content of phone 
calls or the names of the people making the calls.
    I believe that we need to maintain an ability to make queries of 
phone records in a way that is agile and provides results in a timely 
fashion. Being able to quickly review phone connections associated with 
terrorists to assess whether a network exists is critical.
    Question. From your perspective, what are the pros and cons, and 
problems, involved in the establishment or designation of a private 
``third party'' to hold the data, on the one hand, and the service 
providers keeping the data, on the other?
    Answer. Both options are technically feasible and, if implemented 
in a manner that addresses mission requirements, could be viable 
alternatives for the current program. I anticipate that either would 
require significant upfront costs. However, if a private ``third 
party'' holds the data, I expect it would be at greater expense and 
could introduce other complexities. For example, as the President noted 
in his speech on 17 January 2014, it could require companies to alter 
their procedures in ways that raise new privacy concerns. If the 
service providers keep the data, I understand that this may require 
statutory changes for any data retention requirements which may be 
levied upon them.
    Question. What is your assessment of the impact on the program of 
the President's order to have the Foreign Intelligence Surveillance Act 
(FISA) Court make individual Reasonable, Articulable Suspicion (RAS) 
determinations prior to non-emergency database queries?
    Answer. Before the President's speech on January 17, 2014, this 
approval process was done internally at NSA and both DOJ and ODNI 
conducted post-approval reviews of RAS determinations on a quarterly 
basis. Since 17 January, NSA has been working closely with DOJ to 
establish processes and procedures to obtain RAS approvals from the 
FISA court.
    Question. The Federal Communications Commission requires service 
providers to keep telephone call detail records for 18 months. The 
government currently keeps the records collected under section 215 for 
5 years. Section 215 expires next year. If Congress does not renew the 
provision, the executive branch could continue to access call records 
under other authorities, but only through the service provider's 
repositories.
    Is that a viable alternative?
    Answer. The other authorities, as currently established, do not 
fully replicate the current ability under section 215 to obtain 
telephony metadata records in a way that is agile and timely. However, 
I believe it's possible that, if new legal authorities were established 
or existing authorities were modified to enable more flexible 
acquisition of such records, these could serve as a viable alternative.
    Question. How critical is it in your opinion to have guaranteed 
access to records more than 18 months old from all service providers?
    Answer. Currently, NSA retains the metadata for 5 years, but it is 
my understanding that NSA has assessed that the 5-year retention period 
could be reduced to a shorter period without significantly decreasing 
operational utility. In his January speech, the President directed a 
study of how to restructure the program for the longer term. The work 
of that study, with participants from multiple agencies, is now 
ongoing. While specific options are under development, there is further 
work to be done.
    Question. What concerns do you have, if any, about leaving the 
metadata records with the service providers, and having them produce 
records responsive to Court-approved queries?
    Answer. My main concern is whether such an arrangement would 
produce records in a timely fashion. Being able to quickly review phone 
connections associated with terrorists to assess whether a network 
exists is critical. The ongoing interagency review is looking at ways 
to address this risk.
              section 215 utility versus privacy concerns
    Question. The Privacy and Civil Liberties Oversight Board (PCLOB) 
and the President's Review Group On Intelligence and Communications 
Technologies (``Review Group'') characterized the section 215 program 
as useful but not critical. The PCLOB stated that ``We have not 
identified a single instance involving a threat to the United States in 
which the program made a concrete difference in the outcome of a 
counterterrorism investigation.''
    What is your understanding of the utility of the program, and how 
that utility compares to the level of concern among the American people 
about its perceived impact on privacy and civil liberties?
    Answer. One of the key vulnerabilities identified after September 
11 was the lack of a sufficient and timely capacity to detect when a 
known foreign based terrorist threat was in contact with someone inside 
the homeland. The section 215 program was designed to provide that 
capability by enabling the government to quickly review telephone 
connections to assess whether a terrorist network exists and the 
President has stated that it is critical the capability that this 
program was designed to meet is preserved. The President has also been 
clear about expectations that such a capability be conducted in a 
manner that addresses the concerns of the American people about the 
potential impact on privacy and civil liberties. I support the ongoing 
interagency effort in response to the President's direction to seek to 
find an ability for this necessary capability to exist within an 
acceptable privacy and civil liberties regime.
    Question. The Review Group also stated on multiple occasions that 
the 215 program, contrary to many public reports, actually only 
collects ``a small percentage of the total telephony metadata held by 
service providers.''
    How do the costs compare for expanding the government's capacity to 
ingest all telephony call records, on the one hand, versus the cost of 
enabling comprehensive access to needed records through the service 
providers, on the other?
    Answer. In the summer and fall of 2013, NSA performed some analysis 
of the relative costs of having the Government collect the data in bulk 
with the costs of searching data retained at the providers. I have not 
been briefed on the details or the results of that analysis, or how it 
might apply to specific proposals now under consideration. If I am 
confirmed for this position, it will be my responsibility to thoroughly 
and accurately communicate costs and benefits to those who set policy 
and establish appropriations. Cost will be a factor taken into 
consideration in the development of options for the President. If 
confirmed, I will ensure that Congress will be informed of the cost of 
any successor programs.
                        reform of the fisa court
    Question. The President's Signals Intelligence Directive (PPD-28) 
announced in January called for Congress to authorize a panel of 
advocates from outside the government to ``provide an independent voice 
in significant cases'' before the FISA Court. A similar approach has 
been recommended by the PCLOB and the President's Review Group.
    Do you have any concerns about introducing an adversarial element 
in the proceedings of the FISA Court as the President and others have 
urged?
    Answer. I concur with the President's view that responsible actions 
which will help increase the transparency of and confidence in the 
government's conduct of extraordinary authorities--like those performed 
under statutory authority with the Foreign Intelligence Surveillance 
Court--are an important element of government's relationship with the 
American people. If the legislative and judicial branches of government 
introduce changes to the FISA court or its proceedings, and if I am 
confirmed, I will be fully prepared to work with them and alongside 
others in the executive branch. Whatever approach is considered, I 
believe must also address the necessary timeliness and operational 
integrity of national security activities.
 standards for searching nsa databases using u.s. persons' personally 
                        identifiable information
    Question. NSA collects foreign intelligence information under 
multiple authorities, including Executive Order 12333, traditional 
individualized FISA Court orders, and programs such as section 702 of 
the FISA Amendments Act, and section 215 of the Patriot Act. Unlike EO 
12333 collection, traditional FISA wiretaps must meet a probable cause 
standard and are very specifically targeted. The section 215 program 
involves bulk collection, but only of non-content metadata, and the 
bulk data is queried under the RAS standard that the target of the 
query is associated with terrorist groups. Section 702 content 
collection is based on the ``reasonable belief'' standard that the 
specific target of the collection is a non-U.S. person located outside 
the United States. The President's Review Group On Intelligence and 
Communications Technologies (``Review Group'') and the PCLOB have 
raised issues about the standards under which the government can search 
through data holdings acquired under these authorities using U.S. 
persons identifiers.
    Is NSA permitted to search data acquired under EO 12333 authorities 
using U.S. persons identifiers without probable cause?

    Answer. Minimization procedures that are reasonably designed to 
protect the privacy interests of United States persons. The full 
procedures are classified, but generally prohibit selection of the 
content of communications of or concerning a U.S. person absent 
probable cause. However, there are exceptions, such as when there is a 
threat to life or when the search is limited to querying information 
under which there is no reasonable expectation of privacy (e.g. 
metadata).
    Question. If so, what is your understanding of the legal 
justification? Does the review group's recommendation, relate to or 
cover queries of data acquired under EO 12333?
    Answer. I defer to the Department of Justice (DOJ) for any legal 
interpretation of the procedures approved by the Attorney General.
    Question. Is NSA allowed to search data acquired under traditional 
FISA individual wiretap orders using U.S. persons identifiers without 
probable cause?
    Answer. Information acquired by NSA under traditional FISA orders 
must be handled in accordance with the Court-approved minimization 
procedures, as defined by FISA, that are reasonably designed to protect 
the privacy interests of U.S. persons. NSA's Court-approved 
minimization procedures for traditional FISA orders do not permit data 
searches using U.S. person names or identifiers. Any exceptions to 
these procedures would require approval by the Federal Intelligence 
Surveillance Court (FISC).
    Question. If so, what is your understanding of the legal rationale?
    Answer. I defer to the DOJ for any legal interpretation of the 
procedures approved by the FISC for individual FISA wiretap orders.
    Question. What is your understanding of the legal rationale for NSA 
to search through data acquired under section 702 using U.S. persons 
identifiers without probable cause?
    Answer. Information acquired by NSA under section 702 of FISA must 
be handled in strict accordance with minimization procedures adopted by 
the Attorney General and approved by the Foreign Intelligence 
Surveillance Court. As required by the statute and certifications 
approving Section 702 acquisitions, such activities must be limited to 
targeting non-U.S. persons reasonably believed to be located outside 
the United States. NSA's Court-approved procedures only permit searches 
of this lawfully acquired data using U.S. person identifiers for valid 
foreign intelligence purposes and under the oversight of the DOJ and 
Office of Director of National Intelligence.
    Question. What is your understanding of the legal rationale for 
searching through the ``Corporate Store'' of metadata acquired under 
section 215 using U.S. persons identifiers for foreign intelligence 
purposes?
    The section 215 program is specifically authorized by orders issued 
by the Foreign Intelligence Surveillance Court pursuant to relevant 
statutory requirements. (Note: the legality of the program has been 
reviewed and approved by more than a dozen FISC judges on over 35 
occasions since 2006.) As further required by statute, the program is 
also governed by minimization procedures adopted by the Attorney 
General and approved by the FISC. Those orders, and the accompanying 
minimization procedures, require that searches of data under the 
program may only be performed when there is a Reasonable Articulable 
Suspicion that the identifier to be queried is associated with a 
terrorist organization specified in the Court's order.
           information sharing legislation for cybersecurity
    Question. Several proposed cybersecurity bills have been introduced 
to authorize the collection and sharing of information on cybersecurity 
threats--including malware, command and control, exfiltration of data, 
and other evidence of compromise--between the public and private 
sectors for the purpose of enabling the private sector and Government 
to defend themselves, enabling law enforcement agencies to detect 
criminal activities and identify and prosecute perpetrators, and, in 
the case of nation-states, enabling the Government to attribute attacks 
and hold aggressors accountable. To date, none of these proposals have 
been enacted.
    In your view, would it be helpful for Congress to enact more 
limited legislation to enable the private sector to collect and share 
cyber threat information within the private sector, leaving the issue 
of sharing with the Government for the future?
    Answer. The nature of malicious cyber activity against our Nation's 
networks has become a matter of such concern that legislation to enable 
real-time cyber threat information sharing is vital to protecting our 
national and economic security. Incremental steps such as legislation 
that addresses only private sector sharing would have limited 
effectiveness, because no single public or private entity has all the 
necessary authorities, resources, or capabilities to respond to or 
prevent a serious cyber attack. Therefore, we must find a way to share 
the unique insights held by both government and the private sector. At 
the same time, legislation must help construct a trust-based community 
where two-way, real-time sharing of cyber threat information is done 
consistent with protections of U.S. person privacy and civil liberties.
    Question. What restrictions would you recommend be imposed on what 
information could be shared with the Government regarding cyber 
threats, and the uses to which the Government could apply that 
information?
    Answer. Protecting the security and the privacy of Americans is not 
a mutually exclusive proposition. The information provided to the 
Government should be limited to that which is necessary for the 
Government to understand or take action to counter a cyber threat and 
to which all appropriate mechanisms have been applied to protect the 
privacy and civil liberties of U.S. persons. If confirmed, I would 
expect to engage fully in discussions on how to accomplish these 
objectives.
    Question. What transparency measures and institutional checks would 
you recommend to increase confidence that allowing the sharing of cyber 
threat information would not lead to abuses of privacy and civil 
liberties?
    Answer. Transparency can be ensured by establishing procedures for 
receiving, retaining, using, and disclosing cyber threat information. 
In turn, compliance with these procedures should be subject to 
independent review and oversight by cleared trusted U.S. Government and 
private sector third parties. Due to the criticality of real-time 
sharing of cyber threat information, we must also leverage technology 
that enables a transparent, policy-based, machine-speed infrastructure 
that automatically enforces the rules for use and any lawful 
restrictions on sharing.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, CYBERCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator Joe Manchin III
                        whistleblower protection
    1. Senator Manchin. Vice Admiral Rogers, the disclosure of 
classified and sensitive information by Edward Snowden certainly 
highlighted serious flaws in the National Security Agency's (NSA) 
internal security. There are those that would call Snowden a 
whistleblower, but I am curious as to whether he made an attempt to 
address his concerns through existing whistleblower channels in the 
NSA. What were those channels at that time and how have they changed 
since?
    Admiral Rogers. The Intelligence Community Whistleblower Protection 
Act (ICWPA) and Presidential Policy Directive-19 (PPD-19) describe 
specific steps to be taken to file a complaint. It provides employees 
and contractors of intelligence agencies with a mechanism for reporting 
alleged wrongdoing in IC agencies and associated programs to Congress. 
Congress specifically extended whistleblower protection to contractors 
in 2009 and those protections remain in place today. Mr. Snowden did 
not follow the processes established by the ICWPA or PPD-19 and 
therefore is not a ``whistleblower'' as that term is defined.
    In the case of Mr. Snowden, he had the option reporting through his 
chain of command or contacting any Inspector General. There are also 
Congressional committees and mechanisms in place. After extensive 
investigation, we have not found any evidence to support Mr. Snowden's 
contention that he brought these matters to the attention of anyone.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                recruiting talent in u.s. cyber command
    2. Senator Gillibrand. Vice Admiral Rogers, the National Commission 
on the Structure of the Air Force recently released their findings, 
which highlighted the importance of the National Guard and Reserve in 
the U.S. cyber mission. Specifically, it noted that the Guard and 
Reserve were uniquely positioned, because of their part-time status, to 
attract and retain the best and the brightest in the cyber field. 
Additionally, the National Defense Authorization Act (NDAA) for Fiscal 
Year 2014 has directed the Department of Defense (DOD) to look at the 
integration of the Guard in all its statuses into the cyber workforce. 
I have long agreed with this assessment, and introduced the Cyber 
Warrior Act which would establish National Guard cyber teams in each 
State to leverage this talent pool. If confirmed, what is your vision 
for the roles of both the Guard and Reserve in U.S. Cyber Command 
(CYBERCOM) and within the distinct Service cyber elements?
    Admiral Rogers. CYBERCOM envisions the Guard and Reserve will play 
a vital role in our cyber mission by working through the Services for 
the opportunity to leverage their civilian skill sets, the dual mission 
of the Guard, and the complementary nature of reservists to address 
specific needs, fill gaps and provide a surge capability within the 
Active component.

    3. Senator Gillibrand. Vice Admiral Rogers, I want to be helpful to 
DOD in recruiting the best talent and acquiring the best tools for our 
cyber mission. In your opinion, what can Congress do to assist DOD in 
this effort?
    Admiral Rogers. The Cyber Mission Force (CMF) construct and the 
corresponding planning documentation, identifies the size and scope of 
the CMF, the associated knowledge, skills, and abilities required for 
the various work roles that make up the CMF, the schedule for manning 
the teams, and the work role priorities. Together this information 
provides the Services with their targeted recruiting goals and 
priorities.

    4. Senator Gillibrand. Vice Admiral Rogers, what do you believe DOD 
needs in order to remain on the cutting edge of cyber defense?
    Admiral Rogers. DOD requires trained and ready cyber teams that can 
take a more proactive approach rather than the reactive approach. DOD 
also requires a more defensible, data-centric architecture with cloud-
enabled analytics, and a dynamic and reconfigurable network. CYBERCOM 
requires appropriate authorities to defend U.S. national interests in 
cyberspace. Additionally, policy is required that clearly establishes 
roles and responsibilities across agencies that provide the authority 
to see and defend systems outside of the DOD Information Systems.

                             cyber defense
    5. Senator Gillibrand. Vice Admiral Rogers, you are nominated to 
serve as both Commander, CYBERCOM, and Director, NSA/Chief, Central 
Security Service, giving you a unique role and perspective on cyber 
issues. What do you think are DOD's two most important cyber needs for 
the next 5 years?
    Admiral Rogers. Recently, General Alexander described to the House 
Armed Services Committee five key things we need to do without further 
delay, namely: promote a defensible architecture; develop a trained and 
ready workforce; pass cyber legislation that enables two-way, real-time 
information sharing among and between private and public entities; set 
up a seamless cyber command and control structure from the President on 
down; and, build a common picture to strengthen our Nation's 
cybersecurity defenses.

    6. Senator Gillibrand. Vice Admiral Rogers, if confirmed, how will 
you incorporate cyber forces, especially in the National Guard, into 
our Homeland defense strategy?
    Admiral Rogers. The CYBERCOM Guard Reserve office is diligently 
working with the National Guard Bureau and U.S. Northern Command to 
develop a cyberspace strategy framework that incorporates relevant 
portions of our Homeland defense strategy involving the protection of 
our Nation's critical infrastructure and key resources.

    7. Senator Gillibrand. Vice Admiral Rogers, what are your thoughts 
on the relationship between the Department of Homeland Security (DHS) 
and DOD in terms of global cybersecurity roles and responsibilities?
    Admiral Rogers. Global cooperation on cybersecurity is necessary to 
address the threat, build consensus on the norms of responsible conduct 
in cyberspace, and address ongoing malicious activity. CYBERCOM 
strongly endorses the U.S. Government's team approach, leveraging all 
of our homeland security, law enforcement, and military authorities and 
capabilities, which respectively provide for domestic preparedness, 
criminal deterrence and investigation, and national defense. As such, 
Department of Justice (DOJ), DHS, and DOD each have specific, critical 
roles and responsibilities as part of the Federal whole-of-government 
effort to counter cyber threats. Moreover, all three departments are 
involved with private and international partners within their areas of 
responsibility, and whether their activities are at home or abroad, the 
departments support one another to address cyber issues. As with 
threats to the United States, our allies, and our interests in other 
domains, DOD has the mission to defend the Nation, to include the 
protection of national security systems. This responsibility logically 
extends to all domains, including cyberspace. DHS is responsible for 
securing unclassified Federal civilian Government networks and working 
with owners and operators of critical infrastructure to secure their 
networks through risk assessment, mitigation, and incident response 
capabilities. DOJ is the lead Federal department responsible for the 
investigation, attribution, disruption, and, and as appropriate, 
prosecution of cybersecurity incidents. As authorized by the President, 
and consistent with the law, DOD defends, deters, and takes decisive 
action in cyberspace to defend national interests; supports DHS in 
homeland security (i.e., personnel, equipment, and facilities); and 
supports Federal agencies pursuant to the Defense Support of Civil 
Authorities process.

    8. Senator Gillibrand. Vice Admiral Rogers, the dynamic nature of 
the cyber threat presents a unique problem in that we typically find 
ourselves in a perpetual game of catch-up, always chasing our 
adversary. As soon as one system fix is introduced, countless other 
vulnerabilities, some known, many unknown, become all the more 
magnified. If confirmed, how do you intend to address the continually 
morphing requirements distinct to the cyber threat facing both DOD and 
the United States as a whole?
    Admiral Rogers. [Deleted.]

    9. Senator Gillibrand. Vice Admiral Rogers, what do you project as 
the main over-the-horizon cyber threat?
    Admiral Rogers. [Deleted.]

                             cyber training
    10. Senator Gillibrand. Vice Admiral Rogers, I am interested in the 
training our cyber warriors are receiving. What is your understanding 
of the training capacity at the Service academies and in the current 
pipeline?
    Admiral Rogers. Each Service Academy educates our future Service 
and joint leaders slightly differently and for good reason. The mission 
of the Service Academies is to educate our next generation of military 
leaders and cyber related skills are core to every officer regardless 
of their chosen career. Given the many requirements levied upon 
midshipmen and cadets, I believe the investment currently being made in 
cyber education to be appropriate.

    11. Senator Gillibrand. Vice Admiral Rogers, do you see room for 
improvement in the training pipeline and at the Service Academies?
    Admiral Rogers. There is always room for improvement, and each 
Service Academy is integrating cyber education to meet Service specific 
needs. Because I am a Naval Officer, I am far more aware of how the 
Naval Academy has embraced cyber related education. 100 percent of 
their graduates will receive at least two semesters of technical cyber 
education with a large percentage of them earning a STEM degree. I 
believe that is the right path and one that each academy should 
consider implementing.

    12. Senator Gillibrand. Vice Admiral Rogers, is there a role for 
Congress to assist in making improvements, such as a need for 
additional authorities?
    Admiral Rogers. Providing CYBERCOM with the oversight authorities 
it needs to ensure that it can enforce common, joint architectural 
components to support both CYBERCOM strategic requirements and unique 
Service specific requirements remains critical. I am still 
investigating the need for additional authorities and won't hesitate to 
make requests known if we deem them to be necessary.

                      retention of cyber personnel
    13. Senator Gillibrand. Vice Admiral Rogers, since cyber is a 
relatively new field, it seems like the Services are not having any 
trouble recruiting talent at this point. However, the issue of 
retention is of concern to me. If confirmed, what would you recommend 
for retention of these servicemembers across the total force?
    Admiral Rogers. CYBERCOM remains engaged with each of the Services 
to address current and projected Active Duty requirements as needed. 
This includes designating servicemember re-enlistment and career field 
bonuses for cyber career fields, along with associated Active Duty 
service commitments to assist with retention. Additionally, the Command 
continues to utilize civilian temporarily expanded hiring authorities 
and is in negotiation with the Air Force to expand the current 
internship program to include universities offering cyber-specific 
expertise. The National Guard and Reserves offer servicemembers the 
opportunity to continue contributing to the cyber mission in uniform 
after they have completed Active Duty service. We will continue to work 
with the Services to develop plans to integrate the National Guard and 
Reserves into the cyber domain, including recruitment and retention 
strategies for Reserve component members.

    14. Senator Gillibrand. Vice Admiral Rogers, do you believe that 
current retention strategies are useful to the cyber force, or should 
we be considering different strategies?
    Admiral Rogers. While to date overall retention has not been a 
concern, strategically, we will continue to work with the services to 
address assignment policies and career management for highly technical/
highly trained cyber professionals with the desired result to maintain 
skill currency and utility. Strategies are still being developed/
implemented, once implemented, retention rates will be monitored.

                     joint information environment
    15. Senator Gillibrand. Vice Admiral Rogers, in some of my 
conversations, I have heard that the Joint Information Environment is a 
good idea, but there are some concerns about the challenges of 
implementing it effectively. What challenges do you see, and if 
confirmed, what would you do to address concerns about implementation?
    Admiral Rogers. The Joint Information Environment (JIE) will 
transform the DOD Information Network (DODIN) into a defensible and 
operationally effective architecture by shifting the focus from 
protection of individual Military Service-specific networks, systems 
and applications to securing data and its uses. I support the JIE 
approach. Given these challenges, the threat, and the need for 
efficiency, we must move in this direction. I see three key challenges 
to JIE implementation. First, transferring responsibility and authority 
for network command, control, and security of an organization's 
operational network to a third party is a new paradigm that will be 
challenging to overcome. Second, the Department must leverage finite 
resources to design and implement JIE while continuing to operate and 
maintain the existing DODIN infrastructure. JIE will demand the 
involvement of some of our best technical experts even as we rely on 
these same people for current operations. Additionally, it will need to 
include the design and implementation of a strong security 
infrastructure. Third, implementation of the JIE framework is being 
accomplished without a program of record and corresponding dedicated 
funding line. This intentional, strategic decision introduces a degree 
of complexity in maintaining alignment of the various IT acquisition 
programs across the Department, but the risk appears to be manageable 
and will allow the Services and combatant commands to retain control of 
their individual information technology budgets while providing 
capabilities that enable the entire enterprise. We are addressing these 
challenges through a combination of rapid capability implementation and 
optimization of existing governance constructs. We are leveraging the 
lessons learned from implementing JIE Increment 1 in U.S. European 
Command and U.S. Africa Command, streamlining development processes, 
minimizing the time required of our technical experts, and ensuring 
critical path activities minimize impact on Department components. 
Additionally, in partnership with the DOD Chief Information Office, we 
are leveraging established governance forums to apply the collective 
expertise of the entire JIE team toward solving tough challenges and 
making informed decisions.

                civilian cyber recruiting and retention
    16. Senator Gillibrand. Vice Admiral Rogers, during the hearing, 
you identified recruitment and retention of civilian cyber personnel as 
a greater challenge than recruitment and retention of military cyber 
personnel. What specifically are the challenges and what do you believe 
is needed to recruit and retain civilian cyber warriors in DOD?
    Admiral Rogers. We are faced with a couple of recruiting and 
retention challenges. The recent furlough situation created uncertainty 
for recruiting prospective new hires and retaining our talented cadre 
workforce. While Federal employment has traditionally been seen as a 
secure career, both NSA and CYBERCOM experienced employee turmoil 
directly attributed to an absence of appropriations at the beginning of 
fiscal year 2014. Given our close relationship with NSA, many employees 
experienced the furlough while others did not. This had a negative 
impact on morale and caused employees to search for perceived ``non-
furloughed'' positions to mitigate their employment risk. This of 
course results in skewing the workforce mix, and also leads to some 
critical work roles remaining vacant. We also continue to experience 
difficulty hiring personnel with the skills we need while competing 
with industry, academia, and other non-Federal and Federal 
organizations. We have had success using the ``Schedule A Expedited 
Hiring Authority'' that was granted CYBERCOM over the past 3 years and 
expires 31 December 2014. However, we continue to have great difficulty 
competing with outside agencies and companies due to the speed at which 
they can hire and the generally higher level of salary that they can 
offer.

    17. Senator Gillibrand. Vice Admiral Rogers, do you see a need for 
Congress to grant additional authorities to DOD to recruit and retain 
civilians?
    Admiral Rogers. Yes. In order to address the challenges of 
recruitment and retention of civilian cyber warriors, CYBERCOM needs 
additional authorities such as:

    (1)  Rank-In-Person: The ability to assess and act on the 
knowledge, skills and abilities (KSA) an individual brings to the job, 
rather than focusing principally on assessing a position against rigid 
job classification factors.
    (2)  Performance Focused Pay: Designed to compensate and reward 
employees based on performance, contribution or competencies; enhances 
ability to compete with the private sector for high quality candidates, 
including college graduates.
    (3)  Market Informed Pay: Pay ranges tied to pay rates for 
comparable positions with CYBERCOM's private/public competitors; grade 
levels replaced with career levels and varied by occupation; OPM 
classification standards are aligned with CYBERCOM career levels.
    (4)  Extended Probationary Period: Allows the 1 year probationary 
period to be extended for up to 3 years determined by the type of work.
    (5)  Training and Development (Critical Skills): Expanded CYBERCOM 
authority to provide funding for degree and certificate programs.

    In order to stay competitive in the work place and execute the 
CYBERCOM mission effectively, the Commander, CYBERCOM, needs greater 
flexibility to recruit, hire and retain a highly skilled work force. 
Under Title 10 excepted authorities, the Director, NSA/Chief CSS has 
that flexibility and is thus able to recruit and retain some of the 
Nation's most talented technical PhDs, Computer Scientists, Engineering 
and Physical Scientists and Mathematicians, business and support 
professionals. Commander, CYBERCOM, needs these same authorities to 
build a similar civilian work force.
    In addition, the previous commander in an open hearing identified, 
``.with respect to personnel, I think we need to come up with a 
personnel system that puts all of our cyber team in one personnel 
construct, especially for the NSA CYBERCOM team.''
                                 ______
                                 
             Question Submitted by Senator Mazie K. Hirono
                cybersecurity vital to national security
    18. Senator Hirono. Vice Admiral Rogers, cybersecurity plays a 
vital role in the security of our Nation. With $5.1 billion in the 
fiscal year 2015 budget request, there are many opportunities to 
incorporate, both Active and Reserve cyber units to play critical roles 
in cybersecurity. With cybersecurity and intelligence infrastructure 
already in place on Oahu and many cyber threats originating in the 
Pacific region, I believe that the Hawaii National Guard would be an 
ideal candidate to establish a cyber force. Please share your thoughts 
on the National Guard's role in the cybersecurity mission at the 
national level as well as specifically for the State of Hawaii?
    Admiral Rogers. Regarding the role of the National Guard, to 
include the State of Hawaii, in State-specific cyber missions we are 
looking at two distinct areas of concern. One, we continue to work with 
the Services on how the National Guard Forces are employed by CYBERCOM 
specifically, and integrated with the CMF. Second we are looking to 
develop a CMF capability that included the National Guard and its role 
in support civil authorities in resiliency, recovery, and aid in 
investigations. One concept for consideration, subject to appropriate 
mission analysis, feasibility study, authorities analysis, and 
requisite DOD approvals, would be to establish cyberspace situational 
awareness and capabilities for protecting Critical Infrastructure and 
Key Resources (CIKR) within the States' utilizing the Reserve Force 
construct. Additionally, we recognize Reserve component civilian 
experience and certifications are a critical benefit in the quickly 
evolving cyberspace domain which enhances military based training 
programs.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                         network vulnerability
    19. Senator Inhofe. Vice Admiral Rogers, U.S. Transportation 
Command (TRANSCOM) has been subject to a growing number of cyber 
attacks. TRANSCOM's reliance on unique contracts--such as the CRAF 
program where U.S. civil air carriers agree to augment organic military 
airlift during a crisis in exchange for access to peacetime defense 
business--creates unique challenges. In a contingency, TRANSCOM's 
ability to move troops or supplies could be hindered if a vendor's 
network were compromised. Today there appears to be little sharing of 
threat and network vulnerability information. Do you share these 
concerns?
    Admiral Rogers. I do share these concerns, and that is why efforts 
to enable asset owners to strengthen these networks and hold them 
accountable are so important. DOD and NSA have long worked to address 
these issues through voluntary and contractual means including sharing 
information directly with participating companies in the Defense 
Industrial Base Cybersecurity/Information Assurance program. DOD 
further supports broader industry information sharing efforts by 
providing threat and vulnerability information through DHS. Executive 
Order 13636 continues to advance information sharing, but legislation 
is still needed to enhance information sharing among and between 
private and public entities, and to protect privacy and civil 
liberties. The end goal is to achieve machine speed cybersecurity and 
to enable coordinated preventative and response options across the U.S. 
Government and private sector to protect and defend the United States 
and our interests in cyberspace.

    20. Senator Inhofe. Vice Admiral Rogers, what other unique 
cybersecurity challenges do you believe we should be aware of?
    Admiral Rogers. The United States faces adversaries that seek 
persistent presences on military, government, and private networks for 
purposes such as exploitation and potential disruption and destruction. 
These adversaries have displayed increasing capacities and 
sophistication in their capabilities designed to steal, manipulate, and 
destroy U.S. information and hold our critical infrastructure on which 
our military and nation rely at risk. This is a constantly changing 
environment that requires we generate the capability and agility needed 
to operate in this dynamic environment. In addition to improved 
information sharing among public and private sector entities, we need 
to establish timely decision-making structures and processes to provide 
senior decision makers and operational commanders with a full range of 
options within the cyber arena. This requires that we partner with our 
allies, the private sector, within DOD, and across the U.S. Government. 
These partnerships can assist us in countering common threats and 
addressing shared vulnerabilities at a larger scale than any one 
organization can do alone.

    21. Senator Inhofe. Vice Admiral Rogers, what steps are TRANSCOM 
and CYBERCOM taking to address these vulnerabilities?
    Admiral Rogers. Across DOD, we are creating capabilities that can 
help mitigate these vulnerabilities, but some key capability gaps 
remain in dealing with highly adaptable and increasingly capable 
threats. Because the architecture must be agile, secure, reliable and 
rapidly deployable, DOD is currently involved in efforts to leverage 
computing technology that can dramatically increase our ability to 
safely and securely store and access data. In order to create effective 
cyber teams, we need enough trained and ready cyber experts to perform 
all the responsibilities; therefore, CYBERCOM is in the process of 
assembling a workforce that understands how to perform necessary threat 
management in this domain. We must also have the ability and the 
confidence to share this common operating picture among government 
organizations, industry partners, and foreign partners as appropriate. 
We continue to work across DOD and with other departments and agencies 
to enact policy changes such as the work under the Executive order that 
will enhance our ability to strengthen our cybersecurity, but cyber 
legislation is still needed to enhance information sharing among public 
and private entities and protect privacy and civil liberties.

    22. Senator Inhofe. Vice Admiral Rogers, can TRANSCOM and DOD enact 
a policy change that can make the fixes that you envision?
    Admiral Rogers. CYBERCOM is collaborating with TRANSCOM and other 
DOD entities to work with private sector partners to improve network 
security that will ensure reliable worldwide logistics operations. In 
the past year, DOD has extensively re-written cybersecurity policies to 
incorporate National Institute of Standards and Technology (NIST) 
standards and ensure compatibility across not only the department, but 
the entire Federal Government. These new policies are currently being 
disseminated and enacted across DOD, and promise to significantly alter 
the way DOD evaluates and manages risks across our enterprise. DOD is 
also working with its U.S. Government counterparts to enact policy and 
process changes that will enable the coordinated employment of existing 
homeland security, law enforcement, and military authorities and 
capabilities, as appropriate. Also, we continue to focus on improving 
information sharing between the private and public to the greatest 
extent feasible in the current environment, noting that cybersecurity 
information sharing legislation would do much to enable and enhance two 
way real time information sharing.

    23. Senator Inhofe. Vice Admiral Rogers, do you feel that TRANSCOM 
and DOD need more legislative authority to fix this persistent threat 
brought about by the current cyber intrusion problem?
    Admiral Rogers. The President has the necessary authority to order 
military action to defend our Nation against all attacks whether they 
come from terrorists or nation states and in any domain from sea, air, 
land or cyberspace. Since the President can delegate appropriate 
authorities to the Secretary of Defense to use the Department's 
operational capabilities, including CYBERCOM, to defend the Nation from 
cyber attack, additional legislative authority for DOD or CYBERCOM is 
not necessary. That said, the operations of TRANSCOM and its close 
industry partnerships serve to highlight that with so much of the 
critical infrastructure owned and operated by the private sector, the 
government has limited visibility and thus is often unaware of the 
malicious activity targeting our critical infrastructure. These blind 
spots prevent the Government from being positioned to either help the 
critical infrastructure to defend itself or to defend the Nation from 
an attack, if necessary. This can best be overcome through legislation 
that removes existing barriers and disincentives and facilitates two-
way real time information sharing between the private sector and the 
government.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                            cyber deterrence
    24. Senator Ayotte. Vice Admiral Rogers, when DOD endures a cyber 
attack, how would you characterize our ability to determine who 
conducted the attack?
    Admiral Rogers. Our ability to determine who conducts cyber attacks 
depends upon several factors including sophistication of the malicious 
actors, information sharing capabilities and policies and available 
trained manpower. Attribution involves an examination of malicious 
activity based on technical, behavioral, and personal characteristics. 
Our ability to determine attribution does not solely rely on the 
mechanical process of geo-location of physical networks or nodes. The 
possibility always exists the adversary has exploited/hijacked what 
appears to be the origin and is directing the cyber attacks from a 
remote location, anywhere in the world. We employ significant resources 
and manpower to analyze network and intelligence data to determine the 
true aggressor. Over the past decade, our ability to identify malicious 
cyber actors has improved significantly as we have adopted a federated 
approach in the analysis of data necessary to pinpoint the nexus for a 
given cyber operation. To stay ahead of the adversary, there are 
currently processes in place to share information and analytic insight 
across DOD and the Intelligence Community. In addition, defense 
contractors and other civilian defense organizations have their own 
sets of information which could lead to the attribution of cyber threat 
actors and their capabilities and intentions.

    25. Senator Ayotte. Vice Admiral Rogers, how long does it take to 
identify the attacker?
    Admiral Rogers. Analysis of network traffic is one key element in 
the attribution process. Analysis of malicious network traffic over 
time provides valuable clues in the hunt for a nexus in the case of 
nefarious activity. Developing ``signatures'' using the aforementioned 
network analysis techniques, combined with multi-source intelligence 
information, allows for rapid identification and notification--often 
within minutes.
    The process for identifying top level cyber actors using advanced 
tools is much more complicated. Attribution can take days to months as 
the forensic review of the operation is conducted by multiple 
organizations within DOD and the Intelligence Community. It must be 
noted, however, that the distributed nature of the Internet combined 
with the blinding pace in the evolution and growth of cyber tools and 
associated programs makes timely attribution of the most advanced 
actors particularly difficult.

    26. Senator Ayotte. Vice Admiral Rogers, how can we improve our 
attribution capability?
    Admiral Rogers. Attribution of the individuals and/or organizations 
responsible for malicious cyber activity can run the gamut of 
difficulty. In order to improve our attribution capability it is 
imperative we employ highly skilled and trained individuals working 
with advanced and consistently updated technologies across and between 
Whole of Government.
    Training and recruitment of effective information technology and 
analysis personnel is critical to building and maintaining an effective 
cyber force. Our current build-up of National Mission Teams and Cyber 
Protection Teams are a step in the right direction. It is also 
important that we continue to strengthen the cyber ranks of existing 
agencies by hiring the most qualified individuals and providing working 
environments that are competitive with the private sector.
    Substantial investment in research and development of new 
capabilities by private enterprise, educational institutions, and 
government agencies is also critical to improving our attribution 
capability. Attribution capability is highly dependent upon our mastery 
and dominance of communication and system technologies.
    Finally, sharing of malicious cyber activity and associated 
intelligence across Federal agencies is a key part in the process of 
understanding the cyber adversary. As attribution models and frameworks 
continue to mature and are shared and agreed across agencies, each 
agency's unique insights and information can be shared and organized to 
deliver more rapid and accurate attribution.

                              cyber threat
    27. Senator Ayotte. Vice Admiral Rogers, what is your greatest 
concern in regards to CYBERCOM?
    Admiral Rogers. My greatest concern is dealing with the evolving 
threat in cyberspace. Our adversaries seek to establish persistent 
access to military, government, and private-sector networks in order to 
extract sensitive information and, potentially, to disrupt or destroy 
critical infrastructure and key resources. As a military and a nation, 
we are not well positioned to counter such threats. Detecting, 
containing and expelling capable, persistent intruders can require a 
commitment of resources and a degree of information sharing and 
collaboration among government and private-sector entities that is 
often limited by questions of legal authorities, liability and 
regulatory necessity.
    DOD is improving development of cyber capabilities to detect and 
respond to the evolving threats; however, key gaps remain. Our legacy 
information architecture, for instance, is not optimized for defense in 
its current form and our capability for shared situational awareness 
across DOD networks are not yet sufficient. We have not yet built 
trained and ready cyberspace forces in the quantity needed to counter 
the full range of threats we face. Finally, existing authorities and 
legal frameworks are not adequate for the public-private threat 
information sharing and timely responses needed for defense of the 
Nation in cyberspace. Additional legislation is needed to allow greater 
public-private information sharing while protecting privacy and civil 
liberties.

    28. Senator Ayotte. Vice Admiral Rogers, from a DOD perspective, 
what steps do you think are most important to take in the short-term to 
better protect our warfighting capability from cyber attacks?
    Admiral Rogers. The most important short-term actions to better 
protect our warfighting capability mirror DOD's enduring priorities to 
build a defensible architecture, employ trained and ready CMFs, and 
maintain global situational awareness and a common operating picture, 
but with a slightly different order of emphasis. One of my first 
priorities will be to work closely with NSA and the Services to 
accelerate the training and deployment of trained and fully qualified 
personnel to man the CMFs. Effectively employing our CMFs and better 
focusing their secure and defend efforts requires that we continue to 
identify and prioritize assets that constitute the critical cyber 
components or cyber dependencies of our warfighting capabilities. 
Finally, an improved understanding of critical warfighting cyber 
components and cyber dependencies is essential for enhancing our 
efforts to build and maintain global situational awareness in 
cyberspace.

                    cybercom and u.s. navy reserves
    29. Senator Ayotte. Vice Admiral Rogers, the Military Services 
provide many of our Nation's cyber professionals. What role do you 
believe the Reserve component--including the National Guard--should 
play in cyber operations?
    Admiral Rogers. We are engaged with the Services on the proper role 
of Reserve component cyber forces. The ability to identify, leverage, 
and employ these forces can provide a critical enabler for national 
cyber defense. The Air Force and Army are planning to have the Reserve 
component forces part of their respective CMF build. These plans are 
currently being vetted within each of the respective Services.
    The Reserve component, to include the National Guard, plays an 
essential role in physical defense and public security. The cyber 
mission provides an opportunity for the Services to leverage the dual 
nature of guardsmen and the complementary nature of reservists to 
address specific needs, fill gaps and when required, supplement the 
Active Force in a surge capacity. A significant contribution to the 
national cyber defense mission is the ability of guardsmen and 
reservists to leverage their civilian expertise, professional 
knowledge, and established relationships in order to support Federal, 
State, or local mission tasks as assigned by appropriate authorities.

    30. Senator Ayotte. Vice Admiral Rogers, what specific role do you 
think the U.S. Navy Reserves should play in cyber operations?
    Admiral Rogers. Since 2012, the Navy Reserve (NR) fulfills a 
significant role in Fleet Cyber Command/Commander Tenth Fleet (FCC/
C10F) efforts to build and deploy its CMF structure. Reserve personnel 
are sourced from across all FCC/C10F Reserve units, Selected Reserves, 
and a mix of volunteers from Voluntary Training Units, a subset of the 
Inactive Ready Reserve. The FCC/C10F's utilization of Navy Reserve 
personnel includes the drafting of CMF team-specific Concepts of 
Operations, as well as the strategy for development and formalization 
of a plan for the Active component Navy CMF team build, which is 
currently under review by FCC/C10F. Additionally, Navy Reserve 
personnel currently augment headquarters functions on both the cyber 
plans and targeting, and fires efforts. Navy reservists currently 
support Active component cyber exercises such as Cyber Flag and Cyber 
Guard, and serve as a critical force augmentation by providing 
immediate, trained, and experienced operators.

                  cybersecurity and the private sector
    31. Senator Ayotte. Vice Admiral Rogers, under the cybersecurity 
Executive order that President Obama signed in February 2013, the 
Government was tasked with improving the manner in which it shares 
information with the private sector. From a cyber perspective, how 
would you assess the information flow between the U.S. Government and 
the private sector?
    Admiral Rogers. In the last few years, and most recently under 
Executive Order 13636, the U.S. Government has made important progress 
in providing information to the private sector. Notable examples 
include the Enhanced Cybersecurity Services program for sharing threat 
and technical information from the Government to critical 
infrastructure sectors, and the release in February 2014 of the 
Cybersecurity Framework. Yet, without two-way sharing between the 
private sector and the Government, the Government may not have insight 
to malicious cyber activities within privately owned and operated 
networks in time to enable the private sector to defend itself, or to 
defend the United States, if necessary.

    32. Senator Ayotte. Vice Admiral Rogers, does the Government share 
enough information with the private sector?
    Admiral Rogers. No, despite the recent progress, there is room for 
improvement in what cybersecurity information the U.S. Government 
shares with the private sector, as well as what the private sector 
shares with the U.S. Government. The U.S. Government needs to improve 
its information sharing policies and processes in a manner that is 
timely, respects privacy and civil liberties, is sensitive to 
competitive advantage concerns, and protects intelligence and law 
enforcement sources, methods, operations, and investigations.

    33. Senator Ayotte. Vice Admiral Rogers, if confirmed as Director 
of the NSA and Commander of CYBERCOM, what more would you do to have a 
better flow of information to private sector companies so they can best 
protect their systems from cyber attacks?
    Admiral Rogers. As the Commander, CYBERCOM and the Director, NSA/
Chief CSS, I will partner with DOD, DHS, FBI, and the Office of the 
Director of National Intelligence to improve machine-speed 
cybersecurity information sharing with the private sector. To this end, 
I will continue to support the goals of Executive Order 13636, namely: 
provide threat information to DHS, DOD, and other sector-specific 
agencies; assist in expanding the DHS-managed Enhanced Cybersecurity 
Services program to all critical infrastructure sectors; and move 
expeditiously to implement secure sharing of classified cybersecurity 
information with appropriately cleared private entities.

    34. Senator Ayotte. Vice Admiral Rogers, on the flip side, when a 
defense company endures a cyber attack, is that being shared with DOD? 
In other words, do we really understand the degree to which our defense 
industrial base is under cyber-attack?
    Admiral Rogers. The Department is adapting its DOD-Defense 
Industrial Base Voluntary Cybersecurity/Information Assurance (DIB CS/
IA) Activities program (32 CFR Part 236) to incorporate mandatory 
incident reporting requirements under section 941 (NDAA for Fiscal Year 
2013) while maintaining the voluntary cyber threat information sharing. 
This amended program will strengthen DOD's ability to safeguard DOD 
information on contractor unclassified information systems and provide 
contractors increased incentive to join the voluntary DIB CS/IA program 
for more robust cybersecurity collaboration with DOD. However, all 
stakeholders in the public and private sectors will remain 
disadvantaged in understanding the full scope of the threat without 
legislation to enhance information sharing among and between private 
and public entities while protecting privacy and civil liberties and 
clarifying liability and anti-trust issues.

    35. Senator Ayotte. Vice Admiral Rogers, countless jobs, 
investments, and dollars are being lost from the theft of intellectual 
property each year due to cyber hacks. How can we help our defense 
industrial base better protect itself?
    Admiral Rogers. I agree that the theft of intellectual property is 
a real and growing problem that negatively impacts the technological 
competitiveness, economic health, and national security of the United 
States. Several initiatives are underway to help the Defense Industrial 
Base (DIB) better protect itself. Cybersecurity information sharing 
occurs within the voluntary DIB Cybersecurity and Information Assurance 
(DIB CS/IA) Program and its optional DHS-managed Enhanced Cybersecurity 
Services (ECS) component. In addition, DOD, as the Sector Specific 
Agency for the DIB, works with DHS to implement the National 
Infrastructure Protection Program sector partnership model and risk 
management framework. While these partnerships help to improve the 
security of the DIB, and improve our collective strength against the 
theft of our Nation's intellectual property, additional steps are 
needed to remove barriers to cybersecurity information sharing and 
encourage industry to harden its networks.

                    interagency information sharing
    36. Senator Ayotte. Vice Admiral Rogers, what role should CYBERCOM 
play in coordinating with other agencies such as DHS to make sure the 
U.S. Government has a common picture of the threat and can develop a 
well-coordinated response?
    Admiral Rogers. As part of the Comprehensive National Cybersecurity 
Initiative (CNCI), Federal cybersecurity operations centers across the 
U.S. Government were linked to foster improved information sharing and 
shared situational awareness of cyber threats. CYBERCOM's Joint 
Operations Center is and should continue to be a key member 
facilitating that linkage across the whole of government, particularly 
when DOD is the designated lead for a cyber-related operation. In those 
circumstances where another agency has the lead, then CYBERCOM should 
act in a supporting capacity, as needed.
    It is important to note that developing well-coordinated responses 
to potential cyber incidents begins long before an incident comes to 
light. Ideally, the U.S. Government would have pre-coordinated response 
options to cyber incidents available to respond to the most likely and 
most dangerous cyber threats. This requires advanced planning, 
capability development, machine-speed information sharing, whole-of-
government exercises, and timely and agile decision-making processes 
that allow national leaders to assess and manage risks both during 
steady state and crisis operations. CYBERCOM is--as part of a broader 
DOD and U.S. Government effort--well-suited to support the development 
and exercise of pre-coordinated response options needed to defend the 
United States and its interests in cyberspace.

    37. Senator Ayotte. Vice Admiral Rogers, based on your preparation 
for your nomination hearing, how would you characterize CYBERCOM's 
current relationship with DHS?
    Admiral Rogers. CYBERCOM's relationship with DHS is good and 
growing. DHS, the lead for national protection, is a key partner to 
DOD, the lead for national defense. Efforts to protect and defend the 
United States and its interests in cyberspace must go hand-in-hand. As 
the nature of conflict and competition in cyberspace evolves, so, too, 
must CYBERCOM's relationship with DHS in order to ensure our Nation's 
ability to operate, defend, and protect ourselves in the domain. 
CYBERCOM's relationship with DHS will continue to grow both in 
importance and strength over the coming months and years. I look 
forward to working with my DHS counterparts to this end.
                                 ______
                                 
    [The nomination reference of VADM Michael S. Rogers, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                   January 30, 2014
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment to the U.S. Navy to the 
grade indicated while assigned to a position of importance and 
responsibility under Title 10, U.S.C., section 601:

                             To be Admiral.

    VADM Michael S. Rogers, USN, 0000.
                                 ______
                                 
    [The biographical sketch of VADM Michael S. Rogers, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
      Resume of Service Career of VADM Michael Scott Rogers, USN

28 Aug 1981...............................  Ensign
28 Aug 1983...............................  Lieutenant (junior grade)
01 Sep 1985...............................  Lieutenant
01 Sep 1991...............................  Lieutenant Commander
01 Sep 1997...............................  Commander
01 Sep 2002...............................  Captain
02 Nov 2007...............................  Designated Rear Admiral
                                             (lower half) while serving
                                             in billets commensurate
                                             with that grade
01 Feb 2008...............................  Rear Admiral (lower half)
01 Oct 2010...............................  Rear Admiral
30 Sep 2011...............................  Vice Admiral, Service
                                             continuous to date
 


Assignments and duties:

------------------------------------------------------------------------
                                                     From         To
------------------------------------------------------------------------
NROTC Unit Auburn University (Asst Admin            Aug 1981    Sep 1981
 Officer).......................................
USS Caron (DD 970) (Acting Division Officer)....    Sep 1981    Dec 1981
Surface Warfare Officers School Command,            Jan 1982    May 1982
 Newport, RI (DUINS)............................
Naval Justice School, Newport, RI (DUINS).......    May 1982    Jun 1982
USS Caron (DD 970) (Combat Information Center       Jun 1982    Jan 1985
 Officer) (Anti-Submarine Warfare Officer)......
Commander, Naval Military Personnel Command,        Feb 1985    Nov 1986
 Washington, DC (Navy Affirmative Action Plan
 Manager).......................................
Naval Security Group Dept, Naval Comm Station,      Nov 1986    Dec 1989
 Spain (Surface/Subsurface Direct Support
 Officer) (Electronic Warfare Officer)..........
Commander, U.S. Atlantic Fleet (Assistant Shore     Jan 1990    Jan 1993
 and National Cryptologic Systems Officer)......
Armed Forces Staff College (Student)............    Jan 1993    Apr 1993
Naval Technical Training Center, Pensacola, FL      May 1993    May 1993
 (Student)......................................
Commander, Carrier Group Two (Staff                 Jun 1993    May 1995
 Cryptologist)..................................
Bureau of Naval Personnel, Washington, DC           May 1995    May 1997
 (Cryptologic Junior Officer Detailer)..........
Commander, Naval Security Group Command             May 1997    Jun 1998
 (Executive Assistant)..........................
CO, Naval Security Group Activity, Winter           Jul 1998    Jul 2000
 Harbor, ME.....................................
Commander, Sixth Fleet (Fleet Information           Jul 2000    Jul 2002
 Operations and Cryptology Officer).............
National War College (Student)..................    Jul 2002    Jun 2003
Joint Staff (Head, Computer Network Attack/         Jun 2003    Oct 2003
 Defense Branch)................................
Joint Staff (Chief, Information Operations          Oct 2003    Feb 2004
 Division)......................................
Joint Staff (Executive Assistant, Director for      Feb 2004    Aug 2004
 Operations) (J-3)..............................
Joint Staff (Executive Assistant, Director,         Aug 2004    Aug 2005
 Joint Staff)...................................
Joint Staff (Special Assistant to CJCS/Director,    Aug 2005    Nov 2007
 Chairman's Action Group).......................
Commander, U.S. Pacific Command (Director for       Dec 2007    Sep 2009
 Intelligence) (J2).............................
Joint Staff (Director for Intelligence) (J2)....    Sep 2009    Sep 2011
Commander, Fleet Cyber Command/Commander, 10th      Sep 2011     To date
 Fleet..........................................
------------------------------------------------------------------------

Medals and awards:
    Defense Superior Service Medal with two Bronze Oak Leaf Clusters
    Meritorious Service Medal with two Gold Stars
    Joint Service Commendation Medal
    Navy and Marine Corps Commendation Medal with one Silver Star
    Joint Meritorious Unit Award with three Bronze Oak Leaf Clusters
    Navy Unit Commendation
    Meritorious Unit Commendation with two Bronze Stars
    Navy ``E'' Ribbon
    Navy Expeditionary Medal with three Bronze Stars
    National Defense Service Medal with one Bronze Star
    Armed Forces Expeditionary Medal with one Bronze Star
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Military Outstanding Volunteer Service Medal
    Sea Service Deployment Ribbon with two Bronze stars
    Overseas Service Ribbon with four Bronze Stars
    Expert Rifle Marksmanship Medal
    Expert Pistol Shot Medal

Special qualifications:
    BS (Business Administration) Auburn University, 1981
    MS (National Security Strategy) National Defense University, 2003
    Designated Surface Warfare Officer, 1983
    Designated Cryptologic Officer (Information Warfare), 1986
    Designated Joint Qualified Officer, 2006
    Designated Level IV Joint Qualified Officer, 2009
    CAPSTONE 2009-4 13JU
    Pinnacle 2012-1

Summary of joint duty assignments:

------------------------------------------------------------------------
              Assignment                       Dates            Rank
------------------------------------------------------------------------
Joint Staff (Head, Computer Network         Jun 03-Oct 03              CAPT
 Attack/Defense Branch)...............
Joint Staff (Chief, Information             Oct 03-Feb 04              CAPT
 Operations Ops Division).............
Joint Staff (Executive Assistant,           Feb 04-Aug 04              CAPT
 Director of Operations, J-3).........
Joint Staff (Executive Assistant,           Aug 04-Aug 05              CAPT
 Director, Joint Staff)...............
Joint Staff (Special Assistant to CJCS/     Aug 05-Nov 07              CAPT
 Director, Chairman's Action Group)...
Commander, U.S. Pacific Command             Dec 07-Sep 09          RDML
 (Director for Intelligence) (J2).....
Joint Staff (Director for                   Sep 09-Sep 11     RDML/RADM
 Intelligence) (J2)...................
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by VADM Michael 
S. Rogers, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael S. Rogers.

    2. Position to which nominated:
    Director, National Security Agency/Chief, Central Security Service/
Commander, U.S. Cyber Command.

    3. Date of nomination:
    January 30, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 31, 1959; Chicago, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Dana M. Rogers (Maiden Name: Walck).

    7. Names and ages of children:
    Justin, age 25.
    Patrick, age 21.

    8 Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, U.S. Naval Institute
    Member, Auburn University Alumni Association

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Michael S. Rogers.
    This 16th day of January, 2014.

    [The nomination of VADM Michael S. Rogers, USN, was 
reported to the Senate by Chairman Levin on March 16, 2014, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on March 31, 2014.]


    NOMINATIONS OF DR. LAURA J. JUNOR, TO BE PRINCIPAL DEPUTY UNDER 
SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS; MR. GORDON O. TANNER, 
TO BE GENERAL COUNSEL OF THE DEPARTMENT OF THE AIR FORCE; MS. DEBRA S. 
 WADA, TO BE ASSISTANT SECRETARY OF THE ARMY FOR MANPOWER AND RESERVE 
AFFAIRS; MS. MIRANDA A.A. BALLENTINE, TO BE ASSISTANT SECRETARY OF THE 
AIR FORCE FOR INSTALLATIONS, ENVIRONMENT, AND ENERGY; AND DR. MONICA C. 
   REGALBUTO, TO BE ASSISTANT SECRETARY OF ENERGY FOR ENVIRONMENTAL 
                               MANAGEMENT

                              ----------                              


                        THURSDAY, JUNE 19, 2014

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m., in 
room 216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Nelson, 
Donnelly, Hirono, Kaine, King, Inhofe, Sessions, and Ayotte.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets this morning to consider the 
nominations of Dr. Laura Junor to be Principal Deputy Under 
Secretary of Defense for Personnel and Readiness; Gordon Tanner 
to be General Counsel of the Department of the Air Force; Debra 
Wada to be Assistant Secretary of the Army for Manpower and 
Reserve Affairs; Miranda Ballentine to be Assistant Secretary 
of the Air Force for Installations, Environment, and Energy; 
and Dr. Monica Regalbuto to be Assistant Secretary of Energy 
for Environmental Management.
    We welcome you and your family members this morning. The 
committee always recognizes the tremendous contributions that 
are made by the support of engaged family members that we are 
all so blessed to have. We thank you all for joining us and for 
joining your family members here today. We encourage our 
nominees, during your opening statements, to introduce family 
members and others who might be here to support you.
    The positions to which today's witnesses have been 
nominated are important and challenging assignments.
    The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness' responsibilities include recruitment, 
retention, pay and benefits, health care, readiness, and 
quality of life for the men and women of our Armed Forces. If 
confirmed for this position, Dr. Junor will play a critical 
role in the Department's efforts to address the difficult 
issues, ranging from reductions in end-strength, the increasing 
cost of military health care, sexual assaults in the military, 
and changes in assignment policies relating to women in the 
Armed Forces, and that is just naming a few.
    The General Counsel of the Department of the Air Force is 
the chief legal officer and chief ethics official in the Air 
Force. He will provide legal advice and guidance to the 
Secretary of the Air Force, as well as legal services 
throughout the Air Force in a variety of disciplines. He will 
also provide oversight of intelligence and other sensitive 
activities and investigations.
    The Assistant Secretary of the Army for Manpower and 
Reserve Affairs is responsible for the supervision of the 
manpower and Reserve component affairs of the Army. If 
confirmed, Ms. Wada will face many challenges, among them 
ensuring that the Army executes end-strength reductions in a 
way that preserves readiness and protects against a hollow 
force, prevention and response to sexual assaults in the Army, 
and assignment policies for female soldiers.
    The Assistant Secretary of the Air Force for Installations, 
Environment, and Energy has a diverse portfolio that includes 
several issues directly impacting the readiness of our Air 
Force. Ms. Ballentine will have responsibility for overseeing 
the construction and maintenance of facilities in a time of 
increased budget austerity, ensuring that the Air Force is 
maximizing energy efficiency and security, and navigating 
environmental issues relating to installations safety and 
occupational health.
    I believe that your great success, Ms. Ballentine, has its 
roots in your formative years that you spent in Michigan. I am 
pleased that your parents, who are also Michigan residents, 
could be with us today. We give them a special welcome. My 
colleagues will forgive me for that, I know.
    The Assistant Secretary of Energy for Environmental 
Management will oversee the ongoing cleanup at 16 former Cold 
War-era defense production sites spread across 11 States. 
Upholding the Federal Government's commitment to remediate 
these sites is of critical importance to the States and local 
communities in which they are located. Dr. Regalbuto, if 
confirmed, will play a central role in carrying out that 
commitment.
    We welcome our nominees here today. We look forward to 
their testimony and, hopefully, their swift confirmation.
    Senator Inhofe?

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. Let me just say 
that I concur in the comments that you made and the 
significance of each position. I look forward to hearing from 
each one of you. I just hope that you recognize, all five of 
you, that we are in a situation that, certainly in my 20 years 
in the U.S. Senate and on this committee, I have never seen a 
more stressed time, in terms of budget problems and all of 
that.
    I am sure you will keep that in mind. I hope that you will.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Inhofe.
    Dr. Junor?

   STATEMENT OF LAURA J. JUNOR TO BE PRINCIPAL DEPUTY UNDER 
        SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS

    Dr. Junor. Good morning, Chairman Levin, Ranking Member 
Inhofe, and members of the committee. I am honored to be here 
before you today, and I appreciate the confidence that 
President Obama has expressed in nominating me to be the 
Principal Deputy Under Secretary of Defense for Personnel and 
Readiness.
    I would also like to thank my family, who is with me here 
today: my mother, Phyllis Gladhill; my 17-year-old daughter, 
Madeline; my husband and an incredibly patient man, T.J.; my 
sister, Ann; and my brother-in-law, Michael Santorios; and my 
friends and coworkers, who are also here today.
    My 7-year-old couldn't be here. She is training for a 
musical this afternoon, so today is a very big day in our 
house.
    I also would like to recognize and thank the soldiers, 
sailors, airmen, and marines, and their families, with whom I 
have the honor to serve during my career. Their selfless 
commitment to our Nation and to each other is testament to the 
strength of our military community and to our Nation.
    It has been a privilege for me to have served the Nation in 
the Department of Defense (DOD) for over 20 years and currently 
as the Deputy Assistant Secretary of Defense for Readiness.
    The Office of Deputy Assistant Secretary for Readiness is 
the focal point of the Department on all issues and activities 
related to the readiness of America's Armed Forces.
    As the Deputy Assistant Secretary, my primary 
responsibility is to ensure that our military is effectively 
manned, trained, and equipped for all missions.
    During my career, I have been part of the military buildup 
in support of conflicts in two theaters, and subsequently the 
drawdown of both. Balancing the need to reduce budgets while 
maintaining a healthy and ready military is the mission that 
senior Department leaders must not fail.
    In the Office of the Under Secretary of Defense for 
Personnel and Readiness, that is our commitment to the men and 
women who put themselves in harm's way. The competition for 
resources should not degrade our ability to respond to 
conflicts that may threaten the safety of our Nation and those 
who took oaths to defend.
    I believe my experience has prepared me to fill the 
position of the Principal Deputy Under Secretary of Defense for 
Personnel and Readiness.
    I am an economist, both by training and practice, and favor 
an analytic approach to most problems. My work has directly 
influenced policy on a range of topics, including spares and 
maintenance, aviation, training, contingency sourcing, 
recruiting and retention, and response options for domestic 
emergencies.
    Finally, I grew up a military dependent and married a naval 
officer. In that sense, I am familiar with the scope of issues 
facing military families.
    I am grateful to the members of the committee and to all 
Members of Congress for their support, the support that they 
have given to our men and women in uniform and their families.
    If confirmed, I pledge to you that I will work diligently 
on behalf of the Nation's servicemembers, their families and 
our civilian workforce that supports them, along with this 
committee and Congress.
    Thank you, and I look forward to your questions.
    Chairman Levin. Mr. Tanner?

  STATEMENT OF GORDON O. TANNER TO BE GENERAL COUNSEL OF THE 
                  DEPARTMENT OF THE AIR FORCE

    Mr. Tanner. Thank you, Chairman Levin, Senator Inhofe, and 
members of the committee. It is a great honor to be before you 
as the nominee for General Counsel of the Air Force.
    I would also like to thank President Obama, Secretaries 
Hagel and James for the trust they have placed in me. I want to 
thank the staff and members of this committee for the great 
courtesy they have shown during this process. I realize that 
this is a very busy time, and I appreciate the hard work it 
took to make this hearing happen.
    I would also like to thank my family and friends, whose 
continued support through the years has been essential. In 
particular, I appreciate my mother, husband, and sister being 
here with me today.
    Finally, I want to thank the airmen, soldiers, sailors, 
marines, and their families, with whom I have had the honor to 
serve during my career as an Active Duty and Reserve Judge 
Advocate as well as a member of the civil service.
    My life has been enriched by the opportunity to serve with 
them.
    I am deeply humbled and honored by this nomination. The 
most fulfilling job that I have had in my career to date was as 
Principal Deputy General Counsel of the Air Force, and I am 
excited by the prospect, if confirmed, of serving as the Air 
Force General Counsel.
    The challenges facing the Department of the Air Force are 
many, and I look forward to helping Secretary James, Under 
Secretary Fanning, and the rest of the Air Force team as they 
grapple with these challenges.
    But most of all, I am especially happy to be nominated for 
a position that will allow me to improve the lives of dedicated 
Air Force personnel who work to protect America and, when 
called upon, put themselves in harm's way for our country.
    I am committed to continuing and enhancing the close and 
productive working relationship and partnership with the Air 
Force Judge Advocate General and other military lawyers in the 
Department. I am proud that I had a great relationship with the 
Air Force Judge Advocate leadership during my tenure as 
Principal Deputy General Counsel. Its senior leadership were 
not merely great colleagues, but close friends.
    I am firmly convinced that the leadership of the Air Force 
is best served when the civilian and military lawyers work 
together as a team to offer the best possible legal advice to 
our mutual clients.
    Should I be confirmed, I look forward to working with this 
committee in addressing any legal issues that may arise during 
my tenure. I am grateful for your consideration, and I look 
forward to your questions.
    Thank you very much.
    Chairman Levin. Thank you very much, Mr. Tanner.
    Ms. Wada?

  STATEMENT OF DEBRA S. WADA TO BE ASSISTANT SECRETARY OF THE 
             ARMY FOR MANPOWER AND RESERVE AFFAIRS

    Ms. Wada. Mr. Chairman, Senator Inhofe, members of the 
committee, I am honored that the President has nominated me for 
the position of the Assistant Secretary of the Army for 
Manpower and Reserve Affairs. It is a privilege to be here 
today to respond to any questions or issues with respect to my 
nomination.
    I would like to thank President Obama, Secretary of the 
Army John McHugh, Representatives Smith and Davis, as well as 
Chairmen McKeon and Wilson, for their support of my nomination.
    I would also like to recognize my family and friends for 
providing me their unwavering love and support for me to pursue 
my dreams. I would also be remiss if I did not recognize my 
colleagues who have provided me their wise counsel over the 
years.
    If confirmed, it would be an honor for me to continue my 
service on the behalf of the soldiers, civilians, contractors, 
survivors, and families. I believe that my 27 years on Capitol 
Hill, including 14 years on the House Armed Services Committee, 
provide me the depth of experience and expertise to 
successfully execute the responsibilities of this position.
    I look forward to continuing my work with this committee 
and Congress to address the personnel challenges the Army is 
facing and will continue to face in the next several years.
    Thank you for your consideration, and I look forward to 
your questions.
    Chairman Levin. Thank you very much, Ms. Wada.
    Ms. Ballentine?

STATEMENT OF MIRANDA A.A. BALLENTINE TO BE ASSISTANT SECRETARY 
  OF THE AIR FORCE FOR INSTALLATIONS, ENVIRONMENT, AND ENERGY

    Ms. Ballentine. Good morning, Chairman Levin, Ranking 
Member Inhofe, Senators. Thank you for the opportunity to 
appear before this committee as nominee for Assistant Secretary 
of the Air Force for Installations, Environment, and Energy.
    I would like to start by thanking my family: my husband, 
Roger Ballentine, who knows the rigors of Government service 
all too well and, nonetheless, has supported my nomination 
wholeheartedly; my kids, stepdaughter Eliza, who is 10, and 
daughter, Grace, who is 4\1/2\, who are always very forgiving 
of my time.
    Here today also are my parents, Bob and Dina Anderson, who, 
Senator Levin, as you point out, drove from Michigan to support 
me today, and from whom I learned the importance of Government 
service.
    I am grateful to President Obama, Secretary Hagel, 
Secretary James, and Under Secretary Fanning for their support 
of my nomination.
    Although I have never experienced the gravity of signing on 
the dotted line, committing my very life if necessary to 
protect my country, I do know what it means to be a profoundly 
grateful citizen of the United States. Since my nomination, I 
have voraciously read the writings of Iraq and Afghanistan 
veterans, trying to put my feet in their boots, trying to see 
through their eyes and the eyes of their families.
    Thus, if confirmed, I would consider this role as an 
opportunity to serve those who serve, to serve my President, my 
country, and, most of all, the men and women of the U.S. Air 
Force. This nomination is also an opportunity for me to honor 
those in my family who have served in the military, my father, 
my father-in-law, and my late grandfather, a World War II vet 
who served in the Army with one of the Air Force's founding 
fathers, General Claire Chennault.
    I believe that many of the skills I have built in my 
private sector career transfer well to the job of Assistant 
Secretary of the Air Force for Installations, Environment, and 
Energy. Today's airmen depend on installations that operate 
effectively and efficiently, and I understand that the 
Secretary and the Chief have had to make hard choices in this 
tight fiscal environment to maximize mission effectiveness 
while making every dollar count.
    If confirmed, I understand that I would face multifaceted, 
difficult decisions with few clear-cut solutions. My time at 
America's largest company gives me proven experience in leading 
global teams to develop and execute winning strategies for 
facilities, environment, and energy.
    Coming from a company with over 11,000 facilities in over 
two dozen countries, I bring a history of successfully working 
with top leadership to balance competing priorities, manage 
limited resources, and drive mission-oriented solutions to 
complex problems.
    If confirmed, I pledge to make every dollar count in the 
Air Force's installation management portfolio, handle 
environmental issues with integrity and speed, and help drive 
energy efficiency improvements in DOD's largest energy bill.
    Thank you for your service and for considering my 
nomination, and I look forward to taking your questions.
    Chairman Levin. Thank you so much, Ms. Ballentine.
    Dr. Regalbuto?

 STATEMENT OF MONICA C. REGALBUTO TO BE ASSISTANT SECRETARY OF 
              ENERGY FOR ENVIRONMENTAL MANAGEMENT

    Dr. Regalbuto. Thank you, Chairman Levin, Ranking Member 
Inhofe, and members of the committee. I appreciate the 
opportunity to appear before you today as President Obama's 
nominee for Assistant Secretary for Environmental Management 
(EM) of the U.S. Department of Energy (DOE).
    I would like to begin my statement by expressing my 
gratitude to the President for his confidence demonstrated by 
this nomination. I am honored and humbled to be here. Should I 
be confirmed, I will do my best to meet that confidence.
    I would like to thank Secretary Moniz for his support and 
for his leadership of the Department of Energy.
    Professional achievement is seldom an individual effort. I 
have had the privilege of working with a multitude of talented 
people throughout my career as a chemical engineer. There are 
countless family members, friends, mentors, and colleagues who 
have done so much over the years to make this day possible.
    I want to especially thank and recognize my husband, John, 
for always being supportive and patient, and to my adult 
children, Ricky, Carol, and Robby, for their sense of humor as 
they grew up in a hybrid culture, hearing my daily use of 
science-based Spanglish.
    Lastly, I would not be here without the love and support of 
my parents, Horacio and Conchita, for instilling in me great 
values during my childhood, and for my parents-in-law, John and 
Carole, who I consider my second set of parents.
    Mr. Chairman, I began my studies in Mexico, where, through 
great economic sacrifice of my family, I attended private 
schools, which offered a better education. In high school, I 
discovered an interest and gift in math and science, and 
started college seeking a degree in chemical engineering and 
computer science at Monterrey State.
    At the time, there were very few women in engineering with 
limited job opportunities. This reality has heavily influenced 
me. As such, I have always supported and led efforts that 
substantially enhance employment opportunities for women and 
minorities.
    I met my husband, John, while I was a student and 
eventually married him and moved to the United States and 
proudly acquired my U.S. citizenship.
    After completing my Ph.D. at the University of Notre Dame, 
I joined Argonne National Laboratory in Chicago in 1988. I 
started my career supporting the development of technologies 
for the treatment of high-level waste at the Department of 
Energy plutonium production sites.
    After developing strong technical skills, I joined BP-Amoco 
in 1996, where I enhanced my skills in managing complex 
projects, large projects, and multidisciplinary staff in an 
industrial setting.
    I returned to Argonne in Chicago in 2001 and became the 
head of the process chemistry department where I worked on new 
technologies for the treatment of used nuclear fuel.
    In addition, I was a member of the fuel cycle study team of 
the Massachusetts Institute of Technology. My participation in 
this study not only allowed me to gain experience working with 
high-level officials and nongovernmental organizations but 
brought to my attention the need for safe, permanent disposal 
of all types of radioactive waste.
    In 2008, I had the unique opportunity to join the 
Department of Energy Office of Environmental Management, where 
I served as senior project manager supporting their strategic 
mission in the waste processing area.
    I also served as the Deputy Assistant Secretary for Fuel 
Cycle Technologies within the Office of Nuclear Energy. In this 
position, I was responsible for directing the research and 
development programs involving 10 national laboratories, 32 
universities, over 400 students, and 300 professors.
    The last few years have been an eventful period with 
respect to nuclear energy. I was directly involved in providing 
and coordinating emergency responses to the Fukushima Daiichi 
nuclear power plant disaster, focusing on opportunities to 
mitigate the highly contaminated water resulting from emergency 
cooling of the reactors damaged by the earthquake and 
subsequent tsunami.
    Over the past few decades, I have seen our various nuclear 
waste management programs from a variety of vantage points. As 
a scientist at Argonne, I have worked on and led efforts to 
identify technical solutions to difficult waste management 
issues. In my previous role, I had been responsible for 
formulating and articulating the strategic options to expedite 
the resolution of our waste management needs.
    I have also experienced the intricacy of nuclear waste 
management from a perspective of a waste generator and from a 
waste disposal specialist during my time at DOE.
    Mr. Chairman, the Manhattan Project was a critical 
component of our success in World War II and the Cold War. The 
communities and regions that were home to these sites have made 
sacrifices for our Nation, and their environmental remediation 
is both a legal and moral obligation.
    2014 marks the 25th anniversary of the EM program. During 
my time at Argonne and now at the Department of Energy, I have 
watched the environmental management mission complete 91 sites 
and have made significant progress in the remaining 16.
    But great challenges still remain, which require innovative 
strategies to clean up efforts while ensuring that work is 
completely done safely.
    I believe my background and experience and commitment have 
prepared me to lead the Office of Environmental Management 
during this particularly critical time. I welcome the 
opportunity to continue my service to the Nation as Assistant 
Secretary for Environmental Management.
    If confirmed, I pledge to work closely with this committee 
and others in Congress to continue and ensure that our safe 
cleanup of the environmental legacy remains a priority.
    Mr. Chairman, thank you again for the opportunity to appear 
before you and your committee today, and I look forward to 
answering your questions.
    Chairman Levin. Thank you, Dr. Regalbuto.
    I am going to ask all of you the standard questions and 
then turn it over to Senator Inhofe, who has to leave here for 
a few minutes for another commitment.
    These questions, you can all answer at the same time.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Dr. Regalbuto. Yes.
    Ms. Wada. Yes.
    Ms. Ballentine. Yes.
    Dr. Junor. Yes.
    Mr. Tanner. Yes.
    Chairman Levin. Have you assumed any duties, or undertaken 
any actions, which would appear to presume the outcome of the 
confirmation process?
    Dr. Regalbuto. No.
    Ms. Wada. No.
    Ms. Ballentine. No.
    Dr. Junor. No.
    Mr. Tanner. No.
    Chairman Levin. Would you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record, and hearings?
    Dr. Regalbuto. Yes.
    Ms. Wada. Yes.
    Ms. Ballentine. Yes.
    Dr. Junor. Yes.
    Mr. Tanner. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Dr. Regalbuto. Yes.
    Ms. Wada. Yes.
    Ms. Ballentine. Yes.
    Dr. Junor. Yes.
    Mr. Tanner. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Dr. Regalbuto. Yes.
    Ms. Wada. Yes.
    Ms. Ballentine. Yes.
    Dr. Junor. Yes.
    Mr. Tanner. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Dr. Regalbuto. Yes.
    Ms. Wada. Yes.
    Ms. Ballentine. Yes.
    Dr. Junor. Yes.
    Mr. Tanner. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with a committee regarding the basis for any good-
faith delay or denial in providing such documents?
    Dr. Regalbuto. Yes.
    Ms. Wada. Yes.
    Ms. Ballentine. Yes.
    Dr. Junor. Yes.
    Mr. Tanner. Yes.
    Chairman Levin. Thank you.
    Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    In looking at the five of you, I think the one that 
arguably would have the toughest job is you, Dr. Junor, because 
of the real problem, the key word there is readiness. There was 
an article that I read last night, I will quote from it. This 
was in Politico. It said: ``Authorizers and appropriators have 
so far mostly ignored the Defense Department's budget plans in 
favor of protecting big-ticket weapons programs, home district 
allocations, and troop pay benefits and personnel programs.''
    Then, on the other hand, we have heard from all of the 
Service Chiefs, all of them, in uniform plus the Secretaries, 
that we have a real dire situation. I will read you a quote 
from General Dempsey, who is the very top person. He says: 
``Our force is so degraded and so unready that it would be 
immoral to use force.''
    We are in a situation now that we have certainly never been 
in, as I said in part of my opening statement. We have a crisis 
on our hands.
    I would ask you, first of all, do you recognize the 
severity of our readiness shortfall at the present time, and do 
you have any thoughts about how you are going to address that, 
keeping in mind this is not your fault? You inherited this 
mess, but what are you going to do?
    Dr. Junor. Sir, I am very familiar with it. The conflicts 
that we have been in for more than a decade now have exhausted 
our capacity. We have so focused, and correctly so, on meeting 
the demands of Iraq and Afghanistan, we have very little 
residual capacity in full spectrum operations.
    This has been a concern. I have been in this position for 3 
years, and it has been my daily commitment to understand this 
problem better, to find out not just how it affects the unit, 
but the pipeline processes that generate that manpower.
    Senator Inhofe. I think that that is key there, because 
when you go over there, and you have gone over and everyone up 
here has gone over, those who are on the frontlines, they are 
ready. It is that pipeline that is important.
    Dr. Junor. That is exactly right. The readiness of the unit 
is, in effect, a lagging indicator. It is the readiness of the 
pipelines where the real problems lie.
    When I first started as a readiness analyst, it was in the 
1990s, and I watched how a problem would grow.
    For example, in the Navy, we had a problem with spare 
parts, and that spare parts created a bow wave that it took 
literally years to fix.
    Fast forward now, in my career, I have never seen so many 
simultaneous readiness problems.
    Senator Inhofe. Exactly.
    Dr. Junor. There are negative synergies, and I am at my 
wits end trying to figure out exactly how they will manifest.
    That said, the Department has put everything--we recognize 
where we need investments, and even with our PB15 submission, 
we tried to find and free up the resources to fix the most 
acute problems. That is going to be our plan going forward.
    Over the last almost 13 years now, our servicemembers and 
their families have borne the brunt of the cost of these wars, 
and they deserve as much as a grateful Nation can afford. But 
we have also promised that we would never again send our 
servicemembers into harm's way, and the current budget 
environment makes it really difficult to balance those two 
imperatives.
    Senator Inhofe. In fact, I would give another quote of the 
second man down, Admiral Winnefeld. He said there could be a 
time, for the first time in his career, of instances where we 
will be asked to respond to a crisis and we will have to say we 
cannot.
    I think that is the main thing, that you recognize that and 
you are, certainly, equipped to handle that, and I appreciate 
that very much.
    Dr. Junor. Thank you.
    Senator Inhofe. Ms. Wada, there has been a lot of 
discussion as to what we are doing with the Reserve component 
and changing around responsibilities between the regular 
Services and the Reserve component.
    Have you been following that, in our defense authorization 
bill and the discussion that has surrounded that issue?
    Ms. Wada. Yes, sir, I have.
    Senator Inhofe. Do you have any thoughts about it? Are we 
going the right direction, in terms of shifting some of the 
responsibilities in order to meet the crisis that Dr. Junor is 
talking about? Do you think that we are going in the right 
direction?
    Ms. Wada. In terms of----
    Senator Inhofe. In terms of shifting responsibilities to 
and from the Reserve component to the regular?
    Ms. Wada. Sure. Sir, the Secretary of the Army signed onto 
a total force policy. If confirmed, I would be responsible for 
implementing that policy.
    Senator Inhofe. Yes, okay.
    I notice, and I have addressed this to Ms. Ballentine and 
Dr. Regalbuto, in both of your titles, the word ``environment'' 
is there. I am not real sure how you divide that up? What areas 
of the environment do each of you have exclusive to the other?
    Dr. Regalbuto. I work for the Department of Energy, and the 
environmental component for DOE is exclusively for the cleanup 
of the legacy from the weapons production sites. It does not 
include environmental like the Environmental Protection Agency 
for other chemicals. It is exclusively for contaminated former 
weapons production sites.
    Senator Inhofe. Okay. Do you have any comment on that, Ms. 
Ballentine? I think I understand from her response what your 
duties would be.
    Ms. Ballentine. Yes, sir. My duties would be to oversee and 
create policy for all environmental laws for the Air Force.
    Senator Inhofe. Okay, that is fine.
    What I would ask of each of you is to be aware of the thing 
that we are talking about with Dr. Junor, the severity of the 
situation that we are in right now. While there is always a 
temptation to use our resources, our very limited resources, in 
the military for the environmental agenda, resist that 
temptation as much as you can, and we will be watching and hope 
we can help you out in that respect, okay?
    Ms. Ballentine. Thank you, sir.
    Dr. Regalbuto. We will. Thank you, sir.
    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Dr. Junor, you have discussed the readiness shortfalls and 
the need to make sure that whenever we send our men and women 
into harm's way, that they are fully ready even though we may 
have a smaller force, that we are never going to send our 
forces into action unless they are fully ready and equipped. 
Would you agree that should be our goal?
    Dr. Junor. Yes, sir.
    Chairman Levin. One of the ways in which the funding is 
being shifted around a little bit this year, in order to try to 
reduce the pressure on readiness and to try to restore some of 
the readiness and modernization shortfalls created by the 
Budget Control Act and sequestration, which Congress approved, 
one of the ways that we are looking to try to reduce the impact 
of sequestration--and I think it was a terrible way to budget 
and we ought to get rid of it. But in any event, one of the 
ways we are looking at to reduce the impact is to save about 
$31 billion in the budget request over the Future Years Defense 
Program (FYDP) in the area of personnel and health care costs. 
Are you familiar with that budget request?
    Dr. Junor. I am.
    Chairman Levin. Okay. If we delay enacting those proposals, 
it will cost the Department $10 billion over the FYDP, if we 
delay it by 1 year. A 2-year delay in agreeing to those 
requests will cost about $15 billion. That, of course, means it 
will be even harder to overcome some of the readiness and 
modernization shortfalls, which you have identified and Senator 
Inhofe has identified and I think all of us have identified.
    Would you agree that we have to slow the growth of 
personnel costs, if we are going to buy back readiness and 
modernization shortfalls?
    Dr. Junor. I do.
    Chairman Levin. Okay. Our authorization bill slows some of 
those costs, not all of them, as requested, but at least we did 
some of them. We made an effort. I think we made some progress.
    Now, in terms of sequestration, what would be the impact on 
the Department's ability to meet the national defense and 
strategic objectives if sequestration occurs again in fiscal 
year 2016?
    Dr. Junor. It is my understanding that we could not meet 
the defense strategy.
    Chairman Levin. Ms. Ballentine, you, for the last 5 years, 
served as Director of Sustainability, Renewable Energy, and 
Sustainable Facilities at Wal-Mart. Can you tell us what your 
experience is as to whether or not there are circumstances 
which make it very economically sensible for us to invest in 
energy conservation and alternative energy sources, and how 
those views are informed by your experience in the private 
sector?
    Ms. Ballentine. Thank you, sir.
    First of all, I would like to say that, if confirmed, I 
want to give my assurance to this committee that I would make 
every taxpayer dollar count in our installation management.
    I do currently work for one of, if not the largest private 
energy consumer in the United States, and we have developed a 
strategy that emphasizes saving money in the energy portfolio 
as a way to contribute to our underlying mission of saving 
people money so they can live better.
    There are really multiple elements to that. Energy 
conservation and energy efficiency, making every BTU [British 
Thermal Unit] count toward the mission, is job number one.
    Renewable energy, we have found at Wal-Mart, can be a 
reliable, viable, and affordable piece of a broader energy 
puzzle.
    I will tell you that Wal-Mart has more solar rooftops than 
any other company in this country, and every single one of 
those projects meets or beats brown power prices over the 
course of the contract.
    Renewable energy does not work everywhere. It is really a 
piece of a broader puzzle.
    Chairman Levin. Thank you.
    Ms. Wada, I think we all deeply believe that servicemembers 
who are wounded or injured in combat operations deserve the 
highest priority from the Army and the Federal Government for 
support services; for healing and recuperation; rehabilitation; 
evaluation for return to duty; successful transition from 
Active Duty; if required, continuing support beyond retirement 
or discharge.
    Now, despite the enactment of legislation, our Wounded 
Warriors legislation, and renewed emphasis over the past 
several years, there are a lot of challenges that remain.
    First of all, I want to commend the Army for proactively 
providing the Department of Veterans Affairs (VA) with 
additional staff to help the VA process servicemembers through 
its portion of the integrated disability evaluation system more 
quickly.
    Would you anticipate, if confirmed, continuing such 
collaboration?
    Ms. Wada. Sir, yes. If confirmed, I will work with the 
Department of Veterans Affairs and the Secretary of the Army.
    Chairman Levin. In the National Defense Authorization Act 
(NDAA) for Fiscal Year 2008, so that is 6 years ago now, 
Congress required the Department of Defense to utilize the VA 
schedule for rating disabilities. Do you know whether the Army 
is complying with that requirement?
    Ms. Wada. Sir, I believe that the Army is complying with 
that requirement, but if confirmed, I will confirm that and 
respond back to the committee.
    Chairman Levin. Thank you.
    Let me ask now both Mr. Tanner and you, Ms. Wada, about the 
pilot program that the Air Force initiated to provide victims 
of sexual assault with their own attorney and to represent them 
during the investigation and prosecution of perpetrators.
    This program has now been implemented by all the Military 
Services.
    First, Mr. Tanner, you have been working on sexual assault 
prevention and response issues in the Air Force for several 
years. Were you involved in the development of the Air Force's 
pilot program to provide the special victim's counsel to 
victims of sexual assault?
    Mr. Tanner. Yes, sir. If confirmed, I would look forward to 
continuing to assist the Air Force and advise the Air Force in 
the further development of its sexual assault program.
    Chairman Levin. What is your assessment of that particular 
Special Victims' Counsel Program?
    Mr. Tanner. My assessment is that it is a very successful 
program for several reasons, not the least of which is that it 
provides an arm for the commander to care for victims who may 
be in that commander's unit.
    It is the role of the commander to not only hold certain 
members accountable for sexual assault, but also to care for 
victims of sexual assault within that commander's unit.
    I believe a special victim's counsel not only provides a 
meaningful way for victims to be assisted throughout this 
process, but also healthy feedback to commanders of ways that 
the commander can improve the climate and the service to its 
members.
    Chairman Levin. Ms. Wada, do you have a different view of 
it all, or do you agree with what Mr. Tanner said?
    Ms. Wada. Sir, I understand that the Army has implemented 
the special victim counsel, according to the law. At this 
point, that is the extent of my knowledge as to the success.
    Chairman Levin. All right. Will you find out for us and let 
us know?
    Ms. Wada. Certainly, sir.
    [The information referred to follows:]

    Based upon information provided to me by the Army, the Special 
Victim Counsel (SVC) Program appears to be successful and well-received 
in providing legal representation to victims of sexual assault. The 
Army's SVC program has resulted in SVCs serving worldwide, including 
the U.S. Central Command's area of responsibility. These services are 
available to all victims, regardless of whether they file a restricted 
or unrestricted report. I have been informed that the feedback from 
victims and commanders is that this program is valuable in helping 
victims make informed decisions as they navigate the administrative, 
medical, and justice systems within the Army.

    Chairman Levin. Thank you very much.
    I am going to act as though I came first. I am going to 
call on another Democrat, who is next, so it will be Senator 
Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Ms. Ballentine, energy security in the Department of 
Defense and the Air Force are vitally important for our future. 
As we all know, DOD is the biggest user of energy of all of the 
departments.
    As Assistant Secretary in this area, what initiatives will 
you pursue to continue sound energy conservation practices and 
ensure energy security for the future in the Air Force?
    Ms. Ballentine. I understand that the Air Force has the 
largest energy bill within the Department of Defense, and that 
the Department of Defense has the largest energy bill within 
the U.S. Government.
    Likewise, I happen to come from one of the largest private 
energy consumers. I think that putting mission first, there are 
really three areas to develop a comprehensive energy strategy 
that can drive down costs in our operations, as well as build 
some resilience.
    First, fuel efficiency, making every BTU count. If we can 
accomplish a cargo mission in one sortie instead of two, that 
is a mission win.
    Second and third kind of go together, fuel flexibility and 
fuel supply assurance. Having airplane engines that can fuel up 
on all different types of fuels anywhere in the world where 
they happen to be, and with any type of fuel that is available 
to them builds fuel flexibility.
    Assurance of supply in the case of supply disruptions is 
also an important element of a comprehensive energy strategy, 
and something that we think about quite a lot in the private 
sector as well.
    If confirmed in this position, one of my first orders of 
business would be to look across the portfolio of activities 
that have already been undertaken both within the Air Force and 
across the other branches, and accelerate those projects that 
are winning already today, saving us money and contributing to 
efficiency, flexibility, and supply assuredness.
    Senator Hirono. I am particularly intrigued by your fuel 
flexibility focus. Is the Air Force doing research and 
development (R&D) on alternative, sustainable kinds of fuels?
    Ms. Ballentine. I am not currently familiar with the 
details of the R&D portfolio. If confirmed, it is something 
that I would look into.
    I do understand that the engines are currently certified to 
fly on a number of different fuels.
    Senator Hirono. I think that is very important.
    For Mr. Tanner, Chairman Levin asked you about your sexual 
assault prevention and response program, which I believe you 
said is working well. We want to make sure that the Department 
of Defense takes very seriously the changes that were in NDAA 
that addresses the issue of sexual assault.
    Could you tell us where DOD is with regard to 
implementation of the changes that were made in NDAA on this 
issue?
    Mr. Tanner. Senator, if confirmed, as the Air Force General 
Counsel, I would look forward to guiding the Air Force in its 
implementation of those changes. My sense is that the Air Force 
has made huge progress in its sexual assault program, but there 
is more to do, including changes in the NDAA.
    I would look forward to working with the sexual assault 
prevention response team that has now been elevated to a direct 
report to the Vice Chief of Staff, so that it gains direct 
senior leadership interest in working with that team to 
implement those changes.
    Senator Hirono. I should have asked that broader question 
to Dr. Junor. What would be your priority in implementing the 
changes that we made in NDAA sexual assault treatment?
    Dr. Junor. Yes, Senator. Our number one focus is on victim 
support, and so making sure that we have enacted and are 
successful in providing victim support and analyzing case data, 
for example, to see if our programs we have implemented are 
working the way they are supposed to.
    I am also greatly interested in prevention, making sure 
that we know what the current climate is and that it is a 
climate of dignity and respect, and a climate where sexual 
harassment and sexual assault are unlikely to happen in the 
first place.
    Finally, I'll be looking for ways to hold both commanders 
and perpetrators accountable for these incidents.
    Senator Hirono. I think the prevention aspect is one where 
I would really like to see more specific kinds of programs, 
because we know the alcohol is very much involved in these 
assaults. The prevention part of it, the command climate is 
very critical, so I will be probably following up with you on 
how that is going.
    Ms. Wada, aloha.
    That gives you an indication she is from Hawaii. 
[Laughter.]
    With the Army facing significant end strength reductions 
from 520,000 to 490,000, drawdowns over the next several years, 
what are the most significant challenges as the Army reduces 
its total force? How will this impact future Army recruiting 
and retention?
    Ms. Wada. If confirmed, I would work with the Secretary of 
Army to look at the balance between the reduction in force of 
the total force between the Active, National Guard, and 
Reserve.
    At this time, there is a total force policy that the 
Secretary has laid out, and I think, though, that it would have 
to be addressed further since sequestration still exists.
    Senator Hirono. I have a question for Dr. Junor. At one 
point, the Departments of Defense and Veterans Affairs spent $1 
billion, basically, to have the DOD and VA medical records be 
much more compatible if not the same kind of system.
    Where are we with that? The whole point of that is to make 
sure that, as the Active Duty person transitions to veteran 
status, that this information goes with him or her. With all of 
the emphasis on health care in the VA system, where are we with 
making those records compatible?
    Dr. Junor. I believe that electronic health records is 
under the purview of the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, at this point. I don't 
have the details, but I do understand that that is still in 
development.
    The larger issue, even with the Integrated Disability 
Evaluation System (IDES) and with the service treatment records 
for folks who have already left and claimed disabilities, there 
is a larger issue of information-sharing between DOD, even 
within the Services within DOD, and then from DOD to VA. There 
is still a lot of work to be done there.
    Improvements have been made. The IDES timeline is shorter 
than it was. It was about 1\1/2\ years and now it is down to 
just a little over a year, which is still too long.
    But there is a lot of work to do. This is something that, 
if confirmed, I would consider a priority.
    Senator Hirono. Thank you.
    My time is up.
    Chairman Levin. Thank you very much, Senator Hirono.
    Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman. I appreciate 
this opportunity.
    Thank all of you for being willing to serve. You are going 
to be taking office in a time of great national importance, and 
in a time when our budget is very tight. We don't have the 
money we have had. We are running unacceptable debts.
    Interest on the debt last year was $220 billion. That is 
almost half the defense budget.
    But in just a few years, we are projected, I think by 2019, 
to have interest on the debt that passes the entire Defense 
Department budget, and the Congressional Budget Office says 
that it will reach $876 billion in 1 year, interest, in 10 
years from today.
    I would just say that we are very anxious and concerned 
about your difficulties in trying to help the Defense 
Department manage effectively. But every department and agency 
will have to tighten its belt.
    In my opinion, the Defense Department, to date, has 
undertaken more cuts than any other department in Government.
    My question, first, would be to all of you. Do you 
understand the financial challenge we face? Will you do your 
best in managing your department to produce the needed 
capabilities for the Defense Department, while reducing costs, 
wherever possible?
    Dr. Junor. Yes, sir.
    Ms. Wada. Yes, sir.
    Ms. Ballentine. Yes, sir.
    Mr. Tanner. Yes, sir.
    Dr. Regalbuto. Yes, sir.
    Senator Sessions. Thank you.
    Ms. Ballentine, did you say ``yes''?
    Ms. Ballentine. Yes, sir.
    Senator Sessions. Good. You are running a private business. 
I know you know there are limits to what you can spend.
    Let me just say, Mr. Chairman, how much I respect Gordon 
Tanner's legal ability and skill. He has the background that we 
need for this office.
    I have known him as a private practitioner in Mobile. I 
know his family. He has been in Washington for a number of 
years now. He is the former Principal Deputy Assistant 
Secretary of the Air Force for Manpower and Reserve Affairs. 
From 2012 to 2013, he was the Principal Deputy General Counsel 
of the Air Force and served in a variety of positions before 
that. He retired in March and then has been called back now 
after 27 years of service. He had many years in Air Force 
Reserve.
    He came from an excellent law firm. Got his undergraduate 
degree at Alabama and his law degree at Vanderbilt.
    Mrs. Tanner, his mother, is here. We lost his father, Mr. 
Cecil Tanner, a great American, last fall.
    Mrs. Tanner, it is so great to see you.
    Among other good qualities they have, they were wonderful 
Methodists, I have to say.
    Mr. Chairman, I think that is the kind of background you 
look for in a position as important as General Counsel for the 
Air Force.
    I have to get to the floor. I thank you all for your 
willingness to serve, and we are all going to be watching our 
dollars, aren't we?
    Thank you so much.
    Chairman Levin. Thank you very much, Senator Sessions.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you to all the witnesses for your service.
    Dr. Junor, I have some questions for you about personnel 
matters. One of my highest priorities as a member of the Armed 
Services Committee is working with my colleagues and folks at 
the Pentagon to try to tackle the veterans' unemployment rate.
    Some work on that is done in the Veterans' Committee, but I 
tend to believe that a lot of the way we tackle veterans' 
unemployment is by what happens when folks are in Active 
service. In particular, I focused on issues surrounding 
credentialing of our military members for the skills they 
attain at the moment they attain them, on the theory that, in a 
Nation where only 1 percent of the people serve in the 
military, if you go into a hiring hall and say I was a gunnery 
sergeant in the Marine Corps, or petty officer, people will 
thank you for your service, but they won't necessarily know 
what skills and talents you bring to the table.
    But if you can get a commercial driver's license or 
physician's assistant degree or a welding certificate, if you 
have an ordnance specialty, that can help you immediately get 
traction in the civilian workforce.
    I want to ask you a little bit about that, because there is 
a lot of effort underway to make that happen, but there are 
some concerns that I have.
    In your advance policy questions, you mentioned that 
tuition assistance, the current military tuition assistance 
program, can be used to pay for academic coursework that 
supports earning a credential or licensure when part of an 
improved academic degree plan.
    My understanding is that tuition assistance benefit is up 
to about $4,500 per fiscal year, if approved. Am I right about 
that?
    Dr. Junor. I am actually not sure, but I can find out for 
the record for you.
    [The information referred to follows:]

    Tuition assistance is $4,500 per fiscal year.

    Senator Kaine. I think that is more or less the case.
    But one of the things I have discovered in looking at this 
is this issue that you can only access the tuition assistance 
if it is part of approved academic degree plan.
    Let me give you an example. At Fort Lee in Virginia, we 
train all these logistics specialists, in the ordnance school 
that is there. Ordnance school personnel in the Army take 
machining and ironworking and welding training.
    It takes $300 to pass the American Welding Society welding 
certificate exam. That is not an improved academic degree, but 
it is an accepted credential at any employer in the United 
States and with some international employers, as well.
    Currently, under the military tuition assistance program, 
you can use $4,500, I believe that number is correct, to take 
coursework at a community college or college, but you can't use 
$300 to get a Welding Society certification that will enable 
you to get a job and probably earn more money than just about 
anything you could get with a degree from a community college.
    One of the things I really want to work with you all on is 
the notion that certifications, technical certifications, they 
are not all part of academic degree programs.
    Probably the best educational program, in my view, for the 
money in the United States is the shipbuilding apprenticeship 
program at the Newport News shipyard. These guys build nuclear 
subs and aircraft carriers. There is a 4-year program, which is 
2 years in class and 2 years on the line, where you end up with 
a certificate, but no academic degree. But you can earn a great 
living for the rest of your life. There is a 5-year program 
where you get a community college degree, too.
    But you couldn't use military tuition assistance benefits 
for the 4-year program, even though it is the kind of program 
that will help somebody get a job.
    Can I work with you on this, to try to make sure, because 
it is not just within the Pentagon, but more generally, we give 
second-class status to career and technical education in this 
country, and we have done it for very long time.
    I see it in the K-12 world, and I see it in the higher ed 
world. But I am also seeing it within DOD. I would like to work 
with you to try to erase any second-class stigma around career 
and technical education.
    The certification has to be a validated one. We don't want 
to give tuition assistance benefits for certifications that 
don't mean anything. But for things like Culinary Institute of 
America, most of the folks who train at Fort Lee as chefs and 
cooks are now getting training that they can convert into a 
Culinary Institute of America certification. That is not an 
approved academic degree program, but I can assure you, with 
that certificate, you can get a job just about anywhere.
    I would love to work with you on that initiative in your 
new position.
    Dr. Junor. Sir, I would be honored to. Like you, I 
absolutely value tradecraft, and there are so many empty jobs 
in this country for tradesmen that we cannot fill and this 
would be an excellent opportunity for many of our 
servicemembers. I would absolutely love to work with you on 
this.
    Senator Kaine. Great. This affects veterans' benefits as 
well. The G.I. Bill, you can use them for colleges. If you 
wanted to take a code academic course and learn to be a 
computer coder, you can't use the benefits for that.
    Again, I think we have to break down some old notions about 
what is a valid kind of credential.
    The mission should be, if it helps you get a meaningful job 
faster, and it is validated, then it ought to be accessible to 
military members who want to choose it. I look forward to 
working with you on that.
    I want to ask you a question, Mr. Tanner, about the special 
victims' counsel pilot project within the Air Force that is now 
being used more broadly as a result of the NDAA reforms that we 
have done.
    In particular, I am curious about your experience about the 
interaction of the Special Victims' Counsel Program with the 
creation, with the support of Congress, of the restricted 
report that can be filed. Generally, someone complaining about 
crime within a military context files a complaint and it is a 
unrestricted complaint, and that enables an investigation to go 
forward and a perpetrator to be punished.
    Because of the unique nature of crimes of sexual violence 
or sexual assault, we created a restricted report where 
somebody can seek help and get assistance they need, without 
necessarily saying they want the investigation to go forward.
    I understood from some testimony earlier from folks 
associated with the Air Force that, at least preliminarily, 
there is some evidence that if somebody gets a special victims' 
counsel who can walk them through the process and explain their 
rights and explain what is going to happen, it actually leads 
many who file restricted complaints to decide ``Okay, I am now 
comfortable enough with the process, and I know that I am 
protected from retaliation, that I am able to move from a 
restricted into an unrestricted complaint,'' which is better in 
terms of being able to go after a perpetrator, and hopefully 
stop that individual from perpetrating assaults on others.
    This is a number of months ago that there was that 
discussion. Am I generally right about that? What are you 
seeing about the restricted/unrestricted complaint filings? Is 
the special victims' counsel assistance making a different in 
that?
    Mr. Tanner. Yes, sir. Your recollection is correct.
    I believe there are two factors that are affecting an 
increase in reporting, overall.
    The Air Force in fiscal year 2013 reported a 33 percent 
increase in total reporting, in restricted and unrestricted. 
The Air Force, I understand, believes that that is due to two 
things. First is the Special Victims' Counsel Program, which 
was implemented at that time, which created greater confidence 
on the part of the victim in the process and protections within 
the system. Second, I believe the Air Force is committed to 
enhanced training of all of its members, including its most 
senior commanders.
    The fact that more people understand the program and the 
Air Force's commitment to solving this problem, I believe that 
has created a climate in which reporting has been increased. 
Again, in fiscal year 2013, not only did we see a 33 percent 
increase in overall reporting, but we saw a 41 percent increase 
in unrestricted reporting.
    To your point, some of that was due to those who had 
previously filed restricted reports and converted those to 
unrestricted, which enabled us to then pursue those parties 
that may be accountable for that. But it is also due to 
increased training.
    Senator Kaine. Great. Thank you very much.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Kaine.
    Senator Ayotte?
    Senator Ayotte. Thank you, Mr. Chairman.
    Let me just say that I fully agree with Senator Kaine about 
this technical careers issue in terms of the trades, because we 
see it in New Hampshire. There are a lot of jobs that are open, 
and it makes sense that our veterans can have the opportunity 
to get this training in our military, because we have such a 
need in our workforce for this, and there are very good paying 
jobs. I want to thank you for raising that issue, and I hope 
that we do change that, so that we can really give veterans the 
opportunity that really fits our workforce as well. It is 
fantastic. Thank you.
    Mr. Tanner, I wanted to ask you, in the position as General 
Counsel to the Air Force, obviously, your primary 
responsibility is to advise the Air Force and to comply with 
the laws that Congress puts together.
    You would agree, correct?
    Mr. Tanner. Yes, that is correct.
    Senator Ayotte. There is a law that was passed in the 2014 
defense authorization that said that the Department of Defense 
may not retire, prepare to retire, or place in storage A-10 
aircraft before December 31, 2014.
    Are you familiar with the provision?
    Mr. Tanner. I was not in the General Counsel's office at 
the time of that enactment. I am generally familiar with it, 
but have given no advice, nor have I studied that provision.
    Senator Ayotte. If you are confirmed to this position, you 
will have to give advice to comply with all of our laws. This 
law says that the Department of Defense can't retire, prepare 
to retire, or place in storage, A-10 aircraft, not just by the 
end of the fiscal year, but by the end of the actual calendar 
year.
    In fact, myself and Senator Chambliss have written 
Secretary James twice, because we keep receiving numerous 
reports of efforts by the Air Force to actually make steps to 
retire, prepare to retire, or place in storage, in our view, 
the A-10 aircraft before Congress has made its decision on what 
it will do with the A-10.
    It is probably no secret, I am a strong supporter of the A-
10. I believe it is the best close air support platform. But 
this is a debate that has been happening in Congress.
    We have written Secretary James on January 24 of this year, 
on April 4 of this year, on a variety of issues that have been 
brought to our attention, that we believed were in violation of 
the law.
    Secretary James has written back to us, and I appreciate 
that. In one instance, at least, she has said, in responding to 
our concerns, that she would not implement some of the changes 
that were being made through the budget year.
    But as the new potential General Counsel, I would ask you 
to really look at the fact that the law doesn't just say that. 
It says through the calendar year.
    Now if Congress acts differently, then obviously you will 
take that into account. But will you commit to me to carefully 
review that law and to follow it?
    Mr. Tanner. Yes, ma'am. As General Counsel, it is my job to 
ensure that the Air Force fully complies with the plain meaning 
of the laws and regulations by which it is bound, and to advise 
its senior leadership on what compliance with those laws really 
means.
    Senator Ayotte. Thank you. I appreciate it, because I can 
assure you, we will be watching.
    I wanted to also ask you about the special victims' 
counsel. We have now extended that throughout all the Service 
branches. You said that you have had a good experience in the 
Air Force, which is really what led our committee to extend the 
special victims' counsel. I was honored to work on that with 
Senator Murray, as well, across the branches.
    Have you had contact with your other counterparts in the 
other branches? Because it is my sense that they are going to 
be coming to the Air Force for advice on how to properly 
implement this provision. Can you give us some insight on that?
    Mr. Tanner. I have not had any contact with my counterparts 
in the other Services, as I had retired in early spring. But, 
if confirmed for the position of General Counsel of Air Force, 
I would look forward to working with my colleagues in the other 
Services and share with them the lessons learned from the 
successful implementation of the Special Victims' Counsel 
Program in the Air Force.
    Senator Ayotte. That would be great. I think it would be 
important because, really, the Air Force has been the leader on 
this issue. Now we are going to be applying this program across 
the branches, so your advice will be needed to help the other 
branches on this, to make sure that every victim of sexual 
assault has their own counsel and has that advocate within the 
system to ensure that their rights are protected within the 
system, so it is important.
    Mr. Tanner. If I am confirmed, I will look forward to doing 
that.
    Senator Ayotte. Thank you.
    Now, I just wanted to say, finally, Ms. Ballentine, as you 
may be aware, Pease Air National Guard Base was selected to be 
the first Air National Guard base to receive the new KC-46A. We 
are very proud of that.
    It is pending a successful outcome of the environmental 
impact study. We had Secretary James up to visit the 157th Air 
Refueling Wing in May and to show her what we are doing at 
Pease.
    The Air Force issued the environmental impact study for the 
second main operation of the KC-46 beddown this month. There 
weren't any significant issues identified.
    I just want to say to you, if confirmed, I look forward to 
working with you to base the KC-46A, the beddown, as the first 
Air National Guard unit in the country at Pease.
    We look forward to working with you, because I think that 
the new tanker is one of the success stories we have of how 
important it is to replace our Eisenhower-era tankers for the 
country.
    Our refueling capability really distinguishes us from other 
military and air forces. A lot of things distinguish us in 
terms of our Air Force compared to the world, but our refueling 
capability in the conflicts that we have been involved in has 
really stood out. I look forward to working with you on that.
    Ms. Ballentine. Thank you, Senator. If confirmed, I would 
look forward to working with you as well.
    Senator Ayotte. Thank you all. I appreciate it.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Thanks to all of you for stepping up and serving our 
country. It is very important to all of us.
    Dr. Junor, the most recent Department of Defense suicide 
report found we lost 522 servicemembers to suicide in 2012. You 
have noted that the average Active Duty servicemember gets to 
see a mental health professional about once a year.
    I introduced legislation earlier this year that ensures 
that this average becomes a minimum, not only for Active Duty, 
but for Guard and Reserve.
    I was wondering what your plans are for easing access to 
quality care for members of the Guard and Reserve?
    Dr. Junor. Sir, this is a huge priority. The Guard and 
Reserve suicide continues to be a problem. Even last year, when 
our numbers were slightly better, we still had a downward turn 
in Guard and Reserve.
    The peer support, the homegrown, the State-based peer 
support initiatives, are some that have been very helpful, 
especially in the sense that it is a brotherhood. It is 
somebody who knows your problem, and so it helps reduce the 
stigma.
    The stigma reduction is another big issue that we are 
having to face.
    Then when it comes to just access to care, I think the 
Department has increased the number of behavioral health 
providers, but I am still concerned about whether it is enough.
    These are all issues I would like to address, if confirmed.
    Senator Donnelly. The other question I wanted to ask you is 
how can we increase the role of frontline supervisors, more 
peer-to-peer information?
    As we discussed before, I had met with the Israeli defense 
forces, and they said one of the keys is a bottom-up approach, 
where more of the squad leaders, platoon leaders, get to see 
that.
    I was wondering about your ideas on the kind of plans we 
can use to have more frontline supervisors' help in this 
process.
    Dr. Junor. One of our initiatives is going to have to be, 
and I think we are moving in this direction, is going to have 
to be ensuring that frontline leaders recognize what signs of 
stress are and cultivate a climate that will encourage help-
seeking behavior.
    There are probably 180 or so programs, DOD-wide. A fair 
amount of them are trying to provide this type of training.
    Senator Donnelly. One part of the legislation is that we 
try to figure out what are the best practices of all of those, 
and that we hone in on those, as opposed to just running on 180 
willy-nilly.
    Dr. Junor. They were all born for the right reasons.
    Senator Donnelly. Exactly.
    Dr. Junor. But you are right. We have to figure out what is 
working, what is not, and hone in on them.
    You are very right, going back to that garrison mindset 
that we had before these complex conflicts, where commanders 
knew the folks under their command, almost like a family 
relationship, and so they knew signs of stress early on and 
were able to encourage that help-seeking behavior. I think that 
is what we are all looking to go back to.
    Times have changed. The millennials are different. But I 
think we are moving in that direction.
    Senator Donnelly. Thank you.
    Ms. Wada, thank you for being here. I was fortunate enough 
to serve with Ms. Wada over at the House. We worked together, 
traveled overseas to see our troops together. I want to thank 
you for your efforts here.
    Having that background, how critical do you think it is to 
ensure transparency and timeliness in your dealings with this 
committee and with Congress? Can we count on you to do that?
    Ms. Wada. Sir, you certainly can.
    Senator Donnelly. Okay. Additionally, one of the things 
that we have been blessed with is having military fellows in 
our office. This year we have an Army fellow who is a 
noncomissioned officer. In a town where there are so many 
officers, it is a refreshing perspective to have.
    We were wondering about the Army's commitment to trying to 
have a real diverse group of people be part of the fellows 
program.
    Ms. Wada. Sir, if confirmed, I understand that the Army has 
initiated a diverse fellowship program, and I would assume that 
it would continue.
    Senator Donnelly. Okay.
    One other question for you, and that is, how do we maintain 
a high level of readiness in the Guard as we go through 
decreasing budgets, decreasing deployments? You have this 
balancing act, and how do we keep our Guard sharp and ready at 
the same time that we balance the needs of the Army?
    Ms. Wada. Sir, at this point, I am not sure that I could 
answer that question specifically. If confirmed, I think I 
would say that I would work with the Secretary, obviously, the 
Secretary of Defense, and Congress to make sure we have a 
balanced approach to our Armed Forces, to make sure it is a 
comprehensive total force.
    Senator Donnelly. I think you are going to see in this 
position that that is one of the things you will be spending an 
amazing amount of time on, trying to get that right, and trying 
to make sure that we take a forward look at what we are going 
to need, how we are going to implement, how do we use our Guard 
and Reserves after these many, many years.
    We have great confidence in your ability to do that, but I 
think that is going to be a big portion of your time.
    Mr. Tanner, I wanted to ask you about privacy protection 
for servicemembers seeking mental health support.
    One of the concerns that servicemembers have had over the 
years is, if they go seek to talk to somebody, feel like they 
are having some personal challenges, there has been a real 
hesitancy to do that, thinking, ``I might not be able to get to 
the next step in the rung on promotion. People may look at me a 
little different.''
    You have a unique position that can have an effect on this, 
so I was wondering your views on how we maintain the privacy 
protection of our servicemembers while still making sure that 
they are willing to talk to us to seek help.
    Mr. Tanner. The Air Force encourages its members who are 
dealing with tough issues, whether they are mental health 
issues or other related issues, to seek counsel and advice from 
peers, from trained professionals, from its leaders.
    If confirmed, I would work very hard with the Air Force 
leadership to ensure that not only are all current laws fully 
enforced, and that there be training on those laws about 
privacy protections for members and, in some instances, their 
dependents, but to enhance those to encourage that full and 
free flow of information.
    Senator Donnelly. The last thing we want to see is somebody 
who is struggling be hesitant to seek help, because they are 
worried about, ``Will people start to look at me sideways 
because of this?''
    My feeling is, if they are struggling and they go seek 
help, that is a positive thing, as opposed to any type of black 
mark on their career.
    Mr. Tanner. Yes, sir. If confirmed, I would look forward to 
working with you and this committee, if changes were necessary 
to the present law to increase the opportunity for that 
engagement.
    Senator Donnelly. Great.
    In conclusion, I want to thank all of you again for 
stepping up to serve your country.
    To all the families, thank you for your family's 
sacrifices. This is very, very important work you are going to 
be doing.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Donnelly.
    We are all set?
    Okay, we thank you all for your testimony, for your 
willingness to serve, for your patriotism, for your family's 
support. We thank them, including some children who were 
attempting very hard to look interested. [Laughter.]
    Chairman Levin. It is really important, and I hope the kids 
understand how important it is that they be here, and how 
grateful their mom is for their being here today.
    Now if they are here instead of school, then maybe I will 
be less flattering. But my hunch is they are done with school 
for the year, is that correct?
    Senator Donnelly. Mr. Chairman, do you have authority to 
write a note, just in case? [Laughter.]
    Chairman Levin. I think you just gave me authority to write 
a note, just in case. I don't know if I have it, but I do now.
    Thank you all, and we will stand adjourned.
    [Whereupon, at 10:51 a.m., the committee adjourned.]

    [Prepared questions submitted to Dr. Laura J. Junor by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I do not see the need for any modifications. I believe that 
the Goldwater-Nichols Act has significantly contributed to the strong 
framework for today's joint warfighting capabilities. It has 
considerably improved interservice and joint relationships, promoting 
greater effectiveness of the military departments and combatant 
commands.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Currently I am unaware of any areas where modifications are 
needed. If I am confirmed, I will continue to assess any further need 
to legislative modifications.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. For the last 3 years I have served as the Deputy Assistant 
Secretary of Defense for Readiness. In this capacity, my primary 
responsibility is to ensure that our military is effectively manned, 
trained, and equipped to safely and effectively perform its assigned 
missions.
    I've spent the last 20 years of my career specifically focused on 
understanding and managing military readiness. I've been part of the 
build-up of conflicts in two theaters, and the drawdowns of both. In 
addition, I gathered experience understanding some of the issues facing 
the Reserve component. I spent several years after Hurricane Katrina 
supporting the Department of Homeland Security, the National Guard 
Bureau, and the National Guards of several States understanding and 
effectively articulating the Nation's preparedness for responding to a 
homeland crisis.
    I also understand, and have seen empirically that there is no 
greater readiness determinant than the quality of our force. 
Effectively recruiting and retaining a superior military and civilian 
workforce is our single most effective hedge against a host of negative 
factors. In that sense, the opportunity to more directly influence the 
policies supporting these men and women will be a natural extension of 
my efforts to create a ready and resilient force.
    I began my career in readiness as an analyst at the Center for 
Naval Analyses in 1994 and have also served previously as a readiness 
analyst in the Office of the Secretary of Defense (OSD). I am an 
economist both by training and practice and favor an analytic approach 
to most problems. This perspective serves me well in providing 
defendable and reproducible means for solving even the most complex 
problems. My work has directly influenced policy on a range of topics 
including spares and maintenance, aviation training, contingency 
sourcing, recruiting and retention, and response options for domestic 
emergencies.
    I was born a military dependent and married a naval officer. In 
that sense I am familiar with the scope of issues facing military 
families, and am sensitive to the unique circumstances, challenges, and 
sacrifices made as part of the commitment to service to our Nation.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Principal Deputy Under Secretary of Defense for Personnel and 
Readiness (USD(P&R)?
    Answer. The Office of the USD(P&R) oversees one of the most complex 
and diverse portfolios in the Department. We are responsible for 
servicemember support from recruiting, educating, health care, 
transitioning, and retirement. During this Service lifecycle, we 
educate military children and care for families through child care, 
healthcare, on-base schools, commissaries, and morale, welfare and 
recreation services. Each of these areas will be affected by budget 
choices and will subsequently affect the lives of our servicemembers.
    The Department is facing a host of challenges, but no matter is 
more urgent than resolving the critical issues of sexual assault, 
suicide prevention, and the treatment of the spectrum of mental/
behavioral health disorders--especially those that are a product of the 
wars we've been in for the last 13 years. These issues not only matter 
on moral and compassionate grounds, but they threaten our ability to 
generate resilient, cohesive, and predictably ready units.
    The Department must also prepare for the likelihood of a more 
competitive labor market not just in highly technical fields like space 
and cyber, but also in high-demand fields like special operations, 
aviation, and the range of health services. In doing so, we must 
continue to evolve how we manage, compensate, and support our workforce 
so that we can attract, recruit, and retain an exceptionally qualified 
force.
    The Department is also in the midst of a profound transition from 
the longest war in our Nation's history. For the last decade, the vast 
majority of our force generation capabilities have been uniquely 
focused on meeting the intense demand for counterinsurgency and 
irregular warfare missions, and for that mission, we have been 
exceptionally prepared. The cost of this sustainment, however, has been 
our ability to maintain the full-spectrum capabilities required for a 
high-end conflict. It will take considerable time and focused 
investment to regrow these capabilities. This is challenging under any 
circumstance, but it is especially difficult in a fiscally austere 
environment. The competition for resources should not degrade our 
ability to respond to conflicts that threaten the safety of our Nation 
and those who took an oath to defend it.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. Acting Under Secretary Wright, Secretary Hagel, and Deputy 
Secretary Work have clearly said that addressing the challenges 
identified above are among their highest priorities. If confirmed, I 
will support those initiatives. For example, I look forward to 
supporting Secretary Hagel's and Acting Under Secretary Wright's 
proactive, individual-focused, and multi-disciplinary approach to 
supporting victims of sexual assault. I also strongly support the 
Department's plans to intensify efforts to prevent these crimes in the 
first place. Similarly, I would be proud to support ongoing efforts in 
the area of suicide prevention and providing help for those suffering 
from post-traumatic stress disorder. Those efforts include getting in 
front of the problem by building resilience and coping skills that 
target risk factors; furthering our understanding through data and 
analysis, ensuring front line leaders create a climate that encourages 
members to seek help, and improving access to quality care.
    If confirmed, I also look forward to the findings of the Military 
Compensation and Retirement Modernization Commission and supporting a 
comprehensive approach to providing benefits and support to our 
servicemembers. A comprehensive approach would recognize the 
criticality of providing the training and equipment they need to come 
home as well as reflects the realities of a competitive and evolving 
labor market and the immense sacrifices already paid by those in our 
ranks. In the course of my current responsibilities, I am already 
deeply committed to evolving our military capabilities from the wars 
we've been in to a broader and less certain set of requirements that we 
will inevitably face--all without forgetting the hard fought lessons of 
our past. If confirmed, I look forward to expanding this work to 
include a deeper understanding of how to protect our most valuable 
asset: the quality of our workforce.
    I understand the power of collaboration, both within and outside 
the building. I have a track record of transparent, inclusive, and 
cooperative approaches to resolving issues. I intend to continue this 
practice by working closely with Congress, colleagues in OSD, the Joint 
Staff, the Services, other governmental agencies, and advocacy groups.
                                 duties
    Question. Section 136a of title 10, U.S.C., provides that the 
Principal Deputy USD(P&R) shall assist the USD(P&R) in the performance 
of his or her duties.
    Assuming you are confirmed, what duties do you expect to be 
assigned to you?
    Answer. If confirmed, I intend to carry out my responsibilities, 
functions, relationships, and authorities, in accordance with the law 
and consistent with DOD Directive 5124.08, ``Principal Deputy Under 
Secretary of Defense for Personnel and Readiness.'' Under the direction 
of the USD(P&R), I would support with all responsibilities in providing 
staff advice and assistance to the Secretary of Defense, including but 
not limited to Total Force management; National Guard and Reserve 
component affairs; health affairs; readiness and training; military and 
civilian personnel requirements; language; dependents' education; equal 
opportunity; morale, welfare, and recreation; and quality-of-life 
matters.
    Question. In carrying out these duties, what would be your 
relationship with the following officials:
    The Secretary of Defense.
    Answer. If confirmed, I expect the Secretary of Defense to assign 
me my duties, through the USD(P&R), functions, and responsibilities 
currently mandated by law and specified in the Department's directives 
for the position of Principal Deputy Under Secretary of Defense for 
Personnel and Readiness.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would expect my relationship with the 
Deputy Secretary to be fundamentally the same as that with the 
Secretary of Defense.
    Question. The Assistant Secretary of Defense for Health Affairs 
(ASD(HA)).
    Answer. If I am confirmed, the ASD(HA) would be my principal 
advisor for all DOD health policies, programs, and force health 
protection activities.
    Question. The Assistant Secretary of Defense for Reserve Affairs 
(ASD(RA)).
    Answer. If I am confirmed, the ASD(RA) would be my principal 
advisor for all Reserve component matters in the Department of Defense 
(DOD).
    Question. The Department of Defense General Counsel.
    Answer. If confirmed, I would anticipate regular communication, 
coordination of actions, and exchange of views with the General Counsel 
and the attorneys assigned to focus on personnel and readiness policy 
matters. I would expect to seek and follow the advice of the General 
Counsel on legal, policy, and procedural matters pertaining to the 
policies promulgated from the USD(P&R).
    Question. The Department of Defense Inspector General.
    Answer. The DOD Inspector General is in charge of promoting 
integrity, accountability, and improvement of DOD personnel, programs 
and operations to support the Department's mission and serve the public 
interest. If confirmed, I will fully assist in any investigations or 
issues that relate to personnel and readiness.
    Question. The Service Secretaries.
    Answer. If confirmed, I would hope to work closely with the 
Secretaries of the military departments on all matters relating to the 
management, well-being, and readiness of military and civilian 
personnel in the DOD Total Force structure.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief, National Guard Bureau is a principal advisor to 
the Secretary of Defense, through the Chairman of the Joint Chiefs of 
Staff, on matters involving non-Federalized National Guard forces and 
on other matters as determined by the Secretary of Defense. If 
confirmed, I would work through ASD(RA) to ensure effective integration 
of National Guard capabilities into a cohesive Total Force.
    Question. The Assistant Secretaries for Manpower and Reserve 
Affairs of the Army, Navy, and Air Force.
    Answer. If confirmed, I would intend to further strengthen the 
partnership with these officials in carrying out the human resource 
obligations of the Services for the Total Force.
    Question. The Deputy Chiefs of Staff of the Army and Air Force for 
Personnel, the Chief of Naval Personnel, and the Deputy Commandant of 
the Marine Corps for Manpower and Reserve Affairs.
    Answer. If confirmed, I intend to partner in effective working 
relationships with these officers to ensure that DOD attracts, 
motivates, and retains the quality people it needs.
    Question. The combatant commanders.
    Answer. If confirmed, I would foster mutually respectful working 
relationships that translate into providing the Total Force 
capabilities and readiness needed to complete combat missions.
    Question. The Joint Staff, particularly the Director for Manpower 
and Personnel (J-1).
    Answer. If confirmed, I would seek a close coordinating 
relationship and open channels of communication with the Joint Staff 
regarding personnel and readiness policy issues.
                systems and support for wounded warriors
    Question. Servicemembers and civilians who are wounded or injured 
in combat operations deserve the highest priority from their Service 
and the Federal Government for support services, healing and 
recuperation, rehabilitation, evaluation for return to duty, successful 
transition from active duty if required, and continuing support after 
retirement or discharge. Despite the enactment of legislation and 
renewed emphasis over the past several years, many challenges remain.
    What is your assessment of the progress made to date by DOD and the 
Services to improve the care, management, and transition of seriously 
ill and injured servicemembers and their families?
    Answer. The Department has made progress by actively working with 
the Department of Veterans Affairs (VA) to establish joint policy 
guidance, processes, and metrics for coordination. However, there is 
still more work to do. If confirmed, I will ensure we will continue to 
work toward a seamless transition from recovery to reintegration or 
transition for our wounded, ill or injured. Additionally, I will 
continue the Department's collaborative efforts with the VA on 
compensation and benefits, transition assistance and care coordination. 
If confirmed, I would look forward to working with Congress on this 
critical issue.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. Our covenant with our wounded warriors and their families 
is perhaps one of the Department's greatest strengths, and one that we 
must continue to build upon. This commitment must guide our efforts to 
refine care and case management, including how to continue improving 
all aspects of the process online to reduce complexity and processing 
times.
    Question. What are the weaknesses that need to be corrected?
    Answer. Going forward we'll need to figure out how to accommodate 
the unique needs of each Service and be able to scale our support based 
on the evolving needs of our servicemembers. As we reduce our combat 
operations, we must ensure that we do not lose the capabilities and 
capacity to provide that support.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. Caring for and supporting servicemembers and their families 
will always be a top priority for the Department. If confirmed, I will 
work to execute this core mission of the Office of the USD(P&R), 
continually evaluating our programs and efforts, examining what 
resourcing and authorities are needed to further that goal. Linking 
efforts with community-based resources continues to be vital to ensure 
full re-integration into civilian life.
    Question. Studies conducted as a result of the revelations at 
Walter Reed Army Medical Center in 2007 pointed to the need to reform 
the disability evaluation system. The Integrated DES (IDES) program was 
established to integrate the DOD and Department of Veterans Affairs 
(VA) disability systems to improve and expedite processing of 
servicemembers through the disability evaluation system. While the 
processing times under the IDES were initially encouraging, 
servicemembers are now mired in long VA disability rating and case 
disposition wait times, and the VA's portion of the system appears to 
be overloaded.
    What is your assessment of the need to further streamline and 
improve the IDES?
    Answer. DOD continually evaluates IDES to identify and implement 
process improvements. DOD completed an initial congressional study on 
the feasibility of a Consolidated Disability Evaluation System in 2013. 
An additional key initiative underway is the development of a joint IT 
solution to provide new capabilities that will support end-to-end IDES 
case management--tracking, reporting, and electronic case file 
transfer. If confirmed, we will continue to work with VA to ensure 
system interface requirements are identified and planned for, from 
conception to deployment.
    Question. If confirmed, how will you address any need for change?
    Answer. We will continue to work toward a more efficient IDES by 
engaging senior leadership within OSD and the Services, as well as 
capitalizing on information and recommendations presented to us by the 
Department of Defense Task Force on the Care, Management, and 
Transition of Recovering Wounded, Ill, and Injured Members of the Armed 
Forces, Government Accountability Office, and Military Department 
Inspector Generals. Most importantly, if confirmed, I will hear 
directly from the servicemembers themselves going through the IDES 
process. Where there are redundancies or gaps that need to be addressed 
by changing policy, we will do so. We will continue to collaborate with 
our VA partners to identify necessary changes and appropriately address 
them.
    Question. If confirmed, what role would you expect to play in 
ensuring that the Departments of Defense and Veterans Affairs (VA) 
achieve the administration's objectives in DOD and VA collaboration?
    Answer. If confirmed, I will continue the partnership efforts 
embraced by Acting Secretary Wright and her VA counterpart. I will 
ensure the DOD continues to work closely with VA in supporting our men 
and women in uniform and their families, and our Veterans. I will 
continue the DOD's engagement with VA to consider a complete range of 
issues as we seek process improvements and information exchanges, and 
use of key enablers to provide a seamless lifetime experience for our 
Service men and women, and our Veterans.
                      voluntary education programs
    Question. The Department continues to seek ways to improve 
oversight of its tuition assistance programs, including standardizing 
eligibility criteria among the Services and requiring all schools who 
accept tuition assistance funding, whether for online courses or on-
post, to sign a Memorandum of Understanding with the Department which 
will, among other things, subject online schools to Departmental 
audits.
    What is your assessment of the tuition assistance program in light 
of the needs of the Services and the current budget environment?
    Answer. The Tuition Assistance program is important to DOD because 
it enables off-duty professional and personal academic development of 
our servicemembers. It has the added benefit of facilitating their 
transition to the civilian workforce when they are ready to leave the 
military. If confirmed, I will continue the work with the Services to 
sustain the appropriate level of resources for this program.
    Question. What is your view of tuition assistance as a transition 
benefit for servicemembers to obtain civilian licenses and credentials?
    Answer. Tuition Assistance (TA) is a very valuable tool in 
assisting servicemembers to earn civilian licenses and credentials 
prior to separation from military service. TA can be used to pay for 
academic coursework that supports earning a credential or licensure 
when part of an approved academic degree plan. Furthermore, earning a 
professional credential or license broadens servicemembers' 
occupational knowledge and furthers their contribution to the military 
``profession of arms''. If confirmed, I look forward to working with 
the military departments to increase opportunities for servicemembers 
to use their tuition assistance.
    Question. What is your view of proposed changes to the so-called 
90/10 rule that would require academic institutions to derive no more 
than 85 percent of their revenue from Federal sources, including DOD 
tuition assistance and VA GI Bill funding?
    Answer. I have no objection to the proposal to include title 10 
Tuition Assistance funds in the Federal portion of the 90/10 
calculation. However, it would be appropriate that any statutory 
changes to the proposed 90/10 rule reside with the Department of 
Education.
                          religious guidelines
    Question. In your view, do DOD policies concerning religious 
accommodation in the military appropriately accommodate the free 
exercise of religion and other beliefs, including individual 
expressions of belief, without impinging on those who have different 
beliefs, including no religious belief?
    Answer. In my view, current DOD policies appropriately accommodate 
the free exercise of religion for all servicemembers. The Department 
respects and supports, by its policy, the rights of servicemembers to 
their own religious beliefs, including the right to hold no beliefs.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. Existing DOD policies provide military chaplains with the 
guidance to allow prayer in accordance with the tenets of their faith, 
while respecting, in both formal and informal settings, the rights of 
others who may hold different or no religious beliefs. The Chaplaincies 
of the Military Departments train and equip chaplains with the 
knowledge and skills to fulfill this responsibility. Specifically, the 
Department protects, and supports by its policy, the rights of a 
chaplain to refuse, without any adverse action, any duty that is 
contrary to his or her conscience, moral principles or religious 
beliefs.
    Question. Section 533 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2013 (P.L. 112-239), as amended by section 532 
of the NDAA for Fiscal Year 2014 (P.L. 113-66) protects rights of 
conscience of members of the Armed Forces and chaplains of such 
members, and prohibits, so far as possible, use of such beliefs as the 
basis of any adverse personnel action, discrimination, or denial of 
promotion, schooling, training, or assignment. Members of some 
religious denominations have sincerely held beliefs in opposition to 
same-sex marriage.
    In your view, may a member of the Armed Forces who has a sincerely 
held belief in opposition to same-sex marriage be subject to adverse 
personnel action or similar other adverse action, if he or she shares 
those personal views on the subject in a personal capacity?
    Answer. No. Servicemembers are entitled to express their personal 
views in personal conversations. However, servicemembers speaking in 
their official capacities are expected not to use their positions as a 
forum to express their personal views, especially when dealing with 
subordinates.
                       readiness responsibilities
    Question. Section 136 of title 10, U.S.C., gives the Under 
Secretary of Defense for Personnel and Readiness certain 
responsibilities for military readiness. Some important issues that 
affect military readiness, however, such as logistics and materiel 
readiness, have been placed under the jurisdiction of the Under 
Secretary for Acquisition, Technology, and Logistics.
    What is your assessment of the impacts and challenges to DOD 
readiness as a result of sequestration?
    Answer. The sequester-imposed cuts in fiscal year 2013, coupled 
with having to operate under a 6-month continuing resolution, 
contributed to degraded readiness and hindered our initial readiness 
recovery plans. In addition, sequestration impacted the DOD's ability 
to generate the ready forces necessary to meet the requirements of a 
rapidly evolving and complex security environment. Although we are 
meeting current operational requirements with well trained and equipped 
units, this is getting more difficult. The brunt of the sequester 
effects our ability to generate forces to meet contingency surge 
requirements. This is a serious concern. Some of these effects will 
take considerable time and resources to reverse. The Secretary has 
stated for the record that sequestration-level funding limits would 
yield a force that is too small and not ready enough to meet the 
Nation's security objectives.
    Question. What is your assessment of the current readiness of our 
Armed Forces to execute the National Military Strategy?
    Answer. The investments made in our Armed Forces have helped 
maintain our military's standing as the most formidable force in the 
world. We remain able to meet the most critical ongoing operational and 
presence requirements that the Nation asks of us, however this is 
getting more difficult as we continue to feel the after-effects of 
sequester and more than a decade of war. What is at risk is our ability 
to generate the surge required for a high-end emergent crisis and this 
is a serious concern.
    Question. In your view, what are the most significant challenges to 
the current readiness of our Armed Forces?
    Answer. The defense strategy outlines three primary pillars--defend 
the homeland, build security globally, and project power and win 
decisively when called upon.
    The most significant challenge is that current budget constraints 
and the after-effects of sequestration will inhibit the Services' 
efforts to regain full-spectrum readiness in order to successfully meet 
the tenets of the defense strategy.
    The Services made deliberate plans to shift from counterinsurgency-
focused operations to address more globalized, full spectrum warfighter 
requirements, but those plans will require time and consistent funding 
to materialize. A return to Budget Control Act levels of funding in 
fiscal year 2016 and beyond will put readiness recovery at risk. 
Specifically, training opportunities and equipment condition are our 
primary concerns in preserving readiness across the force.
    Question. What is your understanding of the responsibilities of the 
Under Secretary of Defense for Personnel and Readiness and relationship 
to the Assistant Secretary of Defense for Logistics and Materiel 
Readiness in ensuring military readiness, including materiel readiness?
    Answer. One of the responsibilities of the USD(P&R) is to oversee 
the total readiness of the force. There are many pipelines across the 
Department that come together to create readiness. The Assistant 
Secretary of Defense for Logistics and Materiel Readiness oversees a 
critical portion of the readiness pipelines. Total force readiness 
depends on materiel readiness and logistics. We have a strong working 
relationship that I currently enjoy and will absolutely maintain. If 
confirmed, I will continue to build this relationship and thereby build 
a greater understanding of readiness across the Department.
    Question. What are the most critical objectives to improve 
readiness reporting and monitoring of the military forces, and if 
confirmed, how would you work with the Military Departments as well as 
other OSD offices to achieve them?
    Answer. Although monitoring the status of unit readiness and how 
that fits into overall joint readiness is important, the most critical 
element of readiness management is the ability to monitor the health of 
the pipelines that support it. Metrics in these areas provide a more 
complete picture of readiness as well as provide key indicators that 
are essential to forecasting readiness problems. In my current 
capacity, I have overseen dramatic improvements in the Department's 
ability to monitor readiness along these lines.
    If confirmed, I will continue my close partnership with the 
Services, the Joint Staff, the combatant commanders, and other OSD 
partners to systematically monitor these pipelines, articulate the 
likely operational consequences, and provide mitigation options.
    Question. Do you believe the current system adequately sets and 
documents standards for military readiness and provides for timely, 
accurate readiness reporting to establish necessary confidence that our 
regular and Reserve Forces are not only ``ready with what'' but ``ready 
for what''?
    Answer. Yes. The Defense Readiness Reporting System directly 
addresses the ``ready for what'' question by focusing on mission 
capability as expressed by a units' mission essential task list. It 
assesses the readiness of all organizations throughout the Department 
to perform not only their high end combat mission but also their 
assigned missions such as counterinsurgency or disaster relief and 
humanitarian assistance.
    Question. What do you believe is the role of the Under Secretary of 
Defense for Personnel and Readiness in advocating for Readiness 
resources during the DOD budget build process. Do you believe that the 
appropriate level of resources are being allocated to readiness 
accounts?
    Answer. The USD(P&R), as the Department's lead readiness advocate, 
provides direct input to the budget build process each year. It is our 
responsibility to monitor the Services' ability to generate ready 
forces and the combatant commanders' ability to execute assigned 
priority plans and ongoing operations. In keeping with this 
responsibility, USD(P&R) must understand and clearly articulate the 
consequence of readiness degradations and what is causing them. The 
USD(P&R) is also responsible for providing a complete range of 
mitigation options as part of the Department's formal program budget 
review process. This responsibility benefits from constant 
collaboration with the Joint Staff, the Services, as well as other 
offices within OSD.
    Thanks to congressional action to raise the discretionary caps 
posed by the Budget Control Act of 2011, the 2013 Bipartisan Budget 
Agreement has afforded the Department the opportunity to restore 
healthy levels of readiness funding for fiscal year 2014 and fiscal 
year 2015. Overseas Contingency Operations funding in fiscal year 2014 
also supported the Services' ability to begin addressing their most 
acute readiness deficiencies.
    The fiscal year 2015 budget proposal reflects the Services' resolve 
to slow the readiness decline. Specifically, they shifted funding so 
that they could start climbing out of personnel, training, and 
maintenance backlogs. In doing this, the Services almost universally 
moved money out of procurement and facilities sustainment accounts. 
While this strategy is defendable in the near-term, this imbalance 
across resourcing areas is untenable in the long-term. Future budget 
uncertainty marked by the looming return of BCA-level funding is by far 
our greatest readiness concern.
    If confirmed, I will continue to work tirelessly in promoting a 
responsible resource strategy that allows for viable and sustainable 
readiness across the Department.
    Question. What is your understanding of the responsibilities of the 
Under Secretary of Defense for Personnel and Readiness (USD(P&R)) with 
respect to the Global Response Force?
    Answer. The USD(P&R) monitors the readiness levels of units across 
the Services and articulates the capacity of the Services to provide 
forces. USD(P&R) collaborates with the Joint Staff to evaluate sourcing 
solutions, which include the Global Response Force (GRF), in order to 
balance risk to force generation with risk to mission requirements and 
presents mitigation options to the Secretary of Defense. Additionally, 
the USD(P&R), in its role as the DOD-wide sponsor for joint training 
and combatant command exercises and engagement, facilitates the 
exercise of the GRF across all echelons of the force.
                           medical marijuana
    Question. What is your assessment on the need for legitimate 
scientific study of the efficacy of medical marijuana in alleviating 
the symptoms of post-traumatic stress disorder (PTSD) experienced by 
servicemembers and veterans?
    Answer. The Department supports only rigorously designed, 
scientifically sound, and lawful research efforts that adequately 
protect human subjects and align with programmatic requirements. A 
research proposal with the potential to help improve the lives of those 
affected by PTSD and meeting these requirements would be given 
consideration. We note with interest that the Public Health Service has 
recently approved such a study to provide 50 veterans diagnosed with 
chronic, treatment-resistant PTSD with marijuana in various potencies. 
It is awaiting final approval from the U.S. Drug Enforcement 
Administration. If confirmed, I will review the results of that study, 
if the study is approved.
     department of defense schools in the continental united states
    Question. Some have questioned the continuing need for DOD-operated 
schools for military dependent children within the Continental United 
States (CONUS).
    In light of the administration's request for additional Base 
Realignment and Closure authorities and fiscal constraints, should DOD 
establish or update its criteria for the continued operation of DOD 
schools within CONUS?
    Answer. The Department understands the importance of education and 
the role it plays in the success, stability, readiness, and retention 
of servicemembers and their families. The Department is committed to 
quality educational opportunities for all military children, while 
balancing cost and exploring all options and alternatives.
    In 2013, the Department initiated a study to consider the need for 
DOD to own and operate DOD Schools within the United States and to 
evaluate other options. The study findings will be provided to the 
Department in September 2014.
    Question. If so, and if confirmed, how would you approach this 
task?
    Answer. If confirmed, I will consider the study's findings in 
addition to direct feedback from the military community, and advocacy 
and professional groups, and force management projections in 
determining the best options for providing education support for 
military families. I will do this in consultation with the Military 
Departments and in collaboration with Congress.
             sexual assault prevention and response policy
    Question. The fiscal year 2013 Department of Defense Annual Report 
on Sexual Assault in the Military reflects that reports of sexual 
assault in the military increased by 50 percent from fiscal year 2012 
to 5061 reports of sexual assault.
    What is your assessment of this report?
    Answer. We are encouraged that more men and women are coming 
forward to report a sexual assault, get care and support, and give us 
an opportunity to hold offenders appropriately accountable. That being 
said, we have much more to do to prevent this horrible crime. There is 
evidence supporting the hypothesis that this unprecedented increase is 
the result of increased confidence victims have in the system. I have 
not seen evidence that the recent spike in reporting is due to a 
concurrent increase in crime.
    The survey being conducted by RAND this summer will give us an 
indication what kind of impact we're having on the prevalence of sexual 
assault.
    Question. What is your assessment of DOD sexual assault prevention 
and response program?
    Answer. Senior leader focus has fundamentally improved the 
Department's approach in the past 2 years. The Services have 
implemented a number of programs designed to improve victim confidence, 
including reforms to the military justice system, the creation of 
dedicated legal support to victims, enhanced access to victim advocacy, 
and increased training and awareness for the entire force. While many 
of the recent changes have been response focused, the best thing we can 
do is to prevent the crime. To this end, last month Secretary Hagel 
directed the implementation of an updated Department-wide Sexual 
Assault Prevention Strategy that was developed in collaboration with 
civilian experts and is intensely focused on shaping the environment 
where servicemembers live and work.
    Sexual assault is a complex problem, with no easy solutions. The 
Department continues to implement a multi-disciplinary approach, and, 
if confirmed, I will be committed to ensuring sustained progress, 
persistence, and innovation as we work to eliminate sexual assault from 
the military. We will continue to work closely with Congress to address 
this problem. The resulting reforms and policy changes are going to 
take time to implement and assess.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. Giving victims reporting options is at the heart of the DOD 
Sexual Assault Prevention and Response (SAPR) Program. Restricted and 
unrestricted reporting was recommended to us in 2004 by a panel of 
experts, and we implemented these options in 2005. Since that time, a 
quarter of reports made to us each year are in the form of restricted 
reports. While the Department desires an environment where all victims 
feel free to make an unrestricted report, some victims will never be 
comfortable accessing care and support in that way. As a result, 
restricted reporting was enacted to provide victims a means to heal 
while respecting their privacy. Since 2005, more than 5,000 
servicemembers have used the restricted reporting option, underscoring 
the need for the option as a way to provide critical medical care and 
support to victims.
    Many civilian jurisdictions have adopted similar reporting options. 
Confidential reporting--or in our case restricted reporting--appears to 
becoming standard practice in this country.
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. Commanders and leaders at all levels are key to our 
professional response to this crime. Victims must know that they will 
be respected and supported throughout the justice process. We believe 
that some of the increase in reporting that occurred last year was 
because victims heard the messages of our leadership and believed that 
in coming forward they would be provided the full range of timely and 
responsive care, and treated with the sensitivity and privacy they 
deserve. The Department has taken a number of steps in order to educate 
frontline leaders about their responsibilities--not just to victims of 
sexual assault--but also in creating a command climate free of sexual 
assault.
    Question. What is your understanding of the adequacy of DOD 
resources and programs to provide victims of sexual assault the 
medical, psychological, and legal help they need?
    Answer. We have made a lot of progress in this area, but we are 
going to have to watch closely to make sure the changes we've made are 
working and that no gaps in support remain. Nevertheless, we can and 
should do more. We've benefited from a number of organizations looking 
at how we are providing victims with the many kinds of help they need--
the Government Accountability Office, the Defense Task Force on Sexual 
Assault in the Military, and soon, the Response Systems Panel. We have 
accepted almost every recommendation made to us--and instituted 
additional services and reforms as a result of our own evaluative 
work--learning from the perspectives of these groups is a very good 
thing.
    Some of the specific reforms include offering special victims 
counsel to provide victims with legal representation, providing 
professionally certified responders, offering expedited transfers, 
ensuring that every case is treated as a medical emergency, updating 
our sexual assault examination protocols, combatting negative treatment 
and retaliation, and ensuring the availability of anonymous worldwide 
24/7 crisis support through Safe Helpline. These are just a few of the 
services available to victims.
    Victim support is critical part of healing the trauma caused by 
these incidents. It's also critical in increasing the odds that a 
victim will be willing and able to meet the very intense demands of the 
criminal justice system (military or civilian). Victims have to believe 
that we will support them, and then we have to deliver on that support. 
If confirmed, I look forward to working on this issue. Specifically, 
working with Congress and learning from the perspective of groups 
inside and outside of the Department.
    Question. What is your view of the steps the Department has taken 
to prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. My view is that the Department is taking a comprehensive, 
evidence-informed approach to preventing this crime. The Secretary of 
Defense, the Secretaries of the Military Departments, and the Joint 
Chiefs have all been working together on the 28 initiatives enacted 
over the past 2 years to improve our approach to sexual assault. We 
have also welcomed the assistance we've received from Congress and the 
60+ provisions of law enacted that has fundamentally changed how the 
Department responds to sexual assault. Many of these provisions have 
focused on enhancing our care for victims and improving our ability to 
hold offenders appropriately accountable. However, experts tell us that 
improved response and deterrence are just part of a much larger 
approach that must include dedicated work of prevention. In order to 
solve a complex problem like sexual assault in an institution as large 
and spread out as the U.S. Armed Forces, we need a comprehensive 
approach--one that leverages every amount of influence, planning, and 
persistence the Department can muster. Consequently, the Department 
tasked itself with updating its Sexual Assault Prevention Strategy--a 
Department wide roadmap that reflects a wide range of integrated 
policies and programs to influence behavior, shape the environment, and 
reduce the crime of sexual assault.
    In developing this updated strategy, the Department has been 
working with the Centers for Disease Control and Prevention, the 
Department of Justice, State sexual assault coalitions, civilian 
colleges and universities, and other researchers to identify and 
incorporate the best practices in sexual assault prevention. The 
updated sexual assault prevention strategy is designed to take action 
at every level of military society to advance a comprehensive 
prevention approach. Our military leaders are at the core of this 
approach and must work every day to create a healthy command climate in 
their units; ensure deterrence and accountability for misconduct 
consistent with military values; provide training and empowerment for 
all personnel to intervene in incidents they believe to be at risk for 
sexual harassment and assault; and mentor their personnel using 
leadership and role-modeling as a way to develop healthy work and 
personal relationship skills.
    In sum, prevention is a comprehensive, sustained focus on creating 
an environment that actively deters and interferes with a perpetrator's 
attempts to commit a crime. We are committed to producing such an 
environment in the Department.
    Question. What is your view of the adequacy of the training and 
resources the military departments have in place to investigate and 
prosecute allegations of sexual assault?
    Answer. Last year, each Service established a Special Victims 
Capability to improve the investigation and prosecution of allegations 
of sexual assault, child abuse, and serious domestic violence, and to 
provide specialized support for victims of such offenses. The 
capability consists of investigators, prosecutors, paralegals, victim/
witness program professionals who are selected, trained, and certified 
to respond to sexual assault. Through these capabilities, the Services 
are training and equipping professionals to improve and enhance victim 
care, victim support, and prosecution support, and provide a more 
comprehensive, integrated, and standardized response to allegations of 
these crimes.
    Over the last year, we also dedicated additional resources to 
continue specialized training on trauma-impacted memory and 
interviewing techniques to ensure military criminal investigators are 
using research-proven best practices when questioning victims. Also, as 
of 1 January 2014, each Service now offers victims of sexual assault a 
dedicated attorney to provide representation and consultation 
throughout the military justice process. There are currently 185 
trained attorneys in place to support victims of each military Service, 
ensuring victims know their rights and understand the justice system.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. As we have seen in other recent military culture changes, 
establishing appropriate culture starts at the top with commanders and 
leaders, leading by example and enforcing standards of conduct. Central 
to our approach is requiring leaders at all levels to foster a command 
climate where sexist behaviors, sexual harassment, and sexual assault 
are not condoned or ignored; where dignity and respect are core values 
we live by and define how we treat one another; where victims' reports 
are treated with the utmost seriousness, their privacy is protected, 
and they are treated with sensitivity; where bystanders are motivated 
to intervene to prevent unsafe behaviors; and where offenders know they 
will be held appropriately accountable by a strong and effective system 
of justice.
    Secretary Hagel has recently directed important new initiatives to 
make the command structure more accountable. These reforms include 
fielding methods to better assess command climate, mandatory forwarding 
of command climate surveys to the next level in the chain of command, 
and elevating status reports of sexual assault allegations to the first 
general/flag officer in the chain to ensure appropriate response to 
every case (victim care, investigative actions, unit climate, and 
actions taken).
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. We talk about sending our servicemembers into ``harm's 
way'' a lot and the need for servicemembers to follow the orders of 
their commanders. The crux of this concept rests on the principle that 
every person in a unit has to believe in an instinctive and immediate 
sense that when a commander tells them to do something: (a) that the 
order is lawful, ethical, moral, and exactly the right thing to do for 
the successful accomplishment of that mission; and (b) the commander 
places the welfare of every person in the command before his/her own. A 
commander who would interfere with the successful investigation or 
disposition of a crime based on his or her own welfare is simply 
intolerable. Similarly, a commander who allows the routine harassment, 
ridicule, or discrimination of servicemembers trusted in his/her care 
is equally unfit and must be fired from that position.
    Based on this logic, absolving a commander of the responsibility of 
doing the right thing is a big thought. It would suggest a lack of 
confidence in command. My fear is that it will inject doubt where we 
need that instinctive and immediate faith. I strongly prefer that the 
disposition authority remain in the command structure. That said, I 
also strongly support requiring senior level review of decisions not to 
proceed with prosecution of sexual assault cases. I expect a series of 
NDAA changes over the last few years to help the Department better 
address allegations of sexual assault and help ensure appropriate 
accountability
    If confirmed, I am committed to increasing victim confidence and 
ensuring that dignity and respect are guaranteed attributes of every 
organization in this Department. More specifically, I'd look forward to 
supporting Secretary Hagel's efforts on prevention, including those 
involving gauging and improving command climate.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the military?
    Answer. If confirmed, I will support the Department's efforts to 
prevent the occurrence of sexual assault. But, when crimes do occur, we 
must have comprehensive, effective, accessible, and responsive 
investigative and victim assistance services available.
    I will work to ensure that our program continues to educate all 
servicemembers, frontline commanders and leaders and hold them 
accountable in establishing a climate of dignity and respect. I will 
also support our DOD Sexual Assault Prevention Strategic Plan and the 
28 Secretary of Defense directives to address this crime. The 
Department must sustain our current level of attention, focus, and 
emphasis throughout the entire organization.
    We recognize how difficult this problem is to solve and that it 
will take a multi-disciplinary approach. There have been a lot of 
beneficial changes to law, policy, and processes over the last few 
years. We should continue to collect and monitor command climate, 
prevalence, and case data to ensure that the changes we've made are 
working as intended and to look for areas we've missed. I also support 
staying tuned to the research literature and victims' groups for 
exactly the same reason.
                           service academies
    Question. What do you consider to be the policy and procedural 
elements that must be in place at each of the Service Academies in 
order to prevent and respond appropriately to sexual assaults and 
sexual harassment and to ensure essential oversight?
    Answer. Sexual assault has no place at the Military Service 
Academies. To advance a cadet and midshipman culture that embraces 
dignity and respect, Secretary Hagel directed each Academy to implement 
sexual assault and sexual harassment prevention and response strategic 
plans that are aligned with the strategic plans of their respective 
Service. These strategic plans ensure a coordinated effort of 
instilling our future leaders with the ability to take action when 
faced with situations at risk for sexual assault, sexual harassment, 
and inappropriate behavior of any kind. If confirmed, I will review and 
assess these efforts, as well as ensure that each Academy provides 
appropriate support for victims of this crime.
    Question. What is your assessment of measures taken at the Service 
Academies to ensure religious tolerance and respect, and to prevent 
sexual assaults and sexual harassment?
    Answer. In the past few years, the Academies' leadership has 
emphasized the need for greater respect for the rights of others to 
their own religious beliefs, including the right to hold no beliefs.
    In January, Secretary Hagel directed a number of initiatives to 
enhance the Academies' climates of dignity and respect. If confirmed, I 
will remain committed to ensuring that the Department trains its future 
leaders to establish and be committed to fostering a climate where 
sexual assault, sexual harassment, and inappropriate behavior and 
attitudes are not tolerated.
             assignment policies for women in the military
    Question. The Department, in January 2013, rescinded the policy 
restricting the assignment of women to certain units which have the 
primary mission of engaging in direct ground combat operations, and 
gave the Military Services until January 1, 2016, to open all positions 
currently closed to women, or to request an exception to policy to keep 
a position closed beyond that date, an exception that must be approved 
by the Chairman of the Joint Chiefs of Staff and the Secretary of 
Defense. The Services are working now to develop gender-free physical 
and mental standards for all military occupations, presumably with the 
goal of allowing individuals, regardless of gender, to serve in those 
positions if they can meet those standards.
    If confirmed, what role will you play in the development of these 
standards?
    Answer. If confirmed, I will monitor the progress the Services are 
making toward integration of females into previously closed occupations 
and positions, and will work with the Chairman of the Joint Chiefs of 
Staff and the Service Chiefs as this effort progresses. The Department 
will continue to notify Congress before opening additional positions.
    Question. If confirmed, will you ensure that the standards are 
realistic and preserve, or enhance, military readiness and mission 
capability?
    Answer. Absolutely. Public Law 103-160, section 543, prohibits DOD 
from changing an occupational performance standard for the purpose of 
increasing or decreasing the number of women in that occupational 
career field. The Department is aware of, and complying with, this law. 
We are committed to opening positions and occupations when and how it 
makes sense, while preserving unit readiness, cohesion, and the quality 
of the All-Volunteer Force.
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements? If so, what steps would you 
take to ensure that such decisions are made on this basis?
    Answer. Absolutely, they should be based on a scientific 
determination of the requirements to perform each occupational 
specialty. If confirmed, I will fulfill the responsibilities of my 
office by reviewing each request to open positions and evaluate such 
requests for compliance with statutory requirements and impact on the 
readiness of the All-Volunteer Force.
    Question. Some family members have expressed concerns about 
assigning women to what are currently male-only combat units.
    To what extent do you believe that this will be a problem in the 
implementation of this policy?
    Answer. I expect our commanders to select the best qualified 
personnel for assignment regardless of gender, and to create a command 
climate that focuses on mission accomplishment while treating each 
person under their command with dignity and respect. Since mid-2012, we 
have successfully integrated women into formerly male-only units. We 
are incorporating this experience as we progress.
                           mental health care
    Question. Senior military leaders have long recognized the need to 
reduce the stigma for military personnel and their families and 
veterans in seeking mental health care, yet we continue to hear from 
servicemembers that the stigma persists.
    If confirmed, what actions will you take to reduce the stigma 
associated with seeking mental health care by military personnel and 
their families?
    Answer. I am deeply committed to countering the stigma associated 
with getting help for mental and behavioral health concerns. The 
thought of our servicemembers or their dependents creating or suffering 
from a barrier in receiving care is heartbreaking. Simply put, getting 
quality care works; these conditions can be treated. I look forward to 
the time where Americans approach mental health with the same comfort 
level that they approach physical health.
    The Department provides a number of self-help initiatives and other 
resources to meet the needs of servicemembers and their families for 
mental health care and is working to address the barriers (real or 
perceived) that may prevent them from seeking help. If confirmed, I 
will continue to support the Department's efforts designed to reduce 
the stigma associated with seeking mental health care, encourage help-
seeking behavior and increase the use of available resources among 
servicemembers and their families. I am also prepared to work across 
the Services to ensure an integrated approach with necessary resources 
for ongoing mental health research, prevention, and evidence-based 
treatment efforts that will continue to allow the Department to provide 
high-quality, timely mental healthcare services.
    Question. In your view, are DOD's current mental health resources 
adequate to serve all Active Duty and eligible Reserve component 
members and their families, as well as retirees and their dependents?
    Answer. Absolutely. Since September 11, with the support of 
Congress, DOD has increased the outlays for mental health care by a 12 
percent compounded annual rate, roughly quadrupling care rendered 
between the beginning of fiscal year 2002 to the beginning of fiscal 
year 2014. On average, each member of the active Duty force is seen by 
a mental health professional one and a half times per year. Care is 
embedded into primary care clinics and fighting units. Mental health 
providers in Military Health System (MHS) Military Treatment Facilities 
(MTFs) have been increased by 50 percent, to nearly 10,000. Further, 
TRICARE network assets have been bolstered to better serve reservists, 
dependents, and retirees. A total of 65,000 mental health providers are 
available in the purchased care network. DOD provides state of the art 
substance abuse care, including medical therapies for addiction and 
confidential alcohol abuse treatment, and one of the finest benefits 
for autism spectrum disorders in the Nation, including care to provide 
early intervention.
                           suicide prevention
    Question. The number of suicides in each of the Services continues 
to be of great concern to the committee.
    If confirmed, what role would you play in shaping DOD policies to 
help prevent suicides both in garrison and in theater and to increase 
the resiliency of all servicemembers and their families?
    Answer. Suicide among our men and women in uniform is one of the 
greatest concerns of our entire leadership across DOD, and one I share 
closely. In the last few years, and under my early direction, the 
department has taken several steps to address suicide. It has issued 
new policies, identified key roles and responsibilities for prevention 
and resilience, addressed rate calculations, established new 
partnerships with other Federal agencies, particularly with the 
Department of Veterans Affairs, and collaborations with community 
organizations, and has led the Nation in suicide prevention research.
    If confirmed, I intend to improve data collection that can better 
inform risk and protective factors within our force and their families 
and ensure that programs are evaluated, aligned to a strategy, and show 
effectiveness. Continued outreach, peer support, and resilience skills 
training are efforts that I will ensure reach all of our active and 
Reserve components and that their families understand what resources 
are available to them as well. The resilience of the force must be 
equal to the readiness of the force and the same successful approaches 
I have had with ensuring readiness, I will apply to resilience.
                        end strength reductions
    Question. In this year's budget request and Future Years Defense 
Program, the Department proposes making additional cuts to the Army's 
Active and Reserve component end strengths, as well as the Marine 
Corps' Active Duty end strength. The Department proposes reducing the 
Army Active component to 450,000 by 2019, and further to 420,000 if 
sequestration continues in fiscal year 2016 and beyond, and the Marine 
Corps to 182,000, or 175,000 if sequester continues.
    In your view, can the Army and the Marine Corps meet national 
defense objectives at the strength levels proposed without 
sequestration? What about at the strength levels proposed with 
sequestration?
    Answer. Yes, the Army and Marine Corps can meet national defense 
objectives at the force levels associated with the Department's 
proposed fiscal year 2015 budget submission. The 2014 Quadrennial 
Defense Review articulates the Department's commitment to transitioning 
to a smaller but capable and ready force over the next 5 years. Towards 
that end, end strength proposed in the President's Budget for fiscal 
year 2015, specifically a 440-450K Active Duty Army and 182K Active 
Duty Marine Corps, allows the Army and Marine Corps to maintain a 
balanced ready and modern force.
    A return to sequestration would force the Army and Marine Corps to 
further reduce their end-strength numbers to 420K and 175K, 
respectively. This would undoubtedly jeopardize the Army and Marine 
Corps' ability to fully implement the defense strategy.
    Question. If the Army and Marine Corps must reduce their Active 
component end strengths to 420,000 and 175,000, respectively, where 
does the Department take risk with respect to the national defense 
strategy?
    Answer. If the Army and Marine Corps were compelled to further 
reduce their end strength beyond their existing drawdown plans, there 
would be additional risk in conducting a broad range of military 
operations worldwide. Specifically, their decreased ability to respond 
to a major contingency operation could result in extended timelines and 
increased casualties.
    Furthermore, the Army and Marine Corps would be hard-pressed to 
maintain acceptable deployment-to-dwell rates to meet unrelenting 
global operational demands. This would place added stress on a smaller 
force and jeopardize our continued pledge to take care of our men and 
women in uniform.
    Question. What is your understanding of the need for additional 
force shaping tools requiring legislation beyond what Congress has 
provided the past 3 years?
    Answer. Congress has supported the Department with the force 
shaping tools necessary to meet the drawdown under its current plan. 
However, as we have progressed through the drawdown, we learned where 
and how minor changes to the existing authorities could make our force 
shaping both more effective and more efficient. If confirmed, I will 
continue to work with Congress to effect these minor changes to 
legislation to meet reduced end strengths.
    The Department remains concerned that continued budget reductions 
may make it necessary to revisit the size of all components of the 
Total Force--Active Duty military, Reserve component military, DOD 
civilians, and contractors. Consequently, future assessment may require 
us to request additional Congressional authorization for force shaping 
tools.
                        military quality of life
    Question. The committee is concerned about the sustainment of key 
quality of life programs for military families, such as family support, 
child care, education, employment support, health care, and morale, 
welfare and recreation services, especially as DOD's budget declines.
    How do you perceive the relationship between military recruitment 
and retention and quality of life programs and your own top priorities 
for the Armed Forces?
    Answer. Our most valuable resource is our people. If I am 
confirmed, the programs that support our servicemembers and their 
families will remain one of my top priorities. We must care for our 
people, particularly as our ability to recruit and retain the very best 
servicemembers becomes more challenging.
    If confirmed, what military quality of life programs would you 
consider a priority, and how do you envision working with the Services, 
combatant commanders, family advocacy groups, and Congress to sustain 
them?
    Answer. Military quality of life programs comprise a vast range of 
services that support servicemembers and their families in many 
different ways. Programs such as Morale, Welfare and Recreation fitness 
opportunities and Child and Youth Programs, for example, help minimize 
stress on the force. These programs should promote a work-life balance 
and address the unique challenges associated with military service, 
such as deployments, frequent relocations and financial readiness. The 
Department is working with a host of interagency and non-governmental 
collaborators, as well as Congress, to efficiently close gaps and 
reduce overlaps in programs. We also have made a deliberate effort to 
communicate effectively to ensure that families know how to access 
available support when they need it.
    If confirmed, I will continue to work to promote interagency 
collaboration and Service coordination and advance these objectives.
                      family readiness and support
    Question. Servicemembers and their families in both the Active and 
Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of concerns among military families as a result of 
the stress of deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families, and, if confirmed, how 
would you ensure that family readiness needs are addressed and 
adequately resourced?
    Answer. We must recognize that every family has unique needs, 
requiring a flexible and responsive network of services to deliver 
support at the right time, using the most effective methods. Following 
more than a decade of war and the ongoing draw down, we must be ready 
to continue supporting families. In particular, it is important to 
assist the surge of Active component servicemembers and families 
transitioning from military to civilian life; and for our Reserve 
component servicemembers and families, the focus must remain on 
reintegration. It is critical that servicemembers, their families, and 
their survivors receive information about available support services 
and resources through communication vehicles they prefer and trust. The 
Yellow Ribbon Reintegration Program will continue to provide support 
for the Reserve component servicemembers in remote locations. We must 
continue outreach, education, awareness, and engagement strategies to 
promote servicemember and family readiness programs.
    Question. How would you address these family readiness needs in 
light of global rebasing, Base Realignments and Closings (BRAC), 
deployments, and future reductions in end strength?
    Answer. We must be capable of enabling Services, staff, and 
resources to be surged or evolved, as needed, to respond swiftly and 
effectively to the changing needs of servicemembers and their families 
during peacetime, war, periods of force structure change, relocation of 
military units, base realignment and closure, crisis, natural disaster, 
and other emergency situations. Close collaboration with and between 
the Services, as well as interagency and non-governmental resources 
providing family support needs, will ensure that we continue to provide 
timely support while finding the most effective and efficient ways of 
doing so.
    Question. If confirmed, how would you ensure support is provided to 
Reserve component families related to mobilization, deployment and 
family readiness, as well as to active duty families who do not reside 
near a military installation?
    Answer. I consider the needs of geographically dispersed military 
families, including those who serve in the Reserve component, of equal 
importance to the needs of all other military families. Implementation 
of quality assurance measures for Reserve component family readiness 
programs that meets national accreditation standards supports the 
overall mission of military family readiness. This approach requires 
constant coordination with the Services and each of the Reserve 
components to ensure that we are responsive and inclusive. Since 2008, 
the Yellow Ribbon Integration Program has led our support efforts with 
this population, providing access to deployment cycle information, 
resources, programs, services, and referrals to more than 1.3 million 
servicemembers and their families. The Yellow Ribbon Integration 
Program eases transitions for servicemembers and families as they move 
between their military and civilian roles. Our geographically diverse 
populations are also supported by the Joint Family Support Assistance 
Program which works to build capacity to identify and meet evolving 
needs at the local community level where these families live, work, and 
attend school. To augment and enable that local support, Military 
OneSource provides support to military families, military leadership, 
and military and civilian service providers through delivery of 
information, referrals, and non-medical counseling.
    Question. If confirmed, what steps will you take to sustain family 
support programs, given current fiscal constraints?
    Answer. Family support programs that are flexible, responsive, and 
communicate and coordinate with interagency and non-governmental family 
services are critical to meet the enduring needs of our servicemembers 
and their families, whether they live on, near, or far from military 
installations. If confirmed, I will continue to work to ensure that 
resources are used efficiently and effectively to support our families. 
Our collaboration with others who share our interest in the support of 
military families is key. Working together with the Services, we can 
find efficiencies and enhance the accessibility of support when and 
where it is needed and at the right level.
    Question. In your view, does the U.S. Special Operations Command 
(SOCOM) have unique family readiness and support requirements? If so, 
in your view, are those needs adequately being met by each of the 
Military Services at this time? If they are not adequately being 
addressed, if confirmed, how would you address these unique needs?
    Answer. I believe SOCOM families do have unique support 
requirements. The deployment rates are among the highest in the 
Department. Even when they are home, they have arduous training 
requirements. Deployment locations tend to be extremely austere and 
they are far less likely to be able to maintain reliable contact with 
families. We know that suicide rates, divorce rates, and incidents of 
risky behavior have remained high over the last few years. Aside from 
being ethical and compassionate concerns, these are also increasingly 
impacting unit readiness.
    P&R components continue to work closely with SOCOM to identify 
family support requirements that are unique to this community, analyze 
current support provided by the Services, and identify and address gaps 
in family support provided to the SOF community. If confirmed, I look 
forward to expanding my support for this issue.
  office of community support for military families with special needs
    Question. In the NDAA for Fiscal Year 2010, Congress required the 
establishment of an Office of Community Support for Military Families 
with Special Needs within the Office of the Under Secretary of Defense 
for Personnel and Readiness. The purpose of this office is to enhance 
and improve DOD support for military families with special needs, 
whether educational or medical in nature.
    In your view, what should be the priorities of this Office of 
Community Support for Military Families with Special Needs?
    Answer. The Office of Community Support for Military Families with 
Special Needs endeavors to strengthen personnel readiness for military 
families with special needs through the development of comprehensive 
and uniform policies, oversight of programs, identification of gaps in 
services, and facilitation of access to resources that support military 
families with special needs. The Exceptional Family Member Program 
(EFMP) currently supports military families with special health and/or 
educational needs in three component areas: identification/enrollment, 
assignment coordination to determine the availability of services at a 
projected location, and family support to help families identify and 
access programs and services.
    If confirmed, I look forward to reaching the Departments goal of 
enabling military families with special needs to have the same level of 
access to EFMP support, regardless of Service affiliation or location, 
with a particular emphasis on military families stationed at joint or 
sister Service installations.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of deployments. These programs must be 
relevant and attractive to all eligible users, including Active Duty 
and Reserve personnel, retirees, and their families.
    What challenges do you foresee in sustaining MWR programs, 
particularly in view of the current fiscal environment and, if 
confirmed, are there any improvements you would seek to achieve?
    Answer. Our ability to deliver Morale, Welfare, and Recreation 
(MWR) programs to our military families is impacted by changes in our 
basing, deployment patterns and force structure. With more than 75 
percent of military families now living off installation, there is an 
increasing need for partnerships and support from local governments, 
school systems and businesses to ensure we continue to provide 
comprehensive, accessible, and affordable recreation programs. To 
explore improvements further, we are conducting a major assessment of 
MWR programs to ensure they are being operated in as efficient and 
cost-effective manner as possible. If confirmed, I will work to ensure 
that we continue to provide these important services to our 
servicemembers and their families.
                commissary and military exchange systems
    Question. Commissary and military exchange systems are significant 
quality of life components for members of the Active and Reserve 
Forces, retirees, and their families.
    What is your view of the need for modernization of business 
policies and practices in the commissary and exchange systems, and what 
do you view as the most promising avenues for change to achieve 
modernization goals?
    Answer. Commissary and exchange programs and policies must continue 
to evolve to meet the needs and expectations of our changing force and 
marketplace. Efforts should be aimed at reducing overhead and pursuing 
new avenues to reach our military families who do not live on military 
installations. The military resale community must continue to work, 
individually and collaboratively, to adapt marketing and selling 
practices, invest in technologies, and improve merchandise availability 
to be responsive to the evolving needs of their military customers. 
They should continue to deliver customer savings, strive to achieve 
high customer satisfaction ratings, and deliver exchange dividends in 
support of our MWR programs.
    The Department takes great care to weigh the potential effects of 
any proposed changes on our servicemembers and their families as we 
consider efficiencies that may impact the commissary and exchange 
benefits.
    Question. What is your view of the proposals by some to consolidate 
or eliminate Commissaries and Exchanges in certain areas where they are 
underused or duplicative of services readily available at reasonable 
cost in the community?
    Answer. If confirmed, I would review any proposals aimed at 
reducing overhead, which may include closing underutilized locations or 
eliminating duplicative services.
    I recognize that commissary and exchange programs are important 
elements of the servicemembers' compensation package and contribute to 
the quality of life of military personnel and their families. The 
fiscal realities facing DOD today and in the foreseeable future require 
that we evaluate all options that will maximize the effectiveness of 
our compensation benefits while reducing costs. If confirmed, I will 
proactively engage with the committee if we believe a change in statute 
is needed to operate our military resale system more efficiently and 
effectively.
    Question. In the Ronald W. Reagan NDAA for Fiscal Year 2005, 
Congress required the Secretary of Defense to establish an executive 
governing body for the commissary and exchange systems to ensure the 
complementary operation of the two systems.
    What is your understanding of the purpose and composition of the 
executive governing body?
    Answer. To fulfill the requirement of the law, the Department 
established the DOD Executive Resale Board as the governing body to 
provide advice to the USD(P&R) regarding the complementary operation of 
the commissary and exchange systems. The Board reviews and advises on 
cross-functional matters important to the military resale system. The 
Board is invaluable in leading cooperative efforts and resolving issues 
of concern resulting in increased efficiency and effectiveness of the 
overall system.
    The Board is chaired by the Assistant Secretary of Defense for 
Readiness and Force Management, and members include both the senior 
military officers and civilians who oversee and manage the commissary 
and exchange systems.
    Question. If confirmed, what would your role be with respect to the 
governing body, and what would your expectations be for its role?
    Answer. If confirmed, I would ensure the Board continues to meet 
regularly to review operational areas of interest across the military 
resale system and continues to promote significant efficiencies through 
cooperative efforts. The Board is crucial to balancing competing needs 
and providing consistent and coordinated input to inform any decisions 
to be made regarding these important benefits.
                       civilian personnel systems
    Question. Section 1113 of the NDAA for Fiscal Year 2010 provides 
DOD with extensive personnel flexibilities for its civilian employees 
that are not available to other agencies. In particular, section 
9902(a) of title 5, U.S.C., as added by section 1113, directs the 
Department to establish a new performance management system for all of 
its employees. Section 9902(b) directs the Department to develop a 
streamlined new hiring system that is designed to better fulfill DOD's 
mission needs, produce high-quality applicants, and support timely 
personnel decisions.
    What is your understanding of the current status of the 
Department's efforts to implement the authority provided by section 
1113?
    Answer. I understand the Department's plans for the performance 
management system, workforce incentives, and hiring flexibilities were 
informed by recommendations developed by DOD employees, supervisors, 
and managers representing labor and management from across the 
Department. Our plans were submitted to the Armed Services Committees 
at the end of March 2013. The collaborative labor-management pre-
decisional recommendations for the personnel authorities were widely 
adopted by the Department.
    Leaders in the Department continue to make good progress toward the 
implementation of their decisions on the personnel authorities. Working 
with our national unions, we are developing the new appraisal system, 
which will be a multi-level rating pattern characterized by a uniform 
appraisal period for covered employees, and the ability to make 
meaningful distinctions in levels of performance. If confirmed, I will 
continue to support the work that is underway to comply with statute.
    Question. If confirmed, will you make it a priority to implement 
these flexibilities in a manner that best meets the needs of the 
Department and promotes the quality of the Department's civilian 
workforce?
    Answer. Yes, if confirmed, I will make it my priority to implement 
those flexibilities that would promote the quality of the Department's 
civilian workforce to ensure accomplishment of the Department's 
missions.
    Question. Section 1112 of the NDAA for Fiscal Year 2010 directs the 
Department to develop a Defense Civilian Leadership Program to recruit, 
train, and advance a new generation of civilian leaders for the 
Department. Section 1112 provides the Department with the full range of 
authorities available for demonstration programs under section 4703 of 
title 5, U.S.C., including the authority to compensate participants on 
the basis of qualifications, performance, and market conditions. These 
flexibilities are not otherwise available to DOD.
    Do you agree that the Department needs to recruit highly qualified 
civilian personnel to meet the growing needs of its acquisition, 
technical, business, and financial communities?
    Answer. Yes, I agree that recruiting highly qualified civilian 
personnel both in mission critical occupations, such as acquisition, 
human resources, information technology, and financial management, and 
in leadership positions across the Department is essential to mission 
success.
    Question. In your view, has the existing civilian hiring process 
been successful in recruiting such personnel and meeting these needs?
    Answer. While I believe the Department currently has a highly 
talented workforce, I also wholeheartedly support initiatives to 
further streamline the civilian hiring process. The Department embraces 
a simplified, transparent hiring system that meets the needs of 
stakeholders, attracts quality candidates, and reduces the time to fill 
a vacancy. If confirmed, I will ensure the Department continues to 
actively engage in pursuing continued improvements in the civilian 
hiring process.
    Question. If confirmed, will you make it a priority to implement 
the authority provided by section 1112 in a manner that best meets the 
needs of the Department and promotes the quality of the Department's 
civilian workforce?
    Answer. If confirmed, I will make it a priority to continue 
implementing the authority provided by section 1112. The Department 
recognizes the need for a sound leader-development model to attract, 
retain, and develop civilian leaders to support readiness, enhance 
bench strength, and promote the quality of the Department's civilian 
workforce. I will continue implementing the authority provided to 
ensure a successful framework for developing the next generation of 
innovative leaders to meet the Department's future needs.
                         human capital planning
    Question. Section 115b of title 10, U.S.C., as added by section 
1108 of the NDAA for 2010, requires the Secretary of Defense to develop 
and update in every even-numbered year a strategic human capital plan 
that specifically identifies gaps in the Department's civilian 
workforce and strategies for addressing those gaps. Section 115b 
requires that the plan include chapters specifically addressing the 
Department's senior management, functional, and technical workforce and 
the Department's acquisition workforce.
    Would you agree that a strategic human capital plan that identifies 
gaps in the workforce and strategies for addressing those gaps is a key 
step toward ensuring that the Department has the skills and 
capabilities needed to meet future challenges?
    Answer. Yes. I believe such planning helps to position the 
Department to acquire, develop, and maintain the workforce it needs to 
meet current and future mission challenges.
    Question. Do you see the need for any changes in the requirements 
for a strategic human capital plan under section 115b?
    Answer. At this time we appreciate the help of past legislation 
that put the Department on a biennial reporting cycle. We continue to 
progress on meeting the requirements for a strategic human capital plan 
under section 115b, and will continue to institutionalize our processes 
and assess the need for any changes as we continue in this important 
endeavor.
    Question. If confirmed, will you ensure that DOD fully complies 
with these requirements?
    Answer. Yes, if confirmed, I will work toward ensuring the 
Department fully complies with statutory strategic workforce planning 
requirements.
    Question. Since the time that the Department's most recent 
strategic human capital plan was issued, its civilian workforce plans 
have been significantly altered by the changed budget environment and 
extensive efficiencies initiatives.
    What role do you believe human capital planning should play in 
determining where reductions in the civilian workforce can be taken 
with the lowest level of risk?
    Answer. Any reductions in the civilian workforce should be informed 
by the Department's strategic workforce plan to determine where 
reductions can be taken with the lowest level of risk, with the 
understanding that short-term exceptions may be necessary due to 
emerging dynamics in this fiscal environment. In the future, the 
forecasts for the Department's workforce must be based on validated 
mission requirements and workload, both current and projected, and any 
reductions in the civilian workforce must be made in the context of the 
Total Force and directly linked to workload so as to not adversely 
impact overall mission capabilities.
    Question. Would you agree that the strategic human capital plan 
required by section 115b should be updated to more accurately reflect 
the Department's current workforce plans and requirements?
    Answer. Yes. The planning process should be updated to be more 
aligned and integrated with the Department's programing and budget 
process, and meet the requirements for a total force mix and 
competencies assessments. In preparing for fiscal year 2013 through 
2018, we conducted a pilot study that examined the total force mix 
based on the workforce requirements and relationships in high risk 
mission critical occupations. We have launched a tool to collect 
competency gap information for all mission critical occupations to 
analyze gaps that will lead to strategies for mitigation. These 
processes will take several planning cycles, and functional communities 
are preparing for further assessment and implementation.
    Question. What steps if any will you take, if confirmed, to ensure 
that civilian workforce levels are determined on the basis of careful 
planning and long-term requirements, rather than by arbitrary goals or 
targets?
    Answer. If confirmed, I will emphasize that civilian workforce 
levels must be planned based on long-term strategic planning 
requirements. Forecasts for the Department's workforce must be based on 
validated mission requirements and directly linked to workload so as to 
not adversely impact overall mission capabilities.
                    dod civilian personnel workforce
    Question. Section 955 of the NDAA for Fiscal Year 2013 required the 
Secretary of Defense to develop a plan to reduce the size of the 
civilian personnel workforce by 5 percent over the next 5 years. The 
plan developed by the Secretary does not meet this objective. Since the 
time that section 955 was enacted, the Department has implemented 
hiring freezes and furloughs as a result of sequestration. As a result, 
the DOD civilian personnel workforce is substantially smaller than it 
was on the date of enactment or at the time the plan was submitted.
    Do you agree that DOD's civilian employee workforce plays a vital 
role in the functioning of the Department?
    Answer. I absolutely agree that civilians are vital to the 
Department. They help provide the critical equipment maintenance, base 
support, logistics and engineering expertise, family programs, and 
medical care that ensure our soldiers, sailors, airmen, and marines are 
ready to deploy, world-wide, and answer the call of our commanders in 
executing the national defense posture. Additionally, we have dedicated 
civilians serving as critical enablers in essential functions such as 
acquisition, contract management, quality control, auditing, 
engineering and design, and financial management. Moreover, civilians 
are a key element of our national security strategy, serving as 
operators in areas such as intelligence, cybersecurity, security 
assistance, and stability operations.
    Question. Do you agree that if sequestration continues through 
fiscal year 2014 and beyond, the Department will need to further reduce 
the size of its civilian workforce?
    Answer. I believe that if we are faced with further budgetary 
reductions as a result of sequestration, we will see significant 
adverse and untenable impacts on all areas and programs of the 
Department, including the civilian workforce. If confirmed, I will work 
to ensure that any reductions to the civilian workforce are balanced 
and executed in the context of the Department's Total Force management 
principles, ensuring the appropriate and most cost effective alignment 
of work.
    Question. In your view, would it be preferable for the Department 
to make planned, prioritized reductions to its civilian workforce, or 
to continue with arbitrary reductions based on hiring freezes and 
workforce attrition?
    Answer. Yes, planned and prioritized reductions to the civilian 
workforce aligned to mission divestiture and a decrease in workload are 
preferable. Reductions based on hiring freezes and workforce attrition 
may result in unintended consequences such as loss of required skills 
and competencies, unnecessary gaps in mission execution, and 
inappropriate realignment of workload to other elements of the 
Department's Total Force.
      balance between civilian employees and contractor employees
    Question. DOD employs many contractors whom now play an integral 
role in the performance of functions that were once performed 
exclusively by government employees, including the management and 
oversight of weapons programs, the development of policies, the 
development of public relations strategies, and even the collection and 
analysis of intelligence. In many cases, contractor employees work in 
the same offices, serve on the same projects and task forces, and 
perform many of the same functions as Federal employees. Contractors 
continued to be hired as many civilian positions remained on a hiring 
freeze over the past few years.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of the Department?
    Answer. The Department uses a Total Force approach to manage its 
workload. Contractors are an important element of the Total Force and 
provide flexibility and technical competence. However, we must be 
careful to ensure work is appropriately assigned to military personnel 
(Active/Reserve), civilian employees, or contract support.
    If confirmed, I will work to ensure the Department continues its 
efforts to implement a Total Force strategy that aligns functions and 
work to military, civilian, and contract support in a cost effective 
and balanced manner, consistent with workload requirements, funding 
availability, laws, and regulations.
    Question. In your view, has the Department become too reliant on 
contractors to perform its basic functions?
    Answer. We must be constantly vigilant in assessing the extent of 
our reliance on contractors and ensuring that we do not have an erosion 
of critical skills and competencies, particularly in our scientific, 
technology, and engineering communities all of which are critical to 
maintain operational readiness and superiority.
    If confirmed, I will work to ensure the Department continues to 
implement robust workforce review processes that are geared to ensuring 
the Department is not overly reliant on contracted services and is 
making the most economical workforce alignment decisions.
    Question. Do you believe that the Department should undertake a 
comprehensive reappraisal of ``inherently governmental functions'' and 
other critical government functions, and how they are performed?
    Answer. No, I do not believe a comprehensive reappraisal is 
necessary. The Department's policies are aligned to recent Federal 
Government-wide policy, which was published in 2011 in response to 
congressional direction. If confirmed, I will ensure that the 
Department meets its statutory obligations to review annually the 
alignment of workload to ensure that inherently governmental functions 
are properly aligned to the government workforce. Further, I will 
endeavor to ensure that critical functions of the Department are being 
performed by the appropriate workforce, with sufficient oversight and 
management, and in a manner that meets operational needs, while 
mitigating risk and reducing unnecessary cost.
    Question. If confirmed, will you work with other appropriate 
officials in the Department to review the contractor and civilian force 
mix?
    Answer. Yes, if confirmed, I will work with my colleagues across 
the Department to ensure reviews of workforce mix are conducted, as 
required by statute and the Department's policies.
    Question. Would you agree that the balance between civilian 
employees and contractor employees in performing departmental functions 
should be determined by the best interests of the Department and not by 
artificial constraints on the number of civilian employees?
    Answer. Yes, I agree.
    Question. If confirmed, will you work to remove any artificial 
constraints placed on the size of the Department's civilian workforce, 
so that the Department can hire the number of employees most 
appropriate to accomplish its mission?
    Answer. Yes, if confirmed, I will work to ensure policies and 
procedures for workforce shaping are consistent with statutory 
requirements and that the workforce is managed to available budget and 
workload.
                         sergeant bowe bergdahl
    Question. Following the recent repatriation of Sergeant Bergdahl 
after 5 years of captivity with foreign fighters there have been 
questions about the circumstances under which he became separated from 
his unit in Afghanistan in 2009.
    If confirmed, what is your understanding of your role as Principal 
Deputy Under Secretary of Defense for Personnel and Readiness, 
concerning review of the facts and circumstances of Sergeant Bergdahl's 
capture and his status as a member of the U.S. Army?
    Answer. If confirmed, my role would be to provide the Secretary of 
Defense and the Secretary of the Army with appropriate recommendations 
regarding DOD statutes, regulations, and policies.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Principal Deputy Under 
Secretary of Defense for Personnel and Readiness?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator Roger F. Wicker
           proposed presidential budget for fiscal year 2015
    1. Senator Wicker. Dr. Junor, the fiscal year 2015 President's 
budget request (PBR) for the Defense Language Institute Foreign 
Language Center (DLIFLC) cuts the budget by $26.4 million from the 
fiscal year 2014 baseline of $24.3 million. This cut includes a 
reduction of 385 full-time equivalents (ref: p. 307 of the Department 
of the Army fiscal year 2015 President's budget submission). As the 
Joint National Committee for Languages and the National Council for 
Languages and International Studies (JNCL-NCLIS) understand the 
situation, the manpower reduction at DLIFLC is necessitated by an Army 
Training and Doctrine Command (TRADOC) manpower review, which asserts 
that the stated mission requirement for DLIFLC is 2/2/1+ (Listening/
Reading/Speaking) on the Interagency Language Roundtable Proficiency 
Scale. Under PBR-721, DLIFLC was tasked with a mission requirement of 
2+/2+/2, based on a classified inter-Service Language Needs Assessments 
and a needs assessment by the National Security Agency. Meeting the 
higher language proficiency requirements identified in these needs 
assessments requires implementation of new levels of people, equipment, 
and funding.
    There is an apparent mismatch between TRADOC's understanding of 
requirements for DLIFLC and the requirements assigned DLIFLC by the 
Intelligence Community (IC). In your role as the Senior Language 
Authority for the Department of Defense (DOD), you have oversight of 
all DOD policy related to language (ref: DOD Directive 5160.41E, 
Defense Language Program). How will you ensure that valid and accurate 
requirements for both the strategic needs of the IC and the tactical 
needs of the Services are reflected in the DOD guidance for DLIFLC and 
that DOD guidance is funded under current executive agency's Service-
level budgeting processes?
    Dr. Junor. Documenting valid and accurate strategic and tactical 
language requirements and then ensuring that budgeting processes 
reflect those requirements is essential to ensuring the viability of 
this capability across the Department. Language capability, like so 
many other critical operational capabilities, is in the midst of a 
transition from the intense focus on the wars we've been in to a 
broader operational spectrum spanning the entire globe. At the same 
time we are negotiating intense budget pressures that make affording 
the readiness we know we need exceptionally difficult.
    That said, we have a responsibility to first know what our 
requirements are, second communicate them effectively, and third 
advocate for those requirements during the budget process. Here's how 
we intend to meet this responsibility:
    Specific guidelines for capturing language requirements are 
contained in DOD policies and the 2011-2016 DOD Strategic Plan for 
Language Skills, Regional Expertise, and Cultural Capabilities, which 
represents the Services, the combatant commands, the Intelligence 
Community, and other key DOD agencies. One of my current focus areas is 
to ensure that these requirements stay current and are accurately 
documented so we know how much of what type of language capabilities we 
must create or maintain.
    With these requirements in mind, I review and assess the DLIFLC 
continuously with Army, as the Executive Agent of the DLIFLC, and key 
DOD stakeholders including other Services and the Intelligence 
Community. I host an annual program review of DLIFLC past, current, and 
future year budgets, issues, and achievements while working closely 
across the Services to ensure Department-wide language requirements are 
addressed and resourced. When necessary, we recommend resourcing 
solutions to meet highest priority mission requirements outlined in DOD 
guidance.
    For example, in 2013 I sought and received over-hire authority for 
the Army to increase the teaching staff at DLIFLC to ensure the 
training mission would not be disrupted during Budget Control Act 
considerations. At the same time, I established special working groups 
to review the end-to-end processes of language training, including 
requirements identification, Service assignments to DLIFLC, and 
academic instruction.
    In fiscal year 2014, I established an agency-wide working group to 
review the entire career field of language professionals within the 
Services, the Intelligence Community, and the Defense agencies. At the 
heart of this review is improving the processes to better identify 
Intelligence Community and Service language requirements; how the 
Services and the Executive Agent make assignments to DLIFLC; and the 
utilization and retention of DLIFLC graduates in their career fields in 
the Defense department. Based on these analyses, I will continue to 
work with all the stakeholders to ensure that DLIFLC is adequately 
staffed and resourced.
                                 ______
                                 
    [The nomination reference of Dr. Laura J. Junor follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 February 27, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Laura J. Junor of Virginia, to be a Principal Deputy Under 
Secretary of Defense, vice Jo Ann Rooney, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Laura J. Junor, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Dr. Laura J. Junor
Education:
    Prince George's Community College

        <bullet> 1984-1986

    Goucher College

        <bullet> 1986-1988
        <bullet> MA Economics (1988)

    George Mason University

        <bullet> 1988-1993
        <bullet> MA Economics (1992)
        <bullet> PhD Economics (1993)
Employment Record:
    Office of the Under Secretary of Defense (Personnel & Readiness)

        <bullet> Deputy Assistant Secretary of Defense (Readiness)
        <bullet> June 2011-Present

    Office of the Director, Cost Assessment & Program Evaluation

        <bullet> Special Assistant
        <bullet> October 2009-June 2011

    Readiness Logic LLC (Self Employed)

        <bullet> Consultant
        <bullet> August 2007-September 2009

    Office of the Under Secretary of Defense (Personnel & Readiness)/
CNA Corporation

        <bullet> Analytic Advisor/Interagency Director (IPA)
        <bullet> November 2003-July 2007

    CNA Corporation

        <bullet> Deputy Team Lead for Readiness
        <bullet> July 1994-November 2003

    Tulane University

        <bullet> Visiting Assistant Professor in Economics
        <bullet> June 1993-July 1994
Honors and awards:
        <bullet> Research Assistant/Teaching Assistant; George Mason 
        University Economics Department
        <bullet> Dissertation Fellowship; George Mason University 
        Center for Public Choice
        <bullet> Department of Defense Exceptional Civilian Service 
        Award (Two Awards, both awarded in 2011)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Laura J. 
Junor in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Laura Jean Junor
    Laura Jean Thompson (maiden name)

    2. Position to which nominated:
    Principle Deputy Under Secretary of Defense, Personnel and 
Readiness.

    3. Date of nomination:
    February 27, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 26, 1966; Andrews Air Force Base, MD.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Thomas J. Junor III.

    7. Names and ages of children:
    Madeline Ann Junor; age: 16.
    Evelyn Larue Junor; age: 7.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    George Mason University, 1988-1993: Ph.D. Economics (1993), MA 
Economics (1992).
    Goucher College, 1986-1988: MA Economics (1988).
    Prince George's Community College, 1984-1986.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

----------------------------------------------------------------------------------------------------------------
                Title                          Employer                 Location                  Dates
----------------------------------------------------------------------------------------------------------------
Deputy Assistant Secretary of Defense  Under Secretary          4000 Defense Pentagon,   06/2011-present
 (Readiness).                           Personnel &               Washington, DC 20301
                                         Readiness
Special Assistant....................  Director, Cost           1800 Defense Pentagon,   10/2009-06/2011
                                        Assessment &              Washington, DC 20301
                                         Program Evaluation
Consultant...........................  Self (Readiness Logic    6113 Lemon Thyme Drive,  8/2007-9/2009
                                        LLC)                      Alexandria, VA 22310
IPA/Analytic Advisor.................  CNA Corporation          4000 Defense Pentagon,   11/2003-7/2007
                                                                  Washington, DC 20301
----------------------------------------------------------------------------------------------------------------


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    See positions listed in question 9.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Research Assistant/Teaching Assistant; George Mason University 
Economics Department
    Dissertation Fellowship; George Mason University Center for Public 
Choice
    Two Department of Defense Exceptional Civilian Service Awards (both 
2011).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    With Thomas Dyches. ``Lowering the Spigot on the Beer Keg: 
Strategies for Contingency Sourcing Under Uncertainty'' In The New 
Guard and Reserve. Edited by John Winkler and Barbara Bicksler, Falcon 
Books, 2009.
    ``The Defense Readiness Reporting System: A New Tool for Force 
Management,'' Joint Forces Quarterly, 2005.
    With Jessica Oi, ``Understanding Aircraft Readiness: An Empirical 
Approach'', CNA Corporation, 1997.
    With Jim Jondrow, Peter Francis, and Jessica Oi, ``A New Approach 
to Modeling Ship Readiness'', CNA Corporation, 1996.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) if confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Laura J. Junor.
    This 24th day of March, 2014.

    [The nomination of Dr. Laura J. Junor was reported to the 
Senate by Chairman Levin on June 24, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 31, 2014.]
                              ----------                              

    [Prepared questions submitted to Gordon O. Tanner by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. At this time I am unaware of any reason to amend the 
Goldwater-Nichols Act. If I am confirmed and I identify areas that I 
believe merit changes, I will propose those changes through the 
established process.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. See my prior answer.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Air Force General Counsel?
    Answer. The duties and functions of the General Counsel are 
determined and assigned by the Secretary of the Air Force. The General 
Counsel provides legal advice and guidance to the Secretary, the Under 
Secretary, the Assistant Secretaries, their staffs, and other offices 
within the Office of the Secretary, as well as to the Chief of Staff 
and the rest of the Air Staff. The General Counsel also provides legal 
services throughout the entire Department in a variety of disciplines 
including fiscal law, ethics, dispute resolution, contract law, 
environmental law, international law, intellectual property law, real 
property law, personnel law, labor law, and litigation. The General 
Counsel determines the controlling legal positions of the Department of 
the Air Force. The General Counsel also serves as the Designated Agency 
Ethics Official, the Suspension and Debarring Official for the 
Department of the Air Force, and the Dispute Resolution Specialist and 
exercises oversight of intelligence and other sensitive activities and 
investigations.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe that my education and over 40 years of practice--
in both public service and private practice--have well prepared me for 
the challenges of this office. I received a Bachelors of Arts degree 
from the University of Alabama and was commissioned as a Distinguished 
Graduate through its Air Force ROTC program. I attended the Vanderbilt 
University School of Law where I received a J.D. degree. While in law 
school I worked for the Tennessee Legislative Council to assist members 
of the Tennessee Legislature to draft proposed legislation. Upon 
passing the State bar examination, I began 4 years of Active Duty 
military service as a Judge Advocate at Tyndall Air Force Base, FL. At 
the expiration of my Active Duty commitment, I returned to my hometown 
and joined the law firm of McDermott, Slepian, Windom & Reed and 
undertook my first assignment in the Air Force Reserve as the Staff 
Judge Advocate of the 926 Tactical Fighter Group in New Orleans, LA. I 
remained with the same law firm and its successor, Sirote & Permutt for 
approximately 20 years. Likewise, I remained in the Air Force Reserves 
and retired as a colonel after 24 years of service. I believe that my 
experience as both an Active Duty and Reserve judge advocate; my 12 
years of service in the Air Force General Counsel's office, culminating 
with 22 months as the Principal Deputy General Counsel; my 
opportunities to serve as both a Deputy Assistant Secretary of the Air 
Force (Reserve Affairs) and the Principal Deputy Assistant Secretary of 
the Air Force (Manpower and Reserve Affairs); as well as my experience 
in private practice at a law firm with national and international 
clients, have prepared me for the challenging and diverse legal issues 
that will face the Department of the Air Force.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Air Force General 
Counsel?
    Answer. I believe I have the necessary legal training, experience 
and leadership abilities to be the General Counsel. This is especially 
true given my experience as the Principal Deputy General Counsel and 
the Principal Deputy Assistant Secretary of Manpower and Reserve 
Affairs, as well as my career as a Reserve Air Force judge advocate. I 
am also a firm believer, however, that the best lawyers work hard to 
completely understand the operations of their client. If confirmed, I 
will benefit from the extraordinary talent, expertise and experience of 
the civilian and military lawyers in the Department as I broaden my 
understanding of the issues the Air Force faces every day.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Air Force would prescribe for you?
    Answer. If confirmed, I anticipate Secretary James will expect me 
to provide timely, accurate, and candid legal advice and counsel, 
ensuring compliance with the law and the protection of the legal 
prerogatives of the Department. I expect the duties and functions of 
the office will cover the wide range of legal issues and 
responsibilities prescribed by the Secretary. I anticipate the 
Secretary would expect me to manage the General Counsel's Office 
efficiently and effectively. Additionally, I anticipate the Secretary 
would expect me to foster an atmosphere of professionalism and 
responsiveness regarding all legal matters and services while working 
with the Office of The Judge Advocate General, the General Counsels of 
the Department of Defense (DOD) and the other military departments, as 
well as the legal staffs of other government agencies.
    Question. In carrying out your duties, how will you work with the 
General Counsel of the Department of Defense?
    Answer. If confirmed, I will work closely and collaboratively with 
the General Counsel of the Department of Defense. Although the General 
Counsel of the Department of the Air Force does not have a direct 
reporting relationship with the DOD General Counsel, the DOD General 
Counsel is by law (title 10 U.S.C. section 140(b)) and by regulation 
(DOD Directive 5145.01), the chief legal officer of the Department of 
Defense. If confirmed, I anticipate having a close and professional 
relationship with the DOD General Counsel, characterized by continuing 
consultation, communication, and cooperation on matters of mutual 
interest, in furtherance of the best interests of DOD.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the Air Force General Counsel?
    Answer. The challenges facing the Department of the Air Force as a 
whole, as well as DOD, will largely determine the challenges that will 
confront the General Counsel of the Air Force. Secretary Hagel has made 
clear that institutional reform will be a priority in the near term, 
and I expect that to be a priority for the General Counsel of the Air 
Force as well. Secretary Hagel's concept of institutional reform has 
three components: (1) Reform and reshape our defense enterprise; (2) 
Direct more resources to military capabilities and readiness; and (3) 
Make organizations flatter and more responsive. Secretary James is 
working on reshaping our defense enterprise. Under her leadership the 
Air Force budget execution and budget submission are shifting more 
resources to military readiness and modernization. Finally, she has 
made significant efforts to flatten our organization by reducing our 
management staff by 20 percent in a single year. Secretary Hagel and 
Secretary James will continue to make these efforts priorities and 
therefore they will be mine as well.
    Although the current environment makes it difficult to anticipate 
all specific legal questions, I also expect to confront issues relating 
to operational matters, intelligence, privatization initiatives, 
military and civilian personnel policies, and compliance with 
environmental laws. In addressing these challenges, I think it will be 
critically important that the Office of the General Counsel and the 
Office of The Judge Advocate General have a cooperative and 
professional partnership.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I plan on working closely with the Secretary, 
the Chief of Staff, The Judge Advocate General, and the talented and 
dedicated attorneys in the Department of the Air Force to candidly 
evaluate the challenges and to ensure responsive and accurate legal 
services are provided to meet and address these challenges. In 
addition, if confirmed, I will work to expertly staff the Air Force 
legal community, in order to guarantee decisionmakers at all levels 
access to the best legal advice possible.
    Question. What do you see as the greatest legal problems facing the 
Air Force in the coming year?
    Answer. In a time of declining budgets, the Air Force is being 
forced to make hard decisions. All of these decisions will require 
consultation with Congress and a careful reading of the laws passed by 
Congress. If confirmed, I will ensure the Office of the General Counsel 
facilitates communication with Congress. I will also ensure that the 
Office of the General Counsel provides timely, accurate, and candid 
legal advice, ensuring compliance with the law and protection of the 
legal prerogatives of the Air Force. It is imperative that the Air 
Force has the legal support necessary to build and maintain the very 
best air, space and cyberspace capabilities possible.
    Question. Does the Air Force Office of the General Counsel have the 
resources to deal with these problems?
    Answer. Yes. The Office of the General Counsel, like the rest of 
the management structure of the Air Force, participated in the 
Secretary of Defense-directed 20 percent reduction in management 
resources. While these cuts will present challenges, I believe we have 
adequate resources to provide good legal advice to Air Force senior 
leaders as we work together to resolve significant legal challenges. I 
also believe that there are lessons to be learned from the Office of 
the Judge Advocate General, private law firms and the legal staffs of 
other Federal agencies that could maintain and even improve the 
existing high quality of service by the Air Force General Counsel's 
office in this time of reduced manning and resources.
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Air Force Office of the General 
Counsel?
    Answer. I plan to continue the work underway in the Office of the 
General Counsel to refine a strategic plan. This plan starts by simply 
stating the mission of this organization--to wit: The Office of the 
General Counsel enables the Air Force to achieve its mission through 
the provision of independent and candid legal advice, effective 
advocacy, and problem-solving. The draft Strategic Plan focuses on four 
areas that will help the Office of the General Counsel achieve its 
mission: (1) Talent Management; (2) Customer Satisfaction; (3) Program 
Execution; and (4) Knowledge Management. If confirmed, I will provide 
the leadership necessary to refine, approve and implement the Office of 
the General Counsel strategic plan.
              relationship with the judge advocate general
    Question. In carrying out your duties, if you are confirmed, how 
will you work with the Judge Advocate General of the Air Force?
    Answer. Throughout my career of military and civil service, 
particularly during the nearly 15 years of my civil service, I have 
enjoyed an excellent working relationship with The Judge Advocate 
General's Corps that resulted in the delivery of high quality legal 
services to Air Force leadership at all levels. I learned first-hand 
about the unique and vital experiences and expertise that civilian and 
military lawyers bring to the table, and that the final legal advice 
given to the client benefited greatly from our close working 
relationship. I was very proud to be a member of the team that 
delivered those services. If confirmed, I will work to maintain a close 
professional relationship with The Judge Advocate General. Consultation 
on matters of mutual import and interest should characterize that 
relationship. It is imperative that the two offices work well together 
to provide the highest quality of legal support to the Department of 
the Air Force.
    Question. How are the legal responsibilities of the Department of 
the Air Force allocated between the General Counsel and the Judge 
Advocate General?
    Answer. My career of military and civil service convinced me that 
it is critical that The Judge Advocate General and the General Counsel 
work as collaborative partners to provide the best possible legal 
services to our common client. If confirmed, I will make maintaining 
such a partnership a priority. In recognition of the unique expertise 
and experiences provided by the Office of the General Counsel and The 
Judge Advocate General, both offices provide legal advice to the 
Secretary of the Air Force and other Department officials. In addition, 
The Judge Advocate General is responsible for the activities of The 
Judge Advocate General's Corps and is primarily responsible for 
providing legal advice and services regarding the Uniform Code of 
Military Justice. The law expressly prohibits interference with the 
ability of The Judge Advocate General to give independent legal advice 
to the Secretary of the Air Force. Even in the absence of that 
statutory requirement, I would welcome the expression of independent 
views on legal issues by The Judge Advocate General.
    Question. How will you ensure that legal opinions of your office 
will be available to Air Force attorneys, including judge advocates?
    Answer. Close professional cooperation between the civilian and 
uniformed members of the Air Force's legal community is absolutely 
essential to ensure appropriate legal opinions issued by the Office of 
the Air Force General Counsel will be available to all Air Force 
attorneys and Judge Advocates, and vice versa. If confirmed, I will 
survey existing avenues for sharing information and consult with The 
Judge Advocate General on ensuring the thorough and timely 
dissemination of key advice.
    Question. In response to attempts within the Department of Defense 
to subordinate legal functions and authorities of the Judge Advocates 
General to the General Counsels of the Department of Defense and the 
military services, Congress enacted legislation prohibiting any officer 
or employee of the Department of Defense from interfering with the 
ability of the Judge Advocates General of the military services and the 
legal advisor to the Chairman of the Joint Chiefs of Staff to provide 
independent legal advice to the Chairman, Service Secretaries, and 
Service Chiefs. Congress also required a study and review by outside 
experts of the relationships between the legal elements of each of the 
military departments.
    What is your view of the need for the Judge Advocate General of the 
Air Force to provide independent legal advice to the Secretary of the 
Air Force and the Chief of Staff of the Air Force?
    Answer. The Judge Advocate General's ability to provide independent 
legal advice has been statutorily recognized as essential to the 
effective delivery of legal services. I share that view. Uniformed 
attorneys bring another perspective and can provide insight and advice 
shaped by years of service throughout the Air Force.
    Question. What is your view of the responsibility of Air Force 
judge advocates to provide independent legal advice to military 
commanders?
    Answer. Air Force Judge Advocates have a critical responsibility to 
provide independent legal advice to commanders, given the missions they 
perform. I think this is well stated by The Judge Advocate General's 
Corps mission statement, which emphasizes the importance of 
professional, candid and independent legal advice.
    Question. If confirmed, would you propose any changes to the 
current relationships between the uniformed judge advocates and General 
Counsel?
    Answer. If confirmed, I will make sustaining the collegial and 
effective relationship that currently exists between the General 
Counsel and The Judge Advocate General a top priority, to ensure the 
effective delivery of legal services to the Department of the Air 
Force.
    Question. Are legal opinions of the Office of the Air Force General 
Counsel binding on all Air Force lawyers?
    Answer. Within the areas of responsibility and functions assigned 
to me by the Secretary under title 10 U.S.C. Sec. 8019, the opinions 
rendered by the General Counsel are equally binding on all members of 
the Air Force legal team. If confirmed, I will endeavor to engage the 
full breadth of professional expertise and experience of Air Force 
legal professionals, both civilian and judge advocates, to ensure that 
sound professional inputs are considered in the development of opinions 
provided to senior Air Force leadership. During my tenure as the 
Principal Deputy Air Force General Counsel, my practice was to ensure 
that such opinions were drafted in collaboration with The Judge 
Advocate General (TJAG) and his staff. I cannot recall a single 
instance during my service as Principal Deputy General Counsel where 
any differences weren't resolved through discussions between the 
staffs. If there were to be such a disagreement, since the General 
Counsel and The Judge Advocate General both act under the authority of 
the Secretary, The Judge Advocate General would always have the ability 
to offer independent advice to the Secretary and seek resolution of the 
disagreement. Any resulting legal opinions would thus be rendered under 
the authority of the Secretary.
    Question. How will you ensure that such legal opinions are 
available to Air Force lawyers?
    Answer. Final opinions are published through a cooperative General 
Counsel and TJAG process. As for proposed opinions, if confirmed, I 
would ensure close cooperation between General Counsel and TJAG offices 
to ensure they are available to those whose coordination and 
consultation are appropriate to the subject matter and potential 
impacts of the opinion.
    Question. If confirmed, are there specific categories of Air Force 
General Counsel legal opinions that you expect to reconsider and 
possibly revise? If so, what categories?
    Answer. At this time I am not aware of any specific categories that 
require revision. If confirmed as the General Counsel of the Air Force, 
I will undertake the responsibilities of the office with an open mind. 
Only after a thorough review and assessment of existing opinions, as 
well as appropriate consultation, will I consider revision of existing 
opinions. I believe one of the responsibilities of the General Counsel 
is to constantly assess opinions rendered in areas of the law and 
particular issues that may need reconsideration and/or revision based 
on current events and legal, regulatory and policy development.
    Question. Article 6 of the Uniform Code of Military Justice gives 
primary jurisdiction over military justice to the Judge Advocates 
General of the Army, Navy, and Air Force.
    How do you view your responsibilities in the performance of 
military justice matters with regard to the Judge Advocate General of 
the Air Force?
    Answer. The Judge Advocate General has the primary responsibility 
for providing legal advice and services regarding the Uniform Code of 
Military Justice and the administration of military discipline. Article 
6 of the Uniform Code of Military Justice requires The Judge Advocate 
General or senior members of his staff to make ``frequent inspections 
in the field'' in furtherance of his responsibility to supervise the 
administration of military justice. If confirmed as the General 
Counsel, I will consult with The Judge Advocate General on matters of 
mutual interest or concern relating to military justice, recognizing 
his statutory duties and special expertise in this area, and will 
provide advice to the Secretary of the Air Force as needed.
                attorney recruiting and retention issues
    Question. How do you assess your ability to hire and retain top 
quality attorneys and provide sufficient opportunity for advancement?
    Answer. If confirmed, I plan to work to maintain the Air Force's 
ability to recruit and retain the highest quality civilian and military 
attorneys both in the General Counsel's Office and The Judge Advocate 
General's Corps. If confirmed, I want to make Federal service as a 
civilian attorney in the Air Force as attractive and professionally 
rewarding as possible. I will also work with The Judge Advocate General 
to ensure the Air Force has the tools we need to continue to recruit 
and retain the best and most diverse attorneys available to support the 
mission.
    Question. In your view, does the Department of the Air Force have a 
sufficient number of attorneys to perform its missions?
    Answer. If confirmed, I will work closely with The Judge Advocate 
General to evaluate the adequacy of the number of attorneys to ensure 
that there are a sufficient number of attorneys in the Department of 
the Air Force to accomplish the Air Force's missions. We must ensure 
that we continue to develop and maintain the right balance of legal 
skill sets and properly develop future leaders needed for our full-
spectrum legal support that enables Air Force mission success.
    For example, The Judge Advocate General's Corps has both a 
significant home-station (military justice, litigation support) and 
contingency (operations, Rule of Law, detention ops) legal support 
mission. The JAG Corps has averaged 234 deployment requirements per 
year for the past 12 years. Sustained legal support operations over the 
past 12 years in every combatant commander AOR translate into reduced 
capacity for the home station mission. In addition, while the Air Force 
looks to reduce overall end strength to meet budgetary constraints, 
missions continue to grow for Air Force legal professionals. For 
example, the Corps continues to lead the Air Force in its efforts to 
combat sexual assault through the Special Victims Counsel program and 
with a cadre of highly trained sex assault prosecutors. Sustainment of 
those valuable programs, as well as other important missions such as 
civil litigation and legal advice to commanders at all echelons, 
requires a steady, reliable, and predictable stream of JAG and GC 
accessions.
    Question. In your view, what incentives to successful recruiting 
and retention of attorneys, if any, need to be implemented or 
established?
    Answer. If confirmed, in consultation with The Judge Advocate 
General, I will look at this area very carefully and support 
initiatives that enhance the Air Force's ability to recruit and retain 
the best legal talent available.
                            detainee issues
    Question. What role do you expect to play, if confirmed, in helping 
the Department of Defense and the Department of the Air Force address 
legal issues regarding detainees?
    Answer. The legal issues regarding detainees are of critical 
importance to DOD and the Department of the Air Force. These issues 
need to be handled with great care, and with a clear focus on the rule 
of law. If confirmed, I will work closely with the DOD General Counsel 
in executing the President's directives. Additionally, in consultation 
with The Judge Advocate General, I will provide advice to the Secretary 
regarding detainee issues affecting the Air Force, with particular 
focus on our obligation to treat all detainees humanely.
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the United States Government, regardless 
of nationality or physical location shall be subject to cruel, inhuman, 
or degrading treatment or punishment.
    In your view, is the prohibition in the best interest of the United 
States? Why or why not?
    Answer. Yes, this prohibition is in the best interest of the United 
States. Prohibiting the cruel, inhumane, or degrading treatment or 
punishment of individuals in our custody or under our physical control 
upholds our ideals and obligations, and reinforces our moral authority 
around the world.
    Question. Do you believe that the phrase ``cruel, inhuman, or 
degrading treatment or punishment'' has been adequately and 
appropriately defined for the purpose of this provision?
    Answer. I understand that considerable attention has been given to 
this issue within DOD. If confirmed, I will play an active part in 
ensuring the Department's implementing directives make clear what 
conduct is prohibited.
    Question. What role do you believe the General Counsel of the Air 
Force should play in the interpretation of this standard?
    Answer. The appropriate role of the General Counsel is to provide 
advice to the Secretary of the Air Force and her staff on policies that 
implement this standard. If confirmed, I will ensure Air Force 
implementation is and remains consistent with the law.
    Question. What role do you believe the Judge Advocate General of 
the Air Force should play in the interpretation of this standard?
    Answer. The Judge Advocate General provides advice on policies that 
implement this standard. The Judge Advocate General should also 
continue to train and supervise the judge advocates in the field, who 
are instrumental in maintaining this standard.
    Question. If confirmed, will you take steps to ensure that all 
relevant Air Force directives, regulations, policies, practices, and 
procedures fully comply with the requirements of section 1403 and with 
Common Article 3 of the Geneva Conventions?
    Answer. I will. The requirements of section 1403 and Common Article 
3 of the Geneva Conventions remain essential to maintaining a 
disciplined Air Force, bound by the Rule of Law.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. I do.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    In your view, does section 2441 define these terms in a manner that 
provides appropriate protection from abusive treatment to U.S. 
detainees in foreign custody and to foreign detainees in U.S. custody?
    Answer. This statute is intended to provide criminal sanctions for 
specific war crimes as provided under international law and also 
violations of the Uniform Code of Military Justice. Even apart from our 
obligations to prosecute these violations, however, the United States 
also has the obligation to ``take all measures necessary for the 
suppression'' of all other violations of the Geneva Conventions, even 
those that are not grave breaches, and I believe the Department must 
continue to hold military members accountable for violations of these 
standards as well. I think that this statute, in addition to robust and 
vigilant training of airmen of our legal obligations, will protect 
against abusive treatment of foreign detainees in U.S. custody, as well 
as provide proper criminal sanctions against those who do not likewise 
secure reciprocal protection of U.S. detainees in foreign custody.
       criminal jurisdiction over contractors on the battlefield
    Question. The Military Extraterritorial Jurisdiction Act (MEJA) was 
enacted in 2000 to extend the criminal jurisdiction of the U.S. courts 
to persons employed by or accompanying the Armed Forces outside the 
United States.
    In your view, does MEJA provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I understand that MEJA was intended to address the 
jurisdictional gap in U.S. law regarding criminal sanctions, as applied 
to civilians employed by or accompanying the Armed Forces outside the 
United States, including contractors and servicemembers' dependents. In 
my opinion, MEJA provides an effective means of exercising 
extraterritorial criminal jurisdiction over contractor employees in 
Iraq, Afghanistan, and other areas of combat operations who engage in 
conduct that would constitute a felony-level Federal crime in the 
United States.
    Question. What changes, if any, would you recommend to MEJA?
    Answer. If confirmed, I will study this issue and assess what 
changes to MEJA may be appropriate, if any.
    Question. What role would you expect to play, if confirmed, in 
developing administration recommendations for changes to MEJA?
    Answer. If confirmed, I expect to play an active role in the 
development of any proposals to change MEJA. I would also coordinate 
closely with The Judge Advocate General in the development of any such 
proposals given the complementary and sometimes overlapping 
availability of jurisdiction under the Uniform Code of Military Justice 
(UCMJ).
    Question. Section 552 of the National Defense Authorization Act for 
Fiscal Year 2007 extended criminal jurisdiction of the military courts 
under the UCMJ to persons serving with or accompanying an armed force 
in the field during time of declared war or a contingency operation, 
such as our current operations in Iraq and Afghanistan.
    In your view, does the UCMJ provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. The UCMJ provides commanders the tools necessary to 
maintain good order and discipline and ensure the morale, welfare and 
safety of all those under their jurisdiction during military 
operations. Because misconduct by contractors can undermine good order 
and discipline, Congress extended UCMJ jurisdiction over such 
individuals in times of declared war or contingency operations. In 
turn, the Secretary of Defense published guidance on the prudent 
exercise of such jurisdiction. This guidance ensures that the 
Department of Justice and DOD each play an appropriate role in 
resolving whether, and under which system, jurisdiction might be better 
exercised in each potential case.
    Question. What is your view of the procedures agreed upon by the 
Department of Defense and the Department of Justice to reconcile 
jurisdictional responsibilities under MEJA and the UCMJ?
    Answer. I have not had an opportunity to review the procedures 
agreed upon by DOD and the Department of Justice to reconcile 
jurisdictional responsibilities under MEJA and the UCMJ. If confirmed, 
I will, in coordination with The Judge Advocate General, assess the 
effectiveness of the procedures and whether further refinement of these 
procedures is necessary.
    Question. What changes, if any, would you recommend to the UCMJ to 
ensure appropriate jurisdiction for alleged criminal actions of 
contractor employees?
    Answer. At present, I am not aware of any specific provisions in 
need of change. It is my understanding, however, that the Secretary of 
Defense has appointed a working group staffed with personnel from each 
of the Services to undertake a complete review of the UCMJ. If 
confirmed, I will do all that I can to support this review and offer 
resources, opinion and counsel as appropriate.
                          religious guidelines
    Question. In your view, do Department of Defense policies 
concerning religious accommodation in the military appropriately 
accommodate the free exercise of religion and other beliefs, including 
individual expressions of belief, without impinging on those who have 
different beliefs, including no religious belief?
    Answer. Yes. However, I am aware that there is congressional 
concern about whether or not the Air Force implementation and execution 
of the Department of Defense policies are adequately protecting 
individual expressions of belief. I am also aware that the Air Force is 
taking these concerns seriously and is currently reviewing its 
policies. If confirmed, I will study this issue to determine if changes 
or further changes are necessary under the law.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. Yes. I know from my previous working relationship with 
leaders of the Air Force Chaplain Corps that Air Force chaplains are 
never compelled to offer prayers that are inconsistent with their 
faith. I further know that they are expected to remain sensitive to the 
needs of, and provide care for, all the Air Force members they serve. 
Military chaplains have always had the prerogative to pray according to 
their endorsing faith group traditions inside or outside of religious 
services. Chaplains are trained and equipped to consider the setting 
and audience in preparation of prayers outside of religious services. 
Additionally, they have always had the freedom and protection to 
decline the opportunity to offer a prayer at a ceremony that may 
conflict with their personal beliefs without fear of discipline or 
discrimination. If I am confirmed, I will consult with the Chief of 
Chaplains about whether any adjustments are necessary or advisable.
    Question. Section 533 of the National Defense Authorization Act for 
Fiscal Year 2013 (P.L. 112-239), as amended by section 532 of the 
National Defense Authorization Act for Fiscal Year 2014 (P.L. 113-66) 
protects rights of conscience of members of the Armed Forces and 
chaplains of such members, and prohibits, so far as possible, use of 
such beliefs as the basis of any adverse personnel action, 
discrimination, or denial of promotion, schooling, training, or 
assignment. Members of some religious denominations have sincerely held 
beliefs in opposition to same-sex marriage.
    In your view, may a member of the Armed Forces who has a sincerely 
held belief in opposition to same-sex marriage be subject to adverse 
personnel action or similar other adverse action, if he or she shares 
those personal views on the subject in a personal capacity?
    Answer. No. A member of the Armed Forces who has a sincerely held 
belief in opposition to same-sex marriage should not be subject to 
adverse personnel action if he or she shares those personal views in a 
personal capacity, as long as the member's expression, in his or her 
personal capacity, is not disruptive to good order and discipline, 
respects the dignity of those with whom he or she may disagree, and is 
not coercive in nature.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination.
    If confirmed, what role, if any, would you play in the officer 
promotion system, particularly in reviewing general and flag officer 
nominations?
    Answer. I understand that, for general officer promotions, the 
Office of the General Counsel reviews the following:

    A.  Memoranda of Instruction that govern the conduct of promotion 
selection boards and subsequent promotion selection board reports.
    B.  Adverse information that is not in an officer's official 
military personnel file that may be presented to the promotion 
selection board. I have been advised that this information is reviewed 
to ensure it is accurate and comports with the requirements of title 10 
such that the information is ``substantiated, relevant information that 
could reasonably affect the deliberations of the selection board''.
    C.  Adverse information related to general officers. In general 
officer cases, the standard for adverse information that must be 
presented to a promotion selection board is ``any credible information 
of an adverse nature''. I have been advised that the Office of the 
General Counsel participates in a detailed screening process in which 
all credible information related to officers whose records will be 
reviewed by a promotion selection board for promotion to a general 
officer grade. The process ensures that all adverse information is 
properly identified for presentation to the promotion selection board.
    D.  Adverse information that becomes available after a promotion 
selection board makes its recommendations. I have been advised that the 
Office of the General Counsel provides legal advice to the Secretary of 
the Air Force so that she may determine whether a promotion review 
board should be convened to consider whether to continue to support the 
promotion of the considered officer or take steps to remove the officer 
from the board report or promotion list.

    Question. What is your understanding of the role of the General 
Counsel of the Department of the Air Force in ensuring the legal 
sufficiency of statutory selection board processes?
    Answer. I understand that, prior to approval by the Secretary of 
the Air Force, all Memoranda of Instructions for officer promotion 
selection boards are reviewed by the Office of the General Counsel to 
ensure the Secretary's instructions conform to statutes and accurately 
reflect her guidance regarding attributes necessary for service in the 
next grade. All reports of promotion selection boards are reviewed by 
the Office of the General Counsel prior to final action on the report 
by the Secretary. The General Counsel must determine that the Air Force 
has met applicable statutory standards, DOD direction and Secretary of 
the Air Force guidelines and that individual selection board reports 
conform to the law. The General Counsel must advise the Secretary of 
the Air Force of any case in which a selection board report fails to 
adhere to the statutory standards, either generally or with regard to a 
particular officer being considered for promotion. In advising the 
Secretary of the Air Force and the Office of the Assistant Secretary of 
the Air Force (Manpower and Reserve Affairs), the General Counsel helps 
to ensure that Air Force promotion policies properly implement 
applicable laws and regulations and are fairly applied.
    Question. What is the role, if any, of the General Counsel of the 
Department of the Air Force in reviewing and providing potentially 
adverse information pertaining to a nomination to the Senate Armed 
Services Committee?
    Answer. It is my understanding that, under current practice within 
the Department of the Air Force, the General Counsel's office reviews 
each selection board report, as well as departmental communications to 
the committee, the President, and the Secretary of Defense concerning 
nominations, to ensure that the reports and communications comply in 
form and substance with law and regulation. If confirmed, I will ensure 
that the General Counsel's office gives special attention to cases of 
nominees with substantiated or potentially adverse information, in 
order to ensure that such information is reported to the Senate Armed 
Services Committee in a timely, accurate, and comprehensible manner.
                  military personnel policy and cases
    Question. In your view, what role, if any, should the General 
Counsel play in military personnel policy and individual cases, 
including cases before the Board for Correction of Military Records?
    Answer. If confirmed, I will work closely with the Secretary of the 
Air Force, the Assistant Secretary of the Air Force (Manpower and 
Reserve Affairs), and other senior Department leaders to ensure that 
the Department of the Air Force military personnel policies are 
formulated and applied uniformly, fairly, and in accordance with 
applicable laws and regulations. If confirmed, it will be my duty to 
take appropriate action if I become aware of an individual case in 
which military personnel policies were not fairly and lawfully applied. 
If confirmed, I will coordinate with the Assistant Secretary of the Air 
Force (Manpower and Reserve Affairs), who exercises overall supervision 
of the Air Force Review Boards Agency, regarding the legal sufficiency 
of the determinations made by the Air Force Board for the Correction of 
Military Records. In addition, I am aware of, and fully respect, the 
independent role that the Air Force Board for the Correction of 
Military Records plays in the correction of military records.
                 sexual assault prevention and response
    Question. The fiscal year 2013 Department of Defense Annual Report 
on Sexual Assault in the Military reflects that reports of sexual 
assaults in the Air Force increased by 33 percent from fiscal year 2012 
to 1,047 reports of sexual assault.
    What is your assessment of this report?
    Answer. I have been working on sexual assault prevention and 
response in the Air Force for many years now. Victims are now reporting 
in unprecedented numbers and we view that as a positive sign.
    Historically, reports of sexual assault have increased about 5 
percent per year since 2006. As you note, in fiscal year 2013, reports 
are up an unprecedented over 30 percent. Our best assessment is that 
this increase as consistent with growing confidence in our response 
system. As the Department of Defense and the Air Force continue to 
collect information, I believe we will be able to provide concrete 
evidence to show that the increase reflects growing confidence in Air 
Force response systems that provide victims with supportive services 
and hold offenders appropriately accountable. I believe the success of 
the Special Victim's Counsel program is playing a significant role in 
the growing confidence.
    Question. What is your assessment of the Air Force sexual assault 
prevention and response program?
    Answer. The Air Force Sexual Assault Prevention and Response 
program has dramatically improved over the past 2 years. Now directly 
aligned under the Air Force Vice Chief of Staff reflecting broad Air 
Force support from the highest levels of leadership, and with the 
dedication of new resources to address this issue, the program is 
moving forward very quickly. This office is working hard to implement 
many new congressional and Department of Defense initiatives, as well 
as its own. The Air Force is becoming an innovative leader in this area 
with initiatives that are being adopted across the Department of 
Defense, such as its Special Victim's Counsel program that provides 
victims an unprecedented level of service and support.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. Expanded reporting is necessary to provide enhanced care, 
increase awareness and understanding of the issue, and hold 
perpetrators accountable. Restricted reporting is a valuable option 
which ensures that victims who are otherwise not ready to participate 
in the investigative process have access to the care they desperately 
need, while at the same time leaving open the possibility to pursue 
accountability for the offender at a later time.
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. The chain of command is critical to making progress to 
prevent instances of sexual assault. Caring, empathetic support by the 
chain of command is the key to building victim confidence and ensuring 
victims are encouraged to avail themselves of free legal 
representation, expedited transfers, and professional responders. The 
chain of command also plays a significant role in building airmen's 
awareness of resources available outside the chain of command.
    Question. What is your understanding of the adequacy of Air Force 
resources and programs to provide victims of sexual assault the 
medical, psychological, and legal help they need?
    Answer. As victims of one of society's most underreported crimes 
continue to come forward in increasing numbers, the resources required 
to continue the necessary quality of medical, psychological, and legal 
help may need to be revisited. If confirmed, I will work with senior 
Air Force leadership to ensure the Air Force continually monitors the 
adequacy of the resources dedicated to supporting victims.
    Question. What is your view of the steps the Air Force has taken to 
prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. Sexual Assault Prevention and Response is a full-time, 
worldwide commitment for the Air Force. Airmen receive both pre- and 
post-deployment briefings, and the Air Force has fully qualified 
military personnel who are worldwide deployable and prepared for 
constant rotation to contingency areas to ensure awareness of this 
program and its importance.
    Question. What is your view of the adequacy of the training and 
resources the Air Force has in place to investigate and prosecute 
allegations of sexual assault?
    Answer. The Air Force has increased its emphasis on both training 
and resources dedicated to response to allegations of sexual assault. 
Congress has been very supportive in dedicating funds for this purpose 
and the Air Force has been quick to develop courses, curriculum, 
studies, techniques, and specialized training to hone the skills of its 
investigators and qualify experts who can better support victims and 
hold perpetrators accountable--while at the same time protecting the 
rights of all parties involved. If confirmed, I will continue to work 
with other Air Force leaders to ensure continued availability of 
adequate training and resources.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. My nearly 30 years of Active Duty, Reserve, and civilian 
Air Force experience taught me that the chain of command is the 
catalyst for cultural change in the military. In part, this is because 
of the responsibility and accountability commanders have for all 
aspects of their commands, with multiple layers of observation and 
higher-level oversight. Commanders are specifically charged with 
maintaining climates of dignity and respect, as well as supporting 
sexual assault prevention and victim-care principles. Air Force 
regulations now require commanders to be graded on their success in 
this endeavor on their annual performance reports.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. I do not have sufficient information or expertise to 
accurately assess the potential impact. Because of the importance of 
the chain of command in all prevention and response efforts, I believe 
it is critical that the chain of command remain significantly involved 
in holding perpetrators of sexual assault accountable for the crimes 
they commit.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Air Force?
    Answer. Given the importance of this issue to the Nation, its Air 
Force and all its airmen, if confirmed, I will make it my top priority 
to work with senior leaders to explore and implement new initiatives 
and seek improvements to our current programs and processes.
                        whistleblower protection
    Question. Section 1034, title 10, U.S.C., prohibits taking 
retaliatory personnel action against a member of the Armed Forces as 
reprisal for making a protected communication. By definition, protected 
communications include communications to certain individuals and 
organizations outside of the chain of command.
    If confirmed, what actions will you take to ensure that senior 
military leaders understand the need to protect servicemembers who 
report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. If confirmed, I will work with the Inspector General and 
The Judge Advocate General to ensure that military leaders are fully 
and accurately advised of the whistleblower protections accorded by law 
and regulation, and that they understand their legal responsibilities 
in this important area. In addition, if I become aware of any 
particular cases involving reprisals, I will ensure that they are 
addressed in accordance with the law. Whistleblower protections for 
military personnel are essential to the integrity of the Air Force, and 
merit serious attention by the General Counsel.
                        real estate transactions
    Question. Recent budget cuts continue to adversely impact 
availability of funds for Air Force military construction projects. To 
mitigate, the Air Force has used innovative methods to continue to meet 
the infrastructure requirements of the warfighter. For example, this 
included working with Oklahoma State officials to lease a former 
automotive plant to accommodate additional work performed by the 
Oklahoma City Air Logistics Complex and the purchase of property 
contiguous to the base for KC-46 depot maintenance. Another initiative 
is the Enhanced Use Lease project at Hill Air Force Base. However, as 
with any new public/private endeavor, questions have arisen as to the 
projects' compliance with statutes written long ago and designed to 
regulate other practices. Resolving these questions has greatly slowed 
the approval process for a number of these projects.
    How might the law and regulations be modified to facilitate 
approval of innovative projects based on their merits rather than 
delayed to ensure compliance with potentially obsolete legal and 
administrative requirements?
    Answer. As the committee is aware, I have a good deal of hands-on 
experience in public-private partnerships. Specifically, my work in 
Privatized Military Housing and Enhanced Use Leases, has given me a 
unique understanding of the opportunities and risks associated with 
this area of the law. I know that there have been varying 
interpretations of the intent of legislation within the Air Force and 
the Department of Defense--often resulting in a ``risk averse'' 
interpretation of statute. This sometimes means that innovative 
initiatives have been subject to time consuming and costly processes . 
. . which can result in not pursuing or deferring an initiative. If 
confirmed, my intent is to work with my counterparts across the Air 
Force and the Department of Defense to identify where these situations 
exist, and to help them either clarify Air Force interpretation of 
statute or request legislative change (or support) where needed. 
Additionally, if confirmed, I will undertake a comprehensive review of 
the laws and regulations in this area to identify areas that need 
modification to enhance the ability of the Air Force to take advantage 
of public-private partnerships and will work closely with the Army, 
Navy, and Department of Defense to secure their support for legislation 
to modify, clarify or expand existing authorities in this area.
                 support to air force inspector general
    Question. What role, if any, do you think the General Counsel of 
the Air Force should have in reviewing the investigations and 
recommendations of the Air Force Inspector General?
    Answer. If confirmed, I will establish and maintain a close, 
professional relationship with the Inspector General, and will provide 
candid, independent, and objective legal advice. As part of my 
responsibility to review legal and policy issues arising from the Air 
Force intelligence and counterintelligence activities, I will advise 
the Inspector General concerning proper reporting of the Air Force 
intelligence oversight activities. Of course, given the Inspector 
General's mandate for independence and candor in advising the Secretary 
as to his investigative findings and recommendations, the Inspector 
General has final authority over matters within his functional purview.
                           civilian attorneys
    Question. Judge advocates in the Armed Forces benefit from an 
established career ladder, substantial training opportunities, and 
exposure to a broad spectrum of legal areas and problems. By contrast, 
civilian attorneys in the Military Departments normally do not have 
established career programs and may do the same work for many years, 
with promotion based solely upon longevity and vacancies.
    In your opinion, does the personnel management of civilian 
attorneys need changing? If so, what do you see as the major problems 
and what changes would you suggest?
    Answer. Comprehensive and deliberate professional development of 
career civilian attorneys and paralegals is an important building block 
to ensure the Air Force receives the highest quality legal services. In 
December 2006, the Air Force General Counsel and The Judge Advocate 
General co-signed an Air Force Civilian Legal Personnel Development 
Advisory Council Charter that established a program to provide policy 
and guidance regarding: career progression, training, assignments, 
program objectives, general operation requirements, and career 
management actions proposed or initiated in support of legal civilian 
force management objectives. I served as chair of that Council for 2 
years and updated its charter in 2012 to establish and define the role 
of a development team in pursuing the above-mentioned objectives. I can 
assure you that the General Counsel and The Judge Advocate General have 
placed great emphasis on the personnel development of civilian 
attorneys. The nomination and selection of civilian attorneys to attend 
Civilian Development Education opportunities has quadrupled since these 
charters were signed. If confirmed, I will continue to emphasize the 
importance of an organized and comprehensive approach to the 
management, training, and development of civilian attorneys.
                                 client
    Question. In your opinion, who is the client of the General Counsel 
of the Department of the Air Force?
    Answer. The client of the General Counsel of the Department of the 
Air Force is the Department of the Air Force, acting through its 
authorized officials.
                           acquisition issues
    Question. What role should the General Counsel play in ensuring 
that Air Force procurement programs are executed in accordance with the 
law and DOD acquisition policy?
    Answer. If confirmed, I will work closely with the Secretary of the 
Air Force, the Assistant Secretary of the Air Force (Acquisition), and 
other senior officials to ensure the Department of the Air Force's 
acquisition and procurement programs are executed in accordance with 
applicable provisions of law, as well as DOD guidance. Participation by 
Air Force lawyers should start in the earliest stages of program 
development. They should seek out potential legal issues and, where 
appropriate, identify lawful alternative courses of action. Air Force 
attorneys should also be able to anticipate emerging issues and provide 
future-oriented guidance that improves the procurement system's ability 
to provide warfighters with mission-critical systems at prices that are 
affordable for the taxpayer.
    Question. What role should the General Counsel play in ensuring 
that ethics provisions on conflict of interest are followed both by Air 
Force personnel and by Air Force contractors?
    Answer. Ethics training, acquisition ethics training, and fostering 
a culture of ethics throughout the Air Force are paramount in creating 
an organizational climate that is sensitive to the need of avoiding 
conflicts of interest and that reacts appropriately when such issues 
arise. If confirmed, I will work closely with the Secretary of the Air 
Force, the Assistant Secretary of the Air Force (Acquisition), The 
Judge Advocate General, and other senior officials to promote an 
organizational climate that is sensitive to the need to avoid conflicts 
of interest and that reacts appropriately when specific issues arise. 
This also extends to ensuring that Air Force personnel adhere to the 
letter and spirit of the law relating to post-employment restrictions. 
Air Force lawyers can make a significant contribution to these 
endeavors through provision of training, early and sustained 
involvement in the Department's acquisition programs and procurement 
activities, and continued instructional outreach to industry.
             detecting organizational conflicts of interest
    Question. Organizational conflicts of interest have become a major 
concern with the growing use of private contractors being tasked to 
perform key functions that the services had formerly performed in-
house. This has been seen in cases in which highly qualified 
individuals who expect to be hired as government employees need a 
salary pending completion of the hiring process.
    What do you think the Air Force should do, and what should the 
General Counsel's role be, in ensuring that the Air Force identifies 
organizational conflicts of interests and takes the appropriate steps 
to avoid or mitigate them?
    Answer. If confirmed to serve as the General Counsel, I will work 
with Air Force senior leadership to educate our personnel to understand 
the circumstances that can lead to an organizational conflict of 
interest and to identify those circumstances at the earliest 
opportunity. I will help ensure that all circumstances of potential 
organizational conflicts are promptly addressed in a manner consistent 
with appropriate guidance. Our goals need to include avoidance of 
conflicting roles that might bias a contractor's judgment and 
prevention of circumstances that may result in an unfair competitive 
advantage.
    Question. What is your understanding of steps the Air Force has 
taken to address the problems created by delays in the hiring process 
under circumstances in which the Air Force intends to hire an 
individual into government service?
    Answer. I understand that Air Force leadership has engaged with the 
Office of Personnel Management, DOD, and associated liaison offices to 
address factors that can delay hiring actions. If confirmed, I look 
forward to working with Air Force leadership to continue this effort to 
minimize or eliminate delays.
                              legal ethics
    Question. What is your understanding of the action a Department of 
the Air Force attorney or an Air Force Judge Advocate should take if 
the attorney becomes aware of improper activities by a Department of 
the Air Force official who has sought the attorney's legal advice and 
the official is unwilling to follow the attorney's advice?
    Answer. The attorney should immediately bring the matter to the 
attention of the attorney's supervisor and, if not satisfactorily 
resolved, to higher-level supervisory lawyers or authorities in the 
chain of supervision or command.
    Question. Do you believe that the present limits on pro bono 
activities of government attorneys are generally correct as a matter of 
policy or does the policy need to be reviewed?
    Answer. I understand that Government attorneys may participate in 
pro bono activities on their own time, consistent with statute, 
regulation, or other rule or guidelines. I also understand that 
specific guidance applicable to the JAG Corps permits pro bono work 
with supervisory approval so long as the representation does not occur 
on Government time or at its expense, does not interfere with official 
duties, and does not create a conflict of interest or the appearance of 
a conflict of interest. Although I am not aware of the need to address 
pro bono activities, if confirmed, I would review the current policy 
with The Judge Advocate General.
    Question. In your view, do the laws, regulations, and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of the Air Force provide adequate guidance?
    Answer. I understand that all DOD lawyers are required to be 
members in good standing of a State Bar and are therefore subject to 
the rules of professional responsibility of their particular 
jurisdiction. Lawyers engaged in litigation must also comply with the 
rules of the court in which they appear. All military and civilian 
lawyers in The Judge Advocate General's Corps must comply with the 
specific rules applicable to them. If confirmed, I will review the 
rules of professional responsibility applicable to Air Force lawyers to 
assess if changes are required.
         role in the officer promotion and confirmation process
    Question. In your view, what is the role of the General Counsel of 
the Department of the Air Force in ensuring the integrity and proper 
functioning of the officer promotion process?
    Answer. I understand that, under title 10 of the U.S.C., the 
Secretary of the Air Force is responsible for the proper functioning of 
the Department of the Air Force promotion selection process. In 
addition to the legal review of memoranda of instruction and selection 
board reports to ensure they comport with statutory standards, DOD 
policy and Secretary of the Air Force guidance, the Air Force General 
Counsel must also ensure the conduct of the board process conforms to 
all legal requirements. Additionally, the General Counsel must advise 
the Secretary of the Air Force of any case in which a selection board 
report or selection board process fails to adhere to the statutory 
standards, either generally or with regard to a particular officer 
being considered for promotion. In advising the Secretary of the Air 
Force and the Office of the Assistant Secretary of the Air Force 
(Manpower and Reserve Affairs), the General Counsel helps to ensure 
that Air Force promotion policies properly implement applicable laws 
and regulations and are fairly applied.
          litigation involving the department of the air force
    Question. In your opinion, what is the relationship between the 
Department of the Air Force and the Department of Justice with respect 
to litigation involving the Department of Defense?
    Answer. The Department of Justice represents the Department of the 
Air Force in civil litigation. If confirmed, I will work with The Judge 
Advocate General to ensure the continuation of a collaborative 
relationship with the Department of Justice with respect to litigation 
involving the Department of the Air Force.
    Question. In your view, does the Department need more independence 
and resources to conduct its own litigation or to improve upon its 
current supporting role?
    Answer. It is my understanding that the Air Force's interests in 
civil litigation are effectively protected and defended by the 
Department of Justice. If confirmed, I will work with The Judge 
Advocate General to ensure that adequate resources are available to 
ensure that the Air Force is able to provide the appropriate level of 
support to the Department of Justice and protect the Air Force's 
interests in civil litigation in which the department is involved.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of the Air Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Gordon O. Tanner follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     April 7, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Gordon O. Tanner, of Alabama, to be General Counsel of the 
Department of the Air Force, vice Charles A. Blanchard, resigned.
                                 ______
                                 
    [The biographical sketch of Gordon O. Tanner, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Gordon O. Tanner
Education:
    Vanderbilt University School of Law

        <bullet> Attended September 1970-December 1972
        <bullet> J.D. (Doctor of Jurisprudence) granted December 1972

    University of Alabama

        <bullet> Attended September 1966-May 1970
        <bullet> B.A. (Political Science) Degree granted May 1970
Employment Record:
    Principal Deputy Assistant Secretary (Manpower & Reserve Affairs), 
Department of the Air Force, Pentagon, Washington DC, November 2013 to 
Present
    Principal Deputy General Counsel, Department of the Air Force, 
Pentagon, Washington DC, February 2012 to November 2013
    Deputy Assistant Secretary (Reserve Affairs), Department of the Air 
Force, Pentagon, Washington DC, June 2011 to January 2012
    Deputy General Counsel (Environment and Installations), Department 
of the Air Force, Pentagon, Washington DC, February 2008 to June 2011
    Chief Counsel, Housing Division, Air Force Center for Engineering 
and the Environment, Department of the Air Force, Brooks City-Base, San 
Antonio, TX, July 2000 to February 2008
    Senior Partner, Sirote & Permutt Law Firm, Mobile AL, 1988 to 2000
    Partner, McDermott, Slepian, Windom & Reed Law Firm, Mobile, AL, 
1977-2000
    Captain, Judge Advocate, U.S. Air Force, Tyndall AFB FL, June 1973-
May 1977
Honors and awards:
    Legion of Merit
    Outstanding Civilian Career Service Award
    Meritorious Service Medal with four oak leaf clusters
    Air Reserve Forces Policy Council Exceptional Service Award
    Air Force Commendation Medal
    Air Force Achievement Medal
    Air Force Outstanding Unit Award
    Armed Services Reserve Medal
    Longevity Service Ribbon with one device
    Air Force Training Ribbon
    Donald C. Rasher Award (for outstanding achievement by a Reserve 
Forces Judge Advocate in the field of continuing legal education)
    U.S. Air Force Reserve Judge Advocate of the Year
    Who's Who In American Law (6th through 30th editions)
    Who's Who of Emerging Leaders in America
    Outstanding Reserve Judge Advocate-Strategic Air Command
    Outstanding Reserve Judge Advocate-Eighth Air Force
    Who's Who on the Gulf Coast
    Best Lawyers in America
    Who's Who Among Students in American Colleges and Universities
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gordon O. 
Tanner in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Gordon Owen Tanner.

    2. Position to which nominated:
    General Counsel, Department of the Air Force.

    3. Date of nomination:
    April 7, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 28, 1948; Mobile, AL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Robert Luis Patlan.

    7. Names and ages of children:
    Brooke Tanner Battle, Daughter, (40).
    Lindsey Ford Tanner, Daughter (38).
    Hampton Lovejoy Tanner, Son (33).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Vanderbilt University School of Law

        <bullet> Attended September 1970-December 1972
        <bullet> J.D. (Doctor of Jurisprudence) granted December 1972

    University of Alabama

        <bullet> Attended September 1966-May 1970
        <bullet> B.A. (Political Science) Degree granted May 1970

    Mary G. Montgomery High School

        <bullet> Diploma (with honors) granted May 1966

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Principal Deputy Assistant Secretary (Manpower & Reserve Affairs), 
Department of the Air Force, Pentagon, Washington DC, November 2013 to 
Present
    Principal Deputy General Counsel, Department of the Air Force, 
Pentagon, Washington DC, February 2012 to November 2013
    Deputy Assistant Secretary (Reserve Affairs), Department of the Air 
Force, Pentagon, Washington DC, June 2011 to January 2012
    Deputy General Counsel (Environment and Installations), Department 
of the Air Force, Pentagon, Washington DC, February 2008 to June 2011
    Chief Counsel, Housing Division, Air Force Center for Engineering 
and the Environment, Department of the Air Force, Brooks City-Base, San 
Antonio, TX, July 2000 to February 2008

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Admitted, District of Columbia Bar
    Admitted, Tennessee Supreme Court
    Admitted, U.S. Court of Military Appeals
    Admitted, Alabama Supreme Court
    Admitted, U.S. Federal District Court (So. Dist. AL)
    Admitted, U.S. Tax Court
    Admitted, U.S. Court of Appeals (5th Circuit)
    Admitted, U.S. Court of Appeals (11th Circuit)
    Admitted, U.S. Supreme Court Bar Reserve Officer Association 
American Bar Association Alabama State Bar Human Rights Campaign 
(member)
    Theta Chi social fraternity
    Omicron Delta Kappa (Leadership Honorary Society)
    Jasons (University of Alabama Leadership Society)
    Pi Sigma Alpha (Political Science Honorary Society)
    The University Club of Washington, DC (member)
    Kings Creek Country Club, Rehoboth Beach, Delaware (member)
    Black Tie Club International (member)

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2012 - $600 - Primary Campaign - Andy Staton for State Senate, 
Delaware
    2012 - $600 - General Election - Andy Staton for State Senate, 
Delaware

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Legion of Merit
    Meritorious Service Medal with four oak leaf clusters
    Air Reserve Forces Policy Council Exceptional Service Award
    Air Force Commendation Medal
    Air Force Achievement Medal
    Air Force Outstanding Unit Award
    Armed Services Reserve Medal
    Longevity Service Ribbon with one device
    Air Force Training Ribbon
    Donald C. Rasher Award (for outstanding achievement by a Reserve 
Forces Judge Advocate in the field of continuing legal education.)
    Who's Who In American Law (6th through 30th editions)
    Who's Who of Emerging Leaders in America Outstanding Reserve Judge 
Advocate-Strategic Air Command Outstanding Reserve Judge Advocate-
Eighth Air Force Who's Who on the Gulf Coast Best Lawyers In America
    U.S. Air Force Reserve Judge Advocate of the Year
    Who's Who Among Students in American Colleges and Universities
    Outstanding Young Men of America

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Several entries posted on Air Force General Counsel Blog (official 
site closed)

    a.  March 8, 2013, ``ACLU Law Enforcement Initiative''
    b.  April 4, 2013, ``DADT Dinner at West Point''
    c.  April 11, 2013, ``Gay Marine on the Defense of Marriage Act 
(DOMA)''
    d.  April 19, 2013, ``Terrorists Have Attacked Seven Marathons 
Since 1994''
    e.  May 7, 2013, ``Arctic Ice''
    f.  May 10, 2013, ``Military Cyber-Operations and the Third 
Amendment to the U.S. Constitution''
    g.  June 5, 2013, ``Do Hiroshima and Nagasaki Really Matter?''
    h.  June 17, 2013, ``Is Cuba a Terrorist State?''
    i.  July 5, 2013, ``The Future Trends in Global Warfare - No Longer 
in the Future''
    j.  September 12, 2013, ``Military Suicide Rate Related to Military 
Life Insurance?''

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Gordon Owen Tanner.
    This 25th day of April, 2014.

    [The nomination of Gordon O. Tanner was reported to the 
Senate by Chairman Levin on June 24, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 16, 2014.]
                              ----------                              

    [Prepared questions submitted to Debra S. Wada by Chairman 
Levin prior to the hearing with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols Act changed Department of Defense and 
Army operations in a positive manner. The Goldwater-Nichols Act's 
framework has promoted the effective execution of responsibilities and 
improved inter-service and joint relationships. I do not see the need 
for modifications at present, but if confirmed will be able to better 
assess whether any changes are required in today's environment.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not believe modifications are needed at this time.
                                 duties
    Question. Section 3016 of title 10, U.S.C., provides that the 
Assistant Secretary of the Army for Manpower and Reserve Affairs shall 
have ``as his principal duty the overall supervision of manpower and 
Reserve component affairs of the Department of the Army.''
    If confirmed, what duties do you expect that the Secretary of the 
Army will prescribe for you?
    Answer. By statute, the Assistant Secretary of the Army for 
Manpower and Reserve Affairs' principal duty is the overall supervision 
of manpower and Reserve component affairs. If confirmed, I expect the 
Secretary will ask me to perform the duties assigned to the Assistant 
Secretary of the Army for Manpower and Reserve Affairs set forth in 
Headquarters, Department of the Army, General Orders 2012-01, which 
include setting the strategic direction for and ensuring Army policies 
plans and programs for personnel, force structure, manpower management, 
training, military and civilian personnel readiness, Reserve affairs, 
and Army protection are executed consistent with law, regulation, and 
policy.
    Question. What actions will you take to enhance your ability to 
perform the duties of the Assistant Secretary of the Army for Manpower 
and Reserve Affairs?
    Answer. Although my present position has well prepared me to 
perform these duties, should I be confirmed, I will work to further my 
knowledge of the Army, its organization, its people, and the necessary 
resources to perform its mission and meet future challenges. To 
accomplish this, I will work with the dedicated military and civilian 
staff, as well as staff throughout the Department, to thoroughly 
understand the issues the Army currently faces and to best position it 
for future sustainment and transformation.
    Question. In carrying out these duties, what would be your 
relationship with the following officials:
    The Secretary of the Army.
    Answer. If confirmed, I will provide timely and accurate advice to 
the Secretary in the areas of manpower and Reserve affairs. My 
relationship would be close, direct, and supportive. I would 
effectively communicate the advice and views of the Secretariat and 
Army Staff to him. I would ensure I understood his vision for the Army 
and would oversee the implementation of this vision throughout the 
Army. I understand I would be subject to his authority, direction, and 
control.
    Question. The Under Secretary of the Army.
    Answer. If I am confirmed, my relationship with the Under Secretary 
of the Army would be close, direct, and supportive. I would communicate 
the advice and views of the Secretariat and Army Staff to the Under 
Secretary and oversee the implementation of his decisions falling 
within my area of responsibility. Because the Under Secretary is the 
Chief Management Officer of the Department of the Army, I would 
particularly work closely with the Under Secretary of the Army with 
respect to his duties in the areas of human capital management and 
other ``business operations'' under my purview.
    Question. The other Assistant Secretaries of the Army.
    Answer. The Assistant Secretaries of the Army set strategic 
direction for and have principal responsibility for overall supervision 
of functions within their purview. They lead the development of Army 
strategic guidance and plans and recommend priorities for programming 
decisions and budget execution to the Secretary of the Army. If 
confirmed, I will establish and maintain a close and professional 
relationship with each of them and work cooperatively in addressing any 
matter falling under their areas of responsibility.
    Question. The General Counsel of the Army.
    Answer. The General Counsel is the chief legal and ethics officer 
of the Department of the Army. The General Counsel's duties include 
providing both legal and policy advice to officials of the Department 
of the Army, to include determining the position of the Army on any 
legal question or procedure. If confirmed, I will establish and 
maintain a close and professional relationship with the General 
Counsel.
    Question. The Inspector General of the Army.
    Answer. The Inspector General of the Army is charged with inquiring 
into and reporting on the discipline, efficiency, readiness, morale, 
training, ethical conduct, and economy of the Army. If confirmed, I 
will establish and maintain a close and professional relationship with 
the Inspector General of the Army.
    Question. The Chief of Legislative Liaison of the Department of the 
Army.
    Answer. The Chief of Legislative Liaison is responsible for all 
legislative affairs for the Department of the Army, to include 
developing, coordinating, and supervising policies and programs related 
to the Army's relations with Congress. If I am confirmed, I will 
establish and maintain a close and professional relationship with the 
Chief of Legislative Liaison.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. The Under Secretary of Defense for Personnel and Readiness 
is the principal staff assistant and advisor to the Secretary and 
Deputy Secretary of Defense for Total Force Management as it relates to 
readiness, National Guard and Reserve component affairs, health 
affairs, training, and personnel requirements and management. These 
responsibilities include the issuance of guidance to the Military 
Departments. If confirmed, I will develop a close and professional 
relationship with the Under Secretary of Defense for Personnel and 
Readiness. I will continuously communicate and coordinate with the 
Under Secretary of Defense for Personnel and Readiness on matters of 
mutual interest, articulating the views of the Department of the Army. 
I will ensure that the Department of the Army is administered in 
accordance with guidance and direction from the Department of Defense.
    Question. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness.
    Answer. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness advises the Under Secretary of Defense for 
Personnel and Readiness and, from time to time, performs 
responsibilities that require the issuance of guidance to the Military 
Departments. If confirmed, I will continuously communicate and 
coordinate with the Under Secretary of Defense for Personnel and 
Readiness on matters of mutual interest and in furtherance of the best 
interest of the Army and the Department of Defense.
    Question. The Chief of Staff of the Army.
    Answer. The Chief of Staff of the Army is the senior military 
advisor to the Secretary of the Army and the senior military officer of 
the Army. He is directly responsible to the Secretary of the Army in 
the performance of his duties, which include the effective and 
efficient functioning of Army organizations and commands in performing 
their statutory missions. If confirmed, I would work closely with the 
Chief of Staff to supervise the implementation of the Secretary's 
decisions.
    Question. The Deputy Chief of Staff of the Army for Personnel.
    Answer. The Deputy Chief of Staff, G-1, is the principal military 
advisor to the Assistant Secretary of the Army for Manpower and Reserve 
Affairs. He develops and executes Army strategy, policy, plans, and 
programs in the areas of manpower, human resources, and personnel 
readiness issues. I will develop a close and professional relationship 
with the Deputy Chief of Staff, G-1, if I am confirmed. I expect that, 
if confirmed, we will work together closely and communicate openly and 
frequently as we perform our prescribed duties.
    Question. The Surgeon General of the Army.
    Answer. The Surgeon General is the principal advisor to the 
Secretary of the Army, the Chief of Staff of the Army for the medical 
aspects of manning, training, and equipping the Army. She develops and 
executes Army strategy, policy and plans related to health affairs. 
Given this role, if I am confirmed, I intend to work closely with her 
to ensure an effective and efficient military health service system and 
a medically ready force. One of my focus areas for collaboration would 
be ensuring quality health care for Wounded Warriors.
    Question. The Chief, National Guard Bureau.
    Answer. The Chief of the National Guard Bureau is the principal 
advisor to the Secretary of Defense, through the Chairman of the Joint 
Chiefs of Staff, on matters involving non-Federalized National Guard 
forces. The Chief of the National Guard Bureau also is the principal 
adviser to the Secretary of the Army and the Chief of Staff of the Army 
on matters related to the National Guard. If confirmed, I will 
communicate with him openly to strengthen the Army by utilizing the 
talents and skills available in the Reserve components.
    Question. The Director of the Army National Guard.
    Answer. The Director of the Army National Guard supports the Chief, 
National Guard Bureau in his role as the principal advisor on National 
Guard matters to the Secretary of the Army and the Chief of Staff of 
the Army. If confirmed, I will develop a close, professional 
relationship with him and seek his input on all matters of policy and 
procedure impacting Army National Guard soldiers.
    Question. The Chief, Army Reserve.
    Answer. The Chief, Army Reserve, is the principal military advisor 
to the Secretary of the Army and the Chief of Staff of the Army on all 
U.S. Army Reserve matters. If I am confirmed, I will develop a close, 
professional relationship with him and seek his input on supervision of 
Reserve matters across all aspects of Army business.
    Question. Soldiers and their families.
    Answer. Those men and women who answer the call to duty and service 
are our Nation's most valuable national security assets. If confirmed, 
I will work to ensure soldiers are fully trained and ready when called 
upon and to work diligently to care for soldiers and their families 
across the total Army and ensure their quality of life is commensurate 
with their service.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. If confirmed, I believe that my political policy background 
and experiences have prepared me for the extraordinary opportunity to 
serve as and execute the duties of the Assistant Secretary of the Army 
(Manpower and Reserve Affairs).
    It is with great honor and pleasure that I currently serve as a 
professional staff member for the House Armed Services Committee. In my 
position, it is my responsibility to ensure the passage, defeat, or 
modification of any legislation that supports the interest and goals of 
Members of the U.S. House of Representatives with respect to the 
Department of Defense. Part of that responsibility is to also ensure 
that such goals and interests support the Department, and are in the 
best interests of the Nation's national security and servicemembers and 
their families. In my 15 years with the committee, I have had the 
tremendous opportunity to work with and for some extraordinary members 
on key legislative actions, such as the repeal of ``don't ask, don't 
tell,'' the military's health care program known as TRICARE, and on 
recruitment and compensation for our servicemembers.
    Prior to joining the committee, it was my distinct honor and 
privilege to serve as a legislative assistant to Senator Daniel Akaka. 
During my 13 years with him, I was responsible for defense, veterans' 
affairs, and small business issues. From the onset of my career, I have 
been passionate about and dedicated to ensuring this Nation's 
extraordinary servicemembers (Active component, Reserve, and National 
Guard) receive the support, resources, and recognition they so richly 
deserve. It is a source of great personal satisfaction and pride to 
know that my actions may have helped, in some small way, improve their 
lives.
    In 2008, I received the National Military Families Association's 
Support of Military Families Award and the National Guard Association 
of the United States' Patrick Henry Award. In 2007, the Military 
Coalition, a consortium of veterans groups, presented me the Freedom 
Award. In 2005, I was privileged to be recognized by the Military 
Officers Association of America, along with my colleague Michael 
Higgins, with the Colonel Paul W. Arcari Meritorious Achievement Award 
for our work on pay equity, health care, and the survivor benefit plan. 
In 2004, the Enlisted Association of the U.S. National Guard presented 
me the Militia Award in recognition of my actions to improve their pay 
and benefits. While I have been deeply grateful to be recognized for my 
work on behalf of our Nation's servicemembers and their families, I 
never cease to be humbled and amazed by the men and women serving our 
Nation and the strength of their family members.
    If confirmed as the next Assistant Secretary of the Army for 
Manpower and Reserve Affairs, I pledge to use my 28 years of 
experiences and policy making skills to effectively and efficiently 
perform the duties of this position. I vow to be as committed and 
dedicated in serving the Department of the Army as our soldiers have 
been in serving our Nation. It would be a distinct honor to become an 
official member of the Army family.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Assistant Secretary of the Army for Manpower and Reserve 
Affairs?
    Answer. In my view, the fundamental challenge facing the Assistant 
Secretary of the Army for Manpower and Reserve Affairs is manning the 
entire force, which equates to balancing military readiness with the 
requirements of drawdown. Manning the force with the right mix of 
manpower in terms of qualified military and civilian personnel, with 
the requisite contractor support, in the current fiscal environment 
will be a critical challenge. The Army must continue to recruit, train, 
and retain the very best; this is critical to the success of our Total 
Force.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I would begin to address these challenges by 
ensuring full engagement and integration across all organizations that 
have a role in the process. This would include the entire Army 
Enterprise, the Office of the Secretary of Defense and, when 
appropriate, Congress. My efforts would focus on ensuring we articulate 
requirements, allocate resources, and develop executable policies and 
programs that are measurable and manageable within the Total Army. I 
would build upon the accomplishments of the leaders before me and join 
my other civilian and military counterparts to further refine 
successful future strategies.
                systems and support for wounded soldiers
    Question. Servicemembers who are wounded or injured in combat 
operations deserve the highest priority from the Army and the Federal 
Government for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from Active Duty if required, and continuing support beyond retirement 
or discharge. Despite the enactment of legislation and renewed emphasis 
over the past several years, many challenges remain.
    What is your assessment of the progress made to date by the Army to 
improve the care, management, and transition of seriously ill and 
injured soldiers and their families?
    Answer. I have been advised that the Army has made great strides by 
implementing and continuously improving three programs: the Warrior 
Care and Transition Program, the Integrated Disability Evaluation 
System, and the Soldier for Life program. All three programs are 
designed to address the care and transition of wounded, ill, and 
injured soldiers. If I am confirmed, I will ensure that the Army 
continues to support these vital programs for Wounded Warriors and 
their families.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Army's support for 
wounded soldiers, and to monitor their progress in returning to duty or 
to civilian life?
    Answer. If I am confirmed, I will work closely with the Secretary 
of the Army, the Chief of Staff of the Army, the leadership of the 
Warrior Transition Command, and the rest of the Army to ensure that we 
maintain and enhance the world class support the Army provides to each 
wounded, ill, and injured soldier. The Nation and the Army owe our 
soldiers no less.
    Question. The Army has proactively provided the Department of 
Veterans Affairs (VA) with additional staff to help process 
servicemembers through its portion of the Integrated Disability 
Evaluation System more quickly.
    If confirmed, would you anticipate continuing such collaboration 
with the VA in order to expedite processing of soldiers through the 
Integrated Disability Evaluation System?
    Answer. I believe sustained communications between the Army and the 
VA are integral to improve processing of soldiers through the 
Integrated Disability Evaluation System. I understand the Army has 
established a number of mechanisms to improve and sustain collaboration 
with the Veterans Administration at multiple steps in the disability 
evaluation system process. If I am confirmed, I will ensure the Army 
maintains soldiers at the DRAS until the end of the fiscal year when 
the VA believes it will meet joint DOD/VA timeliness standards for case 
processing.
                       officer management issues
    Question. As the Assistant Secretary of the Army for Manpower and 
Reserve Affairs you would have significant responsibilities with regard 
to officer management policies, the promotion system, and recommending 
officers for nomination to positions of authority and responsibility.
    If confirmed, what changes, if any, would you make to the officer 
management system?
    Answer. I understand that the Army has a robust officer personnel 
management system that is designed to develop officers throughout their 
careers. If confirmed, I would pursue enhancements to these policies 
that would further allow the Army to leverage the unique talents of its 
officers against emerging mission and unit requirements.
    Question. Do you believe the current Army procedures and practices 
for reviewing the records of officers pending nomination by the 
President are sufficient to ensure the Secretary of the Army, the 
Secretary of Defense, and the President can make informed decisions?
    Answer. It is my understanding that the Army's processes and 
policies to identify eligibility and suitability for appointment or re-
appointment as officers are sound and provide sufficient information 
for these decisions. If confirmed, I would fully support current 
efforts to enhance personnel suitability screening, ensuring rapid 
information vetting associated with nominations for appointments to 
higher positions of leadership, trust and responsibility.
    Question. In your view, are these procedures and practices fair and 
reasonable for the officers involved?
    Answer. I am informed that the Army's current procedures for 
vetting personal and professional information protect both individual 
officer rights and the interests of the Army to advance only those 
officers who have clearly demonstrated their character, competence, and 
commitment to the Nation's values. If confirmed, I would support these 
vetting processes and for any changes proposed, ensure that the due 
process rights of individual officers are protected.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination.
    If confirmed, what role would you play in the officer promotion 
system, particularly in reviewing general officer nominations?
    Answer. If confirmed, I have been told that I will review all O-6 
and below promotion lists. With regard to general officer nominations, 
I will have the opportunity to review every U.S. Army Reserve promotion 
nomination and all Army National Guard Federal Recognition nominations 
prior to the Secretary of the Army making a decision.
    Question. What is your assessment of the ability of the Services to 
timely document credible information of an adverse nature for 
evaluation by promotion selection boards and military and civilian 
leaders?
    Answer. I understand that all officers are screened for potential 
adverse information prior to being considered for promotion to any 
general officer grade. If credible adverse information exists, it is 
reviewed by the promotion board. If an officer with adverse information 
is then selected for promotion, the adverse information is shown to the 
military and civilian leadership prior to making a determination on 
whether to recommend the officer for promotion. I understand that this 
process continues until the officer is promoted. If confirmed, I will 
continue full support to this process.
    Question. If confirmed, what steps will you take to ensure that 
only the best qualified officers are nominated for promotion to general 
and flag officer rank?
    Answer. It is my understanding that selections for promotion to 
general officer are determined by a promotion selection board convened 
by the Secretary of the Army. The Secretary of the Army and the Chief 
of Staff of the Army devote considerable time and thought to ensuring 
that these selection boards select the best qualified officers. The 
Chief reviews and the Secretary approves board membership and the 
written guidance provided to the board. The written guidance is 
specifically designed to ensure the best officers are selected to meet 
the senior leadership needs of the Army and DOD. If confirmed, I 
believe my role as the Assistant Secretary of the Army for Manpower and 
Reserve Affairs would be to ensure that the promotion and personnel 
utilization system that serve as the foundation for those ultimately 
selected provide for the developmental needs and progression potential 
for officers with multiple skills and from diverse backgrounds.
                 technical training of general officers
    Question. In your view, do a sufficient number of Army general 
officers have advanced training and degrees in scientific and technical 
disciplines?
    Answer. While I believe the Army is able to meet current senior 
officer requirements in the scientific and technical disciplines, I was 
advised that the Army's military and civilian leadership has directed a 
review of these requirements and is awaiting recommendations on 
providing opportunities/programs directed at ensuring the Army 
continues to meet these requirements in the years ahead. If confirmed, 
I will support the implementation of any recommendations approved by 
the Secretary of the Army.
    Question. Are the career paths for officers with technical skills 
appropriate to ensure that the Army can execute complex acquisition 
programs, adapt to a rapidly changing technological threat environment, 
and make informed investment decisions on DOD and Army resources? If 
not, what will you do to address this deficiency?
    Answer. I have been informed that the career paths are appropriate. 
The goal is to develop an officer corps with the right mix of skills 
and experiences to provide a capacity of acquisition excellence to the 
Army. Developmental assignments expose an acquisition officer to a full 
spectrum of experiences within a primary Acquisition Career Field 
allowing an acquisition officer to develop acquisition skills and 
become technically proficient.
    As I understand the process, the Army provides career development 
opportunities, such as Advanced Civil Schooling and Training with 
Industry programs, to ensure the best and brightest candidates continue 
to rise to new levels educationally, functionally, and technically. I 
was told that nearly all of the Army Acquisition Officers in the grade 
of lieutenant colonel and above have advanced degrees.
                        end strength reductions
    Question. In this year's budget request and Future Years Defense 
Program, the Department proposes making additional cuts to the Army's 
Active and Reserve component end strengths. The Department proposes 
reducing the Army Active component to 450,000 by 2019, and further to 
420,000 if sequestration continues in fiscal year 2016 and beyond.
    In your view, can the Army meet national defense objectives at the 
strength levels proposed without sequestration? What about at the 
strength levels proposed with sequestration?
    Answer. I understand that Army leaders have testified that the Army 
can meet its national defense objectives with an end-strength of 
450,000 with significant risk, provided the Army is funded to allow 
appropriate balance in modernization, procurement, readiness, and 
manpower accounts. Although the Bipartisan Budget Act partially 
mitigates impacts from sequestration in fiscal year 2014 and fiscal 
year 2015, I understand Army leaders have testified that the 
implementation of sequestration in fiscal year 2016 and beyond would 
result in an Army unable to meet the Defense Strategic Guidance.
    If confirmed, I will focus on how I can best help to ensure the 
Army is as ready and able as it can be, within fiscal constraints, to 
accomplish its mission.
    Question. If the Army must reduce its Active component end strength 
to 420,000, where does the Department take risk with respect to the 
national defense strategy?
    Answer. I am aware that both the Secretary of the Army and the 
Chief of Staff of the Army have testified that reduction to 420,000 in 
the Active component would leave the Army without the appropriate depth 
and capacity to successfully meet the Defense Strategic Guidance. If 
confirmed, I will do all possible to make the Army as capable as 
possible, and I will work with other senior leaders to ensure that 
Congress fully understands the consequences of an end strength 
reduction to such a level.
    Question. What is your understanding of the need for additional 
force shaping tools requiring legislation beyond what Congress has 
provided the past 3 years?
    Answer. I believe Congress has given the Army the authorities 
necessary to accomplish its present drawdown. If confirmed, I will 
continually assess our processes and results to ensure the Army reduces 
end strength in a smart, measured way and identifies any additional 
legislative changes needed in a timely manner.
    Question. In your view, should the number of general officers in 
the Army be reduced commensurate with the drawdown of total Army end 
strength?
    Answer. I understand that the Army is already decreasing the number 
of general officers serving internal to the Army from 230 to 219 by 
March 2016 to meet policy directives from the Secretary of Defense's 
General Officer (GO) efficiency review. If units led by GOs are part of 
the end strength reductions, a commensurate reduction in the number of 
GOs seems logical. If confirmed, I will ensure future GO reductions are 
based on the needs of the Army considering the nature of 
responsibilities associated with any specific position.
                      army force generation model
    Question. The Army relies on a force generation model (ARFORGEN) in 
which units are manned, equipped, and trained to appropriate readiness 
levels over time as they cycle through ``reset and train,'' ``ready,'' 
and ``available for deployment'' force pools.
    What is your understanding and assessment of the manpower and 
personnel management requirements of the Army's force generation 
methodology?
    Answer. I was advised that the current ARFORGEN model has produced 
the readiness required for persistent conflict over the past 8 years by 
providing a continuous supply of units available for deployment from 
across the Total Army. If confirmed, I will ensure the Army reviews the 
results of this process and considers whether modifications to, or 
replacement of, ARFORGEN is necessary to meet future requirements.
    Question. In your view, what are the greatest manpower and 
personnel management challenges, if any, in implementing ARFORGEN?
    Answer. I believe that the fundamental personnel challenge in 
implementing ARFORGEN is assigning the right soldier to the right place 
at the right time. Future challenges to implementing ARFORGEN include 
meeting the manpower and readiness requirements of the Army during an 
end strength reduction and during an era of greater unpredictability. 
If confirmed, I will ensure the Army continues to provide sufficient 
ready forces to accomplish all assigned missions.
    Question. If confirmed, what actions or changes would you propose, 
if any, to the design, implementation, or management of ARFORGEN?
    Answer. If confirmed, I will work to ensure ARFORGEN sustains unit 
readiness. The Army must meet steady-state requirements, while 
maintaining readiness to meet the Defense Strategic Planning Guidance: 
defeating an adversary in one theater while simultaneously denying an 
adversary victory in another. A sustained readiness for a greater 
proportion of the Army is our goal. Readiness is especially important 
as the Army faces the prospect of reducing in size beyond the currently 
approved fiscal year 2015 levels. Regardless of its final form, I 
believe ARFORGEN must support the Army Total Force and provide 
sufficient and ready structure to meet Joint Force requirements.
                        individual ready reserve
    Question. The Department of Defense established a policy in 2005 
mandating the discharge of officers in the Individual Ready Reserve 
(IRR) who are beyond their military service obligations (MSO) unless 
the officer positively elects to remain in the IRR. Meanwhile, the 
Commission on the National Guard and Reserves has found that accessing 
the IRR as a viable source of manpower for the war has been 
problematic, and that using the IRR as a solution for unit manning is a 
failed concept.
    What are your views on the proper role of the IRR in Army force 
management planning?
    Answer. The Individual Ready Reserve has provided essential, 
trained manpower that has supported all three components of the Army in 
times of war. IRR soldiers have also recently been used as Individual 
Mobilization Augmentees to support operational and Army headquarters. 
If confirmed, I will ensure the Army thoroughly examines the proper 
role of the IRR in Army force management planning.
    Question. If confirmed, what changes, if any, do you foresee making 
to the Army's IRR recall policy?
    Answer. I understand that the entire Reserve component has been and 
remains critical to the Army's mission accomplishment. If confirmed, I 
will ensure the Army thoroughly examines the proper role of the IRR in 
Total Force planning. Careful consideration of all sources of manpower 
is critical in the present environment of declining end strength and 
reduced resources.
    Question. What are your views about policies affecting continued 
service by officer and enlisted personnel in the Reserve components who 
have fulfilled their MSO?
    Answer. In my view, retaining quality soldiers should always be one 
of the Army's top priorities. As the Army draws down over the next 
several years, it is more important than ever to retain the training 
and experience of the best soldiers somewhere in the Total Force. If 
confirmed, I will ensure the Army carefully considers and effectively 
manages all sources of manpower given the present environment of 
declining end strength and reduced resources.
    Question. What is your assessment of the adequacy of the system in 
place for members in the IRR receiving orders to Active Duty to request 
a delay or exemption for that activation, including the procedures in 
place for appealing the Army's decision on that request?
    Answer. I am informed there is system for soldiers to request 
relief from orders based on personal circumstances and a system to 
appeal decisions. If confirmed, I will do my utmost to ensure this 
process works efficiently and fairly.
    Question. What is your assessment of the value of the IRR to the 
All-Volunteer Force?
    Answer. Careful consideration of all sources of manpower is 
critical in the present environment of declining end strength and 
reduced resources. I understand that the entire Reserve component has 
been and remains critical to the Army's mission accomplishment. If 
confirmed, I will ensure the Army thoroughly examines the proper role 
of the IRR for current and future mission requirements.
                            lessons learned
    Question. What do you believe are the major personnel lessons 
learned from Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF) which you would seek to address if confirmed as Assistant 
Secretary of the Army for Manpower and Reserve Affairs?
    Answer. I realize that over last 12 years, the Army has faced both 
operational and readiness challenges resulting from two simultaneous 
conflicts. When manning the force, I understand the Army has learned 
valuable lessons on Active component/Reserve component integration, 
employing and managing the Inactive Ready Reserve, and managing large-
scale wartime manning programs such as Stop Loss. To support these 
operations, the Army developed systems over time that improved and 
maintained readiness during high OPTEMPO periods, such as the ARFORGEN 
cycle. If confirmed, I would support this and other efforts to ensure 
that the hard lessons learned from the past 12 years of conflict are 
captured in Army doctrine and not forgotten.
         national guard organization, equipment, and readiness
    Question. Legislative proposals introduced in recent years and 
recommendations of the Commission on the National Guard and Reserves 
have proposed numerous changes to the roles and responsibilities of the 
National Guard and Reserves. Several of the proposed changes have been 
implemented, and numerous others are under consideration.
    How do you assess the changes in the role and authorities of the 
Chief of the National Guard Bureau?
    Answer. I recognize that the changes that Congress authorized in 
the 2008 and 2012 National Defense Authorization Acts, the roles and 
authorities of the Chief, National Guard Bureau have indeed changed 
significantly. I believe that the National Guard Bureau is working hard 
to reorganize the staff to better support the Chief, National Guard 
Bureau, in his roles as a member of the Joint Chiefs of Staff and as a 
principal advisor to the Secretary of Defense on matters involving non-
Federalized National Guard forces. If confirmed, I look forward to 
working closely with Army senior leaders; the Chief, National Guard 
Bureau; and the Director, Army National Guard to ensure that the 
National Guard remains a full partner in the Total Force.
    Question. How do you assess the changes in the roles and mission of 
the Army National Guard?
    Answer. I know that the Army leaders have repeatedly stated that 
the goal of the Army is to sustain the Army National Guard and Army 
Reserve as an operational reserve in their capacity as part of the 
Total Army Force. If confirmed, I will ensure that any end strength 
reductions to the Reserve component will not compromise its current 
record high levels of readiness and modernization.
    Question. In your view, do the current Army processes for planning, 
programming, and budgeting sufficiently address the requirements of the 
Army National Guard? What is the appropriate role of the Chief of the 
National Guard Bureau and the Director of the Army National Guard in 
this regard?
    Answer. I have been informed that Army National Guard requirements 
are sufficiently addressed during the Total Army Program Objective 
Memorandum process. Title 10, U.S.C., provides the authority for the 
Secretary of the Army to manage the Reserve component, to include 
responsibility for funding, manning and force structure decisions. The 
Director of the Army National Guard participates at the highest levels 
and advises the Secretary of the Army and Chief of Staff of the Army on 
Army National Guard priorities and requirements and provide assessments 
of the capabilities and risks associated with Army National Guard 
allocated funding as a part of the Total Army strategy. The Chief of 
the National Guard Bureau advises the Joint Staff and Secretary of 
Defense on National Guard issues based on the input from the Director 
of the Army National Guard. I believe these roles are appropriate for 
the Army's processes.
    Question. In your view, what should be the Chief of the National 
Guard Bureau's role in the assignment of Directors and Deputy Directors 
of the Army and Air National Guard?
    Answer. In my view, the Chief, National Guard Bureau should play an 
important role in the selection of the Director and Deputy Director of 
the Army National Guard. The Secretary of the Army convenes an advisory 
board to provide recommendations regarding the officer to be nominated 
as the Director of the Army National Guard, and if possible, the Chief, 
National Guard Bureau should serve as a member of that board or 
otherwise make recommendations on the officers to be nominated. If 
confirmed, I will support this process to ensure the Army has the best 
qualified officers nominated for these important positions.
                           suicide prevention
    Question. The numbers of suicides in each of the Services continue 
to be of great concern to the committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the Department of the Army to 
prevent suicides and increase the resiliency of soldiers and their 
families?
    Answer. If confirmed, I will focus on providing clear guidance and 
policy, while championing the Army's efforts under the Ready and 
Resilient Campaign to ensure that the Army identifies, resources, and 
sustains the right complement of training and services to build the 
personal resilience and foster unit and personal readiness of soldiers 
and their families. It is my understanding that the Ready and Resilient 
Campaign employs a holistic approach to strengthening the inherent 
resilience skills, abilities, and capabilities of soldiers and family 
members. Additionally, the strategy strives to influence bystanders to 
become interveners standing ready to help others in need of assistance 
to get the resources they need to overcome life's challenges.
                      family readiness and support
    Question. Soldiers and their families in both the Active and 
Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of concerns among military families as a result of 
the stress of deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for soldiers and their families, and, if confirmed, how would 
you ensure that family readiness needs are addressed and adequately 
resourced, especially in light of current fiscal constraints?
    Answer. I am aware that for more than a decade, the Army has 
continuously asked its soldiers to be apart from their families during 
long deployments and to cope with the challenges of a high operational 
tempo. In order for soldiers to serve so selflessly and be effective 
under these conditions, they must have peace of mind that their 
families are well cared for at all times. I understand that family 
readiness is the state of being prepared to effectively navigate the 
challenges of daily living in the unique context of military service--
this is the essence of what is most important for the Army to deliver.
    I have been advised that the Army has invested in a wide array of 
family programs in support of family readiness. Initiatives such as the 
Exceptional Family Member Program (which considers family members with 
special needs during the assignments process), Child Development 
Centers (which provide soldiers with affordable, quality day care), and 
the Financial Readiness Program (which offers soldiers financial 
counseling) are just a few examples of the ways the Army is committed 
to helping its soldiers and families. If confirmed, I will work 
diligently to support these important programs.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for soldiers and their 
families, especially in light of deployments. These programs must be 
relevant and attractive to all eligible users, including Active Duty 
and Reserve personnel, retirees, and families.
    What challenges do you foresee in sustaining Army MWR programs, 
particularly in view of the current fiscal environment and, if 
confirmed, are there any improvements you would seek to achieve?
    Answer. I understand the MWR income stream could be impacted by the 
current austere fiscal climate. If confirmed, I will monitor MWR 
programs and work to protect them to the greatest extent feasible, and 
I will work to ensure that available resources are applied to 
sustaining existing programs and services.
                 sexual assault prevention and response
    Question. The fiscal year 2013 Department of Defense Annual Report 
on Sexual Assault in the Military reflects that reports of sexual 
assaults in the Army increased by 51 percent from fiscal year 2012 to 
2,149 reports of sexual assault.
    What is your assessment of this report?
    Answer. I have been advised that the Army views the increase in 
reporting in fiscal year 2013 as an indication of a growing level of 
confidence in the Army's response system and as a sign that victims 
have increased trust in their chain of command and in the Army's 
commitment to treat and care for them. An indicator of the growing 
trust is the increase of sexual assault reports between fiscal year 
2012 and fiscal year 2013 that were from incidents occurring prior to 
military service or involve allegations in which more than a year 
elapsed between the incident and the report. I share the Army's view 
that there is still more to do in order to eliminate sexual assaults. 
If confirmed, I intend to provide my full support in helping the Army 
achieve this goal.
    Question. What is your assessment of the Army's sexual assault 
prevention and response program?
    Answer. I understand that the Army has made substantial progress in 
addressing the issue of sexual assault. Through the combined efforts of 
military and civilian leaders at all echelons, I am informed that the 
Army has implemented an unprecedented number of program and policy 
initiatives--more than 30 since January 2013--to address this insider 
threat. These initiatives are enhancing the reporting, investigation 
and prosecution of sexual assault offenses, increasing the 
accountability of leaders at all levels--officer, enlisted, and 
civilian--in fostering a cultural change that will lead to a positive 
command climate.
    If confirmed, I will lead and support the Army's commitment to a 
holistic approach to effectively change culture, prevent sexual assault 
and harassment in the ranks, support and advocate for victims, and 
prosecute offenders to the fullest extent of the law.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. I believe the Army's system for receiving and processing 
reports of sexual assault, including both restricted and unrestricted 
reports, is effective. I am informed that since implementing the 
``restricted'' reporting option (which does not initiate a law 
enforcement investigation) in 2004, the number of total reports has 
continued to increase. Although the Army prefers for reports to be 
``unrestricted'' so that it may hold perpetrators accountable, by 
giving victims control over triggering the investigation, the 
restricted option allows victims time to understand the process, seek 
the counseling and care they need, and to consult with an attorney if 
they wish. I understand the conversion of restricted reports to 
unrestricted is continuing to increase, which I believe is evidence of 
the success of numerous initiatives and is an indication that victims 
are gaining more trust in the system. If confirmed, I will ensure that 
the Army continues to improve upon its response system and continues to 
enhance victim support.
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. In my view, the commander, his/her subordinate commanders, 
and staff members are charged with the ultimate responsibility of 
caring for soldiers in their charge and ensuring the needs of victims 
are met. As such, the chain of command must play a vital role in 
providing compassionate care and support to victims. I understand that 
the Army is working hard to foster a climate in which victims trust 
their chain of command to support them if and when sexual offenses 
occur. The commander-driven change in unit culture as well as 
compassionate, comprehensive support of victims is critical to assuage 
victims' fears. I also believe that the Army must hold accountable 
commanders who fail to do their duty in this regard.
    Question. What is your understanding of the adequacy of Army 
resources and programs to provide victims of sexual assault the 
medical, psychological, and legal help they need?
    Answer. I believe the Army is dedicated to providing soldiers who 
are the victims of sexual assault with extensive medical, 
psychological, and legal support services. I have been informed that 
sexual assault victims are offered the services of a Sexual Assault 
Response Coordinator (SARC) and a Victim Advocate (VA). When a victim 
of sexual assault presents at any Military Treatment Facility in the 
Army, his or her medical needs are managed by a Sexual Assault Clinical 
Provider and his or her behavioral health care is provided by the 
Sexual Assault Behavioral Health Provider.
    On the legal support side, I understand that the Special Victims 
Counsel Program is adequately staffed and resourced to provide victims 
with the counsel that they require. Special Victims Counsel provide the 
full range of legal assistance services to victims.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. I fully understand that both the Secretary of the Army and 
the Chief of Staff of the Army have listed the prevention of sexual 
assault as their top priority and are putting actions against those 
words. As a result, leaders at every echelon and in every location are 
committed to preventing sexual assaults and caring for victims, and the 
Army is working diligently to ensure that all soldiers share these 
commitments. I believe that in order to eliminate the crime of sexual 
assault, the Army must change the culture of the force, which includes 
eliminating the stigma associated with reporting these crimes, 
regardless of whether the reporting soldier is a victim or a bystander. 
If confirmed, I will be committed to helping the Army drive this 
cultural change, and will continuously look for innovative ways to 
combat this difficult problem.
    Question. What is your view of the adequacy of the training and 
resources Army has in place to investigate and prosecute allegations of 
sexual assault?
    Answer. I have been advised that the Army has sufficient training 
and resources in place to properly investigate sexual assault 
allegations and prosecute military offenders. Recognizing the critical 
importance of this issue, if confirmed, I will closely monitor all 
aspects of the current efforts to prevent sexual assaults, increase 
reporting, care for victims, and the investigation and prosecution of 
perpetrators.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. I believe that the chain of command, beginning with senior 
leaders, is responsible for ensuring that our military culture does not 
tolerate sexual assault. Commanders are responsible for everything 
their command does or fails to do, which includes training soldiers on 
how to prevent sexual assault and holding all leaders accountable for 
creating a culture that does not tolerate sexual assault. I am told the 
Army has recently published policies on Command Climate Assessments and 
Assessing Officers and Non-Commissioned Officers on Fostering Climates 
of Dignity and Respect as tools to enable commanders and leaders to 
assess and affect the culture within their units.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. I have been advised that requiring a judge advocate outside 
the chain of command to determine whether allegations of sexual assault 
should be prosecuted would in effect create a parallel justice system 
for sexual assault cases. This risks generating confusion and 
inefficiencies in the military justice system and may undermine the 
Army's efforts to change the military culture in which sexual assaults 
have occurred. If confirmed, I will make every effort to ensure that 
any changes to the military justice system are implemented in a manner 
that continues the trust and confidence commanders, soldiers, and 
victims currently have in our administration of military justice.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Army?
    Answer. If confirmed, I will be an ardent supporter of the Army 
Sexual Harassment/Assault Response and Prevention Program, and will 
work with the Secretary of the Army, the Chief of Staff of the Army, 
the Deputy Chief of Staff, G-1 and the other Headquarters, Department 
of the Army elements and commanders to ensure that eliminating sexual 
assault remains a top priority throughout the Army. I will also work to 
strengthen the faith of the American public and Congress in the Army's 
prevention and response efforts with regard to sexual assault and 
sexual harassment.
                          religious guidelines
    Question. In your view, do Department of Defense policies 
concerning religious accommodation in the military appropriately 
accommodate the free exercise of religion and other beliefs, including 
individual expressions of belief, without impinging on those who have 
different beliefs, including no religious belief?
    Answer. I believe the Army and the Department of Defense take very 
seriously the Constitutional freedom expressed in the First Amendment 
for the Free Exercise of Religion on the part of all citizens, 
including members in military service. Commanders, leaders, and 
chaplains work to ensure those protections are afforded to all of our 
soldiers and families and Department of Army civilians, and that the 
varied religious practices of soldiers are accommodated, including 
those with no religious beliefs.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. Yes. The Army's well-trained Chaplain Corps provides 
religious support to the Army. That support is provided on the basis of 
the Soldier's Free Exercise rights. Chaplains provide prayers on many 
occasions in both private and public settings. Chaplains are never 
required to pray outside of their individual convictions, beliefs, or 
religious tradition, or the tenets of the religious organization that 
provides their endorsement to the Department of Defense and the 
Department of the Army. I understand that there are no Army policies 
that either promote or restrict prayers, either in manner or content.
    Question. Section 533 of the National Defense Authorization Act for 
Fiscal Year 2013 (P.L. 112-239), as amended by section 532 of the 
National Defense Authorization Act for Fiscal Year 2014 (P.L. 113-66) 
protects rights of conscience of members of the Armed Forces and 
chaplains of such members, and prohibits, so far as possible, use of 
such beliefs as the basis of any adverse personnel action, 
discrimination, or denial of promotion, schooling, training, or 
assignment. Members of some religious denominations have sincerely held 
beliefs in opposition to same-sex marriage.
    In your view, may a member of the Armed Forces who has a sincerely 
held belief in opposition to same-sex marriage be subject to adverse 
personnel action or similar other adverse action, if he or she shares 
those personal views on the subject in a personal capacity?
    Answer. It is my understanding that current policies regarding 
servicemembers' individual expression and free exercise of religion 
have not changed since the repeal of the Defense of Marriage Act. If 
soldiers wish to express their personal views about this issue in an 
open forum and caveat those as such, then that is purely within their 
right to do so. I further understand that soldiers may be subject to 
disciplinary or administrative action only if they advocate racial, 
gender, or ethnic hatred or intolerance; if they advocate, create, or 
engage in illegal discrimination based on race, color, gender, 
religion, or national origin; or if they advocate the use of or use 
force, violence, or unlawful means to deprive individuals of their 
rights under the U.S. Constitution. These rights are fundamental, and 
if confirmed, I will ensure that all Army policies incorporate and 
protect these rights.
                           officer accessions
    Question. What, in your view, is the appropriate relative 
distribution from the sources of commission to meet the Army's officer 
accessions requirements and sustain the viability of the Military 
Academy, Reserve Officer Training Corps, and the Officer Candidate 
School?
    Answer. In my view, there is no single distribution that is 
appropriate for all circumstances for the Total Army. It is my 
understanding that each source of commission brings to the force a 
slightly different strength in terms of academic background, diversity, 
military cultural indoctrination, and prior military experience. In 
order to reflect our society's range of talents and strengths and to 
meet fluid national defense missions and priorities, the Army must 
periodically adjust the proportion of accessions between all sources of 
commission. I understand this framework is likely to remain consistent 
as long as the Nation's needs do not change significantly. However, if 
confirmed, I will continuously monitor the relative distribution of 
officers from these commissioning sources.
    Question. As Army end strength goes down potentially to numbers as 
low as 420,000 in the regular Army, 315,000 in the Army National Guard, 
and 185,000 in the Army Reserve, if confirmed, how would you evaluate 
and make adjustments, if any, to the relative distribution among 
sources of commission to meet lower officer accession requirements?
    Answer. Should commissioning requirements decrease significantly, I 
understand that the Reserve Officer Training Corps would be the primary 
lever for adjusting the Army Officer Accessions. In this regard, I have 
been told the U.S. Military Academy (USMA) could reduce accessions only 
slightly without losing the cost effectiveness of their infrastructure, 
and the Officer Candidate School has already been reduced to a minimum 
sustainment level to accommodate current budget considerations.
                         u.s. military academy
    Question. What is your assessment of the policies and procedures at 
the USMA to prevent and respond appropriately to sexual assaults and 
sexual harassment and to ensure essential oversight?
    Answer. In my assessment, the USMA at West Point possesses 
effective policies and procedures to prevent and respond appropriately 
to sexual harassment and sexual assaults and to ensure essential 
oversight.
    USMA has aligned its Sexual Harassment and Assault Response Program 
along the five lines of effort identified by the Department of Defense 
as well as the Department of the Army including prevention, advocacy, 
investigation, accountability, and assessment. Only through this 
holistic approach, coupled with committed leaders, will the culture 
change. Leading and supporting this culture change will be one of my 
top priorities, if confirmed.
    Question. What is your assessment of the policies and procedures at 
the U.S. Military Academy to ensure religious tolerance and respect?
    Answer. It is my understanding that the USMA has policies and 
procedures in place that effectively ensure religious tolerance and 
respect and support cadets, faculty, and staff in their personal faith 
choices. I fully support this Constitutional right and appreciate its 
importance to the Nation and the Army. If confirmed, I will take all 
necessary steps to ensure the policies of the Army continue to ensure 
religious tolerance for all faiths.
             assignment policies for women in the military
    Question. The Department in January 2013, rescinded the policy 
restricting the assignment of women to certain units which have the 
primary mission of engaging in direct ground combat operations, and 
gave the Military Services until January 1, 2016, to open all positions 
currently closed to women, or to request an exception to policy to keep 
a position closed beyond that date, an exception that must be approved 
by the Chairman of the Joint Chiefs of Staff and the Secretary of 
Defense. The Services are working now to develop gender-free physical 
and mental standards for all military occupations, presumably with the 
goal of allowing individuals, regardless of gender, to serve in those 
positions if they can meet those standards.
    If confirmed, what role will you play in the development of these 
standards?
    Answer. If confirmed as the ASA(M&RA), my role would be to provide 
oversight of the process by reviewing and recommending approval and 
disapproval of actions regarding the assignment of women to newly 
opened positions and occupations.
    Question. If confirmed, will you ensure that the standards are 
realistic and preserve, or enhance, military readiness and mission 
capability?
    Answer. Yes. I understand the Army is scientifically evaluating 
closed combat arms occupations to determine physical performance 
requirements to ensure the best qualified soldiers have the opportunity 
to serve in any position for which they are qualified regardless of 
gender. If confirmed, I will focus on implementing a Total Army Policy 
that ensures future force capability and readiness by maximizing every 
soldier's potential, performance and contribution to a ready and modern 
Army.
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements? If so, what steps would you 
take to ensure that such decisions are made on this basis?
    Answer. Yes, I believe success in the Army based solely on ability, 
qualifications and performance is consistent with Army values and 
enhances military readiness. That is why the Army is committed to 
scientifically evaluating the requirements of the job in order to 
select and train soldiers, regardless of gender, who can meet the 
requirements of their military occupational specialty. If confirmed, I 
will do my utmost to ensure the Army maximizes every soldier's 
potential.
    Question. Some family members have expressed concerns about 
assigning women to what are currently male-only combat units.
    To what extent do you believe that this will be a problem in the 
implementation of this policy?
    Answer. As I understand it, the Army is currently developing plans 
for successfully integrating women into all male units. I am told that 
in some units with newly opened positions, the Army has assigned more 
senior female soldiers prior to assigning junior female soldiers and 
has conducted training for these units. By removing barriers to serve 
and succeed in the Army, the Army is enhancing military readiness and 
ensuring that success is based solely on ability, qualifications, and 
performance.
                      foreign language proficiency
    Question. A Foreign Language Transformation Roadmap announced by 
the Department of Defense on March 30, 2005, directed a series of 
actions aimed at transforming the Department's foreign language 
capabilities, to include revision of policy and doctrine, building a 
capabilities based requirements process, and enhancing foreign language 
capability for both military and civilian personnel.
    Answer. Despite this increased emphasis since 2005, the Department 
appears to have made only modest progress in implementing that 
transformation. A 2010 GAO report indicated that DOD's efforts to meet 
the language requirements ``had yielded some results but had not closed 
the persistent gaps in foreign language-proficient staff and reflected, 
in part, a lack of a comprehensive, strategic approach.''
    Question. In your view, what should be the priorities of the 
Federal Government to expanding the foreign language skills of civilian 
and military personnel and improving coordination of foreign language 
programs and activities among the Federal agencies?
    Answer. I believe that efficiency across all government agencies 
and departments is valuable, especially in this financially difficult 
time. If confirmed, I will ensure the Army, as the Executive Agent for 
the Defense Language Institute Foreign Language Center, continues to 
provide foreign language training to all government personnel who 
require it while simultaneously meeting Army and Department of Defense 
requirements.
    Question. If confirmed, what steps would you take to ensure that 
the Army contributes to implementing a comprehensive, strategic 
approach to closing the gaps in foreign language proficiency?
    Answer. If confirmed, I will ensure that the Army, as the Executive 
Agent for the Defense Language Institute Foreign Language Center, 
continues to work closely with the other members of the Department of 
Defense to provide required training opportunities. I will also work 
closely with the Army Senior Language Authority in my role as oversight 
of Army Language programs to assure that there is a continued focus on 
providing necessary training in foreign language and culture to 
soldiers and civilians. Additionally, I will assure the Army is 
involved in Department of Defense working groups designed to review and 
assess the training, assignment and utilization of professional 
linguists.
    Question. The GAO report also stated that, ``On the basis of their 
operational experiences in Afghanistan and Iraq, ground commanders have 
expressed the importance of language and culture skills for general 
purpose forces in counterinsurgency and stability operations, 
stressing, for example, that language training is as important as 
marksmanship.''
    Is there any evidence the institutional Army is giving languages 
and cultural skills the same high priority as marksmanships in its 
career development efforts? If more needs to be done, what steps would 
you propose to take to achieve higher levels of importance for language 
and cultural training?
    Answer. It is my understanding that since 2010, the Army has made 
language and culture training a requirement for all soldiers deploying 
to Afghanistan. Additionally, I understand the Army is concluding a 
review of the career path for professional linguists, and is reviewing 
language required positions across the total force. If confirmed I will 
ensure that the Army will meet the established goals for language 
professionals, while providing necessary training in language and 
culture for those who are deploying to foreign countries.
                     legislative fellowship program
    Question. Each year, the Services assign mid-career officers to the 
offices of Members of Congress under the Legislative Fellows Program. 
Upon completion of their legislative fellowships, officers are required 
to be assigned to follow-on positions in their Services in which they 
effectively use the experience and knowledge they gained during their 
fellowships.
    What is your assessment of the process for the recruitment, 
selection, preparation, and assignment to Members of Army officers in 
the Legislative Fellows program?
    Answer. It is my understanding that the recruitment, selection, 
preparation, and final assignment of Army Congressional Fellows to 
Member of Congress offices is designed to provide the best Army 
officers, senior noncommissioned officers, and Department of the Army 
civilians to support both Chambers of Congress with mature and combat 
experienced (regarding the soldiers) fellows. This is an important 
program, and if confirmed, I will ensure that the program continues to 
meet the needs of the Army.
    Question. What is your assessment of the value of the Legislative 
Fellows program to the Army and the utilization of officers who have 
served as legislative fellows?
    Answer. It is my understanding that the Army leader development 
model is premised on the three pillars of training, education and 
experience. The Legislative Fellows program, in particular, provides an 
invaluable opportunity to develop officers, senior noncommissioned 
officers and Department of the Army Civilians with a unique skill set 
and critical understanding of the legislative branch. After 1 year as 
an Army Fellow in a Member of Congress office, a 2-year utilization 
follows with duty in the following agencies: OCLL (Hill Divisions/
Pentagon Offices), Budget Liaison, Army Reserve and National Guard 
Legislative Liaison offices here in the National Capitol Region.
       management and development of the senior executive service
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Army 
senior executive workforce, especially in the critically important 
areas of acquisition, financial management, and the scientific and 
technical fields?
    Answer. I believe the Army must ensure that all senior executives 
have a diverse portfolio of experiences and strong skills to lead and 
operate effectively in achieving Army's mission and organizational 
goals. I understand that Army has instituted an enterprise approach to 
senior executive management through establishment of an annual Talent 
and Succession Management process. This process is designed to 
optimally align executive positions with the most critical Army 
imperatives and priorities, to include acquisition, financial 
management, and the scientific and technical fields. In the end, the 
Army's senior executive workforce must be capable of partnering with 
senior military leaders to lead the Army during these challenging 
times. If confirmed, I will endeavor to enhance policies to ensure the 
Army attracts, retains, and develops the best senior executives for all 
positions.
      balance between civilian employees and contractor employees
    Question. The Army employs many contractors whom now play an 
integral role in the performance of functions that were once performed 
exclusively by government employees, including the management and 
oversight of weapons programs, the development of policies, the 
development of public relations strategies, and even the collection and 
analysis of intelligence. In many cases, contractor employees work in 
the same offices, serve on the same projects and task forces, and 
perform many of the same functions as Federal employees. Contractors 
continued to be hired as many civilian positions remained on a hiring 
freeze over the past few years.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of the Army?
    Answer. I believe achieving a ``balance'' between civilian and 
contractor employees is in the best interest of the Army. Achieving 
balance will be an ongoing process subject to emerging defense 
requirements, rather than something that is achieved on specific date. 
In my view, the Army must consider the most appropriate and effective 
source of labor for functions on a case-by-case basis informed by 
mission requirements, rather than the implementation of specific 
manpower quotas.
    Question. In your view, has the Army become too reliant on 
contractors to perform its basic functions?
    Answer. In my view, it is critical that the Army use the most 
appropriate and effective source of labor for individual functions, 
while also carefully scrutinizing the process to ensure that no 
inherently governmental functions are outsourced. Functions must be 
evaluated on a case-by-case basis in order to determine which type of 
manpower to use. If confirmed, I will work with the Secretary of the 
Army, the Under Secretary and other Army leaders to assess the extent 
of the Army's reliance on contractors and ensure compliance with law 
and policy.
    Question. Do you believe that the Army should undertake a 
comprehensive reappraisal of ``inherently governmental functions'' and 
other critical government functions, and how they are performed?
    Answer. I understand that the Federal Activities Inventory Reform 
(FAIR) Act and the Federal Acquisition Regulation (FAR), as well as the 
Total Force Management statutes of title 10, govern the proper sourcing 
of labor. Ensuring that the Army complies with the FAIR Act and the FAR 
is an ongoing process. I believe that the Army must continue to analyze 
its functions to guarantee an appropriate workforce mix, while ensuring 
that inherently governmental functions are not outsourced. If 
confirmed, I will monitor and scrutinize this area and assess whether 
any reappraisal is necessary.
    Question. If confirmed, will you work with other appropriate 
officials in the Army to review the contractor and civilian force mix?
    Answer. If confirmed, I will work with other appropriate officials 
in the Army to review the contractor and civilian force mix. Pursuant 
to title 10, U.S.C., section 129a, I will also work closely with the 
Under Secretaries of Defense for Personnel and Readiness, Comptroller, 
and Acquisition, Technology and Logistics, to ensure that the Army 
continues to operate in a manner consistent with Department of Defense 
guidance.
    Question. Would you agree that the balance between civilian 
employees and contractor employees in performing Army functions should 
be determined by the best interests of the Army and not by artificial 
constraints on the number of civilian employees?
    Answer. Yes. In all instances, the Army must execute its missions 
to the best of its abilities within the available resources in order to 
best serve our soldiers and the Nation. A key component in Army's 
overall effectiveness lies in ensuring Army functions are performed 
with the most appropriate source of labor available.
    Question. If confirmed, will you work to remove any artificial 
constraints placed on the size of the Army's civilian workforce, so 
that the Army can hire the number of employees most appropriate to 
accomplish its mission?
    Answer. If confirmed, I will meet assigned missions within 
available funding and using the most appropriate source of labor as 
required by title 10, U.S.C. sections 129 and 129a. If confirmed, I 
would support all efforts to ensure compliance with the law and to 
remove inappropriate constraints on the size of the Army civilian 
workforce.
                         sergeant bowe bergdahl
    Question. Following the recent repatriation of Sergeant Bergdahl 
after 5 years of captivity with foreign fighters there have been 
questions about the circumstances under which he became separated from 
his unit in Afghanistan in 2009.
    If confirmed, what is your understanding of your role as Assistant 
Secretary of the Army for Manpower and Reserve Affairs, concerning 
review of the facts and circumstances of Sergeant Bergdahl's capture 
and his status as a member of the U.S. Army?
    Answer. I am aware of the recent reports concerning the 
repatriation of Sergeant Bergdahl and that there are a number of 
Departmental efforts to clearly establish the facts and circumstances 
related to this matter. If confirmed, I will provide all support 
necessary to the combatant commander, the Office of the Secretary of 
Defense, and the Department of the Army to ensure that any decisions in 
this matter are fully informed, well analyzed, and coordinated with all 
the interested parties.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army for Manpower and Reserve Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided in a timely manner to 
this committee and its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kelly Ayotte
                        involuntary separations
    1. Senator Ayotte. Ms. Wada, under the President's budget request 
(PBR), the Army is dramatically reducing the size of the force over the 
Future Years Defense Program. In your answer to the advance policy 
questions, you state that your fundamental challenge, if confirmed, 
will be ``manning the entire force, which equates to balancing military 
readiness with the requirements of a drawdown.''
    According to a report received by the Senate Armed Services 
Committee, pursuant to section 525 of the National Defense 
Authorization Act (NDAA) for Fiscal Year 2013, I understand that in the 
second half of calendar year 2013, the Army involuntarily separated six 
soldiers. These included two sergeants first class and four staff 
sergeants--who had 16 or 17 years of service. Over their time of 
service, these staff sergeants had deployed overseas for contingency 
operations (presumably Iraq and Afghanistan) for an average of 30 
months--2 years away from their loved ones, serving our country and 
keeping us safe.
    I understand that the Army is being forced to reduce its end 
strength and this requires difficult decisions you would rather not 
make. How do you view the use of involuntary separations to achieve end 
strength reduction goals?
    Ms. Wada. Involuntary separations are a last resort, but I 
understand they may be necessary to reduce personnel in a responsible 
and measured manner. If confirmed, I would ensure the Army uses 
precision, care, and compassion as it applies all the tools and 
authorities available in achieving the directed end strength without 
jeopardizing the success of combat operations and other critical 
missions.

    2. Senator Ayotte. Ms. Wada, based on your preparation for this 
hearing, as the Army reduces its end strength this year and next year, 
how many well-performing officers, noncommissioned officers (NCO), and 
soldiers--who are not eligible for retirement--will be involuntarily 
separated from the Army? Please provide specific numbers.
    Ms. Wada. I am informed that during fiscal year 2014-2015, a total 
of 140 noncommissioned officers who are not retirement eligible are 
programmed for involuntary separation from the Army. I am further told 
that there will be approximately another 1,300 captains and 
approximately 400 majors who will separate as a result of separation 
boards.
    I also understand the Army plans to conduct additional Officer 
Separation Boards in fiscal year 2015, planning to select approximately 
1,000 captains for separation. There is additional analysis ongoing to 
determine which year groups should be considered.

    3. Senator Ayotte. Ms. Wada, will you give me your commitment that 
you will do everything in your power to minimize the use of involuntary 
separations for well-performing servicemembers, especially those who 
are not eligible for retirement?
    Ms. Wada. I am committed to doing everything in my power to 
minimize the use of involuntary separations, in the context of the 
resource constrained environment in which the Army is operating.
                                 ______
                                 
    [The nomination reference of Debra S. Wada follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                       May 5, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Debra S. Wada, of Hawaii, to be an Assistant Secretary of the Army, 
vice Thomas R. Lamont, resigned.
                                 ______
                                 
    [The biographical sketch of Debra S. Wada, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                  Biographical Sketch of Debra S. Wada
Education:
    Drake University, 1980-1984, B.A. in Economics and Political 
Science, degree granted 1984
    Naval War College, Non-resident Seminar Program, diploma June 1997
Employment Record:
    House Armed Services Committee, U.S. House of Representatives, 
Washington, DC, Professional Staff Member, November 1999-January 2007 
and January 2011 to present.
    House Armed Services Committee, U.S. House of Representatives, 
Washington, DC, Lead Staff Member for Subcommittee on Military 
Personnel, January 2007-March 2010.
    House Armed Services Committee, U.S. House of Representatives, 
Washington, DC, Deputy Staff Director, March 2010-December 2010.
    National Park Service, Office of Congressional and Legislative 
Affairs, Washington, DC, Legislative Specialist, January 1999-November 
1999.
    Senator Daniel K. Akaka, U.S. Senate, Washington, DC, Legislative 
Assistant, April 1990-December 1998.
    Representative Daniel K. Akaka, U.S. House of Representatives, 
Washington, DC, Legislative Assistant, July 1987-April 1990.
    Chemical Manufacturers Association, Washington, DC, Assistant, 
January 1986-July 1987.
Honors and awards:
    Naval Reserve Association, Legislative Proponent Award, December 
2008
    National Military Families Association, NMFA Support of Military 
Families Award, September 2008
    National Guard Association of the United States, Patrick Henry 
Award, 2008
    The Military Coalition, Freedom Award, October 2007
    Military Officers Association of America, Colonel Paul W. Acari 
Meritorious Achievement Award, 2005
    Enlisted Association National Guard of the United States, Militia 
Award, July 2004
    Federal Asian Pacific American Council, September 1991
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Debra S. Wada 
in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Debra S. Wada.

    2. Position to which nominated:
    Assistant Secretary of the Army (Manpower and Reserve Affairs).

    3. Date of nomination:
    May 5, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 31, 1962; Honolulu, HI.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    N/A.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    St. Andrew's Priory, (6th-12th), 1974-1980, high school diploma, 
degree granted, 1980.
    Drake University, 1980-1984, B.A. in Economics and Political 
Science, degree granted, 1984.
    Drake University, 1984, Masters in Business Administration, no 
degree American University, August-December 1989, Masters in 
International Business Management, no degree.
    Naval War College, Non-resident Seminar Program, diploma, June 
1997.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Professional Staff Member, House Armed Services Committee, U.S. 
House of Representatives, Washington, DC, 1999-2007 and 2011 to 
present.
    Lead Staff Member for Subcommittee on Military Personnel, House 
Armed Services Committee, U.S. House of Representatives, Washington, 
DC, 2007-2010.
    Deputy Staff Director, House Armed Services Committee, U.S. House 
of Representatives, Washington, DC, 2010.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Legislative Affairs Specialist, National Park Service, U.S. 
Department of Interior, January-October 1999.
    Legislative Assistant, Senator Daniel K. Akaka, U.S. Senate, 1990-
1999.
    Legislative Assistant, Representative Daniel K. Akaka, U.S. House 
of Representatives, 1987-1990.
    Intern, State of Hawaii, summer 1981 and 1982.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    N/A.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.

        <bullet> Wolf Trap
        <bullet> Kennedy Center
        <bullet> National Zoo
        <bullet> Smithsonian Institute
        <bullet> Congressional Asian Pacific American Staff Association
        <bullet> Asian American Pacific Islander Ladies on the Hill
        <bullet> Japanese American Citizens League
        <bullet> Naval War College

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    N/A.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Volunteered for Obama for President Campaigns, and re-election.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Esther Puakela Kia'aina, Kia'aina for Congress, $250.00 (2012).
    Democratic Congressional Campaign Committee $250.00 (2010).

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
        <bullet> Naval Reserve Association, Legislative Proponent 
        Award, December 2008
        <bullet> National Military Families Association, NMFA Support 
        of Military Families Award, September 2008
        <bullet> National Guard Association of the United States, 
        Patrick Henry Award, 2008
        <bullet> The Military Coalition, Freedom Award, October 2007
        <bullet> Military Officers Association of America, Colonel Paul 
        W. Acari Meritorious Achievement Award, 2005
        <bullet> Enlisted Association National Guard of the United 
        States, Militia Award, July 2004
        <bullet> Federal Asian Pacific American Council, September 1991

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                      Debra S. Wada
    This 23rd day of May, 2014.

    [The nomination of Debra S. Wada was reported to the Senate 
by Chairman Levin on June 24, 2014, with the recommendation 
that the nomination be confirmed. The nomination was confirmed 
by the Senate on September 17, 2014.]
                              ----------                              

    [Prepared questions submitted to Miranda A.A. Ballentine by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe the Goldwater-Nichols defense reforms have been 
very effective, and I am not aware of the need for any modifications.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I am not aware of the need for any modifications to 
Goldwater-Nichols, but if confirmed, I will work with the Secretary of 
the Air Force and Under Secretary of the Air Force on any proposed 
changes that pertain to Air Force installations, environment, and 
energy.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Air Force for Installations, 
Environment, and Energy?
    Answer. The Assistant Secretary of the Air Force for Installations, 
Environment and Energy (SAF/IE) formulates policy and procedures for 
effective management of the Air Force energy programs, real property, 
housing and other facilities; environmental protection; and safety and 
occupational health for both military and civilian personnel. This 
position is also responsible for the timely completion of closures and 
realignments of installations under base closure laws. This position 
manages the strategic basing process.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I bring nearly 2 decades of experience in the private and 
non-profit sectors. Most recently, I have spent the last 6 years at 
America's largest corporation, Walmart Stores Inc, which is also the 
largest private energy user in the United States. I lead a global team 
of 100+ engineers in over 25 countries who manage the environmental 
impact and energy portfolio of 11,000 facilities. I am a trusted 
advisor to top corporate leaders (Walmart's version of ``top brass''), 
and I bring a proven aptitude in developing and implementing energy and 
environmental strategies, successfully balancing competing priorities 
between organizational mission, economics and community impact. I have 
a history of successfully collaborating within complex, matrixed, 
geographically-disperse organizations, as well as developing successful 
partnerships with outside stakeholder groups.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Air Force for Installations, Environment, and Energy?
    Answer. One can always enhance one's ability to perform at a higher 
level. If confirmed, the most immediate actions I intend to take to 
enhance my abilities include:

        - meeting with Members of Congress to ensure their top 
        priorities are factored into policies;
        - visiting bases to build a deeper understanding of the state 
        of the Air Force's infrastructure;
        - spending time with airmen and their families, to align the 
        SAF/IE policies with our warfighters' needs;
        - analyzing existing programs and priorities to assess which 
        programs ought to be accelerated and where there are areas of 
        challenge or vulnerability;
        - building relationships with the SAF/IE team, as well as other 
        key partners across the Air Force and the Department of Defense 
        (DOD).

    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Air Force would prescribe for you?
    Answer. If confirmed, I would expect the Secretary of the Air Force 
to prescribe the duties and functions stated above. Additionally, I 
would expect that the Secretary will request that I rely upon my years 
of experience to assist her in developing and implementing programs to 
meet the goals and priorities she has laid out for the Department.
                             relationships
    Question. If confirmed, what would be your professional 
relationship with:
    Secretary of the Air Force.
    Answer. If confirmed, I will seek to carry out the goals and 
priorities of the Secretary of the Air Force. Additionally, I expect to 
be the Secretary's advisor on matters related to installations, 
environment and energy, and to elevate important issues to her in a 
timely fashion.
    Question. Under Secretary of the Air Force.
    Answer. If confirmed, I will work closely with the Under Secretary 
and seek his counsel and guidance as I work to support his efforts to 
carry out the goals and priorities of the Secretary of the Air Force. 
Additionally, I expect to be the Under Secretary's advisor on matters 
related to installations, environment and energy, and to elevate 
important issues to him in a timely fashion.
    Question. Air Force Chief of Staff.
    Answer. If confirmed, I will provide the support that the Chief of 
Staff of the Air Force requires to execute his duties and 
responsibilities and achieve the Air Force mission. I and my staff will 
partner closely with the Chief and his staff as appropriate on his 
specific areas of focus.
    Question. Air Force Vice Chief of Staff.
    Answer. If confirmed, I will similarly work closely with the Vice 
Chief of Staff of the Air Force to execute his duties and 
responsibilities. I and my staff will partner closely with the Vice 
Chief and his staff as appropriate on his specific areas of focus.
    Question. Other Assistant Secretaries of the Air Force
    Answer. If confirmed, I will work as part of the team to ensure 
that we present the best collaborative approach to supporting the goals 
and priorities of the Secretary of the Air Force.
    Question. Under Secretary of Defense for Acquisition, Technology, 
and Energy
    Answer. If confirmed, I will work with the Under Secretary of 
Defense for Acquisition, Technology, and Energy to develop and execute 
the policies and initiatives of the President, the Secretary of 
Defense, and the Secretary of the Air Force.
    Question. Deputy Under Secretary of Defense for Installations and 
Environment.
    Answer. If confirmed, I will work with the Deputy Under Secretary 
of Defense for Installations and Environment to develop and execute the 
policies and initiatives of the President, the Secretary of Defense, 
and the Secretary of the Air Force.
    Question. The Assistant Secretary of Defense for Operational Energy 
Plans and Programs.
    Answer. If confirmed, I will work with the Assistant Secretary of 
Defense for Operational Energy Plans and Programs to develop and 
execute the policies and initiatives of the President, the Secretary of 
Defense, and the Secretary of the Air Force.
    Question. The Assistant Secretaries of the Army and Navy for 
Energy, Installations, and Environment.
    Answer. If confirmed, I will work closely with the Assistant 
Secretaries of the Army and Navy for Energy, Installations, and 
Environment to strengthen the cooperation between the Services. I will 
work to foster a cordial and productive working relationship with these 
colleagues, and seek to leverage both knowledge and implementation 
wherever feasible and viable.
    Question. General Counsel of the Air Force.
    Answer. If confirmed, I will work closely with the General Counsel 
of the Air Force to ensure that the programs we execute, and the 
policies we develop, are consistent with the law.
    Question. Judge Advocate General of the Air Force.
    Answer. If confirmed, I will work closely with the Judge Advocate 
General of the Air Force to ensure that the programs we execute with 
the policies we develop are consistent with the areas of law contained 
within his purview. I would also expect to work directly with the Judge 
Advocate General of the Air Force on areas of mutual interest.
    Question. Deputy Chief of Staff of the Air Force for Logistics, 
Installations and Mission Support.
    Answer. If confirmed, I will work with the Deputy Chief of Staff 
for Logistics, Installations, and Mission Support to identify and 
implement policies and practices that best support the needs of the 
Department of the Air Force.
    Question. Civil Engineer of the U.S. Air Force.
    Answer. If confirmed, I will work with the Air Force Civil Engineer 
to identify and implement policies and practices that best support the 
needs of the Department of the Air Force, our airmen and their 
families.
                     major challenges and problems
    Question. In your view, what are the major challenges that confront 
the Assistant Secretary of the Air Force for Installations, 
Environment, and Energy?
    Answer. Many significant challenges confront the next Assistant 
Secretary of the Air Force (Installations, Environment, and Energy). 
Chief among them is ensuring our installations and infrastructure 
enables the Air Force's mission now and in the future. Enhancing 
readiness while controlling cost is a challenge in any environment, and 
I understand the Air Force had to make difficult choices while building 
this year's budget request and took risk in installation support.
    With the largest energy bill in DOD, the Air Force will continue to 
be challenged to optimize energy productivity to ensure every dollar 
counts.
    Environmental and occupational safety and health issues are of top 
concern for our people and installations as well.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I plan to work closely with Congress, the 
Secretary of the Air Force, the Chief of Staff of the Air Force, the 
Deputy Under Secretary of Defense (Installations and Environment), as 
well as other governmental and non-governmental organizations to devise 
solutions to address these challenges. I intend to promptly examine 
existing policies and procedures to accelerate winning solutions and to 
identify and repair less successful policies.
    Question. What do you consider to be the most significant problems 
in the performance of the functions of the Assistant Secretary of the 
Air Force for Installations, Environment, and Energy?
    Answer. I am not aware of any significant problems in the 
performance of the functions of the Assistant Secretary of the Air 
Force for Installations, Environment, and Energy.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. Again, I am not aware of any significant problems in the 
performance of the functions of the Assistant Secretary of the Air 
Force for Installations, Environment, and Energy. If confirmed, I would 
initiate a review of Air Force programs within the SAF/IE portfolio 
immediately, evaluate the risks and prioritize the most pressing 
problems that will require focused attention. I will collaborate with 
my counterparts in DOD, the Military Services, and within the Air Force 
where those issues overlay or may impact the responsibilities of others 
and develop a plan to address these issues.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Air Force for Installations, Environment, and Energy?
    Answer. If confirmed, I will establish priorities consistent with 
those of the President of the United States, the Secretary of Defense, 
and the Secretary of the Air Force. In broad terms, I will assist the 
Secretary of the Air Force in focusing on people, making every dollar 
count, and balancing readiness for today's fight with modernization to 
meet tomorrow's challenges. I will lead the Air Force in meeting the 
energy goals laid out for the Department, seek to allocate funding to 
develop the right infrastructure at the right time at the right cost to 
support the mission of the Air Force, our airmen and their families, 
and work closely with Members of Congress, State and local officials, 
and the public when considering projects and processes with 
environmental impacts.
    Question. Do you have any specific plans to help improve the 
quality of life for Air Force families who are under considerable 
strain as a result of repeated deployments?
    Answer. I am not in a position at present to develop specific plans 
with respect to improving the quality of life of our airmen and their 
families. However, I clearly recognize the pressures repeated 
deployments have placed on our Air Force families. If confirmed, I will 
work in concert with the Secretary of the Air Force to identify and 
implement quality of life initiatives that can be influenced by the 
installations, environment, and energy portfolio. Whenever possible, I 
will seek the insight and views of airmen and their families directly.
    The Assistant Secretary of the Air Force for Installations, 
Environment, and Energy has responsibility for, among other things, 
construction and maintenance of installations, family housing, energy, 
weapon system energy, and environmental protection.
    Question. In the competition for resources inherent in the Defense 
Department budget process, how do you believe funding for these various 
responsibilities should be balanced?
    Answer. I am not in a position at present to comment on the 
relative funding priorities of these programs. Although they would 
certainly compete for the same limited resources, the development of 
these programs must be done in conjunction with each other. All of 
these programs must work hand-in-hand to further the strategic vision 
and goals of the Secretary of the Air Force.
    My previous professional experience of developing strategies within 
limited capital budgets prepares me well to, if confirmed, execute 
thoughtful, open, transparent processes for budget-allocation 
decisionmaking.
                         military construction
    Question. What would be your highest priorities, if confirmed, for 
allocating military construction (MILCON) funding for the Department of 
the Air Force over the next several years?
    Answer. The military construction program priorities should fall in 
line with overall Air Force priorities. If confirmed, I will work to 
ensure that those top priorities receive appropriate military 
construction funding. I understand that the Air Force MILCON budget 
bore risk in fiscal year 2015 as the Secretary and Chief were forced to 
make difficult funding decisions. If confirmed, I would work closely 
with the Air Force's leadership team to thoughtfully, openly, and 
transparently make decisions about capital allocation that best 
supports the mission.
                            budget pressures
    Question. In difficult budget times, funding for military 
construction and facilities sustainment is often deferred in favor of 
other near-term priorities. However, over the long-term, underfunding 
of these accounts increases the number of failed and failing 
facilities, escalates the risk that facilities will fail prematurely, 
and results in higher restoration and replacement costs.
    Do you believe that current funding levels dedicated to military 
construction and facilities sustainment are adequate to support the 
operational, housing, and quality of life requirements of the Air 
Force?
    Answer. The Air Force, like all the Services, is making difficult 
investment trade-offs as budgets decrease. If confirmed, I will review 
the current and future requirements for infrastructure, to ensure that 
the Air Force can support its mission requirements and the Secretary of 
the Air Force's priorities.
                     base closure and realignments
    Question. DOD has requested another Base Realignment and Closure 
(BRAC) round.
    Do you believe another BRAC round is necessary? If so, why?
    Answer. It is my understanding that prior to BRAC 2005, the Office 
of the Secretary of Defense (OSD) reported 24 percent in excess 
capacity for the Air Force. BRAC 2005 had little impact in reducing Air 
Force infrastructure, and since 2005 there has been significant 
drawdown in both personnel and number of aircraft, indicating the Air 
Force likely continues to maintain excess infrastructure. It appears 
another BRAC round would reduce infrastructure and allow the Air Force 
to concentrate its resources on personnel and mission capabilities.
    Question. It has been noted repeatedly that the 2005 BRAC round 
resulted in major and unanticipated implementation costs and saved far 
less money than originally estimated.
    What is your understanding of why such cost growth and lower 
realized savings have occurred?
    Answer. As I understand BRAC 2005, the key factor that drove the 
cost of the last BRAC round was the willingness of the Department, the 
BRAC Commission, and Congress to accept recommendations that were not 
designed to save money. From my current understanding of BRAC 2005, it 
appears this round focused on both transformation and efficiencies.
    Question. How do you believe such issues could be addressed in a 
future BRAC round?
    Answer. If confirmed, I would work with DOD to ensure Air Force 
BRAC recommendations meet Department and congressional guidelines in 
any future round of BRAC if authorized by Congress.
               phasing of military construction projects
    Question. In some cases, the Department has proposed phasing, as 
opposed to incrementing, large military construction projects over 
multiple fiscal years even when each distinct phase does not satisfy 
the overall requirement of the Department. It has been shown that 
phasing large military construction projects, rather than requesting a 
single authorization for the complete facility and then seeking 
incremental authorization of appropriations over multiple fiscal years, 
can result cost growth of 10 percent or more if all phases are executed 
independently.
    Do you believe phasing, as opposed to incrementing, large military 
construction projects is appropriate? If so, when?
    Answer. I am not currently familiar with difference between phasing 
and incremental funding of military construction projects. If confirmed 
I will work to ensure that Air Force policy drives sound decisions 
regarding authorization and appropriation requests for large military 
construction projects.
    Question. Do you believe phasing of large military construction 
projects can be justified even when it results in cost growth for the 
complete facility? If so, how?
    Answer. Again, I am not familiar with the specifics of phasing 
large military construction projects.
                          overseas facilities
    Question. Do you believe the Department of the Air Force currently 
maintains excess infrastructure overseas? If so, how would you seek to 
address this issue?
    Answer. I am aware a European Infrastructure Consolidation capacity 
analysis was directed by OSD last year, however, I have not been 
briefed on the Air Force or OSD results. I am also aware the report is 
due to be delivered to Congress this summer.
                     in-kind military construction
    Question. The committee released a report on April 15, 2013, titled 
``Inquiry into U.S. Costs and Allied Contributions to Support the U.S. 
Military Presence Overseas.'' Among other things, the committee's 
inquiry found that in-kind payments from Germany, South Korea, and 
Japan have been used to fund questionable military construction 
projects. The National Defense Authorization Act for Fiscal Year 2014 
requires that future military construction projects funded using in-
kind payments or in-kind contributions pursuant to bilateral agreements 
with partner nations be submitted for congressional authorization in 
the Military Construction Authorization Act.
    If confirmed, how would you ensure that in-kind payments are 
utilized only for identified U.S. priorities to offset costs that the 
Department of the Air Force would otherwise pay with appropriated 
funds?
    Answer. If confirmed I would work to ensure Air Force payment-in-
kind projects are selected which support identified U.S. priorities, in 
accordance with National Defense Authorization Act requirements.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in the past have 
testified that the Military Services under-invest in both the 
maintenance and recapitalization of facilities and infrastructure 
compared to private industry standards. Decades of under-investment in 
DOD installations has led to substantial backlogs of facility 
maintenance activities, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    If confirmed, what recommendations would you have for restoring and 
preserving the quality of our infrastructure?
    Answer. If confirmed, I will closely examine the way the Air Force 
manages its facilities and infrastructure and will work with the 
Secretary of the Air Force and the Chief of Staff of the Air Force to 
make sure our infrastructure supports the warfighter.
                          enhanced use leases
    Question. Congress has provided the authority for each of the 
Service Secretaries to lease underutilized non-excess property and to 
use revenues generated by those leases to enhance infrastructure and 
operating costs on those installations. This so-called ``enhanced use 
lease'' (EUL) authority is being used in different ways and for 
different purposes by each of the Military Departments.
    What is your understanding of the EUL authority?
    Answer. My understanding is that the enhanced use lease authority 
is a valuable tool in the Department's infrastructure management 
toolbox. My understanding is that the Air Force can use this authority 
to partner with industry and the outside community to maximize the 
value and use of Department property.
    Question. What do you see as the future of the Department of the 
Air Force's EUL program?
    Answer. I understand that there are several promising EUL 
opportunities that the Department of the Air Force is currently 
examining. If confirmed, I will seek to continue the success of the Air 
Force's EUL program.
    Question. What Air Force EUL projects do you see as most viable in 
the near term?
    Answer. Because I am not aware of all the current projects or those 
projects being considered, I could not identify the most viable in the 
near term. If confirmed, I will examine all of our projects more fully 
before making such an assessment.
    Question. If confirmed, what would be your priorities for the 
Department of the Air Force's EUL program?
    Answer. Without yet fully evaluating the existing EUL projects, I 
am not yet in a position to state what my priorities would be, if 
confirmed. I will however, look to leverage lessons of both successful 
Air Force projects and those of other branches. If confirmed, I will 
leverage the EUL program to ensure our warfighters and their families 
have the highest quality environment in which to live and work and that 
the Department's real estate is put to the highest valued uses.
    Question. If confirmed, would you consider the authority to provide 
support to energy initiatives?
    Answer. It is my understanding that the Air Force is already 
actively using the EUL authority for energy initiatives, specifically 
renewable energy project development, and I support such an approach.
    Question. The Congressional Budget Office has expressed concern 
that EUL authority could be used to acquire expensive facilities 
through long-term leases that commit DOD to make payments (rather than 
receiving payments) over an extended period of time. Additionally, the 
National Defense Authorization Act for Fiscal Year 2011 included a 
provision designed to ensure that EULs cannot be used to commit future 
years DOD funds for long-term projects that have not received approval 
through the normal budgeting process.
    Do you believe that it would be appropriate to use EUL authority to 
commit future years DOD funds for long-term projects to acquire 
facilities that have not received approval through the normal budgeting 
process?
    Answer. I have not yet had an opportunity to study this issue, but 
if confirmed, I certainly will do so.
    Question. If confirmed, how would you address proposals to use EUL 
authority in this manner?
    Answer. Since I have not had an opportunity to study this issue, I 
do not know how I would address such proposals if confirmed, but I 
would ensure that EULs meet legal requirements
                        real estate transactions
    Question. Recent budget cuts continue to adversely impact 
availability of funds for Air Force military construction projects. To 
mitigate, the Air Force has used innovative methods to continue to meet 
the infrastructure requirements of the warfighter. For example, this 
included working with Oklahoma State officials to lease a former 
automotive plant to accommodate additional work performed by the 
Oklahoma City Air Energy Complex and the purchase of property 
contiguous to the base for KC-46 depot maintenance. Another initiative 
is the Enhanced Use Lease project at Hill Air Force Base. However, as 
with any new public/private endeavor, questions have arisen as to the 
projects' compliance with statutes written long ago and designed to 
regulate other practices. Resolving these questions has greatly slowed 
the approval process for a number of these projects.
    How might the law and regulations be modified to facilitate 
approval of innovative projects based on their merits rather than 
delayed to ensure compliance with potentially obsolete legal and 
administrative requirements?
    Answer. If confirmed, my intent is to identify where these 
situations exist and identify ways to streamline processes or request 
legislation that enables doing so.
                         base operating support
    Question. What is your understanding of the base operating support 
requirements of the Department of the Air Force?
    Answer. My understanding is that Base Operating Support (BOS) 
requirements of the Department of the Air Force are critical to the 
overall mission readiness. BOS funding finances installation activities 
that support operations, critical training, facilities infrastructure 
maintenance, public safety, and family programs for both Active and 
Reserve components.
    Question. In your view, is the Department of the Air Force 
receiving adequate funding for base operating support?
    Answer. I have not had an opportunity to review BOS funding in 
detail, but if confirmed, I will closely examine funding levels to 
ensure the highest quality living and working conditions for our airmen 
and their families.
    How might the Department of the Air Force distribute base operating 
funds to best ensure sound investment of constrained resources?
    Answer. If confirmed, I am committed to learning the methods and 
processes in place across the Department to guide investment decisions 
and distribution of resources.
         facilities sustainment, restoration, and modernization
    Question. What is your understanding of the facilities sustainment, 
restoration, and modernization (FSRM) requirements of the Department of 
the Air Force?
    Answer. My understanding is that facilities sustainment, 
restoration, and modernization (FSRM) funds maintenance, repairs, and 
minor modification to facilities and infrastructure.
    Question. In your view, is the Department of the Air Force 
requesting and receiving adequate funding for FSRM?
    Answer. I have not had an opportunity to review FSRM funding in 
detail, but if confirmed, I will closely examine funding levels to 
ensure the highest possible quality living and working conditions for 
our airmen and their families within resource constraints and 
operational imperatives.
    Question. How might the Department of the Air Force distribute FSRM 
funds to best ensure sound investment of constrained resources?
    Answer. If confirmed, I am committed to learning the methods and 
processes in place across the Department to guide investment decisions 
and distribution of resources.
                    family housing and privatization
    Question. In recent years, DOD and Congress have taken significant 
steps to improve family housing. The housing privatization program was 
created as an alternative approach to speed the improvement of military 
family housing and relieve base commanders of the burden of managing 
family housing. If confirmed for the position of Assistant Secretary of 
the Air Force for Installations, Environment, and Energy you will have 
a key role in decisions regarding military family housing.
    What are your impressions of the overall quality and sufficiency of 
Air Force family housing both in the United States and abroad?
    Answer. My understanding is that major improvements have been made 
to the overall quality and sufficiency of family housing, both 
domestically and overseas.
    Question. What are your views regarding the privatization of family 
housing?
    Answer. I believe the use of the housing privatization authorities 
was an important and necessary tool to revitalize a large inventory of 
inadequate homes.
    Question. What is your view of the structure and general goals of 
the Department of the Air Force's current housing privatization 
program?
    Answer. I understand the Air Force met its planned privatization 
goal at the end of fiscal year 2013. If confirmed, I will do all within 
my power to ensure the continued success of the Air Force housing 
privatization program.
    Question. Do you believe the housing program should be modified in 
any way? If so, how?
    Answer. I have not had an opportunity to review the housing program 
in detail to determine if it should be modified in any way, but if 
confirmed, I will closely examine it to ensure the highest quality 
living conditions for our servicemembers and their families.
                       environmental restoration
    Question. The Department of the Air Force's environmental 
restoration budget remains a significant part of the Air Force's 
overall environmental program budget.
    What do you see as the main priorities for clean-up within the 
Department of the Air Force program?
    Answer. I understand the Department of the Air Force's priorities 
for clean-up follow priorities established by DOD which are to clean up 
sites that pose the greatest threat to safety, human health, and the 
environment first. If confirmed, I will work closely with the Deputy 
Under Secretary of Defense for Installations and Environment to ensure 
that those priorities are implemented in the Air Force.
    Question. What will you do to ensure that adequate funding is 
requested and received so that clean-ups under the Installation 
Restoration Program and under the Military Munitions Remediation 
Program continue apace?
    Answer. If confirmed, I will ensure that I fully understand the Air 
Force clean-up program needs as they relate to DOD priorities 
previously referenced, and that adequate funding requests are prepared 
and submitted to meet those needs in accordance with those priorities; 
if confirmed, I will advocate for funding to support a program pace 
commensurate with DOD cleanup performance goals to put cleanup remedies 
in place and cleanup responses complete.
                 encroachment on military installations
    Question. Encroachment by commercial and residential development on 
military installations can negatively impact Air Force operations at 
military airfields, training ranges, and the development of new 
facilities.
    What do you see as the main constraints on the Department of the 
Air Force's ability to use its facilities, including training ranges?
    Answer. I am not aware of any specific constraints on the 
Department of the Air Force's ability to use its facilities, including 
training ranges. However, if confirmed, I will ensure the Air Force 
monitors development around Air Force installations, including ranges, 
and works to actively establish long-term relationships with our local 
communities and participate in the local land use planning process.
    Question. If confirmed, what policies or steps would you take to 
ensure energy development avoids negatively impacting Air Force 
missions and, where possible, enhances operations and training?
    Answer. I believe that military operations and energy development 
are not mutually exclusive. If confirmed, I would work closely with 
Federal, State, and local governments as well as the energy developers 
to meet the needs of the Department while enabling access to new 
sources of energy.
    Question. How can the Department of the Air Force address the 
issues of encroachment around its bases in the United States, 
particularly with respect to encroachment caused by residential 
development?
    Answer. I believe the best way to address the issues of 
incompatible development is to actively establish long-term working 
relationships with our local communities and participate in the local 
land use planning processes.
    Question. What is your understanding of the Air Force's ability to 
receive information and plans from potential developers in a timely and 
effective manner?
    Answer. I am not aware of any specific concerns but, as I stated 
previously, I believe the best way to address the issues of timeliness 
of potential development information is to actively establish long-term 
working relationships with our local communities and participate in the 
local land use planning processes.
                             energy policy
    Question. If confirmed, what would your responsibilities be for 
setting and implementing energy policy within the Department?
    Answer. If confirmed, I will oversee implementation of the energy 
program throughout the Air Force. My responsibilities would include 
working with the Secretary and the Under Secretary of the Air Force, 
the other Assistant Secretaries, and the Air Force Chief of Staff and 
Vice Chief of Staff to develop overarching energy policy and provide 
oversight within the Air Force to ensure energy priorities and goals 
are addressed.
    As previously mentioned, with the largest energy bill in DOD, the 
Air Force will continue to be challenged to optimize energy 
productivity to ensure every dollar counts.
    Question. What is your view of the adequacy of Department of the 
Air Force funding to meet statutory and regulatory energy conservation 
goals?
    Answer. I am not in a position at present to comment on the 
relative Air Force funding to meet statutory and regulatory energy 
conservation goals against overall Air Force priorities. If confirmed, 
I will review the requirements for Air Force energy programs to ensure 
they are adequate to meet the challenges the Air Force faces while 
enhancing mission effectiveness.
    Question. Do you believe that significant additional funding will 
be needed in future years to meet such goals?
    Answer. If confirmed, I will work with Air Force leadership and the 
corporate structure programming and budgeting process to ensure 
adequate funds are available to meet Air Force energy goals.
department of the air force laboratory and test center recapitalization
    Question. There has been concern over the adequacy of 
recapitalization rates of the Department's laboratory facilities and 
test centers. Historically, Air Force technical centers, laboratories 
and test centers do not appear to have fared well in the internal Air 
Force competition for limited military construction and facility 
sustainment funds.
    What metrics would you use to assess the amount of investment in 
the recapitalization of Air Force technical centers, laboratories and 
test centers to determine its adequacy?
    Answer. I have not had an opportunity to assess the amount of 
investment required, but if confirmed, I will closely examine the issue 
and work with the Assistant Secretary of the Air Force (Acquisition) to 
determine the appropriate metrics to use.
    Question. If confirmed, how would you work to properly recapitalize 
the Air Force's technical centers, laboratories and test centers?
    Answer. If confirmed, I will work directly with the Assistant 
Secretary of the Air Force (Acquisition) to gain a better understanding 
of the requirement and within the Air Force Corporate Structure to 
ensure they have the necessary information to make sound funding 
decisions.
                         section 2808 authority
    Question. Section 2808 of title 10, U.S.C., allows the Secretary of 
Defense, in the event of a declaration of war or national emergency, to 
undertake military construction projects supporting the use of Armed 
Forces with otherwise unobligated military construction funds.
    What is your assessment of this authority?
    Answer. I believe this authority is vital to provide construction 
projects necessary under a national emergency or declaration of war.
    Question. From a policy standpoint, what restrictions do you 
believe are appropriate for the use of this authority?
    Answer. I am not fully versed in policies regarding this statute. 
If confirmed, I will ensure the Department is executing any projects 
under this statute in accordance with applicable guidance.
    Question. Do you believe it is appropriate to use this authority 
outside theaters of armed conflict? If so, in what instances?
    Answer. I believe the statute is necessary to allow the department 
flexibility in executing urgent construction projects in the event of a 
declaration of war or national emergency. I have not had an opportunity 
to study it in detail and cannot provide a specific example today. If 
confirmed, I will evaluate and ensure the authority is used 
appropriately.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Air Force for Installations, Environment, and Energy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Miranda A.A. Ballentine 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 30, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Miranda A.A. Ballentine of the District of Columbia, to be an 
Assistant Secretary of the Air Force, vice Terry A. Yonkers, resigned.
                                 ______
                                 
    [The biographical sketch of Miranda A.A. Ballentine, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
             Biographical Sketch of Miranda A.A. Ballentine
Education:
    Bachelor of Science, Colorado State University (Magna cum Laude)

        <bullet> Attended: August 1992-May 1996
        <bullet> Degree bestowed: May 1996

    Masters of Business Administration, George Washington University 
(top 5 percent)

        <bullet> Attended: January 2002-December 2003
        <bullet> Degree bestowed: May 2004
Employment Record:

    Walmart Stores, Inc.

        <bullet> Director of Sustainability, Renewable Energy & 
        Sustainable Facilities + External Stakeholder Engagement
        <bullet> January 2008-Present

    David Gardiner & Associates, LLC

        <bullet> Vice President of Investor Analysis, Chief Operating 
        Officer, Senior Consultant
        <bullet> December 2003-January 2008

    Environment 2004

        <bullet> Director of Operations, Assistant Treasurer, and 
        Member of the Board
        <bullet> February 2004-January 2005

    Solar Electric Light Fund

        <bullet> Operations Director
        <bullet> 2001-2004

    Cellular Junction

        <bullet> Retail Store Manager
        <bullet> 1997-2000
Honors and awards:
    Academic:

        <bullet> Magna cum Laude, CSU, 1996
        <bullet> Golden Key Honor Society, 1996
        <bullet> George Washington University Distinguished Alumni 
        Award, 2009
        <bullet> Awarded Best MBA Paper in Corporate Citizenship by 
        Boston College and Net-Impact, 2003

    World Economic Forum class of 2013 Young Global Leaders, selected 
as one of 200 leaders (from 5,000 candidates) from over 70 countries
    Walmart professional leadership recognitions:

        <bullet> Corporate Affairs Key Leader's, 2009
        <bullet> Leadership Academy, 2011
        <bullet> Global Leadership Institute, 2012
        <bullet> Walton Institute, 2013
        <bullet> Currently ranked in the highest promotable quadrant of 
        Walmart's talent and leadership succession grids

    Current and Former Board Service:

        <bullet> (Former) Chair of renewable energy committee of World 
        Economic Forum's Global Growth Action Alliance (G2A2);
        <bullet> Member of WEF's Global Agenda Council on New Energy 
        Infrastructure;
        <bullet> (Former) Chair of The Sustainability Consortium's 
        External Relations Committee;
        <bullet> (Former) Net-Impact Corporate Advisory Council.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Miranda A.A. 
Ballentine in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Current: Miranda A.A. Ballentine.
    Maiden: Miranda Alice Anderson.
    Prior Married Name: Miranda Anderson Kinney.

    2. Position to which nominated:
    Assistant Secretary of the Air Force for Installations, 
Environment, and Energy.

    3. Date of nomination:
    January 30, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 28, 1973; Petoskey, MI.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Roger Scott Ballentine.

    7. Names and ages of children:
    Elizabeth Grose Ballentine, Step-Daughter, age 9.
    Grace Marie Ballentine, Daughter, age 4.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Bachelor of Science, Colorado State University (Magna cum Laude)
        <bullet> Attended: August 1992-May 1996
        <bullet> Degree bestowed: May 1996

    Masters of Business Administration, George Washington University 
(top 5 percent)
        <bullet> Attended: January 2002-December 2003
        <bullet> Degree bestowed: May 2004

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Walmart Stores, Inc.
        <bullet> Director of Sustainability, Renewable Energy & 
        Sustainable Facilities + External Stakeholder Engagement
        <bullet> January 2008-Present
        <bullet> Washington, DC and Bentonville, AR

    David Gardiner & Associates, LLC
        <bullet> Vice President of Investor Analysis, Chief Operating 
        Officer, Senior Consultant
        <bullet> December 2003-January 2008
        <bullet> Washington, DC

    Environment 2004
        <bullet> Director of Operations, Assistant Treasurer, and 
        Member of the Board
        <bullet> February 2004-January 2005
        <bullet> Washington, DC

    Solar Electric Light Fund
        <bullet> Operations Director
        <bullet> 2001-2004
        <bullet> Washington, DC

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Walmart (employer). Director of Sustainability.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    World Economic Forum

        <bullet> Member of WEF's Forum for Young Global Leaders

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Kathleen McGinty for Governor of PA, 2013, $500.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Academic:

        <bullet> Magna cum Laude, CSU, 1996
        <bullet> Golden Key Honor Society, 1996
        <bullet> George Washington University Distinguished Alumni 
        Award, 2009
        <bullet> Awarded Best MBA Paper in Corporate Citizenship by 
        Boston College and Net-Impact, 2003

    World Economic Forum class of 2013 Young Global Leaders, selected 
as one of 200 leaders (from 5,000 candidates) from over 70 countries
    Walmart professional leadership recognitions:

        <bullet> Corporate Affairs Key Leader's, 2009;
        <bullet> Leadership Academy, 2011;
        <bullet> Global Leadership Institute, 2012;
        <bullet> Walton Institute, 2013;
        <bullet> Currently ranked in the highest promotable quadrant of 
        Walmart's talent and leadership succession grids.

    Current and Former Board Service:

        <bullet> (Former) Chair of renewable energy committee of World 
        Economic Forum's Global Growth Action Alliance (G2A2);
        <bullet> Member of WEF's Global Agenda Council on New Energy 
        Infrastructure;
        <bullet> (Former) Chair of The Sustainability Consortium's 
        External Relations Committee;
        <bullet> (Former) Net-Impact Corporate Advisory Council.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    2008-present, while at Walmart few publications have been published 
in my name. I have made significant contributions and led copywriting 
for dozens of Walmart publications, but few have been attributed to me.

        <bullet> World Economic Forum Blog 2013: The Secret to 
        Affordable Renewable Energy, http://forumbloq.org/2012/11 /the-
        secret-to-affordable-renewable-energy/
    Academic publications:

        <bullet> Corporate Water Policies: The Business Case for 
        Strategic Water Management. 2003 Awarded Best MBA Paper in 
        Corporate Citizenship 2004 by Boston College and Net-Impact 
        examined the economic, social and competitive advantages of 
        water management for multinational corporations, with focus on 
        risk mitigation, cost control, competitive positioning, and 
        stakeholder and shareholder wealth.
        <bullet> The Grand Partnership Experiment: ChevronTexaco/USAID 
        in Angola. 2003 Analyzed a multi-million dollar public-private 
        alliance, incorporating cutting-edge scholarship on 
        multisectoral partnerships to examine this initiative from the 
        perspective of WSSD's Type II outcomes.

    Solar Electric Dreams. Published in Sustainable Development 
International, 2002 Analysis of a Solar Electric Light Fund project in 
the Xixuau-Xiparina Ecological Reserve in Brazil.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    During the last 5 years, I have given several speeches on Walmart's 
energy policies, careers in the energy/sustainability fields and other 
topics related to Walmart and my job duties. These speeches have not 
been reduced to writing, and are presented from PowerPoint slides with 
notes.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                           Miranda A.A. Ballentine.
    This 9th day of April, 2014.

    [The nomination of Miranda A.A. Ballentine was reported to 
the Senate by Chairman Levin on June 24, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 11, 2014.]
                              ----------                              

    [Prepared questions submitted to Dr. Monica C. Regalbuto by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Energy for Environmental Management (EM)?
    Answer. The mission of the Office of Environmental Management is to 
complete the cleanup of the environmental legacy of over five decades 
of nuclear weapons development and nuclear research efforts sponsored 
by the Federal Government. As the Assistant Secretary for the Office of 
Management, if confirmed, my paramount duty would be to advance this 
cleanup work while ensuring the safety of workers.
    Additionally, I understand that the Assistant Secretary is 
responsible for managing Federal staff, Federal budget requests and 
implementation, overseeing the mission units and keeping abreast of 
technology developments that could stretch cleanup dollars farther and 
shorten the time needed to accomplish the mission.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Moniz would prescribe for you?
    Answer. If confirmed, I expect that Secretary Moniz will continue 
his focus on project management, including the large EM constructions 
projects. I expect he will also ask me to focus on overarching issues 
such as worker safety, continued efforts to improve safety culture 
throughout the EM complex, and the efficient cleanup of waste 
throughout the system. I also expect that, if confirmed, I will spend 
significant time working on recovery efforts to reopen the Waste 
Isolation Pilot Plant (WIPP).
                             qualifications
    Question. What qualifications and experience do you have that would 
qualify you to perform the duties of the Assistant Secretary of Energy 
for Environmental Management?
    Answer. I have worked on nuclear energy issues for much of my 
career, starting in 1988 when I joined Argonne National Laboratory 
after completing my Ph.D. at the University of Notre Dame. I began my 
work supporting the development of technologies for the treatment of 
high-level waste at the Department of Energy plutonium production 
sites. After developing strong technical skills, I joined BP-AMOCO in 
1996, where I enhanced my skills at managing complex projects, large 
budgets and a multi-disciplinary staff in an industrial setting. I 
returned to Argonne in 2001, and became the Head of the Process 
Chemistry and Engineering Department where I worked on new technologies 
for the treatment of used nuclear fuel and led efforts to identify 
technical solutions to difficult waste management issues
    In addition, I participated in the Massachusetts Institute of 
Technology 3-year Fuel Cycle Study Team, published in 2010, which 
allowed me to gain experience working with high level officials and 
nongovernment organizations, and also brought to my attention the need 
for the safe, permanent disposal of all types of radioactive wastes. In 
2008, I had the unique opportunity to join the Department of Energy's 
(DOE) Office of Environmental Management, where I served as a senior 
program manager supporting their strategic mission in the waste 
processing area.
    In my role as the Deputy Assistant Secretary for Fuel Cycle 
Technologies within the Office of Nuclear Energy, I was responsible for 
formulating and articulating strategic options to expedite the 
resolution of waste management issues.
    I have also experienced the intricacies of nuclear waste management 
from the perspective of a waste generator and from a waste disposal 
specialist during my time at DOE. One of our Nation's biggest 
challenges remains to ensure the public that the government is able to 
fulfill its responsibility regarding the timely handling and cleanup of 
the nuclear waste originated from both its defense and civilian 
programs.
    I believe my background, experience and commitment have prepared me 
to lead the Office of Environmental Management during this particularly 
critical time and I welcome the opportunity to continue my service to 
the Nation as Assistant Secretary for EM. If confirmed, I pledge to 
work closely with this committee and others in Congress to ensure that 
we continue the safe cleanup of the environmental legacy.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the Assistant Secretary of Energy for Environmental Management and the 
Environmental Management program?
    Answer. There is no doubt that the Environmental Management program 
has its share of challenges. While each EM site faces its own unique 
set of issues, I have observed large scale challenges across the 
complex, including project management and the need to execute a 
critical mission in a time of fiscal constraints. Additionally, a 
current ongoing challenge is the February 2014 radiological event at 
WIPP and the continuing efforts to determine the cause of the release, 
remediate the mine and, reopen the facility.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If I am confirmed, I will be committed to advancing EM's 
cleanup work while ensuring the safety of workers and the public, and 
protection of the environment. If confirmed, I would address the 
aforementioned challenges, including:

        <bullet> Project management: From technology maturity, 
        construction issues to cost estimates, building large projects 
        is difficult. Secretary Moniz has recognized this challenge, 
        and during his reorganization of the Department he created the 
        position of Under Secretary for Management and Performance to, 
        in large part, address project management issues. The Office of 
        Environmental Management was moved from Nuclear Security into 
        the purview of Management and Performance, a signal of the 
        Secretary's commitment to addressing these issues. If 
        confirmed, I would work with the Office of the Under Secretary 
        for Management and Performance to address matters associated 
        with some of EM's largest construction projects, including the 
        Waste Treatment and Immobilization Plant at Hanford and the 
        Salt Waste Processing Facility at Savannah River.
        <bullet> Fiscal Constraints: As the Federal Government 
        continues to face fiscal constraints there have been 
        significant effects throughout the EM complex. DOE must make 
        difficult decisions about prioritizing cleanup work and meeting 
        milestones while ensuring worker and public safety.
        <bullet> WIPP: As the Nation's first operating repository, WIPP 
        is a critical asset to the Department and our country. It is 
        very important that the recovery efforts are done as safely and 
        efficiently as possible while ensuring the safety of the 
        workforce and the public, and protection of the environment. EM 
        and the Department must take a close look at the Accident 
        Investigation Board reports and other independent 
        investigations for both the fire and radiological release 
        incidents to determine what improvements can be made to ensure 
        that WIPP will be reopened and operated safely. If confirmed, I 
        expect to be very involved in the WIPP recovery effort and I 
        pledge to work closely with you, this committee and the New 
        Mexico delegation on this important issue.
                           management issues
    Question. The Assistant Secretary for Environmental Management is 
responsible for cleanup activities occurring at Department of Energy 
(DOE) sites across the country.
    What are your views on the roles and responsibilities of field 
managers relative to those of Environmental Management (EM) 
headquarters managers?
    Answer. Field managers are responsible for ensuring that the 
cleanup work is done in a safe and effective manner, and in compliance 
with applicable laws and regulations. Headquarters managers are 
responsible for budget formulation, developing policy, and supporting a 
system-wide approach to accomplish the overall mission and facilitate 
and enable the field work. Headquarters managers also provide oversight 
of the field activities to ensure the work is carried out consistent 
with the use of the most cost effective technologies and the Department 
of Energy and EM policies.
    Question. What is your view of EM's organizational structure? Is 
there a well-delineated and consistent chain of command and reporting 
structure from the field staff to headquarters staff, from the 
contractors to DOE officials, and from the Office of Environmental 
Management to the Secretary of Energy and other DOE officials?
    Answer. I understand the Office of Environmental Management has 
modified its Headquarters organizational structure to place greater 
emphasis on budget formulation and strategic planning, acquisition and 
project management, safety, and technical expertise. I also understand 
that EM's organizational structure focuses on supporting a system-wide 
approach to accomplish the overall mission and to facilitate and enable 
field work within three Mission Units: Site Restoration, Tank Waste, 
and Nuclear Material and Waste Management. I believe the organizational 
structure supports its goals by establishing clear lines of 
responsibility and accountability to improve overall program 
performance. I also believe that organization and management systems 
need to be designed in ways that are mutually supportive and should 
provide structure flexibility to address new challenges as they evolve.
    The nature of many of the Department's operations, the complexity 
of its mission, and its organizational size and structure require a 
well delineated chain of command to ensure that the program offices and 
mission support offices in headquarters and the field sites work 
together to identify and meet mission requirements and to establish 
greater accountability for results. It is also critically important 
that in spite of its size, the organization functions in an integrated 
matter for the benefit of the overall system to accomplish the mission. 
If confirmed, I will continue to evaluate how the organization is 
meeting its goals and adjust if needed.
    Question. Do the field offices have enough autonomy and flexibility 
to work with the contractors at the sites to get the cleanup finished 
in a safe and efficient manner?
    Answer. I believe sufficient autonomy and flexibility exist within 
field offices to enable Federal staff to work with site contractors 
effectively in completing cleanup activities in an efficient manner. If 
I am confirmed, I will ensure field office staff and headquarters staff 
have a clear understanding of their roles and responsibilities within 
this process to maximize the effective use of their capabilities to get 
the job done safely and effectively.
    It is important to me that EM's sites work throughout the complex 
to apply lessons learned from one site to another as not every 
challenge that remains after 25 years of experience is still one of a 
kind. For example, while Savannah River's tank waste composition is 
very different than the tank waste at Hanford, technologies that are 
being used at Savannah River today can and should be explored for use 
at Hanford. If confirmed, I will work to facilitate knowledge and 
integration of best practices and successes across field offices.
    Question. In your opinion, should the field offices have more 
autonomy than they currently have?
    Answer. I do believe that it is important to delegate as much 
authority as possible and appropriate to the field offices and their 
managers, as they are responsible for day-to-day operations. However, 
the additional authority comes with the responsibility to deliver on 
performance goals and learn from the experience of and implement best 
practices from other field offices. Performance is measured by the 
results obtained, the manner in which they are obtained, and return on 
investment. If confirmed, I will ensure the EM program aligns authority 
with performance at each site to deliver on its goals and requirements.
    Question. The Environmental Management program has used a variety 
of contracting methods, including management and operating contracts, 
cost plus award fee contracts, cost plus incentive fee contracts, 
performance-based, fix-priced contracts, and closure contracts, among 
others.
    What is your view of the utility and appropriate role of these, or 
other, contracting methods, and what principles do you believe DOE 
should follow when entering into EM contracts in the future?
    Answer. I believe to select the best contract type for a particular 
DOE requirement, EM must take into account the nature of the risks 
involved with the work to be performed, the complexity of the 
requirement, the general technical capability of contractors within the 
marketplace to perform the work, the work scope needed to meet the 
contract requirements, and DOE's ability to oversee the work.
    My understanding is that since 2013, EM has used a complex-wide, 
standardized acquisition process that takes into account the nature of 
EM work, the desire to maximize contractor performance on closure/
completion contracts by incentivizing contractors to complete the 
remaining cleanup work. I am aware that EM currently has over 35 major 
contracts that are predominately cost type, and 2 Management & 
Operating contracts.
    In December 2013, the Deputy Secretary of Energy issued a policy 
memo that requires use of fixed price contracts whenever feasible and 
alignment of contract incentives with taxpayer interests. I believe 
that EM should be driving to get as close as possible to a fixed price 
contracts portfolio. However, it is my understanding that the current 
difficulty of the mission, including cleaning up waste streams that are 
not completely documented, requires EM to use a variety of contract 
types and even hybrids of those types to fairly allocate risk, provide 
an opportunity for reasonable profit rates, cover a wide range of 
technical difficulty and performance risk and continue to attract 
contractors. I also recognized that current contracting methods have 
room for improvement and that better characterization of clean up waste 
streams and process technology maturity will facilitate this effort, 
and as such if confirmed, I will support investments in this area.
                                mission
    Question. DOE has offered changing views, over the lifetime of the 
EM program, as to whether the program should focus on cleaning up the 
sites within its purview as of a date certain or whether the program 
should have an ongoing mission of cleaning up all surplus DOE 
facilities, as the facilities become excess, over time.
    Do you believe there is a point at which the EM program should stop 
taking surplus buildings, facilities, or waste streams from other 
components of the DOE into the EM program for decommissioning, 
decontamination, and disposal?
    Answer. I believe EM should continue its decommissioning, 
decontamination, and waste disposal missions of legacy installations. 
It is the most efficient means for DOE to deal with surplus buildings 
and facilities and waste streams, and during the past 25 years, EM has 
developed and is continuously improving the core capabilities, 
including expertise, processes, equipment, and facilities, necessary to 
deactivate and decommission surplus buildings and facilities and treat 
and disposition waste. However, as new facilities come on line the cost 
of waste disposal and end of life decommissioning, decontamination, and 
disposal must be built into the facility cost structure to minimize the 
overall future impact to DOE.
    From an organizational perspective, it is more effective to have 
one organization within the Department whose mission is focused on 
cleanup conduct these activities than having the responsibilities 
spread among several organizations. I believe the work in EM enables 
other crucial DOE missions to continue across the United States. By 
focusing on reducing our cleanup footprint, EM is lowering the overall 
Department cost of security, surveillance, infrastructure, and overhead 
costs that would otherwise continue for years to come. In addition, by 
building the cost of waste disposal and end of life decommissioning, 
decontamination, and disposal of new facilities, EM, and as a result 
DOE, will become a much more cost effective organization as it moves 
from legacy cleanup to sustainability of the DOE complex.
    Question. If confirmed, what requirements would you place on the 
other DOE programs before you would take additional buildings, 
facilities or waste into the EM program?
    Answer. I understand that DOE already has policies and procedures 
in place that other DOE programs have to meet in order for EM to accept 
the transfer of additional buildings and waste streams into the EM 
program. If confirmed, I will continue to ensure any additional 
facilities proposed to be added to the EM program be clearly identified 
and segregated from the current baseline, cleanup costs and schedules 
for those facilities be determined, and cleanup of those facilities be 
prioritized according to the principles of the Top-to-Bottom Review. If 
confirmed, I will ensure that acceptance of additional buildings, 
facilities or waste into the EM program will be well-reviewed and that 
future facilities take into account the cost of waste disposal and end 
of life decommissioning, decontamination, and disposal.
    Question. Do you believe it is an appropriate policy for the EM 
program to ``go out of business'' at some point and leave the remainder 
of newly generated waste as the responsibility of existing DOE 
programs?
    Answer. It is the mission of the Office of Environmental Management 
to complete the safe cleanup of the environmental legacy brought about 
from 5 decades of nuclear weapons development and government-sponsored 
nuclear energy research.
    EM's mission will be ongoing for at least the next 35 years. This 
does not include work that is not currently within the EM baseline. As 
previously discussed, any additions to the EM program of newly non-
legacy generated waste will be well-reviewed and the decision made 
consciously with an emphasis on cost recovery. When EM's mission is 
complete, our elected officials, regulators and the Department of 
Energy will determine the appropriate path forward for EM. If 
confirmed, I pledge to work with this committee and others in Congress 
on this issue.
    Question. If not, in your view, how should newly generated wastes 
be managed and which program (EM or the program generating the waste) 
should budget for these activities?
    Answer. These are important issues, not only for the EM program, 
but for the Department as a whole. If confirmed, I will continue to 
ensure any additional facilities proposed to be added to the EM program 
be clearly identified and segregated from the current baseline, cleanup 
costs and schedules for those facilities be determined, and cleanup of 
those facilities be prioritized according to the principles of the Top-
to-Bottom Review. In addition I will work to ensure that future 
facilities take into account the cost of waste disposal and end of life 
decommissioning, decontamination, and disposal. If I am confirmed, I 
will be happy to work with you on this issue.
    Question. Do you believe that making the program responsible for 
newly generated waste would incentivize the program to minimize the 
amount of waste created or, conversely, would it result in the program 
storing waste, perhaps indefinitely?
    Answer. I believe that these are important issues that, if I am 
confirmed, would require further exploration, analysis and discussion 
before I could offer an informed opinion. I can say, however, that it 
is my understanding that the Department remains subject to Federal 
waste management and other environmental laws, as well as Departmental 
directives regarding radioactive wastes, all of which will continue to 
apply, and to govern how waste is stored and managed regardless of 
which program office has primary responsibility. If I am confirmed, I 
will be happy to work with you on this very important and relevant 
issue.
    Question. The EM program demonstrated that accelerating cleanup at 
specific sites could result in a more cost effective approach to 
cleanup over the long term. After the Rocky Flats and the Fernald Sites 
were completed, the accelerated approach was abandoned.
    If confirmed would you look at renewing an accelerated approach for 
specific sites if significant long-term cost savings could be achieved?
    Answer. Based on my understanding of the successes of Rocky Flats, 
Fernald, and Mound, I would be willing to consider this approach, 
particularly if it accomplishes site cleanup in a safe, compliant, and 
more cost-effective manner. I also understand that EM was able to 
accelerate certain work with funding from the American Recovery and 
Reinvestment Act, and accelerate its footprint reduction significantly. 
However, given the current fiscal constraints, it may be difficult to 
balance competing risk-based priorities across the EM complex. If 
confirmed, I would certainly look at this approach and would be happy 
to work with you on this issue.
    Question. Do you believe this promise of accelerated cleanup has 
yet been realized, and if not, why not?
    Answer. The Department of Energy has achieved several successes in 
its accelerated cleanup efforts, including significant footprint 
reduction across the EM complex during the American Recovery and 
Reinvestment Act. However, given the current fiscal constraints and 
that the bulk of remaining work includes the most difficult cleanup 
challenges, it may be difficult to balance competing risk-based 
priorities across the EM complex. If confirmed, I look forward to 
working with you on this issue.
                         technology development
    Question. Do you believe that the EM program has conducted 
sufficient technology development so that a treatment and disposition 
pathway exists for all identified waste streams under the program?
    Answer. As mentioned the most difficult challenges are what remain 
of EM's mission. As characterization technologies evolved during the 
last 25 years, they have informed the complexity of the treatment 
needed for waste stabilization. The mission of the Office of 
Environmental Management has always been challenging, and developing 
and implementing first-of-a-kind technologies to find further 
efficiencies in cleaning up waste streams and optimizing disposition 
pathways will always be an area in which EM will look to improve its 
ability and enhance its efforts. In short, I do not think that we have 
done all we can do, and if confirmed, I will work to ensure that the 
Technology Development and Deployment program continues to make strides 
in creating innovating solutions to our challenging nuclear waste 
issues, especially as we address the most difficult waste streams of 
the mission.
    Question. If any orphan waste streams--those for which there is no 
identified disposition pathway--exist within the EM program, what 
technology development or other efforts would you undertake, if 
confirmed, to address them?
    Answer. In my capacity as Deputy Assistant Secretary for Fuel Cycle 
Technologies, I recently led a study that addresses and identifies 
potential disposal pathways for DOE-managed waste. The report, 
``Evaluation of Options for Permanent Geologic Disposal of Spent Fuel 
and High-Level Waste in Support of a Comprehensive National Nuclear 
Fuel Cycle Strategy,'' can be found at: http://www.energy.gov/ne/
downloads/evaluation-options-permanent-geologic-disposal-spent-
nuclearfuel-and-high-level. There are a few waste categories that 
require further evaluation, including sodium-based waste within the EM 
program.
    As you may know, I started my career working on tank waste at 
Argonne National Laboratory. Our national laboratories provide unique 
experience in the development of technical solutions that currently 
don't exist or are not yet fully mature and proven. The Technology 
Development and Deployment (TDD) program within EM enables the 
development of first-of-a-kind technologies for cleanup efforts of 
unique waste streams. I strongly believe that utilizing the DOE 
national laboratories and other organizations for TDD activities is 
crucial to addressing challenging waste streams and effectively 
remediating waste.
    If confirmed, I will actively engage and leverage that expertise in 
executing EM's cleanup mission.
    Question. What, in your view, are the continuing requirements for 
developing and fielding new technologies, and what are the highest 
priorities?
    Answer. I began my career working on tank waste at Argonne National 
Laboratory in 1988. Twenty-six years later, I can tell you that the 
retrievability, treatment, processing, and disposition of tank waste is 
still the most complicated, challenging, and expensive component. As 
such any effective TDD strategy must target optimization of tank waste 
treatments. In addition, as mentioned before there are some other waste 
streams that may require future technology development such as sodium-
based waste streams, including ``sodium-bonded spent nuclear fuel'' 
from the Fermi lab and the Fast Flux Test Facility at Hanford.
    While focusing on specific targeted areas like tank waste and other 
unique waste streams, subsurface remediation and disposal 
investigations, an effective TDD strategy can be developed. In 
addition, a unified systems approach to technology development that 
incorporates advanced modeling techniques--will facilitate the decision 
making process. Focused Technology development investments can position 
EM to optimize cleanup investments as we face continued constrained 
budgets. If confirmed, I look forward to using my knowledge of the DOE-
managed waste inventory and my technical expertise to move the TDD 
program forward.
                        workforce restructuring
    Question. If confirmed, your duties could involve the review and 
approval of workforce restructuring plans at sites under the EM 
program.
    Please describe your general approach and philosophy in reviewing 
workforce restructuring plans.
    Answer. My general approach and philosophy is to balance being a 
good steward of taxpayer resources with attracting and maintaining the 
staffing needed to carry out our complex and hazardous work. When 
contract funding is such that the contractor determines it needs to 
restructure its workforce, I expect the contractors to do so in 
accordance with the terms of their contracts and the laws prohibiting 
discrimination. If confirmed, I will ensure that DOE provides balanced 
oversight of the contractors' compliance while encouraging innovative 
approaches to get the best value for taxpayer dollars while minimizing 
disruption to the contractor workforce.
    Question. Given the nature of their work, cleanup workers are 
fundamentally in a position of ``working themselves out of a job''.
    How do you believe this particular challenge is best handled from 
both a corporate perspective and as a manager of these workers?
    Answer. This is a significant challenge to the workforce from many 
perspectives. The Department has significant experience in closing down 
sites, including Rocky Flats, Fernald and Mound, and I understand that 
EM has found that contractors have a variety of creative and effective 
tools to manage this situation. If confirmed, I would be happy to work 
with this committee and other Senators on this important issue.
                 waste incidental to reprocessing (wir)
    Question. One of the biggest challenges of DOE's Environmental 
Management program is emptying the large tanks of highly radioactive 
waste that exist at defense nuclear sites in South Carolina, 
Washington, and Idaho. In the National Defense Authorization Act for 
Fiscal Year 2005, Congress granted DOE, in consultation with the 
Nuclear Regulatory Commission (NRC), the authority to determine that 
portions of this waste are not high level radioactive waste and thus 
DOE may leave residue that meets the requirements of the provision at 
the bottom of the tanks in South Carolina and Idaho after these tanks 
are otherwise emptied.
    How is DOE using this new authority?
    Answer. I understand that DOE has successfully worked with the 
Nuclear Regulatory Commission (NRC) and State regulators using the 
section 3116 authority and it will close all of the tanks in Idaho and 
nearly half the tanks in South Carolina. Further, I understand the NRC 
will be issuing its consultative report soon for the remainder of the 
tanks in South Carolina. DOE will then complete the remainder of the 
regulatory discussions with the State of South Carolina and EPA 
regarding closure of those tanks. I have been told that to date, 7 out 
of 11 large tanks in Idaho have been closed and 4 tanks in South 
Carolina have been closed, with 2 more South Carolina tanks scheduled 
to be closed in the relatively near term. If confirmed, I look forward 
to learning more about this authority, and I would be happy to work 
with you on this issue.
    Question. If confirmed will you ensure that the NRC has full access 
to documents and information at these sites that the NRC determines is 
needed to allow them to conduct their responsibilities?
    Answer. It is my understanding that all communication between DOE 
and the NRC to date has been public, and if confirmed I will continue 
that practice. I am aware that the NRC has indicated that it has 
received all requested information in a timely and complete manner. If 
confirmed, I will ensure that DOE continues to communicate with the 
NRC, and to provide all requested documents and information.
                             waste disposal
    Question. Completion of cleanup at a number of EM sites depends on 
the timely shipment of quantities of transuranic waste to the WIPP in 
New Mexico for disposal. In some cases, DOE is under regulatory 
deadlines for completing shipments to WIPP.
    What regulatory deadlines does the EM program currently face 
related to WIPP shipments and what is the current progress against 
those deadlines?
    Answer. I understand the Department is carefully evaluating the 
impacts of the WIPP shutdown to the transuranic (TRU) generator sites, 
including impacts on commitments with State regulators. Currently, 
sites are continuing to characterize and certify transuranic waste for 
shipment to WIPP. Impacts to cleanup deadlines will depend on the 
length of the WIPP shutdown.
    It is my understanding that the Department is evaluating specific 
potential impacts, including the Department's ability to meet: the 
removal of all legacy transuranic (TRU) waste from the Idaho National 
Laboratory by December 31, 2018; and, certain milestones for the WIPP 
certification of legacy and contact-handled TRU located at the Oak 
Ridge Reservation beginning September 30, 2015. The Department 
announced recently that it would not be able to meet the 3706 Framework 
Agreement project milestone of June 30, 2014 for the removal of 3706 
cubic meters of TRU waste from the Los Alamos National Laboratory. If 
confirmed, I expect to be very involved in WIPP issues, including the 
evaluation of potential impacts to cleanup agreements.
    Question. Are you aware of any issues that jeopardize DOE's ability 
to meet these deadlines? If so, what is DOE doing to address these 
issues?
    Answer. It is my understanding that the TRU generator sites are 
continuing to characterize certify transuranic waste for shipment to 
WIPP. As previously mentioned, the major factor affecting the ability 
to meet the cleanup milestones will depend on the length of the 
shutdown of the WIPP facility. The Department is working hard with the 
Los Alamos National Laboratory and its contractors to reopen WIPP in a 
safe, efficient manner, and if confirmed, I pledge to continue this 
important work.
    Question. What, if any, additional permits or permit modifications 
are needed for WIPP in order to meet these deadlines?
    Answer. I am not aware that any additional permits or permit 
modifications are necessary at this time. If confirmed, I expect to be 
very involved in WIPP issues, including this one.
    Question. Given the recent fire and then a release of radioactivity 
at WIPP, if confirmed, will you commit to this committee to review the 
safety of WIPP, including its culture and material requirements in 
conjunction with new Office of Independent Enterprise Assessments to 
determine what actions, if any should be taken and to brief this 
committee on it in a timely manner?
    Answer. As you may know, the Department created two Accident 
Investigation Boards to investigate the events at WIPP. To date two 
Accident Investigation Board reports have been released. It is my 
understanding that a third investigation is currently underway into the 
cause of the February 14 radiologic event. I understand that the Office 
of Independent Enterprise Assessments has already been engaged in this 
issue, and if confirmed, I will make sure they remain engaged.
    Question. If WIPP is severely delayed in re-opening what will you 
do to meet consent order milestones at various defense sites to move 
transuranic waste off the site?
    Answer. It is my understanding that the Department is carefully 
evaluating the impacts of the WIPP shutdown to the TRU generator sites, 
including impacts on commitments with State regulators. Currently, 
sites are continuing to characterize and certify transuranic waste for 
shipment to WIPP. Impacts to cleanup deadlines will depend on the 
length of the WIPP shutdown.
    hanford waste treatment plant and the office of river protection
    Question. The prior Office of Health, Safety, and Security 
performed numerous studies of the safety culture at the Hanford Waste 
Treatment Plant. Of concern to Congress is the recent firings, by 
contractors of persons who are considered ``whistle blowers'', the most 
recent being in February 2014.
    If confirmed will you work with the Department Inspector General to 
review these firings and report your findings to Congress?
    Answer. I am aware of the studies completed by the former Office of 
Health, Safety, and Security, now called the Office of Independent 
Enterprise Assessment addressing safety culture issues at the Hanford 
site.
    I understand that the Department has requested that the Inspector 
General investigate the February 2014 termination of an individual who 
worked for a subcontractor on the Waste Treatment and Immobilization 
Plant (WTP) at Hanford. If confirmed, I would closely study any results 
of this IG investigation.
    Question. What is your assessment of the construction at the Waste 
Treatment Plant of the: (1) pre-treatment facility, (2) High Level 
Waste Facility, and (3) Low Level Waste Treatment Facility?
    Answer. It is my understanding that due to unresolved technical 
issues construction at the Pretreatment and High-Level Waste Facilities 
has been largely stopped. As you may know, the technical issues turned 
out to be much more complex and difficult to resolve than originally 
envisioned and some require full scale testing. I understand that the 
Department is actively working toward resolution of these technical 
issues, including recently issuing a full scale testing plan for some 
of the toughest technical issues, including those around pulse jet 
mixing. Regarding the Low-Activity Waste Facility, it is my 
understanding that construction has continued.
    Question. The Department is considering the construction of a Tank 
Farm Waste Characterization and Staging Facility to pre-treat and 
homogenize waste from the Tank Farm before entering pretreatment.
    If you are confirmed, will you commit to brief the committee at 
earliest possibility on your assessment of the cost and feasibility of 
this facility and the ability to treat the low level waste to meet the 
consent milestones with the State of Washington?
    Answer. If confirmed, I would be happy to brief the committee on 
this issue at the appropriate time.
    Question. Do you support the design build process at the waste 
treatment plant?
    Answer. It is my understanding that DOE entered into the design-
build process at the WTP many years ago, and to date the project is 
approximately 65 percent complete overall. It is also my understanding 
that the Department recently directed that all major construction 
projects are to adhere to the DOE Order 413 process, whereby 90 percent 
of design must be completed to move forward with construction. My 
experience shows that this is a more sustainable approach to large 
construction projects, and if confirmed, I will monitor this important 
issue.
    Question. Tank AY-102 was discovered last month to have additional 
leakage, it is double walled tank.
    Given constrained budget, what are your views regarding the 
construction of additional tanks for removal of the waste in this and 
future leaking tanks vice the construction of the waste treatment 
plant?
    Answer. The best way to address the risk associated with tank waste 
is to immobilize its contents as soon as possible. I am very conscious 
of the constrained fiscal situation, and am aware that building 
additional storage tanks will divert resources from the ultimate 
solution of immobilizing the waste. I am also aware that specific 
situations may require more in depth study. This is a difficult 
balance, and if confirmed, I expect to be very involved in this issue 
and would look forward to working with this committee and others in 
Congress on this important issue.
                     salt waste processing facility
    Question. The Salt Waste Processing Facility (SWPF) at the Savannah 
River Site has had a series of cost overruns associated with production 
of processing tanks at the facility.
    This facility is critical to removing the high level waste for the 
underground waste storage tanks. What is your assessment of this 
program?
    Answer. The SWPF is a large, complex, first-of-a-kind radioactive 
waste treatment facility, and I worked on the development of the 
technology being implemented at SWPF while at Argonne National 
Laboratory. I understand that the construction delays and increased 
project costs were due to the delay in equipment delivery and adequate 
quality of required infrastructure that affected the targeted 
construction completion schedule and the project cost. I also 
understand that the Department of Energy worked with the contractor to 
develop a project plan which would complete construction of SWPF by 
December 2016, and cap the taxpayer's liability for completion of the 
construction.
    I believe there is always room for improvement in project and 
contract management by using clear and enforceable metrics to monitor 
performance and mitigate cost overruns in construction projects. If I 
am confirmed, I will ensure contract terms and conditions provide 
additional emphasis on performance and cost control and improved 
construction performance and productivity.
                        consent order milestones
    Question. As you are aware most if not all the defense cleanup 
sites are under agreements with their host states to achieve well 
defined milestones.
    If confirmed will you inform this committee in a timely fashion 
when the Department determines it will miss major consent order 
milestones?
    Answer. If confirmed, I will maintain open communications with the 
committee.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Energy for Environmental Management?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Dr. Monica C. Regalbuto 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 10, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Monica C. Regalbuto, of Illinois, to be an Assistant Secretary of 
Energy (Environmental Management), vice Ines R. Triay, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Monica C. Regalbuto, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
             Biographical Sketch of Dr. Monica C. Regalbuto
    Dr. Monica C. Regalbuto is the Deputy Assistant Secretary for Fuel 
Cycle Technologies in the Office of Nuclear Energy at the Department of 
Energy (DOE), a position she has held since 2011. She is currently 
detailed to DOE from Argonne National Laboratory. Prior to this role, 
Dr. Regalbuto was Senior Program Manager for the Office of Waste 
Processing in the Office of Environmental Management at DOE from 2008 
to 2010. From 2003 to 2008, Dr. Regalbuto was the head of the Process 
Chemistry and Engineering Department in Argonne's Chemical Sciences and 
Engineering Division and from 1996 to 2001, she was a Senior Research 
Engineer at BP Amoco Oil Company. Dr. Regalbuto received a B.S. in 
Chemical Engineering from the Instituto Tecnologico y de Estudios 
Superiores de Monterrey and an M.S. and Ph.D. in Chemical Engineering 
from the University of Notre Dame.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Monica C. 
Regalbuto in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Monica Cristina Regalbuto.
    Monica Cristina Gonzalez de Regalbuto.
    Monica Cristina Gonzalez Banos.

    2. Position to which nominated:
    Assistant Secretary of Energy for Environmental Management .

    3. Date of nomination:
    March 10, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 30, 1961; Monterrey Nuevo Leon, Mexico.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to John Robert Regalbuto.

    7. Names and ages of children:
    Jose Ricardo Regalbuto, age 27.
    Maria Carolina Regalbuto, age 24.
    Jose Roberto Regalbuto, age 21.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Notre Dame, IN, 06/1986-05/1988, Ph.D., Ch.E., 05/
1988
    University of Notre Dame, IN, 01/1984-05/1986, MS., Ch.E., 05/1986
    ITESM *, 08/1979-05/1983, BS., Ch.E., 06/1983
---------------------------------------------------------------------------
    * Instituto Tecnologico y de Estudios Superiores de Monterrey 
(Monterrey Nuevo Leon, Mexico)

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

----------------------------------------------------------------------------------------------------------------
                Dates                           Title               Name of employer             Location
----------------------------------------------------------------------------------------------------------------
11/2011-present......................  Deputy Assistant         Department of Energy's   Washington, DC
                                        Secretary for Fuel       (DOE) Office of
                                        Cycle Technologies-      Nuclear Energy (NE).
                                        Intergovernmental
                                        Personnel Act
                                        agreement.
11/2008-11/2011......................  Senior Program Manager-  Department of Energy     Washington, DC
                                        Intergovernmental        (DOE) Office of
                                        Personnel Act            Environmental
                                        agreement.               Management (EM).
01/2009-09/2010......................  Research Affiliate (no   Massachusetts Institute  Boston, MA
                                        pay).                    of Technology.
04/2009-04/2013......................  Board Member (no pay)..  Illinois High School     Glenview, IL
                                                                 District 255.
01/2001-Present......................  Department Head........  Argonne National         Argonne, IL
                                                                 Laboratory.
12/1996-01/2001......................  Research Engineer......  Amoco Oil Company now    Naperville, IL
                                                                 BP (British Petroleum).
09/1988-12/1996......................  Chemical Engineer......  Argonne National         Argonne, IL
                                                                 Laboratory.
----------------------------------------------------------------------------------------------------------------


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.

        <bullet> American Nuclear Society
        <bullet> American Institute of Chemical Engineers
        <bullet> American Chemical Society
        <bullet> Society of Women Engineers
        <bullet> Sigma Xi Scientific Research Society

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.

        <bullet> 2014, U.S. Department of Energy Secretary's 
        Achievement Award
        <bullet> 2011, U.S. Department of Energy Secretary's 
        Achievement Award
        <bullet> 2010, Powerful Hispanics in Energy, Hispanic Engineer 
        & Information Technology Magazine
        <bullet> 2009, 25 Outstanding Hispanic Women in Business, 
        HispanicBusiness.com
        <bullet> 2007, Professional Achievement Award, Hispanic 
        Engineer National Achievement Award Corporation (HENAAC)
        <bullet> 2007, Jane Oestmann Professional Women's Achievement 
        Award, American Nuclear Society
        <bullet> 2005, Outstanding Engineering Achievement by the 
        Illinois Engineering Council

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    See attachment.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Monica C. Regalbuto.
    This 9th day of April, 2014.

    [The nomination of Dr. Monica C. Regalbuto was reported to 
the Senate by Chairman Levin on June 24, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was returned to the President at the end of the 113th Congress 
on December 17, 2014, under provisions of Senate Rule XXXI, 
paragraph 6 of the Standing Rules of the Senate.]


 NOMINATIONS OF ADM WILLIAM E. GORTNEY, USN, FOR REAPPOINTMENT TO THE 
GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. NORTHERN COMMAND/COMMANDER, 
 NORTH AMERICAN AEROSPACE DEFENSE COMMAND; GEN JOHN F. CAMPBELL, USA, 
    FOR REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDER, 
    INTERNATIONAL SECURITY ASSISTANCE FORCE/COMMANDER, U.S. FORCES, 
AFGHANISTAN; AND LTG JOSEPH L. VOTEL, USA, TO BE GENERAL AND COMMANDER, 
                    U.S. SPECIAL OPERATIONS COMMAND

                              ----------                              


                        THURSDAY, JULY 10, 2014

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
McCaskill, Udall, Manchin, Gillibrand, Donnelly, Kaine, King, 
Inhofe, McCain, Sessions, Ayotte, Fischer, Graham, and Cruz.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets today to consider the nominations of 
Admiral William Gortney to be Commander, U.S. Northern Command 
(NORTHCOM) and Commander, North American Aerospace Defense 
Command (NORAD); General John Campbell to be Commander, 
International Security Assistance Force (ISAF) and Commander, 
U.S. Forces, Afghanistan; and Lieutenant General Joseph Votel 
to be Commander, U.S. Special Operations Command (SOCOM).
    Welcome to all of you and to each of you, and we thank you 
for your many, many years of great service to our Nation and 
for your willingness to continue to serve in these positions of 
huge responsibility. We thank you and your family members. Our 
senior military officers are asked to undertake long hours and 
immense workloads, and we know, as you do, that your success in 
these roles would not be possible without the support of your 
families. Please feel free to introduce those members who are 
with you today when it comes to be your turn.
    All three nominees have impressive records of service and 
are well qualified for the positions to which they have been 
nominated. Admiral Gortney has been the Commander of U.S. Fleet 
Forces Command, including U.S. Naval Forces Northern Command; 
the Director of the Joint Staff at the Pentagon; and the 
Commander of U.S. Naval Central Command/U.S. FIFTH Fleet.
    General Campbell has been the Vice Chief of Staff of the 
Army; Deputy Chief of Staff of the Army; and Commander of the 
101st Airborne Division in Afghanistan.
    General Votel has been Commander of the Joint Special 
Operations Command; Deputy Commander of the Joint Improvised 
Explosive Device (IED) Defeat Organization; and Chief of Staff 
of the Special Operations Command.
    Our nominees will assume some of the most demanding 
positions in our military. Admiral Gortney's NORTHCOM 
responsibilities will include defense of the Homeland and 
supporting civil authorities in case of natural and manmade 
disasters. Admiral Gortney will also be dual-hatted as the 
Commander of NORAD, our binational command with Canada, which 
has the mission of providing aerospace warning, aerospace 
control, and maritime warning for North America.
    General Campbell will assume his position in a time of 
significant transition in Afghanistan. He will be tasked with 
implementing the withdrawal of U.S. combat troops by the end of 
the year, while simultaneously supporting counterterrorism (CT) 
operations and sustaining the mission to train, advise, and 
assist the Afghan Security Forces as they continue to assume 
responsibility for their nation's security.
    The current political uncertainty in Afghanistan stemming 
from the allegations of election fraud threatens to derail 
significant gains made throughout the country. The two 
presidential candidates in Afghanistan have stated publicly and 
to me personally last Sunday that a comprehensive audit of the 
election results is needed--they both agree on that--and that 
they will abide by the results of such an audit. Regardless 
whether the candidates can agree on the details of the audit 
process, it is the duty of the Afghan election commissions to 
move forward to identify and eliminate fraudulent ballots so 
that they can announce a credible election result. General 
Campbell, I would appreciate hearing your views on the ongoing 
political events and what impacts they could have on the 
security situation in Afghanistan.
    General Votel will assume the helm of a force that has 
sustained an exceptionally high operational tempo for nearly 13 
years of war. As we draw down our forces in Afghanistan, we 
will need to give particular attention to the role of special 
forces and their continued ability to carry out the 
counterterrorism mission in Afghanistan. General, I will look 
forward to hearing from you how you will address these 
challenges while also ensuring that the men and women of the 
special operations community are not shouldering an undue 
burden.
    I want to thank our nominees again for being with us, for 
your great service to our Nation. We look forward to your 
confirmation.
    I will now call on Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    I thank all three of you for the time that you gave me and 
the rest of us up here at the dais.
    General Campbell, as the Commander, you are going to be 
tasked with overseeing the mission in Afghanistan. Certainly 
General Dunford has done a great job. It is a serious thing 
that we are dealing with over there.
    The recent presidential elections have been marred by 
allegations of widespread voter fraud. For example, in the 
province here, they went from 17,000 votes that were cast in 
the first election. It jumped to 170,000 in the runoff. Then, 
keeping in mind that Ghani's force and influence probably is 
greater in the rural areas, during the last election--this is 
unprecedented. Everyone up here has gone through elections, and 
we do not remember a time that you have a larger percentage of 
turnout in a rural area than you do in an urban area. Yet, it 
was 30 to 1. You know that is wrong, you have voter fraud.
    I am very much concerned about the perception of the people 
in Afghanistan if this is not cleared out. We are going to be 
really pushing hard to get an audit in that case. I have talked 
to you about this, and I am sure you agree with that.
    I am also troubled by the President's plan to draw down our 
forces based on arbitrary timelines instead of the best advice 
of military commanders and the facts on the ground. The 
President tried the same policy in Iraq in 2011, and I hope we 
are not doomed to make the same mistake again.
    General Votel, contrary to the claims of some that al Qaeda 
is on the run, it is clear they are now operating in more 
countries and control more territory than ever before. Iraq and 
Syria have become the largest terrorist safe haven in the world 
and are serving as a breeding ground for the next generation of 
jihadis. It is only a matter of time before the thousands of 
foreigners who traveled to join the fight will return back home 
to places like Africa, battle-hardened and ready to perform.
    Admiral Gortney, as Commander of NORTHCOM, you will be 
accountable for one of the most solemn responsibilities of our 
Government. That is defending the Homeland. That is what most 
people are concerned with, and that is what has to be the top 
priority. I am concerned and want to hear your views on the 
growing ballistic missile threat from North Korea and Iran and 
the effectiveness of our Homeland missile defense system to 
protect us against the improving capabilities of our 
adversaries. North Korea continues to develop delivery systems 
for its nuclear weapons arsenal, and public intelligence 
reports still assess that Iran could have the means to deliver 
a nuclear weapon by 2015. In fact, our intelligence back prior 
to 2010 said that they would have the ability to produce a 
weapon and a delivery system by 2015. That is on us now. That 
has to be the major concern that we all have at this time.
    I look forward to hearing from the nominees and resolving 
these very difficult problems.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Let me call first on Admiral Gortney.

STATEMENT OF ADM WILLIAM E. GORTNEY, USN, FOR REAPPOINTMENT TO 
    THE GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. NORTHERN 
  COMMAND/COMMANDER, NORTH AMERICAN AEROSPACE DEFENSE COMMAND

    Admiral Gortney. Good morning, Mr. Chairman, Ranking Member 
Inhofe, and distinguished members of the committee. It is a 
distinct honor and privilege to appear before you today.
    I would like to thank the President for nominating me and 
thank Secretary Hagel and Chairman Dempsey for the trust they 
have placed in me. If confirmed, I look forward to serving as 
the Commander, U.S. Northern Command and Commander of the North 
American Aerospace Defense Command.
    I also thank the Senate Armed Services Committee for their 
work and their support to our servicemembers and their 
families.
    I am joined this morning by my wife, and with your 
permission, I would like to introduce her. Sherry and I have 
known each other since high school in Orange Park, FL, and this 
past Saturday we celebrated our 34th anniversary. She is active 
in the education and mentoring of Navy spouses who, along with 
our family, are the very stitches that hold the cloth of our 
Nation together. Her dedication to our family and the sailors 
and marines is simply remarkable. I would not be here today 
without her.
    Mr. Chairman, over the last few years, my good friend, 
General Chuck Jacoby, has led the U.S. NORTHCOM and NORAD teams 
with distinction. He has set the gold standard for combatant 
command leadership. If confirmed, I look forward to building 
upon his terrific efforts.
    I would like to make two simple but important points before 
receiving your questions.
    First, working hand in hand with Congress, there is no 
greater responsibility for a military officer than to defend 
the Nation that we call home. The Commander of U.S. NORTHCOM is 
charged with being our Nation's last line of defense and 
providing support to Federal, State, and local levels when the 
American people are in their greatest need. I view these 
missions as a sacred trust and that, if confirmed, I will 
faithfully and passionately execute them.
    Second, cooperation is paramount to the mission of 
NORTHCOM. I have spent a significant part of my career building 
joint and international coalitions to solve the challenging 
problems that confront us all. These experiences have prepared 
me for engaging with our close friends and neighbors in Canada, 
Mexico, and the Bahamas. Of course, this is a team sport, and 
therefore, if confirmed, I will work closely with the combatant 
commanders, the Service Chiefs, our citizen soldiers in the 
National Guard and Reserve, the Governors of our States, and 
our teammates at the Department of Homeland Security and other 
inter-agencies. If confirmed, I also look forward to working 
together with the members of this committee to identify and 
take action on the tasks required to defend our Homeland and 
provide support to civil authorities.
    Thank you again for this opportunity, and thank you, Mr. 
Chairman and Ranking Member Inhofe, the members of this 
committee, and the highly talented members of your staff, for 
the work you all do every day to provide our men and women in 
uniform the things they need to do our Nation's bidding. I look 
forward to your questions.
    Chairman Levin. Thank you so much, Admiral.
    General Campbell?

 STATEMENT OF GEN JOHN F. CAMPBELL, USA, FOR REAPPOINTMENT TO 
    THE GRADE OF GENERAL AND TO BE COMMANDER, INTERNATIONAL 
 SECURITY ASSISTANCE FORCE/COMMANDER, U.S. FORCES, AFGHANISTAN

    General Campbell. Thank you, sir. Good morning. Chairman 
Levin, Ranking Member Inhofe, distinguished members of the 
committee, thank you for the opportunity to appear before you 
today. I appreciate your support and your commitment to our 
servicemembers, our families, and our veterans, and I am truly 
honored and humbled that the President has nominated me to 
command the International Security Assistance Force and U.S. 
Forces in Afghanistan.
    I would also like to thank Secretary of Defense Hagel and 
Chairman Dempsey for the trust and confidence they have given 
me in supporting my nomination.
    I want to acknowledge General Joe Dunford for the great 
work he has done over the last year and a half and his personal 
sacrifice for our Nation's efforts in Afghanistan. I also want 
to thank Joe's wife Ellen who has been a true source of 
inspiration and support of her husband.
    I must acknowledge my wife who could not be here today. She 
is recovering from knee surgery. She is actually up at Walter 
Reed with my daughter, she had surgery yesterday. But I want to 
thank her for her strength and sacrifice throughout our 30 
years of marriage, for being a great mom to our two children, 
and for her tireless advocacy for our military families. I 
could not be where I am today without her, and she has had an 
immeasurable effect on so many of our soldiers and their 
families.
    Our Nation has been at war in Afghanistan for nearly 13 
years. This conflict has defined much of my career and I am 
honored to be considered to lead during the next important 
phase.
    In 2003, I deployed to Afghanistan while I commanded the 
1st Brigade of the 82nd Airborne Division when we only had one 
brigade in the country.
    I returned to Afghanistan from 2010 to 2011 in command of 
the 101st Airborne Division in Regional Command East. In this 
capacity, I led 30,000 U.S. allied troopers in 14 provinces. I 
saw firsthand the incredible sacrifice of our soldiers and of 
our families. Unfortunately, I also had hundreds of heroes that 
paid the ultimate sacrifice under my command. These warriors 
and all those that have deployed to Afghanistan have had an 
enormous impact by bringing hope to the people of that nation 
and by denying al Qaeda their favorite sanctuary. I am 
absolutely committed to completing this mission.
    As we transition to a resolute support mission and draw 
down our forces, there will be many challenges, but I have 
confidence in the strength of the Afghan National Security 
Forces (ANSF). They have held strong, despite significant 
casualties during the 2013 and the current 2014 fighting 
season. They have succeeded in securing the recent election, 
and I am confident in their ability to remain firm through the 
upcoming political transfer of power.
    I also have faith in the strength of the coalition that has 
held together over this long conflict. I am committed to 
working closely with our North Atlantic Treaty Organization 
members. If confirmed, I will proudly lead our service men and 
women in Afghanistan.
    I thank you again for your steadfast and generous support 
of our men and women of the U.S. military. I look forward to 
working closely with this committee, and if confirmed, I 
anxiously await arriving in Afghanistan. I look forward to your 
questions. Thank you.
    Chairman Levin. Thank you very much, General.
    General Votel?

   STATEMENT OF LTG JOSEPH L. VOTEL, USA, TO BE GENERAL AND 
           COMMANDER, U.S. SPECIAL OPERATIONS COMMAND

    General Votel. Chairman Levin, Ranking Member Inhofe, 
members of the committee, thank you for the opportunity to 
appear before you today regarding my nomination to be the next 
Commander of U.S. Special Operations Command. I am honored to 
be included on a panel of senior officers with whom I have had 
a long professional acquaintance and who I deeply respect and 
admire.
    I am especially pleased that my wife of 34 years, Michele, 
is able to be here with me today. She and the other spouses 
present represent decades of service caring for our 
servicemembers and their families. Michele has been a constant 
source of inspiration and support to me, and I could not have 
imagined making this journey without her.
    I am deeply honored to be considered by the committee for 
this position. I firmly believe that Special Operations Forces 
(SOF) perform a vital function within the Department of Defense 
(DOD), supporting our geographic combatant commanders and 
providing our leadership with unique solutions to challenging 
problems. If confirmed for this position, I look forward to 
working with this committee to address the needs and 
requirements of our SOFs, ensuring that they remain the very 
best in the world.
    Thank you again, Mr. Chairman. I look forward to answering 
your questions.
    Chairman Levin. Thank you very much, General Votel.
    Now I will ask the standard questions that we ask of our 
nominees.
    First, have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Admiral Gortney. I have.
    General Campbell. I have.
    General Votel. I have.
    Chairman Levin. Do you agree, when asked, to give your 
personal views even if those views differ from the 
administration in power?
    Admiral Gortney. I do.
    General Campbell. I do.
    General Votel. I do.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Gortney. No, I have not.
    General Campbell. No, I have not.
    General Votel. No, I have not.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record and hearings?
    Admiral Gortney. Yes, sir.
    General Campbell. Yes, sir.
    General Votel. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Admiral Gortney. Yes, sir.
    General Campbell. Yes, sir.
    General Votel. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Admiral Gortney. Yes, sir.
    General Campbell. Yes, sir.
    General Votel. Yes, sir.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Admiral Gortney. Yes, sir.
    General Campbell. Yes, sir.
    General Votel. Yes, sir.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Admiral Gortney. Yes, sir.
    General Campbell. Yes, sir.
    General Votel. Yes, sir.
    Chairman Levin. Okay. Let us have a 7-minute first round of 
questions, and we can get to a second round here, if necessary.
    Admiral Gortney, let me start with you. We have had a lot 
of failures and a lot of successes in our ground-based 
midcourse defense (GMD) system, and so my question to you is, 
do you believe that it is important to follow a ``fly-before-
you-buy'' approach and to conduct operationally realistic 
testing of the ground-based missile defense system, including 
the kill vehicle, to provide confidence that it will work as 
intended?
    Admiral Gortney. Yes, sir, I do. I believe in the fly 
before you deploy.
    Chairman Levin. Would you also agree that our highest 
priority investment at this time is to further improve the 
capability of the GMD system by improving its sensor and 
discrimination capabilities?
    Admiral Gortney. Yes, sir. Given the nature of the mission, 
it is critical that we improve that which we have to make sure 
the kill vehicle is as effective as possible in our ability to 
discriminate the threats that are coming to the Homeland. After 
that, it is expansion of our capacity in order to do that. I 
agree with Admiral Syring's third priority, which is to then 
look at future technologies to improve our ability.
    Chairman Levin. Thank you. Admiral, I understand that the 
Department of Health and Human Services is now seeking 
substantially increased DOD support for our housing, temporary 
housing, needs at the southern border because of the influx of 
the young people particularly. I hope that there can be a 
positive response to the request of the Department of Health 
and Human Services, but of course, NORTHCOM needs to have the 
ability to provide that increased support before it offers it. 
Do you believe that NORTHCOM has the ability to provide the 
increased support requested by the Department of Health and 
Human Services?
    Admiral Gortney. Yes, sir. It is my understanding we have 
the capacity to provide all the help that is required in order 
to do that.
    Chairman Levin. There is a new request. Are you familiar 
with that that just came?
    Admiral Gortney. Pardon me, sir?
    Chairman Levin. There is a new request from Health and 
Human Services for a significant increase.
    Admiral Gortney. I have not heard about the latest 
increase, but currently we are at about 2,600 and so we can go 
up a bit from that. Yes, sir.
    Chairman Levin. General Campbell, you have given us your 
assessment of the performance of Afghan National Security 
Forces ongoing and during the fighting season and in securing 
recent elections. Can you just expand on that a bit?
    General Campbell. Sir, absolutely. Thank you for the 
question.
    Sir, the last time I was in Afghanistan personally was in 
April, but I have kept in contact with Joe Dunford and the 
other commanders on the ground, have talked to them about the 
Afghan Security Forces. Everything I have seen, read, heard, 
and as I talked to some commanders on the ground when I was 
there in April, the Afghan Security Forces have continued to 
progress in all their capabilities as evidenced by the recent 
election where actually the coalition forces provided very, 
very little support and the Afghans really took on the 
security. It brought a sense of pride to them to be able to do 
this, and I think they continue to progress every single day.
    So far, as the new plan will show, we will move off of the 
tactical train, advise, and assist and move up to the corps 
level. I think that shows that the campaign has been working. 
The difference when I left in 2011 to what I saw just this past 
April was very, very significant.
    Chairman Levin. General, in your answer to the prehearing 
questions, you said that you support the President's decision 
on the size of the U.S. troop presence in Afghanistan during 
the next 2 years. Is that correct?
    General Campbell. Sir, I was not in on the decisionmaking, 
but I support the numbers there. I think that shows that we 
will continue to have a presence in Afghanistan for the next 
couple years, and I think that is very good.
    Chairman Levin. You also said that you support the pace of 
reductions outlined by the President, ``with an understanding 
that we should continue to validate the assumptions and assess 
the conditions on the ground as the drawdown takes place.'' Do 
I understand from that that you will recommend changes in the 
pace of the drawdown if you find in your best military judgment 
that the pace should be modified?
    General Campbell. Sir, what this committee expects of me 
and what I owe to our soldiers on the ground is my true 
assessment, once I get on the ground, of how the mission is 
going. I will provide that input to U.S. Central Command 
(CENTCOM) and to the Chairman of the Joint Chiefs, yes, sir.
    Chairman Levin. If you determine in your best military 
judgment that the pace should be changed and that the date 
should be changed, you would then make that recommendation?
    General Campbell. Sir, I would provide my best military 
advice on the pace of the change, the pace of the drawdown. 
Yes, sir.
    Chairman Levin. Even if it differs from the current pace?
    General Campbell. Sir, that is what you expect me to do. 
Absolutely. Yes, sir.
    Chairman Levin. Now, after 2016, the U.S. military presence 
in Afghanistan is planned, at the moment, to be a normal 
embassy-based presence. It has also been reported that the size 
of the future Office of Security Cooperation in Afghanistan 
could be as large as 1,000 personnel.
    My question now relates to the plans for post-2016. If at 
any point in your military judgment circumstances change or 
assumptions underlying the post-2016 plan do not prove valid, 
will you also let those above you in the chain of command know?
    General Campbell. Absolutely, sir.
    Chairman Levin. General Votel, there is going to be a 
consolidation of basing locations inside of Afghanistan, and I 
want to get your view as to how that consolidation is going to 
impact the ability of assault teams, airborne ISR 
[intelligence, surveillance, and reconnaissance], to reach 
remote provinces like Kunar and Nuristan where al Qaeda has 
sought safe haven.
    General Votel. Mr. Chairman, we have been closely following 
the basing plans that General Dunford and his staff have made, 
and I assess we have adequate locations at this time to 
continue to do the operations, counterterrorism and partnership 
operations, that we need to continue to apply the pressure 
against the networks that we are dealing with.
    Chairman Levin. All right. Can you give us your 
understanding of the progress in training the Afghan special 
operations Kandaks and the timeline for achieving their full 
operational capability?
    General Votel. My command has been responsible for training 
a portion of the SOFs, and I assess that we are moving very 
quickly and effectively to make them capable partners on the 
battlefield not only their ability to execute operations, but 
more importantly, the ability of their leaders to direct 
operations and to properly supervise the execution of those. I 
think we are making very good progress there.
    I have long watched the special operations Kandaks and have 
been hugely impressed by their ability to conduct operations 
and to be with their Afghan countrymen and work very, very 
closely with them. I assess we are on the right path with that, 
Senator.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    General Campbell, during my opening statement, I made a 
comment about I could not recall which province it was, and I 
found it was Wardak province that Ashraf Ghani's vote count 
went from 17,000 in April to 170,000 in this runoff, which is 
absurd. We all know that that could not have happened, and 
certainly the Afghan people know that too. I do not think we 
can find any place where the turnout is greater in the rural 
areas than it is in the urban areas. This came out where the 
strength of Ghani is in the rural areas, and it was 3 to 1 over 
the urban areas. We know that is not true. If there are so many 
of these deficiencies, I am sure that the different ethnic 
groups have the same concern as I do and hopefully as you do.
    We have to push real hard to get an audit, a genuine audit, 
one that has oversight from outside groups. I would ask you, 
first of all, if you think that is a good idea. Second, what 
would happen if the people do not understand and appreciate 
this as a legitimate election? What would happen in the country 
in your opinion?
    General Campbell. Sir, thanks for the question.
    Sir, this is really the runoff. They had the first election 
in April, and this was a runoff between Abdullah and Ghani. It 
is absolutely critical that the Afghan people and the rest of 
the world see this as a viable, transparent election process.
    Senator Inhofe. Do you think they see that now as viable 
and transparent?
    General Campbell. Sir, I think both of the candidates have 
said there has been some corruption there and they are working 
hard to come together to find this audit. I think the 
difference now is the number of polling stations whether it is 
2,000 or 6,000. Yes, sir.
    Senator Inhofe. Okay, that is good.
    General Votel, you and I talked about U.S. Africa Command 
(AFRICOM), and we remember when the continent of Africa was 
divided in three different commands. It was not workable at 
all. We understand that. Now, the problem is with AFRICOM, they 
do not have their own resources. In my opening statement, I 
commented that a lot of the people from Africa are sucked up 
into this war that is going on in Afghanistan and elsewhere. 
They will return as hardened fighters. Does this concern you? 
Without the resources that you and I talked about, what are you 
going to do?
    General Votel. Senator, thank you.
    It certainly does concern me, as we discussed yesterday. I 
think what we can do, while we continue to prioritize our 
precious ISR resources that are used in a variety of locations, 
is continue to build the relationships on the ground that will 
allow us to assist our partners where we can to provide 
information, to share information with them, to better enable 
them to deal with the challenges of returning fighters to 
their----
    Senator Inhofe. Yes, I think that is right. But you 
mentioned ISR, and General Rodriguez, as you already know, has 
said that they only have the ISR capability to meet 11 percent 
of the needs that they have in the continent. Do you agree with 
that? Have you talked to him? Do you agree with that 
assessment?
    General Votel. I have, Senator. General Rodriguez and I 
talk frequently, and I do agree. We definitely need more ISR.
    Senator Inhofe. Are you prepared to try to come and express 
that so that we can try to get more there?
    General Votel. If confirmed, I look forward to working with 
this committee and with AFRICOM to address that.
    Senator Inhofe. Okay. That's good.
    Admiral Gortney, the chairman talked about the GMD program 
and the fact that we need to have more updates and 
modernization and all that, which we have been talking about in 
this committee for a long period of time. We actually put 
additional funding in there for that purpose, but it is not, in 
my opinion, nearly adequate. In terms of the resources that 
will be available there, where do you think we are now on that 
program? Do you think that we are making sufficient investments 
in the maintenance and reliability of the GMD system?
    Admiral Gortney. Yes, sir. I think the Missile Defense 
Agency's (MDA) priorities are absolutely correct. Necessary 
investments into the proper maintenance and modernization of 
the existing ground-based interceptors (GBI) is absolutely the 
number one requirement.
    The second one, investment after that would be to improve 
again the kill vehicle itself and then improvement to the 
sensors that would allow us to better discriminate the threats 
that might be coming to the Homeland.
    Senator Inhofe. If you go back, as I mentioned to you in my 
office, to 2008, our funding for the GMD has declined from $2 
billion then to about half that now. Does that concern you?
    Admiral Gortney. Yes, sir, that does concern me. Once 
again, the first priority should be the necessary investments 
into the maintenance and modernization of the existing 
facilities that we have.
    Senator Inhofe. Yes. I appreciate that.
    General Campbell, I will get into something that is kind of 
controversial here. There is a big difference of opinion among 
the members up here, and that is concerning the Mi-17. We have 
several quotes, and frankly, I have looked into it and I kind 
of agree with the Special Inspector General for Afghan 
Reconstruction that said the Afghans lacked the capacity in 
both the personnel numbers and expertise to operate and 
maintain the existing and planned special mission. If we were 
to change, what position would we be in in terms of our 
training if we were to drop in new vehicles and discard that 
particular program?
    General Campbell. Sir, if we were to change the Mi-17 as 
the primary lift platform for the Afghans, we would be several 
years, I think, behind. They would have to start a whole new 
training program.
    Senator Inhofe. Several years behind.
    General Campbell. Yes, sir.
    Senator Inhofe. I have a real hard time thinking about 
something that is there now, they are trained now, and I know 
it is more popular to say, let us go into another group of 
vehicles and not support people that we question. But I think 
it is very significant that you feel that we could actually be 
years behind.
    General Campbell. Sir, I have talked to General Dunford on 
the ground there.
    Senator Inhofe. He agrees with that?
    General Campbell. Sir, absolutely. The Mi-17 provides the 
Afghans with the capability to stretch, to get out, to get into 
the hinterland to go after the insurgents for the Afghans, and 
it also provides the coalition forces that outer ring of 
security, so force protection. I know General Dunford is very 
concerned about the loss of the Mi-17 and what it does to not 
only coalition force protection but the ability of the Afghans 
to get out and conduct all their missions.
    Senator Inhofe. I appreciate it very much and I am hoping 
that all of the members of this committee have heard you loud 
and clear. I appreciate your honesty. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Gentlemen, thank you and your families for your 
distinguished service to the Nation and to the men and women 
you lead.
    Admiral Gortney, we are constantly under cyber attack. 
Today's headline is that the Chinese are hacking into the 
Office of Personnel Management. NORTHCOM plays a critical role 
in defending the Homeland from any type of attack. Are we doing 
the exercises and the wargaming on a regular basis to assure 
that you can respond to these threats?
    Admiral Gortney. Yes, sir. NORTHCOM's responsibility is to 
assure that our systems, our defense systems, are operable to 
the assurance that we can do the command and control and that 
the facilities are protected, military facilities are able to 
defend themselves. We work that closely with the Services to 
make sure that happens.
    Our second responsibility, if confirmed, at NORTHCOM is to 
respond to the physical responses to a cyber attack to the 
civilian pieces. We exercise that throughout the year under our 
defense support to civil authorities on how well we can respond 
to that.
    Senator Reed. But there is a gap because a lot of the 
targets that would be prime on the list would not be military 
facilities. They would be financial institutions, public 
utilities, transit systems. Have you coordinated at least a 
planning level, if not an operational level, of how you might 
defend against these?
    Admiral Gortney. Those would be, say, to the power grid, to 
the water, to the rail, all of that. We are responsible for 
responding to the physical consequences of that. That is very 
similar to the defense support to civil authorities for 
earthquake, weather, things of that nature. Those sort of 
response capabilities are the same.
    Senator Reed. A final question. Who is responsible for the 
active defense of these facilities, or is anybody responsible?
    Admiral Gortney. For our civil infrastructure, to be 
honest, sir, Homeland Security has that responsibility. It is 
my professional opinion that we are a little bit behind. We as 
a Nation are behind in our ability to defend that critical 
infrastructure.
    Senator Reed. Do you have a coordination with Homeland 
Security? Again, if they are the ones responsible, there should 
be at least a joint planning effort, not just in response but 
in deterrence or prevention.
    Admiral Gortney. Homeland Security is our closest 
interagency partner in the defense of the Homeland and our 
responses there. But I do not know if we have a formal 
coordinating, and if confirmed, I will make sure I understand 
that, sir.
    Senator Reed. General Campbell, your experience on the 
ground in Afghanistan is going to be absolutely critical as you 
go forward. There are so many different aspects of the issue, 
but one I would like to just get your opinion upon is the role 
of Pakistan. They have undertaken significant offensive 
operations in what was formerly referred to as the tribal areas 
in North Waziristan. But they will play a key role in anything 
that happens there. Can you give me your impression now of 
where they are headed and how you might work with them?
    General Campbell. Yes, sir. Thank you for the question.
    Sir, you are absolutely right. You cannot talk Afghanistan 
unless you talk about Pakistan as well. It is critical to have 
that partnership not only with the coalition in Pakistan but, 
really more important, with the military-to-military between 
Afghanistan and Pakistan. I can only speak really from my time 
in 2011. I know that coordination and the cooperation continues 
to get better at the senior levels. At the tactical level right 
on the border in Regional Command (RC)-East where I was at, the 
colonels, the brigadier generals, they worked that daily and 
that continued to progress. We had Pakistani liaisons in our 
talks, and I would visit Pakistan once a quarter. I know that 
General Dunford and the senior leadership in Afghanistan today 
continue to work those relationships, and that will be really 
key not only for the border but also for all the 
counterterrorism reasons.
    Senator Reed. Thank you, sir.
    General Votel, Special Operations Command has been 
operating flat out for more than a decade now, and as we reset 
our conventional forces you are going to still operate at mach 
speed. Admiral McRaven, in fact, has suggested there might be a 
fraying on the force. What is your impression of the effect of 
these operations on your force in terms of operational 
capability?
    General Votel. Senator, thanks for the question.
    I agree with Admiral McRaven's assessment. I do think that 
the force, as you said, has been very operationally active for 
a long period of time. That said, I think we continue to be 
very, very effective in the operations that we continue to ask 
to be performed. Key to this I think has been Admiral McRaven's 
focus on ensuring that we do address the pressure on our force 
and families and provide them mechanisms that allow them to 
continue to serve their country but also take care of the needs 
that are generated by years of combat, of years of service 
overseas.
    Senator Reed. One other aspect of this is that in a rough 
dichotomy there are covert missions and then there are 
traditional training missions that special operations performs. 
In some of those traditional training missions will you shift 
to conventional forces, or is that a way to sort of lessen the 
pressure from your forces?
    General Votel. I think that is an option for us. Senator, 
if confirmed, I would look forward to working with the 
Services, particularly the Army who I know is developing 
regionally aligned forces that would be great partners in 
developing our partners across the globe.
    Senator Reed. Thank you.
    Admiral Gortney, if I could, a final question. We have a 
new theater of operations, the Arctic Ocean, which for anybody 
my age seemed inconceivable, but it is there. How well prepared 
are we? For example, I do not think we have a heavy icebreaker 
in the Navy, and I do not think we have any plans to build one.
    Admiral Gortney. Yes, sir. The Arctic is truly a 
wilderness, and in order to operate there, we have to have the 
ability to communicate, navigate, sustain ourselves, and then 
have the ability to operate our ships and our aircraft up 
there. That is going to require some significant investments 
for the Department in order to do that. We need to figure out 
when is the time that we have to put all those capabilities in 
place and POM [program objective memorandum] them 
appropriately. But we do not have an icebreaker in the Navy. 
The Coast Guard only has one. It requires study. It is the 
President's priority. It is NORTHCOM. It is a tasked mission 
for NORTHCOM, and so NORTHCOM, and in my current job working 
with the Office of the Chief of Naval Operations (OPNAV), we 
are working very heavily to figure out those particular 
timelines.
    Senator Reed. Thank you very much, gentlemen.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Chairman Levin.
    I thank all of you for your service to the country. We are 
the finest military in the history of the world in my opinion. 
It is exceedingly well trained, very well led. I think our 
modern Army, Navy, Air Force, Marine Corps leaders are more 
engaged with their troops, more leading from the front, more in 
tune to what is happening than ever before. I think we have 
gone through some very tough times to maintain cohesiveness and 
morale in a way that would be difficult to have expected 
actually considering the deployments that have been imposed on 
our soldiers. I am real proud of them.
    I would thank Senator Levin for his comments and questions, 
General Campbell, to you about your duty, as we understand it 
in this republic, to tell the truth to Congress and to your 
superiors as you see it. History also would indicate I think 
that leaders on the battlefield are ignored at great peril. You 
are going to have to make some recommendations in the months to 
come concerning reduction in force policies that are going to 
be challenging. We appreciate your commitment to do that.
    I would ask the other two. Admiral Gortney, would you also 
answer in the affirmative as General Campbell did to Senator 
Levin's questions?
    Admiral Gortney. Absolutely, sir.
    Senator Sessions. General Votel?
    General Votel. Yes, Senator.
    Senator Sessions. The Mi-17--that is the Russian 
helicopter. We are way down the line now. Maybe it is too late 
to reverse that decision. The Defense Department made up its 
mind early, was rock solid on it, refused to listen to any 
other suggestions about it, and now we have Russia invading the 
Crimea. I am personally not very pleased with that decision. We 
talked about it, General Campbell, yesterday. But it may be too 
late to reverse that decision, but that is my 2 cents' worth 
about that issue.
    General Votel, you were asked about how healthy your force 
is. Is it about 67,000 now in our SOF forces?
    General Votel. Senator, that is about right and growing to 
about 69,000-plus.
    Senator Sessions. We know we are going to be drawing down 
varying different estimations of our total force. Is it your 
opinion that in a restructured force, as a result of budget 
decisions and other decisions, that we ought not to reduce the 
special operating forces below that level and we ought to stay 
at or about that level, more or less?
    General Votel. Senator, as we discussed yesterday, I think 
the level that we are going to be at is appropriate for the 
task that we are being asked to perform on behalf of all the 
geographic and other commanders out there that we support. I 
think staying at the level that we are is the right answer.
    Senator Sessions. Thank you.
    Admiral Gortney, I understand a recent test in the Pacific 
of our missile defense system was a very successful test 
involving some complexities, and it was still effective. What 
can you tell us about that?
    Admiral Gortney. I have limited detail in my capacity right 
now to know it. I do know that it was a successful test. It was 
one of the most complex tests of the total weapons system for 
it to work and that it did work. That gives us better 
confidence in our ability to defend the Homeland.
    Senator Sessions. That was a hit-to-kill technology?
    Admiral Gortney. Yes, sir.
    Senator Sessions. I think that is important. We have had 
some concern about our hit-to-kill technology, and it has been 
proven in the past but we were concerned about it. This 
successful test, I think, is important because it represents a 
newer and more effective system, I believe. You and I talked 
about your belief that with regard to making a decision to 
launch, which will be your decision?
    Admiral Gortney. That is correct, sir.
    Senator Sessions. If we have an incoming missile, you would 
be the person to make the decision to launch?
    Admiral Gortney. The NORTHCOM commander owns the trigger. 
Yes, sir.
    Senator Sessions. How do you plan to ensure that that 
system works well, that quick decisions can be made 24 hours a 
day? You gave me an indication yesterday, but I thought it 
would be good to share that.
    Admiral Gortney. You test and exercise what is important, 
sir, and you need to test and exercise that entire weapons 
system, all the muscles involved in making that an effective 
engagement. You need to test and exercise it continuously. A 
key element is the exercising of the command and control of 
that facility because the shot window is so narrow from the 
detection to when the decision has to be made. If you do not 
exercise everybody in that chain of command routinely, you are 
not going to be able to make or have the confidence that you 
are going to make that decision in time.
    Senator Sessions. I think you are exactly right. We 
certainly have invested a tremendous amount in that system, and 
we do not need to have a glitch in the management of it that 
would neutralize its value.
    General Campbell, this is going to be such a challenge. 
Thank you for your continued service. I am very pleased that 
you have extensive knowledge of Afghanistan, and I believe you 
will be in a position to be most effective. Senator McCain 
predicted in 2011 openly and directly that if we pulled out so 
rapidly in Iraq, as we ended up doing, that there would be grim 
consequences. His grim predictions, unfortunately, have been 
proven true.
    We are going to be watching and remembering the soldiers 
you have led and the soldiers that have been wounded and 
soldiers who have lost their lives in Afghanistan. We have 
reached a point where I believe that country can be successful, 
but it is fragile. Can you give us your best judgment of what 
the prospects are for establishing a decent government there 
that is not hostile to the United States?
    General Campbell. Sir, thank you for the question.
    I think the key point is that we will have a continued 
presence in Afghanistan for the next couple of years, and I 
look forward to getting over there and making my own assessment 
when I get on the ground. There are two missions that General 
Dunford and ISAF are working now as they move to the end part 
of 2014 into 2015 and that is on the training, advise, and 
assist at a higher level, at the corps and the ministerial 
level, then of course, a counterterrorism mission. I will 
continue to work hard on those two missions. I will give you my 
best military advice on where we stand on that, but I think we 
have some time to continue to work on some of those gaps that 
General Dunford and the team over there has identified that 
they will continue to work. There has been great progress by 
the Afghan Security Forces, and I look forward to getting on 
the ground there.
    Senator Sessions. Our mission is not to get to zero troops 
at a certain date. Our mission is--and what we have committed 
to and what we have invested in in blood and resources--a 
successful outcome. I hope that we do not lose sight of that. 
Thank you.
    General Campbell. Thank you, sir.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you to the witnesses and your families for your 
service.
    General Campbell, I am on the Foreign Relations Committee 
and co-chaired a subcommittee meeting on Afghanistan a few 
months ago. General Allen said--and this was kind of a 
surprising bit of testimony, he was one of our witnesses--that 
he viewed corruption as more of an existential threat to the 
future of Afghanistan than terrorism. Terrorism and the Taliban 
are certainly threats, but he viewed corruption as a more 
significant threat.
    I filed that away in the back of my head, but as I have 
watched what has played out in terms of presidential elections, 
I found it to be an interesting observation. The Taliban 
threatened to disrupt the elections. They made efforts to but 
they were not able to do it. I give credit to the ANSF for 
doing a good job of protecting the physical security of the 
elections. But the elections have been threatened by 
allegations of corruption of the process by political leaders, 
potentially the outgoing Karzai administration.
    Am I correct in my view that the ANSF did a pretty good job 
in protecting the physical integrity of these elections despite 
the Taliban's pledge to disrupt them?
    General Campbell. Sir, absolutely. Thank you for the 
question. The Afghan National Security Forces protected all the 
polling sites, and I think just based on the number of 
incidents that I read about--I talked to commanders on the 
ground--they did an absolutely excellent job. I think their 
progression from where they were and where they continue to go 
continues to get better. That is a great news story but it is 
really because the great men and women of the coalition have 
continued to be side by side, Shona ba Shona with them to help 
them through the last almost 13 years of doing that. It is not 
by happenstance it has happened. It is because of this great 
work by the men and women, and they continue to work that. You 
are absolutely right, sir.
    Senator Kaine. I think it is important for the members of 
this body, this committee, to recognize that the challenges 
going forward in Afghanistan are not simply military challenges 
if the ANSF is performing at a level where they can protect the 
physical integrity of the elections, that the elections are 
still called into question because of political corruption. 
There are other tools that we are going to need to explore if 
we want to make sure that the progress that we have been a part 
of continues. I wish you well in that and look forward to 
working with you in that capacity.
    General Votel, you and I talked a bit the other day. I am 
also concerned, as Senator Reed is, about the force and the 
fraying of the force after the incredible amount of work that 
has been done over the last 13 years. I had a veterans 
roundtable recently in Hampton Roads, VA, where a widow, whose 
husband was a special forces veteran who had committed suicide 
in March, came and talked about the stress on him and on their 
family.
    If you could just share a little bit more about--you are so 
familiar with these folks and what the challenges they are 
under--how as the head of this command you intend to deal with 
those issues both for people who are active but then once 
people separate from special forces. I know that you have a 
continuing commitment to them.
    General Votel. Thank you, Senator.
    Certainly I do think the pressure that has been put on the 
force is not exclusive to our SOF. It has affected all of our 
forces.
    That said, I do think there are some things that we ask our 
special operators to do, manners in which they operate, the 
secrecy with which they operate that do not allow them the 
normal opportunities to talk about things afterwards. I think 
we do have to address that aspect of it when it comes to our 
SOFs and families and making sure that we provide those 
appropriate outlets for them. As we talked about the other day, 
the Special Operations Command does have the Care Coalition 
which is designed to take care of our members that are wounded 
physically or otherwise in these situations. I think that is a 
great way to continue to take care of folks while they are in 
the service and beyond.
    I think continuing to look at veterans organizations 
outside of the military is also a great partnership that we 
need to have in place. I am familiar with some organizations of 
retired military people and just concerned Americans out in the 
communities who are very willing to work with and reach out to 
our veterans across the country to ensure that they and their 
families are well taken care of.
    If confirmed, Senator, I look forward to continuing to 
strengthen those relationships and ensure that our members on 
Active service and beyond Active service continue to get the 
care that they require.
    Senator Kaine. Thank you, General. Let us know the 
strategies that we can also help you in as we pursue that 
important goal.
    One more comment for you. I want to offer my 
congratulations really. Senator King and I traveled through the 
Middle East in February, and in many of the Nations where we 
were, we heard over and over again about the value of the U.S. 
Special Forces in training special forces in other nations. I 
imagine in the context of the defense budget, the training that 
our special forces do with other nations' special forces has to 
be a drop in the bucket. But the value of those investments is 
very significant. We certainly heard a tribute to that during 
our travels. I know that that is an important part of your 
mission as well.
    General Votel. Thank you, Senator. I really attribute that 
to our people. They are our most precious and important 
resource, and when we allow them to get out and do their jobs, 
they always amaze us and do fantastic things.
    Senator Kaine. Thank you.
    Admiral Gortney, in your oral testimony today and your 
written testimony as well, you talked about the mission of 
NORTHCOM in terms of protecting the Homeland. It is obviously 
becoming clear, just reading the headlines every day, that one 
of the most important borders in the world for the protection 
of the American Homeland is the border not between the United 
States and Mexico but the border between Mexico and the Central 
American neighbors whose children are fleeing violence and 
gangs and trying to come to the United States. Talk a little 
bit about the U.S.-Mexico military relationship and how that 
relationship can potentially deal with some of those border 
issues on Mexico's southern border.
    Admiral Gortney. Yes, sir. In my current capacity, I am the 
naval component to General Jacoby, and so we work very closely 
with the Mexican Navy. I just had Admiral Soberon in the 
headquarters just a couple days ago. I would say that the mil-
to-mil relationship both with the navy and the army is much 
better. It is strong and it is a growing relationship thanks to 
the leading edges of both Admiral Winnefeld and the great work 
that General Jacoby has had. It is important that it is day to 
day. It is the same confidence that you just mentioned with the 
special forces that will pay us long-term dividends moving at 
the pace that they are able to go at, doing the things that 
they find important. I feel that we are in a very good 
direction and a positive trend.
    Senator Kaine. Do they view that border on their south as 
significantly a challenge as we do?
    Admiral Gortney. With my discussions with their leadership, 
they see their border to the south as the bigger issue. That is 
where their threat is coming from causing the disruption in 
their society. They are very focused to the south. That means 
that the relationship between NORTHCOM and U.S. Southern 
Command (SOUTHCOM) has to be very strong to ensure there is no 
seam there that can be used against us, that we work together 
with all of the Nations there to counter those shared threats.
    Senator Kaine. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Kaine.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    Gentlemen, thank you for your continued great service, and 
to your families, thanks for sharing your husbands with us. We 
know this is a family obligation. We appreciate very much your 
allowing us to have their leadership.
    General Campbell, I will tell you exactly what I told Lloyd 
Austin as he was preparing to go into Iraq to make sure that we 
closed it down the right way. In my opinion, that was the most 
dangerous command of all the commands in Iraq because, as you 
pull out, our troops become less in number and the situation 
becomes more dangerous. Obviously, I think you are going to 
have that same situation, but I think also you are the right 
person to meet that challenge. We will look forward to your 
continued leadership in that role.
    Something took place over there recently that gives me a 
little bit of concern, and that is the release of about a dozen 
individuals from the prison at Parwan. Ten of those dozen were 
Pakistanis. I understand all of these dozen were returned to 
their home countries. Can you tell us anything about the 
release of those detainees, why it was decided to release 
individuals that we know are hard core combatant enemies of the 
United States?
    General Campbell. Sir, I do not have the exact details on 
which individuals were released. I know that there are third 
country nationals in Afghanistan that over time we have to 
return back out of Afghanistan. I do not have details on those 
exact 10. But I know that we have been working with all 
different countries, with the State Department, and with the 
country of Afghanistan to make sure that when we do release 
individuals, that there are mitigating effects to make sure 
they cannot impact the fight again.
    Senator Chambliss. I believe they have 38 non-Afghans still 
at that prison at Parwan, all of which are pretty hard core 
enemy combatants. Have you been briefed on any plans to release 
the remaining 38?
    General Campbell. Sir, I know the number 38. I know that 
there is a figure within that 38 that are really determined to 
be very hard core. I do not know the plan on how we will 
release them, but if confirmed, sir, I will make sure that I am 
tied into that process. But that is more than just a military 
piece. That is a whole-of-government operation that will take 
place. Sir, I do not have the details on that at this time.
    Senator Chambliss. As you prepare to go to Afghanistan to 
assume this command, you are obviously going in at a time when 
we are going to have a new president. The political winds are 
shifting somewhat. Can you give us your analysis of the 
political situation now as we prepare to conclude this election 
and have a new president sworn in?
    General Campbell. Sir, I can tell you that I think both of 
the candidates, whoever eventually becomes the president, have 
both indicated that they want to continue to have a long-term 
relationship with the coalition and with the United States in 
particular. That is very encouraging. They understand the 
importance of how important Afghanistan is in that part of the 
world and the impact of showing that they do have a democratic 
process, political transfer of power, the first time in that 
country, to make sure that is very transparent.
    I think everything I see, sir, is good news and that we are 
on a good road, but we have to get through this 50-meter target 
and get through the election and identify the president and 
show not only the people of Afghanistan but the people of the 
world that Afghanistan has gotten through this piece and they 
want to be part of the international community here for a 
stable, secure, and a democratic Afghanistan as we go forward. 
Sir, I am looking forward to getting over there, and I think we 
are on a positive path right now.
    Senator Chambliss. One reason I feel good about your being 
up to the challenge is your statement earlier, and I know this 
has been your commitment to assess the situation on the ground 
and to monitor that as we move along towards the end of 2016 
and that you are going to give your recommendation, which I 
think will be a real recommendation and honest reflection of 
your opinion as to what we should do with respect to the 
drawdown. Thank you for that commitment.
    General Votel, you and I have had an opportunity to work 
very closely together in your current capacity, and I thank you 
for your leadership. You have done an outstanding job, and I 
know you are going to continue to do that.
    In your new position here with respect to the Special 
Operations Command, I am concerned about ISR and the lack 
thereof as we move forward. It is such an integral part of your 
command now. Having heard from General Rodriguez recently that 
only 11 percent of his ISR requirements are being met with 
AFRICOM and he is having to depend on other combatant 
commanders, I know that you are going to be facing the same 
situation.
    We have just gone through the budget of the Department of 
Defense recently, and one of the requests of the Air Force was 
to reduce the Joint Surveillance Target Attack Radar System 
(STARS) fleet by 40 percent. Do you think that was a wise 
decision?
    General Votel. Senator, thank you for the question.
    I am not sure I know the details of what went into that 
decision. But to your point, I do think there is a vital need 
to look at our ISR posture and ensure that we have the 
resources, all of the resources starting with our most low-
density, high-demand systems, all the way down to systems that 
support our troops on the ground. I do think there is a need to 
constantly look at this, and if confirmed, I look forward to 
working with the committee and the geographic combatant 
commanders to address that, particularly as it affects our 
SOFs.
    Senator Chambliss. To you and General Campbell, what 
portion of the 9,800 post-2014 troops that have been announced 
by the President will be made up of special forces operating in 
the CT world in Afghanistan? Also, tell us our goal with 
respect to CT operations aimed at al Qaeda and al Qaeda 
affiliates in Afghanistan between now and the end of 2016 and 
how you think we are going to get there.
    General Votel. Senator, I will start here on that. Of the 
9,800, approximately 2,000 of those are SOFs. Of those 2,000, 
about half of that, just around 980 or so, are anticipated to 
be forces that would be directly supporting the CT effort. The 
current planning that we have done with General Dunford's staff 
and with Admiral McRaven's staff and with the other elements 
forward in Afghanistan I think has allowed us to ensure that we 
have the right capabilities within that mix to continue to do 
the operations that we need to do for General Dunford and in 
the future for General Campbell as we continue to do that. That 
will involve continuing to do unilateral operations to keep 
heavy pressure on al Qaeda networks and other networks that are 
supporting them and importantly will allow us to maintain the 
relationships with our Afghan partners that we have worked for 
many years and which we are seeing now come to full fruition in 
their ability to get out and conduct operations not only 
tactically but actually lead and direct operations of their own 
forces.
    Senator Chambliss. General Campbell, anything you want to 
add?
    General Campbell. Sir, I concur with everything that 
General Votel said there. Those are the numbers that I am 
tracking at this point in time and will be able to make 
recommendations as we move forward if we have to adjust those 
numbers if the mission changes.
    On the counterterrorism side, sir, I would only add that as 
we move forward and take a look at past 2014, it is really 
about Pakistan and their capacity, Afghanistan and their 
capacity, and then our Government and really what we want to 
get done. I look forward to working with General Votel and all 
the special operating forces. We do know, as we go forward, 
that train, advise, and assist with the counterterrorism 
mission is a really, really important mission there as well. I 
look forward to working with General Votel.
    Senator Chambliss. Thanks, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Chambliss.
    Senator Udall.
    Senator Udall. Good morning, gentlemen. It is good to see 
you here. Thank you for your willingness to serve the country 
in these three important commands that await you.
    Admiral Gortney, I wanted to turn to you initially and 
thank you for taking the time to visit with me earlier this 
week. We talked about NORTHCOM and how instrumental it has been 
in facilitating planning, training, and coordination between 
DOD and other agencies, whether Federal or local or State, in 
responding to natural disasters. We have had a number of those 
natural disasters in Colorado here over the last few years. We 
have had floods and wildfires. The losses we suffered surely 
would have been greater if not for the work done before, 
during, and after those disasters by NORTHCOM, the National 
Guard, Active Duty units, and as I alluded to, the Forest 
Service and many other officials.
    I would like to ask you for your views on these efforts, 
and I would like your assurance that you will continue to make 
them a top priority of the command once you are confirmed.
    Admiral Gortney. Yes, sir. I have found in my career that 
soldiers, sailors, airmen, and marines, Active and Reserve and 
from the Guard, find no greater enjoyment than to help the 
American people in their time of need and to support the civil 
authorities. I think the work that the National Guard and the 
Active have done before your fires and then during the 
execution and then in preparations for anything that might come 
in the future is outstanding, and I will continue to support 
that effort.
    Senator Udall. Thank you for that assurance. I know we have 
really upgraded the communication that we have seen, and yet 
there is more we can do and I know we are up to the task.
    Let me turn to NORTHCOM more broadly and its mission. What 
do you consider to be the greatest threat to the United States?
    Admiral Gortney. The threat to the United States in my 
current capacity and then, if confirmed, at NORTHCOM--I think 
the greatest threat that we have is the cyber threat to our 
critical infrastructure, to our power grid, to our banking 
system. That I see as the greatest threat. The job of NORTHCOM 
is to handle the physical consequences of that particular 
threat.
    Senator Udall. As per your conversation with Senator Reed, 
I think we cannot right now do enough when it comes to 
cybersecurity.
    Let me turn to General Votel. As you are aware, Congress 
has expressed concern recently with what is seen by many as the 
lack of sufficient justification for budget requests in recent 
years, especially in light of the significant budget increases 
for SOF over the past decade. What are your views with respect 
to the congressional language requiring SOCOM to provide more 
detail and meaningful information in its budget justification?
    General Votel. Senator, I absolutely agree that we should 
be able to defend our requests, and if confirmed, I look 
forward to working with the committee to ensure that they 
understand what the SOF forces require and why we need it.
    Senator Udall. You would, as a starting point, believe that 
Congress, in providing its oversight role, ought to have the 
same level of visibility into SOCOM's funding as is provided by 
the Services more generally?
    General Votel. I absolutely believe that they should.
    Senator Udall. Thank you for that assurance.
    Gentlemen, let us turn to sequestration, if we could. It 
looms. Many on this committee--I think all of us are very 
concerned about it. It goes back into effect in 2016. Could you 
give us your perspectives on the effect of sequestration if it 
were to take effect again?
    Admiral Gortney. Sir, I will take that first. In my current 
capacity as Commander of U.S. Fleet Forces Command, the effect 
of sequestration was on readiness. The means that it goes about 
targets the readiness, the operations and maintenance accounts 
that are out there. It impacts today's readiness, and any 
impact on today's readiness impacts tomorrow's readiness. The 
forces that we are going to fight with tomorrow--most of them 
we already own. When it comes to sequestration, that is our 
primary concern. If confirmed at NORTHCOM, it is the readiness 
of those forces to be able to defend the Homeland and then 
respond defense support for civil authorities where we have the 
ready forces to do that. Will they be at the proper readiness 
levels? We work through the components in order to ensure to be 
able to make those decisions to know those readiness status.
    Senator Udall. General Campbell?
    General Campbell. Sir, thank you for the question.
    In my current job as the Vice Chief, I follow the 
sequestration piece of the budget every single day, sir. If we 
continue on the path and sequestration happens in 2016, as it 
is right now, it will have a great, great impact on all the 
Services, but I think especially on the Army. We have to 
balance force structure, end strength modernization, and then 
the readiness. In the near term, we are sacrificing 
modernization and we are trying to put what we can into the 
readiness and the short-term readiness. For the Army, our 
biggest platform is our people, and we cannot come down fast 
enough to bring out people in our Army to meet the numbers in 
the sequestration bill as we have.
    I do not think we have done a particularly good job of 
articulating to the American people the impact of 
sequestration. In 2013, and the impact on readiness--General 
Odierno briefed one time we only had two brigade combat teams 
ready that he felt comfortable with deploying if asked at that 
particular time. We have since worked very hard on the short-
term readiness and put any additional monies we have into that 
short-term readiness but, again, at the expense of our 
modernization accounts as move forward.
    It was in the paper today, sir, it talked about an impact 
of sequestration, and that was on the drawdown of the forces 
and particularly of our captains and then of our majors here 
shortly, but recently we had announced 1,100 majors that we 
have to take out of the force from year groups 2006, 2007, and 
2008. Some of these are men and women that are currently 
serving in Afghanistan that could be company commanders in 
Afghanistan that we are asking that they have to leave the 
force. That is hard-hitting. We are going to see that continue. 
Those numbers and the impact of just those captains and what it 
means to those families has to bring your Army down from 
570,000 down to 490,000. We have not even started talking about 
490,000 down to 450,000 and then potentially down to 420,000 if 
sequestration stays in effect.
    Sequestration will be disastrous, I believe, for your Army. 
We will not be able to do the Defense Strategic Guidance if 
sequestration continues to go on after 2016, sir.
    Senator Udall. General Votel?
    General Votel. Thank you, Senator.
    First of all, I agree with the comments of my colleagues up 
here with regard to readiness and the impact on our ability to 
support the broader plans and requirements that we have.
    I would add two specific things from a SOF standpoint. 
First of all, effects to the general purpose force do affect 
SOF forces because one of the key lessons we have learned over 
the last 12 or 13 years has been that SOF forces are hugely 
dependent on our general purpose forces for a variety of 
activities that they conduct that allow us to do the things 
that we need. If confirmed, that would be something I would 
really want to look at.
    The second piece would be the impact on our people. We 
certainly have generated a great amount of experience and 
leadership over the last 10 to 12 years. As we had to reduce 
forces, I would be very concerned about making sure that we do 
that very, very carefully and do not lose the experience that 
we have developed over the last 10 to 12 years.
    Senator Udall. Thank you, gentlemen, for that very sobering 
analysis of sequestration if it were to be put in place again. 
Thank you.
    Chairman Levin. Thank you, Senator Udall.
    Senator McCain.
    Senator McCain. I want to thank the witnesses.
    To follow up, General Campbell, as you and I discussed, we 
now have captains in the U.S. Army who are serving in 
Afghanistan in combat and danger that are now being notified 
that they are being involuntarily separated from the U.S. Army. 
Is that correct?
    General Campbell. Sir, that is correct.
    Senator McCain. That has to hurt morale. Would you agree?
    General Campbell. Absolutely, sir.
    Senator McCain. Admiral Gortney, your area of 
responsibility ends at the Mexican-Guatemalan border. Right?
    Admiral Gortney. Yes, sir, it does.
    Senator McCain. Okay. But is it your information that 
neither the Government of Mexico nor the Government of 
Guatemala and the Government of Mexico at either the Guatemala 
border or the U.S. border are doing anything to stem the flow 
of illegal immigrants into this country?
    Admiral Gortney. I do not have any specifics as to that, 
but in my dealings with their navy, I know they are very 
concerned about that.
    Senator McCain. They are concerned. Are they doing anything 
to stem the flow that you know of or not expediting?
    Admiral Gortney. If confirmed, I will get you that answer, 
sir, if confirmed.
    Senator McCain. I think you should know a little more about 
it before you come before this committee.
    I would like to have that answer quickly.
    Because the facts are stubborn things, Admiral Gortney, and 
that is that they are expediting these people across the 
Guatemalan border and the U.S.-Mexican border. A glance at the 
evening news can tell you that.
    General Votel, we are hearing from inside Syria and from 
outside Syria that the equipment that Islamic State of Iraq and 
Syria (ISIS) was able to get a hold of due to their lightning-
like success in Iraq is now flowing into Syria. In fact, we 
have even seen on the Internet pictures of the mine-resistant 
ambush-protected (MRAP) vehicles that are now inside Syria 
fighting on behalf of ISIS. Do you have any information about 
that?
    General Votel. Senator, at an unclassified level, I have 
seen some of that reporting that would indicate that it is 
moving across what were the former borders there between Iraq 
and Syria back into Syria.
    Senator McCain. You would agree if, indeed, MRAP vehicles 
are there, that is really a very effective tool if fallen into 
the hands of ISIS people who know how to operate them. They are 
not that difficult to operate. Would you agree?
    General Votel. I would agree with that, Senator.
    Senator McCain. Now we find our Free Syrian Army fighting 
on two fronts, Bashar Assad and his barrel bombs and now ISIS 
with equipment that they captured in Iraq now flowing into 
Syria, which has had, I can assure you--and I do not know what 
your information is--has had a devastating effect on the morale 
of the Free Syrian Army. Do you have any information about 
that?
    General Votel. Senator, I do not have any specific 
information about that effect.
    Senator McCain. But maybe experience shows that it could 
have that effect?
    General Votel. I do think experience would indicate that, 
Senator.
    Senator McCain. Thank you.
    General Campbell, do you know any senior military leader 
who personally recommended the policy of a complete withdrawal 
by January of 2017?
    General Campbell. Sir, I have not talked to any senior 
leaders that have recommended a complete withdrawal by 2017.
    Senator McCain. I am sure that Senator Graham, who just 
spent his Active Duty tour over in Afghanistan, will pursue 
this further. But is a serious concern not about not only 
capabilities that the Afghans cannot acquire in the next couple 
years such as air evacuation, certain logistics capabilities, 
but one of our big concerns should be the total disappearance 
of CT capabilities? Is that a concern?
    General Campbell. Sir, it would absolutely be a concern. We 
have a couple years to continue to work on the gaps and seams 
that the Afghan army and their government has. Aviation, ISR, 
and logistics, as you said, are certainly three of the top 
things that we have to continue to work the Afghan army. The CT 
piece, as we talked earlier, very, very important not only for 
Pakistan and Afghanistan, but for our Nation.
    Senator McCain. In our meetings last week with both 
candidates for president, both of them expressed, one, a desire 
for a bilateral security agreement (BSA), but two, a very deep 
concern about a date certain withdrawal as opposed to 
conditions-based. Both Abdullah Abdullah and Ashraf Ghani said 
that they were concerned about even signing the BSA, with their 
ability to control particularly parts of Afghanistan that you 
are very familiar with, Helmand and others. Do you think that 
that concern on their part is legitimate?
    General Campbell. Sir, I believe whoever becomes president 
would have great concern on what support that any of the 
coalition forces would continue to provide for them. I have not 
discussed with them any sort of timeline, but as I mentioned 
earlier, I think my job and what my senior leadership and what 
the committee would expect of me is to provide continuous 
updates based on our mission and our resources and then my best 
military advice on where we go from that.
    Senator McCain. One would hope that the President of the 
United States would look at the nightmare in Iraq today and the 
ability that we could have had to provide some stability there 
and perhaps reevaluate his decision not for American combat 
troops but for the much needed capabilities of support and 
counterterrorism that we can provide, which they simply do not 
have.
    My other question to you, do you remain deeply concerned 
about the role that Pakistan plays in all of this with the 
Haqqani Network and Inter-Services Intelligence (ISI) of 
Pakistan and the whole support capabilities for the Taliban/al 
Qaeda that remain there?
    General Campbell. Sir, absolutely. As I said earlier, 
Afghanistan and Pakistan--you cannot separate the two. I am 
concerned about the sanctuary in Pakistan. If confirmed, I will 
continue to work with the Afghan military and the Pakistan 
military to continue to ensure that we can reduce that, but 
that we have the great mil-to-mil cooperation between the 
Afghans and the Pakistanis.
    Senator McCain. I thank you, Mr. Chairman.
    I thank the witnesses.
    Chairman Levin. Thank you, Senator McCain.
    Senator King.
    Senator King. Thank you, Mr. Chair.
    I have to note in passing, General Votel, you used a phrase 
that sort of startled me. I think it was realistic, but I think 
it is something that we should take note of. You referred to 
the former border between Syria and Iraq. Unfortunately, I 
think that is a factual assessment.
    General Campbell, this committee made a decision in its 
markup of the National Defense Authorization Act a month or so 
ago that essentially eliminated the Mi-17 support both in terms 
of purchases of the remaining group of helicopters and also 
spare parts. We got a letter 2 weeks ago from General Dunford 
that characterized this. The loss of the Mi-17 capability would 
have a catastrophic effect on the military campaign. He said 
effective ANSF counterterrorism operations are dependent upon 
the Mi-17 and, most chilling, he said any loss of ANSF 
operational reach would, therefore, degrade our force 
protection. Those are our people that he is talking about.
    Would you agree with his assessment that this would be a 
catastrophic blow to the ability of the ANSF to do their job in 
Afghanistan?
    General Campbell. Sir, I would agree with General Dunford's 
assessment on the Mi-17 and the impact it would have on both 
the Afghan military and their ability to carry out their 
mission and the impact on our own force protection.
    Senator King. I think it is important that the provision 
adopted by this committee not only would prohibit the buying of 
the remaining group, but immediately cut off spare parts which 
would, in effect, over a fairly short period of time, ground 
the entire fleet. Is that correct?
    General Campbell. Sir, that is correct. I think the 
estimate I have seen is anywhere between 6 months to 12 months.
    Senator King. They would be grounded?
    General Campbell. They would become combat-ineffective.
    Senator King. Thank you, General. I appreciate that.
    Admiral Gortney, you are going to be in charge of NORTHCOM 
as we have been discussing. I am concerned about the Arctic. 
You mentioned in answer to your prior questions that we really 
do not have the infrastructure that we need up there. Do you 
know offhand how many icebreakers the Russians have in 
operation in the Arctic?
    Admiral Gortney. I think it is somewhere between five and 
seven, sir.
    Senator King. We have one 45-year-old Coast Guard 
icebreaker. Is that correct?
    Admiral Gortney. That is correct.
    Senator King. The Navy has no icebreaker capacity in the 
Arctic?
    Admiral Gortney. That is correct.
    Senator King. A brief question. I believe you indicated in 
your prior submission that you felt it would be important for 
our country to accede to the Law of the Sea Treaty. Could you 
affirm my understanding of your position?
    Admiral Gortney. Yes, sir. It has been a longstanding 
position of the Department of Defense that joining that 
commission would be a good idea to put us on the same footing 
with the other signatories and not relying on the longstanding 
traditional law of the sea.
    Senator King. Does this particularly not take on some level 
of urgency given the opening of the Arctic to commerce, 
exploitation, energy, and all of the other potential areas of 
conflict?
    Admiral Gortney. Yes, sir, but particularly in the Arctic 
because it would put us on the same footing as the other 
signatories of the Arctic Council.
    Senator King. General Campbell, there have been a number of 
questions about Afghanistan and our time frame there. As I 
understand it, there was intelligence that indicated ISIS was 
building up its strength and had designs on moving into Iraq. 
What we did not know was how weak the Iraqi army would be. I 
would suggest--and I hope you agree--that one of your missions 
is to continually assess the readiness and effectiveness of the 
ANSF because it was not ISIS so much as the collapse of the 
Iraqi army that led to the debacle currently unfolding in Iraq. 
Would you agree?
    General Campbell. Sir, I would agree. Today it is an 
assessment. They do have an assessment process in place to 
continually evaluate the Afghan Security Forces. That will get 
a little bit tougher. As our forces draw down, they will not 
have that day-to-day contact with them. But I agree with you 
there, sir.
    Senator King. I would like to associate myself with Senator 
McCain's comments and questions. It strikes me that rather than 
an arbitrary date for leaving Afghanistan, it should be based 
upon conditions on the field. Would you agree with that?
    General Campbell. Sir, I think any military commander would 
want the flexibility to provide an operational assessment. If 
that is conditions on the ground, then I would agree with that, 
sir. But I owe this committee and I owe my leadership my best 
military advice based on the mission at hand and the resources 
I have at that time. I do have some time to make that 
assessment, and in that time, I also have time to continue to 
take a look at the Afghan forces and the missions that we have 
and the resources tied to that to continue to upgrade their 
capability.
    Senator King. I am not going to ask you to assess the 
political situation in Afghanistan. I think that is unfolding 
before our eyes and is difficult for anyone to assess. But one 
question. Do you have any assessment of the ethnic makeup of 
the ANSF in terms of broad support in the populace? One of the 
problems we are seeing, of course, in Iraq is the exclusion of 
the Sunnis and the Kurds from both the government and most of 
the defense forces. Is potentially the same mistake being made 
in Afghanistan or not? I do not know the answer. I am 
interested in your view.
    General Campbell. Sir, I can get you the composition of the 
ANSF. I do not have that here. My gut tells me it follows 
probably the pattern of the country itself. The great majority 
of the ANSF would be probably 40-45 percent Pashtun, but I can 
get those for you.
    [The information referred to follows:]

    Please see the attached document.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    
      
    General Campbell. I know that is a grave concern to General 
Dunford and the leadership there to make sure that the ANSF 
continues to be, for lack of a better word, apolitical and that 
they continue to have the best interests of the country at 
hand. I know so far, from what I have seen and talked to the 
leadership there on the ground, that is exactly what they are 
seeing. The leadership is keyed with the ANSF and I know they 
have made great strides with the Afghan leadership there on 
that.
    Senator King. I think that is a very important ball to keep 
our eye on because if the government that is left in place is 
not broadly representative of the country, if we have learned 
anything in the last month, it is that that is a crucial 
element in the stability of the country that we leave behind.
    General Campbell. Absolutely, sir.
    Senator King. General Votel, very quickly. How do we take 
sufficient advantage of the capabilities that the SOFs have 
without exhausting them? I see your force as particularly 
important in the future. General Dempsey in a briefing the 
other day used the term ``tailored response'' to situations. I 
think he was talking about you when he used that term.
    General Votel. Yes, Senator. As you and Senator Kaine saw 
when you visited some of our locations, we are able to be very 
effective with a very light touch. I think what we always have 
to do is look at the situation that we are putting our SOF 
forces in and ensure that we provide the right capability 
without overdoing it and putting undue pressure on our forces.
    I think part of that is also working with our other 
Department of Defense forces and, where we can, leveraging 
their capabilities as well to ensure that we take advantage of 
all of the capabilities.
    Senator King. What appears to be a future of unconventional 
non-state actor forces--your men and women are going to be the 
point of the spear, General Votel. I commend you for taking 
this command and look forward to working with you on it.
    General Votel. Thank you, Senator.
    Chairman Levin. Thank you, Senator King.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank all of you for your willingness to serve 
and for your leadership and for your distinguished service and 
for all of the sacrifices that you and your families have made 
for the country and will continue to make. Thank you.
    I wanted to ask General Campbell. I know that you served in 
Afghanistan, had at least two or three tours there, in Iraq as 
well. As we look at our situation that is happening in Iraq 
right now with ISIS and obviously the huge security challenges 
that we have there that are very threatening not only to us but 
to the entire region, what can we learn from having the 
withdrawal that we had in 2011 toward what has happened in Iraq 
as we look forward to our continued engagement in Afghanistan?
    General Campbell. Thank you, ma'am, for the question.
    Two times in Afghanistan: This will be the third--and about 
a 19-month tour in Iraq. I think all of the veterans of Iraq 
would tell you, as they watch this unfold, it is very 
disheartening to see that.
    I am committed in Afghanistan to ensuring that the two 
missions, the train, advise, assist, and also the CT, that we 
continue to do everything we can with the coalition to continue 
to improve the Afghan capability there so they can stand on 
their own. I will continue to provide my assessments as we go 
forward.
    We ought to take a look at Iraq and look at the lessons 
learned from there. I think your military, all of our 
Services--on anything we do we critique ourselves. We look very 
hard at after-action reviews. We always go back and look at the 
lessons learned. I think this is no different. We will take a 
hard look at this and see what we can learn from this and apply 
that to Afghanistan. If confirmed, I am committed to doing 
that, ma'am.
    Senator Ayotte. I appreciate it.
    I know you have received a number of questions, taking over 
the command in Afghanistan, about the CT mission. Can you put 
in perspective what the CT mission means to your average 
American in terms of the protection of this country, what we 
have done in Afghanistan and why it is such an important 
mission?
    General Campbell. Yes, ma'am. I think if you just want to 
boil it down to very simplistic--and I probably told you this 
when you were there in 2010, maybe 2011--is that we have not 
had another September 11 attack on the Homeland. We have not 
had that since 2011 when we talked as well. We should not take 
that for granted, and that is not by happenstance, and that is 
because you have great men and women from all the Services out 
there every single day working hard. The CT piece of that on a 
daily basis continues to strike after these networks that want 
to do harm to our country. I believe the CT piece, if you want 
to just boil it down to simplistic terms, is it protects the 
Homeland.
    Senator Ayotte. Thanks, General.
    I guess I would ask this question of both you and General 
Votel. Thinking about the President on May 27th had made the 
announcement that by the end of 2016 that the presence we will 
have in Afghanistan will be at the embassy in Kabul, which will 
be a security component. Basically just a normal embassy 
presence is how he described it. In fact, it has been further 
described by the administration that the number of personnel 
that will be present as of January 1, 2017, at the embassy for 
security there and cooperative efforts will be 1,000 people.
    My question to both of you is as I hear General Votel talk 
to us about the numbers on the CT mission in Afghanistan that 
we have now, that we will plan to have there in 2015--and you 
also discussed the importance of it, including unilateral 
operations, CT operations--how do we do that based on a Kabul 
operation only? How do we do that with 1,000 people and which 
part of that 1,000 people will fulfill this important mission 
to protect the Homeland? I guess the real question is--we just 
heard your testimony about how important this is to protect our 
country and to have the CT mission--what happens after January 
2017?
    General Campbell. Ma'am, thank you for the question. I will 
start and let General Votel provide his comments.
    I do not know the number at the end of 2016. I understand 
and acknowledge what you said and the numbers the President 
said. Again, I have not looked at the composition. I know for 
the next 2 years, we will continue to improve the capability of 
the Afghan forces. We will continue to work with Pakistan. That 
is going to be a relationship there that will help on the CT 
piece. We will grow some capability there. But as I said 
earlier, I will need some time to get on the ground to give you 
an assessment of where we will be, but I think we have to put 
in light of that there will be some time to improve the 
capability that is already there. That may or may not help us 
reduce the numbers. I could not talk in terms of the exact 
numbers at the end of 2016 that would be required just for the 
CT mission. I can come back to you as I make that assessment.
    Senator Ayotte. General Votel, how does the CT mission--
just having it be Kabul-based with the numbers I just talked to 
you about--obviously, there is a lot you have to do at an 
embassy. We do not even know if any of those individuals would 
be designated for CT.
    General Votel. Thank you, Senator, for the question.
    First off, as General Campbell said, I think what we have 
to continue to do is look at the conditions as time progresses 
here and continue to provide our very best military judgment 
and advice on the way forward with that.
    I do think we have some models of where we conduct 
operations in other areas where we do use an embassy-based 
approach fairly effectively to continue to apply pressure 
against our networks.
    I think maintaining relationships to the degree that we can 
with our Afghan partners in this particular situation here is 
hugely important to continue to support our CT objectives. I do 
think we have to look at a broader regional approach as well. 
There are the Central Asian states. There is certainly Pakistan 
and there are other people in the region who we have to 
continue to have relationships with and continue to work with 
to address our broader CT objectives.
    Senator Ayotte. General Votel, in your view do you think 
that we will be able to accomplish all that we need to 
accomplish now, knowing what you know on the conditions in 
Afghanistan, with solely a Kabul-based approach where 1,000 
people are at the embassy and who knows what that number within 
would be designated to CT?
    General Votel. Senator, I do not think I can answer that 
question accurately for you right now. I think it really 
depends upon the situation as it evolves. That is why I think 
we have to look at the conditions, we have to provide our best 
advice on what it is that we need to sustain, what we need to 
have in an embassy-based approach in order to continue to 
protect the Homeland and accomplish our objectives.
    Senator Ayotte. I appreciate both of your testimony. What 
you both said makes a lot of sense is that how we could 
possibly make the announcement from the administration of 
exactly how many people are going to be at that embassy and 
where they are going to be, given the importance of the CT 
mission to protecting our country, helping us avoid another 
attack on our country, when we do not even know what the 
conditions will be at the time is--it is really hard to come up 
with a word for it. But it is certainly not a military-based 
decision based on the announcement of our President. I am glad 
to hear both of you say that you are going to have to hear what 
the conditions are on the ground.
    I hope that our President will heed the conditions on the 
ground so that we can continue to perform this important 
mission of protecting our country and ensuring that we have 
this intelligence that has helped us prevent future attacks 
after September 11 against this country.
    Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank all of you and your families for their 
sacrifice.
    General Votel, Admiral McRaven stated that suicide rates 
among SOFs are hitting record highs. He put in place the 
Preservation of the Force and Family Program to try to help 
with that. What I want to find out is do you plan on continuing 
that? Do you see it as a success? Do you see anything that is 
more effective or other avenues that can help with this?
    General Votel. First of all, Senator, thanks for the 
question.
    I absolutely do continue to apply the same level of effort 
onto this and as more as I can onto this particular problem of 
suicide with our SOF servicemembers and our servicemembers in 
general. I do think we have to continue to look at every 
potential resource that can help us to, one, understand the 
problem and then identify ways that we can deal with this for 
our servicemembers. The numbers are alarming, and I think it is 
our number one focus with respect to preserving the force.
    Senator Donnelly. One of the things I would also ask you to 
do to take a look at is the things you learn from this program, 
if you see any of it that you say this has been really 
successful or this might be something that is transferable, if 
you would continue to share that with all of the other 
commands, it would be very, very helpful I think.
    General Votel. Absolutely, Senator.
    Senator Donnelly. General Campbell, to follow up on Senator 
Levin's point, it is obviously of a critical nature that you 
continue to give us your unvarnished opinion as you see, going 
forward, where there might be glitches, where there might be 
problems, what the actual numbers need to be. If the plan is 
not coming together, let us know. General Dunford has been 
great in saying here is where we are on all of our metrics, 
here is where the problems are, here is where they are not. I 
am sure we can continue to count on you for that.
    General Campbell. Sir, absolutely.
    Senator Donnelly. Following up on that, one of the things 
if you could--and I know you will--keep an eye on and let us 
know about is one of the distressing things that happened in 
Iraq is so many of the real generals who were trained by you 
and many others were replaced by folks who, through connections 
or friendship or whatever, wound up in those posts. I think 
that caused significant damage to the Iraqi army. We want to 
make sure the same thing does not happen in Afghanistan, and if 
you could continue to let us know, as you look at the force, 
getting better, getting worse, the leadership, those kind of 
things. I know you will keep an eye on it and it would be 
helpful to us because it will also tell us if something is 
starting to go sideways there.
    General Campbell. Sir, absolutely. I know that General 
Dunford and the rest of the team there have put into place some 
programs to really look hard at the professionalism of the 
Afghan officers. They have their own academy. They now have a 
non-commissioned officer course that they send folks through. 
They look at that very hard. They understand that one of the 
main things with any military in the world is the trust and the 
trust between the military and the people, trust between the 
military and their leadership. I know they continue to work 
that, and I am absolutely committed to continue to work that 
hard, sir.
    Senator Donnelly. One of the things we have seen recently 
is--and it is somewhat unique in recent times--the Pakistan 
army has just pushed into Miranshah, has moved people out of 
there. The nature of whether they have gone elsewhere or were 
captured is still up for discussion. But it seems that there is 
a real interest on the Pak side to do something in those areas.
    Do you see this as a window we have not had for a while to 
try to create some form of security in that region of 
Afghanistan and Pakistan?
    General Campbell. Sir, absolutely. Anytime that Pakistan 
will continue to work their own operations inside their borders 
there, coordinate those also on the Afghan side, I think it is 
a win. We tried to do that in 2010 and 2011 on a much smaller 
level. I do think this is a great opportunity for the military-
to-military engagement between the Afghans and the Pakistanis. 
They have to continue to work that. Sir, I am committed to 
helping where I can on that.
    Senator Donnelly. In a way, this is the furthest I have 
seen them push in a very long time, and I am hopeful that that 
can make--in terms of ``easy'' being a general term--your life 
a little bit easier in those regions that if they clean up some 
of the mess on their side, there may be less leaking over to 
your side.
    General Campbell. Sure, absolutely. The Pakistan army has 
suffered great casualties themselves in this war on terror here 
for the last----
    Senator Donnelly. They have.
    General Campbell. Yes, sir.
    Senator Donnelly. In the Status of Forces Agreement (SOFA), 
I am sure you will continue to tell them--we talk about how 
many troops will remain, but if we do not have a SOFA, it 
completely changes the whole discussion. I trust that one of 
your primary efforts over there will be to continue to tell 
whoever will be their leader how critical this is and that 
basically everything else, all the other efforts kind of line 
up with this.
    General Campbell. Sir, I believe both candidates have 
expressed their desire to sign the BSA and the SOFA to make 
sure that they have continued coalition presence in 
Afghanistan. They know the consequences if they do not do that. 
Hopefully that will get done before I get there, sir, but if 
not, I will continue to work that hard.
    Senator Donnelly. Thank you.
    Admiral Gortney, one of the concerns I have when I see what 
is going on with ISIS and the Islamic State of Iraq and the 
Levant (ISIL) and al Nusra Front in that whole region is that 
there are also Americans fighting with them over there, 
Americans who have passports. My fear is if they take a look 
back to our country and they can be people who can be 
extraordinary weapons against us. I am wondering about your 
efforts in coordinating with Homeland Security, with the 
Federal Bureau of Investigation, with everybody else to try to 
keep an eye on what is going. Even though it is not here in 
NORTHCOM, it directly affects our Homeland.
    Admiral Gortney. Sir, we all share your concern on that 
one. The defense of the Homeland starts at the away game and 
working with our combatant commanders and the interagencies in 
the away game so that we stop it there before it comes to the 
Homeland, inside the Homeland, Homeland Security, and we are 
going to have to deal with the consequences if we fail in that 
regard.
    Senator Donnelly. One last question that I have time for is 
this, we have seen a huge influx of heroin into my home State, 
into other States, much of it coming up across the border. We 
have seen drugs coming in through the Straits of Florida and 
other areas. We have had testimony that there is not near 
enough equipment, men, women, personnel, things needed to try 
to stop that.
    Would you give us, in a perfect world, your best plan as to 
how to make a change in this area or how to beef up our efforts 
in this area?
    Admiral Gortney. It requires a whole-of-government approach 
that includes all of the interagencies, as well as very, very 
close cooperation between Pacific Command, Northern Command, 
and Southern Command in order to work to close any of those 
seams that are out there between the geographic commanders and 
seams between the commanders and the interagency process, 
interagency partners in order to stem this flow. It has to go 
to the far reaches. You are not just going to be able to stop 
it at our borders. You have to go to the root cause of the 
problem and try and stem it from there, sir.
    Senator Donnelly. Thank you very much. I hope you keep an 
eye--and I know you will--on that effort as well.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Donnelly.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    First of all, I would like to thank you gentlemen and your 
families, the Service personnel that you represent for truly 
dedicating your lives to serving the people of this country and 
keeping us safe. Thank you very much.
    General Votel, in your written comments, you speak about 
the greatest threat that ISIL is to the Governments of Syria 
and Iraq and then it threatens to destabilize the entire Levant 
region and their connections are growing throughout north 
Africa and Europe and also Southeast Asia. If this situation on 
the ground in Iraq does not improve significantly, when do they 
become a threat to the United States? Are we there already?
    General Votel. Senator, thank you for that question.
    I think they threaten some of our regional interests. They 
certainly threaten some of our key partners in the region and 
in Europe right now. I do think as they continue to grow 
strength, that they will ultimately present a threat to the 
Homeland. As we have talked about a little bit earlier, the 
threat of foreign fighters that have gone to Syria and now into 
Iraq I think poses a very significant problem not only for us 
but also for our partners that we rely on. I think that it is 
posing a threat to us right now.
    Senator Fischer. The Admiral spoke about the away game. Do 
we have the eyes on the ground in order to make the assessment 
on what is happening in Iraq and how we are going to address 
it? I know we are looking at all the options that are out 
there. Are we starting to narrow those down? Are we reaching 
the time of a tipping point already when it may be too late 
even to take advantage of some of those options that are there?
    General Votel. Senator, first off, I do not think it is too 
late to do anything right now. As you may be aware, we are just 
completing the assessment phase here in Iraq, and so we have 
been working with our Iraqi security force partners there both 
up in Kurdistan and down in the Baghdad area and the places 
that we can get to, to ensure that we understand what the 
situation on the ground is, what their capabilities are, and 
then what options we might have to assist them, to address this 
threat here in the future.
    Senator Fischer. I heard a comment made recently that 
perhaps we should take the Machiavellian approach and let the 
militias and the terrorists fight each other, just stand back 
and let our enemies fight each other. Are there not risks to 
that? Did we not do that in Syria?
    General Votel. In general, I think there are risks to 
allowing things just to try to resolve themselves particularly 
when there are interests that could affect our country.
    Senator Fischer. Would you think that would be an option 
the United States should look at with regard to Iraq?
    General Votel. I think we should look at all options that 
might be available to us, Senator, and how we can address this 
particular problem.
    Senator Fischer. Would that be your option, would you say, 
at this point?
    General Votel. Senator, I think as we kind of complete the 
assessments here right now, I would certainly want to have 
discussions with General Austin as part of his assessment on 
this to ensure that we have had an opportunity to look at 
everything before reaching any conclusion.
    Senator Fischer. Thank you.
    The President has requested $5 billion for the 
Counterterrorism Partnership Fund. What top priorities would 
you like to see this fund accomplish?
    General Votel. I think the Counterterrorism Fund can 
certainly help us with some of our partnership activities, and 
I think it could also help us with gaining the additional 
resources that we might need to enable our partners such as 
ISR, which I think would be very helpful in really enabling our 
partners in a variety of different ways.
    Senator Fischer. How do you see our SOFs evolving, given 
the demand? Senator King touched on that and touched on the 
pressures that you are looking at. You had mentioned to Senator 
Ayotte about the size of the force that you would look at in 
different countries, including Afghanistan. Do you see the 
special ops evolving--I guess I will just ask you. How do we 
see them evolving?
    General Votel. I think, first of all, the level of strength 
that we are going to be at is adequate, I think it allows us to 
meet the requirements that we have out there right now. I think 
it is important that we continue to focus on some of the work 
that has excellently been done by Admiral McRaven in his role, 
and that is continuing to strengthen our relationship with 
other SOF and military partners out there so that we do have 
trusted, dependable relationships and partners out there that 
we can work with and we can depend upon to accomplish the 
broader CT efforts. I do think it is important that we continue 
to have SOF forces forward deployed in locations where they can 
assess, they can understand, and they can, most importantly, 
work with our international partners who share our interests.
    Senator Fischer. I would ask you, General Votel and also 
General Campbell, if we are going to be conducting CT 
operations outside of Afghanistan, how effective is that going 
to be?
    General Votel. Senator, just to clarify, conducting 
operations into Afghanistan from locations outside of 
Afghanistan?
    Senator Fischer. Yes or throughout the region as well if 
you would lose all your forces within the country.
    General Votel. I think that would be very challenging. That 
would be a very challenging approach for us to continue to 
effectively do that. Certainly there are things that we can 
certainly look at, and we would have to look at all the 
conditions with that, but I think it would be challenging to 
try to address problems in one country from other regions, from 
other countries.
    Senator Fischer. Would that be a priority of yours to 
explain to the administration the importance of keeping your 
forces there?
    General Votel. Senator, I think it is one of my primary 
responsibilities, to always advise on how we best use our 
precious SOF forces in a manner that gives us the most effect.
    Senator Fischer. General Campbell, your thoughts on that as 
well?
    General Campbell. Ma'am, I would agree with General Votel. 
As I said earlier, I have not taken a look at what that end 
result would be in 2016 on the numbers, but as I said earlier, 
if you are talking about Afghanistan, it involves the 
relationship and capability of Pakistan, the capability of 
Afghanistan, and really what our Government is trying to do in 
the CT arena there. I look forward, if confirmed, to working 
with General Votel to provide those assessments as we move 
forward and the resources that would be required to continue to 
accomplish that mission.
    Senator Fischer. I appreciate both of you, your comments to 
Senator McCain and also Senator Ayotte on expressing your 
desire to have that flexibility and also to be able to make 
decisions based on what is happening on the ground. Thank you 
very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Fischer.
    Senator McCaskill.
    Senator McCaskill. Thank you.
    First for Admiral Gortney. Are smugglers moving through 
Mexico right now with just impunity?
    Admiral Gortney. I am sorry, ma'am?
    Senator McCaskill. Are the smugglers moving these children 
through Mexico with impunity right now?
    Admiral Gortney. I would say the effect of the Mexican 
Government and their armed forces are not as effective as they 
could be. Whether or not they are trying to interdict them--not 
trying to interdict them, I do not have any specifics on that, 
but I seriously doubt it. They are just not being effective.
    Senator McCaskill. I think it is important, once you are 
confirmed, that you get a handle on this because it appears to 
me--all the information is these are cartel-based smugglers. It 
is the same enemy that we have been funding Mexico to fight for 
as long as I have been in the U.S. Senate. At a certain point 
in time, the American people deserve some metrics on how 
successful the money that we have been pouring into Mexico has 
actually been in enabling the Mexican military to do the basics 
of interdiction. It is obvious that buses and trains are moving 
loaded with thousands of children for miles through Mexico. 
Clearly somebody has decided in Mexico they do not give a damn.
    Admiral Gortney. I would say that the cartels do control 
areas of Mexico that gives them the freedom of movement to do 
what you are saying. Yes, ma'am.
    Senator McCaskill. The border?
    Admiral Gortney. Yes.
    Senator McCaskill. They have the freedom on the border?
    I think that is certainly a priority. If we look at our 
national security, if we have a neighbor to the south that has 
decided this is acceptable, it means that there is a whole lot 
of other things they think is acceptable that frankly threaten 
our national security. I hope you would make that a priority.
    For General Campbell and for General Votel, I look macro at 
our counterinsurgency (COIN) strategy and the pillars of our 
COIN strategy. If you look in Iraq, there was a belief that the 
pillars--if we did the political piece, we did the security 
piece, and we did the economic piece, it would be successful. 
The political piece did not turn out so well, and the economic 
piece is an abject failure because we spent literally hundreds 
of billions of dollars building infrastructure and facilities 
that are in crumbles now, that are inoperable.
    Is there any movement among your level of leadership in the 
military to take another look at the COIN strategy--and by the 
way, I predict we are going to have the same problem in 
Afghanistan. I have just been highlighting that ridiculous 
power plant that we spent $300 million on. We have the highway. 
It is almost as if we are so good as a military and we are so 
focused on our mission, that we just get blinders on and say we 
can impose this, we can build these highways, we can build 
these power lines, we can build these power plants, we can 
build these health facilities, we can build these schools, we 
can impact while we are there the functioning capability of a 
government or of a military. But it appears to me that we have 
put a band aid on a cancer and that it really is not something 
that is being successful.
    Is it time to take another look at the COIN strategy?
    General Campbell. Ma'am, I will take a shot at that. What I 
would tell you is I think that your military continues to take 
a look at all of its doctrine, all of its tactics, techniques, 
and procedures to continue to adapt to that to make sure that 
we are flexible. They are always looking forward to see what 
that next fight would be. We always have to remain cognizant 
that there are lessons learned to continue to grow.
    I think on the COIN piece, though, as you mentioned, this 
really is not just a military piece of it. It is a whole-of-
government approach. The military could look at one piece, but 
we have to bring in the entire interagency to continue to learn 
those lessons and then apply those resources to make sure that 
we can continue to sustain that. As we work whatever country 
that we are working in to build capacity in the country, it is 
a whole-of-government piece, not just the military piece. 
Whatever country that is, the people of that country have to 
want that, and they have to put forth effort as well. I think 
in the end, as evidenced here I think in Iraq, is leadership 
makes a difference, and we have to work with that very hard.
    Senator McCaskill. That is one of the things that happened 
both in Iraq and Afghanistan is the blurring of the lines 
between the interagency. The Commanders' Emergency Response 
Program funds morphed into the infrastructure in Iraq, and then 
of course it moved into major league infrastructure in 
Afghanistan where you--I know the power plant was USAID. But 
some of the highway building--we took that over. The military 
did. We were doing those things. Now we have some of those 
projects that are going to be outside the wire. We are not even 
going to be able to oversee those projects. There is a 
percentage of the projects that you are going to inherit, 
General Campbell, that we cannot have any oversight over 
because we are not going to be able to get the oversight as to 
where they are with the drawdown that we are embracing.
    I watched and analyzed the mistakes in Iraq, and I think 
many of them are going to come to pass again in Afghanistan. I 
am wondering if we are going to do the exact same thing again.
    General Campbell. Ma'am, if confirmed and go into 
Afghanistan, I will absolutely take a hard look at that. I 
spent many months in Iraq as well. I do not want to see what is 
happening in Iraq today happen in Afghanistan in the future, 
and I will work hard at that.
    Senator McCaskill. They are less equipped than Iraq was in 
terms of, this is not a country that ever even had a highway 
department. Iraq was much further along in terms of having some 
kind of central ability to impact government than Afghanistan.
    I admire all of you so much. I am so proud of our military 
and what you are capable of. I stand in awe of your leadership 
capacity. But I think you are being given an impossible task in 
Afghanistan in light of what the reality is in that country in 
terms of the American taxpayers ever realizing the investment 
we hoped that we would realize from the things we have built in 
Afghanistan, the money we spent on building things for them.
    General Votel?
    General Votel. Senator, I would only add I think that is an 
inherent responsibility for all of us as military commanders to 
always intellectually challenge ourselves about our operating 
concepts and the way we think about the missions that we are 
giving. I do think we have to look at our lessons learned, and 
that has to inform our way forward.
    At my current level of leadership here at the Joint Special 
Operations Command, I do know that SOCOM is looking very 
carefully at all of these concepts, counterinsurgency, 
unconventional warfare, and a variety of other things that we 
think will be important operational concepts for us in the 
future. If confirmed, I look forward to working within my 
community and within the general purpose forces and with this 
committee to make sure that those concepts are well vetted and 
well understood.
    Senator McCaskill. Yes. I really hope that it is a gut-
check moment at the War College about COIN and what has worked 
and what has not and why the failures have occurred.
    The one thing you guys are bad at is saying we cannot do 
this. You are given something to do and you just figure out 
some way to do it. I am proud of that, but it works against you 
in terms of acknowledging that maybe there are some things we 
are trying to do that under the circumstances just does not 
make sense for us to try.
    Thank you both. Thank you all three for your service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Again, thank you, all three of you, for the service to our 
country and your families.
    Are you familiar with the National Justice Center at 
Parwan, General Campbell?
    General Campbell. Sir, I have been to Parwan and I know of 
the National Justice Center. That came about after I left in 
2011, I believe.
    Senator Graham. I would urge you to go visit. It is 
probably the crown jewel of criminal justice in that part of 
the world, and it is a very modern facility, well run. The hope 
is that in the future, when an insurgent is captured, they will 
not be put in a provincial jail if they are really a threat to 
Afghanistan. They will go to the justice center in Parwan where 
they will be secured and they will have well-trained judges 
dispose of their cases. I would urge you to take a visit. I 
think it is very important in defeating the insurgency.
    General Campbell. Sir, I will do that, absolutely.
    Senator Graham. To defeat the insurgency, they have to 
believe they are going to get killed or captured. Is that fair 
to say?
    General Campbell. Sir, they have to understand that there 
is going to be some sort of repercussions.
    Senator Graham. If they get captured, they are likely to go 
to jail. Without that, it is going to be pretty hard to defeat 
these guys. Do you agree with that?
    General Campbell. I do, sir.
    Senator Graham. Okay.
    Let us look at Afghanistan as a line of defense for 
America. Does that make sense to you?
    General Campbell. Sir, it makes sense that in the past 
there has been sanctuary there that has created the conditions 
to allow organizations to attack our Homeland. Yes, sir.
    Senator Graham. Do you agree with that, General Votel?
    General Votel. I do agree with that, Senator.
    Senator Graham. The forces that attacked our country on 
September 11--they had safe haven in Afghanistan--the 
leadership. Is that correct?
    General Votel. That is correct.
    General Campbell. That is correct.
    Senator Graham. We have had at least one attack generated 
by the Pakistan Taliban that failed in New York. The bomb did 
not go off at Times Square, but apparently the Pakistani 
Taliban want to reach America. Is that still accurate, do you 
think?
    General Campbell. Sir, I believe there are many 
organizations that want to do harm to the Homeland, and I do 
believe that every single day the great military and the other 
services are impacting other attempts that nobody here even 
knows about.
    Senator Graham. Yes. Many of those organizations reside in 
the Afghan-Pakistan border regions. Is that correct?
    General Campbell. Sir, I would concur with that assessment.
    Senator Graham. General Votel, is al Qaeda decimated, non-
operational in Pakistan and Afghanistan?
    General Votel. I am not sure I can say they are completely 
non-operational. I think we have certainly applied a 
significant amount of pressure on them in Afghanistan in the 
area which we are responsible for, and I think we have limited 
their ability to do things that they would desire to do or to 
use that as a safe haven. That said, I think we have to 
continue to apply that pressure.
    Senator Graham. If we completely left on the CT front by 
2017, January 2017, is it possible they could regenerate?
    General Votel. I think it is possible, Senator, that they 
could regenerate if the conditions were not in place for the 
Afghans to be able to continue to provide that pressure 
themselves.
    Senator Graham. Let us just lay out the plan for the 
American people. By the end of the year--January 2015, how many 
troops are we going to have in Afghanistan? General Campbell?
    General Campbell. Sir, by the end of 2014, it is 9,800. The 
current plan by the end of 2015--the proposal right now is half 
of that, probably 5,500.
    Senator Graham. What percentage of counterterrorism forces 
exist today? How many counterterrorism forces, special forces 
do we have in Afghanistan today?
    General Campbell. Sir, General Votel gave the number of 
about 900 earlier today.
    General Votel. Yes. I think the total number of SOFs of the 
9,800 is approximately 2,000, Senator. Of that----
    Senator Graham. I am talking about today.
    General Votel. Today we are roughly 3,000-plus that are 
focused on the counterterrorism.
    Senator Graham. Does that include the enablers?
    General Votel. It includes some of our enablers, but of 
course we are very reliant on general purpose forces.
    Senator Graham. Can you get back with me on that? Because 
we were told 7,000 yesterday.
    General Votel. I think 7,000 is the total SOF effort that 
is present in country. That includes the efforts we do to train 
and advise and then a subset of that----
    Senator Graham. So 7,000 SOF-type forces, including 
enablers. January 2015, you are down, I was told yesterday, 
1,800. You say 2,000. Is that about right?
    General Votel. Approximately, Senator.
    Senator Graham. Let us fast forward to January 2017. How 
many do we expect to have given the current plan?
    General Votel. I do not know that we have the answer to 
that question yet.
    Senator Graham. Let us just look at what we could have. 
Under the current construct, January 2017, we are down to a 
security cooperation force. Is that true, General Campbell?
    General Campbell. Sir, that is the current plan. Yes, sir.
    Senator Graham. How many security cooperation forces did we 
leave behind in Iraq?
    General Campbell. Sir, I believe the rough number is 
probably in the neighborhood of 200-250.
    Senator Graham. Let us say it is 1,000 in Afghanistan. What 
will their chief mission be?
    General Campbell. Sir, the chief mission, if it follows the 
example of the Iraq piece, was really an FMS piece, foreign 
military sales.
    Senator Graham. How many counterterrorism forces were 
involved in the security cooperation team in Iraq?
    General Campbell. Sir, I do not have that number.
    Senator Graham. How about zero?
    General Campbell. Sir, I know it was a very low number and 
zero may be it in fact, but I do not have that number, sir.
    Senator Graham. This is the plan. The question is do we 
change the plan. Who fills in the delta between where we are at 
today and where we are going in 2017? Rate on a scale of A to F 
the ability of the Pakistani army and the Afghan army to 
cooperate together to provide counterterrorism capabilities to 
protect our Homeland.
    General Campbell. Sir, I have not looked at it in those 
terms, but my gut would tell me that it is not very good. It 
would be on the low end of the scale.
    Senator Graham. I have been told a D by some very prominent 
people.
    General Votel, does that make sense to you?
    General Votel. I agree with General Campbell's comments.
    Senator Graham. If we cannot rely on the Afghans and the 
Pakistani elements to defend America from a regenerated al 
Qaeda-type force and, if being outside the country is not 
advisable, it seems to me that the line of defense that America 
enjoys today is going to vanish if something does not change. 
Is that a fair statement, General Campbell?
    General Campbell. Sir, following your analogy, it would be 
a fair statement.
    Senator Graham. The question for the committee is do we 
want it to vanish and the consequences to the Nation of it 
vanishing.
    Finally, General Campbell, if the election process is not 
resolved within the constitutional process and somebody does 
not accept being Robert E. Lee and somebody accepting being 
Grant, what is the likelihood of Afghanistan holding together?
    General Campbell. Sir, if they cannot get through this 
election process to show the Afghan people and the rest of the 
world that they have done this political transfer of power 
peacefully, then right now the coalition forces will not 
continue to stay there after 2014. I think it greatly increases 
the risk for Afghanistan to fracture.
    Senator Graham. I could not agree with you more.
    One final question as to the ethnic makeup of the Afghan 
Security Forces. About 45 percent are Pashtun, but most of them 
are from the east, very few from the southern region around 
Kandahar. What percentage of the senior military leadership in 
the Afghan Security Forces are Tajik? Is it disproportionately 
large?
    General Campbell. Sir, I do not have the exact percentage. 
I would think that it is probably low, but I do not have that 
number, sir.
    Senator Graham. I think it is actually high. What I fear is 
if there is a failure of the two sides to reconcile the 
election process, the army will fracture along sectarian lines. 
Do you agree with that as being a concern?
    General Campbell. Sir, it would be a concern. I think right 
now that the ANSF has been holding strong, and they have 
become, for lack of a better term, apolitical, atribal.
    Senator Graham. Would that be in jeopardy if you do not get 
an election resolved quickly and fairly?
    General Campbell. Sir, I think if the election does not get 
resolved, then what will probably happen is that--again, my 
opinion only--they will revert to what they have done for years 
and years and go back to the tribal affiliation.
    Senator Graham. That is my fear too.
    Thank you very much for your service.
    Chairman Levin. Thank you, Senator Graham.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    General Campbell, how would you describe the level of 
terrorist threat in Afghanistan and Pakistan right now whether 
from the Taliban, from the Haqqani Network, or others?
    General Campbell. The level directed against the United 
States, sir, or the level directed inside of Afghanistan?
    Senator Cruz. Both.
    General Campbell. Sir, I could not put a percentage or 
high-, medium-, low-threat level. What I would tell you is 
because of the great work of the men and women in the SOFs, the 
general purpose forces, interagency, the threat to the 
Homeland, because we keep the pressure on the networks there, 
continues to be mitigated. As I said earlier, we have not had 
another September 11-type attack, but that is not because 
people have not been trying to do that. But to give you a 
percentage on how it is inside there, I have not been on the 
ground since April. I would have to get on the ground to give 
you a better assessment myself.
    Senator Cruz. If I understand your testimony correctly, it 
is that the threat to the Homeland has been mitigated because 
of the pressure that we are putting on them currently. If that 
is right, that raises an obvious question, which is we have 
been advised that in 2016 the troop level will be reduced to 
1,000 troops and in 2017 reduced to nothing. If that plan is 
carried out, what will be our capability to engage in 
counterterrorism operations and to keep that pressure you 
described on them to prevent terrorists from carrying out a 
serious threat on the Homeland?
    General Campbell. Sir, as General Votel mentioned earlier, 
we would have to take a look at other methods to do that, 
whether it is from outside of the country, other technologies. 
I think as he stated and as I stated earlier, for the next 2 
years we will continue to work hard at building the capacity of 
the Afghan forces to have a better CT-type force. I know we are 
doing that now. We will continue to work on that. It also will 
depend upon what Pakistan does and how they continue to evolve 
over the next 2 years. But if we go to zero, as you stated, and 
we do have a threat at that point in time still, then we will 
have to come up with a different strategy to be able to keep 
and mitigate that threat.
    Senator Cruz. In your personal judgment, are you concerned 
about our ability to execute effective counterterrorism with a 
troop presence at zero?
    General Campbell. Sir, today again I am not the commander 
on the ground. I am very comfortable with where we are today 
based on everything I know and the great capacity of our 
special operating forces and the men and women on the ground. 
If confirmed and I get on the ground, CT continues to be one of 
the missions that we have, then I will make sure that this 
committee and my leadership understands the resources I believe 
that are required to carry out that mission.
    Senator Cruz. Let me ask a couple of questions of Admiral 
Gortney. I want to start out on missile defense. Since June 12, 
386 rockets have been fired at Israel, and the threat facing 
both the United States and our allies is quite real. In last 
year's National Defense Authorization Act, the Senate required 
the Department of Defense to study missile defense threats from 
the south such as the Gulf of Mexico. Can you discuss the 
potential threats that may face the Homeland from the south and 
what NORTHCOM has or needs in order to deal with this threat?
    Admiral Gortney. If confirmed, I am going to have to learn 
more about that particular mission, about the threats. I am not 
aware of the study of a ballistic missile threat from the 
south, but I have been focusing most against the North Korean 
and the Iranian threat. I will have to get back to you on that.
    [The information referred to follows:]

    U.S. North American Aerospace Defense Command (NORAD) and U.S. 
Northern Command (NORTHCOM) face potential threats every day from all 
directions, to include the south. I understand recent NORTHCOM 
exercises have addressed possible asymmetric air, cruise missile, and 
short/medium range ballistic missile threats from the south. NORAD and 
NORTHCOM are operationalizing a deployable integrated air and missile 
defense capability to counter these threats by fusing current naval, 
air, and army systems into a full spectrum package. I believe an 
initial operational capability will be fielded in the near future. It 
is my understanding that to further assure the success of this 
capability, improvements in persistent surveillance and timely and 
accurate indications and warnings would be useful to get the right 
forces in the right place at the right time to defend the Homeland.

    Senator Cruz. Thank you. I look forward to continuing that 
discussion.
    Let us shift then to a different aspect which is border 
security. NORTHCOM helped secure the borders after September 
11. In your judgment, what additional role could NORTHCOM play 
given the crisis that we are facing on the border right now?
    Admiral Gortney. NORTHCOM is currently providing support to 
Borders and Customs who are doing the very best that they 
possibly can, and we are in support to them. We are currently 
providing them construction support, surveillance support, 
linguistic support, transportation support, and surveillance. 
We can continue to give as much as the Secretary asks of us in 
order to beef that up, but that is the limit of our authorities 
at this time.
    Senator Cruz. Given that over 50,000 unaccompanied children 
have illegally entered the country this year, do you think it 
is clear that international terrorist organizations are fully 
aware of our vulnerabilities along the border?
    Admiral Gortney. I would have to assume they are, sir. 
There are seams. We were raised to find your seams and you will 
find your enemy. Whether there is the smuggling of children, 
whether it is smuggling of any kind, whether it is drugs, 
whether it is money, whether it is weapons, those seams can be 
exploited by terrorists as well. That is why it is important 
for us to look into those seams with our interagency partners. 
That gives us the surveillance and the ability to detect it, 
should it be occurring.
    Senator Cruz. Would you agree that the coyotes and the 
cartels that are smuggling in all of these little boys and 
little girls--that these are hardened, violent criminal 
organizations?
    Admiral Gortney. Absolutely. Yes, sir, and operating in 
territories that they control that gives them the freedom of 
movement to do what they want to do, to move whatever they want 
to do. They will move whatever they want for money.
    Senator Cruz. In your judgment, could the equipment 
returning from the CENTCOM theater of operations be potentially 
utilized by NORTHCOM and integrated on the U.S.-Mexico border, 
specifically the tracking and ISR systems?
    Admiral Gortney. Yes, sir, if those authorities are 
expanded to us, I would forward up a request to use as much of 
the capability that we feel is necessary in order to do it. The 
Department of Defense is providing to law enforcement agency a 
great deal of surplus equipment that is coming back from Iraq, 
that has come back from Iraq and will come back from 
Afghanistan.
    Senator Cruz. The magnitude of the threat on the border, 
the southwest border in particular, continues to grow. In 2011, 
Border Patrol apprehended over 300,000 people unlawfully 
crossing the southwest border. Nearly 50,000 of them were from 
countries other than Mexico. Of those, 255 were aliens from 
special interest countries. Between 2006 and 2011, nearly 2,000 
aliens from special interest countries were apprehended along 
the southwest border.
    Given those numbers, would you agree that establishing 
control of our border with Mexico has serious implications for 
national security?
    Admiral Gortney. Yes, sir. Given the seams that are there 
that we talked about previously, we want to be able to close up 
all of those seams for the illegal movement of anything, be it 
terrorists or be it immigrants. But I think from the numbers 
that you described, you described the magnitude, that it came 
from the border south of Mexico. That is why it is important 
working with SOUTHCOM and our partner nations down there to 
work on the conditions, the long-term conditions, to prevent 
the flow of their people north into our borders, through all 
the other borders and into our borders. That is a long-term 
commitment that our Nation has to make, and if confirmed, 
working very closely with SOUTHCOM, we are there to do 
everything we can.
    Senator Cruz. Absolutely. Thank you, Admiral. Thank you, 
Generals.
    Chairman Levin. Thank you very much, Senator Cruz.
    Senator McCaskill. I have one brief question.
    Chairman Levin. Sure. Senator McCaskill?
    Senator McCaskill. I did not get a chance on my first 
round. I wanted to talk to you about the Memorandum of 
Understanding (MOU), General Campbell, about detainees. We went 
into the one MOU in March 2012 with the Afghan Government, and 
then in an effort to reduce tensions, we signed another MOU in 
March 2013. It established the Afghan Review Board. That 
process has resulted in the release of hundreds of detainees 
that we can directly track to attacks on our forces. I believe 
and I believe our Government shares my belief that this is a 
flagrant disregard of the principles outlined in the MOU.
    Do you have any ideas as to how we can in the BSA--or maybe 
it is envisioned in the BSA--that we can stop this release of 
these detainees who have attacked our military?
    General Campbell. Ma'am, thank you for the question.
    I have not looked at it in those terms. Certainly if 
confirmed, I will work with the interagency and the authorities 
that would be required to ensure that we can put some controls 
on that. I think every military person on the ground there is 
concerned with the recidivism rate of detainees that are 
released and that come back into the fight. I think that is 
something that we have to continue to work with the Afghan 
Government on. Right now, based on the authorities, it is their 
call. We can continue to show them why this particular 
individual and what they have done and provide them the 
evidence that we have of their wrongdoing. But in the end right 
now, that is ultimately their sovereign country and their 
decision to release. We can continue to advise and I will 
continue to do that if confirmed, ma'am.
    Senator McCaskill. I know we are in limbo now on the BSA 
because we are in limbo about who is going to lead the country 
and when we are going to know who is going to lead the country 
and whether or not Karzai's influence is going to continue to 
be significant.
    But I would think it would have a dramatic impact on the 
morale if we are capturing those who have killed our most 
precious resource in this country and then they open the doors 
a day later and let them out. I just want to be on record that 
I know I share with the members of this committee that we want 
to do anything we can to help make sure that that situation 
does not become the norm.
    General Campbell. Thank you, ma'am.
    Senator McCaskill. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    We thank you for your testimony, for your service. I hope 
we can get to, as we say, mark up your nominations very 
promptly and hopefully can get you through the confirmation 
process in the Senate very promptly. We will do our very best. 
You have great support on this committee, deservedly so. You 
have great support from your families, which make it possible 
for you to serve as you do. We thank you. We thank them.
    We will stand adjourned.
    [Whereupon, at 11:52 a.m., the committee adjourned.]

    [Prepared questions submitted to ADM William E. Gortney, 
USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Our Nation's military has been honed by decades of 
conflict, with our Armed Forces now operating at the highest degree of 
collaboration and cooperation that I have ever seen. I do not see the 
need for modification to any Goldwater-Nichols Act provisions.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Not applicable
                       duties and qualifications
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Northern Command (NORTHCOM)?
    Answer. The duties and functions of the Commander, NORTHCOM, 
include homeland defense, civil support, and security cooperation. The 
Commander is accountable to the President, the Secretary of Defense, 
and citizens of the United States to defend the Nation against external 
threats and aggression, or other threats as directed by the President. 
In addition, the commander is responsive to requests from lead Federal 
agencies for support during natural or man-made disasters when the 
capacity of local responders is exceeded. Finally, the commander is 
responsible for forging security relationships with our regional 
partners: Canada, Mexico, and The Bahamas.
    Question. What is your understanding of the duties and functions of 
the Commander, North American Aerospace Defense Command (NORAD)?
    Answer. Based on the longstanding partnership of binational 
cooperation in defense of North America, the responsibilities of the 
Commander, NORAD, include aerospace warning, aerospace control, and 
maritime warning. The Commander is accountable to the President of the 
United States and the Prime Minister of Canada for these 
responsibilities.
    Question. What background and experience do you possess that you 
believe qualify you to perform these duties?
    Answer. It has been my honor and privilege to dedicate 37-plus 
years of service to our great Nation. I believe the experience I've 
gained in a wide range of joint, coalition, and naval assignments has 
thoroughly prepared me to execute Commander of NORAD and NORTHCOM 
responsibilities, if confirmed. Of note, in my current assignment as 
Commander, U.S. Naval Forces Northern Command, I am General Jacoby's 
Naval Component Commander. I work alongside his other component 
commanders to integrate maritime capabilities into the NORTHCOM mission 
set. Additionally, as Commander, Naval Forces Central Command and 
Commander, U.S. Fifth Fleet, I served as the Naval Component Commander 
to Commander, U.S. Central Command, during the execution and support of 
missions in Afghanistan and Iraq; and I also led the navy element of 
the Combined Air Operations Center at the initiation of combat actions 
in Iraq. Lastly, my experience as Director of the Joint Staff 
reinforced the value of teamwork and close working relationships with 
the combatant commands, the Services, National Guard Bureau, Federal 
Reserve Forces, and the full spectrum of the interagency community in 
executing homeland defense, civil support, and security cooperation 
missions. Each of these assignments has given me a clear understanding 
of the value of combined and joint operations, particularly in time of 
crisis.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
NORTHCOM, and Commander, NORAD?
    Answer. If confirmed as Commander of NORTHCOM, I will aggressively 
pursue options to further expand my knowledge and experience levels in 
the Command's mission areas. Understanding that homeland defense is the 
first priority, I will build on NORTHCOM's decade of experience in 
developing trusted partnerships with domestic and hemispheric partners 
to defend the Nation in depth. I will ensure the Command is ready to 
support the Nation's call during natural or man-made disasters through 
established relationships with Governors and The Adjutants General, as 
well as leaders of primary Federal agencies, such as the Federal 
Emergency Management Agency. If confirmed as Commander of NORAD, I will 
build on my many years executing aerospace and maritime missions. As 
tasked in the NORAD agreement, the Command will continue to adapt to 
future shared security threats.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, 
NORTHCOM, to the following officials:
    The Secretary of Defense.
    Answer. The NORTHCOM Commander is responsible to the Secretary of 
Defense for missions assigned in the Unified Command Plan (UCP). The 
Commander of NORTHCOM retains title 10 authority under the direct 
control of the Secretary of Defense. If confirmed, I plan to work 
closely with the Secretary of Defense to ensure missions are executed 
consistent with the Secretary's intent and direction.
    Question. The Deputy Secretary of Defense.
    Answer. The NORTHCOM Commander coordinates with the Deputy 
Secretary of Defense on major homeland defense, civil support, and 
security cooperation issues. The Commander provides timely information 
on the Command's mission areas to the Deputy Secretary in alignment 
with the Secretary of Defense's direction.
    Question. The Under Secretary of Defense for Policy.
    Answer. The NORTHCOM Commander coordinates with the Under Secretary 
of Defense for Policy on strategic policy issues for homeland defense, 
defense support of civil authorities, and theater security cooperation. 
The Commander communicates NORTHCOM priorities in support of the Under 
Secretary's role as an advocate for the Command's requirements.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The NORTHCOM Commander coordinates with the Under Secretary 
of Defense for Intelligence to communicate the Command's intelligence 
requirements, obtain actionable threat estimates, and receive timely 
warning of threats against the homeland.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. The NORTHCOM commander works frequently with the Assistant 
Secretary of Defense for Homeland Defense and Americas' Security 
Affairs and the Assistant Secretary of Defense for International 
Security Affairs on significant matters regarding homeland defense, 
defense support of civil authorities, and theater security cooperation, 
while reporting directly to the Secretary of Defense.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. Although the Chairman of the Joint Chiefs of Staff is not 
in the chain of command from the NORTHCOM Commander through the 
Secretary of Defense to the President, title 10 directs communications 
from combatant commanders to flow through the Chairman. The Secretary 
may also delegate certain oversight activities of combatant commanders 
to the Chairman. If confirmed, I will closely communicate with the 
Chairman to enable him to fulfill his role as principal military 
advisor to the President, Secretary of Defense, and National Security 
Council.
    Question. The Secretaries of the Military Departments.
    Answer. The NORTHCOM Commander provides requirements to the 
Secretaries of the Military Departments so that the Commander is able 
to meet his missions of homeland defense, defense support of civil 
authorities, and theater security cooperation. The Secretaries resource 
the combatant command's requirements by organizing, training, and 
equipping Active and Reserve component forces.
    Question. The Chiefs of Staff of the Services.
    Answer. The NORTHCOM Commander communicates with the Service Chiefs 
and their respective Secretaries on the combatant command's mission 
requirements. The Chiefs provide forces to resource the Command's 
requirements in fulfillment of their Service responsibility to 
organize, train, and equip. The Commander also seeks the advice and 
judgment of the Chiefs on matters of mutual interest, including force 
protection within the NORTHCOM area of responsibility (AOR).
    Question. The other combatant commanders, particularly U.S. 
Southern Command (SOUTHCOM).
    Answer. The NORTHCOM Commander has regular dialogue with other 
combatant commanders and enjoys the benefits of common support, regular 
information exchange, and frequent personal interaction. The Commander 
of NORTHCOM has a uniquely close relationship with SOUTHCOM due to 
issues of mutual interest in the hemisphere. The NORTHCOM and SOUTHCOM 
commanders annually testify before this committee together. If 
confirmed, I will be committed to strengthening existing relationships 
with all combatant commanders.
    Question. The Chief of the National Guard Bureau.
    Answer. The NORTHCOM Commander coordinates closely with the Chief 
of the National Guard Bureau on matters concerning homeland defense and 
defense support of civil authorities. I believe a trusted relationship 
and strong teamwork between the Commander of NORTHCOM and the Chief of 
the National Guard Bureau are critical to the continued success of 
NORTHCOM mission accomplishment. If confirmed, I will be committed to 
building on an already strong relationship with the Chief of the 
National Guard Bureau.
    Question. The State Governors and Adjutants General.
    Answer. The NORTHCOM Commander maintains regular dialogue with 
State Governors and The Adjutants General and if confirmed, I will 
continue to build on the strong relationships established by General 
Jacoby. It is my understanding that the Command regularly hosts 
meetings with The Adjutants General and facilitates integration of 
Department of Defense (DOD) disaster response planning with State-level 
plans, consistent with the National Response Framework. As a Federal 
participant in the Council of Governors, the NORTHCOM Commander 
participates in twice-yearly council meetings, works to advance its 
initiatives, and reports progress on Command action items.
    Question. If confirmed, in carrying out your duties, how would you 
work with the Department of Homeland Security (DHS), the Homeland 
Security Council, and other Federal agencies, as well as State and 
local authorities and representatives from the private sector?
    Answer. If confirmed, I would make it a priority to expand my 
relationships with senior leaders in DHS, the National Security 
Council, other Federal agencies, State, local, and tribal authorities, 
and the private sector. I developed a close relationship with Secretary 
Johnson when I served as the Director of the Joint Staff, and if 
confirmed, I would continue to strengthen this particularly important 
relationship. I view this as essential because NORTHCOM's missions to 
defend the Homeland and provide support to civil authorities depend on 
solid, trusted partnerships. Through personal interaction, I would work 
closely with every relevant agency to ensure NORTHCOM is fully prepared 
to defend the homeland. I would do the same to provide defense support 
of civil authorities to the lead Federal agency, in accordance with the 
National Response Framework and at the direction of the President and/
or the Secretary of Defense.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Commander, NORTHCOM?
    Answer. Defense of the Homeland is inextricably linked to efforts 
in the forward regions. While defending forward is the preferred method 
to secure the Homeland, any retraction in forward regions must have a 
corresponding increase in requisite capability and capacity at home to 
balance global strategic risk. I believe the next NORTHCOM Commander is 
likely to be confronted by disparate threat streams, including violent 
extremist organizations intent on attacking the Homeland and weapons of 
mass destruction in the hands of rogue nations or violent extremists. 
Additionally, I believe the threats of cyber attack on institutions and 
critical infrastructure is real. Transnational criminal organizations 
and their associated global threat networks also pose a persistent 
threat to national security, manifested in violence carried out by 
transnational criminal organizations within Mexico and along the 
southwest border. Lastly, the next NORTHCOM Commander may be called to 
provide Department of Defense support to civil authorities (DSCA) in 
response to complex natural disasters.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will look to strengthen the partnerships 
built by my predecessors with the other combatant commands and the 
National Guard, as well as interagency, State, local, and international 
partners for a layered defense of the Homeland. I will advocate for 
resources to defend against these threats and ensure the Command's 
plans are robust enough to confront evolving threats. I will ensure the 
Command's exercise program is sufficiently structured to address the 
full spectrum of threats to the Homeland.
                    mission of u.s. northern command
    Question. What is the mission of NORTHCOM?
    Answer. NORTHCOM partners to conduct homeland defense, civil 
support, and security cooperation--particularly in managing the 
military-to-military relations with Canada and Mexico--to defend and 
secure the United States and its interests. The Command also advocates 
for Arctic capabilities as assigned in the UCP.
    Question. How does NORTHCOM's mission relate to the mission of DHS?
    Answer. NORTHCOM's mission is distinct, but related and 
complementary to the mission of DHS. DHS is responsible for preventing 
terrorism and enhancing security, securing and managing our borders, 
enforcing and administering our immigration laws, safeguarding and 
securing cyberspace, and strengthening national preparedness and 
readiness. NORTHCOM is responsible for detecting, deterring, and 
preventing external threats to the United States, and when directed by 
the President or Secretary of Defense, providing defense support of 
civil authorities. The Command's mission requires close coordination 
with DHS to provide whole-of-government approaches to protect and 
secure the Nation.
    Question. Are there circumstances under which you would anticipate 
NORTHCOM would have the lead Federal role in responding to a domestic 
terrorist incident or disaster consequence management response? Or do 
believe NORTHCOM would operate only in support of other Federal 
departments and agencies?
    Answer. The President may direct DOD into a lead role in defending 
the Nation, including the event of an armed terrorist attack. Since 
NORTHCOM is the combatant command responsible for the Homeland, the 
Command could be designated as the supported command. However, 
typically NORTHCOM would be in support of another Federal agency such 
as DHS or the Department of Justice in the event of a domestic 
terrorist event. For disaster consequence management, NORTHCOM is 
always in support of another Federal agency.
    Question. What responsibility, if any, does NORTHCOM have with 
respect to the Defense Critical Infrastructure Program?
    Answer. NORTHCOM is responsible for protecting defense critical 
infrastructure within its AOR necessary to support the projection of 
forces and capabilities used to seize the initiative and conduct 
decisive operations. To accomplish this task, NORTHCOM, in 
collaboration with its mission partners, identifies and prioritizes the 
physical infrastructure and associated network assets, national and 
commercial, critical to the successful execution of our operational 
plans. If confirmed, I will be responsible for developing mitigation 
plans for all defense critical assets in the NORTHCOM AOR to ensure 
mission continuity.
                       organization and authority
    Question. NORTHCOM has been assigned responsibility for force 
protection and antiterrorism within its AOR.
    What actions would you take, if confirmed, to mitigate force 
protection vulnerabilities, and what force protection challenges do you 
anticipate you would face within NORTHCOM's AOR?
    Answer. If confirmed, I will assess ongoing efforts to improve 
information sharing, both within DOD and with our interagency partners, 
to detect emerging threats and synchronize the collective efforts of 
the Department to protect the force, our critical mission capabilities, 
and the Nation. Recent shootings on DOD installations and the Federal 
Bureau of Investigation arrest of individuals who had intended to cause 
us harm, continue to remind us of the force protection challenges we 
face. Our security environment is always changing and we must be ready 
to challenge assumptions, think creatively, and meet future threats.
    Question. What actions would you take, if confirmed, to ensure 
efficiency in the use of funding for force protection and to prevent 
unnecessary duplication of efforts between NORTHCOM, the Military 
Services, and the office of the Assistant Secretary of Defense for 
Homeland Defense?
    Answer. If confirmed, I will ensure that we are properly postured 
to defend the Homeland in a fiscally responsible manner. I will work 
with the Joint Staff, the Services, and the Assistant Secretary of 
Defense for Homeland Defense and Americas' Security Affairs to address 
limited resources and eliminate duplication of effort, while sustaining 
a baseline force protection posture.
    Question. What specific forces, if any, have been assigned to 
NORTHCOM?
    Answer. The specific forces assigned to NORTHCOM are the 
headquarters staff and the forces from certain subordinate and 
component commands including U.S. Army North, U.S. Naval Forces 
Northern Command, Marine Forces North, Air Forces Northern, Joint Task 
Force North, Joint Task Force Civil Support, Joint Task Force Alaska, 
and Joint Force Headquarters National Capital Region. Recently (within 
the past few months), the Secretary of Defense assigned five tactical-
level Army brigade and battalion-level Combat Service Support units to 
NORTHCOM to support execution of any short-notice homeland defense or 
defense support of civil authorities missions.
    Question. How has the assignment of forces to NORTHCOM changed 
since NORTHCOM was established on October 1, 2002?
    Answer. Since establishment, the increase in the number of 
permanently assigned forces to NORTHCOM has significantly improved the 
capability of the Command to conduct its highest priority missions. 
Subordinate Army, Navy, Marine, and Air Force Service component command 
headquarters are focused on homeland defense, defense support of civil 
authorities, and theater security cooperation in the NORTHCOM AOR. The 
other assigned joint task forces I mentioned in the previous question 
provide geographic and functional mission expertise. Each of these 
headquarters and forces have allowed NORTHCOM to more effectively plan 
and execute missions in defense of the Homeland and in support of the 
American people in time of need.
                north american aerospace defense command
    Question. What is the mission of the NORAD?
    Answer. NORAD conducts aerospace warning, aerospace control, and 
maritime warning in the defense of North America. Aerospace warning 
includes the detection, validation, and warning of attack against North 
America whether by aircraft, missiles, or space vehicles, through 
mutual support arrangements with other commands. Aerospace control 
includes ensuring air sovereignty and air defense of the airspace of 
the United States and Canada. Maritime warning consists of processing, 
assessing, and disseminating maritime intelligence and information, and 
warning or advising the Governments of the United States and Canada of 
maritime threats to, or attacks against, North America.
    Question. How has NORAD's mission evolved since the creation of 
NORTHCOM?
    Answer. Since NORTHCOM was established in 2002, NORAD's mission has 
evolved to include a maritime warning mission. This new mission 
includes dissemination of intelligence and information on maritime 
threats in the approaches to the United States and Canada. NORAD's 
traditional aerospace warning mission has always included warning 
against aircraft, missiles, or space vehicles, and this critical 
information is now also used to support NORTHCOM's operation of the 
Ground-Based Midcourse Defense System.
    Question. How does NORAD's mission relate to NORTHCOM's mission?
    Answer. The commands' missions, though distinct and derived under 
separate authorities, are interconnected and complementary. The 
commands share a common security environment, have largely integrated 
staffs, and enjoy close coordination with one another.
    Question. How does NORAD's mission relate to the mission of DHS?
    Answer. NORAD supports the mission of DHS by detecting and 
deterring threats in the aerospace domain. Additionally, in accordance 
with the National Maritime Domain Awareness Plan, NORAD collaborates 
and shares information with DHS as part of a global maritime community 
of interest, developing a shared understanding of the maritime 
operational environment.
    Question. Do you believe that NORAD should continue to have a 
combined operations and planning staff, and a consolidated command 
center, with NORTHCOM? Why or why not?
    Answer. While I am not deeply familiar with the staff arrangements 
or the operation of the consolidated command center, I generally 
believe integration results in greater effectiveness and efficiency. I 
understand the commands are distinct, yet the staffs are fully 
integrated except for the operations directorates. If confirmed I will 
review the current structures and look for opportunities to improve 
operational effectiveness.
    Question. What is the relationship of the Commander of NORAD to the 
Canadian component of NORAD, and what role does Canada play in NORAD 
operations and planning?
    Answer. The United States-Canada NORAD Agreement is the gold 
standard for cooperation between nations on common defense. As NORAD is 
a bi-national command, Commander NORAD is responsible to the senior 
defense leadership in both the Government of the United States and the 
Government of Canada. Commander NORAD exercises operational control 
over forces provided by both countries to accomplish NORAD's missions. 
The Canadian NORAD Region provides command and control of forces in 
Canada that support NORAD's missions. At the headquarters level, 
representatives from both countries work side-by-side in the planning 
and execution of NORAD's missions.
                       northcom joint task forces
    Question. Since the establishment of NORTHCOM, several multi-
service task forces, e. g., Joint Task Force-Civil Support (JTF-CS), 
Joint Task Force-North (JTF-North), have been placed under its 
authority.
    What is the current status of the Joint Task Force organizations 
under NORTHCOM in terms of mission, organization, planning, personnel 
allocation, and capability?
    Answer. NORTHCOM has four task forces that operate under NORTHCOM's 
authority. These task forces are manned to conduct homeland defense and 
defense support of civil authorities operations, as directed by the 
President or the Secretary of Defense.
    One joint task force, Joint Task Force Civil Support, is aligned 
under NORTHCOM's Army component command, U.S. Army North. It provides 
command and control of DOD incident management forces responding to 
chemical, biological, radiological, and nuclear events.
    A second task force, Joint Task Force North (JTF-N), was recently 
realigned from U.S. Army North to headquarters NORTHCOM as the 
command's counter-transnational organized crime lead. Presently, JTF-N 
leads DOD counterdrug operations in support of law enforcement agencies 
within the NORTHCOM AOR. Their main areas of support at present are the 
southwest border, Puerto Rico, and The Bahamas, based on law 
enforcement priorities.
    Additionally, NORTHCOM's Joint Force Headquarters National Capital 
Region is postured to provide land-based homeland defense, civil 
support, and incident management in the National Capital Region.
    NORTHCOM also has Joint Task Force Alaska responsible for homeland 
defense and civil support tasks in their Joint Operations Area. Joint 
Task Force Alaska provides the Command's primary subject matter experts 
for Arctic matters.
                 u.s. special operations command, north
    Question. On December 31, 2012, the Secretary of Defense 
established a Theater Special Operations Command to support NORTHCOM, 
known as Special Operations Command North (SOCNORTH). According to the 
Secretary's memorandum, SOCNORTH's objective is to ``enhance command 
and control of Special Operations Forces throughout the NORTHCOM AOR'' 
as well as ``improve support to interagency counterterrorism 
operations.''
    What is your understanding of current and planned manning, 
organization, and mission of SOCNORTH?
    Answer. I understand SOCNORTH was stood up from existing NORTHCOM 
manpower and has been augmented by United States Special Operations 
Command (SOCOM) personnel realigned from headquarter SOCOM staff. 
Current permanent manning is less than 50 individuals. I believe the 
final size of SOCNORTH has not been determined, but understand it 
should top out at just over 100 permanently assigned personnel, with 
augments and interagency liaisons adding approximately 10-20 personnel.
    Question. What is your understanding of the current requirements 
for Special Operations Forces in the NORTHCOM AOR?
    Answer. Since the establishment of NORTHCOM in 2002, there has been 
a gap in the capability to command and control Special Operations 
Forces operating in the NORTHCOM AOR. The establishment of SOCNORTH has 
afforded the command increased accountability of actions and developed 
a hub for special operations capabilities for NORTHCOM. SOCNORTH works 
with allies and partners to expand interoperability.
    Question. What is your understanding of how SOCNORTH is to 
``improve support to interagency counterterrorism operations''?
    Answer. It is my understanding the establishment of SOCNORTH 
provides a ``single point of entry'' for Federal counterterrorism 
agencies to coordinate on NORTHCOM AOR-specific challenges. This 
synergy is already evident, as improved relationships with the Federal 
Bureau of Investigation, Department of Energy, and others have been 
demonstrated through exercise collaboration and various workshops. I 
believe DOD/interagency collaboration and cooperation are the keys to 
protecting the Homeland. SOCNORTH, as an integral node of the global 
SOF network, provides NORTHCOM with facilitated access to additional 
intelligence and information resources.
                       counter-narcotics efforts
    Question. Each year DOD spends several hundred million dollars to 
counter the flow of illegal drugs into the United States, yet the 
availability of drugs on the street has not been significantly reduced, 
and some countries continue to face internal security challenges in 
responding to this threat. Some of these funds are executed within the 
NORTHCOM AOR, and some have questioned the effectiveness and focus of 
our counter-narcotics programs.
    What is your view of the appropriate role of DOD in countering 
transnational drug cartels and gangs?
    Answer. In my view, the current role of DOD in a support role to 
law enforcement is appropriate. DOD largely supports U.S. law 
enforcement agency (LEA) efforts to counter transnational drug cartels 
and gangs through information sharing, detection and monitoring illicit 
trafficking, and analytical support. In addition, DOD is helping 
partner countries build capacity to address narcotics trafficking and 
related transnational organized crime within their borders.
    Question. What role does NORTHCOM play in the Defense Department's 
overall counterdrug mission and organization?
    Answer. NORTHCOM supports the Department's global counterdrug 
mission, cooperating closely with U.S. Southern Command (SOUTHCOM) and 
U.S. Pacific Command (PACOM) through information sharing and 
situational awareness of drug-related threats to national security. 
NORTHCOM provides DOD support to domestic law enforcement agencies in 
counternarcotics operations. NORTHCOM also works with Mexican military 
and civil authorities to enhance their capability. NORTHCOM partners 
with Mexico, Canada, and The Bahamas to build capability and capacity 
to fight drug trafficking organizations.
    Question. What is your assessment of the ongoing counter-narcotics 
operations within the NORTHCOM AOR and the geographic seam NORTHCOM 
shares with SOUTHCOM?
    Answer. My understanding is that ongoing counternarcotics 
operations with interagency and host nation partners in the NORTHCOM 
AOR are appropriately focused. The geographic border NORTHCOM shares 
with SOUTHCOM is a key route for drugs entering Mexico en route to the 
United States. I believe that the two commands collaborate closely on 
this issue and work hand-in-hand with the Nations on Mexico's southern 
border. If confirmed, I will continue this coordination to ensure a 
seamless effort across the border between the two AORs, to include 
further strengthening the relationships among Joint Interagency Task 
Force South, NORTHCOM's Intelligence Directorate, and Joint Task Force 
North.
    Question. How would you recommend that the success of the 
Department's counternarcotics programs be measured?
    Answer. One of the primary things I've learned in my career is that 
program success directly correlates with an ability to measure 
performance against programmatic goals, which for counternarcotics (CN) 
programs stem from several sources, including the National Security 
Strategy, the National Drug Control Strategy, and the Strategy to 
Combat Transnational Organized Crime are realized in NORTHCOM's Theater 
Campaign Plan. It is my understanding that performance measurement has 
been a point of emphasis for the Department's CN program, and NORTHCOM 
already has a clear understanding of what desired outcomes most 
directly contribute to the national strategy.
    I believe what is most critical here is to continue to develop, 
collect, and analyze operational outputs to better measure the desired 
outcomes of reducing the flow of drugs into the United States and to 
diminish the national security threat of transnational organized crime 
in our Hemisphere.
    Question. Compared to other missions that you would be responsible 
for as Commander, NORTHCOM, if confirmed, where would you rank 
counternarcotics in terms of its contribution to our national security 
and the ability of DOD to make a meaningful contribution?
    Answer. I would rank the counternarcotics mission as a critical 
enabler to the defense of the Homeland, as it supports the development 
of trust and confidence with critical mission partners through combined 
training opportunities and information sharing. In addition, it 
provides early warning of potential threats through enhanced 
information and intelligence sharing. I believe it's critical that we 
constantly evaluate the operational intersects between varying criminal 
organizations and terror networks to determine threats to national 
security and prevent attacks in the Homeland.
             security relationships with canada and mexico
    Question. The NORTHCOM AOR includes the land areas of the United 
States, Canada, and Mexico. The binational NORAD Command ensures close 
cooperation between the United States and Canada on security matters. 
NORTHCOM has been working with the Mexican military on security 
cooperation related to Mexico's efforts to counter Transnational 
Criminal Organizations that are involved in trafficking and causing 
extraordinary violence. Joint Task Force North (JTF-N) has established 
itself as a active partner with U.S. law enforcement, mitigating cross 
border threats posed by trafficking in narcotics, weapons, and humans.
    What is your assessment of the current security relationship 
between the United States and Canada?
    Answer. I believe our security relationship with Canada is 
exceptional in all facets. The NORAD agreement exemplifies the mutual 
trust and confidence our Nations have in each other that NORAD forces 
execute every day. Canada has been a vital partner in the North 
Atlantic Treaty Organization and has played a critical role in the 
International Security Assistance Force's work in Afghanistan. I 
understand NORTHCOM enjoys a very strong relationship with its Canadian 
counterpart, Canadian Joint Operations Command. If confirmed, I look 
forward to advancing and strengthening this long-standing partnership.
    Question. What is your assessment of the current security 
relationship between the United States and Mexico?
    Answer. In my view, the security relationship between the United 
States and Mexico has never been stronger. General Jacoby has set the 
stage for historic growth in the levels of cooperation and trust. Just 
a couple of weeks ago, I hosted the Mexican Secretary of the Navy at 
Norfolk, and I can attest that we can have as honest a dialog on 
security issues as we do with any of our allies. NORTHCOM has witnessed 
an exponential increase by the Mexican military in requests for 
training, subject matter expert exchanges, and U.S. equipment purchases 
through Foreign Military Sales. If confirmed, I will continue to 
capitalize on the personal and professional relationships established 
by my predecessors, and those I established as NORTHCOM's naval 
component.
    Question. What is your assessment of the security challenges to the 
United States posed by Transnational Criminal Organizations (TCOs) in 
Mexico?
    Answer. I agree with the President that TCOs ``constitute an 
unusual and extraordinary threat to national security, foreign policy, 
and economy of the United States . . . '' POTUS Executive Order, July 
2011. The more we learn about TCOs in Mexico, the more we come to 
understand that they operate across a broad spectrum of illicit 
activities that goes beyond drugs, to include human smuggling, human 
trafficking, weapons trafficking, illicit financing, coercion and 
corruption of public officials and erosion of the rule of law. Clearly 
drug demand in the United States fuels their capabilities. Mexico based 
TCOs have influence that extends into hundreds of U.S. cities. This 
presents a substantial security challenge.
    Question. What is your assessment of the security situation along 
the U.S.-Mexico border?
    Answer. I would defer to DHS for assessment of the security 
situation along the U.S.-Mexico border. Nonetheless, I understand 
NORTHCOM monitors threat intelligence to ensure we are prepared for any 
threat that may seek to exploit border vulnerabilities. NORTHCOM is a 
committed partner in this effort on both sides of the border. I believe 
security on the border is measured in degrees, and the Nation should 
never be satisfied that the border is secure enough. If confirmed, I 
look forward to working with DHS, our Mexican partners, and others in 
the interagency community and, when directed by the President or the 
Secretary of Defense, providing requested military support.
    Question. Would you characterize NORTHCOM's efforts to protect our 
southern border, specifically JTF-N's countering of TCOs, as a success?
    Answer. Yes. NORTHCOM and its subordinate command Joint Task Force 
North (JTF-N) bring military-unique capabilities to bear against 
Transnational Criminal Organizations in alignment with the priorities 
of DHS. JTF-N operations also provide tasked units with valuable and 
relevant training benefits.
    Question. What is your understanding of NORTHCOM's support to civil 
authorities operating along the southern border, including the current 
DOD support to the Department of Health and Human Services in providing 
temporary housing for unaccompanied immigrant children coming across 
the border?
    Answer. NORTHCOM supports civil authorities, principally the DHS, 
when directed by the President or the Secretary of Defense. NORTHCOM 
partners with U.S. Customs and Border Protection and other interagency 
community partners to provide DOD capabilities along the U.S. southern 
border in accordance with DHS priorities.
    DOD has been supporting DHS and the Department of Health and Human 
Services (HHS) in responding to the unaccompanied children coming 
across the border. Commander, NORTHCOM, is designated as the supported 
commander for DOD's efforts to provide temporary housing, 
transportation, and planning support to the Primary Agencies (DHS and 
HHS) for assistance in resolving the situation. In my current capacity 
as NAVNORTH, monitoring current efforts has been part of our daily 
battle rhythm.
    Question. What improvements in border protection capability, if 
any, would you recommend?
    Answer. Since DHS is the lead Federal agency responsible for 
advocating for border protection capabilities, I would defer this 
question to DHS. If confirmed, I look forward to partnering with DHS to 
support their efforts on the border, and will look to support requests 
where unique military skills and capabilities can be incorporated into 
law enforcement partner border operations.
    Question. If confirmed, what would be your goals as Commander of 
NORTHCOM for improving security relations with Mexico, and how would 
you plan to achieve them?
    Answer. If confirmed, my primary goal will be to stand with the 
Mexican military to combat mutual security threats, while always fully 
respecting Mexican sovereignty. Thanks to General Jacoby, NORTHCOM 
enjoys an unprecedented level of dialog with both SEDENA [Secretariia 
de la Defensa Nacional] and SEMAR [Secretariia de Marina] leadership. 
Using the current authorities granted to NORTHCOM, if confirmed, I plan 
to further cement this relationship. Specific goals that I would focus 
on to improve security relations are enhancing support to Mexico's 
strategy to improve security along its southern border with Guatemala 
and Belize, ensuring requested equipment and training are delivered in 
the most efficient manner possible, and assisting with opportunities to 
expand Mexico's regional and global posture.
                        unmanned aerial vehicles
    Question. Unmanned Aerial Vehicle (UAV) flight within the 
continental United States is severely restricted including portions of 
the Canadian and Mexican borders. The Federal Aviation Administration 
is studying how to integrate unmanned systems and conventionally 
piloted aircraft in the same airspace.
    In your view, have airspace restrictions on unmanned aerial systems 
hindered the development and evolution of these aircraft?
    Answer. No. The Federal Aviation Administration, Office of 
Secretary of Defense, and the Services are aggressively pursuing 
efforts to fully integrate unmanned aerial systems (UAS) into the 
National Airspace System, allowing UAS to be available to support 
NORTHCOM's missions of homeland defense and defense support of civil 
authorities. The development and evolution of these platforms has been 
unimpeded.
    Question. Would you recommend opening larger parcels of airspace 
within the continental United States to UAS/UAV overflight?
    Answer. Not at this time. However, the NORTHCOM is currently 
conducting a joint test to validate airspace and flight procedures for 
UASs to operate safely within National Airspace System.
                 u.s. northern command-state relations
    Question. NORTHCOM has the primary military responsibility to 
provide Defense Support of Civil Authorities (DSCA) when directed by 
the President and the Secretary of Defense, including consequence 
management operations. Such military assistance would support Federal 
assistance to State and local emergency response units.
    What is your understanding and assessment of NORTHCOM's awareness 
and coordination for the support of the emergency response capabilities 
and contingency plans of the States and territories before a crisis 
arises?
    Answer. NORTHCOM coordinates with the States mainly through two 
avenues: the Federal Emergency Management Agency (FEMA) and its FEMA 
Regional Headquarters and also the National Guard Bureau to individual 
State National Guard Joint Force Headquarters. NORTHCOM also has 
liaison personnel from various Federal agencies that greatly assist in 
interagency emergency response capability awareness efforts. It has 
been my experience during my tours as Director of the Joint Staff and 
as Commander, U.S. Fleet Forces Command that NORTHCOM has leveraged 
these avenues to develop good relationships with key response partners 
and to gain visibility on their planning and plans.
    Question. In your view, do NORTHCOM's plans, policies, and programs 
optimize DOD's consequence management support to civil authorities?
    Answer. It is my observation that NORTHCOM has worked diligently to 
ensure its civil support mission area plans, policies, and programs are 
appropriately supporting civil authorities. Of note, NORTHCOM has 
integrated its civil support planning with FEMA's Regional Planning and 
has significantly enhanced its relationships with key partners through 
planning, training, and exercises. As with any endeavor, there are 
often opportunities for additional improvement, and if confirmed, I 
will work to that end.
    Question. If not, and if confirmed, how would you ensure that 
NORTHCOM has sufficient knowledge of State and inter-State emergency 
response capabilities, including capabilities of National Guard units, 
capabilities of title 10 regular and Reserve component forces, and a 
good working relationship with State emergency response leaders?
    Answer. If confirmed, I plan to extend my predecessor's work to 
develop ``playbooks'' for foreseeable emergency response situations in 
the States. Additionally, I will look to enhance relationships with 
defense coordinating officers, State emergency management officials, 
and the States' National Guards through the National Guard Bureau. 
Finally, if confirmed, I would continue to advance the Dual Status 
Commander program as the usual and customary command arrangement to 
achieve unity of effort between Federal and State military forces in 
the event of a domestic disaster requiring support from DOD.
 process for defense support of civil authorities requests and funding
    Question. What is your understanding and assessment of the policies 
and procedures by which States and territories request, employ, and 
fund Defense Support of Civil Authorities (DSCA), including 
reimbursement of DOD for operations in support of the States?
    Answer. As I understand them, current policies and processes 
provide for the Governor of an affected State to request Federal 
assistance from the President via a formal Disaster Declaration. This 
enables a lead Federal agency, usually DHS/FEMA, to request DOD 
assistance for the affected area or State, and the Secretary of Defense 
will normally direct NORTHCOM to provide the requested capability. In 
such cases, DOD is appropriately reimbursed via the Stafford Act. There 
are also mechanisms, prior to or in the absence of a Presidential 
Disaster Declaration, for providing DOD assistance to local civil 
authorities under Immediate Response Authority to save lives, prevent 
human suffering and mitigate great property damage. Additionally, DOD 
may provide assistance under the Economy Act as requested between 
Federal agencies.
    Question. If confirmed, what policy or procedural changes would you 
propose, if any, for the processes for requesting, employing, and 
determining funding sources for DSCA?
    Answer. I do not see a need in the near future to propose any 
policy or procedural changes with respect to funding sources for 
defense support of civil authorities.
                      force provision for northcom
    Question. NORTHCOM has the mission of conducting military 
operations for homeland defense and, when directed by the President or 
Secretary of Defense, for providing military assistance to civil 
authorities, including consequence management for natural disasters and 
Chemical, Biological, Radiological, and Nuclear (CBRN) incidents. Yet 
NORTHCOM has relatively few military forces assigned to it on a 
permanent basis.
    What is your understanding and assessment of how forces are 
allocated or planned to be allocated to NORTHCOM for its full range of 
mission requirements?
    Answer. Forces and authorities are provided in relevant Joint Staff 
Execute Orders (EXORDs), which have been approved by the Secretary of 
Defense. Forces required for these EXORDs are requested in accordance 
with Global Force Management (GFM) policies and procedures. NORTHCOM 
then receives trained and ready forces necessary to execute these 
EXORDs for its full range of mission requirements.
    Question. If confirmed, how do you intend to ensure that NORTHCOM 
will have sufficient forces available to it, properly trained and 
equipped, to accomplish its assigned missions?
    Answer. If confirmed, I will work with the Joint Staff and the 
Services to ensure NORTHCOM force requirements can be met in support of 
its UCP-assigned missions.
    Question. If confirmed, how will you monitor the personnel, 
equipment and training readiness of U.S. military forces (Active and 
Reserve) for homeland defense mission-essential tasks in support of 
NORTHCOM's contingency plans, and for its DSCA missions?
    Answer. If confirmed, I will use the standing Force Allocation 
Process to identify NORTHCOM's force requirements for assigned 
missions. In coordination with the joint force providers, I will employ 
the Chairman's Readiness System to ensure NORTHCOM's mission 
requirements, capabilities, and shortfalls are properly reflected and 
assessed in the Defense Readiness Reporting System.
                       northcom-dhs relationship
    Question. DHS is still a relatively new Federal agency, and is 
continuing to improve its ability to meet its homeland security 
missions.
    As DHS improves and matures its homeland security capabilities, do 
you expect that will reduce the demands on NORTHCOM to provide DSCA, 
including support for crisis response planning?
    Answer. I believe NORTHCOM has an enduring mission to provide DOD 
capabilities to civil authorities, as an integral component of the 
National Preparedness System. I expect that the planning for and 
response to complex natural or manmade disasters will remain whole of 
community efforts. My view is DOD and NORTHCOM will continue to have a 
supporting role in those efforts.
    Question. What do you consider to be the appropriate role for DOD 
and NORTHCOM's vis-a-vis DHS and State authorities in identifying and 
validating the dual-use equipment and other requirements associated 
with defense and homeland security missions?
    Answer. I defer to the Secretary of Defense on formal dual use 
equipment policy. However, I think the current role is appropriate, 
wherein NORTHCOM, in coordination with other DOD entities, identifies 
dual-use equipment needed to support civil authorities in natural or 
man-made disasters.
    Question. By what process should DOD define requirements for the 
armed services to train and equip forces that NORTHCOM would use to 
support to civil authorities?
    Answer. The Services are responsible to organize, train, and equip 
forces for combatant command missions. For DSCA, the Chairman of the 
Joint Chiefs of Staff, with the approval of the Secretary of Defense, 
publishes DSCA orders that capture the relevant requirements for 
Service programs. In addition, the elements of the Chemical, 
Biological, Radiological, and Nuclear Response Enterprise undergo a 
training and exercise evaluation program that is developed and executed 
in close coordination among NORTHCOM, the National Guard Bureau, and 
the Services in their title 10 U.S.C. ``train and equip'' 
responsibilities. This program ensures the entire enterprise is trained 
and equipped in a way that ensures a high state of readiness, but which 
is also standardized and aligned to ensure units are interoperable and 
able to integrate during execution.
                             national guard
    Question. There is still debate about the role the National Guard 
should play in homeland security and defense. In an April 21, 2008 
letter to the committee concerning the recommendations of the 
Commission on the National Guard and Reserves, Admiral Mullen, the 
Chairman of the Joint Chiefs of Staff, wrote that, ``I have some 
concerns about the Commission's ideas on enhancing the Defense 
Department's role in the Homeland. While Reserve component civil 
support requirements are important, they should not be of equal 
importance to DOD combat responsibilities.''
    Do you agree with this view of Admiral Mullen?
    Answer. Yes. The principal duty of the Armed Forces is to defend 
the Nation. Civil support is a vital responsibility, but secondary to 
fighting and winning the country's wars.
    Question. Do you believe that defending the Homeland or civil 
support should become the National Guard's primary missions?
    Answer. I believe the National Guard remains a critical component 
of the Total Force and should be oriented to the DOD's priorities and 
the three pillars emphasized in the Defense Strategy: homeland defense, 
building global security, and projecting power and winning decisively.
    Question. What is the current status of the working relationship 
between NORTHCOM, the National Guard Bureau, and individual State 
National Guard headquarters?
    Answer. General Jacoby has forged incredible partnerships between 
NORTHCOM, the National Guard Bureau, and The Adjutants General. If 
confirmed, I will endeavor to continue this legacy through regular 
coordination and engagement.
    Question. If confirmed, what type of liaison relationships for 
planning and operational purposes would you advocate between NORTHCOM, 
DHS, the National Guard Bureau, Federal, State, and local first 
responders, and National Guard units under State authority?
    Answer. If confirmed, I would enhance existing liaison 
relationships that NORTHCOM currently employs with these organizations 
and where appropriate, build new liaison relationships with key mission 
partners. In general, I believe liaison officers must be empowered and 
prepared to build relationships, conduct mutual planning, and 
transition seamlessly to cooperative execution.
 distribution of national guard end strength and force structure among 
                               the states
    Question. What is your understanding and assessment of the 
distribution of responsibility and authority for the measurement and 
analysis of requirements and risk, course of action development, 
recommendation, and decision for the distribution of Army and Air 
National Guard end strength and force structure among the States and 
territories?
    Answer. If confirmed, my first and foremost responsibility as a 
combatant commander will be to assess and determine the mission 
requirements for homeland defense and defense support of civil 
authorities. I am very confident the Secretaries of the Army and the 
Air Force, their respective Service Chiefs and the Chief of the 
National Guard Bureau will effectively train, equip, and make available 
the very best forces to meet the mission requirements for NORAD and 
NORTHCOM.
    Question. In your view, does this distribution appropriately assign 
responsibility and authority among national civilian leaders and 
military staff? Does this distribution of responsibility and authority, 
and the analysis and decisionmaking process, provide an appropriate 
level of transparency and openness that takes into account the risks 
and requirements of the States and territories?
    Answer. It is my view that we have established the necessary 
balance within the Department to ensure appropriate distribution of 
responsibilities and authorities between our civilian and military 
decisionmakers. I am confident our DOD planning and budgeting processes 
afford required transparency and openness, while addressing risk and 
requirements within the current fiscal environment.
    Question. If confirmed, what changes, if any, would you recommend 
to the allocation of responsibility and authority, or the analytical 
and decisionmaking processes, for the distribution of National Guard 
end strength and force structure among the States and territories?
    Answer. If confirmed, I believe my role as the NORAD and NORTHCOM 
commander is to determine required capabilities for homeland defense 
and defense support to civil authority mission areas. Whether Active 
Duty, National Guard, or Reserves, I am confident the Service 
Secretaries and Chiefs of Staff, along with input from the Chief of the 
National Guard Bureau, will establish the proper force structure and 
end strength to support the vital missions of NORAD and NORTHCOM.
    Question. In your view, is the current allocation of National Guard 
end strength, force structure, capacities and capabilities among the 
States and territories appropriate to their historical requirements and 
risks? If not, and if confirmed, what changes would you propose to the 
allocation to best or better deal with the challenges of historical 
requirements and risk?
    Answer. I believe civilian and military leadership will balance 
requirements and risks within the present fiscal environment in order 
to ensure we can defend the Nation and respond during natural and man-
made disasters. If confirmed, my role as a combatant commander will be 
to work with the Services and National Guard Bureau to ensure NORAD and 
NORTHCOM mission requirements are addressed in the Total Force planning 
calculus.
                  army aviation restructure initiative
    Question. What is your understanding and assessment of the Army's 
Aviation Restructure Initiative and its potential impact on the 
capability and capacity of DOD and the States and territories to deal 
with domestic emergencies or provide DSCA?
    Answer. I believe this Army initiative attempts to meet budgetary 
limits, while maximizing readiness across the Total Force and improving 
States' ability to respond to domestic emergencies and provide support 
to civil authorities. From my perspective, airlift capabilities 
supporting rescue, evacuation, personnel movement, and logistical 
transport are critical to success when providing defense support of 
civil authorities. Additionally, increasing airlift capabilities, such 
as Black Hawk helicopters, resident in the National Guard, gives 
Governors and The Adjutants General ready access to a capability that 
should improve States' capacity to respond to natural or manmade 
disasters.
    Question. One feature of the Aviation Restructure Initiative would 
transfer all Army National Guard AH-64 Apache attack helicopters to the 
regular army by the end of fiscal year 2019.
    What is your understanding and assessment of the relevance and 
utility of the Apache attack helicopter to the aviation requirements 
needed to support civil authorities for domestic emergencies or crises? 
In your view, are there any capabilities of the Apache helicopter 
relevant to support for civil authorities that are not or cannot be 
provided by other aviation platforms in the National Guard?
    Answer. In my view, the Apache attack helicopter has limited value 
when conducting the defense support of civil authorities (DSCA) 
mission. In a DSCA role, the Apache does not meet the most crucial 
rotary wing aviation mission needs for airlift to support rapid 
movement of people and supplies.
  chemical, biological, radiological, or nuclear response capabilities
    Question. NORTHCOM has two primary missions: Homeland Defense and 
DSCA, including preparation for and response to an incident or attack 
involving CBRN materials or weapons, in the NORTHCOM AOR.
    If confirmed, how would you approach the challenge of ensuring 
adequate military forces, capabilities, and plans to respond to such 
incidents in support of civil authorities?
    Answer. If confirmed, I will work closely with the Joint Staff, 
Services, National Guard Bureau, and The Adjutants General to ensure 
adequate forces are assigned or allocated to this mission and that they 
are properly trained, resourced, and tested by robust exercise programs 
in order to answer the call, if needed.
    Question. If confirmed, how would you plan to manage this mix of 
capabilities to ensure the best possible response force to support 
civil authorities in the event of a CBRN incident, and to avoid 
unnecessary duplication?
    Answer. I understand the organizations designed to respond to a 
CBRN incident are structured to provide a graduated response capable of 
responding to a range of scenarios. Some are Federal forces, while 
others are National Guard forces typically under the control of State 
governors. Each echeloned element is designed to respond under 
different timelines to build upon and integrate with the others to 
provide capability to civil authorities.
    If confirmed, I will work closely with the Joint Staff, Services, 
National Guard Bureau, and the States to ensure all forces designed to 
accomplish this mission are properly manned, trained, equipped to 
execute it, and that timelines and command and control relationships 
are appropriate.
    Question. What is your assessment of the ability of the revised DOD 
Consequence Management Response Forces (DCMRF), as currently 
constituted, to provide a significant capability to support Federal 
civil authorities in the event of a CBRN incident?
    Answer. The Federal military's Defense CBRN Response Force (DCRF) 
is one element (5,200 personnel) of the larger combined Federal title 
10 and State National Guard CBRN Response Enterprise (over 18,000 
personnel total). The DCRF represents an extremely capable force within 
that Enterprise. It has the highest density of critical lifesaving 
capabilities within the Enterprise, consisting of ground search and 
rescue; decontamination; emergency medical triage, treatment and 
stabilization; and ground and air medical evacuation. This capability 
has two force packages ready to deploy within 24 hours and 48 hours, 
respectively, providing the Nation with a rapid response and highly 
trained technical response force. If confirmed, I will report this 
committee if I determine there are any significant concerns with this 
vital capability.
    Question. How would you ensure the necessary level of coordination 
and planning between the DCMRF and National Guard Homeland Response 
Forces to ensure an adequate response to a CBRN incident?
    Answer. If confirmed, I intend to sustain NORTHCOM's close 
relationship with the National Guard Bureau (NGB), and through the NGB, 
with State National Guard Joint Force Headquarters. It is my 
understanding that these relationships are as strong as they have ever 
been--in large part due to General Jacoby's leadership. It is through 
these relationships and through close coordination with our partners 
that we achieve the alignment of efforts that will synchronize 
operations during plan execution.
    Question. Do you believe that U.S. military forces providing DSCA 
in the event of CBRN incidents should be under the command of the 
Commander, NORTHCOM?
    Answer. Yes. I believe Federal military forces conducting defense 
support of civil authorities missions should remain under the command 
of the Commander, NORTHCOM. Federal military forces responding to a 
chemical, biological, radiological, or nuclear incident do so in 
support of the lead Federal agency and at the request of State 
governors. I support the Dual Status Commander arrangement as the usual 
and customary way to command and control Federal military and non-
Federalized State National Guard forces to achieve unity of effort 
amongst forces assigned to these distinct chains of command.
   weapons of mass destruction-civil support teams and cbrn enhanced 
                         response force package
    Question. Do you believe the Weapons of Mass Destruction-Civil 
Support Teams (WMD-CST) and CBRN Enhanced Response Force Packages 
(CERFP) are appropriately organized, sized, trained, and equipped to 
accomplish their assigned missions?
    Answer. Each State has at least one WMD-CST. It is my understanding 
that they are appropriately organized, manned, trained and equipped to 
accomplish their assigned mission. If confirmed, I will continue the 
strong partnership with the National Guard Bureau and The Adjutants 
General to maintain the readiness of WMD-CSTs and CERFPs and continue 
to reassess the mission, and the requirements, based on the existing 
threats.
    Question. If not, what changes do you believe are needed?
    Answer. If confirmed, I will assess the state of the entire CBRN 
Response Enterprise and seek for opportunities to make improvements as 
deemed necessary. The WMD-CSTs and CERFPs have a no-fail mission and I 
will support the Services, National Guard Bureau, and The Adjutants 
General in advocating for them.
                             cybersecurity
    Question. DOD has issued its cybersecurity strategy. Cyber threats 
could affect both our military and civilian sectors in the United 
States, public and private.
    What is NORTHCOM's current role in cybersecurity within its Area of 
Operations, and how does it relate to the cybersecurity role of DHS?
    Answer. NORTHCOM's role is to detect, deter, and prevent malicious 
cyber activity targeting the Command's assigned missions. This is 
accomplished through inherent cyberspace capabilities and relationships 
with mission partners such as U.S. Strategic Command (STRATCOM), U.S. 
Cyber Command (CYBERCOM), DHS, National Security Agency, the National 
Guard, and Canada.
    DHS's primary cybersecurity role is to coordinate the national 
protection, prevention, mitigation of, and recovery from cyber 
incidents, as well as serve as the Federal lead for the protection of 
critical infrastructure. DHS provides domestic cyber threat awareness, 
which NORTHCOM leverages to enhance understanding and mitigate the 
Command's operational risk.
    Question. What should be NORTHCOM's role in cybersecurity 
operations?
    Answer. My understanding is that NORTHCOM's current role in 
cybersecurity is appropriate. The overall lead for cyber within DOD is 
STRATCOM and CYBERCOM, which have a global responsibility. By contrast, 
NORTHCOM has a theater focus, ensuring successful operations in a 
denied or degraded cyberspace environment.
    Question. What is the relationship between NORTHCOM and CYBERCOM?
    Answer. I believe NORTHCOM has a close relationship with CYBERCOM, 
collaborating on cyber threats, defensive measures, world-wide 
situational awareness, and cyber planning. CYBERCOM provides support to 
NORTHCOM in executing its assigned missions, such as homeland defense 
and defense support of civil authorities. NORTHCOM leverages the 
cyberspace capabilities of CYBERCOM to achieve operational objectives.
         western hemisphere institute for security cooperation
    Question. The Western Hemisphere Institute for Security Cooperation 
(WHINSEC), which replaced the School of the Americas in 2001, has the 
mission of contributing to theater cooperation activities through the 
education and training of students in the Western Hemisphere from 
Canada to Chile. If confirmed, you will be a member of the WHINSEC 
Board of Visitors.
    What is the relationship between NORTHCOM and WHINSEC?
    Answer. I understand that NORTHCOM interacts with WHINSEC to ensure 
the NORTHCOM Theater Campaign Plan is supported through their resident 
and mobile training team courses. Additionally, it has been a Command 
priority to have both Canadian and Mexican instructors on the staff at 
WHINSEC and if confirmed, I will continue to encourage the 
participation of our partner nations.
    Question. In your view, does WHINSEC promote the national security 
interests of the United States in the Western Hemisphere?
    Answer. Yes. WHINSEC is an enabler to the NORTHCOM Theater Campaign 
Plan and supports national security interests. WHINSEC provides the 
next generation of military and civilian leaders in the Western 
Hemisphere education and training that promotes peace, human rights, 
and democratic values while providing meaningful training and education 
in the Profession of Arms.
    Question. In your view, how should NORTHCOM participate in command 
oversight and curriculum development?
    Answer. It is my understanding that the 2008 Nation Defense 
Authorization Act added the Commander of NORTHCOM as a WHINSEC Board of 
Visitors member. NORTHCOM oversight is provided through this annual 
meeting on academic instruction, resource application, and to ensure 
WHINSEC remains focused on national security objectives relevant to the 
Western Hemisphere. If confirmed, I look forward to participating in 
this annual meeting along with the Commander of SOUTHCOM and other 
board members.
    Question. In your view, what more, if anything, does WHINSEC need 
to do to emphasize human rights in its curriculum?
    Answer. WHINSEC embeds human rights training in all current 
curriculums. I understand that annually, at the Board of Visitors 
meeting, existing curriculum is reviewed and recommendations are taken 
for action by the Board of Visitors. This forum serves to ensure human 
rights are emphasized throughout WHINSEC's curriculum.
    Question. If confirmed, will you attend the WHINSEC Board of 
Visitor's annual meeting?
    Answer. Yes. If confirmed, I look forward to attending the Board of 
Visitor's meetings.
         intelligence sharing/national counterterrorism center
    Question. What is NORTHCOM's role and involvement in developing 
intelligence assessments regarding terrorist threats?
    Answer. I understand the NORAD and NORTHCOM Intelligence 
Directorate assesses and apprises the Commander, senior staff, and 
NORAD Regions and NORTHCOM components of all foreign terrorist threats 
to North America that could impact NORAD and NORTHCOM missions or 
compel a requirement for the Commands to respond when directed or 
required. The accuracy and timeliness of these assessments hinge on a 
small contingent of dedicated terrorism analysts and daily intelligence 
collaboration with the other combatant commands, Defense Intelligence 
Agency, and national counterterrorism intelligence, and law enforcement 
agencies.
    Question. What intelligence agencies are involved in providing 
input to NORTHCOM's staff for the development of intelligence 
assessments?
    Answer. It is my understanding that NORTHCOM is well integrated 
throughout the intelligence and law enforcement communities. I have 
been informed that our terrorism assessments rely heavily on 
intelligence and perspectives provided by national counterterrorism 
agencies, particularly the Federal Bureau of Investigation, the 
National Counterterrorism Center (NCTC) and the Defense Intelligence 
Agency's Defense Combatting Terrorism Center. It is normal practice to 
coordinate assessments with these agencies, and command analysts 
frequently draft and publish joint terrorism assessments with these 
agencies. To facilitate these essential partnerships, each of the key 
national counterterrorism agencies has assigned a senior representative 
to NORAD and NORTHCOM, and the Intelligence Directorate has assigned 
senior intelligence analysts to work within the NCTC, the Federal 
Bureau of Investigation, and with the Canadian Defense Intelligence 
Staff.
    Question. What is the current relationship between NORTHCOM and the 
NCTC?
    Answer. It is my understanding that NORAD and NORTHCOM and the NCTC 
have a close and collaborative relationship. The command has two 
officers embedded at NCTC: one in the Directorate of Intelligence and 
the other in the Directorate of Strategic Operational Plans. 
Additionally, the commands' Operational Intelligence Watch is in 
continuous contact with the NCTC Operations Center, and the commands' 
terrorism analysts are in daily contact with counterparts at NCTC. I 
understand the commands frequently host NCTC analysts for briefings on 
threats of mutual concern and also send analysts to support NCTC 
working groups. All of this collaboration ensures command visibility on 
developing terrorist threats to the aviation sector, Force Protection, 
or threats with potential weapons of mass destruction and consequence 
management implications. It also ensures that NCTC is cognizant of 
command missions and can facilitate information sharing on topics of 
mission relevance.
    Question. Does NORTHCOM have representatives located at the NCTC on 
a daily basis? If so, what are their functions and responsibilities? If 
not, why not?
    Answer. Yes. I understand the NORAD and NORTHCOM Intelligence 
Directorate has a full-time civilian intelligence officer assigned to 
NCTC Directorate of Intelligence, who produces homeland threat 
analysis. NORTHCOM also has an active duty officer assigned as an 
operations representative to the Directorate of Strategic Operational 
Planning at the NCTC. Both serve as advocates for NORTHCOM by conveying 
our mission equities and intelligence needs, and provide the command 
visibility to national-level counterterrorism threats and policy 
issues.
    Question. Do you believe NORTHCOM representatives at NCTC have the 
access to intelligence needed to fully perform their functions?
    Answer. Yes. It is my understanding the NORAD and NORTHCOM 
representatives at NCTC have the same access to information as NCTC 
cadre. This includes access to terrorism threat information not shared 
directly with the command or other DOD elements. NORTHCOM 
representatives at NCTC maintain the balance between protecting 
sensitive case work, investigations, and operations information, with 
information sharing and collaboration.
    Question. How do posse comitatus, privacy restrictions, and other 
laws and regulations concerning the collection of intelligence within 
the United States, affect the way NORTHCOM receives and uses 
intelligence?
    Answer. From my experience working for NORTHCOM as Commander of 
Naval Forces North, I know first-hand the importance of conducting all 
intelligence activities in full compliance with intelligence oversight 
law and policy. If confirmed, I will continue to ensure all NORTHCOM 
intelligence activities are reviewed by intelligence oversight 
specialists, thereby making certain they are conducted lawfully, 
consistent with all laws and policies.
                       ballistic missile defense
    Question. One of NORTHCOM's missions is the defense of the United 
States against the threat of limited ballistic missile attack from 
nations such as North Korea and Iran. The February 2010 Ballistic 
Missile Defense Review report stated as one of its policy priorities: 
``Before new capabilities are deployed, they must undergo testing that 
enables assessment under realistic conditions.''
    Do you agree that it is essential that our deployed ballistic 
missile defense systems are operationally effective?
    Answer. Yes. In view of evolving threats, the capability to defend 
the Nation with an effective ballistic missile defense system is 
paramount. Operationally realistic testing underpins the confidence we 
have in this system and is critical to mission readiness.
    Question. Do you agree that it is important to conduct 
operationally realistic flight tests to demonstrate the operational 
capability and reliability of the Ground-based Midcourse Defense (GMD) 
system?
    Answer. Yes. Flight testing is one of the most important, and 
visible ways of demonstrating the operational capability and 
reliability of the GMD system to improve warfighter confidence and 
mission readiness of the system. I understand the NORTHCOM staff has 
worked closely with the Missile Defense Agency and STRATCOM in the 
formation of the Integrated Master Test Plan to provide a plan for an 
adequate test cadence. If confirmed, I look forward to being a 
participant in the conversation.
    Question. Do you agree that, if the recent flight test of the GMD 
system (flight test FTG-06b) demonstrates the successful correction of 
the problems that caused previous flight test failures, that the 
Missile Defense Agency should deploy the additional 14 Ground-Based 
Interceptors in Alaska, as announced by Secretary of Defense Hagel in 
March 2013?
    Answer. Yes. In all regards, it appears the recent flight test was 
a success. This successful test is an important step in gaining 
valuable knowledge that will help improve the Ballistic Missile Defense 
System (BMDS) as we move forward. The additional 14 Ground-Based 
Interceptor's (GBIs) will provide an increased capacity to defend our 
homeland and I support the timely deployment of these interceptors.
    Question. Do you support the continued modernization and 
sustainment of the GMD system, including the planned re-design of the 
Exo-atmospheric Kill Vehicle, and continued improvements to sensor and 
discrimination capabilities?
    Answer. Yes. Modernization and sustainment of the GMD system hedges 
against future threats by ensuring capabilities will be available when 
needed. Advancing missile technologies by rogue adversaries demands 
continuous improvement in our systems. Redesigned Exo-atmospheric Kill 
Vehicle (EKV) and discrimination improvements are two crucial areas 
where I believe the Ballistic Missile Defense System needs to continue 
to focus.
    Question. The committee is aware that a recent independent 
assessment of the GMD system indicated that a number of important 
reliability and maintenance functions are not included in the current 
GMD program of record. Therefore, the committee recommended an increase 
of $30 million in fiscal year 2015 for these efforts.
    Do you agree that additional attention and funding is needed to 
ensure the reliability of the GMD system?
    Answer. Reliability and maintenance are both factors that improve 
our overall confidence in the Ground-based Midcourse Defense system. As 
the system evolves, I believe we need to continue to focus on 
improvements that increase overall confidence and effectiveness of the 
Ground-based Midcourse Defense program.
                         cruise missile defense
    Question. NORTHCOM and NORAD have responsibilities for warning and 
defending the United States against airborne threats, including cruise 
missiles.
    Relative to cruise missile defense, what do you believe should be 
the relationship between the Joint Integrated Air and Missile Defense 
Organization (JIAMDO) of the Joint Staff, on the one hand, and NORTHCOM 
and NORAD, on the other hand?
    Answer. I believe the JIAMDO and NORAD and NORTHCOM should continue 
to partner on cruise missile defense. If confirmed, I would aim to 
carry forward the great working relationship previous commanders have 
developed with JIAMDO.
    Question. Relative to the full spectrum of threats to the United 
States, how would you assess the cruise missile threat to the United 
States and its territories?
    Answer. I assess that a cruise missile attack is possible, though 
unlikely to occur without indications and warnings registering with the 
Intelligence Community. I believe the cruise missile threat to be low; 
however, increasing capability and proliferation make the cruise 
missile problem increasingly more dangerous. If confirmed, I will be 
committed to development of a robust capability for cruise missile 
defense.
    Question. If confirmed, what capabilities would you prioritize to 
address this threat?
    Answer. I understand NORAD developed a Defense Design for Cruise 
Missile Defense of the National Capital Region and is currently 
evaluating emerging technologies to defend against the cruise missile 
and other air breathing threats. Technologies from the Defense Design 
are intended to be scalable for expansion across North America. If 
confirmed, I would closely monitor progress on cruise missile defense 
programs and emphasize the importance of an integrated air and missile 
defense capability to secure key terrain and critical infrastructure.
    Question. What role do you believe the planned operational exercise 
of the Joint Land-Attack Cruise Missile Defense Elevated Netted Sensor 
(JLENS) system will play in establishing improved capabilities to 
detect and defend against evolving cruise missile threats to the 
Homeland?
    Answer. I believe JLENS will play an extremely important role in 
establishing improved capabilities. As part of the Operational 
Exercise, efforts are underway to integrate this system into the 
existing NORAD air defense architecture. This will significantly 
improve the capability to detect, track, and warn, and in the near 
future engage cruise missiles.
                        continental air defense
    Question. How has the continental air defense mission changed since 
the end of the Cold War and the events of September 11, 2001?
    Answer. In the Cold War era, NORAD was focused primarily on 
deterring, detecting, and defending against external threats 
approaching the continent from beyond our borders. Since September 11, 
2001, NORAD's focus has evolved to also look at potential terrorist 
attacks originating from both inside and outside the borders of the 
United States and Canada.
    Question. Do you believe that current U.S. continental air defense 
capabilities are adequate to meet national security needs?
    Answer. Yes. Through a network of alert fighters, tanker aircraft, 
command and control platforms, and ground-based air defense systems, 
NORAD stands watch over the Homeland. I understand NORAD continues to 
evolve and regularly evaluates and updates its air defense capabilities 
in order to outpace threats and ensure the air defense of the United 
States and Canada.
    Question. If confirmed, what capabilities and programs would you 
prioritize to address any identified deficiencies?
    Answer. If confirmed, I will assess NORAD's air defense 
capabilities to confirm that they meet national security requirements. 
At that time, I will work to eliminate any identified deficiencies and 
ensure we maintain continuity of the aerospace warning and aerospace 
control mission.
             maritime warning and maritime domain awareness
    Question. NORAD has gained the mission of Maritime Warning for 
North America. How does this mission fit into the larger Maritime 
Domain Awareness mission, and what role do you expect NORAD and 
NORTHCOM to have in Maritime Domain Awareness in the near term?
    Answer. The NORAD Maritime Warning mission relies upon Maritime 
Domain Awareness to develop a comprehensive shared understanding of the 
maritime operational environment and to issue bi-national warnings of 
maritime threats or attacks against North America. The Commander of 
NORAD and NORTHCOM coordinates with a global maritime community of 
interest to expand information sharing and Maritime Domain Awareness 
through agreements, plans development, cooperative training, and 
acquisition of Maritime Domain Awareness sensors/tools. In my current 
job, I'm also dual-hatted as Commander, U.S. Naval Forces Northern 
Command, and support NORTHCOM and NORAD to ensure that we share a very 
high degree of Maritime Domain Awareness.
                         arctic region mission
    Question. The 2011 UCP realigned the boundaries of combatant 
command AORs in the Arctic region. NORTHCOM's AOR now includes the 
Bering Strait and the North Pole. NORTHCOM was also tasked to become 
DOD's advocate for Arctic capabilities.
    What is the practical effect of this assignment, and how has it 
changed NORTHCOM planning and operations?
    Answer. The practical effect of the 2011 changes to the UCP is 
greater emphasis on planning for operations in the Arctic. The Arctic 
is an historic approach to the Homeland. It demands unique attention in 
light of the recent increase in accessibility and human activity in the 
region. I understand that NORTHCOM has undertaken significant planning 
and exercise efforts dedicated to a range of safety, security, and 
defense considerations. If confirmed, I will work to translate these 
plans and the lessons learned from exercises into a realistic, 
prioritized list of DOD requirements.
    Question. What specific programs, if any, will you put in place if 
confirmed to identify and develop capabilities to protect and defend 
American sovereignty and interests in the Arctic region?
    Answer. If confirmed, first I would focus on improving our 
awareness of human activity and operations in the region, encompassing 
a whole-of-government and whole-of-community approach. Information on 
current/pending Arctic activity resides with many U.S. Federal, State, 
and private sector entities, as well as counterpart organizations in 
Canada. I believe we need to understand what information is available, 
who has it, how we can get it, and how we can turn it into actionable 
information when needed. Next, I would look to improve communications 
at the high latitudes throughout the year and during severe weather 
conditions. Finally, I would work to identify realistic requirements 
for defense infrastructure and ways to maintain presence.
    Question. By what process will you identify requirements for 
support from other government agencies, such as the Coast Guard, in 
fulfilling requirements for the Arctic region?
    Answer. I understand there is good interagency coordination already 
underway regarding the Arctic, and if confirmed, I will certainly work 
to further enhance that collaboration and cooperation. General Jacoby 
and former U.S. Coast Guard Commandant, Admiral Papp jointly signed an 
Arctic Capabilities Assessment White paper that recommended capability 
gaps, on which both the DOD and DHS should focus. Further, I understand 
NORTHCOM sponsors a working group that focuses on Arctic issues and 
routinely brings together various Federal and Alaska State agencies.
                       law of the sea convention
    Question. Do you support United States accession to the Law of the 
Sea Convention? If so, please explain why.
    Answer. Yes. United States accession to the Law of the Sea 
Convention would provide a forum for protecting and advancing U.S. 
interests, including freedom of access and offshore resources. The 
Convention would support NORTHCOM's interest in the peaceful opening of 
the Arctic in a manner that strengthens international cooperation.
    Question. Given NORTHCOM's responsibilities for the Arctic region, 
do you believe that accession to the Law of the Sea Convention would 
help the United States protect its interests in the Arctic, including 
against competing claims from foreign nations?
    Answer. Yes, for several reasons. At the geostrategic level, I 
believe we should not be the only Arctic nation that is outside the 
Convention. In addition, all the other countries bordering the Arctic 
Ocean are Parties and have made (or are preparing) submissions 
regarding continental shelves beyond 200 miles to the Convention body. 
We are working on the outer limits of the U.S. shelf, the largest 
single portion of which is in the Arctic, but can only get a formal 
blessing if we join the Convention. Lastly, as Arctic warming enables a 
wide range of human activity (shipping, oil/gas, tourism, fishing), it 
becomes more important that we put our ocean rights on a treaty footing 
and have a larger voice in the interpretation/development of rules.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, NORTHCOM, and 
Commander, NORAD?
    Answer. Yes
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator Saxby Chambliss
         western hemisphere institute for security cooperation
    1. Senator Chambliss. Admiral Gortney, as a member of the Western 
Hemisphere Institute for Security Cooperation (WHINSEC) Board of 
Visitors, I was pleased to read in your advance policy questions about 
your strong support of their mission and your eagerness to further 
strengthen our cooperation with our partner nations. As we continue to 
focus on strengthening the security capacities of our partners in South 
and Central America, what additional roles can WHINSEC play in that 
endeavor?
    Admiral Gortney. I believe additional roles for WHINSEC and the 
leaders it influences include the continuing evolution of human rights 
education, as well as implementation of lessons learned from military/
law enforcement operations and outreach with civilian institutions. 
WHINSEC contributes to the profession of arms of partner nations 
through a curriculum that is grounded in rule of law and human rights, 
ultimately supporting NORTHCOM's mission where partner nations 
contribute to the cooperative defense of North America.

              Questions Submitted by Senator Kelly Ayotte
                       east coast missile defense
    2. Senator Ayotte. Admiral Gortney, the current Commander of U.S. 
Northern Command (NORTHCOM), General Jacoby, stated: ``The third site, 
if you built it, would give us better weapons access, it'd give us 
increased inventory and increased battle space with regards to a threat 
coming from the direction of the Middle East.'' Do you agree with 
General Jacoby?
    Admiral Gortney. I agree with his assessment, as well as his 
comments that conducting the Environmental Impact Studies at all four 
potential sites puts us in a favorable position to make a fielding 
decision in a timely fashion, should the Department decide to do so.

    3. Senator Ayotte. Admiral Gortney, are you aware of section 227 of 
the National Defense Authorization Act for Fiscal Year 2013, the 
requirement for the Director of the Missile Defense Agency (MDA) to 
develop a contingency plan for the deployment of a Homeland missile 
defense interceptor site? If yes, please explain your thoughts about 
this contingency plan.
    Admiral Gortney. I understand the MDA plans to complete the 
Environmental Impact Studies at all four potential sites by the end of 
2015. The data from these studies will be used by MDA to inform the 
contingency plan that will then be presented to Congress.

    4. Senator Ayotte. Admiral Gortney, do you commit to working with 
the MDA to develop the contingency plan and coming back and briefing me 
on it, once you are confirmed?
    Admiral Gortney. If confirmed, I am committed to working with MDA 
in all endeavors related to homeland defense. Regarding the contingency 
plan, I believe that we need to wait for completion of the 
Environmental Impact Studies at the four sites and then make an 
informed decision on which site makes the most sense. While this 
process unfolds, we will continue to watch the threat so that we will 
be in a position to make an informed decision when required. I believe 
MDA is best positioned to brief you on the contingency plan as the 
Department of Defense (DOD) lead for this effort, but if confirmed, 
should you have any residual questions for NORTHCOM, I would be happy 
to talk to you at your convenience.

 joint land attack cruise missile defense elevated netted sensor system
    5. Senator Ayotte. Admiral Gortney, the Joint Land Attack Cruise 
Missile Defense Elevated Netted Sensor System (JLENS) engineering and 
manufacturing development successfully concluded in December 2013. What 
capabilities would JLENS provide the NORTHCOM commander?
    Admiral Gortney. The JLENS (aerostat radar) at Aberdeen Proving 
Ground will provide persistent surveillance and fire control; cueing 
for defense against cruise missile, aircraft, Unmanned Aircraft System, 
and large caliber rockets; as well as wide area surveillance for the 
Northeast United States.

    6. Senator Ayotte. Admiral Gortney, I understand that DOD is 
deploying a JLENS at Aberdeen Proving Ground (APG). What are the goals 
for this deployment?
    Admiral Gortney. The goals for this deployment are to surveil, 
detect, track, identify, and provide fire quality tracks to our air 
defense structure. By taking advantage of JLENS wide area surveillance, 
the overall objective is to increase decision time available to respond 
efficiently and accurately for the defense of Washington, DC.

    7. Senator Ayotte. Admiral Gortney, what does NORTHCOM expect to 
learn from the deployment at APG?
    Admiral Gortney. The operational exercise will demonstrate JLENS 
integration into NORAD's air defense structure to detect, track and 
identify potential air threats to the greater Washington DC area, as 
well as new technologies to safely employ the current rules of 
engagement for Operation Noble Eagle. The operational exercise 
objectives include: use JLENS for wide-area surveillance in order to 
support current decisions and intercept timelines; provide precision 
cue to fighters and Ground-Based Air Defense (GBAD) to aid in acquiring 
and prosecuting tracks of interest; use current Operation Noble Eagle 
and NORAD rules of engagement and timelines; focus on the cruise 
missile threat to the Homeland; include general aviation, Unmanned 
Aerial Systems and ultra-lights, as time allows; and, consider surface 
moving targets in the maritime domain.

    8. Senator Ayotte. Admiral Gortney, what are the metrics that will 
be used to evaluate the deployment at APG?
    Admiral Gortney. I understand NORAD staff is drafting an assessment 
plan for the JLENS operational exercise, which will document the 
approach, data, and analysis being used to assess how the system 
supports the NORAD air defense mission. The plan will support the 2014 
National Defense Authorization Act requirement to provide a report to 
the congressional defense committees that identifies planned data and 
analysis for the demonstration. This report is due no later than 90 
days after initiation of the JLENS demonstration and if confirmed, I 
plan to submit it in the 2nd quarter of fiscal year 2015.

    9. Senator Ayotte. Admiral Gortney, what is the timeline for the 
deployment at APG?
    Admiral Gortney. The JLENS consists of two aerostats: a 
surveillance system and a fire control system. The surveillance system 
is expected to fly in mid-December 2014, followed approximately 6 weeks 
later by the fire control system. An initial operational capability is 
estimated for late second quarter/early third quarter fiscal year 2015. 
During the 3-year test window, JLENS capabilities will be fully 
explored as part of the NORAD air defense structure.

    10. Senator Ayotte. Admiral Gortney, what will be the next step 
after the deployment at APG?
    Admiral Gortney. I understand the next step will be a decision by 
the Secretary of Defense whether to transition JLENS to operational 
status. The deployment and operational exercise will provide the 
information needed for the Secretary to make this determination.
                             national guard
    11. Senator Ayotte. Admiral Gortney, the National Guard plays an 
essential role in responding to manmade and natural disasters here at 
home. What is your assessment regarding the role of the National Guard 
in helping NORTHCOM accomplish its Homeland missions?
    Admiral Gortney. NORTHCOM's homeland missions directly align with 
the first of three pillars emphasized in the defense strategy: protect 
the Homeland. To protect the Homeland, NORTHCOM is prepared to deter 
and defeat attacks on the United States and to support civil 
authorities in mitigating the effects of potential attacks and natural 
disasters. As a component of the Total Force, the National Guard plays 
an essential role in all aspects of NORTHCOM's homeland missions. 
Daily, members of the Air National Guard stand ready, or actively fly, 
missions directly supporting Operation Noble Eagle. For defense support 
of civil authorities, NORTHCOM recognizes and supports the vital role 
that the National Guard plays in the National Response Framework.

    12. Senator Ayotte. Admiral Gortney, will you make it a priority to 
develop a strong relationship with the National Guard, once you are 
confirmed?
    Admiral Gortney. Yes. I believe a trusted relationship and strong 
teamwork between the Commander, NORTHCOM and the Chief of the National 
Guard Bureau are critical to the continued success of NORTHCOM mission 
accomplishment. If confirmed, I will be committed to building on an 
already strong relationship with the National Guard Bureau.
                                 ______
                                 
    [The nomination reference of ADM William E. Gortney, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 23, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Navy to the 
grade indicated while assigned to a position of importance and 
responsibility under Title 10, U.S.C., section 601:

                             To be Admiral

    ADM William E. Gortney, 0000.
                                 ______
                                 
    [The biographical sketch of ADM William E. Gortney, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]

     Transcript of Naval Service for ADM William Evans Gortney, USN


02 Sep 1977                                 Ensign
02 Sep 1979                                 Lieutenant (junior grade)
01 Oct 1981                                 Lieutenant
01 Jul 1987                                 Lieutenant Commander
01 Sep 1992                                 Commander
01 Dec 1998                                 Captain
01 May 2005                                 Rear Admiral (lower half)
01 Nov 2007                                 Rear Admiral
05 Jul 2008                                 Vice Admiral
14 Sep 2012                                 Admiral, Service continuous
                                             to date
 


Assignments and duties:

------------------------------------------------------------------------
                                         From                 To
------------------------------------------------------------------------
Training Squadron Six (DUINS)...  Sep 1977..........  Dec 1977
Naval Aviation Schools Command,   Dec 1977..........  Jan 1978
 Pensacola, FL (DUINS).
Training Wing One (DUINS).......  Jan 1978..........  Jan 1979
Training Squadron Two Six         Jan 1979..........  Jun 1980
 (Flight Instructor).
Attack Squadron One Seven Four    Jun 1980..........  Mar 1981
 (Ready Replacement Pilot).
Attack Squadron Eight Two         Apr 1981..........  Mar 1984
 (Weapons Training Officer).
Strike Fighter Squadron One Two   Mar 1984..........  Sep 1987
 Five (Strike Phase Head).
Naval Post Graduate School,       Oct 1987..........  Nov 1987
 Monterey, CA (DUINS).
Strike Fighter Squadron Eight     Nov 1987..........  Jul 1989
 Seven (Maintenance Officer).
Office of the Chief of Naval      Jul 1989..........  Mar 1991
 Operations (Aide to Assistant
 Chief of Naval Operations for
 Air Warfare)(OP-05).
Strike Fighter Squadron One Zero  Mar 1991..........  May 1991
 Six (DUINS).
XO, Strike Fighter Squadron One   May 1991..........  Jun 1992
 Three Two.
XO, Strike Fighter Squadron One   Jun 1992..........  Oct 1993
 Five.
CO, Strike Fighter Squadron One   Oct 1993..........  Jan 1995
 Five.
Naval War College, Newport, RI    Feb 1995..........  Mar 1996
 (DUINS).
CO, Strike Fighter Squadron One   Mar 1996..........  Jul 1997
 Zero Six.
Joint Staff, Washington, DC       Jul 1997..........  Jul 1999
 (Operations Officer)(J3).
Strike Fighter Squadron One Zero  Jul 1999..........  Oct 1999
 Six (DUINS).
Joint Task Force Southwest Asia,  Oct 1999..........  Feb 2000
 Eskan Village, Riyadh, Saudi
 Arabia (Deputy for Current
 Operations).
Strike Fighter Squadron One Zero  Feb 2000..........  May 2000
 Six (DUINS).
Commander, Carrier Air Wing       May 2000..........  Jan 2002
 Seven (Deputy Commander).
Commander, Carrier Air Wing       Jan 2002..........  Feb 2003
 Seven.
Commander, Fifth Fleet/           Feb 2003..........  Aug 2004
 Commander, U.S. Naval Forces
 Central Command (Chief of
 Staff).
Commander, U.S. Fleet Forces      Aug 2004..........  Jul 2006
 Command (Director for
 Operations, Plans, Policy, and
 Training) (N3/5/7).
Commander, Carrier Strike Group   Jul 2006..........  Apr 2008
 Ten.
Commander, Second Fleet (Special  Apr 2008..........  Jul 2008
 Assistant).
Commander, U.S. Naval Forces,     Jul 2008..........  Jul 2010
 Central Command and Commander,
 Fifth Fleet.
Director, Joint Staff...........  Jul 2010..........  Aug 2012
Commander, U.S. Fleet Forces      Sep 2012..........  To Date
 Command.
------------------------------------------------------------------------


Medals and awards:
    Defense Superior Service Medal
    Legion of Merit with one Gold Star
    Bronze Star Medal
    Defense Meritorious Service Medal with one Bronze Oak Leaf 
Cluster
    Meritorious Service Medal with two Gold Stars
    Air Medal with one Gold Star and numeral 3
    Joint Service Commendation Medal with two Bronze Oak Leaf 
Clusters
    Navy and Marine Corps Commendation Medal
    Navy and Marine Corps Achievement Medal
    Joint Meritorious Unit Award with one Bronze Star
    Navy Unit Commendation
    Meritorious Unit Commendation with one Bronze Star
    Navy Expeditionary Medal
    National Defense Service Medal with one Bronze Star
    Armed Forces Expeditionary Medal with one Bronze Star
    Southwest Asia Service Medal with one Bronze Star
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Armed Forces Service Medal
    Humanitarian Service Medal
    Sea Service Deployment Ribbon with one Silver Star and two 
Bronze Stars
    Navy and Marine Corps Overseas Service Ribbon
    NATO Medal
    Kuwait Liberation Medal (Kuwait)
                                ------                                

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM William E. 
Gortney, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William E. Gortney.

    2. Position to which nominated:
    Commander, U.S. Northern Command/Commander, North American 
Aerospace Defense Command.

    3. Date of nomination:
    June 24, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 25, 1955; La Jolla, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Sherry Ann Gortney.
    Sherry Ann Burdeshaw (Maiden Name).

    7. Names and ages of children:
    William Gortney, age 32.
    Stephanie Gortney, age 27.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the Service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    KAPPA SIGMA - Elon Univeristy, Tailhook Association, Naval 
Institute.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    2013 KAPPA SIGMA Man of the Year.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                William E. Gortney.
    This 13th day of May, 2014.

    [The nomination of ADM William E. Gortney, USN, was 
reported to the Senate by Chairman Levin on July 22, 2014, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 23, 2014.]

                              ----------                              

    [Prepared questions submitted to GEN John F. Campbell, USA, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, North Atlantic Treaty Organization (NATO) International 
Security Assistance Force (ISAF)?
    Answer. The Commander, ISAF (COMISAF) is the senior NATO uniformed 
officer in Afghanistan. He is the in-theatre operational commander 
exercising operational control of all ISAF forces in Afghanistan. 
COMISAF employs assigned forces, through a strategic partnership with 
Government of the Islamic Republic of Afghanistan (GIRoA), to conduct 
functionally based security force assistance (train, advise, assist) to 
enable credible, capable and increasingly sustainable Afghan Security 
Institutions and Afghan National Security Forces (ANSF) that are 
capable of preventing terrorist safe havens in Afghanistan.
    ISAF is a NATO-directed operation conducted under U.N. Security 
Council Resolution (UNSCR) 1386 (2001), which authorizes the 
establishment of ISAF to assist the Afghan Government in maintaining 
security in Kabul and surrounding areas and to take all necessary 
measures to fulfill this mandate. Following a U.N. and NATO/North 
Atlantic Council agreement, NATO assumed strategic command of ISAF on 
11 August 2003 under the authority of UNSCR 1386 and successor UNSCRs. 
Subsequently, UNSCR 1510 (2003) geographically expanded the ISAF 
mandate established in UNSCR 1386 to cover all of Afghanistan.
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Forces Afghanistan (USFOR-A) and how do those 
duties and functions relate to those of the Commander, NATO ISAF?
    Answer. The Commander of USFOR-A is the senior U.S. officer in 
Afghanistan with duties distinct from his duties as COMISAF. The USFOR-
A Commander exercises National Command Element and National Support 
Element authorities and responsibilities for ensuring that U.S. forces 
have the guidance, equipment, and funding they need to conduct their 
missions. He ensures unity of effort among all U.S. forces including 
those under the ISAF command and those forces not under ISAF command, 
such as those U.S. forces conducting U.S. detention operations and U.S. 
counterterrorism operations.
    COMISAF employs the forces that troop-contributing nations provide 
to ISAF of which the United States remains the largest troop-
contributing nation. The Commander, USFOR-A, directs and oversees the 
United States' military contributions within ISAF while COMISAF duties 
include ensuring the operations of all troop-contributing nations, 
including those of U.S. forces, are coordinated.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have had the opportunity to work very closely on 
Afghanistan in several of my assignments as a general officer to 
include my current position as the Vice Chief of Staff of the Army and 
my previous position as the Deputy Chief of Staff G3/5/7, specifically 
focused on personnel, retrograde, and resourcing our forces. I 
commanded RC-East in 2010-2011 as the Division Command of the 101st 
Airborne, and also deployed my Brigade there in 2003 when in Command of 
1st Brigade, 504th Parachute Infantry Regiment, 82nd Airborne Division. 
My command in RC-East in 2010-2011 was during the surge and consisted 
of a combined force of approximately 30,000 U.S. and allied 
servicemembers in 14 provinces in Eastern Afghanistan, and shared more 
the 300 miles of border area with Pakistan. this provided me with 
critical coalition leadership experience and relationships. We also 
successfully partnered with two Afghan National Army Corps, a large 
contingent of Afghan Police and Afghan Border Police, and routinely 
worked with the Pakistan Army to facilitate complementary operation 
against insurgents in the border areas.
    Since leaving command in 2011, I have traveled to Afghanistan on 
multiple occasions and dedicated a great deal of time to self study of 
the Afghanistan/Pakistan region. In my current assignment I frequently 
represent the Chief of Staff of the Army in Tank sessions where our 
Afghanistan-Pakistan strategy is addressed and I contribute to the 
development of best military advice to the Secretary of Defense and the 
President. I have also interacted extensively with Congress as the Vice 
Chief of Staff and feel I understand the Civil-Military relationship 
that must exist to achieve success.
    Finally, I believe my experience as a deputy Division commander and 
a General Officer in Iraq in 2006 and 2007 was valuable combat 
leadership experience and enhanced my understanding of the nature of 
counterinsurgency operations and the associated challenges. All of 
these experiences, if confirmed, will serve as a foundation for my 
leadership as the ISAF Commander.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
NATO ISAF, and/or Commander, USFOR-A?
    Answer. A professional military officer should never stop listening 
or learning. If confirmed, I will continue to deepen my knowledge of 
the strategic environment and seek input from a wide range of military 
and civilian experts. If confirmed and before taking command, I will 
also spend a great deal of time visiting our forces on the ground and 
leaders from across NATO to enhance my understanding of the fight and 
to assist me in refining my personal framing of the problem.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Commander, NATO ISAF/Commander, USFOR-A, to the following:
    The Secretary of Defense.
    Answer. The USFOR-A Commander reports to the CENTCOM Commander, 
who, in turn, reports directly to the Secretary of Defense. This 
reporting relationship is prescribed in title 10, U.S.C., section 
164(d)(1). COMISAF does not have a formal relationship with the 
Secretary of Defense because COMISAF reports to the NATO chain of 
command through the Commander of Joint Forces Command-Brunssum, who 
reports to the Supreme Allied Commander Europe (SACEUR).
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The USFOR-A Commander does not have a formal command 
relationship with the Chairman of the Joint Chiefs of Staff but 
coordinates with him through the CENTCOM Commander on a regular basis. 
The Chairman is the principal military advisor to the President, the 
Secretary of Defense, and the National Security Council and while he is 
the Nation's senior military officer, he is not in the chain of 
command. The USFOR-A Commander sends his advice and opinions on 
military operations to the Chairman through the CENTCOM Commander.
    Question. Commander, U.S. Central Command.
    Answer. The Commander, USFOR-A works very closely with the 
Commander, CENTCOM on all aspects of U.S. military operations in 
Afghanistan. By law, the Commander, USFOR-A reports directly to the 
Commander, CENTCOM. The Commander, CENTCOM exercises authoritative 
direction and control over all U.S. Forces in the CENTCOM area of 
responsibility, which includes all U.S. Forces in Afghanistan. The 
Commander, CENTCOM provides authoritative direction over all aspects of 
military operations, joint training, and logistics. He has delegated 
National Command Element and National Support Element authority and 
responsibilities to the Commander, USFOR-A.
    Question. NATO Supreme Allied Commander, Europe.
    Answer. NATO Supreme Allied Commander, Europe, is the NATO 
strategic-level commander of all NATO forces, including those assigned 
to the NATO mission in Afghanistan. He provides the Commander of Joint 
Forces Command-Brunssum (JFC-B) with strategic guidance and direction. 
Joint Forces Command-Brunssum is NATO's operational level command 
responsible for the mission in Afghanistan. In short, SACEUR provides 
strategic direction and campaign objectives and the Commander of JFC-B 
directs COMISAF to attain these objectives and perform key military and 
supporting tasks, as mandated by the North Atlantic Council.
    Question. Commander, ISAF Joint Command.
    Answer. ISAF Joint Command (IJC) is ISAF's operational-level 
command and is subordinate to HQ ISAF. As such, the commander of IJC, 
reports to COMISAF. The IJC Commander is also dual-hatted as the Deputy 
Commander of USFOR-A, and retains certain U.S. command authorities. IJC 
was established in November 2009.
    Question. Commander, NATO Training Mission-Afghanistan.
    Answer. NTM-A oversees training and equipping of Afghan forces 
across Afghanistan and is subordinate to IJC. NTM-A trains, advises, 
and assists ANSF training in order to support the creation of a capable 
and enduring force that protects the Afghan population and denies safe 
haven to the insurgency. NTM-A was established in April 2009, merged 
into the Combined Security Transition Command-Afghanistan (CSTC-A) in 
March 2010, and then reassigned to IJC in 2013.
    Question. Commander, Joint Interagency Task Force Afghanistan.
    Answer. Commander, Combined Joint Interagency Task Force-
Afghanistan (CJIATF-A) is a subordinate headquarter to headquarter 
ISAF. CJIATF-A provides operational advice, recommendations, and 
synchronizes strategic Counter Corruption, Counter Narcotics, Counter 
Threat Finance, and No Contracting with the Enemy activities in order 
to deny resources to the enemy, enhance transparency and accountability 
within GIRoA, and strengthen the International Community's confidence 
in GIRoA. CJIATF-A accomplishes these missions through two sub task 
forces, two mentoring teams, and two partnered interagency units.
    Question. U.S. Ambassador to Afghanistan.
    Answer. The USFOR-A Commander provides operational assistance and 
advice, to include U.S. military views and recommendations, to the U.S. 
Ambassador. He maintains a close working relationship with the 
Ambassador to ensure that military and civilian efforts are 
synchronized and mutually supporting. This is particularly important in 
the Rule of Law arena where the Department of State has the lead for 
the United States Government. The Commander, Combined Joint-Interagency 
Task Force 435 (who reports directly to the USFOR-A Commander), 
provides support to the Coordinating Director for Rule of Law and Law 
Enforcement, who reports directly to the U.S. Ambassador.
    Question. U.S. Special Representative for Afghanistan and Pakistan.
    Answer. The USFOR-A Commander provides operational assistance and 
advice, to include U.S. military views and recommendations, to the U.S. 
Special Representative for Afghanistan and Pakistan. He maintains a 
close working relationship with the Special Representative to ensure 
that military and civilian efforts are synchronized and mutually 
supporting. This relationship is particularly important to the ongoing 
security and political transition, as well as re-integration and 
reconciliation efforts, which will facilitate an inclusive Afghan 
political solution to the conflict in Afghanistan.
    Question. The Secretary General of NATO.
    Answer. The NATO Secretary General chairs the North Atlantic 
Council, the highest political authority in NATO. The North Atlantic 
Council is responsible for the overall decisions and direction of NATO 
policy and operations and is comprised of ambassador-level 
representatives of all NATO members, including the United States. The 
Council is advised on military matters and the conduct of operations by 
the Military Committee, which is also composed of senior military 
representatives from each member state. The North Atlantic Council, 
under the Secretary General's leadership, provides overall direction 
and guidance to the military chain of command. In practical terms, the 
SACEUR leads all NATO military operations and advises NATO's Military 
Committee. Thus, in the case of the ISAF mission, the Secretary 
General, following consultations and decisions by the North Atlantic 
Council, provides guidance and direction to SACEUR through the Military 
Committee, and the SACEUR communicates those directives and guidance 
through NATO's military chain of command. COMISAF and the Secretary 
General confer and consult regularly, including formal updates to the 
Secretary General and the North Atlantic Council on the progress of 
military operations in Afghanistan.
    Question. NATO Senior Civilian Representative for Afghanistan.
    Answer. The NATO Senior Civilian Representative (SCR) for 
Afghanistan is the civilian counterpart to COMISAF. As the NATO 
Secretary General's direct representative in Afghanistan, the SCR is 
charged with carrying forward the political aspects of NATO's 
engagement in Afghanistan. Although there is no formal command 
relationship, the SCR and COMISAF work in close concert and with full 
transparency in accordance with the North Atlantic Council-approved 
Terms of Reference for the SCR and SACEUR as well as JFC-B's guidance 
for COMISAF. In short, this cooperative relationship is critical to 
underwrite NATO's operational military and political engagement in 
Afghanistan and can help to improve cooperation between ISAF and 
international civilian agencies in Afghanistan.
    Question. United Nations Special Representative in Afghanistan.
    Answer. U.N. Special Representative of the Secretary-General (SRSG) 
for Afghanistan is an important leader in the international community's 
efforts in Afghanistan. While no command relationship exists between 
COMISAF and the U.N. SRSG, the ISAF mission was authorized by U.N. 
Security Council Resolution to assist the Afghan Government in the 
establishment of a secure and stable environment. Similarly, the U.N. 
SRSG has a mandate to lead the U.N. Assistance Mission in Afghanistan 
(UNAMA) supporting the Afghan Government in its efforts to improve 
critical areas, including security, governance, economic development, 
and regional cooperation, as well as to support the full implementation 
of mutual commitments made on these issues at the London Conference in 
January 2010 and the subsequent Kabul Conference in July 2010. The 
SACEUR OPLAN states that COMISAF is expected to work in close 
coordination with both the NATO SCR and the U.N. SRSG. These 
partnerships support efforts to work with the Afghan Government to 
ensure progress towards the goal of a self-sufficient Afghanistan.
                            major challenges
    Question. What are the major challenges and problems you foresee, 
if confirmed as the next Commander, NATO ISAF/Commander, USFOR-A, in 
the implementation of the mission in Afghanistan?
    Answer. I believe there are three major challenges. Our first 
challenge is to manage the transition from the ISAF mission and force 
level to the 2015 Resolute Support mission and force level. The 
Resolute Support mission posture reduces our footprint to fewer bases 
in four regions and the Kabul-Bagram area. This will be a significant 
transition for both the Coalition and the Afghans, as the ANSF takes 
full responsibility for security even as they work to build long-term 
capability. The second challenge involves the shift of advisory efforts 
from combat advising to developing the Afghan Security Institutions to 
sustain a modern army and national police force. Our third challenge 
will be to continue effective counterterrorism operations to dismantle, 
defeat, and disrupt al Qaeda in the region.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. If confirmed, I will work with the U.S. Government, NATO, 
and other troop-contributing nations, and our Afghan partners to 
execute a mutually agreed-upon framework for the transition process and 
capacity-building within the ANSF and the broader Afghan system. I will 
work closely with security ministers and other key leaders to help them 
prioritize requirements and focus on developing Afghan self-
sustainability of an effective security force. We will decisively 
counter insurgent narratives of coalition abandonment through these and 
other transition actions.
    Question. What is your understanding of U.S. vital interests and 
strategic objectives in Afghanistan currently and the changes, if any, 
after 2014?
    Answer. The U.S. presence in Afghanistan aims to defeat al Qaeda 
and its affiliates, contribute to regional and international peace and 
stability, and enhance the ability of Afghanistan to deter threats 
against its sovereignty, security, and territorial integrity. Our 
mission provides time and space for the ANSF and GIRoA to increase 
capacity and assume full responsibility for Afghanistan's security by 
the end of 2014.
    Diplomatic efforts continue to complement military efforts. The 
United States and the international community continue to encourage 
Afghan reconciliation efforts with the Taliban as a means to a 
political solution to the conflict.
    Question. What is your understanding of U.S. strategy to achieve 
these objectives?
    Answer. The International Security Assistance Force's primary task 
is to develop the capacity and capability of the ANSF to provide 
security for Afghanistan. The campaign remains a comprehensive 
counterinsurgency but is now Afghan-led. The coalition continues its 
efforts to deny safe havens for AQ and supports expanding GIRoA efforts 
to disrupt terrorist safe havens. The primary means to achieve this is 
through the development and fielding of a capable, sustainable ANSF.
                   security situation in afghanistan
    Question. What is your assessment of the security situation in 
Afghanistan and the nature, size, and scope of the insurgency?
    Answer. The insurgency is an enduring threat to Afghanistan. 
However, the insurgency's operational effectiveness has been degraded 
in some parts of the country so far this year, due in part to improved 
ANSF performance and growing divisions within the Taliban. As a result, 
the 2014 summer fighting season violence levels are below historical 
norms. Most notably, the Taliban failed to derail the Afghan 
Presidential elections, as Afghans voted in record numbers despite 
Taliban threats of violence. However, the insurgents are resilient. 
They maintain safe havens in Afghanistan and leverage them to train and 
plot future attacks. Additionally, the presence of numerous insurgent/
terrorist groups (e.g., Taliban, Haqqani Network, al Qaeda, Lashkar-e-
Tayyiba, etc.) allows for the sharing of tactics, techniques and 
procedures. The insurgents also have access to significant internal 
resources through religious taxation, illicit mining, narcotics trade, 
and other criminal enterprises (kidnapping, human trafficking, etc. . . 
. ).
    While the insurgency is by no means popular among the Afghan 
population, it continues to attract Afghans to join its ranks through 
coercion, disenfranchisement, or the lack of an alternative means to 
support their family. Recruitment may decline as the ISAF presence 
decreases and as battle fatigue sets in amongst Taliban rank-and-file. 
Nonetheless, expect the insurgents to attempt to capitalize on any 
political missteps to undermine popular faith in GIRoA.
    Question. What is your assessment of the role and importance of 
Pakistan to the security situation in Afghanistan? In what areas do you 
think Pakistan could improve to enhance the security situation in 
Afghanistan?
    Answer. Pakistan is postured to occupy a significant role in the 
security situation in Afghanistan. Pakistan's first priority is its 
eastern border with India, but it also continues to be concerned over 
growing Indian influence in Afghanistan. Pakistan is and will continue 
to be a critical partner in the region. The stability of the entire 
region requires cooperation between Pakistan and Afghanistan. Both 
nations face common threats that attack their civilian populations and 
threaten their long-term development. Both nations must work together 
to reduce cross border militancy and resolve conflicts to enhance the 
security of each nation and the region as a whole. I will continue to 
work with both nations to support a constructive bilateral relationship 
to support these two allies and enhance long-term stability throughout 
the region.
            u.s. military presence in afghanistan after 2014
    Question. In May, President Obama announced that, if the U.S.-
Afghan Bilateral Security Agreement is concluded, the United States 
would plan to retain 9,800 U.S. servicemembers in Afghanistan, along 
with our allies and partners. The mission of these U.S. forces would be 
training, advising and assisting Afghan security forces and supporting 
counterterrorism operations against al Qaeda. The President also 
announced that this U.S. troop level would be reduced by approximately 
half by the end of 2015, consolidating forces in Kabul and at the 
Bagram air base. By the end of 2016, U.S. forces would be drawdown to 
an embassy presence in Kabul, with a security assistance component.
    Do you support the President's decision on the size of the U.S. 
military presence in Afghanistan after 2014?
    Answer. Yes, I support the President's decision.
    Question. Do you support the pace for the reduction of those forces 
between the end of 2014 and the beginning of 2017?
    Answer. Yes, with an understanding that we should continue to 
validate the assumptions and assess the conditions on the ground as the 
drawdown takes place.
    Question. The President said that ``our military will draw down to 
a normal embassy presence in Kabul'' by the end of 2016.
    What is your understanding of what a ``normal embassy presence'' 
looks like?
    Answer. A normal embassy presence will consist of a Defense 
Attachee Office and a Security Cooperation Office under a Senior 
Defense Official with a military reporting chain through the CENTCOM. A 
deliberate and measured transfer of enduring security cooperation 
activities is required to maintain continuity of ANSF development and 
maintain our relationship with Afghanistan as an enduring 
counterterrorism partner. Planning for the Security Cooperation Office-
Afghanistan is underway at CENTCOM and its size will depend upon 
factors such as security cooperation objectives, ANSF capabilities, 
GIRoA requests, security assistance funding oversight requirements, and 
force protection concerns.
    Question. What is your understanding of what a ``normal'' security 
relationship with Afghanistan will look like?
    Answer. A normal security relationship with Afghanistan will come 
to resemble security cooperation organizations that operate in other 
parts of the world out of U.S. Embassies. The Security Cooperation 
Office-Afghanistan will contain a security force assistance capability 
tailored to the needs of the ANSF and Afghan Security Institutions. 
Over the long term, I see the United States and Afghanistan 
establishing an enduring strategic partnership, with many facets in 
addition to the military, that furthers U.S. strategic objectives in 
the region.
    Question. What are the major challenges you foresee, if confirmed, 
in the implementation of the plan announced by the President?
    Answer. I believe there are three major challenges. Our first 
challenge is to manage the transition from the ISAF mission and force 
levels to the 2015 Resolute Support mission and force level. The second 
challenge involves the shift of advisory efforts from combat advising 
to developing the Afghan Security Institutions to sustain a modern army 
and national police force. Our third challenge will be to continue 
effective counterterrorism operations, both training, advising, and 
assisting our Afghan partners and through bilateral operations with the 
Afghans to dismantle, defeat and disrupt al Qaeda in the region.
    Question. If confirmed, what plans do you have for addressing those 
challenges?
    Answer. If confirmed, I will work with United States, NATO and 
other troop contributing nations, and the Afghans to ensure we posture 
the force for Resolute Support. I will continue the effort with NATO 
and the Services to build a Resolute Support advisory team that will 
strengthen the Afghan Security Institutions. I will ensure the 
counterterrorism mission in Afghanistan remains effective through the 
transition period.
    Question. You have experience leading combat operations in both 
Iraq and Afghanistan. What are the key lines of effort and key dynamics 
that will ensure Afghanistan security conditions will be better after 
2014 than the circumstances we are seeing in Iraq today?
    Answer. Afghanistan and Iraq are two different places, with 
different cultural and security dynamics at play. The key dynamic is 
the possibility of a stable political transition that results in a new 
Afghan President who is seen as legitimate both in the eyes of the 
Afghan people and of the international community. The Afghan people 
have demonstrated their rejection of the insurgents through their 
overwhelming participation in the recent elections. The Afghan Security 
forces have developed a sense of responsibility and accountability for 
the security of all of the Afghan people. The Afghan people have 
returned this sentiment with a sense of national pride and ownership of 
the security forces. The ANSF have proven their combat capability 
through success in two fighting seasons, two national elections, and 
multiple high profile events. The key line of effort I see after 2014 
is ministerial level training, advising, and assistance, which will 
ensure the sustainability of the ANSF and institutionalize long-term 
security for Afghanistan. An effective counterterrorism partnership 
between Afghanistan and the United States is essential to address our 
most dangerous adversaries in the region.
       nato and partner nation presence in afghanistan after 2014
    Question. What do you anticipate will be the NATO and other partner 
force levels in Afghanistan after 2014?
    Answer. For 2015, the total NATO contribution will be approximately 
12,500 troops. For military planning and force generation purposes, a 
two-thirds/one-third methodology is expected to apply, where the United 
States will contribute roughly two-thirds (up to 9,800 personnel) and 
NATO will provide one-third (approximately 4,500) of the total Resolute 
Support mission force.
    Question. Will those forces be covered under the Bilateral Security 
Agreement (BSA) or under their own agreements?
    Answer. The BSA covers U.S. forces. The draft NATO-Afghanistan 
status of forces agreement (SOFA) covers all NATO forces, as well as 
non-NATO operational partners. Non-NATO operational partners include 
nations such as Australia and New Zealand. U.S. forces will be covered 
under both the BSA and the NATO-Afghanistan SOFA. Both agreements 
stipulate that the sending state, in our case the United States, will 
retain exclusive jurisdiction over their forces.
    Question. What roles and missions do you anticipate for partners 
and allies after 2014?
    Answer. In addition to the U.S. mission in southern and eastern 
Afghanistan, other Framework Nations will control three of five areas 
of responsibility across the remainder of the country. Germany will 
lead the Train Advise Assist Command (TAAC) in the North, based out of 
Mezar e Sharif; Italy will lead the TAAC in the west, based out of 
Herat; and Turkey will command the Central area of operations from 
Kabul. The execution of train, advise, and assist (TAA) will entail the 
development of the Afghan Security Institution programs and processes, 
through facilitation and counseling. It will also develop the provision 
of assistance in administration, planning, and financial management.
    Non-Framework Nations will also contribute to the mission through 
bilateral initiatives in support of the train, advise, and assist 
effort; such as the UK-led training team at the Afghan National Army 
Officer Academy in Qargha. Other Troop Contributing Nations will 
provide individual augmentees across the full spectrum of staff 
functions, having bid for specific appointments through the NATO `Flags 
to Posts' process. These personnel will contribute to the combined 
minimum target of 12,000 for the Resolute Support mission. In addition 
to these roles, partner nations will continue to provide training and 
advising assistance to the Afghan Special Security Forces (ASSF) within 
the terms of the NATO SOFA authorities.
                      bilateral security agreement
    Question. Do you support the conclusion of a bilateral security 
agreement with Afghanistan?
    Answer. Yes.
    Question. Do you agree that, without the legal protections against 
prosecution in Afghan courts that the Bilateral Security Agreement 
would provide our troops, the United States should withdraw its 
military forces from Afghanistan?
    Answer. Yes, I do. If we are unable to secure adequate status 
protections for U.S. Department of Defense military and civilian 
personnel, critical operational authorities for U.S. forces, and 
necessary U.S. access to and use of Afghan facilities, we will need to 
withdraw.
              progress of afghanistan over the past decade
    Question. What is your assessment of Afghanistan's progress over 
the past decade that our troops have operated in that country?
    Answer. The people of Afghanistan, the Afghan Government, and 
international supporters have contributed to the significant progress 
within Afghanistan over the last decade. Of note, the ANSF has taken 
full responsibility for the security of Afghanistan and earned the 
respect of the population, while improved access to education and 
medical care has increased the quality of life for Afghans. The 
November 2013 Loya Jirga's overwhelming endorsement of the Bilateral 
Security Agreement (BSA) and the high turnout for the April and June 
2014 elections were indicative of popular support for representative 
government and a continued international partnership and presence.
        performance of the afghanistan national security forces
    Question. In mid-2013 the Afghanistan National Security Forces 
(ANSF) assumed lead responsibility for security throughout Afghanistan.
    What is your assessment of the performance and capabilities of the 
ANSF since assuming the lead for Afghanistan's security?
    Answer. The ANSF have more than held their own against the 
insurgency, sustaining the gains made in the 2013 fighting season. They 
successfully secured the presidential and provincial council elections 
on April 5, 2014, as well as the run-off elections on June 14, 2014. 
The ANSF continue to demonstrate that they are a competent and 
confident force, and have embraced their role in securing Afghanistan. 
The ANSF enjoy the support and confidence of the majority of the Afghan 
people. While their capabilities have expanded rapidly since 2009, they 
are not yet self-sustainable. Based on current assessments I have 
reviewed, four key high-end capability gaps that will remain after the 
ISAF mission ends on December 31, 2014: close air support; intelligence 
enterprise; special operations; and Afghan security ministry capacity. 
International funding and coalition force assistance will be critical 
to sustaining the force after 2014 and ensuring that Afghan Security 
Institutions continue to marginalize the insurgencey by maintaining 
ANSF's tactical overmatch. If confirmed, I will focus the forces' 
efforts towards these challenges, building on the progress that has 
already been made.
    Question. What do you consider to be the most significant 
challenges the ANSF face in assuming and maintaining their security 
responsibilities in the next few years?
    Answer. ANSF must adapt to operations without coalition enablers as 
ISAF forces phase out of the battle space over time. Our primary task 
has changed from leading combat operations to providing Security Force 
Assistance (SFA) to the ANSF. As we enter the final stages of the ISAF 
mandate and prepare to execute Resolute Support, the ANSF have reached 
an important threshold. Evidence increasingly indicates that over 4 
years of investment in combat-oriented mentoring and advising has paid 
off. The ANSF still have room for improvement, but there are capable 
leaders at every echelon who understand the fundamentals of their 
profession; despite this, many significant challenges remain.
    Gaps and developmental shortfalls exist within the Afghan Security 
Institution (ASI). Capability gaps remain in ANSF aviation, 
intelligence, and special operations, along with developmental 
shortfalls in systems maintenance, requirement forecasting, and human 
capital. The ASI lacks the capacity to conduct tasks such as planning, 
programming, multi-year budgeting and execution; logistics; 
acquisitions; and human resource management. Systemic issues require 
advisory support for sustainment, specifically in Inspector General/
Transparency Accountability Oversight and strategic plans and policy. 
ASI development may slow down without robust advisory support during 
the anticipated period of high personnel turnover associated with the 
post-election transition of power.
    Critical ANSF capability gaps include: aviation, intelligence and 
ISR, and special operations, Casualty Evacuation and Medical Evacuation 
(CASEVAC/MEDEVAC), engineering (sustainability, bridging), Combined 
Arms Route Clearance Operations, and Counter-Improvised Explosive 
Devices.
    Additionally, the Afghan Security Institution will need to evaluate 
their force posture with respect to maintenance of its infrastructure. 
A significant amount of their budget and manpower could be consumed in 
power generation, facilities maintenance, sustainment and force 
protection if this issue is not addressed.
    The ANSF will continue to play a crucial role in securing what 
could be Afghanistan's first peaceful transition of political power. 
While the Afghan population spoke clearly during the electoral process, 
the fact is the Taliban led insurgency remains a resilient and relevant 
threat and will continue to threaten a peaceful transition of power.
      building and sustaining the afghan national security forces
    Question. The ANSF are near their target end strength level of 
352,000, consisting of an Afghan National Army (ANA) of 195,000 and 
Afghan National Police (ANP) of 157,000.
    In your view, do the ANA and ANP have the right size and 
capabilities to address the current security situation on the ground in 
Afghanistan?
    Answer. Yes, the ANA and ANP are the right size and are developing 
the right capabilities, with our enabling support, to address the 
security situation in Afghanistan. Based on current assessments, the 
ANSF still requires aviation, intelligence, and sustainment support 
beyond this year. We continue to work with the ANSF and GIRoA to 
address these capability gaps.
    Question. What in your view are the greatest challenges to building 
and sustaining the capabilities of the ANSF over the next 2 years?
    Answer. There are two major challenges the government will face in 
the next 2 years that could threaten the sustainability of the ANSF; 
budgeting and accountability.
    Planning, programming, budgeting, and execution capabilities are 
seen as the greatest challenge to the building and sustaining ASI 
sustainability over the next 2 years. Resource Management and 
Procurement departments across ANSF suffer from lack of qualified and 
experienced leadership and low institutional prioritization for 
planning and budget matters.
    Second, the Afghans are building processes and systems that will 
ensure a transparent and accountable budget execution process. 
International community requirements for third party oversight of 
government processes are central for continued International Community 
(IC) support. Without that support the government risks losing IC funds 
required to build and sustain the capabilities of the ANSF and the ASI.
    Question. If confirmed, what would be your priorities for building 
the capabilities of the ANSF, including the key enablers that the ANSF 
need to develop and maintain?
    Answer. The size, structure, and posture of the Resolute Support 
mission is configured towards the development of sustainable Afghan 
systems focused at the Corp level and reaching up to the ministerial 
and institutional levels. The Resolute Support plan is built around 
functionally-orientated advising, designed to facilitate the horizontal 
and vertical integration of Eight Essential Functions:

    (1)  Plan, Program Budget, and Execute; generate requirements, 
develop a resource informed budget, and execute a spend plan.
    (2)  Develop and implement internal controls to assure 
Transparency, Accountability, and Oversight.
    (3)  Maintain/enhance civilian governance of the ASI, including 
adherence to the rule of law.
    (4)  Force Generate: recruit, train, retain, manage, and develop a 
professional ANSF.
    (5)  Sustain the force through effective facilities management, 
maintenance, medical, and logistics systems.
    (6)  Plan, resource, and execute effective security campaigns and 
operations.

        a.  Inter-ministerial and joint coordination, and
        b.  Command, control, and employ Ground, Air, and Special 
Operating Forces.

    (7)  Develop and mature sufficient intelligence capabilities and 
processes.
    (8)  Maintain internal and external strategic communications 
capabilities.

    These functions are interdependent and, taken as a whole, 
contribute directly to Afghan sustainability. They span across all 
levels of conflict, from the tactical to the strategic. The key enabler 
to this effort is the ongoing provision of quality advisors to focus on 
the delivery of Functionally-Based Security Force Assistance (FB-SFA).
    Through the advisory efforts associated with the Eight Essential 
Functions we will improve the Afghan Security Forces' capabilities in 
those areas where we are currently providing enabler support: aviation, 
intelligence, and special operations.
    Question. At the North Atlantic Treaty Organization (NATO) Summit 
in Chicago in 2012, the ISAF participating countries discussed a model 
for the future size of the ANSF of around 228,000, a reduction of about 
one third from the current ANSF end strength.
    What is your understanding regarding current assumptions for the 
size of the Afghan security forces during and after the completion of 
the post-2014 train, advise and assist mission?
    Answer. The current authorized ``surge'' end strength of 352,000 
will be maintained at least through the end of 2015. We will continue 
to coordinate with the Afghans and international partners on force 
planning beyond that point based on a review of the anticipated 
security environment, ANSF performance and capacity, and available 
funding.
    Question. Do you agree that any future reductions in the size of 
the ANSF post-2014 need to be based on the security conditions in 
Afghanistan at the time those reductions would occur?
    Answer. Yes.
    Question. If confirmed, do you agree to conduct a review of the 
plans for the future ANSF force levels to assess whether the size and 
capabilities of those forces are appropriate to address security 
conditions in Afghanistan post-2014?
    Answer. If confirmed, I will continue the process of assessing 
future ANSF force levels to determine what size and capabilities are 
appropriate to address evolving security conditions in Afghanistan. As 
conditions on the ground change we will, in partnership with GIRoA, 
continue to assess the necessary size of the ANSF to ensure the success 
of the mission and the success of the ANSF post-2014.
    Question. How long after 2014 do you anticipate that the United 
States and international donors will have to provide significant 
funding to sustain the ANSF?
    Answer. We helped build an Afghan Security National Force to meet 
the current security environment. We believe that as the security 
environment continues to improve and the ANSF becomes more efficient, 
forces can be scoped differently and thereby allow GIRoA to meet the 
cost of the ANSF sooner. However, I expect that GIRoA will require 
significant contributions to support their national security forces for 
a number of years beyond 2014. Although most major equipment purchases 
and facilities construction are all but complete, there are significant 
sustainment costs associated with maintaining the current force 
structure and capability of the ANSF. While I cannot say exactly how 
long, or at what level, these contributions will be required, I can 
describe what we are doing to address it.
                   train, advise, and assist mission
    Question. What is your understanding of the role that U.S. and 
coalition trainers and advisers will play in building the capabilities 
of the ANSF after 2014?
    Answer. U.S. and coalition personnel will continue to train, 
advise, and assist the Afghan Security Institutions and the ANSF to 
improve systems, processes and organizations, with the goal of 
developing a self-sustainable ANSF and decreasing the need for U.S. and 
coalition support. The majority of Afghan systems and processes are 
functional; however, there are friction points and maturity issues 
within these systems. If confirmed, I will conduct further review on 
these efforts to determine possible improvements to the process.
    Question. What is your understanding regarding the percentage of 
the train, advise, and assist mission force structure that will be for 
actual trainers and advisors, and what percentage will be for other 
functions, such as force protection, support, or command and control?
    Answer. The 12,500 NATO personnel that will constitute the Resolute 
Support mission in January 2015 will be broadly attributed to one of 
the three campaign Lines of Effort: the development of the ANSF and the 
Afghan Security Institution; protection of the force; and posturing of 
the force. Of the 12,500 personnel, 18 percent will be in a direct 
train, advise, and assist role, developing the ANSF and the Afghan 
Security Institution. Protection will be provided by 32 percent of the 
overall force. Enablers, or those responsible for posturing the force, 
will constitute approximately 50 percent of personnel.
    Question. At West Point on 28 June, President Obama said, ``And at 
the end of this year, a new Afghan President will be in office and 
America's combat mission will be over.''
    What is your understanding of what specific lines of effort (e.g. 
close air support, medevac) that would be terminated as a result of the 
combat mission being over?
    Answer. U.S. forces will continue to have enabler support, 
including close air support, medevac, and intra theater lift.
    Question. What are the key institutional development areas that 
must be addressed after 2014 to ensure sustainability of the ANSF?
    Answer. The Afghan Security Institutions, namely the Ministry of 
Defense and the Ministry of Interior, are lacking in two key areas. 
First, the lack of experience with plan, program, budget, and execute 
processes is holding back their ability to sustain security and combat 
forces within the ANSF. The second key institutional development area 
is Transparency, Accountability, and Oversight.
                   post-2014 counterterrorism mission
    Question. What is your understanding of roles and missions for U.S. 
military personnel engaged in counterterrorism operations in 
Afghanistan after 2014?
    Answer. With appropriate authorities and a signed BSA, U.S. 
military personnel will continue a counterterrorism (CT) mission 
against the remnants of al Qaeda after 2014. Additionally, U.S. SOF 
will continue training, advising and assisting Afghan CT forces to 
develop their CT capacity.
                             insider threat
    Question. What is your assessment of the measures that have been 
taken by ISAF and Afghan leaders to address the insider threat?
    Answer. The combined efforts of ISAF and the ANSF have stopped 
numerous insider attacks before they could occur and limited casualties 
through adherence to force protection policies. No single 
countermeasure can prevent insider attacks; therefore, ISAF and the 
ANSF have introduced a program of countermeasures which, when applied 
collectively, can reduce the threat posed by insider attacks. These 
measures include: strengthened vetting and screening processes for ANSF 
new recruits and those returning from leave; increased numbers and 
training for counterintelligence agents; cultural awareness training 
for both ISAF and ANSF personnel; and enhancing force protection for 
personnel advising Afghans or in remote areas. Insider attacks by ANSF 
against ISAF (Green-on-Blue) have declined substantially since 2012. 
This is partly due to the reduction of ISAF personnel in contact with 
ANSF forces and partly due to increased force protection and ISAF 
counterintelligence measures. Insider attacks by ANSF against ANSF 
(green-on-green) spiked in 2013. As a direct result of ISAF 
counterintelligence training of ANSF forces, green-on-green attacks in 
the first 6 months of 2014 have dropped 25 percent when compared to the 
same 6 month period in 2013. Positive metrics for both green-on-blue 
and green-on-green insider attacks indicate our force protection 
efforts are working. The joint, integrated ISAF-ANSF approach and the 
level of the Afghan Government's commitment to reducing this mutual 
threat are encouraging. For example, ISAF and the ANSF have a three-
star Insider Threat Action Group; they have formed joint casualty 
assessment teams to study incidents and identify lessons; and the ANSF 
vetting programs have stopped hundreds of insider threats before they 
became attacks by identifying suspected attackers.
    Question. If confirmed, what additional steps, if any, would you 
recommend to address this threat?
    Answer. If confirmed, I will continue to make countering this 
threat a top priority. There is nothing more important than protecting 
the force. I intend to maintain the complex, layered, security system 
in place in Afghanistan today which leverages not only coalition force 
protection capabilities but also those of the ANSF and other 
governmental agencies. I will continuously monitor and assess the 
nature of insider threats and potential vulnerabilities and ensure 
coalition personnel are properly resourced to counter this threat, 
particularly as ISAF becomes smaller. We are not alone in suffering the 
effects of insider attacks; our Afghan partners have also suffered 
considerably from this threat. Therefore, I will continue to strengthen 
and leverage our partnership with the Afghan Government in implementing 
a comprehensive, combined, and integrated approach by continuing our 
support for cultural awareness and language training for both coalition 
and ANSF personnel as well as strengthening intelligence sharing.
                    afghan special operations forces
    Question. According to the most recent quarterly report on Progress 
Toward Security and Stability in Afghanistan (the ``Section 1230'' 
report), Afghan Special Operations kandaks now lead 99 percent of all 
special operations in Afghanistan. The report also states ``while they 
are tactically proficient units, they continued to operate closely with 
NATO Special Operations Component Command-Afghanistan (NSOCC-A) 
partners to conduct missions.''
    What is your understanding of the progress in training the Afghan 
Special Operations kandaks and the timeline for achieving full 
operational capability of these units?
    Answer. NSOCC-A remains focused on the continued development of the 
Afghan Special Operations Kandaks (SOKs) to ensure their viability as a 
long-term counterterrorism force. The SOKs continue to play a crucial 
role in the security of Afghanistan and have proven their ability to 
conduct complex special operations with limited coalition enabler 
support.
    The Afghan National Army Special Operations Command (ANASOC) School 
of Excellence (SOE) has evolved from a coalition-led effort to an all 
Afghan-instructed training institution which provides an organic force 
generation capability for the SOKs. The Military Intelligence Kandak 
and General Support Kandak are currently at their Initial Operational 
Capability (IOC) and both will achieve Full Operational Capability 
(FOC) in 2015. Moreover, ANASOC is developing an operations center 
which will reside at ANASOC headquarters and provide a command and 
control capability for SOK independent operations.
    As ANASOC demonstrates progress in core warfighting skills, the 
NSOCC-A advisory effort remains focused on the development of Afghan 
sustainable systems and SOK critical capabilities, such as 
intelligence, fires, sustainment and mobility. Through these combined 
efforts, the SOKs continue to meet development milestones and are 
projected to achieve full operational capability in early 2016.
    Question. What are the most critical enabling capabilities needed 
by the Afghan Special Operations kandaks to ensure successful mission 
execution post-2014?
    Answer. The most critical enabling capabilities needed by the 
Afghan Special Operations Kandaks post-2014 are intelligence support 
and tactical mobility.
             u.s. special operations forces in afghanistan
    Question. How do you see the role of U.S. Special Operations Forces 
in Afghanistan evolving as conventional forces continue to draw down 
post-2014, assuming a Bilateral Security Agreement is in place?
    Answer. It is my view that Special Operations Forces (SOF) will 
continue to play a vital role in Afghanistan in a number of ways. SOF 
will be the only force conducting the TAA mission at the tactical 
level. NSOCC-A will continue its TAA efforts with ASSF while the 
Resolute Support (RS) basing will enable tactical TAA, and then 
transition its focus to institutional TAA in later phases of RS. 
Through their advisory efforts, they will enable the ASSF to disrupt 
insurgent networks, maintain ASSF operational tempo, and build capable, 
self-sustaining Afghan SOF. SOF TAA of the ASSF will also help mitigate 
the operational risk associated with a drawdown of conventional forces.
    Question. If confirmed, how would you ensure adequate enabling 
capabilities for Special Operations Forces as general purpose forces 
continue to draw down in Afghanistan?
    Answer. Providing SOF with adequate enabling capabilities is one of 
my highest priorities. Most SOF will be stationed at or near 
conventional bases. These bases will provide all requisite logistic 
requirements and medical evacuation. As the regional bases are closed 
or transitioned to the ANSF, SOF will retrograde with conventional 
forces. ISR requirements for SOF will be also addressed based on the 
operational need. I am confident that the allocated ISR capabilities 
located in-theater, as well as additional ISR support available from 
outside the theater will meet the SOF requirements.
            afghan local police/village stability operations
    Question. The Village Stability Operations and Afghan Local Police 
(ALP) programs have been called critical to ISAF's counterinsurgency 
strategy in Afghanistan.
    What has been the effect of these programs on rural Afghan 
populations and what has been the response from the Taliban?
    Answer. Per Presidential Directive, the ALP is a force composed of 
Guardians, recruited from the same local villages where they work, who 
can readily distinguish locals from insurgents. Since the ALP are 
recruited, vetted, and employed locally, the Elders and local 
populations trust them for protection. The ALP has contributed to an 
increased perception of security by denying insurgent access to the 
population and disrupting insurgent freedom of movement. Public 
perception polling from December 2013 reflected that the ``ALP's value 
to community security are overwhelmingly positive.'' Furthermore, the 
same polling found that local Afghans have referred to the ALP as being 
``The first enemy of the Taliban.'' The Taliban remain focused on 
targeting the ALP because they threaten insurgent access to the 
population and insurgent freedom of movement.
    Question. What is your understanding of the commitment of the 
Government of Afghanistan to continue its support of these programs 
through 2014 and beyond?
    Answer. The Government of Afghanistan recognizes the value of ALP 
in providing security in rural areas. The ALP served a significant 
security role during the recent national election and subsequent 
Presidential run-off. The Government of Afghanistan noted the ALP in 
the 2-year National Police Plan (NPP) and the 5-year National Police 
Strategy (NPS). Both the NPP and NPS call for keeping the ALP through 
2017 and then transitioning the ALP into the other Afghan National 
Police pillars in 2018. The best way for the GIRoA to demonstrate 
commitment to the ALP would be for Ministry of the Interior to take 
full responsibility for the command and control, administration, and 
logistical sustainment of the ALP.
    Question. If these programs continue beyond 2014, what is your 
understanding of the role, if any, that U.S. Special Operations Forces 
will play in supporting them?
    Answer. After 2014, NSOCC-A will support the ALP Headquarters in 
Kabul through the ALP Special Operations Advisory Group (ALP SOAG). The 
ALP SOAG will continue mentoring the ALP Headquarters Commander and 
Staff in the areas of administration, training, pay, budget, and 
logistics. Additionally, ALP SOAG will conduct command and staff 
assistance visits to the Provincial Police Headquarters where feasible.
                           contract oversight
    Question. The United States has implemented a number of efforts to 
reduce the risk that U.S. contracting practices will be subject to 
corruption, which helps fuel the insurgency and undermines the 
legitimacy of the Afghan Government. These efforts include the 
establishment of the Combined Joint Interagency Task Force-Shafafiyat 
(Transparency) to coordinate ISAF anti-corruption activities.
    What is your assessment of ISAF's anti-corruption efforts and 
understanding of criminal patronage networks, and what additional 
steps, if any, do you believe should be taken to improve those efforts 
and to ensure adequate oversight of ISAF and U.S. contracts is in 
place?
    Answer. Corruption poses a strategic threat to the long-term 
stability of Afghanistan as it undermines security, government 
legitimacy, and prospects for economic development. Recognizing that 
Afghan political will is a necessary component of dealing with 
corruption, I believe ISAF has implemented a number of essential steps 
for addressing this issue. For example, countering corruption and 
organized crime is a specific line of operation in the ISAF campaign. 
If confirmed, I will reinforce a command climate that takes those 
responsibilities seriously.
    Question. Section 841 of the National Defense Authorization Act for 
Fiscal Year 2012 provided CENTCOM with new tools to avoid contracting 
with the enemy, as requested by the Department of Defense. This 
authority has been expanded in subsequent National Defense 
Authorization Acts.
    What is your understanding of the extent to which the new 
authorities authorized in section 841 have been implemented?
    Answer. Section 841 of the National Defense Authorization Act for 
Fiscal Year 2012 provided CENTCOM with new tools to avoid contracting 
with the enemy, as requested by the Department of Defense. This 
authority has been expanded in subsequent National Defense 
Authorization Acts. Since section 841 does not sunset until the end of 
2014, the anti-corruption Task Force 2010 has continued to use 841 
authorities in their proposals and has matured its vendor vetting 
processes to the point that it fulfills the requirements that section 
841 addresses. Vendor vetting has been implemented successfully to 
prevent contracting with the enemy.
    Question. What role do you expect to play, if confirmed, in 
carrying out the authorities provided in section 841?
    Answer. Section 841 of the National Defense Authorization Act for 
Fiscal Year 2012 prohibits contracting with the enemy in the CENTCOM 
theater of operations. If confirmed, I will uphold my responsibilities 
required under section 841, to include fulfilling reporting 
requirements, and will support the efforts of others, up and down my 
chain of command, in the execution of their duties.
    Question. What are any lessons learned from use of this authority 
both within CENTCOM and for other combatant commands?
    Answer. While section 841 has been an effective tool in preventing 
U.S. monetary support to the insurgency, there are two key lessons for 
other combatant commands worth noting. The first lesson is that 
combatant commands should place strong emphasis on thorough vendor 
vetting processes which, if implemented properly, preempt fraud and 
prevent contracting with the enemy. The second lesson has to do with 
the importance of coordination between the COCOM, the intelligence task 
force, and the Head of the Contracting Activity (HCA). Each of these 
links provides vital information on the second- and third-order effects 
of the program at both the operational and strategic levels.
                     afghan public protection force
    Question. In March the Government of Afghanistan announced that it 
would dissolve the Afghan Public Protection Force (APPF), the 
government-established guard force for protecting convoys and 
international reconstruction projects.
    What is your understanding of the impact of the Government of 
Afghanistan's decision to dissolve the APPF on the security of our 
military and civilian personnel in Afghanistan?
    Answer. The security of our military and civilians is at the 
forefront of everything we do. Our commanders on the ground, at the 
tactical and operational levels, constantly analyze their respective 
operational environments, building in risk mitigation strategies, and 
aligning their forces to accomplish their missions.
    While the dissolution of the State Owned Enterprise has created 
points of concern, the impacts to fixed site security have been 
mitigated as our legal, financial, and advisor teams reconcile the 
processes and our leaders engage the ministries to bring them in line 
with agreed upon acceptable standards. Site security operations 
continue for both ISAF and other coalition developmental projects as 
these matters are worked through with GIRoA.
    Question. If confirmed, what steps, if any, would you recommend for 
addressing any security concerns arising from the dissolution of the 
APPF?
    Answer. Convoy and site security services will remain a small but 
important subset of the larger security concerns and anti-corruption 
efforts we have in Afghanistan. Our Afghan partners are in the lead for 
the security of their country and our efforts should remain focused on 
the development of Afghan security forces capability.
           dod-funded counternarcotics efforts in afghanistan
    Question. According to the United Nations Office of Drugs and 
Crime, drugs from Afghanistan account for more than 90 percent of the 
world's heroin trade.
    As it relates to the drug trade in Afghanistan, what is your 
understanding of the role of the Commander of ISAF and Commander of 
USFOR-A respectively in counternarcotics efforts?
    Answer. Under U.S. and NATO authorities, COMISAF/COMUSFOR-A 
counters the drug trade in Afghanistan by strengthening, developing, 
and enhancing the institutional capabilities of key Afghan ministries, 
like the Ministry of Counter-Narcotics. By working across interagency 
and International Community lines of effort, ISAF/USFOR-A assists GIRoA 
in preventing the Afghan drug trade from funding the insurgency, 
fuelling corruption, and undermining security, governance, and 
development.
    Question. In your view, what role, if any, should the Department of 
Defense have within broader U.S. Government counternarcotics efforts 
beyond the current calendar year?
    Answer. DOD has assets and resources that it can apply to 
counternarcotic efforts that are helpful and supportive. In 
Afghanistan, CENTCOM is actively engaged in mentoring the 
Counternarcotics Police of Afghanistan and other specialized Afghan 
counternarcotics units. If confirmed, I will evaluate how USFOR-A might 
be able to contribute to improving counternarcotics efforts in 
Afghanistan.
    Question. What is your understanding of the nexus, if any, between 
the drug trade and the various insurgent groups in Afghanistan? Is the 
nexus, in your view, sufficient to conclude that the drug trade is a 
primary source of funding for the insurgency?
    Answer. The Taliban has been involved in opium and hashish 
cultivation and trafficking for years in Afghanistan. In many areas of 
Afghanistan, the insurgency intimidates the farmers to cultivate 
additional acres. By working and controlling drug trafficking 
organizations and other criminal elements associated with the Afghan 
drug trade, the Taliban has profited greatly. We have also seen the 
inclusion of criminal patronage networks into this narcotics-insurgency 
nexus.
            counter threat finance activities in afghanistan
    Question. What is your assessment of the efforts by the U.S. 
Government to identify and counter the sources of financing for the 
insurgency in Afghanistan, including the financial networks of the 
Haqqanis?
    Answer. Since the fall of 2013, the level of interagency 
communication and allocation of resources has significantly increased 
in an effort to combat Haqqani Network (HQN) financial mechanisms and 
revenue streams. However, despite increased interagency collaboration, 
no major financial actions have been completed against the HQN since 
the network was designated a Foreign Terrorist Organization (FTO) by 
the U.S. Department of State in September 2012.
    Question. If confirmed, what changes, if any, would you recommend 
to enhance U.S. counter threat financing efforts in Afghanistan?
    Answer. To safeguard U.S. interests in Afghanistan, we must 
maintain and improve our capacity to track and disrupt threat finances 
originating in Afghanistan, Pakistan, and from the Persian Gulf states. 
Future efforts need to be focused on targeting sources of terrorist 
funding and providing evidence to support criminal indictments and law 
enforcement prosecutions.
       general purpose forces used for security force assistance
    Question. Building the security forces of foreign nations has 
traditionally been a Special Operations Forces mission. However, in 
both Iraq and Afghanistan, general purpose forces have been performing 
this mission for some time.
    What is your understanding and assessment of the preparation and 
performance of Army and Marine Corps general purpose forces operating 
in Afghanistan in a security force assistance role?
    Answer. In my current position as the VCSA, and in my previous 
assignment as the Army G3, I have been responsible for ensuring Army 
general purpose forces were well prepared for the security force 
assistance (SFA) mission. In Afghanistan, the performance of Army and 
Marine Corps general purpose forces in a SFA role has been outstanding, 
as evidenced by the ANSF's development into a confident force capable 
of securing their nation. This progress would not have been possible 
without the training, advising, and assisting efforts of Army and 
Marine Corps general purpose forces.
    Question. How do you envision the use of general purpose forces in 
the security force assistance role, if at all, as U.S. forces complete 
the drawdown through 2014 and as part of the planned residual force for 
supporting the continued building of the capabilities of the Afghan 
security forces?
    Answer. General purpose forces will continue to TAA their Afghan 
National Security Force (ANSF) counterparts for the remainder of 2014; 
however the emphasis will shift to improving ANSF organizations, 
systems and processes. We refer to the new mission as functionally 
based-SFA (FB-SFA), and we have developed eight essential functions to 
focus our FB-SFA efforts. Specifically, these functions include: (1) 
Plan, program, budget and execute; (2) Assure transparency, 
accountability and oversight; (3) Civilian governance of Afghan 
Security Institutions, including adherence to the rule of law; (4) 
Force generate; recruit, train, retain, manage and develop a 
professional ANSF; (5) Sustain the force through facilities management, 
maintenance, medical and logistics systems; (6) Plan, resource, and 
execute effective security campaigns; (7) Sufficient intelligence 
capabilities and processes; and (8) Maintain internal and external 
STRATCOM capability. By using the eight essential functions to focus 
FB-SFA, we will help the ANSF develop and strengthen institutional 
capabilities and capacity, while vertically integrating systems and 
processes from the national to the regional-level for the remainder of 
2014 and beyond. To augment our functional specialists, AF-PAK hands 
and Foreign Area Officers will be integrated into task-organized 
functional advising teams to ensure that our functional expertise can 
be appropriately transmitted in a way that our Afghan partners can 
assimilate. In some specific roles, we will reach back to our 
professionals in our civilian DOD force to provide critical expertise 
for particularly technical processes, like the planning, programming, 
budgeting, and execution function.
                     assignment policies for women
    Question. What restrictions, if any, do you believe should be 
imposed with respect to the assignment of combat-related duties to 
women in uniform, or the assignment of women to combat units?
    Answer. I fully support the efforts of the Military Services to 
assess all military occupational specialties and unit assignment 
restrictions and look forward to seeing their recommendations for 
policy changes.
                           deployment health
    Question. The committee is concerned about the stress on military 
personnel resulting from deployments and their access to mental health 
care in theater to deal with stress, as well as the prevention and care 
for traumatic brain injury.
    What is your assessment of the adequacy of health care and mental 
health capabilities supporting servicemembers in Afghanistan?
    Answer. It is USFOR-A's mandate to provide a level of health care 
that is on par with the care our servicemembers receive at home, and we 
are achieving that standard for primary and specialty care regardless 
of location. In the area of trauma care, USFOR-A greatly exceeds that 
standard; our Joint Theater Trauma System, as well as the Tactical 
Combat Casualty Care (TCCC) guidelines for point of injury care, are 
among the best trauma systems in the world. We adhere closely to the 
`golden hour' standard for our MEDEVAC missions, and the speed with 
which we evacuate patients out of Afghanistan, whether after combat 
injury or for care beyond what is available in theater, is exceptional. 
If confirmed, I will endeavor to maintain this high standard.
    U.S. Forces Afghanistan (USFOR-A) provides both in-person and 
virtual resources to care for our deployed servicemembers with 
behavioral health concerns. We consistently exceed the recommended 
provider-to-deployed Soldier ratio (Standard is 1/700 and we are 
currently at 1/531). We continue to utilize video technology that 
allows access to behavioral health specialists for servicemembers even 
in remote locations. Additionally, the Military Crisis Line 
headquartered in CONUS provides reach-back to Afghanistan, and affords 
24/7 access to counselors via phone and computer. USFOR-A maintains 
vigilance to identify servicemembers at risk both before and after 
deployment through rigorous medical screening and frequent contacts in 
both formal and informal settings. I am confident that we are meeting 
the mental health needs of our deployed personnel in Afghanistan.
    Question. What is your assessment of suicide prevention programs 
and resources available to support these programs in Afghanistan?
    Answer. USFOR-A maintains a significant effort to develop and 
deploy suicide prevention programs and resources for servicemembers and 
civilians serving in Afghanistan. These programs are in place and 
personnel know where to get help. We keep our behavioral health assets 
mobile in order to effectively push services forward where they are 
needed, and we provide crisis intervention as well as the full spectrum 
of psychiatric services that would be available to servicemembers at 
risk in any environment. Command involvement is critical for the 
successful employment of these programs and the support from commanders 
has been key to getting the word out and reducing any stigma from 
seeking behavioral health services. Suicide prevention is something 
that I take very seriously, and, if confirmed, it will be a high 
priority for me.
    Question. What is your assessment of the implementation of the 
Department of Defense policy on management of mild traumatic brain 
injury throughout Afghanistan?
    Answer. USFOR-A is consistently monitoring the comprehensive in-
theater evaluation process for mild traumatic brain injury (mTBI) and 
has shown significant progress in how we screen for and treat these 
injuries. The medical treatment system begins at the point of injury 
with MACE screening for all suspected mTBI through unit providers who 
perform extended evaluations. If necessary, they can refer cases to one 
of two fully staffed 24/7 Concussion Care Centers, one at each of our 
Role III medical facilities. These centers are equipped with CT scans 
for evaluation and diagnosis and can treat servicemembers for up to 21 
days. They are staffed by a neurologist as well as occupational therapy 
support staff to optimize rehabilitation and have demonstrated 
consistently high return to duty rates. mTBIs are closely tracked 
throughout the CJOA-A (Combined/Joint Operations Area-Afghanistan) via 
the BECIR (Blast Exposure Concussion Incident Report). Additionally, we 
are investigating and employing technologies such as helmet and vehicle 
sensors to identify potentially concussive events among our 
servicemembers.
                 sexual assault prevention and response
    Question. The Department has developed comprehensive policies and 
procedures to improve the prevention of and response to incidents of 
sexual assaults, including providing appropriate resources and care for 
victims of sexual assault.
    What is your view of the steps taken to prevent and respond to 
sexual assaults in Afghanistan, including assaults by and against U.S. 
civilian and contractor personnel?
    Answer. Victims of sexual assault need to be protected and receive 
timely access to appropriate treatment and services, regardless of 
their location. The current policy, education, training, and commander 
involvement at all levels ensure we're on the right course in 
eradicating this crime from our force, including all U.S. personnel in 
Afghanistan, whether military, government civilian, or contractor. If 
confirmed, I will ensure that if any deployed servicemember, civilian 
or contractor is assaulted, he or she will receive appropriate and 
responsive support and care. As importantly, I will do all I can to 
prevent incidents of sexual assault.
    Question. What is your view of the adequacy of the training and 
resources in place in Afghanistan to investigate and respond to 
allegations of sexual assault?
    Answer. The Services recently enhanced their resources for 
investigating and responding to allegations of sexual assault. Combat 
zones and other overseas environments present special challenges that 
require coordination to ensure we are applying those resources 
effectively and efficiently. If confirmed, I will review our sexual 
assault prevention and response program to ensure it meets the needs of 
our deployed servicemembers and commanders; that resources are 
appropriately provided so that reports of sexual assault are fully 
investigated and commanders are fully capable of appropriately 
adjudicating allegations of sexual assault; and I will ensure deployed 
victims have full access to treatment and victim care services.
    Question. What is your view of the willingness and ability of 
military leaders to hold assailants accountable for their acts?
    Answer. While I have served as Vice Chief of Staff, Army commanders 
have prosecuted the most serious sexual assault cases at a rate more 
than double that of our civilian jurisdictions, including many cases 
that civilian authorities refused to pursue. If confirmed, I will 
expect all military leaders to ensure allegations of sexual assault are 
referred for independent law enforcement investigation, to provide 
appropriate care for the victims, and to ensure that alleged 
perpetrators are held appropriately accountable. The Department's 
policy emphasizes the command's role in an effective response. Special 
training is provided to commanders, investigators, and prosecutors to 
ensure they are prepared to address incidents of sexual assault. Our 
policies seek to balance victim care with appropriate command action 
against offenders in order to build victim confidence in assisting 
investigations.
    Question. What is your understanding of the adequacy of the 
resources and programs in Afghanistan to provide victims of sexual 
assault the medical, psychological, and legal help they need?
    Answer. Victims of sexual assault need to be protected and receive 
timely access to appropriate treatment and services, regardless of 
their location. The current policy, education, training, and commander 
involvement at all levels ensure we're on the right course in 
eradicating this crime from our force, including all U.S. personnel in 
Afghanistan, whether military, government civilian, or contractor. 
Requirements vary across the Services, but currently, all units in 
Afghanistan are required to provide Sexual Assault Response 
Coordinators and Victim Advocates. The Secretary of Defense has 
directed each service to establish Special Victims Counsel (SVC) to 
provide victims the option of legal advice, representation, and 
advocacy services. If confirmed, I will ensure that if any deployed 
servicemember, civilian or contractor is assaulted, he or she will 
receive appropriate and responsive support, care, and legal assistance. 
As importantly, I will do all I can to prevent incidents of sexual 
assault.
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. Initiatives reinforce the Department's commitment to 
eradicating sexual assault from our ranks. If confirmed, I will promote 
a leadership climate that encourages reporting without fear and holds 
perpetrators appropriately accountable for their actions. Whether 
deployed abroad or at home, commanders and leaders at every level must 
fully understand their authority, responsibilities, and obligations to 
establish positive command climates that safeguard all members within 
their units from predatory behavior. Facilitating this climate is an 
inextricable part of that bond of trust we share with our fellow 
brothers and sisters in arms. If confirmed, I will ensure commanders 
have the resources they need to provide care and support for victims 
and fairly adjudicate each case.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults have 
occurred?
    Answer. Combating sexual assault and harassment remains our top 
priority. The commander of U.S. Forces-Afghanistan developed a Sexual 
Assault Prevention and Response Information Plan that requires leaders 
to engage Coalition Forces, DOD civilians, contractors, and third 
country nationals about the DOD position on sexual harassment and 
sexual assault. Units conduct focus groups, sensing sessions and sexual 
assault review boards quarterly to foster an environment based on 
mutual respect and trust. The sexual assault review boards are 
instrumental in demonstrating that leaders will take action in sexual 
assault cases. We continue to take this issue very seriously, and also 
know how much work remains to be done.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. Removal of the commander's authority to prosecute sexual 
assault removes a key mechanism to respond to the needs of soldiers 
within the command, especially the victims.
    The commander's role in the military justice system is simply 
essential. The Commander is responsible for good order, discipline, 
health and morale and welfare of the force. The commander needs the 
ability to take timely and appropriate action, locally and visibly, 
which impacts the overall discipline of the force. Particularly in a 
deployed environment, adding a complex, external approval process for 
appropriate action will impede the commander's ability to deal swiftly 
and fairly with investigated incidents of sexual assault, and 
consequently impede the commander's ability to protect victims and 
prevent further assaults.
    Question. Do you consider the current sexual assault policies and 
procedures, particularly those on restricted reporting, to be 
effective?
    Answer. The Department has put considerable effort into the 
development of policies and procedures designed to address sexual 
assault and improve reporting. The Department faces the same challenges 
that society faces in dealing with incidents of sexual assault--
balancing care to victims with offender accountability. The 
Department's restricted reporting allows victims who wish to remain 
anonymous to come forward and obtain the medical, legal, and advocacy 
support they need following an allegation of sexual assault.
    Question. If confirmed, what actions will you take to reassess 
current policies, procedures and programs and to ensure senior level 
direction and oversight of efforts to prevent and respond to sexual 
assaults in Afghanistan?
    Answer. If confirmed, as part of my assessment, I will ensure that 
all commanders in theater evaluate the sexual assault prevention and 
response capabilities for their areas of responsibility. Further, this 
assessment will solicit feedback from those below Commander-level to 
ensure we create an atmosphere which aims to eliminate assault.
                  standards for treatment of detainees
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the United States Government, regardless 
of nationality or physical location shall be subject to cruel, inhuman, 
or degrading treatment or punishment.
    If confirmed, will you take steps to ensure that all relevant 
Department of Defense directives, regulations, policies, practices, and 
procedures applicable to U.S. forces in Afghanistan fully comply with 
the requirements of section 1403 and with Common Article 3 of the 
Geneva Conventions?
    Answer. Yes, if confirmed, I will ensure that U.S. forces in 
Afghanistan fully comply with all relevant provisions of Department of 
Defense directives, regulations, policies, practices, and procedures 
applicable to U.S. forces in Afghanistan, and that they fully comply 
with the requirements of section 1403 of the Detainee Treatment Act of 
2005 and with Common Article 3 of the Geneva Conventions. Conducting 
detention operations in the most humane manner possible remains a 
strategic component of our campaign that directly reflects upon our 
Nation's values and the ideals we espouse to our Afghan counterparts.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes, if confirmed, I understand and support the existing 
standards for the treatment of detainees and will adhere to them. All 
detainees shall be treated humanely, and in accordance with U.S. law, 
the Law of War, and applicable U.S. policy. Humane treatment entails 
the following: no violence, no cruelty, no torture, and no humiliating 
or degrading treatment. Under U.S. law, humane treatment also consists 
of providing detainees with adequate food, drinking water, shelter, 
clothing, medical care, and protection of personal property. I believe 
these humane treatment policies, as practiced at the Detention Facility 
in Parwan, have adequately protected detainees, provided for actionable 
intelligence, contributed to mission success, and enhanced U.S. forces' 
reputation in the global community.
    Question. How would you ensure a climate that not only discourages 
the abuse of detainees, but that encourages the reporting of abuse?
    Answer. I believe that engaged and active leadership grounded in 
the requirements of Common Article 3 of the Geneva Convention and DOD 
Directive 2310.01E is required for the secure and humane care, custody 
and control of detainees. If confirmed, I will ensure these elements 
remain the cornerstone of U.S. Law of Armed Conflict detainee 
operations. I will also reinforce the obligation to prevent abuse and 
the duty to report abuse as non-negotiable elements in our guard force 
training and ensure all detainees are informed of their rights upon 
entry into the detention facility, to include their right to report any 
type of abuse free from retribution. The use of medical providers to 
screen for signs of abuse, and the integration of a robust self-
assessment program bolstered by external assessments from the 
International Committee of the Red Cross/Red Crescent further creates 
an open and transparent command climate fused with timely feedback. 
Finally, if confirmed, I will ensure my command team has internalized 
their professional responsibility to track and investigate any 
allegations of abuse and take swift action when appropriate. 
Furthermore, we will continue to assist the Afghan National Army (ANA) 
in developing their detainee abuse reporting systems and sustain the 
use of U.S. advisors in ANA controlled facilities.
    Question. What is your understanding of the agreement between the 
United States and Afghanistan regarding detainees in Afghanistan 
currently and going forward after 2014?
    Answer. As noted by the President on June 12, 2014, in a letter 
submitted to Congress consistent with the War Powers Resolution, U.S. 
forces have turned over all Afghan nationals detained by U.S. forces in 
Afghanistan to Afghan custody pursuant to a Memorandum of Understanding 
(MOU) signed on March 25, 2013. Under this MOU, U.S. forces in 
Afghanistan transfer any new Afghan captures to Afghan custody and 
control within 96 hours after capture. Additionally, U.S. forces in 
Afghanistan continue to detain approximately 38 non-Afghan nationals 
under the Authorization for the Use of Military Force (AUMF) (Public 
Law 107-40), as informed by the law of war. After 2014, U.S. forces 
will retain the authority to detain both Afghan nationals and non-
Afghans in accordance with the law of war.
    The BSA would provide context, if it has entered into force, and it 
includes a prohibition on the maintenance or operations of detention 
facilities by U.S. forces in Afghanistan. It is my understanding that 
this provision was among the most extensively discussed aspects of the 
BSA text. Within the context of the entire BSA text, this provision was 
intended to reflect existing U.S. policies and practices with respect 
to the conduct of military operations in Afghanistan and to preserve 
the authority of U.S. forces to take necessary action for self-defense 
and force protection purposes, which would include the authority to 
detain as referenced above.
    Furthermore, U.S. forces will retain the ability to transfer 
dangerous insurgents who they detain to Afghan authorities for further 
action, such as investigations and prosecution.
                  prisoner exchange for sgt. bergdahl
    Question. What are your views on the prisoner exchange of five 
Afghan Taliban detainees for the release of Sgt. Bowe Bergdahl?
    Answer. Our Nation demonstrated what we have told our people for 
years: we don't leave a servicemember behind.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this position, to appear before this 
committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ISAF Commander/Commander, 
USFOR-A?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Carl Levin
clearance of unexploded ordnance at u.s. training ranges in afghanistan
    1. Senator Levin. General Campbell, at the request of the 
Department of Defense (DOD), the committee included in its markup of 
the Defense Authorization Request for Fiscal Year 2015 the authority in 
section 1229 to use up to $250 million of DOD funds over the next 2 
fiscal years to clear training ranges used by U.S. Armed Forces in 
Afghanistan of unexploded ordnance. Do you support this proposal and 
will you make this a priority as U.S. forces continue to draw down in 
Afghanistan?
    General Campbell. Mr. Chairman, I want to thank you, Senator 
Inhofe, and the members of this committee for including section 1229 in 
the National Defense Authorization Act (NDAA) and for the clarifying 
language contained in the committee's report. I strongly support the 
1229 authority as a first step in addressing unexploded ordnance (UXO) 
on U.S. training ranges in Afghanistan.
    I say first step because the authority would provide for the 
surface clearing of UXO, which is of course the most immediate risk to 
life and safety. However, as these training ranges are closed, some 
land will be transferred back to the Afghan people. In areas where 
intrusive activities, such as construction and farming, frequently 
occur, sub-surface UXO will continue to pose a risk to civilians. There 
is also the very real potential that the explosive components of UXO 
can be harvested to build IEDs for use against U.S. and coalition 
forces, Afghan troops, and civilians. Expanding the authority to 
include sub-surface clearing activities would mitigate additional risk 
to our forces and demonstrate our dedication to executing a responsible 
drawdown.
    Following an initial evaluation of training ranges, U.S. Forces 
Afghanistan (USFOR-A) determined that both surface and subsurface UXO 
clearance could be accomplished within 2 years; however, we would like 
to complete clearing activities as quickly as possible. There is 
concern that the imposition of a per-year cap will unnecessarily limit 
our ability to execute on an expedited timeline. It is my understanding 
DOD sent the committee some suggested language that offers a more 
flexible funding option for these UXO activities.
    Protecting U.S. and coalition forces, as well as the civilian 
population, is one of the highest priorities for USFOR-A. Clearing UXO 
from U.S. training ranges is one more way we can provide for the safety 
and security of our forces and the Afghan people alike. You have my 
commitment that, if confirmed, I will make clearance of UXO a priority.
                                 ______
                                 
              Question Submitted by Senator Jeanne Shaheen
                              afghanistan
    2. Senator Shaheen. General Campbell, we have all been struck by 
the poor performance of the Iraqi Security Forces over the last month, 
including recent news reports citing an unreleased U.S. Central Command 
(CENTCOM) study that indicates the Iraqi Security Forces are so deeply 
infiltrated by Sunni extremists and Shiite personnel trained in Iran 
that it may be too dangerous for U.S. Special Operations Forces (SOF) 
to provide assistance. How do we impress upon the Afghan civilian 
leadership the importance of maintaining professional and cohesive 
security forces as we draw down and after we depart?
    General Campbell. I will work closely with the U.S. Embassy and 
other troop contributing nations to make sure this remains a key focus 
for our engagements with the Afghan civilian leadership, both in the 
President's office and the Ministry of Defense. My understanding is 
that current efforts on this matter involve emphasizing to Afghan 
civilian and military leaders the importance of a professional and 
disciplined force which is apolitical and committed first and foremost 
to the security of the country. This includes the concept of civilian 
control of the military, adherence to rule of law and the 
implementation of processes, systems, and organizations which ensure 
transparency, accountability, and oversight.
    Most recently, during the political turmoil associated with the 
run-off election, the ANSF leadership has consistently demonstrated 
their ability to maintain unity throughout the force, while maintaining 
their focus on combat and security operations. Furthermore, recent 
discussions with senior government officials reveal an understanding of 
the importance of separating the military from politics and a general 
willingness to achieve the aforementioned objectives. Also encouraging 
is the fact that senior ANSF officials have publically refused to 
comment on the ongoing political process.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                    equipment reset from afghanistan
    3. Senator Ayotte. General Campbell, from a readiness standpoint, 
what is the danger of not resetting our equipment as it returns from 
Afghanistan?
    General Campbell. Our equipment has been operating in extreme 
environmental and operational conditions since operations commenced in 
Afghanistan. Operations under these conditions subject equipment to 
unusual wear patterns and damage due to heat, dust and OPTEMPO that 
must be corrected during a Reset process upon return to home station. 
Past experience has shown that failure to address these conditions 
using a disciplined maintenance process such as Reset results in 
continued degradation of our most modern and capable equipment, 
increased maintenance burden to maintain readiness and adversely 
impacts availability to meet future contingency requirements.

                     never contract with the enemy
    4. Senator Ayotte. General Campbell, I successfully included the 
``No Contracting with the Enemy'' legislation in section 841 of the 
NDAA for Fiscal Year 2012 to provide the ability to avoid red tape and 
expeditiously cut off contracting funds that we are flowing to our 
enemies. I also worked to expand these authorities to all geographic 
combatant commands in the NDAA for Fiscal Year 2014. General Austin has 
testified that these authorities have been used to save the taxpayers 
$31 million--preventing these funds from going to our enemies. As we 
draw down the number of servicemembers in Afghanistan, we may become 
more reliant in some areas on contractors. It is important that money 
from these contracts and subcontracts not be diverted to our enemies 
and used to kill our troops or our Afghan partners. Avoiding this 
requires an aggressive effort that includes intelligence, contracting, 
and criminal investigation personnel working together to follow the 
money. This requires command emphasis. Once problematic contracts or 
subcontracts are identified, section 841 authorities should be used to 
terminate contracts without delay. Once confirmed, do you commit to me 
that, as Commander of U.S. Forces in Afghanistan, you will look at this 
issue closely, ensure the effort is properly resourced and staffed, and 
encourage your subordinates to look for opportunities to exercise 
section 841 authorities?
    General Campbell. Yes, I will look at this effort closely and 
ensure that it is properly resourced and staffed consistent with the 
requirements of my mission and the resources available.

    5. Senator Ayotte. General Campbell, I am supportive of the work of 
Task Force 2010 and others in identifying contracts and subcontracts 
that are benefitting our enemies and that need to be expeditiously 
terminated without paying penalties to the very people we are trying to 
ensure don't receive our tax dollars. To do that, I believe that Task 
Force 2010 needs to have the investigators, forensic auditors, and 
intelligence personnel in Afghanistan, not just in Qatar or the United 
States. Will you look at ensuring the Task Force 2010 investigators, 
forensic auditors, and intelligence personnel are working in 
Afghanistan and that they have the command support needed to operate 
effectively?
    General Campbell. Yes, I will look at ensuring that all my forces, 
including any counter-contracting with the enemy forces such as TF 
2010, are resourced and located to best accomplish the mission, within 
my force levels and other constraints set by my higher headquarters.
                                 ______
                                 
    [The nomination reference of GEN John F. Campbell, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 17, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Army to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General

    GEN John F. Campbell, USA, 0000.
                                 ______
                                 
    [The biographical sketch of GEN John F. Campbell, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
            Biographical Sketch of GEN John F. Campbell, USA
Source of commissioned service: USMA.

Educational degrees:
    U.S. Military Academy - BS - No Major
    Golden Gate University - MPA - Public Administration

Military schools attended:
    Infantry Officer Basic and Advanced Courses
    U.S. Army Command and General Staff College
    U.S. Army War College

Foreign languages:
    None recorded.

Promotions:

------------------------------------------------------------------------
                Promotions                      Dates of appointment
------------------------------------------------------------------------
2LT.......................................  6 Jun 79
1LT.......................................  21 Feb 81
CPT.......................................  1 Jun 83
MAJ.......................................  1 Oct 90
LTC.......................................  1 Apr 95
COL.......................................  1 Jun 00
BG........................................  1 Oct 05
MG........................................  7 Nov 08
LTG.......................................  6 Sep 11
GEN.......................................  8 Mar 13
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Mar 13..........................  Present...........  Vice Chief of
                                                       Staff, U.S. Army,
                                                       Washington, DC
Sep 11..........................  Mar 13............  Deputy Chief of
                                                       Staff, G-3/5/7,
                                                       U.S. Army,
                                                       Washington, DC
May 11..........................  Aug 11............  Commanding
                                                       General, 101st
                                                       Airborne Division
                                                       (Air Assault),
                                                       Fort Campbell, KY
Jun 10..........................  May 11............  Commanding
                                                       General, 101st
                                                       Airborne Division
                                                       (Air Assault)/
                                                       Combined Joint
                                                       Task Force-101,
                                                       Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Jul 09..........................  Aug 11............  Commanding
                                                       General, 101st
                                                       Airborne Division
                                                       (Air Assault),
                                                       Fort Campbell, KY
Feb 08..........................  Jul 09............  Deputy Director
                                                       for Regional
                                                       Operations, J-3,
                                                       Joint Staff,
                                                       Washington, DC
Jul 05..........................  Feb 08............  Deputy Commanding
                                                       General
                                                       (Maneuver), 1st
                                                       Cavalry Division,
                                                       Fort Hood, TX and
                                                       Deputy Commanding
                                                       General
                                                       (Maneuver), Multi-
                                                       National Division
                                                       Baghdad,
                                                       Operation Iraqi
                                                       Freedom, Iraq
Jul 03..........................  Jun 05............  Executive Officer
                                                       to the Chief of
                                                       Staff, Army, U.S.
                                                       Army, Washington,
                                                       DC
May 01..........................  Jun 03............  Commander, 1st
                                                       Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC, and
                                                       Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Jul 99..........................  May 01............  Operations
                                                       Officer, Current
                                                       Operations
                                                       Directorate, J-3,
                                                       Joint Staff,
                                                       Washington, DC
Aug 98..........................  Jun 99............  Student, U.S. Army
                                                       War College,
                                                       Carlisle
                                                       Barracks, PA
Jun 96..........................  Jun 98............  Commander, 2d
                                                       Battalion, 5th
                                                       Infantry, 25th
                                                       Infantry Division
                                                       (Light),
                                                       Schofield
                                                       Barracks, HI
May 94..........................  May 96............  Aide-de-Camp to
                                                       the Commanding
                                                       General, XVIII
                                                       Airborne Corps,
                                                       later Chief, Unit
                                                       Training, G-3
                                                       (Operations),
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC, and
                                                       Operation Uphold
                                                       Democracy, Haiti
Jun 92..........................  May 94............  G-3 (Training),
                                                       later S-3
                                                       (Operations), 2d
                                                       Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Aug 91..........................  Jun 92............  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
Sep 88..........................  Jun 91............  Assistant
                                                       Professor of
                                                       Military Science,
                                                       later Professor
                                                       of Military
                                                       Science, U.S.
                                                       Army 4th Reserve
                                                       Officers Training
                                                       Corps Region,
                                                       University of
                                                       California,
                                                       Davis, CA
Apr 86..........................  Jun 88............  Commander, B
                                                       Company, 3d
                                                       Battalion, 505th
                                                       Parachute
                                                       Infantry
                                                       Regiment, later G-
                                                       3 (Air), 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Apr 84..........................  Mar 86............  Battalion S-1
                                                       (Adjutant), later
                                                       Battalion S-5
                                                       (Civil Affairs),
                                                       later Commander,
                                                       A Detachment, 1st
                                                       Battalion, 5th
                                                       Special Forces
                                                       Group (Airborne),
                                                       Fort Bragg, NC
Nov 83..........................  Apr 84............  Student, Special
                                                       Forces Officer
                                                       Qualification
                                                       Course, U.S. Army
                                                       John F. Kennedy
                                                       Special Warfare
                                                       Center, Fort
                                                       Bragg, NC
Apr 83..........................  Oct 83............  Student, Infantry
                                                       Officer Advanced
                                                       Course, U.S. Army
                                                       Infantry School,
                                                       Fort Benning, GA
Jan 80..........................  Dec 82............  Rifle Platoon
                                                       Leader, later
                                                       Weapons Platoon
                                                       Leader, C
                                                       Company, later
                                                       Executive
                                                       Officer, later
                                                       Antitank Platoon
                                                       Leader, Combat
                                                       Support Company,
                                                       3d Battalion,
                                                       28th Infantry
                                                       (Mechanized), 8th
                                                       Infantry Division
                                                       (Mechanized),
                                                       U.S. Army Europe,
                                                       Germany
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Commanding General, 101st         Jun 10-May 11.....  Major General
 Airborne Division (Air Assault)/
 Combined Joint Task Force-101,
 Operation Enduring Freedom,
 Afghanistan.
Deputy Director for Regional      Feb 08-Jul 09.....  Brigadier General
 Operations, J-3, Joint Staff,
 Washington, DC.
Operations Officer, Current       Jul 99-May 01.....  Lieutenant Colonel/
 Operations Directorate, J-3,                          Colonel
 Joint Staff, Washington, DC.
------------------------------------------------------------------------


Summary of operational assignments:

------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Commanding General, 101st         Jun 10-May 11.....  Major General
 Airborne Division (Air Assault)/
 Combined Joint Task Force-101,
 Operation Enduring Freedom,
 Afghanistan.
Deputy Commanding General         Aug 06-Dec 07.....  Brigadier General
 (Maneuver), 1st Cavalry
 Division/Deputy Commanding
 General (Maneuver), Multi-
 National Division Baghdad,
 Operation Iraqi Freedom, Iraq.
Commander, 1st Brigade, 82d       May 01-Jun 03.....  Colonel
 Airborne Division, Fort Bragg,
 NC, and Operation Enduring
 Freedom, Afghanistan.
Aide-de-Camp to the Commanding    May 94-May 96.....  Major/Lieutenant
 General, XVIII Airborne Corps,                        Colonel
 later Chief, Unit Training, G-3
 (Operations), XVIII Airborne
 Corps, Fort Bragg, NC, and
 Operation Uphold Democracy,
 Haiti.
------------------------------------------------------------------------


U.S. Decorations and Badges:
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit (with Oak Leaf Cluster)
    Bronze Star Medal (with two Oak Leaf Clusters)
    Defense Meritorious Service Medal (with Oak Leaf Cluster)
    Meritorious Service Medal (with six Oak Leaf Clusters)
    Air Medal
    Joint Service Commendation Medal
    Army Commendation Medal (with Oak Leaf Cluster)
    Army Achievement Medal
    Combat Infantryman Badge
    Combat Action Badge
    Expert Infantryman Badge
    Master Parachutist Badge
    Pathfinder Badge
    Ranger Tab
    Special Forces Tab
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN John F. 
Campbell, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John F. Campbell.

    2. Position to which nominated:
    Commander, International Security Assistance Force/Commander, U.S. 
Forces Afghanistan.

    3. Date of nomination:
    June 17, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    11 April 1957; Loring Air Force Base, ME (Limestone, ME).

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Ann Kay Dalton (Maiden name: Ann Dalton).

    7. Names and ages of children:
    Jennifer K. Campbell; age 27.
    John F. Campbell, Jr.; age 25.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member of:

    (1)  AUSA-Association of the U.S. Army (no office held)
    (2)  504 Parachute Infantry Regimental Association (no office held)
    (3)  101st Airborne Division Association (no office held)

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  John F. Campbell.
    This 13th day of May, 2014.

    [The nomination of GEN John F. Campbell, USA, was reported 
to the Senate by Chairman Levin on July 22, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 23, 2014.]

                              ----------                              

    [Prepared questions submitted to LTG Joseph L. Votel, USA, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and subsequent reforms related to Special 
Operations Forces have strengthened the warfighting readiness of our 
Armed Forces. They have enhanced civilian control and the chain of 
command by clearly delineating the combatant commanders' 
responsibilities and authorities and the role of the Chairman of the 
Joint Chiefs of Staff. These reforms have also vastly improved 
cooperation between the Services and the combatant commanders, among 
other things, in joint training and education and in the execution of 
military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Perhaps. In my time as Chief of Staff at U.S. Special 
Operations Command (SOCOM), I saw many examples where we were 
challenged in our dealings with peculiarities of each of the Services 
on personnel, readiness, and training issues. If confirmed, I will work 
closely with the Service Chiefs to align our processes as much as 
possible under the current legislation before I would consider seeking 
a modification to Goldwater-Nichols.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Whether through changes to policy or legislation, in my 
view SOCOM still needs greater personnel management authority to shape 
mid- and senior-grade Special Operations Forces (SOF) operators to meet 
SOCOM defined requirements. Promotions, selection for command, 
selection for advanced educational opportunities, foreign language 
testing policy, and foreign language proficiency bonus payment policy 
all differ significantly by Service and are all primarily crafted to 
support Service needs.
    Question. Do you believe that the role of the combatant commanders, 
including the Commander, SOCOM, under the Goldwater-Nichols legislation 
is appropriate and the policies and processes in existence allow that 
role to be fulfilled?
    Answer. Yes. I have had the pleasure to work very closely with each 
of our geographic and functional combatant commanders, particularly in 
the past 3 years, and I believe there is tremendous synergy built into 
the system created by Goldwater-Nichols.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. By experience, training and education I have the requisite 
skills to lead this combatant command now and in the future. I have 
commanded at multiple levels throughout the special operations 
community including assignments as a Ranger Battalion Commander, the 
Ranger Regiment Commander, as a forward Special Operations Task force 
Commander in Iraq and Afghanistan and most recently as the Commander of 
the Joint Special Operations Command. I've also served as Deputy 
Commanding General for the Army's 82nd Airborne Division, and have 
throughout my career as an Infantry Officer maintained close ties to my 
Service colleagues outside the realm of Special Operations. My joint 
service as the Chief of Staff at U.S. Special Operations Command as 
well as my experience as both Deputy and Commander at Joint Special 
Operations Command has prepared me to operate at the senior levels of 
Government. Throughout my service, I have gained valuable experience 
and built useful relationships with international, interagency, and 
Intelligence Community partners.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander of SOCOM to the 
following offices:
    The Secretary of Defense.
    Answer. The Secretary of Defense is the SOCOM Commander's next 
superior command authority in the chain of command, as your 
introductory paragraph stated. If confirmed, I will look to the 
Secretary of Defense for the operational authority, and the resources, 
to develop and employ the most well-trained and capable Special 
Operations Forces our Nation can muster to meet the challenges of a 
highly uncertain global security environment now and in the future. The 
SOCOM Commander owes the Secretary of Defense his best military advice 
on all aspects of recruiting, training, equipping, managing and 
employing Special Operations Forces in support of his, and the 
President's, national security objectives.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The SOCOM Commander coordinates activities through the 
Chairman of the Joint Chiefs of Staff. As the senior military advisor 
to the President and Secretary of Defense, the Chairman is essential in 
communicating Special Operations Forces capabilities and requirements 
to the President and Secretary of Defense. Coordination of SOCOM 
activities ensures that the Chairman remains fully informed in support 
of his responsibilities and for coordination of SOCOM staff and the 
Joint Staff efforts to meet Presidential and Secretary of Defense 
directed tasks.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Under Secretary of Defense for Policy (USD(P)) is the 
principal staff assistant and advisor to the Secretary of Defense and 
the Deputy Secretary of Defense for all matters on the formulation of 
national security and defense policy. The USD(P) develops, coordinates 
and oversees the implementation of a wide variety of Department policy, 
including matters related to planning, programming, budgeting, and 
execution of special operations activities. USD(P) also exercises 
authority, direction, and control over the assistant Secretary of 
Defense for Special Operations and Low-Intensity Conflict (ASD(SO/
LIC)), who is responsible for overall supervision of Special Operations 
activities. If confirmed, I will work closely with USD(P) to ensure 
SOCOM activities are closely aligned with Department policies.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The Under Secretary of Defense for Intelligence (USD(I)) is 
the principal staff assistant and advisor to the Secretary of Defense 
regarding intelligence, counterintelligence, security, sensitive 
activities, and other intelligence-related matters. If confirmed, I 
will continue to work closely with USD(I), particularly to ensure the 
intelligence requirements of Special Operations Forces in the field are 
met.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. The Under Secretary of Defense for Acquisition, Technology, 
and Logistics, USD(AT&L), is the principal staff assistant and advisor 
to the Secretary of Defense for all matters relating to the DOD 
Acquisition System, including procurement; research, development, test 
and evaluation (RDT&E); military construction; and nuclear, chemical, 
and biological defense programs. If confirmed, I will closely 
coordinate SOCOM acquisition activities with USD(AT&L) to ensure SOCOM 
procurement efforts are closely aligned with Department procurement 
processes and priorities.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low-Intensity Conflict.
    Answer. ASD(SO/LIC) is the principal staff assistant and civilian 
advisor to the USD(P) and the Secretary of Defense on Special 
Operations and low intensity conflict matters. The principal duty of 
the ASD(SO/LIC) is the overall supervision of Special Operations 
activities within the Department of Defense, including SOCOM. As I 
state in subsequent responses, the SOCOM Commander works closely with 
ASD(SO/LIC) in the execution of his ``Service-like'' authorities under 
title 10, U.S.C., section 167.
    Question. The Assistant Secretary of Defense for International 
Security Affairs.
    Answer. If confirmed, I will continue to work with the assistant 
Secretary, and with U.S. European Command, U.S. Central Command, and 
U.S. Africa Command, to ensure the effective employment of Special 
Operations Forces capability in support of national security objectives 
in Europe, the Middle East, and Africa. I am particularly interested in 
continuing the enduring relationship with the NATO Special Operations 
Forces Headquarters (NATO SOF HQ), and look forward to working with the 
Assistant Secretary in developing policies in support of NATO SOF HQ.
    Question. The Assistant Secretary of Defense for Asian and Pacific 
Security Affairs.
    Answer. If confirmed, I will continue to work with the Assistant 
Secretary, and with U.S. Pacific Command, to ensure the effective 
employment of Special Operations Forces capability in support of 
national security objectives in the Asian and Pacific regions.
    Question. The Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs.
    Answer. If confirmed, I will continue to work with the Assistant 
Secretary in developing SOCOM's role in Homeland Defense, and in 
support of civil authorities, to determine the Special Operations 
support necessary to protect the United States and its citizens during 
domestic emergencies.
    Question. The Assistant Secretary of Defense for Global Strategic 
Affairs.
    Answer. If confirmed, I look forward to working with the assistant 
Secretary in support of her efforts to develop policy on countering 
weapons of mass destruction and cyber security issues, two areas of 
abiding interest for Special Operations Forces.
    Question. The Service Secretaries.
    Answer. The SOCOM Commander's authority over the Service 
components, and those forces assigned to him, is clear in the 
Goldwater-Nichols Act, but requires close coordination with the Service 
Secretaries to ensure that SOCOM does not intrude upon each Service 
Secretary's legal responsibilities. Close coordination between the 
SOCOM Commander and each of the Service Secretaries is also essential 
to gaining and maintaining the Services' support of Special Operations 
Forces with support units from the General Purpose Forces and with 
service-common materiel.
    Question. The Service Chiefs.
    Answer. Without the full support and cooperation of the Service 
Chiefs, the SOCOM Commander cannot ensure the preparedness of his 
assigned forces to execute his assigned missions. The Joint Chiefs are 
also a source of experience and judgment that every combatant commander 
may call upon. If confirmed, I will continue a full and frank dialog 
with the Service Chiefs.
    Question. The other combatant commanders.
    Answer. Successive SOCOM Commanders have fostered an atmosphere of 
teamwork and trust in their relationships with the combatant 
commanders. These relationships have only strengthened over the last 15 
years as transregional threats have emerged and certainly since SOCOM 
has been responsible for synchronizing planning for global operations 
against terrorist networks. If confirmed, I will continue to work 
closely with the other combatant commanders to achieve our common 
objectives against transnational threats and violent extremist 
organizations. I will be committed to providing the geographic 
combatant commanders trained and ready Special Operations Forces to 
support national and theater security objectives.
    Question. The Director of the National Counterterrorism Center.
    Answer. SOCOM is actively engaged in support of the National 
Counterterrorism Center (NCTC), and has been since it was established 
after September 11. SOCOM also relies upon NCTC estimates and reports 
in the refinement and synchronization of counterterrorist operations, 
and will continue to assist NCTC to achieve our common objectives 
against transnational terrorist threats and violent extremist 
organizations.
    Question. The Director of the Central Intelligence Agency.
    Answer. SOCOM and its subordinate elements are consumers of Central 
Intelligence Agency products and analysis. If confirmed, I will ensure 
that SOCOM continues to develop interoperable capabilities so that, 
when directed by the President or Secretary of Defense, we may work 
efficiently in close partnership to accomplish our assigned missions.
                    major challenges and priorities
    Question. In your view, what are the major challenges confronting 
the next Commander of SOCOM?
    Answer. Winning the current fight, including Afghanistan and other 
areas where SOF is engaged in conflict and instability is an immediate 
challenge--SOCOM has forces in danger on an almost daily basis. This 
will continue to be a major challenge and one which, if confirmed, I 
will ensure is adequately resourced with trained and ready forces.
    Terrorism remains the most present threat to the security of 
Americans at home and abroad. The growth and expanding influence of 
transregional threats including violent extremist organizations (VEOs) 
and transnational organized crime remains a very challenging threat. 
VEOs have proven themselves highly resilient and adaptable, and less 
reliant on nation-state sponsors for funding and safe havens. Our 
Special Operators will be called upon to protect the Nation from these 
threats, and to build the capacity of partners and allies to deny 
terrorists and violent extremists from the safehavens they need to 
develop and launch attacks.
    As a force provider for SOF, the SOCOM commander must prepare his 
forces and sustain a high state of readiness for the full range of 
conflict and contingency scenarios. So we must balance the steady-state 
requirements to meet current challenges while preparing for an 
uncertain future. Doing so effectively requires the right level of 
resources, and the right approach to sustaining our force.
    Managing and preserving SOCOM's Major Force Program-11 funding 
within the current budget and future budget discussions. At the 
forefront of this discussion is the recognition that many of the 
current expenditures are funded by the overseas contingency operations 
funds. The other part of this challenge includes monitoring and 
understanding the stress the Service Budgets are facing and the impacts 
it will have on their ability to meet present and future SOCOM 
requirements for forces, capabilities and platforms.
    None of this can happen if we do not preserve and protect our 
Special Operations Forces and the families that support them. After 
nearly 13 years of sustained high operational tempo, our people need 
help with mending their mind, body, and spirit. The nation asks much of 
our Special Operators and their families, and they have always 
delivered. Much more will be asked of them, and, if confirmed, I will 
seek to preserve our most precious asset--our people.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. I will continue to place my priority on the Preservation of 
the Force and Family (POTFF) initiative. With the support of Congress, 
the Department of Defense, and the Services, I will fully support what 
Admiral Olsen and Admiral McRaven have started. Aggressively, I will 
reach out to our SOF families and listen to their concerns to ensure, 
between the Services and SOCOM, there are solutions available to meet 
their needs. One of the key causes of stress for our families is the 
unpredictability of training and deployment schedules. To help mitigate 
this stress and provide families with more predictability, I will 
continue to support the policy on Personnel Tempo Tracking and enforce 
the SOCOM threshold of 250 days at home station (head on pillow) in a 
24-month period.
    In order to win the current fight, I will place a premium on the 
organization, training, education, and equipping of our Force as we 
face new and rapidly growing challenges. SOF's readiness also hinges 
upon our ability to preserve our force and care for our families.
    In order to thwart expanding trans-regional threat networks and 
VEOs, SOCOM must outpace the growth of threat networks with friendly 
networks across cultures. In this vein, we must continue to develop our 
global SOF network. Investing in our network allows us to share the 
burden more appropriately. We must engage, not only where problems 
occur, but also in places critical to our vital national interests 
where no visible threat currently exists. Success in meeting these 
challenges demands unprecedented levels of trust, confidence, and 
understanding built through persistent engagement.
    To offset resourcing shortages, while maintaining the best trained 
and educated force, we must use technology to meet our immediate and 
long-term challenges. SOF must be internally innovative and take 
advantage of innovations that could enhance our ability to conduct SOF 
activities. It is critical that our use of new technology outpaces our 
adversaries. In this sense, acquisition speed and agility is paramount.
    Question. What are the most important lessons you have learned 
during your tenure in senior leadership positions in the special 
operations community?
    Answer. The most important lesson I have learned is the value of 
open and transparent relationships and communication with all parties 
who influence the special operations community. Good relationships 
build trust and understanding and allow for better mutual support of 
all U.S. Government objectives.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Commander of SOCOM?
    Answer. As the Commander of Joint Special Operations Command and a 
member of the SOCOM and SOF Board of Directors I believe in the 
Command's current touchstone priorities of preserving the force and 
families, winning the current fight, strengthening the global SOF 
network, and responsive resourcing/acquisition. These have served the 
Command well and will continue to do so in the future.
                      civilian oversight of socom
    Question. The legislation creating SOCOM assigned extraordinary 
authority to the Commander to conduct some of the functions of both a 
Military Service and a unified combatant command.
    Which civilian officials in the Department of Defense (DOD) 
exercise civilian oversight of the ``service-like'' authorities of the 
Commander, SOCOM?
    Answer. ASD(SO/LIC) is the principal staff assistant and civilian 
advisor to the Under Secretary of Defense for Policy (USD(P)) and the 
Secretary of Defense on Special Operations matters. The principal duty 
of the ASD(SO/LIC) is the overall supervision of Special Operations 
activities within the Department of Defense, including SOCOM.
    SOCOM also coordinates with the USD(P), USD(AT&L), and Under 
Secretary of Defense (Comptroller) on matters within their jurisdiction 
which touch upon the SOCOM Commander's ``Service-like'' authorities 
under title 10, U.S.C., section 167. The SOCOM Commander and his staff 
works closely with USD(P), USD(AT&L), and the Comptroller, and their 
staffs, to ensure SOCOM's programs are aligned with Department of 
Defense acquisitions policies and are appropriately funded.
    Question. In your view, what organizational relationship should 
exist between the assistant Secretary of Defense for Special Operations 
and Low-Intensity Conflict (ASD(SO/LIC)) and the Commander, SOCOM?
    Answer. There's two sides to this--oversight and advocacy. The 
ASD(SO/LIC) provides oversight on behalf of the Secretary of Defense, 
to ensure the SOCOM Commander and the activities of the Command are 
aligned to the Department's policies, directives, and regulatory 
requirements. At the same time, the ASD(SO/LIC), as the Secretary's 
principal civilian advisor for Special Operations is an advocate for 
SOF to ensure the views and interests of the SOCOM Commander are 
represented in the formulation of policy and allocation of resources 
within the Department and with Congress.
    Question. What should be the role of the ASD SOLIC in preparation 
and review of Major Force Program 11 and the SOCOM's Program Objective 
Memorandum?
    Answer. ASD(SO/LIC) is directed by the Deputy Secretary of Defense 
to provide overall supervision of the preparation and justification of 
Special Operations Forces (SOF) programs and budget; review and approve 
memoranda of agreement governing the SOCOM program, budget, and 
execution process; approve the U.S. Special Operations Command 
recommendations concerning which programs the SOCOM Commander will 
execute directly; review the SOCOM Program Objectives Memoranda (POM) 
and budget prior to submission to the Director for Program Analysis and 
Evaluation and the DOD Comptroller, respectively; and present and 
defend the SOF program to Congress, with the advice and assistance of 
the SOCOM Commander. I believe these duties describe the appropriate 
role for ASD(SO/LIC) in oversight and support of SOCOM.
    Question. What is the appropriate role of the ASD(SOLIC) in the 
research and development and procurement functions of the SOCOM?
    Answer. Working with the SOCOM Commander and the SOCOM Acquisition 
Executive, the ASD(SO/LIC) advises and coordinates with the USD(AT&L), 
on acquisition priorities and requirements for special operations-
peculiar material and equipment. I do not presently recommend any 
changes to ASD(SO/LIC)'s role in research and development and 
procurement functions of SOCOM.
    Question. What is the appropriate role of the ASD(SO/LIC) in the 
operational planning of missions that involve Special Operations 
Forces, whether the supported command is SOCOM, a geographic combatant 
command, or another department or agency of the U.S. Government?
    Answer. Through his broad policy, coordination and oversight roles 
as the principal staff assistant and civilian advisor to the Secretary 
of Defense on Special Operations matters, the ASD(SO/LIC) reviews the 
procedures and provides policy guidance to the SOCOM Commander on all 
aspects of Special Operations planning, including contingency planning 
when directed by the President or Secretary of Defense.
                  national security budget reductions
    Question. The Budget Control Act, as amended by the recent Murray-
Ryan budget agreement, calls for reductions in defense spending in 
excess of $900 billion.
    How do you believe such budget reductions would impact Special 
Operations Forces?
    Answer. The Bipartisan Budget Act (BBA) will alleviate many of the 
harshest fiscal year 2014 readiness impacts that would have been 
realized under full sequester, but the standing reductions to the 
Department of Defense will continue to impact SOCOM and our enablers. 
Even with the support of DOD, SOCOM has not gone without impact from 
the BBA. SOCOM has already reduced all non-essential travel and 
training, curtailed replenishment of non-mission critical supplies, and 
reduced period of performance on all non-severable contracts. The 
potential decreases in Service end strength, capabilities, and 
installation support will also directly affect SOF enablers and 
potentially affect future Special Operations missions.
    The Department of Defense continues to show support for Special 
Operations by allowing the SOCOM portion of the fiscal year 2015 
President's budget request to remain approximately level with the 
fiscal year 2014 President's budget request in both manpower and 
resources. This allows SOCOM to fully meet the Nation's most critical 
requirements as highlighted in the fiscal year 2012 Defense Strategic 
Guidance (DSG) and the fiscal year 2014 Quadrennial Defense Review 
(QDR), while still remaining less than 2 percent of the Department of 
Defense's top-line budget. With the fiscal year 2015 President's budget 
request, SOCOM will be able to limit continental United States (CONUS)-
based readiness impacts and fully support global operations and 
deployments in support of the geographic combatant commands (GCC). 
Continuing to emphasize readiness and focusing on creating competent 
SOF is imperative to providing a SOF force built to provide a robust 
range of options for the President and the Secretary of Defense.
                          combating terrorism
    Question. The National Strategy for Counterterrorism highlights the 
need to maintain pressure on al Qaeda's core while building the 
capacity of partners to confront mutual threats. The strategy also 
underscores the need to augment efforts to counter threats from al 
Qaeda-linked threats ``that continue to emerge from beyond its core 
safe haven in South Asia.'' The President signed new Policy Guidance on 
Counterterrorism (CT) on May 22, 2013, that established a framework 
governing the use of force against terrorists.
    What are the roles and responsibilities of the Commander of SOCOM 
within the Department's combating terrorism strategy and how would you 
fulfill such responsibilities if confirmed?
    Answer. The primary role for the Commander of SOCOM is to 
synchronize DOD CT plans and planning efforts. Practical implementation 
of synchronization occurs throughout the development of the DOD Global 
CT Campaign Plan (CAMPLAN 7500) and its revisions and in the parallel 
development of the GCCs' subordinate regional CT plans. Specifically, 
regional objectives/intermediate military objectives, tailored 7500 
Lines of Operation (LOO), and planning and assessment tasks are agreed 
upon through the Joint Planning Working Groups which are comprised and 
represented by all GCCs and Functional Combatant Commanders (FCCs) and 
led by Headquarters SOCOM.
    Question. Are there steps DOD should take to better coordinate its 
efforts to combat terrorism with those of other Federal departments and 
agencies?
    Answer. DOD continues to take appropriate steps to expand 
relationships between the DOD and the Interagency. I want to highlight 
the superb relationships DOD has built with the Director of National 
Intelligence (DNI) and the Interagency over the past decade. The strong 
leadership provided by the DNI and the partnerships built with the 
Intelligence Community has been invaluable for providing coordinated 
responses to international threat streams as well as defending the 
Homeland. As future threats become more decentralized these 
relationships and the timely sharing of intelligence will become even 
more pivotal. The integration of our closest international partners 
will also prove vital to our ability to disrupt and defeat violent 
extremism on a global scale. While intelligence sharing and release 
authority has improved, we must continue to build on this effort.
                                al qaeda
    Question. What is your assessment of the threat posed by al Qaeda 
and its associated forces to the U.S. Homeland, U.S. interests 
overseas, and Western interests more broadly? Which affiliates are of 
most concern?
    Answer. Al Qaeda and its affiliates and adherents remain the 
greatest terrorist threat to the United States and to its national 
interests around the world. Al Qaeda has adeptly exploited the 
deteriorating geostrategic environments and has expanded its network 
into every geographic combatant commander's theater of operations, 
including al Qaeda in the Arabian Peninsula (AQAP), al Qaeda in the 
Islamic Maghreb (AQIM), Jabhat al-Nusrah in Syria, and al-Shabaab in 
Somalia. AQAP continues to present the greatest terrorist threat to the 
U.S. Homeland due to their proven capabilities, continued threat 
planning, and ability to recruit operatives.
    The Salafi-jihadist ideology is the common link binding al Qaeda, 
affiliates, and adherents into a transnational brotherhood of 
believers. The ideology retains its legitimacy within a small portion 
of the Muslim community because it incorporates a potent mix of anti-
Western/anti-Zionist fervor, utopianism, and socio-political grievances 
into a common narrative, and provides the religious justification for 
the use of violence in defense of the Muslim nation. Al Qaeda's Jihad 
2020 grand strategy offers an asymmetric approach to remove U.S. and 
Western influence from Muslim nations through prolonged engagements of 
attrition designed to exhaust the political will and financial 
resources of the United States.
                              afghanistan
    Question. What is your assessment of the current security situation 
in Afghanistan?
    Answer. The security situation in Afghanistan is stable yet 
tenuous. I remain concerned with high profile attacks, particularly 
those involving very large vehicle born improvised explosive devices 
(IEDs) as facilitated by the Haqqani Network. Taliban senior leaders 
are committed to regaining power following the drawdown of coalition 
forces and are secure within safe-havens in Pakistan. We expect the 
Afghan National Security Forces (ANSF) will continue to control major 
population and economic centers despite the continuance of the Taliban 
led insurgency. ANSF sustainment will be the greatest mid- to long-term 
challenge. I am also concerned with the current political crisis 
involving voter fraud allegations related to the recent Presidential 
runoff elections. These allegations could adversely affect the timely, 
peaceful transfer of power from President Karzai to a successor. A 
reasonable Afghan political response to pervasive election fraud could 
lessen chances of violence and avoid widespread ethnic 
disenfranchisement.
    Question. What is your assessment of the current effort to combat 
terrorism and insurgency in Afghanistan and what changes, if any, would 
you recommend to strengthen that effort?
    Answer. As General Dunford testified in March of this year, U.S. 
and Coalition forces have placed constant pressure on the terrorist and 
insurgent networks operating in and around Afghanistan. At the same 
time, our significant train, advise, assist (TAA) efforts to develop 
capable and credible ANSF will ensure that Afghanistan will be able to 
maintain its own security long-term and prevent the reemergence of safe 
havens from which al Qaeda can launch attacks against the United States 
or our allies. We must maintain both of these efforts as long as 
possible to meet U.S. objectives in the region.
    Today, the ANSF are securing Afghanistan with limited to no 
coalition support. They are taking the brunt of attacks but continue to 
stand strong against the enemy. This fighting season will be a test of 
their strength, but their confidence continues to build with each 
successful security operation. The ANSF's increasing capabilities were 
recently on international display during the successful execution of 
two elections. During the run-off election this June, the ANSF led all 
aspects of security, securing approximately 6,200 polling centers 
across the country. This was a historic accomplishment.
    There is as much reason to be optimistic about the ANSF now as 
ever, but the situation is not decided. There are areas that we must 
continue to support in order to close developmental gaps and shortfalls 
in the ANSF. In order to ensure ANSF longevity, General Dunford has re-
oriented coalition efforts from combat advising at the unit level to 
functionally-based security force assistance (SFA). Our advisors are 
now focused on building Afghan ministerial capacity in planning, 
programming, budgeting, and acquisition as well as working to improve 
integration between the different security pillars--army, police, and 
intelligence--at all levels. In the fielded force, the focus is on 
further developing critical enabling capabilities such as intelligence, 
aviation and special operations. These are critical efforts for ANSF's 
long-term ability to continue the CT and counterinsurgency (COIN) 
fight. We must continue to provide advisors in support of these efforts 
for the long-term.
    Question. How do you see the role of U.S. Special Operations Forces 
in Afghanistan evolving as conventional forces continue to draw down 
and post-2014, assuming a Bilateral Security Agreement is in place?
    Answer. In line with COMISAF's functionally-based SFA, U.S. and 
coalition SOF have adjusted their focus to advising at the ministerial, 
organizational and institutional level as well as critical enabling 
capabilities in our Afghan Special Security Force (ASSF) partners--
these include aviation, logistics, intelligence, and command and 
control. This will be the primary focus into 2015, pending the 
signature of the Bilateral Security Agreement (BSA).
    The NATO Special Operations Component Command/Special Operations 
Joint Task Force-Afghanistan (NSOCC-A/SOJTF-A) has five Special 
Operations Advisory Groups (SOAGs) focused on mentoring and advising 
our ASSF partners at the operational level in order to ensure they have 
the ability to command, control, maintain and sustain their tactical 
units spread across the country. These special military and police 
units are our most capable partners in the CT fight. In order to ensure 
our ASSF partners continue to take the fight to our enemies, U.S. SOF 
must be able to continue to do some advising at the tactical level 
post-2014 with select units in select locations. This will reinforce 
ASSF capabilities to address the terrorist networks which are the 
greatest threat to U.S./Western/GIRoA interests.
    We must show our continued commitment to Afghan security efforts in 
order to maintain the mutually beneficial relationships we need to meet 
U.S. objectives in the region. To do this, SOF will continue to depend 
on the enabling capabilities and footprint provided by conventional 
forces.
                                 syria
    Question. What is your assessment of the security situation in 
Syria and its impact on the region?
    Answer. In the past 3 years the Syrian crisis has descended into a 
sectarian regional conflict pitting the Assad regime, Lebanese 
Hizballah and Iran against a mosaic of competing Sunni combatants. The 
proliferation of armed groups and the opening up of additional fronts 
in the region, particularly ISIL's control of eastern Syria and western 
Iraq allows for the free flow of fighters and arms across the border. 
Left unchecked this situation will continue to fuel sectarian violence 
and increase instability and humanitarian concerns beyond Syria's 
border, as observed in Iraq.
    Question. What is your assessment of Jabhat al Nusra and other 
like-minded groups?
    Answer. Jabhat al-Nusrah, also referred to as al-Nusrah Front 
(ANF), is al Qaeda's newest affiliate in Syria and has rapidly matured 
as an effective fighting force. ANF is closely connected to multiple 
Syrian opposition groups and is coordinating operations against the 
Assad regime. ANF and other extremist groups in Syria are attracting 
record numbers of foreign fighters and the anticipated backflow of 
these fighters will present an enduring counterterrorism challenge as 
al Qaeda seeks to conduct external terrorist attacks.
    Question. In your view, what is the most appropriate role for the 
U.S. military in assisting regional friends and allies respond to the 
situation in Syria?
    Answer. I believe the U.S. military can help our regional friends 
and allies respond to the situation in four key areas. First, we can 
Build Partner Capacity to better understand the situation on the 
ground, share intelligence, conduct IO, and enhance border security. We 
can also develop the network of military-to-military relationships to 
build a common understanding of the threats and encourage common cause. 
We should continue our efforts to illuminate the foreign fighter threat 
and enable our partners to create action to disrupt foreign fighters 
and the networks that facilitate them. Finally, we could pursue options 
to provide additional support to strengthen the moderate elements of 
the Syrian opposition, if authorized and directed.
    Question. In your view, what--if any--role should the U.S. 
military, including Special Operations Forces, play with respect to the 
situation in Syria?
    Answer. In my view the U.S. military should facilitate interagency 
and international efforts to disrupt the flow of foreign fighters into 
and out of Syria and Iraq, facilitate intelligence fusion with 
partners, and employ authorized methods and resources to better 
understand the situation inside Syria. We should also help Build 
Partner Capacity, train and equip vetted opposition units, posture for 
CT operations, and in concert with DOS conduct a regional IO campaign 
to reassure our allies, reduce the foreign fighter flow, and reduce 
support to the extremists.
                                  iraq
    Question. What is your assessment of the current threat posed by 
the Islamic State of Iraq and the Levant (ISIL)?
    Answer. ISIL represents the greatest threat to the governments of 
Iraq and Syria, and threatens to destabilize the entire Levant region 
by fomenting a sectarian war. ISIL's transnational connections are 
growing throughout North Africa, Europe, and Southeast Asia. The 
majority of the foreign fighters appear attracted to the success of 
ISIL and present a growing threat to global security as veteran 
fighters return to their home countries.
    Question. What is your assessment of the capabilities of the Iraqi 
security forces, including the Iraqi Army, the Iraqi Police, and the 
Counterterrorism Services, to respond to the threat posed by ISIL and 
other security challenges?
    Answer. The Iraqi Security Forces (ISF) are currently unable to 
expel ISIL and associated opposition groups from areas where they have 
seized territory and infrastructure. While the ISF is relatively well-
equipped there are considerable political challenges that are severely 
impacting the ISF's strategic direction and operational readiness.
    The Iraqi Army faces shortfalls in intelligence, troop mobility, 
and faces logistics problems severely impacting operational maneuver 
and resupply of munitions. Iraqi Counterterrorism Services have been 
over-used and miscast as conventional military forces inhibiting their 
ability to conduct counterterrorism missions. Iraqi police forces have 
largely capitulated in Sunni dominated regions allowing anti-GOI forces 
to assume control over the northern and western provinces. Compounding 
these problems, the remaining military forces loyal to the government 
have been withdrawn from border regions and provinces to defend 
Baghdad.
    Question. What in your view are the main ``lessons learned'' from 
Operation Iraqi Freedom and Operation New Dawn as they pertain to 
Special Operations Forces?
    Answer. These operations provided many lessons learned that we have 
incorporated into our current operations. These lessons include the 
need for whole-of-government approaches, active and integrated 
interagency coordination and collaboration, the necessity for 
culturally attuned forces, and the need for combined operations. It is 
critical to maintain enduring partnerships, especially with newly 
formed military establishments, once our general purposes forces have 
redeployed. Special Operations Forces are uniquely designed to conduct 
low visibility, small footprint, but high pay-off persistent military-
to-military engagement with partner nations. These activities 
contribute to enduring partnerships and enable access and a better 
understanding of the political landscape and overall threat environment 
in country. To maintain these relationships and partnerships funding 
and authorities are crucial.
              yemen and al qaeda in the arabian peninsula
    Question. What is your assessment of the current U.S. strategy in 
Yemen and what is your understanding of the role of DOD within that 
strategy?
    Answer. Yemen is in a strategic location on the Bab El Mandeb 
strait and is struggling with AQAP and internal threats to stability. 
The United States is Yemen's strongest supporter and is providing 
support on many levels to strengthen the government and build 
stability. DOD is a key element of modernizing the Yemeni military by 
providing equipment, training, and mentorship.
    Question. Given the continuing political instability and slow 
progress of the national dialogue in Yemen, what are your views on the 
United States continuing to provide security training and assistance to 
Yemeni counterterrorism forces?
    Answer. The political instability and external threats from al 
Qaeda are the reasons we must continue to provide security training and 
assistance to Yemen. The political and military progress is slow, but 
the Yemenis continue to move forward. If we are willing to continue 
providing the support that helps the Yemenis move towards stability 
Yemen has the potential to be a small but important victory in 
defeating extremist organizations in the Middle East.
                         somalia and al shabab
    Question. What is your assessment of the threat posed by al Shabab?
    Answer. Al Shabaab (AS) is a significant regional threat in East 
Africa. AS can conduct attacks outside of Somalia and has demonstrated 
this by launching attacks against regional neighbors in Djibouti, 
Kenya, and Uganda. AS has proven to be a significant regional threat to 
Western interests and is striving to extend its reach internationally.
    Question. In your view, does al Shabab pose a threat to the United 
States and/or western interests outside of its immediate operational 
area?
    Answer. Yes, the group has demonstrated the capability to stage 
complex, high-profile attacks against Western targets outside of 
Somalia and to harm U.S. citizens abroad. Since 2008, Al-Shabaab has 
vowed to attack U.S. interests in Somalia and to conduct attacks 
against the U.S. Homeland. The United States and Europe host a large 
diaspora of Somalis, which AS could recruit, radicalize, and train 
personnel for attacks against the United States or other western 
interests.
    Question. What is your understanding of the current U.S. strategy 
in Somalia and the role of DOD in that strategy?
    Answer. U.S. foreign policy objectives in Somalia are to promote 
political and economic stability, prevent the use of Somalia as a haven 
for international terrorism, and alleviate the humanitarian crisis 
caused by years of conflict, drought, flooding, and poor governance. 
The United States is committed to helping Somalia's Government 
strengthen democratic institutions, improve stability and security, and 
deliver results for the Somali people. It has urged the Somali 
leadership to continue to consolidate gains by helping local governance 
structures emerge through community dialogue and reconciliation, 
rapidly providing services, and drafting legislation to facilitate 
implementation of the provisional constitution. The United States also 
has welcomed the African Union Mission in Somalia's (AMISOM) success in 
driving the al-Shabaab terrorist organization out of strategically 
important population centers, and has underscored the continued U.S. 
commitment through DOD to support AMISOM and the Somali national forces 
in their responsibility of extending security throughout Somalia.
    Question. Should the United States establish military-to-military 
relations and consider providing assistance to the Somali national 
military forces?
    Answer. At the right time we certainly should establish a military-
to-military relationship with Somalia. We should look first to resume 
full diplomatic relations, including establishing a full time presence 
once security conditions are acceptable. Concurrently the United States 
should continue its support to Somali National military forces through 
AMISOM and the Department of State's training program. If the situation 
continues to improve, I would welcome working with AFRICOM and the 
Department of State to determine the best course of action for 
incorporating Special Operations Forces into this effort.
                    al qaeda in the islamic maghreb
    Question. What is your assessment of the threat posed by AQIM?
    Answer. AQIM is a threat to Western and U.S. interests throughout 
North and West Africa. AQIM's objectives include cleansing North Africa 
of Western influence; overthrowing apostate governments to include 
Algeria, Libya, Mali, Mauritania, Morocco, and Tunisia; and installing 
fundamentalist regimes that follow strict, Sharia law.
    Question. In your view, does AQIM pose a threat to the United 
States and/or western interests outside of its immediate operational 
area? What capacity has AQIM demonstrated to plan and carry out actions 
threatening U.S. interests?
    Answer. AQIM poses a low threat to the Homeland, however, it has 
the intent and capacity to carry out attacks against U.S. interests 
throughout North Africa with the greatest threat to U.S. interests 
being kidnapping for ransom. Although AQIM has not specifically 
targeted U.S. interests, it has kidnapped 20 Europeans over the last 10 
years, gaining $50 million USD in ransom payments.
    Question. In your view, what has been the impact of the recent 
expansion of AQIM's area of operations in northern Mali on the group's 
capacities and aims?
    Answer. AQIM made significant gains during the Tuareg rebellion and 
subsequent coup in northern Mali in March 2012; however, these gains 
and their capacity in northern Mali are being degraded by ongoing 
French counterterrorism operations and U.N. stabilization mission.
       operation observant compass and the lord's resistance army
    Question. Despite pressure by the Ugandan People's Defense Forces 
(UPDF) and efforts by U.S. Special Operations personnel to support 
them, elements of the Lord's Resistance Army (LRA)--including Joseph 
Kony--continue to operate and commit atrocities against civilian 
populations in the Central African Republic, Democratic Republic of the 
Congo, and South Sudan. Some observers have identified operational 
concerns with this mission, including that: (1) supported forces are 
trying to find an elusive foe in an area roughly the size of 
California, much of which is covered in thick jungle; (2) technical 
support to U.S. forces and their UPDF partners from the defense and 
intelligence community continues to be inadequate; and (3) limitations 
continue to be placed on the ability of U.S. Special Operations 
personnel to accompany UPDF partners outside of main basing locations, 
thereby limiting the level of direct support they can provide.
    In your view, what is the objective of Operation Observant Compass 
(OOC)?
    Answer. The objective of OOC, the U.S. military advise and assist 
mission with AU-RTF forces including the UPDF, DRC and South Sudan, is 
to better enable African militaries of the region to counter the Lord's 
Resistance Army, and ultimately to dismantle the LRA and eliminate the 
threat to the civilian populations of the Central African Republic, 
Democratic Republic of the Congo, and South Sudan. The LRA has waged 
violent insurgency in the region since the 1980s, manning its army by 
kidnapping children and forcing them to take up arms against government 
troops. Since October 2011, joint U.S. and Ugandan operations against 
the LRA have significantly marginalized the group's activities.
    Question. In your view, how can DOD support, particularly SOF 
support, to OOC be more effective in meeting these objectives?
    Answer. DOD can best support OOC by continuing to support U.S. 
Government Strategic Objectives, based on President Obama's Counter-
Lord's Resistance Army (C-LRA) strategy through continued funding and 
resourcing. To be more effective in achieving these objectives, U.S. 
SOF C-LRA operations should focus on increasing UPDF and regional 
forces' capabilities to counter terrorists and insurgents and increase 
their range and capability to reach remote areas where the LRA continue 
to find safe haven and if directed, prepare for a transition of 
training responsibilities from U.S. SOF to U.S. and/or international 
and regional partner nation conventional forces. Information operations 
including leaflet drops, radio broadcasts and loud speaker operations 
conducted in close coordination with partner nations and regional NGO's 
have been extremely effective in influencing LRA members to defect, 
including the recent defection of high level LRA leader Lt Col Opio 
Sam. These operations have significantly reduced the LRA's capabilities 
and should be continued, to deplete the LRA's ranks and reintegrate 
former LRA members. These activities, coupled with conventional and 
interagency activities, will directly and indirectly contribute to 
increased protection of civilians in the region, neutralizing the 
threat from the LRA, promoting the integration/re-integration of former 
LRA members, and building the international humanitarian relief to 
affected communities in the region.
    Question. Do you support the continuation of DOD's current level of 
support to this mission?
    Answer. SOCOM supports AFRICOM and SOCAFRICA's current persistent 
engagements and Operation Observant Compass mission in Central Africa, 
and recognizes that DOD actions are an integral part of the overall 
U.S. Government approach to achieve national objectives. The current 
level of support has been successful in significantly marginalizing the 
LRA through persistent Joint Combined Exchange Training (JCET) events 
engagements and advise, assist and accompany missions with UPDF, DRC 
and South Sudan forces as they counter the LRA. These engagements with 
the UPDF have resulted in the enhancement of a UPDF conventional 
forces, South Sudan Commandos and DRC Forces Regionale d'Intervenion 
(FRI) troops, who have clearly demonstrated increased counterterrorism 
and counterinsurgency capabilities throughout the region. The pressure 
applied by U.S.-trained forces has resulted in a large number of 
defections from the LRA, as well as effective UPDF actions on named 
objectives throughout the region.
                                pakistan
    Question. What in your view are the key U.S. strategic interests 
with regard to Pakistan?
    Answer. As a declared nuclear-weapons state, Pakistan's internal 
stability is of paramount strategic interest to the United States. 
Violence associated with insurgent and political attacks have been 
trending generally downward since national elections in May 2013; 
however, attacks as of April 2014 are still unacceptably high. As the 
United States draws down in Afghanistan, a more stable Pakistan will 
contribute to a more peaceful transition in Afghanistan. Regionally, 
the Central Asian States of Kazakhstan, Kyrgyzstan, Tajikistan, 
Turkmenistan, and Uzbekistan are increasingly important in terms of 
security and counterterrorism, the flow of narcotics and other drugs 
(which fuel corruption and violent extremist groups), and the flow of 
hydrocarbons. Save for Turkmenistan, the Central Asian States are 
members of the Shanghai Cooperation Organization (the SCO)--with focus 
on regional security, military cooperation, and mutual economic 
interests. Pakistan is an observer nation in the SCO, and a trading 
partner with all five. How Pakistan interacts with the regional powers 
of India, China, and Russia is of vital strategic interest to the 
United States. How the United States manages bilateral relations with 
each of these three--India in particular--will influence our 
relationship with Pakistan.
    Question. Does the United States have a strategic interest in 
enhancing military-to-military relations with Pakistan? Why or why not?
    Answer. Our primary strategic interest in enhancing military-to-
military relations with Pakistan lies in the potential proliferation of 
nuclear weapons. Pakistan is not a signatory in the Nuclear Weapons 
Non-Proliferation Treaty (although is a member in good standing in the 
IAEA). As a nation of nearly 200 million, 96 percent-Muslim, and 90 
percent of those Sunni, northwest Pakistan and eastern Afghanistan 
remain susceptible to Taliban (Sunni) influence. In parallel, most of 
the primary components for calcium ammonium nitrate (fertilizer)-based 
IEDs have originated in or transited through Pakistan over the past 10-
12 years. Enhancing military-to-military relations would offer more 
chance of guiding Pakistan in positive directions than not.
    Question. If so, what steps would you recommend, if confirmed, for 
enhancing the military-to-military relationship between the United 
States and Pakistan?
    Answer. Around the core of Special Operations Command's warrior 
diplomats is a unique world of relationships with partner nation 
Special Operations and conventional forces, government agencies in 
intelligence, law enforcement, policy and diplomacy, universities, 
think tanks, private sector enterprises and non-governmental 
organizations. Our partner nation liaison officers who travel to the 
United States to work with SOCOM and attend our professional military 
education programs have the opportunity to interact with many of these 
organizations, and as a result commonly return to their home countries 
with a greater sense of trust in U.S. capabilities and intentions. 
Likewise, our Special Operations Liaison Officers return from overseas 
assignments with a deeper appreciation of countries and regions to 
which they are detailed. These exchanges, as well as continuing legacy 
SOF training missions prove to be of enormous value in breaking down 
barriers to future communication and understanding.
    Question. What is your assessment of Pakistan's cooperation with 
the United States in counterterrorism operations against militant 
extremist groups located in Pakistan?
    Answer. Pakistan has become increasingly cooperative. Pakistan's 
central government appears to have changed its stance toward militant 
extremist groups, specifically the Tehrik-i-Taliban Pakistan, the 
Haqqani Network, the East Turkistan Islamic Movement, and the Islamic 
Movement of Uzbekistan. Within the last few weeks, Pakistan's military 
(both air and ground forces) conducted successful missions in the 
federally Administered Tribal Areas region of Pakistan in an effort to 
defeat extremist groups. In addition, Pakistan's populace has been very 
supportive of its governmental/military efforts, as they have become 
increasingly frustrated with militants targeting civilians, exacerbated 
by the recent complex attack on Karachi's airport.
    Question. What is your assessment of Pakistan's efforts to counter 
the threat improvised explosive devices, including efforts to attack 
the network, go after known precursors and explosive materials?
    Answer. Pakistan has an extremely complex and volatile climate of 
political, military and industrial relationships and it is understood 
that dual-use precursors are finding their way into IEDs. While strides 
have been made to better control production and distribution of 
materials, more needs to be done to illuminate the networks that 
provide precursors for the lethal devices. This will require building 
trust and identifying the benefits of curbing the shipping of these 
materials by both military-to-military and diplomatic means to include, 
perhaps, offering alternative technologies as mitigation.
                      republic of the philippines
    Question. What is your view of the effectiveness of U.S. assistance 
provided through the Joint Special Operations Task Force-Philippines to 
the military of the Republic of the Philippines in its fight against 
terrorist groups?
    Answer. The short answer is that I believe Operation Enduring 
Freedom-Phillipines (OEF-P), executed through Joint Special Operations 
Task Force-Philippines (JSOTF-P), has been a text-book example of the 
effectiveness of the ``by, with, and through'' strategy.
    The effort has employed the full range of military activities--
ranging from Direct Action/Kinetic operations to building partner 
capacity--and utilized numerous capacity building funding authorities.
    In the initial years of OEF-P, USSOF worked at the tactical level, 
actively patrolling and advising the Armed Forces of the Philippines 
(AFP) in operations against ASG and Jemaah Islamiya (JI). After 6 
months of FID operations, JTF-510 completed its mission and redeployed 
while Special Forces Security Assistance modules continued with a focus 
on facilitating connections between elements of the AFP and U.S. SOF. 
JTF-510 was replaced by JSOTF-P, which continued to execute the full 
range of operations to include advise, train, equip, and civil-military 
support through building partner capacity venues. The intent of these 
operations was to go at the heart of the ASG and JI support zones and 
eliminate their ability to operate by improving government legitimacy, 
separating terrorists from the populace, and assisting in CT targeting. 
This method was sustained for 9 years. As the AFP skills progressed, 
U.S. SOF refocused their efforts on operational planning and higher 
headquarters C2 techniques. Our successes in the Philippines is no 
doubt based on the full range of operations, actions, and activities 
with both Ministry of Defense and Ministry of Interior forces to 
include direct action, advise/assist, train, equip, minor construction, 
ISR, CASEVAC, CMO, CNT, info ops, and aviation support.
    Our Philippine partners have now progressed to a point where they 
can maintain security and stability with minimal advisory support and 
international ties to ASG and JI have been severed. Within the past 
year, JSOTF-P elevated their support to the institutional training 
centers of select Philippine National Police (PNP) and AFP partner 
units who can now wage the CT fight on their own.
    Question. Do you expect the necessity for or mission of the JSOTF-P 
to change in the coming years? If so, how?
    Answer. Yes. JSOTF-P will deactivate and the named operation OEF-P 
will conclude in fiscal year 2015. OEF-P and JSOTF-P will transition 
because of a change in the threat picture, and more importantly, due to 
the significant enhancement of PSF capabilities. Throughout this 
transition, our ability to maintain a good rapport with PSF and 
internal networks built over the past 11 years has been critical to our 
partnership.
    A smaller number of U.S. military personnel operating as part of a 
U.S. Pacific Command Augmentation Team will continue to improve the 
abilities of the PSF to conduct their CT missions, build PSF capacity 
through long-term SOF partnership, and to partner at critical locations 
to ensure a level of sustainable competence.
                     special operations authorities
    Question. The current Commander of SOCOM has sought and received 
more control over the deployment and utilization of Special Operations 
Forces. For example, the Secretary of Defense modified policy guidance 
for the combatant commands that gave SOCOM, for the first time, 
responsibility for resourcing, organizing, and providing guidance to 
the Theater Special Operations Commands of the geographic combatant 
commanders and Special Operations Forces assigned to them.
    Do you believe the Commander of SOCOM needs additional authorities 
to optimize the utilization of deployed Special Operations Forces?
    Answer. No, receiving COCOM of Theater Special Operations Commands 
enables resourcing, organizing, and guidance supporting geographic 
combatant commanders while increasing effectiveness of Special 
Operations Forces assigned to them.
    Question. If confirmed, how would you seek to utilize authorities 
provided to the Commander of SOCOM without conflicting with civilian 
control of the military, infringing upon other authorities provided to 
the geographic combatant commanders, or raising concerns with the State 
Department.
    Answer. I'll address each of the three potential conflicts listed 
above.
    I fully understand and will comply with the military chain-of-
command, which eliminates conflict with civilian control.
    When Special Operations Forces deploy, OPCON is transferred to the 
GCC who then employs the forces. This clear transfer of control 
eliminates any conflict with the GCCs.
    All of the various events and activities that employ SOF (JCET, 
CNT, Section 1208, Section 1207, JCS Exercise) require COM concurrence, 
thereby eliminating any possible conflict with State.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act (NDAA) for Fiscal Year 2005 (Public Law 108-375), as 
amended by subsequent bills, authorizes the provision of support 
(including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by U.S. Special Operations Forces to combat terrorism.
    What is your assessment of this authority?
    Answer. Section 1208 is critical to our combating terrorism 
efforts. It is a force multiplier--allowing a small number of U.S. 
Special Operators to enlist the support of regular and irregular forces 
to facilitate U.S. military operations, particularly to access areas 
where a larger U.S. presence would be counter to our objectives. 1208 
authority is ideally aligned to our defense strategy, which calls for 
small-footprint, distributed operations to counter terrorist threat 
networks. From a historical perspective, we have achieved tremendous 
effects across a wide range of operating environments for a fraction of 
the cost of other programs. Section 1208 authority fills a critical gap 
in our ability to train and equip regular and irregular forces in 
uncertain environments where terrorists thrive and establish sanctuary. 
I am extremely appreciative of Congress' continued support for this 
authority.
    Question. The Senate Armed Services Committee (SASC)-passed NDAA 
for Fiscal Year 2015 (S. 2410) increased the cap for section 1208 
operations to $60 million from its current level of $50 million
    What is your view of this proposed increase?
    Answer. I am encouraged by the SASC's effort to increase our 
authority cap as an indicator that we share similar perspectives on 
section 1208. As we transition out of combat operations in Afghanistan 
and begin to implement the President's vision of increasing efforts by, 
with, and through foreign partners to address the expanding threat of 
terrorism, section 1208 authority will become ever more essential. 
Section 1208 will be in increasing demand by the combatant commanders 
as they seek low-cost, small-footprint, discreet SOF elements to carry 
out enabled partner operations. I also see the need for longevity in 
the authority--by way of multi-year extensions--and incremental 
increases in the cap to accommodate expanding requirements so that we 
are able to meet the current demand and posture ourselves to respond 
quickly in the event of emerging crises.
    Question. Are there any other changes that should be made to 
section 1208 to improve the effectiveness of this authority?
    Answer. I'm continually impressed with the foresight of those in 
Congress that wrote 1208 authority, as it continues after nearly 10 
years to provide us with tremendous flexibility in supporting our 
combating terrorism operations, while affording the Department of 
Defense and congressional leadership with complete visibility on the 
program through existing notifications and reporting requirements. I 
believe that as long as we adhere to the spirit and letter of the law, 
with careful management and oversight, this authority will continue to 
serve us well into the future as written.
           department of defense counternarcotic authorities
    Question. What is your understanding of the Department of Defense's 
counternarcotics authorities?
    Answer. SOF forces conduct counter narco-terrorism (CNT) training 
missions under DOD counternarcotics authorities. Known as section 1004 
authority (Sec. 1004, of the NDAA for Fiscal Year 1991), U.S. SOF CNT 
missions enable foreign partners to develop skills and capabilities to 
interdict smuggling activities. SOF CNTs address the narco-trafficking 
and associated transnational criminal organization (TCO) threats in 
regions such as West Africa, Central America, and the Central Asian 
States. These are regions where SOF has a continuous forward presence 
under CN authority. SOCOM helps support the Department's 
Counternarcotics and Global Threats Strategy through conducting CNTs 
and other activities.
    Question. In your view, does SOCOM benefit from these authorities 
and associated funding?
    Answer. Yes. CN authorities and funding enable SOF forces to build 
partner capacity and enable SOF forward presence in areas threatened by 
narcotics trafficking. CN authorities and funding also enable the SOF 
community to perform Counter Threat Finance (CTF) analysis of illicit 
proceeds of the drug trade.
    Question. Would you recommend any changes to the Department of 
Defense counternarcotics authorities?
    Answer. I believe current DOD counternarcotics authorities are 
appropriate, and have proven to be useful tools to accomplish national 
security objectives. I would note that because the current authorities 
are tied to counternarcotics, they do not currently enable DOD to 
directly support other U.S. Government efforts to counter transnational 
organized crime that lacks a narcotics or terrorist connection
                         counter threat finance
    Question. Identifying and disrupting key individuals, entities, and 
facilitation routes enabling the flow of money that supports terrorism, 
production of IEDs, narco-trafficking, proliferation, and other 
significant national security threats could have an outsized impact on 
confronting these threats. In August 2010, the Department issued a CTF 
Policy Directive which recognized the CTF discipline as an essential 
tool in combating criminal networks and terrorist organizations and 
called for the integration of CTF capabilities into future force 
planning and the continued support to interagency partners conducting 
CTF operations.
    What is your assessment of the value of CTF activities?
    Answer. Identifying and disrupting the enabling means, specifically 
the resources of our adversaries, is a critical line of effort to the 
National Counterterrorism Strategy and the Strategy to Combat 
Transnational Organized Crime. CTF directly supports these objectives 
through highlighting the illicit activities and vulnerabilities of 
threat networks. Additionally, financial data is a powerful tool in 
understanding a network's capabilities and relationships. In this 
context, CTF activities provide significant value in our efforts to 
protect the United States and U.S. interests abroad.
    Question. What do you believe is the appropriate role, if any, of 
SOCOM in supporting CTF activities?
    Answer. SOCOM is the DOD lead component for synchronizing 
transnational DOD CTF activities. In this role, SOCOM is well 
positioned to support interagency and partner CTF efforts. Our ability 
to understand our adversaries and advance whole-of-government efforts 
will remain an important aspect of our enabling role, and will shape 
our ability to operate effectively alongside and in support of our 
interagency partners.
       national strategy to combat transnational organized crime
    Question. Criminal networks are not only expanding their 
operations, but they are also diversifying their activities, resulting 
in a convergence of transnational threats that has evolved to become 
more complex, volatile, and destabilizing. The Director of National 
Intelligence recently described transnational organized crime as ``an 
abiding threat to U.S. economic and national security interests,'' and 
stated that ``rising drug violence and corruption are undermining 
stability and the rule of law in some countries'' in the Western 
Hemisphere. In July 2011, the President released his Strategy to Combat 
Transnational Organized Crime: Addressing Converging Threats to 
National Security. One of the priority action areas designated in the 
strategy is ``enhancing Department of Defense support to U.S. law 
enforcement.''
    What is your understanding of the President's strategy to combat 
transnational criminal organizations?
    Answer. The U.S. National Strategy to Combat Transnational 
Organized Crime is grounded in the increasing threat transnational 
criminal organizations pose to U.S. and international security and 
governance. It highlights the threat posed by the convergence of 
transnational organized criminal activities. Therefore, the Strategy to 
Combat Transnational Organized Crime centers on efforts to build, 
balance, and integrate the tools of American power to combat this 
threat. Depriving threat networks of their enabling means must be 
integrated into current and future operations, including special 
operations missions. It takes a network to combat this, and the 
approach we must take is a whole-of-government networked approach. The 
Threat Mitigation Working Group led a Strategic Coordination Meeting 
hosted at SOCOM to explore this very topic on May 9, 2014. There is 
still work to be done to synchronize our whole-of-government response 
to CTOC.
    Question. What is your understanding of the SOCOM's role within the 
President's strategy?
    Answer. SOCOM is a partner with interagency efforts to:

        <bullet> Enhance intelligence and information sharing;

                <bullet> SOCOM's global perspective can provide unique 
                expertise in defining and describing the scope of the 
                threat posed by transnational criminal organizations.

        <bullet> Strengthen interdiction, investigations, and 
        prosecutions;

                <bullet> Special Operations Forces (SOF) provide unique 
                capabilities in support of the Department of Defense's 
                detect and monitor responsibilities as outlined in 
                title 10, U.S.C., section 124. Additionally, an 
                expansion of the DOD rewards for information program to 
                include transnational organized crime, would permit SOF 
                to provide additional support in gathering information 
                to support arrest or conviction of top transnational 
                criminals.

        <bullet> Disrupt drug trafficking and its facilitation of other 
        transnational threats; and

                <bullet> SOF have a long history in providing support 
                to U.S. Government counter-drug activities globally. 
                SOF maintain established relationships with counter-
                drug partners worldwide and execute sustained counter-
                drug capacity development missions.

        <bullet> Build international capacity, cooperation, and 
        partnerships

                <bullet> SOF have unique qualifications and 
                capabilities to directly interact with and enhance 
                international partners' capacity to address the 
                challenges related to transnational organized crime.

    Question. In your view, should SOCOM play a role in providing 
support to the U.S. law enforcement and the Intelligence Community on 
matters related to transnational organized crime?
    Answer. Yes. Transnational organized crime can destabilize partner 
nation governments, while also enabling our adversaries. To effectively 
counter these threats, we need to undertake a comprehensive approach 
that includes mutually supporting priorities among DOD, other U.S. 
Government departments and law enforcement agencies, and the 
Intelligence Community. Furthermore, once the mutually supporting 
priorities are identified, SOCOM should continue to develop 
capabilities and integrate those capabilities into mission planning in 
support of whole-of-government solutions, including working directly 
with U.S. Law Enforcement agencies.
                     socom acquisition authorities
    Question. SOCOM is unique within the DOD as the only unified 
command with acquisition authorities and funding. Further, the 
Commander of SOCOM is the only uniformed commander with a subordinate 
senior acquisition executive.
    If confirmed, how would you ensure SOCOM requirements are 
adequately vetted and balanced against available resources before 
moving forward with an acquisition program?
    Answer. SOCOM has a robust requirements and programming process 
that is vetted through the special operations Strategic Planning 
Process (SPP) and leadership from each of the component commands. This 
disciplined process allows SOCOM to align available resources with 
validated requirements, and to prioritize these requirements within our 
budget and future year programs.
    Question. In your view, are there ways in which the SOCOM 
acquisition system can be reformed to more expeditiously address 
emerging requirements?
    Answer. SOCOM prides itself on an acquisition workforce of 
recognized experts and trusted providers, as well as a rapid and 
focused acquisition system built on streamlined processes. Although 
effective, we continue to look for collaborative opportunities and more 
innovative ways of doing business with the Services, international 
partners, and the industrial complex.
    Some recent examples include open collaborative forums between the 
SOF operators, acquirers, industry and academia, 3D modeling and 
prototyping, and various contracting strategies.
    Question. What role can SOCOM's development and acquisition 
activities play in broader Service and DOD efforts?
    Answer. SOCOM is a microcosm of the entire Defense Department, and 
our challenges are very similar to investment requirements among the 
Services. SOCOM also has mature processes to conduct rapid evaluations 
of technology, systems, and concepts of operations, the results of 
which benefit SOF and are transferrable to the rest of the Department. 
Special Operations Forces Acquirers specialize in the integration of 
emerging off-the-shelf technologies.
    This integration allows SOCOM to take the best from each Service, 
as well as industry, and modify or customize the equipment to meet 
special operations needs and rapidly field it to the force. Our success 
can then be shared with the Services to improve their capabilities.
    Some of the SOF technologies that have been transitioned to the 
Services include the M-3 Multipurpose Anti-Armor, Anti-Personnel 
Weapons System to the U.S. Army, the MK48 Machine gun to the U.S. Navy, 
and the LA-10 Handheld Laser Marker to the U.S. Air Force National 
Guard.
    Question. If confirmed, how would you ensure that special 
operations capabilities and requirements are integrated into overall 
DOD research, development, and acquisition programs?
    Answer. Although SOCOM generates and validates all SOF 
requirements, these requirements are provided to the Joint Staff for 
inclusion in the Joint Requirements Knowledge Management System. In 
addition, SOCOM has initiated acquisition summits with OSD, drawing 
together SOCOM, USD(AT&L), and the Service Acquisition Executives (SAE) 
to discuss acquisition issues of common interest. For example, the SAEs 
regularly synchronize technical and programmatic plans among all 
investment portfolios, as well as explore initiatives to develop common 
architectures and standards across different future SOF and Service 
platforms. Additionally, OSD(AT&L) has led efforts on behalf of SOF to 
standardize certification and other Service test requirements between 
Services and SOCOM to gain efficiencies and promote common process 
reciprocity. Continuing that dialogue/exchange will remain one of my 
priorities.
    Question. If confirmed, how would you ensure sufficient resources 
are dedicated to the development of special operations-unique 
platforms, when required?
    Answer. Ensuring SOF not only has the resources to conduct today's 
operations but preparing ourselves for the future environment is one of 
my top priorities. The SOCOM SPP allows the Command to take a strategic 
view of future requirements and achieve a balance. Since September 11, 
the MFP-11 budget has kept pace with operations, and the investment 
funding has allowed SOCOM to support these increased demands and 
acquire equipment as required.
    Question. If confirmed, what metrics will you use to determine the 
effectiveness of SOCOM technology development investments and whether 
SOCOM is investing sufficient resources in these efforts?
    Answer. We have created a series of technology roadmaps that assist 
us in identifying promising solutions to our problems. These roadmaps 
are schedule-oriented, containing both the technology development 
timelines and the formal acquisition program schedules. As such, they 
have quantifiable metrics (cost, schedule, performance, and technology 
readiness) embedded in them.
    Question. If confirmed, how will you ensure that SOCOM has an 
acquisition workforce with the skills, qualifications, and experience 
needed to develop and manage its acquisition and research and 
development programs?
    Answer. The SOCOM Acquisition Executive manages the SOF Acquisition 
workforce similar to the Service Acquisition Executives. SOF Acquirers 
are specialists in science and technology, acquisition, contracting, 
and logistics. They are operationally oriented, professionally trained 
and certified, and experts in the SOF-unique processes required to meet 
the equipping needs of SOF. SOCOM has been recognized as a leader in 
acquisition workforce development, and has received DOD-level awards in 
this area for the last 3 years.
                special operations personnel management
    Question. Some have argued that the Commander of SOCOM should have 
greater influence on special operations personnel management issues 
including assignment, promotion, compensation, and retention of Special 
Operations Forces. One proposal would modify section 167 of title 10, 
U.S.C., to change the role of the SOCOM Commander from ``monitoring'' 
the promotion, retention, and career progression of special operations 
officers to ``coordinating'' with the Services on personnel and 
manpower management policies that directly affect Special Operations 
Forces.
    What is your view of this proposal?
    Answer. In 2010, the Defense Department published DODD 5100.01, 
Functions of the Department of Defense and Its Major Components, which 
implemented SOCOM's recommendation, specifically citing ``coordinate,'' 
vice monitoring as title 10 states. SOCOM must continue to work with 
the Services and ASD(SO/LIC) to ensure the most effective personnel 
management policies are codified in all applicable directives.
                   size of special operations forces
    Question. The 2006 and 2010 Quadrennial Defense Reviews mandated 
significant growth in Special Operations Forces and enablers that 
directly support their operations. However, as a result of the Budget 
Control Act and Bipartisan Budget Agreement, SOCOM will truncate its 
growth at 69,700 personnel, almost 3,000 fewer than had been previously 
planned.
    What is the impact of these cuts to special operations 
capabilities--particularly with regard to organic enabling capabilities 
like combat support and combat service support?
    Answer. The Budget Control Act and Bipartisan Budget Agreement 
truncated SOCOM's growth by approximately 2,201 personnel. After 
conducting a detailed analysis, it was determined that primarily 
USASOC's end strength would be affected (specifically three Ranger 
companies, an MH-47 company of eight helicopters, and one of two ISR 
Gray Eagle companies cut; and a halt in programmed growth of civil 
affairs capacity), so that cuts to combat support and combat service 
support (CS/CSS) requirements could be minimized. Additionally, while 
not specifically reduced, NSW and MARSOC did not realize programmed 
growth.
    Although the cuts were managed to ensure minimal effects on CS/CSS, 
SOCOM will need to define its requirements farther in advance, in order 
to allow the Services to plan for the employment of habitually aligned 
units in support of SOF. A reduction of our emergent requests and an 
increase in habitually aligned Service Provided Capabilities (SPCs) 
will go a long way to resolve this problem. We remain committed more 
than ever to working with the Services as part of their Service force 
generation processes and GFM to ensure the necessary SPCs are 
programmed for, trained and ready to deploy with SOF to meet 
operational requirements.
         stress on the force and families: fmd potff (dr neff)
    Question. In recent years, Special Operations Forces have 
experienced higher suicide rates than those in the general purpose 
forces and continue to face significant numbers of divorces The current 
Commander of SOCOM has focused significant effort and resources on 
addressing the stress on special operators and their families through 
the Preservation of the Force and Families (POTFF) initiative.
    If confirmed, how would you seek to address issues associated with 
the stress of difficult and repeated deployments on special operators 
and their families?
    Answer. I will continue to place my priority on the POTFF 
initiative. With the support of Congress, the Department of Defense and 
the Services I will fully support what Admiral Olson and Admiral 
McRaven have started. Aggressively, I will reach out to our SOF 
families and listen to their concerns to ensure, between the Services 
and SOCOM, there are solutions available to meet their needs. One of 
the key causes of stress for our families is the unpredictability of 
training and deployment schedules. To help mitigate this stress and 
provide families with more predictability, I will continue to support 
the policy on Personnel Tempo Tracking and enforce the SOCOM threshold 
of 250 days at home station (head on pillow) in a 24-month period.
    Question. Do you believe families of special operators face 
``special operations-unique'' challenges when compared to other 
military families?
    Answer. All military families face challenges associated with 
supporting their servicemember. A combination of high operational tempo 
(OPTEMPO), exacting standards for operational proficiency, and mission 
sensitivity places unique stressors on SOF members and their families. 
In accordance with President Obama's strategic guidance, this burden 
will not decrease. I will continue to alleviate the impact of these 
challenges by working closely with the Services and, where gaps are 
identified, work with Congress to implement programs geared towards 
meeting SOF requirements.
    SOF members are subject to no-notice recall and immediate 
deployments without clear end dates which adds unpredictability to the 
families. SOF members routinely practice high-risk skills and 
collective training events with personal injury a persistent career 
factor and added stress on families. A higher degree of operational 
activity and enemy contact (personally eliminating combatants) brings 
an increased opportunity for traumatic exposure compared with GPF. Many 
SOF members are deployed to remote locations without traditional 
psychological, medical, or religious support. SOF lives within a short-
term deployment & training cycle that result in little or no 
reintegration period with families . . . we are always at war. Many SOF 
members work on classified missions which cannot be shared with spouses 
. . . this brings added stress on the relationship. SOF spouses endure 
a greater percentage of parenting duties from high PERSTEMPO. In time 
the SOF family adapts to the high OPTEMPO, and then the SOF member 
retires or moves to a ``desk job'', which can bring difficulties in 
adapting back to a ``normal life''.
                        recruiting and retention
    Question. How successful have the services been in recruiting and 
retaining the special operations personnel that are needed?
    Answer. In today's operating environment, the demand is much 
greater for SOF operators who speak various languages and are 
culturally attuned. Service recruitment efforts face many challenges as 
selection from the pool of eligible U.S. citizens and legal permanent 
residents are limited due to medical, educational, or conduct reasons. 
However, Service recruiting commands, in coordination with SOF 
component commands continue to be generally successful in recruiting 
SOF operators.
    Continued support for programs like Military Accessions Vital to 
National Interest (MAVNI), has great potential to alleviate some 
critical strategic language and cultural gaps. Your current and 
continued support of this program is not only appreciated but vital to 
ensure future SOF success. Looking forward, the Services' must increase 
recruitment for those candidates who will bring ethnic, business, 
academic, technical and experimental diversity to SOF. Operating in an 
uncertain global environment requires a broad pool of personnel with 
deep and diverse global awareness and understanding. It is paramount 
for Services and SOCOM to remain receptive and flexible to initiatives 
which enable the recruitment of these types of individuals.
    Question. What are the biggest challenges to retention you see in 
the SOCOM community?
    Answer. Past focus groups identified a primary reason personnel 
consider leaving the force is the lack of predictability for 
deployments to both named operations and to GCC theater security 
cooperation program missions. Specifically, this is often created by 
late shifts in deployment schedules and the insertion of new 
requirements. In order to address this challenge, SOCOM recently 
implemented a Personnel Tempo (PERSTEMPO) tracking policy that 
establishes a 250 days at home station (head on pillow) threshold in a 
24-month period (730 days) with a 12 months back and 12 months forward 
sliding scale. Any waivers must be personally approved by the SOCOM 
Commander.
    Question. What steps need to be taken, in your view, to meet the 
recruiting and retention goals of each of the Services' Special 
Operations Forces?
    Answer. The Services need increased flexibility to incentivize 
qualified individuals to choose the path to become special operators. 
We need continued support for programs that are beneficial to SOF and 
also in maintaining recruiting budgets for the Services. Consequently, 
SOCOM must continue to facilitate comprehensive solutions and 
engagement with our components and the Services to ensure the SOF 
community is attracting the very best. We must also retain those SOF 
Operators who demonstrate future potential service to their respective 
Service.
    Question. What monetary or non-monetary incentives do you believe 
would be most effective in this regard?
    Answer. SOCOM currently has a set of recruiting and retention 
incentive programs focused on accessing new personnel, keeping both our 
mid-career SOF personnel as well as maintaining our most senior and 
experienced SOF personnel: Enlistment Bonus (EB), Selective 
Reenlistment Bonus (SRB), Critical Skills Retention Bonus (CSRB), 
Special Duty Assignment Pay (SDAP), Assignment Incentive Pay (AIP) and 
Critical Skills Accession Bonus (CSAB). These programs have been 
effective in accessing and retaining their target demographic. SOCOM 
will continue to advocate for the SOF Service Components, via OSD and 
the Joint Staff, with the Services in order to maintain these important 
SOF incentives programs.
                          training capability
    Question. What capabilities do you consider most important for 
effective training of special operations personnel?
    Answer. Professional Military Education remains an essential 
element to the development, sustainment, and advancement of SOF. 
Additionally, language skills and cultural knowledge continue to be key 
to establishing effective relationships with foreign forces, 
organizations and individuals with which SOF will interact.
    Training, such as JCETs, Realistic Military Training (RMT) off 
Federal property, and operational exercises are critical in maintaining 
SOF core capabilities. JCETs fulfill critical language, regional 
expertise, and cultural training requirements, and at the same time 
they build person-to-person and unit-to-unit relationships, and 
contribute towards persistent engagement with partner nations. RMT 
provides environments that replicate those encountered in actual 
operations that may not be available in the size or desired level of 
realism on Federal property. Further, these exercises are a great 
opportunity to enhance interagency relationships.
    Operational exercises rehearse mission essential tasks that are 
critical across the spectrum of conflict. From an aviation perspective, 
this includes the frequency, volume, and quality of training to 
maintain currency, proficiency, and expertise across a variety of 
tactical skillsets from aircrew primary and advanced flight skills to 
Joint Terminal Attack Controller qualifications to culturally-attuned 
Combat Aviation Advisors. This consists of, among other things, access 
to appropriate ranges, airspace and the ability to operate off real 
Federal property to effectively replicate operational requirements. SOF 
is conducting engagements and building partner capacity in several 
countries with a wide-array of aviation platforms, many of which are 
not in the DOD inventory, which require our forces to continually 
expand and refine their knowledge and expertise of aviation platforms 
and their capabilities.
    Question. What improvements are necessary, in your view, to enhance 
training for special operations personnel?
    Answer. SOCOM must continue the reframing of the force from a 
primarily threat-focused approach to a population-centric approach. To 
achieve U.S. strategic objectives, we must continue to posture for and 
execute an approach based on population-centric engagement.
    The continued use of technology has resulted in tangible tactical 
benefits to the force. For instance, SOCOM's acquisition of the latest 
Simulation-Based Training devices has provided an alternative or 
complementary method to conduct SOF training. This training uses 
virtual environments to augment or replace portions of the real 
environment, reducing risk to the participants and potentially reduce 
overall training costs. The use of these simulations at home stations 
will reduce the requirement to travel to train thus reducing time away 
from home and shortening training timelines.
    Question. What are the most significant challenges in achieving 
effective training of special operations personnel?
    Answer. Access to and availability of Service training areas and 
ranges in proximity to SOF home bases continue to be a challenge. While 
there are excellent joint training areas in CONUS, the resources 
required to access these areas and limited range scheduling 
availability create additional strain on training time, training 
budgets, and PERSTEMPO. Given SOF's normal OPTEMPO and un-forecasted 
mission requirements, SOF requires priority over General Purpose Forces 
at Service and joint training installations.
    From a Presentation of the Force perspective, pre-mission and pre-
deployment training with relevant Service-Provided Capabilities (SPCs) 
is critical. SOF utilizes SPCs to travels to and participate in 
training at various venues. Coordinating available transportation and 
training assets with non-prioritized scheduling is difficult and 
creates delays in training and inefficient use of training resources. 
The lack of available CONUS-based fixed and rotary/tilt wing platforms 
presents a significant challenge to train in the spectrum of SOF 
required capabilities.
    Question. What, if any, training benefits accrue to U.S. Special 
Operations Forces from training foreign military personnel?
    Answer. SOF conducting training in regional synchronization, 
intelligence sharing, planning and coordination for counterterrorism 
related operations are invaluable tools for improving the language and 
cultural expertise of U.S. Special Operations Forces while providing 
opportunities to practice skills needed to conduct a variety of 
missions, including foreign internal defense, unconventional warfare, 
and counterterrorism. The training of foreign military forces also 
facilitates more persistent and enduring engagement with partner nation 
security forces building relationships, trust and interoperability with 
our global SOF partners.
    Question. To what extent, in your view, is it appropriate for the 
United States to rely upon contractors for training foreign military 
personnel? What do you see as the primary risks and advantages in such 
contractor training?
    Answer. Training of foreign forces, as a general rule, must be 
conducted as a part of the Department of State title 22 funded Security 
Assistance or Security Cooperation programs. SOF support to these 
programs usually does not include the use of contracted personnel. The 
use of contractors in many cases may make sense from a cost 
perspective, as well as relieving military assets from these tasks. The 
risk to SOF in using contracted personnel is the possible disclosure of 
tactics, techniques, and procedures (TTP) which SOF has developed based 
on our battlefield successes. SOF reviews contracts for training to 
foreign forces to ensure TTPs are protected from disclosure. The 
problem is trying to monitor contracted training that is being done by 
other countries for foreign forces. Frequently, former U.S. Military 
personnel accept employment with one of 46 foreign companies that 
conduct SOF training. It is very difficult to monitor disclosure in 
these cases. Contractors are not a SOF substitute. They should only be 
used in a support role such as logistics and administration. 
Contractors operating separate or leading the training of foreign 
forces may not represent SOF in the best light and cannot represent the 
U.S. Government. The advantages are they free up SOF from routine 
logistical and admin support functions and allow them to concentrate on 
operational mission accomplishments.
                           diversity in socom
    Question. How do you define diversity in SOCOM?
    Answer. SOCOM's definition of diversity includes the traditional 
categories of minority representation and more. The ability to speak 
foreign languages, blend into foreign environments, and understand the 
local cultures of our operating regions are invaluable skills which 
creates a broader, operation-specific diversity in SOCOM.
    Question. Do you believe that achieving greater diversity in SOCOM 
is a priority?
    Answer. Diversity is absolutely a priority for SOCOM and for 
subordinate SOF units. Having people on the team from diverse 
backgrounds only makes the team as a whole stronger. Specifically, 
diversity is operationally necessary for SOF as SOF engagements 
continue to expand across populations with different cultural nuances. 
SOF success is impacted by our ability to assess and adapt on multiple 
fronts, and benefit from those that possess a broad range of skills and 
backgrounds.
    Question. If confirmed, what steps would you take to ensure that 
continued progress toward diversity goals is achieved without violating 
reverse discrimination principles of law?
    Answer. If confirmed, I will work with my component commanders, 
Senior DOD leadership and the Services to identify future operational 
requirements and support diversity marketing, awareness, and outreach 
to meet those operational requirements. In addition, senior SOCOM 
leaders are putting a focus on increasing cultural and ethnic 
diversity.
                 sexual assault prevention and response
    Question. What is your assessment of current sexual assault 
prevention and response policies and procedures in SOCOM?
    Answer. The Military Services have primary responsibility to ensure 
sexual assault response personnel (Sexual Assault Response 
Coordinators, Victim Advocates, medical and mental health providers, 
and criminal investigation personnel) are well-trained to support 
victims and investigate and respond to allegations of sexual assault. 
If resources are not readily available where the alleged incident 
occurred, victims are transported to a facility where there is 
appropriate victim advocate support, medical and psychological care 
(regardless of Service), and investigative/legal support.
    The Joint Staff remains a key partner with the Services and OSD in 
the campaign against sexual assault. Additionally, the Joint Staff 
works closely with the combatant commands during the development of 
operational plans and personnel policy guidance to ensure the 
prevention and response to incidents of sexual assault is addressed.
    Prevention of sexual assault is a leadership responsibility. 
Commanders at all levels must remain committed to eliminating sexual 
assault within our forces by sustaining robust prevention and response 
policies; by providing thorough and effective training to all assigned 
service members, by identifying and eliminating barriers to reporting; 
and by ensuring care is available and accessible.
    Question. Do you consider current sexual assault policies and 
procedures, particularly those on confidential reporting, to be 
effective?
    Answer. Yes. For a multitude of reasons, sexual assault has 
historically been an under-reported crime. Restricted reporting has 
been effective. Although the use of restricted, or confidential, 
reporting doesn't allow law enforcement to investigate alleged 
assaults, it does allow a sexual assault victim to confidentially 
receive medical treatment and counseling without triggering the 
official investigation process.
    Unrestricted reporting supports a sexual assault victim who desires 
medical treatment and counseling--but also provides for official 
investigation of his or her allegations by law enforcement with the 
support of the victim's chain of command or Sexual Assault Response 
Coordinator (SARC).
    As our military members' confidence in the reporting and 
investigative policies and procedures improve as well as the 
implementation of the victim's attorney programs (i.e., the Air Force 
Special Victim's Counsel) over the past 18 months, I believe and 
certainly hope that increasing progress is being made in the effort to 
increase unrestricted reports and victim cooperation during 
investigations/prosecutions. This will ultimately increase offender 
accountability.
    Question. What is your view of the adequacy of the training and 
resources SOCOM has in place to investigate and respond to allegations 
of sexual assault?
    Answer. The Services are responsible for training sexual assault 
response personnel to ensure they are well-trained to investigate and 
respond to allegations of sexual assault. The services have been trying 
to increase the number of Victim Advocates to support special operators 
who are deployed to more remote locations. Improved training for 
investigators is also a priority and this includes investigative 
resources in deployed areas. As you may imagine, deployed operations 
and the combat environment are very dynamic and investigative resources 
are often strained by other mission requirements. Remoteness of 
locations, availability of transportation, or the level of ongoing 
operations may complicate access to resources. I believe the DOD 
training network in place now prepares investigators to handle sexual 
assault cases in a caring, responsive, and professional manner. Our 
ability to respond and support victims is critical.
             assignment policies for women in the military
    Question. In January 2013, the Department rescinded the policy 
restricting the assignment of women to certain units which have the 
primary mission of engaging in direct ground combat operations, and has 
given the Military Services until January 1, 2016, to open all 
positions currently closed to women, or to request an exception to 
policy to keep a position closed beyond that date, an exception that 
must be approved by the Chairman of the Joint Chiefs of Staff and the 
Secretary of Defense. The Services and SOCOM are working now to develop 
gender-free physical and mental standards for all military occupations, 
presumably with the goal of allowing individuals, regardless of gender, 
to serve in those positions if they can meet those standards.
    If confirmed, will you ensure that the standards are realistic and 
preserve, or enhance, military readiness and mission capability?
    Answer. Yes. Our success requires a highly qualified, talented and 
motivated special operations force. Our standards are a reflection of 
the challenges we face every day, on and off the battlefield, and are 
the hallmark of our organization. I view the process of developing and 
validating standards as an opportunity to ensure our standards are 
operationally relevant to current and future special operations.
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements? If so, what steps would you 
take to ensure that such decisions are made on this basis?
    Answer. Our highest priority and most important responsibility is 
national security. We must remain uncompromising in this regard when 
making decisions on assignment of personnel to all positions and 
occupations. History shows diversity enhances capability and will 
continue to be an integral part of SOF as we face future challenges. 
The standards validation process will ensure our forces are properly 
selected and trained to meet the demands for specific occupations and 
military requirements.
    Question. Do you anticipate SOCOM or its components will need to 
recommend to a parent Service that the Service seek an exception to the 
policy to keep any of its units or occupations all male?
    Answer. The recommendation for exceptions to policy, in 
coordination with the recommendations of the Services, will be informed 
by the validation of occupational standards and SOCOM's studies of 
morale, cohesion, and unit readiness. These efforts are ongoing. 
Without these results, it is premature to anticipate exceptions to 
policy.
              language and cultural awareness capabilities
    Question. Deployed special operations personnel remain heavily 
concentrated in the Central Command area of operations, including many 
who have been deployed outside of their regional area of expertise.
    Are you concerned that the language and cultural skills among 
Special Operations Forces are being degraded because of repeated 
deployments outside their regional area of expertise?
    Answer. While this remains a concern in the near term, the number 
of operators being deployed outside their regional area of expertise is 
decreasing and more of our language and cultural awareness training has 
been committed to improving our global capabilities. Despite repeated 
deployments to the Central Command area of operations, SOCOM's gross 
language capacity and capability are higher than they have ever been in 
the past 10 years. However, we need to finish rebalancing specific 
language densities by operational unit to better serve all geographic 
combatant commands. Additionally, based on our assessment of the global 
operational environment, we must maintain our efforts to improve in 
language capabilities needed to develop our foreign partners.
    Question. If so and if confirmed, what, if anything, would you do 
to ensure these unique skills are adequately maintained?
    Answer. Effectively enabling our foreign partners and allies to 
address internal threats mandates that SOCOM training, mentoring, and 
coordination efforts are directed at planning, intelligence, and other 
topics well beyond the simple mechanics of teaching rifle marksmanship. 
This means we must increase our intermediate and higher level 
capacities. To address this, we will continue our partnership with the 
Department and the Services on related issues and increase efforts 
within the Service SOF components. SOCOM works closely with the 
Department and the Services to optimize and increase diversity 
recruiting efforts, such as the MAVNI pilot program which brings 
advanced language and cultural capability into SOF and SOF enabler 
specialties at low or no cost. We also count on the Services for 
testing capacity and incentive pays. Both are necessary components of 
our overall language program.
    Rebalancing our language capabilities and continuing to develop the 
necessary higher proficiencies means strengthening our Service SOF 
language and culture instruction programs, and monitoring them closely 
to ensure efficiencies without sacrificing critical capabilities. We 
will also work with the Service SOF components and Services to optimize 
career management that capitalizes on initial training and increases 
capability through work-related exposure.
                      special operations missions
    Question. In recent years, Special Operations Forces have taken on 
an expanded role in a number of areas important to countering violent 
extremist organizations, including those related to information and 
military intelligence operations. Some have advocated significant 
changes to SOCOM's title 10 missions to make them better reflect the 
activities Special Operations Forces are carrying out around the world.
    What current missions, if any, do you believe can and should be 
divested by SOCOM, and why?
    Answer. SOCOM and SOF senior leaders are in a constant process of 
reviewing and prioritizing SOF core activities as outlined in DOD 
Directive 5100.01. This process encapsulates reviewing current 
directives and capabilities, as well as studying the ever-changing 
global environment in order to provide feedback to re-shape future 
directives. This process is reported in updates to the Directive and 
other key documents. SOCOM will continue to prepare SOF as directed.
    Question. Are there any additional missions that you believe SOCOM 
should assume, and, if so, what are they and why do you advocate adding 
them?
    Answer. SOCOM and SOF senior leaders are in a constant process of 
reviewing and prioritizing SOF core activities as outlined in DOD 
Directive 5100.01. This process encapsulates reviewing current 
directives and capabilities, as well as studying the ever-changing 
global environment in order to provide feedback to reshape future 
directives. This process is reported in updates to the Directive and 
other key documents. SOCOM will continue to prepare SOF as directed.
                    military intelligence operations
    Question. In your view, how are intelligence operations carried out 
by special operations personnel different from those carried out by 
others in the Intelligence Community?
    Answer. At the Tactical level intelligence support to SOF 
operations focuses on sustaining the Find, Fix, Finish, Exploit, 
Analyze intelligence cycle that has been tailored to meet the 
requirements of speed and flexibility associated with SOF operations. 
At the Operational and Strategic levels intelligence operations carried 
out by special operations personnel focus more on developing and 
incorporating tailored intelligence products to support SOF unique 
mission sets. SOF intelligence support is different than that provided 
by the rest of the Intelligence Community because it provides tailored 
intelligence analysis supporting Unconventional Warfare planning and 
operations, uniquely builds detailed diplomatic facility diagrams and 
models to support SOF NEO or threat based contingency planning, and 
produces focused analytical products in support of SOF persistent 
engagement activities with ethnic groups, tribes, or micro-populations, 
a mission set that is uniquely SOF in duration and focus.
    Question. If confirmed, how would you ensure intelligence 
activities carried out by Special Operations Forces are coordinated 
adequately with other activities carried out by those in the 
Intelligence Community?
    Answer. SOCOM will continue to follow all applicable Intelligence 
Community directives, will report required sensitive activities to the 
USD(I), and will maintain the robust intelligence oversight processes 
in place involving our Inspector General, Staff Judge Advocate, and our 
Command Oversight Review Board. I intend to maintain and build upon the 
relationships developed over time with the various Federal intelligence 
and law enforcement agencies represented in our Interagency Task Force 
in Tampa. Additionally, SOCOM will continue to employ and leverage our 
liaison officers, which we call Special Operations Support Team 
members, in order to coordinate with agencies in the NCR. Interagency 
collaboration is a significant contributing factor in many of our 
operational successes.
    Question. What is your understanding and assessment of the 
authorities and agreements which are in place to allow U.S. military 
personnel to carry out missions under the authorities contained in 
title 50, U.S.C.?
    Answer. Title 50 of the U.S.C., also known as the National Security 
Act of 1947 does not specifically grant to the Commander of SOCOM the 
authority to conduct intelligence operations. However, title 50 
contains many of the Secretary of Defense's intelligence statutory 
authorities which provide the Secretary of Defense a basis to direct 
SOCOM assets to conduct operations or allow him to delegate authority 
to the Commander of SOCOM. The authorities are either broadly delegated 
such as Defense HUMINT Executor authority, or narrowly tasked through 
orders such as title 10 executive orders. Recognizing the need to fuse 
the military's need for tactical and strategic intelligence with the 
policy need for political and strategic intelligence, title 50 
bifurcates the responsibilities for the intelligence function between 
Secretary of Defense and DNI.
               special operations personnel in embassies
    Question. SOCOM deploys personnel to work with country teams in a 
number of priority countries where the United States is not engaged in 
direct action operations, but rather trying to stop the spread of 
violent extremism. Their mission is to support the priorities of the 
Ambassador and the geographic combatant commander's theater campaign 
plan against terrorist networks.
    If confirmed, how would you seek to ensure the goals of special 
operations personnel deployed to these countries are aligned closely 
with those of the Ambassadors they are working with?
    Answer. Essential to the success of the efforts you describe is 
absolute commitment to ensuring the goals of the Ambassador, the GCC 
and any deployed SOF are one in the same, at all times. I completely 
concur deployed SOF's mission is to support the priorities of the 
Ambassador and SOF does nothing without the express approval of the 
U.S. Ambassador/Chief of Mission to that country. In the case of 
section 1208 authority, we must gain written concurrence from the U.S. 
Chief of Mission prior to the application of that authority in support 
of our operations.
    In certain countries, Special Operations Liaison Officers (SOLOs) 
provide additional coordination. SOLOs are SOCOM-sourced, U.S. SOF-
qualified officers, placed under Chief of Mission authority as part of 
the Embassy Team, via an U.S. Ambassador (USAMB)-approved NSDD-38 
agreement. These are permanent change of station assignments where the 
duties and responsibilities of the SOLO are derived from the USAMB's 
Integrated Country Strategy and consistent with the GCC's Theater 
Security Cooperation Plan. There are currently fourteen serving SOLOs 
(Australia, Brazil, Canada, Colombia, El Salvador, France, Israel, 
Italy, Jordan, Kenya, Poland, Peru, Turkey, United Kingdom). The 
program is funded for 40 positions by 2019 at locations based on GCC-
identified requirements and USAMB concurrence via the NSDD-38 process.
    Since 2007, the program has been highly successful in developing 
key SOF partners, preparing for future contingencies, and building 
mutually beneficial global relationships in support of U.S. Embassy, 
Geographic Combatant Command and Theater Special Operation Command 
engagement strategies. With a very small footprint, SOLOs enable U.S. 
Embassies to provide their host nation Special Operations Forces with a 
more efficient relationship with the U.S. interagency, GCCs, and SOCOM 
on SOF specific issues. Additionally, the existing network of SOLOs 
facilitates coordination between U.S. SOF leadership and strategic 
partner nation SOF globally.
    Question. In your view, what is the value of these special 
operations personnel to their respective geographic combatant commands 
and the country teams they are supporting?
    Answer. U.S. SOF brings unique capabilities to further U.S. policy, 
goals, and regional/country objectives. We do this in coordination with 
our interagency partners from across the U.S. Government, ensuring a 
synchronized whole-of-government approach. As such, U.S. SOF have 
become an integral part of every GCC TCP.
                         information operations
    Question. The Government Accountability Office reports that DOD has 
``spent hundreds of millions of dollars each year'' to support its 
information operations outreach activities. Many of these programs are 
in support of operations in Afghanistan, but Military Information 
Support Teams from SOCOM also deploy to U.S. embassies in countries of 
particular interest around the globe to bolster the efforts of the 
Department of State and the U.S. Agency for International Development. 
Further, the geographic combatant commands are increasingly moving into 
this operational space.
    What are your views on DOD's military information support 
operations and influence programs and their integration into overall 
U.S. foreign policy objectives?
    Answer. Military Information Support Operations (MISO) are a key 
capability that DOD provides in support of U.S. foreign policy 
objectives. SOCOM provides MISO forces to geographic combatant 
commanders in support of specific military objectives within their 
assigned AORs. Given the breadth and depth of the information 
environment coupled with Violent Extremist Organizations' unhindered 
access and use of it, we believe DOD must be engaged in this aspect of 
the fight.
    SOCOM is aware of the varying roles and missions of other U.S. 
Government agencies in the information realm, and through close 
coordination and focused planning, have been successful in executing 
mutually supportive operations. MISO activities are closely coordinated 
with the Department of State and are complementary to and supportive of 
U.S. foreign policy objectives, but do not address U.S. foreign policy 
directly. DOD maintains unique capabilities to reach audiences in 
denied areas and to disseminate information in ways that support not 
only our military objectives, but contribute to U.S. Government 
communication and engagement strategies.
    The fiscal constraints of conducting large scale, DOD operations 
across the globe, combined with the rapidly evolving information 
environment, make small MISO teams a vital capability in achieving 
national security objectives.
    Question. What is the role of DOD versus the Intelligence Community 
and the State Department?
    Answer. DOD MISO teams provide unique capabilities which can 
support the entire U.S. Government information and influence efforts 
worldwide. They continue to be one of the most deployed SOF 
capabilities. An important process in developing MISO influence 
messaging is understanding the operational environment and the 
audiences' perspective. MISO teams maintain awareness of the 
information environment by identifying current trends in local and 
regional media reporting, identifying hostile messaging, and measuring 
local populace reaction. DOD works in a concerted effort with the 
Intelligence Community and the State Department in a whole-of-
government approach to achieve national security objectives.
    Question. How do you believe the success of these programs should 
be measured, especially in light of the constrained budget environment?
    Answer. Evaluating the success of MISO programs requires time and 
access in order to collect, process, analyze, and understand the 
changes in attitudes, perceptions and behavior. The efficient and 
appropriate evaluation of MISO programs relies on the integration and 
consideration of assessment early in the planning process and 
throughout the program's execution. It requires strategic patience in 
order to give influence programs time to show effects.
                        civil affairs operations
    Question. Civil affairs activities carried out by U.S. Special 
Operations Forces in partnership with host nation personnel play an 
important role in developing infrastructure, supporting good governance 
and civil societies, and providing humanitarian assistance, including 
medical and veterinary services to needy populations.
    In your view, does SOCOM have sufficient personnel and resources to 
conduct the range of civil affairs missions required for today's 
operations?
    Answer. The demand for civil affairs teams continues to increase, 
even as they are one of the most deployed DOD capabilities. Even with 
the drawdown in Afghanistan, the GCC and Embassies demand for civil 
affairs doubles that of our current and expected capacity. As 
highlighted in an earlier response, our civil affairs growth programed 
in the 2006 and 2010 QDRs were halted as a result of the BCA and BBA. 
This has resulted in a prioritization of allocation and assumption of 
risk to support the increasing demands of the GCCs.
    Question. If confirmed, how would you ensure Civil Affairs 
activities by special operations personnel are integrated into larger 
U.S. Government efforts?
    Answer. SOCOM Civil Affairs activities are deeply integrated into 
the planning and operations conducted within Embassy country teams. We 
are currently embedded in country teams at over 25 embassies across the 
globe, supporting the Chief of Mission in achieving specific effects 
within their country strategy.
    Question. If confirmed, how would you ensure Civil Affairs and 
Military Information Support Operations are adequately coordinated to 
achieve a maximum impact?
    Answer. The key to achieving maximum impact is a fully integrated 
and collaborative environment. Maintaining the ability to forward 
deploy both our CA and MISO capabilities, as well as others, in the 
same location within the TSOC or U.S. Embassy is critical to ensuring 
proper planning, coordination, de-confliction and execution in support 
of GCC and CoM objectives and strategies.
  capabilities of special operations forces and general purpose forces
    Question. What is your assessment of the mix of responsibilities 
assigned to general purpose and Special Operations Forces, particularly 
with respect to security force assistance and building partner military 
capabilities?
    Answer. Both Special Operations Forces (SOF) and General Purpose 
Forces (GPF) are capable and have supported these missions most 
recently in Iraq and Afghanistan. Many GPF like SOF have units that are 
now regionally focused and have a thorough understanding of the culture 
and are able to build relationships with the partner nations military. 
SOF are best utilized in areas which are politically sensitive 
environments and where a large U.S. presence or a sizeable force is 
unacceptable to a host country government. While GPF are best suited 
for delivering GPF capabilities to foreign military forces in 
environments where U.S. presence is acceptable to the host-country 
government and where large-scale U.S. presence is considered necessary 
and acceptable by the host-country government.
    Question. Are there certain mission areas that should be reserved 
for Special Operations Forces only?
    Answer. Missions involving the title 10 SOF Core Activities 
include: Direct Action, Special Reconnaissance, and Unconventional 
Warfare. These missions are highly specialized requiring extensive 
mental and physical training and a high degree of risk that the 
personnel conducting these missions accept. However, other agencies in 
the U.S. Government are also specialized in some of these missions 
particularly, Counterterrorism and Counter Proliferation of Weapons of 
Mass Destruction. SOF needs to partner closely with them in the conduct 
of these operations. Additionally, SOF is best suited for politically 
sensitive environments, where an overt large U.S. presence is 
unacceptable to the host nation's government, and to denied 
environments.
                special operations enabling capabilities
    Question. While SOCOM maintains organic enabling capabilities to 
support short duration missions, most special operations missions 
require enabling capabilities provided by the Services to be 
successful.
    In your view, how should the responsibility for providing enabling 
capabilities for special operations missions be divided between SOCOM 
and the Services?
    Answer. SOCOM and its components have limited enabling 
capabilities, especially in the Combat Support (CS) and Combat Service 
Support (CSS) organizations in our component force structure. This was 
by design. Our CS/CSS force structure is dedicated to providing direct 
support to our Special Operations Forces, primarily for short duration 
missions, often in remote austere locations supporting small unit 
operations distributed over large distances in the battle space. We 
rely upon the theater combatant commands and their Service components 
to provide SOF the theater level support for persistent SOF enabler 
requirements. That is precisely why we reiterate the importance of the 
fifth SOF Truth--``Most Special Operations require non-SOF support. 
When SOCOM was established by title 10, U.S.C., section 167, there was 
never the intent by Congress for SOCOM to fully replicate the enabler 
support provided by the Services and other strategic partners. In joint 
doctrine, common user logistics support was intended as a core 
responsibility of the Services.
    SOCOM and the Services must work in concert, sharing responsibility 
for providing CS and CSS enabling capabilities for SOF missions. 
SOCOM's responsibility is to continue providing end strength for these 
conventional forces that serve as organic SOF enablers. SOCOM is also 
responsible to support the GCCs, via the TSOCs, in synchronizing demand 
signals to the Services in order to get these enablers for SOF 
missions. Based on these inputs Services can continue to recruit and 
train these crucial enablers in quantities sufficient to cover 
requirements for SOF and the Services. Because SOF relies on the 
Services for Combat Service Support, any lack of these enabling 
capabilities significantly limits SOF's ability to sustain operations.
    Question. In light of current budget pressures, do you believe 
SOCOM and the Services are maintaining adequate enabling capabilities 
to support special operations missions?
    Answer. SOCOM is maintaining adequate organic capabilities to 
provide direct support to special operations missions. However, I am 
concerned that with the significant budget constraints and drawdowns 
that are being imposed upon the Services in their manpower, equipment, 
readiness accounts which is degrading the enabling capabilities that 
they can provide to SOCOM. These degradations of enabler capabilities 
provided to SOCOM by the Services to conduct operations in support of 
the geographic combatant commanders represent high risk to support 
persistent distributed SOF operations in remote austere locations 
against increasingly sophisticated enemy networks and terrorist 
organizations.
    Question. What enabling capabilities are in short supply or at 
greatest risk with current budget constraints?
    Answer. Shortages of enabling capabilities for SOF are often 
similar to shortages in the rest of the deployed force. SOF faces 
challenges in ISR, C4I, theater-level logistics forces, intra-theater 
airlift, medical, combat engineering support to GCCs, operational 
contracting support (OCS). SOF manning shortages exist in many of our 
own critical skills and key enablers.
    These manning shortages would be exacerbated by a slowdown or 
reduction in Service provided training due to budget constraints. SOF 
also relies on Service provided enablers for both initial and currency 
training (such as fixed wing close air support for Joint Terminal 
Attack Controllers) as well as forward deployed operations (such as 
Base Operating Support). These types of enablers are essential for SOF 
to perform their global missions with a ready and well trained force. 
SOCOM must continue to work with the Services in assessing future 
demand and adjusting programmed force structure.
                        render safe proficiency
    Question. The proliferation of weapons of mass destruction is a 
growing and especially concerning threat to our Nation. Select special 
operations units are assigned the task of interdicting and rendering-
safe weapons of mass destruction should they ever fall into the wrong 
hands.
    If confirmed, how would you ensure render-safe capabilities are 
adequately maintained by special operations units who may currently be 
heavily engaged in offensive kill/capture missions against high value 
targets in Afghanistan and elsewhere?
    Answer. Currently, our capabilities are adequately maintained by 
special operations units. I will continue to use the current training 
and exercise programs in place. Special operations units participate in 
the Joint Operational Readiness and Training (JORTS) Cycle that 
incorporates worldwide deployments, individual training, collective 
training, and joint exercises (and evaluations) year round.
    Question. Do you believe additional render-safe capabilities are 
needed within SOCOM?
    Answer. Yes, but allow me to qualify that answer. As I stated 
before--our capabilities, training, and exercises are on track. We are 
abreast of the latest's threats. However we cannot rest. We must stay 
in front of the evolving threat through our research and development 
(R&D) programs. I am grateful for what we have, but as with any 
program, we are limited by funding. Increased funding for our R&D 
programs could potentially enhance our current capabilities within 
SOCOM.
                      supported combatant command
    Question. Under certain circumstances and subject to direction by 
the President or Secretary of Defense, SOCOM may operate as a supported 
combatant command.
    In your view, under what circumstances should SOCOM conduct 
operations as a supported combatant command?
    Answer. In my opinion, the opportunity for SOCOM to conduct 
operations as a supported combatant command is limited to commitment of 
the National Mission Force. I do not anticipate circumstances where 
SOCOM would conduct operations as a supported combatant command outside 
of CONUS vice transferring operational control of Special Operations 
Forces to respective GCC commanders for execution.
    Question. In your view, what resource, organization, and force 
structure changes, if any, are required in order for SOCOM to more 
effectively conduct both supporting and supported combatant command 
responsibilities?
    Answer. As a supporting combatant commander, SOCOM recently 
received COCOM of the TSOCs. This organizational change has allowed 
SOCOM to better support GCC requirements. SOCOM as a Joint Force 
Provider will continue to organize, train and equip Special Operations 
Forces to the highest level in this supporting role.
                       interagency collaboration
    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. The requirement to have an interagency approach is well 
understood. We have learned that combating terrorism requires 
capabilities and expertise beyond those of any single agency. We should 
continue to integrate the elements of national power by leveraging each 
agency's core competencies. This requires knowing each agency's 
culture, method of operation and strength. Another critical lesson is 
to provide the right number, seniority, and skill sets of personnel 
from the various agencies. The common denominator is knowledge across 
the interagency.
    Our ability to rapidly share information and intelligence in order 
to fully ``see'' our adversaries and subsequently, to take action 
against them with the most appropriate capabilities within the U.S. 
Government, is an important lesson learned from Afghanistan.
    Additionally, we must ensure that we maintain strong relationships 
with operational and ministerial leaders following the conclusion of 
combat operations. Continued TAA efforts aimed at senior leaders across 
the IA will ensure the progress made endures.
    We have learned a great deal over the last decade about the 
strength of collaboration. The organizational innovation of forming 
small task forces of subject matter experts from across the military, 
government, and partner nations allowed SOF in Iraq, Afghanistan and 
elsewhere to synchronize efforts with an efficient agility. These task 
forces all follow three simple principles: the practice of flattened, 
agile communications, extensive senior leader involvement across the 
U.S. Government and allies, and the leveraging of information dominance 
provided by these subject matter experts and their systems. These 
principles are our most important lessons learned.
    Question. How do you believe these efforts can be improved?
    Answer. The continued exchange of personnel across agencies, 
departments and services to build trust and interoperability before a 
crisis happens is critical to maintaining the cultural of cooperation 
across the U.S. Government which has formed in the war zones over the 
last decade. We can improve doctrine based on lessons learned from our 
experiences in Iraq and Afghanistan, continue to emphasize education 
across all government departments and agencies, continue to work toward 
a flatter, more agile communications enterprise, and extend senior 
leader involvement across the U.S. Government and allies. It is crucial 
that the right people are in place to achieve effective unity of effort 
to achieve the desired end state.
    Question. Should these informal and ad hoc arrangements be made 
more formal (i.e. through legislation, DOD Directives or Instructions, 
etc . . . ) or is their ad hoc nature the reason for their success?
    There would be benefit to formalizing some aspects of these 
arrangements in order to prevent the loss of the cooperation that has 
grown out of necessity in the crucible of conflict. We must ensure that 
our personnel systems and agency/service/department cultures reward, 
not discourage (either formally or informally), cooperation and the 
assignments that support it. We should continue to develop a more 
formal full-time interagency arrangement to achieve greater 
coordination and integration of diverse policies during an operational 
deployment. The challenge is to ensure that any formalization retains 
enough flexibility to adjust to the nature of the crisis or challenge.
    SOCOM continues to seek ways and means for increasing success in 
interventions through more formal interagency collaboration mechanisms. 
As part of that effort, SOCOM's Special Operations Support Teams work 
directly with and in our interagency partners, greatly facilitating 
intelligence sharing, operations, decision making and keeping lines of 
communication open. Our Interagency partners in turn have sent their 
LNOs to SOF organizations at the strategic and operational levels.
    We're on the right track with doctrinal publications such as Joint 
Pub 3-08, ``Interagency, Intergovernmental Organization, and 
Nongovernmental Organization Coordination During Joint Operations.'' 
Capturing the best practices of these horizontal interagency teams in 
future editions is critical.
    Question. Interagency collaboration on an operational or tactical 
level tends to address issues on a country-by-country basis rather than 
on a regional basis (e.g. international terrorists departing Mali for 
safe havens in Libya).
    How do you believe regional strategies that link efforts in 
individual countries can best be coordinated in the interagency arena?
    Answer. SOCOM maintains persistent engagement and collaboration 
with individual Country Teams through the TSOCs and through the SOCOM 
Special Operations Liaison Officers which are placed under Chief of 
Mission authority as part of the Country Team via the NSDD-38.
    In addition, the Department of Defense authorized the establishment 
of the SOCOM Interagency Partnership Program (IAPP) in 2006, which 
placed liaison teams known as Special Operations Support Teams (SOSTs) 
within Interagency headquarters to provide the strategic linkages 
necessary to ensure collaboration on regional and functional strategies 
within our partner Agencies and Departments. This program continues to 
allow SOCOM to provide senior experienced SOF personnel to our 
Interagency partners and provides linkages from the Strategic Level in 
Washington DC, to the Operational Level in conjunction with the TSOCs 
and their relationships with the Country Teams, to the tactical level 
through the various forward commands and Task Forces. The IAPP has been 
instrumental in flattening coordination among our SOSTs, our 
Interagency partners' headquarters and regional or functional divisions 
within those headquarters, and our operational and tactical level 
special operations headquarters and personnel.
                       detainee treatment policy
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes. Common Article 3, found in each of the four Geneva 
Conventions of 1949, provides a baseline of humanitarian principles 
that are to be applied in all armed conflicts, no matter how they might 
be described or characterized. I support the Deputy Secretary of 
Defense 2006 memorandum directing U.S. forces to adhere to the 
principles of Common Article 3.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. If confirmed, would you ensure that Special Operations 
Forces comply with the standards in the Army Field Manual, the DOD 
Directive, and applicable requirements of U.S. and international law 
regarding detention and interrogation operations?
    Answer. Yes. I fully support these standards and will ensure that 
our publications and training reflect these standards. I will also 
ensure that operational plans and orders, and the execution of those 
plans and orders, are consistent with these standards. I will hold 
those who fail to follow the standard accountable for their actions. 
Prompt investigations into allegations of abuse and swift action are 
keys to ensuring strict compliance.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen or marines are treated, should they be 
captured in future conflicts?
    Answer. Humane treatment of detainees is the right thing to do 
legally, morally, and ethically. We should endeavor to treat enemy 
personnel in our custody in a manner that we would want our own U.S. 
forces to be treated. Reciprocity may be interpreted as justification 
to condone abuse if U.S. detainees are being abused. I do not agree 
that enemy abuse of U.S. detainees dictates like treatment on our part. 
I do believe that if my forces provide humane treatment to those in our 
custody, there is a greater likelihood that our forces in the custody 
of our enemy may enjoy some greater degree of humane treatment as a 
result.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander of SOCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Jeanne Shaheen
                    u.s. special operations command
    1. Senator Shaheen. Lieutenant General Votel, you indicated in your 
testimony the possibility of sharing a portion of U.S. Special 
Operation Command's (SOCOM) traditional training missions with the 
general purpose forces, which could be a way to reduce demand on our 
Special Operations Forces (SOF). Would you please elaborate on that 
issue?
    General Votel. I believe there are opportunities where SOF and 
general purpose forces (GPF) can work together on an engagement event 
with a host nation. In some select cases, trained and prepared GPF 
could be used in lieu of SOF for a given event to train foreign forces 
basic skill sets.
    The two primary events that SOF engages with foreign forces are 
Counter Narco-Terrorism (CNT) events and Joint Combined Exchange 
Training (JCET) events.
    The purpose of CNT events is to focus on building the capacity of a 
foreign force. In these events, it is possible that some of the more 
basic skill sets (basic marksmanship, explosive ordnance disposal, 
medical, communications, et cetera) could be conducted by or augmented 
with GPF. A SOF unit augmented with a basic rifle platoon or squad 
could easily run a medium-size shooting range for partner nation 
training. The potential downside to this scenario is that GPF are not 
accustomed to deploying in the same way as SOF. By this I mean that GPF 
generally rely on base-like infrastructure (billeting, messing, 
transportation, etc.) being provided by a Service or Executive Agent. 
SOF, on the other hand, normally locally procure all required support. 
This is not to say that GPF are incapable of living on a minimal U.S. 
footprint, it is just not their normal deployment method.
    The purpose of the JCET is to allow the SOF operators to hone their 
skills working in another country. Although the host nation usually 
benefits from the training provided by the SOF unit, the real value of 
the JCET is not necessarily the actual Program of Instruction (POI) 
being taught.
    The SOF unit gains valuable training in language, cultural 
relationships, movement into and around a foreign country, interaction 
with an embassy, negotiating contracts for logistics support, medical 
screening, biometrics, remote communications, force protection, and 
many other skills. Even if GPF are available to augment SOF for 
actually teaching a POI, it is important to retain these training 
benefits for SOF. Additionally, the number of skillsets that are common 
to both SOF and GPF are somewhat limited. For example, SOF train 
foreign countries on fast-roping, small unit tactics, military 
operations urban terrain, et cetera. Not all GPF units train to these 
skills. There are some common areas such as marksmanship, military 
decisionmaking process, combat casualty care, jumpmaster, static line, 
engineering, demolition, and lifesaving that could be shared between 
SOF and GPF.
    With the new section 1203 authority, GPF will be able to train 
foreign forces alongside SOF who are training under JCET authorities.

    2. Senator Shaheen. Lieutenant General Votel, is there a process in 
place for SOCOM to coordinate with the general purpose forces to reduce 
duplication and maximize efficiency?
    General Votel. Yes. The Joint Staff Global Force Management process 
prevents duplicative force sourcing by separating general purpose 
forces and Special Operations Force requirements submitted by combatant 
commands. This ensures that SOCOM is tasked to support only Special 
Operations peculiar requirements. Likewise, the Services are not tasked 
to provide Special Operations peculiar capabilities.
    Regarding maximizing efficiency, SOCOM is currently refining the 
SOF Operational Requirements Consolidation Process that includes 
Service representation, which provides a forum to explore operational 
efficiencies. Additionally, SOCOM conducts recurring warfighter talks 
with each of the Services. During these talks, the executive-level 
staffs explore common initiatives and areas to collaborate in order to 
maximize efficiencies.

    3. Senator Shaheen. Lieutenant General Votel, will the Army's 
Regionally Aligned Forces initiative provide additional opportunities 
for collaboration?
    General Votel. Yes. Having regionally aligned forces will result in 
GPF Army soldiers receiving language and cultural training for the 
region where they deploy. In general, the SOF units will focus on those 
mission areas they are uniquely trained to address while the GPF will 
focus on their own skills. Augmentation of GPF into traditional SOF 
engagements would naturally result in a better product using a 
regionally aligned GPF soldier.

                              middle east
    4. Senator Shaheen. Lieutenant General Votel, you mentioned in your 
testimony that there are risks associated with stepping aside and 
allowing Sunni and Shite groups to continue to engage each other in 
armed conflict, particularly in Iraq and Syria. Would you please 
describe those risks in more detail?
    General Votel. First, the conflict between these groups, 
particularly if it escalates or expands, threatens to destabilize the 
entire region, and with it the economies of our allies and partners in 
the region and their ability to manage the conflict. The effects on 
long-term regional stability cannot be overstated, and conflict that 
deepens to such a degree will undermine the ability of our allies and 
partners to adequately address the pervasiveness of violent extremists 
and their well-orchestrated efforts to delegitimize their governments. 
In the interconnected world in which we live, this will radiate through 
our economy and those of our closest trading partners.
    Second, the conflict is attracting large numbers of foreign 
fighters. The unabated infusion of foreigners into particularly Syria 
and Iraq threatens to expand and escalate the conflict. The character 
of this conflict is such that it leverages networks of associated 
groups and recruiters and the passions of what is a growing youth bulge 
in the Middle East, most of whose future job prospects is not 
promising. Many foreign fighters do not fight per se, often serving in 
supporting roles that translate well to fueling growing instability at 
home upon their return (financial, communication, recruiting, et 
cetera). The foreign fighter networks weave a web over the entire 
globe, potentially bringing the fight and direct national security 
threats to the many nations they touch.
    Finally, the spread of the conflict into Iraq and with it more 
direct involvement by Iran and the potential counter involvement by 
Persian Gulf states is a reminder that the conflict is essentially co-
located with much of the world's supply of petroleum. Any compromise of 
the ability to ensure the flow of petroleum, which is the lifeblood of 
the global economy, threatens the prosperity of the United States, its 
allies, and trading partners, all of whom, regardless of rivalries, 
share a common interest in stability and economic growth. Among the 
markets, the mere perception that the production or transportation of 
petroleum is threatened is enough to send the price of a barrel sky-
high, which will further aggravate instability and empower petroleum 
suppliers like Russia. Even though the United States has reduced its 
dependency on petroleum from the Persian Gulf, the interconnected 
nature of the world means that the impact of skyrocketing prices would 
be felt globally and substantially delay any return to a more durable 
stability in the region and a more robust U.S. economy.
    However, I would be remiss if I did not emphasize that there are 
risks regardless of what we do. Yes, stepping aside puts at risk our 
allies and partners and very real humanitarian concerns.
    However, there is a risk, for example, in taking sides in what is a 
delicate political situation, one that is rife with miscalculation. 
While Syria and Iraq may have formerly been recognized as ``states,'' 
we must acknowledge that each of their ``governments'' is now a 
representative of a particular sect, the unabashed support of which 
will be perceived, right or wrong, as taking a side. This, in turn, may 
very well prohibitively strain relationships with our key regional 
partners like Saudi Arabia and potentially upend the balance of U.S. 
relationships in the Middle East.

    5. Senator Shaheen. Lieutenant General Votel, what direct U.S. 
national interests are at stake?
    General Votel. Prime among our national interests is security. Our 
National Security Strategy retains the goals to disrupt, dismantle, and 
defeat violent extremists around the world, and advance peace and 
security in the Middle East. While the wars in Iraq and Syria do not 
pose an immediate existential threat to the United States, an expanding 
conflict has the potential to threaten Israel, Jordan, and other 
American allies in the region--including such countries as Bahrain and 
Kuwait where we have a forward presence. Also threatened are countries 
like Jordan, Kuwait, Saudi Arabia, Lebanon and the United Arab Emirates 
where we have on-going training agreements.
    We have a vested interest in preserving the global economic system. 
Iraq's stability and prosperity are not casually linked to American 
economic interests. As the United States continues to move toward 
``energy independence,'' we are nonetheless impacted by global oil 
prices whether sourced from the Gulf of Mexico, Saudi Arabia or Iraq. 
Two years ago, Iraq was projected to reach in excess of 6 million 
barrels of oil per day by 2017--potentially $5 trillion in revenue by 
2035. Significant disruptions of current production would likely impact 
world energy prices and be felt in our own struggling economic 
recovery.
    As the President and Secretary have stated, our strategic interests 
are to prevent the Islamic State of Iraq and the Levant or al Qaeda-
related groups from attacking the Homeland and our national interests 
in the region, to protect the free flow of commerce, and preserving the 
security and stability of our key partners and allies in the region.

    6. Senator Shaheen. Lieutenant General Votel, how would it affect 
our partners in the region?
    General Votel. If the armed conflict in Iraq and Syria continues, 
it will significantly impact our partners and could destabilize the 
entire region. First and foremost, our partners could question our 
reliability, respect, and commitment to their security, stability and 
prosperity as a sovereign nations and key partners. Second, if the 
conflict continues, it will only embolden the actors of concern to 
expand their activity into several of our key partners' sovereign 
territory. Our partners are not immune to the same social pressures 
that drove the ``Arab Spring''. These states have been able to buy down 
risk to date, and while certainly not ``fragile states,'' they are 
probably best thought of as ``brittle states''. While apparently 
stable, they lack the inherent resilience to resist an emboldened 
insurgency, thus potentially compelling our involvement. Finally, our 
partners' interests may force their direct participation in the current 
conflict. This would significantly expand the scale and scope of the 
conflict, increasing the risks to our national security interests.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                 preservation of the force and families
    7. Senator Chambliss. Lieutenant General Votel, while the war draws 
down in Afghanistan, the SOF mission continues with SOF personnel and 
their families enduring operational tempos and unpredictability at 
unprecedented levels. SOCOM established the Preservation of the Force 
and Families (POTFF) Task Force to ensure its personnel have the 
resources available to deal with the physical, spiritual, mental, and 
social stresses associated with their unique service. Of course, that 
type of assistance for the servicemember also assists the family as a 
whole, but programs aimed directly at the families are limited because 
of legal restrictions on what SOCOM can spend money on. What, if 
anything, is SOCOM doing to expand access to programs for the families 
of SOF personnel, and is additional action required by Congress to 
further said access?
    General Votel. SOCOM has taken several steps to improve access and 
availability of programs to our families. One of the major benefits of 
implementing the POTFF initiative has been the increase in awareness 
and collaboration SOCOM has had with Service and Department family 
readiness agencies. These relationships have helped the command to 
identify and access existing programs and resources for our families.
    Where the command's requirements cannot be met by existing Service 
or the Department of Defense (DOD) sponsored programs, there is still a 
substantial need to support our SOF forces and their families within 
legal authority and funding limitations. SOCOM needs the support of 
Congress to grant or continue to grant the authorities and funding 
required to maximize the readiness of our SOF members and their 
families (physical, psychological, and spiritual). SOCOM currently has 
the authority and funding to conduct family pilot programs through 
fiscal year 2016 and is grateful for this authority, which provides the 
means to assess our ability to support SOF families and be responsive 
to their needs. SOCOM strongly urges continued and expanded support in 
terms of authorities and funding to support SOF members and their 
families
    The Commander of SOCOM has an explicit responsibility to ensure the 
readiness of the Special Operations Forces. This definition of 
readiness does not currently include family members outside of the 
initial pilot program authorized by Congress. Given SOCOM's current 
statutory authorities, the command is limited in its ability to support 
family members when the need arises. Explicit authority that permits 
the Commander of SOCOM to support assigned families through services 
and programs funded with MFP-11 resources would benefit the readiness 
of the SOF community to meet its demands.

    8. Senator Chambliss. Lieutenant General Votel, how would you 
assess the effectiveness of the POTFF program?
    General Votel. Early indications suggest that SOCOM's POTFF 
initiatives are having a positive impact on the readiness of SOF 
forces. Over the past year, the command saw a 5 percent increase in 
behavioral health treatment compared to the previous year. At the same 
time, reported symptoms of post-traumatic stress, depression and 
alcohol abuse declined, while scores on measures of resilience and 
marital satisfaction improved. The human performance aspect of the 
program also shows evidence of having a positive impact on the health 
of the special operator and the time needed to rehabilitate operators 
following injury has been reduced. We found that Human Performance 
Program participation is also associated with improved mental well-
being.
    As our assessment programs mature, we look forward to sharing our 
impacts with this committee in the future.

    9. Senator Chambliss. Lieutenant General Votel, how are initiatives 
under this program integrated with family support programs already 
provided by the Services?
    General Votel. The POTFF team works very closely with their DOD and 
Service counterparts to promote existing programs and, where necessary, 
to develop activities to meet the special needs of the SOCOM community. 
Some of these activities are being tested under several of the family 
pilot programs currently being developed under the authority granted in 
the National Defense Authorization Act 2014, section 554. Many of these 
are supported by DOD in the form of planning and assessment assistance. 
Where there is the capacity for DOD or the Services to support the 
command, they do so without fail. For instance, this year's DOD 
sponsored parent-child camps for members of the SOF community at Fort 
Campbell, KY, and the expanded Military Family Life Consultant program 
for SOF units throughout the enterprise. In all instances, the 
command's family programs are coordinated with the Services and DOD 
prior to approval.
                                 ______
                                 
    [The nomination reference of LTG Joseph L. Votel, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 16, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Army to the 
grade indicated while assigned to a position of importance and 
responsibility under Title 10, U.S.C., section 601:

                             To be General

    LTG Joseph L. Votel, 0000.
                                 ______
                                 
    [The biographical sketch of LTG Joseph L. Votel, USA, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
            Biographical Sketch of LTG Joseph L. Votel, USA
Source of commissioned service: USMA.

Educational degrees:
    U.S. Military Academy - BS - No Major
    U.S. Army Command and General Staff College - MMAS - Military 
Science
    U.S. Army War College - MSST - National Security Studies

Military schools attended:
    Infantry Officer Basic and Advanced Courses
    U.S. Army Command and General Staff College
    U.S. Army War College

Foreign languages:
    French.

Promotions:

------------------------------------------------------------------------
                Promotions                      Dates of appointment
------------------------------------------------------------------------
2LT.......................................  28 May 80
1LT.......................................  28 Nov 81
CPT.......................................  1 Feb 84
MAJ.......................................  1 Sep 91
LTC.......................................  1 May 95
COL.......................................  1 May 01
BG........................................  1 Jan 05
MG........................................  2 Oct 08
LTG.......................................  10 Jun 11
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Jun 11..........................  Present...........  Commander, Joint
                                                       Special
                                                       Operations
                                                       Command/
                                                       Commander, Joint
                                                       Special
                                                       Operations
                                                       Command Forward,
                                                       U.S. Special
                                                       Operations
                                                       Command, Fort
                                                       Bragg, NC, and
                                                       Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Jul 10..........................  Jun 11............  Chief of Staff,
                                                       U.S. Special
                                                       Operations
                                                       Command, MacDill
                                                       Air Force Base,
                                                       FL
Jul 08..........................  Jul 10............  Deputy Commanding
                                                       General, Joint
                                                       Special
                                                       Operations
                                                       Command. Fort
                                                       Bragg, NC, and
                                                       Operation Iraqi
                                                       Freedom, Iraq
Apr 08..........................  May 08............  Deputy Commanding
                                                       General
                                                       (Operations), 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Jan 07..........................  Apr 08............  Deputy Commanding
                                                       General
                                                       (Operations), 82d
                                                       Airborne Division/
                                                       Deputy Commanding
                                                       General
                                                       (Operations),
                                                       Combined Joint
                                                       Task Force-76,
                                                       Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Apr 06..........................  Jan 07............  Deputy Commanding
                                                       General
                                                       (Operations), 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Jan 06..........................  Apr 06............  Deputy Director,
                                                       Joint Improvised
                                                       Explosive Device
                                                       Defeat
                                                       Organization,
                                                       Office of the
                                                       Deputy Secretary
                                                       of Defense,
                                                       Washington, DC
Jul 04..........................  Dec 05............  Director, Joint
                                                       Improvised
                                                       Explosive Device
                                                       Defeat Task
                                                       Force, Office of
                                                       the Deputy Chief
                                                       of Staff, U.S.
                                                       Army, Washington,
                                                       DC
Sep 03..........................  Jul 04............  Deputy Director
                                                       for Information
                                                       Operations, and
                                                       Director, Army
                                                       Improvised
                                                       Explosive Device
                                                       Defeat Task
                                                       Force, Office of
                                                       the Deputy Chief
                                                       of Staff, G-3/5/
                                                       7, U.S. Army,
                                                       Washington, DC
Jul 01..........................  Aug 03............  Commander, 75th
                                                       Ranger Regiment,
                                                       Fort Benning, GA,
                                                       and Operation
                                                       Enduring Freedom,
                                                       Afghanistan and
                                                       Operation Iraqi
                                                       Freedom, Iraq
Jul 00..........................  Jun 01............  Student, U.S. Army
                                                       War College,
                                                       Carlisle
                                                       Barracks, PA
Aug 98..........................  Jul 00............  Commander, 1st
                                                       Battalion, 75th
                                                       Ranger Regiment,
                                                       Hunter Army
                                                       Airfield, GA
Jun 96..........................  Jun 98............  Commander, 2d
                                                       Battalion, 22d
                                                       Infantry, 10th
                                                       Mountain Division
                                                       (Light), Fort
                                                       Drum, NY
Aug 94..........................  Jun 96............  Staff Officer,
                                                       Contingency
                                                       Initiatives
                                                       Branch, Office of
                                                       the Assistant
                                                       Chief of Staff,
                                                       Plans and Policy,
                                                       Allied Forces
                                                       Southern Europe,
                                                       Naples, Italy and
                                                       NATO Peace
                                                       Implementation
                                                       Force (IFOR),
                                                       Sarajevo
Jun 91..........................  Jun 94............  Liaison Officer,
                                                       later S-3
                                                       (Operations),
                                                       later Executive
                                                       Officer, 1st
                                                       Battalion, 75th
                                                       Ranger Regiment,
                                                       Hunter Army
                                                       Airfield, GA
Aug 90..........................  Jun 91............  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
Sep 88..........................  Jun 90............  Plans/Liaison
                                                       Officer, later S-
                                                       3 (Plans), 75th
                                                       Ranger Regiment,
                                                       Fort Benning, GA,
                                                       and Operation
                                                       Just Cause,
                                                       Panama
Jun 85..........................  Sep 88............  Small Groups
                                                       Tactics
                                                       Instructor, U.S.
                                                       Army Infantry
                                                       School, Fort
                                                       Benning, GA
Jan 85..........................  Jun 85............  Student, Infantry
                                                       Officer Advanced
                                                       Course, U.S. Army
                                                       Infantry School,
                                                       Fort Benning, GA
Oct 80..........................  Nov 84............  Rifle Platoon
                                                       Leader, later
                                                       Executive
                                                       Officer, A
                                                       Company, later S-
                                                       1 (Personnel),
                                                       later Commander,
                                                       A Company, 1st
                                                       Battalion, 4th
                                                       Infantry, 3d
                                                       Infantry
                                                       Division, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Chief of Staff, U.S. Special      Jul 10-Jul 11.....  Major General
 Operations Command, MacDill Air
 Force Base, FL.
Deputy Commanding General, Joint  Jul 08-Jul 10.....  Brigadier General/
 Special Operations Command,                           Major General
 Fort Bragg, NC, and Operation
 Iraqi Freedom, Iraq.
Deputy Commanding General         Jan 07-Apr 08.....  Brigadier General
 (Operations), 82d Airborne
 Division/Deputy Commanding
 General (Operations), Combined
 Joint Task Force-76, Operation
 Enduring Freedom, Afghanistan.
Staff Officer, Contingency        Aug 94-Jun 96.....  Major/Lieutenant
 Initiatives Branch, Office of                         Colonel
 the Assistant Chief of Staff,
 Plans and Policy, Allied Forces
 Southern Europe, Naples, Italy
 and NATO Peace Implementation
 Force (IFOR), Sarajevo.
------------------------------------------------------------------------


Summary of operational assignments:

------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Commander, Joint Special          Jun 11-Present....  Lieutenant General
 Operations Command/Commander,
 Joint Special Operations
 Command Forward, U.S. Special
 Operations Command, Operation
 Enduring Freedom, Afghanistan.
Deputy Commanding General,        Aug 08-Dec 08.....  Major General
 Operations, Joint Special
 Operations Command, Operations
 Iraqi Freedom, Iraq.
Deputy Commanding General         Jan 07-Apr 08.....  Brigadier General
 (Operations), 82d Airborne
 Division/Deputy Commanding
 General (Operations), Combined
 Joint Task Force-76, Operation
 Enduring Freedom, Afghanistan.
Commander, 75th Ranger Regiment,  Sep 01-Dec 01.....  Colonel
 Operation Enduring Freedom.
Commander, 75th Ranger Regiment,  Mar 03-May 03.....  Colonel
 Operation Iraqi Freedom, Iraq.
------------------------------------------------------------------------


U.S. decorations and badges:
    Distinguished Service Medal
    Defense Superior Service Medal (with two Oak Leaf Clusters)
    Legion of Merit (with two Oak Leaf Clusters)
    Bronze Star Medal (with three Oak Leaf Clusters)
    Defense Meritorious Service Medal
    Meritorious Service Medal (with three Oak Leaf Clusters)
    Joint Service Commendation Medal (with Oak Leaf Cluster)
    Army Commendation Medal
    Army Achievement Medal (with Oak Leaf Cluster)
    Combat Infantryman Badge (with Star)
    Expert Infantryman Badge
    Master Parachutist Badge (with two Bronze Stars)
    Ranger Tab
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by LTG Joseph L. 
Votel, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Joseph L. Votel.

    2. Position to which nominated:
    Commander, U.S. Special Operations Command.

    3. Date of nomination:
    June 16, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 14, 1958; Saint Paul, MN.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Michele Marie Votel (Maiden Name: Belair).

    7. Names and ages of children:
    Scott Joseph Votel; age 32.
    Nicholas Patrick Votel; age 28.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    I have held no advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed in the service record extract provided to the 
committee by the executive branch.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    I have held no positions as an officer, director, trustee, partner, 
proprietor, agent, representative, or consultant of any corporation, 
firm, partnership, or other business enterprise, educational or other 
institution.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member of the Association of the U.S. Army (AUSA)
    Member of the 75th Ranger Regiment Association
    Member of the 82d Airborne Division Association

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    St. Maurice Medal from the National Infantryman's Association
    St. Barbara Medal from the Artillery Association
    William G. Knowlton Award from the Military Intelligence 
Association
    Honorary Medal from the Army Engineer Association
    Honorary Medal from the Ordance Association
    Honorary Medal from the Army Aviation Association

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    I agree, if confirmed, to appear and testify upon request before 
any duly constituted committee of the Senate.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    I agree, when asked before any duly constituted committee of 
Congress, to give my personal views, even if those views differ from 
the administration in power.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Joseph L. Votel.
    This 20th day of December, 2013.

    [The nomination of LTG Joseph L. Votel, USA, was reported 
to the Senate by Chairman Levin on July 22, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 23, 2014.]

 
 NOMINATION OF GEN. JOSEPH F. DUNFORD, JR., USMC, FOR REAPPOINTMENT TO 
     THE GRADE OF GENERAL AND TO BE COMMANDANT OF THE MARINE CORPS.

                              ----------                              


                        THURSDAY, JULY 17, 2014

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
Hagan, Manchin, Gillibrand, Donnelly, Hirono, Kaine, King, 
Inhofe, McCain, Chambliss, Wicker, Ayotte, Fischer, Graham, and 
Cruz.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nomination of General Joseph 
Dunford to be the 36th Commandant of the Marine Corps. General 
Dunford, welcome to the Senate Armed Services Committee. Thank 
you for the many years of extraordinary service that you have 
provided to our Nation, also for your willingness to continue 
to serve. Please also extend our thanks to your family, part of 
whom is here today, for their dedication and support, which is 
so critical, as we all know, to your success and the success of 
all those who serve in important positions and pressured 
positions for our Nation. Please feel free to introduce any 
family members or other people who are with you here today.
    General Dunford has an exemplary record of service, is 
highly qualified for the position to which he has been 
nominated. He has commanded marines from the platoon level to 
the Marine Expeditionary Force. He has served as the Assistant 
Commandant of the Marine Corps. He is currently the Commander, 
International Security Assistance Force (ISAF) and Commander, 
U.S. Forces Afghanistan.
    In Afghanistan, General Dunford has commanded U.S. and 
coalition forces with great distinction. He is the latest in a 
line of distinguished commanders in that position. He has 
overseen the critical transition from U.S. and coalition-led 
combat operations to Afghan-led operations throughout 
Afghanistan. Under General Dunford's leadership, the drawdown 
of U.S. forces and a shift to a train, advise, and assist 
mission is being carried out with considerable effectiveness.
    General Dunford has demonstrated remarkable skills as both 
a military leader and a diplomat in his interactions with the 
Afghan leadership, which have been essential to keeping the 
transition in Afghanistan on track.
    General Dunford, as Commandant of the Marine Corps, you're 
going to be tasked with recruiting and retaining a quality 
force and ensuring that force contains the necessary structure 
and readiness levels to meet our Nation's current challenges 
and are postured to respond to tomorrow's crises and 
contingencies. These responsibilities are demanding enough on 
their own. However, you are also going to be asked to assume 
control at a time of immense fiscal challenge, particularly 
because of sequestration.
    Thank you and your family again for your service to our 
Nation. We look forward to your testimony and your swift 
confirmation. I now recognize Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    Thank you, General Dunford, for the great job that you have 
done during arguably one of the most consequential periods of 
the war. With our Afghan partners, we're making important gains 
against the Taliban, and are solidifying our progress in 
building the capacity of the Afghan National Security Forces 
(ANSF) to defend their country.
    Despite this progress, I'm still concerned about the future 
of Afghanistan. The recent agreement to perform a complete 
audit of the presidential runoff is encouraging. I hope that 
works out. You and I talked about this before. That is just 
really critical. The Afghan people are going to have to believe 
the results of this thing. Hopefully we can make that happen.
    I remain very troubled by the President's plan to draw down 
our forces based on arbitrary time lines instead of the advice 
of our commanders and the facts on the ground. The President 
tried the same policy in Iraq in 2011. We can't afford to 
repeat that same mistake in Afghanistan.
    As Commandant you take command of the Marine Corps as it's 
being challenged by rising global threats and budgetary crises 
at home. Budget cuts are degrading readiness and forcing a 
dangerous drop in the end strength. General Amos has said that 
these budget cuts mean that--and this is a quote--``We will 
have fewer forces, arriving less trained, arriving later to the 
fight. This is a formula for more American casualties.'' I 
think he's probably right and I will ask you some questions on 
your agreement on that.
    I'm glad you're the man at the helm. I appreciate very much 
your being here today.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    General.

      STATEMENT OF GEN. JOSEPH F. DUNFORD, JR., USMC, FOR 
 REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDANT OF 
                        THE MARINE CORPS

    General Dunford. Chairman Levin, Ranking Member Inhofe, and 
distinguished members of the committee, thanks for the 
opportunity to appear before you today. I'm truly honored to be 
nominated as the 36th Commandant of the U.S. Marine Corps 
(USMC).
    Joining me today is my wife Ellyn. I'm fortunate to have 
her love and support. She's been a great mother to our three 
children, who are now young adults, and she's also served as a 
tireless advocate for military families. I always refer to her 
as the most valuable player of the Dunford family and she's 
certainly earned that title during the last 18 months of my 
deployment to Afghanistan. I'm also joined by my niece, Cara. 
Our sons Joseph, Patrick, and Kathleen, our daughter, are 
unable to be with us today, but Ellen and I are proud of all of 
them.
    I'd like to begin by thanking the committee for your 
support of our soldiers, sailors, airmen, and marines now 
serving in Afghanistan. Due to your leadership, I have no doubt 
they are the best trained and equipped force our Nation has 
ever sent to war. Their performance and the strength of our 
military families bear testimony to that support.
    I'd also like to recognize the 1,817 Americans who have 
made the ultimate sacrifice in Afghanistan and the nearly 
20,000 who have been wounded. Each day the men and women of the 
U.S. Forces in Afghanistan work to bring meaning to their 
sacrifice.
    I know this committee and the American people have high 
expectations for the U.S. Marine Corps. You expect your Marine 
Corps to serve as the naval expeditionary force in readiness, a 
force that is most ready when the Nation is least ready. You 
expect your Marine Corps that they be forward deployed and 
forward engaged, responding to crises and enabling our Nation 
to respond to contingencies. You expect your Marine Corps to 
fight and win in any climate and place and under any 
conditions, and you expect your marines to be physically and 
mentally tough. You expect your marines to demonstrate courage, 
honor, and commitment. You expect a lot of your marines and you 
should.
    If confirmed as the Commandant of the U.S. Marine Corps, I 
will ensure that marines continue to meet your expectations and 
the expectations of the American people. I'll also ensure the 
well-being of our marines, sailors, wounded warriors, and their 
families. Over the past decade-plus of war, they have done all 
we have asked of them and more. It would be a tremendous honor 
to lead them.
    Thank you again for the opportunity to appear before you 
this morning. I look forward to your questions.
    Chairman Levin. Thank you so much, General.
    We start with a set of standard questions which we ask of 
all of our nominees. These questions are asked so that this 
committee can exercise our legislative and our oversight 
responsibilities. Have you adhered to applicable laws and 
regulations governing conflicts of interest?
    General Dunford. I have, Mr. Chairman.
    Chairman Levin. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    General Dunford. I do, Mr. Chairman.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Dunford. I have not, Mr. Chairman.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record at hearings?
    General Dunford. I will, Mr. Chairman.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Dunford. I will, Mr. Chairman.
    Chairman Levin. Will these witnesses be protected from 
reprisal for their testimony or briefings?
    General Dunford. They will.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    General Dunford. I do, Mr. Chairman.
    Chairman Levin. Finally, do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    General Dunford. I do, Mr. Chairman.
    Chairman Levin. Thank you.
    We'll have a 7-minute first round of questions. General, in 
my view, Afghanistan has made remarkable progress over the past 
decade. It has improved the lives of the Afghan people. This 
includes increases many times over in the number of schools, 
the number of students and teachers, including female students 
and teachers, greater access to health facilities, a leap in 
Afghan life expectancy, expanded connections to electricity, 
water, and cellphones, and growing income.
    Can you briefly address the extent of the changes in 
Afghanistan over the past decade that the United States has 
been involved there and give us a sense of the significance of 
those changes to the Afghan people for the future of their 
country?
    General Dunford. Mr. Chairman, thank you for that question. 
Probably the first thing I would say is that I think one of the 
most significant outcomes of our time in Afghanistan has been 
that we've put pressure on the terrorist networks, al Qaeda, 
and prevented another September 11. We've also developed 
capable and credible Afghan forces. In 2002, there were no 
effective Afghan security forces. Today there's an army and a 
police force of over 352,000, as well as another 30,000 Afghan 
local police, that are capable of providing security to the 
Afghan people.
    We also have enabled, through those Afghan forces, the 
Afghan people the opportunity to determine their own future 
with the successful elections of the 5th of April and the 14th 
of June from a security perspective. While we still have some 
political issues to work through for those elections, there's 
no question that the Afghan Security Forces afforded the Afghan 
people the opportunity to vote.
    We have today over 8 million children in school, 2 million 
of those young girls. In 2001, there were less than a million 
people in school. Mr. Chairman, you mentioned some of the other 
advances in health care, communications, road networks, and so 
forth that will set the conditions for a secure, stable 
Afghanistan in the future.
    I would say that the most profound thing that exists in 
Afghanistan today that didn't exist in 2001 is hope. The Afghan 
people actually have hope and confidence in the future that 
didn't exist under the oppression and the tyranny of the 
Taliban in 2001.
    Chairman Levin. Thank you, General.
    Is the Afghan army performing well in your judgment?
    General Dunford. Mr. Chairman, they are performing well. 
Since what we described as Milestone 2013 last June, when they 
assumed responsibility across the country, the only unilateral 
operations that the coalition forces have conducted are for our 
own security, retrograde, and redeployment operations.
    I would highlight one statistic that is indicative of the 
Afghans' performance. In 2012, we had over 140,000 coalition 
forces on the ground. That included 100,000 Americans. Today 
there are 40,000 coalition forces, of which 30,000 are 
Americans. In those 2 years, the security environment has 
actually slightly improved since 2012. The big difference, of 
course, is that the Afghan Security Forces now are responsible 
for security.
    I feel very confident about the trajectory that Afghan 
Security Forces are on at this time.
    Chairman Levin. Thank you.
    General, the President has called for drawing down U.S. 
forces to 9,800 by the end of this year, reducing that force by 
approximately half by the end of 2015, and transitioning to an 
embassy-based military presence by the end of 2016. In your 
answers to prehearing questions you said that you support the 
President's decision on the size of the U.S. troop presence in 
Afghanistan post-2014. Is that correct?
    General Dunford. Mr. Chairman, I do support the numbers of 
forces that will be on the ground in 2015 to both conduct 
counterterrorism operations and train, advise, and assist.
    Chairman Levin. Now, also in your answers to prehearing 
questions you said that you support the pace of reductions 
outlined by the President, ``with an understanding that we 
should continue to validate the assumptions and assess the 
conditions on the ground as the drawdown takes place.'' Now, is 
one of your assumptions that the full 9,800-personnel force 
will be available through the entire 2015 fighting season?
    General Dunford. It is one of the assumptions I made, yes, 
Mr. Chairman.
    Chairman Levin. Then the reductions under that assumption 
would occur only at the end of next year?
    General Dunford. That's correct, Mr. Chairman.
    Chairman Levin. All right. Can you share with us any other 
major assumptions which you made?
    General Dunford. I can, Mr. Chairman. I think the critical 
assumptions that have to be continually validated as we move 
forward are: first and foremost, the counterterrorism 
capability and the will of Afghanistan; the nature of the 
threat. The counterterrorism capacity and the will of Pakistan 
also needs to be considered. The quality of political 
transition that we're in the midst of has to be considered, and 
also the international community's support, both fiscally as 
well as troops in support of the North Atlantic Treaty 
Organization (NATO) mission.
    I think all of those are variables that would have to be 
considered when determining the adequacy of our force levels in 
the future.
    Chairman Levin. There's also an assumption in your answers 
and in your statements that a bilateral security agreement will 
be signed in a timely manner; is that correct?
    General Dunford. That's correct, Mr. Chairman.
    Chairman Levin. Relative to the size of the U.S. 
counterterrorism mission in Afghanistan after 2014, what is 
your recommendation about the size of that mission, the 
counterterrorism mission?
    General Dunford. Mr. Chairman, of the 9,800 U.S. forces--
and it's probably important to highlight that the expectation 
is that there'd be approximately 4,000 NATO forces in addition 
to those 9,800. But of the 9,800 U.S. forces, approximately 
1,000 would be dedicated solely to the counterterrorism 
mission. But there would be a total of 2,000 Special Operations 
Forces that are there, some of those working with the Afghan 
Special Operations Forces, who would also be participating in 
counterterrorism operations.
    Chairman Levin. I want to change the subject slightly to 
the question of the Russian Mi-17 military transport 
helicopters. You recently wrote me, General, regarding a 
provision in the defense authorization bill which this 
committee marked up that would prohibit any contracts with the 
Russian corporation that exports the Mi-17 military helicopter.
    You indicated that this prohibition could be catastrophic. 
Can you explain why?
    General Dunford. I can, Mr. Chairman. Thank you for that 
question. The Afghan Air Force will consist of over 80 Mi-17s. 
All those aircraft have been purchased. The final delivery will 
be in September-October of this year. Those aircraft provide 
the Afghan forces with the operational reach to provide 
security and stability to the Afghan people, as well as to 
conduct effective counterterrorism operations.
    Thirty of those 80 Mi-17s are for what we call a Special 
Mission Wing, which is the Afghan Special Operations Forces' 
capability to both conduct counterterrorism and 
counternarcotics operations. Without the operational reach of 
the Mi-17, the Afghan forces will not be successful in 
providing security and stability in Afghanistan and will not be 
an effective counterterrorism partner.
    One of the second-order effects of that, Mr. Chairman, 
which is why I used the word ``catastrophic,'' is that it will 
also have an adverse impact on our force protection in 2015. 
Among the assumptions that I make in 2015 is the Afghan 
Security Forces will contribute to the force protection of 
coalition forces in 2015, and their ability to do that would be 
significantly degraded without the Mi-17.
    Chairman Levin. It is the spare parts, as I understand it, 
the sustainment that is prohibited by that same language, which 
is so important.
    General Dunford. There's two issues, Mr. Chairman. One of 
them is the ability to have spare parts and to sustain the Mi-
17 fleet. The other is that Rosoboronexport, the Russian 
company, owns the plans and the blueprints, if you will, of the 
Mi-17. There's also safety of flight issues with subsequent 
modifications and refurbishment of aircraft that would require 
our dealing either directly with the contractor or the 
subcontractor, Rosoboronexport.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I was going to bring that up. That probably is the most 
contentious issue on this up here. I agree with the chairman on 
this. I have seen some of the pretty extreme and courageous 
statements made. Whether or not some members up here agree with 
them is a different matter. But the Special Inspector General 
for Afghan Reconstruction (SIGAR) on June 13 reported a thing 
that was titled ``The Afghan Special Mission Wing, DOD Moving 
Forward With This $771 Million Purchase''; that the Afghans 
cannot operate and cannot maintain the aircraft.
    Is there any way that this could be changed and moderated a 
little bit so that you could still use the spare parts of 
existing vehicles that are there, that are paid for, that are 
in existence, and still start toward something, another 
purchase? Have you thought about any kind of a combination that 
might work out where we could not lose the value of the 
helicopters we have, the 88 as I understand that are there, 
there are trained fighters to fly them, just as far as spare 
parts are concerned? Have you thought about that?
    General Dunford. Senator, we have looked very hard. In 
fact, we've done a global search to see if it would be possible 
to sustain the Mi-17 fleet without directly dealing with 
Rosoboronexport or one of its subcontractors. My assessment is 
that that would not be possible.
    Senator Inhofe. All right. I'm quoting now from Tuesday, 
the speech that was made before the Brookings Institute, when 
General Amos said, ``It breaks our hearts,'' referring to the 
fall of the Anbar Province in Iraq, which the marines won in 
2010. He noted that 852 marines were killed and another 8,500 
injured in Iraq. I believe that they had made the difference.
    I know all the work you did in Afghanistan and I'm sure 
you're observant as to what happened in Iraq. I mentioned to 
you when you were in my office that I have a young man named 
Brian Hackler who works for me now, but he actually had two 
deployments. They were in Fallujah. By coincidence, I didn't 
know who he was at that time, but I was there, as were many of 
these guys there, when they had the fingerprints and all of 
that.
    I think, looking at it, that arguably could be considered 
to be the most violent, door-to-door, World War II-type of 
activity. When I called up Brian Hackler and told him that we 
had lost that after they had gained it, he talked about the 
blood, sweat, and tears. He's been called by a lot of people 
since then. I just look at that taking place.
    My concern obviously for bringing this up is that we don't 
want the same thing to happen in Afghanistan. I know, since 
you're a marine and you saw the mission that took place there, 
you agree with me.
    What all has been done in your opinion to make sure that we 
don't have a repeat of that tragedy that took place in Iraq?
    General Dunford. Thanks, Senator. I was one of the 
thousands of marines that did serve in the Anbar Province and 
feel the same way that Brian Hackler does. Senator, I think the 
biggest difference is we have an opportunity to do a transition 
in Afghanistan, a proper transition that will allow us to 
achieve our end state. In Iraq we withdrew, with the associated 
consequences. To me, that's the most significant change.
    We knew when we left Iraq, there was work remaining to be 
done to develop sustainable Iraqi security forces, as well as 
to ensure that political stability existed in Iraq such that 
security and stability would continue. In Afghanistan, we have 
a chance to get that right, and my argument in fact is for us 
to do a responsible transition from Afghanistan as opposed to a 
withdrawal.
    Senator Inhofe. That's good and I appreciate that. I think 
we need to get that on record, because it's awful hard to 
explain to people how that happened, including the Brian 
Hacklers around who were a part of it.
    There's been a lot of discussion on the 38 amphibious ships 
and dropping that number down to 33. I have a letter, Mr. 
Chairman, I want to make part of the record right now at this 
point in the record.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Senator Inhofe. It's one that you have read and that each 
member up here has read, from these 20 generals, signing on 
saying that they think it's absolutely necessary not to deal 
with that reduction to 33. Any comments you want to make on 
that?
    General Dunford. Senator, what I do know is that on a day-
to-day basis the combatant commanders' requirements for 
amphibious ships greatly exceed the inventory. In fact, I'm a 
bit dated, but not too much, and I think there were close to 50 
was the requirement on a day-to-day basis. The Chief of Naval 
Operations, the Secretary of the Navy, and the Commandant a few 
years ago concluded that 38 was the requirement, and we're now 
at the point where we have 33 in a fiscally constrained 
environment, but actually 31 in the inventory.
    I would support anything that would allow us to maintain an 
effective amphibious ship inventory.
    Senator Inhofe. A lot of good points were brought out in 
that letter. Do you agree with the letter?
    General Dunford. Senator, I have not seen the letter.
    Senator Inhofe. Oh, okay, that's fine.
    Lastly, on the elections, a lot of us are partly 
responsible for the fact that there is going to be an audit and 
there's going to be a real effort there to make sure that not 
just justice is done and the right turnout is resulted, but 
also that the people of Afghanistan will accept this as a fair 
and honest election.
    Do you have any thoughts--I know you're going into a 
different job now--on what needs to be done to make sure that 
that can happen?
    General Dunford. I do, Senator, and I expect to still be 
there throughout the process.
    Senator Inhofe. Sure.
    General Dunford. I'm glad to report that we began yesterday 
to gather the ballots in accordance with the agreement that was 
made over the weekend. All 100 percent of the ballots will be 
brought back to Kabul to be audited. There's significant 
international community oversight, as well as candidate 
oversight, in the process of counting those ballots. I think 
that will give both the candidates and the Afghan people high 
confidence that all that can be done is being done to eliminate 
the fraudulent ballots and determine a good outcome.
    I think the most encouraging thing--and I know some of the 
members recently spoke to both candidates. The most encouraging 
thing is both candidates are very responsible. They know the 
consequences of the political transition process and they have 
agreed to accept the outcome of the ballot with certain 
parameters. Those parameters are now in place, and so I'm 
optimistic that at the end of this process some weeks from now 
there will be a winner and a loser and the loser will accept 
the results of the election, as will the Afghan people.
    Senator Inhofe. I appreciate that very much. We all know 
the significance of that election.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    I want to join my colleagues, General, in commending you 
for your extraordinary service to the Marine Corps and to the 
Nation, and to thank your family for serving with you. Knowing 
you a little bit, I think you would first point to the 
soldiers, marines, sailors, airmen, and airwomen who serve as 
the real force of our success, and your predecessors'. But your 
role has been absolutely critical.
    A year ago I don't think anyone would have said we'd have 
two relatively peaceful elections in that country, monitored 
principally by the Afghan National Security Forces, not by 
international personnel. Again, that's one significant aspect 
and contribution of your individual and personal command. Thank 
you, sir, for what you've done.
    Can you talk as we go forward about the decision points and 
the flexibility we have to make adjustments with respect to our 
presence in Afghanistan, assuming of course that the status of 
forces agreement will be signed and the strategic partnership 
will be signed?
    General Dunford. Again, Senator, as we've discussed 
earlier, there will be 9,800 U.S. forces in Afghanistan. The 
plan that we have right now would not begin to draw those 
forces down until the end of the fighting season in 2015. The 
first opportunity to change, make adjustments as you describe 
them would be in the fall of 2015, where you can effect change 
in the projected numbers in 2016.
    Then whatever number you have in 2016, a similar construct 
would probably be in place for 2016, where the numbers that you 
would want to have in 2017 could be determined in the summer of 
2016 to effect change in the plans for 2017. But it typically 
will run in a post-fighting season pattern over the next couple 
of years in terms of effecting change, which is not to say you 
couldn't add forces, but this is to make adjustments to the 
forces on the ground.
    Senator Reed. Not only forces on the ground, but facilities 
that may be occupied because of conditions in the country?
    General Dunford. Senator, that's absolutely one of the 
drivers. What we have tried to do is make sure that the 
infrastructure doesn't drive our ability to provide train, 
advise, and assist in 2015. We've done some things to maintain 
a flexible posture in 2015. But at the end of the day, 
infrastructure is absolutely one of the drivers to the 
timeline.
    Senator Reed. There's two principal missions. One is the 
train, equip, and advise the Afghan National Security Forces 
and the other is the counterterrorism operations. You'll view 
the force structure in terms of both those missions; that's 
correct?
    General Dunford. Absolutely, Senator. From my perspective 
they're inextricably linked.
    Senator Reed. You're comfortable with this going forward 
because of the built-in flexibility and you see no arbitrary 
constraints going forward? The review that will be done at the 
end of next year will be based upon the conditions on the 
ground, the two missions that we outlined, and the facts as the 
commander, presumably General Campbell, sees at that time?
    General Dunford. Senator, I'm confident that the specific 
assumptions, the conditions, and the tasks that have to be 
accomplished, that drove our recommendations for 2015, all 
that's available to my successor and he'll have the opportunity 
to go back in 2015 and to revalidate those assumptions and to 
assess the conditions, one of the important conditions of 
course being the nature of the threat to our Nation after 2015.
    Senator Reed. Again, invariably parallels are drawn between 
the situation in Iraq and Afghanistan. But in Iraq, in 2008, 
President Bush signed a formal agreement with the Government of 
Iraq to withdraw all forces on a fixed date, the end of 2011. 
That is not going to be the policy in Afghanistan, as you 
understand it? In fact, we would have the flexibility for our 
own interests to change the mix and change the disposition of 
forces going forward, and that is, I would assume, a key 
difference?
    General Dunford. Senator, it is a key difference. One of 
the key differences is that, one, the Afghan people want us to 
be in Afghanistan in overwhelming numbers. I've recently spoken 
to both presidential candidates and I can assure you that both 
presidential candidates also support a U.S. presence after 
2014.
    Senator Reed. One of the key factors which you've already 
acknowledged is the role of Pakistan. One of the interesting 
developments which I think you appreciate very keenly and I 
wonder how much our colleagues in Pakistan do is as we draw 
down our forces and depend less and less on the lines of 
communication through Pakistan our relative leverage goes up. 
Is that a fair estimate in terms of getting their cooperation 
and getting their help?
    General Dunford. Senator, it does. I think our footprint in 
Afghanistan has made us reliant on the ground lines of 
communication, and I think after 2014 we have an opportunity to 
reframe our relationship with Pakistan.
    Senator Reed. Right now they're conducting operations much 
more aggressively, but probably not as effectively as they 
would even want; is that a fair judgment?
    General Dunford. Senator, they are conducting operations in 
North Waziristan, and we've certainly wanted them to do that 
for some years. They've had some success against the Pakistani 
Taliban and the IMU [Islamic Movement of Uzbekistan] in North 
Waziristan to the best that we can tell, but certainly have not 
had the effect against the Haqqani Network that we want to have 
seen, although it certainly has had a disruptive effect on the 
Haqqani Network in the sense that they have all been forced to 
move out of their sanctuary in the Miranshah area.
    Senator Reed. Let me just change quickly, because your new 
job as the Commandant of the Marine Corps touches upon issues 
of budget, potential sequestration effects. I'm sure you've 
thought about them, but not I presume in detail. Going forward, 
can you just give us your sense of the readiness challenges you 
will face and other challenges that the Marine Corps faces 
today?
    General Dunford. Senator, thank you. I think as I look at 
the future of the Marine Corps, our leadership, the biggest 
challenge we're going to have is to balance readiness, the 
crisis response capability that you expect from the U.S. Marine 
Corps, with the ability to modernize the Marine Corps for 
tomorrow's fights, to sustain infrastructure, to maintain 
proper levels of training, and so forth for those units at home 
station.
    Balancing all those in a fiscally constrained environment 
is going to be very difficult. I know that General Amos has 
prioritized readiness. I also know that he's been forced to 
make some decisions that create challenges in the future for 
modernization. I think balancing those things over the next 
couple of years is going to be difficult.
    Senator Reed. Thank you, sir.
    Chairman Levin. Thank you, Senator Reed.
    With thanks to Senators Chambliss and Wicker, Senator 
McCain.
    Senator McCain. Thanks to Senators Chambliss and Wicker. It 
shows if we live long enough----[Laughter.]
    Thank you, General Dunford.
    Chairman Levin. This is an in joke. I have to explain all 
this.
    Senator McCain. It's the only appropriate mark of respect 
that I have ever gotten from my two colleagues. Thank you. 
[Laughter.]
    I thank you, General Dunford, for your outstanding service. 
We've had the opportunity of encountering many times over the 
past 12, 13, 14 years and I appreciate your service.
    I really am reluctant to get back into this, but people 
keep trying to say that in 2008 we said we'd have everybody 
out, that we really wanted to stay in Iraq. The fact is that 
the President of the United States--there was never any public 
statement that the President made, the United States made, that 
said that he wanted to stay or have a residual force in Iraq.
    The fact is--and Senator Graham and I were there and know 
full well--that if we had really wanted to we could have kept a 
residual force there. We're paying a very heavy price for not 
doing so. We were on the ground there when Maliki and Barzani 
and Alawi agreed and, in the words of the Chairman of the Joint 
Chiefs of Staff, it cascaded down to 3,500 troops that they 
wanted to leave behind, which was absolutely ridiculous.
    We'll be fighting this for years to come, but facts are 
stubborn things and we could have left a residual force if we 
had wanted to do so. In fact, today your predecessor said--in 
the Brookings Institute, General Amos said: ``I have a hard 
time believing that had we been there and worked with the 
government and worked with the parliament and worked with the 
minister of defense, the minister of interior, I don't think 
we'd be in the same shape we're in today.'' Those are just 
facts.
    General Dunford, did you or any other senior military 
leader personally recommend the policy of everybody out by 2017 
no matter what?
    General Dunford. No, Senator.
    Senator McCain. No military, no ranking military officer 
that you know, recommended a hard date for everybody out of 
Afghanistan; is that right?
    General Dunford. None that I know of, Senator. I think we 
still plan to have some presence after 2017. But no one 
recommended zero.
    Senator McCain. Did anybody recommend that we have a 
conditions-based decision about what kind of residual force we 
should leave behind?
    General Dunford. Senator, I think you appreciate that every 
military leader would want to have the conditions on the ground 
and the assumptions be revalidated as a transition takes place.
    Senator McCain. Isn't it true that right now, the way that 
the counterterrorism capability of the Afghans are today, that 
we cannot abandon that? If you had to make the decision today, 
with the lack of counterterrorism capability the Afghans have, 
we would have to leave that kind of force behind at least for 
the counterterrorism mission?
    General Dunford. Senator, there's no doubt that the Afghan 
forces today would not be capable of conducting the kind of 
operations we're conducting to put pressure on the network.
    Senator McCain. Nor right now do you envision them having 
that capability by 2017?
    General Dunford. Not if you project the threat that exists 
today.
    Senator McCain. Including recent rocket attacks on the 
airport in Kabul show that the Taliban is still pretty 
resilient.
    Isn't it a fact that as long as the Taliban have basically 
a sanctuary in Pakistan that this situation will remain 
extremely complex and dangerous?
    General Dunford. Senator, absolutely. The resiliency of the 
Taliban movement is driven by their sanctuary in Pakistan.
    Senator McCain. Is there any doubt in your mind that the 
announcement of a complete withdrawal by 2017 has had effect on 
the morale of the Afghan army?
    General Dunford. Senator, I think all of us in uniform, to 
include the Afghans, would have preferred that that be a bit 
more ambiguous.
    Senator McCain. In fact, we were told recently in Kabul by 
Afghan military officers, they say, ``You are abandoning us.'' 
That's what they told me and Senator Graham, and I don't think 
they would have any reason to tell us otherwise.
    The fact is that we need a conditions-based decision 
because we right now are not confident that the Afghans can 
take up the complete burden of their own security.
    Very quickly, sequestration. Right now, as I understand it, 
Marine captains and Army captains who are in the field fighting 
right now as we speak are receiving notices that they're going 
to be involuntarily separated from the U.S. Army and Marine 
Corps. Is that true?
    General Dunford. Senator, my understanding is that is what 
the Army has been forced to do as a result of the drawdown. The 
Marine Corps is not doing that at this time with captains that 
have forward deployed.
    Senator McCain. Obviously, that has to have an effect on 
morale of our officer corps.
    General Dunford. It does, Senator.
    Senator McCain. A serious blow, I would think.
    General Dunford. Absolutely. Probably more importantly, 
Senator, than just the officer corps is the message it sends to 
the young soldiers whose company commander is forced to 
redeploy as a result of a reduction in force.
    Senator McCain. Isn't it true from your time in the 
military and remembering worse times that it takes a long time 
to restore the morale of the military when you take out, 
involuntarily, some of the best and the brightest that we have 
had. Haven't we seen that movie before in your early part of 
your career?
    General Dunford. I have, Senator. In the late 1970s it took 
us some years, probably into 1983 or 1984, before we recovered 
from the effects of the post-Vietnam drawdown.
    Senator McCain. Would you agree that perhaps one of the 
greatest responsibilities that Congress and the military has 
today is to review this sequestration and its effects that it 
is having long-term on our ability to defend this Nation?
    General Dunford. I would agree with that, Senator.
    Senator McCain. I look forward to working with my 
colleagues on both sides of the aisle and both sides of this 
podium, making that one of our highest priorities. Otherwise, I 
think that it is the unanimous opinion of every military leader 
that I have met that continued sequestration on the path we're 
on could have devastating effects on our ability to defend this 
Nation. Would you agree with that?
    General Dunford. I would agree with that, Senator.
    Senator McCain. I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator King.
    Senator King. Thank you, Mr. Chairman.
    General, the chairman covered the Mi-17 issue, but I just 
think it's really important to have your unequivocal view that, 
I think the word you used is, it will be catastrophic if we cut 
off spare parts. That would in effect ground the Afghan Air 
Force; is that true?
    General Dunford. Senator, it is. The reason I used the word 
catastrophic, which I don't think is hyperbole, is because the 
inability for the Afghans to have the operational reach 
represented by the Mi-17 will seriously deteriorate their 
ability to take the fight to the enemy. But the more important 
reason I used the word catastrophic is that their inability to 
take the fight to the enemy actually will put young Americans 
in harm's way in 2015 and beyond.
    Senator King. Thank you General.
    You've discussed this. Looking now at the lessons of Iraq, 
what do we learn from that so that we can avoid that future in 
Afghanistan? There are those who aren't as optimistic as the 
military about Afghanistan's future after our withdrawal. What 
do we learn from Iraq to avoid that fate?
    General Dunford. I think the key thing that we have in 
Afghanistan, we're in the process of right now, is an effective 
political transition, but also the opportunity to continue to 
develop the sustainability of Afghan security forces. I'm very 
confident about the Afghan forces' ability to provide security 
on a day-to-day basis. I'm not confident that if we were to 
leave at the end of 2014 that those forces would be 
sustainable.
    There are some significant capability gaps that have to be 
addressed in order for the Afghans to be able to do things that 
we have heretofore been doing for them. There's still a degree 
of what I describe as capability substitution. Many of those 
areas are planning, programming, budgeting, execution, things 
we take for granted, delivery of spare parts, delivery of fuel, 
pay systems, and those kinds of things that the army would 
need.
    I think the key lesson is that, after all of the sacrifice 
and all the accomplishments over the past 13 years, what we 
need to do is ensure that the transition results in the Afghan 
forces being sustainable without our presence at some point in 
the future.
    Senator King. What's the ethnic makeup of the Afghan army? 
One of the problems in Iraq appears to be the unequal 
distribution ethnically or sectarian. Is the ethnic, tribal 
makeup of the Afghanistan security forces representative of the 
country, so that the security forces will have a broad support 
within the country?
    General Dunford. Senator, thanks for that question. It is 
an important question. The officer corps in the Afghan army is 
about 40 percent Tajik, 40 percent Pashtun. The noncommissioned 
officer (NCO) corps is about the same. The forces are about the 
same. That's a slight overrepresentation of Tajiks in the sense 
that the Pashtun population represents some 40-plus percentage 
of the population and about 27 percent of the population is 
Tajik.
    I would caveat those statistics by telling you that there 
hasn't been a census in Afghanistan for a long period of time. 
Those statistics are the best that we have available to us. But 
in general terms we have the foundation of a national army in 
Afghanistan that is in fact representative, not only of the 
various ethnic groups, but representative geographically.
    Senator King. Is this representation integrated throughout 
the force? In other words, are individual battalions or units 
balanced ethnically?
    General Dunford. Senator, they are. They are balanced. 
There is a slight overrepresentation of forces from the 
northern part of the country and the eastern part of the 
country, slightly less from the southern part of the country. 
But the demographics in each of the units represents the Nation 
as a whole, as opposed to specific units being Tajik or Pashtun 
and so forth.
    The assignment of people inside the Afghan army is not 
based on their geographic area. In fact, all serve away from 
home.
    Senator King. We tend to focus around here on problems. 
That's what we talk about. That's our job. But my sense is that 
Secretary Kerry and what happened last weekend was a big deal, 
and the avoidance of what could have been a disastrous 
situation. Could you share some thoughts about the importance 
of the uniform recount and, I understand there's a kind of a 
power-sharing agreement or a coalition government agreement of 
whatever the outcome. This could have been a disaster for us if 
it had gone the wrong way this past week.
    General Dunford. Senator, thanks. Last week there was a lot 
of discussion in Afghanistan about one of the candidates 
establishing a parallel government, with the potential for 
civil war. I would assess that risk as having been significant. 
I don't think either one of the candidates wanted to do that, 
but there was certainly a sentiment, a strong sentiment by 
large numbers of people, that were so outraged at the fraud 
that took place in the election that they were willing to take 
extreme measures.
    I think what happened this weekend was very encouraging in 
that both candidates have agreed to a framework for an audit 
process that will deliver the cleanest vote possible. But as 
importantly, the candidates agreed on a political track as well 
as that technical track, and that political track will be some 
power-sharing arrangement so there's an inclusive government in 
Afghanistan. They believe that that is most suitable for 
Afghanistan at this particular time.
    While the devil is in the details and much work remains to 
be done, particularly on the political framework, the 
discussion in Afghanistan now is not about civil war, it's not 
about insecurity; it's about a political deal in order to 
govern effectively in the future. I think that's fairly 
significant.
    Senator King. I've always felt that God is in the details, 
but that's a different topic.
    Pakistan. You mentioned Pakistan. You've had to deal with 
Pakistan. Whose side is Pakistan on? Are they trying to 
suppress these terrorist organizations or are they working with 
them? I find Pakistan a puzzling--I was about to say ally, but 
I don't know how to characterize them.
    General Dunford. Senator, in my time in Afghanistan I've 
met generally monthly with our Pakistan counterpart, and also 
he's now had the opportunity to travel to Afghanistan to meet 
with both me and our counterpart in the Afghan security forces. 
Numbers of hours of discussions. I'm convinced of a couple 
things, both from the intelligence and from my engagements in 
Pakistan.
    First and foremost, I believe that the Pakistani army 
recognizes that extremism is an existential threat to the state 
of Pakistan and I think they are determined to do something 
about that threat. Less confident that they today have the 
capability to do all that needs to be done to deal with that 
threat inside of Afghanistan, which is why I think you see them 
focused narrowly on the most pressing threats to Pakistan, 
reflecting an inability to deal more broadly with extremism.
    This is one of the reasons I think it's so important for us 
to develop an effective relationship between Afghanistan and 
Pakistan, and I think the United States can play a unique role 
in facilitating that relationship, because the way we will get 
after this problem is by, one, having a common definition of 
``extremism'' in the region; and number two, then having an 
agreed-upon framework within which both Afghanistan and 
Pakistan can deal with the threat of extremism, as well as the 
very real political and economic challenges that exist between 
the two states.
    Senator King. As we draw down in Afghanistan, it's more 
important than ever to establish a good, strong working 
relationship with Pakistan?
    General Dunford. Senator, an effective relationship between 
Afghanistan and Pakistan is critical to our long-term success 
in the region.
    Senator King. Thank you, General, and thank you for your 
extraordinary service.
    Chairman Levin. Thank you, Senator King.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    General, thanks to you and your family for your continued 
commitment to America. We're very thankful that you have been 
where you've been coming out of Afghanistan. You're the next in 
line of a number of great leaders to serve as Commandants. We 
look forward to your continued service there.
    Taking up where Senator King left off on Pakistan, there is 
no long-term solution in Afghanistan without some sort of 
cooperation out of Pakistan; is that a fair statement?
    General Dunford. Senator, that's absolutely a fair 
statement, and one of the critical components of our military 
campaign is to begin to develop effective military-to-military 
relationships between the two countries. I couldn't agree more.
    Senator Chambliss. I want to ask you about the detainees 
that were released recently. I understand 12 non-Afghans were 
released from Parwan. Ten of those were Pakistanis and they 
were all returned to their home country. I'm concerned because 
I know the serious nature of the alleged incidents that these 
prisoners were accused of, and we have 38 more non-Afghans, I 
understand. Can you address why these 12 were released and 
what's our long-term policy with Afghanistan regarding non-
Afghan prisoners at Parwan?
    General Dunford. Thanks, Senator. I can. First with regard 
to the 10 that were sent to Pakistan, we didn't release those 
individuals; we turned them over to Pakistan after the U.S. 
State Department got assurances from Pakistan that they would 
be properly handled in accordance with the nature of the crimes 
that they committed.
    We have 38 third-country nationals right now and a similar 
process takes place, where the State Department deals with the 
Nation from which these individuals come, gains assurances, and 
then the Deputy Secretary of Defense will sign an authorization 
for them to be released after notifying Congress.
    The challenge with this issue, Senator, is that our 
authority to hold these individuals will expire on December 31, 
2014. We're working very hard now to ensure that we properly 
transition these individuals to a place where they can be held 
accountable for, again, the acts that they've committed.
    Senator Chambliss. Do you have confidence that the Afghans 
are going to treat them in the way that they should be treated 
because of the acts they've committed?
    General Dunford. Senator, we're not planning at this time 
to turn them over to Afghanistan. We plan to turn them over to 
the countries from which they originated. My sense is that if 
we were to turn them over to Afghanistan today I couldn't 
guarantee you that they would be properly handled.
    Senator Chambliss. I want to again take off on something 
Senator McCain asked you about. We had General Campbell in the 
other day to talk about continuing operations in Afghanistan, 
and with the drawdown to the 9,800 this year, drawing down 
again next year, give me your view as to the long-term 
situation as you understand it right now as we head into the 
end of 2014, through 2015 and, more importantly, into 2016? 
What's your understanding of how this is going to work?
    General Dunford. Senator, with regard to developing 
sustainable Afghan security forces, I think the pace of 
withdrawal right now could result in Afghan forces being 
sustainable. I'm comfortable that a regional approach to train, 
advise, and assist in 2015, where we help mature the 
institutions, the processes and systems that allow the 
ministerial-level organization to support tactical-level 
organizations, the work that needs to be done can be done in 
2015.
    I'm also confident that there's some work that will require 
a longer period of time, but much of that work can be done in 
Kabul inside the ministries. The issue that I really can't talk 
to you about with any degree of confidence is what the threat 
to the Homeland might be after 2016. That's certainly an area 
where I think the assumptions and the conditions that informed 
our current decision would have to be evaluated over time.
    Senator Chambliss. In that respect, if you had to rate the 
possibility of either al Qaeda or al Qaeda-affiliated operators 
inside of Afghanistan or migrating to Afghanistan as we draw 
down and resuming training operations, much like we saw before 
September 11, what degree would you rate the possibility of 
that taking place?
    General Dunford. Senator, I can assure you, from what we 
see on a day-to-day basis and from the intelligence, that there 
are individuals in both Afghanistan and Pakistan who are 
determined to attack the Homeland. They're determined to 
replicate acts like September 11. The pressure that we have 
placed on those networks over the past decade is the reason 
they haven't been able to execute a September 11.
    I would say that the risk, without continued pressure on 
those networks, of them regenerating and attacking the Homeland 
would be significant.
    General Dunford. Is the Haqqani Network still enemy number 
one?
    General Dunford. Senator, I would view al Qaeda as enemy 
number one. Haqqani is certainly the most virulent strain of 
the insurgency in Afghanistan and presents the greatest risk to 
the force because of their emphasis on high-profile attacks. 
The other thing that's significant about the Haqqani Network is 
they actually provide the network that allows al Qaeda in the 
region to have sanctuary and continue to resource itself. 
They're certainly, if not the most important group to the 
sustainability of al Qaeda, they are certainly one of the most 
significant groups that allows al Qaeda to sustain itself in 
the South Asia region.
    Senator Chambliss. Talk for a minute about the morale of 
American soldiers in Afghanistan now? What's your thought?
    General Dunford. Senator, I am--and I mean this sincerely--
extraordinarily honored to have the opportunity to lead the men 
and women that are in Afghanistan today. Their morale after 13 
years of war has met or exceeded anybody's expectations over 
time. They're focused on what they're doing. They believe in 
what they're doing. They trust themselves. They know they're 
well trained and they're well equipped and they trust their 
leadership.
    I would assess the morale of the forces in Afghanistan 
today and, frankly, in the force as a whole as something we can 
all be very proud of.
    Senator Chambliss. The 48th Brigade of the Georgia National 
Guard is charged with basically tearing down Camp Phoenix. I 
visited them when they got there and they were fired up about 
the job that you had given to them to do that, and I trust 
they're doing well.
    General Dunford. Senator, they are. The job we gave them to 
do is one of the more difficult jobs that needs to be done over 
this next year. It's a piece of infrastructure, Camp Phoenix, 
that they're down at, that we want to close. Closing a base is 
a challenging task, but they have taken that on with enthusiasm 
and they're doing a superb job.
    Senator Chambliss. Thank you, Mr. Chairman, and thanks for 
your leadership, General.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    General Dunford, welcome. I also know that your wife has 
played a very big role in your success, so we welcome Ellyn and 
your niece.
    I am the daughter-in-law of a former major general in the 
Marine Corps Reserve and just know that so many people hold the 
Marine Corps in the highest, highest regard. We thank you for 
doing that. You have some big shoes to fill from Commandant 
Amos, who has certainly led the Marine Corps, I think, with 
very good leadership.
    I did want to talk a little bit more about the Afghan 
National Security Force. As you wind down your tenure as head 
of ISAF, where you have seen the withdrawing of 20,000 troops 
in an environment with an unsigned bilateral security agreement 
and an election riddled by fraud that you've spoken about, tell 
me how prepared the Afghanistan National Security Forces are to 
take over, especially in light of what we have seen, the 
incapability of what's taking place in Iraq?
    General Dunford. Senator, I would, and thanks for that 
question. I think, rather than just give you my personal 
assessment, maybe I'll just outline what the Afghan forces have 
done over the past few months, which in my mind is indicative 
of their current capability. First, we had over 300 campaign 
events involving thousands of people, some as large as 20,000. 
The Afghan forces secured all of those campaign events.
    There was a Nowruz, or Persian New Year Festival, in the 
northern part of the country back in March, 100,000 people 
came. They secured that event. There was another event in the 
country that involved people from all over the region to 
attend, a number of significant threat streams. Those threat 
streams were disrupted and the Afghan forces were able to 
provide security.
    Probably most significantly, what took place on the 5th of 
April and the 14th of June is indicative of the capabilities of 
the Afghan security forces. On both of those occasions, 
millions of people, despite being threatened by the Taliban, 
had the courage to go out and vote. That courage was drawn in 
my assessment from the confidence that the Afghan people and 
the sense of ownership that the Afghan people have for the 
Afghan security forces.
    While I'm very aware of the challenges that must be 
addressed to have sustainable Afghan forces and the capability 
gaps that continue to remain, I'm equally confident that the 
Afghan forces today are capable of providing security to the 
Afghan people. They have done that for the past year since they 
assumed lead responsibility.
    They're in a tough fight this summer. Our forces when I 
arrived, we had over 100,000 forces on the ground. We have 
40,000 right now. We're providing very little support on a day-
to-day basis to the Afghan security forces. They are yet still 
able to be successful against the enemy.
    Senator Hagan. Can you talk about the participation of 
women in the Afghani forces?
    General Dunford. I can, Senator. It's not a particularly 
good news story. There's a goal in the Afghan army and the 
police forces for 10 percent women. We have about 1 percent in 
both the army and the police force right now. There are some 
bright spots. We have the first female police chief in Kabul. 
We have a couple other senior-level officers. Both the Minister 
of Defense and Minister of Interior have taken this on as an 
area of personal interest, and they have a very aggressive 
recruiting plan.
    Within ISAF, we recently received from Croatia a brigadier 
general whose singular responsibility will be to assist us with 
gender integration in the Afghan security forces. From a 
leadership perspective, I think there's an emphasis by the 
leadership in Afghanistan to make this better.
    But I wouldn't for a minute understate, Senator, the very 
real cultural challenges that are going to make the progress 
for women in Afghanistan very slow and very deliberate and, 
quite frankly, contingent upon our continued presence after 
2014, as well as some of the support that we provide being 
conditional in order for them to make progress in this 
particular area.
    Senator Hagan. How many women in the Marine Corps are 
serving in Afghanistan?
    General Dunford. Senator, I don't know. That may be 
something good that I don't know, because we actually don't 
keep track of things like that.
    Senator Hagan. I want to move to the Camp Lejeune water 
contamination issue. One of my top priorities has been to get 
help and answers for those individuals in the Marine Corps that 
have been affected by this water contamination at Camp Lejeune. 
As many as a million marines, family members, and civilians 
that were stationed at the base from 1950s until the 1980s were 
exposed to some harmful chemicals that have certainly led to 
the development of cancer and other diseases.
    It's been a long quest to get answers and we are finally 
beginning to get results of studies that have shed light on 
this tragedy. I know that you too have served at Camp Lejeune 
during this time. I hope you make this issue a personal 
priority. When you are confirmed, will you work with Congress 
to overcome any of these bureaucratic hurdles that we have had 
in the past--I feel good from the Marine Corps's perspective 
we're still working with the Agency for Toxic Substances and 
Disease Registry in some other areas--to overcome any of these 
hurdles that may halt or delay the pursuit of answers for the 
affected marines and their families?
    General Dunford. Absolutely, Senator. We'll do all we can 
to be transparent with Marine families and, frankly, at the end 
of the day to do the right thing.
    Senator Hagan. Thank you.
    To tuition assistance. I think that is a powerful program 
that allows our servicemembers to pursue education in their off 
time, and I think it enhances the professionalism when serving 
and certainly helps to prepare them for the civilian workforce 
when they transition out.
    Congress has sent a very clear message about the importance 
of this benefit by restoring it in fiscal year 2013 and then by 
restricting the reprogramming of that in fiscal year 2014. In 
the Marine Corps' 2015 budget the request originally included a 
proposal to cut this tuition assistance by close to two-thirds 
and also included a 25 percent cost share by the individual 
marine.
    It's a program that I support and I've defended it. I was 
pleased to see that the Marine Corps quickly changed course and 
then fully funded this tuition assistance for fiscal year 2015.
    If confirmed, will you continue to show strong support for 
the tuition assistance benefit?
    General Dunford. Senator, I have taken a look at the 
guidance that General Amos provided for the tuition assistance 
program and, if confirmed, the guidance that I would provide 
would be consistent with what General Amos has provided.
    Senator Hagan. Because this is a benefit that these men and 
women have really deserved and it has certainly helped from an 
educational standpoint for those individuals and, as I said, 
when they transition out. Thank you. I will look forward to 
working with you on that.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Wicker.
    Senator Wicker. Thank you.
    General Dunford, thank you for your testimony and for your 
service. Let me just try to follow up on a few things that have 
been mentioned.
    Senator Inhofe mentioned our amphibious fleet. It's clear 
that we're not anywhere near our requirements there. Let me ask 
specifically about the LPD-17 [landing platform/dock] program. 
It was originally planned for 12 warships. It was reduced to 11 
vessels. This committee restored that 12th LPD. It's my 
understanding that the Senate Appropriations Committee has 
found the funds for that 12th LPD and that it's authorized in 
the House version of the National Defense Authorization Act.
    Do we need that 12th LPD?
    General Dunford. We do, Senator.
    Senator Wicker. What's your assessment of the risk to the 
Marine Corps and our troops' ability to execute objectives 
around the world, and particularly the Asia-Pacific, if we do 
not get that number right?
    General Dunford. Senator, we're both short of the numbers 
of ships required to meet the combatant commanders' day-to-day 
requirements, as well as to aggregate marines to conduct an 
amphibious assault. I believe that that 12th LPD will help 
mitigate the risk, not completely close the gap, but it will 
help mitigate the risk that we have right now in both of those 
areas.
    Senator Wicker. Would it help you as the next Commandant if 
we would go ahead and get these bills on the President's desk 
for his signature before the end of the fiscal year? What 
problems does it cause when we let the fiscal year expire and 
we haven't given you a National Defense Authorization Act and 
we don't have our Defense Department funded with an actual 
appropriation bill, but rather a continuing resolution?
    General Dunford. Thanks, Senator. I know from my previous 
experience as Assistant Commandant what that frequently 
requires us to do is break programs. It's actually a very 
inefficient way to do business if you don't have a bill passed 
by the end of the fiscal year.
    Senator Wicker. We have reported out of this committee the 
Carl Levin Defense Authorization Act and I know that he would 
like nothing better than to get it on the floor this month. I 
would join my colleagues in that.
    Chairman Levin. If I could just correct that, I really 
wanted to get this on the floor last month.
    Senator Wicker. But that was yesterday and yesterday's 
gone.
    We need to get it done. I think you and the members of this 
committee are on the same page. I just implore the leadership 
of this Congress to do whatever's necessary to get these bills 
on the President's desk in a timely manner.
    Let me follow up then on the question of the pace of our 
drawdown. Right now we have 30,000 U.S. troops in Afghanistan, 
is that correct?
    General Dunford. That's correct, Senator.
    Senator Wicker. Another 10,000 from various coalition 
allies, for a total of 40,000?
    General Dunford. That's correct, Senator.
    Senator Wicker. At what pace are we going to get to 9,800? 
What will it look like at the end of this calendar year?
    General Dunford. It will be at 9,800 by the end of this 
calendar year, Senator.
    Senator Wicker. It's going to be a pretty rapid drawdown?
    General Dunford. It is, and this is the way it was planned, 
so that we could keep the maximum number of forces on the 
ground throughout the election period, as well as through the 
fighting season in the summer. But as we discussed a while ago, 
the infrastructure piece is one of the key drivers, and we've 
been simultaneously working the infrastructure reduction and 
transition plan throughout the last year. I'm not at all 
concerned about the pace of drawdown to get to 9,800. We have a 
good plan in place and we'll get there.
    Senator Wicker. Are we going to be at 9,800 through most of 
calendar year 2015?
    General Dunford. That is the plan, Senator.
    Senator Wicker. Okay, so November, for example, of 2015?
    General Dunford. We will have begun the drawdown by 
November 2015.
    Senator Wicker. At that point how many of our coalition 
ally troops will be with us there?
    General Dunford. We'll have 4,000, plus or minus, that'll 
be with us in 2015. As we collapse back to a Kabul-centric 
approach in 2016, I'd expect we'd have at least half of that 
number in 2016.
    Senator Wicker. We'll have about 5,000 troops during 2016?
    General Dunford. The guidance the President said was we 
would have about half in 2016 and the number 5,500 is out 
there, but the President's guidance has been about half.
    Senator Wicker. Your testimony before the committee today, 
your best judgment to Congress, is that the numbers that we 
project for 2015 will be adequate to provide security during 
that calendar year; is that correct?
    General Dunford. Senator, that is correct. The numbers in 
2015 are consistent with the recommendation that I made to the 
President.
    Senator Wicker. Okay. You reserve the right, as I 
understand it, to look at conditions on the ground and change 
that recommendation as it goes forward beyond calendar year 
2015. Is that what I understand you to have told me yesterday?
    General Dunford. Senator, I think any commander--and I 
certainly believe I have this responsibility. Any commander has 
the responsibility to provide the President with best military 
advice, which includes a continual reassessment of the 
assumptions and the conditions that were behind any 
recommendation that was made.
    Senator Wicker. I hope you will. I tell you this, General. 
I think we're all impressed. We're impressed with your record, 
we're impressed with the answers that you've given us. We think 
the President has the right man here.
    I just have to say, I implore you and I charge you with 
speaking truth to power. If it looks like, as Senator Inhofe 
said, if it looks like we're not getting it right, as we didn't 
get it right in Iraq, I hope you will come back to us and tell 
us we're not getting it right and that something needs to be 
done. We need to know that.
    We didn't get the right advice, frankly, we got surprised, 
in Iraq. I have here a news item, which I think I'll ask to be 
inserted in the record, Mr. Chairman.
    Chairman Levin. It will be.
    [The information referred to follows:]
      
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Wicker. It's a statement by General Amos, your 
predecessor. I'm going to do you the favor of not asking you if 
you subscribe to his views, because I don't think that would 
get us anywhere. But basically, if I could just read a sentence 
or two:
    ``Stepping into an intensifying political debate, the head 
of the Marine Corps said the United States doesn't have the 
luxury of isolationism and said Iraq's deterioration may have 
been prevented if Washington had maintained a larger U.S. 
presence there. General James Amos, who is scheduled to retire 
this fall, offered strong views on both debates.
    ``On Iraq, Amos said he believes that the Islamic State of 
Iraq and Syria (ISIS) takeover of central Iraq and the growing 
political fissures between Maliki and the country's embattled 
Sunni minority may have been avoided if the United States 
hadn't completely withdrawn from the country in 2011. `I have a 
hard time believing that, had we been there and worked with the 
government and worked with the parliament and worked with the 
minister of defense, the minister of interior, I don't think 
we'd be in the same shape today,' Amos said during an event at 
the Brookings Institute.''
    I agree with this distinguished military leader, and it 
breaks my heart, as it breaks the heart of General Amos and 
other marines and other troops, to see what has happened after 
all of the blood and sacrifice and treasure the United States 
has spent. If we had gotten the correct advice and we had been 
given a more realistic something, this disaster could have been 
avoided. It's up to people like you to help us understand the 
ways and means to prevent this type of disaster from happening 
in Afghanistan.
    I believe you're the man to do it. But we look to you to 
come back to us and tell us the truth and give us your best 
guidance as a military expert on what we need to do to make the 
situation work in Afghanistan.
    Thank you, sir.
    Chairman Levin. Thank you very much, Senator Wicker, and I 
join you in feeling a level, a very strong level of confidence 
that that's exactly what General Dunford would do and, as he 
has testified this morning, has the obligation to do if the 
assumptions which have been made don't turn out to be correct. 
I join you in that feeling of necessity that we can count on 
our top military leaders to do just that. I talked to General 
Dunford about the same thing in my office and I thank you for 
your commentary here today.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    General Dunford, congratulations on the appointment and 
thank you for your service. You have a lot to be proud of in 
the work that you've done together with American military and 
our coalition partners to enhance the capacity of the ANSF.
    I had a hearing recently in the Foreign Relations 
subcommittee that I chair about Afghan civil life post-2014. 
Your predecessor, General Allen, said something that kind of 
made us all sit back in our chairs. After talking about 
continuing security challenges, General Allen said, but 
corruption is a bigger threat, existential threat, to Afghan 
society than security challenges are. He wasn't minimizing 
security challenges. He was elevating corruption challenges.
    We all were struck by that. But when I've watched the 
playout of the elections in Afghanistan, the Taliban threatened 
them from a security standpoint, but, as you pointed out, the 
ANSF did a superb job in blocking the Taliban from being able 
to disrupt the elections. The challenge with the elections were 
allegations of corruption. The corruption threat proved to be 
more real or to be more impactful on this election process than 
the security challenge.
    I think that is proof of the adage that General Allen made, 
but it's also proof of the good work that you've done, and I 
applaud you for it.
    Questions about your role as Commandant should you be 
confirmed, and I have confidence you will be. You have to 
balance a lot of tough priorities: security priorities, 
personnel priorities, and budgetary priorities. The needs of 
today are usually readiness challenges and the needs of 
tomorrow modernization. Let me ask you about both of those.
    What are your greatest concerns regarding readiness today 
in the Marine Corps?
    General Dunford. Thanks, Senator. General Amos has ensured 
that all marines who are deployed in harm's way, forward 
deployed, forward engaged, deploy at the highest state of 
readiness. Those forces are absolutely well equipped and well 
trained.
    Having said that, we've paid the cost over the years for 
making sure that those marines that are forward deployed, 
forward engaged, have the wherewithal to accomplish the 
mission, and that cost has been borne at home station. Today 
approximately 50 percent of our units at home station are in a 
degraded state of readiness. That's largely an equipment 
readiness issue today as a result of the years of war and wear 
and tear on our equipment.
    Certainly one of the key things would be to ensure that we 
have the resources necessary to reset that equipment that'll be 
coming out of Afghanistan. As you may know, Senator, we've 
identified a minimum of 2 years as the window of time where we 
continue to need Overseas Contingency Operations funding for 
that very reason, to reset that force and to restore the Marine 
Corps to be the force that you expect it to be, which is not 
half ready, but completely ready to do whatever the Nation asks 
it to do.
    Senator Kaine. What are your top priorities on the other 
side of the ledger, for force modernization, as you come into 
the role of Commandant?
    General Dunford. Senator, I think, broadly speaking, the 
critical thing is that you expect us to be a naval 
expeditionary force in readiness. You expect us to be able to 
come from the sea in a wide range of conditions, again in every 
clime and place. I think today there's a number of areas where 
we're going to have to focus to ensure that we do have the 
amphibious and the expeditionary capabilities necessary to 
fight tomorrow's war as well as today.
    I think balancing those requirements for modernization with 
today's readiness is going to be a significant challenge, and I 
know you'll help us with that, Senator.
    Senator Kaine. Indeed, one of the challenges you have in 
the modernization side is acquisition programs. You inherit 
some acquisition programs, some that are working very 
successfully, some not as successful. What will be your 
philosophy as Commandant in the acquisition area to make sure 
that the investments in technology and equipment that we make 
are well spent?
    General Dunford. Senator, where I have seen acquisition 
programs work is where leadership is personally and decisively 
engaged in the acquisition program. If confirmed, I can assure 
you, particularly on the major defense acquisition programs, 
that the program manager, if not in fact, but certainly in 
practice, will be me.
    Senator Kaine. Talk a little bit about the progress the 
Marine Corps has made in opening up combat-based Military 
Occupational Specialties to women since Secretary Panetta's 
announcement in early 2013?
    General Dunford. It's clear to me that the Marine Corps 
understands the direction set by Secretary Panetta, and by 
January 2016 we'll be prepared to make recommendations as to 
exceptions to policy. I think the approach the Marine Corps has 
taken now, a deliberate and measured and responsible approach, 
is exactly the one that I would take were I to be confirmed. 
Certainly, at the end of the day you can be sure that the 
recommendations that I would make would be based on the impact 
to the combat effectiveness of the Marine Corps in order to 
meet the standards that you expect the Corps to meet.
    Senator Kaine. Finally, General, just a compliment. Often 
as I travel I'm traveling in a Foreign Relations capacity, not 
an Armed Services capacity, and I interact with the Marine 
security guard at the various embassies we have around the 
world. That is a critical program that has been enhanced in the 
aftermath of the Accountability Review Board's (ARB) 
recommendations following the tragedy in Benghazi.
    But I've just been enormously impressed with this program 
and with the Marines' ability to scale it up to meet the ARB 
recommendation. I don't know; it may be one of the few billets 
in the Marine Corps where you get to serve without a 
commissioned officer telling you what to do. It's, I think, all 
NCOs and enlisted personnel. But they do a superb job, and we 
just need to make sure we continue to pay attention to that 
program, help the Marine Corps as it needs budgetary resources 
to staff it up.
    I just want to tell you that the appreciation of the State 
Department for the great work the Marine security guard folks 
does is very, very high and I share that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Kaine.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank you, General Dunford, for your incredible 
leadership in Afghanistan. I can't think of a better man to 
serve as Commandant. I also want to thank your wife, Ellyn, for 
everything that she's done for our country and the Marine 
Corps.
    I wanted to ask you, General, if we follow the course of 
action that's been announced by the administration in 
Afghanistan without any changes in the reduction of forces--in 
other words, 9,800 to half at the beginning of 2016, to about 
1,000 embassy presence in the beginning of January 2017--what's 
the best case scenario for what happens in Afghanistan? Then I 
would also like you to answer: with no changes to the pace 
withdrawal, what's the worst case scenario, so we can 
understand what the two possibilities are.
    General Dunford. Thanks, Senator. The best case scenario 
for the next couple years would be that, first, we have a 
successful political transition this year. The Afghan forces 
continue to be successful coming out of the fighting season. 
They have increased confidence and capability in the fall of 
2014. The international community meets their Tokyo and Chicago 
commitments, so we have the resources necessary to sustain the 
force and to continue the development efforts that are critical 
to Afghanistan's future; that the relationship between 
Afghanistan and Pakistan improves such that they have a 
cooperative relationship in dealing with extremism; and that we 
minimize the risk of malign actors being involved inside of 
Afghanistan as they grow and develop.
    The Afghan security forces in the best case scenario would 
be sustainable by 2017, such that a very small presence inside 
the U.S. embassy, in what we describe as a Security Cooperation 
Office that would manage foreign military sales, engagements, 
and so forth, with some amount of ministerial capacity advising 
as well, would be there.
    But in effect, by 2017 we would have addressed those gaps 
that have identified for the Afghan forces, they would be 
sustainable, and again we would have stability as a result of 
political transition.
    The worst case scenario over the next 2 or 3 years would 
be, first, it starts with the political transition and we don't 
have successful political transition. I think that's a 
foundational element to any success that we're going to have.
    We also begin to lose international community support over 
time. The Af-Pak relationship doesn't go in a direction that we 
want it to and both states fall short of where we would want 
them to be in terms of being effective counterterrorism (CT) 
partners, both from a capacity perspective and from a will 
perspective.
    If we then found ourselves in 2017 without a decisive 
presence in the region and without effective CT partners in the 
form of Afghanistan and Pakistan and those two nations 
cooperating with each other, I think what you would see in 2017 
in a worst case scenario would be the space that al Qaeda would 
need to grow stronger and to plan and conduct operations 
against the West, something that they haven't been able to do 
over the last several years because of a combination of the 
pressure, largely the pressure that our U.S. Government 
interagency partners and our special operations have placed, 
but also contributed to by the support that we've had from 
Pakistan and Afghanistan.
    Senator Ayotte. Let me follow up on that. With the 
announcement by the administration, you talked about the 9,800 
troops, our contribution, in 2015 you're satisfied with. The 
administration has announced that that would be cut in half in 
2016. If that is followed through in terms of cut in half, one 
of the things you said in answer to Senator Chambliss is an 
important mission that we've had in Afghanistan is actually 
ensuring that al Qaeda could not replicate September 11, and 
the way we have done that is keeping up pressure, continued 
pressure, not only on those who would want to threaten us in 
Afghanistan, but for example their counterparts in the Haqqani 
Network in Pakistan.
    If we go down to half at the beginning of 2016--the CT 
presence has been beyond Kabul, correct?
    General Dunford. It has, Senator.
    Senator Ayotte. Absolutely, and it would be in 2015. What 
happens in the beginning of 2016 if we cut them in half? Where 
are we located?
    General Dunford. In 2016, Senator, in accordance with the 
plan right now, we would have fundamentally a Kabul-centric 
approach. The bases that are outside of Kabul would be closed 
or transferred to the Afghan forces or the Afghan Government by 
2016.
    Senator Ayotte. If we do that, that's pretty soon actually, 
if you think about it. That would be the beginning of 2016 we 
would go to a Kabul-based presence. What does that do overall 
to our ability to keep pressure on those networks on the CT 
mission, assuming something doesn't dramatically change with 
regard to those who would want to threaten us from Pakistan and 
Afghanistan?
    General Dunford. Senator, that would reduce our collections 
capability, our signals intelligence, our human intelligence, 
and our strike capability. It would be a significant reduction 
in our overall counterterrorism capability.
    Senator Ayotte. If we have that significant reduction in 
our overall counterterrorism capability beginning in 2016, what 
does that do in terms of threats that we could potentially face 
to our Homeland?
    General Dunford. Senator, I think the equation, you have to 
look at it in the perspective of what is Afghanistan's CT 
capacity, what's Afghanistan's CT capacity and will, and what's 
the nature of the threat. From my perspective, we would have to 
be in a position to close the gap between the Pakistani and the 
Afghan CT capacity and will versus the threat in 2016.
    While I don't know what the threat will be in 2016, my 
sense is we'll still need an effective counterterrorism 
capability based on my projection of the threat and based on 
the growth of Afghan and Pakistani CT capacity and will.
    Senator Ayotte. Just to be clear, an effective CT strategy, 
unless the conditions dramatically change between now and the 
beginning of 2016, really has to be beyond Kabul for us to 
ensure that we can keep that pressure to protect our Homeland; 
is that true?
    General Dunford. Senator, the only way that it will be 
successful for us to be in Kabul--probably a different way to 
say it--would be if Afghanistan and Pakistan are capable of 
dealing with the threat in 2016.
    Senator Ayotte. Let me just ask one final question, which 
is: If we think about the presence in Kabul and what's 
happening with regard to the counterterrorism strategy, what is 
it that they would have to accomplish between now and then? It 
seems like it would be quite a bit. If we wanted to change 
course, when would we have to make that decision, because 
obviously we have presence outside of Kabul and we're pulling 
into, if we cut the troops in half in 2016, back into Kabul. 
That takes some time.
    When would you or General Campbell, who will be the new 
commander on the ground, have to come to us and the 
administration and say, we really shouldn't pull all back into 
Kabul, we're going to have to keep a greater presence? What's 
our timeframe for that so we understand?
    General Dunford. Senator, I'll answer that and then go back 
to the first part of your question. The timeframe from my 
assessment--and again, it's based on closing of 
infrastructure--would be in the September timeframe, October 
timeframe of next year, would be the latest time when you could 
actually effect the change, because what will happen subsequent 
to that is you'll begin to draw down the infrastructure, close 
or transfer those facilities that currently house our forces 
outside of Kabul. About a year from now would be when that 
discussion would probably have to take place.
    With regard to what the Afghans would have to do to be 
successful in the counterterrorism fight in 2016, there's 
really two critical gaps that affect their CT capacity. One is 
their aviation capability and then the other is the 
intelligence enterprise as a whole. While those are developing, 
we still expect that the aviation enterprise will still have 
some capability gaps in 2016, as well as the intel enterprise. 
Those are longer-term challenges that we're addressing.
    Senator Ayotte. I thank you, General. I also would point 
out, I think you've said that some of our CT missions we 
conduct independently because our interests in protecting the 
Homeland--while the Afghans, we have a great partnership with 
them, ultimately it is our interest, and those need to be 
focused on as well. Their CT mission may not be as focused as 
we would be on that particular mission. Would you agree with 
that?
    General Dunford. Senator, there are operations we conduct 
in the region unilaterally, yes.
    Senator Ayotte. Thank you, General.
    Chairman Levin. Thank you, Senator Ayotte. Thank you also 
for pointing out that it'll be General Campbell who will be 
responsible for giving us his best military advice next year. 
Both Senator Wicker and I got commitments from General Dunford 
that he'll make those honest assessments, but it really will be 
General Campbell in terms of Afghanistan--who we got the same 
assurance from, by the way, as we did from General Dunford. But 
thank you for pointing that out.
    Senator Ayotte. Thank you. One thing I do know is, we know 
that General Campbell hopefully will call on General Dunford 
for his advice.
    Chairman Levin. We do.
    Senator Ayotte. That would be appreciated. Thanks.
    Chairman Levin. Thank you for smoothing over that little 
omission.
    General Hirono--I mean, Senator Hirono. I made a General 
out of Senator Hirono. [Laughter.]
    Senator Hirono. Thank you. Thank you, Mr. Chairman.
    General Dunford, I join my colleagues in thanking you for 
your decades of distinguished service and now taking on this 
new challenge. I'd like to also take this opportunity to thank 
the folks at Hawaii's Kaneohe Bay. There are 10,000 marines, 
2,000 sailors, 4,000 family members, 1,400 civilian employees 
at Marine Corps Base Hawaii Kaneohe Bay. I certainly want to 
give a shout-out to them.
    You have been asked a question earlier about the January 1, 
2016, date to provide standards for the occupations within the 
Marine Corps for which all personnel, including women, will 
have the opportunity to compete. I just wanted to ask you, who 
in the Marine Corps is the lead person or persons coming up 
with these standards and where are you in this process?
    General Dunford. Senator, the lead person who approves 
those standards is General Amos, our Commandant. I know from my 
previous experience as the Assistant Commandant that he's been 
personally and decisively engaged in approving those standards. 
There's certainly a staff down at Quantico that works this for 
him. Our Training Command is involved, our Combat Development 
Integration Command is involved, but at the end of the day in 
our Service the Commandant is the one who approves the 
standards.
    Senator Hirono. Thank you.
    I think you also mentioned during your responses that 
training is very important, of course, to all of our Services, 
but to the Marine Corps. I understand that the availability of 
training ranges--and we have a big one on the Big Island called 
Pohakuloa Training Area (PTA). Could you share your thoughts on 
the importance of training ranges, especially as we rebalance 
to the Asia-Pacific?
    General Dunford. Senator, I can, and thanks for that 
question. In two previous assignments, I was involved in what 
we describe broadly as the Pacific laydown. One of the critical 
elements as we reviewed the laydown was to ensure that we had 
sufficient ranges where we can do the kind of combined arms 
integrated training that allows our Marine air-ground task 
force that are forward deployed to be successful in combat.
    It would not be an overstatement to say that training 
ranges, the opportunity to actually develop the skills of 
integrating combined arms, are inextricably linked to our 
success on the battlefield.
    Senator Hirono. We were told that the Marine Corps spends 
63 cents on the dollar to pay for benefits, health care, and 
other personnel costs. There is a challenge to balance 
readiness and personnel costs. If confirmed, how would you come 
up with this balance of personnel costs with readiness while 
meeting the mission requirements of the Marine Corps? What 
would be the questions you would ask to come up with this 
balance?
    General Dunford. Senator, first, I view all the money that 
we spend in the Marine Corps as going towards marines. Some of 
it is in the form of compensation. Some of it is in the form of 
ensuring that they have good equipment. Some is in the form of 
good training. Some goes to ensuring that the infrastructure 
that supports marines and their families is in good shape and 
provides the services necessary.
    I think your question is how would I balance it. I would 
consider each of those variables to deliver an effect, and that 
effect is that we would have the force in readiness that you 
expect your Marine Corps to be.
    Senator Hirono. I think the sense is that 63 cents of every 
dollar going to personnel costs is not necessarily the kind of 
balance that you would want to have in order to make sure that 
your readiness needs are met.
    General Dunford. Senator, there's no question. In fact, our 
procurement account, to put it in some context, is about 8 
percent in the current fiscal year environment. Clearly in a 
perfect world we'd have more money going towards modernization 
and we'd have more money going towards infrastructure. Those 
are the two bill-payers right now as we focus on assuring that 
our marines that are in the fight today and forward deployed 
have good equipment, have good training. The bill-payers have 
been our modernization account as well as our infrastructure 
account.
    Senator Hirono. My best to you in achieving the balance and 
meeting the needs of the marines.
    I want to turn to our force structure, because there are 
going to be a lot of questions asked about what is the 
appropriate mix for the Active and Reserve units in the Marine 
Corps. Other Services are having to ask those questions 
themselves. With the challenges to personnel drawdowns in the 
Marine Corps in the future, what do you believe will be the 
best approach to achieve a balanced force in both the Active 
and Reserve components of the Marine Corps?
    General Dunford. Senator, thanks for that question. I 
actually believe that over the past decade we've validated both 
the size, the organizational construct, as well as the method 
of employment of our Marine Reserve Force. I wouldn't see any 
significant changes. I do know that the Commandant now has 
chartered a group to review the capabilities and capacities 
inside our Marine Forces Reserve to make sure that we've 
properly incorporated the lessons learned, to make sure that we 
have the right mix of forces inside the Marine Forces Reserve.
    But we feel pretty comfortable that the overall size of the 
Marine Forces Reserve right now is just about right.
    Senator Hirono. This committee spent a lot of time on the 
issue of sexual assault in the military. You responded to a 
series of questions that have been put to you regarding the 
Marine Corps's efforts in combating sexual assault in the 
military and you noted that, while you're satisfied that you're 
proceeding ahead, but there is much more work to do.
    I wanted to ask you, based on the changes that we've made 
to the statutes that apply and the Marine Corps's own efforts, 
how would you determine the success or the effectiveness of 
what the Marine Corps is doing to, one, prevent sexual assaults 
and, two, when they occur to take appropriate action and 
prosecute?
    General Dunford. Thanks, Senator. I think the areas where 
I'm encouraged even from the outside looking at the Marine 
Corps and what they're doing is the changes in the command 
climate as it pertains to sexual assault. Both the surveys that 
have been conducted have indicated increased trust and 
confidence in Marine Corps in reporting sexual assault, 
confidence in the chain of command that proper action would be 
taken. The other statistic that is encouraging to me is the 
numbers of reported sexual assault, which, while it's 
increased, I think we all recognize that historically it has 
been underreported and so increased reporting over the last 
couple years is a positive step in the right direction.
    But with regard to your question, when will I be satisfied, 
I'll be satisfied when there's no sexual assaults. The effect 
that we're trying to achieve in establishing the command 
climate, the effect we're trying to achieve in ensuring that we 
have bystander training and bystander intervention, the effect 
we're trying to achieve to ensure that all marines are treated 
with dignity and respect, the results that we expect out of all 
of that and the results we expect from decisive leadership is 
that we won't have sexual assaults in the U.S. Marine Corps, 
and I think that's when we'd be satisfied.
    Senator Hirono. That's very commendable. My question had to 
do with, of course, as you go toward that goal of zero sexual 
assaults how are you going to make sure that that is happening 
and that you will continue to have a commitment to see those 
changes come about? I assume your answer is yes, that you will 
have a continuing commitment.
    General Dunford. Senator, I will. I think probably the key 
piece from my perspective is that it's all about commanders, 
it's all about leaders, it's all about standards, and it's all 
about holding people accountable to those standards.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hirono.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    General Dunford, to you and your family, you've done an 
extraordinary job in Afghanistan and every other assignment 
that you've taken on. The President chose wisely to make you 
the next Commandant of the Marine Corps and I think you will 
get an overwhelming vote in a bipartisan fashion because you've 
deserved it and you've earned it.
    To your family, thank you for your service to our country.
    As to Afghanistan: do you agree with me if there is a 
failure to get this election closed out in an acceptable 
fashion, where somebody acknowledges defeat, and there's a 
failure to form a unity government thereafter, no amount of 
American troops is going to make Afghanistan successful?
    General Dunford. I agree with that, Senator.
    Senator Graham. As a matter of fact, if that doesn't happen 
I'd be the first one to say to get the hell out of there. To 
the Afghans, in case you're listening, that's my view.
    Now, let's assume for a moment that that can all be 
accomplished, and I think it will. Two lanes: CT, train, 
advise, and assist, numbers. You're okay with the numbers in 
2015, is that correct?
    General Dunford. I am, sir.
    Senator Graham. You're okay with the regional approach 
being in place in 2015?
    General Dunford. I am, Senator.
    Senator Graham. Let's talk about what we lose over time. We 
have about 7,000 Special Forces types in the mix right now on 
the ground today?
    General Dunford. We do, Senator.
    Senator Graham. By January 2015, it will be 3,000?
    General Dunford. Approximately, Senator.
    Senator Graham. By January 2017, it will be basically zero.
    General Dunford. It isn't determined at this time, Senator.
    Senator Graham. Yes, it is. It is determined at this time. 
The President has announced he will go to a security 
cooperation force in 2017, or did I miss----
    General Dunford. No. Roger, Senator. If you're talking 
the----
    Senator Graham. I'm talking about the plan in place. I'm 
not talking about changing the plan. I'm talking about the plan 
the President has adopted.
    General Dunford. No, I understand.
    Senator Graham. You agree it will be virtually zero?
    General Dunford. Certainly close to that, Senator.
    Senator Graham. Okay. Now let's look at the threats we 
face. Do you see by the end of 2016 any reasonable possibility 
that the al Qaeda types--al Qaeda core, al Qaeda-affiliated 
groups, other groups that live and thrive on the Afghan-
Pakistan border--will be contained in such a fashion as to not 
represent a threat to the Homeland? Is that remotely possible?
    General Dunford. I don't see it at this time, Senator.
    Senator Graham. Your view is that the threat by the end of 
2016 that we face to the Homeland is going to be extinguished--
I could not agree with you more--but our CT forces will be, 
unless somebody changes this. Do you agree that's a high-risk 
strategy, given the likelihood of the threat?
    General Dunford. Unless it's mitigated by Afghan or 
Pakistan--
    Senator Graham. On paper it's a high-risk strategy?
    General Dunford. From a CT perspective.
    Senator Graham. Yes. Now let's talk about the delta to be 
filled in from 7,000 to zero. If you had to grade the Afghan-
Pakistan working relationship on anything, particularly 
counterterrorism, what grade would you give it?
    General Dunford. Today a D.
    Senator Graham. D. The difference between our 
counterterrorism capability and the Afghans', how would you 
rate that difference?
    General Dunford. Significant.
    Senator Graham. Yes. Okay.
    Now let's talk about the other aspect, train, advise, and 
assist. You were asked to evaluate the plan on paper and you 
said if everything works out well that by 2017 on the train, 
advise, and assist lane we might be okay?
    General Dunford. It would be possible to develop 
sustainability by that time.
    Senator Graham. Right. There's a lot of assumptions that 
have to be made and met; is that correct?
    General Dunford. There are, Senator.
    Senator Graham. Some of these assumptions are pretty 
enormous, right?
    General Dunford. There are significant assumptions.
    Senator Graham. To hit all the gates, would it be akin to 
kicking a 65-yard field goal?
    General Dunford. Senator, it would be difficult to hit all 
the gates exactly as we've outlined.
    Senator Graham. I think it would be kicking a 65-yard field 
goal into the wind. But that's just my two cents' worth.
    Now, this is on paper. My statement to the committee is 
that on paper there's a disaster in the making, to our Homeland 
and to losing all the gains we've fought for inside of 
Afghanistan, by drawing down too quick and not being able to 
help the Afghans in a reasonable fashion. If it does change, I 
will be the first to applaud the changes. But if it doesn't 
change, it is a complete absolute disaster in the making.
    As to political reconciliation between the two candidates, 
are you optimistic that this will work out?
    General Dunford. Senator, I am.
    Senator Graham. Are you optimistic that the Afghan people 
will continue to want us around?
    General Dunford. I'm absolutely optimistic about that.
    Senator Graham. There is absolutely no reason for any 
American politician to believe that we're not welcome to stay 
in Afghanistan?
    General Dunford. Senator, both presidential candidates, as 
well as the vast majority of the Afghan people, support the 
bilateral security agreement and a continued U.S. presence.
    Senator Graham. If al Qaeda is able to regenerate in this 
region and our CT presence goes down to virtually zero, would 
you expect an attack on our Homeland in the next 5 years?
    General Dunford. Certainly based on the intent of the 
enemy, I would, Senator.
    Senator Graham. A lot's at stake, right?
    General Dunford. There is, Senator.
    Senator Graham. Now, as we go into evaluating our force 
structure, what have we done to the Marine Corps in your 
opinion if we get back on the road to sequestration?
    General Dunford. Senator, as I've looked at what 
sequestration does to the U.S. Marine Corps, at a force level 
of 175,000 it really gets to the issues that we've talked a 
little bit about here this morning. It's an inability to 
balance the need to be ready for today's crises with the 
requirement to meet at least a minimum threshold of 
investigation for modernization, infrastructure, and other 
programs that support marines.
    I think you're really on a path, without overstatement, to 
use General Meyer's comment from the 1980s, you're really on a 
path to a hollow force. If you have sequestration and you 
maintain a Corps of 175,000 marines, I don't think there's any 
question about that.
    Senator Graham. Would you agree with me that Congress will 
have done more damage to the Marine Corps than any enemy that 
you could face on the battlefield?
    General Dunford. Senator, there isn't an enemy that has had 
much success against marines, so I would agree with that.
    Senator Graham. Thank you for your great service. I look 
forward to seeing you in the future.
    Chairman Levin. Thank you, Senator Graham.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    General, thank you very much for your service. You've done 
extraordinary work. I've had the privilege of being with you in 
Afghanistan and have seen first-hand what you've done.
    To your family, the time he spent there helped change the 
world for us. We know you missed him, but we were very grateful 
to have him there with us.
    Sir, as Commander of the Marine Corps, this past year--we 
are so impressed by what you've done and you're going to get an 
overwhelming vote. As you walk in, in the last year we lost 45 
marines to suicide. I think this is a critical issue. I hope 
you do. I was wondering your intention to work with your team 
to try to make a difference here.
    General Dunford. Senator, thanks for that question. I will 
be personally engaged in it, as I was as the Assistant 
Commandant for 2 years. I think it's fair to say that at the 
beginning of the war our understanding of mental health was 
rudimentary at best, and over the past decade we've learned 
quite a bit. I think one of the more encouraging things is the 
National Intrepid Center of Excellence that's been established 
up at Walter Reed to do really some great research into both 
traumatic stress and traumatic brain injury. In terms of mental 
health, we'll certainly be engaged in that.
    With regard to suicide, of course, there's other factors, 
because most of those suicides aren't related to the combat 
experience. But we'll do all we can to ensure that we have 
leadership that recognizes the warning signs of suicide. We'll 
make sure that we have proper medical care available when those 
warning signs are identified, that the leadership gets marines 
to proper help. We'll continue to work at what is in effect a 
scourge.
    Senator Donnelly. One of the most disheartening things we 
saw in Iraq was that a lot of the generals who we had worked 
with, helped train, were replaced by, in effect, pals of the 
people in charge. As we look at Afghanistan, we're trying to 
learn from the lessons that we've seen in Iraq. We have 
Abdullah Abdullah, Ashraf Ghani. Obviously, President Karzai 
still has a great amount of influence.
    Obviously we think we have the right generals in place in 
the Afghan army now. Do you feel confident they can avoid that 
same type of situation, where talent and ability is taken out 
so they can have friends, in effect, come in?
    General Dunford. Senator, thanks. Confident, but not 
complacent, in that particular area. Both candidates have made 
a commitment to pick the right people in the security 
ministries. I thought one of the more encouraging things that 
came out of this weekend's discussion is that, of the many 
areas they talked about in terms of the political track and the 
accommodation they would make, one of them was to stabilize the 
leadership inside the ministry of defense and ministry of 
interior during the transition. They both recognized the 
importance.
    I know from Dr. Ghani, he was my counterpart during 
transition last year, and he certainly recognizes the 
importance of selecting the right leadership inside the 
security ministries. I've had enough conversations with Dr. 
Abdullah's people where I think he recognizes the same.
    It won't be that we won't have a patronage network that has 
an effect on appointments inside of Afghanistan. That will be 
the case for some time to come. But what we have today in the 
form of the corps commanders, brigade commanders, and other key 
leaders and also inside the ministry of interior with our 
police leadership is a recognition by senior leadership that, 
while they may have some other factors besides merit that would 
cause people to be selected for senior leadership positions, 
there has to be a foundation of merit for each of the 
appointments that are being made.
    I'm encouraged by that, but that's certainly something that 
the next Government of Afghanistan is going to have to continue 
to emphasize and focus on.
    Senator Donnelly. You had a very specific assignment with 
Afghanistan, and now as Commandant of the Marine Corps, 
obviously all over the world. As you look at this, through your 
experience, where do you see the biggest threat to our country 
right now, the greatest source of potential danger to an attack 
here and where it would be coming from?
    General Dunford. Senator, I think the greatest challenge 
today is the numbers of failed and failing states that provide 
sanctuary for extremists who create a threat to this country. 
Of course, it's not any longer geographically focused. It's 
focused in all those areas where the enemy has the space within 
which to plan and conduct operations against the West. I think 
that's certainly at this point the most critical near-term 
threat to our security.
    Senator Donnelly. Have you seen any indication--for 
instance a group like ISIS, they're involved in Iraq. But is 
it, from everything you've seen, do they still cast an eye 
toward over here, toward coming after us as well?
    General Dunford. Senator, I think the very change that they 
made to their name indicates the risk that's greater than Iraq. 
They've changed their name to the ``Islamic State'' and 
declared a caliphate inside of Iraq, which clearly reflects 
aspirations for operations globally.
    Senator Donnelly. To go back to Afghanistan for a second, 
we've seen Pakistan pushing harder in the tribal areas, trying 
to go after a lot of the Pakistan Taliban. How has the effect 
of that been on Afghanistan? Has it pushed more over into the 
region that you've been in charge of or that you've been 
working with the Afghans on? Or how do you see that long-term 
having an effect?
    General Dunford. Near-term, Senator, we have seen a large 
number of refugees. The estimates are probably between 70,000 
and 100,000 refugees. We're also certainly aware of enemy 
forces moving from Pakistan into Afghanistan. We've had a 
disruptive effect on the extremists that were in North 
Waziristan. There's a positive effect as well as those 
challenges of the enemy moving to Afghanistan.
    I think what remains to be seen and what we're watching 
very closely is, what will Pakistan do as these groups start to 
move back towards North Waziristan. We have a commitment from 
our Pakistani counterparts right now that they will not allow 
groups like Haqqani to come back, and they've taken visible 
measures to destroy the infrastructure of Haqqani in Miranshah 
and North Waziristan as a whole. But frankly, that's something 
that I think is to be determined, and we're watching that very 
closely. I think it's going to require that we stay engaged 
with our Pakistani counterparts to ensure that that does not 
happen again.
    Senator Donnelly. One final question is, what do you think 
will be your greatest challenge in inheriting this position as 
you move forward?
    General Dunford. Senator, I think the greatest challenge is 
going to be to continue to provide a ready force of marines to 
the country today and at the same time make the kinds of 
decisions and the kinds of investments that ensure that we have 
a ready Marine Corps tomorrow.
    Senator Donnelly. Thanks again. You've been an inspiration 
to not only marines, but to our servicemembers all over the 
country, and to us as well. We're very, very proud of your 
work.
    General Dunford. Thank you, Senator.
    Chairman Levin. Thank you, Senator Donnelly.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    General, thank you for being here, thank you for your 
testimony, and thank you for your service to our country.
    I'd like to ask you questions about several national 
security threats across the globe, starting with what you and 
Senator Donnelly were just discussing, which is the situation 
with ISIS. Right now in Iraq, roughly how many Americans are on 
the ground in Iraq, both civilian and military?
    General Dunford. Senator, I'm not sure how many exactly. I 
think it's somewhere short of a thousand.
    Senator Cruz. How would you characterize our ability right 
now to ensure the safety of those Americans?
    General Dunford. I'm confident that General Austin, the 
Commander of the U.S. Central Command, who I speak to several 
times a week, has taken proper measures to provide force 
protection for those forces and in the environment that he's 
put them in he's made sure that there's measures to mitigate 
the risk to the force. Certainly a dangerous combat 
environment, always a risk. But I'm also confident in General 
Austin's leadership that he's done all he can to mitigate that 
risk.
    Senator Cruz. What about the American civilians who are in 
Iraq? What is our ability to ensure their safety?
    General Dunford. Senator, at this time I'm not aware of our 
capacity to actually provide security for the civilians that 
are in Iraq, unless you're talking about U.S. Government 
civilians, in which case they're certainly part of the whole 
comprehensive force protection plan on the ground for both our 
diplomatic personnel as well as our uniformed personnel.
    If you're talking about people that are there in a private 
capacity, then I think our ability to provide security to them 
on a day-to-day basis is fairly limited.
    Senator Cruz. To what extent is our ability to maintain 
security both for civilian and military personnel dependent 
upon the Shia militia that are there?
    General Dunford. Senator, I think the security conditions 
in Iraq as a whole are absolutely linked to the political 
process and the viability of the government. That's, I think, 
how we get in the situation we're in. It's a manifestation of a 
lack of inclusive government and political challenges that 
spilled over into security. I think it shows the inextricable 
link between stability and security as well as viable 
governance.
    Senator Cruz. General, I will share with you I am deeply 
concerned about our ability to protect the Americans who are 
there, particularly as the situation seems to be deteriorating 
and we find ourselves between two implacable foes: ISIS, who 
are so extreme that they were thrown out of al Qaeda, which is 
a pretty remarkable feat, and who have expressed an open desire 
to attack and kill Americans; and on the other side the Islamic 
Republic of Iran, who likewise are rabidly anti-American and 
have the same desire.
    What nobody wants to see is a reprise of what we saw in the 
late 1970s, another hostage situation of Americans who find 
themselves in an incredibly hostile situation where enemy 
forces capture Americans and hold them hostage. Number one, I 
would certainly urge you and urge your colleagues in the 
military to continue doing--and I know you're endeavoring to do 
this--but to continue doing everything humanly possible to 
prevent against such a situation and to do everything we can to 
mitigate the risks of it spiraling out of control so that 
American citizens are not caught between two warring factions 
and trapped in a place from which we have no ready exit.
    General Dunford. I'll do that, Senator.
    Senator Cruz. Let's shift to a neighboring country which is 
very much involved right now in what's happening in Iraq, and 
that is Iran. In your military judgment, how significant of a 
threat would you characterize the possibility of Iran acquiring 
nuclear weapon capability?
    General Dunford. I think that would be extraordinarily 
significant, Senator.
    Senator Cruz. In your judgment, what would happen if Iran 
were to acquire nuclear weapons capability?
    General Dunford. I think they would use the leverage of 
nuclear weapons to meet their expansionist objectives and 
destabilize the region.
    Senator Cruz. If, God forbid, Iran were to acquire nuclear 
weapons and if, God forbid, they were to make the second 
decision of being willing to use those weapons, based on the 
radical religious extremism that motivates so-called Supreme 
Leader Khamenei and the mullahs in Iran, in your view how much 
damage could Iran do to America or her allies if Iran was 
willing to use nuclear weapons to maximize the damage?
    General Dunford. Senator, it would be hard for me to 
envision how they may use those or what might happen. But I can 
say that clearly that would be a threat to our vital national 
interest, which is the protection of the Homeland and the 
people of the United States.
    Senator Cruz. If Iran, say, were able to use a nuclear 
weapon launched from a ship offshore of the United States into 
the atmosphere to create an electromagnetic pulse (EMP) on the 
eastern seaboard, what would the impact be to this country?
    General Dunford. Any nuclear weapon that would go off in 
the United States would have a horrific effect on people.
    Senator Cruz. An EMP in particular, how would that impact 
the civilian population if an EMP were detonated in the 
atmosphere above the eastern seaboard?
    General Dunford. An EMP would essentially shut down our 
communications network, would be one of the more significant 
outcomes of EMP.
    Senator Cruz. Would there be additional impacts in terms of 
transportation, in terms of distribution of food, in terms of 
distribution of basic means for survival?
    General Dunford. All those things, Senator, are impacted by 
our ability to communicate. My expectation is that all of them 
would be adversely affected.
    Senator Cruz. Let me finally shift to Afghanistan. How 
significant would you characterize the threat right now of 
radical Islamic terrorism both in Afghanistan and in 
neighboring Pakistan?
    General Dunford. We are managing the threat to the Homeland 
now as a result of the pressure that we're putting on the 
networks, so I believe we are at moderate risk as a result of 
the extremists in the region. But again, that risk is assessed 
in the context of the force that we have on the ground inside 
of Afghanistan and our efforts with Pakistan.
    Senator Cruz. The final question on exactly that point: If 
we proceed with the plan that the President has laid out in 
2016 to drop our forces to roughly a thousand in and 2017 to 
drop it to zero, what will be our capacity to engage in 
counterterrorism to limit the threat from the radical Islamic 
terrorists in that region?
    Senator Cruz. The tools that we'll have available to deal 
with or to conduct counterterrorism in 2017 in the scenario 
that you've outlined is the will and capacity of Pakistan and 
the will and capacity of Afghanistan.
    Senator Cruz. We would be dependent on their forces and 
unable on our own to defend ourselves from terrorist threats 
emanating from that region?
    General Dunford. Again, Senator, if you're projecting a 
threat and you're projecting that we would not have any forces 
there, then we would be dependent on Afghanistan and Pakistan.
    Senator Cruz. That is a deeply troubling scenario.
    Thank you, General.
    Chairman Levin. Thank you, Senator Cruz.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Welcome, General. I want to talk a little bit about gender 
integration. If confirmed, what is your goal with regard to 
combat integration into the Marine Corps?
    General Dunford. Senator, I'm aware of the direction that 
Secretary Panetta put forth in February 2013. Since that time 
General Amos has outlined a deliberate, a responsible, and a 
measured approach. There's analysis ongoing right now that 
would inform any recommendations for an exception to the 
direction that Secretary Panetta outlined in February 2013. I'm 
aware that that recommendation would have to be made by January 
2016, and any recommendation that I make would be informed by 
the research that's being done and by the impact on the combat 
effectiveness of the Marine Corps.
    Senator Gillibrand. Is the research that you're referring 
to the review of creating gender-neutral standards that reflect 
the physical needs of the task?
    General Dunford. That is a piece of the research that's 
being done, Senator.
    Senator Gillibrand. If confirmed, do I have your commitment 
to keep my office apprised of how that review is going and what 
the time line for integration is and whether there will be any 
exceptions?
    General Dunford. You do, Senator.
    Senator Gillibrand. What phase of implementation is the 
Marine Corps in now? What is your expected time line?
    General Dunford. Senator, I would have to get back to you. 
I know that we're prepared to make a recommendation by the 
deadline of January 2016. I know the Marine Corps has just 
initiated an integrated task force that will in part inform any 
recommendation for exceptions to policy. I believe we're on 
path to make a recommendation by the deadline, but I'm not 
sure----
    Senator Gillibrand. I thought the deadline was to actually 
have integration completed by January 2016.
    General Dunford. Senator, my understanding was that the 
recommendation was due by January 2016. But I'd ask to take 
that for the record and get back to you.
    Senator Gillibrand. Okay, that would be helpful.
    [The information referred to follows:]

    Please see attached letter.
      
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Gillibrand. Turning to Afghanistan, we've seen a 
few difficulties with regard to the Afghanistan presidential 
election. Do you believe that's going to have an impact in our 
post-2014 planning, and if so how?
    General Dunford. Senator, if we did not have successful 
political transition, an effective political transition, it 
would have a significant impact on our post-2014 presence. But 
I would quickly add that right now, in the wake of the 
agreement made over the weekend and where we are in fact, I'm 
happy to report that we started collecting ballots yesterday 
and our forces are currently supporting the auditing of all the 
ballots, that we're on a path to have effective political 
transition and, frankly, in a positive sense, effective 
political transition I think will increase the prospects of our 
success in a post-2014 environment.
    Senator Gillibrand. What do you think the major challenges 
will be for the next commander of the ISAF?
    General Dunford. The major challenges, Senator, will be to 
address the capability gaps that the Afghan security forces 
have right now. First is what I broadly describe as ministerial 
capacity. That's the ability for the ministries to do the 
planning, the programming, the budgeting, the acquisition 
necessary to support tactical-level organizations, so that they 
have the spare parts and the ammunition and the pay and those 
things that will allow them to be sustainable.
    The second capability gap that exists is in the aviation 
enterprise, and we still have a couple years to go before we 
complete the aviation enterprise. We have a number of pilots 
now that have been trained, a number of aircraft that have been 
delivered, but the overall enterprise requires additional work.
    The third capability gap is the intelligence enterprise. 
Much of the intelligence that the Afghans have had available to 
them over the last few years has been a result of the coalition 
providing them with that intelligence, and so their organic 
capability to produce and have intelligence drive operations is 
another capability gap area.
    Then the fourth area that I think my successor would have 
to focus on would be their special operations capability, which 
obviously are inextricably linked as well to that aviation and 
intelligence capability.
    Those four areas are the areas I think of primary focus for 
a post-2014 presence.
    Senator Gillibrand. Do you think there's any lessons we 
could learn from Iraq in terms of our withdrawal there that we 
could apply to Afghanistan? Is there any lessons learned that 
we should be mindful of?
    General Dunford. Senator, I do. I think there's a 
significant lesson learned, and that is the need to do a 
transition to develop sustainable Afghan forces and to oversee 
the establishment of effective governance, as opposed to 
withdrawal. I think our withdrawal in Iraq did not allow us the 
time to develop sustainable Iraqi forces and to provide the 
environment within which effective governance would develop.
    Senator Gillibrand. Now, in terms of our drawdown in 
Afghanistan, what do you think the impact will be on the 
region? Do you think it will undermine our ability to do 
antiterrorism work? Will it undermine any other broader 
security interests?
    General Dunford. Senator, in 2015, the force that we have 
envisioned that will conduct both train, advise, and assist for 
the Afghans as well as counterterrorism operations, I think 
actually will have a stabilizing effect on the region. Most of 
the regional actors, probably less Iran have encouraged the 
United States to maintain a presence in 2015, and I think the 
size force that we have in 2015 will allow us to accomplish 
those two tasks that I just outlined. But they will also 
contribute to a positive psychology in the region and a 
confidence that Afghanistan will not deteriorate.
    Senator Gillibrand. What are your largest concerns in the 
region right now?
    General Dunford. The single biggest concern I have right 
now is probably the sanctuary that al Qaeda has in----
    Senator Gillibrand. In Iraq?
    General Dunford.--in Pakistan.
    Senator Gillibrand. Oh, in Pakistan.
    General Dunford. When you talk the region writ large--I of 
course, Senator, was focused strictly on Afghanistan and 
Pakistan. But clearly, if you look at the region as a whole 
you'd have to be concerned with what's going on in Iraq today 
as well as what's going on in Iran.
    Senator Gillibrand. With regard to Pakistan, what would 
your recommendations be? Pakistan has been so difficult to work 
with. They really have been reluctant to do missions we've 
asked them to do, to crack down on terrorist networks when we 
find them. They're very unwilling partners. What would your 
recommendation be to the President on how best to address the 
terrorism concerns in Pakistan?
    General Dunford. Senator, I don't think any of us have an 
easy answer to Pakistan other than continued engagement and 
engagement based on support that we would provide with regard 
to specific conditions that have to be met. I do believe that 
Pakistan recognizes that extremism is an existential threat to 
Pakistan. I think they lack the capacity to deal with that 
threat completely. I don't personally see any alternative other 
than continued engagement with Pakistan to assist them in 
dealing with those problems inside of Pakistan, as well as to 
contribute to regional stability.
    I think we've seen what we did in the 1990s when we 
isolated Pakistan in the wake of the Pressler amendment, which 
is the other alternative we could take at this particular time, 
and I don't think the results of our disengagement in the 1990s 
would cause us to want to go back to that. I think continued 
engagement would be what I'd recommend to the President, with a 
very clear framework within which we would have a partnership.
    Senator Gillibrand. Thank you. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Just a couple questions for me. In terms of the 
counterterrorism after 2016, you indicated we would be 
dependent upon Afghanistan and Pakistan in that area. Does that 
answer not assume that none of the thousand or so people that 
we would have at the embassy would have a counterterrorism 
mission? Does it not also assume something else, which is that 
we would not have a Central Intelligence Agency (CIA) 
capability in that area?
    General Dunford. Mr. Chairman, thanks for the opportunity 
to clarify on the 1,000. As I made an effort to say earlier, 
unsuccessfully, some number of those would be involved in 
counterterrorism, I would assume. But more importantly, those 
thousand that might be envisioned in the embassy in 2017 would 
also be contributing to Afghan security force counterterrorism 
capacity. One of the key tasks after 2017 would be continued 
development of those key elements of their special operations 
capability, the aviation and intelligence being two of the more 
important.
    Chairman Levin. In terms of the possibility of CIA 
capability in that area?
    General Dunford. Mr. Chairman, I don't know what the CIA 
would envision. We certainly know that unless there was a 
different laydown of forces in Afghanistan in 2017, they 
wouldn't have any significant bases in Afghanistan in 2017, I 
think is the President's plan right now.
    Chairman Levin. But some of the thousand could be assisting 
them in a counterterrorism effort if they so decide?
    General Dunford. If we have joint special operations 
capability there, I'd assume, Mr. Chairman, that they'd be 
operating in a collaborative manner with other elements of the 
government.
    Chairman Levin. That could be part of the thousand as well?
    General Dunford. Part of the thousand could be in support 
of the other elements of the U.S. Government, yes, Mr. 
Chairman.
    Chairman Levin. There was a statement Senator McCain heard 
from some Afghan military leaders that they feel abandoned by 
us. That's not the sense I got from Afghan military leaders. I 
got the sense that, obviously, they'd like us to stay for a 
much longer period of time, but they are very grateful, number 
one; and that they feel that they have a capability going 
forward. I sense some sense of disappointment, obviously. We're 
their brothers in a lot of ways, but that they also feel a 
strong and capable as well.
    How would you describe the Afghan military leaders in terms 
of their feelings towards us?
    General Dunford. Mr. Chairman, in the wake of the 
announcement some were obviously disappointed that it was not 
longer. But the truth of the matter is that on a day-to-day 
basis right now the Afghan leadership is a lot more focused on 
the security challenges in 2014 and working with us to develop 
sustainable forces in 2015. But it's not a topic of routine 
conversation with our Afghan counterparts right now.
    Chairman Levin. You're talking about the military 
counterparts?
    General Dunford. I'm talking about the military 
counterparts specifically, Mr. Chairman.
    Chairman Levin. Thank you.
    Yes, Senator King.
    Senator King. A quick question and an observation, Mr. 
Chairman.
    The question is: General, how long were you in Afghanistan? 
How long was your assignment?
    General Dunford. Senator, I'm still there. I've been there 
18 months.
    Senator King. When would you, if confirmed, when would you 
make the transition to Commandant?
    General Dunford. Senator, I think probably sometime this 
fall.
    Senator King. Mr. Chairman, this is a thought that's 
crossed my mind several times during these hearings, but it's 
really come into focus today. This man is one of the most 
capable, intelligent, proven successful commanders that I've 
ever worked with or seen. More importantly, he has tremendous 
experience in Afghanistan. Any management system that 
arbitrarily moves somebody out of a job after 19 months, given 
what he knows and experience--and I'm sorry to his good wife; 
don't worry, I'm going to vote to confirm him--that's nuts. 
That's a crazy management system.
    This is one of the most important jobs in our country right 
now and we're taking a guy who really knows how to do it and 
has learned how to do it and the experience goes away. I just 
think this is something the committee ought to talk about. I 
understand the goal of the military of turning over assignments 
and not having people get stale and those kinds of things. But 
to get to the level that he's gotten to and with his 
leadership, I just think it's a management mistake to 
arbitrarily say, okay, no matter how well you're doing, no 
matter what your experience is, we're going to move you on. I 
just want to make that observation.
    Thank you.
    Chairman Levin. Thank you. I think that's intended to be 
and is, obviously, a huge compliment to you, General Dunford. 
While probably your predecessor, we could have said the same 
for him because he also had that huge experience which we 
didn't want to lose, nonetheless you came and provided amazing 
capability and competence. Your successor will as well in 
Afghanistan. We have confidence in General Campbell.
    General Amos has been a fabulous Commandant and his 
successor, who I'm looking at right now, will add another 
extraordinary chapter to Marine Corps history.
    What you're raising, Senator, is a fascinating issue. I 
don't have an easy answer to it other than so far we've seen a 
succession of amazing commanders in Afghanistan. I won't say 
we've lucked out because I think the system has produced those. 
It's not a matter of luck; it's a matter of real, intense 
effort to have a system which produces great leaders, and we've 
done that.
    It's sort of ironic, however, to be looking at a general 
who has done an amazing job--and you and I have seen that 
first-hand--in Afghanistan. But on the other hand, I have at 
least the next set both in Afghanistan and as the Commandant. I 
think this amazing capability, competence, loyalty, patriotism 
to our country will continue. I know your experience in 
Afghanistan is not going to be lost in any event. It's going to 
be very much available.
    What Senator King is raising is a very interesting issue, 
which perhaps in other circumstances we would have to say, 
well, whoops, is this really what we want? I think in the 
current circumstance at least, as Senator King says, he's going 
to be voting very affirmatively for you, for your confirmation, 
as I think every member of this committee will. The compliment, 
though, which he just paid to you is intended to be exactly 
that, which I think all of us feel about you. What he just said 
is a huge compliment to you and to the Marine Corps, and also 
to the system which produces leaders such as yourself.
    We thank you, your family. We look forward to a 
confirmation which is timely so that General Amos, who deserves 
a great successor, will have one quickly and General Campbell 
can take his job, his responsibility, over.
    We will stand adjourned.
    [Whereupon, at 11:46 a.m., the committee adjourned.]

    [Prepared questions submitted to Gen. Joseph F. Dunford, 
Jr., USMC, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I don't see a need for modifications at this time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commandant of the Marine Corps?
    Answer. Section 5043 in title 10 of U.S.C. clearly prescribes the 
duties and functions of the Commandant of the Marine Corps. The 
Commandant, subject to the authority, direction, and control of the 
Secretary of the Navy, leads the recruiting, training, organizing, and 
equipping of the Marine Corps to support military operations by 
combatant commanders. As a member of the Joint Chiefs of Staff, the 
Commandant is responsible for advising the President, the National 
Security Council, the Homeland Security Council, and the Secretary of 
Defense.
    Question. What background and experience, including joint duty 
assignments, do you possess that you believe qualifies you to perform 
these duties?
    Answer. I have served in a variety of key service and joint 
assignments within the Department of Defense that I believe qualify me 
to perform the duties of Commandant. I have commanded marines from the 
platoon-level to the Marine Expeditionary Force and currently lead our 
joint and coalition partners as the Commander of both U.S. Forces and 
the International Security Assistance Force in Afghanistan. In addition 
to these leadership assignments, I have served as the Vice Director of 
Operations for the Joint Staff, the Deputy Commandant for Plans, 
Policies, and Operations, and the Assistant Commandant of the Marine 
Corps.
    Question. Do you believe that there are any steps that you need to 
take to enhance your ability to perform the duties of the Commandant of 
the Marine Corps?
    Answer. If confirmed, I will continue to study and seek to better 
understand the full range of issues affecting the Marine Corps and our 
broader national security.
                    major challenges and priorities
    Question. In your view, what are the major challenges that will 
confront the next Commandant of the Marine Corps?
    Answer. The major challenges that will confront the next Commandant 
of the Marine Corps include supporting marines at war in Afghanistan, 
ensuring the Marine Corps remains ready to immediately respond to any 
other crisis or contingency, all while balancing the need to modernize 
for tomorrow's crises and contingencies. It will be particularly 
important that the next Commandant ensure that the Marine Corps 
maintains and continues to develop the expeditionary and amphibious 
capabilities the Nation requires of its Corps of Marines. This will 
require making difficult decisions in a period of fiscal austerity.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work with the Secretary of the Navy, 
the Chief of Naval Operations, and Congress to ensure that the Marine 
Corps is properly resourced to meet both today's and tomorrow's 
challenges.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Commandant of the 
Marine Corps?
    Answer. If confirmed, I will emphasize the need to maintain high 
quality, well-trained marines and a high state of readiness. The first 
priority will be to provide those marines in harm's way with all that 
they need to fight and win. I will also continue to build on the superb 
foundation established by the current and former Commandants in 
professional military education, junior leader development, wounded 
warrior programs, and family readiness. I will also prioritize the 
development and fielding of capabilities that will ensure that the 
Marine Corps remains a relevant, naval, expeditionary force-in-
readiness in the context of the 21st Century Strategic Landscape.
              role of the marine corps in counterterrorism
    Question. What do you see as the Marine Corps' role in countering 
the threat of international terrorism?
    Answer. The Marine Corps is the Nation's crisis response force and 
stands ready to counter the full spectrum of threats to national 
security including international terrorism. Our perennially forward 
deployed Marine Expeditionary Units (MEU), as well as our newly-
developed Marine Air/Ground Task Forces-Crisis Response (MAGTF CR), 
stand ready to counter terrorist threats and respond to instances of 
terrorist attack. In addition to these formations, the Marine Corps 
Security Force Regiment is a dedicated security and anti-terrorism unit 
that supports high-value naval units and facilities. It maintains 
specially trained Fleet Anti-terrorism Security Teams (FAST) in a high 
state of readiness to prevent or respond to terrorist threats 
worldwide.
    The Marine Corps also provides the U.S. Special Operations Command 
with highly trained Critical Skills Operators from the Marine Corps 
Special Operations Command that are uniquely capable of supporting the 
fight against international terrorism.
    Question. What role do you envision for the Marine Corps in 
homeland security and homeland defense?
    Answer. The defense of the Homeland begins on far shores as part of 
a collaborative interagency defense-in-depth. The primary contribution 
of the Marine Corps is to protect the homeland by being forward 
deployed and forward engaged to shape the environment and respond to 
crises before the Homeland is threatened.
    When and if directed by the President or Secretary of Defense, the 
Marine Corps uses its Active Duty and Reserve Forces to rapidly respond 
to natural disasters or other threats against the homeland
    Question. If confirmed, do you plan any major changes to Marine 
Corps warfighting doctrine?
    Answer. If confirmed, I do not plan any major changes to Marine 
Corps warfighting doctrine. I believe it is fundamentally sound. I do 
believe we can and should make evolutionary changes as we internalize 
the lessons learned from the last decade of crisis and contingency 
response and as changes occur in the strategic landscape.
                       u.s. forces in afghanistan
    Question. The United States has been negotiating a Bilateral 
Security Agreement (BSA) with Afghanistan which would provide the 
framework for some U.S. forces remaining in Afghanistan after the end 
of 2014. President Obama has announced that, assuming a BSA is signed, 
the United States is prepared to retain 9,800 troops in Afghanistan 
after the International Security Assistance Force (ISAF) mission ends 
in December of this year. The President also announced that by the end 
of 2015, that U.S. military presence would be reduced by roughly half, 
and by the end of 2016, the United States would draw down its military 
personnel in Afghanistan to a normalized Embassy presence with a 
security assistance office.
    Do you support the President's decision on a continuing presence 
for U.S. forces in Afghanistan after 2014?
    Answer. Yes.
    Question. Do you support the pace of the drawdown of the U.S. 
military presence in Afghanistan between December 2014 and the end of 
2016, as announced by the President?
    Answer. Yes, with an understanding that we should continue to 
validate the assumptions and assess the conditions on the ground as the 
drawdown takes place.
    Question. Should the Marine Corps be supporting such a sustained 
deployment of forces if we continue a presence in Afghanistan?
    Answer. Yes.
             marine corps forces special operations command
    Question. Marine Corps Forces, Special Operations Command (MARSOC), 
is a subordinate component command to the U.S. Special Operations 
Command (SOCOM) established in 2005.
    What is your assessment of the progress made in standing up and 
growing MARSOC, and what do you consider to be the principal issues 
that you would have to address to improve its operations?
    Answer. I believe that MARSOC has become a highly effective and 
fully integrated part of the Special Operations Command. I have 
personally observed MARSOC's significant contribution to the campaign 
in Afghanistan. Also, the feedback I have received from leadership 
within the special operations community has been uniformly positive. 
Improving MARSOC will require continued emphasis on screening, 
training, personnel assignment policies, equipping, and the integration 
of MARSOC within the special operations community, with the MAGTF, and 
with other conventional forces.
    Question. The Marine Corps has a primary military occupational 
specialty for enlisted marines trained as special operators allowing 
these personnel to remain in MARSOC for their professional careers.
    Do you believe officers should have a similar opportunity as 
enlisted marines to serve the duration of their military career in 
MARSOC rather than rotating through the command as they do currently?
    Answer. I understand that the Commandant and Commander, SOCOM are 
in agreement that the current model of Marine officer assignment is not 
optimal. A joint Marine Corps-SOCOM assessment is in process to develop 
a more effective model. If confirmed, I will fully support that 
assessment and work with SOCOM to develop the most effective officer 
assignment policy.
                  effects of deployments on readiness
    Question. What is your assessment of the current state of readiness 
of the Marine Corps?
    Answer. I believe the Marine Corps has demonstrated its readiness 
over the past decade in responding to contingencies in Iraq and 
Afghanistan and to a wide range of crises across the world. That said, 
I know our home station readiness has been degraded as we have 
appropriately prioritized the readiness of those Marines who are 
forward deployed.
    Question. In your judgment, are combat operations in Afghanistan 
adversely affecting the readiness or retention of marines on active 
duty and in the Reserve component?
    Answer. The Marine Corps has preserved readiness of deploying and 
next-to-deploying units. This includes units and marines deploying to 
Afghanistan. I am not aware that combat operations in Afghanistan have 
adversely affected readiness or retention. Furthermore, Marine units 
assigned to Afghanistan have arrived prepared and ready for the 
mission.
    Question. If confirmed, what will be your priorities for 
maintaining readiness in the near term, while modernizing the Corps to 
ensure readiness in the out years?
    Answer. If confirmed, I will prioritize resetting Marine Corps 
equipment from the wear and tear of operations in Iraq and Afghanistan 
and restoring home station readiness. While near term readiness will 
remain the priority, I will work with the Secretary of the Navy and 
Congress to ensure that the Marine Corps is adequately resourced to 
deliver a ready Marine Corps tomorrow.
                        recruiting and retention
    Question. What do you consider to be the key to the Marine Corps' 
success in recruiting the highest caliber American youth for service 
and retaining the best personnel for leadership responsibilities?
    Answer. The key to Marine Corps' recruiting success is the 
continued focus on finding highly qualified young men and women who are 
seeking the challenge of serving their nation. Continued access by 
recruiters to high schools and colleges not only assures the 
opportunity to engage a diverse and quality market, but also a market 
with the proven mental abilities to serve in technically challenging 
fields. Another key component of our recruiting success is the Marine 
Corps' image of smart, tough, elite warriors. The time proven 
intangible benefits of service, pride of belonging, leadership, 
challenges, and discipline are what we offer. Those attributes are what 
allows us to remain America's Force in Readiness.
    Question. What steps do you feel should be taken to ensure that 
current operational requirements and tempo do not adversely impact the 
overall readiness, recruiting and retention, and morale of the Marine 
Corps?
    Answer. Effective recruiting will require that we continue to 
maintain a high quality and properly resourced recruiting force. I also 
believe sustaining an operational tempo of at least 1:2 will ensure 
that our readiness, retention, and morale remain high.
    Question. What is your assessment of current recruiting standards, 
particularly DOD-wide criteria for tier-one recruits, and their 
propensity to accurately predict minimal attrition and future success 
in military service?
    Answer. Existing DOD standards enable the Service to find young men 
and women who want to meet the challenge of becoming a U.S. marine. If 
confirmed, I will continue to monitor our recruiting and retention 
efforts.
    Question. What impact, if any, do you believe the Department's 
proposals aimed at slowing the growth of personnel and health care 
costs will have on recruiting and retention in the Marine Corps?
    Answer. If confirmed, I will carefully review the compensation 
reforms and the effects on recruiting and retention.
    Question. Do you believe that if Congress does not support these 
proposals, the resultant pressure on training and modernization 
resources could begin to harm retention?
    Answer. I believe that compensation reforms must be informed by the 
fundamental requirement to maintain our crisis response and warfighting 
capabilities. If confirmed, I will carefully review the compensation 
reforms and the effects on training, modernization, and retention if 
Congress does not support the reforms.
                         military compensation
    Question. What is your assessment of the adequacy of military 
compensation?
    Answer. The Marine Corps is meeting our recruiting and retention 
goals, and the current compensation package produces the force we need. 
If confirmed, I will continue to assess the adequacy of military 
compensation to ensure we recruit and retain the highest quality 
Marines.
    Question. What recommendations would you have for controlling the 
rising cost of personnel?
    Answer. Given the fiscal constraints on the Department of Defense, 
I believe that the compensation proposals put forward by the President 
in the 2015 budget request are reasonable measures to slow the growth 
in military compensation in order to strike a balance between personnel 
costs, training, and modernization that protects readiness.
    Question. Do you personally support the administration's 
compensation and health care proposals?
    Answer. Yes, I support these proposals. They slow the rate of 
compensation growth which is necessary for the Marine Corps to maintain 
readiness under current budget constraints. This budget achieves the 
necessary and appropriate balance in compensation, training, equipment, 
and modernization. It sustains the recruitment and retention of high-
quality personnel needed to defend our Nation, while still providing 
quality compensation and health care benefits to our servicemembers. If 
confirmed, I will continually assess compensation and health care to 
ensure that we continue to maintain the balance between compensation, 
training, equipment, and modernization.
    Question. As the Marine Corps has the highest percentage of 
servicemembers who leave after their first term, what is your 
assessment of the adequacy of compensation and benefits available for 
non-career servicemembers?
    Answer. By design, the Marine Corps is a young Service and 
purposefully retains fewer servicemembers at the first reenlistment 
decision point than the other Services. Today, we are meeting all of 
our recruiting and retention goals and the quality of the force is 
extraordinary. Based on that fact, I believe compensation and benefits 
for non-career servicemembers is adequate.
                         education for marines
    Question. An important feature of the Post-9/11 GI Bill is the 
ability of career-oriented servicemembers to transfer their earned 
benefits to spouses and dependents.
    What is your assessment of the effect of the Post-9/11 GI Bill on 
recruiting and retention of marines?
    Answer. I believe that the Post-9/11 GI Bill positively contributes 
to recruiting and retaining high quality marines.
    Question. In your view, what has been the effect of the 
transferability option on retention and career satisfaction of marines?
    Answer. According to Marine Corps surveys, for all non-retirement 
eligible marines who were required to make a fiscal year 2015 
reenlistment decision, 53 percent specifically indicated that the 
ability to transfer their benefits was an influence to stay in the 
Marine Corps.
    Question. How important do you believe tuition assistance benefits 
are to young marines, and what trends do you see in the Marine Corps' 
ability to pay for such programs at current levels over the FYDP?
    Answer. Post-secondary education is an important part of individual 
marines improving their personal and professional development. 
Encouraging well-qualified marines to utilize any and all resources to 
better themselves via education and training is part of the Marine 
Corps ethos. This leads to better marines and in turn better citizens. 
I understand that the Marine Corps is adequately funded to provide 
tuition assistance benefits to well-qualified marines.
    Question. What changes, if any, would you recommend to current 
eligibility criteria for tuition assistance?
    Answer. I believe the Marine Corps is properly executing the 
tuition assistance program and I have no recommendations to change 
current eligibility criteria.
             assignment policies for women in the military
    Question. The Department in January 2013, rescinded the policy 
restricting the assignment of women to certain units which have the 
primary mission of engaging in direct ground combat operations, and 
gave the military Services until January 1, 2016, to open all positions 
currently closed to women, or to request an exception to policy to keep 
a position closed beyond that date, an exception that must be approved 
by the Chairman of the Joint Chiefs of Staff and the Secretary of 
Defense. The Marine Corps continues to develop gender-free physical and 
mental standards for all military occupations, presumably with the goal 
of allowing individuals, regardless of gender, to serve in those 
positions if they can meet those standards.
    If confirmed, what role will you play in the development of these 
standards?
    Answer. If confirmed, I will be decisively engaged in the 
development of gender-free standards for all military occupations to 
ensure that we continue to field the most capable Marine Corps 
possible.
    Question. If confirmed, will you ensure that the standards are 
realistic and preserve, or enhance, military readiness and mission 
capability?
    Answer. Yes.
    Question. Do you believe that decisions to open positions should be 
based on military requirements? If so, what steps would you take to 
ensure that such decisions are made on this basis?
    Answer. Yes, and all of my recommendations to the Secretary of the 
Navy, Secretary of Defense, and Congress will be made in that context.
  relationship between staff judge advocate to the commandant of the 
     marine corps and counsel for the commandant, u.s. marine corps
    Question. How are the legal responsibilities of the Marine Corps 
allocated between the Staff Judge Advocate to the Commandant and the 
Counsel for the Commandant?
    Answer. The Staff Judge Advocate to the Commandant of the Marine 
Corps (SJA to CMC) is the senior uniformed legal advisor to the 
Commandant and Headquarters, Marine Corps staff and agencies. In 
particular, the SJA to CMC supervises and manages the practice areas of 
military justice, operational law, civil and administrative law, legal 
assistance, and ethics.
    As detailed in Department of the Navy policy (SECNAVINST 5430.7Q), 
the General Counsel of the Navy provides the Marine Corps with legal 
advice in the following areas: acquisition law, business and commercial 
law, real and personal property law, civilian personnel and labor law, 
fiscal law, environmental law, intellectual property law, ethics, and 
Freedom of Information Act and Privacy Act law.
    Question. Who has responsibility for providing legal advice on 
military justice matters in the Marine Corps?
    Answer. The SJA to CMC is responsible for delivering military 
justice advice to the Commandant of the Marine Corps and Headquarters 
Marine Corps. In all other commands throughout the Marine Corps, judge 
advocates, exercising the same independence required by the law, are 
the only individuals responsible for providing legal advice to 
commanders on military justice matters.
    Question. What is the role, if any, of the Counsel for the 
Commandant in the duty assignments of Marine Corps judge advocates?
    Answer. The Counsel for the Commandant has no formal role in the 
duty assignments of judge advocates. The assignment of Marine Corps 
judge advocates remains with the Commandant.
    Question. What is your view of the need for the Staff Judge 
Advocate to the Commandant to provide independent legal advice to the 
Commandant of the Marine Corps?
    Answer. It is essential that the SJA to CMC provide independent 
legal advice to the Commandant. The SJA to CMC's legal advice is 
independent because he is not subject to evaluation or supervision in 
the content of his advice from anyone other than the Commandant. 
Fundamental to the duty to provide independent advice is the need for 
that advice to be provided without any form of interference by others.
    Question. What is your view of the responsibility of Marine Corps 
judge advocates to provide independent legal advice to Marine Corps 
commanders?
    Answer. Like the SJA to CMC, Marine Corps judge advocates at all 
levels must be able to provide--and commanders must receive--
independent advice on the exercise of convening authority. Part of what 
gives Marine Corps judge advocates the ability to provide timely and 
accurate independent advice is their service as unrestricted line 
officers. The common culture and philosophy, gained through shared 
professional background, experiences and hardships, builds trust, 
credibility, and context between commanders and their judge advocates, 
improving both the quality and independence of that advice.
                            general officers
    Question. At the request of the Secretary of Defense, Congress 
included a provision in the Duncan Hunter National Defense 
Authorization Act for fiscal year 2009 that designated up to 324 
general and flag officer positions as joint duty assignments that are 
excluded from the limitation on the number of general and flag officers 
in each Service, and specified the minimum number of officers required 
to serve in these positions for each Service.
    What is your view of the merits of this provision and its impact on 
the Marine Corps?
    Answer. This provision allows expanded assignment opportunities for 
Marine Corps' general officers and the exemptions provided under 
section 526 provide increased flexibility for the Marine Corps and the 
Department to meet steady-state and emergent requirements. The ``Joint 
Pool'' enables us to satisfy the intent of the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 by improving 
unification, cooperation, and coordination between the Services and the 
combatant commanders in joint training and education and in the 
execution of military operations.
    Question. What impact has the implementation of this provision had 
on joint officer assignments of Marine Corps general officers?
    Answer. While the number of assignment opportunities has not 
increased by an appreciable number, the strategic approach to joint 
officer resource management has increased the variety of opportunities 
available. This has improved the quality of officers in the joint 
community. This ensures the development of well-rounded, more effective 
senior officers, which benefits the Department of Defense and Marine 
Corps.
    Question. In your view, does the Marine Corps have statutory 
authority for a sufficient number of general officers to meet mission 
requirements of the Corps and joint requirements?
    Answer. Yes, the numbers currently authorized are adequate for our 
current and future obligations and aligned with our future force 
structure plans.
    Question. The results of recent promotion selection boards for 
brigadier general have shown that a number of best qualified officers 
have not completed all requirements (i.e., joint professional military 
education, or joint tours of duty) before consideration by selection 
boards.
    What factors do you consider most important in the difficulty 
experienced by field grade Marine Corps officers in satisfying joint 
requirements for promotion?
    Answer. With the establishment a few years ago of the experience 
path to attain Joint Qualification, there is little difficulty for our 
best performing field grade officers to be fully qualified for 
consideration for selection to brigadier general.
    Question. Do you think that in today's operational environment that 
these requirements for promotion to O-7 should be modified?
    Answer. No.
    Question. What steps are being taken to ensure that officers who 
are competitive for promotion to general officer rank are able to 
fulfill all joint education and experience requirements?
    Answer. Field grade officers are assigned to Joint Duty assignments 
and to Joint Professional Military Education (JPME) II producing 
schools (War Colleges) based on their performance. Our most competitive 
officers are provided those assignments.
                      family readiness and support
    Question. Marines and their families in both the Active and Reserve 
components have made, and continue to make, tremendous sacrifices in 
support of operational deployments. Senior military leaders have warned 
of concerns among military families as a result of the stress of 
deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues in the Marine Corps, and, if confirmed, how would you ensure 
that family readiness needs are addressed and adequately resourced, 
especially in light of current fiscal constraints?
    Answer. The most important issues are providing timely and accurate 
communication to our marines and their families while properly 
resourcing the support functions on our bases and stations. If 
confirmed, I will ensure the Marine Corps remains committed to 
providing marines and families with a comprehensive and effective 
community based support system.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of deployments. These programs must be 
relevant and attractive to all eligible users, including active duty 
and Reserve personnel, retirees, and their eligible family members.
    What challenges do you foresee in sustaining and enhancing Marine 
Corps MWR programs, particularly in view of the current fiscal 
environment and, if confirmed, are there any improvements you would 
seek to achieve?
    Answer. Our greatest challenges are the fiscal realities of 
sequestration. If confirmed, I will ensure that we sustain priority 
programs that support the health, welfare, and morale of our marines 
and families. I will also maintain a dialogue with our marines and 
families to ensure that our MWR programs adapt to meet our highest 
priority needs.
                           suicide prevention
    Question. The numbers of suicides in each of the Services continue 
to be of great concern to the committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the Marine Corps to prevent 
suicide and increase the resiliency of marines and their families?
    Answer. Suicide prevention is a leadership issue. If confirmed, I 
am committed to continue to set the climate to eradicate the stigma of 
getting help for this behavioral health issue. Our leaders must be 
engaged and knowledgeable of resources available to address this issue. 
We must also know our marines and be alert to the signs that they need 
help. The resiliency of our marines and their families will remain a 
priority.
                       wounded warrior regiments
    Question. Servicemembers who are wounded or injured in combat 
operations deserve the highest priority from their service and the 
Federal Government for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from active duty if required, and continuing support beyond retirement 
or discharge. Despite the enactment of legislation and renewed emphasis 
over the past several years, many challenges remain.
    What is your assessment of the effectiveness of the Marine Corps 
Wounded Warrior Regiments in facilitating the treatment and management 
of wounded, ill, and injured marines?
    Answer. I am extremely proud of the Marine Corps' focus on Wounded 
Warrior Care. As Assistant Commandant of the Marine Corps, I carefully 
tracked the progress of our Wounded Warrior Regiment, and if confirmed, 
will continue to expect the best care for our wounded, ill, and injured 
marines.
    Question. If confirmed, are there additional strategies and 
resources you would pursue to increase service support for wounded 
marines, and to monitor their progress in returning to duty or to 
civilian life?
    Answer. If confirmed, caring for our wounded, ill, and injured 
marines and sailors will remain one of my highest priorities. During my 
time as the Commanding General of I MEF and Assistant Commandant of the 
Marine Corps, I worked with our Wounded Warrior Regiment leadership to 
ensure services were readily available to support our marines.
    If confirmed, I will seek counsel from the Medical Officer of the 
Marine Corps and other medical experts to ensure that we are 
proactively identifying symptoms, and addressing psychological health 
needs. I view this as a continuing commitment from the Marine Corps to 
its marines.
                 sexual assault prevention and response
    Question. The fiscal year 2013 Department of Defense Annual Report 
on Sexual Assault in the Military reflects that reports of sexual 
assault in the Marine Corps increased by 86 percent from fiscal year 
2012 to 808 reports of sexual assault in fiscal year 2013.
    What is your assessment of this report?
    Answer. The DOD Annual Reports on Sexual Assault provide us with 
comparative snapshots that allow us to measure progress across years. I 
will carefully assess the report and be prepared to provide further 
input to the committee.
    Question. What is your assessment of the problem of sexual assaults 
in the Marine Corps?
    Answer. Sexual assault has no place in our Corps. Sexual assault 
not only has a long-lasting effect on the individual victim, but it 
also erodes unit readiness and command climate. The Commandant has 
placed particular emphasis on this issue and put measures in place to 
eliminate sexual assault. If confirmed, I will build on the current 
foundation.
    Question. What is your assessment of the Marine Corps sexual 
assault prevention and response (SAPR) program?
    Answer. I see positive progress and indicators that the Marine 
Corps SAPR Program is going in the right direction. However, I also 
believe that there is still much work to do. We must continue to 
increase reporting and decrease prevalence. We need to emphasize 
prevention to include focusing on potential offenders, implore all 
marines to be active and responsible bystanders, and integrate the SAPR 
Program with other aspects of behavioral health. Marines must all work 
together to create an environment in which crimes of misconduct are not 
tolerated in any form.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. Protecting the victim of sexual assault is imperative. 
Though unrestricted reporting provides a bridge to offender 
accountability, I respect that some victims do not want an 
investigation about these intensely personal details. Restricted 
reporting is a vital resource for these marines, who may not otherwise 
come forward to access advocacy, medical, mental health, and legal 
services. I believe that giving victims access to the services they 
need is vital, regardless of how they report the crime.
    Question. What is your view about the role of the chain of command 
in providing necessary support to victims of sexual assault?
    Answer. I believe that the chain of command is invaluable to 
victims of sexual assault. Furthermore, commanding officers are 
responsible for setting positive command climates that not only help 
prevent the crime of sexual assault but that also provide a safe 
environment where victims feel confident coming forward to report. 
Without that initial trust and faith in their chain of command, victims 
may not report.
    The chain of command is absolutely critical in creating a climate 
that is non-permissive to sexual assault. The chain of command also 
ensures that victims are in a safe and non-retaliatory environment and 
facilitates access to all supportive services.
    Question. What is your understanding of the adequacy of Navy and 
Marine Corps resources and programs to provide victims of sexual 
assault the medical, psychological, and legal help they need?
    Answer. I understand that the Marine Corps provides and continues 
to expand each of these services, which aims to encourage more victims 
to participate in the military justice process. However, I fully 
understand that the true measure of the effectiveness of these programs 
is how well they meet the needs of the victim.
    Question. What is your view of the steps the Marine Corps has taken 
to prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. I believe the Marine Corps has taken the right steps to 
combat sexual assaults within its ranks, however much work remains. I 
am committed to confronting this crime.
    Question. What is your view of the adequacy of the training and 
resources the Navy and Marine Corps to investigate and prosecute 
allegations of sexual assault?
    Answer. I am encouraged by the progress the Marine Corps has made 
in many areas of victim response, but the goal must be to further 
improve these services so that more victims stay engaged in the process 
and, as a result, offenders are held accountable.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. I believe the role of the commander is central to sexual 
assault prevention within the military. The commanding officer of every 
unit is the centerpiece of an effective and professional warfighting 
organization. They are charged with building and leading their team to 
withstand the rigors of combat by establishing the highest level of 
trust throughout their unit.
    Commanding officers are responsible for setting and enforcing a 
command climate that is non-permissive to sexual assault, a climate in 
which the spirit and intent of the orders and regulations that govern 
the conduct of our duties will be upheld. There are a number of 
leadership styles, but the result of any of them must be a group of 
marines and sailors who have absolute trust in their leaders. Trust in 
the commander and fellow marines is the essential element in everything 
we do. Developing this trust, dedication, and esprit de corps is the 
responsibility of the commanding officer. They do this by setting 
standards, training to standards, and enforcing standards.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. Removal of commanders' convening and disposition authority 
will adversely affect good order, discipline, and combat effectiveness. 
The commander is responsible for everything the unit does and fails to 
do. This responsibility cannot be overstated. When a unit enters 
combat, success is directly dependent on the commander's ability to 
enforce his or her orders and standards. The commander's authority to 
refer charges to court-martial, especially for the most serious 
offenses such as sexual assault, is essential.
    Judge advocates outside the chain of command do not share the 
commander's responsibility for the unit, and have different priorities 
when determining what action to take in a particular case.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Marine Corps?
    Answer. I am encouraged by the progress the Marine Corps' has made, 
however there is much work to be done. If confirmed, I plan to sustain 
the momentum and progress of Marine Corps' SAPR efforts, and ensure 
that all marines are committed to preventing this crime.
    Question. What is your assessment of the effect, if any, of recent 
legislation concerning sexual assault on the capability of Marine Corps 
commanders to prosecute sexual assault cases, including cases where 
prosecution is declined by civilian prosecutors?
    Answer. I believe enhancing the commanders' ability to prosecute 
sexual assaults is a step in the right direction. I am also encouraged 
by the provisions granting victims of sexual assault the right to 
participate more fully in judicial proceedings against their 
assailants. I expect that these new rights will make victims of sexual 
assault more willing to participate in sexual assault prosecutions. 
Greater participation by victims will likely enable Marine Corps' 
commanders to refer more cases to court-martial because better evidence 
will support such referrals.
                            recapitalization
    Question. The Marine Corps intends to concurrently recapitalize 
several of its front line systems. The MV-22 Osprey tilt-rotor aircraft 
and the Joint Strike Fighter are both scheduled to be in production at 
the same time.
    Do you believe that these production plans are realistic in light 
of the demands on resources imposed by maintaining current readiness?
    Answer. I understand the current production plans are realistic. I 
believe these platforms are vital to support marines on the 
battlefield.
    Question. Do you believe that these modernization programs will 
survive unless Congress amends the Budget Control Act to eliminate or 
reduce the effects of sequestration for fiscal year 2016 and beyond?
    Answer. I understand that sequestration will increase risk across 
all Marine Corps' modernization efforts.
    Question. Is it your understanding that MV-22 readiness rates in 
Iraq, Afghanistan, and in the U.S. have achieved desired levels?
    Answer. In my current assignment I have been incredibly pleased 
with the performance of the MV-22. They have demonstrated readiness 
levels sufficient for combat missions in Afghanistan. I understand that 
readiness rates in the United States are slightly lower, but sufficient 
to meet our requirements.
    Question. In your view, will the MV-22 be sustainable over time at 
an acceptable cost?
    Answer. Yes. If confirmed, I will seek to continue the trend in 
reduced operating costs.
                   army and marine corps capabilities
    Question. What are your views regarding the joint development and 
acquisition of Army and Marine Corps equipment?
    Answer. In my experience, the Marine Corps and the Army collaborate 
whenever our mission profiles converge. From a business perspective, 
collaboration leverages significant Army fiscal, manpower, and test 
resources in the refinement of operational capabilities requirements 
and the research, development, and acquisition of technical solutions 
to meet those requirements. Long-term benefits include lower average 
unit costs for both Services.
    Question. Do you believe the Joint Staff should have a role in 
synchronizing Army and Marine Corps requirements and service programs?
    Answer. The Army and Marine Corps Board (AMCB) works at every level 
to make sure both Services collaborate on best practices. I believe the 
AMCB provides sufficient oversight to synchronize requirements and 
programs.
    Question. What programs would you consider to be candidates for 
joint program development for the Army and Marine Corps?
    Answer. I do not have any recommendations to provide at this time.
                modernization of amphibious capabilities
    Question. The Marine Corps' current concepts for modernization of 
its amphibious capabilities includes ships, ship to near-shore or shore 
connectors--such as the LCAC--and armored amphibious combat vehicles. 
Modernization across these systems is complex, technically challenging, 
and potentially unaffordable given the budget environment today and for 
the foreseeable future.
    What is your assessment of the current capability of amphibious 
maneuver and assault systems in the Navy and Marine Corps?
    Answer. Marine Corps organic amphibious maneuver and assault 
capability and the preponderance of general support infantry mobility 
is provided by our Assault Amphibian Battalions equipped with 40-year 
old AAV-7A1 Assault Amphibious Vehicles. Without significant additional 
modifications and enhancements, these vehicles do not provide adequate 
force protection or lethality and will increasingly suffer declining 
readiness as subcomponents succumb to declining manufacturing sources 
and obsolescence.
    Question. If confirmed, how would you propose to prioritize 
development and acquisition among needed capabilities for sea basing, 
connectors, and armored amphibious assault and tactical mobility ashore 
to achieve your vision for a full spectrum force?
    Answer. The development and acquisition of a full spectrum naval 
expeditionary force involves the planning and programming of naval 
expeditionary capabilities across both Navy and Marine Corps planning 
and programming accounts. If confirmed, I will continue to work with 
our Navy counterparts in defining the Marine Corps' seabasing 
requirements. I will personally review the complete portfolio of 
capability development to ensure we balance our investments to reflect 
the Marine Corps' role as a naval expeditionary force-in-readiness.
    Question. In your view, what is necessary to ensure that 
modernization of the amphibious force--ships, connectors, and 
vehicles--is achievable and affordable in the near and long term?
    Answer. The key ingredient for achieving an effective and 
affordable amphibious force is the continued close collaboration 
between the Marine Corps and the Navy. I believe that we must continue 
development, planning, and programming of amphibious force required 
capabilities to meet assigned war plan tasks, as well as support the 
training and employment of forward deployed and rotational Amphibious 
Readiness Groups and Marine Expeditionary Units.
    Specifically, to modernize our vehicle capabilities we must pay 
careful attention to capacity requirements and avoid over-investing, 
while paying particular attention to the intended performance and 
environmental requirements that will drive vehicle design.
    Question. In your view, will projected reduction in Marine Corps 
end strength, if implemented, reduce the Navy and Marine Corps' 
requirement for LPD-17 class ships? At what level of reduced Marine 
Corps end strength would the Marine Corps have insufficient forces to 
fill up a 12th LPD?
    Answer. The amphibious warfare ship requirement is based on forward 
presence and rotational Amphibious Ready Groups (ARG)/Marine 
Expeditionary Units (MEU) as well as to deploy and employ the Assault 
Echelons (AEs) of two Marine Expeditionary Brigades (MEBs). The 12th 
LPD is critical in meeting these requirements. I haven't seen any 
proposals that would relieve the Marine Corps of either requirement.
                       amphibious combat vehicle
    Question. The Navy/Marine Corps amphibious assault capability today 
includes a large number of self-deploying amphibious assault vehicles 
(AAV-7) to carry infantry ashore, and a smaller number of small vessels 
called connectors that can ferry other vehicles, such as tanks and 
artillery, and supplies from ships to shore.
    The Marine Corps has recently changed its plans for development of 
a next generation armored combat vehicle. Instead of investing in 
development of a new self-deploying amphibious assault tracked combat 
vehicle, the Marine Corps intends to reduce technical and fiscal risk 
by acquiring a wheeled combat vehicle that would have to rely on 
connectors to get from ship to shore or near shore. This would place 
additional demand on connectors that are expensive and consume a lot of 
space inside amphibious ships. Indeed, the Navy is today not procuring 
enough amphibious shipping to meet existing amphibious assault 
requirements, much less buying more ships to provide additional 
connecter carrying capacity.
    Unless there is a large increase in the number of connectors 
procured to carry wheeled infantry fighting vehicles ashore, and an 
increase in the number of ships to carry those additional connectors, 
it would appear that this plan will result in a diminished amphibious 
assault capacity.
    Do you support the Marine Corps' decision to develop and field a 
wheeled armored vehicle to replace the AAV-7, the current amphibious 
assault vehicle?
    Answer. I support the decision to develop and field a wheeled 
armored vehicle as an interim step in modernizing our tactical ship to 
shore mobility.
    Question. Will the Marine Corps decision to forego a self-deploying 
amphibious assault tractor lead to a diminution of amphibious assault 
capability? If not, why not?
    Answer. If confirmed, I would not support forgoing an amphibious, 
self-deploying assault capability. I don't believe the current program 
reflects that.
    Question. In your view, where does armored amphibious assault fit 
in the set of capabilities required for to field a credible amphibious 
operations capability?
    Answer. The likelihood of operations in the littorals requires a 
continued focus on the Marine Corps' responsibility to be organized, 
trained, and equipped for amphibious operations. I believe that armored 
amphibious assault capabilities are integral to our ability come from 
the sea.
    Question. Without self-deploying armored amphibious assault 
vehicles for Marine Corps infantry, what advantages would Marine Corps 
forces have over Army forces for conducting amphibious assaults in the 
future?
    Answer. If confirmed, I will support the development of armored 
amphibious assault vehicles.
                     amphibious fleet requirements
    Question. In the spring of 2010, Secretary Gates made several 
public statements in which he appeared to question the need for and 
size of the Navy's amphibious fleet in future defense plans and 
budgets.
    What is your view of the need for and size of the Navy's amphibious 
fleet?
    Answer. The Navy and the Marine Corps have determined that 38 
amphibious warships is required to support an assault echelon of two 
Marine Expeditionary Brigades.
    Question. What are the alternatives if the amphibious fleet is 
allowed to decline in size or capabilities?
    Answer. I am not aware of any alternatives that have been developed 
to mitigate the requirement for an amphibious fleet.
                           f-35 requirements
    Question. The Marine Corps has stated that its F-35 requirement is 
420 aircraft. The total number of F-35s planned for the Department of 
the Navy is currently set at 680.
    Do you believe that the current plan for 680 aircraft can fully 
accommodate the needs of both the Navy and the Marine Corps?
    Answer. Yes. My understanding from a previous assignment as the 
Assistant Commandant is that 680 F-35s meet the Navy and Marine Corps 
requirement.
                       naval surface fire support
    Question. The DDG-1000 program was initiated to fill the capability 
gap for naval surface fire support. The original requirement for 24 to 
32 DDG-1000 ships, each with two 155mm Advanced Gun Systems, was 
reduced to 12 ships, then to 10 ships, then to 7 ships, and finally to 
3 ships.
    In your view, does the total Navy program, with this significant 
reduction in the number of DDG-1000 destroyers, meet the Marine Corps' 
requirement for naval surface fire support?
    Answer. With the truncation of the DDG-1000 program a maximum of 
six 155mm Advanced Gun Systems will be available for service in the 
fleet when all three ships are fully operational at the end of the 
decade which will not support the doctrinal capacity requirements of a 
Marine Expeditionary Brigade.
    Question. What other capabilities would you rely upon to help meet 
naval surface fire support requirements?
    Answer. In the absence of adequate naval surface fire support 
capability and capacity, the Marine Corps will likely rely on aviation 
delivered fires to mitigate the gap.
                       joint acquisition programs
    Question. What are your views regarding joint acquisition programs, 
such as the Joint Tactical Radio System and the Joint Strike Fighter?
    Answer. I support joint development where common capability gaps 
exist. Working with other Services is, and always has been, a major 
element of the Marine Corps overall Research and Development (R&D) and 
Procurement strategy. Our limited budgets demand that we adhere 
rigorously to the well-established Department of Defense (DOD) 
hierarchy of materiel alternatives. If we cannot find a solution to our 
materiel needs in the commercial marketplace, we always look next to 
take advantage of investments that other Services, DOD components, or 
our foreign partners are making. This reduces our need to spend R&D 
dollars on unilateral efforts, and it gives all participants involved 
with joint programs the opportunity to reduce unit procurement costs, 
and ultimately, life-cycle operation and maintenance costs. The end 
result is realized in the form of commonality and affordability across 
the Services making it much easier to share sustainment resources such 
as training, maintenance equipment, and supplies.
    Question. Do you see utility in encouraging the services to conduct 
more joint development, especially in the area of helicopters and 
unmanned systems?
    Answer. Yes. Encouraging joint development begins with 
collaboration of requirements during the Joint Capabilities Integration 
and Development System process and the Joint Requirements Oversight 
Council (JROC). This is a key element of fostering joint development 
among the Services.
    Question. If so, what enforcement mechanisms would you recommend 
implementing more joint program acquisition?
    Answer. Within the Department of Defense, the enforcement 
mechanisms are already in place through the JROC which plays an 
important role in harmonizing the Services warfighting requirements and 
ensuring that joint program opportunities are fully examined.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commandant of the Marine 
Corps?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                 post-2014 counterterrorism authorities
    1. Senator Inhofe. General Dunford, the President has said there 
will be a counterterrorism mission in Afghanistan performed by our 
counterterrorism forces after 2014. The ability to conduct military 
operations such as the ability to take direct action when required, use 
information operations to shape the battlefield, and execute cyber 
operations is critical to the effectiveness of counterterrorism 
operations. The authorities must give our military forces the ability 
to conduct such operations so they match the operational environment in 
order to be effective. It appears that Afghanistan will be an area of 
active hostilities in part due to the scope and scale of Taliban and al 
Qaeda operations in Afghanistan after 2014. Do you agree?
    General Dunford. Yes. Afghanistan will remain a very active area of 
hostilities, at least through 2015.

    2. Senator Inhofe. General Dunford, what authorities do you believe 
will be required, suitable for the expected operational environment, to 
effectively accomplish the counterterrorism mission in Afghanistan in 
2015?
    General Dunford. At the unclassified level, I believe that we will 
continue to need authorities that allow our forces to rapidly strike al 
Qaeda and those who are operating with al Qaeda in Afghanistan. We will 
also need sufficient authorities to quickly strike those who threaten 
our forces in Afghanistan, as well as authorities to assist Afghan 
forces, where we have the capacity to do so and where our assistance is 
required to avoid an Afghan defeat.

    3. Senator Inhofe. General Dunford, if you were given authorities 
similar to what is now used in Somalia or Yemen, in your professional 
military opinion, how severely would that limit the effectiveness of 
your counterterrorism (CT) mission in Afghanistan?
    General Dunford. Afghanistan is a unique operational theater, with 
an al Qaeda presence and an active, nationwide insurgency that 
continues to claim the lives of United States, the North Atlantic 
Treaty Organization (NATO), and Afghan servicemembers and civilians. 
The nature of the mission here, as well as the threat, requires 
operational authorities that are tailored for this operational 
environment, including authorities that facilitate rapid response to 
threats as they arise. Proper authorities are critical for effective CT 
operations and force protection.

                      post-2014 afghanistan threat
    4. Senator Inhofe. General Dunford, do you think al Qaeda and the 
Taliban will remain a presence and a threat in the Afghanistan-Pakistan 
region after 2014?
    General Dunford. Yes.

    5. Senator Inhofe. General Dunford, do you believe al Qaeda and its 
affiliates will reestablish a safe haven in eastern Afghanistan if we 
withdraw our forces too quickly?
    General Dunford. Yes.

                        u.s. military operations
    6. Senator Inhofe. General Dunford, on May 27, 2014, President 
Obama announced there will be 9,800 U.S. troops post-2014 (if the 
Bilateral Security Agreement is signed), half of that by the end of 
2015, hundreds by end of 2016 (like Iraq). Post-2014 missions are going 
to be train, advise, assist, and counterterrorism. The President said 
`` . . . America's combat mission will be over by the end of this 
year.'' What do you think ``end of combat mission'' means?
    General Dunford. After 2014, the United States will not conduct 
direct combat operations against the Taliban. United States and 
coalition personnel will train, advise, and assist the Afghan Security 
Institutions and the Afghan National Security Forces. However, we will 
continue to conduct counter-terrorism operations against al Qaeda and 
those who facilitate al Qaeda in order to protect the Homeland. We will 
also conduct operations to protect the force while it is in 
Afghanistan.

    7. Senator Inhofe. General Dunford, will we still do close air 
support--and if so, under what conditions--for U.S. troops, for partner 
troops, for Afghan troops?
    General Dunford. The United States will still conduct close air 
support to protect coalition and U.S. Forces. The decision to support 
Afghan troops is pending.

    8. Senator Inhofe. General Dunford, out of the 9,800 troops at the 
beginning of 2015, how many do you expect will be doing force 
protection and support; and how many will actually be training, 
advising, and assisting?
    General Dunford. The exact numbers won't be known until we complete 
the NATO force generation process in the early fall. Approximately 20 
percent of the force will be doing train, advise, and assist. The 
balance of the force will conduct counter terrorism, force protection, 
and support.

    9. Senator Inhofe. General Dunford, troop numbers in Afghanistan at 
the end of 2016 are supposed to look like troop numbers in Iraq at the 
end of 2011--``a normal embassy presence''. What do you think that 
means?
    General Dunford. A normal embassy presence will consist of a 
Defense Attachee Office and a Security Cooperation Office under a 
Senior Defense Official operating under the authority of the Chief of 
Mission with a military reporting chain through the U.S. Central 
Command.

                               detainees
    10. Senator Inhofe. General Dunford, what is the plan to deal with 
the disposition of the approximately 38 non-Afghan national detainees 
you said in your advance policy questions continue to be detained by 
U.S. forces in Afghanistan?
    General Dunford. Most of the remaining non-Afghan detainees will be 
processed for repatriation to their home countries, transferred to the 
Government of the Islamic Republic of Afghanistan for prosecution, or 
transferred to another competent jurisdiction, subject to the receipt 
of appropriate security and humane treatment assurances. These 
repatriations and transfers will be conducted in accordance with 
previously established law and procedures which require State 
Department receipt of written assurances from the receiving country, 
transfer approval by the Deputy Secretary of Defense, and congressional 
notification.

    11. Senator Inhofe. General Dunford, what happens if we capture 
additional non-Afghan nationals before the end of 2016, who is 
responsible for their detention and interrogation?
    General Dunford. If U.S. forces capture a non-Afghan national in 
2015 or 2016, I anticipate the captured individual will be turned over 
within 72 hours to Afghan officials for transfer to the Afghan National 
Security Justice Center in Parwan where the individual will be detained 
and investigated with a view towards prosecution in the Afghan criminal 
court at the Justice Center in Parwan. I further anticipate the U.S. 
advisors on the Rule of Law Development Team (who will be working at 
the National Security Justice Center at Parwan) will have ready access 
to relevant information obtained by the National Directorate of 
Security through their investigation and any interview of the detainee.

                                georgia
    12. Senator Inhofe. General Dunford, Georgia has been the largest 
per capita and non-NATO troop contributor to the NATO International 
Security Assistance Force (ISAF) mission, and is committed to support 
this mission until the end of the operations in Afghanistan. Moreover, 
Georgia is ready to continue engagement in the Resolute Support Mission 
with up to 750 soldiers. What is your assessment of the cooperation we 
enjoy with the country of Georgia in the defense field?
    General Dunford. The support NATO and the United States has 
received from the Republic of Georgia throughout the ISAF mission, 
along with the pledged support to the Resolute Support Mission, has 
been unparalleled. Georgia continues to be one of the most flexible and 
willing NATO partners and has become a security exporter in the truest 
sense of the word, contributing forces to NATO missions wherever 
needed. As we transition from ISAF to the Resolute Support Mission, 
Georgia will be one of the largest troop-contributing nations. They 
have proven themselves to be stalwart partners to the United States, 
committing forces to combat operations abroad even when their own 
homeland came under attack in 2008.

    13. Senator Inhofe. General Dunford, I understand that the U.S. 
Marine Corps has specifically developed an effective and close 
cooperative relationship with the Georgian Armed Forces. More than 
11,000 Georgian soldiers have been trained for Afghanistan with support 
of the U.S. Marine Corps, and have participated in the ISAF mission. 
They have served with bravery and distinction, and 29 have lost their 
lives in the line of duty. Considering the commitment of the Nation of 
Georgia to the United States in Afghanistan, and to common Euro-
Atlantic security and shared values, how can the United States support 
this nation to ensure that they have the capability to defend 
themselves against potential aggression, in light of recent events in 
Ukraine?
    General Dunford. Our Georgian partners have served with distinction 
in Afghanistan. I understand that in addition to assisting them in 
preparation for service in ISAF, the United States has committed to 
assisting them in developing capabilities that will assist in their 
nation's defense.

    14. Senator Inhofe. General Dunford, how do we specifically plan to 
continue and enhance our defense cooperation with Georgia to boost 
their defense capabilities?
    General Dunford. I believe this question would be best answered by 
U.S. European Command.

                       readiness and end strength
    15. Senator Inhofe. General Dunford, the current Commandant of the 
Marine Corps, General Amos, has testified that the Marine Corps would 
have difficulty in conducting a single major contingency operation as 
called for by the National Military Strategy should Marine Corps end 
strength fall to 175,000. It is projected the Marine Corps will have 
175,000 marines at the end of this Future Years Defense Program. How 
will this impact the Marine Corps' ability to meet mission 
requirements?
    General Dunford. The President's budget supports the 175,000 force 
at high operational risk. At this force level, the Marine Corps will 
maintain sufficient combat units to meet war plan requirements but 
places additional stress on the force to meet steady state global 
requirements. Any additional cuts due to sequestration in fiscal year 
2016 with a 175,000 force would negatively impact the Marine Corps. 
Sequestration cuts on a force already deploying at 1:2 would reduce 
critical training and maintenance resources causing additional risk.

    16. Senator Inhofe. General Dunford, what are your readiness 
concerns?
    General Dunford. I believe the Marine Corps has demonstrated its 
readiness over the past decade in responding to contingencies in Iraq 
and Afghanistan and to a wide range of crises across the world. The 
Marine Corps has preserved readiness of deploying and next-to-deploying 
units. That said, I know our home station readiness has been degraded 
as we have appropriately prioritized the readiness of those marines who 
are forward deployed.
    I will prioritize resetting Marine Corps equipment from the wear 
and tear of operations in Iraq and Afghanistan and restoring home 
station readiness. While near term readiness will remain the priority, 
I will work with the Secretary of the Navy and Congress to ensure that 
the Marine Corps is adequately resourced to also deliver a ready Marine 
Corps tomorrow.

                       amphibious combat vehicle
    17. Senator Inhofe. General Dunford, after spending billions of 
dollars on the Expeditionary Fighting Vehicle, the program was 
terminated due to technology immaturity and affordability. Its follow-
on program, the Amphibious Combat Vehicle (ACV) has been recently 
restructured. Now, the Marine Corps plans to use the Marine Personnel 
Carrier program requirements to define the first increment of the ACV 
program. Additionally, recent press reports question both the need and 
effectiveness of amphibious assault. Is it time to rethink the need to 
conduct amphibious assault operations?
    General Dunford. Since 1990, the Marine Corps has conducted more 
than 120 amphibious operations across the range of military operations. 
Our Nation should always retain the capability to place and sustain 
forces on a foreign shore in a hostile environment. This is what 
amphibious assault capability provides. The Marine Corps will continue 
to develop our amphibious assault capability to ensure it remains 
relevant to our national security requirements in the context of the 
future security environment.

    18. Senator Inhofe. General Dunford, what are your views on the 
requirement for the high water speed ACV?
    General Dunford. The Marine Corps' requirement for a high water 
speed ACV persists, however, despite the best efforts of our combat and 
materiel developers, supported by academia and industry, the Marine 
Corps concluded that procurement of a high water speed ACV would 
require too many capability tradeoffs to be an acceptable solution at 
this time. I intend to continue to pursue the most capable, tactical 
ship to shore mobility possible.

    19. Senator Inhofe. General Dunford, what is the operational impact 
to the Marine Corps if this program is deferred for several years?
    General Dunford. Delaying the development of an effective vehicle 
for ship to shore mobility will adversely affect the ability of the 
Marine Corps to effectively support the needs of combatant commanders 
to conduct amphibious operations.

    20. Senator Inhofe. General Dunford, the modernization of the 
amphibious force must include the ships, connectors, and vehicles 
necessary to conduct amphibious operations. I am concerned the Marine 
Corps' restructured approach to the ACV does not meet the needs of the 
Marine Corps, specifically, we hear about the ACV and we hear about 
amphibious ships. However, I find the third element, ship-to-shore 
connectors, lacking. Do you believe the Marine Corps has sufficient 
ship-to-shore connectors to meet operational needs of an amphibious 
assault?
    General Dunford. I have been briefed that we currently have 
sufficient ship-to-shore connectors to meet combatant commander 
requirements for forward presence/rotational Amphibious Ready Group/
Marine Expeditionary Unit deployment schedules, war plans, and 
independent, single-ship deployments. However, within the next 2 to 3 
years, we may encounter a significant degree of risk as connector 
inventories begin to drop below levels necessary to fully meet 
operational requirements. I will personally engage on this issue after 
assuming my new responsibilities.

    21. Senator Inhofe. General Dunford, the Marine Corps recently 
completed a year-long study to assess the technical feasibility and 
affordability of bringing that capability to the force. I understand 
the Marine Corps has restructured or refined the ACV strategy. What 
concerns do you have regarding the ground vehicle industrial base and 
its ability to meet the Marine Corps ACV requirements?
    General Dunford. Industry has been unable to deliver an optimal ACV 
at an affordable price. I look forward to addressing this challenge 
after assuming my new duties.

              special purpose marine air-ground task force
    22. Senator Inhofe. General Dunford, the Special Purpose Marine 
Air-Ground Task Force (MAGTF) construct responds to greater demand for 
multi-role crisis response forces in several combatant commands under 
the current security environment. The Marine Corps has stood up one 
unit and Spain will stand up two more to follow later this year. Is the 
Special Purpose MAGTF indicative that the Marine Corps does not have 
sufficient amphibious ships?
    General Dunford. Yes. Land-based Special Purpose MAGTFs (SPMAGTFs) 
mitigate, but do not replace, amphibious shipping. SPMAGTFs improve the 
forward deployed Marine force posture and provide more flexibility in 
employing the Amphibious Ready Group/Marine Expeditionary Unit within 
each geographic combatant command. SPMAGTFs can mitigate the risk of 
sending less ready units to major contingencies by constituting the 
lead elements of a surge.

                       women in combat positions
    23. Senator Inhofe. General Dunford, the Marine Corps has a very 
robust model to evaluate and obtain metrics for women in combat. The 
Marine Corps is taking a unique approach to integrating women into 
combat training. What steps has the Marine Corps taken to ensure that 
women will be placed in a gender-neutral training environment in which 
they can best succeed?
    General Dunford. I know that the Marine Corps understands the 
direction set by the Secretary of Defense and it is taking a 
deliberate, measured, and responsible approach to researching, setting 
conditions, and integrating female marines into ground combat arms 
military occupational specialties and units. This research will allow 
me to be personally and decisively engaged in the development of 
gender-free standards for all military occupations to ensure that we 
continue to field the most capable Marine Corps possible.

    24. Senator Inhofe. General Dunford, will you commit to this 
committee that your recommendation will be based solely on the 
operational capabilities our Nation requires of the Marine Corps, and 
that you will not tolerate lowering standards if that would compromise 
combat effectiveness?
    General Dunford. Yes.

                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                           afghan mi-17 fleet
    25. Senator Ayotte. General Dunford, you indicated during the July 
17, 2014, nomination hearing that we cannot sustain the Afghan Mi-17 
fleet without dealing with the Russians. On July 16, 2014, President 
Obama announced a new round of Ukraine-related sanctions on a variety 
of Russian entities, including a number of Russian defense firms. The 
Russians may retaliate in various ways. If the Russians choose to cut 
the United States off from all parts and other support for these Mi-
17s, what is the backup plan for making sure the Afghans have a viable 
fleet of helicopters?
    General Dunford. Sustainment of the Afghan Mi-17 fleet requires 
access to Russian helicopter OEM (original equipment manufacturer) 
spare parts and technical design authority. If the Russians restrict 
U.S. access to OEMs, then ISAF will pursue options that allow Afghan 
access to Russian OEMs without U.S. involvement. There would be a 
significant operational impact for both U.S. and Afghan forces if such 
a situation occurred, and it is not clear how long it would take to 
identify alternative mechanisms and put them in place.

           danger of not resetting equipment from afghanistan
    26. Senator Ayotte. General Dunford, from a readiness standpoint, 
what is the danger of not resetting our equipment as it returns from 
Afghanistan?
    General Dunford. Due to the full support of Congress, I understand 
the Marine Corps is nearly 50 percent complete with the reset of ground 
combat equipment returned to date from Afghanistan. However, a 
significant amount of reset work remains to be accomplished. In the 
absence of funding to repair, recapitalize, and replace remaining 
ground combat equipment, the Marine Corps would face difficulty 
reconstituting the force.
    Currently, over half of nondeployed units have equipment shortfalls 
as the Corps has prioritized equipping and enabling forward deployed 
forces. This imbalance of readiness across the Marine Corps would be 
further exacerbated if we did not complete our reset requirements. 
These nondeployed forces serve as an insurance policy--our bench--
providing a timely response to unexpected crises or large-scale 
contingencies. If those units are not adequately equipped, a delayed 
response to a contingency or other operational requirement is much more 
likely.

                 readiness of nondeployed marine forces
    27. Senator Ayotte. General Dunford, what are your leading 
readiness concerns for the Marine Corps?
    General Dunford. Based on steady state operations and emerging 
requirements, the Marine Corps has accepted risk to both personnel and 
equipment readiness of our nondeployed units to fully support forces 
forward deployed. Currently, slightly more than 55 percent of our 
nondeployed units are experiencing degraded readiness in their ability 
to execute core missions principally due to equipment and personnel 
shortfalls necessitated by the effort to ensure that forward deployed 
units are manned and equipped. Such realities portray the imbalance of 
readiness across the Marine Corps. This, however, cannot be our long-
term solution to the whole-of-force readiness: our nondeployed 
operating forces serve as an insurance policy, providing timely 
response to unexpected crises or large-scale contingencies.

    28. Senator Ayotte. General Dunford, how would you assess the 
readiness of our nondeployed Marine Corps forces?
    General Dunford. I understand that approximately 55 percent of our 
nondeployed units are experiencing degraded readiness--principally due 
to equipment and personnel shortfalls created by ensuring forward-
deployed units are fully manned and equipped.

    29. Senator Ayotte. General Dunford, the readiness of our 
nondeployed forces impacts our strategic depth and overall readiness. 
How can we improve the readiness of our nondeployed Marine Corps 
forces?
    General Dunford. I intend to work closely with the Secretary of the 
Navy, the Secretary of Defense, and Congress to ensure we do everything 
possible to maximize the readiness of our nondeployed forces.

    30. Senator Ayotte. General Dunford, what impact will sequestration 
have on our nondeployed Marine Corps forces--and therefore on our 
strategic depth?
    General Dunford. Full sequestration forces Marine Corps end 
strength down to 175,000. This size force accepts great risk when our 
Nation commits itself to its next major theater war. It makes 
significant reductions in aviation and ground combat units--further 
reducing our available infantry battalions in addition to the current 
reductions in critical combat support capability such as artillery, 
tanks, and assault amphibious vehicles.

                             sexual assault
    31. Senator Ayotte. General Dunford, how is the Marine Corps doing 
in the effort to increase sexual assault prevention, reporting, and 
assistance for victims?
    General Dunford. I see progress and indicators that suggest Marine 
Corps SAPR Program is making a positive impact. However, I also believe 
that there is still much work to do. We must continue to increase 
reporting and decrease prevalence. We need to emphasize prevention to 
include focusing on potential offenders, demand all marines be active 
and responsible, vice passive bystanders, and integrate the SAPR 
Program with other aspects of behavioral health.

    32. Senator Ayotte. General Dunford, what impact would removing 
commanders' convening and disposition authority have on good order, 
discipline, and combat effectiveness?
    General Dunford. In my experience, every issue of good order and 
discipline in the Marine Corps that has been successfully addressed has 
featured commanders, and the chain of command, as the central facet of 
the solution. I believe that the chain of command is invaluable to 
victims of sexual assault. Commanding officers are responsible for 
setting positive command climates that not only help prevent the crime 
of sexual assault but that also provide a safe environment where 
victims feel confident coming forward to report. Without that initial 
trust and faith in the complete commitment and ability of their chain 
of command, victims may not report.
    The chain of command is the mechanism for creating a climate that 
is non-permissive to sexual assault, for ensuring victims are in a safe 
and non-retaliatory environment, and for facilitating access to all 
supportive services.
    Similarly, the chain of command is the primary and most effective 
mechanism through which I will maintain accountability in our sexual 
assault prevention efforts. Just as I expect you to hold me 
accountable, so will I hold my subordinate commanders accountable for 
ensuring that all marines are treated with dignity and respect.

                        post-2014 force posture
    33. Senator Ayotte. General Dunford, any deployed force must be 
able to accomplish its mission and also protect itself. Is there a 
point at which the number of U.S. troops in Afghanistan gets so small 
that our forces might not be able to fully protect themselves and our 
diplomatic personnel?
    General Dunford. Yes.

                       marine corps end strength
    34. Senator Ayotte. General Dunford, the current Commandant of the 
Marine Corps, General Amos, testified that the Marine Corps would have 
difficulty conducting a single major operation as called for by the 
National Military Strategy should Marine Corps end strength fall to 
175,000. Do you agree with that assessment?
    General Dunford. Yes.

    35. Senator Ayotte. General Dunford, what specific risks would our 
Nation confront if we reduce the Marine Corps to 175,000 or below?
    General Dunford. In order to prioritize emerging demands in a 
fiscally constrained environment, the Marine Corps accepted risk in 
major combat operations (MCO) and stability operations. The redesigned 
Marine Corps made tradeoffs in some high end capabilities, like armor 
and artillery, in order to concentrate on crisis response. Reducing 
force structure would increase risk as the requirements determined by 
the combatant commands would be unfulfilled, and in the event of a MCO, 
the Marine Corps would be unable to react to crises in other parts of 
the world.

                           close air support
    36. Senator Ayotte. General Dunford, will the Afghans need U.S. 
close air support assistance in 2015 and beyond? If so, what is the 
specific U.S. plan to provide that assistance?
    General Dunford. The Department of Defense (DOD) is addressing gaps 
in Afghan Air Force (AAF) close air support capabilities that the 
Afghan military leadership has recently identified. DOD is in the 
process of procuring 12 armed MD-530 helicopters and arming 5 that are 
already in the Afghan inventory which should be available to 
participate in operations during the next fighting season. These 
helicopters will enable the AAF to cover the priority close air support 
requirements within areas that are subject to the majority of the 
fighting. DOD continues to develop the AAF's fixed wing close air 
support capability and in January 2015 will begin training AAF pilots 
at Moody Air Force Base. The first of 20 AAF A-29s will arrive in 
Afghanistan in early 2016 to begin conducting close air support 
missions. We will continue to assess ANSF capabilities and shortfalls 
as part of the train, advise, and assist mission to determine if 
additional measures are required.

                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                        justice center in parwan
    37. Senator Graham. General Dunford, the Justice Center in Parwan 
provides a legitimate means for the Government of Afghanistan to handle 
current and future detainees considered to be national security 
threats. How important is the Justice Center in Parwan to the creation 
of an effective Rule of Law in Afghanistan?
    General Dunford. As a component of the National Security Justice 
Center, the Justice Center in Parwan (JCIP) is critical to effective 
rule of law in Afghanistan for a number of reasons. One is that the 
JCIP serves as a model for the provincial criminal courts. The lessons 
learned at the JCIP are taught to investigators and prosecutors from 
the provinces by Afghan-led training teams coordinated by Combined 
Joint Interagency Task Force (CJIATF) 435. A second reason is that it 
is closely partnered with CJIATF 435 and has been since 2010. CJIATF 
435's staff has daily contact with the investigators, lawyers, and 
judges at the JCIP. This close partnership creates a symbiotic 
relationship through which we can monitor cases and track developments, 
and our Afghan partners can request U.S. assistance when necessary. A 
third reason is the JCIP is free from corruption, a major problem for 
many provincial courts. Additionally, JCIP is physically protected by 
both U.S. and Afghan National Army forces, and closely monitored by 
CJIATF 435 and Department of State/Bureau of International Narcotics 
and Law Enforcement Affairs personnel, therefore it is very difficult 
for outside influences to affect judicial determinations. I expect the 
JCIP will continue to enhance rule of law development and provide 
legitimacy in the eyes of the Afghan people into the Resolute Support 
mission and beyond.

    38. Senator Graham. General Dunford, what impact did U.S. forces 
have on its development?
    General Dunford. The Justice Center in Parwan (JCIP) was 
constructed with U.S. funding in 2010, and has been operating 
continuously since then with U.S. funding. DOD and Department of State 
(DOS)/Bureau of International Narcotics and Law Enforcement Affairs 
(INL) have shared financial, administrative, and logistical 
responsibilities for the JCIP since early 2011. DOS/INL took the lead 
for funding, logistics, training, and mentorship at the JCIP in late 
2013, and will maintain funding for the JCIP through 2014. The bulk of 
INL's legal training and mentorship roles ended in June 2014. We are 
working closely with the State Department to identify operations and 
maintenance funding for the JCIP in 2015. We will also continue 
training and mentoring our Afghan partners at the JCIP through the Rule 
of Law Development Team (15 uniformed personnel), CJIATF 435's follow-
on force after its End of Mission in October.
                                 ______
                                 
    [The nomination reference of Gen. Joseph F. Dunford, Jr., 
USMC, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 4, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment to Commandant of the 
Marine Corps, and appointment to the grade indicated while assigned to 
a position of importance and responsibility under title 10, U.S.C., 
sections 5043 and 601:

                             To be General

    Joseph F. Dunford, Jr., 0000.
                                 ______
                                 
    [The biographical sketch of Gen. Joseph F. Dunford, Jr., 
USMC, which was transmitted to the committee at the time the 
nomination was referred, follows:]
        Biographical Sketch of Gen. Joseph F. Dunford, Jr., USMC
Title:
    Commander, International Security Assistance Force-Afghanistan; and 
Commander, U.S. Forces-Afghanistan

Assigned:
    10 Feb 13

Education/qualifications:
    Saint Michael's College, BA, 1977
    Georgetown University, MA, 1985
    Fletcher School of Law and Diplomacy, MA, 1992
    The Basic School, 1977
    Amphibious Warfare School, 1985
    Marine Corps Command and Staff College Non-Resident, 1992
    U.S. Army War College, 1999
    CMC Fellowship--Johns Hopkins University, 1992
    Capstone, 2005
    Joint Forces Land Component Commander, 2007
    Pinnacle, 2009
    Senior Executive Equal Employment Opportunity Seminar, 2010
    Infantry Officer

Date of rank:
    23 Oct 10

Age:
    58 years

Date commissioned:
    29 May 77

MRD:
    1 Jun 17 for Service

Commands:
    Commanding General, I Marine Expeditionary Force; and Commander, 
U.S. Marine Corps Forces Central Command (LtGen: Sep 09-Oct 10)
    Assistant Division Commander, 1st Marine Division (Col: Jul 04-Jun 
05)
    Commanding Officer, 5th Marines, 1st Marine Division (Col: May 01-
May 03)
    Commanding Officer, 2d Battalion, 6th Marines, 2d Marine Division 
(LtCol: Mar 96-Jul 98)

Joint assignments:
    Special Assistant to the Chairman, Joint Chiefs of Staff (Gen: Dec 
12-Feb 13)
    Vice Director for Operations, J-3, Joint Staff (BGen: Jun 07-Aug 
08)
    Executive Assistant to the Vice Chairman of the Joint Chiefs of 
Staff; Chief, Global and Multilateral Affairs Division, J-5, Joint 
Staff (Col: Jun 99-May 01)

Service staff assignments:
    Assistant Commandant of the Marine Corps (Gen: Oct 10-Dec 12)
    Deputy Commandant for Plans, Policies, and Operations (LtGen: Aug 
08-Aug 09)
    Director, Operations Division (BGen: Aug 05-Jun 07)
    Chief of Staff, 1st Marine Division (Col: May 03-Jul 04)
    Executive Officer, 6th Marines, 2d Marine Division (LtCol: Jul 95-
Mar 96)
    Senior Aide-de-Camp to the Commandant of the Marine Corps (LtCol: 
Dec 92-Jul 95)
    Marine Officer Instructor, College of the Holy Cross (Maj: Aug 89-
Jun 91)
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Joseph F. 
Dunford, Jr., USMC, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Joseph F. Dunford, Jr.

    2. Position to which nominated:
    Commandant of the Marine Corps.

    3. Date of nomination:
    June 4, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    1955/12/23, Boston, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Ellyn A. Dunford (Maiden Name: Ellyn A. Sartucci).

    7. Names and ages of children:
    Joseph F. Dunford III; age 26
    Patrick T. Dunford; age 24
    Kathleen A. Dunford; age 22.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Marine Corps Association.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Awarded Colonel Donald Cook Award for Citizenship, from St. 
Michael's College, VT.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             Joseph F. Dunford, Jr.
    This 4th day of June, 2014.

    [The nomination of Gen. Joseph F. Dunford, Jr., USMC, was 
reported to the Senate by Chairman Levin on July 22, 2014, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 23, 2014.]


NOMINATIONS OF MR. ROBERT M. SCHER TO BE ASSISTANT SECRETARY OF DEFENSE 
    FOR STRATEGY, PLANS, AND CAPABILITIES; MS. ELISSA SLOTKIN TO BE 
ASSISTANT SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS; MR. 
DAVID J. BERTEAU TO BE ASSISTANT SECRETARY OF DEFENSE FOR LOGISTICS AND 
MATERIEL READINESS; MS. ALISSA M. STARZAK TO BE GENERAL COUNSEL OF THE 
      DEPARTMENT OF THE ARMY; ADM HARRY B. HARRIS, JR., USN, FOR 
REAPPOINTMENT TO THE GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. PACIFIC 
                                COMMAND

                              ----------                              


                       TUESDAY, DECEMBER 2, 2014

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:42 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman), presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
McCaskill, Udall, Manchin, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, Inhofe, McCain, Wicker, Ayotte, 
and Fischer.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nominations of Robert Scher to be 
Assistant Secretary of Defense for Strategy, Plans, and 
Capabilities; Elissa Slotkin to be Assistant Secretary of 
Defense for International Security Affairs; David Berteau to be 
Assistant Secretary of Defense for Logistics and Materiel 
Readiness; Alissa Starzak to be General Counsel of the 
Department of the Army; and Admiral Harry Harris, Jr., to be 
Commander, U.S. Pacific Command (PACOM).
    We welcome our witnesses and their families. We extend our 
gratitude to family members who support our nominees during the 
long hours and the countless demands on their careers in public 
service.
    To our witnesses, during your opening statements, please 
feel free to introduce family members and others who are here 
to support you today.
    Each of our nominees has a record of public service. Mr. 
Scher has served as Deputy Assistant Secretary of Defense for 
South and Southeast Asia, a senior member of the Secretary of 
State's policy planning staff, and in his current role as both 
the Deputy Assistant Secretary of Defense for Plans and the 
Acting Deputy Under Secretary of Defense for Strategy, Plans, 
and Forces.
    Ms. Slotkin, we give you and your parents--you are 
Michiganders--a special welcome here today. You have served in 
positions of distinction throughout your time in Government 
service, including as the Principal Deputy Assistant Secretary 
of Defense for International Security Affairs, a senior advisor 
on Iraq at the Department of State, and Director for Iraq on 
the National Security Council staff.
    Mr. Berteau has held a variety of national security-related 
positions in Government, academia, and in the private sector. 
He is currently the Senior Vice President and Director of the 
National Security Program on Industry and Resources at the 
Center for Strategic and International Studies. Prior to that, 
he has directed the National Security Studies Program at 
Syracuse University and served as the Principal Deputy 
Assistant Secretary of Defense for Production and Logistics.
    Ms. Starzak is currently the Deputy General Counsel for 
Legislation at the Department of Defense (DOD). She has also 
served as counsel and a professional staff member on the Senate 
Select Committee on Intelligence and as Assistant General 
Counsel at the Central Intelligence Agency.
    Admiral Harris has spent 36 years in the Navy and served in 
every geographic combatant command region. He is currently the 
Commander of the U.S. Pacific Fleet. He has worked previously 
as the Assistant to the Chairman of the Joint Chiefs of Staff, 
Deputy Chief Naval Officer for Communication Networks, and the 
Commander, Joint Task Force Guantanamo.
    There are going to be four votes, as currently planned, at 
10:30 a.m. We are going to work through those votes. If it 
turns out that we cannot complete the hearing for any one or 
more of our nominees today, we will continue such hearing 
either later this week or next week.
    We look forward to the testimony of our witnesses, of our 
nominees, and we also again thank their families for their 
support.
    I turn this over to Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    We are getting into the last 2 years of the administration. 
It's clear, at least in my opinion, that our national security 
policies have been a disaster and the world becomes more 
dangerous. The President is focused on dismantling the 
military, appeasing our adversaries, abandoning our partners, 
and refusing to implement a new national security strategy.
    That's kind of interesting. That's required by law, and I 
think, Mr. Scher, I'll have some questions for you on that 
because I think it's very important. We're supposed to do that 
every year. It's been 4 years now. Instead of taking 
responsibility and changing the course, the President is 
doubling down on the failed policies and blaming the Secretary 
of Defense.
    Six years in, we still have no strategy in the Middle East 
and no plan to deter Russia, China, Iran, and the Islamic State 
of Iraq and Syria (ISIS), and no updated national security 
strategy. The New York Times reported that when Susan Rice was 
asked why there hasn't been a new national security strategy in 
4 years, she said, ``If we had put one out in February or April 
or July, it would have been overtaken by events 2 weeks 
later.'' I guess what she's saying is you can't build a 
strategy that can last more than 2 weeks. I think perhaps the 
President should have dealt with her instead of Secretary 
Hagel.
    The problem is, as I see it, the President is relying on 
his political and his media advisors rather than his military 
leaders. I talked to a lot of the military leaders, as does 
everyone on this panel up here, and I've come to the conclusion 
that they're not really being listened to, and I think that's 
one of our major problems.
    One of the most glaring examples has been the President's 
response to Russia's invasion of Ukraine. When asked on August 
6th whether the United States should provide lethal assistance 
to Ukraine, he said no, but then he added--and this is a quote. 
Now, keep in mind, this is August 6th. He said, ``Now, if you 
start seeing an invasion by Russia, that's obviously a 
different set of questions. We're not there yet.'' That was 
August. Putin started invading the Ukraine 5 months before 
that, and that's when he formally annexed Crimea, and that's 5 
months before this. While Obama's on the sidelines, Putin 
continues to de-recognize Europe.
    I probably shouldn't have done it. I was on the ballot 
myself this year, but for the whole week prior to our elections 
over here, I was in Lithuania, Latvia, Estonia, Ukraine, and 
those areas. They look at Ukraine and say it's not going to 
stop there. They're all concerned. They're all in that same 
situation.
    It's clear that Russia, China, Iran, ISIS see weaknesses in 
the President's rhetoric and it's not going to deter them from 
taking more aggressive action. It's not just me who thinks 
that. I hear that constantly all over.
    We're looking forward to the solutions you might suggest. I 
do think that having five significant nominees all at once 
during this lame duck session is probably not the best way to 
have done this. I'm anxious to get to know all of you better 
before any final vote for confirmation comes around.
    I appreciate it very much, Admiral Harris, the time that 
you spent with me.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    I'll call first on Mr. Scher for your opening comments.

  STATEMENT OF ROBERT M. SCHER, TO BE ASSISTANT SECRETARY OF 
         DEFENSE FOR STRATEGY, PLANS, AND CAPABILITIES

    Mr. Scher. Thank you, Chairman Levin, and Senator Inhofe, 
and all the members of the committee. It's a privilege to 
appear before you this morning, and I appreciate the 
opportunity to answer any questions you may have regarding my 
nomination as Assistant Secretary of Defense for Strategy, 
Plans, and Capabilities.
    I'd like to thank President Obama, Secretary Hagel, and 
Under Secretary Wormuth for their support of my nomination. I 
also owe a debt to the many colleagues, mentors, and friends 
with whom I've worked over the years and who have always 
supported me. Most of all I'd like to thank my family and 
friends, without whom I certainly would not be here today.
    I would be remiss if I did not specifically thank my wife, 
Danielle Ewen, and my son, Maxwell. Danielle is taking time off 
from her job today to be here. She is a nationally recognized 
expert on child care and early education, and I'm very proud of 
her service. Maxwell, a freshman at Moray, decided that he gets 
to see me talk enough and really doesn't need to be here, so 
he'd rather go to school. Present or not, they provide me with 
my strength, my moral compass, and my motivation to continue to 
serve this Nation.
    It has been my privilege to be able to serve in DOD as both 
a political appointee and a career civil servant for over 20 
years. I have lived through or participated in four Quadrennial 
Defense Reviews (QDR), countless other strategic reviews, and 
have had the privilege to represent our Nation at international 
meetings throughout Asia. In all of these efforts, I have 
worked with some of the finest public servants and military 
officers we have as a Nation.
    Our public servants are hardworking, patriotic individuals 
who serve this Nation with dedication and honor, but I can 
never forget that what we do in the Pentagon is all about how 
to better support the men and women that make up our Armed 
Forces, they who have volunteered to serve in our Nation's 
military and who continue to sacrifice for the freedoms we 
enjoy here in the United States. My allegiance to them is 
unwavering and, if confirmed, I believe it is my most important 
task to ensure that what we do in the Pentagon continues to 
best support our forces.
    It is because of my past work and my deep respect and 
admiration for our military that I am so honored to sit here 
before you today. If confirmed, I would look forward to working 
with you all in Congress, with this committee in particular, 
and with others in the executive branch to advance U.S. 
national security interests in what can only be termed an 
uncertain and dynamic environment.
    My role in this position would be to support the Under 
Secretary of Defense for Policy, the Deputy Secretary, and the 
Secretary of Defense in formulating the strategic guidance for 
the Department, and then working within the Department to make 
sure that the Secretary's guidance is effectively implemented 
by the Services and the combatant commanders, one of whom I am 
privileged to be here with on this panel, hopefully if 
confirmed, Harry Harris.
    We must simultaneously be working to address the needs of 
current operations, planning for potential contingencies, and 
ensuring that we build a military that is capable of responding 
to the threats and opportunities of the future. We do not have 
the luxury of only looking at today's problems or only looking 
at the future. We must do both.
    In today's world and with the continued uncertainty over 
the resources that may be available to the Department, this is 
a difficult task but one that I am committed to getting right. 
If confirmed, I will make every effort to live up to the 
confidence that has been placed in me.
    I am grateful for your consideration and look forward to 
your questions. Thank you.
    Chairman Levin. Thank you very much, Mr. Scher.
    Ms. Slotkin?

   STATEMENT OF ELISSA SLOTKIN, TO BE ASSISTANT SECRETARY OF 
           DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS

    Ms. Slotkin. Chairman Levin, Senator Inhofe, members of the 
committee, thank you for the opportunity to appear before you 
today. I am grateful for the confidence that President Obama 
has shown in nominating me, and I thank Secretary Hagel and 
Under Secretary Wormuth personally for their support.
    I also want to thank my family, for I would not be here 
without them. My husband, Colonel David Moore, is here today, 
having just retired after 30 years as an officer in the Army; 
my step-daughters, who are just beginning their careers of 
service, Christine, who will soon be a rural doctor, and 
Jennifer, a West Point Cadet, who is helping to break down 
gender barriers every day. They are the source of my strength, 
and I thank them for their unending support.
    I'd also like to thank my parents, Curt and Carole Slotkin, 
in from Michigan, who taught me the meaning of hard work and 
decency, as well as the legion of Slotkins, Singers, Moores, 
and Rosses who have shown unwavering love and understanding.
    Mr. Chairman, members of the committee, the position of 
Assistant Secretary for International Security Affairs spans a 
huge area of responsibility. It covers Europe, the Middle East, 
Africa, and the Western Hemisphere. America's national security 
interests in these parts of the world are as profound as they 
are vast. From ensuring the transatlantic alliance and ensuring 
that it's prepared to meet the challenge of Russian aggressive 
behavior, to meeting the threats in the Middle East and the 
generational change taking place there, to the proliferating 
extremist groups in Africa, or the instability in Central 
America, I remain convinced that the United States must play a 
central role.
    If confirmed, I look forward to working with the committee 
and Congress as a whole to develop the policies, partnerships, 
and posture the Department needs to address these challenges.
    Mr. Chairman, the responsibility of the Assistant Secretary 
for International Security Affairs is profound and a mission I 
take extremely seriously. I believe my experience in the 
Intelligence Community, the Department of State, the National 
Security staff, and DOD have prepared me for the complexities 
of this account. I have benefitted both in the field and in 
Washington from close civil-military cooperation, something I 
believe is critical to countering new threats. I have the 
benefit of learning from exemplary bosses such as John 
Negroponte, Jack Lew, and Micheele Flournoy, who I believe 
embody the meaning of committed leadership. If confirmed, I 
hope to live up to their expectations and those of the 
committee.
    Mr. Chairman, if confirmed, I will make every effort to 
live up to the confidence placed in me and the excellence 
demonstrated by our men and women in uniform. Thank you for 
your consideration, and I look forward to your questions.
    Chairman Levin. Thank you very much.
    Mr. Berteau?

  STATEMENT OF DAVID J. BERTEAU, TO BE ASSISTANT SECRETARY OF 
          DEFENSE FOR LOGISTICS AND MATERIEL READINESS

    Mr. Berteau. Thank you, Mr. Chairman, Senator Inhofe, 
members of the committee. It's an honor and a privilege for me 
to appear before you this morning.
    I thank also President Obama for nominating me as the next 
Assistant Secretary of Defense for Logistics and Materiel 
Readiness, and I'm grateful for the support of Secretary Hagel, 
Deputy Secretary Wormuth, and Under Secretary Kendall.
    I particularly want to express my gratitude to my family, 
my wife of 41 years, Jane, and my son, Stephen, here with me 
today, behind me. My daughter Celeste is overseas and is unable 
to be here in person this morning, but I suspect she's 
following as best she can.
    I also owe a tremendous debt to my parents, Marvin and 
Patsy Berteau. Neither one lived to see me here this morning, 
but they instilled in me from an early age a powerful sense of 
the responsibilities of citizenship in America and of the call 
to public service that flows from those responsibilities, and I 
owe them gratitude for that.
    Mr. Chairman, for most of my professional life I've been 
working on and studying and teaching defense and national 
security, and in that time it's become clear to me that without 
superior logistics, there is little chance of long-term 
success. The lessons of the wars in Afghanistan and Iraq have 
underscored the importance of logistics not only for the 
battlefield but also for the capability provided by the organic 
elements of the Military Services, as well as the support of a 
strong industrial base.
    I believe that my background both in and out of Government 
has helped prepare me to help support the men and women in 
uniform as they undertake their varied missions around the 
world.
    The Office of the Assistant Secretary of Defense for 
Logistics and Materiel Readiness has been providing support in 
all of these areas for years. If confirmed, I hope to be able 
to continue and improve on that performance.
    I thank you for the opportunity to be here today. I thank 
my family for their support and encouragement. If confirmed, I 
look forward to working with this committee and the rest of 
Congress to ensure excellence in logistics and materiel 
readiness.
    I'm grateful for your consideration, and I look forward to 
your questions.
    Chairman Levin. Thank you, Mr. Berteau.
    Ms. Starzak?

 STATEMENT OF ALISSA M. STARZAK, TO BE GENERAL COUNSEL OF THE 
                     DEPARTMENT OF THE ARMY

    Ms. Starzak. Good morning, Mr. Chairman, Ranking Member 
Inhofe, and members of the committee. I am honored to appear 
before you today.
    I would like to begin by expressing my gratitude to 
President Obama for the confidence shown in me by this 
nomination, Secretary Hagel, Secretary McHugh, and Under 
Secretary Brad Carson for their support of my nomination.
    I recognize that I would not be here today except for the 
family, friends, and co-workers who have supported me over the 
years. I want to especially thank my family here with me today: 
my wonderful, supportive husband, Andrew Ferguson, who is a law 
professor at the University of the District of Columbia David 
A. Clark School of Law; my parents, Michael and Andrea Starzak, 
who taught me the value of public service; and my sister, 
Jocelyn Starzak, who followed those same values into the non-
profit world as an attorney for the Special Olympics.
    I also want to thank those, both civilian and military, 
that I have had the privilege of working with during these past 
few years serving the DOD Office of General Counsel. Their 
commitment to protecting America and improving the lives of 
those dedicated men and women who serve all of us by putting 
themselves in harm's way is extraordinary.
    The General Counsel of the Army advises Army leadership on 
the legal implications of the many challenges facing the Army. 
I believe my background and experience in the Department, 
Congress, and the private sector have well prepared me to serve 
in this role.
    I am committed to working closely with the Army Judge 
Advocate leadership and strongly believe in the value of having 
civilian and military lawyers work together to provide the best 
possible legal advice to our clients.
    If confirmed, I will make every effort to live up to the 
confidence that has been placed in me. I am grateful for your 
consideration, and I look forward to your questions.
    Chairman Levin. Thank you very much, Ms. Starzak.
    Admiral Harris?

 STATEMENT OF ADM HARRY B. HARRIS, JR., USN, FOR REAPPOINTMENT 
   TO THE GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. PACIFIC 
                            COMMAND

    Admiral Harris. Mr. Chairman, Ranking Member Inhofe, and 
distinguished committee members, I'm honored to appear before 
you today as the nominee to lead PACOM.
    I want to thank President Obama for nominating me. I also 
want to thank Secretary Hagel, General Dempsey, Secretary 
Mabus, and Admiral Greenert. I am deeply humbled by their 
confidence in me.
    I'm fortunate to be joined today by my wife, Bernie. I 
simply wouldn't be here without her love and support. Bernie 
served in the Navy herself for 25 years after she graduated 
from Annapolis in 1984. We met in Japan when we were both 
stationed there. I chased her to Hawaii and thank God she 
agreed to marry me in 1989. Bernie represents a growing number 
of military spouses who serve our Nation in uniform.
    The All-Volunteer Force is sustained by our families. I'd 
like to thank this committee for your enduring support of our 
servicemembers and their families, and I would be remiss in not 
specifically thanking Chairman Levin, who will retire in 2015. 
Sir, your 4 decades on this committee have made all the 
difference.
    If confirmed, I look forward to working closely with this 
committee as our Nation confronts the complex and compelling 
challenges in the vibrant Indo-Asia-Pacific region. Our most 
volatile and dangerous threat is North Korea, with its quest 
for nuclear weapons and the means to deliver them 
intercontinentally. The dramatic rise of China's military, the 
uncertainty about how it will use its growing capabilities, and 
its provocative actions in the region represent our most 
enduring challenge.
    As we continue to defend our national interests abroad, our 
efforts are bolstered by our teammates in the State Department 
and across the Government. Our collective efforts amid the 
challenges I mentioned underscore the importance of America 
remaining strong and engaged in the region. American leadership 
does matter.
    Since our strategic rebalance was announced 3 years ago, we 
broadened our operations with Japan, deployed marines 
rotationally to Australia, and improved missile defense in 
cooperation with South Korea. We have also signed an important 
security agreement with the Philippines.
    The rebalance is real, and although we all have concerns 
about the fiscal landscape, I believe that America has the 
staying power to sustain it.
    But there is more work to do, and if confirmed, I will 
remain laser focused on deepening our regional alliances and 
partnerships to increase our combat agility and readiness. I am 
fortunate to have had operational and policy experience, 
command assignments, and educational opportunities that align 
completely with PACOM's mission. I believe they have prepared 
me well for the challenges ahead.
    If confirmed, I will follow the trails blazed by some truly 
great leaders like Admiral Sam Locklear, Bob Willard, and Tim 
Keating, all of whom mentored me and shaped my understanding of 
this region. Admiral Locklear's leadership of PACOM for the 
last 3 years has been of critical importance, and I am proud to 
have served as his Navy component in the Pacific Fleet.
    I look forward to serving alongside the world's best 
soldiers, sailors, airmen, and marines, civilians and their 
families, as well as working with this committee and Congress 
as a whole to address the national security challenges that we 
have.
    Mr. Chairman and distinguished committee members, leading 
PACOM is a significant responsibility. If confirmed, I pledge 
to all of you that I will devote all of my energy and focus to 
the job. I look forward to your questions. Thank you, sirs.
    Chairman Levin. Thank you very much, Admiral.
    Now we have standard questions that we ask of our nominees, 
so I would ask each of you to respond. In order to exercise our 
responsibilities, we have to receive testimony, briefings, and 
other communications of information. First, have you adhered to 
applicable laws and regulations governing conflicts of 
interest?
    Mr. Scher. Yes.
    Ms. Slotkin. Yes.
    Mr. Berteau. Yes.
    Ms. Starzak. Yes.
    Admiral Harris. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Scher. No.
    Ms. Slotkin. No.
    Mr. Berteau. No.
    Ms. Starzak. No.
    Admiral Harris. No.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    Mr. Scher. Yes.
    Ms. Slotkin. Yes.
    Mr. Berteau. Yes.
    Ms. Starzak. Yes.
    Admiral Harris. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Scher. Yes.
    Ms. Slotkin. Yes.
    Mr. Berteau. Yes.
    Ms. Starzak. Yes.
    Admiral Harris. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Scher. Yes.
    Ms. Slotkin. Yes.
    Mr. Berteau. Yes.
    Ms. Starzak. Yes.
    Admiral Harris. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Scher. Yes.
    Ms. Slotkin. Yes.
    Mr. Berteau. Yes.
    Ms. Starzak. Yes.
    Admiral Harris. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee, 
or to consult with the committee regarding the basis for any 
good-faith delay or denial in providing such documents?
    Mr. Scher. Yes.
    Ms. Slotkin. Yes.
    Mr. Berteau. Yes.
    Ms. Starzak. Yes.
    Admiral Harris. Yes.
    Chairman Levin. Now, just for our uniformed military 
nominee, the question that we ask of our nominees in uniform, 
so just to him, do you agree, when asked, to give your personal 
views even if those views differ from the administration in 
power?
    Admiral Harris. Yes, sir, I do.
    Chairman Levin. Now we will have an 8-minute first round, 
and I emphasize first round because we will go to a second 
round. We will work through the four votes at 10:30 a.m., and 
as I said, if necessary, we will have a continuation of this 
hearing for one or more of these nominees either later this 
week or next week.
    Mr. Scher, Deputy Secretary Wormuth recently was quoted as 
saying that ``we need a strategic modernization infrastructure 
fund'' to recapitalize the nuclear forces already in place. Can 
you tell us how that would operate? When would this committee 
first see it in a budget proposal?
    Mr. Scher. Senator, we have spent a lot of time working to 
ensure we understand the needs of the defense nuclear 
enterprise and actually are funding it at a rate that we think 
will make sure that we can preserve the modernization of it and 
fix some of the problems that were found in the multiple 
reviews.
    I do not know the details of the fund of which the Deputy 
Secretary speaks, but I do know the commitment of the 
Department to maintain the funding, to maintain modernization 
and to, in fact, increase the funding, I think as the Secretary 
of Defense said, approximately 10 percent over the $15 to $16 
billion per year for the nuclear enterprise at this moment. I 
can certainly get back to you with details on the specific fund 
after the hearing.
    [The information referred to follows:]

    The internal Nuclear Enterprise Review final report included the 
following recommendation:
    ``The Department of Defense should consider, in conjunction with 
the National Security Council (NSC) staff, the Office of Management and 
Budget (OMB) and Congress, instituting an `OCO-like' fund. The Nuclear 
Infrastructure Recapitalization Fund would be a multiyear appropriation 
of `colorless' money to rebuild critical nuclear support 
infrastructure. This fund would allow the Services to concentrate on 
simultaneously repairing current infrastructure and modernizing with 
new systems.''
    The Department is following the review's recommendation, and is 
considering such a fund in consultation with OMB and the NSC staff. 
However, more work needs to be done to determine what the scope of such 
a fund would be and how such a fund would operate before we can bring 
such a concept forward for legislative consideration. I do not expect 
that the administration will be prepared to propose such a fund in the 
fiscal year 2016 budget. Regardless of the future disposition of such a 
fund, the Department is committed to making the investments necessary 
to sustain the safety, security, and effectiveness of its nuclear 
enterprise.

    Chairman Levin. Okay. Mr. Scher, a second question for you. 
Over the last few years, the Defense Department has been 
provided a number of authorities to build the defense 
capabilities of our partners and friendly nations, and these 
include the global train and equip authority, security 
assistance funds for a number of specific countries or regions, 
including Iraq and Afghanistan, the global security contingency 
fund, and in the bill before us we will have funding to train 
and equip the nongovernment forces, irregular forces.
    In your view, is the Department properly organized to 
ensure coordination and deconfliction of these various security 
assistance authorities? If confirmed, are there steps that you 
would take to improve on the oversight and the coordination of 
the Department's authorities?
    Mr. Scher. Senator, I believe that right now we currently, 
as a department, do a good job of coordinating the various 
authorities that we have been given over the course of the past 
decade plus, as well as do a pretty good job of coordinating 
with the State Department, realizing that, in fact, building 
partner capacity is a job that is shared between DOD and the 
Department of State.
    However, I do accept that there are a lot of authorities 
that continue to come; and, in fact, if confirmed, I assure you 
I will look at this to see if we can do a better job of being 
sure they are coordinated and deconflicted. In fact, there is 
an office in the new organization of Strategy, Plans, and 
Capabilities that has been stood up that, if confirmed for that 
position, I will oversee their attempts to ensure and their 
efforts to ensure that we can get greater clarity of each of 
these authorities and how they will be used together.
    Chairman Levin. Thank you.
    Ms. Slotkin, media reports have indicated that the 
administration may be considering support for a Turkish request 
to create a no-fly zone or a buffer zone inside of Syria along 
the Turkish border. Now, I have long supported this idea, as a 
number of my colleagues on this committee have. We would very 
much welcome consideration of this request.
    Can you tell us what is your understanding of the request 
and what is the view of the administration on the Turkish 
request?
    Ms. Slotkin. Yes, Senator. The idea of a safe zone or a no-
fly zone or a buffer zone is something that the Turks have been 
talking to us about for a couple of years now. They have raised 
it off and on for at least 2 years that I am aware of, and we 
are in regular discussion about their proposal. The Vice 
President was there last week. This is something that was 
discussed. Those talks are ongoing.
    We don't currently think that a no-fly zone fits the bill, 
but it's something the elements of which we're looking at very 
closely to see if there is a proposal that advances our 
combined objectives.
    Chairman Levin. What is the problem with the proposal?
    Ms. Slotkin. Sir, I think that at this point we're still in 
conversation to understand exactly the elements that they're 
talking about. Their proposal has changed over time, and the 
Vice President had extensive conversations, including private 
conversations, about the details so that we understand exactly 
the elements they're proposing.
    Chairman Levin. Do you know whether the proposal includes 
the use of Turkish troops on the ground inside Syria? Do you 
know if that proposal includes that element?
    Ms. Slotkin. I think the proposal involves a full range of 
air and land elements, sir.
    Chairman Levin. Would greater access and use of the Turkish 
military installations, particularly at Incirlik, be granted as 
part of the U.S. support for such a zone?
    Ms. Slotkin. We're in regular conversation not just on this 
proposal but about our counter-Islamic State of Iraq and the 
Levant (ISIL) strategy and how greater access to those bases 
would provide us additional resources for the counter-ISIL 
fight.
    Chairman Levin. Do you know whether or not the use of 
Incirlik is part of the Turkish proposal?
    Ms. Slotkin. I don't know that specifically, sir. I know 
that it's very much part of the conversation.
    Chairman Levin. Okay. Mr. Berteau, in recent years there's 
been an increase in the number of DOD weapon system platforms 
that are contractor supported, particularly in the Air Force 
and the Navy. What are the most significant areas in which the 
Department could improve oversight and management to ensure 
that operating and support costs of a weapons system are 
reasonable and accurate, particularly given the fact that there 
is an increase in the number of platforms that are contractor 
supported?
    Mr. Berteau. Mr. Chairman, a huge percentage of life cycle 
costs of any weapons system is pretty much determined by the 
time you get to what's known as Milestone B, the engineering 
and design development stage decision. The costs that are 
incurred later in cycle are largely determined upfront. The 
single greatest challenge is to make a better evaluation at the 
front end in the design process.
    One of the decisions or implementations, if you will, from 
the Weapons Systems Acquisition Reform Act was a better job of 
cost estimating and better consideration of cost estimating 
inside the Department. What I don't know is how much that cost 
estimation improvement has extended into life cycle cost 
maintenance.
    I think what I would do if confirmed is look most carefully 
at that question. Historically, that's generally determined 
through a parametric modeling of what it cost you on the 
previous weapon system. While that's important, it may not be 
sufficient to be able to maintain that.
    The question of what is done under contract logistic 
support as opposed to organic support I think depends on each 
weapon system and the plan that's put into place at the time, 
and that has to be looked at again as part of the milestone 
review process in the acquisition. If confirmed, that's what I 
would intend to do, and that would be part of my responsibility 
as the Assistant Secretary.
    Chairman Levin. Thank you.
    Finally, Ms. Starzak, what is your view of the need for the 
Judge Advocate General to provide independent legal advice to 
the Secretary of the Army, including independent of the General 
Counsel?
    Ms. Starzak. Senator, I believe that is very important. 
It's obviously a statutory responsibility of the Judge Advocate 
General, and I support that.
    Chairman Levin. Thank you.
    Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me ask one question of all five of you, and you just 
answer starting with you, Admiral, since I know what your 
answer is going to be.
    We're all concerned with the sequestration. We've been 
talking about that a lot, and prior to that we've had other 
problems with the administration in terms of the support of the 
military. I'll ask each one of you--do you agree that 
sequestration would significantly increase risk, and that risk 
is equated to lives?
    Admiral?
    Admiral Harris. Senator, I believe that if there is no 
relief to the sequester, it will, in fact, increase risk. It 
will increase the risk to the lives of our service men and 
women. I believe it will decrease the size, the reach, the 
lethality, and the technological edge that we enjoy today over 
our adversaries and potential adversaries.
    Senator Inhofe. All right. A yes or no answer is fine. 
[Laughter.]
    Ms. Starzak. Senator, I believe that Army leadership and 
the Secretary of Defense has testified about the problems of 
sequestration for the Army.
    Senator Inhofe. No, no. How do you feel about it?
    Ms. Starzak. I agree with those views. From a legal 
standpoint, we obviously will look to try to address them.
    Senator Inhofe. Military sequestration would increase risk. 
Risk is lives. Do you agree with that?
    Ms. Starzak. Senator, I do agree with that.
    Senator Inhofe. Yes.
    Mr. Berteau?
    Mr. Berteau. Yes, sir, I agree with that.
    Senator Inhofe. Ms. Slotkin?
    Ms. Slotkin. Yes, sir.
    Mr. Scher. I agree. It risks lives and other issues, but 
certainly lives are part of it.
    Senator Inhofe. I think it's important for us to understand 
that that's what we're talking about. When we get General 
Odierno and others who come in here and they talk about the 
problems that we're going to have, what that is going to do, 
the people need to equate risk and lives. That's what we're 
talking about here.
    Admiral, you and I have talked in my office about what's 
happening, and with the rebalance to the Pacific that's going 
to be in your responsibility, if this should go through, 
sequestration, would we have enough force structure to carry 
out that policy that you need to be doing and that you want to 
do?
    Admiral Harris. If we get no relief from the sequester, it 
will affect the strength and the reach of our rebalance to the 
Pacific, in my opinion.
    Senator Inhofe. Okay. The other thing I'm going to ask you 
because nobody seems to talk about this, when Kim Jong-un took 
office, I thought no one could be worse than his daddy, but 
nonetheless we're in a situation right now, and I'd like to 
know, do you think he would be more likely to be aggressive? 
Let's just put it this way. The carrier gaps that we're faced 
with right now and the reduced U.S. defense spending, do you 
think that would make him more militarily aggressive? Or how do 
you think he'd react to that?
    Admiral Harris. I'm not sure how he would react to it, 
Senator, but I believe that he is a very opportunistic and very 
unpredictable and a ruthless leader, and I think therefore that 
if we face continuing carrier gaps or perhaps the loss of a 
carrier strike or two, as our Chief of Naval Operations has 
testified, if the sequester continues, then I believe he will 
take advantage of that.
    Senator Inhofe. He is totally unpredictable.
    Admiral Harris. Yes, sir.
    Senator Inhofe. Ms. Slotkin, let me share with you, I was 
in Kiev. Their election was 1 week before our election, and I 
was there during that timeframe. That was an incredible 
election that a lot of people are not aware of, and that is 
that Poroshenko was so supported in that election, as well as 
was Yatsenyuk, the Prime Minister.
    A lot of people are not aware that if a party doesn't 
receive 5 percent, then they can't be in the Parliament. This 
is the first time in--let me make sure I get this right--the 
first time in 96 years that the Communist Party will not have a 
seat in Parliament. That's an incredible thing that's going on. 
We hear the bad news, and that's the good news.
    But when the President, as I said in my opening statement, 
was asked whether the United States should provide lethal 
assistance to Ukraine, he said no but added, ``Now, if you 
start seeing an invasion by Russia, that's obviously a 
different set of questions. We're not there yet.'' I think we 
are there yet. Do you agree?
    Ms. Slotkin. Sir, I think that----
    Senator Inhofe. Do you agree that 5 months before that, 
when they annexed Crimea, that that was an invasion of Ukraine?
    Ms. Slotkin. I believe it was an illegal occupation and an 
unlawful annexation of Crimea. Yes, sir.
    Senator Inhofe. Was it an invasion?
    Ms. Slotkin. I don't know the actual definition of 
invasion. I know it was an unlawful occupation.
    Senator Inhofe. Okay, I get your answer. If the 
administration asks whether you recommend that Ukraine be 
provided lethal assistance, will you answer yes or no, and why?
    Ms. Slotkin. Sir, I think, as you may have heard last week, 
the option of providing lethal assistance, lethal defensive 
assistance, is currently being looked at. I support all options 
being looked at. Those----
    Senator Inhofe. But we've been looking at it for quite a 
while now, and it's lethal assistance. I mean, I was over there 
and talking to them, and they have come out with incredible 
support of the West and of us in their elections, and they are 
begging for it. I mean, what more looking at it do we need to 
do?
    Ms. Slotkin. Sir, again, from the Defense Department 
perspective, we've provided some considerations. Those are 
being looked at now. I think it is important to note that we 
have provided over $116 million worth of security assisting the 
Ukrainians. I know it's not lethal assistance.
    Senator Inhofe. It's not----
    Ms. Slotkin. I understand.
    Senator Inhofe. Okay.
    Ms. Slotkin. I frankly think that much more important even 
than that is the joint commission we've set up with the 
Ukrainians, the 25 visits that our generals have made from U.S. 
European Command to work on the medium- and long-term needs of 
the Ukrainian military to build them into a truly substantial 
force, more than any one piece of equipment, sir.
    Senator Inhofe. The question was if the administration 
asked whether you recommend that Ukraine be provided lethal 
assistance, knowing what you know now, would it be yes or no?
    Ms. Slotkin. Again, I believe----
    Senator Inhofe. Okay, that's fine.
    Mr. Scher, in my opening statement I talked about a couple 
of things that are in the law. One is the QDR. We talk about 
doing that--I think that's title 10--every 4 years. But also it 
specifically talks about the national security strategy. Now, 
reading from title 50 in section 3043, it says, ``The President 
shall transmit to Congress each year a comprehensive report on 
the national security strategy of the United States.'' I mean, 
that's pretty specific, don't you think?
    Mr. Scher. Yes, sir.
    Senator Inhofe. What are your intentions of doing to see 
that they start following that law?
    Mr. Scher. If confirmed----
    Senator Inhofe. It's been 4 years now.
    Mr. Scher. If confirmed in this position, I look forward to 
working with the White House to help them produce a national 
security strategy. I will say----
    Senator Inhofe. You don't even work with them. I'd like to 
have a little stronger answer because you're going to be 
responsible for this area.
    Mr. Scher. Certainly, Senator, and I will be responsible, 
if confirmed, for the QDR publication and drafting, which 
obviously gets approved by the Secretary, where we talk about 
the defense strategy. We make sure that whenever we develop 
that defense strategy, we do it in consultation with the White 
House and other interagency players throughout the 
administration. That is something I can assure you I will 
continue to do.
    Senator Inhofe. Good, good. That's good.
    I'm out of time now, but I want to get an answer for the 
record on this, Mr. Berteau. It seems on acquisition reform I 
can remember 28 years ago, the 8 years I spent in the House and 
then the last 20 years in the Senate, we talked about that 
acquisition reform. We've done a lot of talking about it, and 
every time we come up with something, they want more 
regulations and this type of thing. I'm beginning to think that 
maybe you might be particularly suited for this in that you had 
this in your background but you left this area in government in 
1993. Is that correct? Now you're coming back. Does that give 
you a fresher look at this? For the record, if you could give 
me a report on what you might be able to do differently because 
of your unique background. Okay?
    Mr. Berteau. Yes, sir. I would also refer you to my 
testimony before this committee back on April 30th, which 
already included some of that.
    Senator Inhofe. Good.
    [The information referred to follows:]

    Senator Inhofe, you are correct that acquisition reform issues are 
in my background. My first position in the Pentagon in 1981 as a career 
civil servant was supporting the acquisition reform efforts known as 
the Carlucci Initiatives. I served as the executive secretary of the 
Packard Commission in 1985-1986, supporting Dr. William Perry's writing 
of that commissions acquisition reform recommendations. More recently, 
since becoming a full-time scholar at the Center for Strategic and 
International Studies, I have testified on the subject three times, 
twice before the House Armed Services Committee and once before this 
committee:

        <bullet> ``Acquisition Improvements for 2015 and Beyond'' 
        Testimony by David J. Berteau before the Senate Armed Services 
        Committee, April 30, 2014. Panel included Jonathan Etherton and 
        Moshe Schwartz. Committee video at http://www.armed-
        services.senate.gov/hearings/14-04-30-reform-of-the-defense-
        acquisition-system. Statement at http://csis.org/files/
        attachments/ts140430--Berteau.pdf.
        <bullet> ``DHS Acquisition Practices: Improving Outcomes for 
        Taxpayers Using Defense and Private Sector Lessons Learned.`` 
        Testimony by David J. Berteau before the House Homeland 
        Security Committee, Subcommittee on Organization and Management 
        Efficiency, September 19, 2013. Panel included Stan Soloway and 
        Bill Greenwalt. http://csis.org/testimony/dhs-acquisition-
        practices-improving-outcomes-taxpayers-using-defense-and-
        private-sector-le
        <bullet> ``If These Are Such Good Ideas, Why Are They So Hard 
        To Implement?'' Testimony before the House Armed Services 
        Committee, April 29, 2009. http://csis.org/files/media/csis/
        congress/ts090430--berteau.pdf

    In addition, I was invited to contribute an essay on acquisition 
reform to the recently-released report from the Permanent Subcommittee 
on Investigations of the Senate Committee on Homeland Security and 
Government Affairs. The report is titled ``Defense Acquisition Reform: 
Where Do We Go From Here? A Compendium of Views by Leading Experts. It 
was released October 2, 2014, and may be accessed at https://
acc.dau.mil/adl/en-US/714067/file/78423/Defense%20Acquisition%20Reform 
%20Where%20Do%20We%20Go%20From%20Here.%20US%20Senate%20Staff%20 
Report.pdf, or through the subcommittee's web site at http://
www.hsgac.senate.gov/subcommittees/investigations/media/senators-
mccain-and-levin-release-permanent-subcommittee-on-investigations-psi-
report-on-defense-acquisition-reform.
    From my work on acquisition issues in the Defense Department, as a 
contractor, and as an academic scholar, my perspective is that Congress 
and this committee could most usefully focus on streamlining and 
integrating what some have called the ``patchwork quilt'' of statutes 
that drive regulations on risk reduction, acquisition strategies, and 
sustainment. The recent draft of the Defense Department Instruction 
5000.02 includes approximately 30 pages of such requirements, with many 
different timelines, thresholds, and reporting requirements. Complying 
with this mix of reporting requirements adds time and may even 
undermine accountability by making it more difficult to determine what 
was decided, when, and by whom.
    As for what I would do differently if confirmed, I would focus on 
streamlining, by working to support current and planned efforts to 
address this need for streamlining by the Defense Department, the Under 
Secretary of Defense for Acquisition, Technology, and Logistics, the 
Administrator of the Office of Federal Procurement Policy, and 
Congress. I would also focus on acquisition practices that help meet 
the needs or requirements of deployed forces, as outlined in my 
previous statements noted above.

    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman; and thank 
you, ladies and gentlemen.
    Admiral Harris, just for the record, I think my 
understanding is that U.S. Forces Korea (USFK) is a subcommand 
under PACOM?
    Admiral Harris. Yes, sir. It's a subunified command under 
PACOM.
    Senator Reed. You were, in fact, in charge of our military 
response to the North Koreans?
    Admiral Harris. In the USFK hat, but General Scaparrotti is 
also the Combined Forces Command and the United Nations 
commander for Korea independent of PACOM.
    Senator Reed. But you have this complementary relationship, 
and my sense is you're working very closely together, both 
individually but also organizationally, so that you have a 
consistent view of the situation in Korea and you feel 
comfortable going forward with that arrangement.
    Admiral Harris. Yes, sir. I have a very comfortable 
relationship with General Scaparrotti and with Admiral Locklear 
in my present hat as Pacific Fleet. If confirmed, I will 
continue that relationship with USFK. I believe that PACOM's 
primary responsibility is to support USFK on the Peninsula in 
the case of a Korean contingency, and that translates to all 
the components, to Pacific Fleet as well, that our mission has 
to be ready to fight tonight. We take that seriously in our 
preparations.
    Senator Reed. Can you comment on the cyber activity that 
may be emanating from North Korea? It's a new dimension, it's a 
new threat, relatively new, and it would be something I think 
in your command will be increasingly more persistent and 
troubling as you go forward.
    Admiral Harris. Yes, sir. I believe that North Korea is 
seeking asymmetric advantages over us and our allies in the 
Pacific, and cyber is just one of those methods by which 
they're seeking to get that advantage.
    Senator Reed. Thank you, sir.
    Turning to China now, they are increasing their budget 
militarily. They are increasing their actions in adjacent 
waters. Their strategy seems to be access denial, which raises, 
particularly for PACOM, the issue of how do you structure your 
fleets to respond to that, what weapons systems do you 
emphasize, particularly as the Chinese seem to be deploying 
more and more long-range precision missile systems that can 
effectively, very effectively attack surface ships. Can you 
comment on your ideas going forward about these issues?
    Admiral Harris. Yes, sir. I believe that China's access 
area denial strategies are worthy of our taking a hard look at 
it. In the Navy perspective, I believe our fighter aircraft are 
key to us being able to get in there to do the missions that 
will be assigned by PACOM. I think the joint strike fighter is 
key to that. Our carrier strike groups form the heart of that 
and our submarines, which are inherently stealthy, provide a 
measure of advantage today and into the foreseeable future over 
China and any other adversary in the Pacific, sir.
    Senator Reed. You would say that, again, the critical 
ability of aircraft to penetrate is going to be important, but 
the submarines provide, at least at this point, the biggest 
sort of leverage we have in the Pacific?
    Admiral Harris. I believe today the submarine force is our 
indisputable leverage over any potential adversary in the 
Pacific.
    Senator Reed. Let me ask you another question and that's 
about the amphibious capabilities of PACOM. Because of the 
conflict in Afghanistan and Iraq, our marines have been there 
almost continuously. Now they're starting to reorient, regroup, 
and begin to practice amphibious operations. Can you give us 
your sense right now of what our capabilities are for 
amphibious assault?
    Admiral Harris. Yes, sir. Today we have five amphibious 
ready groups in the Pacific, one forward deployed, the Sasebo 
in Japan, to support the Marine Expeditionary Unit in Okinawa. 
We have four amphibious ready groups in San Diego, and we'll be 
building a fifth by 2018. We welcome the return of the Marine 
Corps to its amphibious routes, and we're working very closely, 
I am working very closely with Marine Corps Forces Pacific, 
Lieutenant General Toolan, ensuring that us the Navy, the 
Pacific Fleet, and the Marine Corps are marching side by side, 
if you will, in lockstep on the need for amphibiosity in our 
naval services.
    Senator Reed. Do you have a plan for increased amphibious 
training exercises in the Pacific going forward?
    Admiral Harris. Yes, sir.
    Senator Reed. Thank you very much.
    Ms. Slotkin, you just spent a great deal of time in Iraq, 2 
years as an intelligence officer early in the conflict, and 
State Department work. Can you talk about the situation, the 
political situation now with Abadi versus the Maliki 
Government?
    Ms. Slotkin. Of course. I think the good news is that Prime 
Minister Abadi is saying the right things and starting to do 
the right things on the critical issues of reform and 
reconciliation in Iraq. This is different from what Prime 
Minister Maliki did, particularly after 2011. In fact, Prime 
Minister Abadi has been deconstructing some of the things that 
Maliki did during his time.
    We saw, again, he just removed another 20-plus Ministry of 
Interior officials today for corruption and mismanagement. 
That's on top of 36 general officers I think about a week ago. 
He's identified and made a big speech in front of his 
Parliament yesterday about the 50,000 ghost soldiers that were 
on the books. He's attacking corruption, and he's attempting to 
reach out particularly to the Sunni community.
    This is a critical piece of any work we do and they do in 
Iraq against ISIL. Again, the countervailing winds in Iraq are 
strong, but he's doing and saying the right things.
    Senator Reed. Our troop presence today, what justification 
and what sort of precedent are we using as we're building up 
our forces? At the invitation, obviously, of the government, 
but also to protect our own resources?
    Ms. Slotkin. Sure. Sir, are you referring to the missions 
that they're performing?
    Senator Reed. Not so much the missions, but we have forces 
there, and they are protected by the--let me ask, do we have a 
Status of Forces agreement in place?
    Ms. Slotkin. We currently have an exchange of notes with 
the Government of Iraq that provides us privileges and 
immunities.
    Senator Reed. We feel with this government it's much more 
reliable than with the Maliki Government?
    Ms. Slotkin. Yes. There's a much wider range of Iraqis who 
have invited us in on an emergency basis to come and help them 
take back part of their country. It's a wide range of Iraqis 
that support us and our interactions there.
    Senator Reed. Is it your view that without this political 
progress in Iraq, that military efforts would be very difficult 
to succeed?
    Ms. Slotkin. I think the political piece, which is where 
the Iraqis really must lead, is critical, sir, to the success 
of the mission.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman; and thank all of 
you for being here today. I appreciate your willingness to step 
forward.
    I would like to begin with a discussion on the bilateral 
security assistance as a policy tool. Ms. Slotkin, if I could 
begin with you, please.
    It appears that bilateral security assistance is occupying 
a greater role as we move forward with U.S. policy. Earlier 
this year General Dempsey spoke of doubling or even tripling 
our effort to build credible partners around the globe. How do 
you see this developing in the next few years, and do you think 
there's a ceiling on how much we can accomplish?
    Ms. Slotkin. Ma'am, thank you for that. I think it's a 
critical question. We've all talked about the complexities of 
the world's problems, the unpredictability of the world, and 
there's nothing more important than the capacity and capability 
of partners in addressing those common threats. We are big 
believers in security assistance and building partner capacity. 
It's a cornerstone of the QDR and a cornerstone of almost 
everything we do around the world.
    I don't know if there's a ceiling on what it can do because 
I think if the model is Europe, where we have our most capable 
partners working with us, that's what we'd like to see in every 
region of the world, truly capable partners working with us 
side by side.
    Senator Fischer. As we look at the program, though, we all 
realize it's an indirect way for the United States to 
accomplish its policy goals, and we look around the world and 
we see other countries that are more directly involved in many 
areas such as the Ukraine. Do you think there's a limit to what 
we can do with the bilateral security assistance in areas like 
that, where maybe we should be stepping forward in a more 
forceful and direct manner?
    Ms. Slotkin. Again, I think in the places where our allies 
and partners are most capable, you see that as part of 
deterrence against these kinds of destabilizing behaviors. I 
don't think there's a ceiling. Whether the United States should 
get involved, I think it's always critical whether it threatens 
U.S. national interests directly, and I think in those places 
where it affects our Homeland, U.S. persons and interests 
abroad, we should act decisively, and I think we have.
    Senator Fischer. You feel our actions in Ukraine are 
appropriate at this time?
    Ms. Slotkin. I think that we are doing quite a bit to 
support the Ukrainians. I know there's a debate about whether 
we should be doing more, but I think the work in particular 
that we're doing with advising and training the Ukrainian 
military is significant, and I think that it's showing effect.
    Senator Fischer. Thank you.
    Mr. Scher, do you have anything to add on how you see this 
assistance developing in the future?
    Mr. Scher. Thank you, Senator. I believe it's a very 
important tool that we have to try to advance U.S. interests 
and take advantage of opportunities and protect ourselves 
against threats by working closely with countries around the 
world at different levels, depending on what that country is 
capable of doing, either helping themselves, helping them to 
help themselves, or helping them so that they can help in 
global priorities.
    It is one tool. It's an important tool. It is not the only 
tool.
    Senator Fischer. Do you see a ceiling on when it should be 
used and when we may possibly have to move on to more direct 
assistance?
    Mr. Scher. I think it's a situation, Senator, that depends 
on each case, that in some cases we will have provided enough. 
But it's rare that we get to the point, that I have seen, where 
we have spent enough time on building partner capacity. But 
certainly you have to weigh that against the other tools that 
are appropriate given the situation at the time.
    Senator Fischer. Thank you.
    Admiral Harris, can you speak to those programs in your 
area of operations on the bilateral security assistance 
programs?
    Admiral Harris. Yes, ma'am. We have a lot of bilateral 
security arrangements in the Pacific. We have five, all of our 
Nation's five treaty allies, bilateral treaty allies are in the 
Pacific, and we work closely with them and our partners and 
friends.
    I would add to what my colleagues at the table have said in 
that the United States is constrained--and I use 
``constrained'' as a positive verb--we're constrained by law, 
regulation, and policy in what we can do. Other countries are 
not so constrained, and so they are doing things that may be 
more direct, and I would view some of their actions as illegal.
    Senator Fischer. Thank you, sir.
    If I could continue with you, Admiral, with nuclear 
deterrence. China is continuing to modernize and also to expand 
its nuclear forces, and your predecessor often talked about the 
Chinese advancements in the submarine capabilities and the new 
submarines that they're putting online.
    Are you concerned about the Chinese investments in those 
nuclear forces? Do you believe that more than reinforces our 
need to modernize our nuclear capabilities?
    Admiral Harris. Yes, ma'am, I am concerned, and it 
reinforces my belief that we must continue to modernize our 
nuclear capabilities.
    Senator Fischer. Do you see that part as your mission to 
try to get that message out there, that the nuclear deterrence 
is still, I believe, one reason that we have remained safe in 
this country for over 60 years?
    Admiral Harris. Yes, ma'am. It is my mission as the 
commander of the Pacific Fleet, and if confirmed I will 
continue to make that my mission as PACOM commander.
    Senator Fischer. I would hope you would be forthright and 
honest with this committee when you're questioned in regard to 
that.
    Admiral Harris. Yes, ma'am.
    Senator Fischer. Thank you, sir.
    Ms. Slotkin, can you speak to the importance of our 
deterrent in respect to our security commitments that we have?
    Ms. Slotkin. Sure. Senator, I think that deterrence is a 
fundamental concept that we think about and work on every day 
in the Department, most recently with the reassurance 
initiatives that we have been partaking with the North Atlantic 
Treaty Organization (NATO) alliance, our strongest allies. We 
have come to Congress and asked for additional support for the 
European Reassurance Initiative so that we can do just that, we 
can absolutely back up this critical deterrent threat against 
Russian aggressive behavior and anyone else who seeks to 
violate the Article 5 commitments of NATO.
    I think it's a cornerstone of the transatlantic alliance. 
It's something we work on every day and we look forward to 
doing more of in light of Russian aggressive behavior.
    Senator Fischer. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Reed [presiding]. Thank you, Senator Fischer.
    Senator Udall?
    Senator Udall. Good morning to all of you. Let me pick up 
where Senator Fischer just left off and, Mr. Scher, direct a 
question your way.
    In your advance policy questions, you discuss the challenge 
of modernizing our nuclear forces in a cost-effective manner. 
There are a lot of varying estimates of the price involved, the 
cost involved, but it's clear we're going to have to make a 
significant investment.
    Can you talk about why this is a necessary investment and 
what you think can be done to implement nuclear policy and 
strategies in a cost-effective manner? Because this is a very 
expensive undertaking.
    Mr. Scher. Yes, Senator. It is an expensive undertaking. In 
the broad scheme of the DOD budget, it is not a huge 
percentage. Importantly--and the Secretary and the Deputy 
Secretary have been very clear--this is the number-one priority 
for them. The nuclear enterprise, as we have seen with the 
reviews that were conducted, both the internal and the external 
review, we clearly see that we have underperformed in the 
nuclear enterprise. It remains safe, secure, and effective. But 
in order to continue that, we need to make sure that we invest 
in the DOD nuclear enterprise, as well as modernization.
    The Secretary has stated when those reports were rolled 
out, we spend approximately $15 to $16 billion per year on the 
nuclear enterprise in DOD, and we are looking to plus that 
number up in the billions, not tens of billions but in the 
billions, and we're still making final decisions on the 
additional money that we put to that.
    But importantly, I would note, it is money that is not 
coming out of future modernization but is coming out from other 
parts of the DOD budget because we recognize the importance of 
continuing to modernize the nuclear enterprise in DOD.
    Senator Udall. Let me follow up specifically in regards to 
your support for the ``fly-before-you-buy'' policy for the 
ground-based interceptors. We have in some cases rushed 
untested systems into production, and that's a costly decision. 
Can you talk specifically about how you're going to proceed in 
that context, particularly if we can't deal with the pitfalls 
that surround sequestration?
    Mr. Scher. Certainly. First of all, Senator, as I think we 
were asked and I would like to emphasize, sequestration throws 
all of this into question, and it is something the Department 
feels very strongly about broadly.
    In terms of the ``fly-before-you-buy,'' that is part of our 
stated policy in the Ballistic Missile Defense Review. I, if 
confirmed, will continue to support that. Certainly we need a 
robust testing program, but we do not want to be testing things 
that we are not comfortable will succeed, although obviously 
testing means that sometimes we'll fail. But ``fly-before-you-
buy'' is stated policy and, if confirmed, I will continue that.
    Senator Udall. We have an objective through the President's 
leadership of reducing the total number of deployed nuclear 
weapons. We're working on bilateral negotiations with Russia. 
Can you elaborate on why it's possible to reduce the total 
number of deployed strategic weapons without jeopardizing our 
security or weakening the deterrent effect of our nuclear 
enterprise?
    Mr. Scher. Senator, right now we are looking to get down to 
the New Strategic Arms Reduction Treaty (START) levels, which 
we look to get to in the early part of 2018. The President has 
said that he believes that we could reduce that further, but he 
also made clear during that, that that was part of a negotiated 
process with the Russians, that we wouldn't seek to do that 
without that bilateral work with the Russians. Right now, it's 
hard to imagine that we are in that situation where we could 
talk to the Russians about that kind of work.
    Senator Udall. Thank you for that set of insights.
    Before turning to Ms. Slotkin, I want to acknowledge Ms. 
Starzak. You did great work on the Senate Intelligence 
Committee. I've been proud to serve on that committee for 4 
years, and I want to thank you for your work and for the work 
you're going to do in the future. You have certainly earned my 
respect and support for your efforts there.
    Ms. Starzak. Thank you, Senator.
    Senator Udall. I look forward to working with you when you 
are confirmed, shall we say.
    Ms. Slotkin, you have an enormous portfolio which you've 
come to, I think, well prepared to handle. Would you talk a bit 
about the Sahel and the sub-Sahara and what's happening there 
and what we need to do to have an effective presence?
    Ms. Slotkin. Sure. The Sahel and, in general, North and 
West Africa are an area where we're seeing the proliferation of 
extremist groups, some of them small, some of them medium 
sized, and it's something that we keep a very close eye on, 
particularly in Mali and the countries surrounding Mali.
    I think, first and foremost, we direct our attention in our 
Intelligence Community on those changing threats. Second of 
all, we work closely with partners in the region, improving our 
relationships, improving our cooperation so that we can face 
the common threats. They are under most direct threat from 
these groups.
    Additionally, as you've seen in Mali, we work very closely 
with our allies, particularly our European allies, in actually 
combatting the threat.
    DOD is very engaged in supporting a French effort and a 
United Nations (U.N.) effort to try to bring stability back to 
Mali where we had real problems with extremists in the past 
year-and-a-half.
    Senator Udall. I believe Senator Fischer and others on the 
panel have already asked you about how we encourage our allies, 
shall we say, to do more. I think the NATO countries are well 
aware of the threats, and we need to see them make a greater 
investment in their military capabilities.
    Talk about our Arab allies and what it will take for them 
to realize they cannot continue to play both arsonist and 
fireman when it comes to the threat of Islamic fundamentalism 
and the terrorism that follows.
    Ms. Slotkin. Sure. We have robust relationships with our 
Arab allies, particularly the Gulf states. I think what we're 
seeing right now in operations in both Iraq and Syria is a real 
proof of concept of the work that we've done with the Gulf 
states in particular to build up their capabilities.
    We now have a number of Arab states who are flying combat 
missions over Syria and Iraq. They're performing targeting. 
They're performing a number of activities that we do and that 
they're doing in our stead, and I think that that's critically 
important and different than the last time we were engaged in 
Iraq. I think we've made some progress on that score.
    I do think that the states of the region see a real threat 
from ISIL and the extremists. They see a real threat from the 
instability emanating out of Syria, and we work very closely 
with those states to try and counter it in their neighborhoods 
and get them engaged to do more, both in Iraq and Syria.
    Senator Udall. I have a minute left. I know you're a 
student of history. I know you also have, as Senator Reed 
pointed out, experience on the ground in Iraq. Could you tell 
us what historical lessons that you believe we have either 
ignored or we've overemphasized in the past several years, 
particularly in regards to the Middle East?
    Ms. Slotkin. Sure. I think that the greatest lesson that 
I've learned over the past 11 years in government is that 
military success must be complemented with political 
reconciliation and reform, or it certainly isn't lasting. I 
think we learned that before we decided to surge in Iraq. I 
think we learned the positive lessons during the surge and just 
after, and I think we saw that demonstrated when Prime Minister 
Maliki squandered the opportunities that we had provided him. I 
think that would be, sir, my bumper sticker lesson, political 
reform to complement military success.
    Senator Udall. Thank you for that insight.
    Thank you all for your service.
    Chairman Levin [presiding]. We have how long left on the 
vote? We have 3\1/2\ minutes plus 5 for the vote. So if you 
want to start----
    Senator Manchin. I can start very quickly.
    Chairman Levin. If there's nobody here, then just recess, 
if you would, until one of us comes back.
    Senator Manchin. Yes.
    Chairman Levin. Thank you.
    Senator Manchin [presiding]. I'll start for a few minutes, 
and then we'll recess.
    First of all, I want to thank all of you and recognize your 
outstanding service to the Nation. I want to thank you for 
accepting the nomination and thus shoulder the task to help 
ensure that our Nation's military remains the greatest in the 
world.
    With that being said, Mr. Scher, if I may, I'll start with 
you. Having watched this year's Iraqi security forces fail to 
stop the invasion of ISIS, I remain concerned as we draw down 
forces in Afghanistan. I want to be clear that I do not support 
keeping a large American force in Afghanistan indefinitely. It 
seems likely that we will need a counter-insurgency force, 
special forces if you will, there for some time.
    How can we prevent Afghanistan ending the way Iraq did, 
sir?
    Mr. Scher. Senator, I believe that one of the important 
things is our continued commitment to Afghanistan and working 
very closely with the country and the leadership there. I have 
great faith and confidence in John Campbell, who is the 
International Security Assistance Force (ISAF) commander, and I 
think he has a great vision and working relationship with the 
Afghanistan leadership, and I expect that he will continue to 
provide advice and counsel to the Department and to the 
President about what the relationship should be and what 
military forces and military missions should be there for the 
President to make a final decision.
    I also think that we will benefit from looking at the 
lessons of our engagement in Iraq and hopefully be able to 
apply them appropriately in Afghanistan.
    Senator Manchin. Let me ask you about the Afghan security 
forces and securing their own territory, especially given the 
recent voluntary departure of the Kabul police chief.
    Mr. Scher. Senator, I don't have a direct view of how 
capable the Afghan security forces are. I know we've been 
working closely with them. There are certainly some forces that 
are quite capable and other forces that are probably still 
engaged in learning. I wouldn't have an assessment but would 
rely on the assessment of General Campbell about how effective 
they will be as we draw down our forces.
    Senator Manchin. Concerning Ukraine, what more can be done 
there for us to help Ukraine, other than just the little bit of 
token help that we're giving right now and the supplies they've 
asked for and the type of armament?
    Mr. Scher. Senator, I think that, as Ms. Slotkin has said, 
we are providing a good amount of support to the Ukrainian 
forces. This is not solely a military condition that we are 
facing. This has to be addressed both by the military and 
political and diplomatic. There's a range of things from the 
perspective of DOD that could be brought forward, but certainly 
we'd have to do that in the context of the whole-of-government 
approach.
    Senator Manchin. At this time we're going to go ahead and 
recess, and I'm going to go vote, and we'll come right back, 
and everyone should be back here in a few minutes, okay? Thank 
you.
    Meeting recessed. [Recess.]
    Senator Shaheen [presiding]. If I can call the hearing back 
to order. Since I'm the only one here and I'm up next, we'll 
get started until someone else comes.
    Senator Nelson. I'm here.
    Senator Shaheen. I know, but they told me I was ahead of 
you, Senator Nelson. [Laughter.]
    They said I could go anyway.
    Senator Nelson. We have another vote coming.
    Senator Shaheen. Yes.
    Thank you all very much both for your willingness to 
continue to serve our country and also for being here today.
    I would like to start, Admiral Harris, with you, and thank 
you for taking the time to come in and meet with me. I very 
much appreciate that.
    One of the things that we discussed in our meeting was the 
potential for Compass Call, which is the military's only 
standoff electronic weapons program, to be looked at as 
potentially coming back and providing for important electronic 
attack aircraft support in the Pacific generally. I ask this 
because this is a program that some of our businesses in New 
Hampshire are very involved in, and I just wonder if you could 
talk a little bit about the potential for this system and how 
it could be used in the Pacific.
    Admiral Harris. Yes, ma'am. I have used or been associated 
with Compass Call in the past in some of my previous 
assignments. It's a fantastic platform and there's nothing like 
it for what it does. If confirmed, I believe that there's a 
real need for that electronic attack capability in the Pacific. 
If confirmed, I'll be asking for all that I can get for all the 
things that are out there in the electronic attack arena.
    Senator Shaheen. Thank you very much. Anything that we can 
do to support that I certainly am interested in doing.
    I want to follow up next on a question that Senator Inhofe 
asked and that a number of you have referred to around 
sequestration because obviously it's something that all of us 
on the committee are also very concerned about, and you all 
acknowledged the potential impact of sequestration. I wonder if 
you could define how long we have to solve this problem before 
it becomes long-term irreversible, or at least has a dramatic 
impact in the long term before we can address reversing the 
impacts of sequestration.
    Admiral Harris, do you have any sense of how soon it 
becomes an increasing burden?
    Admiral Harris. Senator, it's already a burden. We were 
sequestered in 2013, and we're still coming out of the burden 
to the maintenance of our ships and aircraft and our training 
of personnel, particularly our pilots. I believe that the 
sooner we can get the sequester reversed, the better off we 
are. If we wait until 2016, that will just be so much the more 
that we'll have to come out of the valley that we find 
ourselves in. If we wait until 2020 or 2021, I think it will be 
too late. I believe by then we'll be down to maybe 250 ships.
    China is going to have 350 ships by 2020, and we're going 
to be down to 250 to 255. I believe that's dramatic, and that's 
globally. China is going to have them all there in the Pacific, 
and we're going to have 250 to 255 to meet all the demands of 
all the commands and commanders in the whole world. I think the 
sooner that the sequester can be reversed, the better off we 
will be.
    Senator Shaheen. Would anyone else like to add to that?
    Mr. Scher. Senator, if I could, in addition to supporting 
everything that Admiral Harris has said, I think the other big 
piece is predictability, the fact that we go year to year not 
knowing exactly what we can plan for. It's very hard to do 
long-term strategic planning with short-term budgeting. In 
addition to sequester and the effects we are seeing right now 
and still trying to climb out of, getting some level of 
predictability and avoiding Continuing Resolutions is very 
important to the defense budget.
    Senator Shaheen. Thank you.
    Ms. Slotkin?
    Ms. Slotkin. I'd just echo those comments as someone who, 
if confirmed, would be responsible for a pretty fractious part 
of the world. The predictability is critical to making sure 
that we have the flexible, agile posture, presence, 
capabilities that we need to handle these threats. I'd just 
echo what Bob Scher has just said.
    Senator Shaheen. Thank you.
    Anyone else want to add to that? Mr. Berteau?
    Mr. Berteau. Senator, thank you. I think one of the lessons 
we see from history from previous drawdowns is that each year 
you delay adding back, the more it costs. It's not a one-for-
one tradeoff. I think that's part of the calculation that you 
have to bring into it there.
    Senator Shaheen. Thank you.
    Ms. Starzak, I'm not going to overlook you, but since 
you're part of the legal system, I'm going to go on to my next 
question, and this is for Ms. Slotkin.
    You talked about lethal weapons as one of the options that 
was being considered in Ukraine. Deputy National Security 
Advisor Tony Blinken also talked about lethal assistance 
remaining an option that's under consideration.
    The question that I have for you is under what 
circumstances would the administration consider that option and 
actually taking it off the table and actually providing lethal 
assistance?
    Ms. Slotkin. Ma'am, I think that that conversation is going 
on now. Frankly, the failure of Russia to live up to the Minsk 
agreement, the agreement that they signed and then almost 
immediately started to violate, has just added urgency to the 
conversation, and those considerations are going on right now.
    Senator Shaheen. Have you been part of those conversations?
    Ms. Slotkin. I have, among a number of others in the 
building and throughout the interagency.
    Senator Shaheen. It's still not clear to me what you're 
saying about what circumstances would suggest that lethal 
assistance is the best course of action.
    Ms. Slotkin. Ma'am, I think there's quite a number of 
factors that need to be considered when we think about moving 
to providing----
    Senator Shaheen. Yes, like what?
    Ms. Slotkin. I think the reaction of the Russians is 
important, what we would do with other states around Russia. I 
think that there are larger policy implications that are being 
discussed, and those are important factors.
    Senator Shaheen. One of the comments you made was about 
Prime Minister Abadi and efforts that he was making in Iraq to 
reach out to the Sunnis. What has been the response of Sunnis 
to those efforts?
    Ms. Slotkin. I think the response has been mixed. In some 
cases it's been very positive. He named a Sunni minister of 
defense who is very capable and who spent quite a bit of time 
out in Anbar Province. He's committed to bringing in members of 
the tribes out in Anbar into the security forces. But I think, 
as you can imagine, some of those tribal elements are 
concerned. They want to know what is truly in it for them, 
whether the government will follow through, because they've 
seen it go a different way in the recent past.
    I think he's saying and doing the right things. The Sunnis 
are starting to get engaged, but they are skeptical.
    Senator Shaheen. Are there any other measures that we think 
he could take in the short term or that he has suggested that 
might be helpful in reassuring the Sunnis that he's serious 
about trying to include them in the government?
    Ms. Slotkin. Sure. I think actions speak louder than words. 
He has been very public about his intent to bring a large 
number of Sunni fighters into the Iraqi security forces. Given 
the losses that they've had in the Iraqi security forces, when 
he starts bringing folks in and actually paying them, putting 
them on the payroll, providing them with uniforms, which he is 
I think trying very hard to do, that to me is going to be 
something that will demonstrate to folks out there that this is 
someone who is serious--actions more than words.
    Senator Shaheen. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Senator Shaheen and members of 
the committee, and thank you all for your service and 
willingness to continue service in these important positions.
    I'd like to ask some questions about the war against ISIL 
that's underway right now. Let me read a statement from the 
President from November 5th. ``I'm going to begin engaging 
Congress over a new authorization to use military force against 
ISIL. With respect to the authorized use of military force 
(AUMF), we've already had conversations with members of both 
parties in Congress, and the idea is to right-size and update 
whatever authorization Congress provides to suit the current 
fight rather than the previous fights. We now have a different 
type of enemy. The strategy is different. So it makes sense for 
us to make sure that the authorization from Congress reflects 
what we perceive to be not just our strategy over the next 2 or 
3 months but our strategy going forward.''
    Do any of you disagree with that statement by the 
President? [No response.]
    I'll take that as a no.
    I assert that there would be some wisdom in Congress 
debating and coming up with an authorization for the war 
against ISIL based upon the magnitude of the operation, the 
expected operations. Do any of you disagree with that point? 
[No response.]
    No?
    Do any of you disagree that a debate and a congressional 
vote about the war against ISIL would educate the American 
public about the threat that ISIL poses to the Nation and our 
allies? [No response.]
    None disagree on that point.
    Do any of you disagree that a debate and a congressional 
vote about the war against ISIL would actually offer some 
support to our troops that we're asking them to fight by 
suggesting that the political leadership of the country is 
behind their mission? Do any of you disagree with that 
assertion? [No response.]
    Senator Kaine. I have looked to see whether a president has 
suggested and actually engaged in the initiation of military 
action and said I want to have an authorization from Congress 
but has not sent a proposed authorization to Congress, and I 
can't find another example of that other than in this 
circumstance. Do any of you know of a circumstance where a 
president has said to Congress I want you to authorize this, 
but the White House has not offered a draft authorization? Are 
any of you aware of another instance prior to this? [No 
response.]
    No?
    Would you all agree with the assertion that the wording of 
an authorization against ISIL is something that's not only 
important for a Congress that passes it but it should be of 
critical importance to the administration? Would you agree with 
that assertion? [No response.]
    Would you agree with the assertion that if it's important 
to the administration what the authorization contains, you're 
more likely to get what you think is right if you propose your 
draft version of it rather than just if you rely on a fairly 
dysfunctional bunch of Members of Congress of both parties to 
come up with a version? Would you agree that you'd be more 
likely to get your version if you offered a proposal? Does 
anyone disagree with that assertion? [No response.]
    Do any of you know of any reason why the White House has 
not forwarded to Congress a draft authorization for a war 
against ISIL that commenced on August 8th and that is now 
nearly 4 months down the road? Do any of you know of any reason 
why the White House has not forwarded to Congress a draft 
authorization? [No response.]
    No?
    Admiral Harris, let me ask you a question about an aspect 
of your PACOM responsibility, which is the military-to-military 
relationship with India. As we've discussed, I recently 
returned with Senator McCain from a visit to India, and I was 
really struck for a variety of reasons with real opportunities 
we have to build a continuous strong relationship with the 
military in India in a very strategic part of the world. Could 
you offer your thoughts on that?
    Admiral Harris. Yes, sir. I believe that India is a key 
nation in the region. I refer to my responsibilities as the 
Pacific Fleet commander as covering the Indo-Asia Pacific. I 
use that term intentionally because I believe in the strategic 
balance that's offered by India. It's a critical country, and 
it's an important country and, I believe, an important friend 
of the United States. I'll plan to visit India in January as 
the Pacific Fleet commander, and I'll look forward to that 
visit. I visited there before in the past, and I look forward 
to returning there. If confirmed as Pacific commander, my 
intention is to continue those relationships with my 
counterparts in India.
    Senator Kaine. I think Senator King and I were both 
surprised when we were told in India that India does more joint 
military exercises with the United States than with any other 
nation. We viewed that as a positive sign, and I'd like to 
encourage you to continue that and accelerate that trend.
    Admiral Harris. It is a positive sign. This past summer, 
India was involved in a trilateral exercise with us and Japan 
called Malabar. They did it in the Western Pacific, which I 
believe is significant. India sent a ship to RIMPAC [Rim of the 
Pacific Exercise] for a Pacific exercise in Hawaii this year, 
and we welcome their presence there, their leaders there, and 
they have a terrific navy. I look forward to continuing my 
relationships with the navy and expanding those relationships 
with all of the Indian joint forces if confirmed as PACOM 
Commander.
    Senator Kaine. Thank you.
    Ms. Starzak, I'm interested in the integration of women 
into all the military occupation specialties (MOS), and 
especially combat MOSs that have previously been closed to 
women in service. Could you offer your perspective about the 
progress the Army has made on this integration of women into 
combat-related MOSs and what you see sort of future 
developments pertaining to this important topic?
    Ms. Starzak. Absolutely, Senator. Senator, my understanding 
after Secretary Panetta rescinded the 1994 direct combat 
definition of assignment women in January 2013, the Secretary 
of the Army provided a plan on how to move forward. The idea 
would be to complete the integration of women by January 2016, 
so that is the timeframe that we're currently looking at.
    It's been a work in progress, as I understand it. I think 
we've looked at opening specific specialties, provided 
congressional notice as things have moved forward, and I think 
we will continue with that process through January 2016.
    Senator Kaine. I hope we might have a status hearing at 
some point on this and have representatives from all the 
Services. I think a lot of good work is being done, and it's 
different Service to Service for obvious reasons, but I think 
it's something that the committee would really enjoy hearing 
about across Service. That's something that I may suggest in 
the next calendar year.
    I have no further questions, Madam Chairman.
    Senator Shaheen. Thank you.
    Senator King?
    Senator King. Thank you, Senator Shaheen.
    Mr. Scher, for well over 60 years we've had a clearly 
delineated, widely understood strategy with regard to nuclear 
weapons around the world called deterrence, mutually assured 
destruction. Everybody understood that, and it was based upon 
an assumption that people were at least somewhat rational and 
that they would not want their country to be destroyed.
    Unfortunately, we now seem to be moving into an era where 
there is at least a possibility of non-state actors acquiring 
nuclear weapons who would not necessarily be concerned about 
their destruction.
    Where do you see us going in terms of a long-term strategic 
deterrent, if deterrent is the right word, or a long-term 
strategy for dealing with a proliferation of nuclear weapons to 
non-state actors?
    Mr. Scher. Senator, the situation you point out is one of 
the reasons that we spend so much time and effort on 
nonproliferation efforts with the Department and the U.S. 
Government as a whole. The scenario you have painted is one 
that is frightening and also one that could be believable.
    Obviously, nuclear weapons continue to have a modest but 
very important role in our overall strategy, but they are a 
part of the overall strategy and a part of what we bring to the 
table to deter adversaries. It is not simply the nuclear 
weapons.
    I think that, as part of a broad whole, making sure that we 
have all of the capabilities of DOD, the U.S. Government as a 
whole to address the threats from terrorist groups, as well as 
a clear focus and work with other nations on deterring 
proliferation, that includes being part of the treaty 
structure, the nonproliferation treaty. That is how we look to 
approach hoping to stop proliferation and then dealing with the 
proliferants.
    Senator King. I agree with you that nonproliferation 
certainly is a first line of defense, along with intelligence 
and other areas. But I commend to you the task of developing a 
strategy because I think this is a future that, unfortunately, 
we may well face. It's my particular nightmare scenario, 
because if you have people who don't care about dying, the idea 
of mutually assured destruction doesn't really have much 
resonance. I hope that that's something you'll follow up on.
    Mr. Scher. Absolutely, Senator.
    Senator King. Ms. Slotkin, we don't want the Russians to 
invade Ukraine. Is that correct?
    Ms. Slotkin. Correct, sir.
    Senator King. If you want to prevent an invasion, wouldn't 
the provision of lethal aid to the Ukrainian military be a way 
to help to deter that invasion rather than wait until the 
invasion occurs and then try to fight a rearguard action?
    Ms. Slotkin. Sir, imposing costs on the Russians for their 
aggressive behavior is part of the response to the Russians, 
and hopefully to prevent them doing future activities along the 
same lines. Part of that--there is a military dimension to 
that, but there's also an economic dimension, there's also a 
political dimension. It's much more than just the stuff we can 
give them.
    Senator King. I understand that. But you're being proposed 
here--the title is advisor. As they used to ask on law school 
questions, the President or the Secretary of Defense walks into 
your office and says we're worried that the Russians are going 
to invade Ukraine and the possibility of lethal aid might help 
prevent that. What do you advise?
    Ms. Slotkin. Sir, in this circumstance, no one piece of 
equipment is going to help the Ukrainians have military parity 
with the Russians. Unfortunately, there is no singular military 
solution to the problem.
    Senator King. There may be no one singular piece of 
equipment, but a general reinforcement and strengthening of 
their capability, whether it's with military hardware, whatever 
the panoply of weapons that they've looked for, wouldn't that 
make the Russians think twice?
    Ms. Slotkin. Yes, I think that that's an important 
component, and that is why we've provided over $100 million in 
security assistance; and again, importantly, established this 
joint commission to try and get them to a new place in their 
military capability.
    Senator King. Let me move to ISIL. Can they be defeated 
entirely by air power?
    Ms. Slotkin. No, sir.
    Senator King. It's going to require troops; is that not 
correct?
    Ms. Slotkin. It will require local forces on the ground who 
are able to clear and hold the territory that we complement 
with air power.
    Senator King. What's your assessment of the timing of the 
local forces on the ground, by which I presume you mean 
principally the Iraqi military? When will they be ready to do 
house-to-house clearing in Mosul?
    Ms. Slotkin. I think the situation with the Iraqi military 
is currently mixed. We sent assessors over in the summer to 
look at the Iraqi military and found that a little over half of 
the units that we looked at were capable of going on the 
offensive. I think the picture is mixed.
    Senator King. I'm interested in your assessment of how long 
it will take to get to the point where enough of their army is 
capable in order to carry out the second half of the mission.
    Ms. Slotkin. First of all, we do have units already going 
on the offensive. They've taken back cities, dams, and 
strategic infrastructure. We do see units already moving out. 
But I think, sir, if your question is when do we really think 
we'll be able to destroy ISIL, I think this campaign will take 
years, not months.
    Senator King. A similar question in Syria. Who are going to 
be the troops in Syria?
    Ms. Slotkin. Syria is a much more complicated picture, sir. 
We have the Syrian moderate opposition who are a diverse number 
of groups with different levels of capabilities, and we know 
that they are under real pressure. This is why we've sent a 
proposal to Congress for a train and equip program for the 
Syrian moderate opposition to start to build up those forces on 
the ground.
    Senator King. That train and equip program is rather modest 
and will be years in the making. I take it you're suggesting 
that the campaign in Syria may be also years.
    Ms. Slotkin. I think, unfortunately, the struggles across 
both Iraq and Syria will take years, not months.
    Senator King. How are we doing in degrading ISIL's 
financial capability?
    Ms. Slotkin. I think the good news story there, sir, is 
they were gleaning a significant amount of revenue from black 
market oil sales and their control of some key nodes in Iraq on 
the oil infrastructure, and through air power we have been able 
to destroy some of their heavy equipment, dislodge them from 
some of those key locations, particularly the Baiji Refinery. 
We've seen their revenues, monthly revenues, go down 
significantly.
    Senator King. Can we put a number on significantly? Is it 
20 percent, 50 percent, 70 percent?
    Ms. Slotkin. I don't have a number for you, sir. I'm happy 
to get back to you with what our current assessment is.
    Senator King. I would appreciate that.
    Ms. Slotkin. Sure.
    Senator King. Because I think that's a very important part 
of this war.
    Ms. Slotkin. Sure. Happy to do so.
    Senator King. Thank you.
    [The information referred to follows:]

    The U.S. Government estimates Islamic State of Iraq and the Levant 
(ISIL) earns millions of dollars per month through a range of sources, 
including oil sales, foreign donations, ransom payments, extortion, and 
other criminal activity--but, the average monthly totals have declined 
significantly. According to the Department of the Treasury, ISIL 
generated approximately $1 million a day through oil and refined 
petroleum product sales until Coalition actions to degrade ISIL's 
capabilities in late-summer 2014. The Department of the Treasury now 
assesses ISIL earns less from stolen and smuggled oil sales--now 
averaging up to a few million dollars per week. Coalition airstrikes 
are impeding ISIL's freedom of movement and particularly their ability 
to pump, refine, and sell oil, thereby reducing their revenue stream. 
The U.S. Government has also imposed sanctions on anyone who trades in 
ISIL's stolen oil or refined product.

    Senator King. Admiral, you talked about China as an 
enduring threat. I'd like to ask you a question, sort of 
analogizing it to Russia and the Ukraine. China moves against 
one of its neighbors in the South China Sea. What can we as a 
practical matter do given their concentration of force in that 
region? Similar to what can we as a practical matter do about 
Russia's annexation of Crimea?
    Admiral Harris. Senator, with regard to China moving 
against some of its neighbors, the potential for that to 
happen, we have treaty obligations with five of the countries 
in the Pacific, including Japan, Korea, Thailand, the 
Philippines, and Australia. If China were to move against one 
of those countries, then those treaty obligations would be 
brought to bear, I believe.
    The best opportunity that we have to preclude China's 
expansionist tendencies in Asia is force presence, is to be 
there when it matters and where it matters.
    Senator King. Similar to what I was talking with Ms. 
Slotkin about, the deterrence of having force in the area.
    Admiral Harris. Yes, sir. Force presence matters, and 
having forces, whether they are in my case today's naval forces 
or, if confirmed, the joint force there in the Western Pacific 
to be ready to respond immediately to our friends and allies, 
especially our allies there, matters. It matters on a 
fundamental level, and that's the value of force presence, and 
that is why I believe we must continue to maintain that 
presence in the Western Pacific.
    Senator King. I can't resist, in closing, pointing out the 
irony of if we were called upon to come to the aid of one of 
our allies in that region against an expansionist China, given 
our terrible financial condition, we would end up borrowing the 
money from China in order to arm our allies to fight China, but 
I won't pursue that.
    Thank you very much, Admiral.
    Admiral Harris. Sure.
    Senator King. Thank you all for your service.
    Chairman Levin [presiding]. Thank you very much, Senator 
King.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank all of you and your families for your 
sacrifice.
    Ms. Slotkin, we recently passed another deadline in the 
P5+1 [five permanent members of the U.N. Security Council plus 
Germany] discussions. This is the second time, and I know how 
important it is to get this right, and what a great benefit it 
is if we can get it right. But I'm starting to become concerned 
by this pattern, and what I'm wondering is with regard to the 
most recent extension, your views on this and what is the hang-
up and what do we have to do to get this right now.
    Ms. Slotkin. Sure. Sir, the negotiations and the extension, 
they still are under the hat of our overall policy, which is to 
prevent Iran from acquiring a nuclear weapon. We still believe 
negotiations are the clearest route to do that right now, but 
from a Department perspective, we underwrite those negotiations 
with our posture, with our capabilities, with our presence in 
the Gulf, and we continue to provide all options, including 
contingency planning for whatever the President may decide to 
do.
    We believe the negotiations are the right way forward, but 
as the Department, we stand by with a whole range of options 
for the President.
    Senator Donnelly. How do these extensions impact our 
ability to manage Iran's influence with Iraq and with Syria in 
supporting the militias and the Assad regime?
    Ms. Slotkin. The P5+1 negotiations are about the nuclear 
component, but what is separate are Iran's continuing 
destabilizing activities in the region, in the Middle East, and 
in other parts of the world. We haven't taken our eye off that 
ball. We continue, particularly from the Department's point of 
view, to go after the Iranians, to look at them very clearly in 
what they're doing in their meddling.
    The nuclear negotiations are one area where the State 
Department has the lead, but there are lots of other things 
that we remain deeply concerned about with the Iranians' 
behavior.
    Senator Donnelly. Ms. Starzak, one of the issues that has 
almost burned a hole in my heart, I guess you would say, is the 
military suicide rate. As counsel for the Army, you have the 
ability to play a prominent role in continuing to bring that 
rate down. We all shoot for zero on that one. I want to know 
your commitment to making sure that happens, that there's 
legislation that's going to be coming through in the National 
Defense Authorization Act (NDAA), your implementation of it, 
and that there's a significant, in every way, commitment from 
the Army, and I know there is, to get this to zero.
    Ms. Starzak. Senator, I am absolutely committed to doing 
everything I can to help get it to zero, and I share your 
concern with the military suicide problem, particularly the 
suicide problem in the Army, and I will do whatever I can.
    Senator Donnelly. Okay. I hope when you see the NDAA come 
through you'll take a look at that and see the new clauses in 
there and do everything you can to implement it to make it as 
simple as possible for all of our servicemembers.
    Ms. Starzak. Thank you, Senator. Absolutely.
    Senator Donnelly. Ms. Slotkin, how closely are you working 
with Syrian tribal leaders and leaders in that country who may 
want to provide help for us? Because one of the things that you 
hear is a lack of human intelligence from Syria, which is 
extremely concerning because how do we know what's going on on 
the ground if we don't have friends to talk to us about it? I 
know we're working with Sunni tribal leaders, to try to work 
with them and help move it in Iraq. Where are we, if anywhere, 
with Syrian tribal leaders?
    Ms. Slotkin. Senator, the tribal leaders in Syria, I don't 
know the specifics of whether we deal with specific tribal 
leaders. I will tell you the good news is many of the tribes in 
Western Anbar in Iraq have families that span the border right 
there, so strong relationships with tribes on the Iraqi side of 
the border is particularly helpful with managing relationships 
with members of his family, of his tribe, on the other side of 
the border.
    Senator Donnelly. Do we have any programs with those Sunni 
tribal leaders in Iraq to find out what they know what's going 
on in Syria, to find out what they're doing with their 
relations in that area? Because Syria has been just an 
extraordinary killing field.
    Ms. Slotkin. We are reestablishing many of our contacts 
with tribal leaders out in Western Anbar and, more importantly, 
we are assisting the Government of Iraq in their outreach to 
the tribal leaders. I know that Syria is a topic of regular 
conversation just because ISIL spans the border, the counter-
ISIL campaign spans the border between Iraq and Syria. I'm not 
aware of the specifics, sir, but I'm happy to take that back.
    [The information referred to follows:]

    The Department of Defense has engaged in informal discussions with 
moderate elements of the Syrian opposition. The Department, however, 
does not engage directly with tribal leaders in Syria at this time. In 
preparation for the Syria train-and-equip program, we are working 
closely with the Department of State, the intelligence community, and 
foreign partners to identify local leaders in Syria and candidates for 
the program. The Department of State has also been working for years 
with local councils and nongovernmental organizations (NGOs) within 
Syria to deliver humanitarian aid and non-lethal assistance. Through 
these non-lethal assistance programs, Department of State is able to 
gain a better understanding of the current situation within different 
regions of Syria and identify potentially trustworthy partners willing 
to pursue local governance.
    In Iraq, while the Department of State leads U.S. Government 
engagement with Sunni leaders, the Department of Defense also engages 
with tribal leaders on a range of security issues. Both Departments are 
clearly focused on supporting the Government of Iraq's efforts to build 
Iraqi Government and security forces inclusive of all elements of 
society, including Sunni Arabs. While some tribal leaders have insights 
on dynamics in the Iraq-Syria border region and eastern Syria, the 
primary focus of our tribal engagement in Iraq is to enhance the 
institutional relationship between local Sunni Arab leaders in Iraq and 
the Government of Iraq.

    Senator Donnelly. Another thing I'd like you to take back 
is the amount of resources you have to get the job done there, 
specifically aerial resources, because from all I have seen, 
there has been an incredible shortage of unmanned aerial 
vehicles and other products that are needed to find out what's 
going on. Our ability to function to the best of our 
capabilities is dependent on that, and it appears to me we are 
woefully short in that area, and I'd like to know why.
    Ms. Slotkin. Definitely, sir, intelligence, surveillance, 
and reconnaissance (ISR), if that's what you're referring to, 
is an extremely high-density asset.
    Senator Donnelly. Yes.
    Ms. Slotkin. Every combatant commander, I'm sure--Admiral 
Harris will tell you every COCOM commander wants more ISR. It's 
in deep competition among the COCOM commanders. I can tell you 
we have thrown significant amounts of ISR at the counter-ISIL 
campaign. I think we are still at 24-hour coverage above Iraq, 
at a minimum.
    But you're right, there is still competition for this 
resource. It's invaluable to us, and I hear your concerns.
    Senator Donnelly. You certainly don't have 24-hour coverage 
over Syria, do you?
    Ms. Slotkin. We do not.
    Senator Donnelly. I would like to see, if you could provide 
me, your list of priorities, because I've been very, very 
concerned that the way we've been using them, and with the way 
priorities were lined up, we're really skewed, which has caused 
us extraordinary damage. I would like to see your ideas as to 
what should be prioritized right now, right now, and what is 
not.
    Ms. Slotkin. I'm happy to take that back, sir. Thank you.
    [The information referred to follows:]

    Intelligence, Surveillance, and Reconnaissance (ISR) assets are 
some of the most in-demand worldwide assets that the Department of 
Defense manages--and are therefore assigned to missions in accordance 
with U.S. national security interests. Changes in ISR coverage are 
approved by the Secretary of Defense. At present, a significant amount 
of worldwide ISR is focused on the U.S. Central Command area of 
responsibility. The priorities for ISR missions in Iraq and Syria 
include disrupting terrorist plots against the United States, 
protecting U.S. persons and U.S. Government facilities, and supporting 
U.S. and coalition forces involved in Operation Inherent Resolve.
    For an in-depth list of the Department's ISR priorities and 
allocation, we are happy to provide a classified briefing at your 
convenience.

    Senator Donnelly. Thank you very much.
    Mr. Berteau, one of the things that we do in Indiana at 
Naval Warfare Center Crane in Southern Indiana, is we do a lot 
of work to detect counterfeit parts, and that's something that 
you get one part that's off, it can cause extraordinary damage 
to planes, to missiles, et cetera. I was wondering your views 
on counterfeit parts and the importance of continuing to make 
sure that what comes through comes through as what we bought 
for, what we paid for, and that we are getting what we were 
supposed to get.
    Mr. Berteau. Senator, this has been an issue of some 
importance to this committee. In fact, statutory changes were 
put in place.
    Senator Donnelly. Right.
    Mr. Berteau. I have not had the privilege of reviewing the 
data on where DOD stands today in terms of bringing down the 
incidence of counterfeit parts. I am aware of the role Crane 
plays. I've been there a number of times. But it's one of the 
issues that I would take as a high priority and look into, if 
confirmed.
    Senator Donnelly. That would be great, because as the 
logistics guru, we want to make sure that the stuff you're 
shipping is the right stuff.
    Mr. Berteau. Absolutely.
    Senator Donnelly. Thank you so much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Donnelly.
    Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    I thank all of you for being here this morning.
    I'd like to start with Admiral Harris.
    Admiral Harris, the March 14, 2014 U.S.-China Economic and 
Security Review Commission Report said that, ``There is growing 
concern among U.S. allies and partners that the United States 
will be unable to follow through on its commitment to the 
rebalance due to declining defense budgets and continuing 
security challenges elsewhere. There is also the perception 
that the rebalance to the Asia Pacific region is a concept and 
not something that is a priority.''
    Admiral Harris, the regional stability in the Asia-Pacific 
area is very important, particularly as there is instability in 
so many other parts of the world, and I know that you said this 
morning in your testimony that the rebalance is real, and you 
cited some examples of decisions and actions that have been 
taken to reflect that reality.
    From what you have seen, though, how is the rebalance 
progressing, and what are the future impacts of sequestration 
in 2016, and what have you heard about the rebalance from your 
counterparts in other countries?
    Admiral Harris. Senator, I believe the rebalance is real 
and we're well into it. From the Navy perspective, our intent 
is to have 60 percent of the Navy rebalanced to the Pacific by 
2020. We are at about 56 or 57 percent right now in terms of 
ships. We are already at 60 percent in terms of submarines. The 
Navy, if we continue on the path we're on, will actually 
increase in size by 2020 to about 308 ships from the present 
289. This 60 percent would be 60 percent of a larger number, 
and I think that's significant.
    If we are sequestered, if the sequester continues, then 
that number could be diminished dramatically, as I mentioned 
before, to as low as 250. The number of ships in the Navy that 
would be in the Pacific would be decreased. I think the 
sequester has an effect on that.
    My relationships with my colleagues in uniform in the 
Pacific are strong, and I believe that they welcome the U.S. 
rebalance, and I believe that they are watching what we do very 
closely. They're watching our commitment to the rebalance, the 
types of ships, aircraft and submarines that we are putting 
forward in the Pacific, and I'll be happy to tell you that we 
are putting our best and our newest platforms forward, our 
Virginia-class submarines, our P8 Poseidons, EA-18 Growlers, 
our best aircraft, our best submarines, our best carriers are 
coming forward to the Pacific. But they are watching that very 
closely, as I am, and I think that they will be concerned 
should the sequester continue, just as I will be.
    Senator Hirono. Admiral, the rebalance is not just about 
the military context but it involves diplomatic, cultural, 
economic concerns. I do have a very specific question about 
what sequestration could bring and the impact to Hawaii. As the 
Army's Supplemental Programmatic Environmental Assessment 
explores the impact of reducing some 19,800 Army servicemembers 
and civilian personnel from Fort Shafter and Schofield Barracks 
in Hawaii, this scenario represents a population loss of 70 
percent at Schofield Barracks and 34 percent at Fort Shafter.
    Can you talk about the impact of these kinds of reductions 
on the capability and readiness of our 25th Infantry Division 
at Fort Shafter in Hawaii? Because I know you've talked about 
forward presence and how important that is.
    Admiral Harris. Senator, I view with concern any reduction 
in any of the forces we have in the Pacific, including and 
especially Hawaii, and I'll review that even more if confirmed 
as the PACOM commander. I have said publicly that I think 
Hawaii is the key, is the gateway to the rebalance, and I think 
the sequester will affect that without a doubt.
    Senator Hirono. A reduction of 19,800, which is a scenario 
that is reflected, as I said, in the Supplemental Programmatic 
Environmental Assessment, is a cause of huge concern to not 
just our national security but, of course, to Hawaii, because 
it would have a significant impact on the economy. But sitting 
here, though, what we're focusing on is national security and 
our readiness with regard to this part of the world.
    I just want to make a note for the record of this committee 
that sequestration in 2016 is an issue that we're going to need 
to deal with in a sensible way.
    You noted in your testimony, and I quote you, ``We should 
continue to use military engagement with China to demonstrate 
U.S. commitment to the security of the Asia-Pacific region and 
to encourage China to play a constructive role in the region, 
and to press China to partner with the United States and our 
friends in the region to address common security challenges.''
    Could you elaborate on how you will specifically 
accomplish, assuming that you are confirmed, a military-to-
military engagement with China to encourage more collaboration 
for mutual security and/or humanitarian relief concerns?
    Admiral Harris. Yes, ma'am. I believe that a strong China 
of itself, a strong military in China of itself is not a bad 
thing, and we welcome the rise of a strong China that 
participates in the international arena. I'm concerned, as I 
mentioned before, about the provocations that China has 
embarked on in the East China Sea and the South China Sea. At 
the same time, I want to acknowledge and applaud China's 
efforts in the removal of chemical weapons from Syria and the 
counter-piracy efforts in the Horn of Africa/Gulf of Aden 
region, their work in the search for the Malaysian airliner MH-
370, their work in supporting the Philippines during the Haiyan 
Typhoon disaster last year. These are positive things.
    But on the other hand, they're engaged in increasing 
provocations and tensions in the South China Sea and the East 
China Sea with their neighbors. They have put in place the Air 
Defense Identification Zone, which we believe is illegal. They 
are working counter to regional stability and peace in that 
area. I view that with concern.
    I think it's important that we continue to have a military-
to-military dialogue with China, and I believe that, if 
confirmed, I will pursue that in the joint arena, as I'm doing 
now in the Navy arena.
    Senator Hirono. I do recall that when Admiral Locklear 
testified before this committee, he said that one of the areas 
that he would like to improve is a better military-to-military 
relationship with China. At that time, he noted that he has 
that kind of relationship with Russia. That may have changed 
after Ukraine, but nonetheless we think it's really important.
    Ms. Slotkin, Jordan is facing many challenges in a region 
that is filled with instability, and I know that they're taking 
in many refugees as a result of various conflicts, and most 
recently Syrian refugees. What is your assessment of the 
situation there, and what are we doing--we, our country doing--
to assist our ally, Jordan?
    Ms. Slotkin. Sure. We have a robust relationship and an 
enduring relationship with the Jordanians, military-to-
military, Intelligence Community to Intelligence Community, 
political, economic, spans the whole gamut. We have engaged 
with them for quite some time right now about minimizing the 
instability coming out of Syria.
    They are hosting a significant number of refugees, and our 
close military-to-military relationship has resulted in quite a 
bit of joint cooperative work on deterring threats coming out 
of Syria. They are supporting us in our operations in and 
around the region. We are in regular dialogue with them every 
day, and we are extremely concerned, particularly given that 
they also border Iraq, with their border security and have 
invested significant resources in bulking up their border 
efforts.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hirono.
    We'll have a 5-minute second round. I expect other 
colleagues are coming back, and there is a vote, I think our 
final vote. We're trying to find out if this is our final vote.
    Let me ask a couple of questions of you, Admiral. You've 
testified about the problems in the South China Sea, and my 
question has to do with the Convention on the Law of the Sea, 
as to whether or not joining that convention would benefit the 
U.S. military operations in the Asia Pacific, and how does not 
being a party disadvantage the United States, if it does.
    Admiral Harris. Senator, I'm a supporter of the Law of the 
Sea, and I believe that U.S. succession to the United Nations 
Convention on the Law of the Sea would be positive and would 
help me, if confirmed, in my responsibilities in the Western 
Pacific, especially in the South China Sea and in the East 
China Sea. I believe it gives us the moral high ground to be 
critical of other countries' actions there, and it shows 
support for the international norms and rules.
    Being a member, acceding to the treaty does not mean that 
we're going to lose any of our rights or freedoms or ability to 
maneuver. But I believe that becoming a member of that treaty 
would be helpful in the region and would be perceived as 
positive by our friends and allies in the area.
    Chairman Levin. Thank you.
    Admiral, as it stands now, during a time of war on the 
Korean Peninsula, the United States would be in operational 
control of the combined U.S. and South Korean forces. That 
arrangement was put in place 60 years ago. Today, South Korea 
is a prosperous nation with a very capable military, and it 
should be responsible for its own national defense, with our 
support and the support of others.
    Admiral, I've been promised on numerous occasions that 
there would be a transfer of wartime operational control from 
the United States to the Republic of Korea. That commitment has 
been made to me many times over the last decades. While the 
most recent announcement characterizes this as a delay, it 
doesn't appear that operational control or OPCON transfer is 
ever going to happen. I hate saying that because I hope it 
will, and I hope it will soon. Nonetheless, I just don't see it 
happening, and I see a lot of broken commitments. They're 
unnecessary, in my judgment, because of the capability of the 
Korean army. Obviously, we would continue to be there in a 
supporting role, but that's different from having operational 
control.
    Do you support the transfer of wartime operational control 
to South Korea?
    Admiral Harris. Senator, I do support the concept of 
operational control transfer to South Korea when they are ready 
to take it, and I think that's an important consideration. I 
would defer to General Scaparrotti, of course, because he is 
there on the Peninsula. I would be concerned if they were to 
take it today. They think they're not ready, and operational 
control means that they would have control of our forces, of 
U.S. forces in Korea, and I would not want that to happen until 
we are both confident, us and Korea, we are both confident that 
they're ready to take it, sir.
    Chairman Levin. I think they're always going to say they're 
not ready because that keeps us there in an operational control 
capacity, which is their preference apparently. But I think we 
have to, after all these decades, recognize the reality that 
they have a very prosperous nation, they have a capable 
military, and they should be responsible, with our help and 
support, for their own defense.
    Let's see. In terms of a first round, in terms of Senator 
McCain and Senator Ayotte, we're on the first round. I've 
started the second round.
    Senator McCain?
    Oh, I'm sorry. Yes, it goes Senator McCain, then back to 
Senator Manchin to complete the first round.
    Senator McCain. Thank you, Mr. Chairman, and I apologize 
for being on the floor. There was an issue on the floor, and 
this is what we run into when we are having a hearing and floor 
votes as well. It's very regrettable because we have five 
nominees, the most I've ever seen, in a very truncated process 
here, and you and I have already discussed perhaps the need for 
additional hearing of these witnesses. It just doesn't work 
when we have votes on the floor and confirmation hearings at 
the same time because all of us should get the benefit of the 
responses to the questions by our colleagues.
    Ms. Slotkin, in answer to previous questions, you said we 
are discussing a Turkish proposal. Is that correct?
    Ms. Slotkin. Elements of a Turkish proposal. Yes, sir.
    Senator McCain. We don't have a proposal of our own?
    Ms. Slotkin. I'm sorry. For the no-fly zone is what you're 
referring to?
    Senator McCain. No-fly zone and other aspects of what was 
described to me by General Allen.
    Ms. Slotkin. We have robust conversations going on on----
    Senator McCain. I'm asking do we have a proposal?
    Ms. Slotkin. Sir, I am not aware of a specific proposal.
    Senator McCain. We don't have a strategy?
    Ms. Slotkin. I don't think that--that's not what I'm 
saying, sir.
    Senator McCain. Tell me what the strategy is.
    Ms. Slotkin. Our strategy against ISIL is, first and 
foremost, to defeat that organization across both of our----
    Senator McCain. That's an objective. That's not a strategy.
    Ms. Slotkin. So our strategy--I mean, if you're asking what 
our goals are in Syria----
    Senator McCain. I'm not asking what the goals are. I'm 
asking what the strategy is.
    Ms. Slotkin. Our strategy is to defeat ISIL, to----
    Senator McCain. I just repeated, that's a goal, that's not 
a strategy. I want to know what the strategy is, which entails 
what we deploy, what forces are necessary, what actions need to 
be taken in order to implement or to succeed in the goal that 
the President has articulated of degrading and defeating ISIS.
    Ms. Slotkin. On defeating ISIS, we have an air campaign 
going on across both Iraq and Syria. We are looking to improve 
the capability of the Syrian moderate opposition through a 
train and equip program and ultimately force Assad into a 
political transition where he departs Damascus.
    Senator McCain. Are we bombing any Bashir Assad targets/
forces?
    Ms. Slotkin. My understanding is the targets at this time 
are ISIL targets.
    Senator McCain. I see, no attacks on----
    Ms. Slotkin. ISIL targets--I'm sorry.
    Senator McCain. No attacks on Bashir Assad's forces while 
Bashir Assad is barrel bombing the free Syrian army.
    Ms. Slotkin. My understanding is our targets are ISIL and--
--
    Senator McCain. I'm not asking for your understanding. Is 
it or not? I mean, you're working in the Pentagon. Your title 
is International Security Affairs. I'm not asking for your 
understanding. I'm asking for the facts.
    Ms. Slotkin. Our targets are ISIL and other extremist 
groups, including the Khorasan group.
    Senator McCain. But not the free Syrian army.
    Ms. Slotkin. Bombing the free Syrian army, sir, no.
    Senator McCain. Does that strike you as a bit immoral that 
we would ask thousands of young Syrians to go to Saudi Arabia 
and other places and be trained and equipped and sent back into 
the fight and be barrel bombed by Bashir Assad, and we leave 
Bashir Assad alone? Does that strike you as a little bit 
immoral, Ms. Slotkin?
    Ms. Slotkin. Sir, I think what Bashir Assad is doing is 
immoral. I think he is the magnet for terrorism.
    Senator McCain. Is it not immoral when we don't try to stop 
him from barrel bombing innocent men, women, and children?
    Ms. Slotkin. We are attempting to apply a strategy to force 
him to a political transition, sir.
    Senator McCain. By leaving him alone and not hitting him 
with air strikes? That's bizarre.
    In one of your statements, you cited your work in helping 
to end the war in Iraq as among the most rewarding of your 
career. ``I helped negotiate the U.S.-Iraqi Status of Forces 
Agreement in 2008, which for the first time established a 
concrete timetable for withdrawal from Iraq which President 
Obama completed in 2011. To see that agreement signed and our 
troops depart were important emotional events in my life.'' Is 
that an accurate quote?
    Ms. Slotkin. Correct.
    Senator McCain. How is that working out?
    Ms. Slotkin. Sir, I'm extremely disturbed about what ISIL 
was able to do in Iraq.
    Senator McCain. It sort of just happened, like a hurricane 
or an earthquake?
    Ms. Slotkin. No, sir. No, sir, it did not just happen.
    Senator McCain. Did you support what most of us argued 
passionately for, and that was to leave a stabilizing force 
behind, which Ambassador Crocker and Secretary Gates and 
Secretary Panetta all said that we could have gotten? Don't 
take my and Joe Lieberman's and Lindsay Graham's word for it, 
their word for it, that we could have negotiated.
    Ms. Slotkin. Sir, the administration attempted to negotiate 
with the Iraqi Government, and at the time they thought they 
could handle the threats on their own and they did not invite 
us in.
    Senator McCain. That's just patently false, Ms. Slotkin, 
because I was in Baghdad when we talked to Maliki, and they 
were ready. We came back and asked your superiors what is the 
force that we want to leave behind? In the words of Chairman 
Dempsey, 3,500 was the number agreed on, which was our final 
offer. We would not tell them the size of the force and what 
their mission would be. Now, those are facts, because we were 
there on the ground. For you to sit there and say that we tried 
obviously contradicts three of the most respected people in 
America, Ambassador Crocker, Secretary Panetta, and Secretary 
Gates. In all due respect to you, Ms. Slotkin, you either don't 
know the truth or you are not telling the truth to this 
committee, because we could have left a stabilizing force 
behind.
    Now, if it's your opinion, then that's fine. But the facts 
are not that.
    You are glad to see the agreement signed and our troops 
depart, and that was an emotional event in your life. How are 
your emotions now?
    Ms. Slotkin. As I told you, sir, I'm extremely disturbed 
about what ISIL was able to do in that country.
    Senator McCain. So did the surge work?
    Ms. Slotkin. Yes.
    Senator McCain. The surge worked, and you supported it?
    Ms. Slotkin. I supported it because I lived it. I went and 
worked at the National Security Council under the Bush 
administration when we decided to surge.
    Senator McCain. Uh-huh. Did it succeed in achieving the 
goals as the President, General Petreus, and Ambassador Crocker 
defined them at the time?
    Ms. Slotkin. Yes. It was absolutely the catalyst that 
turned the tide in Iraq.
    Senator McCain. Are you ruling out the involvement of U.S. 
troops in combat roles, as General Dempsey said he thought U.S. 
troops may need to take on a combat role?
    Ms. Slotkin. Do I support combat troops, sir? Is that----
    Senator McCain. Are you ruling out the involvement of U.S. 
troops in combat roles?
    Ms. Slotkin. While I'm obviously not the ultimate 
decisionmaker, sir, I think General Dempsey said that if he 
feels the need, he would recommend that. That is his right. 
We'd have to look at the conditions in the future on the 
ground.
    Senator McCain. How are the conditions now, Ms. Slotkin?
    Ms. Slotkin. I think that they're better than they were in 
the early summer, but I think we still have a long way to go.
    Senator McCain. They're better than they were?
    Ms. Slotkin. Yes, when Mosul fell in June.
    Senator McCain. In Kobani and the fact that they've taken 
additional places and they continue to attract thousands of 
young men and a few young women from around the world to their 
banner, and they continue to slaughter innocent men, women and 
children, declaring that enslavement of women is in keeping 
with Sharia law? I guess your view and my view are very 
different about how we're succeeding. The most powerful air 
force in the world has still been unable to allow the 
opposition to take Kobani back.
    Do you know why that is, Ms. Slotkin? It's because we don't 
have air controllers on the ground. We don't have people 
identifying targets. We don't have the kind of close air 
support that is necessary to win these conflicts. When we give 
them a week's warning that we're going to attack them and then 
strike empty buildings, and with the small number of attacks 
that are carried out, we're not winning, Ms. Slotkin, because 
we're not succeeding in rolling back the enormous gains that 
they have made.
    I have lots of additional questions for this witness, Mr. 
Chairman. I do not believe she is qualified. I believe that she 
can't articulate a strategy for the defeat of ISIS, and I will 
have many additional questions.
    I see my time has expired.
    Chairman Levin. Thank you.
    We're in the middle of a second round. We're having the end 
of the first round and the second round going on 
simultaneously.
    Senator Manchin to complete his first round, and then I 
believe it's Senator Ayotte.
    Senator Manchin. Thank you very much, Mr. Chairman.
    To Mr. Berteau, if I may ask, I understand the Defense 
Logistics Agency (DLA) is responsible for the oversight of more 
than 5.2 million items at a price tag of $35 billion in annual 
spending for acquisitions.
    Given these rather astounding impressive numbers, how well 
prepared is the DLA to complete a full audit? We've been trying 
to get an audit at DOD. How well prepared are you all to do 
that?
    Mr. Berteau. Sir, I have not looked at the finances 
internally of DLA. I'm aware of the reports that they provide 
publicly and to Congress, but I can't gauge from that how close 
they are to audit readiness. I think that would be a primary 
interest that I would take on immediately if confirmed.
    Senator Manchin. Do you accept the audit proposal? We've 
been asking for an audit of DOD, agency by agency within the 
Defense Department.
    Mr. Berteau. That's absolutely critical. I'm impressed with 
the progress that appears to have been made there. This is an 
issue that's been on the docket for 30 years, and elements of 
DOD are now, for the first time, passing audits, and I think 
that's an enormous step in the right direction. How close DLA 
is itself to being ready to do that I can't gauge, but I will 
certainly take that on.
    Senator Manchin. I'll ask the question of all of you. I'm 
going to go to Admiral Harris. First of all, in your role of 
the tremendous job that you have and that you're doing, do you 
believe that we can do more with less, or do you believe that 
sequestering is basically without the flexibility? If we gave 
you the flexibility to sequester, and let's say politically we 
can't get through the sequester and get over that hump but we 
were able to give you more latitude as far as flexibility, 
would that help relieve some of the problems you're incurring, 
or is just the lack of money, period, causing most of your 
problems?
    Admiral Harris. Senator, I think any increase in 
flexibility would be helpful. But at the end of the day, the 
amount we're talking about can't be overcome by just shifting 
money around.
    Senator Manchin. Got you.
    Admiral Harris. I believe that we should go to a knife 
fight with a gun and not with a butter knife. I think the long-
term sequester will have that effect on us.
    Senator Manchin. You also described basically China's 
strategy in maritime East Asia and how well we're doing to 
support our allies over there?
    Admiral Harris. Yes, sir. I believe that China has embarked 
on a maritime sovereignty campaign in East Asia, and I believe 
that we best support our allies and partners and friends out 
there by being there. Forward presence matters, and I believe 
that--
    Senator Manchin. What's the period of time, do you think? 
I'm so sorry, Admiral, because they gave us such little time 
here. What's the period of time you think it will take for 
China to get up to a very threatening force, if you will?
    Admiral Harris. I think for some regimes, they're already 
at a threatening level. I believe by 2020, some estimates will 
have them having a navy of 350 ships. The U.S.-China Commission 
Report that Senator Hirono talked about, the 2014 report says 
that China will soon be able to threaten our national security 
advantages in space, our national security satellite program. I 
view that with significant concern.
    Senator Manchin. This is to Ms. Slotkin again, if you will. 
The Iraqi army is reportedly paying salaries to 50,000 soldiers 
who exist only on paper. I think you've touched on this, but if 
you could do it again, it just boggles my mind. American 
taxpayers spent $20 billion training the Iraqi army. We saw 
them fold quicker than a cheap suit and run.
    With the amount of money that you're trying to re-surge, if 
you will, to get them up to speed, what are you taking, what 
steps are you taking so this will be prevented, and what have 
you done on these ghost payments and all these millions and 
millions of dollars? Who is receiving that money?
    Ms. Slotkin. Sir, the good news was it was Prime Minister 
Abadi, in front of his parliament, who made that speech about 
fighting corruption, and he was the one who cited the number of 
50,000 ghost soldiers on his account. The Iraqis are very cash 
poor right now, so he is extremely interested in reaping that 
money----
    Senator Manchin. Who received the money? Since there were 
no soldiers receiving the pay, who took the graft?
    Ms. Slotkin. What I understand is that corrupt military 
leaders, many of whom have been removed from their posts----
    Senator Manchin. Under Maliki?
    Ms. Slotkin. Under Maliki.
    Senator Manchin. So Maliki himself directly?
    Ms. Slotkin. I don't know about him himself, but certainly 
commanders who had those ghost soldiers on their books were 
simply taking their salaries is what I understand.
    Senator Manchin. Do you know if there is any action being 
taken against them?
    Ms. Slotkin. Besides the Prime Minister removed 36 of those 
commanders and another 20-plus today from the Ministry of the 
Interior, and----
    Senator Manchin. Do you know if there are any actions the 
United States Government is taking to get that money back to 
the United States Treasury?
    Ms. Slotkin. I do not know of any action.
    Senator Manchin. Could you check that out for me and let me 
know on that?
    Ms. Slotkin. Sure.
    [The information referred to follows:]

    The Government of Iraq is responsible for its own budget 
expenditures and Iraqi leaders, working from the top down, have the 
strongest ability to prevent corruption among Iraqi Government and 
security officials.
    The U.S. Government, with the Department of State in the lead, is 
actively working with the Iraqi Government to support its efforts to 
curb corruption in its system. The Department of State routinely 
engages Prime Minister Abadi to lead on this effort. To this end, Prime 
Minister Abadi has taken some important steps early in his tenure, 
including relieving from their positions dozens of Ministry of Defense 
and Ministry of Interior officials who were not appropriately executing 
their responsibilities or accused of corruption. Prime Minister Abadi 
also gave a public speech in front of parliament highlighting the 
problem of corruption and ghost soldiers and pledging to clean up the 
record-keeping to prevent this problem from happening again.
    The U.S. Government is not taking action to retrieve retroactive 
funds from the Government of Iraq. The U.S. Government has not paid 
salaries for the Iraqi Security Forces since the conclusion of 
Operation New Dawn in December 2011. Since then, salaries have been 
paid by the Government of Iraq.

    Senator Manchin. Also, what are we doing to ensure this 
doesn't--I can't believe that we're sending checks, giving them 
money designated for soldiers that don't even exist. Who is 
checking that?
    Ms. Slotkin. Right now, sir, we are not providing any money 
for salaries, for uniforms, for life support for the Iraqi 
soldiers. The Iraqi Government is providing that. What we're 
proposing in our Iraq train and equip fund is to provide them 
some capability training to help them stand up or restand 12 
brigades up in the country. We're not suggesting that we pay 
for salaries, for life support, for uniforms, as we did 
previously.
    Senator Manchin. Real quick, if I may, sir, one final 
thing.
    On the Kurds, where do we stand with the Kurds? Are we 
getting any equipment to the Kurds to defend themselves? 
Because they're the only ones who seem willing to fight and die 
for their country.
    Ms. Slotkin. The Kurds had a delegation here last week. You 
may have seen them. I think this is actually a good news story. 
The Government of Iraq responded in extremis when the Kurds 
came to them and to us and to everyone in the world asking for 
a surge of weapons that they desperately needed. The Government 
of Iraq was the first to respond. They flew two C-130s of their 
own up there full of equipment; and then, frankly, a huge 
coalition of international partners has come to the aid of the 
Kurds to provide them those weapons because they are very much 
on the front lines. They just had a second tranche of equipment 
that they requested get approved by the Government of Iraq, and 
it includes things like mine resistant ambush protected 
vehicles and Humvees and anti-tank weapons, more serious 
weaponry.
    They are very much on the front lines, but I believe we're 
getting them equipment that they need.
    Senator Manchin. Thank you.
    Chairman Levin. Thank you. Thank you, Senator Manchin.
    Senator Ayotte?
    Senator Ayotte. I want to thank the Chairman.
    I'm going to give the beginning of my time to Senator 
McCain.
    Senator McCain. Ms. Slotkin, do you believe that we should 
be providing the Ukrainians with defensive weapons?
    Ms. Slotkin. Sir, that is something that's under 
consideration right now.
    Senator Ayotte. I want to thank the witnesses for being 
here and your willingness to serve.
    Admiral Harris, I would like to follow up with you. I know 
you've talked about the importance of our attack submarine 
fleet. What currently is our attack submarine fleet meeting the 
requests of our combatant commanders, and also the requests of 
what we need in PACOM?
    Admiral Harris. Senator, right now the combatant commander 
demand for attack submarines, we're only meeting as a Navy 
about half that demand, about 53 percent in the Pacific. Right 
now, while I can't go into the specifics of what the demand 
signal is in this hearing, the PACOM commander's demand signal 
is being met by me as the Pacific Fleet commander at just over 
50 percent.
    Senator Ayotte. Obviously you've already talked about the 
importance of the Virginia-class submarine and continuing to 
ensure that we have production of that submarine at an adequate 
rate to try to meet our concerns in terms of the requests of 
the combatant commanders.
    You and I have talked when we met in the office about the 
importance of our public shipyards, and one of the things that 
is very important is how we maintain our submarine fleet. I 
know that you have agreed, and I'm very glad and looking 
forward to hosting you at the Portsmouth Naval Shipyard. We're 
very proud of the Portsmouth Naval Shipyard and the work done 
by the very talented and trained workers there.
    In fact, one thing I wanted to highlight is that the 
Portsmouth Naval Shipyard has actually been producing and 
putting things out ahead of schedule, including in April the 
workers at the Shipyard undocked the USS Topeka 20 days ahead 
of schedule following an engineering overhaul. In June, they 
did the same thing in terms of maintenance availability for the 
USS California and got it back in the fleet 14 days ahead of 
time, as well as in September the Shipyard did the same, 
delivering the USS Springfield back to the fleet ahead of 
schedule and under budget.
    These are the kinds of examples of how do we, in a resource 
constrained environment, perform to a top level. I look forward 
to you seeing what we're doing at the shipyard, what the 
workers are doing there to be able to perform ahead of schedule 
on such an important function of maintaining our attack 
submarine fleet, and I look forward to hosting you and working 
out a time to do that.
    Admiral Harris. Yes, ma'am. I look forward to visiting 
Portsmouth. If confirmed, I'll do so as soon after I assume the 
command as possible. I think our public shipyards are national 
treasures. I think that schedule is money, and if you can make 
schedule or beat schedule, then you're making money, and I 
think that's important. I look forward to visiting Portsmouth.
    Senator Ayotte. Thank you, Admiral. I appreciate your 
willingness to do that.
    Ms. Slotkin, I wanted to follow up on the question. One of 
the questions I wanted to ask you was, as I understood it, 
Senator Inhofe asked you about what is happening in Ukraine. 
You answered his question saying you don't know what the actual 
definition of an invasion is.
    Do you believe what the Russians have done in Ukraine is an 
invasion of that country, yes or no?
    Ms. Slotkin. ma'am, we consider it an unlawful occupation 
of Crimea in particular and continuing destabilizing activities 
in Eastern Ukraine.
    Senator Ayotte. So do you believe that's an invasion?
    Ms. Slotkin. Again, I don't believe that--I don't want to 
misspeak, but I can tell you we believe it's an unlawful 
occupation.
    Senator Ayotte. So General Breedlove in November, who is 
the commander of the U.S. European Command, has said ``We have 
seen columns of Russian equipment, primarily Russian tanks, 
Russian artillery, Russian air defense systems, and Russian 
combat troops entering Ukraine.''
    If, in the United States of America, we saw columns of 
equipment from another country, tanks, artillery, air defense 
systems and combat troops against the will of our government 
entering this country, would you be prepared to call that an 
invasion?
    Ms. Slotkin. ma'am, again, I think, it sounds like an 
invasion, yes, the way you described it.
    Senator Ayotte. Okay. Let's just call it what it is, 
because you're being nominated for a very important position, 
and if we can't have basic conversation about what is an 
invasion of another country and what is not, then it's going to 
be very difficult to address the challenges we face in the 
national security context.
    Now that we understand that it is an invasion of another 
country, on this issue of lethal aid to Ukraine, what will you 
or will you not recommend that we should be providing lethal 
aid to Ukraine?
    Ms. Slotkin. ma'am, I believe, particularly in light of the 
events this fall with the Russian flagrant violation of the 
Minsk agreement that they had just signed up to, that all 
options should be on the table.
    Senator Ayotte. One thing that my office has been trying to 
get an answer from is that we have asked the Office of the 
Secretary of Defense to answer a very simple question, and that 
is, is the Defense Security Cooperation Agency developing a 
contingency plan to provide arms to Ukraine?
    Ms. Slotkin. ma'am, again, we've made a series of options 
available, including additional arms.
    Senator Ayotte. Does that mean that the answer is that the 
Defense Security Cooperation Agency is developing a contingency 
plan to provide arms to Ukraine? So the answer to that would be 
yes?
    Ms. Slotkin. As I've said, we've provided quite a number of 
options, including sending additional arms.
    Senator Ayotte. I want to make sure that I can get a 
specific follow-up to what I've just asked because that will be 
key to a contingency plan on the provision of arms.
    One thing, having listened to President Poroshenko come 
before the joint session of Congress, and essentially he's very 
appreciative of the assistance of the United States of America, 
but he rightly said that they cannot defend against columns of 
tanks, troops, air defense systems coming from Russia with 
blankets alone, and I would hope that we have a country with 
Ukraine that actually, under the Budapest Memorandum, gave up 
their nuclear weapons. We were a signatory to that agreement. 
Russia has actually repudiated that agreement by its actions in 
terms of not respecting the sovereignty of that country.
    I would hope that we would provide lethal assistance to 
Ukraine because I'm just not sure why any other country would 
ever give up their nuclear weapons again when we won't give 
them basic arms. don't you think that is an important 
consideration for us in the bigger picture?
    Ms. Slotkin. I think it's a consideration, ma'am, of 
course. But I do think, again, no matter what we give the 
Ukrainians, no one piece of equipment is going to make them 
military competitors to the Russians. There is certainly a 
military dimension to this problem, but there's not a military 
solution to the problem.
    Senator Ayotte. The President of Ukraine came to our 
Congress and asked for lethal assistance. He believes it's 
important. They're willing to fight and die for their own 
sovereignty. They gave up nuclear weapons, and in return for 
respect for their sovereignty we were signatory to that 
agreement, the Russians were a signatory to that agreement. 
When other countries like Lithuania in the Baltics say they are 
worried about what Russia's next steps are, I think that to 
think about the fact that they could be out-matched, so we're 
just going to let Russia run all over that country when they're 
willing to defend themselves, I think it's unconscionable that 
we have not provided this assistance to them, and I would 
hope--you are going to have a very important position--that you 
will provide a leadership position in saying that we really 
should be doing all that we can to allow them to defend 
themselves. If we don't, I think the consequences are quite 
grave, not only for Ukraine but the surrounding countries in 
the region.
    I know I'm beyond my time, so I thank the chairman.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you all for being here, and congratulations to you, 
and thank you for your service.
    I want to follow some of the questions about Ukraine that 
have been asked and at the outset say that I share the 
impatience and concern that has been articulated so well by my 
colleague and friend from New Hampshire and others on this 
panel. I think our situation there is increasingly untenable, 
whatever it's called--engagement, unlawful occupation. The fact 
of the matter is, as the New York Times reported just recently, 
Russian ``tanks and other military vehicles are pouring over 
the border from Russia into Eastern Ukraine''. Put aside what's 
happened in Crimea, Russian aggression has been flagrant, 
blatant, ongoing, effective in Eastern Ukraine, in real time. 
It's not history. It's ongoing right now.
    I believe that the time has come to provide defensive 
weapons, to listen to the Ukrainians, most recently the 
President of Ukraine, President Poroshenko, when he came to us 
in this Congress and asked for those kinds of weapons so that 
the Ukrainians could defend themselves.
    It's not that they are seeking to add land. They are 
defending themselves, and I've come to that point of view after 
a great deal of thought. I respect the expertise and 
experience, Ms. Slotkin, that you and others in DOD and the 
Department of State have in this area, and I'm not going to put 
you through the same round of questions.
    But I would ask, when will this decision be made about 
whether to provide these weapons? Because time is not on our 
side. The Russians are continuing to arm the rebels and 
separatists there, and people are dying. Two of the victims of 
Russian aggression are in the Bridgeport, Connecticut Burn 
Center right now, having lost limbs to this struggle. It 
affects the Ukrainian community in Connecticut and around the 
country. It's not just a Ukrainian struggle. Ukraine is the 
testing ground for the United States against this kind of 
blatant, ongoing aggression.
    What is the timeframe?
    Ms. Slotkin. Senator, those conversations are happening in 
real time. They're happening now. The ultimate decision is the 
President's, and I'm just not privy to the final timeline.
    Senator Blumenthal. When do you think we should be making a 
decision?
    Ms. Slotkin. Sir, I would always want decisions as fast as 
possible.
    Senator Blumenthal. What do you see as the immediate 
development there in terms of holding ground, holding land 
there, by the Ukrainian Government?
    Ms. Slotkin. I'm sorry, Senator, could you repeat that?
    Senator Blumenthal. What do you see as the developing line 
of events in the future? How soon do you think there will be 
continuing losses, or do you think there will be a continuing 
stalemate? What's your prediction as to what will happen in the 
next very short timeframe?
    Ms. Slotkin. Unfortunately, we continue to see Russia's 
destabilizing activities, their flagrant violation of the Minsk 
agreement. I, unfortunately, fear that will continue. I don't 
see that ebbing right now.
    Senator Blumenthal. That there will be continuing Russian 
aggression. But will there be loss of cities, of land? What's 
your prognosis?
    Ms. Slotkin. I hope not, Senator, and I believe the 
Ukrainian military is fortifying itself, and we continue to 
provide advice and counsel to them, along with additional 
equipment.
    Senator Blumenthal. If the President were to decide to 
increase the level of equipment, what would you recommend to 
him?
    Ms. Slotkin. Sir, as I've said, we've provided a range of 
options. I'm not at liberty to provide my private advice that 
I've provided up my chain.
    Senator Blumenthal. Let me shift topics, although the 
subject is still Russia. As you're aware, Rosoboronexport has 
been providing helicopters and Mi-17s to the Afghan Government 
with American taxpayer dollars buying them. I have been at the 
lead of the effort to stop those transactions, and the NDAA has 
a provision relating to those continuing purchases now of 
components and parts to maintain and supply the helicopters 
that have already been delivered.
    I regret that we are in the situation that we have found 
ourselves. I have opposed those continued deliveries of 
helicopters, as well as the continued sales of parts. They 
ought to be American helicopters, and the purchases certainly 
should not be from the Russian arms agency that continues to 
fuel aggression in Ukraine.
    I'm asking for your commitment on your confirmation. Will 
you commit to finding alternative means of maintaining and 
supplying parts for the existing inventories of Mi-17 
helicopters that we have financed, in effect?
    Ms. Slotkin. I will certainly commit to looking into 
alternatives, sir. I share your frustration.
    Senator Blumenthal. Thank you.
    That concludes my questions, Mr. Chairman. Thank you.
    Chairman Levin. Thank you, Senator Blumenthal.
    For a second round, Senator Ayotte?
    Senator Ayotte. Thank you, Mr. Chairman.
    Mr. Scher, I wanted to follow up with you. In your written 
response to the committee's questions, you were asked about 
nuclear weapons reductions, and you said, ``Yes, I believe we 
should pursue further negotiated verifiable reductions in the 
nuclear forces of the United States and Russia, and that would 
enhance U.S. national security.''
    You also cited the Nuclear Weapons Guidance announced in 
June 2013, and that would have included the President's 
assertion that we can ensure the security of the United States 
and our allies by safely pursuing up to a one-third reduction 
in our deployed strategic nuclear weapons from the levels 
established by the New START treaty.
    I want to ask you about that because, as I look at your 
answer in the advance policy questions, and citing the 
President's desire to reduce our nuclear deterrent another 
third, our strategic weapons, I would ask you how does that 
play when you look at the Russian violation of the 
Intermediate-Range Nuclear Forces Treaty, the INF Treaty, which 
the White House, in my view, belatedly acknowledged? Because 
I've been pursuing this issue for a while behind the scenes, 
but obviously that's a deep concern where they are flight 
testing ground-launched cruise missiles within a range of 500 
to 5,500 kilometers, so a violation of the INF Treaty. We have 
the invasion of Ukraine by the Russians.
    Tell me what you think about the potential reduction of our 
nuclear strategic stockpile and resources in light of the 
potential INF violations, in light of the invasion of Ukraine. 
That worries me in terms of your view of the role of our 
nuclear deterrent.
    Mr. Scher. Senator, I agree with the President's statements 
when they were made that we could reduce by up to a third if we 
did it in conjunction with the Russians in a negotiated 
process, that we would still be able to achieve our operational 
aims, as well as be safer with fewer nuclear weapons across the 
world.
    Certainly, however, as you have pointed out, we have to 
take a look at any discussions with Russia in the context of 
all of the activities that are going on, be it Ukraine, be it 
the violations of the INF Treaty. At this point, we've seen no 
indications that Russia has any interest in discussing any of 
these topics with us, especially not nuclear arms reductions, 
and as a result I would agree with the President that absent 
that cooperation with Russia, that we stay with the New START 
agreements, which we still see Russia adhering to.
    Senator Ayotte. Let me ask you this. Do you think that we 
should ever undertake a unilateral reduction without a 
negotiated agreement with Russia?
    Mr. Scher. I think that we are in a position now where I 
would obviously agree with the President that we could, but 
that the key is a negotiated reduction.
    Senator Ayotte. Do you believe that it would be important 
that if we were to achieve any reductions, it would be a 
negotiated reduction?
    Mr. Scher. I believe that that is a critical part to 
looking at how we could achieve our operational ends.
    Senator Ayotte. I would hope that if there were ever a move 
in that direction again, that you would also seek congressional 
approval. I might add, too, that obviously I don't think we 
could trust negotiating with the Russians right now, so I would 
hope that the administration would never at this point, in 
light of their behavior, think about going down that road.
    I also wanted to follow up one additional question to 
Admiral Harris, and that is on the missing-in-action (MIA) 
recovery operations in North Korea, Admiral. In October 2011, 
DOD announced an agreement with North Korea that would have 
allowed U.S. personnel to return to North Korea to resume 
recovery of remains of U.S. servicemembers missing in the 
Korean War. In your advance responses, you said that the 
arrangement negotiated in 2011 covered for a year is no longer 
valid, and I understand that given what we have seen from the 
Government of North Korea, and certainly that's really 
unfortunate when we look at the efforts we want to make on 
behalf of those who are missing in action and their families.
    We have 43 from New Hampshire that have been listed in 
terms of Korea, and we have a solemn obligation to ensure that 
we never leave our servicemembers behind and make every effort 
to recover their remains, and we owe them that.
    Do I have your commitment that you'll do everything 
possible, obviously consistent with our national security 
interests, to facilitate recovery operations in North Korea if 
it ever becomes viable again for us to do that with that 
government?
    Admiral Harris. Yes, ma'am, you do.
    Senator Ayotte. Okay. Thank you, Admiral.
    Chairman Levin. Let me continue, then, my second round.
    Ms. Slotkin, the ethnic and religious minority communities 
in Northern Iraq, including the Christians, have suffered 
horrific attacks by ISIL. They have had to flee violence in 
mass numbers. Several years ago the Government of Iraq issued 
an order to begin establishing the Nineveh Plain Police Force, 
a security force recruited from those vulnerable communities to 
provide local protection. U.S. forces in Iraq at the time 
supported the effort, but the Nineveh Force never attained its 
goal of 5,000 police personnel.
    Does the military assistance plan for Iraq include training 
and equipping local security forces in vulnerable ethnic and 
religious minority communities such as the Yazidis and the 
Christian communities in Nineveh to empower those communities 
to defend themselves from ISIL?
    Ms. Slotkin. Senator, we certainly welcome and support 
representatives of all the groups, particularly the most 
vulnerable, in our training program. It has not yet begun, but 
there's no reason why representatives from the entire spectrum 
shouldn't be in it.
    Chairman Levin. Is that part of the local police force 
plan, like the National Guard which we talk about, so that we 
have local people defending their own communities? Is it part 
of our plan specifically that the religious communities be 
focused on so that they can have the power to defend 
themselves?
    Ms. Slotkin. Yes. One of the key items of discussion with 
the Iraqis is the National Guard Program, which would indeed 
allow communities to provide for their own local security. It's 
an important initiative and would do exactly what you're 
talking about, allow forces to maintain responsibility for 
their own safety of their families and their communities.
    Chairman Levin. That includes an awareness that these very 
vulnerable communities have a need to do exactly that?
    Ms. Slotkin. Sir, I----
    Chairman Levin. Are they included in our plan specifically?
    Ms. Slotkin. Sir, again, there is no group that is excluded 
or included right now. It is a----
    Chairman Levin. Which means they're included?
    Ms. Slotkin. Absolutely.
    Chairman Levin. The question that you were asked about 
Ukraine--and, by the way, I very publicly urged that we provide 
the Government of Ukraine with non-provocative lethal weapons 
that are defensive weapons. When you answered the question that 
you don't have an answer on defensive weapons, I assume your 
answer referred to lethal defensive weapons.
    Ms. Slotkin. Yes.
    Chairman Levin. On non-lethal defensive weapons, I presume 
you----
    Ms. Slotkin. We're already providing, sir.
    Chairman Levin. That you would support?
    Ms. Slotkin. Of course.
    Chairman Levin. As long as I make clear my position, as I 
have repeatedly, I happen to believe it's long overdue, that 
non-provocative defensive weapons, even if they are lethal, 
should be provided. I also believe that there is no military 
solution but that if the Ukrainians want to die going down 
fighting, that they have that right to defend themselves, and 
we should give them what they're asking for, providing it's not 
provocative. If it's defensive weapons, that's different. But 
there's no intent or no evidence that Ukraine is going to 
invade Russia.
    The question really comes down to--and I add the word 
purposefully non-provocative defensive weapons. I don't know 
why we can't provide anti-tank weaponry to the Ukrainian 
Government. I don't understand why we can't do it. We 
understand that if Russia decided to move into the Ukraine in 
massive numbers, that there would be no stopping them. 
Ukrainians understand that, by the way, because we made it 
clear to the Ukrainians that this isn't going to be Hungary all 
over again, where we're implying to you that we're going to 
come militarily to your assistance with boots on the ground. 
They understand that. But they also don't understand why we 
don't help them do what they are determined to do, which is 
defend themselves, even if that means they end up in a guerilla 
war against Russia instead of being able to defeat them on a 
battlefield.
    I know you're in a position here, and I gather from your 
answers that you're in the middle of your present job of 
providing advice to the administration, so that puts some 
constraints on you, I gather, as to what your advice is. When 
you're asked what your advice would be, that is, in essence, 
asking for what your advice currently is in the areas of 
Ukraine and Iraq and Syria. Is that one of the reasons why 
there's some constraint in terms of your expressing your 
opinion as to what your advice would be, because you're 
currently giving that advice and you're not able publicly to 
say what your advice is to the administration?
    Ms. Slotkin. That's correct, sir.
    Chairman Levin. I think it would have been useful probably 
for you to indicate what those constraints are. I mean, that 
there are constraints. We don't have to have the exact 
definition of the constraints, but the fact that there are 
constraints, it seems to me, if it's not clear to everybody 
here, which it isn't, I think that it would have been helpful 
if you had made clear that there are those constraints. There 
are such constraints?
    Ms. Slotkin. There are, sir.
    Chairman Levin. Now, in terms of one of the questions of 
Senator McCain, this has to do with how much effort was made to 
leave some residual forces in Iraq. The decision was made by 
President Bush to set a date for the deadline for the removal 
of all of our forces. The issue battled back and forth is 
whether or not the Obama administration made an adequate effort 
to try to persuade Maliki that it's in everybody's interest, 
theirs and ours, that we leave some kind of a force there.
    This is what Secretary Gates said in his book. ``In the 
end, the Iraqi leadership did not try to get an agreement 
through their parliament that would have made possible a 
continued U.S. military presence after December 31.'' These are 
Gates' words: ``Maliki was just too fearful of the political 
consequences. Most Iraqis wanted us gone.'' From Gates' book, 
that's what I get. I have not heard him speak otherwise on this 
subject, or if I have I've forgotten what he said, but I read 
his book on this subject, and his book says that Maliki would 
not present an agreement to the parliament. That agreement, of 
course, would be a bilateral security agreement which would 
protect our troops in case of a claim that there was a criminal 
violation by one of our troops. We weren't about to leave it up 
to an Iraqi system of justice to try our troops. We insisted on 
a bilateral security agreement which would protect our troops, 
which we have with every other country where we have troops, at 
least most other countries where we have troops.
    That, just for the record, is what Gates said in his book, 
somewhat different from what Senator McCain said is Gates' 
position. But again, Senator McCain may have information I 
don't have about something that Secretary Gates may have said 
in some places other than in his book on this subject.
    When you say that relative to Ukraine there's a series of 
options which have been made available, to whom?
    Ms. Slotkin. Sir, the Defense Department, the State 
Department, we all sit in an interagency process. The Defense 
Department provides recommendations up through the Secretary of 
Defense and then over to the White House and the rest of the 
interagency for consideration. That's what I'm referring to.
    Chairman Levin. It goes up the chain, ultimately to the 
President?
    Ms. Slotkin. Ultimately the decisions that are made in the 
interagency must go up through the President when it's on an 
important decision. Yes, sir.
    Chairman Levin. You indicated that something was better in 
Iraq, I believe, than it was last summer. Were you referring to 
Iraq or to Syria or what?
    Ms. Slotkin. I was saying the security situation in Iraq 
today is at least better than when Mosul originally fell in 
June in Iraq.
    Chairman Levin. Okay. Can you explain what you meant by 
better? I know you don't believe it's good because----
    Ms. Slotkin. Yes, I wouldn't define it as good.
    Chairman Levin. But you indicated it was better. I'm just 
wondering if you would explain your position on that.
    Ms. Slotkin. Sure. I think since the summer, and certainly 
since we decided to take kinetic action in Iraq and provide air 
support, we've seen Iraqis, the Iraqi security forces and 
Kurdish Peshmerga forces and Iraqi tribal forces take back 
critical areas in Iraq that ISIL had captured in the early 
parts of their offensive in June, in particular key 
infrastructure locations, the Mosul dam, the Haditha dam, the 
Baiji refinery, major towns along the border with the Kurdistan 
regional government.
    I would by no means call it good, sir, but we have been 
able to support the Iraqis as they retake critical areas that 
were taken in the early parts of the summer.
    Chairman Levin. I don't see any of my colleagues here for 
the second round. It's about quarter to 1 p.m. now. What we 
will do is we will adjourn this hearing, and there will be 
questions for the record. Whether or not there's a need for an 
additional hearing for one or more of our witnesses, we will 
leave that question open.
    We obviously hope to move these nominations. It is a lame 
duck session. The timing is very, very difficult, not just for 
nominations but for the Defense bill that is the main 
responsibility of this committee. Our major responsibility is 
to get our Defense authorization passed. Our second 
responsibility, obviously, is to deal with nominees as part of 
the confirmation process.
    We're going to do the best we can on both fronts, hopefully 
get a Defense authorization bill, a new bill that would be a 
bipartisan bill, a bicameral bill introduced today which would 
reflect the efforts of our committees, the leadership of our 
committees, the staff on our committees for many, many months, 
indeed for a whole year. I hope we can get that bill passed.
    It will be introduced in a few hours, and I also again hope 
that we can get as many nominees as we can confirmed, but I 
don't want to raise false hopes on either account. Lame duck 
sessions are named in a weird way, but they also maybe involve 
much more than the usual understanding of lame duck, which 
means less power. It also means a lot less time to get an awful 
lot of work done that in some cases should have been done long 
ago.
    With that, we thank our witnesses. We thank your families.
    Again, the record will stay open, and we stand adjourned.
    [Whereupon, at 12:50 p.m., the committee adjourned.]

    [Prepared questions submitted to Mr. Robert M. Scher by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe the Goldwater-Nichols Act has been successful in 
improving operational and warfighting effectiveness, and I do not see 
the need to modify that legislation.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not think modification is required.
                             relationships
    Question. If confirmed, what will be your relationship with:
    The Secretary of Defense.
    Answer. At the direction of the Under Secretary of Defense for 
Policy (USD(P)), the Assistant Secretary of Defense for Strategy, 
Plans, and Capabilities (ASD/SPC) advises the Secretary of Defense on 
the formulation of national security and defense policy, the 
integration and oversight of the Department of Defense (DOD) policy and 
plans to achieve national security objectives, and strategy and policy 
on matters relating to nuclear weapons, missile defense, and security 
cooperation. ASD/SPC also provides policy support to the USD(P) and the 
Secretary in the Planning, Programming, Budgeting, and Execution 
processes inside the Department, including the Quadrennial Defense 
Review (QDR), the Nuclear Posture and follow-on reviews, and annual 
program and budget reviews.
    Question. The Deputy Secretary of Defense.
    Answer. The ASD/SPC provides similar support to the Deputy 
Secretary as described above.
    Question. The Under Secretaries.
    Answer. At the direction of the USD(P), the ASD/SPC works with the 
Under Secretaries of Defense in support of the Secretary's objectives. 
Specifically, the ASD/SPC provides the Under Secretary of Defense for 
Acquisition, Technology, and Logistics with policy input regarding 
acquisition and programmatic activities, most notably relating to 
nuclear weapons and missile defense.
    Question. The Assistant Secretaries of Defense.
    Answer. The ASD/SPC works collaboratively with other Assistant 
Secretaries of Defense to provide the USD(P) and the Secretary with 
advice on policy issues under consideration in the Department and 
provide policy oversight to ensure that the Secretary's guidance is 
implemented.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. At the direction of the USD(P), the ASD/SPC works with the 
Chairman and Vice Chairman to provide support on matters that affect 
strategy, force planning and employment, nuclear weapons, and missile 
defense.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The ASD/SPC provides similar support to the Vice Chairman 
as described above.
    Question. The Service Secretaries.
    Answer. At the direction of the USD(P), the ASD/SPC works with the 
Secretaries of the Military Departments on a broad range of strategy, 
policy, and force planning issues and other areas in which the Military 
Departments and Services are critical stakeholders.
    Question. The Service Chiefs
    Answer. At the direction of the USD(P), the ASD/SPC works with the 
Service Chiefs on a broad range of strategy, policy, and force planning 
issues.
    Question. The Commander of U.S. Strategic Command.
    Answer. At the direction of the USD(P) and in coordination with the 
CJCS, the ASD/SPC works with the Commander of U.S. Strategic Command on 
a broad range of issues that affect strategy and policy for nuclear 
weapons and missile defense.
    Question. The Commander of U.S. Cyber Command.
    Answer. At the direction of the USD(P) and in coordination with the 
CJCS, the ASD/SPC works with the Commander of U.S. Cyber Command in 
support of strategy development and execution and contingency planning.
    Question. The combatant commanders.
    Answer. At the direction of the USD(P), the ASD/SPC works closely 
with the Regional and Functional Combatant Commanders, particularly in 
support of strategy development and execution, and steady-state and 
contingency planning.
    Question. The Director, Defense Security Cooperation Agency.
    Answer. The ASD/SPC works collaboratively with the Director of the 
Defense Security Cooperation Agency (DSCA) to provide the USD(P) with 
advice and recommendations on security cooperation issues to ensure 
alignment with defense strategy.
    Question. The Administrator and Deputy Administrators of the 
National Nuclear Security Administration.
    Answer. The ASD/SPC works with the Administrator and Deputy 
Administrators of the National Nuclear Security Administration to 
provide policy support to the USD(P) and the Secretary of Defense on 
strategy and policy issues relating to nuclear weapons modernization 
and related issues.
                                 duties
    Question. The position for which you have been nominated has been 
substantially restructured.
    What is your understanding of the duties that you will be assigned 
if you are confirmed?
    Answer. My understanding is that the ASD/SPC is primarily 
responsible for advising and supporting the USD(P) and the Secretary of 
Defense on formulation and coordination of national security and 
defense strategy, the forces and contingency plans necessary to 
implement defense strategy, U.S. nuclear weapons and missile defense 
policy, and security cooperation plans and policies.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have had more than 23 years of experience in a variety of 
positions as a career civil servant in the Departments of Defense and 
State, as a political appointee in DOD, and as a consultant at Booz 
Allen Hamilton in many of the areas of responsibility assigned to the 
ASD/SPC. In my current capacity as the Deputy Assistant Secretary of 
Defense for Plans, I serve as the principal advisor to USD(P) and the 
Secretary on all policy matters pertaining to plans and force posture. 
During my 15-year tenure as a career civil servant in the Departments 
of Defense and State, I helped develop the strategic basis for U.S. 
Defense strategy, including participating in the oversight of the 
Bottom-Up Review and the 1997 QDR, and I worked extensively on 
Presidential Decision Directive-56 on conducting complex contingency 
operations.
    Question. What additional actions do you believe you need to take, 
if any, to fulfill the responsibilities of this position?
    Answer. If confirmed, I would focus on the actions and 
relationships necessary to perform the duties of the ASD/SPC 
effectively . Nuclear deterrence and missile defense policy will need 
particular attention and, if confirmed, I would develop the 
relationships and knowledge needed to provide policy guidance in these 
critical areas.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of Defense for Strategy, Plans, and 
Capabilities?
    Answer. Crafting strategic guidance, supporting programmatic 
options, and ensuring planning processes allow DOD to apply resources 
as efficiently as possible in an era of fiscal and strategic 
uncertainty will be challenging. It also will be a challenge to ensure 
that our efforts to modernize U.S. nuclear forces meet policy and 
strategy requirements in a cost-effective manner.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, it would be my priority to ensure our nuclear 
forces remain safe, secure, and effective and that they are planned, 
postured, operated, and modernized in accordance with policy guidance. 
I also would work to publish strategic guidance that promulgates clear 
priorities and risk tradeoffs and infuse this guidance into processes 
and decisionmaking fora throughout DOD.
    Question. What do you anticipate will be the most serious problems 
in the performance of your responsibilities?
    Answer. I am concerned about implementing policies and strategies 
in a cost-efficient manner.
    Question. If confirmed, what management action and timelines would 
you establish to address these problems?
    Answer. If confirmed, I would work with the USD(P) and the ASD/SPC 
staff to establish specific action plans and timelines and to identify 
and resolve problems relating to the ASD/SPC portfolio.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
for the office to which you have been nominated?
    Answer. If confirmed, my priorities for SPC would be to create a 
new fully integrated ASD component and to provide excellent policy 
support to the USD(P) and the Secretary across my portfolio.
                          contingency planning
    Question. One of the purposes of Goldwater-Nichols was to increase 
military and civilian attention on the formulation of strategy and 
contingency planning. The Assistant Secretary of Defense for Strategy, 
Plans, and Capabilities supports the USD(P) who is required to assist 
the Secretary of Defense in preparing written policy guidance for the 
preparation and review of contingency plans and in reviewing such 
plans.
    What is your view of the civilian role, as compared to the military 
role, in the formulation of strategy and contingency planning?
    Answer. Civilian leadership is critical and a statutory 
responsibility in the formulation of strategy and contingency planning. 
Civilian oversight takes our U.S. national security policies and 
establishes strategic ends and baseline assumptions for the military. 
The military uses those strategic ends and assumptions to guide its 
planning.
    Question. In your opinion, does the civilian leadership currently 
have an appropriate level of oversight of strategy formulation and 
contingency planning?
    Answer. In my experience, civilian leadership has the appropriate 
authorities and processes to provide effective oversight of strategy 
formulation and contingency planning.
    Question. What is your understanding and assessment of the 
capability and capacity of the Office of the Secretary of Defense and 
Joint Staff to provide comprehensive, objective and realistic joint 
analysis in support of formulating and evaluating strategy and 
operational plans and related force planning?
    Answer. The Office of the Secretary of Defense and the Joint Staff 
maintain sufficient analytic capacity to support strategy and 
operational plan development, but this is an area that requires 
constant review for the DOD. The Department is reinvigorating aspects 
of our analysis capability through the Support for Strategic Analysis 
(SSA) process to represent innovative concepts more effectively and 
assess their impact on the dynamic security environment more fully. 
Both organizations work very closely with the Services and combatant 
commands to ensure that analysis informing senior DOD leadership 
decisions on force structure and force planning is both objective and 
realistic.
    Question. What steps do you believe are necessary to ensure 
effective civilian control and oversight of strategy, contingency, and 
force planning?
    Answer. I believe our current processes and authorities support 
civilian control and oversight of strategy, contingency, and force 
planning. Discussions between civilian and military leadership are 
essential to the civilian oversight process. Existing processes ensure 
those discussions are taking place.
    Question. Many geographic combatant commands' contingency and 
operation plans are undergoing DOD review. These reviews are justified 
for a variety of reasons including geo-strategic change, risk 
assessments, potential adversary and our own capability enhancements, 
and fiscal realities.
    If confirmed, how would you determine whether the alterations to a 
contingency or operation plan are warranted due to geo-strategic 
change, risk assessments, potential adversary and our own capability 
enhancements, and fiscal realities?
    Answer. The plans review process involves many stakeholders and 
several analytic steps to ensure plans are current, in terms of the 
geo-political dynamics and DOD capabilities, and are viable, resource-
informed, and risk appropriate. If confirmed, I would leverage this 
process to ensure any change to planning is warranted and, then, 
ultimately approved by the Secretary.
                    major challenges and priorities
    Question. In your view, what are the major challenges confronting 
the Assistant Secretary of Defense for Strategy, Plans, and 
Capabilities?
    Answer. See my answer above.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. See my answer above.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of Defense for Strategy, Plans, and Capabilities?
    Answer. See my answer above.
                           strategic reviews
    Question. What is your understanding and evaluation of DOD's 
processes for strategic assessment, analysis, decisionmaking, and 
reporting for each of the following strategic reviews?

          The QDR (section 118 of title 10, U.S.C.);
          The National Military Strategy (section 153 of title 10, 
        U.S.C.);
          Global Defense Posture Review (section 2687a of title 10, 
        U.S.C.);
          The Quadrennial Roles and Missions Review (section 118b of 
        title 10, U.S.C.).

    Answer. Each of these strategic reviews plays an important role in 
providing guidance to the entire Department of Defense to achieve the 
objectives outlined in the President's National Security Strategy. 
These reviews also help the military departments, combatant commands, 
and DOD components prioritize their efforts and resources collectively 
to meet the Department's objectives under changing security and fiscal 
circumstances. The final documents also serve to communicate the 
Department's priorities with other audiences, both at home and abroad.
    At various points throughout my career, most recently in my 
position as Deputy Assistant Secretary of Defense for Plans, I have had 
the opportunity to participate in the preparation and dissemination of 
these reviews. I have observed various approaches based on defined 
requirements, including the strategic environment, timing, and 
leadership preference. That said, I believe each review should be 
grounded in a rigorous analytical approach that incorporates candid 
feedback and advice from both military and civilian leadership. Our 
Nation's defense depends on these reviews to ensure the Department 
makes the best use of its available resources as we meet current and 
future national security challenges.
    The purpose of the QDR is to articulate the Nation's defense 
strategy in support of the President's National Security Strategy. 
Title 10 U.S.C. section 118 tasks the Department with conducting a 
comprehensive examination of the national defense strategy, force 
structure, force modernization plans, infrastructure, budget plan, and 
other elements of the defense program and policies with a view toward 
determining and expressing the defense strategy of the United States 
and establishing a defense program for the next 20 years. In my 
experience, the most effective QDRs incorporate inputs from a wide 
range of stakeholders, including interagency partners, and work to 
ensure the defense strategy guides U.S. military force structure, 
plans, and programs.
    The chairman prepares the National Military Strategy as a means to 
convey the military's views on strategic priorities and associated 
risks. The National Military Strategy, which the chairman submits every 
2 years to the respective Armed Services Committees of the House and 
Senate, is an important review that draws on guidance in both the 
National Security Strategy and the most recent QDR. The National 
Military Strategy delineates the ``ends, ways, and means''--in essence, 
the military's objectives, strategic and operational missions to 
achieve those objectives, and the required capabilities to carry out 
the military's missions. It also describes the strategic and 
operational risks associated with accomplishing the military's 
strategy.
    The Global Defense Posture review describes the operational 
orientation of the Department's military personnel and facilities, and 
includes an assessment of changes to that posture based on the evolving 
security environment and strategic priorities outlined in other 
guidance documents, such as the QDR. The USD(P) and the Chairman of the 
Joint Chiefs of Staff are the primary authors of this strategic review 
document, which offers a comprehensive look at the Department's posture 
overseas, new initiatives, and defense agreements. It also supports 
senior leaders in the Department to make future resource decisions 
based on operational needs.
    Title 10 requires the Department to complete a comprehensive 
assessment of the roles and missions of the Armed Forces and the core 
competencies and capabilities of the Department to perform and support 
such roles and missions, known as the Quadrennial Roles and Missions 
Review (QRM). In the QRM, the Department is required to identify the 
responsible office, agency, activity, or command for providing these 
core competencies and capabilities, and identify any gaps or 
unnecessary duplication.
    Question. If confirmed, what recommendations would you make, if 
any, to change title 10, U.S.C., that would update, improve, or make 
these reviews more useful to the Department and to Congress?
    Answer. These reviews are an important tool for the Department. 
They offer the Department an opportunity to reassess and, if necessary, 
adjust the Nation's defense strategy, required capabilities, and force 
structure in alignment with current national security interests, the 
future security environment, and available resources. In a time of 
fiscal uncertainty, these documents are more essential than ever in 
ensuring that the Department takes a strategic approach to defending 
the Nation. If confirmed, I look forward to working with Members of 
Congress to ensure that these reviews serve the needs of both Defense 
leaders and Congress.
    Question. If confirmed, what recommendations would you make, if 
any, to improve DOD's processes for strategic assessment, analysis, 
policy formulation, and decisionmaking relative to each review above?
    Answer. Based on my experience, there are many ways to conduct 
these reviews, but I see three broad principles for successful 
strategic assessments, analyses, and reviews. First, senior leaders 
should provide clear initial guidance on the terms of reference for the 
review. Second, these same leaders should remain involved in the 
execution. Third, the process should be transparent to all relevant 
Department stakeholders, including leaders within the Office of the 
Secretary of Defense, the Joint Staff, the military departments, and 
the combatant commands.
    In addition to and in support of these broad principles, the 
Department requires a robust and ongoing analytical effort. To ensure 
this, if confirmed, I would prioritize engagement with the SSA process, 
which is designed to inform senior Department leadership deliberations 
on defense strategy and planning, programming, budgeting, and execution 
system matters. Along with Cost Assessment and Program Evaluation 
(CAPE) and Joint Staff colleagues, I would actively use wargames to 
seek innovative approaches to address a range of challenges.
    If confirmed, I would recommend that insights from previous 
reviews, along the lines of those described above, be applied to future 
Department reviews.
    Question. The law requires the QDR to identify the budget plan that 
would be required to provide sufficient resources to execute 
successfully the full range of missions called for in that national 
defense strategy at a low-to-moderate level of risk, and any additional 
resources (beyond those programmed in the current Future Years Defense 
Program) required to achieve such a level of risk. The law also 
requires the QDR to make recommendations that are not constrained to 
comply with and are fully independent of the budget submitted to 
Congress by the President.
    What is your understanding and assessment of the Department's QDR 
analysis and decisionmaking processes to address these two 
requirements?
    Answer. The Department's QDR process is both strategy-driven and 
resource-informed. The strategy-driven component ensures the Department 
considers the full range of strategic challenges and opportunities 
facing the Nation, then identifies the defense approach that best 
secures U.S. national interests. This leads to decisions on the best 
mix of capabilities in which the Department should invest. The reality 
of constrained resources requires the Department to consider investment 
options from a resource-informed point of view to ensure we develop a 
strategy that is executable. The complex and ever-changing strategic 
environment requires us to prioritize and make difficult choices, and 
the QDR provides strategic direction for doing so. Given the 
uncertainty about funding levels, the 2014 QDR explicitly considered 
the implications and risks to the Nation and our defense strategy if 
sequestration level cuts continued.
    Question. In your view, is there analytical and/or practical value 
in a defense strategy that is unconstrained by or independent of the 
current or projected budget requests or fiscal environment?
    Answer. In my view, the defense strategy should be strategy-driven 
and resource-informed. Assessments of the future security environment 
and the military missions required to support the President's National 
Security Strategy should be unconstrained, but the defense strategy is 
only viable and executable if informed by anticipated levels of 
resourcing. A resource-unconstrained strategy could inadvertently mask 
risk since investment gaps would be inevitable between the 
unconstrained approach and which investments were actually funded. A 
resource-informed approach helps ensure coherence between what the 
Department should achieve, how it expects to achieve it, and the 
resources available to execute the strategy.
    Question. According to the report of the bipartisan National 
Defense Panel (NDP), ``the capabilities and capacities rightly called 
for in the 2014 QDR . . . clearly exceed the budget resources made 
available to the Department.''
    Do you concur with this assessment? Do you believe it will be 
necessary to repeal sequestration in order to make available sufficient 
resources to execute the QDR strategy?
    Answer. The NDP provides an important and valuable tool chartered 
by Congress to review the QDR independently. The Department worked 
closely with the NDP throughout the QDR process. I concur in the NDP's 
strong concern that current and likely budget constraints are 
``dangerous and self-defeating,'' and significantly impact the 
Department's ability to do long-term force planning. I think it is 
notable that the bipartisan NDP supports the capabilities and 
capacities set forth in the QDR as appropriate. I also concur in the 
NDP's assessment that sequestration, if reinstated, would prevent us 
from achieving the strategy outlined in the QDR. Our defense strategy 
cannot be executed at sequestration levels without significantly higher 
levels of casualties, attrition of equipment, extended timelines for 
mission accomplishment, and risk to mission success. If we return to 
sequestration level cuts in fiscal year 2016, we will face significant 
risks across the board, and would have to reassess our defense 
strategy. If confirmed, I look forward to working with Congress to help 
solve this pressing problem.
    Question. According to the report of the bipartisan National 
Defense Panel, ``national defense needs should drive national defense 
budgets, not the opposite.''
    What aspects of a strategy would indicate that a strategy is 
budget-driven versus budget-informed?
    Answer. A budget-driven strategy would define ends, ways, and means 
based on analysis that starts with available resources, and contains 
little to no risk because, by definition, the strategy is designed to 
do only what can be done with available resources, regardless of what 
might be needed in terms of advancing national interests. A budget-
informed strategy considers national interests and objectives, then 
assesses how to achieve those objectives given the strategic 
environment first, and then develops specific ways and means to try to 
meet desired ends, informed by the likely available resource levels. It 
would explicitly consider risks to the strategy that may result from 
the reality that resource levels are finite, and ensures that the 
Department sets priorities among its investments and activities--a 
central function of an effective strategy. A successful strategy should 
be started with an unbounded evaluation of the strategic environment, 
but then would be budget informed to have relevance; a defense strategy 
is effective only if it is executable. For example, the defense budget 
request that was informed by and accompanied the QDR, the President's 
Budget 2015 request, is $15 billion higher than Budget Control Act 
funding caps for 2015, demonstrating that the current strategy is not 
budget driven.
    Question. If sequestration remains in effect, do you believe that 
our strategy will have to be one that is budget-driven?
    Answer. Our strategy should be budget informed, but never budget 
driven. The Department has previously stated that at sequestration 
levels, it will not be able to achieve the strategy outlined in the QDR 
without unacceptable risk. If sequestration remains in effect, the 
Department will have to reassess its strategy. A revised strategy, like 
the QDR, should be budget informed if it will serve as a guide to 
prioritize and direct investments, but our strategy should not be a 
budget exercise. A budget-driven strategy, designed to do only what can 
be done with available resources regardless of what might be needed in 
terms of advancing national interests, is not the right strategy for 
our national defense.
    Question. The National Defense Panel also recommended that 
``Congress should task the Department to do a thorough review to 
address in detail, without undue emphasis on budgetary constraints, how 
the Department would construct a force that meets the force sizing 
construct.''
    Do you agree with the NDPs recommendation that such an assessment 
would provide the Department of Defense and Congress with a better 
understanding of our Armed Forces requirements?
    Answer. As part of QDR development, the Department develops a force 
sizing construct that meets future defense requirements. Rigorous 
analysis is central to this process. On this specific point, I do not 
agree with the NDP's recommendation. The QDR is the product of a 
strategy-driven and resource-informed process. In conducting the 2014 
QDR, the Department assessed the international security environment. 
This allowed the leadership to identify plausible strategic and 
operational futures that the United States could face in the near-, 
mid-, and long-term--with particular attention to threats, challenges, 
and opportunities. Informed by this assessment, the senior leadership 
identified the objectives that the Department will likely need to be 
capable of accomplishing in support of U.S. national security interests 
and assessed the sufficiency and proficiency of the Joint Force to meet 
these demands. The results of these assessments guided development of 
the Department's force planning construct.
    Question. According to the force sizing construct in the 2014 QDR, 
American forces should be able to ``defeat a regional adversary in a 
large-scale multi-phased campaign, and deny the objectives of--or 
impose unacceptable costs on--another aggressor in another region.''
    In the context of the recent and dramatic deterioration of the 
security environment in both the Middle East and Russia, as well as 
continuing instability in Asia, should the force sizing construct also 
mandate that American forces be able to defeat two adversaries at the 
same time, a standard embraced by previous QDRs?
    Answer. U.S. forces are still and will continue to be capable of 
prevailing in more than one conflict at the same time. The 2014 QDR 
envisioned an uncertain and complex security environment, and directed 
the Department to size and shape the Joint Force so that it would have 
the flexibility to respond to a wide range of challenges. Although the 
current force-sizing construct is a bit more detailed in how we will 
build forces to prevail in any two conflicts in the unlikely event that 
they begin at the same time, in the end, our forces will prevail. The 
current force-sizing construct allows us to plan and deliver agile, 
technologically advanced forces of sufficient size to defend our Nation 
and secure our interests globally while preventing America's 
adversaries from achieving their objectives.
                          global force posture
    Question. As the Defense Department continues its assessment of 
projected budget cuts on its end strength, force structure, and other 
programs, it must also consider the costs, benefits, and risks 
associated with the permanent stationing of military forces in 
countries around the world. Based on a series of reports by the 
Government Accountability Office, evidence indicates that the 
Department is challenged in its ability to comprehensively and reliably 
estimate the cost of our global defense posture.
    What is your understanding and assessment of the cost and benefits 
of the U.S. global defense posture and the stationing of U.S. military 
forces overseas?
    Answer. The U.S. global defense posture is the most tangible 
expression of our interests abroad. To allies, partners, and 
adversaries alike, our posture demonstrates our ability to respond 
rapidly to developments that affect our national security. In some 
ways, it is easy to assess the costs of posturing forces overseas, but 
difficult to assess the benefits. Although difficult to quantify, there 
is real value in our posture, through which we deter aggression, 
safeguard regional stability, respond in a more timely fashion to 
contingencies, and facilitate close cooperation with our allies and 
partners.
    Any evaluation of our posture requires the consideration of 
operational requirements, political-military dynamics, host nation 
support, effects on the force, and costs. The Department employs a 
continuous review process to determine the appropriate balance between 
U.S.-based and overseas-stationed forces, taking account of the 
conditions in each region, operational demands, and costs. If 
confirmed, I would work to continue seeking new and innovative ways to 
posture U.S. forces in ways that leverage our strengths and advantages 
and to assess those costs.
    Question. In light of the force structure reductions associated 
with the Department's planned end strength cuts, and potentially even 
deeper future end strength cuts, if confirmed, how would you propose to 
allocate those reductions between forces based within the United States 
and forces stationed outside the United States?
    Answer. Any changes to our forces stationed abroad or within the 
United States must be decided through careful analysis of the 
operational requirements, political-military dynamics, host nation 
support, effects on the force, and costs. Each movement would be 
handled on an extensively vetted, case-by-case basis, as every military 
capability has unique characteristics, missions, and limitations that 
would influence the most beneficial placement.
    Question. What is your understanding and assessment of the DOD 
methodology and assumptions used to evaluate the relative cost of 
overseas posture compared to stationing forces in the United States?
    Answer. The Department employs a continuous review process to 
determine the appropriate balance between U.S.-based and overseas-
stationed forces. We look at a number of cost factors to evaluate the 
most efficient and effective stationing of U.S. forces, from host 
nation cost-sharing to rotational costs to base infrastructure costs to 
military construction costs. We combine this analysis with an 
accounting of the conditions in each region, the operational demands on 
U.S. forces, and the benefits of burdensharing with allies and partners 
who host our forces. If confirmed, I would work to ensure cost analysis 
remains a key decision criterion when evaluating where to station U.S. 
forces to ensure the most effective force posture.
    Question. If confirmed, what actions would you take or changes 
would you recommend, if any, to DOD's methodology and assumptions in 
determining the cost of overseas force posture compared to forces 
stationed in the United States?
    Answer. If confirmed, I would work to ensure our cost methodology 
and assumptions leverage the most advantageous bilateral arrangements 
possible, and that planned expenditures on overseas basing are 
thoroughly reviewed to ensure investments are executable and efficient. 
If confirmed, I would continue to emphasize high-impact, limited-
footprint methods and seek to build capacity among our allies and 
partners to provide for their security.
    Question. On 12 November, the New York Times reported that ``Tanks 
and other military vehicles [are] pouring over the border from Russia 
into eastern Ukraine'' despite the ceasefire reached in September.
    In the context of Russian aggression in eastern Europe, do you 
believe that the deterrence of further aggression will require the 
permanent stationing of additional U.S. or allied forces in eastern 
European nations?
    Answer. U.S. European Command (EUCOM), in close concert with our 
allies and partners, is evaluating how we can reassure and deter actors 
in the region. Going forward, adjustments to our European force 
structure will be considered, but we have to be cognizant of the need 
to balance limited fiscal resources and other global demands. In the 
end, our extensive diplomatic and operational commitments to the North 
Atlantic Treaty Organization (NATO) and European security, including 
any forces we station on the continent, all contribute to deterring 
further aggressive Russian actions. For example, at this year's NATO 
summit in Wales, members resolved to establish a Very High Readiness 
Joint Task Force. This multinational force will stand ready to deploy 
to NATO's periphery at a moment's notice.
    Ultimately, the solution to the Ukraine conflict must be diplomatic 
in nature. Our defense posture plays a key role in the broader 
diplomatic push by sending a powerful signal to Russia; aggressive 
Russian actions have no place in a Europe that is whole, free, and at 
peace.
    Question. Do you believe that the deterrent effect of American 
ground forces will be greatest if they are stationed in NATO member 
states that share a border with Ukraine or Russia?
    Answer. Our force posture in EUCOM's area of responsibility (AOR) 
is prepared to respond to contingencies across the AOR. Although 
geography plays a role, we plan with the understanding that we can 
leverage our logistical capabilities to meet threats with speed and 
agility wherever they may come up in the region.
    Question. What is your assessment of which American forces and 
capabilities have the greatest deterrent effect upon Russia and other 
aggressive actors in the region?
    Answer. It's difficult to point to a specific capability or force 
element that's best able to deter aggressive actions such as those by 
Russia. Rather, our posture aims to leverage the contributions of a 
wide range of forces and capabilities. We can best deter aggressive 
actions by demonstrating a credible capacity to operate in a variety of 
domains.
    Question. The rebalance to the Pacific will increase the percentage 
of U.S. ships in the region from 50 percent to 60 percent of the Navy's 
entire fleet. However if the fleet size is reduced from about 300 ships 
to about 250 ships, the number of ships forward deployed to the region 
will remain the same at about 150.
    Does the potential of increasing the percentage of ships in the 
region, but the number of ships in the region remaining the same, lead 
to challenges regarding the expectations of allies, and if so, how 
would you plan to mitigate such an effect?
    Answer. The Department is on-track to meet its goal of homeporting 
60 percent of the Navy's fleet in the Pacific by 2020. Current Navy 
projections show that the fleet size in 2020 will be 308 ships, 
yielding roughly 170 ships homeported in the Pacific. Additionally, the 
Navy also will increase ship presence in the region to about 67 ships, 
up from an average of 50 today.
    Numbers alone cannot tell the entire story. Of equal importance, if 
not more importance, is the prioritization of our newest technology to 
the region. For example, the new ships homeported in the Pacific 
represent the best of America's new naval technology. The addition of 
Littoral Combat Ships to the fleet enable us to engage with regional 
allies and partners in a range of new training and exercise activities 
that are in high demand. We will be replacing existing cruisers in the 
region with ballistic missile defense-capable destroyers, enhancing our 
deterrent posture towards the North Korean missile threat. We will also 
be stationing additional amphibious technology in the Pacific, along 
with new platforms like the P-8A and the F-35C that will provide more 
capability for missions unique to the Pacific theater.
    If confirmed, I would work with colleagues in the Department of the 
Navy, the U.S. Pacific Command, and with regional allies and partners 
to ensure that we continue to make progress on these important 
initiatives, contributing to peace and security in the Asia-Pacific 
region. Moreover, the new Assistant Secretariat that I would lead will 
help the Department be more effective in ensuring the proper alignment 
of strategy and resources as we seek to modernize our alliances while 
mitigating risk should we face additional resource constraints and 
improve our security cooperation activities.
                          stability operations
    Question. DOD Strategic Guidance established in January 2012 states 
that, while U.S. forces will capture the lessons learned from 
operations in Iraq and Afghanistan, they ``will no longer be sized to 
conduct large-scale, prolonged stability operations.''
    In your view, what are some of the key lessons learned from the 
stability operations conducted in Iraq and Afghanistan?
    Answer. There are many lessons learned from our recent combat 
experiences, and the Services and the Joint Staff have worked hard to 
ensure that no lessons so painfully learned are lost. In 2011, the 
Chairman of the Joint Chiefs of Staff directed an extensive study to 
identify these enduring lessons. The resulting report identified eleven 
strategic themes that remain relevant for the Department's current 
operations and future planning. The most notable of these themes for me 
include understanding the environment, providing a public narrative, 
integrating special operations forces and general purpose forces, 
increasing interagency coordination, and the importance of host-nation 
partnering.
    Our efforts abroad over the past decade also highlight the 
importance of collaborative interagency and coordinated multinational 
efforts. Training foreign security forces and ministries is a whole-of-
government approach, and it takes a robust interagency effort to 
maintain those capacities and institutions that can educate, equip, and 
enable them for future missions.
    Question. What do you believe is the proper role for the DOD in the 
planning and conduct of stability operations in future contingencies?
    Answer. DOD will be an essential part of the planning and conduct 
of stability operations in future contingencies. However, I believe 
DOD's stability operations efforts must be in support of a 
comprehensive interagency and international response. We must ensure 
that all departments and agencies are operating under a common national 
strategic framework in support of achieving sustainable outcomes 
overseas and building long-lasting relationships with our international 
partners. In most cases, the U.S. military's presence, force protection 
capabilities, and extensive logistical network can provide the backbone 
for successful stability operations. If confirmed, I would continue 
efforts to ensure that interagency collaboration is as effective as 
possible for future operations.
                         nuclear posture review
    Question. If confirmed, what role will you play in overseeing and 
implementing the policies, strategies, and priorities established in 
the Nuclear Posture Review (NPR)?
    Answer. The NPR established the key objectives that guide the 
Department's work on nuclear policy. If confirmed, I would be 
specifically engaged in almost all of the NPR's objectives in various 
roles and venues and would ensure that they remain a top priority for 
the Department of Defense.
                       nuclear weapons management
    Question. Since the Air Force unknowingly flew nuclear weapons on a 
B-52 bomber from Minot Air Force Base in North Dakota to Barksdale Air 
Force Base in Louisiana on August 30, 2007, the Air Force has taken a 
number of significant steps to increase its attention, discipline, and 
expertise on nuclear weapons management.
    If confirmed, what role, if any, will you play in ensuring that 
nuclear weapons are safe, secure and accounted for, and that the 
Military Services have established a high level of attention, 
discipline, and conduct of operations with respect to nuclear weapons?
    Answer. Secretary Hagel established the Nuclear Deterrent 
Enterprise Review Group (NDERG) to reinforce and ensure senior leader 
accountability and bring together all the elements of the nuclear force 
into a coherent enterprise. This group, which consists of the leaders 
responsible for training, funding, fielding, and implementing the 
nuclear mission, will review the actions we are taking and the progress 
we are making in improving the health of our nuclear forces. If 
confirmed, I would support the office of the USD(P) as it fulfills 
oversight responsibilities as a member of the NDERG.
    Question. The various reviews of the Air Force incident also 
exposed significant gaps in the Office of the Secretary of Defense with 
respect to the attention and expertise to deal with nuclear weapons 
issues.
    If confirmed, what steps will you take to ensure that there is 
sufficient attention to management of nuclear weapon matters in the 
Office of the Secretary of Defense?
    Answer. Secretary Hagel said that the nuclear deterrent is ``DOD's 
top priority. No other capability we have is more important.'' If 
confirmed, ensuring our nuclear forces are safe, secure, and effective 
and that they are planned, postured, operated, and modernized in 
accordance with policy guidance would be my top priority.
    Question. If confirmed, what steps will you take to ensure that 
there is sufficient technical expertise in the Office of the Secretary 
of Defense with respect to nuclear weapons?
    Answer. Nuclear technical expertise within OSD resides in multiple 
organizations. Many of OSD's staff positions include experts from the 
various Department of Energy laboratories, federally funded research 
and development centers, think tanks, and agencies in order to ensure 
expert analysis supports the OSD decisionmaking process. Within OSD 
Policy, technical expertise for nuclear deterrence resides in the 
Office of the Deputy Assistant Secretary for Nuclear and Missile 
Defense Policy (NMD). NMD contains an analytical cell, which has been 
specifically tasked by USD(P) to provide the Secretary of Defense 
independent technical analyses on a range of nuclear issues. If 
confirmed, I would do everything I can to ensure that we retain this 
unique capability and continue to advocate for technical expertise 
across the Department.
                        nuclear weapons council
    Question. The Nuclear Weapons Council is intended to be the joint 
Department of Defense-Department of Energy management organization for 
nuclear weapons matters.
    If confirmed, what responsibilities and interaction do you expect 
to have relative to the Nuclear Weapons Council?
    Answer. The USD(P) is a voting member of the NWC. If confirmed, I 
would support Policy leadership, or represent Policy, on the NWC and in 
its subordinate bodies. If confirmed, I would ensure Policy continues 
to play an active role on the NWC as we steer the nuclear weapons and 
infrastructure modernization programs to completion.
                       strategic nuclear programs
    Question. The NPR established, among other things, nuclear force 
structure parameters prior to negotiation of the New START treaty.
    If confirmed, what roles and responsibilities do you expect to have 
relative to policy development concerning future nuclear force 
structure and planning?
    Answer. In support of the USD(P) and the Secretary of Defense, if 
confirmed, I would manage OSD Policy's role in all nuclear force 
structure decisions and in nuclear planning, in accordance with the 
President's June 2013 Nuclear Employment Strategy.
                    new start treaty implementation
    Question. The New START treaty entered into force in February 2011, 
and establishes limits on the deployed and nondeployed strategic 
nuclear forces of Russia and the United States. The treaty allows the 
parties up to 7 years to comply with the numerical limits of the 
treaty.
    If confirmed, what role do you expect to play in overseeing 
implementation of the New START treaty?
    Answer. If confirmed, I would lead in development and coordination 
of DOD policies required to implement fully U.S. obligations under the 
New START treaty. This includes supporting DOD components as they plan, 
program, budget, and allocate resources necessary for New START treaty 
implementation and compliance. Additionally, if confirmed, I would 
fully support the interagency process of assessing the Russian 
Federation's compliance with its obligations under the treaty and 
addressing any compliance or implementation issues.
            modernization of the nuclear weapons enterprise
    Question. A principal issue in the debate of the New START treaty 
was ensuring that as we draw down the number of deployed nuclear 
warheads that we modernize our nuclear warhead production capability as 
well as their command and control systems and delivery platforms.
    If confirmed what role do you expect to play in modernizing these 
three areas?
    Answer. If confirmed, I would ensure that our efforts to modernize 
U.S. nuclear forces, and their supporting infrastructure and command 
and control, meet our policy and strategy requirements. We must ensure 
our current nuclear forces remain safe, secure, and effective so that 
our deterrent remains credible and our force remains combat-capable. I 
will support efforts to do these things in a cost-effective manner.
    Question. Do you support the President's commitment to modernize or 
replace the triad of strategic nuclear delivery systems: a heavy bomber 
and air launched cruise missile, an ICBM, and a nuclear-powered 
ballistic missile submarine (SSBN) and SLBM
    Answer. Yes. I agree that retaining all three legs of the triad 
will best maintain strategic stability at reasonable cost, while 
hedging against potential technical problems or vulnerabilities. Each 
leg of the Triad has advantages and characteristics that must be 
maintained, and each leg must be modernized as appropriate.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. I agree that maintaining a safe, secure, and effective 
nuclear deterrent is a critical national security priority. The DOD 
works closely with the Department of Energy and the administration to 
prioritize and align modernization efforts with funding realities, and, 
if confirmed, I would continue that cooperation.
    Question. Prior to completing this modernization effort do you 
believe it would be prudent to consider reductions below New START 
treaty limits for either the deployed or nondeployed stockpile of 
nuclear weapons?
    Answer. Whether further reductions below New START limits would be 
prudent to consider is dependent on a number of contextual factors: 
whether such reductions are negotiated with Russia, the exact nature 
and extent of the reductions proposed, and the impact of such 
reductions on our ability to implement the President's deterrence and 
employment strategies. I can envision prudent reductions that are 
negotiated, that are properly structured, and that enable us still to 
meet the President's policy, strategy, and planning guidance.
    I support the President's goal to reduce global nuclear dangers and 
to take practical steps toward the long-term goal of a world without 
nuclear weapons. These goals were articulated in the 2010 NPR, which 
concluded that the United States will retain the smallest possible 
nuclear stockpile consistent with its need to deter adversaries, 
reassure allies, and hedge against technical or geopolitical surprise 
so long as nuclear weapons exist.
    I believe that we should make necessary investments in 
infrastructure modernization regardless of potential future nuclear 
weapon reductions. If confirmed, I would ensure that the stockpiles of 
deployed and non-deployed nuclear warheads sustain the credibility of 
the U.S. deterrent, including our commitments to extend deterrence to 
our allies.
    Question. Without the construction of the Chemical and Metallurgy 
Research Replacement (CMRR) Facility at Los Alamos and the Uranium 
Production Facility (UPF) at Y-12 and the other elements associated 
with the robust plan for modernizing the nuclear weapons complex, do 
you believe reductions to the strategic hedge would be prudent?
    Answer. With regard to CMRR and UPF, I understand that the approach 
to replacing those facilities has been reviewed and that a more cost-
effective way forward has been identified. If confirmed, I would 
support efforts to modernize our nuclear weapons infrastructure in a 
cost-effective manner. With regard to the strategic hedge, if 
confirmed, I would ensure any proposed changes remain aligned with the 
vision and objectives as articulated in the NPR and the President's 
policy and employment guidance.
    Question. The Congressional Budget Officer has estimated the 10 
year cost of modernizing the nuclear enterprise at approximately $355 
billion, while approximately 5-6 percent of the annual DOD budget, this 
is still an incredible amount of money, with the following 10 years 
expected to rise further as the construction programs for the Ohio 
replacement submarine get underway. Do you believe we should be 
spending this sum of money and will you work to find cost savings in 
these programs?
    Answer. As the recent Nuclear Enterprise Reviews made clear, 
modernizing our nuclear forces is critically important to our Nation's 
security and, if confirmed, I would continue to support funding 
sufficient to meet this critical national security requirement. The DOD 
works closely with the Department of Energy and the administration to 
prioritize and align modernization efforts with funding realities, and 
I would continue that cooperation as we work toward cost-effective 
nuclear modernization.
                             nuclear policy
    Question. Do you support the President's vision for a world without 
nuclear weapons?
    Answer. Yes, I believe we should continue to seek the peace and 
security of a world without nuclear weapons, and take practical steps 
toward that long-term objective. As long as nuclear weapons exist, the 
United States will maintain a safe, secure, and effective arsenal to 
deter adversaries and guarantee that defense to U.S. allies.
    Question. Do you support the June 2013 nuclear Employment Strategy?
    Answer. Yes, I support the June 2013 Nuclear Employment Strategy.
    Question. Do you believe the United States should pursue further 
nuclear weapons reductions? Please explain why or why not.
    Answer. Yes, I believe we should pursue further negotiated, 
verifiable reductions in the nuclear forces of the United States and 
Russia that would enhance U.S. national security. Further reductions 
could achieve this in a number of ways. They could promote our non-
proliferation objectives by demonstrating our commitment to meeting our 
NPT commitments. Such reductions also could enable us to maintain 
strategic stability at lower force levels. Reducing Russian nuclear 
forces reduces the number of nuclear weapons that can be targeted on 
the United States. Unfortunately, Russia has shown no interest in 
pursuing further negotiated reductions, and such reductions require a 
willing partner and a conducive strategic environment.
    Question. Do you believe it would be prudent for the United States 
to pursue unilateral nuclear reductions? Please explain why or why not.
    Answer. As part of the nuclear weapons employment guidance 
announced in June 2013, the President concluded that we can ensure the 
security of the United States and our allies and partners while safely 
pursuing up to a one-third reduction in deployed nuclear weapons from 
the level established in the New START treaty. The President also 
announced the U.S. intent to seek negotiated cuts with Russia. 
Negotiated cuts, and their attendant verification provisions, provide 
transparency and predictability, and they reduce the number of weapons 
that can be employed against the United States. For these reasons, and 
in light of the current strategic environment, I believe negotiated 
reductions are more prudent than unilateral reductions at this time.
    Question. Do you believe changes to well-established nuclear 
targeting requirements could negatively impact our ability to: (1) 
assure our allies; (2) discourage other countries from seeking 
strategic equivalence with the United States in nuclear weapons; and 
(3) hedge against future threats and uncertainties?
    Answer. No, I do not. Our nuclear targeting requirements are highly 
classified. As we do not share them with our allies, these requirements 
have no effect on the extent to which our allies are assured. 
Similarly, as other countries do not know what our targeting 
requirements are, they cannot be encouraged to seek strategic 
equivalence because of them. Finally, nuclear targeting requirements 
alone do not directly affect our ability to hedge against future 
threats and uncertainties. Our technical and geopolitical hedge 
strategy does affect our ability to hedge.
                    ballistic missile defense review
    Question. In February 2010, the Defense Department issued its 
report on the first-ever comprehensive review of U.S. ballistic missile 
defense policy and strategy, the Ballistic Missile Defense Review 
(BMDR), as required by Congress.
    Do you support the policies, strategies, and priorities set forth 
in the BMDR?
    Answer. Yes. The 2010 BMDR provided the broad policy framework 
shaping the administration's missile defense activities. If confirmed, 
I would continue U.S. efforts to implement the policies, strategies, 
and priorities in the BMDR.
    Question. If confirmed, what role do you expect to have in 
implementing these policies, strategies, and priorities?
    Answer. If confirmed, I would be the lead assistant secretary in 
OSD Policy for missile defense, so I would therefore have a direct role 
in implementing these policies, strategies, and priorities as they 
pertain to both homeland defense and regional defense.
           ``fly-before-you-buy'' approach to missile defense
    Question. The BMDR stated that the Department of Defense would 
follow a ``fly-before-you-buy'' approach to new missile defense 
capabilities, by testing them adequately before deploying them.
    Do you agree with the Defense Department's ``fly-before-you-buy'' 
policy for missile defense that ``before new capabilities are deployed 
they must undergo testing that enables an assessment under realistic 
operational conditions against threat-representative targets'' to 
demonstrate that they will be effective and reliable?
    Answer. Yes. We have an obligation to field capabilities that work 
against the threats they are designed to counter. Realistic testing 
before full-scale acquisition is essential to fielding systems the 
United States can rely on.
            regional ballistic missile threats and response
    Question. Iran and North Korea each has hundreds of short- and 
medium-range ballistic missiles today that are capable of reaching 
forward-deployed U.S. forces, allies, and other friendly nations in the 
EUCOM, U.S. Central Command, and U.S. Pacific Command AORs. The 
Ballistic Missile Defense Review Report of February 2010 stated that 
the United States intends to pursue regionally tailored phased adaptive 
approaches to ballistic missile defense against such missile threats in 
various regions.
    Do you believe that such regionally tailored phased adaptive 
approaches will provide our regional combatant commanders with the 
missile defense capabilities needed to defend our forward deployed 
forces and our allies and partners in the region?
    Answer. I understand our current policy is to develop regional 
approaches to ballistic missile defense in Europe, the Middle East, and 
the Asia-Pacific region that are tailored to the deterrence and defense 
requirements of each region. Because these regions vary considerably in 
the character of the ballistic missile threat, geography, and the 
defense relationships on which we are able to build cooperative missile 
defenses, I believe such approaches provide us the best option for 
managing our own high-demand, low-density ballistic missile defense 
forces and for developing ally and partner ballistic missile defense 
capacity in support of combatant commander requirements.
    Question. What role do you see for the Aegis Ballistic Missile 
Defense system with Standard Missile-3 interceptors in U.S. missile 
defense capabilities in these AORs?
    Answer. Ballistic missile defense-capable Aegis ships are an 
excellent example of the type of mobility we have built into our 
current inventory of ballistic missile defense capabilities to help us 
address the growing demand for regional missile defense systems. These 
multi-mission ships offer not only the ability to provide surveillance 
and tracking of ballistic missiles, but also a ballistic missile 
defense capability in the form of the growing Standard Missile-3 family 
of interceptors. Additionally, the land-based version of the Aegis 
system we are fielding in Romania and Poland will add substantially to 
the NATO ballistic missile defense architecture.
    Question. In addition to U.S. missile defense capabilities in these 
AORs, what role do you see for other nations to contribute to regional 
missile defense capabilities?
    Answer. I understand building international cooperation and seeking 
appropriate levels of burden sharing are key tenets of our regional 
ballistic missile defense policy. I also understand that over time we 
have developed substantive ballistic missile defense relationships with 
our allies and partners in Europe, the Middle East, and the Asia 
Pacific, which have led to significant advances in fielding our own 
capabilities as well as those of our allies and partners. I view 
continuing these partnerships as critical to developing effective 
security architectures that deter, and if necessary, defend against the 
threat of ballistic missile attack. Accordingly, if confirmed, I would 
promote strong bilateral and multilateral ballistic missile defense 
cooperation in these regions.
                     comprehensive test ban treaty
    Question. If confirmed, what role will you play in any efforts to 
obtain Senate ratification of the Comprehensive Test Ban Treaty (CTBT)?
    Answer. Although my position would not have direct responsibility 
for nuclear nonproliferation treaties such as the CTBT, I would support 
the administration's efforts to obtain Senate advice and consent to 
accession to the CTBT.
                building partnership capacity activities
    Question. What is the proper role for DOD in building the security 
capacity of foreign partners? What, if any, overlap is there with State 
Department? What steps, if any, should DOD take to reduce or eliminate 
overlap between DOD and State Department capacity building programs?
    Answer. DOD plays a key role in building the tactical and 
operational capacity of foreign military forces within the broader 
foreign policy lanes established by the State Department. DOD also 
builds capacity at the ministerial and institutional levels through its 
defense institution-building programs. DOD contributes irreplaceable 
value to this range of capacity-building work by drawing upon the 
unique subject matter expertise and experience of defense civilians and 
active duty and Reserve component personnel.
    The Department's work at these levels--from the tactical to 
institutional--should be closely coordinated with the State Department 
and the U.S. Agency for International Development to ensure that the 
United States pursues a balanced approach to broader security sector 
reform efforts and that partners are able to sustain any training and 
equipment provided. Additionally, implementation of Presidential Policy 
Directive 23, which calls for whole-of-government security sector 
planning, should help reduce any overlap between DOD and State 
Department capacity-building programs.
    Question. With regard to security cooperation, what is the 
appropriate role for the Assistant Secretary of Defense for Strategy, 
Plans, and Capabilities and what should be the ASD's responsibilities 
on security cooperation relative to the combatant commands, the 
military departments, and others DOD organizations?
    Answer. The ASD/SPC should provide policy guidance to ensure the 
alignment of security cooperation activities and resources with the 
defense strategy. Once the Geographic Combatant Commands (GCCs) develop 
plans to implement this guidance, the ASD/SPC should review them to 
ensure they are aligned with the strategy. The military departments and 
Services and other capability providers then allocate adequate 
resources to accomplish the security cooperation efforts identified in 
the GCCs' plans. To the extent that there may be shortfalls in DOD 
resources to execute plans, the ASD/SPC may develop recommendations for 
adjustments in investment portfolios. Finally, the Joint Staff serves a 
critical monitoring and communications role, providing assessments of 
security cooperation requirements and military advice on the 
effectiveness of DOD activities to the ASD/SPC to inform future policy 
guidance.
    Question. Over the past decade, Congress has provided DOD with a 
number of authorities to build the capacity of partner nations.
    How would you rate the effectiveness of these investments and what 
will you do, if confirmed, to ensure that these resources provide a 
return on investment in the future?
    Answer. The authorities provided to DOD over the last decade have 
been critical, especially for support of coalition partners. If 
confirmed, I would seek to ensure that projects relying on DOD 
authorities have clear and measurable planned outcomes. I also would 
seek to ensure that authorities evolve to keep pace with the dynamic 
environment in which DOD operates, which is characterized by both 
rapidly changing threats and fluctuations in partner nation roles and 
capabilities.
    Further, if confirmed, I would seek to enhance the Department's 
``capability package planning''--planning that organizes and 
synchronizes ``train-and-equip'' efforts with related security 
cooperation activities to account for partners' institutional, 
sustainment, training, and infrastructure needs. Such efforts will 
better position partners to sustain and properly employ any operational 
and tactical assistance provided.
    Question. The latest QDR emphasizes security cooperation as a means 
to mitigate risk resulting from DOD's declining budget.
    In your view, has the Department increased funds for security 
cooperation, accordingly? Is security cooperation adequately resourced?
    Answer. The fiscal year 2015 budget submission sought to protect 
resources most closely aligned to the three pillars of the defense 
strategy outlined in the 2014 QDR, including building security 
globally. In order to maximize the impact of our presence globally and 
ensure that security cooperation resources and activities are aligned 
with the defense strategy, the Department recently created a new Deputy 
Assistant Secretary of Defense for Security Cooperation (SC). The 
office will develop institutionalized policies and methodologies for 
prioritizing and evaluating security cooperation activities and 
resources, mature defense institution-building capabilities and 
strengthen their linkages to the Department's operational training and 
equipping efforts, and use security cooperation tools to drive 
strategic initiatives.
    Question. How effective has security cooperation been as a means of 
mitigating the risks associated with declining DOD budgets, and what 
challenges, if any, do you see with such an approach?
    Answer. The need to strengthen and deepen partnerships is a theme 
that runs throughout the 2014 QDR to address the dynamic security 
environment, as no country alone can address the globalized challenges 
we collectively face. With reduced force structure and resources, the 
Department must make greater efforts to coordinate its planning to 
optimize allies' and partners' contributions to their own security and 
to combined activities. I believe there is an opportunity to pursue 
greater deliberate security cooperation planning with key allies and 
partners and, if confirmed, I would seek to increase such efforts.
    There are some who may be concerned that, when needed, partners may 
not be willing to contribute capabilities to help address shared 
security concerns. Certainly, we should continue to maintain forces 
sufficient to address most of the threat to our interests on our own, 
should we so choose. However, we have witnessed the benefits of 
partners' and allies' cooperation in coalition operations, clearly 
demonstrating their willingness to take action, and their cooperation 
invariably helps in conducting these operations and in most cases 
reduced the need for some U.S. forces.
    Question. What is your assessment of the sufficiency of existing 
security assistance authorities to address the evolving nature of 
global security threats? Given the evolving threat environment facing 
the United States, what new security cooperation missions, if any, 
might DOD need to take on in the next decade, and what tools and 
authorities might be required to accomplish those missions?
    Answer. Over the past decade, Congress has recognized the need for 
title 10 authorities to enable military commanders to support allies 
and partners in addressing security threats, largely related to 
counterterrorism and instability. The Department is grateful for these 
authorities that provide commanders greater flexibility than 
traditional title 22 security assistance authorities to address the 
capability and capacity shortfalls that they identify among allies and 
partners to ensure that these partners are able to operate alongside or 
in lieu of U.S. forces. As we face new budget realities, building 
partners capable of supporting or replacing Title 10 missions will take 
on increasing importance.
    Just as the U.S. Armed Forces are resetting for full-spectrum 
operations after more than a decade of counterinsurgency and 
counterterrorism (CT) operations, the Department's security cooperation 
efforts also must be reset to address the full spectrum of security 
challenges. Over the last decade we have emphasized building partners' 
capabilities to combat internal or transnational CT threats. Now, our 
security environment demands that we also consider other functional 
areas where commanders see a need to enable partners to operate with or 
in lieu of U.S. forces, but that have been under-resourced due, in 
part, to a lack of dedicated tools and authorities. Such areas may 
include logistics, maritime security and domain awareness, cyber, and 
defense technology protection/security, among others. If confirmed, I 
would work with Congress to see how we might modify, rationalize, or 
add to the existing authorities in light of these changes in the 
security environment.
    Question. Given the numerous existing DOD security assistance 
authorities, what is DOD doing to ensure DOD programs are synchronized 
and applied in a manner consistent with strategic requirements? If 
confirmed, what changes, if any, would you recommend?
    Answer. The Department has begun an effort to improve the security 
cooperation governance structure, which began with the establishment of 
Policy's new office of the Deputy Assistant Secretary of Defense for 
Security Cooperation. This office is undertaking an ambitious series of 
initiatives to put in place oversight and accountability mechanisms to 
ensure our security cooperation activities and resources are aligned to 
the defense strategy, including the building of an assessment, 
monitoring, and evaluation mechanism across the Department's security 
cooperation programs to be much more effective in gauging the return on 
investment of our building partner capacity programs. If confirmed, I 
would ensure the office's efforts receive sufficient support and 
attention from the ASD and other Department leaders to succeed.
    Question. Some of DOD's work to build our partners' capacity is at 
the tactical and operational levels.
    What tools do we have in place to ensure that foreign partners 
possess the institutional capacity to sustain these efforts and operate 
effectively both to meet their own defense needs and in a coalition 
environment?
    Answer. The Department must ensure that adequate partner nation 
institutional capacity exists to sustain and properly employ the 
operational and tactical assistance we might provide. To that end, the 
Department has developed a suite of defense institution-building (DIB) 
programs to ensure partner nations have the capacity to craft 
thoughtful defense policies and strategies, create sustainable budgets 
to resource those strategies, provide human resources, and procure 
equipment and provide logistics support. DIB programs are principally 
implemented through the Defense Institution Reform Initiative (DIRI), 
the Ministry of Defense Advisors (MoDA) Program, and the Defense 
Institute of International Legal Studies (DIILS).
    DIB programs are a critical and growing element of a balanced and 
comprehensive approach to security cooperation. To that end, the 
Department is developing initiatives to integrate more effectively 
security cooperation planning, linking the development of tactical and 
operational capabilities with the governance, direction, and oversight 
mechanisms needed to support those capabilities.
    Question. How does the Department ensure that partners' militaries 
operate effectively, accountably, and in accordance with international 
human rights standards?
    Answer. The Department believes that the ethical and accountable 
behavior of our partner nation security forces is critical to our long-
term success. When we engage with partner nation militaries, at all 
levels, DOD emphasizes that respect for human rights and the rule of 
law is a vital component to a successful military. To assist partner 
nation militaries who wish to promote human rights and accountability, 
DOD has a number of programs that provide training on compliance with 
the law of armed conflict and human rights, developing military justice 
systems, and strengthening civilian control of the military.
    The Department also is committed to compliance with what is 
commonly referred to as the Leahy law and is working closely with the 
Department of State to strengthen our implementation of the law to help 
ensure accountability for those who commit gross violations of human 
rights.
    Question. The Global Security Contingency Fund (GSCF) is a joint 
DOD/State program designed to leverage the strengths of both 
Departments to conduct a wide array of security cooperation missions.
    Why has it, to date, mostly been used for counterterrorism missions 
when Congress authorized a much wider mission set?
    Answer. The GSCF projects selected to date represent priorities 
selected by the Departments of State and Defense to provide training 
and equipment to partner nations that are consistent with U.S. foreign 
policy and national security interests. It is a State Department-led 
authority meant to enable partners to address contingencies, and 
project proposals to enhance the special operations and CT capabilities 
of partner nations have historically competed well in the current 
security environment. More recently, in light of developments in 
Ukraine, the Departments of State and Defense have submitted a 
congressional notification for a capacity-building project there. 
Clearly, it has taken time to work out a governance mechanism to allow 
the GSCF--which represents a new model of interagency cooperation--to 
function as an agile and responsive policy tool; if confirmed, I would 
work with ASD(SO/LIC), who oversees the authority for the Department, 
to ensure that it continues to mature into a tool that truly enables 
partners to respond to urgent and emerging contingencies that affect 
U.S. national security objectives.
    Question. The Global Train and Equip Program (or section 1206) has 
been a DOD tool for a number of years with an annual budget of $350 
million.
    How would you assess the effectiveness of that program? As the 
assistant secretary responsible for security cooperation, do you 
envision any changes to that program?
    Answer. Overall, the section 1206 ``train-and-equip'' program, 
overseen by the ASD(SO/LIC), has been effective in achieving the 
limited set of objectives for which it was designed: namely, providing 
tools to partner nations to bolster their near-term capabilities to 
address counterterrorism and stabilization priorities. It has achieved 
positive results in this area.
    The effectiveness of the section 1206 authority is best exemplified 
by the individual program assessments conducted by country teams, 
combatant command staffs, and our own contracted personnel who provide 
a more detailed analysis of six to eight countries annually. In those 
reports, the section 1206 authority shows a positive return on 
investment in nearly every country in which the United States has 
invested. For the countries where the return is not as great, the 
assessments help to identify where course corrections may be needed.
    That said, it is important to underscore that section 1206 was 
created with the intent of addressing near-term counterterrorism and 
stabilization priorities, rather than to build long-term partner 
capabilities. In order to maximize the return and longevity of our 
investments, the Department must continue to examine how to use section 
1206 in conjunction with other authorities to ensure that section 1206 
programs transition into sustainable capabilities. If confirmed, I 
would seek to enhance the Department's ``capability package 
planning''--planning that organizes and synchronizes train-and-equip 
efforts with related security cooperation activities to account for 
partners' institutional, sustainment, training, and infrastructure 
needs. Such efforts will better position partners to sustain and 
properly employ the operational and tactical assistance provided.
     deputy assistant secretary of defense for security cooperation
    Question. The Department recently created Deputy Assistant 
Secretary of Defense (DASD) for Security Cooperation.
    What is your understanding of this position?
    Answer. The Office of the DASD for Security Cooperation (ODASD(SC)) 
was established to prioritize Departmental focus on aligning security 
cooperation resources and activities with the defense strategy. 
Security cooperation activities of the Department, which include 
Security Force Assistance (SFA), Building Partner Capacity (BPC), and 
Defense Institution Building (DIB), among other activities, play an 
important role in maintaining U.S. defense relationships and overseas 
presence, and building the capabilities of partner nations to act in 
coalition with or in lieu of U.S. military forces to address U.S. 
national security objectives. This latter role takes on increasing 
importance as defense budgets decline. ODASD(SC) will ensure that these 
valuable tools are employed to maximize strategic outcomes, continually 
prioritize and assess investments, and build enduring, reciprocal 
global partnerships.
    Question. What is the relationship between the DASD for Security 
Cooperation and the Director of the Defense Security Cooperation 
Agency?
    Answer. The DASD for Security Cooperation provides policy guidance 
on how to align security cooperation policies, authorities, resources, 
and activities in service to defense strategic objectives. The Defense 
Security Cooperation Agency administers security cooperation programs, 
provides procedural guidance to the broader security cooperation 
community on program implementation, and provides policy guidance on 
policies shaping the execution of security cooperation programs. As a 
result, the DASD SC focuses generally on the overarching architecture 
of DOD policies, processes, plans, and budgets that shape SC 
programming as a means to achieve defense strategic ends, while DSCA's 
role is largely focused on executing current policies and processes to 
deliver security assistance and security cooperation programs to 
customers most effectively. The two offices will have to work in close 
collaboration to achieve security cooperation outcomes consistent with 
policy objectives.
    Question. Does the DASD for Security Cooperation have management 
control of the Department's security cooperation programs? If so, what 
programs specifically? What major programs building capacity programs 
are not included in this portfolio?
    Answer. The DASD(SC) maintains direct oversight of a select number 
of security cooperation programs, primarily focusing on defense 
institution building (DIB). These programs include the MoDA program, 
the DIRI, the DIILS, and Regional Centers for Security Studies.
    The DASD(SC) also provides policy oversight over a series of 
programs administered by other, primarily military, components. 
Examples include, but are not limited to, the National Guard State 
Partnership Program and the Developing Countries Combined Exchange 
Program.
    As many of the Department's capacity-building programs address 
niche areas, such as counternarcotics and counterterrorism, the 
Department continues to rely on the expertise resident in the relevant 
functional offices to manage these programs. The DASD(SC) shapes the 
security cooperation governance architecture under which these programs 
function, however. Additionally, the DASD(SC) works closely with the 
State Department to support policy oversight of the Department's 
implementation of title 22 authorities.
    Question. In you view, what role should the DASD for Security 
Cooperation play with respect to security cooperation programs not 
directly under the DASD's management control?
    Answer. In general, ODASD(SC) is tasked with shaping a governance 
architecture to validate, prioritize, integrate, and assess security 
cooperation programs across the Department. Whether or not security 
cooperation programs are directly under the office's management 
control, it is critical that they be aligned with defense strategy, 
that they be linked together in ways that are mutually reinforcing, 
that they be evaluated to determine what is working and what is not, 
and that they obtain the greatest possible return on our investment. 
Shaping and overseeing processes to achieve these results is, in my 
view, the essential role of the ODASD(SC).
                       special operations forces
    Question. The previous two QDRs have mandated significant growth in 
our Special Operations Forces and enablers that directly support their 
operations.
    Do you believe QDR-directed growth in the size of Special 
Operations Forces can and should be maintained in light of current 
fiscal challenges?
    Answer. Yes. Given the threats we face, the unique military 
capabilities provided by our Special Operations Forces (SOF) will 
continue to be in high demand for the foreseeable future. We will 
continue to maintain our investment in SOF to preserve this strong 
capability to combat terrorism and confront other unconventional 
threats through direct action, indirect action, and building partner 
capacity. If confirmed, I would work with the ASD(SO/LIC), for SOF, the 
Service Chiefs, and the Commander, SOCOM, to ensure the SOF community 
is appropriately sized to meet the full range of SOF missions.
    Question. Special Operations Forces heavily rely on enabling 
capabilities provided by the general purpose forces to be successful in 
their missions. In light of current fiscal challenges, do you believe 
sufficient enabling capabilities can be maintained within the general 
purpose forces and that such capabilities will remain available to 
special operations forces when needed?
    Answer. Yes. In an environment of constraining resources and the 
drawdown of our forces in Afghanistan, the Department is reshaping and 
resizing our overall force structure aligned to our national security 
priorities. The Department will ensure that Special Operations Forces 
remain sufficiently supported by the general purpose forces, which 
currently provide SOF with intelligence, communications, logistics, and 
medical support. If confirmed, I would work closely with the ASD (SO/
LIC), the Service Chiefs, the Joint Staff, and the Commander, U.S. 
Special Operations Command (SOCOM) to ensure the Department achieves 
the appropriate balance across the entire force.
    Question. Do you believe Special Operations Forces should develop 
additional organic enabling capabilities in addition or in place of 
those currently provided by the general purpose forces?
    Answer. Our Special Operations Forces receive excellent support 
from the Services. Any organic enablers assigned to SOCOM should be 
purposely designed for SOF-specific requirements, while the Services 
continue to provide SOF's enabler requirements. I believe this 
arrangement is most efficient in this fiscal environment by allowing 
SOCOM to use their funding for SOF-specific capabilities and avoid 
duplication with the Services.
                   counterterrorism partnership fund
    Question. If confirmed, what role, if any, will you have in the 
development and implementation of the Counterterrorism Partnership 
Fund?
    Answer. The ASD/SPC would work through the DASD(SC) to issue policy 
guidance and develop governance processes to ensure security 
cooperation resources and activities are aligned to the defense 
strategy. Additionally, the ASD/SPC, working through the DASD(SFD), is 
responsible for developing the defense strategy on behalf of the 
Secretary of Defense and recommending adjustments to the defense 
program in support of the strategy. Therefore, if confirmed, I expect 
that my role in implementation of the Counterterrorism Partnership Fund 
would be twofold. First, the office of the ASD/SPC would provide 
support to ASD(SO/LIC) in developing coherent, integrated, feasible 
implementation plans with detailed objectives, and would support 
institutional capacity-building aspects of these plans through defense 
institution-building programs managed by DASD(SC). Second, the office 
of the ASD/SPC would support ASD(SO/LIC) in teeing up decisions related 
to investments in enabling capabilities and resources for the joint 
force.
                    european reassurance initiative
    Question. If confirmed, what role, if any, will you have in the 
development and implementation of the European Reassurance Initiative?
    Answer. If confirmed, I expect to work closely with the Assistant 
Secretary of Defense for International Security Affairs to 
institutionalize many of the European Reassurance Initiative's (ERI) 
program elements. I would reference changes to the European security 
environment in future strategy and global force management documents, 
assist in programming funds in future years' base budgets, assist in 
the allocation of forces to participate in exercises, training, and 
operations, and help secure the international agreements necessary to 
implement the ERI fully.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Global Strategic Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Mr. Robert M. Scher follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 15, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Robert M. Scher, of the District of Columbia, to be an Assistant 
Secretary of Defense, vice Madelyn R. Creedon, resigned.
                                 ______
                                 
    [The biographical sketch of Mr. Robert M. Scher, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Robert M. Scher
Education:
    Columbia University School of International and Public Affairs

        <bullet> August 1989-June 1991
        <bullet> Master of International Affairs

    Swarthmore College

        <bullet> August 1985-June 1989
        <bullet> Bachelor of Arts
Employment Record:
    Office of the Secretary of Defense, Plans--Washington, DC

        <bullet> Deputy Assistant Secretary of Defense
        <bullet> April 2012-Present

    Office of the Secretary of Defense, South and Southeast Asia--
Washington, DC

        <bullet> Deputy Assistant Secretary of Defense
        <bullet> April 2009-April 2012

    Booz Allen Hamilton--McLean VA

        <bullet> Associate
        <bullet> April 2006-April 2009

    Office of the Secretary of Defense, Asia and Pacific Affairs--
Washington, DC

        <bullet> Chief of Staff to Deputy Under Secretary of Defense
        <bullet> February 2005-April 2006

    U.S. Department of State, Policy Planning Staff--Washington, DC

        <bullet> Member
        <bullet> February 2003-February 2005

    Office of the Secretary of Defense, Asia and Pacific Affairs--
Washington, DC

        <bullet> Director for Maritime Southeast Asia
        <bullet> February 1999-February 2003

    Office of the Secretary of Defense, Strategy--Washington, DC

        <bullet> Senior Assistant for Strategy Development
        <bullet> July 1993-February 1999

    Office of the Secretary of Defense, Presidential Management 
Intern--Washington, DC

        <bullet> Various positions
        <bullet> August 1991-July 1993
Honors and awards:
    Exceptional Civilian Service Award--Department of Defense, 2001
    Exceptional Civilian Service Award--Department of Defense, 2006
    Outstanding Public Service Award--Department of Defense, 2001
    DuPont International Scholarship--Columbia University 1990-1991
    Bachelor of Arts Conferred with High Honors--Swarthmore College, 
1989
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mr. Robert M. 
Scher in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Robert Mark Scher.

    2. Position to which nominated:
    Assistant Secretary of Defense for Strategy, Plans, and 
Capabilities.

    3. Date of nomination:
    September 15, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 14, 1967; Baltimore, MD.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Danielle T. Ewen.

    7. Names and ages of children:
    Maxwell Lawrence Ewen Scher, 14.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    High School, 1985: Friends School of Baltimore; 1981-1985
    Bachelor of Arts, 1989: Swarthmore College; 1985-1989
    Masters, International Affairs, 1991: Columbia University; 1989-
1991

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    2012-Present: Deputy Assistant Secretary of Defense for Plans, U.S. 
Department of Defense, 2000 Defense Pentagon, Washington, DC.
    2009-2012: DeputyAssistant Secretary of Defense for South and 
Southeast Asia, U.S. Department of Defense, 2700 Defense Pentagon, 
Washington, DC.
    2006-2009: Associate, Booz Allen Hamilton, 8283 Greensboro Drive, 
McLean, VA., (New Address: 3811 N Fairfax Drive, Arlington, VA)
    2005-2006: Chief of Staff, Deputy Under Secretary of Defense for 
Asian and Pacific Affairs, U.S. Department of Defense, 2700 Defense 
Pentagon, Washington, DC.
    2003-2005: Member, Policy Planning Staff (on detail from DOD). U.S. 
Department of State, 2201 C St NW, Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Board Member, Capitol Hill Community Foundation
    Member, U.S. Holocaust Museum
    Member, Kennedy Center
    Member, Cheverly Swim and Racquet Club.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2014, Tommy Wells for Mayor, DC--$100
    2012, Obama for America--$500
    2012, Obama for America--$375
    2012, Obama Victory Fund--$500
    2012, Obama Victory Fund--$500

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Exceptional Civilian Service Award: Department of Defense, 2001
    Exceptional Civilian Service Award: Department of Defense, 2006
    Outstanding Public Service Award: Department of Defense, 2001
    DuPont International Scholarship--Columbia University, 1990-1991
    Bachelor of Arts conferred with High Honors--Swarthmore College, 
1989
    Scholarship for Voice Study--Swarthmore College, 1986-1987.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Speech at the New America Foundation, India-U.S. Defense 
Relationship (http://securitv.newamerica.net/events/2011/building--
foundations)
    DOD Press conference on the India report to Congress (http://
www.defense.aov/transcripts/transcript.aspx?transcriptid=4917)
    Testimony on Indonesia/Papua (http://
democrats.foreianaffairs.house.gov/111/sch092210.pdf)
    Testimony on South China Sea (http://www.gpo.gov/fdsys/pkg/CHRG-
111shrg53Q22/html/CHRG-111shrg53022.htm)
    Testimony on the Palau Compact Agreement (http://
www.energy.senate.gov/Public/index.cfm/files/serve?File id=98e52ea9-
e63e-4058-d76f-65616fc51375)
    Testimony on the Asia Rebalance (http://armedservices.house.gov/
index.cfm/files/serve?File id=dd4f9af6-8217-4b8a-bffe-c31720f8b719)
    Speech on Maritime Security at the Galle Dialogue, Sri Lanka http:/
/srilanka.usembassy.gov/mobile//sp-14nov11.html

    17. Commitment regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Robert M. Scher.
    This 23rd day of October 2014.

    [The nomination of Mr. Robert M. Scher was reported to the 
Senate by Chairman Levin on December 9, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 16, 2014.]
                              ----------                              

    [Prepared questions submitted to Ms. Elissa Slotkin by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No, I do not. The Goldwater-Nichols Act has led to 
significant improvements, including increased operational 
effectiveness, greater unity of effort across our Armed Forces, and 
civilian oversight--all of which have strengthened our force.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. None.
               qualifications, priorities, and challenges
    Question. What background and experience do you have that you 
believe qualifies you for the position of Assistant Secretary of 
Defense for International Security Affairs (ASD(ISA))?
    Answer. I believe that my experiences over the past 11 years in 
government--in the Intelligence Community, on the National Security 
Council Staff, at the Department of State and now at the Department of 
Defense (DOD)--provide me with the background to handle the 
responsibilities of the ASD(ISA). Working both in the field and here in 
Washington, I have worked on U.S. policy in the Middle East, Europe, 
Africa, and most recently the Western Hemisphere--as well as been 
involved in a wide range of international crises that span the entirety 
of the ISA account. I have benefited from close civil-military 
cooperation to the achievement of U.S. objectives--something that is 
critically important in meeting new threats.
    Question. In your view, what are the major challenges confronting 
the next ASD(ISA)?
    Answer. The next ASD(ISA) will need to continue balancing competing 
demands across the five areas within the portfolio--Europe, Russia and 
Eurasia, Africa, the Middle East, and the Western Hemisphere--while 
providing exemplary support and thought leadership to the Secretary of 
Defense on emerging crises and longer-term strategy on defense and 
security issues. The next ASD(ISA) will also need to manage the 
International Security Affairs team and ensure it has the tools and 
resources to conduct the day-to-day affairs of the organization while 
working within real-world budget constraints.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASD(ISA)?
    Answer. If confirmed, I would work to ensure that DOD pursues a 
strategic and balanced approach as outlined in the 2014 Quadrennial 
Defense Review (QDR). Top priorities would include strengthening 
America's alliances with key partners and allies; ensuring the success 
and effective transition of the NATO mission in Afghanistan; improving 
and informing our counter-ISIL campaign and the international coalition 
that supports it; preventing Iran from acquiring a nuclear weapon; 
combating terrorism; strengthening security and stability across the 
Middle East; maintaining a strong relationship with Israel; expanding 
cooperation with our NATO allies and European partners in the face of 
Russian aggressive behavior; working with the states of Africa to meet 
urgent security challenges and help foster stability; and providing DOD 
support to Colombia and the Central America strategy.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, I would address these challenges by refining 
the development and implementation of DOD and interagency strategies, 
policies, and plans on key issues relating to Europe, the Middle East, 
Africa, and the Western Hemisphere. I would continue to work closely 
with other components of DOD in support of the Secretary of Defense, as 
well as our interagency counterparts, U.S. allies and partners, and, 
where appropriate, the private sector and nongovernmental 
organizations. I would pay particular attention to shoring up the 
policies, partnerships, and posture needed to meet the complex and 
often unpredictable challenges of the current security environment to 
ensure that they are updated as needed to reflect new challenges and 
new opportunities. Under the direction of the Under Secretary of 
Defense for Policy, I would work to support the President and 
Secretary's guidance to shape a Joint Force for the future that will be 
smaller and leaner, but will be flexible, agile, ready, and 
technologically advanced.
        role within the office of the under secretary for policy
    Question. The Secretary of Defense has announced a plan to 
reorganize the Office of the Under Secretary of Defense for Policy. The 
reorganization has begun and is expected to be completed by 2015.
    What is your understanding of the major changes planned for the 
organization that you have been nominated to lead, and what do you 
believe will be the primary benefits of the reorganization plan?
    Answer. Under the reorganization of the Office of the Under 
Secretary of Defense, the major change for International Security 
Affairs has already taken place: the integration of Western Hemisphere 
Affairs into the International Security Affairs. That transition 
occurred earlier this year, and I worked closely with the Western 
Hemisphere Affairs team, the ASD(ISA), the Under Secretary of Defense, 
and Policy's Chief Operating Officer to ensure as smooth a transition 
as possible. I also stood up a Workforce Implementation Team--composed 
of action officers from both the Western Hemisphere office and from 
offices already in ISA--to identify issues the workforce was most 
concerned with and raise them to management for discussion.
    Question. DOD Directive 5111.07 (11/7/2008) delineates the 
functions and duties of the ASD(ISA). Under this Directive, the 
ASD(ISA) is the principal advisor to the Under Secretary of Defense for 
Policy (USD(P)) and the Secretary of Defense on international security 
strategy and policy on issues of DOD interest that relate to the 
Nations and international organizations of Europe (including the North 
Atlantic Treaty Organization (NATO) and Russia), the Middle East, and 
Africa; their governments and defense establishments; and for oversight 
of security cooperation programs.
    What is your understanding of the duties and functions of the 
ASD(ISA)?
    Answer. The ASD(ISA) is responsible for providing advice and 
support on defense policy and strategy for the Middle East, Europe, 
Russia, Africa, and, since the spring of 2014, the Western Hemisphere 
to the Under Secretary of Defense for Policy and the Secretary of 
Defense.
    Question. Notably absent from the Directive is the responsibility 
for the Western Hemisphere (which was add to the portfolio with the 
USD(P) reorganization), what is the role of the ASD(ISA) with respect 
to the Western Hemisphere?
    Answer. The ASD(ISA) now provides advice and support on defense 
policy and strategy for the Western Hemisphere to the Under Secretary 
of Defense for Policy and the Secretary of Defense.
    Question. Based on the aforementioned reorganization, what, if any, 
updates need to be made to DOD Directive 5111.07 (11/7/2008)?
    Answer. The DOD Directive will be updated to reflect the 
reorganization within OSD Policy, including the transition of Western 
Hemisphere Affairs to International Security Affairs.
                             relationships
    Question. What do you see as the relationship between the ASD(ISA) 
and each of the following?
    The Secretary of Defense.
    Answer. The ASD(ISA) is responsible for advising the Secretary of 
Defense on defense and security policy and strategy related to Europe 
(including the North Atlantic Treaty Organization), Russia, the Middle 
East, Africa, and the Western Hemisphere. This advice is provided under 
the guidance of the Under Secretary of Defense for Policy.
    Question. The Deputy Secretary of Defense.
    Answer. Similar to the relationship with the Secretary of Defense, 
the ASD(ISA) is responsible for advising the Deputy Secretary of 
Defense on defense and security policy and strategy related to Europe 
(including the North Atlantic Treaty Organization), Russia, the Middle 
East, Africa, and the Western Hemisphere. This advice is provided under 
the guidance of the Under Secretary of Defense for Policy.
    Question. The Under Secretaries of Defense for Policy.
    Answer. The ASD(ISA) is the Under Secretary of Defense for Policy's 
principal advisor on defense and security policy and strategy related 
to Europe (including the North Atlantic Treaty Organization), Russia, 
the Middle East, Africa, and the Western Hemisphere.
    Question. The Principal Deputy Under Secretary of Defense for 
Policy.
    Answer. The ASD(ISA) is the Principal Deputy Under Secretary of 
Defense for Policy's principal advisor on defense and security policy 
and strategy related to Europe (including the North Atlantic Treaty 
Organization), Russia, the Middle East, Africa, and the Western 
Hemisphere.
    Question. The other Under Secretaries of Defense.
    Answer. The ASD(ISA) works with the other Under Secretaries of 
Defense to advance the Secretary's objectives and policy priorities, 
under the guidance and direction of the Under Secretary of Defense for 
Policy. This includes providing policy input to each Under Secretary 
that relates to Europe (including the North Atlantic Treaty 
Organization), Russia, the Middle East, Africa, and the Western 
Hemisphere.
    Question. The Joint Staff.
    Answer. The ASD(ISA) works very closely with the Joint Staff to 
advance the Secretary's objectives and policy priorities, under the 
guidance and direction of the Under Secretary of Defense for Policy. 
This includes providing policy input to the Joint Staff that relates to 
Europe (including the North Atlantic Treaty Organization), Russia, the 
Middle East, Africa, and the Western Hemisphere, as well as ensuring 
that military advice from the Joint Staff is sought out and considered 
in policy development as appropriate.
    Question. The Secretaries of the Military Departments.
    Answer. The ASD(ISA) works with the Secretaries of the Military 
Departments to advance the Secretary's objectives and policy 
priorities, under the guidance and direction of the Under Secretary of 
Defense for Policy. This includes providing policy input as appropriate 
to the Secretaries of the Military Departments that relates to Europe 
(including the North Atlantic Treaty Organization), Russia, the Middle 
East, Africa, and the Western Hemisphere, and working with the 
Secretaries of the Military Departments to help ensure their programs 
are synchronized with and support our policy in those regions.
    Question. The Service Chiefs.
    Answer. The ASD(ISA) works with the Service Chiefs to advance the 
Secretary's objectives and policy priorities, under the guidance and 
direction of the Under Secretary of Defense for Policy. This includes 
providing policy input as appropriate to the Secretaries of the 
Military Departments and the Service Chiefs that relates to Europe 
(including the North Atlantic Treaty Organization), Russia, the Middle 
East, Africa, and the Western Hemisphere.
    Question. The Geographic and Functional Combatant Commanders.
    Answer. The ASD(ISA) works with the commanders of the regional 
combatant commands in connection with activities in Europe, Russia, the 
Middle East, Africa, and the Western Hemisphere--U.S. Central Command 
(CENTCOM), U.S. Africa Command (AFRICOM), U.S. European Command 
(EUCOM), U.S. Northern Command and U.S. Southern Command--to advance 
the Secretary's objectives and policy priorities, under the guidance 
and direction of the Under Secretary of Defense for Policy. The 
Assistant Secretary of Defense for International Security Affairs also 
works with the functional combatant commanders--particularly U.S. 
Special Operations Command and U.S. Transportation Command--to ensure 
that crosscutting functional efforts are appropriately synched and 
coordinated with the Secretary's objectives and policy priorities in 
the International Security Affairs regions. Particular areas of 
engagement include regional and bilateral strategy and policy, 
contingency planning, and policy oversight of operations.
    Question. The Director of the National Guard Bureau.
    Answer. The ASD(ISA) works with the Director of the National Guard 
Bureau with regard to the State Partnership Program and related 
activities in Europe, Russia, the Middle East, Africa, and the Western 
Hemisphere.
    Question. The Other Functional and Regional Assistant Secretaries 
of Defense.
    Answer. The ASD(ISA) works with the other functional and regional 
Assistant Secretaries of Defense within the Office of the Under 
Secretary of Defense for Policy to provide policy guidance to advance 
the Secretary's objectives and policy priorities, and to ensure the 
regional and functional policy recommendations are coordinated and 
reflect the best advice of the Office of the Under Secretary of Defense 
for Policy's leadership team.
    Question. The Director of the Defense Security Cooperation Agency.
    Answer. The ASD(ISA) works with the Director of the Defense 
Security Cooperation Agency on the policy guidance for and the 
implementation of security cooperation activities, including Foreign 
Military Sales, to ensure these activities support the Secretary's 
objectives and policy priorities as they are implemented with countries 
in Europe, the Middle East, Africa, and the Western Hemisphere.
                  transatlantic relationship and nato
    Question. In your view, how important to U.S. national security 
interests is the U.S. transatlantic relationship with our European 
partners?
    Answer. The U.S. transatlantic relationship with European partners 
has stood the test of time through the Cold War, the dissolution of the 
Soviet Union and the Warsaw Pact, the September 11 attack on the United 
States and ensuing NATO action in Afghanistan, and ongoing operations 
to counter violent extremism and terrorism. European allies remain the 
United States' principal partners in promoting global security. Not 
only is Europe home to our most stalwart and capable allies, it 
provides essential access and support that ensures the ability of the 
U.S. Armed Forces to respond to global challenges, particularly in the 
Middle East and North Africa. If confirmed, I would continue to work to 
reinforce this critical relationship.
    Question. In your view, what is the role of the North Atlantic 
Treaty Organization (NATO) Alliance in meeting U.S. security interests?
    Answer. NATO is a uniquely important and capable Alliance, through 
which the United States and 27 allies confront together the broad range 
of diverse and difficult threats to our shared security interests. NATO 
is composed of like-minded allies who share our fundamental values of 
democracy, human rights, and rule of law, and it includes the most 
capable militaries in the world today. Fundamentally, NATO provides a 
standing forum for the consultations that forge consensus for needed 
actions, including military operations; it coordinates allies' creation 
of the interoperable military forces and other capabilities needed for 
such actions; and it maintains a unique multinational command structure 
to lead those forces in action. NATO also has evolved into a global hub 
for security cooperation, connecting allies with more than 40 partner 
nations who work with us on security challenges worldwide, and 
contributing to the political support and legitimacy accorded to 
actions by a wider international community.
    NATO has played a fundamental role in Afghanistan in leading the 
ISAF mission and is poised to continue in the Resolute Support Mission 
starting in January 2015. Today, NATO allies and partners continue to 
take significant steps in addressing Russia's actions in eastern 
Europe, and in forming the core of the coalition against ISIL in Iraq 
and Syria. Other examples, from the Cold War through the Balkans to 
Iraq, Libya, counter-piracy and more, all illustrate NATO's ability to 
be a strong force-multiplier for helping meet U.S. security interests.
    Question. In your view, what are the major strategic objectives of 
the NATO Alliance in the coming years, particularly in light of the 
Russian Federation's aggression against Ukraine?
    Answer. NATO's enduring purpose is to safeguard the freedom and 
security of its members, and this includes promoting shared values and 
aiming to achieve a Europe, including Russia, that is whole, free, and 
at peace. The Russian Federation's aggressive actions against Ukraine 
threaten the Alliance's ability to achieve its strategic political 
objectives in the coming years. This requires both a united political 
response as well as continued security cooperation between Ukraine and 
the Alliance. In the coming years, the Alliance will aim to develop and 
maintain robust, mobile, and deployable forces with the ability to 
sustain concurrent major joint operations and several smaller 
operations; to develop the capability to defend its populations and 
territories against ballistic missile attack; and to develop further 
capabilities to defend against weapons of mass destruction and cyber-
attacks.
                      nato mission in afghanistan
    Question. At the NATO Summit in Wales in September, NATO members 
and partner nations reaffirmed their commitment to the post-2014 train, 
advise, and assist mission in Afghanistan, known as Operation Resolute 
Support.
    What do you see as the major challenges for the NATO-led Operation 
Resolute Support mission to build the capacity of the Afghan security 
forces?
    Answer. The key challenge for the NATO-led Operation Resolute 
Support mission will be ensuring we have the right advisors with the 
right skills for our capacity building efforts, and ensuring we build 
enough capacity in the Afghan Ministries of Defense and Interior to 
execute the funding being provided to them responsibly and 
transparently. If confirmed, I would work with the Assistant Secretary 
of Defense for Asian and Pacific Security Affairs, and interagency 
colleagues, toward that goal.
    Question. If confirmed, what recommendations would you have for 
addressing these challenges?
    Answer. If confirmed, I will continue the work within DOD and with 
our partners to provide the right advisors. General Campbell and his 
team are in regular dialogue with the Department on this and we are 
rotating personnel to the field to work in the ministries. If 
confirmed, I would also work to echo General Campbell's messages to his 
counterparts about the importance of responsible management of donated 
funds, which are used to pay army and police salaries and other basic 
consumables. President Ghani's statements on attacking corruption are 
helpful to our efforts to build transparency and accountability with 
the Ministry of Defense and Ministry of Interior--and to keep our 
allies and partners invested in Afghanistan.
    Question. General Campbell and General Dunford have both indicated 
that the loss of Mi-17 helicopter capability would `` . . . be 
catastrophic to the mission and would give me cause to reassess the 
entire campaign.'' General Campbell and General Dunford also point out 
that the Mi-17s are key to providing an outer layer of force protection 
to U.S. and coalition forces.
    Do you agree with the statements of General Campbell and General 
Dunford on the critical importance of the Mi-17s to mission success and 
force protection in Afghanistan, and if so why?
    Answer. Yes. The Afghan Air Force is using the Mi-17s to provide 
outer ring security for coalition forces. The Afghan Special Mission 
Wing is using the Mi-17s to conduct operations against terrorists and 
insurgents in otherwise unreachable areas of Afghanistan. The Mi-17 
provides mobility in difficult terrain and is critical for denying 
enemy sanctuary in these non-permissive areas of the country. It also 
provides troop transport capability and serves as the primary casualty 
evacuation platform and as a close air support platforms. It is the 
centerpiece of the Afghan Air Force and the loss of the Mi-17 would be 
a serious blow to our operations in Afghanistan.
                                 russia
    Question. What role will you play, if confirmed, in establishing 
policy with respect to the U.S.-Russia security relationship, including 
in the NATO context?
    Answer. If confirmed, I would play an active role in managing our 
evolving defense strategy toward Russia, ensuring that the Department 
is prepared and postured to enforce our Article 5 commitment, reassure 
our allies with a persistent presence in central and eastern Europe for 
as long as necessary, support our partners so they are better able to 
secure their borders and provide for their own defense, and deter 
potential aggressive Russian actions against U.S. interests.
    Question. What do you believe are appropriate objectives for U.S.-
Russian security relations?
    Answer. Military-to-military relations between the United States 
and Russia are on hold due to Russia's illegal occupation and attempted 
annexation of Crimea, as well as its continued destabilizing activities 
in eastern Ukraine and failure to uphold the Minsk Agreement. Russia's 
behavior is not consistent with a responsible global stakeholder 
contributing to international stability, and we will not seek a 
cooperative relationship with the Russian military while it violates 
the sovereignty of one of its neighbors. Should Russia change its 
behavior by fully implementing the Minsk Protocol and withdrawing from 
Crimea, I believe the Department would be in a position to review the 
hold on military-to-military activities.
    That said, the Department is prepared to work with the Russian 
Ministry of Defense on issues in which it is in our national interest 
to do so. For instance, the United States and Russia have worked 
together to secure Syria's declared chemical weapons stockpile, have 
common interests in promoting stability and countering terrorism in 
Afghanistan, and have a shared interest in avoiding misunderstandings 
or miscalculation concerning our global military presence.
    Question. What do you believe are the main areas of disagreement 
between the United States and Russia and the areas of common interest 
between the United States and Russia in the security sphere?
    Answer. The administration is committed to a Europe that is whole, 
free, and at peace; believes that nations have the right to associate 
freely with whatever organization it chooses; and does not accept that 
some nations have a sphere of influence or privilege--a vision I would 
uphold if confirmed. As demonstrated by its actions in Ukraine, Russia 
does not share these views, and is willing to challenge norms that have 
preserved international security for decades in order to assert its own 
vision.
    However, there are convergent interests between the United States 
and Russia, and opportunities for constructive engagement with Russia 
continue to exist, particularly regarding nonproliferation, such as the 
P5+1 negotiations with Iran and removing Syria's declared chemical 
weapons stockpile. The United States and Russia also have a shared 
interest in counterterrorism, counter-piracy, developing the Arctic 
region, and ensuring stability in Afghanistan, and I believe the United 
States should be willing to engage with Russia on areas of mutual 
interest when it is in our national interest to do so.
    Question. On November 2, 2014 the New York Times reported that 
``Tanks and other military vehicles [are] pouring over the border from 
Russia into eastern Ukraine'' despite the ceasefire reached in 
September.
    In the context of Russian aggression in eastern Europe, do you 
believe that the deterrence of further aggression will require the 
permanent stationing of additional U.S. or allied forces in eastern 
European nations?
    Answer. The Department continues to work with the EUCOM and allies 
and partners to develop additional reassurance and deterrence measures 
in the region. Adjusting U.S. force structure in Europe may be one of 
these measures; however, this must be done in the context of balancing 
other global requirements and managing limited fiscal resources. If 
confirmed, I would continue to support this effort.
    Question. What is your assessment of which American forces and 
capabilities have the greatest deterrent effect upon Russia and other 
aggressive actors in the region?
    Answer. Effective deterrence relies on the combination of 
capabilities--but it is our will to defend the NATO Alliance from 
aggression that gives our capabilities credibility. Deterring 
aggressive actors in Europe also requires a strong and unified Alliance 
willing to share the burden for defense, and if confirmed I would 
continue to work with our allies to work toward that goal.
                    force posture in the middle east
    Question. The Gulf continues to be a turbulent area, made more 
unstable by the malign influence of Iran and the growth of the so-
called Islamic State in Iraq and Syria.
    Do you believe there is a need for the United States to mitigate 
the effects of a reduced aircraft carrier presence in the Gulf region 
and, if so, how would you propose doing so?
    Answer. The Department maintains a strong military posture in the 
Gulf region with a mix of air, land, and naval forces. We do not rely 
on any single capability to address regional threats. The Department 
regularly assesses its forward posture, including the deployment of 
aircraft carriers, to address most effectively the challenges faced 
globally. The Department also maintains our ability to respond quickly 
to a range of worldwide contingencies. Therefore, at the present time I 
understand our military commanders do not see a need to further 
mitigate the reduced aircraft carrier presence in the Gulf.
                                  iraq
    Question. The President has announced an increase in the number of 
U.S. military personnel to be deployed to Iraq to advise and assist 
Iraqi security forces and Kurdish peshmerga in countering the threat 
posed by the Islamic State of Iraq and the Levant (ISIL).
    How would you describe the key U.S. strategic interests and 
objectives in Iraq?
    Answer. I believe the United States has a strategic interest in a 
stable, secure, and united Iraq led by an inclusive government that has 
support from all of Iraq's communities. The United States shares many 
interests with Iraq--including countering ISIL, countering threats from 
Iran, and ensuring the region is peaceful and secure in the long-term.
    Question. What do you see as the greatest challenges for the U.S.-
Iraq security relationship over the coming years?
    Answer. As we work to support the President's counter-ISIL 
strategy, supporting the Government of Iraq's efforts to build an 
inclusive and effective Iraqi Security Force will be a great challenge, 
and will take time. In order to reconstitute a sustainable, effective, 
and inclusive security force that can re-take territory and hold it in 
the long-term, the Government of Iraq must do the required reform and 
reconciliation among major sectarian groups in order to support the 
security forces. If confirmed, I would work with my colleagues toward 
that end.
    Question. Do you support President's approach for training and 
equipping security forces in Iraq to counter the ISIL threat?
    Answer. Yes.
    Question. What do you see as the greatest challenges for efforts to 
train and equip Iraqi security forces to counter the ISIL threat, and 
if confirmed, what recommendations would you have for addressing these 
challenges?
    Answer. As I noted, supporting the Government of Iraq's efforts to 
build an inclusive and effective Iraqi Security Force will be 
challenging, and take time. The Government of Iraq must offer a 
national program of reform and reconciliation in order for Iraqi 
security forces to succeed. If confirmed, I would continue to work with 
the Department of State and coalition partners on an engagement plan 
that urges the Government of Iraq to match capability development with 
political reform.
    Question. In your view, what conditions, if any, should the United 
States place on the provision of equipment or assistance to the 
Government of Iraq in its fight against violent extremism?
    Answer. Given the severity of the ISIL threat, the United States 
should continue to exercise its ongoing foreign assistance and security 
cooperation activities with the Government of Iraq, in accordance with 
applicable legal requirements--and continue to consult with Congress 
while doing so.
                                  iran
    Question. What is your understanding and assessment of the military 
and political threat posed by Iran?
    Answer. The administration's primary concern is preventing Iran 
from obtaining a nuclear weapon. However Iran's ballistic missile 
forces, naval forces, cyber capabilities, and sponsorship of 
destabilizing activity in the region are also of significant concern. 
Iranian officials' boasting of their influence in Iraq, Syria, Yemen, 
and Bahrain, as well as Supreme Leader Khamenei's recent inflammatory 
comments regarding Israel's right to existence, are also extremely 
provocative.
    Question. What is your understanding and assessment of U.S. policy 
with respect to Iran?
    Answer. Our current priority remains to prevent Iran from obtaining 
a nuclear weapon and I support the President's decision to continue 
pursuit of a diplomatic resolution to this issue. Negotiations aside, I 
subscribe to the view that the United States and many other countries 
hold that Iran needs to become a more responsible presence in the 
region, as well as adhere to international norms, including in the area 
of human rights.
    Question. What are the risks, if any, associated with reducing U.S. 
presence in the Middle East with respect to the threat posed by Iran?
    Answer. The administration has no plans to reduce the U.S. presence 
in the Middle East, and the President has been clear to both Iran and 
other countries that might consider testing the United States that we 
will continue to protect our interests globally. The United States' 
ability to garner the political will and marshal the forces to counter 
ISIL as quickly as it did serve as evidence that we continue to advance 
security and stability in the region--and will retain a robust force 
posture in the Middle East to protect our partners and our interests.
    Question. In your view, what role should DOD play in countering 
Iran's support of international terrorism?
    Answer. In my view, DOD has an important role to play in countering 
Iran's support for international terrorism by supporting broader U.S. 
Government and partner nation efforts. We also conduct numerous 
military exercises in the region that focus on mine countermeasures, 
maritime defense, and integrated air and missile defense that prepare 
us for possible Iranian asymmetric threats. If confirmed, I would 
continue to work with our interagency and international partners to 
further these efforts and ensure Iran is held accountable on the full 
scope of its destabilizing activities in the region and beyond, as 
necessary.
                                 syria
    Question. What is your understanding and assessment of United 
States policy with respect to Syria?
    Answer. The administration seeks a stable Syria that provides 
freedom and security to its citizens and is at peace with its 
neighbors. The U.S. focus is on three main areas: disrupt, degrade, and 
destroy ISIL; promote a negotiated political settlement to the Syria 
conflict; and prevent the Syria crisis from further destabilizing 
neighboring countries.
    The immediate focus is to disrupt, degrade and destroy ISIL. We 
seek to drive ISIL out of Iraq, deny it safe-haven in Syria, and 
disrupt its ability to project power. There is no sustainable solution 
to the Syria crisis without addressing the current ISIL threat. If 
confirmed, I would work to further the administration's policy with 
regard to Syria.
    Question. What is your understanding and assessment of United 
States policy with respect to the Assad Regime?
    Answer. As the President has said, Assad has been a magnet for 
extremism and has lost all legitimacy to govern. There must ultimately 
be a negotiated political settlement in which Assad cedes power in 
order to restore security and stability to Syria. If confirmed, I would 
work with my interagency partners to further the administration's 
policy.
    Question. What role, if any, does ASD(ISA) have within the U.S. 
Government policy community with respect to Syria?
    Answer. If confirmed, I would assist the Under Secretary of Defense 
for Policy in formulating, coordinating, and presenting the 
Department's Syria recommendations to the rest of the U.S. interagency. 
I would work closely with my counterparts on the Joint Staff and the 
Assistant Secretary of Defense for Special Operations and Low-Intensity 
Conflict. I would also work with counterparts across the interagency as 
they develop options that work towards a resolution to the crisis in 
Syria. This includes options for disrupting ISIL, and ways to pressure 
the Assad regime to negotiate a settlement, bolster the moderate Syrian 
opposition, alleviate the suffering of the Syrian people, and address 
extremist threats.
    Question. What role, if any, does ASD(ISA) have with respect to the 
DOD's proposed program to train the moderate, vetted Syrian Opposition?
    Answer. If confirmed, I would provide advice to DOD and interagency 
leadership on implementing the Department's proposed program to train 
and equip the moderate Syrian opposition.
                       gulf security cooperation
    Question. The administration has been working with Gulf Cooperation 
Council (GCC) governments to enhance regional cooperation and security 
against ballistic missile threats, particularly from Iran.
    What is your view of the potential for missile defense cooperation 
within the GCC to enhance regional security, and how do you see this 
potential cooperation fitting into the U.S. missile defense and 
security efforts in the Middle East?
    Answer. During the Secretary's first formal Defense Ministerial 
with the GCC in May, it was clear that a robust and enduring 
multilateral missile defense architecture would be advantageous to 
counter the threat posed by Iran. Our partners in the region share this 
view, and DOD sees strong potential for cooperation. I understand, 
however, that this architecture will take time to build and will 
require continued support from member states to maintain it over the 
long term. If confirmed, I would work with the Services, the combatant 
commands, and our partners and allies to build effective deterrence and 
defense architectures for Europe and the Middle East against ballistic 
missile threats.
                                 libya
    Question. Following the evacuation of the U.S. Embassy in Tripoli 
on July 26th, there is no longer an active American presence in the 
country.
    What is your understanding of how the departure of the U.S. 
presence is impacting our security interests in the country, to include 
its impact on our ability to collect timely intelligence and engage 
with Libyan security institutions?
    Answer. I believe the suspension of operations at the U.S. Embassy 
in Tripoli in late July has adversely affected our ability to engage 
with Libyan security institutions, but it was a necessary measure to 
ensure the safety of U.S. personnel. Unfortunately the fragmentation of 
the country has caused the United States and our partners to place on 
hold our security assistance programs with Libya, including a 
multinational effort to train a Libyan General Purpose Force. If 
confirmed, I would continue to work with my interagency colleagues to 
urge all Libyan parties toward a political solution and improved 
governance.
                                 israel
    Question. With regard to our relationship with Israel, President 
Obama has stated: ``Our military and intelligence cooperation has never 
been closer. Our joint exercises and training have never been more 
robust. Despite a tough budget environment, our security assistance has 
increased every year. We are investing in new capabilities. We're 
providing Israel with more advanced technology--the type of products 
and systems that only go to our closest friends and allies. Make no 
mistake: we will do what it takes to preserve Israel's Qualitative 
Military Edge--because Israel must always have the ability to defend 
itself, by itself, against any threat.''
    Do you agree with President Obama's position and views with regard 
to the U.S. security relationship with Israel?
    Answer. Yes. If confirmed, I would work to continue the 
Department's substantial cooperation with Israel and maintain the 
strength of our security relationship.
                                 egypt
    Question. A stable and secure Egypt is important to maintaining the 
peace treaty between Israel and Egypt and Egypt played an important 
role in brokering peace between Israel and Hamas.
    What is the purpose of the security assistance provided by the 
United States to Egypt?
    Answer. The U.S. relationship with Egypt is significant and 
enduring. Egypt plays a key role in the stability of the Middle East. 
For more than 30 years, our defense relationship has served to further 
our joint interests. Our security assistance to Egypt, and our security 
relationship with Egypt, facilitates our access to the Suez Canal and 
Egyptian airspace, supports the security of Israel, advances joint 
counterterrorism efforts, and maintains the security of U.S. personnel 
in Egypt.
    Question. What, if any, impact would discontinuing or significantly 
reducing that assistance have on the bilateral relationship and 
regional security?
    Answer. I believe discontinuing U.S. security assistance to Egypt 
would undercut key aspects of our relationship with Egypt, which has 
been a cornerstone of our security policy in the Middle East since the 
1980s. It would reduce U.S.-Egypt cooperation on shared interests--
including countering terrorism and access to Egyptian airspace for U.S. 
military aircraft.
                    africa-related security matters
    Question. The new DOD strategic guidance, ``Sustaining U.S. Global 
Leadership: Priorities for 21st Century Defense,'' announced by 
President Obama on January 5, 2012, sets out the defense priorities for 
the 21st century and the key military missions for which DOD will 
prepare. The primary emphasis of the strategy relates to the Middle 
East and Asia. The strategy makes little reference to Africa and its 
myriad security challenges.
    In light of the emphasis on areas outside of the African continent, 
if confirmed, how would you draw attention to the myriad security 
challenges confronting African nations?
    Answer. The Defense Strategic Guidance and the more recent 2014 QDR 
both make clear that DOD will focus its resources on achieving U.S. 
objectives in the Asia-Pacific and Middle East regions in the years 
ahead. However, from a mission perspective, both documents emphasize 
the importance of maintaining a strong focus on counterterrorism and 
irregular warfare, particularly with respect to disrupting and 
defeating al Qaeda and its affiliates (AQAA) wherever they manifest as 
a threat to the United States and partner interests. Given this 
emphasis, and the growing AQAA and potential ISIL presence in Africa, I 
will ensure African security challenges will continue to receive the 
focus that they deserve. If confirmed, I would support the Department's 
ongoing efforts to build the capacity of African security forces, 
defense institutions, and regional organizations to combat terrorism 
and transnational threats, participate in regional peace operations, 
and respect international human rights norms.
    Question. In the last few years, there has been a growth of 
terrorist networks, capabilities, and operations in North and East 
Africa, including groups that reportedly intending to target Western 
nations, including the United States. Some have characterized the U.S. 
counterterrorism effort in North and East Africa as an ``economy of 
force'' effort.
    Do you agree with that characterization of the U.S. 
counterterrorism effort in North and East Africa?
    Answer. No. The growing terrorist threats across Africa present a 
complex challenge to U.S. national security interests; thus, I do not 
consider it to be an ``economy of force'' region. Africa's ungoverned 
spaces have increasingly become safe havens for extremists who have 
been put under increasing pressure in other parts of the world. DOD's 
approach to disrupting extremist networks in Africa relies on 
relatively low-cost, small footprint, innovative approaches, often 
involving partnering with regional or international partners. In light 
of pressure on the Department's overall budget, we focus our efforts on 
those cases where the most significant U.S. interests are at stake, 
there is political will to address the given security challenge, and 
there is a credible likelihood that our targeted support will result in 
a decisive effect. If confirmed, I would look for ways to build upon 
the success that we have seen to date in places like Mali, where U.S. 
support to French operations and U.N. peacekeeping forces have helped 
stabilize that country and reduce al Qaeda's freedom of movement.
    Question. In your view, should these U.S. counterterrorism efforts 
be expanded, contracted, or remain the same?
    Answer. I believe that U.S. counterterrorism efforts should be 
dynamic and of sufficient scale to address the threats facing the 
United States, our interests, and those of our allies and partners. If 
confirmed, I would continue to support robust counterterrorism efforts 
to disrupt and ultimately defeat al Qaeda, ISIL, their affiliates, and 
other violent extremist organizations that pose risk to U.S. and allied 
interests, threaten regional security, and undermine economic growth 
and opportunity.
                                somalia
    Question. To date, DOD has had a limited role in Somalia and the 
Department has not established a military-to-military relationship with 
the newly formed Somali National Army. Further, the DOD has not 
provided any security assistance to the Somali National Army.
    What is the appropriate role for DOD with respect to Somalia and 
what, if any, assistance should the DOD provide to the Somali National 
Army?
    Answer. To date, DOD has had a limited, but focused role in 
Somalia, which has included advice and assistance, training, and 
logistical support to the African Union Mission in Somalia (AMISOM) and 
the Somali National Forces as they strive to bring stability and peace 
to Somalia.
    Following the January 2013 recognition of the Federal Government of 
Somalia (FGS) by the United States, the Under Secretary of Defense for 
Policy hosted the Somali President in the Pentagon, which was followed 
by a second visit and meeting with the Secretary of Defense at the 
Pentagon in September 2013. Through a deliberate engagement plan, the 
Department established a military-to-military relationship with the 
Somali National Armed Forces. This plan has included key engagements 
with Somali defense leaders, visits by the AFRICOM Commander, the 
Commander of Joint Task Force Horn of Africa, and other DOD personnel. 
Moreover, in July 2014, the Department installed a Defense Attachee to 
support the Special Representative to Somalia, who remains based in 
Kenya.
    With respect to the Department's role in Somalia, the United States 
is in a unique position to play an advisory role at a new beginning in 
the development of Somali's security sector, and if confirmed, I would 
work to support that effort.
    Question. Are there any restrictions that prevent DOD from 
providing assistance to the Somalia National Army? If so, what 
restrictions?
    Answer. Yes. Provisions in the fiscal year 2014 Foreign Operations 
bill currently prohibit the United States from providing lethal 
assistance to Somalia. As a result, DOD is unable to provide much-
needed military equipment and training to the Somali National Army. If 
confirmed, I look forward to working with Congress to determine the 
appropriate approach to this prohibition.
      u.s. military operations against the lord's resistance army
    Question. Despite pressure by the Ugandan People's Defense Forces 
(UPDF) and efforts by U.S. Special Operations personnel to support 
them, elements of the Lord's Resistance Army (LRA)--including Joseph 
Kony--continue to operate and commit atrocities against civilian 
populations. Some observers have identified operational concerns with 
this mission, including that: (1) supported forces are trying to find 
an elusive foe in an area roughly the size of California, much of which 
is covered in thick jungle; (2) technical support to U.S. forces and 
their UPDF partners from the defense and intelligence community 
continues to be inadequate; (3) limitations continue to be placed on 
the ability of U.S. Special Operations personnel to accompany UPDF 
partners outside of main basing locations, thereby limiting the level 
of direct support they can provide; and (4) logistics and operational 
enablers for U.S. forces.
    In your view, what is the objective of Operation Observant Compass?
    Answer. Under Operation Observant Compass (OOC), U.S. Special 
Operations Forces seek to enhance the capacity of local forces in the 
African Union Regional Task Force to end the threat to regional 
stability and civilian security posed by the Lord's Resistance Army 
(LRA). U.S. military advisors are working with these forces to improve 
their intelligence gathering, fusion, and information-sharing; enable 
effective logistical support; enhance their staff coordination and 
operational planning; and assist efforts to increase overall 
operational effectiveness. Because there are no purely military 
solutions to this problem, the U.S. military supports a broader 
interagency and international effort that involves the U.S. embassies 
in the affected countries, U.S. Agency for International Development's 
programs, as well as contributions from nongovernmental organizations.
    If confirmed, I would continue to support the current U.S. policy 
of pursuing a comprehensive, multi-faceted strategy to assist the 
governments and people of LRA-affected areas to end the threat posed by 
the LRA and to address the impact of the LRA's atrocities.
    Question. In your view, what is the appropriate level of priority 
to be accorded to efforts to counter the Lord's Resistance Army?
    Answer. In my view, the level of priority currently accorded to OOC 
is appropriate and appears to have yielded significant results. Three 
of the top five LRA leaders have been removed from the battlefield. 
There has been a 75 percent decrease in the number of people killed by 
LRA attacks. Since 2012, there have been 240 confirmed defections from 
the LRA, with 80 occurring between July and September 2014. Many who 
have fled the LRA have cited U.S.-supported defections messaging as 
influential in their decision to leave the group.
    Question. If confirmed, will you work to review the four concerns 
outlined above and report back to the committee?
    Answer. Yes. If confirmed, I would work with the relevant experts 
in the Department to ensure that your concerns are reviewed. I would be 
happy to organize an update on current OOC operational efforts at your 
convenience.
          `new normal' requirements within u.s. africa command
    Question. AFRICOM consistently suffers from shortfalls in 
resourcing--particularly in the areas of force posture, mobility, and 
intelligence, surveillance, and reconnaissance--and a lack of 
persistent access to the continent that impact its ability to meet 
requirements in theater, including crisis response.
    What is your understanding and assessment of the `new normal' 
requirements in AFRICOM's area of responsibility?
    Answer. The crises in Africa and the complexity of the security 
environment have demonstrated the need for DOD to position forces to 
respond rapidly on the continent. The Department's support has focused 
on two areas: assisting the Department of State in strengthening the 
security of high-threat, high-risk diplomatic missions in Africa and 
developing rapid response capabilities to bolster security during a 
crisis as a way to address the challenges presented by the size of 
Africa and the continent's limited infrastructure.
    Question. What is your understanding and assessment of the impact 
of and resulting risk associated with AFRICOM's resourcing shortfalls 
and persistent access to the continent on its ability to meet its `new 
normal' requirements?
    Answer. I believe the AFRICOM forces will remain resilient in their 
ability to meet new normal requirements and will be augmented as 
necessary should a crisis occur. If confirmed, I would work with 
colleagues in the Department to support those requirements.
                                colombia
    Question. Plan Colombia has enabled the Colombian Government to 
make significant gains against the FARC (Revolutionary Armed Forces of 
Colombia) and other paramilitary forces in Colombia, as well as enabled 
the government to secure many previously ungoverned areas. Since fiscal 
year 2000, the United States has provided more than $7 billion to 
support Colombia's efforts to counter the threat of transnational 
criminal organizations and various terrorist groups.
    What are your views regarding the current situation in Colombia 
focusing upon: (1) the current military and political situation in 
Colombia; (2) the ability of the Colombian military to control its 
territory; and (3) ongoing DOD programs?
    Answer. I believe the Government of Colombia has made substantial 
gains in recent years to enhance its internal stability and citizen 
security. Although stability in Colombia is not assured, Colombia has 
made progress in asserting more effective governmental control over its 
territory through a national consolidation campaign.
    The Department's security assistance programs are focused on 
training, equipping, and mentoring Colombians; helping Colombia with 
defense institutional reform; and providing support to Intelligence, 
Surveillance, and Reconnaissance programs. Colombia has also been an 
increasingly capable and willing partner in addressing shared security 
challenges and has contributed to efforts to improve stability more 
broadly in the Western Hemisphere, in particular by partnering with us 
in Central America.
    Question. In your view, is the Colombian Government capable of 
sustaining the last decade's gains during this economic downturn and 
the scheduled decline in U.S. security assistance?
    Answer. Yes. The Department has worked closely with Colombia to 
institutionalize the strategic, operational and technical capabilities 
that it has developed over the past decade, including through defense 
institutional reforms. Recognizing that continued U.S. assistance and 
support, such as Intelligence, Surveillance, and Reconnaissance, will 
be critical to Colombia's continued success, the Department is working 
closely with Colombia to streamline our security cooperation programs 
in light of declining resources. If confirmed, I would continue working 
with our Colombian partners to help them consolidate and sustain their 
security gains while also addressing their emerging needs.
    Question. In light of budget conditions, do you believe continued 
U.S. security assistance to Colombia at the current levels is 
sustainable?
    Answer. The Department has made difficult decisions about where to 
focus resources given the fiscal environment, and has also identified 
areas where continued U.S. support will remain critical for helping 
Colombia consolidate its security gains. Because of the significant 
progress that Colombia has made in improving its internal stability, 
security assistance to Colombia has been gradually reduced. Even as 
fewer resources are available for Colombia, if confirmed, I would work 
with my colleagues to assist this strategic partner as it moves toward 
improved stability and a greater role in exporting security within the 
region and globally.
    Question. In your view, what are the remaining U.S. supported 
programs that will need to be continued to ``lock in'' the progress 
that has been made?
    Answer. Consolidating Colombia's security gains will require 
continued U.S. support to programs that strengthen Colombia's defense 
institutions. Such programs help provide Colombia the capacity to plan, 
resource, and maintain its enhanced abilities. As the FARC persists in 
conducting attacks on infrastructure and other targets, it will be 
important for the United States to continue to provide support to 
programs that help the Colombian Government maintain the technical and 
tactical edge that will guarantee stability over the long term.
                       central america and mexico
    Question. While the unaccompanied children crisis is not in the 
ASD(ISA)'s portfolio, the root causes that drive many of these 
individuals to seek sanctuary in the United States are within the 
purview of ASD(ISA).
    What are the root causes of insecurity in the region?
    Answer. I believe insecurity stems from a wide range of persistent 
challenges in some countries in Latin America. Difficult economic 
conditions, widespread poverty and inequality, weak and sometimes 
corrupt government institutions, under-governed spaces, lack of 
sufficient infrastructure, and widespread crime and violence are only 
some of the significant and often overwhelming factors that contribute 
to insecurity in this region.
    Question. In your view, what role, if any, does DOD have in 
addressing the root causes?
    Answer. DOD has a significant role to play in supporting broader 
U.S. efforts to strengthen government institutions and fight 
corruption, develop infrastructure, address control of under-governed 
spaces and help diminish criminal organizations and violence. Often in 
a supporting role, the Department provides unique capabilities and 
expertise to other lead U.S. agencies, and encourages more capable 
partners in the region to join in efforts to improve security 
conditions in the hemisphere.
    Question. What is your assessment of the threats posed by 
transnational criminal organizations in this region?
    Answer. Transnational criminal organizations present a serious 
threat to the stability of the region, and many of our partners have 
become unable to control their growth and influence. Taking advantage 
of weak government institutions, endemic corruption, large under-
governed spaces, and lack of viable economic opportunities for many 
Latin American citizens, criminal organizations have become entrenched 
in places like the Northern Triangle of Central America, further 
weakening already strained governments and citizenry. Dealing in the 
flow of illegal drugs, human smuggling and trafficking, counterfeiting, 
weapons, and other contraband smuggling across U.S. borders, these 
organizations also challenge the control of our southern borders and 
expose vulnerabilities to the southern approaches to the United States.
    Question. What is your understanding and assessment of DOD's 
ongoing current activities in Mexico and Central America?
    Answer. DOD is helping Mexico and the countries of Central America 
improve their capacity to maintain security and advance hemispheric 
defense coordination, and if confirmed, I would continue to pursue 
those efforts. The Department's security assistance and security 
cooperation activities in the region are focused on 
professionalization, including respect for human rights, and capacity 
building of regional security forces. The Department is also working 
with partners in Central America to facilitate internal defense 
institutional reform efforts that will help those governments plan, 
resource, and maintain their enhanced capabilities.
                                  cuba
    Question. What is your view of the need to review and, potentially, 
revise U.S. policies regarding Cuba?
    Answer. I support the President's current policy with regard to 
Cuba, which includes targeted bilateral engagements that advance U.S. 
national interests and the enactment of measures that help reduce the 
dependence of Cuban citizens on the state. I support periodic review of 
the United States' Cuba policy and DOD's full participation in these 
interagency reviews.
    Question. What is your opinion about the need for, and the pros and 
cons of, military-to-military contact with Cuba?
    Answer. U.S. law and policy restrict official engagement with the 
Cuban Government, including the Cuban military. DOD currently conducts 
an annual disaster-relief exercise with the Cuban military at 
Guantanamo Bay, as well as limited military-to-military engagement with 
Cuba, including monthly fence-line talks at the Guantanamo Naval Base, 
which focus on avoiding misunderstandings across the fence line.
    Question. In your view, is Cuba currently supporting or sponsoring 
international terrorism?
    Answer. Cuba is one of the countries designated by the Secretary of 
State as a State Sponsor of Terrorism. This list is reviewed on a 
recurring basis.
                       building partner capacity
    Question. In the past few years, DOD has requested and Congress has 
provided a number of authorities to build the capacity of partner 
nations. These include the ``section 1206'' global train and equip 
authority, targeted authorities to build capacity in Yemen and East 
Africa, and the Global Security Contingency Fund.
    In your view, what are the strategic objectives and priorities for 
DOD's programs for building the capacity of partner nations?
    Answer. The defense strategy articulated in the 2014 QDR emphasizes 
three pillars, including building security globally, as this type of 
global engagement is fundamental to U.S. leadership and influence. As 
the Department's budget declines, security cooperation efforts take on 
greater importance as a means to mitigate risk. In this regard, 
building the capacity of partners can ease the burden on U.S. forces by 
enabling them to act alongside of, in lieu of, or in support of U.S. 
forces across the globe, as well as to build national and regional 
security architectures that can prevent potential contingencies from 
emerging.
    Over the last decade, the Department's capacity-building efforts, 
enabled by the authorities cited above, have largely focused on 
counterterrorism and counter-insurgency efforts. However, with reduced 
force structure and resources, the Department also will need to build 
capacity in other areas that could offset risk to U.S. forces, such as 
logistics and maritime security.
    Question. What improvements, if any, would you recommend, if 
confirmed, to the strategic direction, oversight, and management of 
DOD's programs for building partner capacity to ensure that these 
programs are executed consistent with U.S. national security goals and 
objectives?
    Answer. Recognizing the need to align the Department's security 
cooperation resources and activities the defense strategy, in 2014 the 
Department established the office of the Deputy Assistant Secretary of 
Defense for Security Cooperation within the Office of the Under 
Secretary of Defense for Policy. I support this effort and believe the 
office will help prioritize competing requirements among and between 
partner countries, within and across combatant commands. I also expect 
the office to work closely with counterparts within the State 
Department to support implementation of Presidential Policy Directive 
23 on Security Sector Assistance, which calls for whole-of-government 
approaches to security sector assistance in support of U.S. national 
security goals and objectives.
    If confirmed, I would work closely with the Under Secretary of 
Defense for Policy to support further improvements to the security 
cooperation governance system. This includes seeking to complement 
tactical- and operational-level building partner capacity (BPC) efforts 
with initiatives to support partners' institutional needs.
    Question. What is your assessment of the implementation and 
effectiveness of DOD's programs for building partner capacity in 
achieving U.S. national security goals and objectives?
    Answer. Overall, DOD's BPC programs have contributed to the 
achievement of U.S. national security goals and objectives, 
particularly with regard to counterterrorism, and regular program 
assessments have helped contribute to that success. If confirmed, I 
would work closely with security cooperation stakeholders to ensure 
that the Department continues to build on this and other assessment, 
monitoring, and evaluation efforts to ensure outcomes consistent with 
policy objectives.
    Moreover, although individual BPC programs have demonstrated 
success, there is an opportunity to magnify their impact by linking 
together security cooperation programs in ways that are mutually 
reinforcing, so that activities at the tactical, operational, and 
institutional levels are woven together to create enduring, sustainable 
partner nation capabilities.
    Question. In your view, what should be the role of DOD, vis-a-vis 
the State Department and other civilian departments and agencies, in 
efforts to build the capacity of foreign security forces?
    Answer. I believe each U.S. Government agency offers unique skills, 
subject-matter expertise, and experience to contribute to the planning, 
execution, and evaluation of efforts to build the capacity of foreign 
security forces. Simply put, whole-of-government approaches can bring 
about outcomes that are larger than the sum of their parts.
    In my view, DOD should play a supporting role to other departments 
and agencies, such as State, Justice, and USAID, in areas such as 
fostering political reconciliation, building accountable institutions 
of government, and restoring public infrastructure, so that DOD can 
focus its efforts on providing a safe and secure environment, while 
also assisting interagency partners in the building of accountable 
Armed Forces. As DOD continues to develop its approaches to building 
capacity at the ministerial and institutional levels, it should operate 
collaboratively and transparently with interagency partners to ensure 
that security sector reform efforts are mutually reinforcing.
                       ballistic missile defense
    Question. In February 2010, the Defense Department issued its 
report on the first-ever comprehensive review of U.S. ballistic missile 
defense policy and strategy, the Ballistic Missile Defense Review 
(BMDR), as required by Congress.
    Do you support the policies, strategies, and priorities set forth 
in the BMDR?
    Answer. Yes.
    Question. Do you agree that any ballistic missile defense systems 
that we deploy operationally must be operationally effective, suitable, 
survivable, cost-effective, affordable, and should address a credible 
threat?
    Answer. Yes, I agree.
    Question. Do you agree that ballistic missile defense testing needs 
to be operationally realistic, and should include Operational Test and 
Evaluation, in order to assess operational capabilities and limitations 
of ballistic missile defense systems, prior to deploying such systems?
    Answer. Yes.
    Question. Iran and North Korea each has hundreds of short- and 
medium-range ballistic missiles today that are capable of reaching 
forward-deployed U.S. forces, allies, and partner nations in the EUCOM, 
CENTCOM, and PACOM AORs. The Ballistic Missile Defense Review Report of 
February 2010 stated that the United States intends to pursue 
regionally tailored phased adaptive approaches to ballistic missile 
defense against such missile threats in various regions.
    Do you believe that such regionally tailored phased adaptive 
approaches are appropriate to provide our regional combatant commanders 
with the missile defense capabilities needed to defend our forward 
deployed forces and our allies and partners in their areas of 
responsibility?
    Answer. Yes. Iran's ballistic missile arsenal presents a 
significant threat to our forward-deployed forces, allies, and partners 
in the Middle East and Europe. Our current policy calls for development 
of ballistic missile defenses in these regions that are tailored to 
their unique deterrence and defense requirements, giving specific 
consideration to their geography, the character of the ballistic 
missile threat, and the military-to-military relationships on which we 
are able to build cooperative missile defenses. I believe this approach 
affords us the best option for developing regional ballistic missile 
defense architectures in the Middle East and Europe that meet the needs 
of the responsible combatant commanders.
    Question. In addition to U.S. missile defense capabilities in these 
AORs, what role do you see for other nations to contribute to regional 
missile defense capabilities?
    Answer. The United States maintains longstanding security 
cooperation relationships with allies and partners in Europe and the 
Middle East. The current U.S. ballistic missile defense policy seeks to 
leverage such relationships to build and expand cooperative missile 
defense partnerships that lead to appropriate levels of burden sharing 
for defense of common interests. In Europe, we are actively working 
toward deployment of the U.S. contribution to NATO ballistic missile 
defense and continuing to work with our allies and partners in the 
region to build their ballistic missile defense capacity for their own 
defense, and in support of the NATO architecture. In the Middle East, 
we are continuing to grow and strengthen our bilateral ballistic 
missile defense efforts with our partners in the region while also, in 
the case of the Gulf Cooperation Council states, promoting increased 
levels of multilateral ballistic missile defense cooperation. Given the 
significant Iranian ballistic missile threat, I believe strong 
partnerships are the critical foundation upon which we will build 
effective deterrence and defense architectures for Europe and the 
Middle East. If confirmed, I would continue to promote strong bilateral 
and multilateral ballistic missile defense cooperation in these key 
regions of U.S. interest.
                          combating terrorism
    Question. What is your assessment of the threat posed by al Qaeda, 
Islamic State of Iraq and Syria, and likeminded organizations in the 
geographical area of responsibility for ASD ISA to the United States, 
our allies, and our interests?
    Answer. Violent extremists that operate across the geographic area 
of responsibility of the ASD(ISA) continue to pose a significant threat 
to the U.S. Homeland, to U.S. interests, and to U.S. allies and 
partners. Al qaeda, the Islamic State of Iraq and the Levant (ISIL), 
and other likeminded organizations pose a continuing, imminent threat 
to U.S. persons, facilities, partners, and allies. Extremist networks 
are exploiting political unrest and local grievances in parts of the 
Levant, North Africa and East Africa and using modern communications 
methods and social media to spread their ideology and plan operations. 
DPD conducts a range of operations to counter these threats, including 
direct and indirect action, cooperative efforts with allies and 
partners, and activities to help build the capacity of our key 
counterterrorism partners around the globe.
    Looking ahead, the large numbers of foreign fighters that have 
joined the ranks of ISIL and other extremist groups in Syria and Iraq 
will pose a long-term threat to the United States and our allies and 
partners. DOD is therefore working with the U.S. interagency and 
foreign partners to implement appropriate counterterrorism measures to 
address the threat from attacks inspired or directed by violent 
extremists abroad.
    Question. What is your understanding of and familiarity with DOD's 
ongoing effort to combat al Qaeda in the geographical area of 
responsibility for ASD ISA?
    Answer. I am familiar with DOD's ongoing efforts to combat al Qaeda 
in the geographic area of responsibility of the ASD(ISA). DOD is 
engaged in a campaign to address the threat of al Qaeda, its 
affiliates, and other extremists throughout the Middle East and Africa. 
The Department supports the U.S. Government's national strategy to 
counter terrorism through a variety of functions, including, but not 
limited to kinetic strikes, training foreign partners, capacity-
building efforts, counter-messaging, counter-threat finance, and 
intelligence collection.
    Question. What is your assessment of the threat posed by al Qaeda 
and its associated forces to the U.S. Homeland, U.S. interests 
overseas, and western interests more broadly?
    Answer. Although the core of al Qaeda in Afghanistan and Pakistan 
remains degraded, the network's affiliates--most notably al Qaeda in 
the Arab Peninsula (AQAP)--continue to seek to attack the United States 
and its interests abroad. Strikes against the U.S. Homeland, for 
instance, remain a common theme in al Qaeda's propaganda, stated 
aspirations, and planning. We take these threats seriously and, if 
confirmed, I would work to ensure the Department remains capable and 
ready to take appropriate action to counter them.
    Question. What do you believe is the terrorism threat from al Qaeda 
and affiliated groups in each of the Geographic Combatant Commands? Of 
these threats, what do you consider the highest counterterrorism 
priorities?
    Answer. I believe the highest counterterrorism priorities remain in 
the CENTCOM area of responsibility. Though degraded by years of 
counterterrorism pressure, core al Qaeda, its affiliates, and adherents 
in Afghanistan and Pakistan remain a persistent and serious threat.
    AQAP has proven its capability to initiate attacks against the 
United States, remains the most lethal of al Qaeda affiliates, and is 
among our highest counterterrorism priorities. The Department is 
working closely with Yemeni forces to capture or kill key AQAP 
leadership and operatives, and our programs to train, advise, and equip 
Yemeni forces are critical to long-term efforts against AQAP.
    In the Middle East and Levant, ISIL, al-Nusrah Front, and other 
extremist networks pose threats to U.S. interests and persons in the 
region. We also face a threat to the U.S. Homeland by a group of 
seasoned al Qaeda operatives who traveled to Syria and are known as the 
Khorasan Group. These groups, along with the thousands of foreign 
fighters they have attracted over the past few years, will remain a 
serious concern and top counterterrorism priority for the United States 
and our international partners. If confirmed, I would support improving 
coordination and information sharing on foreign extremist flows from 
Syria, and would continue working with Jordan, Lebanon, Turkey, and 
Israel to bolster regional stability.
    In the AFRICOM area of responsibility, our top counterterrorism 
priorities are al-Shabaab and al Qaeda in the Islamic Maghreb (AQIM). 
Somalia-based al-Shabaab poses a threat to U.S. and Western interests 
in the Horn of Africa. Several years of operations by the AMISOM, 
together with our counterterrorism operations, have weakened al-Shabaab 
and reduced its safe-havens in Somalia. Al-Shabaab remains, however, a 
threat because it has demonstrated a capability to stage complex, high-
profile attacks against Western targets outside of Somalia and 
continues to advance similar plots to harm U.S. citizens in the region.
    Algeria-based AQIM and its regional-based associates have 
flourished from instability in Libya and Mali; however, there is no 
current, credible evidence that AQIM is a direct threat to the U.S. 
Homeland.
    In the remaining geographic combatant commands, the threat from al 
Qaeda is less pronounced. If confirmed, I would continue working with 
the intelligence community, interagency colleagues, and foreign 
partners to disrupt and dismantle any emerging threats from al Qaeda in 
the areas of responsibility of the ASD(ISA).
    Question. What is your understanding of the Department's role in 
the U.S. strategy to combat terrorism?
    Answer. The U.S. Government is engaged in a multi-departmental, 
multi-national effort guided by the National Strategy for 
Counterterrorism. DOD supports this strategy principally by building 
the capacity of partner security forces, collecting intelligence, 
conducting information operations, and, when appropriate, conducting 
operations to capture or kill terrorists who pose a continuing, 
imminent threat to U.S. persons.
    Question. Are you aware of any nexus between non-state actors and 
criminal networks?
    Answer. Yes. There is a significant nexus between non-state actors 
and criminal networks worldwide. Non-state actors and criminal networks 
together pose threats to our national security interests and those of 
foreign allies and partners. For example, the FARC in Colombia have 
depended on criminal networks for years to conduct terrorist 
operations. Drug cartels in Mexico rely on global criminal networks to 
distribute their products and expand into new markets. Across Africa, 
illicit trafficking of wildlife and other natural resources facilitated 
by criminal networks provides funding for insurgents, violent extremist 
organizations, and terrorist organizations. Somalia-based pirate groups 
depend on transnational illicit networks to negotiate and secure 
ransoms to finance their operations. In Afghanistan, the Taliban 
continues to generate a significant percentage of its revenue through 
regional trade and taxation of illicit drugs, posing a direct threat to 
U.S. and coalition personnel and to our broader interests in the 
region.
    Question. Given your current knowledge of DOD's programs, do you 
believe resources are aligned in a manner consistent with these 
counterterrorism priorities?
    Answer. Yes. I believe the Department's counterterrorism resources 
are currently aligned and are consistent with the priorities outlined 
in the National Strategy for Counterterrorism. If confirmed, I would 
continue working with the Secretary, the Joint Staff, combatant 
commands, and interagency partners to ensure alignment of the 
Department's resources evolves with the nature--and geography--of the 
threat.
          use of military forces for civilian law enforcement
    Question. Throughout the Western Hemisphere, there is increased use 
of militaries to conduct policing and public security roles.
    Putting aside issues of corruption and capabilities, what is your 
assessment of this trend?
    Answer. Our Latin American partners, particularly in Central 
America, have been left with few other readily available options, 
considering the almost complete breakdown of police and justice 
systems, and are increasingly looking to their militaries as a way to 
address the immediate security challenges. DOD supports the broader 
U.S. Government efforts to strengthen police and justice systems in 
these countries so they need not rely on their militaries.
    Question. In your view, are these permanent shifts or temporary 
measures taken while the capabilities of police forces are improved?
    Answer. I think these are temporary measures. Militaries in some 
countries have been directed to provide breathing space for police 
forces so that they can address significant shortcomings in 
capabilities. Once the elected civilian leadership in these countries 
has determined the police forces are capable of providing local 
security, these militaries should return to more traditional military 
roles.
    Question. In your view, what are the benefits and risks of 
militaries taking on more public-security tasks?
    Answer. In times of security crises, militaries can help civil 
authorities restore order, provide government presence and credibility, 
and aid public security forces to develop the capabilities and trust 
needed to reassume their lead role in maintaining citizen security and 
public order. However, the longer militaries in some Latin America 
serve in this role, the more likely it is that civil authorities could 
begin to depend on military forces, instead of focusing efforts on 
improving police forces.
       national strategy to combat transnational organized crime
    Question. Transnational criminal organizations are having a 
debilitating impact on the ability of our foreign partners to govern 
their nations and provide opportunities for their people. DOD is by no 
means the U.S. Government's law enforcement agency, but it does bring 
unique enabling capabilities to our Nation's Federal law enforcement 
agencies.
    What is your understanding of the President's strategy to combat 
transnational criminal organizations?
    Answer. The President's 2011 Strategy to Combat Transnational 
Organized Crime recognizes that transnational organized crime (TOC) has 
expanded dramatically in size, scope, and influence over the past 20 
years, and now poses a significant and direct threat to national and 
international security. The strategy organizes a U.S. Government 
approach to counter TOC networks by enhancing information and 
intelligence sharing of the interagency; strengthening law enforcement 
interdiction capabilities, investigations, and prosecutions; disrupting 
drug trafficking networks; and building and improving the capacity and 
cooperation of our foreign partners. The primary objective is to lower 
TOC from a U.S. national security threat to a manageable public safety 
concern. If confirmed, I would work to support the President's strategy 
on this issue.
    Question. What role, if any, should the Department play in 
combatting transnational criminal organizations?
    Answer. The President's 2011 Strategy to Combat Transnational 
Organized Crime calls on the U.S. Government to build, balance, and 
integrate the tools of national power to combat transnational organized 
crime and related threats. DOD provides unique capabilities and 
expertise in support of law enforcement and foreign partners' broader 
efforts to include intelligence, counter-threat finance, training, and 
detection and monitoring. If confirmed, I would work with the 
Department's senior leadership to ensure that the Department is 
appropriately organized, resourced, and authorized to support U.S. 
efforts against transnational criminal organizations that threaten U.S. 
national security.
    Question. What role does ASD(ISA) play in combating transnational 
organized crime and in training and equipping partner security forces 
who have been tasked with combating it?
    Answer. The ASD(ISA) works closely with the Assistant Secretary of 
Defense for Special Operations and Low-Intensity Conflict and other 
elements of the Department with counter-drug and counter-transnational 
organized crime responsibilities. If confirmed, I would work to ensure 
that the Department's activities to combat transnational organized 
crime, such as training and equipping of partner nations' security 
forces, align with broader DOD and U.S. national security objectives.
                        illicit arms trafficking
    Question. What is your understanding of the problem of illicit arms 
trafficking and the role of the United States to deal with the problem?
    Answer. The arms market is complex and global. Existing regional 
and national arms export control systems do not provide complete, 
worldwide coverage. This creates gaps that are being exploited by 
illicit arms dealers. The United States can continue to assist 
countries by sharing best practices and intelligence to help close 
these gaps.
    Question. In your view, to what extent, if at all, does the lack of 
national controls and enforcement on arms flows contribute to the 
illicit trafficking problem, and could efforts to respond to illicit 
trafficking be improved if other countries adopted and enforced 
national regulations on arms import, export, and transit similar to 
those of the United States?
    Answer. Wherever illicit arms trafficking is widespread, the lack 
of effective national controls and secure borders contributes 
significantly to the illegal flow of arms. The adoption of national 
controls by affected countries, similar to those of the United States, 
would likely help to combat this problem. Our active participation in 
international export control regimes and other arms control fora are 
part of our strategy to help address the proliferation of arms and 
weapons technology.
    Question. Do you think the arms trade treaty would enhance U.S. 
national security interests?
    Answer. Yes. The arms trade treaty (ATT) that was negotiated in 
2013 will serve U.S. national security interests. The ATT establishes 
international obligations for State Parties related to the trade of 
arms, while reaffirming the right of self-defense and the legitimacy of 
arms transfers for security purposes, without undermining existing 
nonproliferation and export control regimes. These obligations 
undertaken by States Parties will help to regulate the global arms 
market and prevent weapons from reaching the hands of terrorists, 
insurgents and human rights abusers.
                  multilateral peacekeeping operations
    Question. What is your view on whether the United States should 
contribute additional military personnel to both staff positions and 
military observers in support of U.N. peacekeeping operations?
    Answer. If confirmed, I would support considering additional 
contributions of U.S. military personnel to staff officer positions. 
Support for international peacekeeping remains a security objective for 
the U.S. Government, and the United States has a stake in the success 
of U.N. peacekeeping operations. I believe that, where practicable, the 
United States should continue to provide military personnel for U.N. 
peacekeeping operations, especially for key staff positions that can 
help shape the direction and success of the mission. If confirmed, I 
would carefully evaluate any proposals to contribute military or 
civilian personnel to a U.N. peacekeeping operation, weighing the 
positive impact of U.S. participation in the mission against other 
military commitments we have around the globe, and the estimated cost 
of U.S. involvement.
    Question. What are the advantages and disadvantages of contributing 
additional military personnel to U.N. operations?
    Answer. There are several potential advantages to contributing 
additional military personnel to U.N. missions including providing the 
opportunity to shape these missions and contribute to their overall 
success; professional development opportunities for military personnel 
to serve in a combined, multi-lateral environment; and receiving real-
time information on emerging threats and crises from places where there 
might not otherwise be a U.S. presence. It also enables increased 
interaction between U.S. military personnel and numerous partner 
nations' military personnel, with whom we may not normally have the 
opportunity to serve.
    The potential disadvantage of providing additional military 
personnel is the additional demands these assignments would impose on a 
U.S. military force that has seen extensive deployments in recent 
years, and that is still heavily engaged in overseas operations. 
However, I believe the selective placement of modest numbers of U.S. 
military personnel in addition to the personnel currently assigned to 
U.N. operations can have a positive impact on U.N. peacekeeping 
operations.
                       mass atrocities prevention
    Question. President Obama identified the prevention of mass 
atrocities and genocide as a core U.S. national security interest, as 
well as a core moral interest, in August 2011 under Presidential Study 
Directive 10.
    What is DOD's role in addressing atrocity threats, and what tools 
does DOD have for preventing or responding to atrocities?
    Answer. DOD is a member of the Atrocities Prevention Board, which 
has strengthened the Department's efforts and provided additional tools 
to prevent and respond to atrocities. DOD plays an important role in 
early warning and providing support to prepare and enable international 
partners to prevent mass atrocities.
    DOD employs a range of atrocity prevention and response tools, from 
providing human rights training to partner security forces to supplying 
direct humanitarian assistance in active crises. If confirmed, I would 
continue to ensure that the Department contributes to U.S. efforts to 
prevent mass atrocities, particularly for those regions that will be 
within the International Security Affairs area of responsibility.
                     u.s. military basing in europe
    Question. DOD is currently undergoing a European Infrastructure 
Consolidation (EIC) effort. At the same time, the Department has 
requested additional funds for facilities in Europe, including almost 
$175 million in military construction in fiscal year 2015 in support of 
the European Reassurance Initiative (ERI).
    What is your understanding and assessment of the EIC and ERI 
initiatives and whether the goals of each can be accomplished in 
parallel?
    Answer. The EIC and the ERI are separate but complementary U.S. 
initiatives which can be accomplished in parallel. Both initiatives are 
about increasing U.S. military effectiveness in Europe--the EIC through 
the consolidation of U.S. infrastructure to make U.S. forces more 
efficient, and the ERI through investments to U.S. presence, readiness, 
and responsiveness in Central and Eastern Europe. The EIC will not 
reduce our military capabilities in Europe, but will shift their 
location within Europe to lower costs, eliminate excesses, and maximize 
utility. The ERI will build on these adjustments by adding even more 
capability, including through a persistent U.S. air, land, and sea 
presence.
    Question. If confirmed, how would you define and recommend the use 
of the key U.S. strategic interests for consideration in determining 
the U.S. military's force structure in Europe over the coming years?
    Answer. I believe force structure in Europe remains vital to U.S. 
security and that of our allies and partners, and U.S. forces and 
facilities in Europe are likely to continue to be involved in any 
significant military operation we would undertake in the Middle East or 
Africa. Furthermore, Europe is home to the United States' primary 
strategic partners and we will continue to rely on those partners and 
allies to share the burden of protecting common interests. In the 2014 
QDR, the Department reiterated its commitment to build security abroad 
and project power decisively to defeat aggression. European force 
structure--and the relationships and interoperability it enables--is 
critical to that mission, and if confirmed, I would work to uphold our 
commitment to European force structure.
    Question. The United States has supported operations in both Africa 
and the Middle East from our military bases in Europe
    What is your understanding and assessment of the potential impact, 
if any, on our ability to conduct operations in Africa and the Middle 
East if the United States were to lose access to or from bases in 
Europe?
    Answer. Our partners and allies facilitate U.S. forces' ability to 
counter security challenges to U.S. interests in Europe, the 
Mediterranean, North Africa, and the Middle East in a timely fashion. 
Base access in Southern Europe, for example, allows U.S. forces to 
conduct force protection missions, monitor and protect U.S. diplomatic 
posts, and evacuate U.S. diplomatic personnel and noncombatants in 
North and Central Africa. Losing access to this extensive network of 
facilities would harm our ability to protect U.S. assets and personnel 
in Europe and further afield.
    Our footprint in Europe also affords U.S. personnel with 
opportunities to maintain relationships and interoperability critical 
to countering global security threats. For example, U.S. facilities in 
Germany, Italy, and Spain enable U.S. and European militaries to plan, 
train, exercise, and operate together effectively--activities vital to 
forming effective coalitions as we look for ways to cooperate through 
austere times. Coalition efforts like Operation Unified Protector in 
Libya, ISAF in Afghanistan, and Operation United Assistance in West 
Africa depend heavily on access to bases in Europe.
                          contingency planning
    Question. One of the purposes of Goldwater-Nichols was to increase 
military and civilian attention on the formulation of strategy and 
contingency planning. The ASD(ISA) supports the Under Secretary of 
Defense for Policy who is required to assist the Secretary of Defense 
in preparing written policy guidance for the preparation and review of 
contingency plans and in reviewing such plans.
    What is your view of the civilian role, as compared to the military 
role, in the formulation of strategy and contingency planning?
    Answer. If confirmed as the ASD(ISA), I would view my role as 
providing the strategic context to complement the operational expertise 
that our combatant commanders apply. Specifically, I believe civilian 
leadership provides critical depth and expertise on regional dynamics, 
bilateral relationships and priorities, and U.S. regional policies, 
which help us shape the application of our military power.
    Question. In your opinion, does the civilian leadership currently 
have an appropriate level of oversight of strategy formulation and 
contingency planning?
    Answer. Yes. I believe that the current level of civilian oversight 
of strategy formulation and contingency planning is appropriate.
    Question. What is your understanding and assessment of the 
capability and capacity of the Office of the Secretary of Defense and 
Joint Staff to provide comprehensive, objective and realistic joint 
analysis in support of formulating and evaluating strategy and 
operational plans and related force planning?
    Answer. I believe the Department maintains a satisfactory level of 
analytic capacity to support strategy and operational plan development. 
My understanding is that the Office of the Secretary of Defense and the 
Joint Staff, working closely with the Services and Combatant Commands, 
have many analytic efforts and venues that support the Department's 
strategy development and planning oversight. I have benefitted from 
such analysis in my present role.
    Question. What steps do you believe are necessary to ensure 
effective civilian control and oversight of strategy, contingency, and 
force planning?
    Answer. The Department's civilian leadership is responsible for 
leading the development of a range of DOD planning efforts, with the 
support of military leaders. Civilian leaders must engage with military 
colleagues to understand military concepts and evaluate the validity of 
assumptions, particularly as they relate to political constraints, 
resource allocation, and strategic priorities. Civilian leaders should 
also ensure guidance continues to evolve as strategic and operational 
environments and objectives shift over time. Among my most important 
responsibilities, should I be confirmed, would be to ensure 
International Security Affairs informs force planning in a way that 
helps to define the future security environment and to support the 
President's policies.
    Question. Many Geographic Combatant Commands' contingency and 
operation plans are undergoing DOD review. These reviews are justified 
for a variety of reasons including geo-strategic change, risk 
assessments, potential adversary and our own capability enhancements, 
and fiscal realities.
    If confirmed, how would you determine whether the alterations to a 
contingency or operation plan are warranted due to geo-strategic 
change, risk assessments, potential adversary and our own capability 
enhancements, and fiscal realities?
    Answer. If confirmed, I would rely on support from the Intelligence 
Community and the regional and policy expertise resident in 
International Security Affairs to guide and evaluate the combatant 
commands' planning efforts. Plans should provide viable options to the 
Secretary and the President that reflect realistic resource 
assumptions, account for an evolving security environment, and reflect 
decisions and actions that are viable by bringing together senior 
experts to evaluate and refine plans.
                           strategic reviews
    Question. What is your understanding and evaluation of DOD's 
processes for strategic assessment, analysis, decisionmaking, and 
reporting for each of the following strategic reviews?

          The QDR (section 118 of title 10, U.S.C.);
          The National Military Strategy (section 153 of title 10, 
        U.S.C.);
          Global Defense Posture Review (section 2687a of title 10, 
        U.S.C.);
          The Quadrennial Roles and Missions Review (section 118b of 
        title 10, U.S.C.).
          The Unified Command Plan (section 161 of title 10, U.S.C.).

    Answer. These strategic review documents and associated review 
processes offer opportunities for meaningful engagement with Members of 
Congress on the Department's strategic priorities, in addition to 
providing essential guidance to the defense enterprise. These reviews 
allow the Department to set priorities across the Services, combatant 
commands, and defense components, in the context of ever-shifting 
security and fiscal realities. They also communicate the Department's 
objectives to external audiences, including the U.S. public and our 
international partners.
    The QDR articulates the Nation's defense strategy in support of the 
national security strategy. According to 10 U.S.C. section 118, the 
Department must conduct a comprehensive examination of the national 
defense strategy, force structure, infrastructure, budget, and other 
elements with the end of articulating the United States' defense 
strategy over the next 20 years. This strategy serves as a guide for 
U.S. military force structure, plans, and programs and is essential in 
enabling the Department to meet the current and future security 
challenges our Nation faces.
    As directed in 10 U.S.C Section 153, the Chairman of the Joint 
Chiefs of Staff prepares the National Military Strategy, which focuses 
on the U.S. military's strategic priorities. The National Military 
Strategy articulates the ``ends, ways and means'' in achieving the 
objectives outlined in the National Security Strategy and other 
strategic guidance documents, such as the QDR, as well as describing 
the strategic and operational risks associated with accomplishing the 
military's strategy.
    The Global Defense Posture review is an annual report to Congress 
that is the product of a continuous review process to determine the 
best mix of continental U.S.- and overseas-based forces. The report is 
authored by the Under Secretary of Defense for Policy and the Chairman. 
The review also supports senior leaders in the Department to make 
resource decisions based on the Department's operational needs.
    The Quadrennial Roles and Missions Review, a report required under 
section 161 of title 10, U.S.C., requires the Department to complete a 
comprehensive assessment of the roles and missions of the Armed Forces 
and the core competencies and capabilities of the Department to perform 
and support such roles and missions.
    Question. If confirmed, what recommendations would you make, if 
any, to change title 10, U.S.C., that would update, improve, or make 
these reviews more useful to the Department and to Congress?
    Answer. These reviews provide opportunities to assess and alter, as 
necessary, the Nation's defense strategy, required capabilities, and 
force structure for the Nation's security interests, future security 
environment, and available resources. If confirmed, I look forward to 
working with the Assistant Secretary of Defense for Strategy, Plans, 
and Capabilities (ASD SPC) to ensure that these reviews serve the needs 
of both the Department's senior leaders and the U.S. Congress.
    Question. If confirmed, what recommendations would you make, if 
any, to improve DOD's processes for strategic assessment, analysis, 
policy formulation, and decisionmaking relative to each review above?
    Answer. I believe that successful strategic reviews include senior 
leader guidance and involvement, collaboration across the Department, 
and transparent deliberations.
    Strategic reviews require a robust analytical effort to provide a 
common understanding of future challenges and a common starting point 
for evaluating the proficiency and sufficiency of different force 
structures. If confirmed, I would work with ASD SPC to recommend that 
insights from previous reviews, along the lines of those described 
above, be applied to future Department reviews.
    Question. According to the report of the bipartisan NDP, ``the 
capabilities and capacities rightly called for in the 2014 QDR . . . 
clearly exceed the budget resources made available to the Department.''
    Do you concur with this assessment? Do you believe it will be 
necessary to repeal sequestration in order to make available sufficient 
resources to execute the QDR strategy?
    Answer. I concur with the NDP's concern that current and likely 
budget constraints are ``dangerous and self-defeating,'' and 
significantly impact the Department's ability to do long-term force 
planning. I also concur with the NDP's advocacy for the Department's 
requested compensation reforms, which provide needed flexibility. A 
return of the sequester mechanism would break our defense strategy by 
denying DOD the budget level to prioritize its expenditure. This means 
that, as Deputy Secretary Work has said, not only would there be a risk 
to certain missions, but also other missions would be executed on 
longer timelines and with a greater risk to the force.
    Question. According to the report of the bipartisan NDP, ``national 
defense needs should drive national defense budgets, not the 
opposite.''
    What aspects of a strategy would indicate that a strategy is 
budget-driven versus budget-informed?
    Answer. A budget-driven strategy defines ends, ways, and means 
based on available resources, and contains little to no risk because, 
by definition, the strategy is designed to do only what can be done 
with available resources. A budget-informed strategy considers national 
interests and objectives, assesses how to achieve those objectives 
given the strategic environment, and develops specific ways and means 
to try to meet desired ends, informed by the likely available resource 
levels. A successful strategy should be budget-informed to have 
relevance; a defense strategy is effective only if it is executable.
    Question. According to the force sizing construct in the 2014 QDR, 
American forces should be able to ``defeat a regional adversary in a 
large-scale multi-phased campaign, and deny the objectives of--or 
impose unacceptable costs on--another aggressor in another region.''
    The portfolio of the ASD(ISA) includes some of the most turbulent 
regions of the world. In the context of the recent and dramatic 
deterioration of the security environment in both the Middle East and 
Russia, as well as continuing instability in Asia, should the force 
sizing construct also mandate that American forces be able to defeat 
two adversaries at the same time, a standard embraced by previous QDRs?
    Answer. U.S. forces will continue to be able to prevail in more 
than one conflict at a time. The 2014 QDR envisioned an uncertain and 
complex security environment. Therefore, it directed the Department to 
size and shape the Joint Force to respond to a wide range of 
challenges. The current force-sizing construct allows us to plan and 
deliver agile, technologically advanced forces of sufficient size to 
defend our Nation and secure our interests globally while preventing 
America's adversaries from achieving their objectives.
    Question. The law requires the QDR to identify the budget plan that 
would be required to provide sufficient resources to execute 
successfully the full range of missions called for in that national 
defense strategy at a low-to-moderate level of risk, and any additional 
resources (beyond those programmed in the current Future Years Defense 
Program) required to achieve such a level of risk. The law also 
requires the QDR to make recommendations that are not constrained to 
comply with and are fully independent of the budget submitted to 
Congress by the President.
    What is your understanding and assessment of the Department's QDR 
analysis and decisionmaking processes to address these two 
requirements?
    Answer. The Department's QDR process is both strategy-driven and 
resource-informed. It determines the best mix of capabilities and 
investment portfolios for the Department to pursue. The Department 
accounts for both the fiscal climate and the strategic environment, and 
then makes difficult choices--and the QDR provides the strategic 
direction required to do so. This year, the QDR provided a specific 
assessment of what a return to sequester levels could mean for the 
risks associated with the execution of the Department's mission.
    Question. In your view, is there analytical and/or practical value 
in a defense strategy that is unconstrained by or independent of the 
current or projected budget requests or fiscal environment?
    Answer. An effective defense strategy should take a comprehensive 
view of the future security environment and ensure the Department 
appropriately prioritizes its efforts and addresses trade-offs in the 
needed capabilities, activities, and posture of the future force. If a 
Defense strategy were characterized by the application of fiscal 
constraints up front, its focus would be on establishing trade-offs 
within the force to meet budget targets, rather than on options for 
best achieving U.S. objectives.
         western hemisphere institute for security cooperation
    Question. Western Hemisphere Institute for Security Cooperation 
(WHINSEC), which replaced the School of the Americas in 2001, has the 
mission of contributing to theater cooperation activities and capacity 
building efforts through the education and training of students in the 
Western Hemisphere from Canada to Chile.
    What is your view of WHINSEC and its mandate?
    Answer. The WHINSEC plays an important role as an educational 
institution focused on promoting democracy and human rights in the 
Western Hemisphere--and by providing professional education and 
training for military, civilian, and law enforcement personnel from 
countries throughout the Hemisphere. WHINSEC's mandate is to foster 
mutual understanding, transparency, confidence, and cooperation among 
participating nations, and to promote democratic values, respect for 
human rights, and knowledge and understanding of U.S. customs and 
traditions.
    Question. In your view, does WHINSEC promote the national security 
interests of the United States in the Western Hemisphere?
    Answer. Yes. WHINSEC promotes U.S. national security interests and 
supports strategic objectives of building lasting partnerships that 
will ensure security, enhance stability, promote respect for human 
rights, and enable prosperity throughout the Americas.
                          global force posture
    Question. As the Defense Department continues its assessment of 
projected budget cuts on its end strength, force structure, and other 
programs, it must also consider the costs, benefits, and risks 
associated with the permanent stationing of military forces in 
countries around the world. Based on a series of reports by the 
Government Accountability Office, evidence indicates that the 
Department is challenged in its ability to comprehensively and reliably 
estimate the cost of our global defense posture.
    What is your understanding and assessment of the cost and benefits 
of the U.S. global defense posture and the stationing of U.S. military 
forces overseas?
    Answer. I believe U.S. global posture is the most visible 
illustration of U.S. national security interests. It provides our 
allies and adversaries a measure of American resolve, while deterring 
aggression from our adversaries.
    In evaluations of U.S. global posture, the Department considers 
bilateral relationships, operational imperative, force management 
impact, and fiscal costs. When we choose to station forces home, we 
have to consider basing and facilities cost alongside the rotational 
costs incurred when those units have to deploy abroad. On the other 
hand, stationing forces overseas embeds additional costs in basing, 
personnel (through allowances such as Cost of Living Allowance and 
Overseas Housing Allowance), and facilities accounts.
    As the Department seeks a balance between the forces kept at home 
and those stationed abroad, DOD pays close attention to operational 
demands and regional conditions. If confirmed, I would continue to push 
for innovative methodologies that leverage America's strengths and 
advantages.
    Question. In light of the force structure reductions associated 
with the Department's planned end strength cuts, and potentially even 
deeper future end strength cuts, if confirmed, how would you propose to 
allocate those reductions between forces based within the United States 
and forces stationed outside the United States?
    Answer. Decisions affecting U.S. forces at home or abroad are 
considered through the lens I outlined above. Each decision is unique, 
but the Department uses a rigorous process that seeks to reassure our 
allies and partners while deterring our adversaries. If confirmed, I 
would work with my counterparts to determine the best options for 
military posture given the fiscal environment.
    Question. What is your understanding and assessment of the DOD 
methodology and assumptions used to evaluate the relative cost of 
overseas posture compared to stationing forces in the United States?
    Answer. If confirmed, I would work with the ASD SPC to ensure that 
the Department considers posture impacts on the achievement of 
strategic objectives, secures the most advantageous cost-sharing 
arrangements with partners, and ensures that cost considerations are 
appropriately analyzed and considered before resources are expended. 
Finally, I am committed to building the capacity of partners globally, 
which will allow U.S. overseas forces to focus on our core interests.
    Question. If confirmed, what actions would you take or changes 
would you recommend, if any, to DOD's methodology and assumptions in 
determining the cost of overseas force posture compared to forces 
stationed in the United States?
    Answer. If confirmed, I would work with the ASD SPC to ensure that 
U.S. forward-stationed posture is sized to meet operational 
requirements and leverages innovative presence paradigms. I would also 
expect to play a significant role in ensuring that bilateral 
arrangements that support U.S. posture are as cost-effective as 
possible.
                       detainee treatment policy
    Question. Do you support the provisions of section 1403 of the 
National Defense Authorization Act for Fiscal Year 2006 which state 
that no individual in the custody or under the physical control of the 
U.S. Government, regardless of nationality or physical location, shall 
be subject to cruel, inhuman, or degrading treatment or punishment?
    Answer. Yes. The prohibition on cruel, inhuman or degrading 
treatment or punishment reflects American values and is in our 
country's best strategic interest. In the 21st century, the strength 
and appeal of our ideas and moral principles will be as important as 
our military might to America's leadership in the world. We must hold 
to those ideas that make this country great, and continue to inspire 
the growth of freedom and tolerance around the world, if we are to 
defeat violent extremism.
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. If confirmed, will you take steps to ensure that all 
relevant DOD directives, regulations, policies, practices, and 
procedures fully comply with the requirements of section 1403 and with 
Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASD ISA?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kelly Ayotte
                      lethal assistance to ukraine
    1. Senator Ayotte. Ms. Slotkin, would you agree that the Defense 
Security Cooperation Agency (DSCA) should be conducting contingency 
planning to provide lethal assistance to Ukraine in order to minimize 
the time between a potential policy decision and the delivery of lethal 
assistance to Ukraine?
    Ms. Slotkin. If confirmed, I commit to work with DSCA to ensure 
that it is prepared to provide information, equipment, and/or 
transportation for any items approved for provision to the Government 
of Ukraine. In order to provide that information, equipment, and/or 
transportation as quickly as possible once approved, I would work with 
DSCA to conduct as much research as possible on the pricing and 
availability of all requested items in order to minimize the time 
between policy decision and delivery of assistance to Ukraine.

    2. Senator Ayotte. Ms. Slotkin, is DSCA developing a contingency 
plan to provide arms to Ukraine? If not, will you recommend or direct 
the DSCA to do so, if you are confirmed?
    Ms. Slotkin. No. The Defense Security Cooperation Agency (DSCA) 
does not maintain contingency plans--instead, DSCA provides pricing and 
availability information on equipment, as Ukrainian requests come in. 
When policy decisions are made to provide either lethal or nonlethal 
security assistance, DSCA works to provide these items as expeditiously 
as possible. If confirmed, I commit to continue to work closely with 
DSCA to provide security assistance to the Government of Ukraine. I 
also commit to work with DSCA to conduct as much research as possible 
on pricing and availability on all requested items in order to minimize 
the time between policy decision and delivery of assistance to Ukraine.
                                 ______
                                 
    [The nomination reference of Ms. Elissa Slotkin follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 November 13, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Elissa Slotkin, of the District of Columbia, to be an Assistant 
Secretary of Defense, vice Derek H. Chollet.
                                 ______
                                 
    [The biographical sketch of Ms. Elissa Slotkin, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Ms. Elissa Slotkin
Education:
    Columbia University

        <bullet> 2001-2003
        <bullet> Master's Degree in International Affairs

    Cornell University

        <bullet> 1994-1998
        <bullet> Bachelor of Science, degree in Rural Sociology
Employment Record:
    Office of the Secretary of Defense, Department of Defense

        <bullet> Principal Deputy Assistant Secretary of Defense for 
        International Security Affairs
        <bullet> August 2014 to present

    Office of the Secretary of Defense, Department of Defense

        <bullet> Performing the Duties of the Principal Deputy Under 
        Secretary of Defense for Policy
        <bullet> July 2013 to August 2014

    Office of the Secretary of Defense, Department of Defense

        <bullet> Principal Deputy Assistant Secretary of Defense for 
        International Security Affairs
        <bullet> November 2012 to July 2013

    Office of the Secretary of Defense, Department of Defense

        <bullet> Chief of Staff, Office of the Assistant Secretary of 
        Defense for International Security Affairs
        <bullet> February 2012 to November 2012

    Office of the Secretary of Defense, Department of Defense

        <bullet> Senior Advisor for Middle East Transition
        <bullet> June 2011 to February 2012

    From September 2003 to June 2011, I was an employee at the Central 
Intelligence Agency--but did frequent rotations around the U.S. 
Government:

    Department of State

        <bullet> Senior Advisor on Iraq
        <bullet> July 2009 to May 2011

    National Security Council

        <bullet> Director for Iraq
        <bullet> August 2007 to July 2009

    Central Intelligence Agency

        <bullet> Team Leader
        <bullet> September 2006 to August 2007

    Central Intelligence Agency

        <bullet> Team Lead for Special Field Assessment Team
        <bullet> May to September 2006

    Office of the Director of National Intelligence

        <bullet> Special Assistant to the Director of National 
        Intelligence
        <bullet> March 2005 to May 2006

    Central Intelligence Agency

        <bullet> Intelligence Briefer to Senior U.S. Officials
        <bullet> June 2004 to March 2005

    From September 2003 to June 2011, I was an employee at the Central 
Intelligence Agency--but did frequent rotations around the U.S. 
Government:
Honors and awards:
    Military Secretary of Defense Medal for Outstanding Public Service, 
July 2014
    Cranbrook Kingswood Distinguished Alumni of the Year, June 2014
    Recognition Certificate for 10 years of Federal service, July 2013
    Nine Central Intelligence Agency (CIA) Exemplary Performance 
Awards, March 2004 to August 2009
    CIA Meritorious Unit Award, May 2006
    War Zone Service Award: April 2005, September 2006, September 2008
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Ms. Elissa 
Slotkin in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Elissa blair Slotkin.

    2. Position to which nominated:
    Assistant Secretary of Defense for International Security Affairs.

    3. Date of nomination:
    November 13, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 10, 1976; New York, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to David Russell Moore.

    7. Names and ages of children:
    Two step-children:

          Christine Ann Moore, 24 years old
          Jennifer Clarice Moore, 21 years old

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Columbia University, 2001-2003, Master's Degree in International 
Affairs, May 2003
    American University of Cairo, Summer 2001, Intensive Arabic 
Language Certificate (non-degree program)
    Cornell University, 1994-1998, Bachelor of Science, degree in Rural 
Sociology, May 1998
    Cranbrook Kingswood High School, 1990-1994, High School diploma, 
June 1994

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Principal Deputy Assistant Secretary of Defense for International 
Security Affairs, August 2014 to present, Office of the Secretary of 
Defense, Department of Defense, Washington, DC
    Performing the Duties of the Principal Deputy Under Secretary of 
Defense for Policy, July 2013 to August 2014, Office of the Secretary 
of Defense, Department of Defense, Washington, DC
    Principal Deputy Assistant Secretary of Defense for International 
Security Affairs, November 2012 to July 2013, Office of the Secretary 
of Defense, Department of Defense, Washington, DC
    Chief of Staff, Office of the Assistant Secretary of Defense for 
International Security Affairs, February 2012 to November 2012, Office 
of the Secretary of Defense, Department of Defense, Washington, DC
    Senior Advisor for Middle East Transition, June 2011 to February 
2012, Office of the Secretary of Defense for Policy, Department of 
Defense, Washington, DC
    From September 2003 to June 2011, I was an employee at the Central 
Intelligence Agency--but did frequent rotations around the U.S. 
Government:
    Senior Advisor on Iraq, July 2009 to May 2011, Department of State, 
Washington, DC
    Director for Iraq, August 2007 to July 2009, National Security 
Council, Washington, DC
    Team Leader, September 2006 to August 2007, Central Intelligence 
Agency, Langley, VA
    Team Lead for Special Field Assessment Team, May to September 2006, 
Central Intelligence Agency, Baghdad, Iraq
    Special Assistant to the Director of National Intelligence, March 
2005 to May 2006, Office of the Director of National Intelligence, 
Washington, DC
    Intelligence Briefer to Senior U.S. Officials, June 2004 to March 
2005, Central Intelligence Agency, Baghdad, Iraq
    Political Analyst, September 2003 to June 2004, Central 
Intelligence Agency, Langley, VA

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Secretary of Defense Medal for Outstanding Public Service, July 
2014
    Cranbrook Kingswood Distinguished Alumni of the Year, June 2014
    Recognition Certificate for 10 years of Federal service, July 2013
    Nine CIA Exemplary Performance Awards, March 2004 to August 2009,
    CIA Meritorious Unit Award, May 2006
    War Zone Service Award: April 2005, September 2006, September 2008

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Commencement speech for Cranbrook Kingswood High School, June 2014.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) wm those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, ifconfirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay ordenial in providing such 
documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Elissa Slotkin.
    This 19th day of November, 2014.

    [The nomination of Ms. Elissa Slotkin was returned to the 
President at the end of the 113th Congress on December 17, 
2014, under provisions of Senate Rule XXXI, paragraph 6 of the 
Standing Rules of the Senate.]
                              ----------                              

    [Prepared questions submitted to Mr. David J. Berteau by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Currently I see no specific changes in the act that I would 
recommend.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Currently I see no specific changes in the act that I would 
recommend.
                                 duties
    Question. Section 138a of title 10, U.S.C., provides that the 
Assistant Secretary of Defense for Logistics and Materiel Readiness is 
to serve as the principal advisor to the Secretary of Defense and the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)) on logistics and materiel readiness in the Department of 
Defense (DOD).
    If confirmed as Assistant Secretary of Defense, what would you view 
as your principal responsibilities to the Secretary and the Under 
Secretary?
    Answer. If confirmed, I would fulfill the statutory 
responsibilities of being the principal advisor on logistics and 
materiel readiness issues to the Secretary of Defense and the Under 
Secretary of Defense for Acquisition, Technology, and Logistics, and 
serving as the principal logistics official for DOD. In this capacity, 
my responsibilities would include providing oversight and developing 
policy for all logistics, maintenance, materiel readiness, strategic 
mobility, and sustainment support programs.
    Question. If confirmed, what other duties do you expect that the 
Secretary and the Under Secretary would prescribe for you?
    Answer. If confirmed, I would be ready to respond to changes of 
mission and leadership direction. Additionally, I would work to provide 
superior logistics support to the warfighter and find new ways to 
provide the goods and services we offer in a more efficient and cost 
effective manner.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have spent the past 35 years working in, studying, and 
teaching about national security and DOD. In that time, I have learned 
first-hand the importance of logistics and materiel readiness to the 
success of every mission. My specific experience includes 12 years of 
experience in DOD, including 4 years as Principal Deputy Assistant 
Secretary of Defense for Production and Logistics. In that capacity, 
all of the current functions of the Assistant Secretary of Defense for 
Logistics and Materiel Readiness reported to me, including authority, 
direction, and control of the Defense Logistics Agency. In addition, I 
have 15 years of experience at senior executive levels in private 
industry and 12 years of senior analysis of defense matters, including 
logistics, contracting, and sustainment for major defense acquisition 
systems.
    Question. Do you believe that there are any additional steps that 
you need to take to enhance your expertise to perform these duties?
    Answer. While I believe that my experience described above has 
prepared me for the position of Assistant Secretary of Defense for 
Logistics and Materiel Readiness, there are many aspects of current DOD 
operations and analysis of which I need to become more familiar. If 
confirmed, I would plan to spend sufficient time to become more current 
in my awareness and understanding of current capacities and 
capabilities across DOD. I would also plan an extensive series of 
meetings with and visits to the practitioners and installations in the 
field, including maintenance depots, arsenals, and engineering centers 
involved in sustainment.
                             relationships
    Question. If confirmed, what would your relationship be with:
    The Secretary of Defense.
    Answer. If confirmed, I would serve as the principal advisor to the 
Secretary of Defense on logistics and materiel readiness issues within 
the DOD.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. If confirmed, I would serve as the principal advisor to the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
on all logistics and materiel readiness issues in DOD. I would also 
monitor, review, and provide oversight of all logistics, maintenance, 
materiel readiness, and sustainment support programs within the 
Department of Defense, in accordance with applicable DOD policies. In 
addition, I would assist the USD(AT&L) in the performance of his duties 
in any other capacity that he might direct.
    Question. The Principal Deputy Under Secretary of Defense for 
Acquisition, Technology, and Logistics.
    Answer. If confirmed, my relationship with the Principal Deputy 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
would be the same as that described above in relation to the Under 
Secretary of Defense for Acquisition, Technology, and Logistics.
    1Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. If confirmed, I would work closely with the Under Secretary 
of Defense for Personnel and Readiness so that we can both carry out 
our statutory obligations relating to readiness and other matters 
related to logistics, including the logistics workforce.
    Question. The Director for Logistics (J4), the Joint Staff.
    Answer. If confirmed, my relationship with the Director for 
Logistics (J4), the Joint Staff, would be based on my role as principal 
advisor to the Secretary of Defense and the Under Secretary of Defense 
for Acquisition, Technology, and Logistics on logistics and materiel 
readiness in DOD, and on the J4 role as the principal advisor to the 
Chairman of the Joint Chiefs of Staff on logistics and materiel 
readiness.
    Question. The Director for Operational Plans and Joint Force 
Development (J7), the Joint Staff.
    Answer. If confirmed, I would coordinate and exchange information 
with the Director for Operational Plans and Joint Force Development 
(J7), the Joint Staff, to ensure that DOD logistics and materiel 
readiness policies are coordinated with J7 roles and responsibilities 
advising the Chairman of the Joint Chiefs of Staff on operational 
planning and joint force development requirements.
    Question. The Director for Force Structure, Resources, and 
Assessment (J8), the Joint Staff.
    Answer. If confirmed, I would coordinate and exchange information 
with the Director for Force Structure, Resources, and Assessment (J8), 
to ensure DOD logistics and materiel readiness policies are coordinated 
with J8 roles and responsibilities advising the Chairman of the Joint 
Chiefs of Staff on force structure and resource requirements.
    Question. Commander, U.S. Transportation Command.
    Answer. If confirmed, I would expect to work closely with the 
Commander, U.S. Transportation Command, to ensure seamless support to 
meet warfighter requirements.
    Question. The Defense Logistics Agency.
    Answer. If confirmed, I would exercise authority, direction, and 
control over the Defense Logistics Agency through its Director.
    Question. The Army Materiel Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commanding General, Army Materiel Command, to ensure DOD 
logistics and materiel readiness policies are coordinated with the 
Commanding General's roles and responsibilities in meeting Army 
logistics requirements.
    Question. The Naval Sea Systems Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commander, Naval Sea Systems Command, to ensure DOD logistics 
and materiel readiness policies are coordinated with the Commander's 
roles and responsibilities in meeting Navy logistics requirements.
    Question. The Naval Air Systems Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commander, Naval Air Systems Command, to ensure DOD logistics 
and materiel readiness policies are coordinated with the Commander's 
roles and responsibilities in meeting Navy logistics requirements.
    Question. The Marine Corps Systems Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commander, Marine Corps Systems Command, to ensure DOD 
logistics and materiel readiness policies are coordinated with the 
Commander's roles and responsibilities in meeting Marine logistics 
requirements.
    Question. The Air Force Materiel Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commander, Air Force Materiel Command, to ensure DOD logistics 
and materiel readiness policies are coordinated with the Commander's 
roles and responsibilities in meeting Air Force logistics requirements.
                     major challenges and problems
    Question. In your view, what are the major challenges confronting 
the Assistant Secretary of Defense for Logistics and Materiel 
Readiness?
    Answer. If confirmed, I would anticipate the major challenges to be 
driven by the defense funding shortfalls that will result under the 
Budget Control Act caps and the potential return to ``sequester-level'' 
funding in fiscal year 2016. Beyond that funding challenge, my 
additional concerns include:

    (1)  Ensure that contingency operations forces and functions are 
provided with the best possible logistics supportunder available 
resources.
    (2)  Ensure sufficient logistics capability to support future 
contingency or humanitarian operations.
    (3)  Strengthen lifecycle management and long-term logistics 
planning within the acquisition process and at each Milestone decision.
    (4)  Optimize the DOD supply chain so that it is globally 
responsive to mission needs.
    (5)  Ensure that the logistics workforce is trained, experienced, 
and flexible enough to meet further logistics needs.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would plan to focus my actions on ways to:

    (1)  Work to identify and illuminate the consequences of failing to 
alleviate the impact of Budget Control Act caps in fiscal year 2016 and 
beyond.
    (2)  Support and update policies that optimize all elements of the 
DOD's logistics community, includingthe private sector and effectively 
support our warfighters at the best value to the American taxpayer.
    (3)  Work with the military departments, OSD agencies, program 
offices, and industry to identify and implement long-term lifecycle 
management considerations throughout the acquisition process.
       degradation of equipment readiness due to operations tempo
    Question. The committee has received testimony from senior DOD 
officials and the Military Services citing the effects of operations 
tempo on the materiel readiness of equipment deployed in support of 
contingency operations.
    What is your understanding of the extent to which many years of 
combat operations have impacted the service life of major equipment 
items?
    Answer. My research has shown that, on average, major defense 
acquisition programs today are 50 percent older than were similar 
systems at this stage of the 1990s drawdown in defense spending. This 
is a major concern, and if confirmed, I plan to spend considerable time 
on this question. I am familiar with public testimony and reports of 
the impact of high usage of equipment based on an aggressive 
operational tempo (OPTEMPO), coupled with the harsh environments in 
which these systems have been operating. If confirmed, I would plan to 
examine the data regarding the impact of this OPTEMPO on materiel 
readiness
    Question. If confirmed, what would your approach be to regenerating 
materiel readiness that has been degraded by operations tempo after 
many years of combat?
    Answer. If confirmed, I would plan to understand the priorities of 
the Military Services in regenerating materiel readiness, work to 
validate and secure the funding to support those priorities, and 
optimizing the capability of DOD to reset and reuse existing systems.
                  drawdown, reset, and reconstitution
    Question. The military departments continue to face major 
challenges in resetting and reconstituting their equipment as they 
complete the drawdown of forces in Afghanistan. The Military Services 
have repeatedly testified to the committee that they anticipate this 
effort will continue for several years beyond the end of combat 
operations.
    Do you believe that the Army and the Marine Corps have set aside 
adequate levels of funding in their recent budgets and in future years 
to meet anticipated reset and reconstitution requirements?
    Answer. The DOD budget justification material for fiscal year 2015 
base budget and Overseas Contingency Operations (OCO) funding indicates 
the need for OCO funding for several years to meet reset and 
reconstitution requirements. Based on my research and on what I know 
now, I anticipate the need for OCO funding to continue for several 
years following completion of contingency operations. If confirmed, I 
would plan to work with the respective Military Departments to validate 
and obtain the necessary funding. In addition, reset and reconstitution 
assessments should cover all of DOD, as this problem might also extend 
to some Navy and Air Force assets.
    Question. If not, what steps do you believe the Department should 
take to ensure that this effort is successfully completed in a timely 
manner?
    Answer. If confirmed, and pending the results of the actions 
outlined in the answer to question 25, I have no additional steps to 
propose at this time.
                overseas contingency operations funding
    Question. The committee has received testimony that the Military 
Services will require OCO funding for multiple years following the end 
of combat operations in Afghanistan.
    Given the uncertainty of OCO funding availability in future years, 
what enduring maintenance capabilities and activities, if any, would 
you recommend be transferred to base budget requirements?
    Answer. The challenges of reconciling OCO funding with base budgets 
affects all of DOD. This problem is exacerbated by the potential return 
to ``sequester-level'' funding in fiscal year 2016. Absent relief from 
the Budget Control Act caps, the need for OCO funding is likely to 
continue for several years following completion of contingency 
operations. If confirmed, and to the extent that Congress restores 
funding through a balanced approach, I would plan to work with the 
military departments to identify and migrate those enduring maintenance 
capabilities and activities into base budget requirements.
    Question. What logistics and maintenance activities, if any, would 
you recommend eliminating that have been funded with OCO over the last 
decade?
    Answer. At this time, I have no recommendations for eliminating 
activities that have been funded with OCO over the last decade. OCO 
funding levels should support the requirements generated by overseas 
contingency operations.
    Question. What impact will the eventual end of OCO funding have on 
the Military Services maintenance programs and efforts?
    Answer. Unless Congress acts to restore needed base budget funding 
through a balanced approach, any premature elimination or reduction of 
OCO will negatively impact the Department's ability to generate 
readiness to sustain current operations, emerging missions, and long-
term national defense priorities.
                             sequestration
    Question. While the Bipartisan Budget Agreement Act of 2013 gave 
temporary relief to some of the negative effects of sequestration, the 
long-term effects of the Budget Control Act of 2011 continue to present 
significant challenges to the DOD in fiscal year 2016.
    If sequestration remains in law, going into fiscal year 2016, what 
specific capabilities and activities related to logistics and 
maintenance will be affected?
    Answer. My research showed that sequestration impacts in fiscal 
year 2013 hit harder on spare parts, consumable items, and logistics 
support than on many other areas of the defense budget. I would expect 
a similar impact from a return to ``sequester-level'' funding in fiscal 
year 2016, with a disproportionate impact on the Military Services' 
operations and maintenance accounts--the primary source of readiness 
funding. Both the purchase of repair parts and the induction of 
equipment into organic and private sector facilities for scheduled and 
nonscheduled maintenance would be directly affected by reductions in 
operations and maintenance accounts.
                   depot maintenance strategic plans
    Question. The military departments regularly update their depot 
maintenance strategic plans to address the appropriate levels of 
capital investment in facilities and equipment, public-private 
partnerships, workforce planning and development, and the integration 
of logistics enterprise planning systems.
    What is your understanding of the extent to which the Military 
Services have updated or revised their depot maintenance strategic 
plans to address current and future logistics and maintenance 
requirements?
    Answer. I am aware that the military departments regularly update 
their depot maintenance strategic plans. While I am familiar with the 
recently released Army Organic Industrial Base Strategic Plan and the 
Navy Depot Maintenance Strategic Plan, if confirmed, I would plan to 
evaluate these plans and those of the other Military Services against 
their current and future logistics and maintenance requirements.
    Question. Do you believe that the steps taken by the Military 
Services are adequate, or are additional measures needed?
    Answer. If confirmed, I would plan to review the steps taken with 
each Military Service and determine their adequacy.
    Question. What is your understanding of the extent to which the 
Military Services have assessed the effects of reset on the baseline 
budgets, competing demands to reset equipment to meet unit readiness 
goals, the preservation of core capabilities, and the risk level that 
organic depot maintenance facilities may be able to accommodate in 
order to complete reset workload requirements?
    Answer. If confirmed, I would plan to review with the Military 
Services their reset plans, funding requirements, and effects on base 
budgets, readiness, core capabilities, and risk.
    Question. What is your understanding of the extent to which the 
depots' plans address the need to manage workload requirements as 
operations in Afghanistan draw down?
    Answer. Recent events have demonstrated the need for flexibility in 
managing workload requirements as operations in Afghanistan draw down. 
If confirmed, I would plan to meet with the Military Services and 
review their plans and the funding needed to support them.
    Question. Do you believe that the steps taken by the Military 
Services are adequate, or are additional measures needed?
    Answer. If confirmed, and pending the results of the actions 
outlined in the answer to question 34, I would plan to examine whether 
additional measures might be needed.
    Question. Congress places great importance on the proper 
implementation of the laws contained in Chapter 146 of Title 10 U.S.C. 
Please provide your interpretation and how you would implement, if 
confirmed, the following statutes: 10 U.S.C. 2460, 10 U.S.C. 2464, 10 
U.S.C. 2466, and 10 U.S.C. 2476.
    Answer. I have read and fully support these statutes If confirmed, 
I will work with the Military Departments to ensure that the 
information is available to achieve readiness goals while maintaining 
full compliance with the statutes.
    Question. Do you believe the amounts allocated for the activation 
of new workloads, including military construction projects, at the 
covered depots should be included in the calculation to determine the 
minimum investment of capital budgets as required by 10 U.S.C. 2476?
    Answer. I believe the minimum investment should be what is needed 
to meet future sustainment requirements in the most efficient manner. 
If confirmed, I would plan to examine investments for the activation of 
new workloads at our depots, shipyards or arsenals that could enhance 
capabilities and provide benefits to accomplish existing workloads.
    Question. Do you believe any of the sections included in Chapter 
146 of Title 10 U.S.C., or any other statute affecting the depots 
should be modified? If so, why; and what is your desired outcome?
    Answer. If confirmed, I have no proposed modifications to any of 
the sections of this statute.
                      condition-based maintenance
    Question. DOD aviation assets continue to be under high demand and 
operating well beyond their anticipated flying hours.
    What is your understanding of the military services' plans related 
to the transmission, storage, and analysis of data important to 
improving maintenance efforts, decreasing maintenance and spare part 
costs, and increasing readiness?
    Answer. I believe that better use of data is vitally important to 
improving maintenance efforts, decreasing costs, and increasing 
readiness If confirmed, I would plan to examine the efforts of each of 
the Military Services to improve the transmission, storage, and 
analysis of such data in support of Condition-Based Maintenance.
    Question. What is your understanding of the results of the 
condition-based maintenance effort thus far in terms of readiness and 
costs?
    Answer. If confirmed, I would plan to assess the results and work 
to ensure that Condition-Based maintenance supports improvements in the 
cost of readiness.
                          prepositioned stock
    Question. As the DOD positions materiel and equipment at locations 
around the world to enable it to quickly field a combat-ready force, it 
has been reported by the GAO that DOD plans to expand the use and 
reporting of its prepositioned equipment beyond combat operations may 
include training and joint exercises with neighboring countries, 
humanitarian relief, and reconstruction activities. The National 
Defense Authorization Act (NDAA) of Fiscal Year 2014 required the DOD 
to develop overarching strategic guidance and a detailed implementation 
plan to align the service specific prepositioning programs and create a 
more joint DOD-wide prepositioning program to achieve efficiencies and 
minimize unnecessary duplication, overlap, and fragmentation.
    What is your understanding of the extent to which the Department is 
working with the Military Services to develop an integrated requirement 
for prepositioned stocks that is based on a department-wide strategy?
    Answer. Prepositioned stocks have demonstrated an ability to 
improve the overall logistics capability required to ensure critical 
mission success. The NDAA for Fiscal Year 2014 requires the development 
of strategic guidance and an implementation plan. If confirmed, I will 
work with the Joint Staff, the Services, Combatant Commands, and DLA to 
meet the requirements of the report to Congress.
    Question. What are the logistical and maintenance implications of 
an expanded use of prepositioned stock, particularly in today's 
constrained budgetary environment?
    Answer. If confirmed, I would plan to evaluate the impact of 
prepositioned stocks on logistics operations, including the possibility 
of reducing the overall transportation costs for missions such as 
joint/combined exercises and Humanitarian Assistance efforts, 
especially in large geographic areas like the Pacific.
    Question. How would you plan to coordinate service efforts to 
identify and validate the requirements for the expanded use and 
increase in demand of prepositioned stocks?
    Answer. If confirmed, I would plan to review current policy and to 
ensure that the policy provides guidance for validation of expanded use 
of and demand for prepositioned stock as well as reporting the 
information necessary to track implementation and prioritize funding to 
meet shortfalls.
    Question. Do you believe that the Military Services have adequately 
assessed which of the many pieces of nonstandard equipment that were 
purchased to meet urgent warfighter needs should be added to the 
prepositioned stock sets?
    Answer. I believe that the concept of assessing existing equipment 
for prepositioning potential is a good concept. If confirmed, I would 
review existing policies and the data on such nonstandard equipment.
    Question. What additional reset and sustainment resources will be 
needed to add to these stocks?
    Answer. If confirmed, I would plan to engage in any ongoing review 
of prepositioned stock resource requirements. Nonstandard items could 
create the need for additional support costs, but those could be offset 
by a reduction in costs for new equipment. Pending the outcome of such 
a review, I am unaware of any additional resource needs.
    Question. In your view, have the Military Services identified 
adequate funding to meet its plans to reconstitute its prepositioned 
stocks around the world?
    My research has shown significant drawdowns of prepositioned stocks 
to support operations in Afghanistan and Iraq. If confirmed, I would 
plan to examine whether policies enable the Military Service's 
prepositioned stock programs to address requirements within budget 
constraints.
    Question. What steps, if any, would you take if confirmed to 
address these issues?
    Answer. I believe that prepositioning decisions should be based on 
strategy, plans, and requirements that are consistent with logistics 
capabilities. If confirmed, I would plan to work to ensure that 
policies on prepositioned equipment provide the Military Services with 
the guidance needed for programming decisions and the data to track 
implementation and shortfalls.
       defense logistics agency fulfillment of spare parts orders
    Question. In the past, the Air Force Logistics Centers (ALCs) have 
expressed frustration over DLA's inability to deliver some parts on 
time to the ALCs. Even a small percentage of spare parts that are not 
delivered on time can ground an aircraft. Some parts can take well over 
a year to arrive at the ALCs and it appears that DLA will often not 
order parts until the aircraft reaches an ALC. As a result, the Air 
Force is sometimes forced to cannibalize a part off of one aircraft to 
repair another.
    What is your view of DLA's track record on delivering parts, 
particularly to the Air Force's ALCs?
    Answer. I am aware of reports similar to the ones cited above, and 
it is my understanding that recent reports show progress. If confirmed, 
I would plan to meet with DLA and each of the Military Services 
(including the Air Force) to review the processes and progress on parts 
delivery and to support any actions needed to continue improvement.
    Question. What changes, if any, do you think are needed to improve 
DLA's performance in this regard?
    Answer. If confirmed, I would plan to work to ensure that DLA 
remains responsive to the Air Force needs as well as to the needs of 
the other Military Services.
    Question. In the past, there have been multiple reports and 
investigations conducted by the DOD's Inspector General and Government 
Accountability Office (GAO) which have identified several instances in 
which the DLA and Military Services have significantly overpaid for 
spare parts.
    If confirmed, what will you do to ensure the DOD, Military 
Services, and other defense agencies do not allow contractors to 
overcharge for spare parts?
    Answer. I have read some of the reports cited above, and I 
recognize that overcharging for spare parts is a major concern. If 
confirmed, I would plan to examine the guidance, tools, and training 
currently being used to reduce or eliminate such overcharging and to 
update guidance as needed to improve that guidance. I would plan to 
include in that review the pricing support capability offered by the 
Defense Contract Management Agency.
    Question. If confirmed, what will you do to ensure that DOD, 
Military Services, and other defense agencies do not acquire excess 
inventory of spare parts?
    Answer. I am aware of some of the actions underway within DOD to 
improve inventory management and to reduce the chance of acquiring 
excess inventory. I am also aware of ongoing work by the GAO with 
regard to this issue. If confirmed, I would plan to review the 
Department's strategy to improve inventory management as well as the 
results of audits and investigations.
    Question. If confirmed, what will you do to ensure the Military 
Services improve the reliability of their spare parts forecasts they 
submit to the DLA?
    Answer. There are a number of existing governance entities, such as 
the Joint Logistics Board, DLA/Service Days, and the Maintenance and 
Supply Executive Steering Committees, that are designed in part to help 
improve forecast reliability. If confirmed, I would plan to use those 
existing groups as part of the process to examine current forecasting. 
Additionally, I would plan to work with the Military Services to 
incorporate best practices from across DOD and to improve forecasting 
metrics that measure mission support.
                    corrosion prevention and control
    Question. The GAO has estimated that the Department spends over 
$22.0 billion per year in costs related to corrosion of equipment and 
infrastructure. While DOD has established a central corrosion program 
management office and has institutionalized corrosion prevention and 
mitigation as a key component of the Department's Planning, 
Programming, Budgeting, and Execution (PPBE) process, efforts are 
frequently underfunded.
    What is your understanding of the challenge to the readiness of the 
Military Services as a result of corrosion in equipment and materiel 
and the extent to which the Services are coordinating their efforts?
    Answer. Corrosion has been a persistent challenge that every weapon 
system in the DOD has faced, and corrosion has a negative impact on 
readiness, cost and safety. If confirmed, I would plan to examine 
current practices and to work with the Military Services, Defense 
Agencies, and commercial entities to pursue the best solutions at the 
least cost to the Department.
    Question. If confirmed, what would be your relationship with the 
Director of the Corrosion Policy and Oversight Office?
    Answer. If confirmed, I would plan to collaborate and work closely 
with the Director of Corrosion Policy and Oversight in policy and 
technology development.
    Question. If confirmed, how would you assess the implementation and 
effectiveness of corrosion prevention and control efforts in programs 
under your purview and, working with other responsible officials, 
address identified areas of concern?
    Answer. Corrosion needs to be addressed across the entire life 
cycle of defense equipment from conception to disposal. If confirmed, I 
would plan to work with the Director of Corrosion Policy and Oversight 
and existing corrosion prevention control mechanisms. In addition, I 
would plan to address corrosion control and prevention as part of the 
materiel readiness function during design and development of weapon 
systems.
      asset tracking, in-transit visibility, and radio frequency 
                             identification
    Question. The NDAA for Fiscal Year 2014 directed the Secretary of 
Defense to complete a comprehensive strategy and implementation plan 
for improving asset tracking and in-transit visibility across the DOD. 
In the past, Congress has also supported the DOD's Radio Frequency 
Identification (RFID) program in order to improve the visibility and 
identification of, and access to, equipment and supplies.
    What experience and familiarity do you have with asset tracking, 
in-transit visibility, and RFID technologies and their implementation?
    Answer. Asset tracking and in-transit visibility initiatives have 
been evolving since my previous experience in DOD logistics. If 
confirmed, I would plan to support the continued use of RFID and other 
tracking and visibility systems to continue to improve the Department's 
ability to track assets throughout the logistics supply chain.
    Question. In order for RFID technology to be effective, it must be 
used consistently throughout DOD and the Military Services. One of the 
problems highlighted in ongoing contingency operations is a lack of 
understanding of RFID technology and how to use the devices, 
particularly in field operations.
    If confirmed, what actions would you take to ensure that 
standardized training on the use of RFID and other tracking 
technologies is being provided to all necessary military and civilian 
logistics personnel?
    Answer. Standardized training and usage makes sense. If confirmed, 
I would plan to review current policy and training to ensure 
consistency and standardization, across the logistics community, on 
RFID and its use. I am aware that DOD just published a document titled 
``Automatic Identification Technology (AIT) for DOD Supply and 
Transportation Processes.'' This document appears to provide a 
framework and baseline standard to guide DOD organizations in 
synchronizing the joint use of AIT media in support of DOD operations, 
and I would plan to begin my review with that.
     data validation for depot maintenance public-private workload 
                          distribution report
    Question. Section 2466 of title 10 U.S.C. directs the Secretary of 
Defense to submit a report to Congress by April 1 of each year 
outlining the percent distribution of depot-level maintenance and 
repair workload between the public and private sectors for the 
preceding fiscal year and the projected distribution for the current 
and ensuing physical years. One of the continuing problems noted in the 
preparation of this report is the validity and accuracy of data 
submitted by the Services. As a result, the actual percentage of work 
completed at public depots is less than what is reported by the 
department in some cases.
    If confirmed, what steps will you take to ensure the accuracy of 
DOD public-private workload distribution reporting?
    Answer. Reporting under title 10, section 2466, the 50-50 law, is 
covered by DOD guidance to the Services for collecting workload 
distribution data, including specific requirements for maintaining 
supporting documentation and the conduct of internal audits. If 
confirmed, I would plan to work with the Services to improve accurate 
reporting,ensure compliance and to send Congress the most accurate data 
available on depot maintenance and public-private workload 
distribution.
                    defense personal property system
    Question. After many years of costly development, DOD in 2009 
implemented the Defense Personal Property System (DPS) which is a web-
based system for managing personal property moves for all DOD 
personnel. The DPS incorporates numerous improvements including 
contractual awards to movers based on satisfactory performance, not 
lowest bid; full replacement value as the standard for lost, stolen or 
severely damaged personal property; on-demand web-based move 
counseling; and many other features. An important means of evaluating 
who the best and worst moving contractors are in DPS is satisfaction 
surveys that should be submitted by DOD personnel who have completed 
permanent change of station moves.
    What is your understanding of the cost-efficiency of the DPS and 
whether its reliance on web-based systems has produced any savings for 
the Services?
    Answer. I am aware of the transition to the web-based DPS and its 
goal of promoting additional competition between shippers in order to 
drive down costs while providing additional benefits to military 
servicemembers and their families. If confirmed, I would plan to 
examine current and projected benefits and savings as well as the 
overall performance of the DPS system.
    Question. What is your understanding of the current return rate of 
satisfaction surveys by DPS customers?
    Answer. If confirmed, I would plan to include in the examination 
cited in my answer to question 59 the return rate of the customer 
satisfaction surveys.
    Question. If the rate is below 50 percent, to what do you attribute 
the inability to achieve a higher rate of return and do you believe 
that the current rate of return jeopardizes the ability to distinguish 
good and bad movers?
    Answer. If confirmed, I would plan to include in the examination 
cited in my answer to question 59 both parts of this question on the 
return rate of the customer satisfaction surveys
    Question. What methods do you think could properly be used to 
improve the survey return rate?
    Answer. My experience with overseeing surveys is that there are a 
number of actions that can be taken to improve return rates, including 
outreach programs, survey design, and improving the ease of survey 
completion and submission. If confirmed, I would plan to include this 
question in the examination cited in my response to question 59.
    Question. What is your understanding of actions being taken by U.S. 
Transportation Command and the Services to improve the performance and 
utility of DPS?
    Answer. If confirmed, I would plan to include this question in the 
examination cited in my response to question 59.
    Question. Since International Auto Logistics (IAL) took over the 
shipment of personal vehicles owned by military servicemembers last 
May, several reports have arisen regarding delays in the shipping and 
tracking of vehicles.
    What is your understanding of the performance of IAL since assuming 
its logistical responsibilities last May?
    Answer. I am aware of reports regarding unacceptable performance in 
delivering servicemembers' vehicles on time. If confirmed, I would plan 
to examine contract requirements and contractor performance, including 
corrective actions and mechanisms to hold the contractor accountable. 
The ultimate goal is to ensure performance and delivery of 
servicemembers' vehicles in a timely and satisfactory manner.
    Question. If confirmed, what improvements would you make, if any, 
regarding the performance of IAL?
    Answer. If confirmed, I would plan to include this question in the 
examination cited in my response to question 64.
 logistics routes for the supply and drawdown of forces in afghanistan
    Question. What is your assessment of the adequacy and reliability 
of the current logistics routes available for the supply and drawdown 
of U.S. forces in Afghanistan?
    Answer. Based on the information available to me, it appears that 
the current logistics routes are adequate to support both the resupply 
of remaining forces and the ongoing drawdown, with multiple routes to 
mitigate against a single point of failure. If confirmed, I would plan 
to to make it a high priority to take the actions necessary to sustain 
this adequacy and reliability, particularly with the prospect of 
changing requirements.
    Question. What role do you expect to play, if confirmed, in 
addressing the logistics challenges associated with the drawdown of 
U.S. forces from Afghanistan?
    Answer. If confirmed, I would plan to continue to focus on 
operations in support of Afghanistan. This would be a high priority of 
me and my staff.
       planning for contractor support in contingency operations
    Question. The GAO has previously reported that DOD's OPLANs often 
do not include an approved Annex W addressing contract support 
requirements, contractor management plans, contract oversight 
processes, and manpower requirements to execute contractor oversight. 
Moreover, the GAO has found that the few Annexes that do exist merely 
``restate broad language from existing operational contract support 
guidance'' and fail to identify military capability shortfalls that 
will require contract solutions or ensure that combatant commanders are 
aware of even the general scope and scale of contract support that will 
be needed for an operation.
    Do you believe that the current level of military planning for 
contractor support in military operations is adequate and appropriate?
    Answer. My research has shown that planning for and executing 
contractor support in military operations is a complex and continuously 
evolving dynamic. Based on that research, it is my belief that this 
will remain a work in progress for the foreseeable future. If 
confirmed, I would plan to examine current DOD processes to develop and 
apply lessons learned.
    Question. What steps, if any, would you take if confirmed to 
improve military planning for contractor support in military 
operations?
    Answer. This has been an area of focus for me since my service on 
the Commission on Army Acquisition and Program Management in 
Expeditionary Operations in 2007. If confirmed, I would plan to work 
across DOD to ensure that guidance and doctrine are implemented and 
that training is sustained for Operational Contingency Support.
                      private security contractors
    Question. Federal agencies including DOD have spent more than $5 
billion for private security contractors in Iraq and Afghanistan over 
the last decade. Over this period, there have been numerous reports of 
abuses by private security contractors.
    Do you believe DOD and other Federal agencies should reduce their 
reliance on contractors to perform security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations?
    Answer. If confirmed, I would plan to examine DOD reliance on 
private security contractors and DOD roles in supporting such reliance 
by other Federal agencies. I am aware that the Defense Department has 
implemented several initiatives to promote the responsible provision of 
security services, including those directed by Congress such as 
accountability procedures and development and implementation of 
national standards, and I would plan to include those initiatives in my 
review. In particular, if confirmed, I would plan to work to ensure 
these security contractors are properly regulated and supervised and 
that their roles carefully limited and defined.
    Question. What steps if any would you take, if confirmed, to ensure 
that any private security contractors who may continue to operate in an 
area of combat operations act in a responsible manner, consistent with 
U.S. defense and foreign policy objectives?
    Answer. If confirmed, I would plan to include this issue in the 
examination cited in my response to question 70. In particular, I would 
plan to work to ensure that DOD instructions remain current, clear, 
aligned with combatant commander guidance and orders, and consistent 
with U.S. defense and foreign policy objectives.
    In addition, if confirmed, I would plan to work to continue to 
collaborate with the State Department and other governmental agencies 
to ensure consistent policy is developed and to promote a common 
international understanding of responsible use and oversight of private 
security services.
    Question. Section 846 of the NDAA for Fiscal Year 2013 requires DOD 
to undertake risk assessments and risk mitigation whenever it relies on 
contractors to perform critical functions in support of overseas 
contingency operations.
    What steps will you take, if confirmed, to ensure that the 
Department fully implements the requirements of section 846?
    Answer. If confirmed, I would plan to include this issue in the 
examination cited in my response to question 70, including a review of 
current policy regarding planning requirements for situations when 
contractor personnel and equipment are anticipated to support military 
operations. I would also plan to work with the Joint Staff to ensure 
that contingency planning includes risk assessment on the intended use 
of private security contractors. It is my belief that these risk 
assessments should be continually reassessed during operations.
                            life cycle costs
    Question. If confirmed, what steps if any would you take to ensure 
that life cycle maintenance requirements and sustainment support are 
considered in the acquisition process for new DOD systems?
    Answer. If confirmed, I would plan to work with the Milestone 
Decision Authority and the Military Services to review current 
Department policy and ensure that guidance addresses life cycle 
maintenance and sustainment planning and support. I would also plan to 
continue with the efforts already undertaken by the Department and look 
at additional areas such as designing for supportability, Core 
determination, source of repair, and level of repair analysis as part 
of my responsibility to review program Life Cycle Sustainment Plans. 
Early consideration of sustainment places additional attention on how 
design decisions affect the life cycle cost, and I would plan to 
emphasize sustainment planning as part of all major program reviews. I 
would also plan to work with others in the Department to ensure our 
arrangements with industry are incentivizing innovation in areas that 
improve the Department's ability to maintain its weapon systems and 
reduce Operating and Support cost.
    Question. Are you aware of information or concerns that new major 
weapon systems' operating and support costs may have exceeded 
estimates?
    Answer. Rising operating and support costs have always been a 
concern. I am aware of and fully support the operating and support cost 
actions addressed in section 832 of the NDAA for Fiscal Year 2012 and, 
if confirmed, I would plan to work with my counterparts to ensure all 
appropriate actions are in place to control and manage operating and 
support costs across a system's life cycle.
    Question. If confirmed, what actions will you take to ensure rising 
operating and support costs do not adversely affect the readiness of 
new equipment and the operational units to which this equipment is 
issued?
    Answer. If confirmed, I will work with my Office of the Secretary 
of Defense, Joint Staff, and Service counterparts to review operating 
and support cost estimates during acquisition to identify initiatives 
that can be designed into a system or into the sustainment 
organization. My focus would be on delivering reliable and maintainable 
weapon systems that operate for longer periods without failure and 
that, when they do fail, can return to service more quickly and 
affordably. This requires supportability attributes be given the same 
level of attention as other performance attributes of our weapon 
systems. If confirmed, I would plan to work to ensure that this area 
continues to be addressed at major reviews and acquisition decisionsAs 
well as after fielding those systems.
    Question. If confirmed, what actions will you take to ensure that 
the DOD will have the resources to properly maintain the readiness of 
this new equipment?
    Answer. If confirmed, I would plan to work with the Joint Staff, 
Military Services, and the office of the Under Secretary of Defense for 
Personnel and Readiness to identify all resource requirements during 
acquisition to maintain the readiness of new equipment. This can 
partially be accomplished by continuing the existing requirements for 
sustainment-related Key Performance Parameters and affordability goals. 
I would also plan to work to ensure that weapon system readiness is 
managed at a level consistent with the Department's fiscal constraints. 
I would plan to take an active role in the Program, Planning, and 
Budgeting System to ensure that the Services readiness accounts are 
adequate to support our readiness requirements.
    Question. The NDAA for Fiscal Year 2009 requires DOD alternatives 
in the acquisition program design trades.
    Do you believe that the fully burdened cost of fuel is an 
appropriate factor for the Department to consider in the evaluation of 
acquisition alternatives?
    Answer. I do believe that the inclusion of fully burdened cost of 
fuel in the analysis of alternatives and other comparative studies is 
appropriate for creating a fair comparison of the systems under 
consideration.
                         operational footprint
    Question. During combat operations in Afghanistan and around the 
globe, combat service support units are constantly at risk when 
transporting supplies.
    What role do you expect to play, if confirmed, in developing 
strategies to reduce the logistical footprint of deployed units 
operating in hostile environments?
    Answer. If confirmed, I would plan to examine current and future 
research and development efforts focused on reducing the logistical 
footprint of deployed units.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Logistics and Materiel Readiness?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kelly Ayotte
                 capital investment at depots/shipyards
    1. Senator Ayotte. Mr. Berteau, title 10 U.S.C. section 2476 
requires--by law--the Secretary of each Service to invest in the 
capital budgets of the depots and shipyards of the Service not less 
than 6 percent of the average total combined maintenance, repair, and 
overhaul workload. Is each Service meeting this statutory requirement? 
Please provide the numbers for each Service for fiscal years 2012, 
2013, and 2014. Please provide the numbers for each of the four public 
shipyards for fiscal years 2012, 2013, and 2014.
    Mr. Berteau. Based on the fiscal year 2014 and fiscal year 2015 
President's budgets, with the exception of the Army, each of the 
military departments have met or exceeded the statutory requirement to 
invest not less than 6 percent of the average total combined 
maintenance, repair, and overhaul workload funded at all the depots of 
that military department. I only have access to publicly reported data, 
and therefore I do not have the data for the individual shipyards, but 
the overall shipyard and individual Service calculations are provided 
below. The fiscal years 2012 and 2013 data are actuals. The fiscal year 
2014 data are execution-year estimates as of the fiscal year 2015 
budget submission.
       
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
      
    If confirmed, I would track performance of the military departments 
with regard to meeting this statutory requirement and would be 
available to discuss this issue further as needed.

    2. Senator Ayotte. Mr. Berteau, if you are confirmed, do you commit 
to ensuring that each of the Services meets the 6 percent statutory 
requirement?
    Mr. Berteau. Yes, I am committed to complying with the statutory 
requirements.
                                 ______
                                 
    [The nomination reference of Mr. David J. Berteau follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 November 12, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    David J. Berteau, of Maryland, to be an Assistant Secretary of 
Defense, vice Alan F. Estevez, resigned.
                                 ______
                                 
    [The biographical sketch of Mr. David J. Berteau, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of David J. Berteau
Education:
    LBJ School of Public Affairs, Univ. of Texas at Austin

        <bullet> 1979-1981
        <bullet> Master of Public Affairs

    Tulane University

        <bullet> 1967-1971
        <bullet> Bachelor of Arts, English
Employment Record:
    Center for Strategic and International Studies

        <bullet> Senior Vice President, Director National Security 
        Program on Industry and Resources
        <bullet> March 2008-present

    Clark and Weinstock

        <bullet> Director, National Security and Homeland Security
        <bullet> May 2003-February 2008

    Maxwell School of Citizenship and Public Affairs, Syracuse 
University

        <bullet> Professor of Practice, Director National Security 
        Studies Program
        <bullet> January 2001-May 2003

    Science Applications International Corporation

        <bullet> Senior Vice President
        <bullet> September 1993-January 2001

    U.S. Department of Defense

        <bullet> Principal Deputy Assistant Secretary of Defense 
        (Production and Logistics)
        <bullet> January 1990-September 1993

    U.S. Department of Defense

        <bullet> Deputy Assistant Secretary of Defense (Resource 
        Management and Support)
        <bullet> April 1986-December 1989

    U.S. Department of Defense

        <bullet> Executive Secretary, President's Blue Ribbon 
        Commission (Packard Commission)
        <bullet> August 1985-April 1986

    U.S. Department of Defense

        <bullet> Special Assistant to the Deputy Secretary of Defense
        <bullet> May 1984-August 1985

    U.S. Department of Defense

        <bullet> Special Assistant to the Assistant Secretary of 
        Defense (Comptroller)
        <bullet> January 1983-May 1984

    U.S. Department of Defense

        <bullet> Presidential Management Intern, Office of the 
        Secretary of Defense
        <bullet> September 1981-January 1983

    Austin Independent School District, Austin TX

        <bullet> Teacher
        <bullet> December 1978-June 1979

    Transportation Enterprises, Inc., Austin TX

        <bullet> Bus Driver
        <bullet> January 1976-December 1979

    Avenues Food Coop, Austin, TX

        <bullet> Cashier Coordinator
        <bullet> September 1975-May 1976

    Franklin Independent School District, Franklin, TX

        <bullet> Teacher
        <bullet> August 1974-August 1975

    Perry Lumber Company, Hearne, TX

        <bullet> Carpenter
        <bullet> March 1974-August 1974

    Sevananda Food Coop, Atlanta, GA

        <bullet> Manager
        <bullet> April 1973-February 1974

    Sunshine Gardens Food Coop, New Orleans, LA

        <bullet> Manager
        <bullet> May 1972-March 1973

    Howard-Tilton Memorial Library, Tulane University, New Orleans, LA

        <bullet> Librarian Assistant
        <bullet> September 1971-April 1972
Honors and awards:
    Distinguished Public Service Award, Lyndon B. Johnson School of 
Public Affairs, 2014
    Secretary of the Army Exceptional Public Service Medal, 2007
    NASA Outstanding Public Service Award, 2003
    DOD Distinguished Public Service Medal, 1992
    DOD Outstanding Public Service Medal (Oak Leaf Cluster), 1989
    DOD Outstanding Public Service Medal, 1987
    Lyndon B. Johnson Congressional Fellow, 1980-1981
    Tulane University Honors and Scholars Program, 1967-1971
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mr. David J. 
Berteau in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    David John Berteau (1972-1975, nickname ``Dharma'').

    2. Position to which nominated:
    Assistant Secretary of Defense for Logistics and Materiel 
Readiness.

    3. Date of nomination:
    November 12, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 26, 1949; Hammond, LA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Eunice Jane Bordelon.

    7. Names and ages of children:
    Stefan Andre Berteau, age 35.
    Celeste Danielle Berteau, age 31.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Ponchatoula, Louisiana, High School; attended Sept. 1963-May 1967; 
graduated with a high school diploma, May 1967.
    Tulane University; attended Sept. 1967-May 1971; graduated with BA 
in English, May 1971.
    The University of Texas at Austin; 54 credit hours of non-degree 
program courses, Aug. 1976-Aug. 1979. Qualified for an elementary 
school teaching certificate from the State of Texas in 1979.
    Lyndon B. Johnson School of Public Affairs, The University of Texas 
at Austin; attended Aug. 1979-Aug. 1981; graduated with a Master's 
Degree in Public Affairs, Dec. 1981.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Senior Vice President and Director, National Security Program on 
Industry and Resources; Center for Strategic and International Studies; 
1616 Rhode Island Ave NW, Washington, DC (prior to Sept. 2013, location 
was 1800 K St NW, Washington, DC); March 2008 to present.
    Director of Defense and Homeland Security; Clark and Weinstock 
(firm's name has since changed to Mercury); 601 13th St NW, Washington, 
DC (firm's address has since changed to 701 8th St NW, Washington, DC; 
May 2003 to February 2008.
    Lecturer for National Security Management Course, and occasional 
Adjunct Professor of Public Administration, Syracuse University; The 
Maxwell School of Citizenship and Public Affairs, Syracuse University; 
200 Eggers Hall, Syracuse University, Syracuse, NY (note: this is the 
location of the school; the classes were taught and lectures given in 
Syracuse, in Washington, DC, and at remote locations as needed); June 
2003 to present.
    Adjunct Professor; Georgetown University; 3600 N Street, NW, 
Washington, DC; January 2006 to present.
    Adjunct Assistant Professor; Lyndon B. Johnson School of Public 
Affairs, The University of Texas at Austin; P.O. Box Y, Austin, TX 
(note: classes were taught in Washington, DC); July 2012 to July 2014.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Presidential Management Intern, Office of the Secretary of Defense, 
U.S. Department of Defense, 1981-1983.
    Special Assistant to the Assistant Secretary of Defense 
(Comptroller), Office of the Secretary of Defense, U.S. Department of 
Defense, 1983-1984.
    Special Assistant to the Deputy Secretary of Defense, U.S. 
Department of Defense, 1984-1985.
    Executive Secretary, President's Blue Ribbon Commission on Defense 
Management (the Packard Commission), 1985-1986.
    Deputy Assistant Secretary of Defense for Resource Management and 
Support, Office of the Assistant Secretary of Defense (Force Management 
and Personnel), Office of the Secretary of Defense, U.S. Department of 
Defense, 1986-1989.
    Principal Deputy Assistant Secretary of Defense for Production and 
Logistics, Office of the Under Secretary of Defense (Acquisition), 
Office of the Secretary of Defense, U.S. Department of Defense, 1990-
1993.
    Chair, Defense Conversion Commission, U.S. Department of Defense 
(simultaneous position with above), 1992-1993.
    Member of Defense Science Board Task Forces and Summer Studies in 
the period 1995-1999.
    Member, NASA Advisory Council, 2002-2003.
    Member, Secretary of the Army's Commission on Army Acquisition and 
Program Management in Expeditionary Operations, for 9 weeks in 2007.
    Unpaid Government Consultant, Washington Headquarters Service, U.S. 
Department of Defense, for 2 weeks in 2013.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Senior Vice President and Director, National Security Program on 
Industry and Resources, Center for Strategic and International Studies, 
Washington, DC
    Member, Board of Directors, R. Christopher Goodwin and Associates, 
Frederick, MD
    Advisory Board Member, National Security Studies Program, Syracuse 
University, Syracuse, NY
    Consultant, LMI, McLean, VA
    Member, Federal Outreach Advisory Committee, Association of Defense 
Communities, Washington, DC
    Partner, Bordelon and Berteau LLC, Opelousas, LA

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Fellow, National Academy of Public Administration
    Fellow, Robert S. Strauss Center for International Security and the 
Law, University of Texas at Austin
    Director, Procurement Round Table

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    No offices held or candidacies for any public office. .
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Registered as a member of the Democratic Party in Montgomery 
County, MD. No offices held or services rendered in the last 5 years. .
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    November 2013: $500 to Michelle Nunn, Democratic candidate for U.S. 
Senate in Georgia
    September 2014: $500 to Michelle Nunn, Democratic candidate for 
U.S. Senate in Georgia

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Distinguished Public Service Award, Lyndon B. Johnson School of 
Public Affairs in 2013
    Secretary of the Army Exceptional Public Service Medal in 2007
    NASA Outstanding Public Service Award in 2003
    DOD Distinguished Public Service Medal in 1992
    DOD Outstanding Public Service Medal (Oak Leaf Cluster) in 1989
    DOD Outstanding Public Service Medal in 1987
    Lyndon B. Johnson Congressional Fellow, 1980-1981
    Tulane University Honors and Scholars Scholarship, 1967-1971

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``The Triumph of Process of Politics: The Base Closure 
Commissions.'' By David J. Berteau, in Triumphs and Tragedies of the 
Modern Congress: Case Studies in Legislative Leadership. Edited by 
Maxmillian Angerholzer III, James Kitfield, Christopher P. Lu, and 
Norman Omstein, Center for the Study of the Presidency and Congress, 
Washington DC, 2014.
    ``U.S. Department of Defense Contract Spending and the Industrial 
Base, 2000-2013.'' By David J. Berteau, Gregory Sanders, Jesse Ellman 
and Rhys McCormick, CSIS, Washington DC, Oct. 15, 2014. http://
csis.org/files/publication/140929--Ellman--DefenseContractSpend 
ing2013--Web.pdf.
    Untitled essay by David J. Berteau in Defense Acquisition Reform: 
Where Do We Go From Here'' A Compendium of Views by Leading Experts. 
Staff Report of the Permanent Subcommittee on Investigations, Committee 
on Homeland Security and Governmental Affairs, U.S. Senate, October 2, 
2014.
    ``Update on the Budget.'' By David Berteau, in ``For Your 
Situational Awareness, Issue 9'', CSIS, Washington DC, July 29, 2014. 
http://csis.org/files/publication/140729--FYSA--July--2014--O.pdf.
    ``U.S. Department of Homeland Security Contract and Grant Spending 
and the Supporting Industrial Base, 2004-2013.'' By David J. Berteau, 
Gregory Sanders, Jesse Ellman, CSIS, Washington DC, June 16, 2014. 
http://csis.org/files/publication/140529--Ellman--
DHSContractGrantSpending'--Web.pdf.
    ``Project Brief: Harnessing the Opportunity for Defense Integration 
in Global Value Chains.'' By David J. Berteau, Scott Miller, Ryan 
Crotty, Paul Nadeau, CSIS, Washington DC, May 14, 2014. http://
csis.org/files/publication/140514--FederatedDefense--Harnessing--
Opportunity--Defense--Integration-Global--Value--Chains.pdf.
    ``What Exactly is the `Budget'? A Short Explanation of the Federal 
Budget Process.'' By David Berteau, in ``For Your Situational 
Awareness, Issue 5'', CSIS, Washington, DC, March 21. 2014. http://
csis.org/files/publication/140321--ISP--newsletter--FYSA--MARCH--
2014.pdf.
    ``The 2014 QDR and Fiscal Year 2015 Defense Budget: What Are We 
Watching For.'' By David J. Berteau, Maren Leed, Samuel J. Brannen , 
Ryan Crotty, Gregory Sanders, and Zack Cooper, CSIS, Washington, DC, 
March 10, 2014.
    ``Emerging Policy and Practice Issues (2013)'' By David J. Berteau 
and Steven L. Schooner, (March 3, 2014). West Government Contracts Year 
in Review Conference Briefs, Thomas Reuters, 2014. GWU Legal Studies 
Research Paper No. 2014-XX; GWU Law School Public Law Research Paper 
No. 2014-XX. At SSRN: http://papers.ssrn.com/sol4/papers.cfm.
    ``U.S. Department of Defense Contract Spending and the Supporting 
Industrial Base, 2000-2012.'' By David J. Berteau, Gregory Sanders, 
Jesse Ellman, and Rhys McCormick, CSIS, Washington DC, December 19, 
2013. http://csis.org/files/publication/131207--Sanders--
DODContractSpending--Web.pdf.
    ``How is the Defense Drawdown Affecting Industry?'' By David 
Berteau, in ``For Your Situational Awareness, Issue 2'', CSIS, 
Washington, DC, December 18. 2013. http://csis.org/files/publication/
131218--FYSADec2013.pdf.
    ``How Can We Develop a Sustainable Resource Strategy for Defense?'' 
By David J. Berteau, in Global Forecast 2014, CSIS, Washington, DC, 
November 12, 2013. http://csis.org/publication/how-can-we-develop-
sustainable-resource-strategy-defense.
    ``What Does the Budget Deal Mean for Defense?'' By David J. Berteau 
and Ryan Crotty, CSIS, Washington, DC, October 22, 2013. http://
csis.org/publication/critical-questions-what-does-budget-deal-mean-
defense.
    ``Structure and Dynamics of the U.S. Federal Services Industrial 
Base, 2000-2012.'' By David J. Berteau, Gregory Sanders, and Jesse 
Ellman, CSIS, Washington DC, September 3, 2013. http://csis.org/
publication/structure-and-dynamics-us-federal-services-industrial-base-
2000-2012.
    ``What's Happening with the Pentagon Budget?'' By David J. Berteau 
and Ryan Crotty, CSIS, Washington DC, August 19, 2013. http://csis.org/
publication/whats-happening-pentagon-budget.
    ``The Fiscal Year 2014 Defense Budget: Another Lost Year?'' By 
David J. Berteau and Ryan Crotty, CSIS, Washington DC, April 10, 2013. 
http://csis.org/publicationlfy-2014-defense-budget-another-lost-year.
    ``Emerging Policy and Practice Issues (2012)'' By David J. Berteau 
and Steven L Schooner, (March 3, 2013). West Government Contracts Year 
in Review Conference Briefs, Thomas Reuters, 2013. GWU Legal Studies 
Research Paper No. 2013-38; GWU Law School Public Law Research Paper 
No. 2013-38. At SSRN: http://papers.ssrn.com/sol3/papers.cfm?abstract--
id=2227093.
    ``Europe Defense Trends 2012: Budget, Regulatory Frameworks, and 
the Industrial Base.'' By David J. Berteau, Guy Ben-Ari, Joachim 
Hofbauer, Priscilla Hermann, Sneha Raghavan, Washington, DC, December 
18, 2012. http://csis.org/publication/european-defense-trends-
2012#sthash.sUsoQb5a.dpuf.
    ``New U.S. Export Trends.'' David J. Berteau, Guy Ben-Ari, and 
Stephanie Sanok. Finmeccanica Magazine No. 26, December 2012, pp. 22-
25.
    ``U.S. Department of Homeland Security Contract Spending and the 
Supporting Industrial Base, 2004-2011.'' By David J. Berteau, Guy Ben-
Ari, Jesse Ellman, Priscilla Hermann, and Gregory Sanders, Washington 
DC, November 13, 2012. http://csis.org/publication/us-department-
homeland-security-contract-spending-and-supporting-industrial-base-
2004-20.
    ``Asian Defense Spending, 2000-2011.'' By David J. Berteau, Guy 
Ben-Ari, Joachim Hofbauer, Priscilla Hermann, Sneha Raghavan, 
Washington, DC, October 2012. http ://csis.org/publication/asian-
defense-spending-2000-2011#sthash.sZEqZrmF.dpuf.
    ``U.S. Department of Defense Contract Spending and the Supporting 
Industrial Base.'' By David J. Berteau, Guy Ben-Ari, Gregory Sanders, 
Jesse Ellman, and David Morrow, Washington, DC, September 28, 2012. 
http://csis.org/publication/us-department-defense-contract-spending-
and-supporting-industrial-base#sthash.Alw23xJa.dpuf.
    ``U.S. Force Posture Strategy in the Asia Pacific Region: An 
Independent Assessment.'' By David J. Berteau, Michael J. Green, 
Gregory Kiley, and Nicholas Szechenyi, Washington, DC, August 15, 2012. 
http://csis.org/publication/pacom-force-posture-review.
    ``Contract Spending by the Department of State and the U.S. Agency 
for International Development.'' By David J. Berteau, Guy Ben-Ari, 
Gregory Sanders, Priscilla Hermann, David Morrow, Washington, DC, July 
26, 2012. http://csis.org/publication/contract-spending-department-
state-and-us-agency-international-development#sthash.pDorYPSi.dpuf.
    ``A Case Study for Better Buying Power: Information Analysis 
Centers of the Defense Technical Information Center.'' By David J. 
Berteau, Gregory Kiley, Gary Powell, Reed Livergood, Washington, DC, 
June 12, 2012. http://csis.org/publication/case-study-better-buying-
power#sthash.OlvauDJF.dpuf
    ``U.S. Department of Defense Services Contract Spending and the 
Supporting Industrial Base, 2000-2011.'' By David J. Berteau, Guy Ben-
Ari, Gregory Sanders, Jesse Ellman, David Morrow, Washington, DC, May 
24, 2012. http://csis.org/publication/us-department-defense-services-
contract-spending-and-supporting-industrial-base-2000-201.
    ``Defense Department Must Prepare for Deeper Budget Cuts'', By 
David J. Berteau and Clark Murdock. National Defense magazine, May 2012 
issue.
    ``Emerging Policy and Practice Issues (2011 )'' By David J. Berteau 
and Steven L. Schooner, (March 3, 2012). West Government Contracts Year 
in Review Conference Briefs, Thomas Reuters, 2012. GWU Legal Studies 
Research Paper No. 2012-12; GWU Law School Public Law Research Paper 
No. 2012-13. At SSRN: http://ssrn.com/abstract=2014385.
    ``Super Committee Fallout and the Implications for Defense'' By 
David J. Berteau and Ryan Crotty, Center for Strategic and 
International Studies, Washington, DC, December 2, 2011. http://
csis.org/publication/super-committee-fallout-and-implications-defense.
    ``Structure and Dynamics of the U.S. Federal Services Industrial 
Base, 2000-2010.'' By David J. Berteau, Gregory Sanders, Guy Ben-Ari, 
Joachim Hofbauer, David Morrow, Jesse Ellman. Center for Strategic and 
International Studies, Washington, DC, November 23, 2011. http://
csis.org/publication/structure-and-dynamics-us-federal-services-
industrial-base-2000-2010.
    ``European Defense Trends: Briefing Update.'' By David J. Berteau, 
Guy Ben-Ari, Joachim Hofbauer, Roy Levy, Center for Strategic and 
International Studies, Washington DC, July 29, 2011. http://csis.org/
files/attachments/110729--european--report.pdf.
    ``DHS Contract Spending and the Supporting Industrial Base'' By 
David J. Berteau, Guy Ben-Ari, Gregory Sanders, Priscilla Hermann. 
Center for Strategic and International Studies, Washington, DC, July 
21, 2011. http://csis.org/publication/dhs-contract-spending-and-
supporting-industrial-base.
    ``Defense Spending and Deficit Reductions: Funding the Future.'' By 
David J. Berteau, in Global Forecast 2011, Center for Strategic and 
International Studies, Washington, DC, June 14, 2011. http://csis.org/
publication/defense-spending-and-deficit-reductions-funding-future.
    ``DOD Workforce Cost Realism Assessment.'' By David J. Berteau, 
Joachim Hofbauer, Gregory Kiley, Jesse Ellman, Guy Ben-Ari. Center for 
Strategic and International Studies, Washington, DC, May 17, 2011. 
http://csis.org/publication/dod-workforce-cost-realism-assessment.
    ``Defense Contract Trends: U.S. Department of Defense Contract 
Spending and the Supporting Industrial Base.'' By David J. Berteau, Guy 
Ben-Ari, Gregory Sanders, Joachim Hofbauer. Center for Strategic and 
International Studies, Washington DC, May 6, 2011. http://csis.org/
publication/defense-contract-trends-O.
    ``Industry Toward Security'' Issue Paper 3 in ``EU-US Security 
Strategies, Comparative Scenarios and Recommendations.'' The European 
Union Pilot Project on Transatlantic Methods for Handling Global 
Challenges in the European Union and United States. April 2011. By 
David J. Berteau and Guy Ben-Ari, et al.
    ``Emerging Policy and Practice Issues (2010).'' By David J. Berteau 
and Steven L Schooner, (December 1, 2010). West Government Contracts 
Year in Review Conference Briefs, Thomas Reuters, 2011. GWU Legal 
Studies Research Paper No. 529; GWU Law School Public Law Research 
Paper No. 529. At SSRN: http://ssrn.com/abstract=1772824.
    ``European Defense Trends: Budgets, Regulatory Frameworks, and the 
Industrial Base.'' By David J. Berteau, Joachim Hofbauer, Gregory 
Sanders, Roy Levy, Center for Strategic and International Studies, 
Washington, DC, November 4, 2010. http://csis.org/publication/european-
defense-trends.
    ``Implementation of the Weapon Systems Acquisition Reform Act of 
2009--A Progress Report.'' By David J. Berteau, Stephanie Sanok, and 
Joachim Hofbauer, Center for Strategic and International Studies, 
Washington, DC, May 26, 2010. http://csis.org/files/publication/
20100528%20WSARA%20Progress%20Report.pdf.
    ``The Time Is Right for Export Control Reform.'' By David J. 
Berteau and Stephanie Sanok, DIIG Current Issues No. 21, Center for 
Strategic and International Studies, Washington, DC, May 17, 2010. 
http://csis.org/publication/diig-current-issues-no-21-time-right-
export-control-reform.
    ``National Security and the Commercial Space Sector--An Analysis 
and Evaluation of Options for Improving Commercial Access to Space.'' 
By David J. Berteau, Gregory Kiley, Guy Ben-Ari, Joshua T. Hartman, 
Gary Powell, Stephanie Sanok, and Brian Green, Center for Strategic and 
International Studies, Washington, DC, July 26, 2010. http://csis.org/
publication/national-security-and-commercial-space-sector.
    ``Fixing the Shortfalls: Defense Budget Trends and Long-Term 
Impact.'' By David J. Berteau, DIIG Current Issues No. 19, Center for 
Strategic and International Studies, Washington, DC, December 14, 2009. 
http://csis.org/publication/diig-current-issues-no-19-fixing-
shortfalls-defense-budget-trends-and-long-term-impact.
    ``Emerging Policy and Practice Issues (2009).'' By David J. Berteau 
and Steven L Schooner, (December 1, 2009). West Government Contracts 
Year in Review Conference Briefs, Thomas Reuters, 2010 GWU Legal 
Studies Research Paper No. 491; GWU Law School Public Law Research 
Paper No. 491. At SSRN: http://ssrn.com/abstract=1562842.
    ``The President's Government Contracting Review.'' By David J. 
Berteau, Current Issues No. 8, Center for Strategic and International 
Studies, Washington, DC, March 30, 2009. http://csis.org/publication/
diig-current-issues-no-8-presidents-government-contracting-review.
    ``Structure and Dynamics of the U.S. Federal Professional Services 
Industrial Base, 1995-2007.'' By David J. Berteau, Guy Ben-Ari, and 
Greg Sanders, Center for Strategic and International Studies, 
Washington, DC, February 2009. http://csis.org/publication/structure-
and-dynamics-us-federal-profesional-services-industrial-base-1995-2007.
    Organizing for a Complex World: The Way Ahead. By David J. Berteau, 
Guy Ben-Ari, and Matthew Zlatnik, Center for Strategic and 
International Studies, Washington, DC, February 2009. http://csis.org/
publication/organizing-complex-world-way-ahead.
    ``Emerging Policy and Practice Issues (2008).'' By David J. Berteau 
and Steven L Schooner, (December 1, 2008, West Government Contracts 
Year in Review Conference Briefs, Thomas Reuters, 2009. GWU Legal 
Studies Research Paper No. 459; GWU Law School Public Law Research 
Paper No. 459. At SSRN: http://ssrn.com/abstract=1356153.
    ``Transitioning Defense Organizational Initiatives--An Assessment 
of Key 2001-2008 Defense Reforms.'' By David J. Berteau, Kathleen 
Hicks, Clark Murdock, Nathan Freier, and Christine Wormuth, Sam 
Brannen, and Eleanore Douglas. Center for Strategic and International 
Studies, Washington, DC, December 2008. http://csis.org/publication/
transitioning-defense-organizational-initiatives.
    ``Urgent Reform Required: Army Expeditionary Contracting.'' Report 
of the Commission on Army Acquisition and Program Management in 
Expeditionary Operations, October 31, 2007. http://www.army.mil/docs/
Gansler--Commission--Report--Final--071031.pdf.
    ``Linkages 2007--An Update on Printed Circuit Boards and National 
Security''. By David J. Berteau, Advancing Microelectronics, May/June 
2007, vol. 34 no. 3, pp. 10-12.
    ``Beyond Goldwater-Nichols: An Annotated Brief. Department of 
Defense Acquisition and Planning, Programming, Budgeting and Execution 
System Reform.'' By David J. Berteau, with David Scruggs (principal 
author) and Clark Murdock (contributing author). Center for Strategic 
and International Studies, Washington, DC, August 2006.
    ``Acquisition Initiatives--Phase II.'' By David J. Berteau, with 
Gene Porter (Project Leader), Gary Christle, Jay Mandelbaum, and 
Richard Diehl. Institute for Defense Analyses, February 2006.
    Linkages: Manufacturing Trends in Electronic Interconnect 
Technology. National Research Council, National Academies Press, 
December 2005. Available on line at http://books.nap.edu/catalog/
11515.html.
    ``Defense Acquisition Initiatives Review: An Assessment of Extant 
Initiatives.'' By David J. Berteau, with Gene Porter (Project Leader), 
Gary Christle, Jay Mandelbaum, and Richard Diehl. Institute for Defense 
Analyses, September 2005.
    CAPITAL LETTERS--a regular column in Government Security News, by 
David J. Berteau. Columns include:

         ``Four Things to Remember When Studying the President's Budget 
        Request'' March 6, 2006, p. 26. Available on line at http://
        www.gsnmagazine.com/pdfs/39--Mar--06.pdf.
         ``Draft Infrastructure Plan Falls Short on All Counts'' 
        November 21, 2005, p. 23. Available on line at http://
        www.gsnmagazine.com/pdfs/34--Nov--05.pdf
         ``Pentagon Historically Reluctant to Share Its Vast 
        Resources'' Sept. 27, 2005, p. 1. Available on line at http://
        www.gsnmagazine.com/sep--05/pentagon--resources.html
         ``Does the Pentagon really care about homeland security?'' 
        June 6, 2005, p. 32. Available on line at http://
        www.gsnmagazine.com/pdfs/24--June--05.pdf
         ``In Washington, it really does matter what title you hold'' 
        May 9, 2005, p. 35. Available on line at http://
        www.gsnmagazine.com/pdfs/22--May--05.pdf
         ``Is the White House's Homeland Security Council Falling 
        Short?'' April 4, 2005, p. 23. Available on line at http://
        www.gsnmagazine.com/pdfs/20--Apr--05.pdf
         ``Bush's Budget: What You See Isn't What You Get'' February 
        21, 2005, p. 24. Available on line at http://
        www.gsnmagazine.com/feb--05--03/capital--letters.html
         ``Will Congress and the Pentagon Ever Change?'' January 24, 
        2005, p. 24. Available on line at http://www.gsnmagazine.com/
        feb--05/congress--pentagon .html
         ``Dear Mr. President . . . (Advice to the next occupant of the 
        White House)'' November 2004, p. 36. Available on line at 
        http://www.gsnmagazine.com/nov--04/capital--letter.html
         ``Will Congress Step Up to the Plate on Homeland Security?'' 
        September 2004, p. 34.
         ``Will We Miss the Next Slam Dunk?'' July 2004, p. 65.
         ``What DoD can teach OHS'' October 2003, p. 39.

    ``Homeland Security Budgeting: Can Confusion Produce Priorities?'' 
By David J. Berteau, ECMR NewsNetwork, v. 16 no. 2, July 2004. 
Available on line at http://www.ecaar.org/Newsletter/July2004.pdf
    Commentary ``Post-Cold War Conversion: Gains, Losses, and Hidden 
Changes in the U.S. Economy;'' by David J. Berteau, in America's Peace 
Dividend: Essays on The Achievements of the 1990s and the Challenges 
Ahead, Ann Markusen, 2000.
    ``Defense Conversion in IT Service Industries'' and ``Defense 
Conversion and Acquisition Reform,'' by David J. Berteau, in The 
Defense Industry in the Post-Cold War Era, Gerald Sussman and Sean 
O'Keefe, 1998.
    ``The Practitioner's Comer,'' LBJ Journal of Public Affairs, Vol. 
6, No. 1, Spring 1994.
    ``Waging Peace: A Practical Guide to Base Closures,'' Public 
Contract Law Journal, by David J. Berteau, with Benjamin Ginsberg and 
James King, Vol. 23, No. 2, Winter 1994.
    ``Defense Conversion: `It Ain't That Simple' ''--By David J. 
Berteau, Defense Issues, Vol. 8 No. 22 -April 20, 1993.
    ``Defense Conversion: What Does It Really Mean?''--By David J. 
Berteau, PHALANX (The Bulletin of Military Operations Research), June 
1993 (vol 26, no. 2).
    Adjusting to the Drawdown (Report of the Defense Conversion 
Commission), 1992.
    The Defense Management Report (sections on organization and 
personnel), 1989.
    A Formula for Action (President's Blue Ribbon Commission on Defense 
Management), 1986. Co-wrote with Paul Stevens, Commission General 
Counsel.
    Interim Report (President's Blue Ribbon Commission on Defense 
Management), 1986. Co-wrote with Paul Stevens, Commission General 
Counsel.
    ``Your Defense Budget'' (Department of Defense), 1983 and 1984.
    The Promotion of Exports from Texas (1982, LBJ School), with Sidney 
Weintraub, et al.
    Economic Coercion and Foreign Policy (1981, Westview Press), with 
Sidney Weintraub, et al.
    ``Foreign Assembly of U.S. Goods (1981).'' Master's degree report.
    ``A Compensatory Financing Scheme for the Caribbean (1980-81).'' 
unpublished study, House Foreign Affairs Committee.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    My work at CSIS entails numerous public speaking engagements. These 
speeches do not normally include formal text but are often accompanied 
by one or more briefing slides. The list below includes public and 
semi-public speaking engagements for the past 5 years. In some cases, 
there is a video and/or audio record or a transcript of the speaking 
engagement that is available. To assist the committee in its review, 
where possible, the list includes the link to those video and/or audio 
records or transcripts.
    Berteau Public Speaking Engagements 2009-2014:

         September 5, 2014, Panelist, ``The Challenges of Complex 
        Acquisition Efforts: Lessons Learned for Future Vertical 
        Lift'', http://csis.org/event/challenges-complex-acquisition-
        efforts, CSIS, Washington, DC
         August 5, 2014, Moderator, Workshop on ``Lowest Price 
        Technically Acceptable (LPTA) or Best Value: Which Way Are We 
        Going?'', AFCEA Defense Acquisition Modernization Symposium 
        ``Better Buying Power: Do We Have It Right?'', Ronald Reagan 
        Building, Washington, DC
         July 15, 2014, ``U.S. Defense Outlook and Macro Trends'' DOD 
        Cost Analysts Symposium, Fort Belvoir, VA
         June 27, 2014, Panelist, ''A Discussion of the 2014 
        Quadrennial Homeland Security Review'', http://csis.org/event/
        discussion-2014-quadrennial-homeland-security-review, CSIS, 
        Washington, DC
         May 15, 2014, ``Overall Defense Contract Trends and Policy 
        Implications'' on Panel #21, Exploring Managerial Implications 
        of Current DOD Contracting Trends, Harry Hallock, chair, NPS 
        Acquisition Symposium, Seaside, CA
         May 14, 2014, ``Identifying Governance Best Practices in 
        Systems-of-Systems Acquisition'' on Panel #5, Beyond Better 
        Buying Power: Assessing Progress and Institutionalizing 
        Success, Jim Thomsen, chair, NPS Acquisition Symposium, 
        Seaside, CA
         May 1, 2014, ``U.S. Defense Outlook and Macro Trends'', 
        TechAmerica Vision Federal Market Forecast Kick-off, Mclean, VA
         April 22, 2014, ``State of the Government'', National Security 
        Studies Program Maxwell School, Syracuse University, Syracuse, 
        NY
         April 12, 2014, Acceptance Speech, Distinguished Public 
        Service Award, http://youtu.be/qNQJv729EE4, LBJ School of 
        Public Affairs, University of Texas at Austin, Austin, TX
         March 14, 2014, Panel Moderator for ``Discussion on the 2014 
        QDR and FY 15 Defense Budget'', with Clark Murdock, Maren Leed, 
        Stephanie Sanok Kostro, and Sam Brannen, http://csis.org/event/
        discussion-2014-qdr-and-fy15-defense-budget, CSIS, Washington, 
        DC
         February 11, 2014, Federal Budgets and the Debt Ceiling, LBJ 
        School of Public Affairs GPS International Speaker's Colloquium 
        Series, Austin, TX
         February 10, 2014, Keynote Speech on the Defense Budget, (Also 
        panelist on Installations 2030 Breakout Session), Winter Forum, 
        Association of Defense Communities, San Antonio, TX
         February 5, 2014, Presenter at ``Joint Think Tank Event: 
        Alternatives to the QDR and Fiscal Year 2015 Defense Budget'' 
        With Todd Harrison and Jim Thomas of CSBA, Tom Donnelly of AEI, 
        and Nora Bensahel of CNAS, Hosted by the Center for Strategic 
        and Budgetary Assessments, http://csis.org/event/joint-think-
        tank-event-alternatives-qdr-and-fy15-defense-budget, Dirksen 
        Senate Office Building, Washington, DC
         December 19, 2013, Presentation with Greg Sanders on ``U.S. 
        Department of Defense Contract Spending and the Supporting 
        Industrial Base, 2000-2012.'' http://csis.org/files/
        publication/131207--Sanders--DODContractSpending--Web.pdf, 
        CSIS, Washington, DC
         December 16, 2013, Panel Member, ''The Federated Defense 
        Project Launch'', http://csis.org/event/federated-defense-
        project-launch, CSIS, Washington, DC
         November 18, 2013, Moderator and Discussant, ``A Path for 
        Durable Defense Reform with HASC Vice-Chair Mac Thornberry (R-
        TX)'', http://csis.org/event/path-durable-defense-reform, CSIS, 
        Washington, DC
         November 7, 2013, Panel Moderator, following speech by Frank 
        Kendall, USD(A&L), on ``Performance of the Defense Acquisition 
        System: Looking Ahead'', with panelists Pierre Chao, Jon 
        Etherton, and Arnold Punaro, http://csis.org/event/performance-
        defense-acquisition-system-looking-ahead, CSIS, Washington, DC
         November 5, 2013, Presenter and Panel Moderator on ``Global 
        Security Forum 2013: Has the Budget Crisis Shattered the Cold 
        War Consensus on Defense Budgets?'', with Steve Cortese, Jim 
        Dyer, Charlie Houy, and David Lyles, http://csis.org/event/
        global-security-forum-2013-has-budget-crisis-shattered-cold-
        war-consensus-defense-budgets, Global Security Forum, CSIS, 
        Washington, DC
         September 3, 2013, Presentation of ``Structure and Dynamics of 
        the U.S. Federal Services Industrial Base, 2000-2012'' with 
        Greg Sanders, http://csis.org/event/us-federal-services-
        industrial-base-report-release-O, CSIS, Washington, DC
         August 14, 2013 ''The Asia Pacific Rebalance--What Does It 
        Mean for Space and Missile Defense'' http://smdsymposium.org/
        wp-content/uploads/2013/09/Berteau--Asia-Pacific-
        Rebalance1.pdf, U.S. Space and Missile Defense Symposium, 
        Huntsville, AL
         July 30, 2013, Presentation of Conference Summary Evaluation, 
        IGCC 2013 Annual Conference on the Chinese Defense Industry, 
        San Diego, CA
         July 23, 2013, ``Setting the Stage for the 2014 QDR'', Panel 
        Moderated by Kim Wincup, with Clark Murdock, Stephanie Sanok 
        Kostro, and Sam Brannen, http://csis.org/event/setting-stage-
        2014-qdr, CSIS, Washington, DC
         July 19, 2013, Moderator ``Expanding Foreign Sales of U.S. 
        Military Equipment: Industry Perspectives'' with Jon Barney, 
        David Scruggs, and Jim Lovelace, http://csis.org/event/
        expanding-foreign-sales-us-military-equipment-industry-
        perspectives, CSIS, Washington, DC
         June 13, 2013, ``Keynote Address: Policy Perspective'', 
        National Logistics Forum, National Defense Industrial 
        Association, Arlington, VA
         June 4, 2013, ``Facing Down the Debt: Impacts on National 
        Security'', CSIS, International Policy Roundtable, Washington, 
        DC
         June 3, 2013, Panel on the Think Tank Letter for Defense 
        Reform, With Gordon Adams, Mackenzie Eaglen, Todd Harrison, and 
        Larry Korb, Hosted by the Center for Strategic and Budgetary 
        Assessments, Hart Senate Office Building, Washington, DC
         April 25, 2013, ``The Ground Forces Industrial Base: A 
        Conversation with Brett Lambert'', http://csis.org/event/
        ground-forces-industrial-base, Willard Hotel, Washington, DC
         April 15, 2013 ``Implications of the Fiscal Year 2014 Defense 
        Budget'' With Maren Leed, Jim Dyer, and Clark Murdock http://
        csis.org/event/implications-fy14-defense-budget, CSIS, 
        Washington, DC
         April 9, 2013, ``The Budget `Deep Dive' '' Spring Conference, 
        Professional Services Council, Special Post-Conference Session, 
        Tampa, FL
         February 27, 2013, Panel Presentation ``American Views on the 
        Rebalance'', Georgetown-CSIS Conference on ``The U.S. Rebalance 
        to Asia, A One Year Assessment'', http://csis.org/event/us-
        rebalance-asia-one-year-assessment-where-have-we-been-and-
        where-are-we-going, Georgetown University, Washington, DC
         February 21, 2013, ``Emerging Policy and Practice Issues 
        (2012)'' with Steven L Schooner, West Government Contracts Year 
        in Review Conference, Washington, DC
         February 8, 2013, ``Preparing for a Deep Defense Drawdown'', 
        CSIS Panel with Clark Murdock, Maren Leed, and Jim Dyer, CSIS, 
        Washington, DC
         January 30, 2013, Keynote speech ``The Triple Threat -CR, 
        Sequestration, and Debt Ceiling and the Dysfunctional 
        Environment'', National Defense Industrial Association, 
        Conference on Earned Value Management Systems, Cleaiwater, FL
         January 25, 2013, ``Preparing for the 2014 Quadrennial Defense 
        Review'', panel on ``Unique Challenges Facing DoD Under 
        Budgetary Pressures'', with Gordon Adams, Todd Harrison, and 
        Michael O'Hanlon, http://csis.org/event/preparing-2014-
        quadrennial-defense-review, CSIS, Washington, DC
         January 14, 2013, Keynote address 'Where Are We, How Did We 
        Get Here, Where Are We Going, and What Do You Watch For?'', 
        Association of Defense Communities Winter Forum, San Antonio, 
        TX
         January 14, 2013, Keynote address to the Defense Acquisition 
        Symposium National Defense Industrial Association, Procurement 
        Division, Ritz-Carlton Hotel, New Orleans, LA
         December 18, 2012, ``European Defense Trends 2012: Budgets, 
        Regulatory Frameworks, and the Industrial Base'' report release 
        presentation with Guy Ben-Ari http://csis.org/event/european-
        defense-trends-budgets-regulatory-frameworks-and-industrial-
        base-2011, CSIS, Washington, DC
         December 12, 2012, ``It's Not About China''--Strategic 
        Guidance and Air Sea Battle, NDU Conference on ``Rebalancing to 
        Asia: Air Sea Battle Concepts for Assured Access'', Ft. McNair, 
        Washington, DC
         December 7, 2012, ``Service Contracting'', with Allan Burman, 
        2012 Nash & Cibinic Roundtable, Washington, DC
         November 29, 2012, Panel Member, ``Maturing the Homeland 
        Security Enterprise'', Ken Rapuano, moderator; with Alan Cohn, 
        James Loy, and Chad Sweet, CSIS Conference ``Toward Strategic 
        Outcomes: Envisioning the Future of the Homeland Security 
        Enterprise'', http://csis.org/event/toward-strategic-outcomes-
        envisioning-future-homeland-security-enterprise, CSIS, 
        Washington, DC
         November 16, 2012 ``Debt and Defense'' with Maren Leed and 
        Clark Murdock http://csis.erg/event/debt-and-defense CSIS 
        Washington, DC
         November 13, 2012 ``The U.S. Department of Homeland Security 
        Contract Spending and the Supporting Industrial Base'' report 
        release presentation with Guy Ben-Ari, http://csis.org/event/
        us-department-homeland-security-contract-spending-and-
        supporting-industrial-base-0, CSIS, Washington, DC
         October 16, 2012, Panel Moderator ``Program Budgets: Fiscal 
        Years 2013-2015 Global Look Ahead'' With Rob Jenkins (OTI, 
        USAID), Chuck Call (State), Moshe Schwartz (CRS), 2012 ISOA 
        (lnt'I Stability Operations Association) Annual Summit, 
        Washington, DC
         October 15, 2012, ``Asia Defense Spending Report'' report 
        release presentation with Guy Ben-Ari and Joachim Hofbauer, 
        http://csis.org/event/asian-defense-spending-report-roll-out, 
        CSIS, Washington, DC
         October 12, 2012, ``U.S. Force Posture Strategy in the Asia 
        Pacific Region'', Professional Military Education session, 
        Joint Staff J-8 Deputy Directorate for Force Management, 
        Application and Support, Arlington, VA
         October 3, 2012, ``Asia Pacific Strategy and Its Implications 
        for the U.S. Army'', Army G-8 Annual Symposium, The Clubs, U.S. 
        Marine Corps Base, Quantico, VA
         September 24, 2012 ``U.S. Forward Presence in the Asia-Pacific 
        Region'' presentation on ``CSIS Independent Assessment of U.S. 
        Force Posture Strategy in the Asia-Pacific Region'' with 
        Michael Green, http://csis.org/evenVus-forward-presence-asia-
        pacific-region, CSIS, Washington, DC
         September 18, 2012 ``DOD Contract Trends'' report release 
        presentation with Guy Ben-Ari and Greg Sanders, http://
        csis.org/even/dod-contract-trends-report-release, CSIS, 
        Washington, DC.
         September 6, 2012, Panel Presentation ``Where Do We Go From 
        Here? Options for Congress and the Department of Defense'', 
        Moshe Schwartz, Moderator, With Jacques Gansler and GiL Decker, 
        DAU-CRS Conference ``25 Years of Acquisition Reform: Where Do 
        We Go From Here?'', Washington, DC
         August 2, 2012, ``Press Briefing: Report on U.S. Force Posture 
        in Asia-Pacific'' with Michael Green, http://csis.org/event/
        press-briefing-report-us-force-posture-asia-pacific, 
        (transcript available), CSIS, Washington, DC
         July 26, 2012, ``Contract Spending by the Department of State 
        and the U.S. Agency for International Development'', Report 
        Release and Briefing, with Guy Ben-Ari and Dan Runde, http://
        csis.org/event/report-launch-contract-spending-department-
        state-and-us-agency-international-development, CSIS, 
        Washington, DC
         May 2, 2012, ``0bligations of Leadership'' case study with Ron 
        Fogleman, National Security Management Program, Syracuse, NY
         February 16, 2012, Panel ``The New Budget Environment'' with 
        Steve Miller, Dale Johnson, and Doug Meade, DODCAS, 
        Williamsburg, VA
         February 15, 2012 ``Defense Industrial Base Implications of 
        the Fiscal Year 2013 Budget'' with Brett Lambert and Byron 
        Callan, http://csis.org/event/defense-industrial-base-
        implications-fy13-budget, CSIS, Washington, DC
         February 13, 2012, Panel Moderator on ``Identifying, 
        Prioritizing, and Coordinating Necessary Maritime 
        Capabilities'' with Michael Kostelnik CPB. VADM John Blake USN. 
        and VADM John Currier USCG, CSIS Conference on ``Maritime 
        Security: Confronting New and Non-Traditional Challenges in the 
        Age of Austerity'', Washington, DC
         January 27, 2012,``Implications of the Fiscal Year 2013 
        Defense Budget'' with Todd Harrison, Clark Murdock, and 
        Stephanie Sanok http://csis.org/event/implications-fy13-
        defense-budget, CSIS, Washington, DC
         December 2, 2011, ``Deficits, Defense. and the Industrial 
        Base--What's Next?'' with Gordon Adams, Jim Dyer. and Doug 
        Holtz-Eakin, http://csis.org/event/deficits-defense-and-
        industrial-base-whats-next, CSIS, Washington, DC
         November 29, 2011, Panel Chair for ``Resource Issues'', 
        ``Economics, Politics and Security of China and U.S.'' 
        conference, University of Maryland, College Park, MD
         November 23, 2011, ``U.S. Federal Services Industrial Base 
        Report Release'' with Guy Ben-Ari and Greg Sanders, http://
        csis.org/event/us-federal-services-industrial-base-report-
        release, CSIS, Washington, DC
         October 13, 2011, ``Future Defense Challenges'' Panel on CSIS 
        Report ``U.S. Ground Force Capabilities Through 2020'', With 
        General John Sheehan, Kim Wincup, and Nathan Freier, http://
        csis.org/event/future-defense-challenges, CSIS, Washington, DC
         October 3, 2011, Panel Member on ``An Industry SWOT 
        (Strengths, Weaknesses, Opportunities, and Threats)''--with 
        Charles Rosotti, Moderated by Anne Reed, 2011 Annual 
        Conference, Professional Services Council, Greenbriar, VA
         September 29, 2011, Panel Member, ``Domestic Implications of a 
        Defense Drawdown'', with Steve Grundman and Todd Harrison, 
        Conference on ``Defense in an Age of Austerity'' http://
        csis.org/event/defense-age-austerity (for audio, video), http:/
        /csis.org/files/attachments/110929--panel3--transcript.pdf 
        (Panel Transcript), CSIS, Washington, DC
         July 29, 2011, European Defense Trends, with Julianne Smith, 
        http://csis.org/event/european-defense-trends, CSIS, 
        Washington, DC
         July 21, 2011, ``DHS Contract Spending and the Supporting 
        Industrial Base'' Report Presentation and Briefing, With Guy 
        Ben-Ari, CSIS, Washington, DC
         July 15, 2011, Panel Speaker ``The Present and Potential 
        Future of the National Security Industrial Base'' Peter Singer, 
        Moderator, with Tom Davis, Brookings, Washington, DC
         June 8, 2011, ``Lessons from the Last Budget Drawdown'' Global 
        Security Forum 2011 http://csis.org/event/global-security-
        forum-2011-lessons-last-budget-drawdown (audio/video), http://
        csis.org/files/attachments/110608--budget--drawdown--
        transcript.pdf (transcript), Willard Hotel, Washington, DC
         May 20, 2011, ``A Diminishing Transatlantic Partnership? The 
        Impact of the Financial Crisis on European Defense and Foreign 
        Assistance Capabilities'' with Heather Conley and Steve 
        Flanagan, http://csis.org/event/diminishing-transatlantic-
        partnership, CSIS, Washington, DC
         May 17, 2011, ``Workforce Cost Realism Assessment Report 
        Release'', http://csis.org/event/workforce-cost-realism-
        assessment-report-release, CSIS, Washington, DC
         May 12, 2011, ``Cost and Time Overruns in Major Defense 
        Acquisition Programs'' on Panel #14, Major Programs: The Good, 
        the Bad, and the Ugly, Jim Thomsen, chair, NPS Acquisition 
        Symposium, Seaside, CA
         May 11, 2011, ``Shipbuilding: Global vs. National, Military 
        vs. Commercial'' on Panel #7, Global Influences and the Defense 
        Industrial Base, John Birkler, chair, NPS Acquisition 
        Symposium, Seaside, CA
         May 6, 2011, ``Defense Contract Trends'' with Guy Ben-Ari 
        http://csis.org/event/dod-contract-spending-and-supporting-
        contractor-base, CSIS, Washington, DC
         March 29, 2011, National Journal's ``Insiders Conference''--
        Panel discussion on ``The Defense Budget and Future Force 
        Structure'', Grand Hyatt Washington, Washington, DC
         March 22, 2011, ``The True Cost of Government Performance'', 
        Professional Services Council Marketview 2011 Spring 
        Conference, Phoenix, AZ
         March 17, 2011, ``DOD's Better Buying Efficiency Initiative'', 
        Defense Intelligence Acquisition Conference, Miami, FL
         February 24, 2011, ``Emerging Federal Contract Policy and 
        Practice Issues'' with Steve Schooner, West Government 2010 
        Contracts Year in Review Conference, Omni Shoreham Hotel, 
        Washington, DC
         February 23, 2011 ``Roundtable Discussion III: Transatlantic 
        Industrial, Regulatory and Acquisition Policies In the Security 
        Sector'' with Rick Nelson and Jean-Pierre Darnis, Conference on 
        Enhancing Euro-Atlantic Security Amid Uncertain Times: EU-U.S. 
        Security Strategies and Recommendations, http://csis.org/event/
        enhancing-euro-atlantic-security-amid-uncertain-times-eu-us-
        security-strategies-and-recommenda, CSIS, Washington, DC
         February 16, 2011, ``Implications of the Fiscal Year 2012 
        Defense Budget'' with Maren Leed and Clark Murdock, http://
        csis.org/event/implications-fy12-defense-budget, CSIS, 
        Washington, DC
         February 15, 2011, via Video Teleconference, Panel Member on 
        General Session on Budget With George Schlossberg, Dan Else, 
        and Brian Polly, Association of Defense Communities, San 
        Antonio, TX
         January 26, 2011, ``U.S. Department of Defense Contract 
        Spending and the Industrial Base'' with Guy Ben-Ari, http://
        csis.org/event/us-department-defense-contract-spending-and-
        supporting-contractor-base, CSIS, Washington, DC
         December 9, 2010, Panel Member: ``The Federal Budget and the 
        Economy'', Steve Schooner, Moderator, with Matthew Blum and 
        Karen Wilson, National Contract Management Association, 
        Washington, DC, Chapter, Arlington, VA
         December 3, 2010, ``Department of Defense Cost Saving 
        Initiative'', with Brett Lambert, 2010 Nash & Cibinic 
        Roundtable, Washington, DC
         November 16, 2010, Panel Chair: ``Defense Industrial Base and 
        U.S. Competitiveness: Implications for the Manufacturing Base 
        and U.S. National Security'', http://csis.org/event/defense-
        industrial-base-and-us-competitiveness-implications-
        manufacturing-base-and-us-national, CSIS, Washington, DC
         November 15, 2010, ``Report Rollout: U.S. Federal Professional 
        Services Industrial Base'', http:l/csis.org/event/report-
        rollout-us-federal-professional-services-industrial-base (audio 
        only, no video), CSIS, Washington, DC
         November 5, 2010 ``Report Rollout: European Defense Trends'' 
        with Jim Townsend, http://csis.org/evenUreport-rollout-
        european-defense-trends, CSIS, Washington, DC
         October 5, 2010 Panel Member, Executive Roundtable on ``X-
        treme Supply Chain Volatility'', University of Maryland Robert 
        H Smith School of Business, Ronald Reagan Building, Washington, 
        DC
         August 24, 2010, Panel Chair: ``The Economic Element of 
        National Power'', Conference on Economic Security: Neglected 
        Dimension of National Security?, NDU, Washington, DC
         July 27, 2010 ``Delivering Better Acquisition Value: 
        Conversations with Industry: Session Two'' with Brett Lambert, 
        DASO (Manufacturing and Industrial Base Policy). http://
        csis.org/event/delivering-better-acguisition-value-
        conversations-industrv-session-two, CSIS, Washington, DC
         July 26, 2010, ``Report Release: National Security and the 
        Commercial Space Sector'' with Greg Kiley, http://csis.org/
        event/report-release-national-security-and-commercial-space-
        sector, CSIS, Washington, DC
         July 19, 2010, General Session Panel Member: ``Economic 
        Outlook 2010 and Beyond: How the Transformed Global Economy 
        Will Impact How We Do Business'', National Contract Management 
        Association World Congress, Ft. Lauderdale, FL
         July 15, 2010, ``Delivering Better Acquisition Value: 
        Conversations with Industry'' with Brett Lambert, DASD 
        (Manufacturing and Industrial Base Policy). http://csis.org/
        event/delivering-better-acquisition-value-conversations-
        industry, CSIS, Washington, DC
         May 26, 2010, ``Weapon Systems Acquisition Reform Act (WSARA) 
        2009 Progress Report'' http://csis.org/eventiweapon-systems-
        acquisition-reform-act-wsara-2009-progress-report, CSIS, 
        Washington, DC
         April 30, 2010, ``Draft Report Release: National Security and 
        the Commercial Space Sector'' with Greg Kiley, http://csis.org/
        event/national-security-and-commercial-space-sector, CSIS, 
        Washington, DC
         April 2, 2010, Host Speaker ``Defense Logistics Modernization 
        and Information Systems of the 21st Century'', http://csis.org/
        event/defense-logistics-modernization, Center for Strategic and 
        International Studies, Washington, DC
         March 22, 2010, Opening Plenary Session Speaker ``The 
        Quadrennial Defense Review: Implications for Contractors'', 
        ``Outlook 2010: The Federal Logistics, Sustainment, and 
        Installations Markets'', Professional Services Council Spring 
        Conference, Camelback Inn, Scottsdale, AZ
         March 17, 2010, ``Agricultural Development in Iraq and 
        Afghanistan: Recent Lessons Learned'', Conference on Closing 
        the Gap: Examining an Alternative Future: Linkages Between 
        Adequate Food Supply and Global Security, National Press Club, 
        Washington, DC
         March 10, 2010, ``How the QDR Addresses the Need to Preserve 
        and Enhance the Force in Equipment and Support'', National 
        Defense University Conference on Quadrennial Defense Review 
        2010, NDU, Washington, DC
         February 23, 2010, ``Defense Update'' with George Schlossberg, 
        Association of Defense Communities Winter Forum 2010, 
        Albuquerque, NM
         February 18, 2010, ``Emerging Federal Contract Policy and 
        Practice Issues'' with Steve Schooner, West Government 2009 
        Contracts Year in Review Conference, SSRN: http://ssrn.com/
        abstract=1562842, Omni Shoreham Hotel, Washington, DC
         February 17, 2010, Chair of Plenary Session Panel on the 
        Purpose and Goals of Weapon System Acquisition Reform Act 2009, 
        DOD Cost Analysis Symposium, Williamsburg, VA
         February 5, 2010 ``Industrial Base Impact of the Quadrennial 
        Defense Review 2010''--Panel Moderator and Speaker, with Brett 
        Lambert, Byron Callan, Jeff Bialos, and Stan Soloway, http://
        csis.org/event/industrial-base-impact-quadrennial-defense-
        review, Center for Strategic and International Studies, 
        Washington, DC
         February 2, 2010, ``2010 QDR: An In-Depth Initial 
        Appraisal''--Panel Speaker, http://csis.org/event/2010-
        quadrennial-defense-review, Center for Strategic and 
        International Studies, Washington, DC
         February 1, 2010, ``CSIS Press Briefing Conference Call: The 
        Quadrennial Defense Review'', Transcript: http://csis.org/
        files/attachments/100201--csis--qdr.pdf, CSIS, Washington, DC
         December 16, 2009, ``Anticipating the Quadrennial Defense 
        Review 2010'', Macquarie Defense Industry Conference, 
        Arlington, VA
         November 3, 2009, ``Strengthening National Defense'', NAPA 
        JLUS Report Release, 2009 Defense Community Conference 
        ``Partnering for Success'', Orlando, FL
         September 16, 2009, ``Insourcing, Budgets, and Contracts'' CFO 
        Dinner, ExecutiveBiz, McLean, VA
         September 3, 2009, ``CSIS Complexity Project--Phase II 
        Organizing for a Complex World: The Way Ahead'', Presentation: 
        http://csis.org/files/attachments/090903--complexity--
        presentation.pdf, CSIS, Washington, DC
         August 3, 2009, Keynote Speaker Annual Conference of the 
        Association of Defense Communities, Boston, MA
         July 28, 2009, Luncheon Speaker, DHS Acquisition Seminar, Ft. 
        Belvoir, VA
         May 20, 2009, ``Managing the Future of DOD Acquisition'', DOD 
        Business Managers Conference, Ft. Belvoir, VA
         April 23, 2009, Panel Moderator, ``Strategic Framework, 
        Requirements, and Industrial Base'', TacAir Issues Series: F-
        22, with Rebecca Grant, Gregory Martin, and John Nathman, 
        http://csis.org/event/tacair-issues-series-f-22, CSIS, 
        Washington, DC
         February 25, 2009, ``Transitioning Defense Organizational 
        Initiatives'', Association of Old Crows, Capitol Hill 
        Conference, Washington, DC
         February 17, 2009, ``Emerging Federal Contract Policy and 
        Practice Issues'' with Steve Schooner, West Government 2008 
        Contracts Year in Review Conference, Omni Shoreham Hotel, 
        Washington, DC
         February 10, 2009, Panel Member, ``Smart Stimulus?: Potential 
        ramifications for recovery, reinvestment, trade, security and 
        U.S. global leadership'' http://csis.org/event/smart-stimulus-
        potential-ramifications-recovery-reinvestment-trade-security-
        and-us-global-lead, CSIS, Washington, DC

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  David J. Berteau.
    This 19th day of November, 2014.

    [The nomination of Mr. David J. Berteau was reported to the 
Senate by Chairman Levin on December 9, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 16, 2014.]
                              ----------                              

    [Prepared questions submitted to Ms. Alissa M. Starzak by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe that Goldwater-Nichols and other reforms 
significantly improved interservice and joint relationships within the 
Department of Defense (DOD). At this time, I am unaware of any need to 
amend Goldwater-Nichols. However, if I am confirmed and become aware of 
a need, I will recommend any changes I believe to be warranted through 
the established process.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. As noted above, I am not aware of any need to amend 
Goldwater-Nichols.
                                 duties
    Question. What is your understanding of the duties and functions of 
the General Counsel of the Department of the Army?
    Answer. The duties and functions of the General Counsel of the Army 
are determined and assigned by the Secretary of the Army. The General 
Counsel provides legal advice to the Secretary of the Army, the Under 
Secretary, the Assistant Secretaries, and other offices within the Army 
Secretariat and serves as the chief legal officer of the Department of 
the Army responsible for determining the controlling legal positions of 
the Department. I understand that the General Counsel's 
responsibilities extend to any matter of law and to other matters as 
directed by the Secretary, to include overseeing matters in which the 
Army is involved in litigation, taking final action on certain claims 
filed against the Army, providing professional guidance to the Army's 
legal community, and establishing and administering the Army's policies 
concerning legal services.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Because of the broad nature of the duties and 
responsibilities of the office, the Army General Counsel must not only 
have good judgment and legal skills, but also the ability to build 
strong relationships and work collaboratively with individuals in the 
Army, across the executive branch, and in Congress. I believe my 
experience, both inside and outside DOD, has prepared me for this role.
    After receiving a Bachelor of Arts degree, magna cum laude, from 
Amherst College, I attended the University of Chicago Law School, where 
I was an editor on the Law Review and graduated with honors. After 
graduation, I served as a law clerk to the Honorable E. Grady Jolly, on 
the U.S. Court of Appeals for the Fifth Circuit in Jackson, 
Mississippi. I subsequently moved to Washington, D.C., to practice law 
at the law firm of O'Melveny and Myers, where I focused on compliance, 
corporate investigations and white collar defense. In 2005, I joined 
the Office of General Counsel at the Central Intelligence Agency, 
before becoming a counsel on the Senate Select Committee on 
Intelligence in 2007. I currently serve as a Deputy General Counsel in 
the DOD Office of General Counsel, working on a variety of legal issues 
related to Congress, including issues directly related to the Army. I 
believe that this legal and practical experience--in three branches of 
government--will serve me well in addressing the wide range of issues 
that will face the Department of the Army.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the General Counsel of 
the Department of the Army?
    Answer. I am confident that I have the necessary legal and 
professional experience, analytic skills, and leadership abilities to 
be the General Counsel of the Department of the Army. If I am 
confirmed, I will establish and maintain close and professionally 
cooperative relationships with the talented and dedicated attorneys in 
the Office of the General Counsel, with The Office of The Judge 
Advocate General of the Army, and with other offices dealing with 
matters of mutual interest in order to provide the best possible legal 
services to all members of the Department of the Army.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. If I am confirmed, I will be ready to execute the 
responsibilities of the General Counsel set forth in the General Order 
prescribing the duties of each principal officer of Headquarters, 
Department of the Army. In addition to these duties, I anticipate that 
the Secretary of the Army will expect me to manage the Office of 
General Counsel efficiently and effectively, ensuring that it provides 
accurate and timely legal advice. I also anticipate that the Secretary 
will expect me to work collaboratively with The Judge Advocate General, 
the General Counsels of DOD, the other military departments, and the 
defense agencies, and the legal staff of other Federal agencies.
    Question. In carrying out your duties, how will you work with the 
General Counsel of DOD?
    Answer. While the General Counsels of the Army, Navy and Air Force 
serve as the chief legal officers of their respective departments, the 
General Counsel of DOD is the chief legal officer and final legal 
authority for the entire DOD. If confirmed, I intend to continue the 
close professional relationship I have with Mr. Stephen Preston, the 
General Counsel of DOD, by meeting regularly and collaboratively 
working in furtherance of the best interests of DOD.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the General Counsel of the Department of the Army?
    Answer. The General Counsel of the Department of the Army must 
provide accurate and timely legal advice on the full spectrum of 
matters that arise in the Army. In a time of shrinking budgets, the 
General Counsel will be confronted with significant legal matters 
related to balancing and transitioning the Army. In addition, I expect 
that the General Counsel will confront significant challenges related 
to the prevention of, and response to, sexual assault, military and 
civilian personnel policies, acquisition, and compliance with 
environmental law.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I plan to prioritize legal issues consistent 
with the Secretary of the Army's priorities, and to work closely with 
the Secretary, the Chief of Staff, The Judge Advocate General, and the 
attorneys in the Office of the General Counsel to provide timely, 
accurate, and candid legal advice. If confirmed, I will also ensure 
that the Office of the General Counsel is appropriately resourced and 
staffed to address those priorities.
    Question. What do you see as the most significant legal issues the 
Army will face in the coming year?
    Answer. In an environment of declining resources, the Army is 
facing difficult policy choices and a period of significant transition. 
Those efforts to rebalance and reform the Army will invariably involve 
significant legal questions. Although it is difficult to predict 
exactly what other significant legal issues will arise in the coming 
year, if confirmed, I will work closely with the talented team of 
attorneys and judge advocates in the Office of the General Counsel to 
address those issues.
    Question. Does the Army Office of the General Counsel have the 
resources to deal with these problems?
    Answer. At this time, I believe the Office of the General Counsel 
has the resources needed to address the many difficult legal issues 
confronting the Army today. If I am confirmed, I will be in a better 
position to evaluate this important management and leadership issue.
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Office of the General Counsel of 
the Department of the Army?
    Answer. If confirmed, I plan to carefully examine the structure and 
functioning of the Office of General Counsel to ensure that it 
continues to appropriately address the needs of the Army as changes are 
made to the Army's operating framework. To provide high-quality, timely 
legal advice, the Army legal community must be integrated into the 
broader Army community and involved at all stages of the decisionmaking 
process. If confirmed, I also intend to carefully review programs for 
attorney recruitment and retention to ensure that the Office has the 
skills and capacity to address the challenges of the future.
                             relationships
    Question. What is your understanding of the formal and informal 
relationship between the General Counsel of the Army and the following 
offices?
    The General Counsel of the Department of Defense.
    Answer. I understand that the General Counsel of DOD, Mr. Stephen 
Preston, has worked closely with the general counsels of the military 
departments. If confirmed, I intend to continue the professional 
relationship I have with Mr. Preston, which will include routine 
consultation, communication, and cooperation on matters of mutual 
interest, furthering the best interests of the Department of the Army 
and DOD.
    Question. The Secretary of the Army.
    Answer. As the head of the Department of the Army, the Secretary of 
the Army is responsible for all affairs of the Department. If 
confirmed, my primary responsibility will be to provide the Secretary 
with clear, concise, and correct legal advice and counsel, and to 
perform the duties and functions he has assigned. In order to execute 
these responsibilities to the highest standard, I intend to establish a 
strong relationship with the Secretary of the Army that will enhance my 
ability to communicate with him directly and candidly on all matters.
    Question. The Chief of Staff of the Army.
    Answer. The Chief of Staff of the Army is the senior military 
officer of the Department of the Army and a member of the Joint Chiefs 
of Staff. The Chief of Staff is directly responsible to the Secretary 
of the Army on all matters except those related to his role as a member 
of the Joint Chiefs of Staff. If confirmed, I will work closely with 
The Judge Advocate General to continue the excellent relationship 
between the Army General Counsel, the Chief of Staff, and the Army 
Staff.
    Question. The Assistant Secretaries of the Army.
    Answer. I understand that the five Assistant Secretaries of the 
Army perform the duties and responsibilities assigned to them in 
statute and prescribed by the Secretary of the Army. In broad terms, 
the Assistant Secretaries formulate and oversee policies and programs 
within their functional areas. As the chief legal officer of the 
Department of the Army, the General Counsel is responsible for 
providing legal advice, counsel, and guidance to the Assistant 
Secretaries and their staffs. If confirmed, I will seek to establish 
strong, productive relationships with each of the Assistant Secretaries 
and ensure that the Office of the General Counsel continues to provide 
timely and correct legal advice to their respective staffs.
    Question. The Judge Advocate General of the Army.
    Answer. In coordination with the Army General Counsel, I understand 
The Judge Advocate General serves as military legal advisor to the 
Secretary of the Army and the primary legal advisor to the Chief of 
Staff of the Army, members of the Army Staff, and members of the Army 
generally. Additionally, I recognize that The Judge Advocate General 
has the primary responsibility for providing legal advice and services 
regarding the Uniform Code of Military Justice (UCMJ) and the 
administration of military discipline. A close, professional 
relationship between the civilian and uniformed members of the Army's 
legal community is critical. If confirmed, I will work collaboratively 
with The Judge Advocate General to provide the best possible legal 
support to the Army.
    Question. The Inspector General of DOD.
    Answer. The Inspector General of DOD is responsible for advising 
the Secretary of Defense on criminal investigative matters and all 
other matters relating to the prevention and detection of fraud, waste, 
and abuse within DOD. If confirmed, I will work with the Inspector 
General of DOD on matters related to the Department of the Army to 
ensure that Army interests are fully and fairly represented and to 
ensure Army actions taken as a result of DOD Inspector General 
recommendations are executed in compliance with applicable law, 
directives, and regulations.
    Question. The Inspector General of the Army.
    Answer. The Inspector General of the Army reports directly to the 
Secretary of the Army regarding the discipline, efficiency, and economy 
of the Army, and on other matters specifically assigned by the 
Secretary. If confirmed, I anticipate maintaining a close and 
professional relationship with The Inspector General to ensure that he 
and his staff have the legal advice and support they require for 
mission success.
    Question. The General Counsels of the other military departments.
    Answer. Like the General Counsel of the Army, the General Counsels 
of the other military departments serve and act under the authority, 
direction, and control of the Secretaries of their respective 
Departments. If confirmed, I would expect to work closely with them on 
matters of mutual interest. I know that the General Counsel of DOD, Mr. 
Preston, facilitates this effort in order to best use the legal 
services across DOD. I look forward to participating in this effort.
    Question. The Attorney General and the Department of Justice.
    Answer. The Attorney General is the chief legal officer of the 
executive branch and may issue controlling guidance on certain legal 
issues. I also know the Attorney General and the Department of Justice 
represent the Department of the Army in litigation before Federal 
district courts and State courts. I view a strong relationship between 
the Army and the Department of Justice to be critical to success, and 
if confirmed, I will work in conjunction with The Judge Advocate 
General and the General Counsel of DOD to ensure the continuation of 
the Army's current cooperative relationship with the Attorney General 
and the Department of Justice.
              relationship with the judge advocate general
    Question. In carrying out your duties if you are confirmed, how 
will you work with the Judge Advocate General of the Army?
    Answer. It is essential that the Army General Counsel maintain a 
close and cooperative relationship with The Judge Advocate General. A 
productive and positive relationship sets the tone and the direction 
for the effective delivery of legal services to the Army at all 
echelons. I know The Judge Advocate General shares this view, and if 
confirmed, we will work together to ensure the Offices of the General 
Counsel and The Judge Advocate General work closely together in the 
spirit of teamwork to deliver the best possible legal services to the 
members of the Army.
    Question. How are the legal responsibilities of the Department of 
the Army allocated between the General Counsel and the Judge Advocate 
General?
    Answer. The Army General Counsel serves as the chief legal officer 
for the Department of the Army. As a component of the Army Secretariat, 
the Office of the Army General Counsel is charged to provide advice to 
the Secretary of the Army and other Secretariat officials on any 
subject of law and on other matters as directed by the Secretary of the 
Army. The Army General Counsel is authorized to provide the controlling 
legal opinion in any matter for the Army. The Judge Advocate General is 
the chief legal advisor to the Chief of Staff of the Army, members of 
the Army Staff, and members of the Army generally. In coordination with 
the Army General Counsel, The Judge Advocate General serves as the 
military legal advisor to the Secretary of the Army. The law prohibits 
interference with the ability of The Judge Advocate General to provide 
independent legal advice to the Secretary of the Army, which I fully 
support. The Judge Advocate General provides supervision over the 
delivery of a wide-range of legal services across the Army. The Judge 
Advocate General also has primary responsibility for providing legal 
advice and services regarding the UCMJ and the administration of 
military discipline. The Offices of the Army General Counsel and The 
Judge Advocate General have a well-developed and supportive working 
relationship in their respective responsibilities. If confirmed, I will 
work to continue this productive partnership for the benefit of the 
Army.
    Question. If confirmed, how would you ensure that legal opinions of 
your office will be available to Army attorneys, including judge 
advocates?
    Answer. I understand the respective offices of the General Counsel 
and The Office of The Judge Advocate General have a longstanding 
routine and cooperative working arrangement. Open lines of 
communication and collaboration are essential to ensure legal views and 
opinions issued by the Office of the Army General Counsel and the 
Office of The Judge Advocate General are readily available to all Army 
attorneys, both civilian attorneys and judge advocates. If confirmed, I 
will support this relationship in a positive manner.
    Question. In response to attempts within DOD to subordinate legal 
functions and authorities of the Judge Advocates General to the General 
Counsels of DOD and the Military Services, Congress enacted legislation 
prohibiting any officer or employee of DOD from interfering with the 
ability of the Judge Advocates General of the Military Services and the 
legal advisor to the Chairman of the Joint Chiefs of Staff to provide 
independent legal advice to the Chairman, Service Secretaries, and 
Service Chiefs.
    What is your view of the need for the Judge Advocate General of the 
Army to have the authority to provide independent legal advice to the 
Secretary of the Army and the Chief of Staff of the Army?
    Answer. I believe it is essential that the expertise of The Judge 
Advocate General be available to the Secretary of the Army and the 
Chief of Staff of the Army. I fully support the law, in both principle 
and in spirit, empowering The Judge Advocate General of the Army to 
provide independent legal advice honed by years of experience and 
informed judgment on military affairs to the Secretary of the Army and 
the Chief of Staff of the Army.
    Question. What is your view of the responsibility of Army judge 
advocates to provide independent legal advice to military commanders?
    Answer. Army commanders are charged with the responsibility to 
maintain discipline and to ensure the lawful conduct of the forces 
under their control, in addition to the proper functioning of their 
unit or organization. Army Judge Advocates at all levels provide 
valuable aid to commanders and leaders to maintain discipline and to 
help avoid a myriad of legal pitfalls in the day-to-day business of 
command. A Judge Advocate's ability to provide candid legal advice to a 
commander and staff, both openly and in confidence as needed, is 
absolutely critical. Army commanders need and deserve the best legal 
advice and judgment available. This is best achieved when Judge 
Advocates are empowered to provide commanders with independent legal 
advice, supported by appropriate guidance from supervising attorneys.
    Question. If confirmed, would you propose any changes to the 
current relationships between the uniformed judge advocates and the 
Army General Counsel?
    Answer. If confirmed, I will always look for opportunities to 
improve and to strengthen the relationships between the uniformed judge 
advocates and the staff of the Office of the General Counsel. At this 
time, I am not aware of any need for change, and my understanding is 
that the current relationship works well.
    Question. Are legal opinions of the Office of the Army General 
Counsel binding on all Army lawyers?
    Answer. Because the Army General Counsel is the chief legal officer 
for the Department of the Army as directed by the Secretary of the 
Army, legal opinions issued by the Office of the Army General Counsel 
are controlling throughout the Department of the Army. As a general 
matter, however, I understand that opinions are typically drafted in 
collaboration with The Judge Advocate General. If confirmed, I would 
ensure that significant legal opinions are informed by the expertise of 
both civilian attorneys and judge advocates.
    Question. How will you ensure that such legal opinions are 
available to Army lawyers?
    Answer. Written opinions of the Office of the General Counsel for 
the Department of the Army are distributed in the ordinary course of 
business, using normal departmental distribution processes. If 
confirmed, I expect to continue this practice.
    Question. If confirmed, are there specific categories of Army 
Counsel legal opinions that you expect to reconsider and possibly 
revise? If so, what categories?
    Answer. I am not aware of any specific categories of Army General 
Counsel legal opinions in need of reconsideration or revision. If 
confirmed, however, as the need arises, I would review opinions 
warranting revision consistent with contemporary law in consultation 
with the appropriate attorneys and subject matter experts within the 
Army and elsewhere as appropriate.
    Question. Article 6 of the UCMJ gives primary jurisdiction over 
military justice to the Judge Advocates General of the Army, Navy, and 
Air Force.
    How do you view the responsibilities of the Army General Counsel in 
the performance of military justice matters with regard to the Judge 
Advocate General of the Army?
    Answer. The Judge Advocate General's responsibilities to ensure the 
proper administration of the military justice system require direct and 
independent advice to the Secretary of the Army. If confirmed, I look 
forward to supporting The Judge Advocate General on military justice 
matters with consultation, advice, and assistance, as needed.
                attorney recruiting and retention issues
    Question. If confirmed, how do you assess your ability to hire and 
retain top quality attorneys and provide sufficient opportunity for 
advancement?
    Answer. I believe my background and experience have prepared me to 
meet the challenges of recruiting and retaining top quality attorneys 
and providing meaningful and rewarding opportunities for those 
attorneys to advance. Nevertheless, I believe the Army will face 
significant challenges in the coming years as we compete with the 
private sector and other Federal employers for quality attorneys, while 
shrinking resources will force us to demand more from the highly 
qualified attorneys we already have. If confirmed, I will work to 
ensure the Army allocates sufficient resources to attract and select 
only the best qualified candidates for military and civilian attorney 
positions. In doing so, I will work closely with the Office of The 
Judge Advocate General to retain the best attorneys to provide first-
rate legal services to the Army, its commanders, soldiers, and family 
members.
    Question. In your view, does the Department of the Army have a 
sufficient number of civilian and military attorneys to perform its 
missions?
    Answer. My understanding is the Army General Counsel has a 
sufficient number of civilian attorneys to perform its mission, and the 
Judge Advocate General's Corps (JAG) has enough military and civilian 
attorneys to meet its current requirements. To address emerging 
requirements, however, including special victim capabilities (required 
by the National Defense Authorization Act for Fiscal Year 2013) and 
special victim counsel (required by the National Defense Authorization 
Act for Fiscal Year 2014), the Army JAG Corps is planning to grow. 
Recognizing that as the Army draws down, legal support requirements may 
increase, I will closely monitor these emerging requirements and ensure 
they are resourced appropriately.
    Question. In your view, what incentives to successful recruiting 
and retention of attorneys, if any, need to be implemented or 
established?
    Answer. I understand the legal market is projected to become 
increasingly competitive over the next several years, with fewer 
students graduating from law school and a likely increase in hiring by 
private sector law firms. In my view, it is crucial that the Army renew 
our commitment to funding current incentive programs, like student loan 
repayment and career retention bonuses, notwithstanding the current 
fiscal challenges. These programs are needed to attract and retain the 
highest quality attorneys.
                            detainee issues
    Question. What role do you expect to play, if confirmed, in 
addressing legal issues regarding detainees?
    Answer. Although issues relating to the treatment of detainees most 
often arise in combatant commands, there are many Army judge advocates 
serving in those combatant commands, and the General Counsel of the 
Army may in some circumstances have an appropriate role in assisting 
those judge advocates with legal issues regarding detainees.
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the U.S. Government, regardless of 
nationality or physical location, shall be subject to cruel, inhuman, 
or degrading treatment or punishment.
    In your view, is the section 1403 prohibition in the best interest 
of the United States? Why or why not?
    Answer. Yes, I believe this prohibition is in the best interest of 
the United States and is fully consistent with protecting our national 
security.
    Question. Do you believe that the phrase ``cruel, inhuman, or 
degrading treatment or punishment'' has been adequately and 
appropriately defined for the purpose of this provision?
    Answer. The Detainee Treatment Act of 2005 and the Military 
Commissions Act of 2009 define ``cruel, inhuman, or degrading treatment 
or punishment'' as the cruel, unusual, and inhumane treatment or 
punishment prohibited by the Fifth, Eighth, and Fourteenth Amendments 
to the U.S. Constitution. I think this definition provides a clear 
standard for ensuring that detainees in the custody of the U.S. 
Government are treated in a humane manner.
    Question. What role do you believe the General Counsel of the Army 
should play in the interpretation of this standard?
    Answer. The General Counsel should play an independent role in 
advising the Secretary of the Army and those who fall under his command 
on the standards governing the treatment of persons detained by the 
U.S. Army, including any interpretation of this legal standard.
    Question. What role do you believe the Judge Advocate General of 
the Army should play in the interpretation of this standard?
    Answer. The Judge Advocate General of the Army should be intimately 
involved in the interpretation of legal standards governing the 
treatment of detainees and should provide independent legal advice to 
the Secretary of the Army. The Judge Advocate General and the lawyers 
she leads--many of whom have served multiple deployments--bring 
experience and an important perspective to these and many other 
operational matters. If confirmed, and if called on to offer any 
guidance on this standard, I would expect to work collaboratively with 
The Judge Advocate General to provide clear advice to the field.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes, I support the requirements in revised Army Field 
Manual on Interrogations, FM 2-22.3, issued in September 2006, and DOD 
Directive 2310.01E, reissued on August 14, 2014, that all detainees and 
detained personnel be treated humanely and with respect for their 
dignity.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    In your view, does section 2441 define these terms in a manner that 
provides appropriate protection from abusive treatment to U.S. 
detainees in foreign custody and to foreign detainees in U.S. custody?
    Answer. I believe section 2441 provides an appropriate standard for 
protecting both U.S. detainees in foreign custody and foreign detainees 
held in our custody.
    Question. Section 812 of title 10, U.S.C. states: ``No member of 
the Armed Forces may be placed in confinement in immediate association 
with enemy prisoners or foreign nationals not members of the Armed 
Forces.''
    Consistent with the statute, what recommendations would you provide 
the Secretary of the Army, if confirmed regarding the possible holding 
of foreign detainees at DOD Regional Corrections Facilities and 
Disciplinary Barracks?
    Answer. In the event that the Secretary of the Army sought my 
advice on such a matter, I would ensure that my advice was consistent 
with applicable law, including section 812.
    Question. What types of modifications would be needed at military 
detention facilities to ensure they are compliant with domestic and 
international law as well as meeting the special security 
considerations necessary for the safe detention of foreign law of war 
detainees?
    Answer. At this time, I am not familiar with what modifications, if 
any, would be needed to ensure that a military detention facility 
complies with domestic and international law.
    Question. If confirmed, what recommendations would you have for 
addressing the safety and security of the general public living near 
these facilities?
    Answer. If confirmed, I would defer to law enforcement experts 
about what measures would be necessary to ensure the safety and 
security of the general public living near these facilities, and would 
work closely with them to ensure that safety issues are appropriately 
and lawfully addressed.
    Question. In November 2012, the U.S. Government Accountability 
Office (GAO) published a report titled: Guantanamo Bay Detainees: 
Facilities and Factors for Consideration if Detainees Were Brought to 
the United States. That reported noted that only one DOD facility, the 
U.S. Disciplinary Barracks at Fort Leavenworth, KS, currently holds 
``inmates with sentences exceeding 5 years as well as inmates sentenced 
to death.'' The report also stated: ``in order to conform with 
international law and DOD policies . . . '' detainees are to be 
``protected from public curiosity (for example, pictures of detainees' 
faces are not disseminated publicly).''
    In your view, what steps would need to be taken in the handling of 
law of war detainees in order to comply with international law and DOD 
regulations, including the ``public view'' prohibition raised by GAO?
    Answer. DOD takes seriously its obligation to comply with the 
Geneva Conventions and other legal requirements relating to the 
treatment of detainees, including the requirement not to hold detainees 
out for public curiosity. If confirmed, I would ensure any advice I 
provide regarding law of war detention is consistent with those 
requirements.
       criminal jurisdiction over contractors on the battlefield
    Question. The Military Extraterritorial Jurisdiction Act (MEJA) was 
enacted in 2000 to extend the criminal jurisdiction of the U.S. courts 
to persons employed by or accompanying the Armed Forces outside the 
United States.
    In your view, does MEJA provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I believe that the MEJA of 2000 does provide appropriate 
criminal jurisdiction over contractor employees in areas of combat 
operations. Although these types of prosecutions are rare, MEJA is an 
effective tool to hold contractors and DOD civilian employees 
accountable for serious criminal acts. All people supporting our Armed 
Forces, regardless of their location, should be held accountable for 
their actions, and MEJA can be an effective means of achieving that 
end.
    Question. What changes, if any, would you recommend to MEJA?
    Answer. My understanding is that MEJA is sufficient in its current 
form.
    Question. What role would you expect to play, if confirmed, in 
developing administration recommendations for changes to MEJA?
    Answer. If confirmed, I expect to be actively involved in any 
effort to develop administration recommendations for changes to MEJA. 
Because MEJA applies to civilian personnel working across DOD and its 
contractors, I would certainly work with officials in other agencies 
and military departments on any recommended changes to MEJA.
    Question. Section 552 of the National Defense Authorization Act for 
Fiscal Year 2007 extended criminal jurisdiction of the military courts 
under the UCMJ to persons serving with or accompanying an Armed Force 
in the field during time of declared war or a contingency operation, 
such as our current operations in Afghanistan.
    In your view, does the UCMJ provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Afghanistan and 
other areas of combat operations?
    Answer. Yes. The UCMJ provides appropriate jurisdiction for alleged 
criminal actions of contractor employees in Afghanistan and other areas 
of combat operations. Civilians serving with or accompanying our Armed 
Forces overseas who commit crimes should be held appropriately 
accountable. While it is difficult to prepare for every scenario that 
may arise in a deployed environment, Article 2 of the UCMJ provides a 
means to address the misconduct of civilians accompanying the force in 
areas of combat operations.
    Question. What is your view of the procedures agreed upon by DOD 
and the Department of Justice to reconcile jurisdictional 
responsibilities under MEJA and the UCMJ?
    Answer. If confirmed, I am prepared to examine, from an Army 
perspective, the relationship between the Department of Justice and DOD 
and to give thought to whether it reflects the appropriate balance.
    Question. What changes, if any, would you recommend to the UCMJ to 
ensure appropriate jurisdiction for alleged criminal actions of 
contractor employees?
    Answer. I have no recommendations for any such changes to the UCMJ 
at this time. If confirmed, and if after further review I perceive a 
need, I will recommend any changes I believe to be warranted.
              identification of potential extremist views
    Question. In your view, do current Army policies limit the ability 
to include information about extremist views in official records that 
may assist in the identification of potential threats?
    Answer. No. To my knowledge, current Army policy does not limit the 
ability to include this type of information in official records. The 
Army maintains several types of records that may help identify 
individuals whose extremist views could pose a threat. These official 
records include, but are not limited to, records managed by several 
U.S. Army commands, such as the U.S. Army Human Resources Command, the 
U.S. Army Criminal Investigation Command, and the U.S. Army 
Intelligence and Security Command.
    Question. Do current Army procedures hinder the ability to share 
this type of information with other official agencies charged with 
identifying and monitoring potential extremist or terrorist activities?
    Answer. My understanding is that Army procedures do not prohibit 
sharing this type of information with other official agencies where 
appropriate. Documents collected in official records are available to 
individuals or organizations that have a ``need to know,'' which 
includes appropriate law enforcement agencies.
    Question. What is your understanding of how the Army balances the 
need to identify and respond to potentially harmful extremist views 
held by soldiers against individual privacy and respect for the right 
of soldiers to hold and express personal beliefs?
    Answer. Commanders are responsible for building healthy and 
positive social climates based on dignity and respect for treatment of 
one another, and maintaining good order and discipline. As such, the 
Army emphasizes the exercise of calm and prudent judgment to achieve 
the proper balance between security and the need to preserve a 
Soldier's right of expression. I understand that the Army gives 
commanders discretion and latitude to balance the mission of 
safeguarding the security of the United States while preserving the 
constitutional right of expression.
    Question. Do you see a need for a change in this balance?
    Answer. I do not currently see a need for change, but I am prepared 
to examine this issue if confirmed.
                          religious guidelines
    Question. In your view, do DOD policies concerning religious 
accommodation in the military appropriately accommodate the free 
exercise of religion and other beliefs, including individual 
expressions of belief, without impinging on those who have different 
beliefs, including no religious belief?
    Answer. I believe the Department of the Army and the DOD's policies 
support the goals of religious tolerance and mutual respect. If 
confirmed, in this area as well as other areas, I would ensure all Army 
policies uphold the Constitutional tenets of the Free Exercise and 
Establishment clauses of the First Amendment.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. I have been advised that under current Army policy, when 
participating in mandatory official events, chaplains are not compelled 
to offer prayers that are inconsistent with their personal beliefs or 
faith, but they are expected to remain sensitive to the pluralistic 
Army and society they serve. Given the diversity of religious views in 
the Army, this policy appear to strike the proper balance.
    Question. Section 533 of the National Defense Authorization Act for 
Fiscal Year 2013 (P.L. 112-239), as amended by section 532 of the 
National Defense Authorization Act for Fiscal Year 2014 (P.L. 113-66) 
protects rights of conscience of members of the Armed Forces and 
chaplains and prohibits, so far as possible, use of such beliefs as the 
basis of any adverse personnel action, discrimination, or denial of 
promotion, schooling, training, or assignment. Members of some 
religious denominations have sincerely held beliefs in opposition to 
same-sex marriage.
    In your view, may a member of the Armed Forces who has a sincerely 
held belief in opposition to same-sex marriage be subject to adverse 
personnel action or similar other adverse action, if he or she shares 
those personal views on the subject in a personal capacity?
    Answer. If soldiers wish to express their personal views about this 
issue in an open forum and caveat those as such, it is within their 
right to do so, and they will not be subject to adverse personnel 
action or similar other adverse action for expressing those views. This 
is a fundamental right, and if confirmed, I will ensure that all Army 
policies protect this and similar rights.
         role in the officer promotion and confirmation process
    Question. What is your understanding of the role of the General 
Counsel of the Department of the Army in ensuring the integrity and 
proper functioning of the officer promotion process?
    Answer. I understand the Secretary of the Army is responsible for 
the proper functioning of the Department of the Army's promotion 
selection process. The Army General Counsel is responsible for ensuring 
that the conduct of the board process conforms to all legal 
requirements; this includes reviewing all Memoranda of Instruction and 
selection board reports to ensure they comport with statutory 
standards. The Office of the Army General Counsel works closely with 
the Office of The Judge Advocate General to advise the Secretary of the 
Army of any case in which a selection board report or selection board 
process fails to adhere to the statutory standards and to provide 
counsel on appropriate corrective action.
    Question. Do you see a need for change in this role?
    Answer. I have been advised that the current process is working 
well; however, if I am confirmed and determine that a change is 
necessary and proper, I would work closely with the Assistant Secretary 
of the Army (Manpower and Reserve Affairs), The Judge Advocate General, 
and the Deputy Chief of Staff, G-1, to effect such change. Proper 
execution of this process is essential to maintaining the trust of the 
Army Officer Corps, Congress, and the American people.
                      general officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination for promotion and certain assignments.
    If confirmed, what role, if any, would you play in the officer 
promotion system, particularly in reviewing general officer 
nominations?
    Answer. I have been informed that for all Army officer promotions, 
including general officer promotions, the Office of the Army General 
Counsel, in coordination with The Office of The Judge Advocate General, 
plays an active role in the officer promotion system, to include 
reviewing Memoranda of Instruction that govern the conduct of promotion 
selection boards and subsequent promotion selection board reports.
    Question. What is your understanding of the role of the General 
Counsel of the Department of the Army in ensuring the legal sufficiency 
of statutory selection board processes?
    Answer. I understand the Secretary of the Army is responsible for 
the proper functioning of the Department of the Army's promotion 
selection process. Prior to approval by the Secretary of the Army, all 
Memoranda of Instruction for officer promotion selection boards are 
reviewed by the Office of the Army General Counsel, in coordination 
with the Office of The Judge Advocate General, to ensure the 
Secretary's instructions conform to statutes and accurately reflect his 
guidance regarding attributes necessary for service in the next grade. 
All reports of promotion selection boards are processed through the 
Office of the Army General Counsel prior to final action on the report 
by the Secretary. The Army General Counsel must be satisfied that the 
Army has met applicable statutory standards and that individual 
selection board reports conform to the law. The Army General Counsel 
must advise the Secretary of the Army of any case in which a selection 
board report fails to adhere to the statutory standards, either 
generally or with regard to a particular officer being considered for 
promotion. In advising the Secretary of the Army and the Office of the 
Assistant Secretary of the Army (Manpower and Reserve Affairs), the 
Army General Counsel helps to ensure that Army promotion policies 
properly implement applicable laws and regulations and are fairly 
applied.
    Question. What is the role, if any, of the General Counsel of the 
Department of the Army in reviewing and providing potentially adverse 
information pertaining to a nomination to the Senate Armed Services 
Committee?
    Answer. It is my understanding that under current Department of the 
Army practice, regarding General Officer nominations, the Office of the 
Army General Counsel reviews each selection board report, as well as 
departmental communications to the committee, the President, and the 
Secretary of Defense, to ensure that the reports and communications 
comply in form and substance with law and applicable directives and 
regulation. The Office of the Army General Counsel gives special 
attention to cases of nominees with substantiated or potentially 
adverse information and cases with reportable information in order to 
ensure that such information is reported to the Senate Armed Services 
Committee in a timely, accurate, and comprehensible manner.
                  military personnel policy and cases
    Question. In your view, what role, if any, should the General 
Counsel and civilian attorneys assigned to the Office of General 
Counsel play in military personnel policy and individual cases, 
including cases before the Board for Correction of Military Records?
    Answer. If confirmed, I will work with the Secretary of the Army, 
the Assistant Secretary of the Army (Manpower and Reserve Affairs), and 
other senior leaders to ensure that the Army properly develops and 
fairly applies military personnel policies. If I am confirmed and 
become aware that the Department did not fairly and lawfully apply 
military personnel policies, I will take appropriate action to ensure 
that the Army properly resolves the issue. I understand and fully 
respect the independent role that the Army Board for the Correction of 
Military Records (ABCMR) plays in the correction of military records, 
and if confirmed, I will coordinate with the Assistant Secretary of the 
Army (Manpower and Reserve Affairs), who exercises overall 
responsibility for the Army Review Boards Agency regarding the legal 
sufficiency of ABCMR recommendations to the Secretary of the Army.
                 sexual assault prevention and response
    Question. The Fiscal Year 2013 Department of Defense Annual Report 
on Sexual Assault in the Military reflects that reports of sexual 
assaults in the Army increased by 51 percent from fiscal year 2012 to 
2,149 reports of sexual assault in fiscal year 2013.
    What is your assessment of this report?
    Answer. Although DOD did not conduct a study of the prevalence of 
sexual assault in fiscal year 2013, I understand there are indications 
that the increase in reporting in fiscal year 2013 reflects an 
increased willingness of victims to come forward rather than an 
increase in the number of sexual assaults. Nevertheless, there is still 
more to do to prevent and punish the crime of sexual assault. If 
confirmed, I intend to provide my full support in helping the Army 
achieve this goal.
    Question. What is your assessment of the Army's sexual assault 
prevention and response program?
    Answer. I understand that the Army has taken substantial steps to 
addressing the issue of sexual assault. Through the combined efforts of 
military and civilian leaders at all echelons, I am informed that the 
Army has implemented an unprecedented number of program and policy 
initiatives to address this insider threat.
    I support the Army's commitment to a holistic approach to change 
culture, prevent sexual assault and harassment in the ranks, support 
and advocate for victims, and hold offenders appropriately accountable.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. I am informed that since implementing the restricted 
reporting option (which does not initiate a law enforcement 
investigation) in 2005, the number of total reports has continued to 
increase. The restricted reporting option gives victims time to 
understand the process, seek the counseling and care they need, and to 
consult with an attorney if they wish. I understand the conversion of 
restricted reports to unrestricted continues to increase, which I 
believe is an indication that victims are gaining more trust in the 
system. If confirmed, I will ensure that the Army continues to work to 
improve upon its response system and to enhance victim support.
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. I believe the chain of command has an important role to 
play in providing compassionate care and necessary support to victims 
of sexual assault. As a general matter, the commander--as well as the 
commander's subordinate commanders and staff members--has a 
responsibility to care for Soldiers in the commander's charge. I 
understand that the Army is working hard to foster a climate in which 
victims trust their chain of command to support them if and when sexual 
offenses occur.
    Question. What is your understanding of the adequacy of Army 
resources and programs to provide victims of sexual assault the 
medical, psychological, and legal help they need?
    Answer. My understanding is that the Army is dedicated to providing 
Soldiers, civilians and eligible family members who are the victims of 
sexual assault with extensive medical, psychological, and legal support 
services. I am aware that sexual assault victims are offered the 
services of a Sexual Assault Response Coordinator (SARC) and a Victim 
Advocate (VA). When a victim of sexual assault comes to any Military 
Treatment Facility in the Army, his or her medical needs are managed by 
a Sexual Assault Clinical Provider and his or her behavioral health 
care is provided by the Sexual Assault Behavioral Health Provider. 
Victims of sexual assault are also entitled to the services of a 
Special Victim Counsel. The Army Special Victim Counsel program is 
staffed, resourced, and supported by the Department of the Army; the 
Army JAG Corps is currently growing to meet emerging requirements.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. I understand that both the Secretary of the Army and the 
Chief of Staff of the Army have made the prevention of sexual assault a 
top priority and are providing resources consistent with that 
prioritization. As a result, leaders at every echelon and in every 
location must be committed to preventing sexual assaults and caring for 
victims, and the Army is working diligently to ensure that all Soldiers 
share these commitments.
    Question. What is your view of the adequacy of the training and 
resources the Army has in place to investigate and prosecute 
allegations of sexual assault?
    Answer. I understand that the Army has invested substantial 
resources and training toward the investigation and response to 
allegations of sexual assault. As stated above, the Secretary of the 
Army and Chief of Staff have made the prevention of sexual assault a 
top priority and are providing resources consistent with that 
prioritization.
    Question. What is your view on the value of the Army's Special 
Victims Counsel Program? Has this program had an impact on the 
reporting and prosecution of allegations of sexual assault in the Army? 
If so, what is that impact?
    Answer. My understanding is that the Special Victim Counsel Program 
has been successful for both victims and commanders. The feedback from 
victims is that this program is an invaluable resource as they navigate 
the administrative, medical and justice systems within the Army. 
Commanders indicate that they can now act with confidence that they 
understand the victim's position and preferences.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. I believe that commanders can drive change in culture. 
Commanders are responsible for everything their command does or fails 
to do, which includes training Soldiers on how to prevent sexual 
assault and holding all leaders accountable for creating a culture that 
does not tolerate sexual assault. As part of these responsibilities, 
commanders are responsible for fostering respect within their units, 
creating a climate in which sexual assaults and sexual harassment are 
not tolerated, holding offenders accountable, and cultivating an 
environment in which victims feel comfortable reporting all forms of 
misconduct.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. I think it is difficult to fully assess the potential 
impact of such a significant change to the military justice system. 
Requiring a judge advocate outside the chain of command to determine 
whether allegations of sexual assault should be prosecuted would, in 
effect, create a separate justice system for sexual assault cases, with 
uncertain consequences.
    The Army must encourage a climate in which victims feel comfortable 
in reporting misconduct, perpetrators of sexual assault are held 
accountable for the crimes they commit, and all Soldiers believe the 
system to be fair and transparent. I believe that both commanders and 
judge advocates have important roles to play in all components of that 
effort.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Army?
    Answer. If confirmed, I will be an ardent supporter of the Army 
Sexual Harassment/Assault Response and Prevention Program and will work 
with the Secretary of the Army, the Chief of Staff of the Army, the 
Assistant Secretary of the Army (Manpower & Reserve Affairs), and the 
Deputy Chief of Staff, G-1 to ensure that eliminating sexual assault 
remains a top priority throughout the Army.
                  assignment of women in the military
    Question. In January 2013, Secretary of Defense Panetta rescinded 
the 1994 Direct Ground Combat Definition and Assignment Rule, excluding 
women from assignment to units and positions whose primary mission is 
to engage in direct combat on the ground. The Military Departments are 
required to develop detailed plans for implementation of this directive 
and to complete integration of women into newly opened positions and 
units as expeditiously as possible, considering good order and 
judicious use of fiscal resources, but no later than January 1, 2016. 
Any recommendation to keep an occupational specialty or unit closed to 
women must be personally approved by the Chairman of the Joint Chiefs 
of Staff and by the Secretary of Defense.
    If confirmed, what role, if any, would you expect to play in the 
evaluation of the plans of the Department of the Army to integrate 
women into occupational specialties or recommendations to keep specific 
occupations or units closed to women?
    Answer. If confirmed, I would expect to provide legal advice 
regarding plans to integrate women into those occupational specialties.
recommendations of the response systems to adult sexual assault crimes 
                                 panel
    Question. On June 27, 2014, the Response Systems to Adult Sexual 
Assault Crimes Panel (RSP) released its report fulfilling the 
requirements of section 576 of the National Defense Authorization Act 
for Fiscal Year (P.L. 112-239). This report contained 132 
recommendations in the areas of victim services, victim rights, the 
role of the commander in the military justice process, and the 
investigation, prosecution and adjudication of sexual assault.
    If confirmed, what role, if any, would you expect to play in the 
evaluation of the recommendations of the RSP for possible 
implementation in the Department of the Army?
    Answer. If confirmed, I would expect to work closely with The Judge 
Advocate General to advise the Secretary of the Army about the RSP's 
recommendations and, where appropriate, how they should be implemented.
                        whistleblower protection
    Question. Section 1034 of title 10, U.S.C., prohibits taking 
retaliatory personnel action against a member of the Armed Forces as 
reprisal for making a protected communication. By definition, protected 
communications include communications to certain individuals and 
organizations outside of the chain of command.
    If confirmed, what actions will you take to ensure that senior 
military leaders understand the need to protect servicemembers who 
report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. The General Counsel has the primary role of advising the 
Secretary of the Army and those who fall under his authority on the 
standards governing treatment of servicemembers reporting misconduct to 
any appropriate authority. I am fully committed to protecting those who 
report misconduct to appropriate authorities. Army policy provides for 
reporting and investigation of retaliatory actions, and for appropriate 
corrective and disciplinary action. Additionally, the Secretary of the 
Army, pursuant to the requirements of section 1034 of title 10, has a 
special obligation to ensure appropriate action is taken to correct the 
record of those who have been subjected to reprisal and to ensure 
appropriate disciplinary action is taken against those who engage in 
prohibited personnel actions against servicemembers reporting 
misconduct. It is critical for senior Army leaders to be aware of legal 
requirements so as to avoid improper retaliatory actions against those 
who bring matters of interest to our attention. My staff and I will 
work to ensure statutory and policy requirements are understood and 
appropriately executed.
                   support to army inspector general
    Question. What role, if any, do you think the General Counsel of 
the Army should have in reviewing the investigations and 
recommendations of the Army Inspector General?
    Answer. The Inspector General is a key member of the Secretariat, 
and if confirmed, as counsel to all Secretariat officials, I will 
ensure the Office of the General Counsel of the Army continues its 
current professional relationship with The Inspector General. I 
personally intend this to include routine, direct, and candid 
communications. I have been advised that we routinely provide 
independent and objective legal advice to the Office of The Inspector 
General in regard to all matters that relate to Inspector General 
programs, duties, functions, and responsibilities. In coordination with 
The Judge Advocate General, I will oversee the provision of effective 
legal guidance to the Office of The Inspector General in conducting 
investigations and making recommendations. Additionally, based on the 
Army General Counsel's responsibility to review legal and policy issues 
arising from the Army's intelligence and counterintelligence 
activities, I will work closely with The Inspector General concerning 
proper reporting of the Army's intelligence oversight activities.
                           civilian attorneys
    Question. Judge advocates in the Armed Forces benefit from an 
established career progression, substantial mentoring and training 
opportunities, and exposure to a broad spectrum of legal areas and 
leadership responsibilities. By contrast, civilian attorneys in the 
military departments normally do not have established career programs 
and may do the same work for many years, with promotion based solely 
upon longevity and vacancies.
    What is your understanding of the personnel management and career 
development system for civilian attorneys in the Army?
    Answer. Civilian career development is important to me, and it is 
my understanding that all civilian attorneys and paraprofessionals 
supporting Army legal services are now covered by a comprehensive 
career program that promotes and facilitates their recruitment, 
training, education, development, advancement and retention. To achieve 
these goals, a career program office was established. I have been 
informed that the career program office publishes two governing 
documents, which the Army terms ``Army Civilian Education, Training, 
and Education Development System'' plans. There are separate guides for 
civilian attorneys and paraprofessionals, but both are functionally 
tailored to the legal career field and combine formal training with 
developmental assignments.
    Question. In your view does that system need revision? If so, what 
do you see as the major problems and what changes would you suggest?
    Answer. From what I have been told, the career program is still in 
its early stages of operation, and program evaluation is ongoing. If 
confirmed, I will serve as the career program's functional chief, and 
will advocate for, or direct, revisions when appropriate.
                                 client
    Question. In your opinion, who is the client of the General Counsel 
of the Department of the Army?
    Answer. The client of the General Counsel of the Department of the 
Army is the Department of the Army, acting through its authorized 
officials.
                           acquisition issues
    Question. What role should the General Counsel play in ensuring 
that Army procurement programs are executed in accordance with the law 
and DOD acquisition policy?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army, the Under Secretary of the Army, the Assistant Secretary of the 
Army for Acquisition, Logistics and Technology, the Chief Information 
Officer, the Director of Small Business Programs, and other senior Army 
officials to ensure that Army acquisition programs comply with 
applicable laws, regulations, and policies. The Army's acquisition 
leadership must accomplish its primary mission of acquiring equipment 
and services for the Department while complying with an extensive 
framework of legal and policy requirements. Army lawyers best support 
this mission through early involvement in acquisition program and 
procurements and through proactive assistance in identifying potential 
issues and shaping effective, legally-supportable business strategies 
throughout the acquisition life-cycle.
    Question. What role should the General Counsel play in ensuring 
that Army acquisition officials understand flexibilities provided by 
Congress in the acquisition and financial statutes and can take 
advantage of those flexibilities to act in the best interests of the 
Army?
    Answer. I believe the legal community is uniquely suited to assist 
Army officials in this area. If confirmed, I will work closely with the 
Department's senior leadership to ensure that Army acquisition programs 
and financial operations comply with their governing legal and policy 
framework but also to question and modify program strategies that 
reflect an inaccurate or unduly restrictive interpretation of 
applicable authorities.
    Question. What role should the General Counsel play in ensuring 
that ethics provisions on conflict of interest are followed both by 
Army personnel and by Army contractors?
    Answer. It is essential that the Department have well-understood 
business rules designed to avoid or mitigate organizational and 
personal conflicts of interest. Army lawyers play an important role in 
this area through robust programs for acquisition ethics training and 
proactive involvement in the Army's acquisition, logistics and 
technology programs and contracting operations. If confirmed, I will 
work closely with the Assistant Secretary of the Army for Acquisition, 
Logistics and Technology and other Army senior leaders to foster an 
organizational climate that is sensitive to the importance of avoiding 
conflicts of interest and that appropriately addresses specific 
situations that arise.
 allegations of fraud and abuse during contingency contracting in iraq 
                 and afghanistan have been wide-spread.
    Question. What role should the General Counsel play in ensuring 
that Army personnel are properly trained in contingency contracting and 
are supervised in the performance of their duties?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army, the Under Secretary of the Army, the Assistant Secretary of the 
Army for Acquisition, Logistics and Technology, and other senior 
officials to ensure that the Army legal community continues to support 
the contingency contracting initiatives adopted in response to the 2007 
Report of the Commission on Army Acquisition and Program Management in 
Expeditionary Operations, also known as the ``Gansler Commission 
Report.'' I would also work closely with The Judge Advocate General of 
the Army and other senior leaders in the Army legal community to ensure 
that an appropriate level of legal resources are allocated in support 
of contingency contracting.
                    detecting conflicts of interest
    Question. Personal and organizational conflicts of interest have 
become a major concern. DOD's expanded use of private contractors being 
tasked to perform key functions that the services had formerly 
performed in-house and the new requirement to fill thousands of DOD 
civilian positions with experienced, qualified individuals present 
challenges in preventing conflicts of interest and the appearance of 
conflicts of interest.
    What do you think the Army should do, and what should the General 
Counsel's role be, in ensuring that the Army identifies personal and 
organizational conflicts of interests and takes the appropriate steps 
to avoid or mitigate them?
    Answer. Because of their potential not only to result in an unfair 
competitive advantage, but also to damage the credibility of the 
institution, conflicts of interest are unacceptable in any 
organization. As the Army's Designated Agency Ethics Official, the 
General Counsel is responsible for management and oversight of the Army 
Ethics Program. These duties include ensuring that Army personnel who 
are required to file financial disclosure reports do so at the 
appropriate time and that ethics counselors timely review these reports 
to prevent or mitigate conflicts of interest. In addition, if 
confirmed, I will help ensure that other circumstances of potential 
conflict of interest are addressed promptly, consistent with legal 
requirements.
    Question. What is your understanding of the steps the Army takes to 
identify and address potential conflicts of interest during the hiring 
process?
    Answer. At this time, I am not aware of the steps the Army takes to 
identify and address conflicts of interest during the hiring process. 
If confirmed, I will look into that issue and ensure that appropriate 
safeguards exist.
                              legal ethics
    Question. What is your understanding of the action a Department of 
the Army attorney or an Army judge advocate should take if the attorney 
becomes aware of improper activities by a Department of the Army 
official who has sought the attorney's legal advice and the official is 
unwilling to follow the attorney's advice?
    Answer. If an Army attorney suspects that the Army official, either 
in exercising functions or in failing to do so, violates a law or 
standard of conduct, the attorney should immediately bring the matter 
to the attention of the attorney's supervisor. If not satisfactorily 
resolved at that level, the matter should be brought to higher level 
supervisory lawyers or authorities in the chain of supervision or 
command.
    Question. Do you believe that the present limits on pro bono 
activities of government attorneys are generally correct as a matter of 
policy or does the policy need to be reviewed and revised?
    Answer. I understand the former Army General Counsel established a 
supportive and permissive pro bono legal practice policy for the Office 
of the Army General Counsel, consistent with statutory restrictions 
prohibiting Federal employees from representing clients before the 
Federal Government, including the Federal courts. Many rewarding pro 
bono activities are available to government attorneys in their private, 
non-official capacity in areas such as family law, consumer law, 
landlord-tenant disputes, and other civil and criminal law matters. If 
confirmed, I would review pro bono policies to determine whether any 
change would be appropriate.
    Question. In your view, do the laws, regulations, and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of the Army provide adequate guidance?
    Answer. Much of the value and respect for the law depends on the 
proper ethical conduct of lawyers. I believe that the laws, 
regulations, and guidelines establishing rules for attorney 
professional responsibility for the Department of the Army are well 
developed and adequate. The Army's ethical rules are based on the 
American Bar Association Model Rules of Professional Conduct. Both 
uniform and civilian Army attorneys are subject to State licensing 
authority ethical codes. By regulation, Army attorneys must remain, at 
all times, in good standing with a at least one licensing authority in 
the United States, including those of U.S. States, U.S. territories, 
the District of Columbia, or the Commonwealth of Puerto Rico. This 
complimentary system of ethical oversight is implemented on a day-to-
day basis by the exercise of competent and conscientious supervision by 
experienced Army attorneys at all levels. If confirmed, I would consult 
and review the current professional responsibility policy and systems 
with The Judge Advocate General and, as appropriate, seek revisions and 
improvements.
            litigation involving the department of the army
    Question. What is your understanding of the relationship between 
the Department of the Army and the Department of Justice with respect 
to litigation involving DOD?
    Answer. Under section 516 of title 28 of the U.S. code, the 
authority to represent the military departments in litigation is 
reserved to the Department of Justice, under the direction of the 
attorney general. It is my understanding DOD and the Department of the 
Army, along with the other military departments, have a positive and 
mutually supportive relationship with the Department of Justice. I 
understand coordination between the Department of Justice and the 
military departments is timely and consistent on every level. If 
confirmed, I will work collaboratively with The Judge Advocate General 
and the General Counsel of DOD to ensure the interests of the Army are 
fully understood and appropriately pursued with the Department of 
Justice in litigation.
    Question. In your view, does the Department need more independence 
and resources to conduct its own litigation or to improve upon its 
current supporting role?
    Answer. In general, because of established close working 
relationships, I think the Department of Justice is effective in 
defending the interests of the Department of the Army. If confirmed, I 
will routinely consult with The Judge Advocate General and the General 
Counsel of DOD to determine whether adequate authority and resources 
are available to protect the full measure of the Army's interests in 
litigation.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
          Questions Submitted by Senator Kirsten E. Gillibrand
                             sexual assault
    1. Senator Gillibrand. Ms. Starzak, some have used the argument 
that there are insufficient numbers of military lawyers to implement 
the Military Justice Improvement Act (MJIA). Yet in your advance policy 
questions you said that ``To address emerging requirements, including 
special victim capabilities and special victims counsel, the Army JAG 
[Judge Advocate General] Corps is planning to grow.'' How do you 
reconcile this plan to grow the JAG Corps to address what we all agree 
is a top concern for the military with claims that there are an 
insufficient number of judge advocates to implement MJIA?
    Ms. Starzak. I understand that enactment of MJIA would require 
additional judge advocates in grade O-6 or higher who have significant 
experience in trials by general or special court-martial. Given these 
requirements, I do not believe that growing the JAG Corps by 
commissioning new judge advocates would suffice to meet the needs that 
would be created by the MJIA in the near term.

    2. Senator Gillibrand. Ms. Starzak, in your advance policy 
questions you stated, ``Although the Department of Defense did not 
conduct a study of the prevalence of sexual assault in fiscal year 
2013, I understand there are indications that the increase in reporting 
in fiscal year 2013 reflects an increased willingness of victims to 
come forward rather than an increase in the number of sexual assault.'' 
My concern is that the percent of restricted reports has gone up and 
unrestricted reports have gone down and the rates of retaliation have 
stayed the same. That suggests survivors want to receive care, but it 
doesn't suggest improved confidence in the military justice system. 
What to you suggests an increase in confidence in the military justice 
system, rather than the system of care provided to victims?
    Ms. Starzak. Although I understand that the percentage of reporting 
victims who made unrestricted reports decreased slightly between fiscal 
years 2013 and 2014, I also understand that there was an increase in 
the number of both restricted and unrestricted reports in 2014, as well 
as a significant increase in the percentage of victims converting from 
restricted reports to unrestricted reports. I believe this increase in 
reporting, as well as the willingness to convert from restricted to 
unrestricted reporting, conveys increased victim confidence in the 
Department's overall response system. I agree, however, that it is 
difficult to attribute this increase in reporting to any particular 
component of the Department's response system. In addition, given the 
concerns victims expressed about retaliation in the 2014 Survivor 
Experience Survey, as well as the fact that sexual assault continues to 
be an underreported crime, I believe the Department still has much work 
to do to improve victim confidence.

                           gender integration
    3. Senator Gillibrand. Ms. Starzak, on January 2013, former 
Secretary of Defense Leon E. Panetta and Chairman of the Joint Chief of 
Staff, Army General Martin E. Dempsey rescinded the ground combat 
exclusion policy of 1994. The objective in rescinding this policy is to 
ensure that the mission is met with the best-qualified and most capable 
servicemember, regardless of gender. I understand that the Services are 
approaching this with phases of implementation. As the Army's General 
Counsel, what is your role in implementing combat integration?
    Ms. Starzak. If confirmed, my role as General Counsel would be to 
provide legal advice to the Secretary of the Army regarding integration 
of women into closed positions, units and occupations consistent with 
the guidelines established by Secretary of Defense Panetta and Chairman 
Dempsey in January 2013.

    4. Senator Gillibrand. Ms. Starzak, what challenges do you 
anticipate with the new policy implementation and do you think the Army 
will hit the target of January 2016 for integration of women into newly 
opened jobs, positions, and units?
    Ms. Starzak. My understanding is that the Army is on track to meet 
the target of January 2016. I have been informed that studies are in 
progress to identify any potential obstacles to full integration, and, 
if confirmed, I will work closely with the Army leadership to address 
any obstacles that are identified.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                        special victims' counsel
    5. Senator Ayotte. Ms. Starzak, regarding military sexual assault, 
I worked with Senator Patty Murray to introduce legislation to provide 
sexual assault victims with a Special Victims' Counsel (SVC)--a trained 
military lawyer to assist survivors throughout the legal process--in 
all military branches. What is your assessment of the SVC program?
    Ms. Starzak. I believe the SVC program to be a significant resource 
for sexual assault victims. Under the program, sexual assault victims 
who file a report of sexual assault--either restricted or 
unrestricted--are provided an attorney who represents their interests 
and helps them navigate the administrative, medical and military 
justice systems. Although it is still a relatively new program, the 
initial feedback on the SVC program has been very positive. The 2014 
Survivor Experience Survey recently conducted by the Department found 
that, of the 68 percent of respondents who interacted with a SVC, 90 
percent were satisfied with the services they were provided. I also 
understand that commanders have expressed positive views about the SVC 
program, because SVCs clearly communicate the victim's position and 
preferences.

    6. Senator Ayotte. Ms. Starzak, are we seeing an increase in 
unrestricted reporting?
    Ms. Starzak. Yes, the Army has seen a significant increase in 
unrestricted reporting of sexual assault in the last 2 years. In fiscal 
year 2014, the Army received a report from an estimated 23 percent of 
victims--up from 14 percent in fiscal year 2012. In fiscal year 2014, 
victims converted from a restricted report to an unrestricted report to 
trigger a law enforcement investigation at a rate of 20 percent--the 
highest rate yet seen since the creation of the unrestricted reporting 
option in 2005.

    7. Senator Ayotte. Ms. Starzak, are victims feeling more confident 
that if they come forward, they will receive the support, protection, 
and justice they deserve?
    Ms. Starzak. I understand that recent statistics on victim 
reporting of sexual assault suggest increased victim confidence about 
coming forward. I have been advised that the last few years have shown 
an increased rate of reporting, with the Army now receiving a report 
from an estimated 1 in 4 victims, up from an estimated 1 in 7 victims 
in 2012. Although this is an encouraging trend, sexual assault remains 
an underreported crime, and victims continue to express concerns about 
retaliation, particularly from their peers. I believe it is critical 
for the Army to continue to work to address those concerns to improve 
victims' confidence.

    8. Senator Ayotte. Ms. Starzak, Senator Klobuchar and I introduced 
the National Guard and Reserve Access to Counsel Act to ensure victims 
receive services if there is any connection between the crime and their 
service. What is your assessment of the SVC program with respect to the 
National Guard and Reserve?
    Ms. Starzak. Although I have limited knowledge of the Army National 
Guard and Reserve programs specifically, I understand that all 
components of the Army have worked closely together to stand up strong 
SVC programs. During the start-up time frame, this coordination between 
Army Active Duty, National Guard and U.S. Army Reserve has ensured that 
every eligible client who requests representation by an SVC has an 
assigned SVC.

    9. Senator Ayotte. Ms. Starzak, do you believe that National Guard 
and Reserve members should have access to the same services as Active 
Duty personnel have, should they also be victims of sexual assault in 
connection with their military service?
    Ms. Starzak. Yes. I strongly believe that National Guard and Army 
Reserve members should have access to the same services as Active Duty 
personnel should they be victims of sexual assault in connection with 
their military service.
                                 ______
                                 
                Questions Submitted by Senator Ted Cruz
                               fort hood
    10. Senator Cruz. Ms. Starzak, you were appointed to the Deputy 
General Counsel (Legislation), Office of the General Counsel, at the 
Department of Defense, on May 31, 2011. During your tenure in that 
position, in the Department of Defense Language Position Paper, citing 
section 552 of H.R. 4310 (Fiscal Year 2013 Defense Authorization Bill), 
a great deal of time was spent explaining that awarding a Purple Heart 
to the victims of the Fort Hood massacre would ``directly and 
indirectly influence'' the trial of Major Hasan. Despite my obvious 
objection to that premise, terrorism should be identified as terrorism 
and not dismissed as workplace violence, the trial has now concluded--
Major Hasan was convicted of murder and justly sentenced to death. What 
is your position on awarding the Purple Heart in recognition to those 
who were killed or wounded during the tragedy that occurred at Fort 
Hood on November 5, 2009?
    Ms. Starzak. The criteria for award of the Purple Heart is set by 
law and Executive Order. According to Executive Order 11016, as 
amended, the Purple Heart is to be awarded to servicemembers killed or 
wounded ``as the result of an act of an act of an enemy of the United 
States,'' or ``as a result of an international terrorist attack against 
the United States'' among other possible criteria. My understanding is 
that the Department is reviewing whether those criteria are met with 
respect to the tragedy at Fort Hood.
    In addition, section 571 of H.R. 3979, the Carl Levin and Howard P. 
``Buck'' McKeon National Defense Authorization Act for Fiscal Year 2015 
that passed the House of Representatives on December 4, 2014, would 
require the award the Purple Heart to servicemembers who are wounded or 
killed as the result of an attack carried out by an individual or 
entity that was ``in communication with [a] foreign terrorist 
organization before the attack'' where ``the attack was inspired or 
motivated by the foreign terrorist organization.'' If that provision is 
enacted into law, I believe the Department would need to review whether 
the Purple Heart should be awarded to those who were killed or wounded 
during the tragedy that occurred at Fort Hood under the modified 
criteria.

    11. Senator Cruz. Ms. Starzak, what is your broader consideration 
for presentation of a Purple Heart to victims who are killed or wounded 
in a domestic terrorist attack, where that attack is inspired or 
motivated by a foreign terrorist organization?
    Ms. Starzak. As noted above, the Carl Levin and Howard P. ``Buck'' 
McKeon National Defense Authorization Act for Fiscal Year 2015, which 
passed the House of Representatives on December 4, 2014, contains a 
provision requiring the Department to award the Purple Heart to 
servicemembers who are wounded or killed as the result of an attack 
carried out by an ``individual or entity that was in communication with 
[a] foreign terrorist organization before the attack'' where ``the 
attack was inspired or motivated by the foreign terrorist 
organization.''
                                 ______
                                 
    [The nomination reference of Ms. Alissa M. Starzak 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 14, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Alissa M. Starzak of New York, to be General Counsel of the 
Department of the Army, vice Brad Carson, resigned.
                                 ______
                                 
    [The biographical sketch of Ms. Alissa M. Starzak, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Ms. Alissa M. Starzak
Education:
    Amherst College

        <bullet> 1991-1995
        <bullet> AB

    University of Chicago
        <bullet> 1997-2000
        <bullet> JD
Employment Record:
    Department of Defense (Washington, DC)

        <bullet> Deputy General Counsel (Legislation)
        <bullet> May 2011-Present

    U.S. Senate Select Committee on Intelligence (Washington, DC)

        <bullet> Counsel
        <bullet> January 2007-May 2011

    Central Intelligence Agency (Washington, DC)

        <bullet> Assistant General Counsel
        <bullet> August 2005-January 2007

    O'Melveny & Myers (Washington, DC)

        <bullet> Attorney
        <bullet> November 2001-August 2005

    U.S. Court of Appeals for the Fifth Circuit (New Orleans, LA)

        <bullet> Judicial Law Clerk to the Honorable E. Grady Jolly
        <bullet> 2000-2001
Honors and awards:
    Military Awards: N/A
    Federal Civilian Awards: N/A
    Academic Awards: N/A
    Other Awards: N/A
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Ms. Alissa M. 
Starzak in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Alissa Michelle Starzak.

    2. Position to which nominated:
    General Counsel, Department of the Army.

    3. Date of nomination:
    July 14, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 3, 1973; Binghamton, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Andrew G. Ferguson.

    7. Names and ages of children:
    Cole Ferguson, age 5.
    Alexa Ferguson, age 1.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Amherst College, 1991-1995, AB, May 1995
    University of Chicago, 1997-2000, JD, June 2000

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    May 2011-Present: Deputy General Counsel (Legislation), Department 
of Defense, Pentagon, Washington, DC.
    January 2007-May 2011: Counsel, Senate Select Committee on 
Intelligence, U.S. Senate, Washington, DC.
    August 2005-January 2007: Assistant General Counsel, Central 
Intelligence Agency, Washington, DC.
    November 2001-August 2005: Associate, O'Melveny & Myers, 
Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Judicial Law Clerk to the Honorable E. Grady Jolly, U.S. Court of 
Appeals for the Fifth Circuit, 2000-2001.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Obama for America, 2012, $200.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    N/A.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have .you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies 
ofelectronic forms of communication, in a timely manner when requested 
by a duly constituted committee, orto consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Alissa M. Starzak.
    This 27th day of August, 2014.

    [The nomination of Ms. Alissa M. Starzak was reported to 
the Senate by Chairman Levin on December 9, 2014, with the 
recommendation that the nomination be confirmed. The nomination 
was returned to the President at the end of the 113th Congress 
on December 17, 2014, under provisions of Senate Rule XXXI, 
paragraph 6 of the Standing Rules of the Senate.]
                              ----------                              

    [Prepared questions submitted to ADM Harry B. Harris, Jr., 
USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions? If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. No. If confirmed, I will continue to assess the need for 
any modifications.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Pacific Command?
    Answer. The Commander, U.S. Pacific Command, is responsible for 
deterring attacks against the United States and its territories, 
possessions, and bases; protecting Americans and American interests; 
and, in the event that deterrence fails, winning our Nation's wars. The 
Commander is also responsible for expanding security cooperation with 
our allies, partners, and friends across the Asia-Pacific region.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe my 36 years of military experience, culminating 
in command of the U.S. Pacific Fleet, have prepared me well for 
assuming command of U.S. Pacific Command (PACOM).
    Over my career, I have served in every geographic combatant command 
region, including seven tours in the Pacific. This has given me a broad 
understanding of our military, economic, and geopolitical challenges 
and opportunities around the globe. During my operational tours, I 
participated in numerous major operations including the S.S. Achille 
Lauro terrorist hijacking incident, Attain Document III (Libya, 1986), 
Earnest Will (Kuwaiti reflagged tanker operation, 1987-1988), Desert 
Shield/Desert Strom, Southern Watch, Enduring Freedom, Iraqi Freedom, 
Willing Spirit (Columbia hostage rescue, 2006-2007), and Odyssey Dawn 
(Libya, 2011). I have commanded at every level, including squadron, 
wing, Joint Task Force Guantanamo, the U.S. Sixth Fleet, Striking and 
Support Forces NATO, and my current assignment.
    Between operational tours, I was assigned three times to the Navy 
staff and twice to the Joint Staff in the Pentagon where I gained 
valuable insights and experience into the resourcing, administrative, 
Joint, Interagency, and Title 10 processes that underpin an effective 
Department of Defense (DOD).
    I have been truly fortunate to have been sent by the Navy to 
Harvard, Georgetown, and Oxford Universities for post-graduate 
education where I studied East Asia security, political terrorism, and 
the ethics of war.
    Prior to my current assignment as Commander, U.S. Pacific Fleet, I 
served as the assistant to the Chairman of the Joint Chiefs of Staff 
where I was the Chairman's direct representative to the Secretary of 
State. In this assignment, I travelled extensively throughout the Asia-
Pacific region and met senior government leaders, including Defense and 
Foreign Ministers, many of whom I will work with if confirmed as 
Commander, U.S. Pacific Command.
    Finally, as Commander, U.S. Pacific Fleet, I have had the 
opportunity to establish or renew personal and professional 
relationships with political and military leaders in the region. If 
confirmed, I will continue strengthening those relationships, while 
enhancing the rebalance to the Pacific. My assignments over my career 
have given me broad theoretical and practical operational experience 
leading to a firm understanding of the military's role in the whole-of-
governmental approach to global and regional challenges.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U.S. Pacific Command?
    Answer. If confirmed, I will take every opportunity to better my 
knowledge of, and relationships with, our allies and partners across 
the Asia-Pacific. I look forward to engaging senior leaders within DOD 
and the Department of State, regional security experts, leading think 
tanks and universities, and military and civilian leaders throughout 
the Asia-Pacific in order to improve my understanding of the challenges 
and opportunities in the region. I look forward to coordinating closely 
with members of this committee as we work together.
                             relationships
    Question. If confirmed, what will be your relationship with:
    The Secretary of Defense.
    Answer. Commander, U.S. Pacific Command, performs duties under the 
authority, direction, and control of the Secretary of Defense. The 
Commander, U.S. Pacific Command, is directly responsible to the 
Secretary of Defense for the ability of the command to carry out its 
missions.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs duties as directed 
by the Secretary and performs the duties of the Secretary when the 
principal is absent. The Commander, U.S. Pacific Command, ensures the 
Deputy has the information necessary to perform these duties and 
coordinates on all major issues.
    Question. The Under Secretary of Defense for Policy.
    Answer. Under Secretaries are key advocates for combatant commands' 
requirements. The Commander, U.S. Pacific Command coordinates and 
exchanges information with the Under Secretary of Defense for Policy on 
strategic and regional security issues involving the Asia-Pacific 
theater.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. Commander, U.S. Pacific Command, coordinates and exchanges 
information with the Under Secretary of Defense for Intelligence as 
needed to set and meet the Command's intelligence requirements.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman functions under the authority, direction, and 
control of the National Command Authority. The Chairman transmits 
communications between the National Command Authority and Commander, 
U.S. Pacific Command, and oversees the activities of Commander, U.S. 
Pacific Command, as directed by the Secretary of Defense. As the 
principal military advisor to the President and the Secretary of 
Defense, the Chairman is a key conduit between the combatant 
commanders, Interagency, and Service Chiefs.
    Commander, U.S. Pacific Command, keeps the Chairman informed on 
significant issues regarding the PACOM area of responsibility (AOR). 
Commander, U.S. Pacific Command, communicates directly with the 
Chairman on a regular basis.
    Question. Commander, U.S. Special Operations Command (SOCOM).
    Answer. Commander, U.S. Pacific Command maintains a close 
relationship and communicates directly with the Commander, SOCOM, on 
issues of mutual interest. PACOM coordinates requirements and 
operations of Special Operations Forces within the PACOM AOR through 
the Commander, Special Operations Command Pacific (SOCPAC) to support 
PACOM's Theater Security Cooperation Program, deliberate plans, and 
real world contingencies. SOCPAC is a subordinate component to PACOM.
    Question. The other combatant commanders.
    Answer. Commander, U.S. Pacific Command, shares borders, and 
maintains close relationships, with the other combatant commanders. 
These relationships are critical to the execution of our National 
Military Strategy and are characterized by mutual support, frequent 
contact, and productive exchanges of information on key issues.
    Question. The Service Secretaries and Service Chiefs.
    Answer. The Service Secretaries are responsible for the 
administration and support of forces assigned to combatant commands. 
The Commander, U.S. Pacific Command, coordinates with the Secretaries 
to ensure that requirements to organize, train, and equip PACOM forces 
are met.
    Commander, U.S. Pacific Command, communicates and exchanges 
information with the Service Chiefs to support their responsibility for 
organizing, training, and equipping forces. Successful execution of 
PACOM's mission requires close coordination with the Service Chiefs. 
The Service Chiefs are valuable sources of judgment and advice for the 
combatant commanders.
    Question. Commander United Nations/Combined Forces Command/U.S. 
Forces Korea.
    Answer. As a subordinate unified commander, the Commander, U.S. 
Forces Korea receives missions and functions from the Commander, U.S. 
Pacific Command. I recognize his unique responsibilities in armistice 
and during hostilities as Commander United Nations Command/Combined 
Forces Command and will fully support his actions in those sensitive 
and demanding roles.
    Question. The Deputy Assistant Secretary of Defense for Prisoner of 
War (POW)/Missing Personnel.
    Answer. Earlier this year, Secretary Hagel directed the Department 
to transform how it accounts for its personnel missing from past 
conflicts. Specifically, he directed that he be provided with a plan to 
organize the Department most effectively to increase to the maximum 
extent possible the numbers of missing Service personnel accounted for 
annually while ensuring timely and accurate information is provided to 
their families.
    As a result of the plan that was presented to Secretary Hagel, the 
Department submitted a legislative proposal to eliminate in statute the 
position of the Deputy Assistant Secretary of Defense (DASD) for POW/
Missing Personnel Affairs. The DASD's duties and responsibilities will 
be assumed by the director of a new Defense Agency that is being formed 
by merging three existing organizations, and will be overseen by the 
Under Secretary of Defense for Policy. I fully understand the priority 
our Nation places on this issue and, should I be confirmed, I will 
fully support the Department's efforts to account for personnel missing 
from past conflicts.
    Question. Commander, U.S. Forces Afghanistan/Commander, 
International Security Assistance Force.
    Answer. When needed, Commander, U.S. Pacific Command, communicates 
and exchanges information with the Commander, U.S. Forces Afghanistan/
Commander, International Security Assistance Force via the Commander, 
U.S. Central Command (CENTCOM).
    Commander, U.S. Pacific Command, maintains a close relationship and 
communicates directly with the Commander, CENTCOM, on issues of mutual 
interest that affect both of their AORs so that respective strategies, 
policies and operations are coordinated and mutually supportive. India-
Pakistan issues have heightened the importance of close cross-COCOM 
coordination. Additionally, Commander, U.S. Pacific Command, must be 
alert to the possibility of ``spillover'' into this region of Islamic 
State of Iraq and the Levant (ISIL) fighters and sympathizers, 
especially the return of these fighters to countries in this region.
    As a force provider, PACOM routinely sends forces to CENTCOM 
including and most notably, aircraft carrier strike groups, Marine 
expeditionary forces, Air Force fighter squadrons, and Army Brigade 
Combat Teams. These forces support CENTCOM and the fight in Afghanistan 
by providing land and sea based striking power, expeditionary 
flexibility, and Ballistic Missile Defense (BMD).
    Question. Director of the National Guard Bureau.
    Answer. Commander, U.S. Pacific Command, communicates and exchanges 
information with the Director of the National Guard Bureau to support 
the Bureau's responsibilities for organizing, training, and equipping 
forces. Like the Service Chiefs, successful execution of PACOM's 
mission requires close coordination with the National Guard Bureau.
    Question. The Chief of Naval Research.
    Answer. The Office of Naval Research is a valuable resource for 
technologies that help the Commander, U.S. Pacific Command, counter 
developing threats in the Asia-Pacific region. If confirmed, I will 
maintain a close relationship with the Chief of Naval Research as well 
as the other Services' research organizations and national laboratories 
to ensure the requirements for developing technologies for PACOM are 
understood.
                       challenges and priorities
    Question. In your view, what are the major challenges that will 
confront the next Commander, U.S. Pacific Command?
    Answer. This region is critical to U.S. and global security and 
prosperity. The United States works with its allies and partners to 
ensure the region's security and set the conditions for economic 
prosperity. As our Nation globally rebalances toward the Asia-Pacific 
region, and if confirmed, I will focus on three main challenges in the 
PACOM AOR. First, North Korea's large conventional military, relentless 
quest to acquire weapons of mass destruction and the means to deliver 
them, and consolidation of power by Kim Jong Un present a clear and 
present danger to regional security and stability. This is the region's 
most volatile challenge and my greatest concern. Second, China's rise 
as a regional military and global economic power, and in particular, 
its rapid military modernization and assertive behavior toward regional 
neighbors present opportunities and challenges that must be managed 
effectively. This is our most enduring challenge. Finally, the 
stability, security, and prosperity of the Asia-Pacific will depend on 
strong relationships with our treaty allies and partners to ensure that 
we are able to maintain access to, and use of, the global commons, 
including cyber. We must remain alert to the potential for ISIL 
fighters from Asia-Pacific nations to return to their countries of 
origin. With their combat experiences and extremist ideology, they 
could rejoin or establish new Violent Extremist Organizations in the 
region. Importantly, we must ensure that our relationships, especially 
in the security assistance arena, help instill respect for human rights 
and do not abet rights violations.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. I will support the administration's whole-of-government 
approach to achieve a peaceful, secure, and prosperous future security 
environment on the Korean Peninsula. Forward-based and forward-deployed 
U.S. military presence in the Western Pacific will continue to reassure 
our treaty allies and deter aggression by North Korea. If this fails, I 
will ensure PACOM forces are prepared to fight and defeat North Korean 
forces.
    I will work to continue modernizing and strengthening our treaty 
alliances and partnerships in the region as we orient them toward the 
challenges of the 21st century. These critical relationships are 
enhanced by maintaining interoperable military capabilities that deter 
regional aggression and build partner security capacity. Additionally, 
I will work toward maturing the military-to-military relationship with 
China. Both China and the United States have a strong stake in the 
peace and stability of the region. Building a cooperative bilateral 
relationship will reduce the likelihood of a miscalculation, increase 
the clarity of Chinese strategic intentions, and encourage mutual 
engagement in areas of common concern. Finally, I will work to improve 
the Japanese and Korean relationship, especially in the military-to-
military arena. Enhancing our trilateral cooperation with Japan and 
Korea will strengthen regional stability in Northeast Asia.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed?
    Answer. My first priority will be to continue to maintain a 
credible deterrent posture and reassuring military presence in the 
Asia-Pacific. Second, I will continue to strengthen our alliances and 
partnerships. Third, I will work through DOD and with this committee to 
collaborate with other elements of the U.S. Government and our allies 
to maintain peace on the Korean Peninsula and bring about the 
verifiable elimination of North Korea's nuclear weapons program. 
Fourth, I will actively pursue steady and measured military-to-military 
engagement with China toward a cooperative and constructive 
relationship. Lastly, while supporting our Nation's strategic focus on 
the Asia-Pacific and sustaining the realignment and transformation 
processes already underway, I will work to carefully shepherd and 
repeatedly assess progress toward our desired force posture.
                     force posture in the pacom aor
    Question. Significant changes to the U.S. force posture in the 
region have already begun or are planned to begin in the next few 
years, including movement of Marines from Okinawa to Guam and the 
relocation of U.S. forces within South Korea. There are also plans to 
increase U.S. presence in southern parts of the Asia-Pacific, including 
in Australia and Singapore, and to develop comprehensive engagement 
strategies with a number of other countries in the region, such as the 
Philippines and Vietnam. These initiatives will likely compete with 
other global commitments for increasingly constrained funding.
    What is your understanding of the national security priorities in 
the Asia-Pacific?
    Answer. Our national security priorities in the Asia-Pacific 
include encouraging the peaceful resolution of disputes, including 
territorial disputes and those based on history; upholding the freedom 
of navigation; standing firm against coercion, intimidation, and 
aggression; building a cooperative regional architecture based on 
international rules and norms; enhancing the capabilities of our allies 
and partners to provide security for themselves and the region; and 
strengthening our own regional defense capabilities.
    The North Korean threat is the most significant threat to stability 
in the region, while a tactical miscalculation arising from territorial 
disputes such as those that exist in the East and South China Seas is 
the most likely. Natural disasters such as typhoons, earthquakes and 
tsunamis will surely occur and some of these will overwhelm the ability 
of the Nations involved to overcome without assistance from the PACOM 
must have key capabilities in theater, including robust predictive 
intelligence, readily available to demonstrate America's commitment to 
the region and to our allies, friends, and partners there. We must be 
prepared to address incidents and crises quickly and, if needed, to 
fight on short notice.
    Question. In your view, what strategic criteria, if any, should 
guide the posture of U.S. military forces in that region to best 
address those priorities at acceptable risk?
    Answer. I believe the posture of U.S. forces in the Asia-Pacific 
should ensure that U.S. forces are able to operate near potential 
sources of conflict, safeguard critical assets and infrastructure, 
respond rapidly to crises, maintain a politically sustainable force 
laydown, meet contingency and steady state sustainment requirements, 
and guarantee our ability to execute contingency operations. The 
presence of U.S. forces on the Korean Peninsula, the risk associated 
with proximity of those forces to North Korean military capabilities, 
and the advanced technological capabilities resident in the Asia-
Pacific require that the most technologically advanced and ready forces 
are forward deployed in the AOR.
    Question. How, if at all, do the methods of forward basing, 
rotational forces, and agreements with allies for training and 
logistics activities support our national security priorities 
throughout the region?
    Answer. DOD views posture as a combination of three elements: 
forces, footprint, and agreements. ``Forces'' are U.S. military 
capabilities, equipment, and commands, assigned or deployed. 
``Footprint'' describes our infrastructure, facilities, land, and 
prepositioned equipment. ``Agreements'' are treaties, as well as 
access, transit, support, and status of forces arrangements with allies 
and partners. Together, these elements enable the United States to 
maintain a forward presence to achieve our national security objectives 
and demonstrate our commitment to the region.
    PACOM operations, activities, and actions help shape an Asia-
Pacific region into one that is secure, prosperous, and underpinned by 
a rules-based international order. If confirmed, I will posture our 
forces, footprints, and agreements in a manner to effectively 
communicate U.S. intent and resolve to safeguard our national 
interests, strengthen alliances and partnerships, maintain an assured 
presence in the region, prevent conflict and, in the event of crisis, 
respond rapidly and effectively across the full range of military 
operations in order to resume steady state activities.
    Question. In your view, is the right mix of these forward presence 
methods necessary to achieve an affordable theater posture at 
acceptable levels of risk? If so, how would you propose broadly 
assessing each method relative to its cost and benefit?
    Answer. Yes. However, our current force structure and presence are 
not optimal to counter the threats we face. The size of the Asia-
Pacific region and the diversity of threats--from military provocation 
to illicit trafficking in all its forms to countering terrorism to 
responding to natural disasters--warrant a more stable forward-deployed 
presence and readiness posture.
    Risk measures our global force structure, including the 
availability of forces, access, and basing against the full range of 
regional threats and challenges. With fewer forces, we become more 
reliant on access and basing. With even less forces, the combatant 
commander is forced to accept even more risk. A more stable budget 
environment would allow better management of this risk. Although DOD 
already has processes in place to continuously evaluate these variables 
and make adjustments, some risks cannot always be mitigated. These 
risks must be managed based on the context of the moment.
    Question. How important is a forward basing strategy to the ability 
of PACOM to execute its day-to-day mission? Its operational contingency 
plans?
    Answer. I believe the United States' forward-based forces are our 
most visible sign of our commitment to regional peace and stability and 
are critical to PACOM's day-to-day operations. They are essential to 
our ability to respond quickly and effectively to contingencies. 
Forward based forces are not only the first responders in any 
contingency, they also serve to assure allies and partners and deter 
aggression by potential adversaries. Additionally, forward-based forces 
are vital for day-to-day engagement where we train and exercise with 
allies and partners to enhance capabilities and capacity across the 
region.
    Question. How does the planned relocation of U.S. forces from 
Okinawa to Guam and other locations in the Pacific improve U.S. 
security in the region? How does the planned relocation of U.S. forces 
on the Korean Peninsula improve security?
    Answer. Maintaining ready forces close to potential sources of 
conflict is a key pillar of force posture in the Asia-Pacific region. 
The relocation of U.S. forces from Okinawa to Guam and other locations 
in the Asia-Pacific will allow us to maintain a significant number of 
ready forces west of the international dateline, signaling and assuring 
our steadfast commitment to the region and our regional alliances. Our 
forces will be readily available for multi-regional security, 
humanitarian assistance, disaster relief, and operational 
contingencies. Moreover, this strategic dispersal of forward-deployed 
forces will increase our agility to respond to crisis and, at the same 
time, complicate the calculus of potential aggressors.
    The United States' commitment to the security of the Republic of 
Korea is unshakeable. The planned posture changes in Korea support a 
broader force posture in the Asia-Pacific that is geographically 
distributed on the Korean peninsula, operationally resilient, and 
politically sustainable. These changes addresses host nation concerns 
and simultaneously improve our mutual defense infrastructure. The 
Army's rotational plan is a global model designed to rotate fully 
trained formations with high unit cohesion, yielding a net increase in 
combat capability. I support the posture changes on the Peninsula 
consistent with the joint vision for the alliance laid out by both 
Presidents and further developed by the Secretary of Defense and his 
Republic of Korea counterpart. If confirmed, I will continue close 
defense cooperation with South Korea.
    Question. In your view, are the levels of funding, manning and 
military-to-military engagement in the Asia-Pacific region appropriate 
to the management of current and future risk to U.S. strategic 
interests in the region? Do you foresee a requirement to increase or to 
decrease those funding levels in the coming years?
    Answer. The January 2012 Defense Strategic Guidance and the March 
2014 Quadrennial Defense Review place an emphasis on the importance of 
the Asia-Pacific. If confirmed, I will review levels of funding, 
manning, and military-to-military engagement in the Asia-Pacific region 
and, if there are shortfalls in existing resources, I will advocate for 
additional resources required to support the President's priorities. My 
preliminary assessment is that there is a great deal that must be 
accomplished out here and we are limited by current resources. While I 
do believe funding levels must be increased in the future if we are to 
meet all of our commitments, the ability to do so will be influenced by 
budgetary requirements and limitations such as sequestration and 
continuing resolutions, changes to the regional security environment, 
and the relative priority of other military commitments around the 
globe.
    Question. What are your views on the current number and types of 
ships forward-stationed in the Asia-Pacific region? Are they sufficient 
to support the current operational and contingency plans or would you 
foresee the need to increase or change that naval force structure in 
the AOR?
    Answer. The January 2012 Defense Strategic Guidance and the March 
2014 Quadrennial Defense Review place an emphasis on the importance of 
the Asia-Pacific. Admiral Locklear has gone on record asking for 
consideration that the 10th Amphibious Ready Group or elements of that 
unit be based west of the dateline, options for homeporting the 
hospital ship USNS Mercy west of the dateline be considered, and 
additional maritime intelligence, surveillance, and reconnaissance 
(ISR) assets be kept forward in the Western Pacific. I believe recent 
events such as Operation Damayan (Typhoon Haiyan disaster relief effort 
in the Philippines in 2013) and the search for Malaysian Airlines 
Flight 370 validate forward basing such assets. If confirmed, I will 
review levels of assigned forces in the Asia-Pacific region and, if I 
believe there are shortfalls, I will advocate for additional resources 
required to support the President's and Secretary's priorities.
    Question. Specifically, what is your assessment of the number of 
amphibious ships required in the AOR?
    Answer. In addition to the Amphibious Ready Group (ARG) forward 
deployed in Sasebo, Japan, the Program of Record will provide 5 
Amphibious Ready Groups in San Diego to meet rotational assignments in 
the PACOM and CENTCOM AORs. Once the Program of Record is executed, 
these amphibious ships are adequate to meet current demands. However, 
forward basing the 10th ARG west of the international dateline would 
increase theater security cooperation opportunities and enhance PACOM's 
ability to quickly respond to contingencies.
    Question. How would fully funding construction of 12 LPD-17 class 
ships impact AOR needs?
    Answer. The current plan is to fund construction for the 11th LPD-
17 to fulfill the 5-Amphibious Ready Group requirement in San Diego. 
Constructing an additional LPD-17 ship would provide additional 
flexibility to meet additional Marine Corps requirements.
    Question. What is your assessment of the feasibility of using the 
LPD-17 hull to support BMD requirements?
    Answer. I am not aware that adapting the LPD-17 hull to support BMD 
requirements is an initiative that has been vetted at senior levels 
within the Navy. As the Commander of the U.S. Pacific Fleet, my opinion 
is that we don't have enough of these ships in the inventory today to 
support Marine Corps requirements and that they are fully employed in 
their current mission sets. Adding BMD to these ships would not only be 
expensive, it could potentially cause either mission (BMD or 
amphibious) to suffer in support of the other.
    Question. What is your assessment of the force level requirements 
in the AOR, and potential impact of longer deployments on quality of 
life for following ship types: Carriers (CVN), Attack Submarines (SSN), 
and Auxiliaries (Fast Combat Support).
    Answer. Global demands for forces and the price of 13 years of war 
place a heavy tax on our forces. As part of ``fair sharing'' as 
adjudicated through the global force management process, PACOM 
routinely falls short of formally-stated force requirements. Personnel 
and operations tempo limitations, planned and unplanned maintenance, 
and necessary training requirements all detract from the commander's 
ability to get purposeful presence from those forces permanently 
assigned to PACOM. Admiral Locklear's stated demand for carriers, 
attack submarines, and auxiliaries is not met. If confirmed, I will 
review the PACOM force requirements and will not hesitate to ask for 
the forces I believe we will need to meet our assigned missions.
    While force levels in the AOR from a permanent homeport basis 
(i.e., ``forces for'') are adequate, meeting demands of COCOMs in other 
AORs detracts from PACOM presence. For example, when the forward 
deployed naval forces (FDNF) carrier in Japan is in planned maintenance 
we do not always have a ready replacement carrier in the Western 
Pacific because of other worldwide demands.
    Deployments for carrier strike groups and amphibious ready groups 
are expected to normalize over time as the Navy fully implements its 
Optimized Fleet Response Plan (OFRP) to a nominal 7-month deployment 
length. OFRP should help improve both quality of life and training/
readiness as schedules become more predictable. Attack submarines are 
generally able to maintain 6-month deployments. Auxiliary ships (T-
AKEs, T-AOs, T-AOEs) are Military Sealift Command (MSC) ships with 
rotational civilian mariner crews and not subject to deployment 
restrictions. JHSVs and MLPs will also be operated my MSC under similar 
conditions.
    Question. In view of declining ship force structure numbers, and 
lengthened deployments becoming the norm, what proposals would you 
suggest to better leverage the current force and minimize adverse 
quality of life manning impact?
    Answer. The Navy is on track to achieve its goal of homeporting 60 
percent of the fleet in the Pacific by 2019. Implementing the new 
Optimized Fleet Response Plan across all ships will provide greater 
stability in schedules, as well as time to conduct adequate maintenance 
and training. That said, homeporting ships in the Western Pacific 
increases presence without the 4:1 turnaround ratio for rotational 
deployments, providing for quicker response to contingencies and 
greater awareness of the operating areas. I fully support forward 
presence including the near term addition of two more BMD destroyers to 
Japan, a fourth SSN to Guam, and expanding littoral combat ship 
presence in Singapore.
    Question. How does the planned relocation of U.S. forces from 
Okinawa to Guam improve U.S. security in the region?
    Answer. The United States' commitment to the security of Japan is 
unshakeable. Maintaining ready forces close to potential sources of 
conflict is a key pillar of our force posture in the Asia-Pacific. The 
Marine Corps Distributed Laydown is a critical enabler to PACOM's Asia-
Pacific strategy. The relocation of U.S. forces from Okinawa to Guam 
will allow PACOM to maintain a significant number of ready forces west 
of the international dateline, signaling and assuring our steadfast 
commitment to the region and our regional alliances. Forces will be 
readily available for multi-regional security and humanitarian 
assistance/disaster relief missions in addition to operational plan/
contingency plan operations. At the same time, PACOM will be able to 
reduce the number of Marines on Okinawa, which is politically 
sustainable as it comports with the desires of the host government. If 
confirmed, I will continue the close defense cooperation with Japan.
    Question. How does the planned relocation of U.S. forces on the 
Korean Peninsula improve security?
    Answer. Our commitment to the security of the Republic of Korea is 
unshakeable. The planned posture changes in Korea will produce a force 
that is geographically distributed, operationally resilient, and 
politically sustainable. The changes appear to address host nation 
concerns and simultaneously improve our mutual defense infrastructure. 
I support the posture changes on the Peninsula consistent with the 
joint vision for the alliance laid out by both Presidents and further 
developed by the Secretary of Defense and his ROK counterpart. If 
confirmed, I will continue the close defense cooperation with South 
Korea.
    Question. What is your understanding of the plans for rotational 
deployments of U.S. marines to Australia and how, in your view, will 
such a presence advance U.S. security interests?
    Answer. During the August 2014 Australia-United States Ministerial 
Consultations, Secretary Kerry, Secretary Hagel, the Australian 
Minister of Foreign Affairs, Julie Bishop, and the Australian Minister 
of Defense, David Johnston signed a Force Posture Agreement that 
enables the investments required to reach a full rotational deployment 
of up to 2,500 U.S. marines and enhances U.S. Air Force cooperation and 
access to Northern Australian airfields. The initiatives that we 
implement under this agreement will continue to enhance our alliance 
with Australia and our engagement with other regional partners. Smaller 
Marine rotations to Darwin over the past several years have proven that 
the multilateral engagement opportunities are beneficial to both U.S. 
security interests and to our allies' and partners' interests in the 
region. Additionally, Marine Corps presence in Darwin will help both 
nations better respond cooperatively to a crisis in the region, 
including humanitarian assistance and disaster relief. These 
initiatives--developed in cooperation with our important Australian 
ally--demonstrate the strength of the U.S.-Australia alliance and its 
ability to enhance regional stability and security. If confirmed, I 
will continue the close defense cooperation with Australia.
    Question. Do you have any concerns about the timing and readiness 
of follow-on forces arriving in PACOM to meet operational plans? If 
yes, what are they and how can they be resolved?
    Answer. Yes. The time it will take to deploy the forces/
capabilities to locations of most likely crisis and contingency within 
the PACOM AOR remains a concern. The tyranny of distance involved in 
moving forces from the West Coast to the Western Pacific, especially 
Korea, impacts my ability to provide a timely response.
    If confirmed, I will advocate for the necessary forward deployed 
forces, in conjunction with a dynamic force presence and required 
lift--both sealift and airlift--to ensure we are able to meet required 
operational timelines.
    Question. The rebalance to the Pacific will increase the percentage 
of U.S. ships in the region from 50 percent to 60 percent of the Navy's 
entire fleet. However if the fleet size is reduced from about 300 ships 
to about 250 ships, the number of ships forward deployed the region 
will remain the same at about 150.
    Does the potential of increasing the percentage of ships in the 
region, but the number of ships in the region remaining the same, lead 
to challenges regarding the expectations of allies, and if so, how 
would you plan to mitigate such an effect?
    Answer. The Navy is on track to meet its goal of homeporting 60 
percent of the fleet in the Pacific by 2019. Current projections show 
that the fleet size in 2019 will be 286 ships, meaning that 60 percent 
would total 171 ships. This represents an increase of 21 ships from 
today's current presence. That said, if the number of ships in the Navy 
inventory shrinks to 250 because of sequestration or other mandates, 
the Pacific Fleet would certainly field a proportionally smaller force. 
However, while I agree that quantity has a quality all its own, looking 
solely at the number of ships provides only a partial view of our 
capability--our platforms and systems are dramatically more advanced 
and capable than their predecessors. Risk in capacity is mitigated by 
improvements in capability, including the leverage provided by the 
Joint force.
    Question. How do you plan to mitigate the effects of reduced U.S. 
aircraft carrier presence in the region?
    Answer. The Navy does not plan to reduce carrier numbers in the 
Pacific Fleet. In fact, once CVNs 78 and 79 come on line, the Navy's 
carrier numbers will be at 11 with 6 CVNs homeported in the Pacific. 
While not optimal, until then, PACOM has significant deployable assets 
across the Joint force that can achieve meaningful deterrent and/or 
kinetic effects. If confirmed, I will continue to posture these forces 
to achieve PACOM objectives and mitigate operational risk.
    Question. The March 14, 2014 U.S.-China Economic and Security 
Review Commission report said that'' . . . there is growing concern 
among U.S. allies and partners that the United States will be unable to 
follow through on its commitment to the rebalance due to declining 
defense budgets and continuing security challenges elsewhere. 
Furthermore, some regional countries almost certainly began to question 
the willingness of the United States to restrain China's increasing 
assertiveness after China in 2012 gained de facto control of 
Scarborough Reef, territory also claimed by the Philippines, a U.S. 
treaty ally. This perception could lead some regional countries to 
increasingly accommodate China or pursue military capabilities that 
could be used offensively or preemptively.''
    Do agree with this assessment and what mitigation steps would you 
recommend?
    Answer. While I agree that some countries are concerned, I disagree 
with the premise that the United States is unable to follow through on 
its commitment to the rebalance and is, therefore, a poor security 
partner. The Rebalance is real and being realized now. I firmly believe 
our allies and partners are confident about the U.S. commitment to the 
region. In fact, in meetings I've had with civilian and military 
leaders across the region, countries are consistently turning to the 
United States as their security partner of choice.
    Additionally, I have not observed evidence to suggest any 
significant alignment or accommodation to China among our allies and 
partners. To the contrary, China's provocative behavior troubles them 
greatly, which has created a demand signal for greater partnership with 
the United States. Most nations (including the United States) have 
increased their economic relationship with China over the past few 
years--this, of itself, is not a bad thing as it helps promote a strong 
and prosperous Asia-Pacific region. However, economic arrangements do 
not portend security relationships. I do not see the demand signal for 
partnership with the U.S. abating.
                           engagement policy
    Question. One of the central pillars of our national security 
strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, joint 
combined exchange training exercises, combatant commander exercises, 
humanitarian assistance operations, and similar activities are used to 
achieve this goal.
    If confirmed, what modifications, if any, would you make to the 
engagement activities of the U.S. military in PACOM? What would be your 
priorities for such activities?
    Answer. If confirmed, I would not modify Admiral Locklear's 
approach to engagement in the region, which is properly focused on 
strengthening existing alliances and partnerships and building new 
relationships. Our deepening partnerships with Malaysia, Vietnam, 
Singapore and Indonesia are examples of recent progress. I would 
continuously assess and adjust engagement activities based on changing 
regional dynamics and adjustments to national guidance and initiatives. 
Should I be confirmed, my priority would be to continue this process of 
expanding our network of partners to improve the stability and 
prosperity of the region.
    Question. In your opinion, how do these activities contribute to 
U.S. national security?
    Answer. Military engagement activities strengthen the network of 
alliances and partnerships in the Asia-Pacific, reinforce deterrence, 
and build partner capacity and competence which, in turn, advance 
common interests, address shared threats, and facilitate freedom of 
movement and access. Military engagement builds partnership capacity in 
order to reduce risk to U.S. forces and postures the United States as 
the security partner of choice.
    Question. In February 2014, General Herbert Carlisle, Commander of 
U.S. Pacific Air Forces, warned in an interview that America's 
cancellation of a number of military-to-military exercises in Asia is 
``incredibly concerning amongst our friends, partners and allies,'' and 
added: ``If there is any angst out here [from allies], it is the budget 
situation we are facing; the rebalance of the Pacific; and if, given 
the fiscal constraints that the United States has, if we are going to 
be able to follow through on that.''
    Do you share General Carlisle's assessment regarding ``angst'' 
about the ability of the United States to properly resource and execute 
its Asia Rebalance strategy?
    Answer. General Carlisle made those comments after Pacific Air 
Forces, Pacific Fleet, and the other PACOM components cancelled or 
down-scoped numerous exercises, large and small, in 2013 due to the 
sequester. I agree with him completely that continuous changes in 
fiscal fact and assumptions hamper our ability to execute mid- and 
long-term plans and exercises. This leads to poor utilization of 
resources. These budget uncertainties affect not only our ability to 
exercise and operate with our allies and partners, they also affect our 
people, equipment, and infrastructure by reducing training and delaying 
needed investments. These delays reduce our readiness and the ability 
to reliably interact with our allies and partners in the region.
    Question. Do you believe that in order to demonstrate a serious 
U.S. commitment to the Asia-Pacific, that PACOM will need significantly 
more resources than would be permitted under the Budget Control Act?
    Answer. Continued reductions to meet sequestration-mandated 
resource levels will diminish our military's size, reach, and margin of 
technological superiority. All of these factors will impact the U.S. 
rebalance to the Pacific. For example, there will be fewer aircraft and 
ships, and these will be under-maintained; there will be fewer troops, 
and they will be under-trained; and we will have to fight with older 
weapon systems and equipment.
    Question. What specific military risks do you think the United 
States and its allies and partners in Asia will incur if the Budget 
Control Act goes forward?
    Answer. The cumulative effect of continuing resolutions and 
sequestration will result in significant reductions to the readiness, 
presence, capability, and interoperability of U.S. forces in the 
region. It will decrease our ability to train, exercise, and engage 
with allies and partners throughout the Asia-Pacific, which will limit 
the progress in building capable partners that can operate in coalition 
with, or in lieu of, U.S. forces. As a result, the United States will 
bear more significant risk in the event of a regional contingency.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations, including the global train and equip authority (``section 
1206'') and Global Contingency Security Fund.
    What is your understanding of the purpose of the section 1206 
global train and equip authority and Global Contingency Security Fund?
    Answer. Congress approved section 1206 global train and equip 
authority in 2006 in part to give the State Department and DOD a more 
flexible capacity building authority to address urgent and emergent 
threats before the threats destabilize theater partners or threaten the 
Homeland. I worked with this authority when I was assigned to U.S. 
Southern Command as its Director of Operations in 2007-2008. In 2009, 
the scope expanded to assist coalition partners as they prepare for 
deployment. This rapid funding tool is PACOM's most agile mechanism to 
address counter terrorism capability gaps in partner nations.
    The Global Security Contingency Fund (GSCF) is an initiative to 
pool the resources of the Departments of State and Defense, as well as 
the expertise of other departments, to provide security sector 
assistance for emergent challenges and opportunities.
    The GSCF has no appropriated funding; rather State and DOD can 
transfer funds from other appropriations into the GSCF. DOD can 
transfer up to $200 million from defense-wide Operations and 
Maintenance and State can transfer up to a combined $25 million from 
Foreign Military Financing, International Narcotics Control and Law 
Enforcement, and the Pakistan Counterinsurgency Capability Fund. The 
GSCF can provide assistance to: (1) national military and security 
forces, as well as the government agencies responsible for overseeing 
these forces; and (2) the justice sector when civilian agencies are 
challenged (including law enforcement and prisons), rule of law 
programs, and stabilization efforts in a country.
    PACOM currently has two GSCF projects in progress, one in the 
Philippines and one in Bangladesh. The Bangladesh project is valued at 
$3.5 million and focuses on increasing interoperability between the 
Bangladesh Ministry of Defense and Ministry of Home Affairs. The 
Philippines project is valued at $40 million and focuses on 
strengthening maritime domain awareness and transferring internal 
security from the military to law enforcement agencies. Both of these 
projects are in the execution phase now and should enhance security in 
those nations.
    Question. In your view, what are our strategic objectives in 
building the capacities of partner nations in the Asia and Pacific 
region?
    Answer. The United States' primary objective in building the 
capacity of foreign partners is to help them develop effective and 
legitimate security institutions that can provide for their countries' 
security while contributing to regional and multilateral responses to 
shared threats. Capacity building provides opportunities to build 
defense relationships and promotes both interoperability between our 
forces and access to the region during peacetime and contingency 
operations. Lastly, building this capacity in our allies and partners 
lessens the burden on U.S. forces responding to security threats 
outside the United States.
    Question. In a resource-constrained fiscal environment, how would 
you prioritize the types of programs or activities that should receive 
support under these security assistance authorities?
    Answer. If confirmed, I would prioritize the most critical partner 
capability shortfalls in the PACOM AOR that present risk to the United 
States, our allies, and our partners first. In order to receive the 
most value from these programs, regardless of the fiscal environment, I 
would aggregate the critical gaps from PACOM's country plans, find 
common gaps and areas of concern such as maritime security and counter-
terrorism, and identify gaps in overlooked and under-resourced areas. 
Additionally, I would work closely with our Ambassadors to synchronize 
our efforts with other U.S. Government entities to ensure a whole of 
government approach to the region.
    Question. In your view, what should be the role of DOD, vis-a-vis 
other civilian departments and agencies of the Government, in the 
exercise of instruments of soft power (civilian expertise in 
reconstruction, development, and governance)?
    Answer. DOD does, and in my view should, play a role in supporting 
other U.S. Government departments and agencies to create a whole-of-
government effort when exercising soft power. For example, following a 
natural disaster, DOD often responds to U.S. Agency for International 
Development (USAID) requests for humanitarian assistance. DOD and 
partner agencies and departments have liaisons embedded in each other's 
major headquarters to enable the DOD to effectively provide that 
support. At PACOM, for example, there are liaison officers from the 
Department of Energy, Department of the Interior, USAID, Department of 
State, Federal Bureau of Investigation, and the National Oceanographic 
and Atmospheric Administration (NOAA), among others. DOD also plays a 
key role in working specifically with partner nation defense 
institutions in order to build capacity by contributing perspectives 
and lessons learned that reside uniquely within the Department; 
however, it is critical that these efforts be undertaken in close 
coordination with other Federal agencies, particularly the Department 
of State.
    Question. What is your assessment of the effectiveness of these 
building partner capacity programs conducted in the PACOM AOR in 
supporting U.S. strategic objectives?
    Answer. I believe the building partner capacity programs are very 
effective. PACOM's planning priorities directly support U.S. strategic 
objectives and PACOM's Theater Security Cooperation operations, 
activities, and actions receive the coordination and resourcing rigor 
necessary to ensure the best use of resources to achieve those 
objectives.
                                 china
    Question. China's defense spending has had double-digit increases 
annually for about the past 20 years.
    How would you characterize the current U.S. relationship with 
China?
    Answer. The senior-most leaders of our two countries have 
consistently affirmed the need for a positive, cooperative, and 
comprehensive U.S.-China relationship. It is a relationship which 
includes elements of cooperation and competition. It is one of the most 
complex and important relationships in the world. China's efforts to 
cooperate with the international community, such as help with the 
removal of chemical weapons from Syria, counter piracy in the Horn of 
Africa, and participation in humanitarian and disaster relief 
operations during the search for Malaysia Airlines Flight 370 and 
Typhoon Haiyan should be encouraged. At the same time, China is rapidly 
modernizing its military and engaging in aggressive behavior against 
its neighbors, particularly in the East and South China Seas.
    Question. What do you believe are the objectives of China's steady 
increase in defense spending and its overall military modernization 
program?
    Answer. China appears to be building the capability to fight and 
win short duration, high-intensity conflicts along its periphery, 
including, potentially, countering U.S. military intervention in 
regional conflicts. In this respect, we are watching carefully China's 
investments in so-called anti-access/area denial capabilities. Its 
near-term focus appears to be on preparing for potential contingencies 
involving Taiwan. Its modernization efforts emphasize anti-access and 
area denial capabilities. China is also devoting increasing attention 
and resources to conducting operations beyond Taiwan and China's 
immediate periphery. Beijing's growing focus on military missions other 
than war includes humanitarian assistance, non-combat evacuation 
operations, and counter-piracy support. Lastly, China is strengthening 
its nuclear deterrent and enhancing its strategic strike capabilities 
through modernization of its nuclear forces. Additionally, China is 
improving other strategic capabilities such as in space, counter-space, 
and computer network operations.
    Question. How should the United States respond to this Chinese 
military growth and modernization?
    Answer. I believe the United States should continue to monitor 
developments in China's military concepts and capabilities while 
encouraging Beijing to be more transparent about its military and 
security affairs. The United States has been, and should remain, the 
pivotal military power in the Asia-Pacific region in order to preserve 
the conditions that have fostered peace and prosperity. The United 
States' response to China's military modernization should be flexible 
and supported by the continued transformation of our force posture in 
the region, the maintenance of our global presence and access, the 
modernization of our own capabilities in areas such as countering anti-
access and area denial, and the strengthening of our alliances and 
partnerships.
    Question. What are your views of China's deployment of warships to 
counter piracy in the western Indian Ocean and how does this deployment 
contribute to China's ability to project power?
    Answer. Counter piracy is an area of mutual concern as Indian Ocean 
pirates threaten the commercial shipping of both our countries. 
Ultimately, we want to see China become a net contributor to global 
stability. These operations allow China to take a more active role in 
contributing to the international effort of safeguarding sea lines of 
communication. It demonstrates to China the value of multilateral 
approaches to global problems. China's power projection ability is 
progressing and we recognize the evolution of its military 
modernization. Operations like those off the Horn of Africa can improve 
China's ability to operate at greater distances from China.
    Question. What do you believe are the Chinese political-military 
goals in the Asia-Pacific region? Globally?
    Answer. The overarching objectives of China's leaders appear to be 
ensuring the continued rule of the Chinese Communist Party, continuing 
China's economic development, maintaining the country's domestic 
political stability, defending China's sovereignty and territorial 
claims, and securing China's influence and status. Within this context, 
leveraging its political, economic, and military clout to move toward 
unification with Taiwan is a key part of Beijing's strategy.
    Question. What effect is China's military growth having on other 
countries in the region?
    Answer. China's rapid rise and the relative lack of transparency 
surrounding its intentions are increasingly a source of instability in 
the region. Other countries in the region are closely watching the 
growth of China's military and how its military acts. Tensions between 
China and its neighbors in the East and South China Seas have 
increased, spurring regional actors to modernize their forces.
    Answer. Security concerns regarding Chinese military intentions 
have contributed to a greater focus on regional forums such as ASEAN, 
where issues may be addressed multilaterally. Such security concerns 
have also led to stronger and more welcoming relations between Asia-
Pacific countries and the United States as a security partner of 
choice.
    Question. How do you assess the current cross-strait relationship 
between China and Taiwan, and how can we help prevent miscalculation on 
either side?
    Answer. Both China and Taiwan have made significant strides to 
reduce tensions in the Taiwan Strait. These initiatives should be 
encouraged and we welcome the progress made by both sides. I believe 
the United States can help contribute to cross-strait stability by 
continuing to abide by our longstanding policies, based on the one 
China policy, three U.S.-China Communiquees, and the Taiwan Relations 
Act, including making available to Taiwan ``defense articles and 
services in such quantities as may be necessary to enable Taiwan to 
maintain a sufficient self-defense capability.''
    Question. How do China's efforts to establish a strategic presence 
in the Indian Ocean by securing and maintaining access to seaports in 
various South and Southeast Asian countries affect its political-
military posture and influence in the region?
    Answer. China looks to South and Southeast Asia as areas of 
strategic importance, which includes political objectives, access to 
ports, and access to resources, trade, and investment. I remain 
concerned with how China intends to use its presence. As China 
increases its naval deployments to the region, including ongoing 
participation in counter-piracy activities in the Gulf of Aden, China 
will require greater forward logistics capabilities to sustain 
operations. We have already seen Chinese submarines pull into Sri 
Lanka, for example. Establishing access to various seaports will 
require improving ties with states along the Indian Ocean littoral and 
closer cooperation with other regional navies, which could expose them 
to more nontraditional security challenges such as terrorism. The U.S. 
retains strong relationships in South and Southeast Asia and should 
continue to monitor China's growing presence in the region.
    Question. What is the role of DOD in helping to ensure that China's 
nuclear power industry does not contribute to the proliferation of 
nuclear weapons in the region?
    Answer. China is a signatory to the Nuclear Non-Proliferation 
Treaty and the United States should continue to insist that China meet 
its obligations under that accord. DOD participates in the U.S. 
Government effort to execute the President's vision to prevent the 
proliferation of weapons of mass destruction and delivery systems, 
along with related technologies and material throughout the globe. DOD 
must maintain robust ISR capabilities to ensure we are aware of 
developments in this area. Finally, I believe that DOD should continue 
to work with the interagency to ensure that any proliferation concerns 
relating to China are expressed to the Chinese Government in the 
appropriate forums.
    Question. What is your assessment of the current state of U.S.-
China military-to-military relations?
    Answer. I believe the United States and China desire a healthy, 
stable, reliable, and continuous military-to-military relationship. 
There are recent examples where we have seen improved practical 
cooperation, such as counter-piracy, humanitarian assistance, disaster 
relief, and military medicine exchanges. The PLA (Navy) participated--
at U.S. invitation--in this year's Rim of the Pacific (RIMPAC) maritime 
exercise in the Hawaiian operating areas (even though they also 
deployed an intelligence-collecting ship in the U.S. exclusive economic 
zone during the exercise). China hosted the Western Pacific Naval 
Symposium in Qingdao earlier this year, during which the Navies for the 
region (including the PLA Navy) adopted the Code for Unplanned 
Encounters at Sea (CUES). I attended, was treated extremely well, and 
had frank discussions with its Chief of Navy, Admiral Wu Shengli. The 
PLA (Navy) leadership attended the International Seapower Symposium in 
Newport this September where I again met with Admiral Wu. The PLA and 
the U.S. military have made strides in the Rules of Behavior Working 
Group forum as well, which culminated in the Secretary of Defense and 
China's Military of Defense signing a Memorandum of Understanding 
regarding the rules of behavior for safety of air and maritime 
encounters. However, a deeper U.S.-China military-to-military dialogue 
is needed to address many of the sources of insecurity and potential 
competition that may arise as our two forces come into closer and more 
frequent contact. For example, the PLA routinely conducts close and 
unsafe intercepts of our aircraft operating in international airspace.
    The U.S. military continues to pursue opportunities to cooperate 
where there is clear, mutual benefit while establishing a dialogue on 
areas where there are differences. I believe we should continue to use 
military engagement with China to demonstrate U.S. commitment to the 
security of the Asia-Pacific region, to encourage China to play a 
constructive role in the region, and to press China to partner with the 
United States and our friends in the region to address common security 
challenges.
    Question. Do you believe that the United States should make any 
changes in the quality or quantity of our military relations with 
China? If so, what changes and why?
    Answer. If confirmed, I would look for ways to strengthen the U.S.-
China military-to-military relationship, consistent with U.S. law. The 
U.S.-China military-to-military relationship has experienced positive 
momentum over the past 2 years. Our approach should continue to pursue 
this positive development consistent with U.S. interests in a 
sustained, substantive dialog with China; concrete, practical 
cooperation where it makes sense; and enhanced risk reduction measures 
to manage our differences constructively. At the same time, I would 
seek to ensure that we balance these exchanges with continued robust 
interactions with allies and partners across the region.
    Question. What is your view regarding the longstanding U.S. policy 
of selling defense articles and services to Taiwan despite objections 
and criticism from China?
    Answer. I personally strongly support the Taiwan Relations Act. 
U.S. policy on arms sales to Taiwan is based on the 1979 Taiwan 
Relations Act, which provides that the United States will make 
available to Taiwan defense articles and services in such quantities as 
may be necessary to enable Taiwan to maintain a sufficient self-defense 
capability. The Act also states that the President and Congress shall 
determine the nature and quantity of such defense articles and services 
based solely upon their judgment of the needs of Taiwan. It is my view 
that this policy has contributed to peace and stability in the region 
for more than 30 years and is consistent with the longstanding U.S. 
calls for peaceful resolution of the Taiwan issue in a manner 
acceptable to the people on both sides of the Taiwan Strait.
    Question. In your view, to what extent, if at all, should China's 
possible reaction to such sales be considered by the United States when 
making decisions about the provision of defense articles and services 
to Taiwan?
    Answer. Our decisions about arms sales to Taiwan are based solely 
on our assessment of Taiwan's defense needs. The Taiwan Relations Act 
states the United States will make available to Taiwan such defense 
articles and defense services in such quantity as may be necessary to 
enable Taiwan to maintain a sufficient self-defense capability. In my 
view, we should not stray from our commitments out of concern for how 
China may react.
    Question. By most accounts, China has become more assertive in its 
claims of sovereignty in various domains, including maritime, air and 
space. There are numerous examples of this assertiveness, including: 
China's increased aggressiveness in asserting its maritime claims in 
the South China Sea, the recent declaration of its Air Defense 
Identification Zone (ADIZ), and its stationing of an oil rig in waters 
claimed by Vietnam which led to a series of unsafe encounters between 
Vietnam and China this past summer. Other incidents include a Chinese 
vessel intercepting the USS Cowpens and a Chinese fighter plane flying 
dangerously close to a Navy P-8 Poseidon surveillance plane off the 
coast of China. These incidents underscore the nature of Chinese 
maritime claims and the Chinese sensitivity associated with U.S. Navy 
operations in these areas.
    What role should the United States play in the ongoing maritime 
disputes in the South China Sea?
    Answer. I agree with the assessments of the Departments of State 
and Defense that the United States should not take a position on the 
competing territorial claims over land features in the South China Sea. 
I believe all parties should resolve their disputes through peaceful 
means and in accordance with customary international law, without 
resorting to the threat or use of force.
    The United States is a Pacific nation that has a national interest 
in freedom of navigation, open access to Asia's maritime domain, the 
maintenance of peace and stability, free and open commerce, and respect 
for international law in the South China Sea. The United States should 
sustain its presence in the South China Sea and uphold its commitments 
to its allies and partners in order to maintain peace and stability in 
the region.
    Question. How does the presence of the U.S. Navy in the South China 
Sea influence this maritime dispute and, in your view, would an 
increase in U.S. activity in that region serve to stabilize or 
destabilize the situation?
    Answer. Although the United States does not take a position on the 
territorial and maritime disputes, I believe it is essential for the 
U.S. Navy to maintain its presence and assert its freedom of navigation 
and overflight rights in the South China Sea in accordance with 
customary international law. The U.S. Navy is a key provider of the 
military presence that underlies peace and stability across the globe, 
including in the South China Sea.
    If confirmed, I will work with our military commanders to evaluate 
the appropriate level of naval activities in the South China Sea to 
maintain regional peace and stability as well as unimpeded access for 
lawful commerce and economic development.
    Question. What should the United States do to help prevent 
dangerous encounters in the South China Sea?
    Answer. To reduce the risk of conflict in the South China Sea, I 
believe the United States should continue to support initiatives and 
confidence building measures that will help claimant states reach 
agreement on a binding Code of Conduct in the South China Sea. 
Additionally, the United States should continue serving as a positive 
example of a nation that adheres to the international norms of safe 
conduct through policy implementation, effective training, and proper 
accountability. The United States should also continue to engage China 
through the Military Maritime Consultative Agreement (MMCA) as a 
positive bilateral mechanism to address operational safety issues in 
the maritime domain.
    Additionally, the United States should continue to promote existing 
international ``rules of the road,'' such as the International 
Regulations for Preventing Collisions at Sea and other established 
international safety and communication procedures, such as the new 
CUES. The United States should also encourage all South China Sea 
claimants to abide by these international standards of safe conduct to 
ensure greater operational safety and reduce the risk of dangerous 
incidents at and over the sea.
    Question. How should the United States view China's recent 
declaration of an ADIZ zone that includes the area over the Senkaku 
Islands and does the declaration increase the risk for instability in 
the region?
    Answer. The United States has been very clear that every nation has 
a right to establish ADIZs, but should not do so unilaterally without 
collaboration and consultation. We view this development as a 
destabilizing attempt to alter the status quo in the region. The way 
China announced its East China Sea ADIZ--uncoordinated and without 
consultation--increased the risk of misunderstanding and 
miscalculation. Contrast this with the Republic of Korea's new ADIZ in 
the same general area--it was done in consultation with its neighbors, 
including Japan. China's unilateral approach and unclear procedures 
have certainly increased tensions in the region.
    Question. The March 14, 2014 U.S.-China Economic and Security 
Review Commission report said ``Particularly since 2012, China has 
increased control over some disputed areas by stepping up enforcement 
of its territorial claims with coercive but nonkinetic measures.''
    What specific capabilities, strategy, tactics, techniques, and 
procedures do you think are required to counteract China's ``coercive 
but nonkinetic measures''.
    Answer. China's ``coercive but non-kinetic measures'' have 
primarily been through non-military means, but backed up by threat of 
force. For example, Chinese coast guard and fishing ships have harassed 
Japanese shipping vessels near the Senkakus, Vietnamese ships in the 
Paracels, and Philippine resupply of its outpost on Second Thomas Shoal 
with shouldering and water cannon, but no kinetic responses from 
military combatants. While the U.S. military has many options available 
to address PRC coercion, military actions should be a supporting 
element of the overall U.S. Government strategy, not the main effort. 
Just as the rebalance to the Pacific is a whole of government effort, 
so are the potential solutions to current territorial disputes. That 
said, forward presence and support to our allies, partners and friends 
are critical. Discussion of specific capabilities is a conversation 
best Reserved for a classified forum.
    Question. Cyber space has become a critical realm for civilian and 
military applications and also represents a potentially substantial 
vulnerability. There are reports that China is aggressively pursuing 
cyber warfare capabilities, and would likely seek to take advantage of 
U.S. dependence on cyber space in the event of a potential conflict 
situation.
    What is your understanding of China's efforts to develop and deploy 
cyber warfare capabilities?
    Answer. As part of China's military modernization, it is making 
efforts to degrade the effectiveness of critical enabling nodes of 
modern warfare, such as space, cyber, and the electromagnetic spectrum. 
China's military modernization efforts are aimed at increasing its 
relative military advantage and closing what it perceives as a 
technological capability imbalance between its Armed Forces and 
modernized militaries.
    As does the United States, China fully understands the critical 
importance of cyber as an element of modern warfare. Chinese military 
writing clearly shows that China views itself at a disadvantage in any 
potential conflict against a nation with a modern high-tech military, 
such as the United States. To overcome this disadvantage, China has 
developed organizations and capabilities that are designed to reduce 
its perceived technological gap and to reduce the effectiveness of 
United States and other advanced militaries' core competencies in a 
crisis.
    Question. If confirmed, what would you do to help ensure our 
military is protected in cyber space and prepared to defend against a 
cyber attack?
    Answer. If confirmed, I would work closely with other parts of DOD 
and interagency partners to include STRATCOM, CYBERCOM, and Departments 
of State, Homeland Security, and Commerce, to facilitate a coordinated 
approach to cyber threats, not only from China, but from any potential 
adversary. While an increased cyber defensive posture is important, it 
is not enough for us to build thicker walls and continue to absorb 
daily cyber-attacks. Defense in itself will not deter our Nation's 
adversaries. We must work together as a government to defend, and take 
appropriate response measures to deter, against future exploitation and 
attack. As the President stated in his International Strategy for 
Cyberspace, we Reserve the right to use all necessary means--
diplomatic, informational, military, and economic--as appropriate and 
consistent with applicable international law to defend our Nation, our 
allies, and our interests against hostile acts in cyberspace.
    Question. In January 2007, China used a ground-based missile to hit 
and destroy one of its weather satellites in an anti-satellite test 
creating considerable space debris and raising serious concerns in the 
international community. Since then, China has continued its active 
pursuit of defense and anti-satellite technology.
    What is your view of China's purposes for its pursuit of these 
capabilities?
    Answer. The United States' goal should be to promote the 
responsible use of space. In my view, this test was a troubling 
incident. It was yet another element of China's comprehensive, long-
term military modernization effort to develop and field disruptive 
military technologies, including those for anti-access/area denial, as 
well as for nuclear, space, and cyber warfare.
    Question. What do you see as the long-term implications of such 
developments for the U.S. military, for U.S. national security, and for 
U.S. interests in space?
    Answer. The United States should seek ways to protect our interests 
in space. Space systems are vital to our national security and our 
economy. I believe we need to enhance our deterrence and ability to 
operate in a degraded environment. Therefore, U.S. space policies and 
programs should be informed by China's space and counterspace 
capabilities, which have contributed to today's challenging space 
environment. At the same time, the United States should seek to engage 
China, a major space-faring nation, to promote the responsible use of 
space. However, our concern should not be focused on only one country, 
but on the range of actors that make space increasingly congested, 
contested, and competitive.
    Question. What are your views regarding the potential weaponization 
of space and the international agreements to prevent space 
weaponization?
    Answer. I support the principles outlined in the 2010 National 
Space Policy, especially that all nations have a right to explore and 
use space for peaceful purposes, and that all nations should act 
responsibly in space to help prevent mishaps, misperceptions, and 
mistrust.
    I support our longstanding national policies of affirming the right 
of all nations to use outer space for peaceful purposes, the right of 
free passage through space, and the right to protect our forces and our 
Nation from those that would use space for hostile purposes.
    But space is vital to U.S. national security and that of our allies 
and partners. We must not concede this truly high ground to anyone.
                                 taiwan
    Question. What is your view of U.S.-Taiwan security relations?
    Answer. I personally strongly support the Taiwan Relations Act. 
U.S. policy on arms sales to Taiwan is based on the 1979 Taiwan 
Relations Act, which provides that the United States will make 
available to Taiwan defense articles and services in such quantities as 
may be necessary to enable Taiwan to maintain a sufficient self-defense 
capability. The Act also states that the President and Congress shall 
determine the nature and quantity of such defense articles and services 
based solely upon their judgment of the needs of Taiwan. It is my view 
that that policy has contributed to peace and stability in the region 
for more than 30 years and is consistent with the longstanding United 
States calls for peaceful resolution of the Taiwan issue in a manner 
acceptable to the people on both sides of the Taiwan Strait. To achieve 
these ends we maintain a strong military-to-military engagement with 
Taiwan.
    Question. What do you believe should be the priorities for U.S. 
military assistance to Taiwan?
    Answer. We closely monitor the shifting balance in the Taiwan 
Strait and Taiwan's defense needs. Given the rapid pace of PRC military 
modernization, I believe our priorities should include assisting Taiwan 
with its joint operations capabilities and training; streamlining, 
modernizing, and integrating its existing (and aging) defense programs 
to be more effective; helping Taiwan develop its new All-Volunteer 
Force; and seeking innovative solutions to complement its traditional 
military capabilities.
    Question. What is your opinion of the Taiwan Relations Act (TRA)? 
Enacted 30 years ago this year, do you see any need to modify the TRA 
to reflect the current state of affairs in the region? If so, how?
    Answer. The Taiwan Relations Act, which guides our unofficial 
relations with Taiwan, has been in force now for over 30 years and 
plays a valuable and important role in our approach to the Asia-Pacific 
region. As called for in the TRA, our longstanding policy to assist 
Taiwan with maintaining a sufficient self-defense capability helps 
ensure security and stability in the region. I would not recommend any 
changes to the law at this time.
    Question. Given the increasing military imbalance across the Taiwan 
Strait, do you think Taiwan is making appropriate investments in its 
defensive capabilities? If not, what is the best way to encourage 
Taiwan to invest more in its military?
    Answer. Taiwan must ensure that it adequately resources its defense 
programs and defense transformation to include considering increasing 
its defense budget. We can (and should) proactively help Taiwan see 
where it should improve its capabilities in the face of the imbalance 
across the Strait. I believe the best way to encourage Taiwan to invest 
more in its military is to send strong and consistent messages from the 
U.S. Government to Taiwan, and to demonstrate our resolve to engage 
them in a positive and professional manner. Finally, I believe that we 
must continue to emphasize to our friends in Taiwan that they must be 
resolute in protecting and securing sensitive and classified military 
and technological information, particularly as they move forward with 
its all-volunteer force modernization program.
    Question. What military capabilities do you believe would be most 
effective in improving Taiwan's self-defense capability over the next 5 
to 10 years?
    Answer. Capabilities that deter the PRC--especially an amphibious 
invasion--and increase the Taiwan military's survivability are 
critical. No less important are non-materiel solutions such as improved 
jointness, recruitment, training, integration and innovative solutions. 
Finally, one of the most cost effective solutions Taiwan can adapt from 
the U.S. military is to continue developing its NCOs and Junior 
Officers.
    Question. What do you believe should be appropriate criteria for 
the consideration of potential United States sales of military aircraft 
to Taiwan?
    Answer. The 1979 Taiwan Relations Act states the United States will 
make available to Taiwan the defense articles and services required to 
enable Taiwan to maintain a sufficient self-defense capability. The Act 
also states the President and Congress will determine the nature and 
quantity of required defense articles based on the needs of Taiwan. 
Taiwan's self-defense strategy should dictate the need for specific 
military capabilities, and the United States should make available to 
Taiwan the defense articles and services required to maintain a 
sufficient self-defense, consistent with its defense strategy.
    Specific to military aircraft, Taiwan may need a replacement 
airframe for its aging and outdated F-5 E/F and MIRAGE 2000 fighters in 
order to maintain a sufficient self-defense. However, Taiwan should 
look more broadly across its armed forces in all domains to determine 
what capabilities are best to ensure a sufficient self-defense. We 
should help them with this analysis.
    Question. What is your opinion of Taiwan's proposed plan to develop 
an indigenous submarine program?
    Answer. I believe a Taiwan military equipped with a credible 
defensive undersea warfare capability will directly contribute to its 
self-defense and to long-term stability in the region.
                              north korea
    Question. North Korea still represents one of the greatest near 
term challenges to security and stability in Asia and deterring 
conflict on the Korean peninsula remains a top U.S. priority.
    What is your assessment of the current security situation on the 
Korean peninsula and of the diplomatic efforts to date to persuade 
North Korea to comply with international mandates regarding its 
ballistic missile and nuclear weapon programs?
    Answer. Following the consolidation of power under Kim Jong Un, 
North Korea remains my number one security concern. It is what ``keeps 
me awake at night.'' While Kim Jun Un's consolidation appears to have 
eliminated de-stabilizing factors inside the country in the near term, 
the Nation's volatility and unpredictability are troubling. The 
frequent reshuffling of senior leadership surrounding Kim Jong Un 
heightens our concern as new variables have been added to North Korea's 
decisionmaking calculus. Diplomatic and other outreach efforts 
underscore Kim Jong Un's national strategy of promoting economic 
development and nuclear deterrence together. However, enduring U.S. and 
allied concerns--North Korea's past provocative behavior, large 
conventional military, provocations, proliferation activities, and 
pursuit of asymmetric advantages through its ballistic missile and 
weapons of mass destruction (WMD) programs (including uranium 
enrichment)--present the most serious threat to the United States, our 
allies and partners in the region, and the international community.
    The U.S. State Department is best positioned to assess diplomatic 
efforts, but U.S. Special Envoy for North Korean Policy Glyn Davies 
testified this summer that ``We have no misconceptions about North 
Korea's willingness to give up its arsenal voluntarily. All of North 
Korea's actions over the past few years, from its nuclear tests to the 
amendment of its constitution to declare itself a nuclear state, signal 
that it has no interest in denuclearizing. We take this threat 
seriously, and remain ironclad in our commitment to the defense of our 
allies, the Republic of Korea and Japan. Together with our allies and 
partners, we are working to shift Pyongyang's calculus from believing 
that a nuclear program is necessary for regime survival to 
understanding that such a program is incompatible with its national 
interests . . . That is why our policy mix includes sanctions and 
traditional deterrence measures. In short, ours is a comprehensive 
approach that seeks to denuclearize North Korea through diplomacy while 
ensuring deterrence of the North Korean threat.'' Well said!
    Question. What is your understanding of the threat posed to the 
United States and our allies by North Korea's ballistic missile and WMD 
capabilities, and the possible export of those capabilities?
    Answer. North Korea's potential use of WMD presents a clear and 
present threat. We must ensure our forces are prepared to respond and 
that North Korea is deterred from using WMD. North Korea has an 
ambitious ballistic missile program that poses a significant threat to 
the entire Pacific region. As witnessed in 2014, North Korea continues 
to develop and flight-test short and close-range ballistic missiles--
demonstrating the capability to target South Korea and Japan. North 
Korea also continues to develop the Taepo Dong-2 (TD-2), which 
Pyongyang claims to have tested in a space launch configuration but 
could also reach the United States. if developed as an intercontinental 
ballistic missile (ICBM). Furthermore, North Korea continues to develop 
newer systems--including an intermediate-range ballistic missile and a 
road-mobile intercontinental ballistic missile known as the KN08, which 
was first publically paraded in Pyongyang in April 2012. Though never 
flight tested, the KN08 could reach the continental United States.
    North Korea's continued proliferation efforts pose a significant 
threat to the Pacific region and beyond. It is a proven proliferator of 
ballistic missiles and associated technologies to countries like Iran--
creating a serious and growing capability to target U.S. forces and our 
allies in the Middle East. North Korea assisted Syria in building a 
covert reactor in the early 2000s, which would have been capable of 
producing plutonium for nuclear weapons. As such, we must continue to 
work with our allies and partners to build a regional capability to 
combat North Korean WMD.
    Question. How has the new government of Kim Jong-Un changed the 
Department's risk assessments of North Korea?
    Answer. Kim Jong Un is approaching his third year in power in 
December 2014. We assess that his actions throughout his first years 
were intended to consolidate power and project his capacity for dealing 
ruthlessly with his enemies, both foreign and domestic. His actions 
reaffirm that North Korea's pursuit of nuclear and missile capabilities 
poses an immediate and evolving threat to the United States and our 
allies. Our assessments of the risk have not changed, and we continue 
to conduct operations and refine plans to address these threats.
    Question. What concerns you most about North Korea and, if 
confirmed, what would you do to address those concerns?
    Answer. North Korea maintains a large and offensively postured 
conventional military, continues to develop long-range ballistic 
missiles, seeks to develop nuclear weapons and the means to deliver 
them intercontinentally, and engages in the proliferation of ballistic 
missiles in violation of international norms and law. North Korea has 
also conducted provocative attacks against the Republic of Korea. Most 
concerning about this range of threats is that they come from a single 
state standing on the outside of the international community. If 
confirmed, I will continue the strong relationship with USFK/CMC/UNC to 
drive intelligence, refine forecasts and warnings, sustain and advance 
our military readiness, and coordination with allies and partners. I 
will continue to work closely with my friends and counterparts in the 
Korean military. Finally, I will both seek and welcome opportunities to 
apply all means of national power to affect North Korean behavior.
    Question. The February 2010 Ballistic Missile Defense Review Report 
established a policy and program priority for defending against near-
term regional ballistic missile threats, and elaborated on the Phased 
Adaptive Approach to regional missile defense, including to defend 
against North Korean ballistic missile threats.
    Do you support the missile defense policies and priorities 
established in the Ballistic Missile Defense Review, including a 
tailored phased adaptive approach to missile defense in the Asia-
Pacific region to defend against North Korean regional ballistic 
missile threats?
    Answer. Yes. The 2010 Ballistic Missile Defense Review provides the 
PACOM region with an integrated effort to strengthen regional 
deterrence architectures against North Korea. It aligns our defensive 
strategy, policies, and capabilities to the strategic environment. 
Today, we are deploying a second TPY-2 radar to Japan to enhance early 
warning and tracking. In 2013 we deployed a Terminal High Altitude Area 
Defense (THAAD) battery to Guam, and as the Secretary of Defense first 
announced in April 2014, we will soon deploy additional Aegis BMD-
capable ships to Japan. These additional sensors and shooters will 
enhance a robust missile defense capability to defend the U.S. Homeland 
and support PACOM's regional missile defense mission against ballistic 
missile attack.
    Question. According to South Korean press reports, recent Nodong 
missile tests conducted by North Korea appear to have been designed to 
fly the missiles at higher altitudes, and relatively shorter ranges. 
For example, although the Nodong has an estimated range between 1,000 
and 1,500km, the March 2014 tests flew about 650km before landing in 
the Sea of Japan. In addition, because the missiles attained relatively 
high altitudes, they would challenge the ability of the Patriot system 
to intercept them.
    Do you believe that these tests represent an attempt by Pyongyang 
to overcome missile defense systems currently emplaced in South Korea, 
and if so, what steps do you recommend in order to meet this threat?
    Answer. We assess North Korea is developing mobile ballistic 
missiles for various reasons, which obviously could include trying to 
mitigate the effectiveness of U.S. and allied missile defense systems. 
But, we have no specific information to confirm that hypothesis. It is 
possible that these missiles were simply fired at a shorter range to 
demonstrate North Korea's capability without actually firing into 
another country's territory and thereby creating increased diplomatic 
friction. Whatever the motivation, North Korea is a threat to the 
region and to us.
                           republic of korea
    Question. What is your understanding of the current status of the 
U.S.-South Korean security relationship?
    Answer. The U.S.-ROK alliance is a linchpin of security in East 
Asia. This was most recently reaffirmed by the Secretary of Defense 
during participation in the Security Consultative Meeting in 
Washington, DC in October of this year. Our security relationship is 
based on the mutual commitment to common interests, shared values, 
continuous dialogue, and combined planning to ensure a comprehensive 
strategic alliance. It is robust and enduring.
    Question. If confirmed, what measures, if any, would you take to 
improve this security relationship?
    Answer. I believe it is important to ensure the U.S. and Korean 
publics continue to understand the enduring mutual benefits derived 
from this alliance, and that the United States effectively works with 
the ROK as it plays an increasing role in regional and global security 
issues commensurate with the ROK's economic status and influence. If 
confirmed, I would work hard to maintain close contact with ROK 
military leadership and General Scaparrotti as we work together to 
improve a vitally important security relationship built upon an amazing 
foundation of 60 years of alliance.
    Question. What is your view regarding the timing of the transfer of 
wartime operational control from the United States to South Korea that 
was planned for December 2015 and has now been delayed?
    Answer. The United States and the Republic of Korea (ROK) have a 
comprehensive way forward to transition wartime operational control 
(OPCON). If confirmed, I will work with ROK military leadership and 
General Scaparrotti to complete this process, ensuring the transition 
is implemented methodically and that the combined defense posture 
remains strong and seamless. I support the current plan for OPCON 
transition, which calls for the ROK to assume wartime OPCON when 
critical ROK and alliance military capabilities are secured and the 
security environment on the Korean Peninsula is conducive to a stable 
transition. The conditions for the transfer are based on meeting 
capability-based milestones, including acquisition of weapon systems, 
command and control systems, ISR platforms, and adequate supply of 
munitions, along with the right certification process to validate the 
readiness for the transfer. The ROK military is a very capable force, 
but it has had some setbacks in funding to achieve these milestones. 
General Scaparrotti and his team at U.S. Forces Korea are working hard 
in concert with the ROK Joint Chiefs of Staff to meet the certification 
and capability requirements. If confirmed, I will help them.
    Question. Do you believe that the security relationship with South 
Korea should remain focused on defense of the Korean Peninsula, or 
should U.S. forces stationed in Korea be available for regional or 
global deployments?
    Answer. In accordance with the Mutual Defense Treaty between the 
United States and the ROK, U.S. presence on the Korean Peninsula serves 
to deter potential aggressors from taking hostile actions that would 
threaten the peace and security of the Republic of Korea. In my view, 
this presence has both deterred further war on the Korean Peninsula and 
contributed to the stability of the Northeast Asia region. As ROK 
military forces have served, and will continue to serve, with the U.S. 
military in places off the Peninsula (e.g., Iraq, Afghanistan, and in 
the Gulf of Aden), I believe the U.S.-ROK Alliance will continue to 
serve an important role regionally and globally. With regard to 
deploying U.S. forces stationed in Korea to other AORs, the forces in 
Korea serve an important mission there and we remain committed to 
maintaining current troop levels on the Korean Peninsula. Before 
deploying any forces from the Korean Peninsula to other AORs we will 
have to carefully weigh the potential risk to regional security and 
stability with competing national security objectives. We would not do 
anything that diminishes the Alliance's capability to fulfill its 
objectives.
    Question. What is your assessment of the security benefits of the 
force repositioning agreed to under the Land Partnership Plan and the 
Yongsan Relocation Plan and how does repositioning U.S. forces change 
the way they will operate on the Korean Peninsula?
    Answer. The two plans work to consolidate and relocate U.S. forces 
from north of Seoul and from the Seoul Metropolitan area to locations 
south of Seoul, primarily to the U.S. Army Garrison at Camp Humphreys 
and to Daegu. The movement of units and facilities to areas south of 
the Han River improves force protection and survivability, placing the 
majority of personnel and equipment outside of the effective tactical 
range of North Korean artillery. In addition, the move to a central 
location outside of Seoul provides efficiencies, reduces costs, 
contributes to the political sustainability of our forward presence, 
and improves military readiness on the Korean Peninsula. If confirmed, 
I will support it.
    Question. Is the relocation plan affordable?
    Answer. The majority of costs associated with the Yongsan 
Relocation Plan will be paid by the ROK. However, costs associated with 
the Land Partnership Plan will remain a concern in today's fiscal 
environment.
    Question. What is your understanding of the U.S. obligations in the 
event of an attack on South Korea by North Korea, and under what 
circumstances do you believe U.S. Armed Forces should be committed to 
engage North Korean forces in response to an attack on South Korea?
    Answer. Under the Mutual Defense Treaty, when the political 
independence or security of South Korea or the United States are 
threatened by external armed attack, the United States and South Korea 
will consult together and develop appropriate means to deter the 
attack. Given the pattern and future likelihood of North Korean 
provocations, the two sides should continue to consult closely so that 
responses are effective. The United States and South Korea also 
recognize that an external armed attack would be dangerous to peace and 
safety and will act to meet the common danger in accordance with our 
constitutional processes. Because of the uncertainty of actions by Kim 
Jung Un, we must be ready to fight tonight.
                                 japan
    Question. How would you characterize the current U.S.-Japan 
security relationship?
    Answer. The U.S.-Japan relationship is a cornerstone of security in 
East Asia. Japan is a valued ally and anchor of democracy and 
prosperity in the region. Our alliance has held fast through the 
turbulence of the Cold War, the Vietnam era, the post-Cold War period, 
through political turnover and economic woes in Japan, and through 
periods of very contentious trade disputes. Our alliance stands poised 
as a truly global one. The United States and Japan are in the middle of 
a complicated realignment process that is part of a larger alliance 
transformation agenda which includes a review of roles, missions, and 
capabilities to strengthen and ensure the relevance, capability, and 
cohesiveness of the alliance for the next several decades. In terms of 
our military-to-military relationship, it is stronger than ever. We 
welcome Japan's reinterpretation of its constitution.
    Question. How does Japan's relationship with its regional 
neighbors, mainly China, North Korea and South Korea influence the 
U.S.-Japan relationship?
    Answer. I believe it is important for Japan to continue to maintain 
and further develop constructive relations with all of its neighbors. 
Japan can and should increase its security cooperation with South 
Korea. Working with other U.S. allies and partners in the region, Japan 
can increase its contribution to peace, security, and prosperity 
throughout Asia and globally. Japan is a valued and essential partner 
in the Six-Party Talks process and in other important regional security 
architectures. Progress made to bolster trilateral security dialogues 
in Northeast Asia effectively links Japan, U.S. and South Korean 
approaches. That said, I remain concerned that the Japan-South Korea 
relationship is strained and exacerbated by historical animosities and 
territorial disputes. This is distracting to us and doesn't allow for 
the full realization of truly transformative defense architectures in 
East Asia. I worry that other powers may try to use this friction to 
drive a wedge between us and either ally.
    Question. What steps, if any, do you believe Japan ought to take to 
become a more active partner in security activities with the United 
States and in the international security arena?
    Answer. Japan is already a strong security partner with the United 
States and is increasingly contributing to international security 
activities. Japan is taking a number of domestic policy measures that 
will enable a greater degree of cooperation with us and with other 
like-minded international partners. For example, Japan has passed and 
will soon implement a new law regarding the handling of classified 
information which will strengthen information sharing ties with the 
United States, permitting a greater degree of cooperation. The Prime 
Minister's office also announced its intention to permit the limited 
exercise of collective self-defense and is embarking on the legislative 
process to implement that change.
    Earlier this year, Japan announced a revision to its self-imposed 
prohibition on the export of military technology, permitting export in 
certain situations where it contributes to the peace and security of 
Japan, does not violate U.N. sanctions, and the recipients have 
appropriate safeguards to prevent unauthorized third party transfer, 
thereby opening the door to increased security cooperation and capacity 
building efforts in the region. In August 2014, Japan agreed to the 
transfer of 6 coastal patrol boats to Vietnam and is considering other 
transfers of military technology to partners in the region. This is a 
positive development that complements U.S. security cooperation 
activities, and assists the United States in developing ally and 
partner capabilities and capacities throughout the region.
    The changing security environment in Asia will present new 
challenges and the United States and Japan must continue to work 
together to deal with these challenges, including greater 
interoperability between our Armed Forces at the strategic, 
operational, and tactical levels.
    If confirmed, I will encourage Japan's development of joint 
doctrine and organizations that will enhance Japan's ability to 
undertake complex missions to build security in Asia. I will also 
encourage trilateral and multilateral security cooperation with the 
Republic of Korea, India, and Australia, as these kinds of activities 
effectively strengthen the functional capacity of the emerging regional 
security architecture. Regarding international security activity, Japan 
has actively participated in combined counter-piracy operations in the 
Gulf of Aden, deployed a battalion-sized Reconstruction and Support 
Group to southern Iraq from 2004-2006, is participating in the United 
Nations Mission in South Sudan, has been a significant donor to the 
ongoing Afghanistan reconstruction, and sent forces to help the 
Philippines during the Typhoon Haiyan crisis last year, among many 
other such activities. I believe Japan's participation in such global 
operations is a very positive development, and I would encourage future 
Japanese participation in such missions.
    Question. What is your view of the United States-Japanese joint 
development of the Standard Missile-3, Block IIA missile defense 
interceptor, and of the overall program of cooperation between the 
United States and Japan on ballistic missile defense?
    Answer. Ballistic missile defense cooperation with Japan is a 
success story for the alliance and has resulted in Japan's fielding of 
both sea and land-based missile defense systems. Japan is one of our 
most important ballistic missile defense partners and U.S.-Japan 
bilateral cooperation on ballistic missile defense plays an important 
role in supporting our common strategic objectives on defense. The SM3 
Block IIA is an important cooperative program that will result in a 
significant increase in ballistic missile defense capability.
    Question. The current plan is for the closure of the Marine Corps 
Air Station on Okinawa after the construction of a Futenma Replacement 
Facility (FRF) at Camp Schwab on Okinawa. While the Governor of Okinawa 
has signed the landfill permit to allow construction of the FRF to go 
forward, local opposition and a long construction timeline make the 
completion of the FRF uncertain.
    What is your opinion of the prospects for the successful 
construction of the Futenma Replacement Facility at Camp Schwab on 
Okinawa?
    Answer. I believe the Government of Japan, like the U.S. 
Government, remains committed to the Futenma Replacement Facility. This 
was restated in the October 2013 2+2 and October 2014 Assistant 
Secretary of Defense-level meetings. Currently, the Futenma Replacement 
Facility Roadmap is scheduled to be completed in 2022. Recent 
significant progress includes the signing of the required landfill 
permit by former Okinawa Governor Nakaima in December 2013 and the 
start of a preliminary construction geotechnical survey. Of course, 
there will be future challenges with continued implementation and we 
are committed to working closely with the Government of Japan to see 
this through to completion.
    Question. Is the cost-sharing arrangement between the United States 
and Japan to pay for the relocation of U.S. forces from Okinawa to Guam 
and the costs associated with the continued presence of U.S. forces in 
Japan equitable and appropriate? Why or why not?
    Answer. I believe the cost-sharing arrangements with the Government 
of Japan (GOJ) to be among the best we have. From an alliance 
perspective, the current laydown in Okinawa is not politically 
sustainable; the relocation of approximately 10,000 Marines and the 
return of land to Japan are critical. Guam is the only location outside 
of Japan where the GOJ has agreed to provide funds to offset the cost 
of relocation. For the GOJ, funding the construction of facilities for 
the use of U.S. forces on U.S. sovereign territory was an unprecedented 
step. Japan will provide $3.1 billion in fiscal year 2012 dollars 
towards this effort. To date, the GOJ has provided over $900 million 
towards fulfillment of that commitment. For relocations within Japan, 
the GOJ is paying the majority of the costs to develop new facilities. 
In April 2011, we entered into a new, 5-year host nation support 
agreement with Japan that maintained the overall level of support we 
receive from Japan for labor and utilities while, for the first time, 
putting a floor on the amount the GOJ provides for facilities 
construction.
    Question. How, in your view, does building an unpopular new 
airfield on Okinawa, one that could take 7 to 10 years to finish at a 
cost of at least $3.6 billion, serve to improve the U.S.-Japan 
relations in general and the U.S. military-Okinawa relations in 
particular?
    Answer. The Governments of Japan and the United States agreed to 
construct a Futenma Replacement Facility at Camp Schwab, in conjunction 
with reducing the number of U.S. forces on Okinawa and consolidating 
U.S. basing on the island. The Futenma Replacement Facility will enable 
the closing of Marine Corps Air Station Futenma (MCAS Futenma), which 
is located in a very densely populated portion of Okinawa. At the same 
time, the plan preserves U.S. forces' ability to meet our security 
commitments to Japan, in accordance with the Mutual Cooperation and 
Security Treaty. Thus, when fully executed, this new force posture will 
improve U.S.-Japan relations in general and the U.S. military-Okinawa 
relations in particular.
    Question. Is Japan carrying a fair share of the burden of the cost 
of the U.S. presence in Japan under the current Special Measures 
Agreement?
    Answer. The Government of Japan's contribution under the Special 
Measures Agreement covers the cost of approximately 90 percent of the 
Japanese labor force that work on our bases, 70 percent of utilities 
used on our bases and the cost of relocating training that the 
Government of Japan views as politically sensitive. Negotiations for a 
new Special Measures Agreement will begin in 2015. In my view, what 
Japan provides for overall Host Nation Support is fair, but as the 
current agreement runs its course, we must carefully evaluate how it 
was implemented and identify areas where Japan's contributions will be 
especially value-added in the future, considering the regional 
environment and our own fiscal challenges.
    Question. The United States and Japan are currently negotiating 
updated Bilateral Security Cooperation Guidelines which will, according 
to a recent update, support ``a more balanced and effective Alliance'' 
and will ``reflect'' the cabinet decision by the Government of Japan to 
allow its Self Defense Forces to engage in collective security 
operations.
    What specific steps do you believe the United States and Japan 
should take to strengthen security cooperation, particularly with 
regard to China's aggressive behavior in the East China Sea?
    Answer. Maintaining regional peace and stability is a shared goal 
between the United States and Japan, and I firmly believe the actions 
both countries have been taking to strengthen our alliance contribute 
to that end. Under our rebalance to the Pacific, the United States has 
increased our force posture in Japan by deploying our most advanced 
equipment, such as the AN/TPY-2 radars, MV-22 Ospreys, U.S. Navy P-8 
aircraft, and announced future initiatives, to include replacing the 
USS George Washington with the USS Ronald Reagan. Under Prime Minister 
Abe, Japan has embarked on a multi-pronged effort to improve the 
capabilities of the Self-Defense Forces, which range from collective 
self-defense, relaxing the restrictions on arms sales, and 
strengthening information security regimes, to operational initiatives 
such as increasing the missile defense, cyber, and amphibious 
capabilities of the Self-Defense Forces. Japan recently announced its 
intention to purchase U.S.-made E-2D Hawkeye early warning/command and 
control aircraft, Global Hawk unmanned surveillance aircraft, and MV-22 
Osprey aircraft. This significantly increases Japan's capabilities and 
interoperability with the United States. The way ahead will leverage 
the relationships we have forged with Japan over the past 60 years to 
increase the interoperability and synergy between our forces. Seamless 
coordination between our forces provides the most effective deterrent 
against aggression and best underwrites regional peace and stability.
    Question. What updated division of military roles and missions do 
you hope to see reflected in the Bilateral Security Cooperation 
Guidelines going forward?
    Answer. The United States and Japan are currently revising the 
bilateral Guidelines for Defense Cooperation which will support ``a 
more balanced and effective Alliance.'' Additionally, the revised 
Guidelines will reflect an expanded scope of cooperation to reflect the 
global nature of the alliance, encompassing areas such as space, 
cyberspace, counterterrorism, counter-piracy, peacekeeping, capacity 
building, humanitarian assistance/disaster relief, and equipment and 
technology enhancement. I hope that the cabinet decision by the 
Government of Japan to allow its Self-Defense Forces to engage in 
collective self-defense operations will be reflected in the final 
product, but that is ultimately a decision for the Government of Japan.
                                 india
    Question. What is your view of the current state of the U.S.-India 
security relations?
    Answer. A close, continuing, and expanding security partnership 
with India is important for security and stability in Asia and for 
effectively managing Indian Ocean security in the 21st century. The 
United States and India have a range of common security interests that 
include maritime security, counter-terrorism, and humanitarian 
assistance and disaster relief. Over the past decade, there has been a 
transformation in the U.S.-India defense relationship. What was once a 
nascent relationship between unfamiliar nations has evolved into a 
strategic partnership. Today, U.S.-India defense ties are strong and 
growing stronger, including a robust slate of dialogues, military 
exercises, defense trade, personnel exchanges, and armaments 
cooperation. Efforts over the past 10 years have focused on 
relationship-building and establishing the foundation for a long-term 
partnership. The strong ties between our two militaries reflect this, 
but there is much more room to grow. The United States remains 
committed to a broad defense trade and technology relationship that 
enables transfers of some of our most advanced technologies to assist 
India's military with its modernization efforts. The continued growth 
of our partnership should focus on working closely on common interests 
in a true partnership.
    Question. If confirmed, what specific priorities would you 
establish for this relationship?
    Answer. India is critical to regional economic development, 
security and stability, and wide-ranging cooperation to counter 
extremism and radicalization. This comports with U.S. goals in the 
region. If confirmed, I will focus on increasing maritime security 
cooperation, expanding the military-to-military relationship across all 
Services, and deepening cooperation on defense trade and production. I 
believe there is real potential to meaningfully cooperate on counter-
proliferation, humanitarian assistance and disaster response, counter-
piracy, counterterrorism, greater intelligence sharing on common 
threats, and stability in Afghanistan and the broader Indian Ocean 
region.
    Question. What expectations do you have for a change or shift in 
the defense relationship with India now that Narendra Modi has been 
elected as Prime Minister of India?
    Answer. I am optimistic that our strategic partnership will 
continue to mature in the coming years and we are on the correct path 
to do so. Right now, our partnership is strong in defense trade. We are 
also India's partner of choice in military exercises--but this is an 
area where I would like to see more routine and regularity. The Indian 
Navy's (INN) first-ever participation in the RIMPAC exercise with one 
of its most advanced warships this past summer was an enormous boon to 
that exercise and I look forward to the INN's growing participation in 
this and other engagements in the future. Pacific Fleet has an 
exceptional exercise relationship with India's MALABAR series. While 
this is normally a bilateral exercise between our Navies, I have 
encouraged the Indian Navy to make MALABAR a trilateral event. The 
Indians agreed and this year MALABAR included India, United States, and 
Japan. The exercise was successful and was conducted at the higher end 
of the operational/tactical level complexity. This effort adds to our 
interoperability and understanding among India, Japan, and my Pacific 
Fleet forces which improves our ability to advance confidence building 
measures within the Asia-Pacific region. Moreover, Pacific Fleet has an 
excellent USN-INN dialogue program. The annual Naval Engagement 
Steering Group discussions involve a wide range of issues to include 
exercises, foreign military sales, maintenance practices, subject 
matter expert exchanges and an emphasis on safety at sea and in the 
air, particularly with the Indian Navy submarine force. The INN is very 
appreciative of the ongoing efforts to assist them in submarine safety 
and to have the expert exchanges address issues involving operational/
tactical mission areas to both increase its professionalism and our 
naval interoperability in the maritime domain. Finally, I have 
emphasized the need to share information so that we can work together 
in the maritime domain to ameliorate transnational crime which benefits 
every nation in the region. If confirmed, I will do all that I can to 
continue and further our dialogue with India.
    Question. What, in your view, is the effect on DOD interests, if 
any, of the civil nuclear cooperation agreement with India?
    Answer. The civil-nuclear cooperation agreement was a landmark 
agreement that significantly transformed the U.S.-India bilateral 
relationship. The agreement deepened the level of trust between the 
United States and India and will have positive effects on DOD interests 
leading to greater military-to-military cooperation and increased 
defense trade. Successful implementation of this agreement will serve 
to strengthen and mature U.S.-India ties.
    Question. What is your assessment of the relationship between India 
and China and how does that relationship impact the security and 
stability of the region?
    Answer. The current relationship between the region's two fastest 
growing powers, India and China, is complicated by a trust deficit 
stemming from China's longstanding relationship with Pakistan, India's 
defeat in the 1962 Sino-Indian war, and increasing competition for 
resources. The ongoing border dispute, trade imbalances and competition 
for influence across South and Southeast Asia complicate efforts to 
reduce the mistrust, and ultimately complicate the security and 
stability of the region. Some regional states seek to exploit the 
competitive Sino-Indian relationship, seeking favorable aid packages 
from New Delhi and Beijing to enable their own development. New Delhi 
and Beijing do find common ground and cooperate in international forums 
such as BRICS, the G20, and in Climate Change Conferences where both 
countries leverage their convergent interests to shape international 
trade rules to ensure their continued domestic development and economic 
growth.
    Question. What do you believe the United States should do to assist 
the Indian government in the prevention of and response to terrorist 
events in India?
    Answer. As the world's largest democracy, I believe India is a 
significant strategic partner of the United States. Both India and the 
United States share a strong interest in preventing terrorism. 
Cooperation between the United States and Pakistan against shared 
militant threats has increased since 2012, and the United States should 
continue its efforts to ensure Pakistan takes effective action against 
all militant groups within its borders.
    Regarding capability and capacity building, counterterrorism 
efforts in India are primarily a Ministry of Home Affairs 
responsibility that employs domestic intelligence assets in conjunction 
with police and paramilitary forces. Therefore, counterterrorism 
cooperation with India is through a whole-of-government approach led by 
the Departments of State (via the Counterterrorism Cooperation 
Initiative) and Homeland Security (via the Homeland Security Dialogue), 
with support from the Department of Justice and DOD. If confirmed, I 
will work with the Office of the Secretary of Defense (OSD) to support 
this whole-of-government approach to address counterterrorism efforts 
with India and seek to expand the relationship.
    Question. What is your assessment of the current relationship 
between India and Pakistan?
    Answer. Since 1947, India and Pakistan have fought four wars and 
weathered recurring border crisis. The election of India's Prime 
Minister Narenda Modi generated some hope that Indo-Pakistan relations 
may improve, but that has yet to occur. India and Pakistan share a 
legacy of animosity, mistrust, and conflict. Violent extremist 
organizations strain the relationship and are the most likely catalyst 
for the next military conflict. We are, of course, concerned that a 
conventional military conflict between these two nuclear powers could 
escalate with devastating consequences. Dialogue is currently at a 
standstill and substantive progress on core security issues and 
territorial disputes is unlikely in the near term. Neither side has the 
political space to make unilateral concessions, yet both know that 
regional stability is absolutely essential to achieve their national 
interests. Barring military miscalculation or another major terror 
attack in India, Pakistan's focus on internal stability and New Delhi's 
desire to restore economic growth will likely preclude significant 
conflict along the border that could potentially escalate.
    Question. In your view, what impact has the ongoing tension between 
Pakistan and India had on the stability of Central and South Asia 
generally, and on the prospects for lasting security in Afghanistan?
    Answer. India's actions in South and Central Asia generally align 
with U.S. goals--increasing economic growth and political stability 
through strengthened democratic institutions and developmental 
assistance to help prevent radicalization. India shares our interest in 
ensuring Afghanistan does not become a safe haven for violent 
extremists. As New Delhi continues to provide financial and training 
support to the ANSF, Pakistan could grow concerned about Indian 
influence, but regional stability depends on cooperation between India, 
Pakistan, and Afghanistan. Transparency in Afghanistan's bilateral 
relations with both India and Pakistan is essential to reduce India-
Pakistan misunderstanding and mistrust.
    Question. If confirmed, what steps, if any, would you take to 
ensure the close coordination of U.S. security policy with respect to 
South Asia, much of which is in the CENTCOM AOR, and in particular 
coordination with respect to India-Pakistan relations?
    Answer. If confirmed, I will coordinate across the combatant 
command boundary, as is being done today, to continue to minimize 
opportunities to exploit the seam in that part of the world by malign 
actors. The PACOM and CENTCOM J5s (Plans) regularly hold cross-boundary 
coordination meetings to discuss issues that not only exist on the 
physical boundary between India and Pakistan, but also conceptual seams 
such as proliferation both to and from each other's AORs. We have 
significant collaboration between both combatant command J2 
(Intelligence) sections. The South Asia security policy of the United 
States is not a military-only effort; it is an interagency effort with 
State's South and Central Asia Affairs Bureau, which strides both PACOM 
and CENTCOM AORs, and a number of other departments and agencies 
playing significant roles--and in many cases the lead role. I will 
actively seek to travel to India and Pakistan with the CENTCOM 
commander at the first opportunity so we can meet with the right folks 
on both sides of their border and our shared boundary.
                                 burma
    Question. There has been a lot of discussion recently about 
increasing military to military engagements between the U.S. and 
Burmese military, which has a long history of human rights abuses.
    What is the strategic importance of Burma to PACOM and how does it 
fit within PACOM's overall Southeast Asia strategy?
    Answer. Burma represents economic, diplomatic, and developmental 
opportunities with its untapped potential and strategic location. But, 
since 1962, the Burmese people have been on a hard and long road to get 
to democracy. They are attempting to shake off over 50 years of brutal 
military junta rule, oppressive and documented egregious human rights 
violations, and bitter ethnic and religious conflict--all of which 
combine to make a difficult environment in which to grow democracy. 
Although there have been some steps toward reform, Burma remains firmly 
under military control. In my opinion, the time is not right to expand 
or elevate military-to-military activities. Ambassador Derek Mitchell's 
approach is exactly what is needed--a limited and calibrated engagement 
designed to promote and further reforms. His cautious and reciprocal 
step-for-step approach, while looking for opportunities, will help 
democracy take root. Any U.S. military effort must demonstrate robust 
civilian and military teamwork, with the civilian side unquestionably 
in the lead, both for efficiency of effort and to provide the Burmese a 
template for success.
                      republic of the philippines
    Question. What is your view of the current state of U.S.-Philippine 
military relations?
    Answer. The Philippines is one of the America's five treaty allies 
in the Pacific and remains a committed security partner facing regional 
challenges characteristic of current geo-strategic realities. Our 
alliance is strong and the foundation of our security partnership. The 
U.S. military-to-military engagement with the Philippines is mature and 
focused, allowing the Philippines security forces (military, coast 
guard and police) to better address security needs as evident by 
enhanced counterterrorism performance, expanded maritime security 
activities, increased multilateral engagement, and effective 
participation in U.N. Peacekeeping operations.

    Question. What do you believe the U.S. goals should be in the 
Republic of the Philippines and how best can we achieve those goals?
    Answer. The primary goals of the United States should be to 
strengthen the alliance with the Philippines and assist in building and 
maintaining the capabilities of the Armed Forces of the Philippines. 
Our network of alliances in the Asia-Pacific, including with the 
Philippines, are the bedrock of U.S. security strategy in the region. A 
Philippines that is capable of mitigating terrorist threats, providing 
a secure maritime environment that ensures freedom of navigation within 
its region, and leading multilateral approaches towards peace and 
stability will enable it to fulfill its treaty obligations to the 
United States, directly benefit U.S. interests in the Asia-Pacific 
region, and contribute to regional security and stability.
    Question. What is your assessment of U.S. military efforts in the 
Philippines and the effectiveness of the U.S. assistance being provided 
to the Philippine military in its fight against insurgent groups?
    Answer. U.S. military efforts and assistance in the Philippines 
support the U.S.-Philippines Mutual Defense Treaty. The United States, 
however, does not operate in a combat role alongside the Philippines in 
its fight against insurgent groups, such as the New People's Army and 
the Moro Islamic Liberation Front. U.S. military assistance is focused 
on helping the Philippines fight terrorism by assisting with the 
development of skill sets that are no different than those needed to 
adequately help and protect its civilian populations. As detailed in 
the 2010 Government of the Philippines Internal Peace and Security Plan 
(IPSP) ``Bayanihan'', we continue to see progress with the Philippines 
accomplishing its goal of transitioning from a military focused on 
internal security to one focused on territorial defense.
    Question. Do you anticipate a reduced U.S. military footprint or 
change in mission for U.S. military forces in the Philippines in the 
near to mid-term?
    Answer. The United States and the Philippines are discussing 
arrangements that will allow greater flexibility for U.S. and 
Philippine security forces to train and work together. We do not seek a 
return to the basing and bases of years past. Through the Enhanced 
Defense Cooperation Agreement, we may, on a rotational basis, increase 
U.S. military engagement with the Philippines in the future.
    Question. What policy guidelines, if any, would you establish, if 
confirmed, to ensure that U.S. personnel do not become involved in 
combat or law enforcement in the Republic of the Philippines?
    Answer. Current U.S. guidelines in place for the conduct of U.S. 
forces in the Philippines adequately address the roles and 
responsibilities of our military forces. All U.S. military personnel 
are in the Philippines under the Philippines-U.S. Visiting Forces 
Agreement and operate under the auspices of the U.S.-Philippines Mutual 
Defense Board and Security Engagement Board. Its activities, which will 
always be in consultation with, and agreement by, the Philippine 
government, are limited to conducting Humanitarian Assistance and 
Disaster Response; assisting Philippine security forces to improve its 
capacity and capability including training and upgrading equipment; and 
supporting Philippine counter-terrorism operations through activities 
such as intelligence fusion and sustainment support. Our forces in the 
Philippines continue to operate ``by, with, and through'' their 
Philippine Armed Forces counterparts in a strictly non-combat role.
                               indonesia
    Question. Indonesia is a key Asian power and is the largest Muslim 
country in the world. Consequently, it is important to build on 
opportunities to improve and expand U.S. relations with Indonesia where 
possible. In July 2010, Secretary Gates announced that DOD intended to 
resume working with elements of the Indonesian Special Forces, known as 
Kopassus. DOD engagement with Kopassus had been suspended for more than 
a decade because of past human rights violations by some of its 
members.
    What is your view of the current state of military-to-military 
relations with Indonesia and, specifically, Kopassus?
    Answer. In 2010, Presidents Obama and Yudhoyono inaugurated the 
U.S.-Indonesian Comprehensive Partnership. A key element of this broad 
partnership is the security component. Our defense relationship with 
Indonesia--a pivotal country to U.S. national interests--is managed 
through the Defense Framework Arrangement and facilitated through 
several forums and mechanisms. Our military-to-military relations with 
Indonesia are robust and continue to progress and mature, with over 140 
theater security cooperation activities scheduled for this fiscal year. 
These security cooperation engagements include a wide range of 
activities focused on four main areas of emphasis: Humanitarian 
Assistance/Disaster Relief, Peace Keeping Operations, maritime security 
and continued professionalization/reform of the Indonesian Defense 
Forces (TNI). Beginning with the normalization of military-to-military 
relationship in 2005, engagements have increased in number and evolved 
from initial small-scale bilateral exchanges into more complex 
bilateral and multilateral activities.
    The Indonesian Army Special Forces (known as Kopassus) has 
undergone a near-complete transformation over the past decade and is at 
the forefront of TNI professionalization and adherence to human rights 
standards. Following a 12-year pause in bilateral activities, PACOM 
established a measured and gradual program of security cooperation 
activities with Kopassus. These security cooperation activities have 
consisted of key leader engagements and small-scale subject matter 
expert exchanges in areas such as military decisionmaking, medical 
planning, law of war, and safeguarding human rights. I expect future 
activities of this type to continue and gradually expand at a pace 
commensurate with the demonstrated progress in TNI transparency and 
reform efforts. Chief among these reform efforts are the fulfillment of 
commitments made by Indonesian leaders to then Secretary Gates in 2010 
to continue to safeguard human rights and accountability throughout the 
Indonesian military through the unequivocal investigation and 
prosecution of those military personnel accused of human rights abuses 
and, if convicted, their removal from military service.
    Question. What is your understanding of the extent to which the 
Indonesian government is cooperating with the United States in the war 
on terrorism?
    Answer. The Government of Indonesia has cooperated closely and 
effectively with the United States and our partners in combating global 
terrorist networks in the region. Indonesia has shown tremendous 
success in arresting and convicting terrorists. Additionally, Indonesia 
has leveraged its leadership role within the Association of Southeast 
Asian Nations (ASEAN) by electing to co-chair the Executive Working 
Group on Counter-Terrorism with the United States in the ASEAN Defense 
Ministers Meeting Plus forum for the 2011-2013 cycle. This initiative 
seeks to encourage greater regional counterterrorism cooperation, 
reinforce military support to civil authorities, build capacity, and 
collectively address regional security issues in an open consultative 
forum.
    Question. Do you favor increased U.S.-Indonesian military-to-
military contacts? If so, under what conditions? Why?
    Answer. Yes. If confirmed, I will support increased military-to-
military contact within the context of the Comprehensive Partnership, 
guided by close consultation with the Departments of State and Defense, 
and within the boundaries of existing legal mechanisms. I believe close 
military-to-military relations with Indonesia are integral to achieving 
U.S. national interests in the region. I also believe that one of the 
most effective methods for encouraging reform is through interaction 
between Indonesian and U.S. servicemembers. Regardless of their 
mission, any interactions with U.S. servicemembers reinforce 
professional military practices, to include respect for human rights 
and the rule of law. Increased interactions facilitate greater 
understanding and reinforce professional values.
    Question. What is your view of the commitment of the Indonesian 
military leadership to professionalization of its armed forces, 
adhering to human rights standards, improving military justice, and 
cooperating with law enforcement efforts to investigate and prosecute 
those military personnel accused of human rights abuses?
    Answer. Indonesian defense reform progressed at a rapid pace after 
the resignation of President Suharto in 1998, with the separation of 
the police from the military, the elimination of formal political roles 
for the TNI, increased accountability, and the establishment of 
widespread human rights training initiatives. While reform efforts 
appear to have slowed, they have not reversed. According to several 
public opinion polls, the TNI enjoys the respect of the majority of the 
Indonesian populace and is often noted as the most respected government 
institution. This is a concrete indicator of progress. Continued 
reforms that the United States should continue to encourage include 
accountability for past human rights abuses, strengthening civilian 
control and oversight of the military, and continued professionalism of 
the TNI officer corps.
    Question. If confirmed, what would you do to encourage respect for 
human rights and accountability in the Indonesian military?
    Answer. If confirmed, I will support TNI's continued progress by 
encouraging senior Indonesian leaders to fulfill its stated commitments 
with particular emphasis on accountability, transparency and respect 
for human rights. We can accomplish this through bilateral security 
discussions, joint training, and military assistance, including 
military training programs. Our engagements with the TNI, and 
especially its Special Forces (Kopassus), frequently involve Human 
Rights and Rule of Law Training. We have seen significant improvement 
in Human Rights and Accountability from the senior leadership. I view 
U.S. interaction with TNI counterparts as an effective method to 
encourage professionalism and continued reform within the Indonesian 
military.
                operational access and freedom of action
    Question. Much has been made in recent years of the development of 
anti-access/area denial capabilities of certain countries, and the 
impact such capabilities might have on the United States' freedom of 
action and ability to protect power.
    What is your understanding of the emerging challenges associated 
with anti-access and area denial strategies in the Asia-Pacific?
    Answer. As discussed in the 2014 Quadrennial Defense Review and 
specifically the 2012 Defense Strategic Guidance, ``China will continue 
to pursue asymmetric means to counter our power projection 
capabilities.'' This would include China's pursuit of anti-access/area 
denial strategies. The United States maintains robust regional and 
global power projection capabilities that provide a full range of 
options to succeed in defense of national interests and of our allies. 
To this end, if confirmed, I will work closely with OSD and the 
Services in support of policy and programmatic inputs based on assessed 
operational risk, to ensure we have the ability to project power 
throughout the theater and preserve the capabilities necessary to 
maneuver within it.
    Question. The Joint Operational Access Concept (JOAC) released on 
January 17, 2012 broadly describes the Chairman of the Joint Chiefs of 
Staff's intent for how joint forces will respond to the operational 
challenges associated with potential adversaries' anti-access and area 
denial capabilities.
    What, in your view, is the JOAC's contribution to better 
understanding and dealing with the challenges of military operations in 
the PACOM AOR?
    Answer. The JOAC's primary contributions are illuminating the 
variety of challenges for which U.S. forces must be prepared across an 
increasingly diverse and rapidly evolving set of domains--air, sea, 
land, space, and cyber--and identifying Cross-Domain Synergy as the 
central tenet for addressing these challenges in order to assure 
operational access. The JOAC provides Strategic Guidance focused on 
overcoming A2/AD challenges and is intended to guide how the U.S. 
military is organized, trained, equipped and employed.
    Question. The JOAC identifies 33 capabilities required for its 
implementation, but this list of capabilities is not exhaustive nor is 
it prioritized.
    In view of the PACOM mission, how would you prioritize the required 
capabilities listed in the JOAC and what capabilities, if any, would 
you add?
    Answer. Unlike Joint Concepts in the past, JOAC has an 
implementation plan that bridges the gap between concept and 
operational reality. The 2014 JOAC Implementation Plan (JIP), which is 
a classified document, provided a priority for the 30 JOAC capability 
areas. In general, I would agree with the prioritization in the JIP, 
but more importantly the JIP was designed to provide a comprehensive 
view of all JOA related activities within the DOD to provide coherence 
and guide the development of the future joint force. What I can say 
about the JIP is that all DOD Components participated equally in its 
formulation. Additionally, the JIP currently has 165 actions, 84 
percent of which are non-material activities focused on finding better 
ways to employ the material capabilities currently planned for the 
Joint force. Annual updates to the JIP will be conducted to maintain 
currency with strategic guidance and combatant commander requirements. 
The implementation plan will ensure the Department stays focused on the 
important and innovative capabilities needed to ensure operational 
access now and in the future.
    Question. What new technologies would you suggest DOD pursue in 
order to develop or improve these capabilities?
    Answer. In general, I would suggest pursuit of technologies that 
improve situational awareness, command and control, and interagency 
coordination. As Commander, U.S. Pacific Fleet, we contributed to the 
development of PACOM's Integrated Priority List (IPL), which details 
the commands warfighting capability gaps and the many specific 
technologies we will be pursuing over the next several years. 
Additionally, PACFLT, in conjunction with PACOM, will develop and test 
these concepts and capabilities in realistic joint exercises that will 
be used to evaluate the operational utility of a given technology. 
PACOM's requirements are well documented and, if confirmed, I will 
continue to pursue those priorities set out in the Sep 2014 IPL.
    Question. With respect to air, sea and land capabilities, some 
proponents of the ``air-sea battle'' concept appear to de-emphasize 
ground combat forces.
    What are your views on the requirement for land forces before, 
during, and after operations to gain and maintain assured access?
    Answer. Land forces are necessary for all phases of an operation, 
including peacetime and steady-state. Most notably, in Phase 0 
``Shaping'', land forces are critical to tangibly demonstrate U.S. 
commitment to allies and partners, as well as resolve to potential 
adversaries. Land forces, as an integrated part of the Joint force, 
engage with allies and partners in the region to influence, train with, 
and improve, the capabilities and integration of those capabilities 
enabling allies and partners to better defend themselves against 
aggression. In many cases land forces may also facilitate relationship 
building, as many Pacific defense establishments are dominated by their 
armies. Ground forces allow rapid and effective response, not only to 
conflict, but also to natural disasters and humanitarian crises.
    During conflict, we must be able to credibly project ground forces 
in a maritime environment consisting of numerous islands, 
archipelagoes, and littoral population centers. Expeditionary land 
forces provide indispensable capabilities which complement our navy and 
air forces in the region. Land force headquarters and staffs also 
provide a Joint Task Force command and control capability that is 
necessary to pursue multiple operations simultaneously, a necessity for 
a region that spans 52 percent of the globe.
    If confirmed, I will work closely with the CNO, Chief of Staff of 
the Army, Commandant of the Marine Corps, and Commander, U.S. 
Transportation Command (TRANSCOM) on ground force sourcing and lift.
    Question. What, in your view, are the required size and 
capabilities for ground combat forces in the Pacific region, and what 
capabilities, if any, may be needed to improve their effectiveness?
    Answer. PACOM is resourced to Admiral Locklear's demand signal for 
U.S. Army ground forces. However, PACOM's ability to employ them 
throughout the theater is a shortfall. U.S. Army Pacific, in 
coordination with TRANSCOM, has identified solution sets that will 
enable U.S. Army employment in the Western Pacific.
    PACOM routinely experiences a shortfall of Amphibious Readiness 
Groups/Marine Expeditionary Units (ARG/MEU). Shortfalls in amphibious 
shipping, coupled with global demand for both the ARG/MEU teams and 
Afloat Forward Staging Bases, leave PACOM at about 40 percent of 
requirement.
    Land forces are necessary throughout the range of military 
operations. Most notably, land forces are critical in demonstrating 
U.S. commitment to allies and partners as well as the resolve to 
dissuade, disrupt, or defeat potential adversaries. Land forces, as an 
integrated part of the joint force, engage with allies and partners in 
the region to influence, train with, and improve their ability to 
defend themselves against aggression. Ground forces allow rapid and 
effective response, not only to conflict, but also to natural disasters 
and humanitarian crises, events which are commonplace in the PACOM AOR.
    Expeditionary land forces provide indispensable capabilities which 
complement our naval and air forces in the region. The land force 
headquarters and staffs also provide a Joint Task Force command and 
control capability that is necessary to pursue multiple operations 
simultaneously, a necessity for this expansive region.
    Potential categories that may need improvement include 
expeditionary basing, mobility, and ISR technologies. Adequate access 
to basing and logistical support throughout Asia Pacific is necessary 
to address the whole of the region, and the vastness of the AOR means 
that forces must have adequate mobility in the form of sealift and air 
transportation to allow them to engage, train, and respond to crises. 
Adequate ISR is also needed to enable the rapid and focused application 
of limited resources to the point of greatest necessity.
                 high altitude reconnaissance platforms
    Question. DOD intends to retire the U-2 ISR fleet in the middle of 
this decade and replace these aircraft with the Global Hawk RQ-4. Under 
the Air Force's plans, the RQ-4s will apparently be a PACOM-wide asset, 
flying missions throughout the region, whereas the U-2s have been 
dedicated to supporting U.S. and Korean forces on the Korean peninsula.
    The Chairman of the JROC recently sent the Armed Services Committee 
a letter indicting that ``I certify that the combatant commanders will 
have nearly equivalent'' ISR capability when the U-2 retires in fiscal 
year 2016.
    What is your view of the plan to retire the U-2?
    Answer. If confirmed, it will be my responsibility to place an ISR 
demand signal for the Services to fulfill. PACOM currently has an 
enduring requirement that, even with the U-2, the Services struggle to 
fulfill. Any PACOM commander would be concerned about the possibility 
of a diminished ISR capability and capacity as result of retiring any 
platform prior to full RQ-4 sensor parity. As a result of our shift 
toward the Asia-Pacific region and rising tensions throughout the 
theater, any decrement to existing capability and capacity concerns me 
in my current assignment, and would do so as PACOM commander, should I 
be confirmed.
    Question. Does a `nearly equivalent' ISR capability meet PACOM ISR 
requirement?
    Answer. Deep-look multi-intelligence collection capabilities 
support both U.S. and ROK daily intelligence requirements. If 
confirmed, I would be agnostic to platform as long as ``nearly 
equivalent'' provides equal or greater capability and capacity to what 
is currently employed in the PACOM AOR. If ``nearly equivalent'' means 
less, then I would be concerned.
    Question. Do you believe there will be an ISR capability gap 
created by its retirement?
    Answer. If the U-2 is allowed to retire prior to full Global Hawk 
system parity, then there could well be an ISR capability gap globally, 
not just in the PACOM AOR. Competing priorities could significantly 
impact theater operations if the U-2 is allowed to retire prior to 
system parity in follow-on platforms.
    Question. Based on your military expertise, can the Global Hawk 
provide ``nearly equivalent'' ISR capability today?
    Answer. Today, no. When Global Hawk system is on parity with the U-
2 there is reason to believe the platform will be able to satisfy 
theater collection requirements with equivalent capability; that is not 
the case today and is of concern to me.
    Question. What is the risk if sequestration requires further cuts 
into our ISR platforms to include not funding Global Hawk improvements 
needed to bring it closer to parity to the U-2?
    Answer. I believe PACOM would assume much greater risk and have to 
re-assess the impact of gapping or operating sub-optimal systems for 
standing and crisis ISR requirements.
                 united nations peacekeeping operations
    Question. A number of the Nations in the PACOM AOR contribute large 
numbers of police and troops to multilateral peacekeeping operations.
    What role, if any, do you believe PACOM should play with regard to 
engaging the troops from Asia-Pacific nations which contribute to 
peacekeeping missions?
    Answer. If confirmed, I will continue engagement with Asia-Pacific 
nations in regards to peacekeeping contributions. This is important 
opportunity and venue for military-to-military cooperation that allows 
us to increase partner capacity in military capability, 
professionalism, and increased awareness of human rights issues such as 
the protection of civilians in a U.N. mission area. I believe that it 
is in our best interest that countries contributing peacekeepers 
provide quality troops that are capable, respected, and have the 
requisite tactical and technical ability, and will enforce the U.N. 
mandate of that particular mission.
                          combating terrorism
    Question. If confirmed, what would be your role within DOD with 
respect to counter terrorism?
    Answer. If confirmed, I will continue PACOM's highly successful 
``by, with, and through'' approaches to counterterrorism that have 
produced measurable success in the Asia-Pacific region. These efforts 
rely on a capacity, capability, and network building approach that 
emphasizes working together with regional host nation partners, other 
U.S. Government agencies, and key allies, such as the Australians, to 
deny al Qaeda, adherents, affiliates, and associated forces the ability 
to operate in the region.
    Question. What do you believe is the terrorism threat from al Qaeda 
and affiliated groups in the Asia-Pacific region?
    Answer. The threat of attack by al Qaeda, its affiliates, and like-
minded groups and individuals against U.S. and partner nation interests 
in the PACOM AOR remains a serious concern. The possible re-emergence 
of other terrorist organizations, like Jemaah Islamiya and the Abu 
Sayyaf Group, that have been weakened but not defeated by the counter-
terror efforts of our allies and partners, could quickly affect the 
security and stability of the Asia-Pacific region. Compounding the 
concern, other decentralized groups and individuals ideologically 
linked to al Qaeda, as well as organizations based primarily outside 
the PACOM AOR (like Lashkar-e-Tayyiba), desire to support their agendas 
by conducting destabilizing attacks inside the region. Additionally, al 
Qaeda affiliated groups operate in the PACOM AOR using facilitation 
networks that support threats to U.S. interests throughout the world. 
Finally, emerging terror groups such as Islamic State (ISIL) are of 
concern, particularly as sympathizers from some of the countries in the 
region go off to the Middle East to fight and then return to their home 
countries.
    Question. Is there a nexus between terrorist groups and criminal 
networks in the Asia-Pacific?
    Answer. Yes, there is a nexus and it is a serious impediment to 
regional stability. Transnational crime and terrorism thrive on common 
enablers such as illicit transportation networks, weapons trafficking, 
corruption, trafficking in persons, counterfeiting, and movement of 
money to support nefarious activities. These threats impact political, 
social, and economic systems by eroding the rule of law and undermining 
the legitimacy of governments and institutions.
    Question. In Southeast Asia, most notably in the Philippines and 
Indonesia, U.S. engagement with partner nations has helped combat 
violent extremist ideology and activities. The integration of 
operations by host nation security forces with U.S. capacity building, 
development, and information support operations has dramatically 
reduced the ability of violent extremist organizations to operate.
    What more can the United States do in Southeast Asia to help combat 
the threat of terrorism perpetrated by violent extremists?
    Answer. The United States should sustain current engagements with 
individual nations in the region and continually look for opportunities 
to assist with ally and partner efforts. Additionally, we should 
continue multilateral efforts, specifically through organizations like 
the Association of Southeast Asia Nations (ASEAN), to build regional 
networks that deny transnational violent extremist and global terrorist 
facilitation networks the ability to operate within or through 
Southeast Asia. A sustained effort to build and enhance the capacity of 
our allies and partners is the cornerstone of our counter terrorism 
strategy in Southeast and South Asia. We are encouraged by the 
persistent pressure that partner nations are placing on these networks.
    Question. Which Southeast Asian countries are most important in the 
fight against terrorism in that region and what should the United 
States do to enhance relations with those countries?
    Answer. Even though Indonesia and the Republic of the Philippines 
have seen tremendous counter-terrorism successes, they remain 
vulnerable to violent extremism through radicalization and recruitment 
and are potential terrorist safe havens. Additionally, Malaysia and 
Thailand have been used as facilitation hubs by violent extremist 
organizations that operate across the region. Recent well-publicized 
efforts by Australia to arrest or detain at least 16 persons suspected 
of supporting or sympathizing with terrorists point to the subversive 
nature and determination of these organizations to gain footholds 
throughout the region. PACOM must maintain its robust presence and 
continue its ``by, with, and through'' engagement strategy in Southeast 
Asia.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent legislation, authorizes the provision of support 
(including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by U.S. Special Operations Forces to combat terrorism.
    What is your assessment of the overall effectiveness of this 
authority?
    Answer. Section 1208 funding is most effective in the CENTCOM and 
U.S. Africa Command AORs, and currently limited in its application in 
PACOM. I worked with this funding stream when I was the Director of 
Operations at U.S. Southern Command in 2007-2008. It is an extremely 
effective authority for specific threats. If confirmed, I will work 
with the DOD to identify any potential possibilities for using 1208 
authority, similar to the way we have used section 1206 successfully in 
building capacity in the Philippines and Cambodia.
           department of defense counternarcotics activities
    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1 billion to support CN operations, build the 
capacity of certain foreign governments in Asia and around the globe, 
and analyze intelligence on CN-related matters.
    What is your understanding of the illegal narcotics industry in the 
PACOM AOR?
    Answer. The illegal narcotics industry within the PACOM AOR is 
primarily focused on feeding the Asian demand for methamphetamine and 
supplying the growing Australian and Chinese demand for both cocaine 
and methamphetamine. Growth in market share within Asia for Eurasian, 
West African, Iranian, and Mexican based drug trafficking organizations 
has been reported--a clear demonstration of the globalization of the 
illicit narcotics trade.
    Countries in South and Southeast Asia have become increasingly 
attractive as bases for drug trafficking organizations' production and 
smuggling operations. Many nations in the PACOM AOR have experienced an 
increase in the production, transshipment, trafficking, or consumption 
of narcotics in recent years.
    In terms of direct impacts on the United States, licit chemicals 
produced in Asia are the primary precursors that are diverted and used 
to produce methamphetamine trafficked to the United States. Much of the 
violence on our southwest border is a result of methamphetamine 
trafficking by the Mexican cartels.
    Question. What role, if any, should DOD play in countering--either 
directly or with our Asian partners--the illegal narcotics industry in 
the PACOM AOR?
    Answer. In cooperation with other U.S. Government, and Partner 
Nation Agencies, PACOM executes activities within DOD counter-drug 
authorities to address the threats to U.S. national security posed by 
the illegal narcotics industry. As PACOM's executive agent for 
counterdrug operations, the Joint Interagency Task Force West (JIATF-
West) plans, integrates, synchronizes, conducts, and assesses DOD 
counter-drug activities in the region in order to shape the theater and 
disrupt organizations that threaten U.S. interests in the region. DOD 
should continue to play a critical role, through information sharing 
and building partner nation capacity, working with U.S. and foreign law 
enforcement agencies responsible for counter-narcotics.
                     transnational organized crime
    Question. What, if any, threat does transnational organized crime 
pose to U.S. national security interested in the PACOM AOR?
    Answer. The organizations that have amassed unprecedented wealth 
from illegal activities, including the illicit trafficking of people, 
drugs, weapons, or other contraband, pose a significant threat to our 
national security. Transnational criminal organizations (TCOs) are not 
only expanding their operations, but are also diversifying their 
activities, resulting in a convergence of transnational threats that is 
becoming even more complex, volatile, and potentially destabilizing. 
The major players use their amassed wealth to buy influence and subvert 
governmental institutions--creating instability, disrupting legitimate 
commerce, putting civilian populations at risk, and undermining 
democratic processes.
    TCOs are becoming increasingly globalized and interconnected. As 
the global economy continues to grow, change, and innovate, so will 
criminal organizations, and they will react quickly to changes in both 
licit and illicit economies. The permissive environments, loose 
financial controls, corruption, and fraudulent document facilitation 
networks fostered by transnational organized crime are also key 
enablers for the freedom of movement of international terrorist 
organizations operating in the region.
    The United Nations estimates 2.5 million people worldwide are 
victims of human trafficking at any given time. With more than half the 
world's population resident in the Asia-Pacific, it is logical to 
assume a significant percentage of those victims are in PACOM's AOR.
    Question. What role, if any, should PACOM play in countering the 
threats posed by transnational organized crime?
    Answer. PACOM intelligence capabilities can contribute 
significantly to the identification of threat networks and provide the 
necessary analysis to support law enforcement and other activities 
required to disrupt TCO operations. As part of the whole of government 
approach, DOD can provide critical resources to interagency efforts 
countering TCOs.
    Further, PACOM lead capacity building efforts and the development 
of regional cooperative networks provide critical reinforcement to 
partner nation governments. These efforts provide opportunities to 
hinder the growth of TCOs and reduce risks to the U.S. Homeland. Beyond 
just being a ``force multiplier'', these efforts are essential to 
addressing the problems where they begin. By addressing the regional 
environment--strengthening relationships with, and capabilities of, 
international partners throughout the PACOM AOR--we shrink the 
operational space within which both extremists and criminals can grow 
and prosper.
                             law of the sea
    Question. Do you support U.S. accession to the United Nations 
Convention on the Law of the Sea? If so, why?
    Answer. Yes. Accession to the Law of the Sea Convention serves the 
enduring interests of the United States to lead the promotion of the 
rule of law, including in and on the world's oceans. Accession would 
send a clear signal to the world that we remain committed to advancing 
the rule of law at sea. Acceding to the Convention would not affect or 
limit our rights, freedoms, and lawful uses of the sea and airspace 
needed to project power, reassure allies and partners, deter 
adversaries, respond to crises, sustain deployed combat forces, and 
secure sea and air lines of communication. Accession would put the 
United States on the firmest possible international legal foundation 
for those rights, freedoms, and uses. We currently rely on customary 
international law and physical presence to secure global freedom of 
access. Customary international law depends in part on states' 
practices and is subject to change over time. This is less so in the 
case of treaty- or convention-based international law, which comes from 
written and agreed-upon terms and conditions that are contained in such 
treaties or conventions. Ironically, by not being party to the 
Convention and relying on customary international law, our rights 
within the maritime domain are less well-defined than the rights 
enjoyed by the 165 other nations around the world who have acceded to 
the Convention.
    Question. Would U.S. accession to the United Nations Law of the Sea 
Convention benefit the U.S. military's mission in the Asia-Pacific 
region? If so, how?
    Answer. Yes. U.S. accession to the Law of the Sea Convention would 
advance U.S. national security interests in the Asia-Pacific region by 
enabling the United States to legally reinforce and assert protections 
contained within the Convention for our navigational rights and 
freedoms, over-flight rights and freedoms, military activities beyond 
the territorial seas of any coastal state without notice or permission, 
and our rights to transit international straits and choke points 
without impediments. Clearly, we are powerful enough to do so anyway, 
but acceding to the Convention gives us the moral high ground to 
criticize those countries that would seek to inhibit freedom of 
maneuver in the oceans and airspace around the world, including the 
Asia-Pacific region.
    As the Asia-Pacific continues to rise, competing claims and counter 
claims in the maritime domain are becoming more prominent. Nowhere is 
this more prevalent than the South China Sea. Numerous claimants have 
asserted broad territorial and sovereignty rights over land features, 
sea space, and resources in the area. The United States has 
consistently encouraged all parties to resolve their disputes 
peacefully through a rules-based approach. The Convention is an 
important component of this rules-based approach and encourages the 
peaceful resolution of maritime disputes. Accession would send a 
powerful and affirmative message to the international community that 
the United States believes the legal regime reflected in the Convention 
is worth supporting and upholding against any nation that might seek to 
manipulate the ordinary and intended meaning of certain provisions in 
its self-interest.
                       pow/mia accounting efforts
    Question. The Joint POW/MIA Accounting Command is critical to the 
recovery and identification of remains of missing military members. 
Recovery of remains of U.S. servicemembers from World War II, the 
Korean War, and the Vietnam War continues to be a high priority. 
Section 541 of the National Defense Authorization Act for Fiscal Year 
2010 requires that the Secretary of Defense ensure that sufficient 
resources, personnel, and funds are provided to attain at least 200 
identifications per year by fiscal year 2015.
    What is your view of the Department's and the POW/MIA community's 
ability to achieve this goal?
    Answer. Earlier this year Secretary Hagel directed the Department 
to transform how it accounts for its personnel missing from past 
conflicts. Specifically, he directed that he be provided with a plan to 
organize the Department most effectively to increase to the maximum 
extent possible the numbers of missing Service personnel accounted for 
annually while ensuring timely and accurate information is provided to 
their families.
    As a result of the plan that was presented to Secretary Hagel, the 
Joint POW/MIA Accounting Command will soon be merged with two other 
organizations to form a new Defense Agency that will be overseen by the 
Under Secretary of Defense for Policy. I believe the Department's 
budget request provides the necessary resources to increase its 
capability and capacity to achieve this goal and implement Secretary 
Hagel's direction. I fully understand the priority our Nation places on 
this issue. If confirmed, until the consolidation of these agencies is 
completed, I will fully support JPAC in its efforts to account for 
personnel from past conflicts. After the merger occurs, I will fully 
support the new Defense Agency.
    Question. On October 20, 2011, DOD announced an agreement with 
North Korea that will allow U.S. personnel to return to North Korea to 
resume recovery of remains of U.S. servicemembers missing from the 
Korean War. Recovery operations in North Korea were suspended in 2005.
    What is your understanding of this recent agreement to resume 
recovery operations in North Korea?
    Answer. The arrangement negotiated in 2011 covered 1 year and is no 
longer valid. The operations negotiated as part of the arrangement did 
not occur and were suspended due to North Korea's provocative actions. 
This is truly unfortunate.
    Question. How might the resumption of recovery efforts in North 
Korea impact the future of the Six Party talks or the stability on the 
Korean Peninsula?
    Answer. The U.S. Government's mission to account for our personnel 
is not linked to the Six Party talks or to Korean stability.
    Question. If confirmed, what steps, if any, would you take to 
enhance POW/MIA recovery efforts in the PACOM AOR?
    Answer. I fully understand the priority our Nation places on this 
issue. If confirmed, I will ensure the necessary resources are 
available to JPAC until the new Defense Agency assumes the mission. 
When that happens, I will ensure the necessary resources are available 
to the new Defense Agency, as well as the full support of PACOM in the 
conduct of their important mission.
                            quality of life
    Question. Combatant commanders have an interest in the quality of 
life of military personnel and their families assigned within their 
AOR.
    In your view, what is the role and responsibility of combatant 
commanders for the quality of life of personnel assigned to their AOR?
    Answer. The combatant commander is a strong advocate for programs 
which will ensure the needs of our servicemembers and their families 
continue to be met, even during an era of fiscal constraint. The 
commander advocates for sustainment of critical quality of life 
programs and for improvement where needed in the quality of life of 
assigned personnel. The Commander ensures that quality of life issues 
are articulated to community leaders, military installation commanders, 
DOD policymakers, and Members of Congress. If confirmed, I will 
continue Admiral Locklear's strong advocacy of the soldiers, sailors, 
airmen, marines, coastguardsmen assigned to PACOM, and their families.
    Question. If confirmed, what would you do to enhance quality of 
life programs for military members and their families within the PACOM 
AOR?
    Answer. Even though quality of life programs fall under the purview 
of the individual Services, if confirmed, I will make quality of life 
for servicemembers and families assigned to PACOM a top priority. I 
will work with my Service component commanders to ensure our 
servicemembers' and their families' needs are met.
    Question. What is your view of the challenges associated with 
global rebasing on the quality of life of members and their families in 
the PACOM AOR (including adequate health care services and DOD 
schools)?
    Answer. Preserving the quality of life for our servicemembers and 
their families while we realign our forces in theater is a big 
challenge. Throughout the transition process, we must focus efforts on 
maintaining quality housing, excellent DOD schools, commissary and 
exchange services, medical/dental facilities, higher education, work 
life, family and community support programs for our people.
                     in-kind military construction
    Question. The committee released a report on April 15, 2013, titled 
``Inquiry into U.S. Costs and Allied Contributions to Support the U.S. 
Military Presence Overseas.'' Among other things, the committee's 
inquiry found that in-kind payments from partner nations to support the 
overseas presence of U.S. military forces in Germany, South Korea, and 
Japan, have been used to fund questionable military construction 
projects. In response, the committee's version of the National Defense 
Authorization Act for Fiscal Year 2014 includes a provision (section 
2801) that would require that all future military construction projects 
funded using in-kind payments pursuant to bilateral agreements with 
partner nations be submitted for congressional authorization in the 
Military Construction Authorization Act.
    If confirmed, how would you ensure that in-kind payments be 
utilized for identified U.S. priorities to offset costs that DOD would 
otherwise pay with appropriated funds?
    Answer. If confirmed, I will work with OSD, my staff, and my 
subordinate commanders to ensure we effectively and efficiently 
prioritize and apply every taxpayer dollar, won or yen, regardless of 
the type of project or the source of the appropriation. As we press 
ahead under section 2801, we must be sensitive to the appearance of 
encroaching on another country's sovereignty if our actions appear to 
be directing allied budget procedures.
                 sexual assault prevention and response
    Question. The Department has developed comprehensive policies and 
procedures to improve the prevention of and response to incidents of 
sexual assaults, including providing appropriate resources and care for 
victims of sexual assault.
    What is your view of the steps taken to prevent and respond to 
sexual assaults in PACOM, including assaults by and against U.S. 
civilian and contractor personnel?
    Answer. Sexual assault is a crime. I have seen great focus by 
commanders and subordinates to address the issue of sexual assault and 
a deep commitment towards prevention of incidents and appropriately and 
adequately responding to reported incidents. Commanders monitor their 
command climate as it relates to sexual assault more than ever and are 
proactive in taking steps towards ensuring they maintain a climate free 
from sexual assault and reprisals against victims. Zero is the only 
acceptable level for sexual assault in our military.
    Question. What is your view of the adequacy of the training and 
resources in place in PACOM to investigate and respond to allegations 
of sexual assault?
    Answer. PACOM components have adequate resources and training in 
place to investigate and respond to allegations. All Services have 
established guidelines for a 24 hour, 7 day a week sexual assault 
response capability for victims in all locations. Additionally, PACOM 
provides oversight for ensuring that adequate resources are present at 
deployed locations to maintain the appropriate level of resources to 
respond to incidents. With regard to investigations, the Department has 
multiple efforts underway to improve the utilization of existing 
resources and enhance its ability to investigate and respond to sexual 
assaults.
    Question. What is your view of the willingness and ability of 
military leaders to hold assailants accountable for their acts?
    Answer. I believe my colleagues take this seriously and are able to 
hold perpetrators accountable. I personally have a strong public record 
in this regard. Through actions and words, we reinforce this on a 
continuing basis. We have the responsibility to enforce regulations and 
hold our personnel accountable to the high standards that our core 
values demand. That said, we as leaders must also be held accountable 
for our actions regarding those in our commands that commit sexual 
assault and the victims of those assaults.
    Question. What is your understanding of the adequacy of the 
resources and programs in PACOM to provide victims of sexual assault 
the medical, psychological, and legal help they need?
    Answer. Service components within the PACOM have appropriate 
resources and programs in place to offer victims of sexual assault 
medical, psychological, investigative, and legal support. Service 
components have enhanced the support services available through the 
Sexual Assault Prevention and Response Coordinators and established 
Victims' Legal Counsel Programs wherein Judge Advocates will help 
protect a victim's rights through the investigative and adjudicative 
stages of the military justice process.
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. Leaders and commanders set the tone for their organization 
and ensure that all applicable services are available and rendered to 
the victim. Proactive and positively engaged commanders are vital to 
providing the necessary support to victims. Beyond this, commanders are 
responsible for maintaining a climate and culture free from reprisal 
against victims. We must hold our commanders and leaders accountable to 
get this right.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults have 
occurred?
    Answer. Change starts and momentum continues from the top of 
organizations. If confirmed, I will set PACOM-wide expectations for 
conduct through guidance on core values and will demand that 
subordinate leaders set the example in their organizations. Commands 
shall monitor their climates and the climates of their subordinate 
units. Chains of command shall be proactively engaged in resolving 
issues pertaining to command climate and commanders will be held 
accountable for their units' actions.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. The commander's role in military justice is longstanding 
and essential to the effectiveness of command in our forces. Removing 
commanders from the military justice system would signal a lack of 
confidence in our commanders that would undermine good order and 
discipline. It would foster doubt in our servicemembers in the 
competency and abilities of their commanders that are entrusted with 
their lives. The maintenance of good order and discipline is the 
responsibility of the commander. Removing this responsibility would 
certainly erode the ability of a commander to effectively command his 
unit. That said, I believe in and support the assignment of Judge 
Advocates as formal Victim Advocates and Victim's Legal Counsel. We as 
leaders must also be held accountable for our actions regarding those 
in our commands that commit sexual assault and the victims of those 
assaults.
    Question. Do you consider the current sexual assault policies and 
procedures, particularly those on restricted reporting, to be 
effective?
    Answer. Yes. Restricted reporting allows victims of this crime to 
come forward and receive needed services while maintaining 
confidentiality. Survey data shows that confidentiality is a key driver 
in accurately assessing the extent of sexual assault in the military. 
Without restricted reporting, many of these victims would be left 
without an avenue to access needed services as they would simply forgo 
reporting.
    Question. If confirmed, what actions will you take to reassess 
current policies, procedures and programs and to ensure senior level 
direction and oversight of efforts to prevent and respond to sexual 
assaults in PACOM?
    Answer. If confirmed, I will establish clear policies and 
procedures for my leaders, at all levels, to take action to prevent 
sexual assault, protect and support victims, hold offenders 
accountable, and to ensure a safe and healthy environment for those in 
their charge. As is the case in most major commands, subordinate 
commanders in PACOM are required to immediately notify the combatant 
commander of any sexual assault report made. I will ensure all 
personnel (military and civilian) are fully aware, trained, and 
committed to eradicating sexual assault.
    Question. What methods for monitoring overall trends and gauging 
the sufficiency of component commanders' efforts in preventing and 
responding to incidents of sexual assault do you consider appropriate 
and intend to implement as PACOM commander?
    Answer. If confirmed, I will ensure commanders comply with all 
requirements in accordance with DOD Directive 6495.0 and other 
established Department policies. Additionally, I will require 
commanders provide me assessments of their prevention efforts as well 
as their responsiveness to incidents. From these assessments, I will 
monitor trends and provide further guidance and direction as necessary. 
I will emphasize the importance of commanders monitoring their command 
climate with respect to sexual assault and ensuring sexual assault 
response capabilities continue to be available at all locations in my 
AOR. I will demand victims be treated with fairness and respect and 
that sexual assault incidents be given the highest priority and treated 
as emergency cases. I will not allow sexual assault to injure our 
personnel, our friends, our families, destroy our professional values, 
or compromise readiness. I will hold my subordinate commanders 
accountable.
              humanitarian assistance and disaster relief
    Question. What should be the role for the U.S. military in 
humanitarian assistance and disaster relief in the Asia-Pacific region?
    Answer. PACOM continues to provide Foreign Disaster Relief in the 
Asia-Pacific on an ``as needed'' basis. When countries request 
assistance, PACOM either provides immediate assistance within the 
initial 72-hours of a disaster based on life and limb or after the 
USAID validates the request against an urgent and unique capability 
that only PACOM can provide. PACOM continues to assist Asia-Pacific 
nations with their disaster preparations by engaging in multinational 
forums to share best practices, participating in various bi/
multilateral humanitarian assistance/disaster relief exercises, as well 
as partnering with the Center for Excellence in Disaster Management and 
Humanitarian Assistance and USAID in country resiliency training. 
Overall, PACOM should be viewed as a quick response force for countries 
in dire need with an ability to respond rapidly, for short duration, 
and to provide assistance when requested.
    Additionally, steady-state Humanitarian Assistance activities are 
an important part of PACOM's Theater Campaign Plan. PACOM provides 
humanitarian assistance annually to countries within its AOR. These HA 
activities are low cost, non-obtrusive, but highly effective efforts 
that improve DOD access, visibility, and influence in a partner nation 
or region, generate positive public relations and goodwill for DOD, and 
build collaborative relationships with the partner nations' civil 
society.
    Question. Are the resources necessary to fulfill this role 
currently available to the PACOM commander? If not, what additional 
resources are necessary?
    Answer. Yes. PACOM receives adequate funding from the Overseas 
Humanitarian, Disaster and Civic Aid appropriation, under 10 U.S.C. 
2561 for humanitarian assistance activities, and 10 U.S.C. 404 to 
respond to disasters within the PACOM AOR.
    Additionally, USAID/OFDA has embedded two representatives within 
the PACOM staff to synchronize and coordinate crisis response in 
situations where DOD is requested to provide ``unique capabilities'' 
that exceed host nation or USAID/OFDA partner capacity.
    Question. How should the PACOM Commander incorporate ``lessons 
learned'' from prior humanitarian assistance and disaster relief 
operations in the PACOM AOR?
    Answer. The Asia-Pacific's tectonic plate structure produces its 
well-known Ring of Fire, which regularly triggers earthquakes, 
volcanoes, and tsunamis in the region. Weather extremes and anomalies 
also continue to plague the region, and understanding the scope and 
severity of long-term climate change, unexpected climate shocks, and 
inter-annual climate variability such as El Nino, attest to the shared 
challenges we face with our partners and allies. Capturing lessons 
learned is critical to properly planning and responding to these 
enduring challenges.
    PACOM, in accordance with the established Chairman Joint Chiefs of 
Staff policy, uses the PACOM Lessons Learned and Issue Resolution 
Program to incorporate ``lessons learned'' from prior humanitarian 
assistance/disaster relief (HA/DR) operations in the PACOM AOR. These 
lessons are analyzed and validated to identify issues requiring 
resolution for staff process improvement and/or to address gaps in 
plans or resources. The issues are then either resolved internally by 
PACOM or forwarded up the chain of command for resolution. Once 
resolved these ``lessons learned'' are used by PACOM during future HA/
DR operations.
    Additionally, the Center for Excellence in Disaster Management and 
Humanitarian Assistance, a PACOM direct reporting unit, focuses on pre-
crisis preparedness and capturing lessons learned from HA/DR 
operations. They provide regional and global information sharing across 
foreign and domestic government agencies, work to improve multilateral 
civil-military cooperation, and offer a small but rapid response 
capability to disasters and humanitarian crisis.
                         science and technology
    Question. As with other combatant commands, a Science and 
Technology (S&T) advisor is assigned to support PACOM.
    If confirmed, what would be your priorities for the PACOM Science 
and Technology advisor?
    Answer. If confirmed, I will rely on the PACOM Science and 
Technology (S&T) Advisor to discover, develop and demonstrate 
innovative solutions to meet warfighter challenges, help ensure 
adversary technology advancements are identified early and mitigated, 
help build requirements for Service resourcing, and help build science 
and technology partnerships among PACOM component commanders and 
industry, the private sector, academia, the interagency, and regional 
allies and partners. I would expect that the PACOM S&T Advisor 
continues to expand collaboration with the national research enterprise 
composed of Service, DOD, and Department of Energy laboratories, as 
well as international partners. Additionally, I would expect the S&T 
Advisor to continue to provide expert advice to the PACOM staff on new 
and emerging capabilities that can aid the command in meeting theater 
objectives.
    Question. What role do rapid fielding programs play in developing 
and delivering new capabilities to the warfighter?
    Answer. Rapid fielding programs are designed to be primarily 
focused on Combatant Command priorities. PACOM has aggressively 
leveraged rapid fielding programs such as Joint Capability Technology 
Demonstrations and the Quick Reaction Capabilities through the Joint 
Urgent Operational Needs program. If confirmed, I intend to continue 
placing significant emphasis on these processes. Rapid fielding 
provides a pathway to innovative, agile and affordable solutions for 
the Combatant Commands and we mustcontinue to build on the excellent 
work in this area.
    Question. The Secretary of Defense has established a Strategic 
Capabilities Office (SCO) to develop new systems and technologies to 
counter anti-access and area denial capabilities. How would you work 
with SCO to prioritize their programs and support the development and 
deployment of new capabilities?
    Answer. Prioritization of SCO programs is accomplished through 
close coordination between the SCO-West office created within PACOM and 
the central SCO stake holders at the Pentagon. If confirmed, I would be 
in the unique position of offering the forces and exercise venues 
necessary to effectively test the new and innovative strategic 
capabilities which SCO puts forward. Additionally, the Asia-Pacific 
offers the opportunity for operationally realistic scenarios which will 
help to validate the OT&E prerequisites for new capabilities and allow 
them to move forward more rapidly in the acquisition process.
    Question. DOD has, in recent years, put greater emphasis on 
research and development of persistent ISR capabilities.
    In your view, how can persistent ISR improve operations in the 
Pacific theater, and how would you utilize new platform and sensor 
technologies?
    Answer. Persistent ISR in the Pacific Theater provides real time 
situational awareness for increased ability to gain indications and 
warnings and to hold strategic threats at risk. By working with allies 
and partners we can enhance our understanding of the region in real 
time and share this information, as needed. New and improved 
capabilities would provide more reaction time to indications and 
warning allowing more time to find off-ramps to de-escalate the 
situation. More capacity and capability would provide actionable 
intelligence to support theater operations while minimizing delays and 
keeping us ahead of potential crisis, natural disasters and other 
unplanned contingencies.
    Question. Do you believe that airship platforms can be effectively 
employed in the Pacific theater?
    Answer. Yes. I believe that persistent ISR is one of the most 
important capabilities for PACOM as it increases the ability to 
anticipate and react to potential crises to enable the commander to 
gain a better understanding of activities in the region. To satisfy 
PACOM's ISR requirements, a broad array of platforms is needed. Airship 
platforms have demonstrated an exciting potential to fulfill part of 
this requirement, especially in permissive environments in missions 
such as air and surface domain awareness. Furthermore, airships of 
sufficient scale also offer a promising capability to conduct mobility 
operations independent of traditional aerial or seaport facilities in 
missions such as disaster response. If confirmed, I would be 
interesting in any platform that could meet my ISR requirements, 
including airships.
                       minerva and social science
    Question. Since 2009, DOD has been funding, under the Minerva 
Initiative, academic research focusing on the evolving relationship 
between technology and national security in China. The goal of this 
research is to create a better understanding of China's dynamic 
science, technology and innovation enterprise and its impact on its 
military.
    Are you aware of this research and in your view, should DOD 
continue to fund activities like this to increase its breadth and depth 
of the Chinese military-industrial enterprise?
    Answer. Yes to both questions. China is increasingly emphasizing 
the fusion of civil and military research and development as a key to 
accelerating the technological advance and modernization of the 
People's Liberation Army (PLA). As the relationship between China's 
science and technology sectors and the PLA grows closer, the type of 
research that the Minerva Initiative provides becomes more important in 
helping us to assess the pace and longer-term trajectory of China's 
military modernization.
    Question. The Human Terrain System has been effectively used to 
support efforts to better understand the socio-political environment in 
which military forces have deployed.
    Are you aware of the work of the Human Terrain System teams, and in 
your view, should similar capabilities be developed to support the 
PACOM AOR?
    Answer. It is very important to have socio-cultural understanding 
of the people and places where we engage and operate. I am aware of the 
Army's Human Terrain System, and its use in Iraq and Afghanistan. PACOM 
employs analysts and foreign area specialists throughout the command in 
an effort to best integrate that knowledge into our efforts. Several 
initiatives with similar capabilities are underway, leveraging a 
variety of knowledge sources as we work to continue expanding this 
important area. One challenge we face is the size and complexity of the 
Asia-Pacific. The region is home to over half the world's population 
who represents thousands of groups, tribes, and societies, and 
collectively speak over 1,000 languages. The PACOM staff is currently 
assessing how the Human Terrain System might be utilized in the PACOM 
AOR. I am very interested in the outcome of that assessment.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the PACOM commander?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Carl Levin
                    air defense identification zone
    1. Senator Levin. Admiral Harris, during the hearing you commented 
on the legality of the Air Defense Identification Zone (ADIZ) that was 
declared by China. Would you please clarify that response?
    Admiral Harris. I erred when I used the term ``illegal.'' Freedom 
of overflight and other internationally lawful uses of airspace are 
essential to prosperity, stability, and security around the globe. 
International law does not prohibit nations from establishing an ADIZ 
in international airspace, adjacent to their national airspace. 
However, it is inconsistent with international law to establish an ADIZ 
which applies its procedures to aircraft not intending to enter 
national airspace. We also do not support efforts of any nation to 
establish its ADIZ unilaterally without consultation and collaboration 
with neighboring nations (e.g. China's ADIZ overlaps Japan and the 
Republic of Korea's ADIZs). By establishing and announcing its East 
China Sea ADIZ, especially over disputed waters, and without 
coordination or consultation, China increased the risk of 
misunderstanding and miscalculation in one of the most highly sensitive 
areas in the world. I view this development as an improper attempt by 
China to unilaterally alter the status quo in the region. Because of 
this, we don't recognize the ADIZ or comply with it.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                airborne electronic attack requirements
    2. Senator Ayotte. Admiral Harris, in this year's congressional 
testimony, the Chief of Naval Operations, Admiral Jonathan W. Greenert, 
USN, highlighted the critical need for additional EA-18G Growlers in 
operational support for both carrier and expeditionary strike forces. 
Congress is in the process of addressing a portion of the Department of 
Defense's (DOD) needs in Airborne Electronic Attack (AEA). The Senate 
and House Armed Services Committees are now asking DOD to provide 
additional information on the extensive analysis taking place at the 
Navy level and--most important to your future role--the need for 
additional Joint AEA at the expeditionary level. Would you please 
provide your thoughts on the importance of AEA in the Pacific area of 
responsibility?
    Admiral Harris. Airborne Electronic Attack (AEA) is critically 
important to the Pacific area of responsibility as control of the 
Electromagnetic Spectrum (EMS) is vital for PACOM to preserve its 
warfighting advantage in the Asia-Pacific. AEA enables PACOM to 
effectively gain access to heavily contested environments, which 
consist of state of the art networked systems, distributed controls, 
and sophisticated sensors integrated into military equipment, civilian 
infrastructure, and commercial networks. While the demand for this 
mission is high, the platforms able to perform this mission are 
decreasing. For this reason, the Navy's fleet of expeditionary and 
carrier based EA-18 Growlers is vital to Pacific Fleet's ability to 
achieve my mission sets, and if confirmed, I expect to place a demand 
on Navy to provide even more.
    AEA provides innovative, asymmetric, cost imposing solutions to 
counter anti-access/area denial challenges. Potential adversaries are 
developing and fielding Electronic Warfare capabilities (air, surface, 
subsurface, space, cyber) and the subject matter expertise to decrease 
our warfighting advantage. Therefore, PACOM must continually invest in 
research and development of the AEA solutions it will need to maintain 
the asymmetric advantage in the future.

    3. Senator Ayotte. Admiral Harris, based on what you currently 
know, what specific areas of Joint AEA do you feel need additional 
support with the turn-to-the-Pacific strategy that DOD is conducting?
    Admiral Harris. As our Nation rebalances to the Pacific, we face 
growing and modernizing adversarial militaries with advanced electronic 
warfare systems. As such, we must invest in robust, offensive, non-
kinetic electronic attack capabilities in order to stay ahead of 
rapidly modernizing threats in the region. Additionally, we need to 
improve our electronic protection capabilities for our existing 
platforms to increase joint operational access. Furthermore, U.S. 
forces require the tactics, training, and procedures necessary to 
recognize, identify, and counter current and next generation threats.

    4. Senator Ayotte. Admiral Harris, are there additional assets, 
both platform and technology, that you feel are key to addressing the 
AEA role in the Pacific? If so, please elaborate.
    Admiral Harris. The EA-18 Growler is the premier AEA platform in 
the U.S. military, and the demand for that platform continues to 
increase. It is the primary enabler to defeat adversarial A2/AD 
strategies. PACOM requires EA-18G aircraft, equipment, and personnel in 
sufficient quantity within Carrier and Expeditionary Air Wings to 
support a Joint Campaign to complement the U.S. Air Force's fleet of 
EC-130H Compass Call aircraft. Additionally, PACOM requires next 
generation Electronic Attack pods for manned and unmanned aircraft in 
order to disrupt, degrade, or defeat current and next generation 
threats. Finally, the development and fielding of penetrating, long 
endurance unmanned aerial vehicles able to conduct AEA in medium to 
high threat environments are essential to imposing cost and minimizing 
risk to U.S. forces.
                                 ______
                                 
    [The nomination reference of ADM Harry B. Harris, Jr., USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 18, 2014.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Navy to the 
grade indicated while assigned to a position of importance and 
responsibility under Title 10, U.S.C., section 601:

                             To be Admiral.

    ADM Harry B. Harris, Jr., 0000.
                                 ______
                                 
    [The biographical sketch of ADM Harry B. Harris, Jr., USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
   Transcript of Naval Service for ADM Harry Binkley Harris, Jr., USN


07 June 1978..............................  Ensign
07 June 1980..............................  Lieutenant (junior grade)
01 July 1982..............................  Lieutenant
01 November 1987..........................  Lieutenant Commander
01 May 1993...............................  Commander
01 June 1999..............................  Captain
01 May 2005...............................  Rear Admiral (lower half)
01 November 2007..........................  Rear Admiral
13 June 2008..............................  Vice Admiral
16 October 2013...........................  Admiral, Service continuous
                                             to date
 


Assignments and duties:

------------------------------------------------------------------------
                                                     From         To
------------------------------------------------------------------------
Patrol Squadron ONE ONE (DUINS).................   June 1978    Sep 1978
Naval Aviation Schools Command, Pensacola, FL       Sep 1978    Nov 1978
 (DUINS)........................................
Training Squadron ONE ZERO (DUINS)..............    Nov 1978    Mar 1979
Naval Air Training Unit, Mather AFB, CA (DUINS).    Mar 1979    Sep 1979
Patrol Squadron THREE ZERO (DUINS)..............    Sep 1979    Feb 1980
Patrol Squadron FOUR FOUR (Avionics/Armament        Feb 1980    Jan 1983
 Division Officer)..............................
Commander, Naval Forces Japan, Yokosuka, Japan      Jan 1983    Feb 1985
 (Flag Lieutenant)..............................
Fleet Combat Training Center Atlantic, Dam Neck,    Feb 1985    May 1985
 VA (DUINS).....................................
USS Saratoga (CV 60) (Tactical Action Officer)..    May 1985    May 1987
Patrol Wing ONE (Task Force Surveillance            May 1987   July 1989
 Officer).......................................
Patrol Squadron THREE ONE (DUINS)...............   July 1989    Nov 1989
Patrol Squadron FOUR (Operations Officer).......    Nov 1989   July 1991
Harvard University (DUINS)......................   July 1991   June 1992
Office of the Chief of Naval Operations (Action    June 1992   July 1993
 Officer) (N51).................................
Georgetown University (DUINS)...................   July 1993    Apr 1994
XO, Patrol Squadron FOUR SIX....................    Apr 1994   June 1995
CO, Patrol Squadron FOUR SIX....................   June 1995    May 1996
Patrol Wing ONE (Operations Officer)............   July 1996    Nov 1998
Joint Staff (Special Assistant to Chairman of       Nov 1998    Dec 2000
 the Joint Chiefs of Staff).....................
Commander, Patrol and Reconnaissance Wing ONE...    Jan 2001   July 2002
U.S. Naval Forces Central Command (Assistant        Aug 2002    Aug 2004
 Chief of Staff for Operations, Plans and
 Political-Military Affairs)....................
Office of the Chief of Naval Operations             Aug 2004    Mar 2006
 (Director, Current Operations) (N31)/AT-FP
 Division) (N32/N34)............................
Commander, Joint Task Force Guantanamo, U.S.        Mar 2006   June 2007
 Southern Command...............................
U.S. Southern Command (Director for Operations)    June 2007    May 2008
 (J3)...........................................
Office of the Chief of Naval Operations (Deputy    June 2008    Nov 2009
 Chief of Naval Operations for Communication
 Networks) (N6).................................
Commander, Sixth Fleet/Commander, Striking and      Nov 2009    Oct 2011
 Support Forces NATO/Deputy Commander, U.S.
 Naval Forces Africa/Joint Force Maritime
 Component Commander Europe.....................
Assistant to the Chairman of the Joint Chiefs of    Oct 2011    Oct 2013
 Staff..........................................
Commander, U.S. Pacific Fleet...................    Oct 2013     To date
------------------------------------------------------------------------


Medals and awards:
    Defense Distinguished Service Medal
    Distinguished Service Medal with one Gold Star
    Defense Superior Service Medal with two Oak Leaf Clusters
    Legion of Merit with two Gold Stars
    Bronze Star Medal with one Gold Star
    Meritorious Service Medal with three Gold Stars
    Air Medal with numeral ``1''
    Joint Service Commendation Medal
    Navy and Marine Corps Commendation Medal with four Gold Stars
    Navy and Marine Corps Achievement Medal
    Joint Meritorious Unit Award
    Navy Unit Commendation with two Bronze Stars
    Navy and Marine Corps Overseas Service Ribbon with four Bronze 
Stars
    Kuwait Liberation Medal (Saudi Arabia)
    Meritorious Unit Commendation with one Bronze Star
    Navy ``E'' Ribbon with three ``E'' devices
    Navy Expeditionary Medal with one Bronze Star
    National Defense Service Medal with two Bronze Stars
    Armed Forces Expeditionary Medal
    Southwest Asia Service Medal with three Bronze Stars
    Afghanistan Campaign Medal
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Military Outstanding Volunteer Service Medal
    Sea Service Deployment Ribbon with four Bronze Stars
    Kuwait Liberation Medal (Kuwait)
    Expert Rifle Marksmanship Medal
    Expert Pistol Shot Medal

Civilian Award:
    Department ofState Distinguished Honor Award

Special Oualifications:
    BS (Engineering) U.S. Naval Academy, 1978
    MPA (Public Administration) Harvard University, 1992
    MA (National Security Studies) Georgetown University, 2000
    Designated Naval Flight Officer, 1979
    Awarded the Stephen Decatur Award, 1987
    Capstone, 2005-3
    Designated Level IV Joint Qualified Officer, 2009
    Awarded NECO Ellis Island Medal of Honor, 2014
    Awarded APAICS Lifetime Achievement Award, 2014

Summary of joint duty assignments:

------------------------------------------------------------------------
           Assignment                    Dates               Rank
------------------------------------------------------------------------
Joint Staff (Special Assistant    Nov 98-Dec 00.....                   CDR/CAPT
 to Chairman of the Joint Chiefs
 of Staff).
Commander, Joint Task Force       Mar 06-June 07....               RDML
 Guantanamo, U.S. Southern
 Command.
U.S. Southern Command (Director   June 07-May 08....          RDML/RADM
 for Operations) (J3).
Commander, Sixth Fleet/           Nov 09-0ct 11.....               VADM
 Commander, Striking and Support
 Forces NATO/Deputy Commander,
 U.S. Naval Forces Africa/Joint
 Force Maritime Component
 Commander Europe.
Assistant to the Chairman of the  Oct 11-Oct 13.....               VADM
 Joint Chiefs of Staff.
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM Harry B. 
Harris, Jr., USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Harry B. Harris, Jr..

    2. Position to which nominated:
    Commander, U.S. Pacific Command.

    3. Date of nomination:
    September 18, 2014.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    4 August 1956, Yokosuka, Japan.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to CDR Brunhilde K. Bradley, USN (Ret.) (Maiden name 
unchanged).

    7. Names and ages of children:
    None.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    Honorary ``Colonel Aide de Camp,'' State of Tennessee
    Honorary ``Admiral in the Texas Navy,'' State of Texas

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Fraternal: Japanese American Veterans Association, member
    Fraternal: U.S. Naval Academy Alumni Association, member
    Fraternal: Army-Navy Club, Washington DC, member
    Professional: Maritime Patrol (Aircraft) International, member
    Fraternal: Maritime Patrol Association
    Professional: U.S. Naval Institute, member
    Other: National Association of Watch and Clock Collectors, former 
member
    Other: National Association of the Carabao, former member

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements for outstanding service or 
achievements other than those listed on the service record extract 
provided to the committee by the executive branch.
    National Ethnic Coalition of Organizations (NECO) Ellis Island 
Medal of Honor 2014
    Asia-Pacific American Institute of Congressional Studies Lifetime 
Achievement Award, 2014
    Who's Who in America, 2012
    U.S. State Department Distinguished Honor Award, 2012
    Who's Who in Asian American Communities Spirit Award, 2009
    Fellowship: MIT ``Seminar 21'' fellow, 1999-2000
    Scholarship: Navy ``Admiral Arthur S. Moreau Scholarship in 
International Affairs'' to Georgetown and Oxford Universities, 1994
    Fellowship: Georgetown University ``Fellows in the School of 
Foreign Service'', 1993-1994
    Scholarship: Navy ``Harvard-Tufts Scholarship'' to the John F. 
Kennedy School of Government, 1992
    Honors: U.S. Navy League ``Stephen Decatur Award for Operational 
Competence,'' 1986

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Harry B. Harris, Jr.
    This 27th day of August, 2014.

    [The nomination of ADM Harry B. Harris, Jr., USN, was 
reported to the Senate by Chairman Levin on December 9, 2014, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on December 11, 2014.]
                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS
                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the chairman.]

                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.

                                 [all]
      
</pre></body></html>
